<html>
<title> - NOMINATIONS OF THE 113TH CONGRESS</title>
<body><pre>[Senate Hearing 113-319]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-319
 
            NOMINATIONS OF THE 113TH CONGRESS--FIRST SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED THIRTEENTH CONGRESS



                             FIRST SESSION



                               ----------                              

                    MAY 7 THROUGH DECEMBER 17, 2013

                               ----------                              



       Printed for the use of the Committee on Foreign Relations







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/











                                                        S. Hrg. 113-319

            NOMINATIONS OF THE 113TH CONGRESS--FIRST SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED THIRTEENTH CONGRESS



                             FIRST SESSION



                               __________

                    MAY 7 THROUGH DECEMBER 17, 2013

                               __________



       Printed for the use of the Committee on Foreign Relations










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/








                         U.S. GOVERNMENT PRINTING OFFICE 

88-305 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                COMMITTEE ON FOREIGN RELATIONS          

                113th CONGRESS--FIRST SESSION          

             ROBERT MENENDEZ, New Jersey, Chairman        

BARBARA BOXER, California                 BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland              JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania \1\1   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire             RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware            JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois               JOHN McCAIN, Arizona
TOM UDALL, New Mexico                     JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut           RAND PAUL, Kentucky
TIM KAINE, Virginia
EDWARD J. MARKEY, Massachusetts \2\

          Daniel E. O'Brien, Democratic Staff Director        
        Lester E. Munson III, Republican Staff Director        

--------
\1\ Senator Casey served on the committee until July 16, 2013.
\2\ Senator Markey joined the committee on July 16, 2013.

                             (II)          











                            C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              
                                                                   Page

Thursday, January 24, 2013

The committee's hearing on the nomination of John F. Kerry to be 
  Secretary of State was printed as a separate document. (S. Hrg. 
  113-163)
                                 ------                                
Tuesday, May 7, 2013.............................................     1

Hon. Deborah K. Jones, of New Mexico, to be Ambassador to Libya..     5
Hon. James Knight, to be Ambassador to the Republic of Chad......    10
                                 ------                                
Wednesday, June 19, 2013.........................................    31

Geoffrey R. Pyatt, of California, to be Ambassador to Ukraine....    33
Tulinabo Salama Mushingi, of Virginia, to be Ambassador to 
  Burkina Faso...................................................    37
                                 ------                                
Thursday, June 20, 2013..........................................    51

Daniel R. Russel, of New York, to be Assistant Secretary of State 
  for East Asian and Pacific Affairs.............................    53
                                 ------                                
Thursday, July 11, 2013..........................................    97

Hon. Victoria Nuland, of Virginia, to be Assistant Secretary of 
  State for European Affairs.....................................   102
Douglas Edward Lute, of Indiana, to be U.S. Permanent 
  Representative on the Council of the North Atlantic Treaty.....   105
Daniel Brooks Baer, of Colorado, to be U.S. Representative to the 
  Organization for Security and Cooperation in Europe............   109
                                 ------                                
Wednesday, July 17, 2013.........................................   157

Samantha Power, of Massachusetts, to be the U.S. Representative 
  to the United Nations, the U.S. Representative in the Security 
  Council of the United Nations, and to be the U.S. 
  Representative to the sessions of the General Assembly of the 
  United Nations.................................................   162
                                 ------                                
Wednesday, July 17, 2013.........................................   237

Catherine M. Russell, of the District of Columbia, to be 
  Ambassador-at-Large for Global Women's Issues..................   239

                            (iii)          

  
Tuesday, July 23, 2013...........................................   253

Hon. Morrell John Berry, of Maryland, to be Ambassador to 
  Australia......................................................   258
Daniel Clune, of Maryland, to be Ambassador to Laos..............   261
Joseph Yun, of Oregon, to be Ambassador to Malaysia..............   264
                                 ------                                
Wednesday, July 24, 2013.........................................   283

Hon. Linda Thomas-Greenfield, of Louisiana, to be Assistant 
  Secretary of State for African Affairs.........................   288
Hon. James F. Entwistle, of Virginia, to be Ambassador to the 
  Federal Republic of Nigeria....................................   299
Hon. Patricia Marie Haslach, of Oregon, to be Ambassador to the 
  Federal Democratic Republic of Ethiopia........................   302
Reuben Earl Brigety, II, of Florida, to be the U.S. 
  Representative to the African Union, with the rank and status 
  of Ambassador..................................................   304
Stephanie Sanders Sullivan, of New York, to be Ambassador to the 
  Republic of Congo..............................................   306
Patrick Hubert Gaspard, of New York, to be Ambassador to the 
  Republic of South Africa.......................................   308
                                 ------                                
Thursday, July 25, 2013..........................................   337

James Costos, of California, to be Ambassador to Spain...........   344
Denise Campbell Bauer, of California, to be Ambassador to Belgium   347
John Rufus Gifford, of Massachusetts, to be Ambassador to Denmark   349
John B. Emerson, of California, to be Ambassador to the Federal 
  Republic of Germany............................................   352
Hon. David D. Pearce, of Virginia, to be Ambassador to Greece....   355
                                 ------                                
Tuesday, July 30, 2013...........................................   371

Hon. Steve A. Linick, of Virginia, to be Inspector General, 
  Department of State............................................   373
Hon. Matthew Winthrop Barzun, of Kentucky, to be Ambassador to 
  the United Kingdom of Great Britain and Northern Ireland.......   383
Hon. Liliana Ayalde, of Maryland, to be Ambassador to the 
  Federative Republic of Brazil..................................   386
Hon. David Hale, of New Jersey, to be Ambassador to the Republic 
  of Lebanon.....................................................   389
Evan Ryan, of Virginia, to be Assistant Secretary of State for 
  Educational and Cultural Affairs...............................   391
Kirk W.B. Wagar, of Florida, to be Ambassador to the Republic of 
  Singapore......................................................   412
Daniel A. Sepulveda, of Florida, for the rank of Ambassador 
  during his tenure of service as Deputy Assistant Secretary of 
  State for International Communications and Information Policy 
  in the Bureau of Economic, Energy, and Business Affairs and 
  U.S. Coordinator for International Communications and 
  Information Policy.............................................   415
Hon. Terence Patrick McCulley, of Washington, to be Ambassador to 
  the Republic of Cote D'Ivoire..................................   418
Hon. James C. Swan, of California, to be Ambassador to the 
  Democratic Republic of the Congo...............................   420
John R. Phillips, of the District of Columbia, to be Ambassador 
  to the Italian Republic, and to serve concurrently and without 
  additional compensation as Ambassador to the Republic of San 
  Marino.........................................................   432
Hon. Kenneth Francis Hackett, of Maryland, to be Ambassador to 
  the Holy See...................................................   435
Alexa Lange Wesner, of Texas, to be Ambassador to the Republic of 
  Austria........................................................   438
                                 ------                                
Thursday, September 12, 2013.....................................   453

Hon. Nisha Desai Biswal, of the District of Columbia, to be 
  Assistant Secretary of State for South Asian Affairs...........   456
Thursday, September 19, 2013.....................................   483

Caroline Kennedy, of New York, to be Ambassador to Japan.........   490
Hon. Anne W. Patterson, of Virginia, to be Assistant Secretary of 
  State for Near Eastern Affairs.................................   509
Gregory B. Starr, of Virginia, to be Assistant Secretary of State 
  for Diplomatic Security........................................   519
Tuesday, September 24, 2013 (a.m.)...............................   559

Dwight L. Bush, Sr., of the District of Columbia, to be 
  Ambassador to the Kingdom of Morocco...........................   562
Mark Bradley Childress, of Virginia, to be Ambassador to the 
  United Republic of Tanzania....................................   565
Thomas F. Daughton, of Arizona, to be Ambassador to Namibia......   569
Matthew Harrington, of Virginia, to be Ambassador to Lesotho.....   571
Hon. Eunice S. Reddick, of the District of Columbia, to be 
  Ambassador to Niger............................................   591
John Hoover, of Massachusetts, to be Ambassador to Sierra Leone..   594
Michael S. Hoza, of Washington, to be Ambassador to Cameroon.....   596
                                 ------                                
Tuesday, September 24, 2013 (p.m.)...............................   613

Tomasz P. Malinowski, of the District of Columbia, to be 
  Assistant Secretary of State for Democracy, Human Rights, and 
  Labor..........................................................   616
Keith M. Harper, of Maryland, to be U.S. Representative to the 
  United Nations Human Rights Council............................   621
Crystal Nix-Hines, of California, to be U.S. Permanent 
  Representative to the United Nations Educational, Scientific, 
  and Cultural Organization......................................   623
Pamela K. Hamamoto, of Hawaii, to be U.S. Representative to the 
  Office of the United States and Other International 
  Organizations in Geneva........................................   626
                                 ------                                
Wednesday, September 25, 2013....................................   661
Hon. Philip S. Goldberg, of the District of Columbia, to be 
  Ambassador to the Republic of the Philippines..................   667
Hon. Robert O. Blake, Jr., of Maryland, to be Ambassador to the 
  Republic of Indonesia..........................................   669
Karen Clark Stanton, of Michigan, to be Ambassador to the 
  Democratic Republic of Timor-Leste.............................   672
Amy Jane Hyatt, of California, to be Ambassador to the Republic 
  of Palau.......................................................   675
                                 ------                                
Thursday, September 26, 2013 (a.m.)..............................   691

Hon. Rose Eilene Gottemoeller, of Virginia, to be Under Secretary 
  of State for Arms Control and International Security...........   697
Frank A. Rose, of Massachusetts, to be Assistant Secretary of 
  State for Verification and Compliance..........................   702
Adam M. Scheinman, of Virginia, to be Special Representative of 
  the President for Nuclear Nonproliferation, with the rank of 
  Ambassador.....................................................   707
                                 ------                                
Thursday, September 26, 2013 (p.m.)..............................   747

Timothy Broas, of Maryland, to be Ambassador to the Kingdom of 
  the Netherlands................................................   750
Donald Lu, of California, to be Ambassador to the Republic of 
  Albania........................................................   754
Robert A. Sherman, of Massachusetts, to be Ambassador to the 
  Portuguese Republic............................................   757
                                 ------                                
Thursday, October 3, 2013........................................   769

James Brewster Jr., of Illinois, to be Ambassador to the 
  Dominican Republic.............................................   775
Hon. Carlos Roberto Moreno, of California, to be Ambassador to 
  Belize.........................................................   778
Brian A. Nichols, of Rhode Island, to be Ambassador to the 
  Republic of Peru...............................................   781
Thursday, October 31, 2013.......................................   795

Anthony L. Gardner, of New York, to be U.S. Representative to the 
  European Union.................................................   798
Hon. Daniel W. Yohannes, of Colorado, to be U.S. Representative 
  to the Organization for Economic Cooperation and Development...   802
                                 ------                                
Wednesday, November 6, 2013......................................   819

Hon. Carolyn Hessler Radelet, of Virginia, to be Director of the 
  Peace Corps....................................................   823
Michael G. Carroll, of New York, to be Inspector General, United 
  States Agency for International Development....................   825
                                 ------                                
Thursday, November 7, 2013.......................................   851

The Honorable Heather A. Higginbottom, of the District of 
  Columbia, to be Deputy Secretary of State for Management and 
  Resources......................................................   852
Dr. Sarah Sewall, of Massachusetts, to be Under Secretary State 
  for Civilian Security, Democracy, and Human Rights.............   870
Richard Stengel, of New York, to be Under Secretary of State for 
  Public Diplomacy...............................................   874
                                 ------                                
Tuesday, November 19, 2013.......................................   905

Dana J. Hyde, of Maryland, to be Chief Executive Officer, 
  Millennium Challenge Corporation...............................   907
Mark E. Lopes, of Arizona, to be U.S. Executive Director of the 
  Inter-American Development Bank for a term of three years......   909
                                 ------                                
Wednesday, December 11, 2013.....................................   919

Catherine Ann Novelli, of Virginia, to be Under Secretary of 
  State for Economic Growth, Energy, and Environment; Alternate 
  Governor of the International Bank for Reconstruction and 
  Development; Alternate Governor of the Inter-American 
  Development Bank; Alternate Governor of the European Bank for 
  Reconstruction and Development.................................   922
Hon. Charles Rivkin, of California, to be Assistant Secretary of 
  State for Economic and Business Affairs........................   925
Hon. Tina S. Kaidanow, of the District of Columbia, to be 
  Coordinator for Counterterrorism, with the Rank and Status of 
  Ambassador at Large............................................   935
Puneet Talwar, of the District of Columbia, to be Assistant 
  Secretary of State for Political Military Affairs..............   939
Hon. Michael A. Hammer, of the District of Columbia, to be 
  Ambassador to the Republic of Chile............................   957
Kevin Whitaker, of Virginia, to be Ambassador to the Republic Of 
  Colombia.......................................................   960
Bruce Heyman, of Illinois, to be Ambassador to Canada............   962
                                 ------                                
Tuesday, December 17, 2013.......................................  1015

Hon. Helen Meagher La Lime, of the District of Columbia, to be 
  Ambassador to the Republic of Angola...........................  1017
Cynthia H. Akuetteh, of the District of Columbia, to be 
  Ambassador to the Gabonese Republic and to be Ambassador to the 
  Democratic Republic of Sao Tome and Principe...................  1020
Larry Edward Andre, Jr., of Virginia, to be Ambassador to the 
  Islamic Republic of Mauritania.................................  1023
Eric T. Schultz, of Virginia, to be Ambassador to the Republic of 
  Zambia.........................................................  1026


                      NOMINATIONS OF JAMES KNIGHT
                         AND DEBORAH KAY JONES

                              ----------                              


                          TUESDAY, MAY 7, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. James Knight, of Alabama, to be Ambassador to the Republic 
        of Chad
Hon. Deborah Kay Jones, of New Mexico, to be Ambassador to 
        Libya
                              ----------                              

    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Udall, Murphy, Corker, Johnson, 
Flake, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order. Today we are 
pleased to welcome two nominees as Ambassador to Libya and 
Chad, two difficult and important assignments. The Maghreb and 
Sahel regions are of increasing strategic significance for the 
United States, and I look forward to hearing your views on 
these critical and interlinked regions.
    We can never forget Ambassador Chris Stevens and the three 
other American public servants--Tyrone Woods, Sean Smith, and 
Glen Doherty--who tragically lost their lives in the attack on 
the United States mission in Benghazi last September. We also 
remember Anne Smedinghoff, whose death in Afghanistan just last 
month reminded us once again the danger that every diplomat 
serving abroad faces.
    The attacks on Benghazi raise questions about how we can 
best ensure that those serving in our embassies can do their 
jobs and reach outside the wire and still keep our people safe 
and secure, and I am committed to doing all we can to ensuring 
that Congress does its part in providing the tools our 
embassies need to operate as effectively and safely as possible 
around the world. I look forward to hearing the views of both 
of our nominees on balancing embassy security with the need to 
reach outside of that wire.
    That said, we cannot let the events in Benghazi overshadow 
the slow but positive progress that Libya continues to make in 
fulfilling the promise of the revolution. There is no doubt 
that progress in Libya has been messy, but the political 
process is continuing with the parliamentary elections last 
summer to form the General National Congress. We have seen the 
emergence of an active civil society that remains engaged over 
how to best move the country forward, an important ingredient 
for any democracy.
    There is no doubt that the United States enjoys a certain 
level of popularity in Libya that we saw in the aftermath of 
Ambassador Stevens' death when thousands took to the street 
against the extremists and in support of the United States. The 
critical question is how to harness that goodwill to help the 
Libyan people shape a safe, productive, and inclusive democracy 
that has a healthy relationship with the United States.
    Still, the most vital and difficult question when it comes 
to Libya is one of security. The security situation remains 
precarious. The recent car bomb outside the French Embassy in 
Tripoli, as well as kidnappings and assassination attempts on 
public officials by militia groups that still operate with 
impunity, are a challenge. The central government is unable to 
assert its control outside of Tripoli, and the broader 
challenge of disarming and reintegrating former fighters 
remains. Border security is also an issue of critical concern, 
as drugs and arms trafficking threaten to destabilize the 
region.
    These issues affect not only Libya, but the entire region. 
We have already seen how arms flows coming out of Libya have 
added new weapons to existing conflicts. Borders in the Maghreb 
and Sahel are often amorphous. Old smuggling routes and new 
trafficking paths crisscross the region. Too often, we adhere 
to our own bureaucratic boundaries between the Near East and 
North Africa on the one hand and sub-Saharan Africa on the 
other. This hearing will allow us to cross those artificial 
barriers, take the 30,000-foot view, and hopefully engage in a 
dialogue about both Libya and Chad in a regional context.
    Chad is rife with challenges. It is among the world's 
poorest countries, with the highest maternal mortality rate in 
the world, life expectancy under 50, and literacy rates that 
hover around 30 percent. It is ranked fourth in the most recent 
failed states index, but it has also stood with the French to 
restore stability and security in Mali.
    In December the United Nations Consolidated Appeal said 
Chad was ``on a steady path to sustainable recovery and 
stabilization.'' I hope that is the case. The Sahel is emerging 
as an increasingly significant strategic region, and Chad is an 
important diplomatic posting for the United States.
    So with that background, I welcome our nominees: the 
Honorable Deborah K. Jones of New Mexico, nominated to be 
Ambassador to Libya, and who will be introduced by our good 
friend and colleague, Senator Udall of New Mexico; and 
Ambassador James Knight, who comes to us from serving in 
Benghazi and previously a chief of mission in Benin, and held a 
number of other posts, mostly in Africa, in his over two 
decades with the Foreign Service. We look forward to the 
testimony of our nominees.
    With that, let me turn to Senator Corker for his opening 
statement and then we will turn to Senator Udall to make an 
introduction and we will hear from our nominees.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    I, too, welcome our two nominees and their families, and of 
course Senator Udall, who will introduce them. I thank the 
chairman for leading this full committee hearing for 
nominations. I know that typically we have our chair and 
ranking member of the respective regional subcommittees take 
some of the nomination hearings on, given the large number each 
year, but the roles that our nominees are going to play are 
very important and the opportunity to consider them is valuable 
for the full committee.
    I just traveled, not 3 months ago or so, through northern 
Africa to see what is happening with the nodes, if you will, of 
al-Qaeda that have now splintered off, and the effect that it 
is going to have on North Africa as well as the role that it is 
going to play as it relates to world stability. This certainly 
speaks of the importance of your two roles.
    In Chad we have a country that is actually helping and 
working outside of its boundaries, to help us with some of 
these issues, but it is very weak internally and has to deal 
with problems within the country. In Libya we have a situation, 
as we talked about yesterday in my office, in which a country 
that has almost no government. You can feel it when you are 
there on the ground. Much of the country appears under militia 
control, and many recent changes could have a negative effect 
on the transition of the country. So we have a special 
responsibility to maintain strong and positive engagement there 
because of the role that we played in that country.
    So I support the mission of both of you. I thank you for 
coming today. I look forward to your testimony and look forward 
to hopefully very strong and outstanding service in the region. 
So thank you both for being here.
    The Chairman. Thank you.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman, and thank you, 
Senator Corker and members of the committee. I very much 
appreciate the opportunity to introduce Ambassador Deborah 
Jones.
    Ambassador Jones has served with great distinction over a 
long career in the U.S. State Department. She also is a fellow 
New Mexican and we are proud of her accomplishments. Her family 
has lived in both New Mexico and Arizona since her grandparents 
moved from Mexico's Colonia Dublon. She has lived in Santa Fe, 
NM, since 1991. New Mexico is proud to add her to the long list 
of distinguished ambassadors who have called New Mexico home.
    Ambassador Jones has dedicated her life to public service 
and she has tried to instill those same values in her children. 
Her daughter, Isabel, recently worked as an intern in my office 
and I believe she is here today with us.
    The Chairman. How did she do?
    Senator Udall. And of course, Ambassador Jones will 
introduce the rest of her family, but I thought I should give 
special recognition there to Isabel.
    In 1982 Ambassador Deborah Jones began her career as vice 
consul of the U.S. Embassy in Buenos Aires, Argentina. While 
her career began in Latin America, she soon began to develop 
her expertise in the Middle East. She is no stranger to tough 
assignments. In the early 1990s she served as the consular 
section chief in Damascus, Syria. She was the desk officer for 
the Hashemite Kingdom of Jordan from 1995 through 1997. She 
also was Director of the Office of the Arabian Peninsula 
Affairs and Iran, Bureau of Near Eastern Affairs, and she 
served with distinction in her critical work as chief of 
mission at the U.S. Embassy in Kuwait.
    She speaks Arabic, Spanish, and French. She has an M.S. in 
national security strategy from the National War College and a 
B.A. in history from Brigham Young University.
    Following her service as Ambassador in Kuwait, she has 
worked as a senior adviser for international affairs at the 
U.S. Naval War College and a scholar in residence at the Middle 
East Institute.
    Ambassador Jones will be ready from day one to tackle the 
numerous challenges facing Libya. The Libyan people are still 
struggling to remake their country after years of despotic 
leadership. The Libyan Government has also been under strain to 
rein in militias, as Senator Corker talked about. These groups 
have attempted to use coercion and intimidation to exact 
legislative changes, such as the recently passed political 
isolation law. And a terrorist threat still exists today in 
Libya, a threat which has resulted in attacks on civilians and 
government officials and embassies, including in Benghazi.
    Ambassador Jones will be our first Ambassador since the 
tragic events at Benghazi. As we consider this nomination, it 
is important to remember the work of Chris Stevens and all our 
diplomatic personnel who died while in service to the United 
States. Ambassador Steven and his staff believed strongly that 
the value of freedom embraced by both Libyan and the American 
people would prevail.
    Ambassador Jones, if confirmed, will be taking on the 
important foreign policy task of representing the United States 
in Libya. She will be continuing the important diplomatic work 
begun by Ambassador Stevens. I have every confidence that she 
is up to the task to move us forward in Libya and in North 
Africa, which has emerged as a region of great importance to 
our country, and I am thankful for the time she has already 
spent with me discussing these vital issues.
    A peaceful and democratic Libya is important for regional 
stability. It is important for the interests of the United 
States. It is no secret that the Qadafi regime created lasting 
damage in Libya or that militant groups have attempted to take 
advantage of a government and country that is still in 
transition. Ambassador Jones will need to work with the Libyan 
Government to enhance security and the rule of law, and she 
will have the important work of balancing access with security 
at our embassies and consulates. I know she is going to do that 
well, and through our discussions I know she is mindful of this 
important job. She has a keen understanding of the 
responsibility being given to her by the President if 
confirmed.
    Mr. Chairman, thank you again for the opportunity to 
introduce Ambassador Jones. The President has wisely chosen an 
individual of great experience, expertise, and commitment, and 
I look forward to supporting such a well-qualified candidate. 
Thank you again.
    The Chairman. Thank you, Senator Udall. Thank you for all 
those insights.
    Senator Udall. And I will excuse myself here, but I am sure 
that she will do very well without me.
    The Chairman. With that, we are happy to invite Ambassador 
Jones first to give her testimony. Your full statement, both 
for Ambassador Jones and Knight, will be included in the 
record, without objection. And we ask you to summarize it for 
the purposes of being able to have a discussion, and we invite 
you, if you wish, to introduce any of your family members that 
may be here with you. We recognize that service abroad on 
behalf of the country also is a sacrifice of family, and we 
appreciate their willingness to engage in that as well.
    Ambassador Jones.

 STATEMENT OF HON. DEBORAH KAY JONES, OF NEW MEXICO, TO BE THE 
                      AMBASSADOR TO LIBYA

    Ambassador Jones. Thank you, Senator. Mr. Chairman, Ranking 
Member Corker, who has just walked out, and members of the 
committee, I am grateful and I thank you for the opportunity to 
appear before you today, and a special thank you to the 
honorable Senator from my home State of New Mexico, Senator Tom 
Udall, for introducing me to this venerable committee.
    I am grateful to the President and the Secretary for their 
confidence and their trust in nominating me to serve as 
Ambassador to Libya.
    Finally, I would like to thank my family for their support 
and their understanding, and especially my lovely daughters, 
Ana and Isabella Olson, who are with me today. Ana and Izzy 
have always been good troopers and great sports as they have 
accompanied their parents overseas or otherwise accepted the 
sacrifices that our commitment to serve has meant for them. 
They have also kept us very honest along the way, I can assure 
you, and I am so proud of them. They are great patriots.
    Two years on, the euphoria that accompanied the uprising of 
the Libyan people and the fall of Colonel Qadafi and his brutal 
dictatorship has been replaced by a sober recognition of the 
enormity and the depth of the challenges facing Libya's leaders 
and its people. As we have witnessed throughout the region, 
democratic transitions are notoriously difficult. Political 
progress is organic, not linear. Uprisings can be ignited and 
fueled by electrons, but we know from our own, often turbulent, 
past that nations are built on the brick and mortar of 
sometimes painful compromise and reconciliation through the 
difficult spadework of political dialogue.
    Libya does enjoy several advantages compared to other Arab 
States or nations like Chad who have recently been affected by 
any kind of dramatic political transition, including a 
relatively small population and significant oil wealth. 
However, we should never estimate the effects that more than 
four decades of Colonel Qadafi's rule had on the country and 
society.
    Qadafi deliberately dismantled the country's institutions, 
blocked the emergence of civil society organizations, and 
quashed any independent thought or initiative. He relied on a 
network of corruption that effectively created a vacuum from 
which Libya's brave new leaders must build democratic 
institutions, consolidate control over militias, some clearly 
hijacked by those whose purposes have nothing to do whatsoever 
with the well-being of the Libyan people, and ensure that all 
Libyans are represented and respected in the new government, 
while dispensing with the country's wealth fairly and 
transparently.
    The good news is, despite these difficult challenges, there 
are courageous and determined Libyans, including many who have 
given up comfortable lives abroad to return to rebuild their 
nation, and they have achieved some notable successes: a 
reconstituted government that pays salaries and provides 
essential goods and services; the July elections, as you 
mentioned, Senator, for the General National Council, which 
were remarkably successful and elevated technocrats over 
idealogues, forming Libya's first democratic institution in 
over four decades; and Libya's oil production, which is 
important to the stability of world oil prices, which has 
reached preconflict levels, relying largely on the efforts of 
Libyan nationals.
    The inherent optimism of Libyan patriots has fueled these 
developments, which we saw on display when thousands of Libyans 
peacefully celebrated the second anniversary of their 
revolution on February 17 this year.
    Having said that, very serious challenges remain, first and 
foremost the need for Libya's central governing authority to 
strengthen its capacity to assert sovereign monopoly over 
security throughout the country and along its vast and porous 
borders. Flows of loose weapons, including MANPADs, from Libyan 
territory into conflict zones throughout the broader region 
must be stanched. The disarming, demobilizing, and integration 
of the revolutionary brigades and militias whose efforts were 
so critical to the defeat of Qadafi's dictatorship is now 
essential for establishing a national, cohesive security 
apparatus with clear lines of command and control, which will 
in turn enable the defeat of volatile and deadly rogue militias 
and prevent a repeat of the tragedy in Benghazi, where 
Ambassador Stevens and three other of our finest public 
servants were senselessly and brutally killed. As the President 
has committed, the perpetrators must be brought to justice, and 
I will work closely with the Libyan Government to see that 
justice is realized.
    Libya must also consolidate its fledgling democratic 
foundations. Ultimately, lasting security and domestic 
stability will emerge from an inclusive constitutional process 
that delineates clear lines of authority, offers protection to 
all Libyans, and a reformed judicial system capable of 
garnering public confidence and administering a comprehensive 
national transitional justice strategy to deal with past 
Qadafi-era abuses and current criminality.
    The strategic patience that accompanies institution-
building, however, must also accommodate the urgent 
requirements to fill a security vacuum that otherwise will be 
exploited by invasive, foreign elements, including al-Qaeda's 
affiliates, whose efforts to establish a safe haven must be 
denied. In short, Libya's national garden requires careful 
tending during this fragile period.
    We have proposed a modest but important package of 
technical and other assistance for Libya during this tenuous 
transitional time and it is fair for the American people to ask 
why, at a time of our own fiscal restraint and given Libya's 
relative wealth. But it remains in our strong national interest 
to fund a limited number of activities of immediate concern to 
Libyan security and larger regional security and to lay the 
proper foundations for Libya's transition to a democratic 
state.
    Libya's leaders have asserted their willingness to pay 
their own way and indeed they are tapping their petroleum 
revenues and assets of the previous regime. As the Libyan 
Government evolves and increases its capacity and gains 
experience, for example, with steps needed to procure and 
contract, the need for United States and other external funding 
will drop away.
    Implementing these programs now, however, gives us the best 
opportunity to support and strengthen a Libyan Government that 
is fragile, but that can be a long-term partner of the United 
States and a stable actor in the region. Among these U.S.-
funded activities are programs aimed at preventing weapons 
proliferation, providing advice on transitional governance 
issues of immediate concern, such as border security, rule of 
law, human rights, and promoting a vibrant civil society. This 
seed money will pay substantial dividends if it is wisely 
husbanded.
    It is in our national interest, both strategic and 
ideological, as well as Libya's, to see it fulfill its 
potential as a stable and prosperous democracy with a fully 
developed and active civil society and the full integration and 
participation of all elements of Libyan society and geographic 
areas, with respect for human rights and international norms.
    Historic rivalries between traditional centers of culture 
and governance can produce a healthy competitive, yet 
conjoined, national dynamism and create synergies of national 
opportunity for Libya. The development of its full national 
capacity and sovereignty will enhance our own security and 
economic well-being through regional security cooperation, the 
steady production of hydrocarbons essential to continued global 
economic growth and trade, and increased opportunities for 
United States businesses to partner in Libya's renewal and 
development. A successful democratic transition in Libya, 
challenges notwithstanding, and they are significant, can be an 
engine for growth supporting the transitions taking place in 
neighboring Tunisia and Egypt.
    There does remain an extraordinary reservoir of good will 
for the United States in Libya, given our support of the 
toppling of Qadafi and our engagement following the restoration 
of diplomatic relations going back to Ambassador Gene Cretz' 
arrival in 2008. I have been very moved and touched by the 
emails I received from private Libyan citizens following the 
White House announcement of my nomination expressing their deep 
sorrow over the heinous, despicable attack on Ambassador 
Stevens and our fallen colleagues and assuring me of their 
hospitality and desire to welcome and cooperate with the new 
United States Ambassador.
    I am well aware of the unique challenges I will face in the 
current environment and if confirmed I am committed to working 
closely with this Congress in carrying on the excellent work of 
both Gene Cretz and Chris Stevens and their teams in forging 
strong ties between our governments and people, students, and 
business communities, and women and minorities, leveraging our 
instruments of national power and all the connections and the 
tools at my disposal in coordination with our allies and like-
minded powers who do share our interest in seeing a stable and 
prosperous Libya.
    Our engagement with Libya originates long before the 2011 
revolution and includes historic cooperation during World War 
II and the cold war, as well as our cooperative efforts in 
developing Libya's oil and gas sector since 1959.
    Last, but not least, I am deeply conscious of the 
responsibility I would have as chief of mission for the safety 
and security of the approximately 4,000 Americans residing in 
Libya and for that of those individuals attached to our mission 
there, as we strive to balance safety considerations with a 
deep desire to engage and do the work of the American people, 
as expressed by Members of this Congress and this 
administration. In this regard, I would like to express my deep 
gratitude to my colleagues in Diplomatic Security and to our 
United States Marine Corps, other Armed Forces members, and 
other U.S. agency colleagues whose heroic efforts make it 
possible for us to continue our daily work there.
    Honorable members of this committee, it has been my 
privilege and great honor to have spent 31 years in the service 
of my country, working with nine administrations, to champion 
America's interests and values and expand the reach of freedom 
through the conduct of diplomacy with nations at war and at 
peace, most in some sort of political transition, some in 
poverty, and others enjoying great wealth. Should you choose to 
confirm me, it will be my honor and my sworn duty to lead our 
mission in Libya as we meet the challenges of establishing and 
consolidating the foundations of a strong, prosperous, and 
democratic Libya, allied with the United States in a mutually 
beneficial relationship.
    Thank you and I look forward to your questions.
    [The prepared statement of Ambassador Jones follows:]

              Prepared Statement of Hon. Deborah K. Jones

    Mr. Chairman, Ranking Member Corker, and members of the committee, 
thank you for the opportunity to appear before you today, and a special 
thank you to the honorable Senator from my home State of New Mexico, 
Senator Tom Udall, for introducing me to this venerable committee. I am 
grateful to the President and the Secretary for their confidence and 
trust in nominating me to serve as Ambassador to Libya. Finally, I 
would like to thank my family for their support and understanding, and 
especially my lovely daughters, Ana and Isabella Olson, who are with me 
today; Ana and Izzy have always been good troopers and great sports as 
they've accompanied their parents overseas or otherwise accepted the 
sacrifices our commitment to serve has meant for them. They've also 
kept us honest along the way. I am so proud of them.
    Two years on, the euphoria that accompanied the uprising of the 
Libyan people and the fall of Qadhafi and his brutal dictatorship has 
been replaced by a sober recognition of the enormity and depth of the 
challenges facing Libya's leaders and its people.
    As we have witnessed throughout the region, democratic transitions 
are notoriously difficult, and political progress is organic, not 
linear. Uprisings can be ignited and fueled by electrons, but we know 
from our own, often turbulent, history that nations are built on the 
brick and mortar of sometimes painful compromise and reconciliation. 
Libya does enjoy several advantages compared to other Arab States 
recently affected by dramatic political transition, including a 
relatively small population and significant oil wealth. However, we 
should not underestimate the effects that more than four decades of 
Colonel Qadhafi's rule had on the country and society. Colonel Qadhafi 
deliberately dismantled the country's institutions, blocked the 
emergence of civil society organizations, and quashed any independent 
thought or initiative. He relied on a network of corruption that 
effectively created a vacuum from which Libya's brave new leaders must 
build democratic institutions, consolidate control over militias (some 
clearly hijacked by those whose purposes have nothing to do with the 
well-being of the Libyan people), ensure that all Libyans are 
represented and respected in the new government, and dispense with the 
country's wealth fairly and transparently.
    The good news is that, despite these difficult challenges, 
courageous and determined Libyans, including many who've given up 
comfortable lives abroad to return to rebuild their nation, have 
achieved notable successes: a reconstituted government is paying 
salaries and providing essential goods and services to the Libyan 
people; last July's elections for the General National Council were 
remarkably successful and have elevated technocrats over ideologues, 
forming Libya's first democratic institution in over four decades; and 
Libya's oil production--important to the stability of world oil 
prices--has reached preconflict levels, relying largely on the efforts 
of Libyan nationals. The inherent optimism of Libyan patriots has 
fueled these developments, which we saw on display when thousands of 
Libyans peacefully celebrated the second anniversary of their 
revolution on February 17 this year.
    That said, very serious challenges remain, first and foremost the 
need for Libya's central governing authority to strengthen its capacity 
to assert sovereign monopoly over security throughout the country and 
along its vast and porous borders and to consolidate its democratic 
foundations. Flows of loose weapons, including MANPADS, from Libyan 
territory into conflict zones throughout the broader region must be 
staunched. The disarming, demobilizing and integration of the 
revolutionary brigades and militias whose efforts were so critical to 
the defeat of Qadhafi's dictatorship is essential for establishing a 
national, cohesive security apparatus with clear lines of ``command and 
control.'' This will in turn enable the defeat of volatile and deadly 
rogue militias, and prevent a repeat of the tragedy in Benghazi, where 
Ambassador Stevens and three other of our finest public servants were 
senselessly killed; as the President has committed, the perpetrators 
must be brought to justice, and if confirmed, I will work closely with 
the Libyan Government to see that justice realized.
    Ultimately, lasting security and domestic stability will emerge 
from an inclusive constitutional process that delineates clear lines of 
authority and offers protection to all Libyans, and a reformed judicial 
system capable of garnering public confidence and administering a 
comprehensive national transitional justice strategy to deal with past 
Qadhafi-era abuses and current criminality. The strategic patience that 
accompanies institution-building, however, must also accommodate the 
urgent requirements to fill a security vacuum that otherwise will be 
exploited by invasive, foreign elements, including al-Qaeda's 
affiliates, whose efforts to establish a safe haven must be denied. In 
short, Libya's national garden requires careful tending during this 
fragile period.
    We have proposed a modest but important package of technical and 
other assistance for Libya during this tenuous transitional period. It 
is fair for the American people to ask why, at a time of our own fiscal 
restraint and given Libya's relative wealth. It remains in our strong 
interest to fund a limited number of activities of immediate concern to 
Libyan security and larger regional security and to lay the proper 
foundations for Libya's transition to a democratic state. Libya's 
leaders have asserted their willingness to pay their own way, and 
indeed they are tapping their petroleum revenues and assets of the 
previous regime. As the Libyan Government evolves and increases its 
capacity and gains experience, for example, with the steps needed to 
procure and contract, the need for U.S. and other external funding will 
drop away. Implementing these programs now gives us the best 
opportunity to help support and strengthen a Libyan Government that can 
be a long-term partner of the United States and a stable actor in the 
region. Among these U.S.-funded activities are programs aimed at 
preventing weapons proliferation; providing advice on transitional 
governance issues of immediate concern such as border security, rule of 
law, and human rights, and promoting a vibrant civil society. This seed 
money will pay substantial dividends if wisely husbanded.
    It is in our national interest, both strategic and ideological, as 
well as Libya's, to see it fulfill its potential as a stable and 
prosperous democracy, with a fully developed and active civil society 
and the full integration and participation of all elements of Libyan 
society and geographic areas, with respect for human rights and 
international norms. Historic rivalries between traditional centers of 
culture and governance can produce a healthy competitive yet conjoined 
national dynamism and create synergies of national opportunity. Libya's 
development of its full national capacity and sovereignty will enhance 
our own security and economic well-being through regional security 
cooperation, the steady production of hydrocarbons essential to 
continued global economic growth and trade, and increased opportunities 
for U.S. businesses to partner in Libya's renewal and development. A 
successful democratic transition in Libya, challenges notwithstanding, 
can be an engine for growth supporting transitions taking place in 
neighboring Tunisia and Egypt.
    There remains an extraordinary reservoir of good will for the U.S. 
in Libya given our support for the toppling of Qadhafi and our 
engagement following the restoration of diplomatic relations, going 
back to Ambassador Cretz's arrival in 2008. I have been touched by the 
e-mails I received from private Libyan citizens following the White 
House announcement of my nomination, expressing their deep sorrow over 
the heinous attack on Ambassador Stevens and our fallen colleagues and 
assuring me of their hospitality and desire to welcome and cooperate 
with a new U.S. ambassador. I am well aware of the unique challenges I 
will face in the current environment. If confirmed, I am committed to 
working closely with this Congress in carrying on the excellent work of 
both Gene and Chris and their teams in forging strong ties between our 
governments and people, students and business communities, women and 
minorities, leveraging our instruments of national power, and all the 
connections and tools at my disposal, in coordination with our allies 
and like-minded powers, who share our interest in seeing a stable and 
prosperous Libya. American's engagement with Libya originates long 
before the 2011 revolution, and includes, for example, our historic 
cooperation during World War II and the cold war, as well as our 
cooperative efforts in developing their oil and gas sector since 1959.
    Last but not least, I am deeply conscious of the responsibility I 
have as Chief of Mission for the safety and security of the 
approximately 4,000 Americans residing in Libya, and for that of those 
individuals attached to our mission there, as we strive to balance 
safety considerations with a deep desire to engage and do the work of 
the American people, as expressed by Members of this Congress and this 
administration. In this regard, I would like to express my deep 
gratitude to my colleagues in Diplomatic Security, and to our U.S. 
Marine Corps, other armed forces members and other U.S. Government 
agency colleagues whose heroic efforts make it possible for us to 
continue our work there.
    Honorable members of this committee, it has been my privilege and 
great honor to have spent 31 years in the service of my country, 
working with nine administrations, to champion America's interests and 
values and expand the reach of freedom through the conduct of diplomacy 
with nations at war and at peace, most in some sort of political 
transition, some in poverty and others enjoying great wealth. Should 
you choose to confirm me, it will be my honor and my sworn duty to lead 
our mission in Libya as we meet the challenges of establishing and 
consolidating the foundations of a strong, prosperous, and democratic 
Libya allied with the United States in a mutually beneficial 
relationship.
    Thank you and I look forward to your questions.

    The Chairman. Thank you.
    Ambassador Knight.

     STATEMENT OF HON. JAMES KNIGHT, OF ALABAMA, TO BE THE 
               AMBASSADOR TO THE REPUBLIC OF CHAD

    Ambassador Knight. Thank you, Senator. Mr. Chairman, 
Ranking Member Corker, and members of the committee, I am 
deeply honored to appear today as the President's nominee to be 
the next Ambassador of the United States of America to the 
Republic of Chad. I thank President Obama and Secretary Kerry 
for the confidence and trust they have shown by nominating me 
for this position. If confirmed, I will work with you all to 
best represent the interests and values of the American people 
to the Government and people of Chad at a moment when Chad is 
becoming a stronger partner for the United States and its 
allies in a critical region.
    I am pleased that my wife, Dr. Amelia Bell Knight, has 
joined me today. Amelia has been my closest partner and 
strongest supporter throughout my Foreign Service career.
    Mr. Chairman, members of the committee, Chad is a vast 
country, positioned at one of the most important crossroads of 
Africa. For many centuries the peoples and cultures of sub-
Saharan Africa and the Middle East have shared Chad's richly 
diverse environment. These differing traditions have bequeathed 
to Chad a unique culture, but one which has faced great tension 
and turbulence since its independence in 1960.
    Chad has been regularly plagued by civil war and has 
suffered periodic struggles with Libya, Sudan, and other 
neighboring countries. Today Chad is emerging from this legacy 
of internal turmoil and regional conflict. Its rapprochement 
with Sudan in 2010 has supported Chad's internal stability and 
the stability of the region as a whole. Chad now plays a 
positive role in the region, contributing to regional mediation 
and peacekeeping efforts.
    Notably, Chad has been a key partner in the international 
community's efforts to halt extremism in Mali, participating in 
and sustaining heavy casualties in the international military 
intervention in Mali. Chad intends to maintain troops there as 
a key member of an eventual United States peacekeeping 
operation. In addition, Chad's leadership in the Economic 
Community of Central African States, the Community of Saharan 
and Sahelian States, and the Central African Forest Commission 
advances the hope that we all share for the future of a more 
prosperous and stable Sahel and Central Africa.
    However, ongoing instability and conflict in bordering 
countries, such as we are now seeing in Chad's southern 
neighbor, the Central African Republic, threatens the progress 
Chad has recently enjoyed. Chadian President Deby has led 
regional negotiations to achieve a broad-based and transparent 
transition government in the Central African Republic and Chad 
has contributed troops to the Central African Multinational 
Force Peacekeeping Mission there.
    Chad currently hosts some 375,000 refugees from Sudan and 
the Central African Republic and new arrivals continue to cross 
the border due to ongoing conflict. The Government of Chad 
maintains a cooperative relationship with the humanitarian 
community, thereby ensuring life-saving assistance is provided 
to affected populations.
    Chad is also subject to the growing regional threat of 
wildlife trafficking, whereby increasingly armed poachers cross 
Central African borders to attack a threatened elephant 
population. This tragedy also impacts the economic livelihoods 
of local communities, as well as security and the rule of law.
    In addition to regional threats, Chad faces great domestic 
challenges. International investment in Chad is severely 
constrained by its geographical isolation, limited 
infrastructure, lack of appropriately skilled workers, high 
import duties, and widespread corruption. In particular, the 
Government of Chad must improve its management of its petroleum 
resources. Chad's oil reserves are in decline, adding urgency 
to its need to overcome its persistent underdevelopment. While 
the Government of Chad has expressed its commitment to 
strengthening human rights protections, its capacity to 
implement that commitment must grow.
    The people of Chad suffer from great poverty, illiteracy, 
disease, and high infant mortality. Its history of 
authoritarian government, punctuated by coups and civil war, 
complicate the consolidation of democracy, the building of 
Chad's capacity for good governance, and the fulfillment of 
Chad's economic potential.
    Mr. Chairman, honorable members of the committee, as you 
know, I have worked in the Sahel and elsewhere to address these 
kinds of issues for many years. In Iraq, in my current 
assignment, I have had responsibility for refugees, development 
assistance, and police reform. In Benin, as a master I 
successfully oversaw the completion of the country's Millennium 
Challenge Corporation compact, which addressed challenges 
similar to those confronting Chad today. In Angola, I helped 
Africa's second-largest oil producer and its partners improve 
management of its petroleum resources and revenue. Before 
entering the Foreign Service, I worked as a development 
specialist in Niger in an area similar to northern Chad in many 
ways.
    If confirmed, I look forward to energetically addressing 
the strategic goals of the United States in a wider and fuller 
partnership with the government and people of Chad. In 
particular, if confirmed I will support the Government of 
Chad's efforts to counter the growing threats to regional 
security and to maintain and widen its regional engagements. If 
confirmed, I will encourage and support the Government of 
Chad's pursuit of democratic reform, its capacity and will to 
implement better governance, and its respect for human rights. 
I will support and assist the Government of Chad and the 
international community to assure sound use of humanitarian 
assistance and improved capacity in the area of disaster 
management.
    If confirmed, my highest priorities as the Ambassador of 
the United States will be to ensure the safety and welfare of 
all Americans in Chad and the advancement of United States 
interests.
    Mr. Chairman and members of the committee, please accept my 
thanks for this opportunity to appear before you today. I look 
forward to your questions.
    [The prepared statement of Ambassador Knight follows:]

                Prepared Statement of Hon. James Knight

    Mr. Chairman, Ranking Member Corker, and members of the committee, 
I am deeply honored to appear today as the President's nominee to be 
the next Ambassador of the United States of America to the Republic of 
Chad. I thank President Obama and Secretary Kerry for the confidence 
and trust they have shown by nominating me for this position. If 
confirmed, I will work with you all to best represent the interests and 
values of the American people to the government and people of Chad, at 
a moment when Chad is becoming a stronger partner for the United States 
and its allies in a critical region.
    I am pleased that my wife, Dr. Amelia Bell Knight, has joined me 
today. Amelia has been my closest partner and strongest supporter 
throughout my Foreign Service career.
    Mr. Chairman and members of the committee, Chad is a vast country 
positioned at one of the most important crossroads of Africa. For many 
centuries the peoples and cultures of sub-Saharan Africa and the Middle 
East have shared Chad's richly diverse environment. These differing 
traditions have bequeathed to Chad a unique culture, but one which has 
faced great tension and turbulence since its independence in 1960. Chad 
has been regularly plagued by civil war, and has suffered periodic 
struggles with Libya, Sudan, and other neighboring countries.
    Today Chad is emerging from this legacy of internal turmoil and 
regional conflict. Its rapprochement with Sudan in 2010 has supported 
Chad's internal stability and the stability of the region as a whole. 
Chad now plays a positive role in the region, contributing to regional 
mediation and peacekeeping efforts. Notably, Chad has been a key 
partner in the international community's efforts to halt extremism in 
Mali, participating in--and sustaining casualties in--the international 
military intervention in Mali. Chad intends to maintain troops there as 
a key member of an eventual United Nations peacekeeping operation. In 
addition, Chad's leadership in the Economic Community of Central 
African States (ECCAS), the Central African Forest Commission 
(COMIFAC), and the Community of Sahelian States (CEN-SAD) advances the 
hope we all share for the future of a more prosperous and stable Sahel 
and central Africa.
    However, ongoing instability and conflict in bordering countries, 
such as we are now seeing in Chad's southern neighbor, the Central 
African Republic (CAR), threatens the progress Chad has recently 
enjoyed. Chadian President Deby has led regional negotiations to 
achieve a broad-based and transparent transition government in the CAR, 
and Chad has contributed troops to the regional FOMAC peacekeeping 
mission there. Chad currently hosts some 373,000 refugees from Sudan 
and the Central African Republic, and new arrivals continue to cross 
the border due to ongoing conflict. The Government of Chad maintains a 
cooperative relationship with the humanitarian community ensuring 
lifesaving assistance is provided to affected populations. Chad is also 
subject to the growing regional threat of wildlife trafficking, whereby 
increasingly armed poachers cross central African borders to kill a 
threatened elephant population, which in and of itself is a tragedy 
that also impacts the economic livelihoods of local communities as well 
as security and rule of law.
    In addition to regional threats, Chad faces great domestic 
challenges. International investment in Chad is severely constrained by 
its geographic isolation, limited infrastructure, lack of appropriately 
skilled workers, high import duties, and widespread corruption. In 
particular, the Government of Chad must improve its management of its 
petroleum resources. Chad's oil reserves are in decline, adding urgency 
to its need to overcome its persistent underdevelopment. While the 
Government of Chad has expressed its commitment to strengthening human 
rights protections, its capacity to implement that commitment must 
grow. The people of Chad suffer from great poverty, illiteracy, 
disease, and high infant mortality. Its history of authoritarian 
government, punctuated by coups and civil war, complicate the 
consolidation of democracy, the building of Chad's capacity for good 
governance, and the fulfillment of Chad's economic potential.
    Mr. Chairman, honorable members of the committee, as you know I 
have worked in the Sahel and elsewhere to address these kinds of issues 
over many years. In Iraq, in my current assignment, I have had 
responsibility for refugees, development assistance, and police reform. 
In Benin, as Ambassador, I successfully oversaw the completion of the 
country's Millennium Challenge Corporation Compact, which addressed 
challenges similar to those confronting Chad today. In Angola, I helped 
Africa's second-largest oil exporter and its partners improve 
management of its petroleum resources and revenue. Before entering the 
Foreign Service, I worked as a development specialist in Niger, in an 
area similar to northern Chad in many ways. If confirmed, I look 
forward to energetically addressing the strategic goals of the United 
States in a wider and fuller partnership with the government and people 
of Chad. In particular, I will support the Government of Chad's efforts 
to counter the growing threats to regional security and to maintain and 
widen its regional engagement. I will encourage and support the 
Government of Chad's pursuit of democratic reform, its capacity and 
will to implement better governance, and its respect for human rights. 
I will support and assist the Government of Chad and the international 
community to assure sound use of humanitarian assistance and improved 
capacity in the area of disaster management. If confirmed, my highest 
priorities as the Ambassador of the United States will be to ensure the 
safety and welfare of all Americans in Chad and the advancement of U.S. 
interests.
    Mr. Chairman and members of the committee, please accept my thanks 
for this opportunity to appear before you today. I look forward to your 
questions.

    The Chairman. Well, thank you both for your testimonies.
    Let me begin with Ambassador Jones. It seems that the 
Defense Minister of Libya announced his resignation this 
morning, and the situation in Libya appears to have hit a 
challenging point. Over the weekend, gunmen intimidated the 
Parliament into passing a political isolation law to ban anyone 
who served in Qadafi's government, including many of the 
professional technocrats in Libya that will be needed to 
succeed in the future. It sets a dangerous precedent as these 
militias continue to lay siege to Libyan ministries.
    What do the events of the last few days portend for Libya's 
future, and how do we help secure a democracy if it is being 
held hostage by armed militias outside of Parliaments? And what 
impact do we think the political isolation law will have on 
Libya's democratic development?
    Ambassador Jones. I think, Senator, you are reading my mind 
this morning as I listened to the news over the last several 
days. It is definitely a challenge. But I believe again, if 
confirmed, one of the reasons I believe we need to get an 
ambassador out there is to provide the support to the 
government that will help it to enhance its control over these 
militias.
    The Libyan people deserve far better than this. They 
struggled bravely to throw off 40 years of intimidation, not--I 
do not believe in exchange for another government of 
intimidation or intimidation by armed groups or militias. So 
again, working on the three--you have addressed in your comment 
there the three stools--the three legs of the stool that are 
going to be critical to Libya's development, which is again: 
security, strengthening Libya's security through supporting its 
government, and training of a professional military and 
security regime, which we have already started to do in many 
ways, disarming the militias, of course, but also engaging with 
them on governance and getting them--to work with them, to look 
at the impact of these kinds of laws, this isolation law, and 
the impact that would have on their unity in the future as a 
government; and civil society, which is the critical part of 
Libya. The role that civil society has played, the role of 
women already has been significant. The Libyan people 
themselves are going to have to make their voices heard and we 
will help them with that in ensuring that we do not go back to 
a situation of intimidation.
    But again, it is one of the reasons I feel an urgency to 
get on the ground, to have an Ambassador there who can actually 
guide our efforts on this side of the ocean, as well as guiding 
and helping the Libyans to achieve some of the objectives that 
they want to strengthen that security and to disarm the 
militias.
    The Chairman. You mentioned civil society as part of the 
equation. How do you intend, in the security environment that 
you will be in, to reach out to civil society inside of Libya 
as part of fostering a greater, more pluralistic participation 
by its society?
    Ambassador Jones. Well, that is a good question. That is 
where I am going to have to look at the balance every single 
day of this. You know, an ambassador does not wake up without 
considering security. That just goes part and parcel with the 
job. You know, when I was the Ambassador in Kuwait, even though 
it was a completely different or a very different situation, I 
did not wake up one morning without thinking what possibly 
could happen to us that day. In fact, in Kuwait of all places, 
that was the place where I cancelled the Marine Ball the day of 
the ball. Now, you have to know what that means in Kuwait, 
because of course the invasion of Iraq--the liberation of 
Kuwait was the largest Marine deployment since World War II. So 
it is a big event for us there.
    But a combination of factors, with intelligence and some 
other anomalies, led me the day of the ball, on a Friday, to 
cancel the ball and to wake up, to rouse the Emir's brother in 
fact, who was the head of their security who protected the 
Embassy, and ask him to swap out all of his guards.
    I take this very seriously, our security. That said, that 
said, I think there are a number of ways that we can connect. 
We have a package--the situation is changing all the time. It 
is very unstable. We all know that. It is something we look at 
every day. We are working close--we have a package, though, for 
travel that allows us to get out, not as much as we might like. 
But there are also, fortunately, other ways of connecting with 
people, whether it is through media, through Skype, through 
WhatsUp, through all kinds of connections within Libya, to have 
us be able to talk even while we might not be as physically 
present the way we might like in other environments.
    But again, sir, until I get out on the ground and see what 
that is, first thing I do with every mission and I have done in 
the past is to do a terrain walk with my security officer. I 
did it in Kuwait, I did it in Istanbul when I was principal 
officer. I expect to do that in Tripoli as well. I will get out 
and we will walk the walk. We will see what we can do. We will 
talk about how we can extend--talk about meeting people in 
other locations. People can travel out, too. We can take 
advantage of trips outside of Libya. We can take advantage of 
other locations inside.
    I am just going to have to be creative, and we will look at 
that as we go, sir.
    The Chairman. To both of you: Chad and Libya share a porous 
border and a rough neighborhood by any definition. What do you 
see as some of the key regional challenges, and how could 
chiefs of mission such as yourselves work together to improve 
U.S. ability to respond and help shape development in the 
region?
    Ambassador Knight. Thank you, Mr. Chairman. It is clear 
that us being here together today, myself and Ambassador Jones, 
speaks to the importance of a shared approach to regional 
threats in the area that we will both be--in which we will both 
be working if confirmed.
    The importance of this, of coordination, is I think 
absolutely key because, as you know, there has been a historic 
division in the State Department between the Maghreb in the 
northern part of Africa and the rest. That is now being 
addressed specifically by the creation of a Sahel-Maghreb 
working group at the Secretary's level in the State Department. 
I think that is a good first step in this direction.
    It is clear that we are also going to have to maintain 
personal communication and personal coordination of our efforts 
to address the threats as they emerge along our shared border. 
Again, it is also important to recognize that it is not simply 
along the Libyan-Chadian border where the threats arise, but 
there is a regional dimension to this which extends from 
Senegal all the way to the other side of Sudan.
    If confirmed, I look forward to working with all my 
colleagues in this effort to address the continuing and 
continuingly worrisome threats of terrorism in this area.
    Ambassador Jones. Senator, I would also--I would second 
everything that Jim has said. I would also say that the problem 
has gone even beyond the Sahel. We know that the flow of 
weapons from Libya is going, reaching as far as Syria and other 
places of interest to us, in Gaza, that matter in a very 
challenging security environment.
    I think more than ever we recognize that working with these 
countries is not a bilateral issue; it is a global issue. I 
intend to not only draw on my colleagues around all of our 
resources at State, Defense Department, but also with other 
countries who have assets and interests in the region who are 
like-minded, who can support our efforts to disarm, which we 
have already been working on with the Libyans, to dismantle 
MANPADs, to locate and destroy chemical weapons stores and a 
lot of the material and the things that have been left over 
from, first of all, Qadafi's collection of weapons over the 
years, of ordnance and other things, but also of the results of 
their own civil war, of their own uprisings there.
    The Chairman. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you both for your testimony and again, for the 
families, for being here.
    I guess, Ambassador Jones, that the first question I would 
ask is: What have you done to cause people to send you to 
Libya? [Laughter.] I know that we talked a little bit about 
that yesterday in my office.
    My serious question is about security. And while we talked 
a little bit about the safety issue and I know by my own travel 
through there in October, right after the unfortunate events in 
Benghazi--you stated the importance of security. Just for the 
record, if you would just one more time emphasize that, I would 
appreciate it.
    Ambassador Jones. That is security in Libya and how we 
will----
    Senator Corker. For your personnel at the Embassy.
    Ambassador Jones. For my personnel? Absolutely, sir. Let me 
say that I think our daughters are asking what they did to us 
to have--their dad is in Islamabad and I am going out to 
Tripoli. I think they are wondering what they did to cause 
that. But it is really just to pay for their college, sir. 
[Laughter.]
    What I would say, though, on security--and again this is 
something that is--well, as we know, it is deadly serious for 
us, how do we manage security in the building and without. I 
would like to say that over the course of my career--and even 
though I know my first assignment no one mentions because it 
sounds cushy. It was Buenos Aires. It happened also to be 
during the Falklands-Malvinas war and right after our--recently 
after our Embassy in Tripoli--``Tripoli''; our Embassy in 
Teheran had been overrun, which changed the nature of 
diplomatic practice and made people worry. If we were not safe 
any more under the Vienna Convention in our embassies, how were 
we going to make this work?
    I have throughout my career and certainly in later years 
and certainly as Ambassador and principal officer always had a 
direct connection and picked up the phone with Washington, 
worked very closely with security at post, worked very closely 
with DS and with other agencies at post who have access to 
intelligence and other assets. It is the role of the 
Ambassador. The Ambassador is the principal security officer at 
post and it is the Ambassador who has to decide whether to 
allow people to travel here or there, whether to ask for 
additional assets, whether to insist on additional assets. And 
if you do not get the answers you need, you pick up the phone 
and you speak to the people who are responsible for that, sir.
    That is what I intend to do. That is what I have always 
done. There are many ways to approach that and to continue to 
press that.
    We do know that in the past, yes, we had----
    Senator Corker. I got it, I got it. Thank you.
    We were involved in Libya and certainly have a 
responsibility there because of that involvement. But it would 
appear to me--and I think I would love to hear your comments--
that we have underestimated the challenges there. I have met 
with government officials there and it is really not a 
government. I mean, when you look at the responsibilities that 
they have and you look at the militias throughout the country, 
it is almost remarkable that the country's functioning.
    Do you think we have underestimated the challenges there?
    Ambassador Jones. Senator, until I get out on the ground--
if there is one thing I have learned----
    Senator Corker. Based on the briefings that you have had?
    Ambassador Jones. Based on briefings, I do not know that we 
underestimated. I think there has been frustration. I certainly 
know that we have had a setback in these last 8, 9 months 
without having an ambassador on the ground. It has really set 
us back in our efforts to support the government there.
    You know, beyond that, could I say, did we underestimate? I 
think that again progress after these kinds of transitions, it 
is unpredictable, it is organic, it is not linear, it is not 
formulaic. I think we just have to double our efforts because 
what I do know is that if we are not there making the effort we 
most certainly will lose out. We have never won a battle we 
have not shown up for.
    Senator Corker. So I know again that you want to get on the 
ground. You want to see how things are, and they are changing 
daily. So your briefings a few weeks ago regarding Libya today 
would be very different, I think. But based on what you know 
today, what is it--typically, when an ambassador comes in in 
the beginning, where you really lay the groundwork for what you 
are going to do. Over the first 6 months you are there, what 
are your goals?
    Ambassador Jones. Obviously, I think principal goal is to 
address the security vacuum, to address the capacity vacuum of 
the government in terms of its security. Again, how you 
approach that comes from a different--a number of different 
areas, arenas. It is not purely training and military training 
or security training or intelligence, although all of those 
things are hugely important.
    But I think what we have also seen in the aftermath of 
Benghazi was the importance of civil society as well and the 
importance of the Libyan people themselves making their voices 
heard and getting involved in supporting and holding to what 
they have fought so hard to gain, which is this democratic 
transition. I think they have more skin in this game than 
anyone else and they know that.
    Senator Corker. What happens in that transition if we end 
up, especially with the law that passed on Sunday and some of 
the resignations that are taking place and others that are 
being pursued--what happens to our relationship if we end up 
with militiamen basically in these Cabinet posts?
    Ambassador Jones. Sir----
    Senator Corker. Or I might say when we end up with 
militiamen in the Cabinet posts.
    Ambassador Jones. Well, I am not going to accept that 
premise quite yet, Senator. But I will say that we have to be 
prepared to engage with anyone who is committed to a democratic 
transition in Libya through peaceful means.
    Senator Corker. What if it becomes an Islamic state?
    Ambassador Jones. Again, I think we have to be--you know, 
people talked about the Muslim Brotherhood there. We have to be 
looking at many layers there, whether cutting off support for 
extremist groups, for extremist ideologies, however that 
support, whatever form that support may take. We also at the 
same time need to be engaging with those groups who have again 
eschewed violence, who are committed to a democratic Libya that 
is representative.
    Until I get on the ground, until I can do more there, I 
just am not prepared to rule it out--to rule anything in or 
rule anything out at this stage. I am not saying it is simple. 
It is not.
    Senator Corker. As you are in the briefings that you are 
having--and I know you have played an important role at the 
State Department recently--how do you think the issues that we 
are dealing with in Libya right now--where we were involved, 
but not overly involved. We have ended up being where we are in 
Libya today because of that. And we have Syria, which is 
developing and has some similar characteristics, not all.
    How do you think that our experiences in Libya are shaping 
our responses as it relates to Syria?
    Ambassador Jones. I would not be in a position to--I have 
not been involved with the policymaking in Syria. I think 
clearly there are many challenges out there. I think all of 
these challenges are indicative of the transitions. People want 
change. I think if there is one lesson we have learned, it is 
that authoritarian and autocratic governments do not develop 
civil society that can sustain itself in the immediate 
aftermath of change, and that is where we need to be prepared 
to aid and strengthen and step in and support.
    If anything, it gets back--I was reading the other day--I 
tell people there are three books I am recommending to people 
before I go to Libya. One is--I am giving them a pitch; I am 
not getting royalties--is Gordon Woods, but he is a Brown 
author, ``The American Revolution.'' The second is Machiavelli, 
``The Prince''; and the third is ``The Federalist Papers,'' to 
look at how the idea of sovereignty emerges from the people and 
how people in these places also need to understand that they 
are not yielding authority; they are creating their authority 
as a nation when they allow--when they vote, when they 
participate, and when that is part of their--that is a 
manifestation, that national strength is a manifestation of 
national will, of the people's will, and that is the lesson the 
Libyans and the Syrians and others have to learn and have to 
work with. It has taken us a progressive long while as well.
    Senator Corker. Thank you.
    Ambassador Jones. Thank you.
    Senator Corker. Mr. Chairman, I can stop or keep going, 
since no one else is here. Why don't you go ahead and then I 
will go again.
    The Chairman. Go ahead.
    Senator Corker. OK. I might move on to Chad for a second. 
Thank you very much for your testimony.
    What do you see most recently in Mali--I know that Chad has 
certainly played a role there. What do you see the threat to 
Chad being relative to Mali?
    Ambassador Knight. Thank you, Senator. My sense is that--
and I think this is a widely shared view--is that the 
Government of Chad sees the regional threats very clearly. The 
opportunities that it now enjoys are because since 2010 there 
has been a possibility of greater domestic stability in Chad 
because the regional threats have subsided.
    Because of that, the threat that was posed by the 
terrorists and insurgents in Mali were perceived as existential 
threats to the Government of Chad as well and they eagerly 
pursued the opportunity to address those threats before they 
became more immediately looming over the government and people 
of Chad.
    Again, they have done a superb job there. They have been 
the strongest contingent both in terms of numbers and in terms 
of proactive engagement with the insurgents and terrorists of 
any of the African forces. They have worked very closely and 
effectively with the French.
    Again, this engagement began with their own strongly driven 
desire to participate in this at the earliest possible 
opportunity. For that reason, as I am sure you know, they self-
deployed rather than await for the international community to 
provide that kind of support.
    Senator Corker. How fragile do you see the Government of 
Chad being? How fragile?
    Ambassador Knight. I do not consider it to be fragile so 
much as it lacks the capacity it needs to be effective. As you 
now, the President has been in power since the 1990s. He just 
recently won a fourth term. The government and people of Chad 
appear to be comfortable with the way the government is 
emerging toward a more democratic and inclusive approach. 
Again, what one sees essentially since the rapprochement with 
Sudan in 2010, a progressively greater interest in acquiring 
the capacity to govern, acquiring the capacity to support the 
urgently required economic development of Chad, and the wider 
pursuit of human rights and the respect for democracy across 
the board, both in terms of what it does directly as a 
government, how civil society is taking a broader role, and 
again its openness toward international efforts to help it 
achieve that state.
    Senator Corker. I get the sense there is some question 
about the interagency coordination that is been taking place in 
Chad. Do you have any comments regarding that, and the lack 
thereof?
    Ambassador Knight. No, sir. I have not heard about 
significant problems that have in fact impeded any U.S. 
Government policies or objectives there within Chad itself. The 
larger issue as I understand it and considered to be the most 
urgent is the regional effort to make sure that all our efforts 
across agencies are coordinated, harmonized, and mutually 
beneficial in terms of their pursuit.
    My best guess is that the kinds of issues that you may be 
referring to are momentary and addressed relatively effectively 
by Ambassador Boulware and his team in N'Djamena.
    Senator Corker. It is noteworthy that both of you are 
actually going to be involved in the countries that you are in, 
but obviously regionally both of you are going to be very 
important in your positions.
    One last question and thank you, Mr. Chairman, for your 
courtesy. There is not a USAID--there is no USAID mission in 
Chad at this time. Do you see that changing? Is it important 
that it change? any comments there?
    Ambassador Knight. Thank you, Senator. There is in fact a 
USAID representative, a democracy and governance officer paid 
by USAID who is there full-time and is a member of the embassy 
staff. He has done a universally well-regarded job in terms of 
pursuing the ongoing USAID efforts there.
    There has not been a USAID mission in Chad since the 
nineties. There has been only this low-level representation. 
That decision ultimately resides with USAID and it is a choice 
made, not only in terms of their goals and objectives, but also 
with the funding that is available. My personal view--and again 
I stress, this is my personal view--is that Chad right now 
offers the optimal opportunity for what a USAID mission could 
provide. It would help shape and empower the Government of Chad 
to pursue its goals of better governance. It can help support 
the capacity engagement which is necessary to assure that its 
economic development proceeds as appropriately as possible and 
as quickly as possible, diversify its capacity to participate 
in the world economy, and fundamentally improve the management 
of its oil resources, which remain the pillar of its economy.
    Senator Corker. Thank you.
    Thank you, Mr. Chairman.
    Thank you both for your desire to serve in this way.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I welcome the witnesses. Ambassador Knight, congratulations 
on your many years of service. Ambassador Jones, I thank you 
for yours as well. We had a good meeting in my office.
    Ambassador Jones, a quick glance of the headlines on Libya 
from the past several days, obviously a stark reminder that 
Libya's transition to democracy remains rough and incomplete. I 
note two headlines from this morning: Reuters, ``Libya Defense 
Minister Quits Over Siege of Ministries by Gunmen''; and the 
Wall Street Journal, ``Libyans Anticipate Purge After Ban of 
Ex-Qadafi Officials.''
    Despite the challenges and despite what is happening, I 
continue to believe we cannot give in to the temptation that 
our support for the democratic aspirations of people in Libya 
and elsewhere in the broader Middle East is naive or mistaken. 
I do not think we can resign ourselves to the false belief that 
the Arab Spring is doomed to be defined by the dark fanaticism 
of terrorists. I continue to believe there was and remains a 
desire for democracy and freedom that has inspired millions of 
people to peaceful action, and Libya's example should remind us 
once again that even the worst dictators can be overthrown and 
swept into the ash heap of history where they belong.
    I am deeply concerned by the Libyan Parliament's vote on 
Sunday to adopt a political isolation law and the ongoing siege 
of government ministries. The passage of the law exposes on the 
one hand the government's inability to deal with the armed 
groups, as well as the overall weaknesses of Libya's central 
government.
    In your assessment, what impact will the political 
isolation law have on Libya's transition and the integrity of 
Prime Minister Zaidan's Cabinet?
    Ambassador Jones. Thank you, Senator. I share your views 
that the Libyan people are owed the best we can give them to 
help them succeed in their democratic transition.
    I also would like to mention, subsequent, Senator Corker, 
to your question, I am hearing from our operations center that 
it looks like the Libyan Prime Minister may have convinced the 
Defense Minister not to resign. Let us hope that that holds 
true.
    So again, it is an uncertain situation. I believe that the 
isolation law is something that I certainly would hope to 
address if confirmed, to get out with members and get them to 
rethink the application of that law, how it is defined, how 
they define many of the conditions. I think that we all know 
from our own experience with legislation and dealing with that 
as Americans that sometimes much lies in how we apply it and 
execute the law, and I am hoping to get out there and be 
confirmed and have some influence in that, to let them look at 
the future of their country instead of the immediate desire for 
revenge. They need to look further than that, and I think the 
Libyan people know that.
    And I do believe with you, sir, that the majority of the 
Libyan people have fought too hard and want too badly to 
succeed in a government that is not one of intimidation. They 
have had that for 40 years. They need a government of 
representation, sir.
    Senator McCain. And you would agree that the Libyan people 
are largely very appreciative of the United States assistance 
in the overthrow of Qadafi? It is not an environment where 
there is anti-Americanism. In fact, there is strong pro-
Americanism.
    Ambassador Jones. Absolutely, sir. Prior to your arrival I 
mentioned in my statement that I had in fact received a number 
of e-mails from private Libyans once the White House announced 
my candidacy, welcoming me to Libya and offering their hope for 
the relationship to continue strongly.
    We have lost a lot of time, sir. We need to get going on 
this.
    Senator McCain. Well, that is what I was going to mention 
next. After Qadafi was overthrown, the light footprint was 
enacted. We, many of us, argued strenuously for the kinds of 
assistance, whether it be in border security, whether it be 
treatment of the wounded, whether it be helping organize the 
military.
    I think it is pretty clear in the objective view of most 
observers that we have done very little. For example, they had 
30,000 wounded. I think we treated three in a Boston hospital. 
There still is the issue of sovereign immunity, which seems to 
have hung up our ability to send people there to train their 
military. Part of it is the Libyans' fault. One heck of a lot 
of it is our fault.
    I would expect that--and I have talked to Secretary Kerry 
about this problem. You are going to have to start unsticking 
things, but you are going to have to get the support of the 
administration, which so far has not been there. So if you are 
going to succeed in Libya, Ambassador, then you are going to 
have to speak truth to power, and truth to power is that we are 
not giving Libya assistance for a whole variety of reasons, not 
all ours, that will assist them in becoming a functioning 
democracy.
    You are not going to be able to go to eastern Libya any 
time soon because it is no longer--not just because of what 
happened in Benghazi, but it is no longer in control of the 
government. The situation in many ways, as evidenced by 
yesterday's vote, continues to deteriorate, and it cries out 
for American assistance, which, which is not the case in some 
other countries in the Maghreb, would be more than welcome.
    So I wish you luck. There are a lot of us who want to see 
you succeed, but most important, we want the people of Libya to 
be able to realize an opportunity that they sacrificed a great 
deal of blood in trying to achieve.
    You know the list of concerns that we have. You know the 
areas where we should be cooperating, and I would hope that you 
would strenuously advise the State Department and the President 
of the United States as to how we can salvage what is, 
unfortunately, a deteriorating situation in Libya.
    Ambassador Jones. Thank you, Senator. I appreciate your 
support.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    One last thing, Ambassador. You and I spoke and I just want 
to make sure for the record--I am continuingly interested on 
behalf of the families of Pan Am 103 to pursue whomever, 
whatever were involved in that bombing, which resulted in loss 
of many lives of Americans, including many from my home State 
of New Jersey. I assume that I have your commitment upon your 
confirmation to pursue that line with the Libyan Government.
    Ambassador Jones. Absolutely, Senator. That I have to say--
in my time, in one of my previous assignments, I had the honor 
and the painful opportunity to speak to some of the parents who 
had lost family members, children. I am a parent. I cannot 
begin to imagine that kind of tragedy. And I can assure you 
that I will work to continue to press the government to support 
us. In fact, there has been some effort. I think that there has 
been some progress on it. I would not say--``progress'' may be 
too far to go, and of course the FBI would have more of the 
details of that. But we do continue to press them, and I shall. 
I give you my word that I will continue to press to bring that 
to resolution, to bring justice to that.
    The Chairman. Thank you.
    Senator McCain. Mr. Chairman, could I make one additional 
item that I forgot to mention when it was my turn?
    The Chairman. Go ahead, Senator McCain.
    Senator McCain. There is a small graveyard in Tripoli, as 
you know. It supposedly, allegedly, contained the bodies of the 
American sailors who were unsuccessful in an attempted raid 
during our attempts to bring the Barbary pirates under control. 
There are remaining family members and others who are 
interested in the identification and an effort to repatriate 
those bodies. It is not a big item in the grand scheme of 
things, but I think we probably should do what we can to give 
those brave Americans who perished so long ago a place to rest 
that is fitting with their sacrifice. You are aware of it?
    Ambassador Jones. Actually, that is the first I was aware 
of that. I think small things can be very important, leading to 
bigger things, and I appreciate that.
    I was telling Senator Corker that in the reading of history 
of the first time we had a siege in Benghazi in 1967 it was 
actually a crew of the Army from Tennessee, the Reserves who 
came and saved the day. So a lot of connections here. We will 
follow up on that.
    Senator McCain. And I am sure you remember part of the 
Marine Corps Hymn has to do with ``the shores of Tripoli.''
    Ambassador Jones. Yes. Sir, we love the Marines. 
Absolutely, we love the Marines in the State Department, and I 
remind people of that all the time.
    The Chairman. Well, thank you both for your testimony. I am 
convinced of one thing: You cannot direct American assistance 
without an ambassador at the location. That would be an 
exercise, I believe, in futility. So we need an American 
Ambassador at both of these locations, and I believe that it is 
imperative to have these nominations move forward. It is not in 
the interests of the United States not to have an ambassador at 
these locations. National interest and the ultimate outcome of 
Libya's future can be helped or we can allow it to be shaped by 
a course of events in which the United States is absent. Our 
best way in which we pursue the national interest and the 
national security of the United States is to have an ambassador 
at both of these posts.
    Therefore, the record will stay open until the close of 
business tomorrow. I urge the nominees, as well as the State 
Department, to answer any questions posed by committee members 
ASAP so that we can put these nominations on the next business 
meeting.
    With that and the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 11:08 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of James Knight to Questions Submitted by 
                        Senator Robert Menendez

    Question. Chad is a country of increasing strategic significance 
for the United States but the most recent State Department Report on 
Human Rights described significant human rights problems, especially 
``security force abuse, including torture and rape; harsh and life-
threatening prison conditions; and discrimination and violence against 
women and children.''

  <bullet> If confirmed as Ambassador, how would you seek to balance 
        these sometimes strained goals between promoting human rights 
        and working with partners in counterterrorism and other 
        regional stabilization efforts?

    Answer. While Chad is a key partner and leader on regional security 
issues and the United States continues to engage with Chad to address 
regional instability, we also continue to maintain pressure on the 
Chadian Government to address its human rights record. Improving human 
rights conditions in Chad is one of the mission's primary goals--a goal 
I embrace and, if confirmed, I will work toward. Furthermore, I will 
continue our high-level engagement with President Deby and other high-
ranking Chadian Government officials on improving and creating the 
legal and administrative mechanisms necessary to address existing human 
rights abuse cases and prevent future abuses. This includes 
professionalizing the military and making it more responsive to civil 
society concerns. I understand that the Chadian Government (GoC) has 
improved its efforts to address prison conditions following on a GoC 
ministeria-level mission to assess prison conditions. The GoC has also 
allowed international NGOs access to its prisons to assess conditions. 
If confirmed, I will encourage continued actions by the government to 
improve prison conditions.
    If confirmed, I will also work with both the Government of Chad, as 
well as a range of civil society partners, to give profile to gender-
based violence and to improve the position of women in Chadian society. 
I understand this is an area that the GoC leadership recognizes needs 
improvement. Current U.S. Government efforts in this area include a 
small democracy and human rights fund (DHRF) grant to a Muslim women's 
group for a grassroots sensitization campaign on gender-based violence 
to public diplomacy efforts of video conferences on the subject with 
Chadian opinion leaders. If confirmed, I will continue to maintain the 
proactive role of the United States on the range of human rights 
challenges present in Chad.

    Question. Management of the post is absolutely central to the 
duties of a chief of mission. Embassies are about the people who staff 
them. N'Djamena is not an easy place to serve, and the U.S. Embassy has 
in the past struggled with high turnover and other pressures there.

  <bullet> Drawing on your experience in Baghdad, Benin, and your 
        earlier posts, what do you see as the primary management 
        challenges in a post like Chad?

    Answer. You correctly note that staffing our Embassy in Chad has 
been a major management challenge. Currently, Embassy N'Djamena is 
fairly well staffed with qualified generalists and specialists. If 
confirmed, I will make it a priority to mentor and assist the 
professional development and cultivation of those officers so we can 
retain them. This will prepare our officers to share their positive 
experiences in Chad with other Foreign Service officers who may be 
contemplating a future assignment to Embassy N'Djamena, thus putting us 
in a position to maintain an appropriate staffing profile and increase 
our ability to achieve U.S. Government goals and objectives now and in 
the future.
    My experience in the Foreign Service has also shown me that the 
building of a new embassy compound can also present management 
challenges. Currently, there are plans for a new Embassy compound in 
N'Djamena, with a project completion and move-in date scheduled for 
2016. If confirmed, this will be my third opportunity to negotiate 
favorable terms for the United States in the building of an embassy. I 
oversaw the move into the a new Embassy compound in Luanda, Angola, and 
was able to negotiate an earlier start date, on the basis of urgent 
security concerns, on the building of our compound in Cotonou, Benin.
                                 ______
                                 

       Responses of Deborah Kay Jones to Questions Submitted by 
                        Senator Robert Menendez

    Question. The tragedy surrounding the death of Ambassador Stevens 
and three other U.S. mission personnel has renewed our attention on 
diplomatic security. At the same time, we recognize that being confined 
to the Embassy compound severely hampers efforts by our diplomats to 
reach out to broader Libyan society and gauge the pulse of the nation.

  <bullet> How can the United States balance its role in ensuring 
        diplomatic security with robust engagement, with both the 
        Libyan Government and its burgeoning civil society?

    Answer. Diplomacy, by its nature, must be practiced in dangerous 
places because our interests suffer and our security is threatened when 
we are absent. Transitions to democracy are notoriously difficult 
endeavors. It is in our interest to engage with the Libyan Government 
and Libyan civil society as they seek to usher in a peaceful transition 
to full democracy. That being said, the safety and security of our 
personnel overseas are our highest priority. This is a sentiment that I 
share, that I have taken with me as Ambassador to Kuwait and Consul 
General in Istanbul, and that I would take to Libya. I will work 
closely with U.S. security officials to ensure our security posture in 
Libya meets the threat.

    Question. What is the state of our diplomatic presence currently in 
Libya? What kind of capacity does our Embassy have and what personnel 
or security challenges will you face in trying to fulfill the 
responsibilities of your post?

    Answer. (SBU) The current security situation in Libya is poor. On 
May 9, the Department ordered the departure of nonemergency personnel 
from Libya. However, the existing U.S. security platform is capable of 
providing substantial deterrence. Our remaining personnel are able to 
carry out their duties, meet local interlocutors, and advance our 
policy goals, protected by a robust security presence. The security 
team includes Diplomatic Security (DS) special agents, a DS Mobile 
Security Deployments team, U.S. Embassy-hired local national guard 
force and close protection unit, and a Marine Security Force unit. 
Additionally, the perimeter security has been bolstered by Libyan 
police and military forces. The physical and technical security posture 
has also been steadily improved with additional properties obtained for 
greater setback, wall heights increased, razor wire added, a technical 
security upgrade project to supplant existing CCTV cameras, the 
emergency warning notification system, and security screening 
equipment.

    Question. What will you do to ensure the protection of your 
personnel, and how have your previous deployments prepared you for this 
high risk post? Have you received any new training to prepare you for 
this assignment should you be confirmed?

    Answer. As I noted during my hearing, the Ambassador is the senior 
security officer at post, drawing on the best advice and intelligence 
from the people on the country team, to include intelligence officers, 
political analysts, military advisers and security professionals. By 
its nature diplomacy is a risky business: we must be deployed to 
accomplish our mission. It is a matter of weighing that risk against 
mission priorities and objectives, particularly in the fluid security 
environments in which we find ourselves.
    I have spent much of my 31-year career at high-threat posts in a 
volatile region of the world. Focusing on security is second nature to 
me. In preparation for Libya, should I be confirmed, I have taken the 
Department's Bureau of Diplomatic Security (DS)-administered Foreign 
Affairs Counter Threat (FACT) Course. The DS FACT course provides 
participants with the knowledge and skills to better prepare them for 
living and working in critical and high-threat environments overseas. 
The course instructs participants in the practical skills necessary to 
recognize, avoid, and respond to potential terrorist threat situations.

    Question. The security situation in Libya remains precarious, with 
militia groups continuing to operate with autonomy and impunity. This 
also raises serious concerns about Libya's porous borders and arms 
trafficking. The central government in Tripoli has thus far been unable 
to exert control and restore peace and security throughout the country.

  <bullet> How is the United States currently engaging the Libyan 
        Government on efforts to disarm and reintegrate former rebel 
        fighters and to secure the country's borders?

    Answer. To support Government of Libya's demobilization, 
demobilization, and reintegration (DDR) programming, the United 
States--in coordination with the United Nations Special Mission to 
Libya (UNSMIL)--has assisted the Libyan Government in provision of 
urgent medical treatment to severely wounded rebels in 2011-2012 and is 
currently working with the Ministry of Health to improve capacity in 
three Libyan health clinics in order that Libya can provide better in-
country treatment to former rebels with long-term injuries and the 
general population. We are also supporting civil society organizations' 
efforts to advance transitional justice, reconciliation and conflict 
resolution through community dialogue and activities, particularly in 
areas most affected by the 2011 civil conflict and with large 
populations of former rebels. Our weapons abatement program with the 
Government of Libya supports incorporates former rebels into the work 
of inventorying and security national weapons depots. We are providing 
technical assistance to the government-established Warrior Affairs 
Committee (WAC) which leads the national DDR effort. We are working 
with the WAC to convene train-the-trainer workshops that teach former 
brigade commanders conflict resolution skills and nonviolent 
communication skills for their use as they continue to operate as 
civilian community leaders. We plan to expand our community-based 
programming with civil society and the WAC this summer to build on our 
partnerships' successes.
    Improving the Government of Libya's capacity to address its serious 
border security challenges is a priority for the Libya, the United 
States, and the international community. In coordination with UNSMIL, 
we are providing technical and tactical training to GOL border security 
personnel from the Ministries of Defense and Interior and the Customs 
Authority who are responsible for border management and security. We 
plan to expand our support in the sector given Libya was designated in 
September as eligible to receive funds through the Global Security 
Contingency Fund (GSCF). Our plan is to use GSCF to bolster Libya's 
border security capacities to secure its vast desert land borders in 
the south through an interministerial approach. Programming is to 
incorporate Libya's southern neighbors of Chad, Niger, and Algeria.

    Question. What more should the United States be doing to address 
this issue, which has significant implications for Libyan, regional, 
and U.S. security?

    Answer. In recent months, as the weakness in Libya's border 
security management became increasingly apparent, the Libyan Government 
has increasingly made border security a priority and during a February 
meeting with senior officials from Libya's key international partners 
called on the international community to assist with this transnational 
challenge. The United States and Libya's other international partners 
endorsed this request and since has been working with UNSMIL and others 
to encourage increased support. For our part, we are expanding our 
support through use of up to $20 million in Global Security Contingency 
Funds (GSCF). This program will complement the EU mission to improve 
border security in Libya. The EU is establishing a 60-person mission in 
Tripoli with funds for an initial 3-year operation. The mission should 
be fully staffed by end of 2012. We remain responsive to any requests 
from the Libyan Government for increased U.S. security sector support, 
and are willing to explore all options available to provide targeted, 
technical assistance to Libya and its neighbors in a region of 
strategic significance for U.S. national security interests.

    Question. Libya has the advantage of significant oil reserves and 
thus financial resources. But given the government's limited capacity, 
challenges remain about ensuring transparency in how the money is spent 
and making sure the revenue reaches the Libyan people through 
investments in infrastructure and social services.

  <bullet> What role do you envision for the United States in this 
        regard?
  <bullet> What are some targeted assistance programs you would like to 
        accomplish as Ambassador vis-a-vis building Libya's 
        infrastructure?

    Answer. Managing Libya's oil sector and the significant revenues it 
generates transparently and responsibly will help the Libyan Government 
demonstrate a clear break from the past, and build confidence in the 
government among Libyan citizens. Transparency in both the collection 
and use of revenues are critical components of sound oil sector 
governance. Other tools are also needed, including a robust technical 
understanding of the sector itself, methods of monetization, sound laws 
and regulations in line with international best practices, 
environmental and social protections, and engagement with affected 
communities. The Department regularly raises these issues in ongoing 
dialogues with the Government of Libya. We have also encouraged the 
Government of Libya to join both the Open Government Partnership and 
the Extractive Industries Transparency Initiative, two efforts which 
could help shed light on the revenues accrued by the Libyan Government 
and how they are being spent.

    Question. As you know 270 people, including 189 Americans, died 
when Pan Am Flight 103 crashed as a result of a bombing perpetrated by 
the Qadhafi government. Abdelbaset al-Megrahi was convicted of carrying 
out this crime, but his coconspirators have yet to be brought to 
justice.

  <bullet> What is being done to press Libyan authorities for help 
        gathering more information about the Pan Am 103 bombing, 
        particularly information about who--other than al-Megrahi--was 
        involved in the planning and carrying out of the event?

    Answer. The investigation into the Pan Am 103 bombing remains open. 
We are committed to assisting law enforcement efforts in obtaining and 
evaluating any new information relating to it. As this is an ongoing 
investigative matter, I refer you to the Department of Justice for any 
further details.

    Question. In your new role what can you personally do to pursue 
this objective?

    Answer. The State Department remains committed to pursuing justice 
on behalf of the victims of the Pan Am 103 attack that took the lives 
of 189 Americans and many others. As Ambassador to Libya, if confirmed, 
I will work closely with the Department of Justice and the Libyan 
Government to bring to justice the perpetrators of this horrific attack 
and give the families of the victims closure.
                                 ______
                                 

        Response of Deborah Kay Jones to Question Submitted by 
                           Senator Bob Corker

    Question. As it relates to the chemical weapons located in Libya, 
what are the steps that have been taken to date by the USG with regard 
to that threat? What is the interagency coordination that is taking 
place to address any remaining issues in eliminating any threat?

    Answer. The State Department has worked closely with the Libyan 
Government to provide approximately $1 million of assistance to help 
secure its chemical weapons (CW) stockpile through the Nonproliferation 
and Disarmament Fund (NDF). This critical security assistance 
facilitated the return of Organization for the Prohibition of Chemical 
Weapons (OPCW) officials and allowed Libya to complete the destruction 
of its bulk mustard agent earlier in May 2013. The United States 
continues to work closely with Libyan authorities on this important 
issue, and the Department of Defense's Cooperative Threat Reduction 
(CTR) program has offered the Libyan Government additional equipment 
and technical safety and security assistance to destroy the CW 
munitions previously hidden by the Qadhafi regime.
                                 ______
                                 

           Response of James Knight to Question Submitted by 
                      Senator Robert P. Casey, Jr.

    Question. The Leahy amendment requires the U.S. Department of State 
to vet military and law enforcement individuals and units for evidence 
of human rights violations before the United States can provide 
security assistance. This law is vitally important for ensuring that we 
are upholding American values in the provision of security assistance 
and that we are not overlooking human rights violations.

  <bullet> Beyond simply implementing the law, what will you do as 
        Ambassador to ensure that your Embassy staff is affirmatively 
        seeking to identify security force units responsible for human 
        rights violations and not simply waiting to receive 
        information?
  <bullet> Further, what steps will you take to offer assistance your 
        host governments to help identify and prosecute members of 
        security forces who commit human rights violations?

    Answer. The embassy staff is currently working with local and 
international NGOs and the Government of Chad to identify human rights 
violators and to ensure that only units and individuals with clean 
human rights records receive training and assistance. When a unit or an 
individual proposed to receive assistance is determined to be 
ineligible because of credible information of a gross human rights 
violation, the embassy will inform the host government and offer 
assistance in bringing violators to justice. We may have to develop 
alternative assistance plans if credible information of gross human 
rights violations is found.
                                 ______
                                 

       Responses of Deborah Kay Jones to Questions Submitted by 
                      Senator Robert P. Casey, Jr.

    Question. I am deeply troubled, as are many of my constituents, 
that the perpetrators of the devastating attack on our facility in 
Benghazi have not been brought to justice. More than 8 months after the 
attacks, what progress has the U.S. Government made in identifying and 
bringing to justice those parties responsible for murdering U.S. 
personnel in Benghazi? How would you assess cooperation with Libyan 
officials?

    Answer. Bringing the perpetrators of the Benghazi attacks to 
justice is a top priority for the United States, and it would be a 
major focus for me in Tripoli. If confirmed as Ambassador, I would 
engage with Libyan authorities at the highest levels and encourage 
swift progress on this investigation.
    I refer you to the FBI for any details about the current status of 
their investigation into the attacks on our facilities in Benghazi. 
President Obama discussed the importance of Libya's cooperation with 
the ongoing investigation during the Libyan Prime Minister's visit to 
Washington in March 2013, and I am committed to ensuring that the 
Libyan Government continues its support and cooperation with the FBI.

    Question. The situation in Libya continues to be quite volatile, 
with armed groups using heavy weaponry to intimidate public officials 
and paralyze various ministries. As I'm sure you know, a critical part 
of Libya's reform requires comprehensive security and justice sector 
reform that includes demobilizing militias, building an effective 
internal security force, and addressing the continued mistreatment and 
detention without due process of individuals who remain in detention 
facilities outside of state controlled facilities.

  <bullet> What role do you envision for the United States in this 
        process?

    Answer. Comprehensive security and justice reform is required for 
Libya to successfully transition to a democracy. Libyans recognize this 
and with scant experience in democracy, they also understand that they 
cannot meet this challenge without outside expertise and support. At 
the recent Paris Ministerial on Libya in February, Libyan Foreign 
Minister Abdulaziz--with full endorsement of the United States, its 
other key partners--pledged that his government would make security and 
justice reform its highest priorities and called upon the international 
community to support them. If confirmed, my role will be to continue to 
uphold our commitment made in Paris while urging Libya and other 
partners to do the same. More specifically, if confirmed I will ensure 
the United States continues to carry out the technical training it is 
providing to the Ministry of Interior to strengthen its administrative 
capacity and tactical skills and to improve its understanding and 
respect for internationally accepted human rights practices. I will 
also maintain our programming that supports the Ministry of Justice's 
efforts to carry out detention reform through improved policy and 
management training as well as through tactical and human rights 
training of judicial police. I also look forward to continuing our 
efforts to expand our bilateral military relationship through regular 
dialogue and exchanges and via targeted tactical and professional 
training courses.
    Beyond our current assistance, if confirmed as Ambassador I will 
consider new opportunities where the United States is best positioned 
to support Libya in strengthening rule of law and security. I will 
continue the current practice of limiting our assistance to that which 
advances U.S. national interests, is requested by the Libyan Government 
and is coordinated with the United Nations Special Mission to Libya 
(UNSMIL). I will not only pursue U.S. assistance options but also 
encourage U.S. private and public institutions to assist Libya through 
entering in public--private partnerships. I will also explore with my 
country team and the interagency possible ways to develop cost-sharing 
arrangements with the Libyan Government for provision of additional 
support.

    Question. The Leahy amendment requires the U.S. Department of State 
to vet military and law enforcement individuals and units for evidence 
of human rights violations before the United States can provide 
security assistance. This law is vitally important for ensuring that we 
are upholding American values in the provision of security assistance 
and that we are not overlooking human rights violations.

  <bullet> Beyond simply implementing the law, what will you do as 
        Ambassador to ensure that your Embassy staff is affirmatively 
        seeking to identify security force units responsible for human 
        rights violations and not simply waiting to receive 
        information?
  <bullet> Further, what steps will you take to offer assistance your 
        host governments to help identify and prosecute members of 
        security forces who commit human rights violations?

    Answer. The Embassy staff, although currently limited in size, is 
already working with local and international NGOs, and the Libyan 
Government to identify human rights violators and to ensure that only 
units and individuals with clean human rights records receive training 
and assistance. When candidates for training or assistance are 
determined to be ineligible because of credible information reporting 
gross human rights violations, the Embassy will inform the host 
government and offer assistance in bringing violators to justice. We 
also consistently advocate the need for Libya to develop rights-
respecting security forces, and are exploring ways to help the Libyan 
Government integrate human rights into their doctrine, training, and 
accountability mechanisms.
                                 ______
                                 

          Responses of James Knight to Questions Submitted by 
                      Senator Christopher A. Coons

    Question. I am pleased that you indicate in your testimony that 
Chad will maintain troops in Mali as part of the planned U.N. mission. 
How many do they plan to contribute and how can the United States best 
support the capacity and professionalization of Chadian troops?

    Answer. The Government of Chad has indicated that it is willing to 
contribute troops to the newly established United Nations 
Multidimensional Integrated Stabilization Mission in Mali (MINUSMA) if 
asked. However, it has begun a gradual reduction in its forces in Mali 
in rough parallel with France's reduction in forces. The United States 
trained and equipped the Chadian Special Anti-Terrorism Group (SATG) 
unit that deployed to, and participated in, the African-led 
International Support Mission to Mali (AFISMA) combat operations with 
the French against Al Qaeda in the Islamic Maghreb (AQIM) and 
associated terrorist elements in northern Mali. Additionally, we 
provide training through the International Military Education and 
Training (IMET) and Peacekeeping Operations (PKO) funded programs on 
counterterrorism through the Trans-Sahara Counterterrorism Partnership 
(TSCTP).

    Question. Chad is an unfortunate example of a country that has not 
used its oil reserves to improve the lives of the Chadian people, and 
has a history of authoritarian rule and human rights abuses. As we 
rightly recognize Chad's strategic importance, if confirmed, how will 
you help advance democratic rule and ensure that U.S. support for 
Chad's security is not perceived as tacit acceptance of poor 
governance?

    Answer. While Chad has been a key partner and leader on regional 
security issues, we continue to press the Chadian Government to open 
political space for political parties and civil society and to improve 
governance and transparency, which will contribute to Chad's 
development. The United States, working with international partners, 
has helped the Chadian Government, ruling party, and political 
opposition reach agreement on procedures and institutions that will 
eventually increase democratic choices for the Chadian people, 
including an electoral roadmap. Our foreign assistance, while limited, 
supports democratic institution-building, political party and civil 
society development, conflict-resolution, interethnic dialogue, and 
training in rule of law. We are also working with the GoC as it 
participates in the Extractive Industries Transparency Initiative 
(EITI), as it works toward compliance with all of the initiative's 
requirements. In addition to providing timely information on the 
payments GoC receives from its oil sector, thus adding transparency to 
this issue, the EITI process creates a policy space for GoC, civil 
society, and industry representatives to further discuss resource 
transparency. If confirmed, I will continue these efforts to ensure 
that our focus remains on helping Chad to build democratic, transparent 
institutions that can represent and serve its citizens.

    Question. Chad's oil revenues are declining. If confirmed, how will 
you support economic diversification in Chad and opportunities for the 
U.S. private sector?

    Answer. Economic development is a priority of our engagement with 
Chad. We are working to expand Chad's economic development in several 
key sectors, such as health, education, and agriculture through broader 
use of the African Growth and Opportunity Act (AGOA) and by hosting 
private sector development roundtable discussions to highlight the role 
that the private sector could play in Chad's economic development. If 
confirmed, I would like to expand these types of activities, which 
build on Chad's own economic reform agenda. If confirmed, my team and I 
will work with the Chadian Government to improve its investment climate 
in order to attract U.S. private sector investors.
                                 ______
                                 

       Responses of Deborah Kay Jones to Questions Submitted by 
                           Senator Rand Paul

    Question. You mentioned in your testimony that weapons from Libya 
are finding their way into Syria. How has the State Department been 
able to track these arms flows and assess the numbers and types of 
weapons entering Syria?

    Answer. The State Department remains concerned about weapons 
proliferation from Libya to neighboring countries. We refer you to the 
intelligence community for details on how the U.S. Government tracks 
the flow of weapons throughout the region.
    Since the revolution, the United States, in coordination with the 
U.N. Special Mission in Libya, has provided the Government of Libya 
with approximately $40 million in targeted technical assistance to 
develop the capacities needed to secure Qadhafi-era weapons stockpiles 
and improve border security management along Libya's long, porous 
borders.

    Question. To date, not one person that participated in the attack 
on the consulate in Benghazi has been captured. If confirmed, what will 
you do to help bring the perpetrators to justice?

    Answer. I refer you to the FBI for any details about the current 
status of their investigation into the attacks on our facilities in 
Benghazi.
    President Obama spoke with Libyan Prime Minister Ali Zeidan during 
his visit to Washington in March about the importance of Libya's 
cooperation with the ongoing investigation. During his time in 
Washington, the Prime Minister publicly affirmed that Libya is 
committed to bringing those responsible for the attack before a court, 
and that Libya is ``keen on reaching the truth and to see that justice 
is achieved.''
    I am committed to ensuring that the Libyan Government continues its 
support and cooperation with the FBI investigation, understanding that 
Libya's limited investigative capacity presents serious challenges. I 
have spoken personally with FBI Director Mueller about this 
investigation, and we will work closely to bring the perpetrators to 
justice, if I am confirmed.
    Apprehending the perpetrators of the attacks on our facilities in 
Benghazi, which took the lives of Ambassador Stevens and three other 
colleagues, is a top priority for the United States. It will be a major 
focus for me should I be confirmed as Ambassador. We need an American 
Ambassador in Tripoli to engage with the Libyan authorities and make 
swift progress on this investigation.

    Question. Do you think it is appropriate to provide Libya, which 
has substantial national funds, with foreign aid while the murderers 
responsible for the deaths of Ambassador Stevens and three other 
Americans remain at large?

    Answer. It is in our national interest to support Libya as it works 
to develop a democratic state after 42 years of dictatorship. Libya's 
success in this endeavor will advance our own interests in terms of 
security, energy, rule of law, and human rights--issues which are 
important to the Libyans and to regional stability as well.
    As Libya has substantial natural resources but lacks the capacity 
and the expertise to meet the immense challenges of its transition, we 
are limiting our support to issues of immediate concern to the United 
States. Our targeted assistance to the Government of Libya is therefore 
primarily focused on collection and destruction of munitions including 
antiaircraft missiles, destruction of chemical weapons, and technical 
training for security and rule of law personnel. We are also 
contributing to our shared goal with Libya of creating an effective 
civil society. Our programming in this sector is providing support for 
electoral processes, transitional justice, constitution drafting, 
empowerment of marginalized groups including women and minorities, 
strengthening national unity, and good governance.
    We believe investing modestly in Libya's future will positively 
influence Libya's democratic transition, promote stability, and pay 
dividends for a lasting relationship with a country where the majority 
of people are committed to building a democracy and favorably inclined 
to the United States.


     NOMINATIONS OF GEOFFREY R. PYATT AND TULINABO SALAMA MUSHINGI

                              ----------                              


                        WEDNESDAY, JUNE 19, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Geoffrey R. Pyatt, of California, to be Ambassador to Ukraine
Tulinabo Salama Mushingi, of Virginia, to be Ambassador to 
        Burkina Faso
                              ----------                              

    The committee met, pursuant to notice, at 2:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy, presiding.
    Present: Senators Murphy and Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. I call this nomination meeting to order.
    Today, the Senate Foreign Relations Committee will consider 
two nominations: Geoffrey Pyatt, to be Ambassador to the 
Ukraine, and Dr. Tulinabo Salama Mushingi, to be the Ambassador 
to Burkina Faso.
    Before we begin, let me remind members that the deadline 
for submission of questions for the record is noon on Friday.
    First, let me begin by welcoming our two nominees, as well 
as your families. We are glad that you are both joined by your 
families, and we know that you will introduce them in your 
opening remarks.
    I will give some brief remarks and then turn it over to 
Senator Johnson for his. I will introduce our two witnesses--I 
will likely do that together--and then allow you to give 
opening statements, followed by questions.
    Let me congratulate you both on your nominations. If 
confirmed, you are going to be called upon to implement the 
policies of the United States and to serve to advance the 
interests of our great country. The challenges that you both 
face are unique.
    In Ukraine, we have a country that is teetering on a 
tightrope, dependent, in many ways, still on Russia, its much 
larger neighbor, but desirous of a closer relationship with 
Europe and the West. The United States is committed to helping 
Ukraine become a modern, prosperous democracy.
    Ukraine is important, for many reasons. It is the second-
largest country in Europe, rich in natural resources, with a 
strategic location on the border of Russia and the European 
Union, and coastline, of course, on the Black Sea.
    In 1996, Ukraine completed the removal of the Soviet-era 
nuclear arsenal from its territory, a brave decision that made 
the Ukraine an example for many other nations to follow. More 
recently, Ukraine has made strides in developing its own energy 
resources and attracting foreign investment, an endeavor that 
will make it, hopefully, easier to achieve an association 
agreement with the European Union and accompanying reforms to 
come.
    Our new Ambassador will be arriving in-country at a time of 
great importance, second perhaps only to 1991 as a potential 
inflection point in modern Ukrainian history. This November, 
the European Union will convene the Eastern Partnership summit, 
where we hope that Ukraine will sign an association agreement 
to set Ukraine firmly on the path of joining the European 
Union.
    But, in order to proceed with Ukraine's political 
association and economic integration with the European Union, 
they must continue making progress on the overall reform 
agenda, including clear signals that the era of selective 
political prosecutions is over. The challenges are significant, 
but not insurmountable. Our mutual interests demand that we 
must continue to strengthen our ties with Ukraine, and work 
with them as they chart a new path to a modern, democratic 
future, in partnership with Europe.
    Another nation that is very important to the United States, 
and where we also must help move forward modern democratic 
reforms is Burkina Faso. Like the Ukraine, the United States 
has worked closely with Burkina Faso in the areas of security 
cooperation and economic development. The President there has 
played an important and constructive role recently as a 
regional peacemaker, an example that we hope other leaders in 
the region will follow. He was instrumental in negotiating a 
cease-fire agreement between the Malian Government and the 
Tuareg rebels, signed just yesterday, following talks at the 
Presidential palace in the country's capital. At the same time, 
though, we follow continuing reports of human rights abuses in 
country that we know our next Ambassador will have to address, 
as well.
    Going forward, we hope the President and the ruling party 
will expand the space for political opposition and undertake 
the reforms necessary to ensure the long-term stability of 
Burkina Faso.
    We are both very interested in your perspectives today. We 
are glad that you are here.
    And I will turn it over now to Senator Johnson for his 
opening remarks.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Well, thank you, Mr. Chairman.
    And, Mr. Pyatt and Dr. Mushingi, welcome. We also want to 
welcome your families.
    And I just want to say, I truly appreciate your willingness 
to serve this Nation. As Senator Murphy was stating, it is just 
an incredibly important responsibility. You do represent us in 
these two very important countries. I have been to Ukraine. We 
had a very interesting hearing last week about the pressure of 
Russia, both in terms of their own civil rights, their own 
civil society, but also the pressure they are putting on that 
belt of democracy around it. And, of course, Burkina Faso is 
becoming an important country, from the standpoint of our 
effort against global terrorism as al-Qaeda is spreading around 
northern Africa.
    So, these are two very important countries, and I truly do 
appreciate your willingness to serve this Nation, and I am 
looking forward to your testimony. So, welcome.
    Senator Murphy. Thank you, Senator Johnson.
    Let me now introduce our two guests. I will introduce you 
both at this time. I will start with Mr. Pyatt and then Dr. 
Mushingi can give testimony.
    First, let me recognize Geoffrey Pyatt, of California, the 
nominee for Ambassador to Ukraine. Mr. Pyatt is a career member 
of the Senior Foreign Service. He is currently the Principal 
Deputy Assistant Secretary of State for the Bureau of South and 
Central Asian Affairs, where he has served admirably. He was 
previously the Deputy Chief of Mission at the U.S. Mission to 
the International Atomic Energy Agency, and international 
organizations in Vienna, the Deputy Chief of Mission at the 
U.S. Embassy in New Delhi, and Economic Officer at the U.S. 
consulate in Hong Kong. He received his B.A. from the 
University of California at Irvine. His crowning achievement, 
however, was undoubtedly receiving his master's degree in New 
Haven, CT, from Yale University. [Laughter.]
    Shameless. [Laughter.]
    Dr. Mushingi is our nominee to be Ambassador to Burkina 
Faso. Dr. Mushingi is a career member of the Senior Foreign 
Service, as well, currently serving as Deputy Executive 
Secretary and Executive Director of the Executive Office of the 
Secretary of State. There is no title in the Federal Government 
that has the word ``executive'' in it more than yours. 
[Laughter.]
    From 2009 to 2011, he was Deputy Chief of Mission at the 
U.S. Embassy in Ethiopia. He previously served in Tanzania, 
Morocco, Mozambique, and Washington, DC. He began his career as 
a cultural and language trainer for the Peace Corps. He 
received his B.A. and M.A. from the Institut Superieur--oh, 
boy, you have got a long title, here--well, let us just say he 
received it in the Republic of Congo, and he received an M.A. 
from Howard University, and a Ph.D. from Georgetown University.
    We welcome both of you today, appreciate your patience in 
getting to today's hearing, and look forward to your testimony.
    Mr. Pyatt, we will begin with you.

        STATEMENT OF GEOFFREY R. PYATT, OF CALIFORNIA, 
                  TO BE AMBASSADOR TO UKRAINE

    Mr. Pyatt. Thank you, Senator Murphy. And certainly, I look 
back on my time in New Haven as a highlight of my education, so 
thank you for the reference, there.
    Mr. Chairman, members of the committee, it is a great honor 
to appear before you as President Obama's nominee to be the 
next United States Ambassador to Ukraine. I am grateful to the 
President, Secretary Kerry, and former Secretary Clinton for 
the confidence they have placed in me through this nomination. 
And, if confirmed, I will look forward to working closely with 
the members of the Foreign Relations Committee and its staff.
    With the Chairman's permission, I would like to begin by 
introducing my wife, Mary, with whom I have shared a 23-year 
Foreign Service career that has taken us and our children much 
further than either of us could have imagined, with Mary 
serving as a teacher at each of our overseas assignments.
    If confirmed, I will continue to build our strategic 
partnership with Ukraine and realize the potential we see in 
this relationship. The U.S.-Ukraine Charter on Strategic 
Partnership, signed by Secretary Rice, and the commission that 
Vice President Biden established to implement this charter, set 
high expectations for our bilateral ties. If confirmed, my 
highest goal will be to sustain the effort to advance Ukraine 
on the path toward a modern European democracy.
    One area of notable achievement in our bilateral 
relationship is cooperation on nonproliferation, and, in 
particular, the removal of all highly enriched uranium from 
Ukraine, as jointly pledged by President Yanukovych and 
President Obama at the 2010 Nuclear Security summit. Ukraine's 
leadership on this issue stands as an example for countries 
around the world. Indeed, Ukraine's decision to remove all of 
its nuclear weapons and join the NPT as a non-nuclear-weapon 
state, was one of the major accomplishments for European peace 
in the past 20 years.
    In recent years, Ukraine has become a valuable contributor 
to U.N. peacekeeping. Ukraine also participates in NATO 
operations, including troops in Afghanistan and Kosovo. The 
United States strategic goals for Ukraine have remained broadly 
consistent throughout more than 21 years of independence. We 
support Ukraine's sovereignty, independence, and territorial 
integrity.
    In keeping with the aspirations of the Ukrainian people, 
the United States promotes democracy, a market economy, and 
rule of law in order to encourage the development of a strong, 
prosperous, and European state. If confirmed, I will encourage 
the Ukrainian Government to act now to take advantage of the 
historic opportunity to pursue European integration and to meet 
the EU's conditions for signature of the European Union/Ukraine 
association agreement.
    In the past 3 years, the United States has expressed 
increasing concern about the political situation in Ukraine, 
especially regarding the selective prosecutions of opposition 
leaders. If confirmed, I will encourage Ukrainians to set high 
standards for themselves on human rights and rule of law, 
recognizing that democratic principles are in Ukraine's own 
interests and fundamental to United States policy.
    I will also support Ukrainian aspirations for free and fair 
elections that meet the bar they set for themselves in 2010, 
especially looking forward to the 2015 Presidential elections.
    This year, as Chairman in Office of the OSCE, Ukraine has 
the opportunity to demonstrate its international leadership and 
set an example for other countries. We have been encouraged by 
the role that Ukraine has played so far in its OSCE 
chairmanship, and, if confirmed, I will look forward to working 
closely with Ukraine to sustain this success.
    Ukraine's economic prosperity depends on financial 
stability, promoting reforms, and attracting foreign direct 
investment, especially in the energy sector, which is an area 
of growing United States/Ukraine cooperation. United States 
companies are ready to invest in unlocking Ukraine's gas 
resources and helping the country to achieve its goal of 
increased energy independence. But, our trade and investment 
relationships should be bigger, and the business climate in 
Ukraine has been weakened by corruption and questions about the 
fairness of the courts. If confirmed, I will make it a priority 
to advocate on behalf of United States companies and to work 
with Ukrainians to advance the rule of law, the protection of 
intellectual property rights and investor rights.
    Ukraine is a young democracy, with its first generation of 
citizens born into an independent country just now reaching 
adulthood. If confirmed, I will use our public diplomacy tools 
to continue engagement with this emerging generation as they 
play an increasing role in society, government, and business. I 
would also look forward to working closely with the vibrant 
Ukrainian diaspora in the United States.
    Ukraine and its people face critical choices in the months 
and years ahead. If confirmed, I will do all I can to support 
the men and women of the U.S. mission as they work with 
Ukrainians to further United States interests and advance 
Ukraine's future as an independent and prosperous European 
democracy.
    I would like to thank you, Mr. Chairman, for the honor of 
appearing today, and I would be happy to address your 
questions.
    [The prepared statement of Mr. Pyatt follows:]

                Prepared Statement of Geoffrey R. Pyatt

    Mr. Chairman, Ranking Member, and members of the committee, it is a 
great honor to appear before you as President Obama's nominee to be the 
next United States Ambassador to Ukraine. I am grateful to the 
President, Secretary Kerry, and former Secretary Clinton for the 
confidence they have placed in me through this nomination, and if 
confirmed I will look forward to working closely with the Congress and 
members of the Foreign Relations Committee and its staff.
    With the chairman's permission I would like to begin by introducing 
my wife Mary, with whom I have shared a 23-year Foreign Service career 
that has taken us and our children much further than either of us could 
have imagined. As a teacher at each of our overseas posts, Mary has 
done much to build good will and to demonstrate why the idea of America 
remains so powerfully attractive around the world.
    If confirmed, I will continue to build our strategic partnership 
with Ukraine and will work to realize the potential we see in this 
relationship with bipartisan support. The U.S.--Ukraine Charter on 
Strategic Partnership signed by Secretary Rice, and the commission that 
Vice President Biden established to implement this charter, set high 
expectations for our bilateral ties. And if confirmed, my highest goal 
will be to sustain the effort to advance Ukraine on the path toward a 
modern European democracy.
    One area of notable achievement in our bilateral relationship is 
cooperation on nonproliferation, in particular, the removal of all 
highly enriched uranium from Ukraine, as jointly pledged by President 
Obama and President Yanukovych at the 2010 Nuclear Security Summit. 
Ukraine's leadership on this issue stands as an example for countries 
around the world. Indeed, Ukraine's decision to remove all of its 
nuclear weapons and join the Nuclear Nonproliferation Treaty as a 
nonnuclear weapon state was one of the major accomplishments for 
European peace in the last 20 years.
    I have a particular commitment to these issues of nuclear 
nonproliferation from my time as Deputy Chief of Mission at the U.S. 
Mission to International Organizations and the International Atomic 
Energy Agency in Vienna, and if confirmed I will continue to encourage 
Ukraine's contributions as a global partner on nuclear security, 
nonproliferation, and disarmament.
    The United States strategic goals for Ukraine have remained broadly 
consistent throughout more than 21 years of independence. We support 
Ukraine's sovereignty, independence, and territorial integrity, along 
with its desire to pursue its own political and economic interests. In 
keeping with the aspirations of the Ukrainian people, the United States 
promotes democracy, a market economy, and rule of law in order to 
encourage the development of a strong, prosperous, and European state. 
If confirmed, I will encourage the Ukrainian Government to act now to 
take advantage of this historic opportunity to pursue Ukraine's hopes 
for European integration and to meet the EU's conditions for signature 
of the EU-Ukraine Association Agreement.
    In the past 3 years, the United States has expressed increasing 
concern about the political situation in Ukraine, especially regarding 
the selective prosecutions of opposition leaders. If confirmed, I will 
encourage Ukrainians to set high standards for themselves on human 
rights and rule of law, recognizing that democratic principles are in 
Ukraine's own interest, and central to U.S. policy. I will also support 
Ukrainian aspirations for free and fair elections that meet the bar 
they set for themselves in 2010, especially looking ahead to the 2015 
Presidential election.
    The U.S. commitment to supporting Ukraine is demonstrated by the 
size of our assistance program--approximately $104 million last year, 
despite reduced budgets globally. Ukraine also hosts the largest Peace 
Corps program in the world. Our assistance promotes long-term progress 
in democracy and human rights, in economic development, health and 
energy independence, and in military and nonproliferation cooperation.
    In recent years, Ukraine has become a valuable contributor to 
international peacekeeping. It currently has over 500 peacekeepers 
deployed across seven different U.N. peacekeeping operations. Ukraine 
is the largest contributor of military helicopters to U.N. missions. 
Ukraine also participates in NATO operations, including troops in 
Afghanistan and troops deployed to the NATO mission in Kosovo, and will 
soon contribute a ship to NATO's antipiracy mission off of the coast of 
Somalia.
    This year, as chairman in office of the Organization for Security 
and Cooperation in Europe (OSCE), Ukraine has the opportunity to 
demonstrate its international leadership and to set an example for 
other countries. My current assignment as Principal Deputy Assistant 
Secretary has given me the opportunity to work closely with the OSCE to 
advance U.S. interests in Central Asia. In this regard, we have been 
encouraged by the role that Ukraine has played so far in its OSCE 
chairmanship, and if confirmed I will look forward to working closely 
with Ukraine to sustain this success.
    Ukraine's economic prosperity depends on financial stability, 
promoting reforms and attracting foreign direct investment, especially 
in the energy sector, which is an area of growing U.S.-Ukraine 
cooperation. On energy security, U.S. companies are ready to invest in 
unlocking Ukraine's gas resources, and helping the country to achieve 
its goal of increased energy independence. But our trade and investment 
relationship should be bigger than it is, and the business climate in 
Ukraine has been weakened by corruption, a lack of transparency, and 
questions about the fairness of the courts. If confirmed, I will make 
it a priority to advocate on behalf of U.S. companies and to work with 
Ukrainians both in and out of government to advance rule of law, the 
protection of intellectual property rights, and investor rights.
    Ukraine has a highly educated population, an active civil society, 
and tremendous natural resources. And Ukraine is a young democracy, 
with its first generation of citizens born into an independent country 
just now reaching adulthood. If confirmed, I will use all our public 
diplomacy tools to continue our engagement with this emerging 
generation as they play an increasingly important role in society, 
government, and business. I also would look forward to working closely 
with the vibrant Ukrainian diaspora community in the United States.
    Through a diverse and challenging diplomatic career I've learned 
that there is no greater honor--nor greater responsibility--than 
representing the United States abroad. I have also learned the 
importance of clarity on American principles, and that modesty in the 
pursuit of U.S. goals can be appropriate, especially when it comes to 
countries that are still defining their place in the world.
    Ukraine and its people face critical choices in the months and 
years ahead. If confirmed, I will do all I can to support the men and 
women of the U.S. mission as they work with Ukrainians to further U.S. 
interests and advance Ukraine's future as an independent and prosperous 
European democracy.
    I would like to thank you, Mr. Chairman, for the honor of appearing 
today and would be happy to address your questions.

    Senator Murphy. OK.
    Dr. Mushingi.

   STATEMENT OF TULINABO SALAMA MUSHINGI, OF VIRGINIA, TO BE 
                   AMBASSADOR TO BURKINA FASO

    Dr. Mushingi. Mr. Chairman, Ranking Member, and 
distinguished members of the committee, I am honored to appear 
before you as the nominee for United States Ambassador to 
Burkina Faso.
    With your permission, let me introduce my wife, Rebecca.
    I very much appreciate the confidence and trust the 
President and Secretary of State have shown in nominating me 
for this position. I am equally grateful to receive this 
distinguished committee's consideration.
    I believe that my work and travels across Africa have 
provided me with the experience needed to foster strong ties 
between our two countries. If confirmed, it would be a 
privilege to return to Africa to lead the efforts of our strong 
interagency team, which is committed to our country's 
increasing engagement in the Sahel region of West Africa.
    Our strong bilateral relationship with Burkina Faso aims to 
build a shared and mutually beneficial commitment to, one, 
strengthening democratic institutions; two, fostering inclusive 
economic development; and three, promoting regional stability.
    Burkina Faso faces serious economic challenges and a 
regional humanitarian emergency. The United States has provided 
humanitarian assistance for at-risk populations in Burkina 
Faso, including more than 50,000 Malian refugees.
    A 5-year Millennium Challenge Corporation compact will help 
to reduce poverty through investments in roads, improved 
agricultural productivity, and primary education. Current USAID 
assistance is boosting food security, improving governance, and 
widening access to basic health care services. Our strong Peace 
Corps program is working in education, a community economic 
development, and community health programs.
    Burkina Faso has been a valued partner in promoting 
regional security and combating terrorism. It has deployed 
troops to peacekeeping efforts in Darfur and Mali. Burkina Faso 
is also an active member of the Trans-Sahara Counterterrorism 
Partnership.
    To date, the Burkinabe have played a positive role in 
mediating conflicts in Cote d'Ivoire, Togo, Guinea, and, most 
recently, in Mali. If confirmed, I will work to maximize the 
effectiveness of our security cooperation with Burkina Faso. I 
will, above all, strive to protect American citizens and 
interests, advance U.S. national security in the Sahel region, 
increase mutual understanding, reflect American values, and 
deliver results for the American people and Burkinabe.
    Thank you, Mr. Chairman, for inviting me to appear before 
you today. I would be pleased to answer any questions you may 
have.
    [The prepared statement of Dr. Mushingi follows:]

                Prepared Statement of Tulinabo Mushingi

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to appear before you as the nominee for United 
States Ambassador to Burkina Faso. I very much appreciate the 
confidence and trust the President and Secretary of State have shown in 
nominating me for this position. I am equally grateful to receive this 
distinguished committee's consideration.
    I believe that my work and travels across Africa have provided me 
with the experience needed to foster strong ties between the United 
States and Burkina Faso. If confirmed, it will be a privilege to return 
to Africa to lead the efforts of our robust interagency team, which is 
committed to the growing partnership between the United States and 
Burkina Faso, and our country's increasing engagement in the Sahel 
region of West Africa.
    Our strong bilateral relationship with Burkina Faso aims to build a 
shared and mutually beneficial commitment to strengthening democratic 
institutions, fostering inclusive economic development and promoting 
regional stability. Working in partnership, the leadership of our 
Embassy and the Burkinabe government have successfully advanced some 
political and economic reforms in Burkina Faso that will serve our 
peoples well. If confirmed, I will continue this work to deepen our 
bilateral partnership through programs and policies that support 
multiparty democracy, sustainable development to address chronic food 
insecurity, good governance, and regional security.
    In December 2012, Burkina Faso successfully held parliamentary and 
local elections, which were judged free and fair by the international 
community. We will build upon this momentum to further strengthen 
democratic institutions, including promoting transparent and 
accountable governance, respect for human rights, and adherence to 
constitutional rule.
    Burkina Faso faces serious economic challenges. A serious drought 
in 2011 resulted in a regional humanitarian emergency, which further 
exacerbated high levels of poverty, malnutrition, and food insecurity. 
Since then, the United States has provided humanitarian assistance for 
vulnerable populations in Burkina Faso, including 50,000 Malian 
refugees the Burkinabe government is hosting in the north of the 
country. We will continue to support Burkina Faso's efforts to address 
long-term development challenges. A 5-year, $481million Millennium 
Challenge Corporation Compact, which is on track to successfully 
conclude in 2014, will help to reduce poverty through investments in 
roads, improved agricultural productivity, land use rights, and primary 
education. Current USAID assistance is boosting food security, 
supporting economic growth, improving governance, and widening access 
to basic health care services. Our strong Peace Corps program has on 
average 150 volunteers working in education, community economic 
development, and community health programs.
    Economic diversification and improvements to infrastructure and 
education will be critical to generating the sustainable growth Burkina 
Faso needs to tackle high poverty rates. The Burkinabe government has 
taken steps to combat corruption and improve the investment climate, 
including land tenure policy reforms supported under the MCC compact. 
If confirmed, I will continue to support progress on economic reforms 
and promote bilateral trade. I will also continue to work to leverage 
our assistance programs with those of other donors and the private 
sector to support Burkina Faso's continued transition to a market 
economy.
    Burkina Faso has been a valued partner in promoting regional 
security and combating terrorism. It has deployed over 660 troops to 
the African-led International Support Mission in Mali (AFISMA) and has 
recently pledged to increase its commitment to 850 troops when the 
mission transitions under a U.N. mandate. Burkina Faso will also soon 
deploy its fifth battalion of peacekeepers to the U.N. mission in 
Darfur, all trained by the U.S. Government through the Africa 
Contingency Operations Training & Assistance (ACOTA) program. Burkina 
Faso is also an active member of the Trans-Sahara Counterterrorism 
Partnership (TSCTP) and a dedicated ally in efforts to combat violent 
extremism. To date, the Burkinabe have played a positive role in 
mediating conflicts in Cote d'Ivoire, Togo, Guinea, and most recently 
in Mali.
    If confirmed, I will work to maximize the effectiveness of our 
security cooperation with Burkina Faso. I will above all endeavour to 
protect American citizens and interests, advance U.S. national security 
in the Sahel region, increase mutual understanding, reflect American 
values in interactions with the government and people of Burkina Faso 
and deliver results for the American people.
    Thank you for inviting me to appear before you today. I would be 
pleased to answer any questions you may have.

    Senator Murphy. Thank you, to both of our witnesses.
    I will begin with questions and then turn it over to 
Senator Johnson.
    To Mr. Pyatt, let us explore the fulcrum point that we are 
going to be at, this November, when the Eastern Partnership 
summit is convened in Vilnius. And, as I said in my opening 
remarks, at least I hope that there will be an association 
agreement extended to the Ukraine.
    It has been made fairly clear to the Ukrainians that there 
are a number of steps that have to happen in between now and 
then. One of them may be a very specific step, that if 
Tymoshenko is not released, there may not be an association 
agreement extended. There was a series of releases of political 
prisoners earlier this year, which I think was an encouraging 
sign in the right direction, but, as I and many other people 
made clear to the Ukrainians, certainly not enough.
    Can you just delve a little bit deeper into this question. 
You are going to--you know, assuming that we can move your 
confirmation forward as quickly as possible, you are going to 
have a short amount of time, clearly building on a fairly 
impressive legacy of the outcoming Ambassador, to try to 
convince the Ukrainians to make these choices. Some say that 
there is no way that Yanukovych will release Tymoshenko, that 
the threat to his political base is too great, and that even 
the association agreement is not enough.
    I am interested in both your take, as you have gotten ready 
for this assignment, on the levers that are at play here, 
especially for the new Ambassador, to try to get the Ukrainians 
to make more progress, specifically with respect to Tymoshenko.
    Mr. Pyatt. Thank you, Senator, for the question.
    Senator Murphy. And just turn----
    Mr. Pyatt. Thank you, Senator, for the question, which is a 
critical one and goes to the focal point of United States 
policy in Ukraine today. I would offer a couple of quick 
thoughts in response.
    First and foremost, I think it is useful to remember that 
the desirability of Ukraine's European future is one of the few 
issues on which there is broad political consensus in Ukraine 
today. Against the background of a very divided political 
environment, there is consensus between the government, the 
opposition, and, importantly, Ukraine's leading business 
organizations and business houses, that Ukraine has enormous 
benefits that will accrue to it from the signature of the 
association agreement, and, in particular, the deep and 
comprehensive free trade agreement.
    I have been impressed that that Ukraine aspiration has been 
reiterated so forcefully by President Yanukovych, by Foreign 
Minister Kozhara, when he was here in Washington last month, 
and by a variety of other senior officials in the course of our 
bilateral consultations.
    As you note, there are some conditions that are attached to 
that signature in November; most importantly, the end to 
selective prosecutions of political opponents, and, in 
particular, Mrs. Tymoshenko.
    If confirmed, my intention would be to partner as closely 
as possible with our European partners, who are forcefully 
engaged on these issues. We have pursued a policy of direct 
engagement, as Under Secretary Sherman labeled it when she 
visited Kiev, in March. And I think that that approach of 
direct engagement has shown some progress, including, 
significantly, the pardon and release, in March, of former 
Interior Minister Lutsenko. I thought Senator Cardin got it 
exactly right in his statement on that decision. It was an 
important and hopeful step forward, but it was only one step.
    Looking to the next couple of months and weeks, Ukraine 
needs to make a decision about how to approach that key 
condition along with the other conditions that the European 
Union has established. The United States will stand with Europe 
and stand with Ukraine as they proceed down that road. And 
certainly, if I am so fortunate as to be confirmed, it will be 
my highest priority, in my first weeks at the mission, to work 
with colleagues and to mobilize the diplomatic effort that 
Ambassador Tefft has been actively pursuing with his European 
counterpart to encourage President Yanukovych to walk through 
the door that the European Union is holding open and to seize 
the important opportunities that the association agreement 
represents, and the prospect that that holds for substantially 
lifting Ukraine's economic situation over time, riding on the 
back of the economic opportunities that the association 
agreement would bring along with it.
    Senator Murphy. One of the arrows in our quiver is the help 
that we can give the Ukrainians with respect to energy 
independence. And, in my second round of questions, I will have 
some questions for you, Dr. Mushingi. But, let me use my 
remaining time to explore that issue with you.
    Clearly, there is another decision that they are going to 
have to make about the sale of their pipeline infrastructure to 
the Russians, in exchange for a new agreement on sales of 
energy resources coming in. This is potentially an asset worth 
somewhere in the neighborhood of $30 billion. And if they get 
this deal wrong, it has pretty important fiscal implications 
for the Ukrainians and very important security consequences, 
from an energy perspective, for the entire region.
    How do we help the Ukrainians get the best deal, moving 
forward, with the Russians? And then, from the larger 
perspective, what can we do to try to move them toward energy 
independence? I know we are doing a lot right now with respect 
to helping them develop some shale resources, but there is much 
more, I am sure, that we can do.
    Mr. Pyatt. Thank you, Senator. Critical question. I have 
been involved with a lot of countries, where energy politics 
are important, but I have never seen a place where they are as 
central as they are in Ukraine, as your question, itself, 
reflected.
    I think, as we look ahead, Ukraine has a tremendous 
opportunity. You alluded to the shale gas revolution and the 
fact that you have two major U.S. international oil companies--
Exxon Mobil and Chevron--both of whom are very close to 
production-sharing agreements with Ukraine. Ukraine has already 
concluded such an agreement with Royal Dutch Shell. I have 
talked to experts who have indicated that they believe that, 
within 6 or 7 years, Ukraine could achieve 50-percent energy 
independence, just based on the adoption of the correct 
policies. There are policy choices that Ukraine has to make 
which will be requirements for securing the sort of large 
investment in transfer of technology that our companies would 
be prepared to be engaged with. We are also working with 
Ukraine through our Strategic Partnership Commission. We have a 
working group on Energy, led by Ambassador Carlos Pascual, that 
has been actively engaged on some of the other policy decisions 
that Ukraine needs to make to unlock its potential role as an 
energy hub for all of Europe.
    The energy politics of the region are changing 
dramatically; in part, as a result of the shale gas revolution 
in the United States. Ukraine has begun reverse imports from 
Western Europe, of gas. It has enormous potential to serve as a 
leveler for pricing and gas allocation across Europe, if it 
makes the right policy choices.
    The question of the pipeline, that you alluded to, is 
particularly sensitive, because it goes to one of the things 
which makes Ukraine's future role so possible, which is its 
participation in the European energy community. And I will look 
forward to working with our companies and supporting them, if 
confirmed, in order to make clear that everybody has a clear 
understanding of the implications for American investment that 
would be carried by a decision to sell off some or all of 
Ukraine's pipeline resources.
    Senator Murphy. I will continue on that on the second 
round, but, at this point, turn it over to Senator Johnson for 
questions.
    Senator Johnson. Thank you, Mr. Chairman. I may be picking 
it up right off the bat.
    Senator Murphy. Yes. Go ahead.
    Senator Johnson. What are those policy choices? You 
mentioned ownership of the pipelines. But, are there other 
policy choices that Ukraine has to move forward with?
    Mr. Pyatt. Thank you, Senator. I think--well, the most 
important one is the future of the association agreement. And I 
think one of the reasons that the Vilnius summit, that the 
chairman alluded to, is so important is because that will put 
Ukraine on a stairway toward closer relations with Europe, and 
it will bring with it a series of disciplines, in terms of 
policies, in terms of regulatory frameworks, that will have the 
effect of cementing what we all hope for, which is Ukraine's 
future as a democratic, rule-of-law society.
    I am inclined to look at the Vilnius summit as less an 
endpoint than a way station, because even if what we all seek 
is achieved, and Ukraine and the European Union signs the 
association agreement, there will then have to be a process of 
ratification in Europe, there will be a process of 
implementation, including on issues important to Ukraine, such 
as visa-free travel. All of those will provide leverage for 
Europe and for the United States, working with our European 
partners, to continue encouraging Ukraine in the direction we 
seek.
    I want to underline, as Vice President Biden said very 
eloquently when he was in Kiev, 4 years ago, the United States 
stands with the people of Ukraine. Our hope for Ukraine's 
future as a democratic European state is mirrored in every poll 
I have seen of Ukrainian public attitudes, but there are some 
challenging political decisions that have to be made on 
everything from pipelines, as the chairman alluded to, 
questions of energy pricing and gas pricing, which are part of 
the negotiations with the IMF, questions of how to structure 
the 2015 elections, and then, most crucially of all, the 
question of how to deal with the political opposition, which is 
embedded in the challenge of the concern that many have 
expressed, including the U.S. Government at the senior-most 
levels, about the phenomenon of selective prosecutions.
    Senator Johnson. In your opening comments--I am not sure I 
am using it as the exact quote, but you made it seem like it 
was universally accepted, that desire to move closer to Europe. 
But, at the same time, the--I am seeing a drift more toward 
Russia. What type of pressure is Russia being brought to bear--
for example, not to join the association?
    Mr. Pyatt. Yes, a critical question. And I think I would 
answer it two ways, Senator.
    First, if I can quote Vice President Biden again, he made 
very clear that we reject any notions of spheres of influence. 
And, of course, it is appropriate for Ukraine to have a deep 
and significant relationship with its large Russian neighbor. 
It is Ukraine's largest trading partner. But, we see Ukraine, 
over the long term, as being part of Europe. And that is a view 
which comes, not just from the Ukrainian people and the public 
opinion surveys that I have looked at, but we hear it from the 
highest levels of the Ukrainian Government, including President 
Yanukovych, Foreign Minister Kozhara, Prime Minister Azarov. 
And that is what we want to leverage off of. We want to work 
with Ukraine to achieve the future that the Ukrainians 
themselves have said they seek.
    Russia, as you alluded to, has had this active conversation 
with Ukraine; in particular, regarding the question of the 
Eurasian Economic Union. It is an issue that I have watched 
carefully, because the Eurasian Economic Union is also active 
in the region of Central Asia, that I am presently responsible 
for.
    It is interesting to me. One large Central Asian country 
that I have worked with closely is Kazakhstan. Kazakhstan is a 
member of the Eurasian Customs Union, but it has found that, 
since its membership, if you look at the data from the World 
Bank and others, the main benefits from that membership have 
accrued to Russia. Russia's exports to Kazakhstan have gone up. 
Kazakhstan's exports to Russia have been flat, largely owing to 
nontariff barriers and other obstacles. Meanwhile, Kazakhstan 
has found that it has to navigate around very high external 
tariffs that are imposed by the Customs Union.
    I take it as a hopeful sign that President Yanukovych has 
chosen not to pursue membership in the Eurasian Economic Union, 
but is pursuing something short of observership, which is 
appropriate and which our European partners have said is 
completely nonthreatening to what we all seek, which is 
Ukraine's membership in the deep and comprehensive free trade 
agreement with Europe.
    So, I think there is a debate on these issues. It is 
appropriate that there should be a debate on these issues in 
Ukraine. That is what we would hope for in a democratic 
society. But, what is interesting to me is, as I alluded to in 
my earlier response to the chairman, what is interesting is, 
across the board, every major political party and the major 
business and social and community groups have all said the same 
thing, which is, Ukraine's future lies in closer relations with 
Europe. And that is something that the United States should 
applaud.
    Senator Johnson. OK. Well, we will come back to Ukraine 
later. We will bring Dr. Mushingi into the conversation, here.
    Doctor, you had mentioned, in your opening statement, that 
one of your responsibilities is to protect Americans and 
Americans' interests in Burkina Faso. Can you tell me how many 
Americans are there and what those interests are that need to 
be protected?
    Dr. Mushingi. Thank you, Senator. For now, we have about 
1,000 American citizens in the Burkina Faso. That includes the 
official Americans working for the U.S. Government, but also 
private citizens.
    As far as interests, this is one of those new economies, as 
we look around the world, and there's little known about it. 
But, we believe that--we have our top priority of strengthening 
economic growth, that we have an opening there, where the 
prosperity of the country will be attractive to some Americans, 
as well. And, for now, it is slow moving. But, we have at least 
5 to 10 American businesses involved in Burkina Faso.
    Senator Johnson. In what areas are there--I know there is 
gold. It is primarily an agricultural society, but is it--I 
mean, are there some real investment opportunities?
    Dr. Mushingi. Yes, sir. The big one, as you said, is--the 
big one is agriculture. And, for now, cotton is the big, big 
leading export for Burkina Faso. But, gold comes second to 
that. But, as I said, this is an emerging economy, and 
therefore, everything that we can think about is open. 
Transportation, that is one area.
    But, back to agriculture, where our policies--but also the 
policies of the country are in sync with what we want to do, it 
is really a wide, wide-open market--the agricultural equipment, 
if we can sell some agricultural equipment there. Our biggest 
program, which is the Millennium Challenge Corporation, the 
bulk of that money is going into improving agricultural 
productivity. And everything from equipment to seeds to 
transportation, just for the whole chain, is open.
    Senator Johnson. OK. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you, Senator.
    We will now do a second round of questions, and I will 
continue with you, Dr. Mushingi.
    Talk to us about the Malian refugee issue inside Burkina 
Faso today. About 50,000, as I understand, refugees are there 
today. Talk to you about the security concerns within the 
country, relevant to that large a population, what kind of 
conditions they are living in, and what role the United States 
has to play in trying to secure those camps and then trying to 
either bring those folks back home or integrate them into 
society, if they're going to stay.
    Dr. Mushingi. Yes, thank you, Senator.
    Yes, as I said, we have about--there are about--close to 
50,000 Malian refugees in--within the borders of Burkina Faso, 
most of them in the north. And we are providing humanitarian 
assistance for those refugees, working with the Burkinabe 
Government. But, again, what we are trying to do is to maximize 
our aid, meaning--working with all the other partners, the 
civil society, the Burkinabe Government, but also other donors, 
such as France, in addressing the issue. This is one of those 
issues that transcends one country, and everybody has to work 
together.
    We are working with the Burkinabe Government in training--
on the security side--in training their local police to patrol 
the borders. That is to see who is coming in and who is not 
coming in. Once they are in the camp, our Bureau for Population 
and Migration and Refugees at State Department has already 
provided enough--have--has provided funding to work--to 
increase the basic health services within the camps--water, 
sanitation, and food--but also working with the Malians and the 
Burkinabe to register the Malian refugees who are in the 
country. And this, of course, as you alluded to, the agreement 
that was signed yesterday has--there is a provision for how--to 
see how these Malians can also continue to participate in the 
affairs of the country. And here we are talking about leading 
up to the elections.
    Senator Murphy. This is your first assignment in this 
particular country, but, of course, you have been actively 
engaged in watching and analyzing the region for your entire 
life. Talk to me specifically about President Compaore. 
Difficult to sort of figure out which direction he is heading 
in. He has, at times, been blamed as a destabilizing factor in 
the region, but, with respect to this new agreement, clearly he 
has, now, a renewed interest in bringing people together.
    I know that you have yet to take up this assignment, but 
give a little window into President Compaore and whether he is 
sincerely committed, in the long run, to trying to be a 
peacemaker or whether we are still living with some of his 
reputation, in the past, as someone that caused, sometimes, 
more troubles than he solved.
    Dr. Mushingi. Yes. Thank you, Senator, for your question.
    President Compaore, for the last decade or so, has been a 
valued partner of the United States, but also has been engaged 
in helping us, especially with the regional issues. Regional 
stability in that region involves all the actors in the region, 
and President Compaore has taken a lead in that aspect, and we 
are grateful for his lead.
    Going from our President's speech when he visited Africa a 
few years ago, the idea is for the Africans to take the lead in 
their affairs. We are there as partners and providing the help 
we can, and--but, they have to take the lead. And, on the West 
Africa side, in the grouping, the ECOWAS grouping, the economic 
grouping of West African nations, President Compaore has proven 
to be a leader, especially in mediating many of these 
conflicts.
    To his success, we know that Cote d'Ivoire--he helped with 
Cote d'Ivoire; and, so far, peace seems to be holding. He 
helped in Guinea Bissau--in Guinea. He helped in Togo, leading 
to the democratic elections. And now he is taking this strong 
lead in Mali, and we are grateful for that, as well.
    Senator Murphy. As are we.
    Mr. Pyatt, one additional question. Can--it is a simple 
one--can Ukraine achieve an association agreement with 
Tymoshenko still in jail? Is that the--there are--is that a 
bottom-line necessity in order to achieve an association 
agreement?
    Mr. Pyatt. Senator, I hope you will excuse me if I refrain 
from trying to predict, at this point, 6 months out, where we 
might be. I can say, Europe has been very clear about its 
conditions. The 27, soon to be 28, will have to reach a 
decision if we get to November and Mrs. Tymoshenko is still in 
detention.
    What I can say is that, if I am confirmed, I will work as 
hard as I can, as closely as I can, with my European partners 
to make sure that the Ukrainian Government reaches the correct 
decision. And I say this, having listened very, very carefully 
to Senator Durbin's floor statement yesterday. And I think the 
one thing that came through to me in his very welcome 
intervention was the idea that this is not about an individual, 
it is about a principle. And the principle is how a democratic 
government deals with a political opposition when leaders are 
out of power. And I think--I--again, I am reluctant to 
speculate on where things will turn out. I know that the 
European Union Ambassador in Kiev has said some hopeful things 
recently about his aspirations, that there may be a compromise 
that can be reached. And again, the handling of former Interior 
Minister Lutsenko shows that there is a road that the Ukrainian 
Government can follow involving a pardon, involving the release 
of political opponents.
    So, I know that is not a complete answer to your question, 
but I think it is probably about the best I can offer at this 
point. And again, if I am confirmed, you have my assurance that 
this will be at the very top of my list as I begin to find my 
feet with the Embassy team in Kiev.
    Senator Murphy. I did not expect you to give a complete 
answer. But, Senator Durbin wanted to be here today. I am one 
of the cosponsors of his resolution calling for the release of 
Mrs. Tymoshenko. I appreciate the work that you will do on 
this.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Dr. Mushingi, a quick followup on the Mali refugee problem. 
How many refugees are there, currently?
    Dr. Mushingi. The last number I was briefed on was about 
50,000 Malian refugees.
    Senator Johnson. You were talking about registering. Is the 
thought that they will be repatriated to Mali at some point in 
time, or are they going to be assimilated into the culture?
    Dr. Mushingi. The thought is, first and foremost, for us--
as you know very well the region and what is going on in that 
region--first and foremost, to know, at least to have an idea 
of, who is within the camp, and how to deal with the people who 
are in the camp. The next level is to work with the Malian 
Government. This agreement is an agreement that is leading to 
eventual elections in their country. To work with the Malians 
to see how those refugees can participate in the elections in 
their country. And, third, what any country that receives 
refugees hopes for, that refugees will be able to go back----
    Senator Johnson. Return.
    Dr. Mushingi [continuing]. To their own country.
    Senator Johnson. OK.
    Dr. Mushingi. But, as you know, it is a long process.
    Senator Johnson. Thank you.
    Mr. Pyatt, let us talk a little bit about the rule of law 
in Ukraine. Is that really what we are talking about, with 
political prosecutions? And is that shaking the confidence from 
the standpoint of U.S. investors--I guess I am glad to hear 
Royal Dutch Shell is concluding agreement; is that a hangup 
for, potentially, American companies, when they see, on the one 
side, the type of law they have, when it comes to the political 
situation?
    Mr. Pyatt. Thank you, Senator. I am reminded of something 
Secretary of State Colin Powell used to say when he would talk 
to us about investment, that money is a coward. And, I think, 
from that perspective, it is very important that Ukraine 
provides an environment for investment for business that is 
transparent, that provides the assurance of fair adjudication 
of disputes.
    The large energy investments that are on the horizon, in 
particular, I think can be real bellwethers in this regard, 
because these are very large American companies, which bring 
state-of-the-art technology, but also bring American business 
practices, in the best sense of the word, in terms of the 
Foreign Corrupt Practices Act, in terms of their preparedness 
to commit to long-term partnerships, but to commit to a long-
term partnership based on honesty, based on the rule of law.
    The United States, as a policy matter, our assistance 
programs have done a lot of good work in this area. Ukraine 
recently passed a new criminal procedure code that reflected a 
lot of work by the USAID mission in Ukraine. I know that the 
mission has been also engaged on the question of a new 
prosecutorial code. There is work to be done.
    When I have been engaged with some of the Central Asian 
governments, I sometimes remind myself, these are countries 
that have only experienced 21, going on 22, years of 
independence. They are still figuring out a lot of the rules of 
the road. And I ask myself, you know, Where was the United 
States, 22 years after 1776?
    But, there are opportunities that Ukraine has at this 
moment, and certainly we are prepared to work comprehensively--
and I think our business community is, as well--if the 
conditions are right. But, as I said in my prepared statement, 
as I have looked at our economic and commercial relationship, 
it is much smaller than it should be. This is a country of 46 
million people, with four EU member states on its border. I 
would like to see a much larger trade and investment 
relationship. But, that will only come if the conditions are 
right.
    Senator Johnson. Obviously, Russia's using its oil and gas 
exports as pressure. Are we going to be equally as prepared to 
utilize investment and foreign aid, basically, to create 
those--you know, the positive pressure for Ukraine to do the 
right thing? Is that your intention?
    Mr. Pyatt. Critically important question, and, I think, 
especially in areas like energy. Again, if those experts I have 
talked to are correct and Ukraine achieves 50-percent energy 
independence on the basis of new investment in shale gas, on 
the basis of assistance that USAID is providing on energy 
efficiency, on the basis of other nonconventional sources, that 
has the potential to change the energy politics of the region 
in a positive way that reinforces what has been United States 
policy for more than two decades, at this point, which is 
United States support for the territorial integrity and 
independence of a democratic and European Ukraine.
    Senator Johnson. Can you just speak a little bit in terms 
of political corruption, whether it is the wheat program, wheat 
exports, and your thoughts on what we can do, in terms of 
bringing pressure to bear to minimize that problem?
    Mr. Pyatt. Again, Senator, critical issue. I am glad you 
raise it. I know the mission has been engaged, for instance, on 
the question of the extractive industry's transparency 
initiative. The Ukrainian Government has adopted a roadmap. It 
is pursuing membership in that initiative, which would have the 
effect of building confidence in the business environment and 
establishing rules of the road, which would benefit, not just 
foreign investors, European or American, or, for that matter, 
Russian, companies, but also Ukrainian investors and Ukrainian 
companies.
    And, I think, again, this is part--as I look at it, and 
having spent much of my career working in countries that are in 
transition, which are developing their democratic cultures, 
this is part of that building process. And it has certainly 
been my experience that economic and commercial modernization 
and political modernization go hand in hand. There is a great 
deal that Ukrainians can be proud of, in terms of what they 
have accomplished since independence in political development. 
The 2010 Presidential elections absolutely met international 
standards, in terms of a free and fair electoral process. You 
have a flourishing civil society. You have got an active press. 
And you have a vibrant political opposition. But, that is a 
foundation on which Ukraine ought to build more.
    As Secretary Clinton said in one of her comments not so 
long ago, Ukraine deserves better. And if I am confirmed, I 
want to work with the Ukrainian people, and especially the 
emerging new generation of younger Ukrainians, to achieve that 
more hopeful future.
    Senator Johnson. If I can risk going over a little bit, I 
am almost reluctant to ask this question, but, in terms of 
political prosecutions--not necessarily always a black-and-
white issue. And without speaking to any one particular case, I 
mean, how muddied is the water there? How many are pure--I 
mean, to what extent is it pure political prosecution versus 
there sometimes are not all angels? Do you know what I am 
trying to get at?
    Mr. Pyatt. I think I know exactly what you are getting at, 
Senator. I think I would answer it this way. I, of course, have 
not looked over any of the prosecutorial dossiers on this. I do 
not have the factual background on the specific cases. But, I 
do know, as--in fact, as Senator Durbin, who, of course, has 
the legal expertise and has looked at these issues, said, just 
yesterday, when a former Prime Minister is imprisoned on the 
basis of a political--of a legal judgment against a decision 
she reached while in office, that raises questions about rule 
of law, and it raises the specter of the allegation of 
politically motivated prosecutions.
    So, that is, I think--let me leave it at that. Thank you.
    Senator Johnson. OK. Well, I appreciate that.
    Senator Murphy. Thank you.
    Let me just ask one last question to you, Dr. Mushingi. I 
wanted to ask a broader question, given your lifetime's work on 
United States/African relations. We spend a lot of time here 
talking about the investment that China is making in the 
African economy; in particular, their interest in natural 
resources. We, thankfully, have a renewed interest in our 
relationship with African nations, but largely because of the 
tumult in northern Africa and a growing recognition of the 
security challenges that are presented to the United States in 
Africa. We do not talk enough here, I think, about the work 
that we can do with foreign aid and economic development 
assistance to try to keep up with the interest that China is 
showing.
    Can you just speak for a second as to what, given your 
broad experience in the region tells you, should be United 
States policy with respect to economic investment in Africa? In 
particular, standing next to a pretty impressive buying spree 
from the Chinese over the last several decades.
    Dr. Mushingi. Thank you very much, Senator, for your 
question.
    I have dealt with that issue, the presence of the Chinese 
and other people in many of those countries. My last posting, 
which was Ethiopia, where I was Deputy Chief of Mission, we had 
to grapple with that issue, and deal with it. In fact, I had a 
chance to brief Senator Durbin when he came around to visit us. 
And one question was about the Chinese presence.
    On Burkina Faso, one thing that I can say for sure is that 
we have the will of the people. They want to work with us. And 
we believe that investment in promoting economic growth and 
strengthening the rule of law are insurance against violent 
extremism, regional conflicts, but, more importantly, poverty.
    Now, if confirmed, one of my priorities will be working 
with the Burkinabe Government to have a level of playing field 
so that everybody involved in the country, whether they are 
Chinese, French, Americans--that we can compete for the same 
opportunities, starting from the same level.
    The Chinese interests in many of those countries or--is--
can be, also, a--an opportunity for us that we can see where 
the--those companies are, and what they are doing. But, working 
with the local government, my priority, if confirmed, will be 
to ask and make sure that the American companies, as well, 
can--American companies can compete as well as those other 
companies from the other countries.
    Senator Murphy. Well, thank you.
    Thank you to both of our witnesses. I think this has been a 
very good hearing. My only disappointment is that we did not 
spend more time talking about the very important Burkina Faso/
Ukraine bilateral relationship. [Laughter.]
    But, maybe we will save that for next time.
    We have given members until Friday to submit questions. If 
there are additional questions, we hope that you will return 
answers to us with as much speed as possible. We are hopeful 
that we will be able to bring your nomination before this 
committee in the very near future, perhaps before our next 
recess.
    And again, thank you both for appearing here before us. 
Assuming your successful confirmation, we look forward to 
working with you.
    And, with that, this hearing is adjourned.
    [Whereupon, at 2:55 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Geoffrey Pyatt to Questions Submitted by 
                        Senator Robert Menendez

    Question. Last year, Ukraine removed the last batch of highly 
enriched uranium (HEU) from two of its remaining nuclear sites, 
bringing it closer in line with the commitments made by President 
Yanukovych and President Obama at the 2010 Nuclear Security Summit. 
This past May, Ukraine demonstrated its own long-term commitment to 
nuclear disarmament and nonproliferation when it opened a rocket engine 
airframes disposal facility to house the destruction of RS-22 (SS-24) 
missiles.

  <bullet> How is the United States prepared to assist Ukraine as it 
        enters the final stage of fulfillment of its international 
        commitments stipulated under the Strategic Arms Reduction 
        Treaty?

    Answer. We consider Ukraine a key strategic partner on issues of 
nonproliferation, arms control, and nuclear security. Since becoming a 
non-nuclear-weapon state in 1996, Ukraine has continued to play a 
leading role in global efforts to reduce the threat of WMD, including 
by removing all highly enriched uranium from Ukraine in 2012.
    Ukraine is financing the operation of a full-scale water washout 
facility to remove the propellant from Ukraine's remaining legacy SS-24 
solid rocket motors. Through the Department of State's Nonproliferation 
and Disarmament Fund (NDF) and the Department of Defense's Cooperative 
Threat Reduction program, the United States assists with this project 
through three primary efforts:

  <bullet> Construction of an empty motor case elimination facility to 
        facilitate the safe, ecologically sound incineration of 
        residual propellant and empty motor cases.
  <bullet> Provision of a fixed-fee payment for the empty motor cases 
        once Ukraine has removed the propellant.
  <bullet> Support for the safe storage of the remaining solid rocket 
        motors.

    The United States is proud to work with and support Ukraine on 
these projects.

    Question. The Tymoshenko prosecution and imprisonment has been a 
disaster for Ukraine and has hurt the country's reputation. The release 
of Lutsenko was a positive step, but how many other political prisoners 
do we know about in Ukraine? What sorts of conditions are they being 
held in and what are the prospects for their release?

    Answer. The Department has engaged at the highest levels, including 
directly with President Yanukovych, to express concern about the 
politically motivated prosecution of opposition leaders, including 
former Prime Minister Tymoshenko.
    As far as the Department is aware, Mrs. Tymoshenko is the last 
high-profile political figure still in detention as a result of a 
politically motivated prosecution. She currently faces criminal charges 
in three other cases and is under investigation for her alleged 
involvement in the 1996 murder of Yevhen Shcherban. Former Interior 
Minister Yuriy Lutsenko was released in April 2013, following a 
Presidential pardon. Former Deputy Minister of Defense Valeriy 
Ivashchenko was released on probation, but following Denmark's decision 
to grant him asylum, the Prosecutor General's Office has proposed to 
reinstate his original 5-year prison sentence.
    The Department's 2012 Human Rights Report noted that prison and 
detention center conditions in Ukraine remained poor, did not meet 
international standards, and at times posed a serious threat to the 
health of prisoners. In the case of Mrs. Tymoshenko, she was 
transferred from prison to a hospital in April 2012.

    Question. The administration recently identified Ukraine as a 
``Priority Foreign Country'' (PFC) for its lax IP practices, and has 
now launched a section 301 investigation. This was the first time since 
2005 that USTR had designated any country a ``Priority Foreign 
Country.'' To quote USTR's 2013 Special 301 report, ``The PFC 
designation is reserved by statute for countries with the most 
egregious IPR-related acts, policies, and practices with the greatest 
adverse impact on relevant U.S. products, and that are not entering 
into good faith negotiations or making significant progress in 
negotiations to provide adequate and effective IPR protection.''
    In its 2013 report, USTR specifically cited the rampant use of 
pirated software by the Ukrainian Government itself as one of the 
reasons for its PFC designation. Overall, estimates are that only 16 
percent of the software utilized in the country is legitimate. Ukraine 
is certainly not the only country with a poor regime for protecting IP, 
but the Ukraine Government has demonstrated a lack of responsiveness in 
addressing these issues. The U.S. Government has been pressing the 
Ukrainians on this issue for a long time, including signing an IPR 
Action Plan with the Ukrainian Government in 2010.

  <bullet> Unfortunately, we have seen little progress in implementing 
        this Action Plan. What do you plan to do once you have arrived 
        in Kiev to ensure that this issue gets the attention it needs 
        from the Ukrainian Government?

    Answer. As you note, Ukraine was designated a Priority Foreign 
Country for failing to provide adequate and effective protection of 
intellectual property rights (IPR). Following this designation, 
Ukrainian Government officials announced their intent to cooperate 
fully with the United States to develop and implement a plan to push 
forward IPR protections.
    If confirmed, I will make it a priority to advocate on behalf of 
U.S. companies and to work with Ukrainians, both in and out of 
government, to advance the protection of intellectual property rights. 
Working with Deputy Prime Minister Gryshchenko, I intend to hold the 
Government to its commitments to legalize the software on its 
computers, crack down on Internet piracy sites and pass legislation to 
protect copyright.
    I will also seek to partner with Ukrainian business associations, 
industry, and other diplomatic missions to mobilize our shared 
interests in strengthening the Government's IPR protection effort. I 
also intend to continue the Embassy's efforts to raise awareness about 
how IPR protection benefits Ukraine's economy.
                                 ______
                                 

          Response of Geoffrey Pyatt to Question Submitted by 
                      Senator Christopher A. Coons

    Question. This year, the United States Trade Representative (USTR) 
designated Ukraine a ``Priority Foreign Country'' (PFC) due to the 
Eastern European nation's disregard for the protection of U.S. 
intellectual property, particularly copyrighted works. This marks the 
first new PFC designation in 8 years. Ukraine's piracy rate for 
software alone is over 80 percent, and USTR noted the widespread use of 
pirated software by the Ukrainian Government as one of the reasons for 
the designation. The United States has pushed the Ukrainian Government 
to crack down on piracy for many years, including the signing of an IPR 
Action Plan in 2010. But Ukraine has failed to implement the bulk of 
the Action Plan, and little progress has been made.

  <bullet> In your new role, how will you help to ensure that the 
        Ukrainian Government more directly addresses American concerns 
        over intellectual property right protections?

    Answer. As you note, Ukraine was designated a Priority Foreign 
Country for failing to provide adequate and effective protection of 
intellectual property rights (IPR). Following this designation, 
Ukrainian Government officials announced their intent to cooperate 
fully with the United States to develop and implement a plan to push 
forward IPR protections.
    If confirmed, I will make it a priority to advocate on behalf of 
U.S. companies and to work with Ukrainians both in and out of 
government to advance the protection of intellectual property rights. 
Working with Deputy Prime Minister Gryshchenko, I intend to hold the 
Government to its commitments to legalize the software on its 
computers, crack down on Internet piracy sites, and pass legislation to 
protect copyright.
    I will also seek to partner with Ukrainian business associations, 
industry, and other diplomatic missions to mobilize our shared 
interests in strengthening the Government's IPR protection effort.
    I also intend to continue the Embassy's efforts to raise awareness 
about how IPR protection benefits Ukraine's economy.


                     NOMINATION OF DANIEL R. RUSSEL

                              ----------                              


                        THURSDAY, JUNE 20, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Daniel R. Russel, of New York, to be Assistant Secretary of 
        State for East Asian and Pacific Affairs
                              ----------                              

    The committee met, pursuant to notice, at 2:24 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, presiding.
    Present: Senators Cardin and Murphy.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. The Committee on Foreign Relations will 
come to order.
    I want to thank Chairman Menendez for allowing me to chair 
today's hearing in which we will consider Mr. Daniel R. Russel 
of New York to be Assistant Secretary of State for East Asian 
and Pacific Affairs.
    Today I am pleased to welcome Mr. Russel, the nominee for 
the Assistant Secretary of State for East Asian and Pacific 
Affairs to our committee. I had a chance to be with Mr. Russel 
before my recent trip to Asia, and I want to thank him 
personally for the briefing that I received. And I know that he 
is well qualified to be the Assistant Secretary.
    I first want to thank Mr. Russel for your willingness to 
continue to serve the public. I know that your family is here, 
and we want to thank your family as well because we know public 
service is a family sacrifice and we thank the members of your 
family for being willing to put up with your desire to serve 
your country.
    Mr. Russel is a career diplomat since 1985; he was a major 
architect of the administration's rebalance to Asia policy as a 
member of the White House National Security staff since 2009.
    As chair of the Subcommittee on East Asia and Pacific 
Affairs, I have been holding a series of hearings examining the 
rebalance to Asia policy. So I welcome the opportunity to 
discuss Mr. Russel's plans for the rebalance. Asia is 
tremendously important for America's economic growth. Yet, it 
faces serious challenges from nuclear proliferation to cyber 
attacks to climate change. I look forward to hearing from Mr. 
Russel as to how he will tackle these challenges in his new 
position.
    America's economic and national security interests are 
inextricably tied to East Asia's strength, stability, and 
security. The rebalance is a statement of our intent to more 
fully invest in the region, to support our allies and partners, 
and to contribute to the economic prosperity and stability of 
the region. I look forward to hearing what Mr. Russel's 
priorities will be for the rebalance in the coming years.
    As we rebalance to Asia, we must emphasize how critical the 
universal values of human rights and good governance are for 
security and prosperity. I held my first hearing on what the 
rebalance policy means for democracy, good governance, and 
human rights to illustrate this point. These values should be 
integral to every element of our rebalance policy.
    For instance, in my second hearing on security cooperation, 
we made it clear that our military engagement should support 
human rights, civilian control of the military, humanitarian 
assistance, and disaster relief. On economics, the Trans-
Pacific Partnership, the centerpiece of our regional economic 
engagement, can move forward only if progress is made on labor 
rights and basic human freedoms. Good governance also 
recognizes the strains we put on our environment that threaten 
food, water, and energy security.
    I welcome Mr. Russel's thoughts on how to undertake the 
rebalance not only through military and economic strategies, 
but by expanding human rights and good governance.
    I can see opportunities for progress on many fronts. Closer 
engagement with our allies and partners and active partnership 
with multilateral organizations such as ASEAN are key to a 
successful rebalance. ASEAN and China are working toward a 
binding code of conduct to resolve the South China Sea 
conflicts, which is encouraging.
    Myanmar's emerging democracy is also a bright spot. I have 
met with Myanmar's President and speaker and am impressed by 
their commitment to continue democratic progress. Cautious 
engagement has worked. I want to see it continued and reforms 
to succeed on all fronts, especially human rights.
    There have been signs of movement on North Korea as 
recently as today with some reports. I welcome Mr. Russel's 
views on how we should proceed for security on the Korean 
Peninsula. During my visit to the Republic of Korea, I 
encouraged the Republic of Korea's President Park to pursue her 
vision of a Helsinki-like process to realize her goal of a 
Northeast Asia confidence-building dialogue and to continue her 
humanitarian approach to help starving North Koreans. I welcome 
your ideas, Mr. Russel, as to how to engage that separated 
families of two nations to move toward reconciliation, 
including through closer cooperation with China.
    And that brings me to China and the stumbling block to our 
relations, human rights. During my visit to Beijing, I learned 
how extensively the government suppresses human rights. It is 
still not healthy to disagree with the government or you can 
end up in labor camps without trials for years. We must 
continue to have an honest, constructive dialogue with China on 
human rights, cyber security, and intellectual property. We 
want them to stop stealing our ideas and come up with their own 
to become an innovative society that is a true partner.
    We can partner with China in many areas, such as military-
to-military relations and climate change. I was encouraged by 
President Obama's informal meeting with President Xi, which 
symbolized the kind of relationship building necessary to 
increase mutual trust. And with their agreement to reduce 
hydrofluorocarbons, climate change is a promising area for 
cooperation.
    We must get our relations with China right in order to 
contribute to peace and stability in the region as two great 
Pacific powers.
    As you can see, Mr. Russel, you have a full plate ahead of 
you, and you will not be bored in your new position.
    And we look forward to your testimony. And with that, I 
will turn to Mr. Russel and just acknowledge that your full 
statement will be made part of our record. You may proceed as 
you wish and then we will engage in questions.

  STATEMENT OF DANIEL R. RUSSEL, OF NEW YORK, TO BE ASSISTANT 
     SECRETARY OF STATE FOR EAST ASIAN AND PACIFIC AFFAIRS

    Mr. Russel. Well, thank you very much, Mr. Chairman, for 
this hearing today, and thank you very much for your comments 
and thank you also for the leadership that you have shown since 
taking over the chairmanship of this committee on the Asia-
Pacific account.
    With your permission, I would like to begin by 
introducing----
    Senator Cardin. Please do.
    Mr. Russel [continuing]. My wife Keiko, my wife of 31 
years, who has stood by me and sacrificed so much for me and 
for my career, but also for my country. I would also like to 
introduce my two sons, Byron and Kevin. They, like their sister 
Emily, who is mercifully gainfully employed and therefore could 
not join us today, are what is called ``Foreign Service 
brats.'' They have grown up bouncing around the world, changing 
countries, changing schools, changing houses, changing 
languages every 3 years, and that has represented a great 
sacrifice, as has their waiting for me late into the night and 
missing me on weekends. So it is something that I am very 
grateful to them for.
    I appreciate your comments about families in the Foreign 
Service, Mr. Chairman. I think that my own family exemplifies a 
truth about the entire Foreign Service which is that the spouse 
and the children are really the unsung heroes. And I cannot 
thank them enough.
    Mr. Chairman, Senator Murphy, I am really honored to appear 
before the committee today and grateful to President Obama and 
to Secretary Kerry for their confidence in nominating me for 
the responsibility of serving as Assistant Secretary of State 
for East Asia and the Pacific, which is a region vital to our 
national interests.
    As a career member of the Foreign Service, I have devoted 
28 years to serving America's interests abroad, largely in 
Asia. In 1985, my first assignment was to serve as the staff 
aid to the U.S. Ambassador to Japan who, at the time, was the 
former Senate majority leader, Mike Mansfield, and he took me 
under his wing. He and his wife became mentors to me and to my 
wife. He became a lifelong friend, and to this day, he remains 
my hero, my role model, and my inspiration. His life 
exemplified honor, honesty, hard work, loyalty, modesty, 
respect for others. It is from him that I acquired a deep 
respect for this institution, and there is hardly a day that 
goes by where I do not think of him and miss him.
    My public service also taught me the value of the State 
Department's greatest asset, which is the wonderful and 
talented and dedicated men and women who serve in Washington 
and who serve abroad. In my career, I have been entrusted with 
assignments that carried responsibility for management, for 
security, and for the welfare of American citizens, and if 
confirmed, I pledge to maintain high ethical and managerial 
standards. I will insist on the best possible security for our 
personnel, rigorous safeguarding of our national security 
information, clear and straightforward communications, 
including with this committee and with your staff.
    Mr. Chairman, as you mentioned, President Obama has made a 
strategic commitment to rebalance our policy toward the Asia-
Pacific region because America's prosperity and security are 
inextricably linked to that region. I have had the privilege of 
serving as the President's special assistant for Asia, and I 
know that his objective in the region is to create and ensure a 
stable security environment and advance a regional order rooted 
in economic openness, a peaceful resolution of disputes, and 
respect for universal rights and freedoms. Secretary Kerry has 
affirmed his strong commitment to this strategy, and if 
confirmed, I will vigorously pursue this approach, which is 
yielding important benefits to the American people and to the 
region.
    I firmly believe that America's treaty alliances underpin 
our strategic rebalance to the Asia-Pacific region and are a 
unique attribute of American strength.
    More broadly, I believe the United States has a strong 
interest in inclusive and transparent regional institutions, as 
you alluded to, where countries work together to confront 
common challenges. We want these institutions to help ensure a 
stable, rules-based environment for economic growth, to promote 
respect for international law, and to encourage the resolution 
of disputes.
    I also recognize the importance of opening markets, of 
leveling the playing field, and deepening America's economic 
ties to Asia, and if confirmed, I will work closely with 
Congress and other stakeholders to promote U.S. exports and job 
creation, to advocate for U.S. firms, and to foster economic 
integration, and work to advance the administration's 
initiatives on energy, on the environment, and on climate 
change.
    Similarly, with respect to China, as you mentioned, Mr. 
Chairman, if confirmed, I will work to encourage China to 
resolve key bilateral issues, to cooperate on regional 
challenges, such as North Korea and maritime security, and to 
play a constructive and responsible role in addressing global 
challenges. I will seek to impress on the Chinese Government 
that protecting universal human rights is in China's own 
interest, and I will press China to take steps to stop this 
cyber theft of American companies' intellectual property.
    If confirmed, I will implement President Obama's policy of 
promoting a rules-based system in the Asia-Pacific, respectful 
of universal values, human rights, good governance, and 
democracy.
    Mr. Chairman, you mentioned North Korea's situation. North 
Korea presents, through its nuclear and ballistic missile 
programs, a serious threat to the United States, to our allies, 
and to the global nonproliferation regime. If confirmed, I 
would actively pursue the verifiable denuclearization of the 
Korean Peninsula and work to block North Korea's efforts to 
proliferate or to blackmail its neighbors. I am also concerned 
about the well-being of the North Korean people, including 
those who have fled tyranny there.
    In addition, the United States has a profound interest in 
the peaceful resolution of territorial disputes in the South 
and the East China Seas. It is essential that we uphold freedom 
of navigation and commerce, and if confirmed, I will support 
the U.S. policy of opposing coercion or the threat or the use 
of force, of reinforcing stability and adherence to 
international law, rules, and norms, and of preventing 
escalation or conflict.
    I would like to close, Mr. Chairman, by reiterating my 
commitment to do everything in my power to advance American 
security, to advance American interests. And I am firmly 
committed to good coordination with the legislative branch, and 
if confirmed, I look forward to close cooperation with you and 
your colleagues and your staff.
    So I thank you again for the opportunity to appear before 
the committee and for your consideration. I look forward to 
hearing your views and answering your questions.
    [The prepared statement of Mr. Russel follows:]

                 Prepared Statement of Daniel R. Russel

    Chairman Cardin, Senator Rubio, and distinguished members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee to be the next Assistant Secretary of State for East 
Asian and Pacific Affairs. I am deeply grateful to President Obama and 
to Secretary Kerry for placing their confidence in me with this 
nomination to serve the United States of America in the capacity of 
Assistant Secretary for a region that is so vital to our national 
interests.
    I would like to take this opportunity to thank and introduce to the 
committee my wife of 31 years, Keiko, who has stood by me and 
sacrificed so much for me and for this country over the years. I would 
also like to introduce my sons Byron and Kevin who, like their sister 
Emily (who is gainfully employed and could not attend today), grew up 
as ``Foreign Service Brats'' moving from country to country, school to 
school. They, too, have made many sacrifices for me and tolerated my 
long hours at work and frequent travel. My family exemplifies a truth 
about the Foreign Service--the spouse and the children are the unsung 
heroes--and I can't thank them enough.
    Mr. Chairman, this nomination is deeply meaningful to me because, 
as a career member of the Foreign Service, I have devoted 28 years of 
service to promoting America's interests abroad, largely in East Asia. 
After traveling to Asia as a 22-year-old and studying martial arts in 
Japan for 3 years, I returned home to New York and used my Japanese 
language ability in a multinational company. Over time, I recognized 
that whereas businesses throughout Asia were intensely interested in 
learning about the United States, back home too few Americans gave much 
thought to foreign affairs or to the necessity of defending our 
interests overseas. This concern motivated me to pursue a career of 
public service, and in 1985 I left the private sector, and proudly 
accepted an appointment as a United States Foreign Service officer. It 
is a decision I have never regretted. As my first assignment, I was 
posted to our Embassy in Tokyo, where I had the honor to work as the 
staff aide to former Senate majority leader and Senate Foreign 
Relations Committee chairman, Ambassador Mike Mansfield. Mike Mansfield 
took me under his wing, served as my mentor, and to this day is my role 
model and inspiration. His life exemplified honor, honesty, hard work, 
loyalty, modesty and respect for others. As a former Senator he taught 
me the importance of teamwork between the executive and legislative 
branches. And as an ambassador who represented the United States under 
both President Carter and President Reagan, he taught me the value of 
bipartisan cooperation.
    I have worked for other exceptional American diplomats and been 
given extraordinary opportunities to contribute to important foreign 
policy priorities. As Political Advisor for Asia under Ambassador Tom 
Pickering at the U.S. Mission to the United Nations from 1989 to 1992, 
I traveled widely in Asia and to the Pacific Island nations, I 
participated in the Cambodia peace talks, played a small role in the 
restart of our relations with Vietnam, and coordinated our successful 
efforts to bring the Republic of Korea into the United Nations as a 
full member state. As Political Unit Chief at our Embassy in Seoul, 
Republic of Korea, I participated in nuclear negotiations with North 
Korea and helped to negotiate the 1994 Agreed Framework. In later 
positions in the State Department, including as Chief of Staff to the 
Under Secretary of State for Political Affairs and during my service at 
the National Security Council over the past 4\1/2\ years, I have been 
granted the opportunity to contribute to the formulation of America's 
foreign policy and to work on some of the most pressing challenges 
facing our country. I very much hope for the opportunity to continue 
that work as Assistant Secretary of State for East Asia and the 
Pacific.
    Mr. Chairman, almost three decades of government service have 
taught me to value the State Department's greatest asset--its talented 
and dedicated employees. The women and men of the State Department 
represent the best this country has to offer, and I am humbled to be 
considered for this position of leadership. If confirmed, I will take 
every opportunity to promote their role and skills, while relying 
heavily on their expertise, enthusiasm, and deep sense of loyalty to 
the United States. I care deeply about the State Department and will do 
my utmost to strengthen it as an institution. This includes pursuing 
resource requests for operations commensurate with the Department's 
mission and national interests and for foreign assistance funding that 
represents sound investments by the American people to promote our 
prosperity and security, as well as our values as a democratic nation.
    Over the years I have been entrusted with responsibility for 
managing two of our embassies in Europe--in Cyprus and in The Hague--as 
Deputy Chief and Mission and Charge d'Affaires. Those positions, as 
well as my service as Principal Officer in Osaka, one of our largest 
consulates in Asia, carried significant responsibility for management, 
security, and the welfare of American citizens. I have always placed a 
high premium on management excellence. If confirmed, I will emphasize 
proper and responsive management within the Bureau and at our posts 
abroad. I pledge to maintain high ethical standards, careful 
stewardship of resources, the best possible security for our personnel, 
rigorous safeguarding of information relating to national security, and 
clear and straightforward communications, including with this committee 
and its members.
    Mr. Chairman, this is an extraordinary time of opportunities and 
challenges for East Asian and Pacific countries and for the United 
States. With the recognition that America's future prosperity and 
security are very much intertwined with the Asia-Pacific region, 
President Obama made a strategic commitment to rebalance our interests 
and investments in Asia. The President set out a clear, overarching 
objective for the United States in the region to sustain a stable 
security environment and advance a regional order rooted in economic 
openness, peaceful resolution of disputes, and respect for universal 
rights and freedoms. As underscored by Secretary Kerry during his trip 
to the region in April, the State Department remains committed to this 
U.S. strategic objective by building an increasingly active and 
enduring presence in the region. As Senior Director for Asian Affairs 
on the National Security Staff, I have worked to promote the United 
States increased focus on the Asia-Pacific in line with the President's 
strategic priorities and the national interest. I wholeheartedly 
believe that as a Pacific country with profound interests in the 
region, America should engage deeply throughout the region and provide 
inspiration, security, and leadership. If confirmed, I will sustain a 
``whole-of-government approach'' ensuring that the efforts of the State 
Department are closely coordinated with USAID, the Defense Department, 
and other agencies. I will work with Congress, the business community, 
and nongovernmental organizations to build on and shape the important 
partnerships that promote our prosperity and security.
    Over the past 4 years, our robust engagement with the Asia-Pacific 
through governments, institutions, and people-to-people programs has 
yielded positive returns politically, socially, economically, and 
militarily. I intend to sustain this focus and continue the 
Department's efforts to strengthen and modernize our alliances, enhance 
our partnerships with regional powers, support regional multilateral 
institutions, boost trade and investment, advance democracy and the 
respect for human rights, and strengthen ties between Americans and the 
people of the region. Mr. Chairman, I will touch briefly on some of 
these aspects.
    First, I firmly believe our treaty alliances with Japan, the 
Republic of Korea, Australia, the Philippines, and Thailand remain the 
bedrock for our strategic rebalance to the Asia-Pacific. These enduring 
relationships represent a unique asset for the United States and an 
important multiplier of our influence in the region. Our alliances are 
grounded in history, shared values, and our common commitment to 
democracy, free markets, rule of law, and human rights. They provide 
the foundation for close cooperation that ensures regional stability 
and reassures our friends and regional partners of U.S. commitment to 
the Asia-Pacific region. I believe that our ties with our East Asian 
and Pacific allies are stronger than ever. If confirmed, I will work 
closely with colleagues at the Defense Department to ensure that our 
alliances are maintained and modernized in a way that promotes 
operational needs and our shared strategic goals, including new 
cooperative efforts in cyber security, space, counterpiracy, and 
counterterrorism.
    Second, Mr. Chairman, beyond our bilateral relationships, I believe 
the United States has a strong interest in the further development of 
an inclusive and transparent regional architecture of multilateral 
institutions. The Asia-Pacific region is increasingly seized with the 
need to develop rules-based frameworks for dialogue and cooperation 
that will help maintain stability, resolve disputes through diplomacy, 
and ensure that countries can rise peacefully. If confirmed, I will 
work to strengthen regional structures, such as the Association of 
Southeast Asian Nations Regional Forum and the East Asia summit, so 
that these bodies effectively ensure countries work together to 
confront common challenges, provide a stable environment for economic 
growth, and act with respect for international law and rules.
    Many of these forums are built on the underlying platform of the 
Association of Southeast Asian Nations, or ASEAN. For decades, ASEAN 
has embodied a framework for regional cooperation based on mutual 
respect and the renunciation of force. Not only does ASEAN provide a 
platform on which to build a regional architecture, but the countries 
of Southeast Asia are becoming increasingly important as their 
economic, political, and social dynamism grows. The increased U.S. 
focus on ASEAN in recent years mirrors our enhanced engagement with 
Southeast Asia as a whole, representing a ``rebalance within the 
rebalance.'' Southeast Asia's strategic geography, population of over 
600 million, economic growth, and its rapidly expanding middle class 
underscore its significance. If confirmed, I will ensure that we 
continue to bolster our ties with Southeast Asia, including with 
emerging centers of influence, such as Indonesia, where we are 
strengthening our relationship through the Comprehensive Partnership. 
This engagement includes strengthening efforts like the Lower Mekong 
Initiative, which supports narrowing the development gap in Southeast 
Asia, and regional mechanisms to improve human rights and the rule of 
law.
    The United States has historic ties to the Pacific Island nations, 
our neighbors on our farthest, westernmost maritime boundaries and home 
to vast marine resources. As such, the Pacific Islands have an 
important role to play in our rebalance, and if confirmed, I will help 
to deepen and institutionalize our ties with these partner nations and 
with regional bodies such as the Pacific Islands Forum and the 
Secretariat of the Pacific Community. This includes working with the 
committee and others in Congress to implement the Palau Compact Review.
    Third, Mr. Chairman, millions of U.S. jobs are tied to exports to 
the Asia-Pacific region, and that should increase through sustained 
U.S. economic statecraft with the growing economies of the region. 
Having seen the benefits of such high-quality agreements such as the 
U.S.-Korea Free Trade Agreement and our free trade agreements with 
Australia and Singapore, I recognize the importance of trade 
liberalization and deepening our economic relations with the Asia-
Pacific.
    If confirmed, I will work closely with Congress, USTR, U.S. 
stakeholders, and partner countries to advance an agenda that promotes 
U.S. exports and job creation, advocates for U.S. firms, fosters 
regional economic integration, and lays the foundation for robust, 
sustained growth at home and throughout the Asia-Pacific.
    We are now committed to an even more ambitious project in the 
Trans-Pacific Partnership (TPP) trade negotiations. If confirmed, I 
will work in support of the successful conclusion this year of the TPP 
negotiations to develop a next-generation regional trade and investment 
agreement, which also promotes internationally recognized labor rights, 
environmental protection, and transparency.
    In an effort to sustain momentum for achieving free, fair, open, 
and transparent trade throughout the region, if confirmed, I will 
ensure continued strong U.S. leadership in the 21-member Asia-Pacific 
Economic Cooperation (APEC) forum, a key organization for addressing 
practical issues affecting U.S. consumers and businesses and 
establishing policies and standards that facilitate trade and 
investment in the region. Additionally, I will continue to advance 
Presidential initiatives on Expanded Economic Engagement with ASEAN and 
the U.S.-Asia-Pacific Comprehensive Energy Partnership, and examine new 
opportunities to work with the region on environmental protection and 
climate change issues.
    Fourth, Mr. Chairman, over the last 4 years the Obama 
administration has placed great importance on the U.S.-China 
relationship and has made substantial progress in building a 
relationship that can address the challenges of the 21st century. As 
President Obama has made very clear, including at his recent summit in 
California with President Xi, the United States welcomes a stable, 
prosperous, and successful China that takes responsibility on the 
global stage commensurate with its stature. If confirmed, I will 
continue to build on the progress that has been made and further 
encourage China to take a constructive role in addressing global 
challenges.
    Two themes have guided the U.S. approach to China. First is the 
recognition that the U.S.-China relationship will continue to have 
elements of both cooperation and competition. To prevent the emergence 
of old-style strategic rivalry, we must continue to reject the premise 
that a rising power and an established power are somehow destined for 
conflict. Instead, the United States and China must focus on fostering 
new patterns of practical cooperation on issues that matter to both 
countries. Second, the administration has stressed the importance of 
sustained and substantive dialogue across the range of issues in the 
relationship, including stronger U.S.-China military-to-military ties. 
Only by pursuing a whole-of-government approach in our dialogues can 
the United States and China create consensus around rules and norms 
while we remain committed to our values and interests. If confirmed, I 
will continue to impress upon the Chinese Government that protecting 
human rights is not only about China's adherence to international norms 
governing the protection of universal values, but it is also 
intrinsically in China's interest. This is because greater respect for 
fundamental freedoms will ultimately strengthen the U.S.-China 
bilateral relationship and contribute to China's continued peace, 
prosperity, and stability. On cyber-enabled theft, the U.S. has made 
clear that we need China to recognize the urgency and scope of this 
problem and the risk it poses--to international trade, to the 
reputation of Chinese industry, and to our overall relations. Beijing 
should take serious steps to investigate and put a stop to these 
activities. Finally, we need China to engage with us in a constructive 
discussion on acceptable norms of behavior in cyber space within the 
recently announced U.S.-China cyber security working group.
    Regarding our friendship with Taiwan, the United States remains 
firmly committed to our one China policy based on the three U.S.-PRC 
Joint Communiques and the Taiwan Relations Act. Under our one China 
policy, the United States maintains close unofficial relations with 
Taiwan, which is a thriving democracy and an important trading partner. 
Our friendship and robust commercial, cultural, and people-to-people 
exchanges with Taiwan have never been stronger.
    Finally, Mr. Chairman, if confirmed, I will continue to promote and 
support a rules-based system respectful of universal values, human 
rights, and democracy in the Asia-Pacific. It is not a coincidence that 
virtually every country that threatens peace is a place where human 
rights are in peril. It is also not a coincidence that many of our 
closest allies are countries that embrace pluralism, tolerance, equal 
rights and equal opportunities. In short, there is a strong link 
between standing up for human dignity abroad and the national interests 
of the United States. As such, I will ensure our diplomats continue to 
monitor and promote the respect for human rights in bilateral and 
multilateral settings, and support the region's own efforts to foster 
vibrant, democratic civil societies.
    Mr. Chairman, I want to make note of the historic reforms in Burma 
over the past few years. Burma, a country impoverished by decades of 
authoritarian military rule and self-imposed isolation, is undergoing 
an unprecedented political transition marked by a rapid expansion of 
civil liberties and human rights. These reforms have allowed us to open 
a new chapter in bilateral relations and expand our channels for 
assistance. We recognize that much more remains to be done. To ensure 
that this extraordinary transformation succeeds, I will push for 
continued reform, including advancing democracy and respect for human 
rights of all citizens, protection of ethnic and religious minorities, 
increased efforts toward national reconciliation, advancing economic 
development, and cooperation on nonproliferation. Burma remains 
important to U.S. interests as a demonstration of the benefits that can 
accrue to a nation that pursues a progressive path to change.
    Having served extensively overseas, I believe passionately in the 
power of people-to-people ties and in the importance of our public 
diplomacy initiatives. Our public diplomacy programs introduce foreign 
audiences to the diversity of American culture and society, showcase 
the role that civil society plays in the United States, and create the 
long-term foundation for understanding and collaboration. If confirmed, 
I will fully support expanding innovative educational and cultural 
endeavors. We will also continue to increase our bilateral dialogues 
and create multilateral dialogues on educational and cultural issues 
such as the U.S.-China Consultation on People-to-People Exchange. I 
will give priority to conveying American ideals through social media 
platforms in tech-savvy East Asia to connect us with young and diverse 
audiences.
    Mr. Chairman, if confirmed, I will strongly encourage building 
greater interparliamentary connections, and toward that end I encourage 
Members of Congress and congressional staff to travel to the region and 
engage with the region's leaders and people. I will pledge the warm 
welcome and full support of our Embassies.
    The Asia Pacific security landscape continues to evolve, and I am 
committed to ensuring that we are responsive to longstanding challenges 
as well as changing demands. North Korea's illicit nuclear and 
ballistic missile programs, proliferation activities, and flagrant 
violations of U.N. Security Council resolutions constitute a serious 
threat to the United States and its allies, the region, and the global 
nonproliferation regime. The United States remains steadfast in its 
commitment to the defense of our allies, and to maintaining peace and 
security in the region. If confirmed, I will work with absolute 
determination to pursue the full and verifiable denuclearization of the 
Korean Peninsula in a peaceful manner and to block North Korea's 
efforts to engage in proliferation and blackmail of its neighbors. We 
remain deeply concerned about the well-being and human rights of the 
North Korean people and join the international community in urging the 
DPRK to cooperate with the U.N. Commission of Inquiry regarding the 
widespread violations of human rights in the DPRK.
    Territorial and maritime disputes have resurfaced as key challenges 
to peace and stability. Although the United States is not a party to 
the underlying sovereignty disputes, we have a profound interest in 
seeing that these disputes are managed and resolved peacefully and in 
accordance with international law and that freedom of navigation and 
commerce are upheld. If confirmed, I will fully support a U.S. 
diplomatic and security role that reinforces stability and discourages 
escalation of tensions.
    Cyber space also poses unique and compelling challenges to our 
prosperity and security and that of the region. If confirmed, I will 
work hard to safeguard the intellectual property of our highly 
innovative companies and institutions from cyber theft and malicious 
cyber actors, as well as protect our critical infrastructure. We will 
work actively with both interagency and foreign counterparts to step up 
our efforts on this front, which includes sustaining our engagement 
with China.
    Mr. Chairman, let me close by reiterating my fundamental 
commitment, if confirmed, to do all in my power to ensure that the 
United States shapes trends in this dynamic region in ways that benefit 
both our own interests and those of the region as a whole. I strongly 
believe that close coordination between the executive and the 
legislative branches will be crucial to this endeavor, and, if 
confirmed, I look forward to close cooperation with you, Mr. Chairman, 
and your colleagues.
    Thank you, again, for this opportunity to appear before you. I am 
happy to respond to any questions you may have.

    Senator Cardin. Well, thank you very much for your 
testimony. You have already answered one of my questions about 
your cooperation with this committee and Congress I think three 
or four times during your opening statement. You reinforced 
your willingness to work closely with our committee, and you 
have already demonstrated that in your other capacities. So I 
thank you for that.
    I am going to let Senator Murphy inquire first.
    Senator Murphy. Thank you very much, Mr. Chairman.
    And welcome. Congratulations on this step forward. We hope 
to be able to move your nomination forward expeditiously.
    I wanted to explore the interplay of our rebalance to Asia, 
both with respect to what is happening at the State Department 
through diplomatic channels, but also how that works together 
with our military rebalance. And I wanted to ask you to talk 
about this in the context of the maritime territorial disputes 
in the region. They greatly worry me. I know we have, in part, 
dedicated more military resources and more ships to the region 
to make it clear that we are going to continue our historic 
commitment to maintaining open seas, but I also know that we 
have been encouraging for some of the regional forums to be 
used as a dispute settlement mechanism with great resistance 
from China.
    And so I would love to hear your thoughts about the path 
forward and how the United States interplays with some of these 
maritime disputes but also how you see the interplay between 
the tools that we have on the diplomatic side and tools that we 
have on the military side specifically with respect to this 
question.
    Mr. Russel. Thank you very much, Senator, for that 
question. I think the juxtaposition of the two issues that you 
identify, which is the coordination of roles and resources 
between the security and diplomatic tracks and the challenge in 
the maritime space, is really a central challenge that faces 
the United States at the moment and in the years to come.
    The essence of the President's rebalancing strategy has 
been to create a stable environment in a region that is 
critical to America's future prosperity and interests that is 
built on an existing investment by the United States in 
security arrangements that have allowed for the development 
and, frankly, the prosperity that the region has seen, but also 
to help overlay that with a structure and system of rules and 
norms that are respectful of and consistent with international 
law. Nowhere is it more evident or more important to us and to 
our friends and partners for the approach to territorial and 
sovereignty disputes in the Asia-Pacific region to be addressed 
in a peaceful and diplomatic manner in ways that are consistent 
with international law.
    The United States is itself not a claimant. We have no 
interest in the territory itself, but we have a profound 
interest in the conduct of the claimants and other parties, 
including and particularly that of China. We firmly oppose 
coercion whether it is military coercion or economic coercion 
and the threat and the use of force.
    As a key element of rebalancing, as you alluded to, the 
President has made clear to his military establishment that 
security in the Asia-Pacific region is a strategic priority for 
the United States, and I know that my colleagues in the 
Pentagon have planned and operated on the basis of that 
strategic guidance.
    At the same time, the President has also made clear that 
there is an important role for the State Department on the 
diplomatic side in helping to build up the relationships 
between the United States and our allies. The rebalancing 
strategy has begun with modernizing our alliances. We have 
invested heavily in the development of the institutions in the 
region that are built around ASEAN, the Association of 
Southeast Asian Nations. And that, most importantly, includes 
the decision by President Obama to begin participating 
personally in the annual East Asia summit, which we see 
emerging as the premier forum for leaders to discuss security 
and political strategic issues, something that frankly they 
cannot do in any other forum because the only other major 
regional institution, APEC, is an economic cooperation 
organization. And I think that the President feels that we have 
made some headway on that front.
    Senator Murphy. But talk to me about China's interest in--
if China wants to become a true superpower standing next to the 
United States, then they have to accept that they need to play 
by international norms and that they have to be a player in 
some of these regional dispute settlement forums. And thus far, 
we have not seen a lot of interest in them to do that.
    Tell me about what pressure the Chinese feel to join in on 
some of these efforts and what we can do to try to encourage 
them to get there rather that continuing to sort of be a 
diplomatic rogue.
    Mr. Russel. Senator, the issue of China's engagement with 
ASEAN and with the other claimant countries diplomatically, as 
well as China's particular behavior on the seas, whether it is 
in Scarborough Shoal or the Second Thomas Shoal in the Spratlys 
and the Paracels in the South China Sea as well as in the East 
China Sea, is an issue that the President and top officials, 
including Secretary Kerry, have in fact raised very directly 
and very consistently with the Chinese, as well as in the fora 
with the ASEAN, such as the East Asia summit, where China is 
very much present and accounted for. We have had this 
discussion directly in bilateral and in multilateral fora with 
the Chinese.
    And I think the Chinese similarly are in no doubt that 
America stands by our allies and that the existence of the 
Philippines, a treaty ally, as a competing claimant, our 
relationship with Japan, with whom China has a sovereignty 
dispute over the Senkakus in the East China Sea--these are 
issues that the Chinese understand directly implicate United 
States interests and will have an effect on the prospects for a 
United States-China relationship.
    So I believe, Senator, that we have delivered this message 
consistently and clearly. I think we have reinforced the 
confidence of our partners and allies and given a constructive 
boost to ASEAN's effort to begin negotiations directly with 
China on a code of conduct. I think we have supported other 
diplomatic and recourse to international law on the part of 
some of the claimants, and if confirmed, Senator, I certainly 
will do everything in my power to try to lower the temperature, 
push claimants including China into a diplomatic track, and 
continue to warn them that the region in which China will 
flourish is a region of law, a region of order, and a region of 
respect for neighbors, not one in which there is space for 
coercion and bullying.
    Senator Murphy. I think the administration has been very 
clear on this point. I certainly did not mean to suggest that 
it has not been.
    I am certainly very pleased at your nomination and look 
forward to working with you.
    Thank you, Mr. Chairman.
    Senator Cardin. Let me follow up on the maritime security 
issues because I think Senator Murphy is right on target here. 
As you point out, we have treaty responsibilities with several 
of the countries that are involved in maritime disputes. There 
are also the shipping lanes that are important for commerce. 
When I was in Northeast Asia, the East China Sea disputes were 
mentioned by just about every public official I met with as 
being a major area of concern. Of course, in the South China 
Sea, there are very, very serious issues that have already in 
some cases mushroomed into violence and could become more 
widespread.
    Recently Vietnam and China agreed on a hotline to deal with 
fishing incidents. One could look at that as a very positive 
sign. After all, they now have a way of communicating if 
something develops, trying to cool it down rather than 
escalating it. But it is also of concern as to whether China is 
trying to circumvent ASEAN and other international forums where 
these issues need to be developed, particularly with a code of 
conduct.
    What is your prognosis on how we can cool down the maritime 
issues and get the parties directly negotiating rather than 
seeing the loss of life and violence?
    Mr. Russel. Thank you, Mr. Chairman.
    Before I begin, let me say that I think that your visit to 
Northeast Asia was very productive, and I thank you for taking 
the time to go there. And I will put in a plug. If confirmed, I 
am a great believer in the tremendous value of congressional 
delegations, and I can promise you that the East Asia-Pacific 
Bureau and posts will roll out the red carpet and open their 
doors not only to you, Senator, but any Member of Congress or 
any staff member who is willing to take the time to go because 
I think it is very important.
    With respect to the claimants to the disputed territories 
in the South China Sea, it is our view that there should be a 
consensual, inclusive, collaborative process among the 
claimants, that it is unacceptable for any party, including 
China, to demand that only bilateral negotiations are possible 
or allowable. By the same token, we, not being a claimant, are 
entirely comfortable with bilateral discussions and 
negotiations being part of the mechanisms for addressing both 
some of these disputes and the question of how to appropriately 
share and manage the maritime resources, which are really a 
treasure that belong to the people.
    Specifically, we think that the negotiations among the 
claimants should not only be friendly and diplomatic but should 
be undertaken on the basis of international law. And we have 
called on the claimants to clarify their claims in ways that 
are consistent with the Law of the Sea, specifically to base 
them on recognized land features. We, at the same time, think 
that a broader diplomatic process that gets at not the question 
of who owns what and whose border begins and ends where, but 
the issue of how nations behave in the South China Sea, in the 
common area, and particularly in areas of dispute is critically 
important and is urgent. And we have given ASEAN our full 
backing in their efforts to go beyond the declaration of 
conduct that they had agreed to in 2002, which is somewhat 
theoretical, to a practical code of conduct.
    Now, China and ASEAN have held informal discussions. I 
understand that there are plans for meetings later in the 
summer at the ministerial level. Secretary Kerry will travel to 
Brunei at the end of this month to attend the ASEAN regional 
forum. And these are places where there is both an opportunity 
for China to make progress with ASEAN, but also in the case of 
the ASEAN regional forum and then in October the East Asia 
summit where President Obama will attend, an opportunity for 
senior U.S. officials to speak out clearly and constructively 
to urge not only adherence to the principles that I have 
mentioned but also to try to galvanize the kind of diplomatic 
process that will address both the need for responsible conduct 
and the desirability of actual negotiations.
    Senator Cardin. And I think the United States has been very 
clear about our commitments on the maritime issues. I do not 
think we could leave any doubt because it is a matter of major 
security concerns to our partners in Asia.
    When President Park was here, she mentioned developing a 
security dialogue organization for Northeast Asia. When I was 
in the Republic of Korea and also, by the way, in Japan and 
China, I talked about a regional security dialogue. And it was 
favorably thought about by all the parties.
    One of the things that I think surprises most Americans is 
that we usually think of the Republic of Korea and Japan as 
being our two strongest allies in that region, and the 
relationship between those two countries could certainly use 
some improvement. They certainly have areas that still remain 
unresolved. A regional dialogue organization may help resolve 
some of these issues. And of course, dealing with China, 
dealing with North Korea--and they would also want to see the 
participation of Russia and the United States. I think there is 
a lot of promise to that type of organization to be patterned 
sort of after the Helsinki process.
    Do you have a view as to whether a separate organization in 
Northeast Asia could be helpful?
    Mr. Russel. Thank you, Mr. Chairman.
    And I am very familiar both with the Helsinki Commission 
and also with your role as the cochair here. I served for 6 
years in Europe, and I saw firsthand the progress that the 
Helsinki Commission was able to galvanize and to drive on the 
European side. And I think that you are asking a question that 
is worth seriously looking into. And if confirmed, it is 
something that I would like to continue to discuss and to 
probe.
    I also noticed and I saw, in fact, Mr. Chairman, in your 
remarks on the Senate floor earlier this month, your reference 
to this, that there are real analogies between the Helsinki 
process and the Northeast Asia Peace and Cooperation Initiative 
that President Park Geun Hye has put forward. I think it is 
worth looking and thinking at quite carefully. There are 
parallels.
    There are likely to be some differences in Asia, and one 
outstanding question would be whether there is a role for the 
Helsinki Commission itself to help and to cooperate in the 
region or whether there should be a regional institution 
developed along those lines.
    An associated question would be the balance between 
engaging on some of the softer issues that help build 
confidence, that help build trust. As I have heard President 
Park speak about her initiative, she has tended to favor that 
approach, starting more softly, so to speak. I know that the 
key six parties in Northeast Asia have come together repeatedly 
both in the six-party talks itself and in other subformats over 
the years in an effort to deal directly with security.
    I think at its heart, the security challenge that faces all 
of us in the East Asia and Pacific region is manifested most 
vividly in the threat from North Korea.
    Senator Cardin. Of course, we have the six-party talks 
dealing with North Korea, and there have been some encouraging 
signs just very recently that there may be a desire for North 
Korea to engage in discussions under the framework of complying 
with their agreements on a denuclearized Korean Peninsula.
    The interesting part about a Helsinki-type process as it 
relates to North Korea is that we are all focused on their 
nuclear ambition and their military prowess. But as we heard 
over and over again from President Park and other South 
Koreans, that in order to have a stable Korean Peninsula, it is 
not just getting rid of the nukes. It is also dealing with the 
human rights conditions of the people that are living up in the 
North and economic opportunities for the people who are living 
in the North. So it is really a more comprehensive approach. 
And what the South Koreans seem to want is for North Korea to 
comply with their commitments for a nuclear-free peninsula but 
then to engage on ways in which there could be cooperation for 
the economic development and the basic respect for the rights 
by the government of the people of North Korea.
    Mr. Russel. I agree, Mr. Chairman. And in fact, at the risk 
of quoting you back to yourself, I remember watching your 
speech at CSIS earlier this spring, and you used a formula that 
really made an impression on me. You said governments need to 
understand that they will never achieve economic security or 
political security without respect for good governance and 
human rights. I think that is a critically important principle 
that applies, I am sure, globally but certainly in the East 
Asia region and nowhere more so than to North Korea.
    President Obama has said very clearly that North Korea can 
never achieve the security, the respect, or the economic 
prosperity that it says it wants through its pursuit of nuclear 
weapons and missiles.
    I think, Mr. Chairman, that the two issues you have 
identified, North Korea's egregious pattern of human rights 
abuses and its failure to feed its own people and its headlong 
pursuit of nuclear and nuclear missile capability that is 
highly destabilizing and threatening to the region--these are 
in a way two sides of the same coin. North Korea is choosing 
not to feed its people. North Korea is prioritizing, frankly 
useless--pursuit of a useless military capability against an 
imaginary threat at the expense of the kind of growth and 
economic development that it claims to want and that its people 
deserve.
    I am deeply concerned about the plight of the North Korean 
people, as well as those who have managed to escape from 
tyranny, and I am particularly concerned about North Korea's 
continuing efforts to proliferate and to further develop 
nuclear and missile capabilities that we find so threatening. I 
have dealt directly with the North Koreans and the North Korean 
issue for more than 20 years in my position in the National 
Security Council. I have traveled to North Korea. I know these 
guys. If confirmed, Mr. Chairman, I will make the effort to 
accelerate the achievement of denuclearization, not just the 
theory, to actually help bring about a halt, a rollback, and an 
elimination of North Korea's nuclear program a top priority, 
and I believe in that effort, we stand a much greater chance of 
being able to address the human rights problems in that 
country.
    Senator Cardin. And a country that could help us achieve 
change in North Korea is China. I was very impressed by my 
meetings with the Chinese as to how sincere I believe they are 
in trying to have a change in direction in North Korea as it 
relates to nuclear weapons, as well as opening up their economy 
as China has opened up its economy.
    You cannot help but notice tremendous change in China. You 
see entrepreneurs on the streets. You see more freedom than has 
been enjoyed in past generations, and you see a country that is 
clearly moving in a more aggressive way economically.
    Having said that, as I said in my opening statement, the 
one-party, Communist-ruled country violates the basic human 
rights of its citizens. It is not good to disagree with the 
government too loudly in China. They still have these 
reeducation labor camps where you could be detained for an 
extended period of time because you disagree with the 
government. I was absolutely so disappointed talking to 
religious leaders as to how the government stops just about any 
organized religion from being able to carry out its normal 
assemblies. And then most of the people in the country are 
locked into where they are born. They do not have a chance to 
really benefit from the economic advancements of the country. 
You have the ``have and have-nots.''
    So I guess my question to you is we need to develop a 
stronger relationship with China. We need their help on many 
issues, including North Korea, including the environment, 
including the fact that they are a member of the permanent 
council of the United Nations Security Council.
    So how do we handle China, recognizing its strategic 
importance to the United States, but also our concern for basic 
good governance and human rights?
    Mr. Russel. Well, thank you, Mr. Chairman.
    Clearly, China is a hugely important and hugely 
consequential country and relationship for the United States. 
Before I turn to China, let me say that I entirely agree that 
China has an important role to play in our efforts to deal with 
North Korea.
    I believe also, Mr. Chairman, that Burma does as well. I 
think that the model, the example of Burma, an authoritarian 
leadership that made an affirmative decision to pursue a 
peaceful path to democracy and economic reform, stands as a 
tremendous role model for what North Korea should and can do. 
And I think that the strong support from the United States and 
from the rest of the international community in backing Burma's 
reform efforts answers the question that the North Koreans ask, 
which is how can we trust that if we make the right decision 
and take this path that you actually will support us.
    With respect to China, Mr. Chairman--and again, thank you 
for expressing your views in advance of the meeting that 
President Obama and President Xi had at Sunnylands. I know that 
reached the President, and he appreciated it, as well as your 
other comments, including today.
    The President has invested, since the day he took office, 
in attempting to build a balanced relationship with China. He 
has made clear that our interest is in seeing the peaceful rise 
of a China that is stable, that is prosperous, and that rises 
in a way that is consistent with and reinforcing of the 
international and the regional rules and norms that are 
important to all of us.
    So there is a lot of balance required in the Asia-Pacific 
more broadly but within the United States-China relationship 
specifically. There is a need for balance between the 
cooperative elements of our relationship and the competitive 
aspects of our relationship. And if confirmed, Mr. Chairman, 
one of my challenges will be to try to ensure that we are 
cooperating more, cooperating in a way that returns benefits to 
the American people and that in our competition, that we are 
sure that the competition is a healthy one.
    We are looking for a model of practical cooperation with 
China that delivers benefits to both people and to the region 
in areas like climate change. And as you alluded to, President 
Xi and President Obama reached an important agreement on the 
hydrofluorocarbons, HFCs, and the Montreal Protocol, which will 
pay dividends down the road. And as you alluded to, North Korea 
is the other area where I think our positive cooperation is not 
only possible but essential, and both President Obama and 
President Xi committed to deepening both our dialogue and our 
cooperation in the effort to denuclearize North Korea.
    Human rights is not a stand-alone issue, either in the 
region or in the United States-China relationship. It is 
something that we raise always at every level in virtually 
every meeting for several reasons, both of which you alluded 
to. First, these are universal values, not boutique American 
preferences. Second, although they are universal, they are 
deeply embedded in the DNA of Americans. This is who we are. 
These are our values. But third, as you pointed out, the 
economic prosperity, the creativity, the ability for China to 
continue to satisfy the demands of its citizens requires good 
governance. It requires a willingness to build and abide by 
rules and law. It requires a judiciary. It requires a thriving 
and a vigorous civil society, and it requires a respect for 
human rights.
    We talk directly to the Chinese in various fora about the 
general principle. As I said in my statement, I genuinely 
believe that it is in China's interest to demonstrate their 
respect for human rights that is enshrined in its own 
constitution. We also raise individual cases. We raise problems 
such as the inability of the New York Times or Bloomberg to 
maintain Web sites that Chinese citizens can access. And we do 
this wanting a stable China. We do this respecting China's 
choices, but we do it in a conviction that not only are these 
universal principles, but that they are central to the 
prospects for a successful and enduring U.S.-China cooperative 
partnership.
    Senator Cardin. Well, you can add to the New York Times and 
Bloomberg that our U.S. consulate office was also blocked in 
China. So the cyber issues are real, and the access to the 
Internet, as well as cyber threats that we know we are moving 
forward on.
    There was just reported today that in Singapore there is a 
haze over the entire area because of forest fires in Indonesia. 
And when I was in Beijing, I never saw the sun, and that was 
not because of clouds. There is a huge environmental challenge 
in Asia today.
    The good news for dealing with it is that it is so visible; 
it is a problem that the government officials have to deal with 
because the public sees it every day. And it gives us a chance 
to really make progress. As you pointed out, President Xi and 
President Obama did make significant progress during their 
meeting in California. There appears to be a real opportunity 
for countries that were not as engaged a couple years ago in 
international leadership, that they could very well provide the 
type of impetus necessary to move forward globally on climate 
change initiatives.
    How do you see your role in regards to promoting that type 
of leadership?
    Mr. Russel. Thank you, Mr. Chairman.
    I could not agree with you more that this is a principle 
concern and a priority not only for the United States, but for 
all the countries in the region. As you alluded to, the problem 
is forcing itself onto the top of the agenda of leaders who 
might prefer to turn a blind eye to them.
    If I am confirmed, Mr. Chairman, I would like to pursue a 
number of the initiatives that are already underway that I 
think are extremely important in helping to address the 
challenge of climate and environmental degradation as 
partnerships, not just as rhetorical talking points.
    One of them is an initiative that President Obama launched 
last year at the East Asia summit in Phnom Penh, Cambodia, the 
Comprehensive Energy Partnership, in tandem with President 
Yudhoyono of Indonesia and the Sultan of Brunei. This is an 
effort to promote renewable energy, green growth, low-emission 
energy sources, as well as to facilitate rural electrification 
that will be critical to the responsible growth of the 
Southeast Asian region.
    Another is the Lower Mekong Initiative, which is a 
collective of the five major Mekong Southeast Asian nations 
with the United States and along with some other partners, 
where they are working to preserve forests, to preserve access 
to water and the riparian challenges given the many borders and 
the importance of water to the livelihood and to the ecological 
system there.
    Another, Mr. Chairman, is the Extraction Industry 
Transparency Initiative. I am very proud that I have been able 
to help in a small way, including in cooperation with our USAID 
mission in Burma, with an effort to bring the Burmese up to the 
standards that would allow them to accede to this EITI because 
Burma, like its poor neighbors, Cambodia and Laos, along with 
Vietnam and Thailand, have phenomenal environmental resources 
to protect.
    There is also, Mr. Chairman, in the South China Sea, as we 
discussed, a treasure trove of undersea and maritime wealth in 
the form of fish and coral, as well as hydrocarbons. 
Responsible management of those resources is a priority not 
only for the owners but for the people and for the region.
    So on those issues, as well as on other environmental 
challenges like wildlife where there is a nexus between 
poaching of elephants in Africa, including by terrorist-related 
groups, and consumption of ivory in East Asia, if confirmed, 
this is an area where I think that the State Department, the 
Bureau, and I can make a difference. And I would like to work 
closely with the relevant posts with our ambassadors and our 
missions to promote coordination, communication, and 
partnerships to try to make some real and measurable progress 
on this issue.
    Senator Cardin. I want to mention one other area in regards 
to China that has recently come to light, and that is, China 
was downgraded in the State Department's Trafficking in Persons 
Report from a Tier 2 Watch List to the lowest rung, Tier 3, 
after 2 years on the Watch List. So this is moving in the wrong 
direction, and trafficking is one of our highest priorities.
    Will you commit to making this a top priority, if 
confirmed, and work with the Chinese? This is an area where I 
think most countries really want to do the right thing. So it 
seems to me there is a way that we should be able to help China 
in dealing with this modern day type of slavery.
    Mr. Russel. Mr. Chairman, the short answer is yes. This is 
an issue that is important in its own right. It is important 
for moral reasons. It is important for development reasons 
regionwide but also in China.
    I am aware of the fact that yesterday the trafficking in 
persons report was unveiled by Secretary Kerry and that I think 
as part of the automaticity in the Tier 2 Watch List system, 
that China was downgraded. My understanding is that there has 
been progress in certain areas by China with regard to the 
development of an action plan, that in the past year, there 
have been some favorable signs with regard to extradition or 
prosecution. But there is no question that the problem of 
trafficking in China and in some of China's neighbors is a very 
serious one, one in which the United States can be helpful and 
one in which, if confirmed, I would make best efforts to 
support.
    Senator Cardin. The administration's top priority economic 
initiative is the Trans-Pacific Partnership. That includes a 
variety of nations in our hemisphere and in the Asian region. 
It was mentioned a couple times in my visit to China they are 
not exactly sure what the TPP means as far as China is 
concerned. There is some concern that it is being used to try 
to contain China.
    Could you just briefly review with the committee the 
priority placed on TPP and why?
    Mr. Russel. Thank you, Mr. Chairman. Yes.
    The President has directed many of my colleagues, including 
the recently confirmed U.S. Trade Representative, Mike Froman, 
to spare no effort to work toward the completion of 
negotiations on the Trans-Pacific Partnership by the end of 
this year. The President believes that this is a high-quality, 
high-benefit trade arrangement that has immense economic as 
well as strategic value. And I know that our negotiators are 
hard at work on this. And if confirmed, I would like to 
contribute and participate in the effort to try to bring it to 
closure.
    The TPP, as it is called, is not an exclusive arrangement. 
It is an inclusive arrangement. We foresee in the first 
instance that ultimately 11 members will accede, that if in 
fact Japan does join TPP, it will represent 40 percent of the 
world's GDP among its membership.
    What I mean, Mr. Chairman, by saying it is not an exclusive 
economic and trade agreement is not only that the door is not 
closed eventually to additional countries joining it. Although 
our strategy is first things first. This is an ambitious 
undertaking and we want to do it and we want to do it right and 
in a timely manner. But I mean not exclusive in the sense that 
it is perfectly consistent with the important work that we are 
doing elsewhere and through APEC or, for that matter, the other 
trade discussions that are occurring on bilateral or 
multilateral bases.
    What we are looking for, though, Mr. Chairman, is a trade 
arrangement that will lower barriers to trade, that will 
increase access by American companies and exporters to foreign 
markets, that will support good labor practices and standards, 
that will have good environmental standards to it. We would 
like TPP to be the highest quality, most inclusive and 
transparent trade arrangement ever, and in doing so, we think 
we will engineer an outcome that will pay huge dividends to 
American companies, to American citizens, to promote jobs, and 
lend a real boost to the entire region.
    Senator Cardin. When we are talking trade, we always have a 
country's attention, and we have made tremendous progress with 
Vietnam. Yet, Vietnam still has significant improvements that 
need to be made on labor, on human rights, good governance, et 
cetera. We have the opportunity to make those advancements as 
we have their attention at the bargaining table. So I would 
hope that you in your new position would remind our negotiators 
that we will be expecting progress made on each of these 
fronts.
    And it is not just the countries in transition. We also 
have problems with some of our close allies. Japan just 
recently joined the International Treaty on Child Abduction, 
but there are a lot of pending cases and their law, as I 
understand it, does not deal with already existing cases of 
child abduction. So will you help us and help the Embassy try 
to close and deal with as many of those open cases as we can to 
try to end this chapter in our relationship with Japan on child 
abductions?
    Mr. Russel. Thank you, Mr. Chairman.
    First, with respect to Vietnam, I could not agree with you 
more. I think that the political security and economic 
relationship that we have with Vietnam is an important one, and 
certainly we are in the midst of negotiations with Vietnam over 
the TPP, Trans-Pacific Partnership, issues. But human rights is 
a hugely important dimension of our relationship and, frankly, 
a problem area. We are not satisfied and, in fact, unhappy 
about some degree of backsliding in Vietnam on human rights. 
And we believe that the TPP is one vehicle among many that we 
can use to help to address issues of labor, issues of the 
environment, promote economic and political reforms and respect 
for intellectual property. And if confirmed, that is something 
I will work on.
    You alluded, Mr. Chairman, to the issue of Japan's belated 
accession to the Hague Convention on Parental Child Abduction. 
This is an issue that I have followed extremely closely, and I 
can attest that it is an issue that President Obama has raised 
directly with his Japanese counterpart. If confirmed, at the 
State Department this is an issue that I too will work on. The 
story has not ended for the parents of children who were taken 
back to Japan who will not be covered under the provisions of 
the treaty that Japan has just acceded to.
    I am a parent, as you see. I am deeply, deeply sympathetic 
to the plight of these families. I know that the State 
Department has an important role in looking after the welfare 
of America's most vulnerable citizens, its children. And I know 
that the State Department is committed to working to ensure 
their welfare and to try to facilitate access by parents to 
children who are overseas, including in Japan. And it is a long 
way of saying, Mr. Chairman, yes, I will do what I can, should 
I be confirmed, in a new position to be supportive of them in 
this effort.
    Senator Cardin. Well, thank you for that response. These 
are difficult issues, and we appreciate you making them a 
priority.
    I just want to observe that in my visits to Japan, the 
Republic of Korea, and China, I raised the Iranian sanction 
compliance in all those countries. The countries under your 
portfolio play a critical role in enforcing sanctions against 
Iran to prevent them from becoming a nuclear weapons state. And 
I know that President Obama has made that a top priority. And I 
just wanted you to know that we should use every opportunity we 
can, particularly with countries that we have very close 
relationships with, for example, the Republic of Korea. If they 
do not want to see a nuclear power on their peninsula, they 
could use less Iranian oil. They are doing a good job, but they 
could do a better job. So I think that needs to be something 
that we focus on; reducing the amount of oil purchased in Asia.
    I know you agree on that, but I just thought I would put it 
into the record.
    Mr. Russel. Thank you, Senator.
    Senator Cardin. One last question. We have talked a lot 
about the rebalance. If you had to just quickly summarize what 
you would hope you would see during the next 3 years as far as 
what the rebalance would mean as far as U.S. relationships and 
participation in Asia, what would you like to see accomplished 
in the next 3 years?
    Mr. Russel. Thank you for the opportunity to address that 
question, Mr. Chairman, which is really close to my heart. I 
certainly am committed to sustaining the rebalance and to 
moving it to the next level, so to speak.
    I would say that the three areas that I would propose to 
focus on with regard to rebalance, if confirmed, would be, 
first and foremost, the diversification of rebalance. The 
security element and the security underpinning of our Asia-
Pacific strategy in our rebalance is hugely important. It will 
not go away. It must not go away. We must strengthen that. But 
there is more to America than hard power, and in fact, it is 
the economic agenda, the energy agenda, the education agenda, 
the values agenda, the people-to-people connection, the public 
diplomacy that I think, in the long run, will have the most 
significant and enduring impact in this young, thriving, and 
dynamic region.
    I think also, Mr. Chairman, second, that I would pursue 
what I would call a rebalance within the rebalance. I think 
that our relationships in Northeast Asia are very mature and 
well developed. Of course, they will take a great deal of our 
attention, but I think that the Southeast Asia and Pacific 
areas are ripe for intensification of American engagement and 
involvement. I think the return on investment for the United 
States and the U.S. taxpayer in our programs, both 
operationally and in terms of foreign assistance, in Southeast 
Asia is absolutely huge. It is a region with a GDP in the order 
of $2.2-plus billion, 600 million--trillion dollars--600 
million people within a few years, at least half of whom will 
meet the World Bank definition of middle class, a large 
proportion and growing proportion of which are young, under 30. 
This is an area where the United States can make great friends 
and great strides, including through educational and other 
forms of exchange. Already the educational exchange programs 
that we have bring huge benefits. I am told that the students 
who come to the United States from the Asia-Pacific region, 
including to your State and my residence State of Maryland, 
bring a value in the order of $9 billion a year to the U.S. 
economy.
    The third area, speaking of money, Mr. Chairman, is on 
resources sustainability and outreach. Typically the East Asia-
Pacific Bureau within the State Department has been the least 
best funded of the regional bureaus. Now, by dint of hard 
effort by a number of people under the direction of the 
President, and in an era of fiscal austerity, we have seen in 
the fiscal year 2014 budget a 7-percent increase. I think that 
is important, and I pledge, Mr. Chairman, that I will fight for 
the right tools and the resources to allow the wonderful men 
and women working in the area and in the East Asian and Pacific 
Bureau to do their job and to earn the benefits for the 
American people that are there for us.
    Senator Cardin. I really do appreciate that answer. I agree 
with you. I think people-to-people ties are a critical part of 
our success in Asia, as well as business-to-business and 
military-to-military ties. I think a better understanding among 
our partners will be critically important, particularly as we 
develop stronger ties.
    Your answers were complete. I thank you very much. And as I 
said in the beginning, you have been incredibly generous of 
your talent in serving our country, and we very much appreciate 
that and your willingness to continue to serve. The post that 
you have been nominated to is one of the most important posts 
in this country and will, I am sure, keep you very much engaged 
in some long hours and some restless nights. And we thank you 
for your willingness to continue to serve your country.
    With that, the hearing stands adjourned.
    [Whereupon, at 3:29 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Daniel R. Russel to Questions Submitted by 
                        Senator Robert Mendendez

    Question. What is your understanding of the ``new model'' or ``new 
type'' of U.S.-China relations that President Obama and President Xi 
discussed at their recent summit at Sunnylands? What are the 
constituent elements of this ``new model'' relationship? Can it lead to 
more productive interaction, or is it largely an attempt by China to 
gain concessions or deferential treatment from the United States?

    Answer. Developing deeper ties between the United States and China 
is in the national interest of the United States and is important to 
safeguarding U.S. interests in the region and around the world. Earlier 
this month in California, President Obama and President Xi agreed to 
continue exploring ways to strengthen our overall political, economic, 
cultural, and military ties to develop a ``new type'' relations that 
are marked by practical cooperation, not strategic rivalry.
    There are few diplomatic, economic, or security challenges that can 
be addressed without China at the table and without a broad, 
productive, and constructive relationship between our countries. If 
confirmed, I will use the diplomatic tools at my disposal to advance 
the U.S.-China relationship and our cooperation on issues of importance 
to the American people at the same time as I work to strengthen our 
alliances and relations with countries throughout the region.

    Question. Recently, the United States and China worked together to 
make a public pledge about the phase-out of hydrofluorocarbons (HFCs). 
What work is being done to work with China to phase out other short-
lived climate pollutants such as soot and methane? What more could be 
done to foster cooperation with China to reduce these short-lived 
climate pollutants?

    Answer. On June 8, the United States and China announced an 
agreement to work together to use the expertise and institutions of the 
Montreal Protocol to phase down the consumption and production of 
hydrofluorocarbons (HFCs). The administration is encouraged by China's 
efforts to address environmental issues and looks forward to working 
together with China's new leadership in bilateral and multilateral 
fora, including the Strategic and Economic Dialogue (S&ED), the Ten-
Year Framework for Energy and Environment Cooperation, and the Major 
Economies Forum. The upcoming S&ED in July provides opportunities for 
bilateral discussions on environmental issues, including climate 
pollutants.

    Question. The United States, China, Japan, and many other countries 
in the region are deeply committed to developing and further 
commercializing renewable energy technologies. How can we work 
cooperatively with these nations to provide greater access to renewable 
energy in the developing world?

    Answer. At last year's East Asia summit meeting, President Obama 
announced the formation of the U.S.-Asia-Pacific Comprehensive Energy 
Partnership (U.S.-ACEP) to address energy issues across the entire 
Asia-Pacific region. The Partnership is designed to bring cleaner and 
more reliable sources of energy, as well as greater access, to the 
people of the Asia-Pacific region. The Department of State, Department 
of Energy, and other U.S. agencies are leading training and capacity-
building efforts to address technical and policy constraints in order 
to promote U.S. energy investments and exports in the region. The 
United States has identified up to $6 billion in U.S. export financing 
and investment credits for the Partnership, led by the Export-Import 
Bank and the Overseas Private Investment Corporation, to support 
sustainable power and energy infrastructure projects over 4 years.
    The Department of State, the Department of Energy, and the U.S. 
Trade and Development Agency are supporting capacity-building programs 
through APEC and ASEAN as well as with our bilateral partners in the 
priority areas of markets and interconnectivity, natural gas, renewable 
and clean energy, and sustainable development. Successful 
implementation of these projects will improve the region's ability to 
be able to provide energy for its citizens and drive U.S. exports.
    In 2012, the United States began work to establish a new energy 
security pillar within the Lower Mekong Initiative (LMI). The United 
States and its LMI partners are negotiating the final language of the 
pillar plan of action, which will be finalized at the LMI ministerial 
meeting July 1, and proposes work in regional power market development, 
power interconnection, energy efficiency and conservation, transparency 
and good governance, and energy research and development. Once the plan 
of action is approved, the United States will begin real, tangible 
projects that will create opportunities for U.S. businesses.
    Bilaterally, the United States and China have worked together under 
the bilateral Ten-Year Framework (TYF) since its launch in 2008 to 
facilitate the exchange of information and best practices to foster 
innovation and develop solutions to the pressing environment and energy 
challenges both countries face. Agencies in each country implement the 
TYF, which consists of seven action plans, including electricity and 
energy efficiency. Specific to clean energy, the U.S.-China Clean 
Energy Research Center (CERC) facilitates joint research and 
development on clean energy technology by teams of scientists and 
engineers from the United States and China. It is a flagship initiative 
with broad participation from universities, research institutions, and 
industry.
    The United States cooperates closely with Japan on a range of 
energy issues, including the development of clean and renewable energy 
sources, energy security, and the peaceful and safe use of nuclear 
energy. In 2011, U.S. agencies, including the Department of Energy, 
Department of State, Department of Commerce, and our national 
laboratories, established the U.S.-Japan Clean Energy Policy Dialogue, 
a forum for regular exchange among U.S. and Japanese experts. Through 
the Tohoku Green Communities Alliance, the United States and Japan have 
also collaborated to develop and deploy clean energy technologies in 
areas affected by the Great East Japan Earthquake.
    If confirmed, I will continue the State Department's work on these 
endeavors.

    Question. The 1979 Taiwan Relations Act and the Six Assurances of 
1982 have contributed to the peace and stability of Asia-Pacific region 
for the past three decades. With the military balance gradually 
shifting in China's favor, what are your plans to implement the 
security commitment the United States has for Taiwan under this 
framework? As Taiwan is likely to retire some of its older fighter 
aircraft in the next 5 to 10 years, do you believe that sales of 
advanced aircraft are an important, next step in this commitment?

    Answer. Consistent with the Taiwan Relations Act and the United 
States one-China policy, the United States makes available to Taiwan 
defense articles and services necessary to enable Taiwan to maintain 
sufficient self-defense. If confirmed, I will continue to support steps 
the administration has taken to fulfill its commitments to Taiwan.
    With U.S. assistance, Taiwan is currently undergoing an extensive 
modernization of its F-16 A/B fleet, and we are aware of Taiwan's 
desire to replace older F-5, and perhaps Mirage 2000-5 fighters, with 
additional F-16 aircraft. No decision has been made about possible 
future sales of military aircraft to Taiwan.
    If confirmed, I will continue to support U.S. policy to meet our 
commitments to Taiwan and assist Taiwan's maintenance of a sufficient 
self-defense capability. Doing so increases stability both across the 
Taiwan Strait and within the region.

    Question. As you know, no Cabinet-level official has visited Taiwan 
in 13 years. During the 1990s, officials of Cabinet-rank visited Taipei 
virtually every 2 years of that decade. Given the fact that Taiwan is a 
partner of 23 million people, who contribute greatly to the global 
economy, and enjoy a healthy democracy, aren't visits from U.S. Cabinet 
officials overdue? Can we expect such visits to resume in the near 
future?

    Answer. As an important economic and security partner of the United 
States, Taiwan has hosted many senior Obama administration officials in 
recent years. Deputy Secretary of Energy Daniel Poneman visited Taiwan 
in December 2011 to promote greater cooperation on energy issues. Under 
Secretary of Commerce Francisco Sanchez visited Taiwan in November 2012 
to celebrate Taiwan's designation into the U.S. Visa Waiver Program. 
Most recently, Deputy U.S. Trade Representative Demetrios Marantis 
traveled to Taiwan in March of this year to participate in Trade and 
Investment Framework Agreement meetings. In addition, in September 
2012, on the margins of the Asia-Pacific Economic Cooperation (APEC) 
Leaders' Meeting, Secretary Clinton met with Taiwan's APEC 
representative Lien Chan. If confirmed, I will continue to promote such 
senior-level engagement by U.S. government officials and will encourage 
the travel of senior administration officials to Taiwan.

    Question. The administration is on the record as having stated that 
``the United States is a strong, consistent supporter of Taiwan's 
meaningful participation in international organizations.'' 
Additionally, the administration is on the record as having stated that 
``Taiwan should be able to participate in organizations where it cannot 
be a member, such as the World Health Organization, the International 
Civil Aviation Organization (ICAO), and other important international 
bodies whose activities have a direct impact on the people of Taiwan.'' 
As you know, my bill, S. 579, recently passed by the Senate, would 
direct the Secretary of State to develop a strategy to obtain observer 
status for Taiwan at the triennial ICAO Assembly, the next meeting of 
which will take place this fall in Montreal.

  <bullet> What specific steps has the administration taken--or is 
        undertaking--to make Taiwan's participation a reality in time 
        for this fall's meetings?

    Answer. If confirmed, I will continue U.S. policy to support Taiwan 
membership in international organizations where statehood is not a 
requirement and encourage Taiwan's meaningful participation, as 
appropriate, in organizations where its membership is not possible.
    U.S. goals for supporting Taiwan's participation include: enabling 
the people on Taiwan to comply with international regulations and 
safety guidelines, addressing transborder health issues, facilitating 
international travel, giving and receiving appropriate international 
assistance and advice, and assisting in regional capacity-building.
    I support Taiwan's goal to cooperate with the International Civil 
Aviation Organization (ICAO). If confirmed, I will continue the State 
Department's work with the international community to promote Taiwan's 
meaningful participation in ICAO.
    If confirmed, I will also ensure the State Department continues to 
instruct U.S. missions to encourage the U.N., its agencies, and other 
international organizations to increase Taiwan participation in 
technical or expert meetings.

    Question. While the breadth of the relationship between the United 
States and China is impressive, I remain concerned regarding the 
Chinese Government's apparent lack of respect for universal human 
rights. Several recent cases, including that of Liu Xia, Gao Zhisheng, 
the treatment of the family of Chen Guangcheng, and the treatment of 
Falun Gong adherents, speak to both specific cases but also larger 
structural challenges.

  <bullet> What is your thinking about how the United States can 
        effectively increase attention and make clear to China's 
        leaders that human rights cannot be pushed aside by security 
        and economic concerns, but must be addressed through genuine 
        change and support for the rule of law?

    Answer. I believe the promotion of human rights is a crucial 
element of American diplomacy. If confirmed, I will work to promote 
universal values, such as transparency, rule of law, human rights, and 
good governance. Promoting the protection of human rights in countries 
around the world, including in China, is central to who we are as a 
nation. If confirmed, I will ensure that human rights will remain a 
central part of U.S.-China relations.
    The U.S.-China Human Rights Dialogue is an important channel to 
discuss our key human rights concerns. If confirmed, I would strongly 
support the Dialogue and raise our human rights concerns directly with 
Chinese counterparts. I strongly believe respect for the rule of law 
and protection of universal human rights are critical to China's long-
term prosperity and stability. If confirmed, I would raise cases of 
concern directly with the Chinese authorities, including the cases of 
Liu Xia, Gao Zhisheng, and the family of Chen Guangcheng, as well as 
issues of religious freedom and the treatment of Tibetans and Uighurs.

    Question. What are your plans, if confirmed, for further developing 
dialogue between the United States and China on cyber security issues, 
and to address China's theft of U.S. intellectual property through 
cyber espionage, specifically?

    Answer. Cyber security is one of the administration's top 
priorities. Cyber-enabled theft, emanating from China, of intellectual 
property, trade secrets and confidential business information is of 
paramount concern and has been discussed with China at senior levels, 
including by the President. If confirmed, I plan to ensure that the 
State Department continues to engage the Chinese on the cyber-enabled 
theft of U.S. intellectual property, including in fora such as the U.S-
China Cyber Working Group, which Secretary Kerry announced in April.
    If confirmed, I will ensure that the State Department takes an 
active role in the development of the working group as a venue in which 
the U.S. Government can address U.S. concerns and have a constructive 
dialogue with China on cyber issues. The United States and China are 
among the world's largest cyber actors, and it is vital that our 
countries continue a sustained, meaningful dialogue and work together 
to develop an understanding of acceptable behavior in cyber space.

    Question. The Asia-Pacific region has made considerable progress in 
recent years in developing functional problem solving architecture, 
including the EAS as well as through a deepening and thickening of 
ASEAN, ARF, and the ADMM, among other institutions.

  <bullet> If confirmed as Assistant Secretary, what is your vision for 
        how the United States can work to effectively further continued 
        development of Asian architecture and institutions?
  <bullet> What are your views on if and how the United States can 
        support ASEAN centrality and unity through these efforts?

    Answer. The United States firmly believes that regional 
institutions such as ASEAN, the East Asia summit (EAS), ASEAN Regional 
Forum (ARF), ASEAN Defense Ministers Meeting (ADMM), and Expanded ASEAN 
Maritime Forum (EAMF) have a leading role to play in shaping the future 
prosperity and stability of the Asia-Pacific. As the only ASEAN-driven 
institution that includes all key regional players and meets at the 
Leaders level, the administration supports the EAS as the region's 
premier forum for addressing political and strategic issues. As 
President Obama made clear at last year's EAS, these institutions are 
most effective when they produce concrete results for the people of the 
region. The United States is already helping the region manage three 
pressing challenges for the region: maritime security, disaster relief, 
and the linked challenges of protecting the environment and energy 
security. The United States is working with our regional partners to 
develop the Rapid Disaster Response Agreement concept, which would 
expedite the delivery of supplies, services, and personnel in the event 
of a natural disaster. The United States is also investing over $60 
million annually to support programs across the Asia-Pacific that 
combat climate change, as well as promoting a sustainable energy future 
through the U.S. Asia-Pacific Comprehensive Energy Partnership 
(USACEP). We are supporting ASEAN's economic integration and trade 
liberalization efforts through the U.S.-ASEAN Expanded Economic 
Engagement (E3) initiative. We are also sponsoring joint capacity-
building between ASEAN and the Asia Pacific Economic Cooperation (APEC) 
forum on topics such as food security and business ethics.
    If confirmed, I will continue to expand U.S. efforts in support of 
regional institutions that manage these and other pressing challenges.

    Question. What are your priorities for regional partner capacity-
building, including in areas such as maritime domain awareness as well 
as new and nontraditional security issues such as global climate 
change?

    Answer. The Department of State is actively engaged in capacity-
building and the sharing and dissemination of information to meet 
traditional security challenges, such as terrorism and transnational 
crime, and nontraditional security issues, such as food insecurity, 
pandemic disease, and global climate change. The administration seeks 
an Asia-Pacific region in which countries are equipped with military 
and law enforcement capabilities that are aligned with U.S interests 
and that enable them to adequately defend themselves from external 
threats, address territorial disputes peacefully, and deter provocation 
from a diverse array of state and nonstate actors. Our strategy 
emphasizes that countries adopt internationally recognized, U.S.-
aligned best practices, standards and norms, particularly in the areas 
of maritime security, counterterrorism and law enforcement. If 
confirmed, I will support State Department's continued engagement on 
this strategy.
    Maritime security capacity-building measures that support these 
goals include working with maritime police from Thailand, Cambodia, 
Vietnam, and Malaysia in the Gulf of Thailand to establish mutual 
objectives, common coordination mechanisms, operating procedures, and 
maritime domain awareness. The United States also support robust land-
based and maritime police training programs in Indonesia and the 
Philippines, as well as an International Law Enforcement Academy in 
Bangkok which fosters transnational cooperation and multilateral 
training on countering wildlife trafficking and corruption.
    Counterterrorism capacity-building is another example where the 
United States works with Thailand, Malaysia, and the Philippines, and 
Indonesia to strengthen their abilities to detect, deter, and respond 
to terrorist actions. The United States also works across the region to 
improve law enforcement's capabilities to investigate and prosecute 
complex transnational threats such as organized crime, terrorism, 
wildlife trafficking, trafficking in persons and illicit drugs.
    The countries of the Asia-Pacific region also contend with a range 
of nontraditional security issues, such food security and health, which 
threaten regional stability and security. To respond to these emerging 
threats, the administration supports efforts to deepen partnerships and 
private sector engagement in regional agriculture to encourage and 
increase investments in regional agricultural development. We also 
support programs to develop strong democratic institutions that provide 
the framework for improved health outcomes, greater food security, and 
stronger livelihoods overall. We are tackling global climate change 
through reinforced disaster risk reduction efforts to mitigate its 
impact through integrated natural resource management, including 
biodiversity conservation, which provides climate cobenefits.
    Addressing climate change at home and abroad is a priority for 
President Obama and for Secretary Kerry. The innovative programs the 
United States is making substantial progress in forging low-emission 
development pathways and strengthening resilience to climate change 
impacts, including through reinforced disaster risk reduction efforts 
and integrated natural resource management, including biodiversity 
conservation.
    A key administration priority is achieving and maintaining a 
geographically distributed, operationally resilient, and politically 
sustainable military force posture to meet challenges such as 
territorial and maritime disputes, threats to freedom of navigation, 
and the heightened impact of natural disasters. We are pursuing this 
priority by deepening our ability to train and operate together with 
militaries in the region and improving our ability to respond 
collectively to a wide range of contingencies in the region.
    If confirmed, I will continue U.S. efforts to support capacity-
building measures that enhance both traditional and nontraditional 
security priorities as discussed above.

    Question. As you know, over the last 4 years, the administration 
and members of the U.S. Congress have made the issue of international 
child abductions to Japan a priority. Yet to date, there has not been 
even one single criminally kidnapped child returned to their lawful 
home here in the United States, with the assistance of the Japanese 
Government.

  <bullet> Should you be confirmed, what specific action can you take 
        to create a more balanced level of reciprocity on this issue? 
        Would you be willing to press forward on criminal extraditions? 
        Can you promise an action plan for remedying these cases, if 
        confirmed in this job?

    Answer. I am grateful to the U.S. Congress for its consistent 
engagement on this issue. The administration welcomed the recent 
Japanese Diet ratification of the Hague Convention on the Civil Aspects 
of International Child Abduction, as well as the subsequent action to 
ratify and implement the Convention. Once fully implemented, this will 
give parents a civil legal mechanism for resolving abduction cases. If 
confirmed, I will work to ensure that the treaty serves as the legal 
framework within which we can address these issues.
    Specifically, I will encourage the Japanese Government to use the 
Hague Convention to make necessary changes to domestic custody laws to 
help parents with existing cases to attain better access to their 
children.
    The administration is committed to resolving all outstanding cases. 
The Department of State regularly updates ``left behind parents'' 
through a Japan-specific 
e-mail distribution list, global open houses, and in-person meetings, 
informing parents of media reports and public statements by government 
officials on abduction issues.
    The Japanese Government has established a legal hotline to provide 
information about the Japanese legal system for ``left-behind 
parents,'' and it has set up a mediation program to assist efforts to 
arrive at an agreement between the estranged parents regarding access 
to their children. If confirmed, I will take steps to expand on these 
efforts.
    One of the State Department's highest priorities is the welfare of 
U.S. citizens overseas, particularly children, who are our most 
vulnerable citizens. If confirmed, I will fully support efforts to 
resolve these difficult cases.

    Question. Maritime and territorial disputes in the East and South 
China Seas continue to cause friction and uncertainty in the Pacific. 
How, and if, these disputes are managed will serve as an important 
litmus test for the emergence of a peaceful, cooperative, and rules-
based order in Asia. Given the enduring U.S. interest and commitment to 
the maritime domains of the Asia-Pacific, what are your views on the 
most effective policy tools available to the United States to assure 
the development of guidelines for the peaceful settlement of disputes 
through diplomatic and collaborative mechanisms, including the ASEAN-
China Code of Conduct; to makes clear our view that any disputed claims 
must be fairly arbitrated under international law, without coercion--
and that the United States will stand by our treaty commitments?

    Answer. The United States has a national interest in the 
maintenance of peace and stability, respect for international law, 
lawful unimpeded commerce and freedom of navigation in the South China 
Sea and East China Sea. If confirmed, I will support these principles.
    I believe that the nations of the region should work 
collaboratively and diplomatically to resolve the various disputes 
without coercion, intimidation, threats, or the use of force.
    With respect to the South China Sea, the United States does not 
take a position on competing sovereignty claims over land features. 
However, the administration will continue to voice strong support for 
both ASEAN and China to make meaningful progress toward finalizing a 
comprehensive Code of Conduct to establish rules of the road and clear 
procedures for addressing disagreements.
    The administration has clearly expressed support for the use of 
diplomatic and other peaceful means to manage and resolve disagreements 
in the South China Sea, including the use of arbitration or other legal 
mechanisms, and that, in a rules-based system, states should be able to 
seek peaceful means of dispute resolution without fear of coercion or 
retaliation.
    Through the ASEAN Regional Forum and other related forums, the 
United States will continue to advance norms of safe maritime behavior 
as well. Ensuring operational safety at sea for all vessels and the 
free, safe flow of commerce is vital for the entire international 
community.
    Our alliance commitments are the cornerstone of our strategic 
rebalance. If confirmed, I will ensure that we continue our efforts to 
work with allies and partners around the region to ensure peace and 
stability on the seas.

    Question. Senior administration officials have indicated in recent 
weeks that the United States would be willing to engage in discussions 
with North Korea, but that the administration is not interested in 
discussions for the sake of discussions, and that for these discussions 
to happen North Korea needs to take concrete steps to demonstrate they 
are serious in meeting their commitments to denuclearization.

  <bullet> What concrete measures does North Korea have to undertake to 
        demonstrate their seriousness and commitment to 
        denuclearization and to make it ``worthwhile'' for the United 
        States to consider reengaging in the six-party or other 
        diplomatic process? What is the level of coordination with the 
        Republic of Korea and Japan as we consider how, when and if the 
        United States engages with North Korea?

    Answer. North Korea committed on numerous occasions, including in 
the September 2005 Joint Statement of the Six-Party Talks, to 
abandoning all nuclear weapons and existing nuclear programs. The 
United States and the international community must continue to hold 
North Korea to those commitments and to its international obligations 
under all relevant U.N. Security Council resolutions. To be authentic 
and credible, North Korea must demonstrate it is prepared to halt and 
ultimately abandon all of its nuclear weapons and programs. This means 
taking steps to come into compliance with its international obligations 
under U.N. Security Council resolutions and its own commitments.
    The United States, Japan, and the Republic of Korea (ROK) have 
regular consultations to exchange views on a wide range of issues 
related to North Korea. If confirmed I would remain committed to 
maintaining close bilateral and trilateral coordination with the ROK 
and Japan, and continue to coordinate closely with its other allies and 
partners to press North Korea to choose a path leading to peaceful 
denuclearization.

    Question. Can you comment on why the United States has chosen not 
to participate in the Regional Comprehensive Economic Partnership 
(RCEP)? What is your vision of how the Trans-Pacific Partnership and 
RCEP fit together in an open and inclusive regional economic and trade 
architecture?

    Answer. The Trans-Pacific Partnership (TPP) is a key element of 
President Obama's agenda for deepening U.S. economic engagement in the 
Asia Pacific. TPP is designed to address the concerns that our trade 
and investment stakeholders--businesses, workers, other groups--see as 
impeding regional trade and investment in the 21st century. TPP will 
make the regulatory systems of TPP countries more transparent and 
compatible, so companies can operate more seamlessly in TPP markets. 
The TPP will also include strong protections for workers, the 
environment, intellectual property, and innovation.
    Research shows that an ambitious agreement like TPP will generate 
significantly higher benefits than a less ambitious agreement that 
excludes sensitive products and issues. The rapid expansion of TPP 
membership since the negotiation's launch suggests the broad appeal of 
this high standard approach within the region. The TPP will be a living 
agreement and can serve as a platform for broader, high-standard 
regional integration and an eventual Free Trade Area of the Asia 
Pacific.
    We recognize there are a number of different initiatives for 
liberalizing trade in the region and advancing regional economic 
integration, including the recently launched Regional Comprehensive 
Economic Partnership (RCEP) involving members of the Association of 
Southeast Asian Nations (ASEAN) and its six Free Trade Agreement (FTA) 
partners. We don't view initiatives such as the TPP and RCEP as 
mutually exclusive. However, we believe the high-standard approach 
embodied by the TPP is the most effective way to open new markets and 
deepen regional economic integration.

    Question. The Tibetan people continue to face challenges to their 
traditions, religion and culture through environmental destruction, the 
influx of domestic immigrants, and other causes. This seems likely to 
increase as Beijing develops infrastructure links to and within the 
Tibetan plateau.

  <bullet> What can the administration do to advance protections for 
        Tibetans in their homeland? Do you believe the Chinese 
        Government has engaged in its discussions with representatives 
        of the Dalai Lama in a good-faith manner?

    Answer. I am concerned about the deteriorating human rights 
situation in Tibetan areas and, if confirmed, will raise U.S. concerns 
with Chinese officials. This includes our concerns over the 
increasingly severe government controls on Tibetan Buddhist religious 
practice, and the government policies that undermine the preservation 
of Tibetan language and that target Tibetan youth and intellectual and 
cultural leaders. If confirmed, I will ensure the State Department 
continues to encourage the Chinese Government to engage with the Dalai 
Lama or his representatives, without preconditions, as the best means 
to address Tibetan concerns and relieve tensions. I will also 
consistently raise concerns about Tibetan self-immolations and continue 
to urge the Chinese Government to address the underlying problems in 
Tibetan areas and reexamine existing, counterproductive policies that 
exacerbate rather than resolve existing tensions. I will also continue 
to press the Chinese Government to allow journalists, diplomats and 
other observers unrestricted access to China's Tibetan areas.

    Question. China has recently been named a Tier 3 nation under the 
State Department's International Trafficking in Persons Report. Will 
the administration place sanctions on China as provided for in the 
Trafficking Victims Protection Act?

    Answer. I am concerned about human trafficking in China and, if 
confirmed, I will carefully review all our efforts to combat 
trafficking in persons in the region to ensure that we are taking all 
appropriate steps to address this issue. The Trafficking Victims 
Protection Act (TVPA), as amended, authorizes restrictions on 
assistance for countries ranked Tier 3 in the Trafficking in Persons 
Report, but the President may waive some or all restrictions if he 
determines that the affected assistance ``would promote the purposes of 
[the TVPA] or is otherwise in the national interest of the United 
States.''

    Question. Cambodia will hold national elections on July 28, and the 
government there shows no sign of having this vote measure up to basic 
standards of legitimacy. Assuming nothing changes before then, will the 
administration adopt a ``business as usual'' approach to the Hun Sen 
regime that has run the country since 1985, or will there be 
significant changes in our engagement and efforts to achieve democracy 
in that country?

    Answer. The United States has consistently and frankly raised our 
concerns about human rights and democracy at all levels in the 
Government of Cambodia. The United States has also emphasized that the 
lack of progress on these issues would be an impediment to deeper 
relations between our two countries. The upcoming Cambodian national 
elections will be a critical test of the government's commitment to 
strengthening the nation's democracy. The United States has urged the 
Cambodian Government to consider seriously the recommendations by the 
U.N. Special Rapporteur on Human Rights in Cambodia. We are monitoring 
the situation closely and will reassess as appropriate our assistance 
and/or engagement with the Government of Cambodia in light of how the 
election is conducted. If confirmed, I will continue to promote 
improvements in human rights and a credible, free, and fair electoral 
process that allows for the full and unfettered participation of all 
political parties and their leaders and the Cambodian people.

    Question. The United States has committed to engage Vietnam in an 
annual Political, Security, and Defense Dialogue, and in recent years 
both sides have steadily increased the breadth of bilateral defense 
cooperation. Concurrently, Vietnam has increased its crackdown of 
freedom of expression, convicting 46 bloggers and pro-democracy 
activists so far this year.

  <bullet> Why is the administration warming relations with a country 
        that has so reprehensible human rights record? Why is the 
        administration not adopting a ``whole of government approach'' 
        to furthering human rights concerns in Vietnam?

    Answer. If confirmed, I will ensure that advocating for respect for 
human rights continues to factor into our policy with Vietnam. The 
administration has conveyed to the Vietnamese leadership that the 
American people will not support a significant upgrading of our 
bilateral ties without demonstrable progress in human rights. Greater 
respect for human rights, including labor rights, will help ensure 
Vietnam's future economic, social, and political development, which is 
consistent with our forward-looking vision for the bilateral 
relationship.
    The administration has made clear to Vietnam's defense and civilian 
leaders that for the United States to consider lifting the remaining 
restrictions on defense equipment exports, including on lethal weapons, 
there would need to be demonstrable, sustained improvement in the human 
rights situation.
    In the April 2013 U.S.-Vietnam Human Rights Dialogue, the U.S. 
delegation raised the full range of our concerns about Vietnam's 
deteriorating human rights record and pressed for the release of 
political prisoners, including bloggers imprisoned for expressing their 
views online. The United States has also raised human rights concerns 
with the Vietnamese Government within the context of our overall 
defense relationship during the Political, Security, and Defense 
Dialogue, as well as through our normal diplomatic engagement.

    Question. Can you please describe efforts to advance the political 
transition in Burma? How are you ensuring that the economic and 
political benefits of liberalization are not disproportionately 
benefiting retired generals and their cronies? Do you believe that 
Burma's 2015 Presidential election would be legitimate if Aung San Suu 
Kyi is not able to take part?

    Answer. The United States recognizes the important ongoing reform 
efforts underway by President Thein Sein, his government, Parliament, 
and key stakeholders among civil society to build a modern, peaceful, 
and democratic country. Building on a long legacy of support for the 
democratic aspirations of the Burmese people, the United States is 
providing assistance to strengthen and accelerate the political, 
economic, and social transition; promote and strengthen respect for 
human rights; deliver the benefits of reform to the country's people; 
and support the development of a stable society that reflects the 
diversity of all its people. If confirmed, I will continue to support 
these efforts.
    The United States support for the reform efforts by the Government 
of Burma and for the people of Burma in numerous ways:

    <all> The U.S. Government is assisting in improving electoral 
            administration to ensure free, fair, and credible elections 
            in 2015 and is promoting voter education, strengthening 
            Parliament, supporting political party development, and 
            promoting legal reform.
    <all> U.S. assistance aims to address the root causes of long-
            running conflicts and ethnic tensions as well as provide 
            substantial humanitarian assistance to conflict-affected 
            and vulnerable populations in border areas, the interior of 
            the country, and in the region.
    <all> The United States encourages U.S. businesses to bring 
            responsible investment to Burma to extend the benefits of 
            economic reform to all of the country's people. The United 
            States is supporting civil society and promoting programs 
            to combat corruption and hold businesses accountable for 
            respecting human rights in their operations, including 
            labor rights.
    <all> The United States recently announced a partnership with the 
            Government of Burma to strengthen transparency and good 
            governance in Burma's extractive industries sector. This 
            initiative will provide technical assistance in support of 
            the implementation of international best practices in oil 
            and gas management and oversight, financial accountability, 
            and safety and environmental stewardship.
    <all> The American Center in Rangoon, which has the highest 
            attendance of any American Center in the world, trains 
            political, civil society and labor activists in democratic 
            systems, and civic engagement.

    The United States has carefully calibrated the easing of our 
sanctions in an effort to ensure that the benefits of economic 
engagement with the United States do not flow to bad actors. For 
example, the 2012 easing of the ban on new investment was structured to 
ensure that new investment with the Burmese military or with military-
owned companies remains off limits for U.S. persons. Similarly, because 
of our continuing concerns about the military's human rights record, 
financial services transactions with the military for the provision of 
security services also remain off limits for U.S. persons.
    To ensure U.S. companies undertake due diligence, the United States 
is requiring U.S. persons with more than $500,000 of new investment in 
Burma to report on a range of policies and procedures with respect to 
their investments in Burma, including human rights, labor rights, land 
rights, community consultations and stakeholder engagement, 
environmental stewardship, anticorruption, arrangements with security 
service providers, risk and impact assessment and mitigation, payments 
to the government, any investments with the Myanmar Oil and Gas 
Enterprise (MOGE), and contact with the military or nonstate armed 
groups. The information collected will be used as a basis to conduct 
informed consultations with U.S. businesses to encourage and assist 
them to develop robust policies and procedures to address a range of 
impacts resulting from their investments and operations in Burma. The 
United States seeks to empower civil society to take an active role in 
monitoring investment in Burma and to work with companies to promote 
investments that will enhance broad-based development and reinforce 
political and economic reform.
    The Department of the Treasury maintains a Specially Designated 
Nationals list, which includes individual and company designations of 
``bad actors,'' including those who engage in practices that violate 
human rights or who seek to slow or hinder reform progress. U.S. 
persons are prohibited from transacting business with these individuals 
and entities. This list, which is regularly reviewed and updated, is 
another tool to help marginalize those who obstruct Burma's reform 
efforts. Many of the estimated 100 individuals and entities on the SDN 
list are economically significant ``cronies.'' If confirmed, I will 
support these efforts to ensure that the people of Burma, not the 
``cronies,'' benefit from economic engagement with the United States.
    The United States is actively supporting Burma's efforts to achieve 
free and fair elections. Article 59 of Burma's constitution currently 
disqualifies opposition leader Aung San Suu Kyi from becoming President 
since her sons and late husband are foreign nationals; many have 
commented that this provision of the constitution appears specifically 
designed to block Aung San Suu Kyi from becoming President. The former 
military junta drafted the constitution of 2008, which reserves 25 
percent of the seats in Parliament for uniformed military. The State 
Department has publicly and privately noted its concerns about these 
provisions and believes that reform of the 2008 constitution is 
essential to establishing a true democracy.
    The Burmese Parliament, of which Aung San Suu Kyi is a member, has 
convened a constitutional review committee. That review may consider 
amendments that could potentially strengthen reform and democracy. If 
confirmed, I will continue to offer United States support and advocacy 
to help Burma successfully complete its democratic transition.

    Question. The political changes in Burma also appear to have 
exacerbated some longstanding religious and ethnic disputes. Can you 
comment on the role of different branches of the Burmese Government in 
religious violence, including in Rakhine State, and in ethnic conflict, 
particularly with the Kachin minority. Does the Burmese Government have 
the ability and will to quell these clashes? What can the United States 
do to facilitate this?

    Answer. Under President Thein Sein, the Burmese Government has 
entered into preliminary cease-fire agreements with 10 of 11 major 
armed ethnic groups. The Burmese Government engaged in constructive 
talks May 28-30 in Myitkyina, Kachin State with the remaining group 
that has not yet signed a cease-fire, the Kachin Independence 
Organization (KIO). These talks resulted in a seven-point joint 
agreement, which includes commitments to hold a political dialogue, 
undertake efforts to cease hostilities, and assist internally displaced 
persons. In addition, on June 20, the Burmese Government signed an 
eight-point agreement with the Karenni National Progressive Party in 
Kayah State, committing to a nationwide cease-fire accord. I am 
encouraged by the progress from those recent talks and look forward to 
continued progress in building trust and delivering lasting peace. As a 
fundamental matter, I support dialogue as the best and only way to 
address the root causes of longstanding conflict and to ultimately 
achieve lasting peace, justice, reconciliation, and equitable 
development throughout the country, including Kachin State.
    I remain deeply concerned about the safety and well-being of 
internally displaced persons and other civilians in need in Kachin 
State and other conflict-affected areas. I am encouraged that on June 
14, the government allowed a U.N.-led convoy aimed at providing 
humanitarian relief to access displaced persons in Kachin-controlled 
areas. This was the first time in nearly a year that the U.N. has been 
allowed to deliver food and household supplies to areas beyond 
government control, though local NGOs have been able to provide some 
assistance to these populations. If confirmed, I will continue to urge 
that all sides ensure unhindered humanitarian access to enable those in 
need to receive adequate food, shelter, and other urgent assistance.
    I understand that the Burmese Parliament is also closely monitoring 
the peace process, and I encourage the Parliament to support efforts to 
ensure a sustainable peace. The Speaker of Burma's lower House of 
Parliament, Thura Shwe Mann, visited Kachin State in February and met 
with internally displaced persons. I welcome the constructive efforts 
of all branches of the Burmese Government to work toward peace and 
reconciliation.
    I am highly concerned about anti-Muslim violence, including in 
Rakhine State. Comments and actions by local authorities, including the 
``NASAKA'' border force, have at times raised tensions and been deeply 
troubling. The Burmese Government must hold all perpetrators of 
violence accountable regardless of race, religion, or citizenship 
status. Senior Department officials, including Ambassador Derek 
Mitchell, have consistently raised U.S. concerns with officials at all 
levels of the Burmese Government about sectarian violence and the 
urgent need to end impunity by ensuring equitable accountability for 
those responsible.
    I believe that the Burmese Government's commitment to work toward a 
peaceful and prosperous future for the entire country is sincere. I 
welcome President Thein Sein's public appeals for tolerance, religious 
freedom, and diversity. I encourage him and other national and local 
officials to actively promote tolerance and peaceful coexistence among 
all of Burma's people. If confirmed, I will continue to work with our 
interagency partners, Congress, and the international community to help 
support Burma's peaceful transition to democracy.

    Question. On December 15, 2012, Lao civic activist Sombath Somphone 
was abducted at a police checkpoint in Vientiane. Since that time Human 
Rights Watch, Amnesty International, Members of Parliament within the 
region, and also this Congress have urged for an immediate, transparent 
investigation into his disappearance and whereabouts. The Department 
has also been engaged with Lao authorities to push for a resolution to 
this case.

  <bullet> Can you provide an update on the investigation and whether 
        the Lao authorities are fully committed to finding Mr. Sombath. 
        In addition, have we offered any investigative assistance to 
        the Lao authorities?

    Answer. I am deeply concerned over the abduction of Sombath 
Somphone and Lao authorities' failure to share any meaningful details 
from their investigation into his disappearance. The Lao Government's 
June 7 press statement on Mr. Sombath added nothing of substance about 
his case. To date, Lao authorities have not offered members of Mr. 
Sombath's family or representatives from the international community an 
opportunity to review the government's surveillance camera footage that 
reportedly shows his abduction. The Department of State has repeatedly 
offered technical assistance to aid in the investigation, but the 
Government of Laos has not accepted our offer.
    The refusal on the part of the Government of Laos to share 
meaningful details of its investigation into Sombath's case calls into 
question the Lao Government's commitment to uphold human rights and the 
rule of law and to engage responsibly with the international community.

    Question. How do you plan to further develop and implement the 
Department's approach to ``economic statecraft'' in the Asia-Pacific 
region, including: promoting and supporting U.S. businesses abroad to 
expand exports; attracting foreign direct investment to the United 
States; establishing a level playing field for U.S. firms everywhere 
through regional and global trade agreements and institutions; 
preserving global monetary and financial stability; economic assistance 
to developing countries, opening markets, improving governance, 
increasing consumption of high-quality U.S. products, services, and 
know-how?

    Answer. Through its economic statecraft initiative, the Department 
has prioritized moving economics to the center of our overall foreign 
policy agenda. Nowhere has this focus been more evident than in the 
Asia-Pacific. The United States is working hard with our partners in 
the region to spur closer economic integration, to increase trade and 
investment, and to advance our major goal of greater shared prosperity. 
This approach reflects an understanding that the prosperity of the 
United States is inextricably linked to the prosperity and growth of 
the very dynamic Asia-Pacific. Our bilateral and multilateral economic 
and commercial relations have comprised a central pillar of our overall 
effort to rebalance our policies in the direction of Asia.
    The United States has established its economic leadership in the 
region by accomplishing ambitious, trade-oriented goals, including: the 
U.S.-Korea Free Trade Agreement, launching and maintaining strong 
momentum behind the Trans-Pacific Partnership (TPP), expanding economic 
engagement with ASEAN, and building on the success of our 2011 host 
year of the Asia Pacific Economic Cooperation (APEC) forum.
    If confirmed, I will work to enhance the Department's already 
substantial contributions to key U.S. regional economic/commercial 
initiatives as well as to encourage the continued efforts of our 
missions in the region to assist U.S. companies in the field, and to 
promote inward investment into the United States.
    If confirmed, I will work in concert with the Office of the U.S. 
Trade Representative and the Department's Bureau of Economic and 
Business Affairs to bring the TPP trade negotiations to a successful 
conclusion this year. The Bureau of East Asian and Pacific Affairs 
(EAP) will also continue to advance economic statecraft objectives 
through support of regional economic initiatives, such as the 
President's Enhanced Economic Engagement (E3) initiative, which aims to 
expand trade and investment ties with ASEAN members and help those not 
in TPP to prepare for future membership in high-standard trade 
agreements. As part of the U.S.-Asia Pacific Comprehensive Energy 
Partnership (U.S.-ACEP), the EAP Bureau will continue to work with the 
Department's Bureau of Energy Resources and interagency colleagues, 
including the Export-Import Bank of the United States (EXIM) and the 
Overseas Private Investment Corporation (OPIC), to encourage private 
sector involvement in energy development in the region. I will also 
ensure that we retain a leadership position in APEC for advancing trade 
and investment liberalization throughout the Asia-Pacific.
    Equally important to these policy initiatives, if confirmed, I will 
work with our missions in the region to expand the already extensive 
assistance they give to U.S. companies on a daily basis in identifying 
new business opportunities and advocating on their behalf, whether to 
win bids for government contracts or press host governments to revise 
policies impede trade and investment. As part of these efforts I will 
work to ensure continued focus on deepening our economic engagement 
with China with the aim of promoting an economic relationship in which 
China demonstrates a commitment to the global rules-based trading 
system.

    Question. What have been the main results to date of the 
rebalancing initiative? What parts of the initiative can be improved or 
modified? Are you comfortable that you and Secretary Kerry are on the 
same page in your conception of how the rebalancing strategy should be 
implemented going forward?

    Answer. The administration's rebalance, which covers diplomatic, 
economic, development, security, and cultural initiatives, is rooted in 
the recognition that America's prosperity and security are very much 
intertwined with the Asia-Pacific region. As underscored by Secretary 
Kerry during his trip to the region in April, the State Department is 
working hard to implement this U.S. strategic objective by building an 
increasingly active and enduring presence in the region. I 
wholeheartedly support the Secretary and President's shared vision for 
the Asia-Pacific in which the United States engages deeply throughout 
the region and advances our values and national interests, security, 
and leadership. The State Department and the Bureau of East Asian and 
Pacific Affairs (EAP) have already taken tangible actions in support of 
that commitment. For example, the United States is providing new 
resources for regional efforts such as the Lower Mekong Initiative, 
which helps improve water management, disaster resilience, and public 
health. EAP is deeply involved with implementation of the U.S.-Asia 
Pacific Comprehensive Energy Partnership and the U.S.-ASEAN Expanded 
Economic Engagement (E3) initiative announced by President Obama last 
November in Cambodia. EAP leads U.S. participation in APEC, the premier 
forum for U.S. economic engagement with the Asia Pacific.
    If confirmed, I will continue these programs and support the early 
conclusion of negotiations for the Trans-Pacific Partnership (TPP), 
which will deepen U.S. trade and investment ties in the Asia Pacific.

    Question. Have the Office of Management and Budget (OMB) and the 
National Security Staff put out a budget data request asking agencies 
for more detailed information about their activities in and associated 
budgetary resources devoted to Asia? Has the administration circulated 
a priorities memo as part of the FY 2015 budget process that directs 
agencies to assign greater importance to Asia? How important is an 
integrated whole-of-government approach to the region to achieving U.S. 
objectives?

    Answer. The Department of State works very closely with the Office 
of Management and Budget (OMB), the National Security Staff (NSS), and 
other key interagency partners such as Department of Defense and USAID, 
in preparing an integrated budget that supports whole-of-government 
strategy for the rebalance in the Asia-Pacific. The administration 
routinely provides whole-of-government budget guidance to agencies that 
include a strong focus on the Asia-Pacific region given the 
administration's rebalance policy. I firmly believe we need to lock in 
and sustain resources from around the U.S. Government, both in the 
short- and long-term, in order to advance the administration's 
ambitious rebalance agenda.
    If confirmed, I look forward to participating in important 
interagency deliberations on the FY 2015 budget and other planning 
efforts to ensure that our resources are aligned with the 
administration's policy priorities.

    Question. More than 2 years after the administration launched its 
rebalancing initiative, staffing in and funding for the State 
Department's East Asia and the Pacific (EAP) Bureau continue to rank 
among the lowest among the Department's six regional bureaus. Since the 
premise of the rebalancing is that Asia has become more important to 
U.S. national interests, is the EAP Bureau being given sufficient 
priority to carry out its mission?

    Answer. As underscored by Secretary Kerry during his trip to the 
region in April, the State Department remains committed to building an 
increasingly active and enduring presence in the Asia-Pacific region. 
Despite an overall decrease in the State Department and USAID's budget, 
the overall FY 2014 budget request provides $1.2 billion in funding for 
East Asia and the Pacific, which reflects a 7.1-percent increase from 
FY 2012 in support of the East Asia rebalance--the largest growth rate 
of any region. The FY 2014 budget is but one aspect of building our 
longer term budgetary efforts to advance the rebalance, which also 
include advancing our public diplomacy agenda and political dialogue.
    If confirmed, I will advocate for staffing and funding levels 
appropriate to the important missions of the EAP bureau.

    Question. President Park has called for creating a ``new era'' on 
the Korean Peninsula by building trust between North and South Korea. 
Despite the North's recent behavior, she has indicated she wants to go 
forward with modest, incremental initiatives, including providing some 
humanitarian aid.

  <bullet> Does the Obama administration support such moves? Would it 
        consider also providing humanitarian assistance, including food 
        aid? What, if any conditions, would the administration insist 
        upon to ensure humanitarian aid is not diverted to the 
        military? Are there any additional efforts to strengthen the 
        U.S.-ROK alliance that you think are important and necessary to 
        undertake in parallel with any efforts at North-South 
        reconciliation?

    Answer. The Obama administration is committed to working closely 
with the Republic of Korea (ROK) on the North Korea issue. This 
includes close coordination to press Pyongyang to demonstrate 
seriousness of purpose by taking meaningful steps to abide by its 
international obligations and its commitment made in the 2005 Joint 
Statement of the Six-Party Talks, to pursue the denuclearization of the 
Korean Peninsula. This also involves coordination on ways to engage 
with North Korea diplomatically and, over time, build trust in its 
willingness to cooperate in the pursuit of denuclearization and inter-
Korean reconciliation.
    The longstanding policy of the United States is that humanitarian 
assistance, including food aid, should not be linked to political or 
security issues. Decisions on U.S. humanitarian assistance are based on 
three factors: (1) the level of need in a given country; (2) competing 
needs in other countries; and (3) the ability to ensure that aid 
reliably reaches the vulnerable populations for which it is intended. 
If confirmed, I will continue to implement the Obama administration's 
policy, including the prevention of diversion of food or other 
assistance.
    On the 60th anniversary of the U.S.-ROK alliance, our partnership 
has never been stronger. The United States and the ROK maintain a 
comprehensive strategic alliance with longstanding mechanisms for 
cooperation on security issues. The United States is working to enhance 
our combined capabilities to deter North Korea, including for extended 
deterrence, and, if confirmed, I will support this effort. The United 
States continues to hold regular and close consultations with the ROK 
on North Korea issues, as illustrated by ROK Special Representative for 
Korean Peninsula Peace and Security Cho Tae-yong's June visit to the 
United States.

    Question. China's assertive behavior toward the Senkakus has grown 
increasingly heated since summer 2012. U.S. officials have consistently 
stated that while the United States takes no position on the question 
of sovereignty, it is the U.S. position that Japan administers the 
Senkakus and that they are covered by the U.S. Mutual Defense Treaty.

  <bullet> In the face of rising tensions and increasing Chinese 
        activity in the area, has the United States taken the proper 
        stance in the situation? How might the United States help Japan 
        to resolve this dispute?

    Answer. The consistent U.S. position on the Senkaku Islands is that 
while we do not take a position on the question of ultimate sovereignty 
over the islands, we call on all parties to manage their differences 
through peaceful means.
    Japanese administration of the islands places them within the scope 
of Article 5 of the 1960 U.S.-Japan Treaty of Mutual Cooperation and 
Security. Our alliances are the cornerstones of our Asia policy, and we 
take our commitments under them very seriously.
    The United States has a strong interest in ensuring the stability 
of a region that is an engine of global economic growth. To this end, 
the administration has engaged in sustained, intensive, and high-level 
diplomacy on this issue to encourage all parties to exercise restraint, 
avoid coercive or unilateral actions, and pursue dialogue to lower 
tensions and resolve differences.
    We urge all parties to avoid actions that could raise tensions or 
result in miscalculations or incidents that would undermine peace, 
security, and economic growth. If confirmed, I will work to promote the 
reduction of tensions and risk, appropriate diplomatic dialogue among 
the concerned parties, and will firmly oppose coercive or destabilizing 
behavior.

    Question. Japanese Prime Minister Abe has called for revising and/
or reinterpreting Japan's Constitution to allow Tokyo to participate in 
``collective self-defense,'' moves that have been welcomed by U.S. 
defense officials in the past. Abe also has embarked on an ambitious 
economic agenda to revitalize the Japanese economy, including entering 
TPP negotiations.

  <bullet> What position do you think the United States should take on 
        Abe's proposals? What opportunities do you see for 
        strengthening and deepening the U.S.-Japan alliance and 
        economic partnership? How might Abe's initiatives, should he 
        take them, hurt or help the rebalancing strategy?

    Answer. The U.S.-Japan alliance is the cornerstone of peace and 
security in the region. We work in a partnership around the world to 
advance common values and shared interests. The United States and Japan 
are currently working together to strengthen the already excellent 
quality and capabilities of the alliance to ensure that it remains 
prepared to respond to the evolving security environment of the 21st 
century. If confirmed, I will be deeply involved in and supportive of 
our efforts to strengthen and deepen our alliance with Japan.
    The administration believes it is for the Japanese people and their 
elected representatives to decide whether, when, and in what manner to 
revise or reinterpret their constitution. We are following developments 
closely as Japan considers a potential relaxation of its self-imposed 
restrictions on collective self-defense in order to assess the 
potential impact on our alliance and its roles, missions, and 
capabilities.
    On the economic front, Prime Minister Abe's policies appear to be 
helping to reinvigorate the Japanese economy, and a healthy Japanese 
economy is good for both Japan and the United States. The TransPacific 
Partnership (TPP) is a key piece of the Japanese Government's reform 
efforts, as well as the economic centerpiece of our rebalance toward 
Asia.
    If confirmed, I will urge the Abe government to follow through on 
its economic reform proposals, and will work closely with the United 
States Trade Representative and other U.S. Government agencies to 
pursue productive trade negotiations with Japan both within TPP and in 
parallel bilateral talks.
                                 ______
                                 

        Responses of Daniel R. Russel to Questions Submitted by 
                           Senator Bob Corker

    Question. Despite our continuing efforts to increase ``mutual 
understanding,'' the United States and China have very different views 
on a wide range of economic, security and human-rights-related issues.

  <bullet> How best can the United States pursue deeper engagement with 
        China while simultaneously articulating, clearly and publicly, 
        an overall foreign policy strategy that advances America's core 
        interests and values?

    Answer. The United States welcomes a strong, prosperous, and 
successful China that plays a key role in world affairs and adheres to 
international standards. The administration is committed to pursuing a 
positive, comprehensive, and cooperative relationship with China. The 
United States advances our national interests and values and encourages 
China to adhere to international standards on human rights, trade, and 
other issues by clearly articulating U.S. principles and by promoting 
high-level, consistent, and constructive dialogue between the United 
States and China.
    Key elements of the U.S. approach to economic relations with China 
have been to encourage China's integration into the global, rules-based 
economic and trading systems and to expand U.S. exporters' and 
investors' access to the Chinese market. Human rights issues also 
continue to be a central element of U.S. foreign policy and the U.S.-
China bilateral relationship. The administration is committed to 
raising human rights issues directly with Chinese counterparts and to 
urging China to respect the rule of law and protect the human rights 
and fundamental freedoms of all its citizens.
    Additionally, working with China on cyber security is one of the 
administration's top priorities. The U.S. Government is actively 
addressing cyber issues, including the growing concern about the threat 
to economic and national security posed by cyber-enabled theft of 
intellectual property and business and trade secrets. As Secretary 
Kerry announced in April, the U.S. Government established a Cyber 
Working Group with the Chinese to facilitate sustained and meaningful 
diplomatic discussions regarding cyber.

    Question. In April 2013, Secretary Kerry stated that the United 
States wants ``a strong, normal, but special relationship with China.'' 
Traditionally, the United States has reserved the term ``Special 
Relationship'' to describe ties with the United Kingdom.

  <bullet> Do you agree with the Secretary's call for a new ``special 
        relationship'' with China?

    Answer. Developing deeper ties between the United States and China 
is in the national interest of the United States and is important to 
safeguarding U.S. interests in the region and around the world. I 
believe the importance we place on U.S.-China ties is consistent with, 
and in no way detracts from, the continued importance and strengthening 
of our existing partnerships and alliances.
    There are few diplomatic, economic, or security challenges that can 
be addressed without China at the table and without cooperation between 
our countries. Earlier this month in California, President Obama and 
President Xi agreed to continue exploring ways to strengthen our 
overall political, economic, cultural, and military ties. If confirmed, 
I will use the diplomatic tools at my disposal to advance the U.S.-
China relationship and our cooperation on a range of issues at the same 
time as we work to strengthen our relations with countries throughout 
the region.

    Question. How can the United States more effectively press China to 
enforce international rules regarding intellectual property, which 
continue to negatively impact and undermine key sectors of the U.S. 
economy?

    Answer. Despite greater protections being incorporated into the 
Chinese legal system, American and other companies lose billions of 
dollars each year due to intellectual property (IP) theft in China. 
Piracy and counterfeiting levels in China remain unacceptably high, 
harming U.S. and Chinese consumers and enterprises. Stronger 
enforcement mechanisms and efforts are still needed.
    I believe the United States must urge China to: (1) continue the 
work of the permanent State Council-level leadership structure to focus 
IP enforcement efforts at all levels of government on IP theft, 
including the growing problem of theft over the Internet; (2) recognize 
the importance of trade secrets protection to the health of China's 
overall IPR regime, which is essential to promoting innovation and 
economic growth; (3) achieve measurable results on software 
legalization, both in government and in enterprises; and (4) make 
intermediaries such as online content hosts liable for the infringement 
that their sites facilitate.
    If confirmed, I will ensure that the protection of intellectual 
property rights through robust laws and enforcement remains a top 
priority in our engagement with China. Copyrights, trademarks, patents, 
and trade secrets must have adequate safeguards in China to protect the 
ideas of American entrepreneurs and the jobs of American workers.

    Question. If confirmed, what role do you envision for the EAP 
Bureau in the recently established U.S.-China cyber working group?

    Answer. Cyber security is one of the administration's top 
priorities, and cyber-enabled theft of trade secrets and confidential 
business information emanating from China is of particular concern and 
has been discussed with China at all levels of government, including by 
the President. The State Department, including the Bureau of East Asian 
and Pacific Affairs (EAP) and the Office of the Coordinator for Cyber 
Affairs (S/CCI), plays a key role in these discussions, and, if 
confirmed, I envision this role continuing for EAP.
    To have a meaningful, and constructive dialogue with China on this 
issue, Secretary Kerry announced the establishment of the U.S.-China 
Cyber Working Group in April. The State Department will lead the 
working group, and if confirmed I will ensure that the EAP Bureau, in 
close cooperation with S/CCI, will continue to play a central role in 
shaping the development of the working group.

    Question. During the recent Obama-Xi summit in California, National 
Security Advisor Tom Donilon said that ``President Xi indicat[ed] that 
China was interested in having information on the [Trans-Pacific 
Partnership] process as it went forward and being briefed on the 
process and maybe setting up a more formal mechanism for the Chinese to 
get information on the process and the progress that we're making with 
respect to the TPP negotiation.''

  <bullet> What is the administration's position on sharing such 
        information with a country that is not a party to the TPP?
  <bullet> Do our TPP allies support China's reques?
  <bullet> Do you view China's request to be informed on TPP's progress 
        as a sign Beijing is interested in joining the regional free-
        trade agreement?
  <bullet> What steps would China need to take in order to obtain 
        approval to eventually join TPP discussions or a finalized 
        agreement?

    Answer. The United States is working hard with our TPP partners to 
conclude the TPP negotiation as expeditiously as possible. We and our 
partners believe our work in TPP will be important not just for current 
and future TPP members, but for the trade and investment environment 
throughout the Asia-Pacific. The administration welcomes China's 
interest and that of others in the region in learning more about TPP.
    The United States and its TPP negotiating partners have stated that 
TPP is open to Asia-Pacific economies that are prepared to adopt its 
ambitious commitments and eliminate trade and investment barriers. 
Economies that are interested in pursuing this path initiate a process 
of bilateral consultation with each of the TPP members to demonstrate 
their readiness, and the consensus of all current TPP members is 
necessary for new parties to join. That is the process that Mexico and 
Canada successfully completed in 2012, and is the process that Japan is 
currently engaged in.
    In the past, we have offered briefings at a general level on the 
broad outlines and principles behind the agreement to interested 
countries in the region that are not presently a party to the TPP, and 
have done so in coordination with our current TPP partners. We would 
respond to expressions of interest by China with this type of general 
briefing, and I would refer you to USTR for details of what information 
we would be able to provide in such a briefing. It is difficult to 
assess at present the significance of China's request. Many non-TPP 
countries have sought information to understand the development of the 
regional trade and investment context, even if they have no specific 
interest at present in joining the negotiations. Clearly, China would 
need to take many steps to open its economy, promote transparent 
regulatory practices, and address a range of specific issues to be able 
to demonstrate its readiness for the TPP.

    Question. Some in the U.S. business community believe that the 2012 
Revised Model Bilateral Investment Treaty (BIT) does not sufficiently 
cover issues related to China's state-owned-enterprises (SOEs) and have 
called for the BIT with China to include appropriate disciplines to 
ensure that China's SOEs do not enjoy preferential advantages over 
their foreign competitors.

  <bullet> With respect to talks with China on a BIT, does the 
        administration support an ambitious agreement that includes 
        appropriate disciplines on China's SOEs?
  <bullet> Does the administration believe that the provisions of the 
        2012 revised model BIT sufficiently cover SOE issues that have 
        been raised by U.S. businesses?

    Answer. The United States seeks to reach agreement on a bilateral 
investment treaty that sets high standards, including on openness, 
nondiscrimination, and transparency for American investors and 
investments. We are taking an ambitious approach in our bilateral 
investment treaty negotiations with China, and one of our top 
priorities is to seek disciplines to help level the playing field 
between American companies and their Chinese competitors, including 
SOEs and national champions. The 2012 U.S. Model BIT provides a number 
of tools to address this issue, including the comprehensive approach 
that it takes to the national treatment nondiscrimination obligation 
and the application of all BIT obligations to SOEs exercising delegated 
government authority. Negotiations are at an early stage, and we will 
continue to address the U.S. business community's concerns as we move 
forward. We are also seeking to address other top-priority concerns in 
the China market, including protecting trade secrets from forced 
transfer and enhancing transparency and the rule of law.

    Question. Given that SOEs are an important component of the TPP 
trade negotiations, how does the administration intend to coordinate 
negotiations on the SOE provisions in the TPP with the negotiations on 
the China BIT and the SOE issues that have been raised with respect to 
China?

    Answer. Leveling the playing field for U.S. businesses and workers 
that compete with foreign state-owned enterprises is a priority for 
this administration. The United States is seeking to address this issue 
through coordinated efforts in a range of bilateral and multilateral 
forums, including the Trans-Pacific Partnership negotiations and our 
ongoing work in the OECD. A top priority in the bilateral investment 
treaty negotiations with China is to level the playing field for U.S. 
firms that face unfair competition from Chinese state-owned enterprises 
or national champions. We have also been using results-oriented, high-
level dialogues like the Joint Commission on Commerce and Trade and the 
Strategic and Economic Dialogue to address trade distortions and 
discriminatory treatment resulting from China's heavy reliance on 
state-owned enterprises.

    Question. The United States and Republic of Korea are presently 
engaged in negotiations on a new nuclear cooperation agreement or 123 
Agreement. The U.S. negotiating team is led by the Department of 
State's International Security and Nonproliferation (ISN) Assistant 
Secretary, Thomas Countryman.

  <bullet> If confirmed, will you commit to maintain the EAP Bureau's 
        supporting role in 123 negotiations led by A/S Countryman and 
        his team of nuclear experts?

    Answer. Yes. If confirmed, I can reassure you that the Bureau of 
East Asian and Pacific Affairs will remain committed to supporting ISN 
Assistant Secretary Countryman and the interagency team of nuclear 
experts to conclude a successor civil nuclear cooperation agreement 
with the Republic of Korea.

    Question. Please state your views on U.S. engagement with North 
Korea. Should the United States pursue bilateral talks with North Korea 
or should the six-party talks framework remain the forum for engagement 
between Washington and Pyongyang?

    Answer. The United States remains committed to seeking a negotiated 
solution to the North Korea nuclear issue, which will require 
multilateral diplomacy. North Korea's nuclear and ballistic missile 
program, proliferation activities, and provocative behavior are a 
threat to the entire international community. The United States 
maintains channels for bilateral contact with North Korea and 
coordinates closely with its allies and partners to press North Korea 
to choose the path of peaceful denuclearization.
    North Korea committed on numerous occasions, including in the 
September 2005 Joint Statement of the Six-Party Talks, to abandoning 
all nuclear weapons and existing nuclear programs. The United States 
and the international community must continue to hold North Korea to 
those commitments and its international obligations. The United States 
seeks authentic and credible negotiations to implement the September 
2005 joint statement and bring North Korea into compliance with all 
applicable Security Council resolutions through irreversible steps 
leading to the denuclearization of the Korean Peninsula. The onus is on 
North Korea to take meaningful actions toward denuclearization and 
refrain from provocations.

    Question. Please state your views on the provision of humanitarian 
assistance to North Korea, including food aid.

    Answer. I am deeply concerned about the well-being of the North 
Korean people.
    The United States has a longstanding policy that decisions on 
humanitarian assistance, including food aid, are based on three 
factors: (1) the level of need in a given country; (2) competing needs 
in other countries; and (3) the ability to ensure that aid reliably 
reaches the vulnerable populations for which it is intended. If 
confirmed, I will continue to implement this longstanding U.S. policy 
on humanitarian assistance.

    Question. How would you assess China's willingness to use its 
leverage to alter North Korea's behavior? Are there still limits to how 
much pressure Beijing will apply to Pyongyang?

    Answer. China has stated that it shares the concerns of the 
international community regarding North Korea's destabilizing and 
provocative behavior and agrees that the denuclearization of the Korean 
Peninsula is of critical importance. If confirmed, I will continue to 
concentrate U.S. diplomatic energy and efforts on deepening dialogue 
and cooperation on North Korea with China. I will also encourage China 
to more effectively leverage its unique relationship with North Korea 
to achieve our shared goal: the verifiable denuclearization of the 
Korean Peninsula in a peaceful manner.
    China has cooperated in a number of significant and constructive 
ways to address North Korea's nuclear and ballistic missile programs 
and provocations. For example, China played a critical role in crafting 
U.N. Security Council Resolution 2094, which imposed new sanctions on 
North Korea. If confirmed, I will continue to press China to enforce 
all provisions of the relevant U.N. Security Council resolutions on 
North Korea, including tough new sanctions, and to address North 
Korea's threats to regional peace and security and the global 
nonproliferation regime.

    Question. Last year, the United States and Japan announced that our 
governments will review the Guidelines of Japan-U.S. Defense 
Cooperation, which are intended to provide a framework for bilateral 
roles and missions in response to military contingencies. Please 
outline the objectives of the United States for this review, including 
our position on engaging Japan on collective self-defense.

    Answer. The U.S.-Japan Defense Guidelines are the framework upon 
which our bilateral defense cooperation rests. The present version of 
the Guidelines dates back to 1997, and in the intervening years Japan 
has expanded the Self Defense Forces role, including by dispatching 
them to Indian Ocean to support Operation Enduring Freedom, to Iraq, 
and to Djibouti in support of antipiracy efforts. Our security 
relationship has naturally evolved since 1997 and the United States and 
Japan have agreed that the time is right to review the Guidelines and 
discuss the future of the Alliance. At the conclusion of the review, if 
a mutual decision is made to revise the Defense Guidelines, we will 
engage in a deliberate process to reach a consensus outcome that is 
firmly supported by fiscal resources on both sides. If confirmed, I 
will work closely with the Department of Defense to use the Guidelines 
review to establish a joint vision for the shape of our Alliance over 
the next 15-20 years. How Japan addresses its self-imposed restriction 
on collective self-defense will be a subject of Japanese domestic 
debate and will help shape the future of the Alliance, and we will 
engage with Japan on this matter closely.

    Question. Under current law, U.S. companies can export liquefied 
natural gas (LNG) if the Department of Energy deems it to be the public 
interest. If the United States has a free-trade agreement with the 
importing country, the public interest determination is automatically 
satisfied. Secretary of Energy Ernest Moniz recently said he would 
review LNG export applications ``on a case-by-case basis 
expeditiously,'' but to date, only two export facilities have been 
approved by the Obama administration.

  <bullet> Does the administration believe that expediting natural gas 
        exports to formal allies and emerging partners will strengthen 
        strategic ties and contribute to the administration's 
        rebalancing in the Asia-Pacific? If so, what steps is the 
        administration planning to take to expedite pending 
        applications for natural gas exports?

    Answer. I recognize the importance of energy security for ourselves 
and our allies. The administration has had a number of discussions with 
allies and partners interested in importing U.S. LNG. The projects that 
have been approved, so far, include potential sales to Japan and India, 
as well as to companies that intend to market gas into global markets.
    The Department of Energy has the statutory responsibility to review 
export license applications, and is therefore best placed to answer 
specifics about the application review process. I would note, however, 
that the public interest determination is not a simple question. The 
various applications for LNG exports total almost 40 percent of U.S. 
gas production, and the applicants are considering multibillion dollar 
investments and seeking approval for long-term (typically 20-year) 
sales commitments. It is important that we get this right, and that the 
process reflects careful consideration of all the factors.
    If confirmed, I will work with the State Department's Bureau of 
Energy Resources and the Department of Energy to ensure that this issue 
is given the attention it requires.
                                 ______
                                 

        Responses of Daniel R. Russel to Questions Submitted by 
                       Senator Benjamin L. Cardin

    Question. We welcome the administration's rebalance to Asia. While 
the rebalance has a strategic basis, I have stressed that we need to 
make sure that the promotion of human rights is not forgotten. The 
situation in Tibet is both a strategic matter and a human rights 
problem.

  <bullet> Could you speak to how the administration plans, first, to 
        improve the human rights situation in Tibet, and second, to 
        engage on the strategic aspects of the Tibetan issue, including 
        India-China relations and tensions over the sharing of water 
        flowing off the Tibetan plateau?

    Answer. I am concerned about the deteriorating human rights 
situation in Tibetan areas and, if confirmed, I will raise U.S. 
concerns with my Chinese counterparts. We will continue to call on the 
Chinese Government to engage with the Dalai Lama or his 
representatives, without preconditions, as the best means to address 
Tibetan concerns and relieve tensions. We will consistently raise 
concerns about Tibetan self-immolations and continue to urge the 
Chinese Government to address the underlying problems in Tibetan areas 
and reexamine existing, counterproductive policies that exacerbate 
rather than resolve existing tensions. I will also continue to press 
the Chinese Government to allow journalists, diplomats, and other 
observers unrestricted access to China's Tibetan areas. We will 
continue to work broadly across the Himalayan region to encourage 
countries to work together cooperatively to manage their shared water 
resources.

    Question. For over 30 years, the Taiwan Relations Act and the Six 
Assurances have governed United States policy toward Taiwan, and have 
contributed to the peace and stability of the Asia-Pacific region.

  <bullet> As the United States undertakes plans to expand and 
        intensify the already significant U.S. role in the region, how 
        does it plan to continue to implement the security commitment 
        the United States has for Taiwan under this framework?

    Answer. Consistent with the Taiwan Relations Act and the United 
States one-China policy, the United States makes available to Taiwan 
defense articles and services necessary to enable Taiwan to maintain 
sufficient self-defense. The administration approved nearly several 
billion in new defense sales to Taiwan, as notified to Congress in 
2012. If confirmed, I will continue to support the sale of defense 
articles to Taiwan. Such sales help meet our commitments to Taiwan and 
at the same time help maintain stability both across the Taiwan Strait 
and within the region.

    Question. Discrimination against minorities in Myanmar remains a 
serious problem. For example, discriminatory local orders in Rakhine 
State which require members of the minority Rohingya community to seek 
government permission to travel, marry, have more than two children per 
household, and repair their houses and places of worship are sources of 
severe persecution and undermine any prospect of regional economic 
development.

  <bullet> What policy option does the U.S. Government have to urge the 
        Government of Myanmar to create and implement a plan to 
        eliminate discrimination toward religious and ethnic 
        minorities, end ethnic segregation; and engage in voluntary 
        resettlement of displaced persons?

    Answer. I am deeply concerned about recent religious conflict in 
Burma and urge all parties to refrain from violence and the government 
to end impunity by holding all perpetrators accountable for criminal 
acts of violence regardless of race, religion, or citizenship status. 
Ambassador Mitchell and Embassy Rangoon officers continue to travel 
throughout Burma to engage and petition government, religious, 
political, and community leaders to advocate restraint, tolerance, and 
reconciliation.
    Tensions remain high in Rakhine State since outbreaks of violence 
in June and October 2012 left over 200 people dead and at least 140,000 
displaced. Most victims were Muslim Rohingya. Reports in May that local 
Rakhine State officials planned to enforce a two-child limit for 
Rohingya in two townships are also worrying. Senior Department of State 
officials, including Ambassador Mitchell in Rangoon, continue to 
encourage the Government of Burma to develop a long-term solution to 
the crisis that addresses humanitarian needs of all Rakhine State's 
residents in a manner consistent with international norms and 
principles, including implementing the constructive recommendations 
included in the recent report by the government's Rakhine Investigation 
Commission. Our officials have stressed to the government, local 
authorities, religious leaders, and representatives of civil society 
that respect for and protection of human rights and fundamental 
freedoms, along with reintegration, redress, and reconciliation are the 
path toward lasting peace.
    The administration led coordination efforts with the international 
community to mobilize a response ahead of this year's rainy season to 
meet the needs of communities affected by the conflict, and we will 
continue to underline the urgency of that response in the coming 
months. The United States has provided more than $7 million in 
humanitarian assistance since June 2012 to address the shelter, food, 
nutrition, and water and sanitation needs of internally displaced 
persons (IDPs).
    I also remain very concerned about anti-Muslim violence that 
erupted on March 21 in Meiktila Town, central Burma, and spread to 
several neighboring townships displacing nearly 13,000 people, killing 
an estimated 100, and destroying homes, mosques, and other buildings. 
In April, the State Department received disconcerting reports of anti-
Muslim violence in Lashio in Burma's Shan State that led to burning of 
Muslim shops and religious buildings. The State Department recently 
provided $100,000 for humanitarian assistance to aid the victims of 
violence. Although the Government of Burma has reported that 
authorities detained a number of alleged Buddhist perpetrators in the 
wake of anti-Muslim violence, the State Department is aware of none 
that have been publicly sentenced. In contrast, authorities have 
prosecuted Muslims following these outbreaks, including, for example, 
two Muslim women who received sentences of 2 years hard labor for 
bumping into a young monk and allegedly sparking an outbreak of mob 
violence on April 30. If confirmed, I will continue to strongly urge 
the Government of Burma to hold accountable all individuals responsible 
for the March and April anti-Muslim violence in central Burma in a 
nondiscriminatory manner. I remain deeply concerned by the lack of 
equitable justice and accountability to date.
    The administration is committed to working with other donor 
governments, affected countries in the region, and the international 
community to meet critical humanitarian protection and assistance needs 
and develop comprehensive durable solutions for Burmese IDPs, refugees, 
asylum seekers and vulnerable migrants in Burma and the region. The 
United States and international community support voluntary returns in 
safety and dignity. The U.S. Government continues to express to 
affected countries in the region our commitment to provide assistance 
to improve conditions in ethnic minority areas inside the country that 
will allow for the safe return of displaced persons.

    Question. If current Cambodia Prime Minister Hun Sen secures a new 
term in July through an election process which is not free and fair, 
how should the U.S. Government respond?

    Answer. The United States has conveyed to Cambodia at high levels 
that the lack of progress on democracy and human rights is an 
impediment to deeper relations between our two countries. The upcoming 
national elections will be a critical test of the Cambodian 
Government's commitment to strengthening the nation's democracy. We are 
monitoring the situation closely and will reassess as appropriate our 
assistance and/or engagement with the Government of Cambodia in light 
of how the election is conducted. If confirmed, I will continue to 
press for improvements in human rights and a credible, free, and fair 
electoral process that allows for the full and unfettered participation 
of all political parties and their leaders.

    Question. The rebalance to Asia policy aims to use military, 
diplomatic, and economic tools of power and influence in a more 
coherent and deliberate fashion. Will these policy pronouncements be 
translated into an across-the-government plan to implement new elements 
of the strategy? What are our current skills and abilities in terms of 
language and area studies outside the State Department, in Energy, 
Commerce and other agencies?

    Answer. The administration's rebalance, which covers diplomatic, 
economic, development, security, and cultural initiatives, is rooted in 
the recognition that America's prosperity and security are very much 
intertwined with the Asia-Pacific region. As underscored by Secretary 
Kerry during his trip to the region in April, the State Department is 
working hard to implement this U.S. strategic objective by building an 
increasingly active and enduring presence in the region. I 
wholeheartedly support the Secretary and President's shared vision for 
the Asia-Pacific in which the United States engages deeply throughout 
the region and advances our values and national interests, security, 
and leadership.
    I believe that our policy and resource planning must be fully 
integrated and closely coordinated with our interagency partners in 
order to advance our shared military, diplomatic, development, and 
economic objectives in the Asia-Pacific. I personally participated in 
interagency planning sessions on our Asia rebalance during my tenure as 
Special Assistant to the President and Senior Director for Asian 
Affairs in the National Security Council. For example, the Department 
of State works very closely with the Office of Management and Budget, 
the National Security Staff, the Department of Defense, and USAID in 
preparing an integrated budget that supports our whole of government 
strategy for the Asia-Pacific. If confirmed, I will look at additional 
ways to coordinate our planning and, just as importantly, to 
communicate our strategy and thinking to the American public.
    I believe that efforts within the State Department, and with our 
interagency partners, to strengthen language and areas studies skills 
of our overseas and domestic staff will become increasingly vital as we 
rebalance our U.S. engagement to a region with over half of the global 
population, 10 languages designated as either hard or super hard, and a 
tremendously diverse range of cultures and ethnicities. The 
administration has consistently placed a high value on ensuring our 
diplomats and interagency officials obtain the right skills and 
expertise to advance our foreign policy.
    The Foreign Service Institute (FSI), the government's premier 
training institution for officers and support personnel of the U.S. 
foreign affairs communities, continues to be an especially valuable 
asset in our support for other agencies, particularly those in need for 
knowledge of foreign language, cultures, and international affairs. FSI 
provides training for some 47 U.S. Government agencies. Training 
offered to our interagency partners includes language training and 
country-specific and regional area studies courses including on East 
Asia, China; South Asia, Southeast Asia, Japan, Korea, Maritime 
Southeast Asia, and Mainland Southeast Asia. My own view is that we 
could do more to train U.S. officials in the region and at home--for 
State as well as officials in our sister agencies. If confirmed, I will 
continue to work with our State and interagency partners to enhance the 
relevant skills and knowledge to advance our core policy objectives for 
the Asia-Pacific.

    Question. President Park has called for creating a ``new era'' on 
the Korean Peninsula by building trust between North and South Korea. 
Despite the North's recent behavior, she has indicated she wants to go 
forward with modest, incremental initiatives, including providing some 
humanitarian aid. Should the United States consider also providing 
humanitarian assistance again?

    Answer. The longstanding policy of the United States is that 
humanitarian assistance, including food aid, should not be linked to 
political and security issues. Decisions on U.S. humanitarian 
assistance anywhere are based on three factors: (1) the level of need 
in a given country; (2) competing needs in other countries; and (3) the 
ability to ensure that aid reliably reaches the vulnerable populations 
for which it is intended. If confirmed, I will continue to implement 
this longstanding U.S. policy on humanitarian assistance.
                                 ______
                                 

        Responses of Daniel R. Russel to Questions Submitted by 
                          Senator Marco Rubio

    Question. Can you explain how, in pursuing the Asia pivot/
realignment, the United States will deal with countries like Vietnam 
and Cambodia, which have highly problematic human rights records?

    Answer. Promoting human rights is an essential element of the 
administration's rebalance strategy. If confirmed, I will conduct 
candid and constructive human rights discussions with Asian governments 
in bilateral and multilateral settings. In close consultation with 
Congress, I will also work with my colleagues in the State Department 
and USAID to ensure that foreign assistance programs for East Asia and 
the Pacific reflect our commitment to bolster civil society, support 
human rights, and promote democracy throughout the region. The 
administration has been disappointed by the deterioration in human 
rights conditions over the last several years in Vietnam, particularly 
by the ongoing crackdown on bloggers and restrictions on Internet and 
media. If confirmed, I will urge Vietnam to respect human rights and 
emphasize that advancing the relationship with the United States is 
contingent on improving its human rights performance. Although 
Vietnam's record is of significant concern, there were some positive 
developments earlier this year, including Vietnam's decision to release 
lawyer Le Cong Dinh for humanitarian reasons and to host a high-level 
visit by Amnesty International.
    The Department of State has consistently and frankly raised our 
concerns about human rights with Cambodia. President Obama has 
emphasized that the lack of progress on human rights in Cambodia would 
be an impediment to deeper relations between our two countries. 
Challenges remain, such as land rights disputes and evictions without 
adequate compensation, judicial interference by the ruling political 
party to intimidate the opposition, and the infringement of the freedom 
of speech and press. However, Cambodia has taken some positive steps 
including the release of Mam Sonando in March. If confirmed, I will 
urge Cambodia to systemically improve its human rights record and to 
take measures to provide for a healthy democratic process, particularly 
in the runup to national elections in July.

    Question. If confirmed, what will you do to address the issue of 
China's repeated repatriation of North Korean refugees back to a 
country where they face almost certain torture and imprisonment?

    Answer. If confirmed, I will urge China to comply with its 
obligations as a party to the 1951 Convention Relating to Status of 
Refugees and its 1967 Protocol, including not to expel people protected 
under these treaties and to cooperate with the United Nations High 
Commissioner for Refugees (UNHCR) in the exercise of its mandate.

    Question. Should the President impose the sanctions on China called 
for in the Trafficking Victims Protection Act, now that China has been 
lowered to Tier 3. If not, why?

    Answer. I am concerned about human trafficking in China and, if 
confirmed, will carefully review all our efforts to combat trafficking 
in persons in the region to ensure that we are taking all appropriate 
steps to address this issue. The Trafficking Victims Protection Act 
(TVPA), as amended, authorizes restrictions on assistance for countries 
ranked Tier 3 in the Trafficking in Persons Report, but the President 
may waive some or all restrictions if he determines that the affected 
assistance ``would promote the purposes of [the TVPA] or is otherwise 
in the national interest of the United States.''

    Question. If confirmed, would you commit to attend the Human Rights 
Dialogue to show the importance of this aspect of our discussions with 
China to our bilateral relationship?

    Answer. If confirmed, I am committed to supporting the Dialogue and 
continuing to raise our human rights concerns directly with our Chinese 
counterparts. The promotion of human rights is a key tenet of U.S. 
foreign policy, and the U.S.-China Human Rights Dialogue is an 
important channel to discuss our key human rights concerns with China. 
I would welcome the opportunity to participate. I strongly believe 
respect for the rule of law and protection of universal human rights 
are critical to China's long-term prosperity and stability.

    Question. What steps is the administration taking to support the 
work of the U.N. Commission of Inquiry on North Korea, including its 
efforts to gain access to China to examine the conditions faced by 
those fleeing North Korea?

    Answer. The United States remains deeply concerned about the human 
rights situation in North Korea, and cosponsored the annual resolution 
that established the U.N. Human Rights Council's Commission of Inquiry 
(COI) to investigate the grave, widespread, and systematic violations 
of human rights in North Korea.
    If confirmed, I will continue U.S. efforts to urge North Korea to 
cooperate with the COI--including by granting COI members access to the 
country to evaluate human rights conditions on the ground--and actively 
work with our partners and international organizations to address and 
raise attention to the deplorable human rights conditions in North 
Korea.
    I will also continue U.S. efforts to urge all countries in the 
region, including China, to cooperate in the protection of North Korean 
refugees and asylum seekers within their territories and to act in 
conformity with their obligations under the 1951 U.N. Convention 
Relating to the Status of Refugees and its 1967 Protocol, including (1) 
not to refoule North Koreans protected under these treaties, and (2) to 
cooperate with the U.N. High Commissioner for Refugees.

    Question. As Taiwan is likely to retire some of its older fighter 
aircraft in the next 5 to 10 years, do you believe that sales of 
advanced aircraft and other weapons systems are an important, next step 
in this commitment?

    Answer. Consistent with the Taiwan Relations Act and the United 
States one-China policy, the United States makes available to Taiwan 
defense articles and services necessary to enable Taiwan to maintain 
sufficient self-defense capability. With U.S. assistance, Taiwan is 
currently undergoing an extensive modernization of its F-16 A/B fleet, 
and we are aware of Taiwan's desire to replace older F-5, and perhaps 
Mirage 2000-5 fighters, with additional F-16 aircraft. No decisions 
have been made about possible future sales of military aircraft to 
Taiwan.
    If confirmed, I will continue to support U.S. policy to meet our 
commitments to Taiwan and assist Taiwan's maintenance of a sufficient 
self-defense capability. Doing so increases stability both across the 
Taiwan Strait and within the region.

    Question. What is the administration's position regarding the 
eventual participation of Taiwan in the Trans-Pacific Partnership 
negotiations?

    Answer. The United States and its Trans-Pacific Partnership (TPP) 
negotiating partners have stated that the TPP is open to economies in 
the Asia-Pacific that can establish their readiness to meet the high 
standards of the agreement. The addition of new members into the TPP is 
based on the consensus of current members. The Ma administration has 
set a goal of joining the TPP within 8 years, indicating that Taiwan 
understands it will take time to prepare for possible future entry into 
the TPP. The State Department and other U.S. trade agencies welcome the 
liberalization of Taiwan's economy and have encouraged this in meetings 
under our Trade and Investment Framework Agreement. If confirmed, I 
will continue to encourage Taiwan's liberalization efforts.

    Question. If confirmed, will you personally commit to restate the 
administration's support for President Reagan's ``Six Assurances'' to 
Taiwan, as was done during the first term by Assistant Secretary 
Campbell?

    Answer. The United States remains firmly committed to the U.S. one-
China policy, the three joint communiques, and our responsibilities 
under the Taiwan Relations Act. The ``Six Assurances'' indeed help form 
the foundation of our overall approach to Taiwan. If confirmed, I will 
uphold this approach.
    The United States opposes attempts by either side to unilaterally 
alter the status quo across the Taiwan Strait. The United States does 
not support Taiwan independence.
    The United States has long maintained that differences between the 
People's Republic of China and Taiwan are matters to be resolved 
peacefully.

    Question. Knowing that the current Taiwan 123 Agreement will expire 
in March 2014, and knowing that the renewal will need 90 legislative 
days to sit with Congress before it comes into effect, when does State 
plan to send the negotiated renewal to Congress so as to avoid a 
situation where a legislative fix is needed?

    Answer. For the Department of State, the Bureau of International 
Security and Nonproliferation (ISN) leads on negotiation of agreements 
regarding peaceful uses of nuclear energy, often referred to as ``123 
Agreements.'' I understand that, through the American Institute in 
Taiwan (AIT), on the U.S. side, and Taiwan's Taipei Economic and 
Cultural Representative Office in the United States (TECRO), 
negotiators are working hard to reach a new agreement at an early date. 
Their goal is to put a new AIT-TECRO 123 Agreement before Congress this 
autumn. If confirmed, I will support efforts to bring the negotiations 
to an early, successful conclusion with sufficient time to allow for 
the required congressional review period prior to entry into force.
                                 ______
                                 

        Responses of Daniel R. Russel to Questions Submitted by 
                      Senator Christopher A. Coons

    Question. Under your leadership, how will the Bureau of East Asian 
and Pacific Affairs further advance economic opportunities for women in 
the region and expand programs such as the South Asia Women's 
Entrepreneurship Symposium?

    Answer. If confirmed, I will strongly support programs that create 
opportunities for and empower women and girls as a vital component of 
our economic engagement in the region. The United States currently 
works both bilaterally and through multilateral frameworks, including 
the Asia-Pacific Economic Cooperation (APEC) forum, Lower Mekong 
Initiative (LMI), and the Association of Southeast Asian nations 
(ASEAN), to support women's economic empowerment.
    For example, under APEC, the State Department is focused on 
implementing the San Francisco Declaration, which calls on APEC members 
to take concrete actions to realize the full potential of women, 
integrate them more fully into APEC economies, and maximize their 
contributions toward economic growth. Within this framework, the United 
States is implementing capacity-building activities focused on women's 
access to markets and capital and is supporting a number of studies to 
identify specific, actionable barriers to women 's participation in the 
economy in targeted APEC member economies.
    The United States has also supported the efforts of the ASEAN 
Commission on the Promotion and Protection of the Rights of Women and 
Children to strengthen economic rights and opportunity for women. The 
Department supports USAID's upcoming launch of the 5-year U.S.-ASEAN 
Partnership for Good Governance, Equitable and Sustainable Development, 
and Security (PROGRESS), which will include women's and children's 
rights as a key focus area. The Department will also soon announce open 
applications for the U.S.-ASEAN Science Prize For Women, which will be 
awarded to a promising, early-career woman scientist from the ASEAN 
region.
    The Lower Mekong Initiative (LMI), the Mekong Technology, 
Innovation Generation, and Entrepenuership Resources (TIGERS) Project 
will facilitate access to economic opportunities for women 
entrepreneurs and support the development of an ``innovation 
ecosystem'' in the countries of the Lower Mekong subregion.
    Bilaterally, the United States will bolster women's participation 
in the private sector in Papua New Guinea through training programs to 
support the development, sustainability, and advocacy skills of the 
nascent Papua New Guinea Women's Chamber of Commerce.
    In December 2012, the State Department held a Women's 
Entrepreneurship Symposium to galvanize women's economic empowerment 
along the New Silk Road and the Indo-Pacific Economic Corridor, which 
links India and Bangladesh with Southeast Asia. The Symposium brought 
together over 100 women entrepreneurs, government officials, private 
sector and civil society leaders from 11 South and Central Asian 
countries, including Burma, to identify opportunities and priorities 
for advancing women's entrepreneurship in South Asia.

    Question. How will the Bureau address violence against women and 
girls in the region, including sexual- and gender-based violence, as 
recently highlighted by the gang rape and death of the 23-year-old 
woman on a Delhi bus in India?

    Answer. The Bureau of East Asian and Pacific Affairs (EAP) is 
working closely with the Secretary's Office of Global Women's Issues 
(S/GWI), and Bureaus and Offices across the Department to 
comprehensively prevent and respond to gender-based violence in the 
Asia-Pacific. S/GWI's small grants programming around the world, 
including in the Asia-Pacific region, supports the advancement of 
respect for women's and girls' human rights, and will include targeted 
programs that address gender-based violence. These grants work to 
support and build the capacity of local, grassroots organizations, 
raise awareness of gender-based violence, legal rights, and strengthen 
community referral systems. Additionally, EAP supports S/GWI's efforts 
to increase women's participation in peace negotiations, conflict 
prevention and response efforts, and peace-building processes.
    Preventing and responding to gender-based violence is a critical 
step toward the U.S. Government's goal of supporting the emergence of 
stable, democratic countries that are at peace with their neighbors and 
provide for the basic needs of their citizens. If confirmed, I commit 
to continuing EAP's close cooperation with S/GWI and all other 
stakeholders to prevent violence against women and girls.
                                 ______
                                 

        Responses of Daniel R. Russel to Questions Submitted by 
                         Senator John Barrasso

    Question. Like many U.S. industries, soda ash faces significant 
trade barriers around the world. It is a key manufacturing component of 
glass, detergents, soaps, and chemicals. Soda ash is also used in many 
other industrial processes.
    U.S. ``natural soda ash'' is refined from the mineral trona. It has 
long been regarded as the standard for quality, purity, and energy 
efficiency in production. The Green River Basin in Wyoming is the 
world's largest area for naturally occurring trona.

  <bullet> As part of your effort to promote U.S. industries in the 
        East Asian and Pacific region, can you commit to me that you 
        will be an advocate for eliminating trade barriers for soda ash 
        and other important U.S. industries in the international 
        marketplace?

    Answer. If confirmed as Assistant Secretary, I will prioritize the 
East Asian and Pacific (EAP) Bureau's promotion of U.S. exports and the 
facilitation of U.S industries' participation in international markets. 
I understand the Department is aware that some countries have pursued 
actions against the importation of soda ash, including barriers to 
trade in soda ash. I will ensure that EAP provides necessary support to 
the Department of Commerce and the Office of the U.S. Trade 
Representative to address this issue and other trade-distorting 
measures. I will also advocate strongly for U.S. firms and industries, 
encouraging our trading partners' adherence to their international 
trade obligations in providing nondiscriminatory market access for our 
exporters, including those in the soda ash industry.

    Question. Last year, the U.S. Department of State and U.S. 
Department of Defense initiated a process to remove a war memorial in 
Wyoming. It honors the lives of 48 soldiers who were massacred in their 
sleep by insurgents in the Philippines on September 28, 1901. The 
Department of State and Department of Defense intentionally withheld 
information about the commencement of its removal from Congress.

  <bullet> Will you commit to me to not send our war memorials, which 
        honor our fallen service men, women, and their families, to 
        foreign lands?
  <bullet> What is your position on providing Congress with information 
        and notice about these types of actions?

    Answer. I understand and appreciate the deep historical and 
emotional connections Americans have to the Bells of Balangiga, which 
represent the ultimate sacrifice of so many young Americans in the 
service of our Nation. If confirmed, I will continue to consult with 
Congress, the Department of Defense, and all other interested parties 
on this issue.

    Question. As you know, the North Korean Government has appealed to 
the United States to open talks to ease the tensions on the Korean 
Peninsula.

  <bullet> Do you believe the United States should reward the North 
        Koreans by directly engaging with North Korea?
  <bullet> Do you believe the North Koreans will dismantle their 
        nuclear program as a precondition to hold talks with the United 
        States?
  <bullet> If you were in a position to set the preconditions for U.S.-
        Korean direct talks, can you please detail those preconditions?

    Answer. I believe the United States should not seek talks for the 
sake of talks. Rather we should be open to authentic and credible 
negotiations to implement the September 2005 joint statement and bring 
North Korea into compliance with all applicable Security Council 
resolutions by ending its ballistic missile program and abandoning all 
nuclear weapons and existing nuclear programs in a complete, 
verifiable, and irreversible manner. For negotiations to be authentic 
and credible, North Korea must demonstrate it is prepared to halt and 
ultimately abandon all of its nuclear weapons and programs.
    The onus is on North Korea to take meaningful actions toward 
denuclearization and refrain from provocations, and improve relations 
with South Korea. North Korea committed on numerous occasions, 
including in the September 2005 Joint Statement of the Six-Party Talks, 
to abandoning all nuclear weapons and existing nuclear programs. The 
United States and the international community must continue to hold 
North Korea to those commitments and its international obligations.
    The United States remains committed to finding a diplomatic 
solution on North Korea, which will require multilateral action. North 
Korea's nuclear and ballistic missile program, proliferation 
activities, and provocative behavior are not just bilateral issues 
between the United States and North Korea, but are of concern to the 
entire international community. If confirmed, I would continue to 
coordinate closely with allies and partners to press North Korea to 
choose a path different leading to peaceful denuclearization.

    Question. Do you believe tougher sanctions should be imposed on 
North Korea for its continued violation of all its nonproliferation 
agreements?

    Answer. I believe the United States should continue to work with 
the international community to ensure full enforcement of international 
and national sanctions as part of our effort to bring about 
denuclearization of the Korean Peninsula. The international community 
has posed strict measures in response to North Korea's defiance of its 
international obligations, and the United States continues to demand 
that North Korea fully comply with its international obligations.
    In unanimously adopting U.N. Security Council Resolution 2094, 
which expanded sanctions on North Korea in response to the February 12, 
2013, North Korean nuclear test, the U.N. Security Council expressed 
its determination to take further significant measures in the event of 
a future North Korean missile launch or nuclear test. The United States 
has also imposed--and as necessary will continue to impose--national 
measures on entities and individuals involved in proliferation-related 
activities proscribed by U.N. Security Council resolutions.
    Sanctions on North Korea are aimed at impeding its ability to 
sustain and advance its proscribed nuclear, ballistic missile, and 
proliferation programs and activities. The international community's 
concerted efforts to implement these sanctions have demonstrated to 
North Korea the increasing costs of defying the international 
community.
    If confirmed, I will strongly support full implementation of 
sanctions by our international partners and will work closely with the 
Department of the Treasury and other agencies to examine further 
unilateral or multilateral sanctions as appropriate.

    Question. What additional unilateral sanctions are available to the 
United States to impose against the regime in North Korea?

    Answer. The United States has a range of unilateral sanctions 
authorities available to address North Korea's proliferation activities 
and will continue to use them to expand sanctions on North Korea and 
target entities and individuals associated with North Korea's 
proscribed nuclear and ballistic missile programs and other illicit 
acts.
    I believe that sanctions are a valuable and effective part of our 
overall strategy to combat the proliferation of weapons of mass 
destruction and their means of delivery.
    If confirmed, I will cooperate with the Department of the Treasury 
and other agencies to consider all appropriate measures to impede North 
Korea's ability to sustain and advance its proscribed nuclear and 
missile programs and associated proliferation activities.

    Question. What consequences have there been, if any, for North 
Korea's long-range missile test in February?

    Answer. The February 12, 2013, North Korean nuclear test resulted 
in the unanimous adoption of U.N. Security Council Resolution (UNSCR) 
2094, which significantly expanded an already strong set of sanctions 
on North Korea, as well as in broad international condemnation--from an 
unprecedented 80-plus countries and international organizations.
    The measures contained in UNSCR 2094 are already being implemented 
and making it harder for North Korea to move the funds, equipment, and 
personnel needed to develop its prohibited nuclear and ballistic 
missile programs. The United States has worked closely with the 
international community to ensure that these measures are fully 
implemented.
    On March 11, 2013, the United States designated the North Korea's 
Foreign Trade Bank, consistent with UNSCR 2094's obligation to prevent 
financial transactions that could contribute to North Korea's illicit 
programs. The United States also designated four senior North Korean 
officials for their role in activities explicitly proscribed by U.N. 
Security Council resolutions.

    Question. What is the current relationship between Iran and North 
Korea? How much cooperation is there between the two countries on 
missile and nuclear development?

    Answer. U.N. Security Council Resolutions 1718 and 1874 prohibit 
the transfer to or from the DPRK of goods and technology related to 
nuclear, ballistic missile or other weapons of mass destruction-related 
programs. Likewise, any cooperation with Iran on prohibited, 
proliferation sensitive nuclear and ballistic missile activities could 
violate multiple U.N. resolutions on Iran.
    If confirmed, I will strongly support U.S. efforts to prevent 
collusion and to press both the DPRK and Iran to comply fully and 
transparently with their international commitments and obligations and 
to refrain from any undertakings which would further threaten the 
global nonproliferation regime.
                                 ______
                                 

        Responses of Daniel R. Russel to Questions Submitted by 
                           Senator Rand Paul

    Question. Over the past few years we've seen reduced tensions in 
the Taiwan Strait. How will you continue to encourage the development 
of cross-strait relations?

    Answer. I applaud the cross-strait agreements signed by China and 
Taiwan over the past 5 years. Cultural exchange, direct transportation 
links, and investment promotion are just a few examples of these 
accomplishments.
    For the past 34 years, the United States has pursued its one-China 
policy based on the three communiques and the Taiwan Relations Act. 
Regional stability and U.S. policy have provided Taiwan with the 
confidence and flexibility needed to improve cross-strait relations.
    If confirmed, I will encourage both Taiwan and China to continue 
expanding cross-strait cooperation and oppose any attempts by either 
side to unilaterally alter the status quo.

    Question. Would the United States support expanding the Trans-
Pacific Partnership to include Taiwan?

    Answer. The United States and its Trans-Pacific Partnership (TPP) 
negotiating partners have stated that the TPP is open to economies in 
the Asia-Pacific that can establish their readiness to meet the high 
standards of the agreement. The addition of new members into the TPP is 
based on the consensus of current members. The Ma administration has 
set a goal of joining the TPP within 8 years, indicating that Taiwan 
understands it will take time to prepare for possible future entry into 
the TPP. The State Department and other U.S. trade agencies welcome 
steps Taiwan is taking to liberalize its economy, and have encouraged 
this in our discussions under our Trade and Investment Framework 
Agreement. If confirmed, I will continue to encourage Taiwan's 
liberalization efforts.

    Question. Do you see an enhanced role for Taiwan under the 
rebalance to Asia policy on economic and security fronts?

    Answer. Taiwan is a vibrant democracy and a developed market 
economy. It is the United States 11th-largest trading partner, 7th-
largest export market for American agricultural and food products, and 
the 6th-largest source of international students in the United States. 
If confirmed, I will ensure the United States expands its commercial, 
economic, and cultural engagement with Taiwan through our Trade and 
Investment Framework Agreement (TIFA), through economic integration 
initiatives in Asia-Pacific Economic Cooperation (APEC), and through 
greater people-to-people contacts, including student exchanges. Our 
people-to-people engagement has been further facilitated by Taiwan's 
entry into the Visa Waiver Program in 2012. If confirmed, I will also 
ensure the United States continues to build a robust unofficial 
relationship with Taiwan and fulfill its longstanding commitment to 
enable Taiwan to maintain a sufficient self-defense capability, in 
accordance with the 1979 Taiwan Relations Act.


     NOMINATIONS OF VICTORIA NULAND, DOUGLAS LUTE, AND DANIEL BAER

                              ----------                              


                        THURSDAY, JULY 11, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Victoria Nuland, of Virginia, to be Assistant Secretary of 
        State for European and Eurasian Affairs
Douglas Edward Lute, of Indiana, to be United States Permanent 
        Representative on the Council of the North Atlantic 
        Treaty Organization
Daniel Brooks Baer, of Colorado, to be U.S. Representative to 
        the Organization for Security and Cooperation in Europe
                              ----------                              

    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy, presiding.
    Present: Senators Murphy, Cardin, Shaheen, Kaine, Johnson, 
Risch, Rubio, McCain, Barrasso, and Paul.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. I call this nomination hearing to order.
    Today, the Senate Foreign Relations Committee will consider 
three nominations: Victoria Nuland to be the Assistant 
Secretary of State for European and Eurasian Affairs; Douglas 
Lute to be the U.S. Permanent Representative to NATO; and 
Daniel Baer to be the U.S. Ambassador to the Organization for 
Security and Cooperation in Europe.
    Before we begin, let me remind members that the deadline 
for submission of questions for the record is the close of 
business, this Monday.
    First, let me welcome our nominees as well as your 
families:
    Our first nominee, Victoria Nuland, is a 29-year veteran of 
the Foreign Service. She most recently served at the State 
Department as the spokesperson there, but Ambassador Nuland has 
worked at the highest levels of both Republican and Democratic 
administrations, earning the respect of her colleagues at every 
step along the way. She served with integrity and dedication as 
the Special Envoy for Conventional Armed Forces in Europe, the 
U.S. Permanent Representative to NATO, and the Principal Deputy 
National Security Advisor to Vice President Cheney. As her 
colleagues note, her 20 years of work as an expert specifically 
on Russia, as well as her talents as a diplomat, negotiator, 
and strong voice for democracy and human rights, makes her 
ideally suited for the position of Assistant Secretary for 
Europe and Eurasia.
    Victoria is originally from my home State of Connecticut, 
so I am especially pleased to preside over her confirmation 
hearing today. She is here with her family--her parents, as 
well as her husband, Robert, and her son, David. We welcome 
them, as well.
    Daniel Baer is the Deputy Assistant Secretary in the Bureau 
of Democracy, Human Rights, and Labor, currently at the U.S. 
Department of State. Prior to joining the administration in 
2009, he had teaching positions at both Georgetown and Harvard. 
And during his time in academia, the private sector, and 
government, Dr. Baer has distinguished himself as a talented 
diplomat and passionate defender of human rights, and I believe 
that he is an excellent choice for our Ambassador to the OSCE.
    He is here today with his partner, Brian Walsh, and we 
welcome him.
    Douglas Lute has long had a distinguished career in both 
military and civilian service. He is currently serving as the 
Deputy Assistant to the President and Coordinator for South 
Asia and the White House national security staff. He retired 
from Active Duty in the United States Army as a lieutenant 
general in 2010, after 35 years of service. General Lute's 
previous positions include time at the U.S. European Command in 
Germany and as the commander of U.S. Forces in Kosovo, where he 
first worked with NATO.
    General Lute, we thank you for your service. We look 
forward to working with you in your new position, and we also 
welcome your wife, Jane, who is here today.
    I congratulate all of you on your nominations.
    Let me say that, as we are going to be talking about Europe 
today, probably the most overused word in the foreign policy 
community today is ``pivot.'' There is no doubt that America 
has new and important diplomatic, economic, and security 
interests in Asia, and there is no doubt that the original 
reason for many of our values-based alliances with Europe--the 
cold war--is no longer present today. But, today, no less than 
ever before, Europe, as a unit and as European nations 
individually, remain America's most important allies to be 
found anywhere on the globe. Our most important security 
relationship is with Europe. When confronting a global crisis, 
the first place we almost always turn is to our European 
allies. Our most important economic relationship is with 
Europe. That is why we are reinvesting in this side of the 
relationship, with a kickoff, this week, of negotiations on the 
Transatlantic Trade and Investment Partnership.
    In a lot of ways, as the United States and Europe face the 
new economic growth in Asia, as we look at communal security 
challenges in places like Syria, Iran, and Afghanistan, our 
alliance is now more important than ever before.
    So, if confirmed, Ambassador Nuland, you will be 
formulating U.S. policy toward Europe at a crucial moment in 
our alliance's history, and I look forward, today, to hearing 
your thoughts, for instance, on how the State Department can 
assist the U.S. Trade Representative in moving forward a 
potentially transformational economic deal with Europe. We need 
to hear from you as to how we continue to maneuver an 
increasingly complicated--to frankly use a generous term--
relationship with Russia. How do we work together on common 
goals, like arms control and Middle Eastern stability while not 
letting them off the hook for a dangerous downward turn in the 
treatment of civil society? And, while we welcome the EU's 
emergence as a leader in the Balkans, how do we work with our 
partners in Europe to continue to integrate these fragile 
nations into the world community?
    General Lute, you are going to be working with NATO 
partners to bring our troops home from Afghanistan, while, at 
the same time, formulating the future role of the alliance. 
NATO still remains the world's preeminent security alliance. 
But, to remain strong, you are going to continue the work of 
your predecessor in emphasizing the importance of smart 
defense, of interoperability and coordinated strategic 
planning.
    And, Dr. Baer, you are going to be going to an organization 
that, more than any other, represents our ideals, and yet you 
will be faced with the challenge--maybe more of a challenge 
today than ever--of putting those ideals into action.
    So, I congratulate each of you on your nomination. And my 
hope is that the full Senate will work quickly and positively 
on your confirmations.
    At this point, I turn it over to Senator Johnson for 
opening remarks.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. Appreciate your 
opening remarks, and I certainly appreciate, also, the 
distinguished service that the nominees have already provided 
to their Nation, and truly appreciate the fact that you are 
willing to step up to the plate again and serve your Nation in 
new capacities, here. So, we have some, I think, first-class 
nominees here, and I am looking forward to your testimony.
    What is being contemplated, however, in the United States 
Senate, I think, requires some comment, and I would like to 
utilize my opening remarks to talk about what we were talking 
about in both of our caucuses, that the majority is 
contemplating taking action, breaking precedent, basically 
breaking the rules to change the Senate rules in a way that I 
believe would be incredibly damaging, if not very destructive, 
to the United States Senate, this institution that we totally 
revere. And it is doing it on the basis of what, I think, 
certainly the folks on our side of the aisle believe is a 
manufactured crisis. It has to do with nominations and, 
supposedly, Republican obstruction and, apparently, our 
blocking of nominations. But, here are the facts.
    In the 111th Congress, there were 920 of President Obama's 
nominations confirmed, only one was rejected. In the 112th 
Congress, 574 nominations were confirmed, only two were 
rejected. During the 113th Congress, our current Congress, 
there have been 66 nominees confirmed, with only one being 
rejected. Hardly a record of obstruction.
    In terms of Cabinet nominees, just in terms of the length 
of time it has taken to get confirmation, President Obama, his 
Cabinet nominees have taken 51 days, on average. During 
President Bush's administration, it was 52 days. During 
President Clinton's administration, it was 55 days. Again, 
President Obama has been, certainly, given due consideration. 
His nominees have been, really, moved forward very rapidly.
    In this term, in his second term, President Obama has 
already confirmed 28 judges--or we have--the Senate's confirmed 
28 judges, compared to 10 judges in President Bush's second 
term.
    This is manufactured crisis. And I am not the only one that 
believes that the nuclear option would be incredibly damaging. 
This is the words of Majority Leader Harry Reid when he wrote a 
book, in March 2009. He said, ``The nuclear option was the most 
important issue I had ever worked on in my entire career, 
because if that had gone forward, it would have destroyed the 
Senate as we know it.'' That is not the only thing Senator 
Harry Reid has mentioned about breaking the rules to change the 
rules. He said, ``In violating 217 years of standard procedure 
in the Senate, changing the rules by breaking the rules is 
about as far as you could get from a constitutional option.'' 
He also said, ``For people to suggest that you can break the 
rules to change the rules is un-American.''
    The only way you can change the rule in this body is 
through a rule that now says, ``To change a rule in the Senate 
rules to break a filibuster still requires 67 votes.'' You 
cannot do it with 60 votes. You certainly cannot do it with 51. 
Now we are told the majority is going to do the so-called 
``nuclear option.'' The Parliamentarian would acknowledge it is 
illegal, it is wrong, you cannot do it, and they would overrule 
it. It would simply be, ``We are going to do it because we have 
more votes than you.'' You would be breaking the rules to 
change the rules. That is very un-American.
    And finally, he said, ``The American people, in effect, 
reject the nuclear option because they see it for what it is, 
an abuse of power, arrogance of power.'' Lord Acton said, 
``Power corrupts, and absolute power corrupts absolutely.'' 
That is what is going on. The rules are being changed in the 
middle of the game. They are breaking the rules to change the 
rules. Regardless of one's political affiliations, Americans 
understand this is a political power-grab, a partisan political 
grab.
    Vice President Biden commented on this when he was a 
Senator. He said, ``The nuclear option is ultimately an example 
of the arrogance of power. This is a fundamental power-grab by 
the majority party. It is nothing more or nothing less.''
    Former Senator Christopher Dodd, in his farewell address, 
said, ``But, whether such a temptation is motivated by a noble 
desire to speed up the legislative process or by pure political 
expedience, I believe such changes would be unwise. To my 
fellow Senators who have never served a day in the minority, I 
urge you to pause in your enthusiasm to change the Senate 
rules.''
    Now, Senator Murphy, neither one of us, unfortunately, had 
the pleasure of serving with Senator Robert C. Byrd, from West 
Virginia, somebody who, certainly as I watched the Senate from 
afar, was acknowledged as somebody who revered the Senate, who 
fully understood the rules. We, unfortunately, did not get to 
have him speak to us during orientation, but he gave a very 
famous orientation speech on December 3, 1996, for that 
incoming Senate class, and I would like to take some time--
because I think his words bear repeating.
    He said, ``Let us clearly understand one thing. The 
Constitution's Framers never intended for the Senate to 
function like the House of Representatives''--in other words, 
be a majoritarian body. ``I have said that, as long as the 
Senate retains the power to amend and the power of unlimited 
debate, the liberties of the people will remain secure. The 
Senate was intended to be a forum for open and free debate and 
for the protection of political minorities. I have led the 
majority and I have led the minority, and I can tell you, there 
is nothing that makes one fully appreciate the Senate's special 
role as the protector of the minority interests like being in 
the minority.
    ``Since the Republican Party was created, in 1854, the 
Senate has changed hands times 14 times, so each party has had 
the opportunity to appreciate, firsthand, the Senate's role as 
guardian of minority rights. But, almost from its earliest 
years, the Senate has insisted upon its members' rights to 
virtually unlimited debate. When the Senate reluctantly adopted 
the cloture rule in 1917, it made the closing of debate very 
difficult to achieve by requiring a supermajority and by 
permitting extended post-cloture debate.''
    By the way, back then, the supermajority was two-thirds 
votes, now it is three-fifths.
    ``This deference to the minority view sharply distinguishes 
the Senate from the majoritarian House of Representatives. The 
Framers recognized that a minority can be right and that a 
majority can be wrong. They recognized that the Senate should 
be a true deliberative body, a forum in which to slow the 
passions of the House, hold them up to the light, examine them, 
and, through informed debate, educate the public. The Senate is 
the proverbial saucer intended to cool the cup of coffee from 
the House. It is the one place in the whole government where 
the minority is guaranteed a public airing of its views.
    ``Woodrow Wilson observed that the Senate's informing 
function was as important as its legislating function. And now, 
with televised Senate debate, its informing function plays an 
even larger and more critical role in the life of our Nation. 
The Senate is often soundly castigated for its inefficiency, 
but, in fact, it was never intended to be efficient. Its 
purpose was, and is, to examine, consider, protect, and be 
totally independent--a totally independent source of wisdom and 
judgment on the actions of the lower House and on the 
executive. As such, the Senate is the central pillar of our 
constitutional system.
    ``The Senate is more important than any or all of us, more 
important than I am, more important than the majority and 
minority leaders, more important than all 100 of us, more 
important than all of the 1,843 men and women who have served 
in this body since 1789. Each of us has a solemn responsibility 
to remember that, and to remember it often.''
    And finally, in a speech he gave on May 19, 2010, Senator 
Byrd said, ``The Senate has been the last fortress of minority 
rights and freedom of speech in this Republic for more than two 
centuries. I pray the Senators will pause and reflect before 
ignoring that history and tradition in favor of the political 
priority of the moment.''
    I have that same prayer. I came to the Senate because this 
Nation is facing enormous challenges. You, in serving this 
Nation, will face enormous challenges. We simply cannot afford 
to damage this incredibly important institution, the United 
States Senate. And I hope our colleagues on the majority side 
contemplate exactly what they are doing.
    But, with that, Mr. Chairman, I will turn it back over to 
you and look forward to the testimony.
    Senator Murphy. Thank you very much, Senator Johnson.
    Let us go to our right to left, and we will start with 
Ambassador Nuland.
    Welcome.

STATEMENT OF HON. VICTORIA NULAND, OF VIRGINIA, TO BE ASSISTANT 
      SECRETARY OF STATE FOR EUROPEAN AND EURASIAN AFFAIRS

    Ambassador Nuland. Thank you very much, Mr. Chairman, 
Ranking Member Johnson, all the members of this committee.
    I am honored to come before you to be considered for the 
position of Assistant Secretary of State for European and 
Eurasian Affairs, and I am grateful for the confidence that 
President Obama and Secretary Kerry have shown in me. If 
confirmed, I pledge to work with all of you to protect and 
advance U.S. interests, in promoting security, prosperity, 
democracy, and human rights in Europe and Eurasia, and working 
with our allies and partners there to advance our shared global 
interests.
    I am also delighted to share this panel today with my 
colleagues and friends, Doug Lute and Dan Baer. I can think of 
no better partners to provide vital U.S. leadership at our two 
essential transatlantic multilateral institutions.
    As a lifetime Europeanist, I have witnessed firsthand some 
of the most profound moments of change in Europe and Eurasia. 
From my days as a young political officer in Moscow, when I 
stood on Red Square on New Year's Eve in 1991, when the Soviet 
flag came down and the Russian flag went up, to the brutal wars 
in Bosnia and Kosovo, the enlargement of NATO and the EU, the 
creation of the euro. I know that, when Europeans and Americans 
join forces in defense of our common security and values, we 
are more effective than when we work alone, whether it is in 
Afghanistan, Iran, Mali, Burma, countering terrorism, promoting 
nonproliferation, good governance, human rights, development, 
health, or a cleaner planet. America needs a strong, confident 
Europe, and our European allies depend on America's unwavering 
commitment to their security and our continued support for 
Europe's prosperity, its cohesion, and its growth.
    As we look at the agenda ahead of us, our first task is to 
revitalize the foundations of our global leadership and our 
democratic, free-market way of life. We need growth, we need 
jobs, on both sides of the Atlantic. The Transatlantic Trade 
and Investment Partnership, that Senator Murphy mentioned, that 
we began this year with the EU could support hundreds of 
thousands of additional jobs. But the T-TIP is about more than 
our economic underpinnings. T-TIP is also a political and 
strategic investment in our shared future and our effectiveness 
as global leaders in the 21st century.
    We have also got to focus on the unfinished work within 
Europe. Today, we have a real chance to capitalize on changing 
attitudes and circumstances to address the 40-year-old division 
of Cyprus. Kosovo and Serbia have made important commitments 
toward long-term reconciliation, and those deserve our support. 
And we must not break faith with other members of our European 
and Eurasian family, who have been trapped for too long in 
frozen conflicts and territorial disputes.
    We must also do more to defend the universal values that 
bind us. The quality of democracy and rule of law in Europe and 
Eurasia is gravely uneven today; and, in some key places, the 
trends are moving in the wrong direction. If, as a 
transatlantic community, we aspire to mentor other nations who 
want to live in justice, peace, and freedom, we have got to be 
equally vigilant about completing that process in our own 
space.
    And we must also continue to work together beyond our 
shores. As the President has said so many times, as you have 
said, Mr. Chairman, Europe is our global partner of first 
resort. Whether in Afghanistan, Libya, working on Iran, on 
Syria, the United States and Europe are strongest when we share 
the risk and the responsibility and, in many cases, the 
financial burden of promoting positive change.
    When we can, we also have to work effectively with Russia 
to solve global problems. With respect to Iran, DPRK policy, 
Afghanistan, counterterrorism, and nuclear arms control, we 
have made progress in recent years, and the President's looking 
for opportunities to take our cooperation to the next level. 
However, we must also be very frank when we disagree with 
Russian policy, whether it is with regard to weapon sales to 
the Assad regime or with regard to the treatment of civil 
society, political activists, and journalists inside of Russia.
    Finally, we have got to be attentive to the fast-changing 
energy landscape of Europe and Eurasia. We welcome the many 
steps that Europeans have taken to diversify their energy 
market. If confirmed, I will work to ensure that U.S. companies 
continue to play a leading role in this dynamic market. As the 
President said in Berlin last month, ``Our relationship with 
Europe remains the cornerstone of our own freedom and 
security.'' If confirmed, I pledge to work with all of you to 
seize the opportunities before us to revitalize and deepen our 
ties with Europe and to ensure we continue, together, to have 
the will, the trust, and the capability to advance our shared 
security and prosperity and to meet our many global challenges 
together.
    Thank you.
    [The prepared statement of Ambassador Nuland follows:]

                 Prepared Statement of Victoria Nuland

    Thank you, Mr. Chairman, Ranking Member Johnson, and all the 
members of this committee. I am honored to come before you to be 
considered for the position of Assistant Secretary for European and 
Eurasian Affairs, and I am grateful for the confidence that President 
Obama and Secretary Kerry have shown in me. If confirmed, I pledge to 
work with all of you to protect and advance U.S. interests by promoting 
security, prosperity, democracy and human rights in Europe and Eurasia, 
and working with our allies and partners there to advance our shared 
global interests.
    I am also delighted to share the panel today with my colleagues and 
friends, Doug Lute and Dan Baer. I can think of no better partners to 
provide vital U.S. leadership at our two major TransAtlantic 
multilateral institutions.
    As a lifetime Europeanist, I have witnessed firsthand some of the 
most challenging and profound moments of change in Europe and Eurasia's 
recent history--from my days as a young political officer in Moscow 
when I stood on Red Square on New Year's Eve 1991 as the Soviet flag 
came down and the Russian flag went up, through the bloody and 
agonizing Bosnia and Kosovo wars, to the birth of the EURO, and the 
enlargement of NATO and the EU to include much of Central Europe. I 
have also learned through decades of shared effort that when Americans 
and Europeans join forces in defense of our common security and values, 
we are stronger and more effective than when we work alone--from 
Afghanistan to Iran to Mali to Burma; from countering terrorism to 
promoting nonproliferation, good governance, human rights, development, 
health and cleaner planet. America needs a strong, confident Europe. 
And our European allies depend on America's unwavering commitment to 
their security, and our continued support for Europe's prosperity, 
cohesion, and growth.
    As we look at the agenda that lies ahead of us, our first task with 
our European allies is to revitalize the foundations of our global 
leadership and our democratic, free market way of life. We need growth 
and jobs on both sides of the Atlantic. The TransAtlantic Trade and 
Investment Partnership that we began negotiating this week with the EU 
could support hundreds of thousands of additional jobs and strengthen 
our international competitiveness. But T-TIP is about more than our 
economic underpinnings. T-TIP is also a political and strategic 
investment in our shared future and our effectiveness as global leaders 
in the 21st century. When we break down trade barriers between us, we 
also strengthen our ability to raise international standards in favor 
of free and open societies.
    We must also focus on the unfinished work within Europe. Today, we 
have a real chance to capitalize on changing attitudes and 
circumstances to address the 40-year-old division of Cyprus. Kosovo and 
Serbia have made important commitments toward long-term reconciliation, 
thanks to the good offices of EU High Representative Ashton. We need to 
support the full implementation of these agreements, and with them, the 
integration of both countries into European structures. Croatia's 
acceptance into the European Union last week sets a powerful example 
for other Balkan States. And we cannot break faith with other members 
of our European and Eurasian family who have been trapped for too long 
in frozen conflicts and territorial disputes.
    We must also do more to defend the universal values that bind us. 
While all states in the EUR region hold elections and most have 
democratic constitutions, the quality of democracy and the rule of law 
in Europe and Eurasia is gravely uneven, and in some key places, the 
trends are moving in the wrong direction. Too many citizens do not feel 
safe criticizing their governments, running for office or advancing a 
vibrant civil society. In too many places, press freedom is stifled, 
courts are rigged and governments put their thumbs on the scales of 
justice. If, as a TransAtlantic community, we aspire to support and 
mentor other nations who want to live in justice, peace, and freedom, 
we must be equally vigilant about completing that process in our own 
space. Our democratic values are just as vital a pillar of our strength 
and global leadership as our militaries and our economies.
    We must also continue to work together beyond our shores to advance 
security, stability, justice and freedom. As the President has said so 
many times, Europe is our global partner of first resort. Our 
investment together in a safe, developing, democratic Afghanistan is 
just one example. Even as we wind down the ISAF combat mission in 2014, 
we will keep our promise to support the ANSF and Afghanistan's 
political and economic development. More than a decade of deploying 
together in that tough terrain has also made our NATO alliance more 
capable, more expeditionary and better able to partner with countries 
across the globe. As we look to future demands on our great alliance--
and they will come--we must build on that experience, not allow it to 
atrophy. In these difficult budget times, that will require working 
even harder to get more defense bang for our buck, Euro, pound, krone 
and zloty with increased pooling, sharing and partnering to ensure NATO 
remains the world's premier defense alliance and a capable coordinator 
of global security missions, when required.
    America's work with European partners and the EU across Africa, in 
Asia, on climate and on so many other global challenges must also 
continue. Today, the most urgent focus of common effort should be in 
Europe's own backyard and an area of vital interest to us all: the 
broader Middle East and North Africa. From Libya, to Tunisia, to Egypt, 
to Lebanon, to Iran, to Syria, to our work in support of Middle East 
peace, the United States and Europe are strongest when we share the 
risk, the responsibility and in many cases, the financial burden of 
promoting positive change. When we join forces with Canada, our Gulf 
partners and others, the effect is even stronger.
    When we can, we must also work effectively with Russia to solve 
global problems. With respect to Iran, DPRK policy, Afghanistan, 
counterterrorism and nuclear arms control and nonproliferation, we have 
seen important progress in the past 4 years, and the President is 
looking for opportunities to take our cooperation to the next level. 
However, we must also continue to be frank when we disagree with 
Russian policy, whether it's with regard to weapons sales to the Assad 
regime in Syria or the treatment of NGOs, civil society and political 
activists or journalists inside Russia. And we must encourage the next 
generation of Russians and Americans to reject zero sum thinking, and 
instead invest in the ties of business, culture, and people that will 
create opportunities for both of us.
    Finally, we must be attentive to the fast changing energy landscape 
of Europe and Eurasia, and the opportunities and challenges that 
brings. Europeans have taken important steps to diversify their energy 
market with new routes, new regulations, new power plants and LNG 
terminals, and investments in new energy sources. We welcome these 
developments, which are also creating opportunities for U.S. firms. If 
confirmed, I will work to ensure our companies continue to play a 
leading role in this dynamic market.
    As the President said in Berlin last month, our relationship with 
``Europe remains the cornerstone of our own freedom and security. 
Europe is our partner in everything we do . . . and our relationship is 
rooted in the enduring bonds . . . (of) . . . our common values.'' In 
every decade since World War II those bonds have been tested, 
challenged and in some quarters, doubted. In every decade, we have 
rolled up our sleeves with our European Allies and partners and beat 
the odds. These times of tight money, unfinished business at home and 
competing priorities abroad are as important as any we have faced. If 
confirmed, I pledge to work with all of you to seize the opportunities 
before us to revitalize and deepen our ties with Europe, and to ensure 
we continue to have the will, the trust, and the capability to advance 
our shared security and prosperity and to meet our many global 
challenges together.

    Senator Murphy. Thank you.
    General Lute.

  STATEMENT OF DOUGLAS EDWARD LUTE, OF INDIANA, TO BE UNITED 
  STATES PERMANENT REPRESENTATIVE ON THE COUNCIL OF THE NORTH 
                  ATLANTIC TREATY ORGANIZATION

    General Lute. Thank you, Mr. Chairman, Ranking Member 
Johnson, and all the members of this committee.
    I am honored to be considered, today, for the position of 
Permanent Representative to the North Atlantic Treaty 
Organization. I am grateful for the confidence that President 
Obama has shown in my nomination. And, if confirmed, I pledge 
to work with all of you to represent, faithfully, America's 
interests in NATO, the alliance that, since 1949, has served as 
the cornerstone of our security interests.
    It is a privilege today to sit here and appear alongside 
Victoria Nuland and Daniel Baer, two distinguished colleagues. 
If we are confirmed, the three of us will join the corps of 
U.S. officials devoted, full-time, to securing our interests in 
Europe and beyond. I could have no better teammates.
    At the outset, I want to recognize and thank my wife, Jane, 
who joins me here today, along with my sister, Pat. Jane 
recently completed service as the Deputy Secretary at the 
Department of Homeland Security. Her public service also 
includes work in several foundations and over 6 years in the 
United Nations Department of Peacekeeping Operations. Together, 
we have served the Federal Government for a combined total of 
nearly six decades, with both of us beginning as Army officers 
right out of college. We both took initial assignments in 
Germany at the height of the cold war; Jane in Berlin, and I 
along the East-West German border. I would not be here today 
without her support.
    This opportunity for me to serve once again with NATO began 
with that first assignment in Germany, and it continues to this 
day. I was in Germany when the wall fell, in 1989. I remember 
well that, on September 11, 2001, NATO, for the first time 
ever, invoked Article V of the Washington Treaty in response to 
the terrorist attacks here in America, demonstrating that an 
attack on one is an attack on all. Later, I commanded U.S. 
forces in NATO's Peace Enforcement Mission in Kosovo, an 
important crisis response on the periphery of NATO. Most 
recently, I have spent the last 6 years in the White House, 
focused on the wars in Iraq and Afghanistan, where, again, NATO 
has played important roles. If confirmed, I look forward to 
this opportunity to proudly serve my country again in NATO.
    Much has changed in Europe over the past several decades, 
but there has been one cornerstone for transatlantic security: 
NATO. Large multilateral institutions like NATO do not adapt 
quickly or easily; yet, in the last 20 years, we have seen NATO 
adjust to the end of the cold war, expand its membership to 
former enemies, extend its reach to threats on its periphery, 
and adapt its defense structures to emerging threats. No one 
would have believed, in 1989 when the wall fell, that NATO 
would conduct operations in places like the Balkans, 
Afghanistan, and Libya.
    Serious challenges lie ahead for NATO. The key operational 
challenge is Afghanistan, where NATO leads, today, a coalition 
of 50 nations. We are on a path to pass full security 
responsibility to Afghan forces by the end of 2014, next year. 
This is a path set by NATO and the Afghans, together, at the 
Lisbon summit in late 2010, and it was refined last year in 
Chicago.
    Several weeks ago, the Afghans reached a very important 
strategic milestone along that path as they assumed the lead 
for security across the entire country, with NATO passing into 
a support-and-advisory role. But, the military campaign is only 
one part along this path, and it represents only one variable 
in a very complex equation that includes: political transition 
that culminates next April in the Presidential elections; it 
includes economic transition, which has Afghanistan adjusting 
to the reduced presence of Western forces; it includes a 
political process that explores the potential of the Afghan 
Government talking to the Taliban, with an effort to bring an 
Afghan solution to this conflict. Finally, Afghanistan lives in 
a very tough neighborhood, and regional dynamics will play a 
major role.
    None of this work will be completed in the next 18 months, 
by December 2014, so NATO and the United States are both 
planning for a military presence beyond 2014, with a mission to 
continue to train, advise, and assist Afghan forces. Such a 
post-2014 mission requires a political agreement with the 
Afghan Government, and our negotiators are making progress in 
advance of next year's Afghan election season. Afghanistan has 
been NATO's largest operation. Drawing it to a responsible 
close will be a significant challenge in the next several 
years.
    NATO also faces a fundamental policy challenge, and that is 
the growing gap between NATO's mission and the resources allies 
commit to fulfilling that mission. This ends/means gap is 
centered on the imbalance between America's defense resources 
committed to the alliance and those of the other allies. All 28 
members of the alliance benefit from that membership. All 28 
have to contribute equitably. This is especially true as NATO 
recovers from a decade of operations in Afghanistan and faces 
new challenges, like missile defense and cyber security.
    There are ways to approach this challenge, including smart 
defense, pooling and sharing high-end resources, and exploring 
specialization among allies, and, finally, nurturing 
partnerships that extend the reach of NATO beyond the core 28 
members. But, this ends/means gap may be the most severe 
challenge the alliance has faced since the end of the cold war.
    NATO operates on a firm foundation of shared democratic 
values that bind together the 28 member nations. Because of 
these shared values, I am confident that NATO can, today, 
fulfill its three core tasks--collective defense, crisis 
management, and cooperative security--while also addressing the 
challenges of the future. If confirmed, I will do my best to 
represent American interests in the most successful, most 
durable alliance in history, the North Atlantic Treaty 
Organization. I ask for this committee's support.
    [The prepared statement of General Lute follows:]

                   Prepared Statement of Douglas Lute

    Thank you, Mr. Chairman, Ranking Member Johnson, and all the 
members of this committee. I am honored to be considered for the 
position of Permanent Representative to the North Atlantic Treaty 
Organization (NATO). I am grateful for the confidence that President 
Obama has shown in me by this nomination. If confirmed, I pledge to 
work with all of you to represent faithfully America's interests in 
NATO, the alliance that since 1949 has served as the cornerstone of our 
security interests.
    It is a privilege to appear alongside Victoria Nuland and Daniel 
Baer, two distinguished colleagues. If we are confirmed, the three of 
us will join the core of U.S. officials devoted full time to securing 
our interests in Europe and beyond. I could have no better teammates.
    At the outset, I want to recognize and thank my wife, Jane, who 
joins me here today. Jane recently completed service as the Deputy 
Secretary of the Department of Homeland Security. Her public service 
also includes work in several foundations and over 6 years in the 
United Nations Department of Peacekeeping Operations. Together we have 
served the Federal Government for a combined total of over six decades, 
with both of us beginning as Army officers right out of college. We 
both took initial assignments in Germany, Jane in Berlin and I along 
the East-West German border, at the height of the cold war.
    This opportunity for me to serve once again with NATO began with 
that first assignment and continues to this day. I was in Germany when 
the Wall fell in 1989. I saw Germans from the east walk across no-mans-
land to buy fresh fruit in the west. I remember well that on September 
11, 2001, NATO for the first time ever invoked Article V of the 
Washington Treaty in response to the terrorist attacks here in America, 
demonstrating that an attack on one is an attack on all. Later I 
commanded the U.S. forces in NATO's peace enforcement mission in 
Kosovo, a crisis response mission on the periphery of NATO. Most 
recently, I have spent the last 6 years in the White House focused on 
the wars in Iraq and Afghanistan, where again NATO has played key 
roles. If confirmed, I look forward proudly to this opportunity to 
serve my country again in NATO.
    Much has changed in Europe over the past several decades, but there 
has been one cornerstone for trans-Atlantic security--NATO. Large 
multilateral institutions like NATO do not adapt quickly or easily. Yet 
in the last 20 years we have seen NATO adjust to the end of the cold 
war, expand its membership to former enemies, extend its reach to 
threats on its periphery, and adapt its defense structures to emerging 
threats. No one would have believed in 1989 when the Wall fell that 
NATO would conduct operations in the Balkans, Afghanistan, and Libya.
    Serious challenges lie ahead for NATO. The key operational 
challenge is Afghanistan, where NATO leads a coalition of 50 nations. 
We are on a path to pass full responsibility to Afghan forces by the 
end of 2014, a path set by NATO and the Afghans at the Lisbon summit in 
late 2010 and refined last year at the Chicago summit. Several weeks 
ago the Afghans reached a strategic milestone along that path as they 
assumed the lead for security across the entire country, with NATO 
passing into a support and advisory role. But the military campaign is 
only one part of a complex equation to stabilize Afghanistan and ensure 
it is not a safe haven for al-Qaeda. The outcome will not rely solely 
on NATO. Perhaps most important, Afghan political transition culminates 
next April in the Presidential elections. Economic transition must 
adjust to the reduced presence of NATO forces. A political process that 
explores the possibility of Afghan Government talks with the Taliban is 
struggling at its outset. Finally, Afghanistan lives in a tough 
neighborhood, and regional dynamics will play a major role. None of 
this work will be fully completed in the next 18 months, so NATO and 
the United States are planning for a military presence beyond 2014, 
with the mission to continue to train-advise-assist the Afghan forces. 
Such a post-2014 mission requires a political agreement with the Afghan 
Government and our negotiators are making progress in advance of the 
Afghan election season. Afghanistan has been NATO's largest operation. 
Drawing it to a responsible close will be a significant challenge in 
the next several years.
    NATO also faces a fundamental policy challenge--the growing gap 
between NATO's mission and the resources allies commit to fulfilling 
that mission. This ends-means gap is centered on the imbalance between 
America's defense resources committed to the alliance and those of 
other allies. All 28 members benefit from the alliance; all 28 have to 
contribute equitably. This is especially true as NATO recovers from a 
decade of operations in Afghanistan and faces new challenges like 
missile defense and cyber security. There are ways to approach this 
challenge, including ``smart defense,'' pooling and sharing high-end 
resources, exploring specialization among allies, and nurturing 
partnerships beyond the core 28 members. This ends-means gap may be the 
most severe challenge the alliance has faced since the end of the cold 
war.
    As we look to the future, the alliance is committed to keeping open 
the door to NATO membership. Our position is clear: Membership must be 
earned. Candidate nations must meet standards.
    Beyond adding new members, NATO effectively extends its reach 
through partnerships based on reciprocity, mutual benefit, and mutual 
respect. Today NATO's partners include countries from the Middle East, 
Africa, and from across Asia. These partnerships broaden and increase 
the flexibility of NATO-led coalitions, expand and diversify NATO's 
political influence, and are a vehicle to emphasize common values. 
Recent NATO operations in Afghanistan and Libya have benefited from 
significant partner contributions.
    NATO's partnership with Russia--the NATO-Russia Council--provides 
an important venue for frank political dialogue and can lead to 
practical cooperation, as in Afghanistan today. Areas of cooperation 
include counterterrorism, counternarcotics and nonproliferation. This 
partnership also faces challenges including missile defense cooperation 
and defense transparency. The NATO-Russia Council remains an important 
channel to address mutual interests and potential areas of cooperation.
    NATO operates on a firm foundation of shared democratic values that 
bind together the 28 member nations. Because of these shared values, I 
am confident NATO can today fulfill its core tasks of collective 
defense, crisis management and cooperative security, while addressing 
the challenges of the future. If confirmed, I will do my best to 
represent American interests in the most successful, most durable 
alliance in history, the North Atlantic Treaty Organization. I ask for 
this committee's support.

    Senator Murphy. Thank you, General.
    Dr. Baer.

   STATEMENT OF DANIEL BROOKS BAER, OF COLORADO, TO BE U.S. 
REPRESENTATIVE TO THE ORGANIZATION FOR SECURITY AND COOPERATION 
                           IN EUROPE

    Dr. Baer. Thank you, Mr. Chairman, Mr. Ranking Member, and 
members of this committee.
    It is an honor to come before you as the President's 
nominee to serve as the United States Permanent Representative 
to the Organization for Security and Cooperation in Europe, and 
I am grateful for the confidence that President Obama and 
Secretary Kerry have expressed through this nomination.
    I am humbled to be here in front of you, and also humbled 
to be here with two great American public servants, Ambassador 
Nuland and Ambassador-designate Lute. If we are confirmed, I 
look forward to working with each of them, and with all of you, 
to advance U.S. interests.
    I have worked closely with Toria over the last few years, 
and she has been, not only a great friend, but a great partner 
in fighting for human rights. I would also like to acknowledge 
my family--my parents, thank them for the investment of love 
and resources in my future; my wonderful siblings; my sister, 
Marrett, who is here today--and my partner, Brian, who, though 
seated three rows behind me, is always standing beside me.
    Mr. Chairman, for the past 4 years, I have had the 
privilege of serving as Deputy Assistant Secretary in the State 
Department's Bureau of Democracy, Human Rights, and Labor. In 
this capacity, I have welcomed the opportunity to contribute to 
a long tradition, sustained through both Republican and 
Democratic administrations, of putting human rights at the 
center of U.S. foreign policy. This experience has deepened my 
conviction that human rights must be at the core of any 
successful long-term strategy for peace and security, and that 
U.S. leadership is as crucial today as it was when Eleanor 
Roosevelt helped draft the Universal Declaration of Human 
Rights almost 70 years ago. There is no genuine security or 
lasting peace in the absence of respect for human rights and 
adherence to the rule of law. Recent history has shown us that 
the apparent stability afforded by repressive regimes is 
illusory, and, because of this, when states violate the rights 
of their citizens and fail to uphold international obligations, 
it is not merely internal affairs, but the rightful concern of 
the entire international community.
    The OSCE is unique in having embraced a comprehensive 
approach to security at its founding and is the only regional 
security organization that places the political/military, 
economic and environmental, and human dimensions of security on 
an equal footing. The 57 participating states have recognized 
that whether and how an OSCE state is implementing its 
commitments is a legitimate concern for all participating 
states. This principle is part of a broader framework of highly 
elaborated human rights, cooperative security, and rule-of-law 
norms that are reflected in the mandates of OSCE institutions 
and field operations, enabling them to respond to a range of 
challenges, from attacks on media freedom to ethnic tensions 
across the OSCE, from Vancouver to Vladivostok. From election 
observation to arms control, military transparency, and 
confidence-building regimes, from the quiet diplomacy of the 
High Commissioner on National Minorities to the exchange of 
technical expertise in combating trafficking, supporting women 
entrepreneurs, or maintaining border security, the OSCE's 
resources encompass expertise and established habits of 
cooperation that cannot be replaced, recreated, or duplicated.
    Challenges to security, human rights, and rule of law are 
prevalent across the OSCE space, including intolerance and 
xenophobia, corruption, flawed elections, declining military 
transparency, and unresolved conflicts. Some participating 
states are failing to uphold and implement their commitments, 
including as they relate to fundamental issues, such as media 
freedom and the role of civil society. This is troubling, but 
it cannot, and does not, change the fundamental truth on which 
the OSCE is based, that the three dimensions of security are 
interconnected and must be advanced together. Shortcomings 
reinforce the fact that the work goes on and that we need the 
OSCE to continue to address challenges in a practical, 
principled manner in order to achieve true comprehensive 
security for all citizens throughout the OSCE space.
    If confirmed, in all my efforts my priority will be to 
leverage and strengthen the OSCE as an institution that 
efficiently and effectively advances American and European 
interests.
    Ambassador Nuland and Ambassador-designate Lute have laid 
out the enduring and unquestionable U.S. interests in a strong, 
democratic, prosperous, and secure Europe as a central 
component of maintaining our own national security in the 21st 
century. By supporting robust and deep transatlantic ties 
through our bilateral diplomacy, maintaining the strength and 
agility of our NATO alliance, and continuing to advance 
transatlantic cooperation through a comprehensive approach to 
security issues like those at the center of the OSCE's work, 
the U.S./European relationship will remain a foundation for 
progress toward a more peaceful and democratic world.
    Thank you again for having me. If confirmed, I will look 
forward to working with members of this committee and, of 
course, with the Helsinki Commission. And I welcome your 
questions.
    [The prepared statement of Dr. Baer follows:]

                  Prepared Statement of Daniel B. Baer

    Thank you, Mr. Chairman, Mr. Ranking Member, and members of the 
committee.
    It is an honor to come before this committee as the President's 
nominee to serve as the United States Permanent Representative to the 
Organization for Security and Cooperation in Europe (OSCE), and I am 
grateful for the confidence that President Obama and Secretary Kerry 
have expressed through this nomination.
    I am humbled to be here in front of you, and also humbled to be in 
such good company, with Ambassador Nuland and General Lute. I look 
forward to working with each of them--and with you--to advance U.S. 
interests if we are confirmed. I have worked closely with Toria over 
the last few years, and she has been not only a great friend but also a 
great partner in fighting for human rights.
    Mr. Chairman, for the past 4 years I have had the privilege of 
serving as a Deputy Assistant Secretary in the State Department's 
Bureau of Democracy, Human Rights and Labor. In this capacity, I have 
welcomed the opportunity to contribute to a long tradition--through 
both Democratic and Republican administrations--of putting human rights 
at the center of U.S. foreign policy and to be part of that team that 
helps shape our response to emerging human rights challenges, such as 
growing threats to Internet freedom.
    This experience has deepened my conviction that human rights must 
be at the core of any successful long-term strategy for peace and 
security, and that U.S. leadership in advancing human rights is as 
critical today as it was when Eleanor Roosevelt helped draft the 
Universal Declaration of Human Rights almost 70 years ago. Today, no 
serious observer can doubt the link between human rights and security. 
We know that respect for human rights cannot be relegated to the ``nice 
to have, but not essential'' category, because there is no genuine 
security in the absence of respect for human rights and adherence to 
the rule of law. Recent history has shown us that the apparent 
stability afforded by repressive regimes is often proven illusory. And 
we know that because of this, when states violate the rights of their 
citizens and fail to uphold their international human rights 
obligations, it is not merely ``internal affairs'' but the rightful 
concern of the entire international community.
    The OSCE is unique in having embraced this comprehensive approach 
to security at its founding, and is the only regional security 
organization that places the human, economic and environmental, and 
political-military dimensions of security on an equal footing. The 57 
participating States of the OSCE have recognized that whether and how 
an OSCE State is implementing its OSCE commitments is a legitimate 
concern for all participating States.
    This principle is part of a broader framework of highly elaborated 
human rights, cooperative security, and rule of law norms that are 
reflected in the mandates of the OSCE institutions and field 
operations, enabling them to respond to a range of challenges--from 
attacks on media freedom to ethnic tensions--across the OSCE--from 
Vancouver to Vladivostok. From election observation to arms control and 
military transparency and confidence-building regimes; from the quiet 
diplomacy of the High Commissioner on National Minorities to the 
exchange of technical expertise in combating trafficking, promoting 
good governance in the public and private sector, supporting women 
entrepreneurs, or maintaining border security; the OSCE's resources 
encompass expertise and established habits of cooperation that cannot 
be replaced, recreated or duplicated.
    Over almost four decades--from its origin at the signing of the 
Helsinki Final Act in 1975, to its emergence as the OSCE in 1990 when 
Europe and Eurasia were undergoing deep and turbulent transformation, 
we have witnessed enormous progress toward our goal of a Europe whole, 
free, and at peace. But there is still more work to be done.
    The ``Helsinki+40'' process, a 3-year framework for action leading 
up to the 40th anniversary in 2015 of the signing of Helsinki, provides 
an opportunity for participating States to reaffirm existing OSCE 
commitments and to bolster the Organization across all three 
dimensions. Helsinki+40 should promote trust and mutual confidence in 
the political-military realm, help revitalize conventional arms control 
as well as confidence and security-building regimes, and seek to 
address the protracted conflicts in the OSCE space. The security 
afforded to OSCE participating States is often uneven, particularly in 
the so-called ``gray zones'' of Europe. We should aim to rebuild an 
environment at the OSCE where military transparency is the norm, 
creating a more stable security environment for all.
    In the economic and environmental dimension, we will maximize fully 
the OSCE's unique position to leverage the connection between human 
rights, accountable and responsive government, and economic prosperity. 
We will continue to promote good governance and prioritize the 
organization's work to improve trade and transport connections, notably 
at border crossings, where good governance practices and efficient 
customs procedures are helping to increase trade volumes between 
participating States and improve income generation for small business 
entrepreneurs.
    If confirmed, I will work with my colleagues across the 
administration, as well as in Congress, to advance a vision that 
preserves what we value most about the OSCE, including its 
comprehensive approach to security, while developing a strategic 
framework that addresses 21st century challenges, leveraging U.S. 
resources together with those of our partners to achieve results. And 
even as we aim to rebuild an environment at the OSCE where military 
transparency is the norm, the OSCE can leverage its security 
cooperation experience and knowledge, reaching out to other regions on 
measures for nonproliferation of weapons of mass destruction and 
confidence- and security-building regimes.
    Challenges to security, human rights and rule of law are prevalent 
across the OSCE space including intolerance and xenophobia, state-
sponsored corruption, flawed elections, declining military 
transparency, and unresolved conflicts. Some participating States are 
failing to uphold and implement their commitments, including as they 
relate to fundamental issues such as media freedom, investigative 
journalism and the role of civil society. This is troubling. But it 
cannot and does not change the fundamental truth on which the OSCE is 
based: that the three dimensions of security are interconnected and 
must be advanced together. Shortcomings reinforce the fact that the 
work goes on, and that we need the OSCE to continue to address 
challenges in a practical, principled manner, in order to achieve true, 
comprehensive security for all citizens throughout the OSCE space.
    I know that some experts and some OSCE states have expressed doubts 
about the Organization's efficiency and effectiveness. We need to make 
a clear-eyed assessment of the OSCE and address these concerns. We 
should deal with challenges in a practical way that reaffirms our 
shared values and principles. The OSCE remains the only regional 
organization that includes all of Europe and Eurasia as well as Canada, 
the United States, and most recently Mongolia. Though its scope can 
make consensus difficult, it also makes the organization that much more 
powerful when we find ways to address challenges together.
    And we should remember that when shared political will exists, the 
results are impressive. The OSCE's role in facilitating the peaceful 
participation in Serbian elections for dual nationals in Kosovo last 
year is a case in point. Based on the OSCE's success in that 
challenging mission, the EU has called on the organization to help 
administer local elections in northern Kosovo this fall, a key aspect 
of the recent normalization agreement between Serbia and Kosovo.
    Looking to the decade ahead, the OSCE has the potential to play a 
pivotal role in advancing interests we share with OSCE participating 
States, including support for democratic development, economic 
integration, and security in Central Asia, as well as contributing to 
ongoing transitions on the periphery of the OSCE space among our 
Mediterranean Partners and in Afghanistan. The OSCE has expertise and 
experience that is directly relevant to our Partners' aspirations.
    In all of my efforts, if confirmed, my priority will be to 
strengthen the OSCE as an institution that efficiently and effectively 
advances American and European interests in maintaining and deepening 
comprehensive security. The sustained commitment of the United States 
and other like-minded democracies is essential to the establishment of 
rights-respecting and sustainable institutions, military transparency 
and cooperative security, increased engagement with civil society, and 
greater adherence to rule of law and respect for human rights across 
the OSCE space. No state can achieve this outcome alone; we need strong 
partners and organizations such as the OSCE.
    Ambassador Nuland and Ambassador-designate Lute have laid out the 
enduring and unquestionable U.S. interest in a strong, democratic, 
prosperous and secure Europe as a central component of maintaining our 
own national security in the 21st century. By supporting robust and 
deep transatlantic ties through our bilateral diplomacy; maintaining 
the strength and agility of our NATO alliance; and continuing to 
advance trans-Atlantic cooperation through a comprehensive approach to 
security issues like those at the center of the OSCE's work, the U.S.-
European relationship will remain a foundation for progress toward a 
more peaceful and democratic world.
    Thank you again for having me and I welcome your questions.

    Senator Murphy. Thank you, again, to all of our nominees.
    Let me start with questions to you, Ambassador Nuland. Let 
me draw on your years of expertise with respect to Russia. This 
is an immensely important relationship; and, given all of the 
attention on the disputes we have, it sometimes belies the fact 
that we are actually at work with them on a variety of issues 
in which we have deep mutual interests, whether it be 
antiterrorism efforts, missile defense, or the work we have 
done together with respect to Afghanistan.
    That being said, as I mentioned in my opening statement, we 
cannot let them off the hook with respect to the fairly severe 
downward turn that the Kremlin's take on civil society has 
undergone. As I have said before, if you are sitting in front 
of a court today accused of political crimes, you are less 
likely to be acquitted than you were during the Great Purge.
    So, we can attack the issue of United States-Russia 
relations from a number of perspectives, but let me ask you to 
talk about this. What are the right pressure points upon Russia 
to try to turn around, I think, this very detrimental turn that 
has come in the way in which Putin and others are treating 
civil society and political dissidents?
    Ambassador Nuland. Well, thank you, Senator. I certainly 
share your concern about the internal political environment in 
Russia. As I said at the outset, I agree with you, as well, 
that, wherever we can, as we tried to do with the Soviet Union, 
we have to try to work with Russia in our common interests. And 
we have had some success in that regard, particularly on some 
of the foreign policy issues that we share.
    With regard to our support for democratic change, for 
reform, for those speaking out for a pluralistic society with 
rule of law, we have to, despite the environment, continue to 
do what we can to work with those Russians who are willing to 
work with us. If we are not able to support them as fully as we 
used to inside Russia, we still need to make support available 
in other ways. And I will, if confirmed, be eager to work with 
all of you on this committee to look for more ways to do that.
    In addition, we have to speak out, as you said and as I 
said in my opening, when we disagree. And we have to work more 
intensively and more cohesively with our European allies and 
partners, because, when we speak together about our concerns, 
our voice is even stronger.
    Thanks.
    Senator Murphy. Let me ask you one question about the trade 
agreement. How worried are you about the ability of Europe to 
be on the same page throughout these negotiations? We have 
seen, just over the past week, France seems to--at every turn, 
trying to--try to find an excuse to postpone or maneuver the 
beginning stages of these negotiations. There are two sets of 
negotiations happening; one between European nations and one 
between the United States and Europe. What is your role, in 
coordination with the Trade Representative, in trying to make 
sure that Europe speaks with one voice throughout these 
negotiations?--which is the only way that we are going to end 
up getting a product which is as big and bold as we all hope we 
can get.
    Ambassador Nuland. Thank you, Senator. Well, you are right 
that, on the one hand, it is a bilateral trade agreement 
between the United States and the European Union, but it is 
obviously a trade agreement between the United States and the 
28 member states of the European Union, if we are able to be 
successful. So, we do have an interest in the European position 
remaining clear, remaining cohesive. I think we have a role to 
play, at the State Department, through our 28 embassies, in 
continuing to help make the case, along with our colleagues in 
USTR who lead these negotiations, for a trade agreement that 
will increase jobs on both sides of the Atlantic, and will 
reduce barriers. We need to be coordinated in the way we use 
our public diplomacy and the way we work with business groups 
on both sides of the pond.
    And, as I have said in some of my calls to meet some of you 
in advance of this hearing, I also hope that we will have 
bipartisan support in the Senate and in the House for working 
closely with parliamentarians in Europe, and particularly with 
Members of the European Parliament, who will have 
responsibilities for ratifying this agreement. I know some of 
them were here to see some of you, just in the last week, and 
we thank you for taking the time to do that.
    But, we are going to have to provide a clear sense of the 
landscape in Europe and where we have points of agreement, 
where we have difficulties emerging in member states from our 
embassies. And we are going to have to provide a strong 
American voice out in Europe through our embassies. And I look 
forward to supporting USTR and Mr. Froman in that regard, from 
EUR, and also working with our Under Secretary for Economic 
Affairs at the Department.
    Senator Murphy. Well, Senator Johnson and I have already 
led several of those conversations with our parliamentary 
colleagues from Europe. We hope that we will continue that.
    General Lute, I think, today there is only about three or 
four nations in NATO that are at the targeted percentage of GDP 
dedicated to defense. And clearly, the way things are going 
with respect to the European economy, we probably cannot bet on 
that number getting any better. So, we are having a 
conversation, one that occurred in Chicago at the last summit, 
about specialization.
    The Europeans, though, believe that that has to be a two-
way street, that if they are going to be asked to specialize, 
so should we, and that we might, as part of that negotiation, 
consider giving up some of our capabilities on, maybe, some 
nonintegral defense platforms, to our European allies.
    Talk to me about both the European and the American will to 
get into a serious conversation about specialization, which 
ultimately could solve the problem, today, of the United States 
picking up 75 percent of the tab for NATO.
    General Lute. Thank you, Senator. I think the 
specialization argument largely hinges on different views of a 
balance--different views among the 28--of a balance between 
full-spectrum ability by each of the 28 to fulfill their 
Article V commitments for mutual defense. And, on the one hand, 
those capabilities, balanced against, as you--suggesting, 
increased efficiency across the 28, by way of specialization--
national specialization.
    If you look at the 28 allies today, clearly the United 
States has full-spectrum capacity in every defense realm. But, 
there are only a couple of other allies that even approach 
that. And even those who approach the full-spectrum capability 
can do so for only limited durations before they again rely on 
us.
    I think the Secretary General and NATO already have begun 
to move down the path of some specialization. You see this by 
way of the pooling of resources, especially high-end, high-
tech, expensive niche capabilities, like the airborne--or, air-
ground surveillance system, based on the pooling of resources 
to buy the Global Hawk surveillance aircraft; you see it with 
AWACs; you see it with the C-17 pool of lift resources.
    I must tell you that, in my view, we should not relent on 
the 2-percent goal. We should let no one off the hook, that 
equal membership means equal contributions. And 2 percent is 
the standard. But, at the same time, we should pursue these 
kinds of efficiencies, that it could include national 
specialization, because the reality is that the economic 
pressures across the 28 members is not likely to relent in the 
next 5-plus years.
    Senator Murphy. Including on this Nation, as well.
    General Lute. Exactly.
    Senator Murphy. I have run out of time, so I will turn it 
over to Senator Johnson.
    I will just mention that we may have votes, at some point 
over the course of this hearing. We hope that not to be the 
case, but, if we do have time for a second round--we will have 
to inquire--you, Dr. Baer.
    Turn it over to Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    And again, I would like to thank all the nominees for 
taking time to meet with me. I enjoyed the conversations. And 
again, I appreciate your service to the country.
    And, Ambassador Nuland, I particularly want to say thank 
you for coming in, you know, during, kind of, the height of the 
talking-points controversies, sitting down with me in my office 
and explaining a few things.
    Unfortunately, there are an awful lot of questions that 
still remain about what happened following Benghazi, and, quite 
honestly, even before it. For example, we still have not been 
given the names or access to the survivors. I asked General 
Dempsey, in a Budget Committee hearing, you know, really what 
was the status of the commander in-extremis force that was on 
patrol in--or, actually, on training in Croatia. Still have not 
found out what the end-plus time was, in terms of their ready 
reaction. So, there are still an awful lot of questions.
    And, you know, during the hearings of this full committee, 
both--with Secretary Clinton, in response to my question, when 
she uttered, you know, ``At this point, what difference does it 
make?''--or, I guess, ``At--what difference, at this point, 
does it make?''--the question I have is, Do you believe that, 
in your role representing the United States Government, that 
the American people deserve the truth out of members of the 
administration?
    Ambassador Nuland. Senator, the American people deserve the 
truth, this body deserves the truth, those of us who were 
friends of the victims, as I was, deserve the truth, yes.
    Senator Johnson. In reviewing the change from the talking 
points--original talking points, and how they were sanitized--
it is pretty remarkable how sanitized they really were. And I 
know you had some participation in there. In your September 14 
e-mail, it states that changes made to the CIA talking points 
still, ``don't resolve all of my issues or those of my building 
leadership.'' Can you just tell me who that ``building 
leadership'' was? who you were referring to there?
    Ambassador Nuland. Senator, I very much appreciate the 
opportunity to talk about my role in the talking-points issue. 
With your forbearance, I would like to give a little bit of 
background before I answer your specific question.
    First, I just want to make clear that, when I was reviewing 
these talking points, which was only on the Friday evening of 
September 14, they were not for a member of the administration 
to use; they were talking points that the CIA was proposing to 
give to members of the House Intelligence Committee----
    Senator Johnson. Correct.
    Ambassador Nuland [continuing]. To use. Right? So, that was 
the first thing.
    Second, I was not in a policy role in this job; I was in a 
communications role. So, my responsibilities were to ensure 
consistency of our public messaging, but not to make policy. 
So, I never edited these talking points, I never made changes. 
I simply said that I thought that policy people needed to look 
at them.
    Also by way of background, by the time Friday came around, 
as spokesperson for the Department, I had already given three 
public briefings on Benghazi. The first was on Wednesday 
evening. I gave a background briefing in which I clearly said 
that this had been a complex attack, it was an attack by 
extremists. Then I gave two briefings at the podium: my regular 
midday briefing on Thursday, and my midday briefing on Friday. 
In those briefings, I was on agreed interagency talking points 
in which I noted, again and again, our firm commitment to 
investigate, fully, what had happened. But, I declined to give 
any more details, citing the need to have a full investigation, 
and particularly the integrity of the FBI's investigation.
    So, when I saw these talking points on Friday night, just a 
few hours after that had been my guidance, they indicated a 
significant evolution beyond what we had been saying at noon. 
And it was on that basis that I raised three questions, in my 
communications role.
    The first was--and, again, these were for Members of the 
House to use, not for an administration official to use--so my 
first question was with regard to consistency. It struck me as 
strange that we were giving talking points to Members of the 
House that went considerably further than what we, in the 
administration, had been saying at that point. And I felt that 
if House Members were going to say this, we, government 
communicators, should be able to say it, too.
    The second was that I had been under very tight guidance 
that we must do and say nothing that would prejudice the 
integrity of the FBI's investigation, so I wanted to make sure 
that the CIA had actually checked with the FBI and Justice, and 
that they were comfortable with these talking points.
    The third concern that I had was with regard to the second-
to-last paragraph of the talking points, as I was looking at 
them, which made reference to past agency reporting about the 
situation in Benghazi. And, frankly, Senator, I looked at them, 
and they struck me as a partial rendering of some of the 
background information behind the situation, and I was 
concerned that giving them to the--out this way would encourage 
Members of Congress and members of the public to draw 
inaccurate conclusions about our respective agency's role in 
the entirety of the Benghazi issue. So, I did not change them--
--
    Senator Johnson. OK, let us not----
    Ambassador Nuland [continuing]. I did not edit them----
    Senator Johnson. OK, I appreciate that, but----
    Ambassador Nuland [continuing]. Yes.
    Senator Johnson [continuing]. I think your specific quote 
in your e-mail about that penultimate point was that you were 
concerned that Members of Congress would beat the State 
Department. So, you were a little more concerned about the 
State Department getting beat up by Members of Congress than 
potentially getting the truth out to the American people. I 
mean, that would be my concern, in terms of interpretation of 
that.
    Ambassador Nuland. Sir, as I said, my concern was that this 
was not an accurate representation of the----
    Senator Johnson [continuing]. OK.
    Ambassador Nuland [continuing]. Full picture----
    Senator Johnson [continuing]. But, again, let us----
    Ambassador Nuland [continuing]. That they were----
    Senator Johnson [continuing]. Just get back to some facts.
    Ambassador Nuland. Yes.
    Senator Johnson. So, who would be the ``building 
leadership'' that were not--or that were not satisfied with the 
resolution of suggested changes to the talking points? Who 
would those people be?
    Ambassador Nuland. So, after my first e-mail with these 
concerns, the agency came back with another draft, but that 
draft continued to make reference to the past agency reporting 
that I thought was a prejudicial way of characterizing it. So, 
it was on that basis that I raised objections again.
    Senator Johnson. OK, but----
    Ambassador Nuland [continuing]. And here, this was----
    Senator Johnson [continuing]. Ambassador Nuland, I am 
running out of time, so, you know, I----
    Ambassador Nuland [continuing]. Yes.
    Senator Johnson [continuing]. I just really wanted some--
just facts. I mean, who were the ``building leadership'' that 
you are referring to that was not satisfied with the suggested 
changes? Who would those individuals be?
    Ambassador Nuland. Again, I----
    Senator Johnson. And then, further--because I will--the 
next question would be, Who was at the deputy's meeting? Who 
were those people?
    Ambassador Nuland. With regard to ``building leadership,'' 
I was concerned that all of my bosses at the policy level 
would--needed to look at these to see if they agreed with me 
that they were----
    Senator Johnson. And who would those bosses be?
    Ambassador Nuland [continuing]. Potentially inaccurate.
    Senator Johnson. What about names? I mean, who were those 
individuals?
    Ambassador Nuland. Well, obviously, as I reported to the 
full spectrum of Under Secretaries and Deputy Secretaries and 
everybody----
    Senator Johnson. Were there particular----
    Ambassador Nuland [continuing]. At the Department----
    Senator Johnson. Were there particular people that were 
concerned about the changes that were not being made?
    Ambassador Nuland. The only person that I consulted with 
that night was my regular reporting channel, with regard to 
issues that I was not able to solve at my level. So, our 
regular procedure, when I, as spokesperson, could not solve an 
issue at my level, was--or when I thought that there needed to 
be more policy input versus communications input--was to send 
my concerns up to the Deputy Chief of Staff for Policy. That is 
what I did that night. I----
    Senator Johnson. And that----
    Ambassador Nuland [continuing]. Did not----
    Senator Johnson [continuing]. Person is?
    Ambassador Nuland [continuing]. Consult with anybody else.
    Senator Johnson. And that person is?
    Ambassador Nuland. At the time, that was Jake Sullivan.
    Senator Johnson. OK, thank you.
    Ambassador Nuland. And he is on the e-mails, as you can see 
them, as they----
    Senator Johnson. Thank you, Mr. Chairman.
    Ambassador Nuland [continuing]. Were released to you.
    Senator Murphy. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank all three of our nominees for their 
extraordinary service to our country over many years. And we 
thank you for your willingness to assume these new 
responsibilities. And I particularly want to acknowledge your 
families, because this is a family sacrifice, and we very much 
appreciate your willingness, at this important juncture in 
American diplomacy, of taking on these responsibilities.
    I want to spend a moment, since I have Mr. Baer and 
Ambassador Nuland here, to discuss the Helsinki Commission and 
human rights. I particularly want to acknowledge Senator 
McCain, on this day, where, as you might have seen, the Russian 
courts held Mr. Magnitsky guilty of certain crimes; whereas, 
the international community knows full well that Mr. Magnitsky 
was the victim.
    My question, basically, to Mr. Baer and Ambassador Nuland, 
is that--we have worked very closely together, the 
administration and Congress, on human rights issues, good-
governance issues, on economic-stability issues for countries 
in Europe, Central Asia, and partner countries within the OSCE, 
all coming under, Ambassador Nuland, your portfolio in the new 
position on which you have been nominated, and to, Mr. Baer, 
your responsibility in Vienna. I would like you to comment as 
to how important you see the relationship to the Helsinki 
Commission and to the Congress in the work that you do to 
advance the priorities of America in its participation in the 
OSCE.
    Dr. Baer. Thank you very much, Senator Cardin, and thank 
you for your leadership on human rights across the world. The 
last time I testified for you was on Asia; and so, it is a 
pleasure to have a conversation about a different part of the 
world this time. And thank you for your leadership on the 
Helsinki Commission, as well.
    I see the Helsinki Commission as one of the unique gifts 
that whoever is fortunate enough to be serving as the U.S. 
Ambassador to the OSCE has, because, if confirmed, it would be 
a real boon to be able to have that institutional connection to 
Congress that is really unique in the world. And, as you know, 
there is somebody from the Commission who serves on the staff 
of the mission in Vienna. There is also a detailee from the 
State Department who serves on the staff of the Commission. And 
there is, you know, an opportunity for open communication and 
collaboration on the full range of OSCE issues--political/
military, economic/environmental, human rights issues--on an 
ongoing basis. And, if confirmed, that is an asset that I would 
look forward to leveraging to the fullest extent.
    Senator Cardin. Thank you.
    Ambassador Nuland. I fully agree with what Dr. Baer has 
said. In my long experience working with the Bureau and serving 
in Europe, Helsinki principles, the Commission, are the 
foundation of all we do together. They undergird our values. 
And when we stray from those values, all we need to do is look 
back at that document from 1975. So, I look forward to working 
on these issues with Dan, if confirmed, and with you, Senator, 
and with this whole committee.
    Senator Cardin. Thank you. One of the most challenging 
countries will be Russia. We have already talked about Russia a 
couple of times. Russia's participation within many 
international organizations has been challenging. They have 
committed to the Helsinki principles, but, at opportunities 
that they can undermine those principles, they have done that, 
whether it is election monitoring, whether it is the Magnitsky 
issues. Ambassador Nuland, as you are responsible, with the 
present administration, to develop agendas for the bilaterals 
and the international organizations, can you assure this 
committee that human rights with Russia will remain a high-
priority issue?
    Ambassador Nuland. Absolutely, Senator. I have never, in my 
career, been shy about speaking out about human rights, and I 
will certainly continue to do so, if confirmed.
    Senator Cardin. And, Mr. Baer, you are going to be 
confronted with some tough choices with Russia. They are going 
to say, ``You need our consensus; therefore, back off,'' on 
different issues. Will you commit to us that the United States 
will stand strong on the human rights basket within the OSCE as 
it relates to Russia?
    Dr. Baer. Senator, you have my full commitment to stand 
strong. It is part of the reason why I am interested in 
serving, is to stand strong for human rights.
    Senator Cardin. Thank you.
    Mr. Chairman, I will yield back the balance of my time.
    Senator Murphy. Thank you.
    Senator Risch.
    Senator Risch. Thank you.
    Ms. Nuland, I do not want to dwell on the Benghazi 
question, but the Benghazi question is there, and it has not 
been answered. And I have got some questions maybe you can help 
me with.
    The administration is focused on this--hiding behind a 
curtain of, ``Oh, well, we are doing an investigation.'' And 
they have done that since day one on this. And, when we get 
briefed on stuff, this is the only situation, in my experience 
here, that they have done this.
    Senator McCain and I sat in a briefing--what was it, a week 
after, or 10 days after? We had the Secretary of State, the 
head of the CIA, the number two in the FBI, and we asked them, 
``Who did this?'' Because that was the question. The American 
people wanted to know who did this. Was this a protest gone 
bad, or was this, indeed, a terrorist attack? Which, of course, 
we all know it was. These people told us they did not know. 
Now, we are 10 days out, and they are telling us that they do 
not know.
    Since then, we have run into a number of people who have 
said that they advised both the State Department and virtually 
every agency of government that it was, indeed, a terrorist 
attack, and they told them that in real time.
    When was the first time that you were advised that this was 
a terrorist attack?
    Ambassador Nuland. Senator, I do not recall the precise 
date that we moved to being confident that it was a terrorist 
attack, but I do recall that the President made reference, in 
that first week, to a terrorist attack, and I believe that 
Secretary Clinton did, as well, on the Friday. So, my talking 
points would obviously have derived from what they were ready 
to say and what the intelligence indicated.
    Senator Risch. Well, of course, Susan Rice was on TV, 
telling people that, indeed, they did not know whether it was a 
terrorist attack. You are aware of that, are you not?
    Ambassador Nuland. I am aware of those programs, yes.
    Senator Risch. What other information did you have that 
this was a terrorist attack, and when did you get it, within 
the first 48 hours?
    Ambassador Nuland. Senator, I just need to remind that I 
was not in a policy job, I was in a communications job at that 
time, so I was, frankly, not reading intelligence reporting, 
because it was difficult to keep one brain for the public and 
one brain privately. So, I was the conveyor of agreed policy 
and agreed decisionmaking about what we could say publicly. So, 
I really--you know, I think it was quite clear, when the 
President made his first reference to terror, that this is what 
we were dealing with. But, I never took an intelligence 
briefing, myself, that week.
    Senator Risch. Since then, have you gone back and looked at 
that intelligence information you had, that you had access to?
    Ambassador Nuland. Sir, it was not something that I was 
privy to, because I did not need it in the jobs I was in.
    Senator Risch. Did you help in choosing Susan Rice to speak 
on the Sunday talk shows?
    Ambassador Nuland. No, sir.
    Senator Risch. Did you brief her at all?
    Ambassador Nuland. No, sir.
    Senator Risch. You had no conversations with her prior to--
from the time of the attack until she appeared on the Sunday 
talk shows?
    Ambassador Nuland. I had no conversations with Susan Rice, 
herself. I had--we had interagency discussion, which her staff 
participated in, on the days that I briefed, which was the 
Wednesday, the Thursday, the Friday. I never spoke to her. I, 
frankly, never saw the talking points that were prepared for 
her, in final form. As I said, when I saw the talking points, 
they were for members of the House Intelligence Committee.
    Senator Risch. Mr. Baer, Senator Shaheen and I had the 
honor and privilege of representing the United States at the 
October 1st elections in Georgia, as overseers. And we came 
back, gave our reports, and what have you. I was interested in 
the report from the OSCE on the subsequent elections that took 
place in April. And I realize this is dated just July 9. It is 
dated Warsaw, July 9. Have you had an opportunity to review 
their report on this?
    Dr. Baer. I have not yet, sir.
    Senator Risch. OK. Thank you.
    Ms. Nuland, the Georgians are concerned regarding getting 
back Abkhazia and South Ossetia. I met with our Ambassador 
yesterday, and we had a robust discussion about this. What is 
your view of that situation and the likelihood that they are 
going to get back those two provinces in the near future?
    Ambassador Nuland. Thank you, Senator. And thank you for 
taking time to see Ambassador Nordland. I appreciate that very 
much. We, as a Department, appreciate that.
    Senator, the sovereignty and territorial integrity of 
Georgia is absolutely vital and essential. The United States 
has supported that from the moment of Georgia's independence. 
It is personally important to me. This was an issue that came 
up quite clearly when I was in the job as Special Envoy for 
Conventional Forces in Europe. And, as you may know, we were 
trying to look at how we might update that treaty, and we came 
to consensus within NATO about how that might be done. We came 
to consensus among most of the 35 members who were party to the 
treaty--36. But, we were unable to come to consensus with 
Russia because of the problems agreeing on territorial 
integrity issues, both with regard to Georgia and with regard 
to Moldova. And it was my judgment and my recommendation to the 
Secretary at that time that we call off the negotiations 
because it was not possible to settle the issue without 
impugning those basic principles of democracy in Europe.
    Senator Risch. Is there any plan, at this point, that you 
are putting forward, to assist the Georgians in recovering 
these two provinces? The Russians refuse to leave. Obviously, 
that is a huge issue. Do we have a plan in that regard?
    Ambassador Nuland. Senator, we have been active in 
supporting efforts that Tbilisi, that the Georgians themselves, 
have initiated to try to reach out to the people of Abkhazia 
and the people of South Ossetia so that they can have a better 
understanding that their future would be bright in Georgia, 
itself, and to impact and give them a better understanding of 
the conditions in that country. Because, as you may know, the 
media environment is controlled pretty heavily. We will 
continue to do that, and we will be--continue to be guided by 
Georgian efforts to work on these issues.
    Senator Risch. Thank you.
    My time is up. Thank all three of you for your service to 
the country.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, to the witnesses, my best. Thank you for your service.
    Senators do a lot of things, but there are actually not 
that many things we do that are part of our written job 
description in the constitution. Article II, Section 2 says 
that the President shall make appointments to executive 
positions, and that that shall be done with the advise and 
consent of the Senate. That same section stipulates that 
``advise and consent'' is supermajority when it is about 
treaties, but not supermajority when it is about appointments. 
I wish you the best as we move forward. And it is good to be 
about this work.
    General Lute, my questions are really going to be, for you, 
about Afghanistan, because of the karma of a Foreign Relations 
Committee meeting I was in earlier today, in the same room, 
that was all about Afghanistan. We heard a number of 
witnesses--Ambassador Dobbins, Dr. Peter Lavoy, Stephen Hadley, 
former National Security Advisor, Ahmad Nadery, from a 
elections foundation--Free and--Elections Foundation in 
Afghanistan, and Sarah Chayes, from the Carnegie Endowment for 
International Peace. I asked a basic, kind of, threshold 
question of the witnesses, to which they all agreed, and I 
wonder if you do, and that question was, Was it their opinion 
that a strong majority of the Afghanistan population wanted 
there to be a residual United States and NATO force, post 2014? 
And they all said that they believed a strong majority of the 
Afghan population wanted that. Is that your sense, as well?
    General Lute. It is, Senator. And all our opinion polling 
and our work across the political spectrum in Afghanistan 
supports that view.
    Senator Kaine. And just--I know, from your background, that 
you were--you have been deeply involved in questions about 
Iraq, as well. Was there similar polling done or a similar 
effort to undertake what the Iraqi population sense was about 
that question?
    General Lute. I do not know that there is a close parallel 
with the Iraq experience in this regard. There certainly was 
among the two political classes, the two political elites, the 
two sets of political elites. I do not recall, from my Iraq 
experience, that kind of countrywide opinion poll----
    Senator Kaine. And just----
    General Lute [continuing]. Popular opinion.
    Senator Kaine [continuing]. Just from your--and regardless 
of polling, just from your experience in the area, do you have 
a sense, of your own, about the Afghan population for a desire 
for a follow-on residual force, versus that desire in the Iraqi 
population at the time?
    General Lute. I think there are two things that clearly 
underline Afghan interest in a continuing Western presence of 
some sort beyond 2014. One is the question of just raw 
resources. The Iraqi people always knew that they did not 
really require external resources to prosper as a nation, and 
clearly the Afghans know that they do require external 
resource.
    The other thing is the neighborhood. Iraq lives in a 
difficult neighborhood. But, I would argue, Afghanistan lives 
in a worse neighborhood.
    Senator Kaine. Yes.
    General Lute. And it is very clear, from even the last 30 
years of experience, that all Afghans understand that very 
clearly.
    Senator Kaine. General Lute, your opening testimony talked 
a little bit about the need for the residual force. And there 
is obviously all kinds of debates going on about potential 
size, and I am not going to get into that. But, Stephen Hadley 
testified--and I thought it was an interesting bit of testimony 
that was both written and then I followed it up orally--that 
his recommendation was that the United States should announce, 
relatively promptly, with some clarity, the size of a robust 
follow-on force, and that, if that happened, there would be the 
following consequences. It would create more confidence among 
the Afghan population in the runup to the 2014 elections. It 
might encourage more candidates to consider standing for 
election, which would be a positive thing. It would potentially 
deter or dissuade some who want to manipulate either the 
bilateral security agreement negotiation process or the 
elections, themselves. And he also indicated, in oral, not 
written, testimony, but that a relatively prompt and certain 
statement from the United States about the follow-on force 
might also promote prompt and certainty--certain commitments to 
be made from the partners--the NATO partners that we have in 
Afghanistan. That was if you will just take it from me--I think 
I have done a pretty fair job of summarizing the written 
testimony--do you--What would your opinion be of that 
testimony?
    General Lute. So, certainly those factors ring true to me. 
I would just argue--and I actually heard Steve's presentation.
    Senator Kaine. Oh, OK.
    General Lute. I would argue that the size and scale, scope 
of the U.S. military presence in Afghanistan beyond 2014 is one 
factor in Afghan confidence, but maybe it is not the dominant 
factor. I think equally dominant or equally important will be 
the smoothness, the efficiency of the political transition, 
which I know also the testimony covered in a lot of detail this 
morning. I think Afghans need to see that, under the 
constitution, for the first time, that they can efficiently and 
smoothly, peacefully transfer political power from the Karzai 
regime of the last 10 years to whoever succeeds President 
Karzai.
    I think, frankly, that that is the dominant factor in 
Afghan confidence. There are others, as well. They need to see 
that their security forces are going to be sustained. And, of 
course, the international community, alongside NATO, has taken 
steps to secure that funding beyond 2014 so that they can feel 
confident in that way. They need to see that their economy's 
not going to crumble. And the international community, last 
July in Tokyo, marshaled the resources for 4 years, beginning 
in 2013 through the transition period, to fill the budget gap 
between what the Afghan budget can provide for itself and the 
needs of the country itself.
    So, there are a number of confidence factors, one of which 
might be U.S. military presence, but I am not even sure it is 
the dominant one.
    Senator Kaine. Would you agree that the commitment of the 
U.S. and NATO allies to a presence might have an effect upon 
the smoothness of the transition, to the extent that it might 
encourage people to run for office, to the extent that it might 
give people some confidence going into the election season? 
Would you agree that U.S. and NATO commitments, vis-a-vis the 
residual force, might be a factor in the smoothness of a 
political transition, which I agree is ultimately the most 
important element that we are looking at?
    General Lute. I think it is a factor, Senator. I think, 
alongside that factor, though, is the political factor, the 
political commitment made by NATO in Lisbon in 2010, and by the 
United States, by way of our strategic partnership agreement 
last spring, that, politically, we are committed to be there 
beyond 2014, and then also the counterpart economic commitment 
made both for security assistance--that is, to sustain the 
Afghan forces--but, beyond that, for economic assistance. And 
then, finally, I think the presence of some residual force 
would be a factor.
    Senator Kaine. Great.
    Thank you, Mr. Chair.
    Thank you, to the witnesses.
    Senator Murphy. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, to all the nominees, for your 
service and for being here today.
    Ms. Nuland, I wanted to, first, say that I think there is 
very little debate on this committee about your qualifications 
to serve in this post. And, as I mentioned to you yesterday, 
the only reason you are getting questions, quite frankly, about 
the Benghazi issue, is because you were in that policy role. 
And, because the committee is not holding any further hearings 
on it, you are, quite frankly, the only witness we have--on 
questions with regards to these things that we want answers to. 
So, I wanted to briefly touch on it, hopefully in an effort to 
expedite the hearing and maybe close the book on it.
    I read your e-mail, that is now available, that is dated 
the 14th of September at 7:39 p.m. You raised two concerns, 
primarily. The first was that there were mentions of Ansar--
Ansar al-Sharia--in the context of that September 11, 2012, 
attack and that you did not want to prejudice the 
investigation. The second concern talked about the agency 
having produced--``agency'' being the CIA--having produced 
numerous pieces of information on the threat of extremists 
linked to al-Qaeda in Benghazi and eastern Libya. Those were 
the two concerns that you raised in that e-mail.
    So, on point No. 1, about the mention of Ansar al-Sharia 
and prejudicing the investigation, did the FBI share that 
concern?
    Ambassador Nuland. Senator, thank you for that.
    I want to clarify here that, with regard to the substance 
of mentioning Ansar al-Sharia, I did not have concerns about 
that.
    Senator Rubio. OK.
    Ambassador Nuland. As I mentioned earlier, it was not for 
me to decide what we knew, nor what we could declassify. I 
assumed, that evening, that if the agency was prepared to have 
Members of Congress name Ansar al-Sharia, that their 
information was solid and it was releasable to the public.
    My concerns were the two that I mentioned earlier; namely, 
that I did not understand why Members of Congress could say 
more about it than we could, in the administration; and, 
second, that we had been under tight guidance not to prejudice 
the investigation, so I wanted to make sure my CIA colleagues 
had cleared these points with the FBI and Justice. I was later 
reassured that they had.
    Senator Rubio. OK, good. Then, the second question I had is 
on point No. 2, and it is the one about the agency having 
produced numerous pieces of information on the threat of 
extremists linked to al-Qaeda in Benghazi and eastern Libya. We 
now know that that is accurate, correct?
    Ambassador Nuland. The agency had produced some pieces. My 
concern was not about the accuracy of what was on the paper, 
Senator; my concern was that it was an incomplete 
representation--and, frankly, a prejudicial one, I felt--of the 
totality of the situation in Benghazi. I had been under pretty 
tight instructions, for the 3 days running up to that, along 
the following lines: that we were to stay, as the State 
Department, very tightly lashed up as an interagency community, 
with regard to what we could say, and that the integrity of the 
investigation was paramount, that we had to get all of the 
facts so that we could learn the lessons from this tragedy; and 
that I had to be extremely attentive to the equities of other 
government agencies--there were a number of other government 
agencies that had very sensitive equities in this; and that 
that was the environment that all of us should be operating in. 
So, my concern, when I saw that particular paragraph, which was 
retained, was that it might not be in that spirit. And again, I 
did not edit them, I simply asked----
    Senator Rubio. Right.
    Ambassador Nuland [continuing]. That policy people above me 
check my instincts.
    Senator Rubio. Those instructions that you have just 
highlighted for us, were they from Mr. Sullivan?
    Ambassador Nuland. They were from the entire leadership of 
the Department, that we needed to get the facts and we needed 
to learn the lessons of Benghazi, and that we needed to be good 
colleagues in the interagency, yes.
    Senator Rubio. Does that--so, does the entire leadership 
include Secretary Clinton?
    Ambassador Nuland. Secretary Clinton was, as she testified, 
herself, the leader in saying we had to get to the bottom of 
this, that we had to take responsibility for what had gone 
wrong, and we had to fix it. Yes, sir.
    Senator Rubio. Did you have any conversations with 
Secretary Clinton about the talking points or the specific 
concerns that you raised?
    Ambassador Nuland. At no point, that evening or 
subsequently, did I talk about the talking points with 
Secretary Clinton.
    Senator Rubio. You did talk to them with Mr. Sullivan about 
these concerns, however?
    Ambassador Nuland. I did not.
    Senator Rubio. So, the--your concerns were unilateral--
these were concerns based on the instructions you had received 
from your leadership, but not concerns that they specifically 
told you to have.
    Ambassador Nuland. Correct. And, as I said before, and as 
the e-mails indicate, whenever I had a problem that I could not 
solve at my level, or a concern that what I was being asked to 
clear was not a communications question but a policy question, 
I referred it to the Deputy Chief of Staff for Policy, which is 
what I did that night.
    Senator Rubio. So, just to close the loop on it, you had 
instructions on what the tone and tenor of talking points 
should be from the State Department's position. You reviewed 
and made decisions on the talking points, based on those 
instructions, but they did not specifically tell you, ``Object 
to this point'' or ``Object to that point''?
    Ambassador Nuland. At no point was I ever told to object to 
anything. I was acting on my instincts and asking for a higher 
level review to check them, and I did not make any edits, as I 
said.
    Senator Rubio. Thank you for your answers.
    In the minute-and-a-half that I have left, I want to ask 
about Russia. We reset our relationship with Russia, about, I 
do not know, 3 years ago, 2\1/2\ years ago. What is your 
personal opinion of how that has worked out? And where are we 
today with Russia? Are we still in a reset mode, or are we in a 
reset of the reset? Where are we with Russia? And what is, in 
your view, the status of that relationship, given the 
reelection, I guess we should call it, of Mr. Putin, and the 
direction he has decided to take his country?
    Ambassador Nuland. Senator, as I said at the outset, I do 
believe that we have made important progress with Russia in 
recent years, that the work we do together to contain and 
sanction Iran, the DPRK, our ability to exfil and move 
equipment from Afghanistan through Russia, our counterterrorism 
cooperation, and the New START Treaty, are valuable things that 
resulted from the reset. But, I also believe that, when we 
disagree with Russia, we have got to be absolutely clear. And 
you can see that that is clearly the case now, with regard to 
Russian policy in Syria. It is--we are--and you have seen 
Secretary Kerry's efforts to try to use the Geneva agreement 
that the Russians agreed to under Secretary Clinton to try to 
get to the negotiating table, but, at the same time----
    Senator Rubio. Can I interject at----
    Ambassador Nuland. Yes, please.
    Senator Rubio [continuing]. That point? I am sorry to 
interrupt you, but----
    Ambassador Nuland. Please.
    Senator Rubio [continuing]. I am going to run out of time.
    I wanted to ask about that, in specific. What is your view, 
what are your hopes, what are the odds that Russia could be 
enticed or have any incentive to try to reach a negotiated 
settlement in the Syrian conflict that results in something 
that is in the national interests of the United States? Or are 
their interests, vis-a-vis Syria, so diametrically opposed to 
ours that any sort of arrangement there is almost impossible, 
realistically?
    Ambassador Nuland. Senator, without delving too deeply into 
it in this setting, I would simply say that I believe that 
Russian views of the situation will very much be guided by the 
ground situation in Syria.
    Senator Murphy. Senator McCain.
    Senator McCain. Thank you very much.
    And thank the witnesses. And, for the record, I have known 
and admired Ambassador Nuland for a long time. General Lute, 
you and I have been friends for many years. And, Mr. Baer, I 
congratulate you on your assignment.
    I must say, the progress that you noted, Ambassador Nuland, 
is minuscule, as compared to what the Russians are doing. I am 
very disappointed in your answer. Did you see--did you see 
the--what--the news report yesterday--yesterday--``Dead Russian 
Lawyer Magnitsky Found Guilty''? Did you happen to see that? 
Did you see that, Mr. Baer? Does that remind you of the good 
old days--of the bad old days of the Soviet Union, when we 
convict dead people? Doesn't that appall you, I would ask 
Secretary Nuland, and you, who are supposed to be an advocate 
of human rights? Isn't that outrageous, that a man, who we know 
was tortured to death by the Russian authorities--was guilty of 
nothing, and we are saying that it is valuable progress that 
the Russians are letting us transship some equipment back? 
Somebody's got their priorities screwed up, here.
    I am proud to have worked with Senator Cardin on the 
Magnitsky Act. You both say, ``Well, we will get tougher on 
them.'' How about giving me some specifics? How could we get 
tougher? Do you know one of the ways we could get tougher?--is 
expand the scope of the Magnitsky Act and make some more 
Russians feel some pain. Obviously, they did not react well--
or, they did not like the fact that we passed the Magnitsky 
Act.
    I would like to hear, either now, verbally, or for the 
record, what, specifically, do you want to do to--we have reset 
back to 1955. And when I meet Mr. Broder and I meet the family 
of Sergei Magnitsky, and we have, now, a situation where it 
goes almost unremarked by our administration, when they try and 
convict a deadman----
    I would be glad to hear your responses, and I hope they are 
a little more vigorous than what you have been giving, so far.
    Ambassador Nuland. Thank you, Senator. And I appreciate----
    Senator McCain. By the way, I admire you very much, 
Ambassador. I do not admire your choice of spouses, but that is 
another issue. [Laughter.]
    Ambassador Nuland. You have given me an opening, Senator. I 
neglected to thank my fabulous family--my parents and my--the 
two handsome gentlemen in the middle, there, my husband and my 
son, David, for coming, today. And I thank you for all the 
years that we have worked together, including when I was out at 
NATO.
    I cannot disagree with you that it is a travesty of justice 
when one is putting energy into convicting a deadman rather 
than finding out who is responsible for his murder. When I was 
spokesperson of the Department, I was very proud to speak out 
forcefully on this issue, as well as on the Magnitsky 
legislation.
    With regard to the legislation, our work on the list is 
ongoing, and we will add names, as we are able to.
    Senator McCain. You will.
    Ambassador Nuland. We will.
    Senator McCain. You will.
    Ambassador Nuland. Dan, I do not know if you want to add 
anything.
    Senator McCain. Mr. Baer.
    Dr. Baer. What Toria said is absolutely right. My Bureau 
has been involved in producing the first list, and we do see it 
as an ongoing project, and we plan to add names to the list. 
And I certainly share your feeling of being appalled at the 
conviction of Magnitsky. It is a tragedy.
    Senator McCain. And again, I do not want to--I would rather 
ask a couple more questions, but I think it is important to 
point out that, literally on every major issue of significant 
consequence, that Mr. Putin has exhibited nothing but the most 
obdurate and, in many times, aggressive behavior. We know that 
the support that they are providing to Bashar Assad. We know of 
many of the other transgressions, including internally--and 
this is where your work comes in, Mr. Baer--the repression of 
the media, the--bringing people to court who disagree, the--the 
whole--it all smacks of the old Soviet Union, and it is--and we 
seem to want to think, somehow, that things will get better, 
when everything that I can see that has real consequence has 
been retrograde.
    But, let me ask General Lute, real quick.
    General, I was a little surprised you did not mention Syria 
in your comments. And I would like to have your comments about 
that. But, I would like for you to explain to the committee why 
the United States is negotiating or seeking to negotiate with a 
group, the Taliban, that refuses to renounce its relationship 
with al-Qaeda and refuses to commit, ahead of time, to respect 
for women's rights. Explain to me the logic there.
    General Lute. Well, as you know, Senator, right now we are 
not negotiating. What we are trying to do----
    Senator McCain. Oh, but we intend to.
    General Lute. We would like to explore the possibility of 
getting----
    Senator McCain. No, I have been briefed several times, and 
you have, too, General. Let us be clear that they were setting 
up the office in Qatar, and they----
    General Lute. Right.
    Senator McCain [continuing]. Were doing everything possible 
to have negotiations. Why do we want to have negotiations with 
an organization that refuses to renounce its relationship with 
al-Qaeda and refuses, as a precondition, to recognize women's 
rights?
    General Lute. The two things you mentioned, the support of 
al-Qaeda and the support, generally, for the Afghan 
Constitution, which includes the kind of women's rights 
provisions that you are suggesting, are both designed to be 
outcomes of a discussion with the Taliban. And so, the----
    Senator McCain. In other words----
    General Lute [continuing]. The attempts----
    Senator McCain [continuing]. It is on the table.
    General Lute. No, it is not on the table.
    Senator McCain. Why shouldn't it----
    General Lute [continuing]. Those are our----
    Senator McCain [continuing]. They----
    General Lute [continuing]. So----
    Senator McCain [continuing]. It is either on the table or 
it is a precondition, one of the two.
    General Lute. It is not a precondition to talks, it is a 
precondition to Taliban being considered reconciled and 
eligible to return to political life, under the constitution, 
in Afghanistan.
    So, it is very much the distinction between preconditions 
and end conditions. And the idea that is under exploration is 
to see if you can get into talks--most important, Afghan-
government-to-Taliban talks--that see if those end conditions 
can, in fact, be met.
    So, there is no supposing or imagining that reconciliation 
comes without achieving those three end conditions. The third 
one, by the way, is to end the violence.
    Senator McCain. Well, again, I think that if you--if we are 
going to really be interested in the Afghan people and their 
rights, those are preconditions. There can be no agreement 
without them, so they might as well be preconditions. And by 
not making them preconditions, we have somehow conveyed the 
impression to them that they are on the table. And that is--
they are either on the table or they are preconditions. It is 
not, ``the subject''--if they are the subject of negotiation, 
then they are the subject of negotiation.
    My time has nearly expired.
    I want you to say, a little bit, what you think we ought to 
be doing in Iraq, in light--in Syria--in light of the 100,000 
people that have now been massacred. Do you believe that we 
should be moving forward with arms to the rebels and 
establishing a new--no-fly zone?
    General Lute. Well, Senator, first, I have to just say that 
I do not follow Syria like you and I used to follow Iraq 
together. It is about 15---actually more than 1,500 miles away 
from where I am--I focus, on Afghanistan and Pakistan. I think 
that, certainly, the situation in Syria is absolutely central 
to stability in a vital region. As much as Iraq was, 5 or 6 
years ago, when we were there, and the numbers we ran, and as 
much as Iraq is today.
    I support the administration's policy of the blend of tools 
that are being applied, principally the diplomatic/political 
approach, to try to find a resolution, but--that approach, as 
supported by humanitarian support to the refugees to address 
the humanitarian crisis--and then, finally, the provision of 
means, to include lethal means, to the insurgents.
    Senator McCain. I thank the Chair.
    Senator Murphy. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Ambassador Nuland, General Lute, Mr. Baer, thank you all 
very much for being here and for your willingness to serve the 
country.
    Ambassador Nuland, I am going to begin with you and ask 
about Georgia. Senator Risch, who was here earlier, and I had 
the opportunity to be election monitors during their recent 
elections, last October. And I have watched, with some concern, 
to see that the government of Prime Minister Ivanishvili has 
arrested a number of the folks who were in opposition to them, 
and am concerned about the kind of signal that sends about what 
is happening to their move to democracy in Georgia. And I 
wonder if you could assess for me how you think the progress is 
going under the new leadership, and whether you--what kind of 
action we are doing to try and continue to encourage Georgia to 
keep moving toward democracy.
    Ambassador Nuland. Well, thank you, Senator. And I thank 
you and Senator Risch for being willing to be election monitors 
and for your long-time commitment to Georgia.
    I share your concern. Georgia has come so far in recent 
years, including the elections last year, then the peaceful 
transfer of power, the development of a vibrant multiparty 
parliament, greater media freedom, the efforts to curb police 
and prison abuses, and the continuity in foreign policy, but--
and nobody wants to see Georgia slide backward.
    We completely understand that this government ran and won 
on a platform of redressing past abuses, but we believe 
strongly in the primacy of the rule of law. And this cannot 
become cover for political retribution, or even the perception 
of political retribution. There has got to be full 
transparency, there has got to be due respect for the rule of 
law, because the world is watching. And this goes to the heart 
of Georgia's own aspirations, which we support, to join, fully, 
all the transatlantic organizations. So, Georgia's got to stay 
on a democratic path.
    I am also, frankly, concerned about the economy. So, we 
want to see Georgians looking forward, not looking backward. 
And, if confirmed, I will be very vigorous on these issues, and 
I look forward to working with you and with other friends of 
Georgia here in the Senate.
    Senator Shaheen. Thank you.
    Let me just--to stay on Georgia, General Lute, one of the 
things that I have been encouraged about has been to hear Prime 
Minister Ivanishvili continuing the commitment to MAP for NATO 
and the continued commitment they have had to the conflict in 
Afghanistan. They have been a great partner in that effort.
    So, can you talk about how you see, and what you see, in 
terms of their efforts to get MAP through NATO?
    General Lute. One of the great incentives, I think, for 
Georgia, to make the kind of reforms that were just addressed, 
is the potential to walk through the open door and gain 
membership in NATO. So, in this way, the NATO open-door policy 
really provides a very positive incentive for Georgians to look 
forward.
    Georgia is on its path to meet the standards required for 
NATO membership. It has got work to do. I know that, by way of 
the NATO-Georgia Commission, that work is underway, so we join 
that effort, nationally, but we are joined by other members 
today, of NATO, to ensure that they understand what the path 
consists of and that they are making steady progress along that 
path.
    Senator Shaheen. Thank you.
    Let me ask another question about Afghanistan. One concern 
I have heard from some followers of the conflict there, and 
what we are hearing from Afghans themselves, is concern about 
the zero option: Should we withdraw all American troops? Can 
you talk about what--how that discussion is influencing what is 
happening on the ground in Afghanistan?
    General Lute. Thank you, Senator. So, as we deal closely 
with our Afghan counterparts, we remind them that the United 
States commitment beyond 2014 is embodied in a binding 
international executive agreement signed by President Obama and 
President Karzai more than a year ago. So, we already have a 
strategic partnership with Afghanistan that extends well beyond 
2014. In fact, 10 years beyond 2014.
    Likewise, NATO, in fact, beat us to the punch and 
established a strategic partnership of its own with Afghanistan 
in the Lisbon summit in November 2010.
    So, the framework already exists for a continuing 
contribution, a partnership, beyond 2014. Beyond that, we have 
solidified those commitments beyond 2014 with the funding 
commitments, both to support the Afghan security forces, but 
also to the Afghan economy, beyond 2014.
    So, I think, as we discussed earlier with Senator Kaine, 
this is a multipart package of political commitments, economic 
commitments, and security commitments.
    And the last piece that needs to fall into place is exactly 
what will be the size and shape of a U.S. military presence, 
and then, beyond that, a NATO military presence. And that is 
still under negotiation. But, those negotiations are active, 
they are progressing, and we think we will see them through to 
a successful conclusion.
    Senator Shaheen. Great, thank you.
    Ambassador Nuland, on that same trip to Georgia last year, 
I had the opportunity to stop in Turkey and meet with the 
ecumenical patriarch of the Greek Church who was very 
impressive. And I wonder if you can--one of the things that I 
talked with him about was what was happening in Cyprus. And I 
know that Secretary Kerry has indicated this is an--we have an 
opportunity, here, with what he calls ``a frozen conflict,'' 
perhaps, to make some progress in addressing what has been a 
stalemate for a very long time, on Cyprus, between Greece and 
Turkey. I wonder if you can talk about whether there is--this 
is an opportunity, and how additional diplomatic engagement 
might help to change what has been a status quo for too long 
there.
    Ambassador Nuland. Senator, I do believe we have an 
opportunity now. I think circumstances are changing, attitudes 
are changing, not just within Cyprus, but also in Greece and in 
Turkey, and we have to capitalize on that. We also have natural 
gas off the coast of Turkey, which is a--off the coast of 
Cyprus--which is a powerful motivator for getting to the 
solution that we all want, which is a bizonal, bicommunal 
federation that can share the benefits. And it is absolutely 
vital to Europe that Turkey--that Cyprus begin to prosper 
again, and I think that working on this could be a positive in 
that direction, as well.
    Senator Shaheen. Thank you.
    My time is up, but let me just say, in closing, I hope that 
we will continue to support the very positive progress that has 
been made between Serbia and Kosovo on settling their 
disagreements there. And anything we can do to support that, I 
think is very helpful.
    Thank you.
    Senator Murphy. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Chairman, on May 10 of this year, the Republican 
members of this committee sent a letter to Chairman Menendez 
respectfully requesting additional committee hearings to review 
the open questions surrounding the September 11, 2012, 
terrorist attack in Benghazi, Libya. It has now been 2 months, 
and we have not heard back from Chairman Menendez about our 
request.
    While the House of Representatives has been holding 
hearings and heard from numerous witnesses, including Mark 
Thompson, Acting Deputy Assistant Secretary of State for 
Counterterrorism; Greg Hicks, former Deputy Chief of Mission in 
Libya; and Eric Nordstrom, former Regional Security Officer in 
Libya, those important witnesses have not had the opportunity 
to testify and provide answers in the Senate.
    The American people have lingering questions about what 
happened on September 11, 2012, and why the State Department 
failed to protect our brave Americans in Benghazi, yet this 
committee has failed to schedule any additional hearings and 
has been attempting to avoid the issue altogether.
    Ambassador Nuland, during an interagency e-mail exchange on 
September 14, 2012, you expressed concerns that the information 
you were providing could be used by Members of Congress to 
question the State Department for not paying attention to CIA 
warnings about the security situation in Benghazi. In an e-
mail, you stated that you had, ``serious concerns,'' about, 
``arming Members of Congress,'' with information from the CIA. 
You went on to say that, ``Points should be abused--could be 
abused by Members to beat the State Department for not paying 
attention to agency warnings, so why do we want to feed that, 
either?''
    Well, now the President has nominated you as Assistant 
Secretary of State for European and Eurasian Affairs. This 
handles a very critical region. I am concerned about your 
willingness to provide truthful and relevant information to the 
America people. And I say this because you have implied that it 
is dangerous to inform Members of Congress, who are the 
representatives of the American people.
    So, my question is, Why should we believe that you will be 
open and forthcoming on the disclosure of important information 
to Congress, when you deliberately and intentionally withheld 
information about Benghazi from Congress and the American 
people while working at the U.S. Department of State as the 
spokesperson?
    Ambassador Nuland. Senator, thank you for the opportunity 
to address this.
    I am 400 percent committed to positive cooperation with the 
Congress, to sharing, fully, all information that we can.
    As you recall, in that first week after the attack, there 
were numerous briefings, classified and some unclassified, and 
briefings thereafter of Members of the Senate, Members of the 
House of Representatives, that my bosses participated in. My 
concern was not, Senator, that evening, about sharing 
information with Congress. My concern was that these were 
talking points that the CIA was proposing that members of the 
House Intelligence Committee use with the media. And I felt 
that, if these were used with the media, they would give a 
mistaken and flawed perception of our respective agencies' 
roles in Benghazi. It was a partial representation of some of 
the information that we had had, some of the activity that we 
had been involved in together. So, I thought that, as media 
points--not as information to Congress; obviously, I have 
always, and will continue to, if confirmed, fully support 
transparency with the Congress and full cooperation with the 
Congress--my concern was that they were inappropriately crafted 
as points for the media, and they would be misleading.
    Senator Barrasso. So, you--I think you just used the phrase 
``partial representation.'' So, were your concerns with the 
Benghazi talking points that--were they made to shelter the 
State Department from responsibility or accountability 
regarding the terrorist attacks in Benghazi?
    Ambassador Nuland. Absolutely not, Senator. As I said 
earlier, we were under firm instructions, all of us, that what 
mattered most was a full and fair investigation of all of the 
facts so that we could learn the lessons and ensure that it 
never happened again. As I said earlier, I was personal friends 
with Ambassador Stephens. He was somebody I was very close to. 
For me, it is personal, to get to the bottom of this.
    Senator Barrasso. And I think the President, in his 
comments--as he said, as soon as he heard about the attack, he 
said, ``No.1, I want to make sure that we are securing our 
personnel, doing whatever we need to. No. 2, we are going to 
investigate exactly what happened, so it does not happen 
again.'' And, No. 3, he said, ``We want to find out who did 
this so we can bring them to justice.''
    In a letter dated December 18, Secretary Clinton stated, 
``We continue to hunt the terrorists responsible for the 
attacks in Benghazi, and are determined to bring them to 
justice.''
    Today, July 11, it has now been exactly 10 months since the 
attacks. To your knowledge, are we any closer to identifying 
and bringing those terrorists to justice?
    Ambassador Nuland. Senator, I share your frustration. As I 
said, as a citizen, I want to know what happened, as well. I 
have to tell you that, in my previous role as spokesperson of 
the State Department, and in my current capacity, I am not 
privy to information about how the investigation is going.
    Senator Barrasso. OK. In your written testimony, you talked 
about some things related to energy. You talked about that 
Europeans have taken important steps to diversify their energy 
market with new routes and new regulations.
    I have introduced legislation enabling the United States to 
use its newfound abundance of natural gas to help our NATO 
allies diversify their energy imports in order to break Russian 
dominance over them through its control of their natural gas 
supply. Many experts have argued that U.S. natural gas exports 
can diminish the cartel behavior of rival suppliers, like Iran 
and Russia, help persuade allies to isolate these rogue states, 
like Iran, and encourage the decoupling of international gas 
prices from oil prices, which can reduce gas prices around the 
world.
    Do you agree that natural gas exports, including LNG, can 
serve as an important diplomatic tool for the United States to 
strengthen our relationships with our allies and restore our 
standing throughout the world?
    Ambassador Nuland. Senator, certainly the fast pace of 
change with regard to the natural gas picture in Europe is 
making a very valuable contribution to Europe's energy 
security. And I think you know that the Department of Energy 
has approved some U.S. exports. It is obviously within the 
purview of the Department of Energy to decide if we can do more 
of that. But, the degree to which Europe has more diverse 
sources of natural gas, it is a good thing for Europe, and it 
is a good thing for the security of the transatlantic alliance.
    Senator Barrasso. It does seem that our energy resources 
can, at this point, increase our own economic competitiveness 
and enhance our power around the world. Do you support 
expediting LNG licenses to our NATO allies?
    Ambassador Nuland. Again, Senator, this decision set is not 
within the purview of the State Department, it is within the 
purview of the Department of Energy, so I would not want to 
speak to decisions that they have to make. But, it is certainly 
the case that the more sources of natural gas for Europe--and 
they are really diversifying their LNG terminals now, they are 
also looking at shale gas, as you know, and we are very active 
in promoting that--the better for their security and for our 
common security.
    Senator Barrasso. Thank you.
    Mr. Chairman, my time is expired. At this time, I would 
like to submit additional questions for written records.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Murphy. Absolutely. Thank you, Senator Barrasso.
    Senator Murphy. Senator Paul.
    Senator Paul. Congratulations, to the panel, for your 
nominations.
    Ambassador Nuland, where were you, the evening of Benghazi, 
during the attacks and in the aftermath?
    Ambassador Nuland. I was at the State Department on 
September 11 until about 1 o'clock in the morning, sir.
    Senator Paul. Was Secretary Clinton there, also?
    Ambassador Nuland. She was.
    Senator Paul. I did not hear you. Was or was not?
    Ambassador Nuland. She was.
    Senator Paul. She was. Were you in the same room with 
Secretary Clinton during the period of time during the attacks?
    Ambassador Nuland. For some of that period--she did a 
written statement on the attacks that evening. I worked with 
her on that written statement, but I was not with her the whole 
time, no.
    Senator Paul. OK. Did you have any conversations with 
anybody in Libya during the attacks or during the immediate 
aftermath?
    Ambassador Nuland. No, sir.
    Senator Paul. With anybody from Special Operations Command 
in Africa?
    Ambassador Nuland. No, sir.
    Senator Paul. No. Were you present during any conversations 
with Secretary Clinton with anybody in Libya?
    Ambassador Nuland. No, sir.
    Senator Paul. Were you present with any conversations with 
Secretary Clinton and anyone from Special Operations Command in 
Africa?
    Ambassador Nuland. No, sir.
    Senator Paul. Did you have any conversations with Secretary 
Clinton concerning reinforcements being sent from Tripoli?
    Ambassador Nuland. No, sir. My role with her was purely 
with regard to communications.
    Senator Paul. You did not have any----
    Ambassador Nuland. Public----
    Senator Paul. You were not present during any 
conversations----
    Ambassador Nuland. No, sir.
    Senator Paul [continuing]. That had anything to do with 
sending reinforcements.
    Ambassador Nuland. No, sir.
    Senator Paul. Were you present during any conversations 
with either--with yourself or with Secretary Clinton--of 
General Hamm, Admiral Losey, Lt. Colonel Gibson?
    Ambassador Nuland. No, sir.
    Senator Paul. OK.
    Have you ever had any conversations with Secretary Clinton 
concerning the purpose of the CIA Annex?
    Ambassador Nuland. I am not quite sure what you--what you 
are asking, Senator.
    Senator Paul. What was the purpose of the CIA Annex in 
Benghazi?
    Ambassador Nuland. Senator, I would be delighted to talk to 
you about the relationship between the State Department and the 
CIA in a separate setting, if that is helpful. I do not think 
it is appropriate----
    Senator Paul. Have you had any conversations with Secretary 
Clinton concerning the purpose of the CIA Annex?
    Ambassador Nuland. Not with regard to the purpose, no. But, 
with regard to the responsibility of government communicators 
to protect the equities and requirements of all other agencies, 
yes.
    Senator Paul. Did you ever have a discussion with Secretary 
Clinton concerning the fact that the function and the 
activities of the CIA Annex may have had something to do with 
the attacks?
    Ambassador Nuland. No, sir.
    Senator Paul. Are you personally aware of what the CIA 
Annex function is, or was?
    Ambassador Nuland. Sir, I do not believe I have had a full 
briefing on what the activities were, no.
    Senator Paul. Have you read the New York Times article, 
from 2 weeks ago, that talks about the fact that the CIA has 
been involved with sending arms to Syria over the last year?
    Ambassador Nuland. I did see that piece. I cannot assess 
its accuracy.
    Senator Paul. OK. Are you aware of the reports that a 
Turkish ship left Benghazi, or Libya, in the week preceding the 
Ambassador's killing, docked in Turkey, interviews have been 
conducted with the media, with the captain, distribution of the 
arms to Syrian rebels have been reported and discussed in the 
media? Are you aware of those reports?
    Ambassador Nuland. I am not, Senator.
    Senator Paul. All right.
    We have got a lot of questions. We have got a lot of very 
short answers.
    How often in--with your tenure, is sort of your typical 
routine, as communications--or in charge of communications at 
the State Department--how often would you have personal contact 
with Secretary Clinton, or conversations?
    Ambassador Nuland. When I was briefing, which was most days 
when we were home, I would see her every morning at our senior 
staff meeting. I would also support her when she had bilateral 
meetings with foreign visitors, particularly when there were 
press conferences. That was our home drill. And then, I 
traveled with her on all of her foreign travel.
    Senator Paul. Right.
    Part of the reason I bring up the CIA Annex is that, you 
know, we are in the process of becoming involved in a new war, 
in Syria, and there are many within the administration, which 
you will be part of, who argue for just doing this secretly, 
without votes; basically, to have a covert war. And that is 
basically what we are having now, according to articles 
concerning CIA activity in Syria, is that we are going to have 
a covert war, not a war where Congress votes on declaring war 
or votes on whether or not we should be involved.
    The question, really, here, is a big question of whether or 
not, you know, we obey the Constitution, which says the 
Congress really declares war, the Congress makes these 
decisions, that, unilaterally, these decisions are not made 
without the approval of Congress or the people.
    There is a question of the rule of law, basically. We have 
it on the books that says that, if there is a military coup, 
that foreign aid will end--not only if there is a military 
coup, if the military is involved in any way--in any 
substantial way, in removing a government from power. So, you 
can understand the--you know, the displeasure of some of us who 
believe in the rule of law, that, basically, this 
administration has said, ``We are not going to obey the law, we 
are above the law, and we are just going to say it is not a 
coup.''
    The problem, here, is that there is a certain lawlessness. 
There has been a big discussion on, you know, leaks from the 
NSA. People have said, ``My goodness, these leaks are damaging 
national security.'' Well, you know, what is also damaging to 
national security is when people come and lie to Congress. Now, 
I am not saying you did. You have said that it was classified, 
you cannot talk about it. But, if members of the administration 
are going to come to us and say, ``Oh, I am just going to lie, 
because it is classified, and tell you the least untruthful 
thing,'' what it does is, it really does damage the 
intelligence community, it damages the reputation of your 
administration, or the administration you will choose. It 
just--it damages the whole community, in a way, to say that it 
is OK to lie to Congress. That is basically what the opinion is 
now, and what is being told to the public, ``It is fine to lie 
to Congress.'' If that is true, it really damages the 
credibility of people who do things.
    So, when I ask the question, which I understand your 
inability, maybe, to answer it because it may be classified--
there are many of us who believe that it was--it had to do with 
an arms trade going out of the CIA Annex, and that perhaps 
people were unhappy about arms being taken from one group to 
another and sent to another, that may have incited the rioting 
and may have incited the terrorist attack. But, the problem is, 
we cannot ever get to the truth, because people just say, ``Oh, 
it's secret.'' That is the problem with running a secret 
government and running secret wars. We do not get any 
oversight. We cannot have oversight because we do not have any 
information.
    So, all I would say is that we need to think these things 
through. If you look at what the public wants right now, the 
public is not interested in a new war.
    Thank you very much for your testimony.
    Senator Murphy. Thank you, Senator Paul.
    We will do a second round, maybe of 5 minutes each, for 
members that are remaining.
    Ambassador Nuland, I just wanted to expand upon the 
questions from Senator Shaheen on Turkey, just to ask a broader 
question. What Erdogan is doing is certainly not to the extent 
of what we have seen in Russia with Mr. Putin, but troubling 
nonetheless: the crackdown within Istanbul, his treatment of 
journalists, his disposition toward the military. What are the 
tools at our disposal to continue to raise these questions of a 
free and open civil society in Turkey?--given the same problem 
we have with Russia, in that we have so many irons in the fire, 
with respect to our very complicated security relationship with 
Turkey, that it often makes it difficult to put the issue of 
human rights and his treatment of political opponents front and 
center. What are the tools at our disposal to continue to press 
Erdogan with respect to the--some of the same issues, albeit to 
a lesser degree, that we are pressing Putin's government on, as 
well?
    Ambassador Nuland. Thank you, Senator. Our alliance with 
Turkey, our relationship with Turkey, is absolutely critical, 
as you know, not just in the Eurasian space, but also in all of 
the work that we are doing now in the Middle East and North 
Africa, and particularly with regard to Syria. I think it is 
because we have such an intense and tight relationship, and 
because we have constant contact--I think Secretary Kerry's now 
made seven-plus trips to Turkey, the President talks regularly 
with President Erdogan--that we can speak very clearly and 
frankly when we have concerns about Turkey's democratic path--
and we have done that at all levels, because it is--Turkey's 
democracy and the strength of it is important, not only for the 
country itself, not only as a NATO ally, but also because, as a 
majority Islamic population, Turkey's democracy is looked at by 
other countries around the world and in the region who aspire 
to be able to be Islamic and democratic at the same time.
    So, these are the points that we will continue to make to 
the Turkish Government, that freedom of assembly, freedom of 
expression, protection of journalists, are fundamental 
democratic values that strengthen the country. And, in the 
context of the review that the Government of Turkey is doing 
now of the constitution, we are urging that these protections 
be strengthened and not lightened.
    Senator Murphy. Well, I thank you for raising the issue of 
constitutional reform. I hope that that will be an issue that 
we will continue to raise with them. I think that we should be 
troubled by the prospect of Erdogan trying to rearrange the 
constitution as a means of continuing his reign there beyond 
what has been expected by the people of Turkey. I appreciate 
your raising that.
    General Lute, just very quickly, with regard to NATO 
enlargement, we have got a number of candidates, particularly 
in the Balkans. Can you just sort of speak very briefly about 
the commitment that you will have, as our Ambassador there, to 
actively work with the Balkan nations who are in line for 
membership to go through the final stages of that process?
    General Lute. Yes, Senator, you have my personal commitment 
to do this. Of course, this is standing NATO policy, under the 
open-door provision. And it is longstanding U.S. policy, as 
well, that the door should be open, not only to the Balkan 
States that you are mentioning, but, as we mentioned earlier, 
Georgia, as well.
    Senator Murphy. Let me just, finally, before I turn it over 
to Senator Johnson--I do want to associate myself with at least 
the final comment made by Senator Paul. I know this is not 
particularly within your individual books of business, but it 
may be. I do think he raises a very important point about the 
interplay between overt and covert activity. And we have seen 
that produce fairly troublesome results for this Nation, but 
also for the State Department, in places like Pakistan, as we 
move forward in Syria, which is--you may have some interactions 
with.
    I hope we look to prior history and understand that major 
military actions happening in a covert manner present problems, 
certainly with regard to oversight by the United States 
Congress, but also present problems within the administration, 
when there are entities negotiating with players across the 
globe who do not necessarily have control over all of the tools 
that are subject to those negotiations.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    General Lute, as long as you did listen to the Afghanistan 
hearing--I was able to be there--here for the first hour, and 
could not ask questions, so let me ask you a couple of 
questions.
    It was the--a comment was made that ISAF is providing 
critical support to the Afghan army and the police force, and 
that the elections were--I cannot remember the exact quote, but 
``absolutely essential,'' in terms of progress being made in 
Afghanistan. But, there have been some real problems. Critical 
appointments have not been made.
    The point I want to make is, if we are going to stop all 
military operations by the end of 2014, and basically turn it 
over to the Afghan army and police force by 2015, what if they 
are not ready? What is going to happen?
    General Lute. Well, the December 2014 goal to arrive at a 
point where the Afghans are fully responsible, as we said at 
Lisbon in 2010, at the end of this 4-transition process, is 
just that: a goal. And the reports--I think you heard, this 
morning, but the reports we consistently get, and have gotten 
for a number of years now, are that our military believes--and 
they have day-to-day, shoulder-to-shoulder contact with their 
Afghan counterparts--that we are on track, and that the 
remaining 18 months will complete that job to arrive at a 
position where they are fully responsible.
    Now, I think you also heard, this morning, and we see in 
more routine reports, that there remain gaps today. Some of the 
ones most obvious are close-air support, medical evacuation, 
logistics. When you see--you see----
    Senator Johnson. But, let me--I think that one----
    General Lute [continuing]. Newspaper reports on these, as 
well.
    Senator Johnson [continuing]. One of the more critical gaps 
is managerial, at the officer level, which is an incredibly 
difficult gap to fill, isn't it, in just 18 months?
    General Lute. Well, Senator, you--I think you are right. 
You do not build an army in 4 or 5 years. And we have really 
only been seriously at the building of the Afghan army over the 
last 4 or 5 years. And that is why, beyond 2014, the work will 
not be done. And that is why we are committed to a training/
advising/assisting mission even beyond 2014. As I mentioned 
earlier, that, of course, is--needs to be governed by a 
bilateral security agreement, which is under negotiation. So--
--
    Senator Johnson. To what extent are militias being stood 
back up in Afghanistan?
    General Lute. I do not think this is a major change or a 
major initiative in Afghanistan today. The ethnic groups, 
especially in the rural areas that are quite remote from the 
population centers, the metropolitan population centers, have 
always been somewhat secured by local power brokers, who have 
armed contingents. And this is, to some extent, the natural 
state of affairs in Afghanistan. But, these are not dominant. 
And I can also tell you that, in the last several years, we 
have not seen a dramatic rise in the presence of these sorts of 
forces.
    Senator Johnson. Do you think those militias are a 
stabilizing force?
    General Lute. I think they are a natural part of the 
security landscape in Afghanistan. We do not see them as a 
destabilizing force. They tend to stick quite close to their 
home turf. They are ethnically and tribally organized. And they 
do not present a, necessarily, destabilizing force.
    Now, what is new to the scene is 350,000 Afghan National 
Security Forces, both army and police. And the standup of that 
national force is designed to be the glue that holds the very 
disparate regions of Afghanistan together.
    Senator Johnson. OK.
    Senator Murphy. Senator Rubio.
    Senator Rubio. Thank you.
    And I apologize for having to do this again, because this 
is not directly related to you, but I just want to clearly 
understand the timeline on the talking-points issue once more.
    So, I want to go back. On October 10, Mr. Carney--Jay 
Carney--said that, ``Again, from the beginning, we have 
provided information based on the facts as we knew they became 
available, based on assessments by the intelligence community--
not opinions--assessments by the intelligence community. We 
have been clear all along that this was an ongoing 
investigation, that the more facts became available, we would 
make you aware of them, as appropriate, and we have done 
that.''
    He went on to say, later, back in May, that, ``What we 
said, and remains true to this day, is that the intelligence 
community drafted and redrafted these talking points.'' That 
was then.
    In fact, the President, on October 18 of last year, said, 
on ``The Jon Stewart's Show,'' believe it or not, ``But, 
everything we get, every piece of information we get, as we got 
it, we laid it out to the American people.''
    That's the statements from the White House with regards to 
the talking points.
    Now, the original CIA talking points were pretty blunt. 
They talked about ``an assault on U.S. facilities in Benghazi 
as a terrorist attack conducted by a large group of Islamic 
extremists, including some with ties to al-Qaeda.'' That was 
the original talking points that the CIA circulated. But, 
then--well, the original talking points they prepared--they 
then circulated these talking points to the administration 
policymakers on the evening of Friday, September 14. They had 
changed ``Islamic extremists with ties to al-Qaeda'' to, 
simply, ``Islamic extremists,'' but they also add a new context 
in the references to the radical Islamists. They noted--they 
pointed to Ansar al-Sharia's involvement, and they added a 
bullet point that highlighted the fact that the CIA had warned 
about another potential attack on U.S. diplomatic facilities in 
the region.
    And that was the point where all the things we have talked 
about already began, right?--the e-mails circulating, you 
raised the concerns, et cetera, and overnight on the 14th. Then 
there was that meeting, on the 15th, of the--I do not want to 
mischaracterize the name of the group--``the deputies group.'' 
Is that right? You were not a part of that meeting, but there 
was a meeting. Correct?
    Ambassador Nuland. Correct. My understanding was that this 
issue was taken up there, yes. I----
    Senator Rubio. So, you were not in the meeting.
    Ambassador Nuland. But, I was not there.
    Senator Rubio. But, what we know from subsequent e-mails 
from someone--we do not know who it was--but, an e-mail to U.S. 
Ambassador Rice after the meeting, and it basically said, 
according to the e-mail there were several officials in the 
meeting that shared your concerns--you were not part of the 
deliberations--that the CIA talking points might lead to 
criticism that the State Department had ignored the CIA's 
warnings about an attack. And the e-mail also reported to Susan 
Rice that Mr. Sullivan would work with a small group of 
individuals from the intelligence community to finalize the 
talking points on Saturday before sending them on to the House.
    So, that was what happened from that meeting, and then 
these changes came about, and then we get these talking points.
    So, I guess the point that I want to raise is that, while, 
in fact, the intelligence community may have physically and 
technically written these talking points, the most substantive 
changes to the talking points--the most substantive changes to 
these talking points, from the original version, either--even 
the amended versions that were first circulated--the 
substantive changes came as a result of direct input from the 
State Department and from these--this deputies meeting. Is 
that--that is correct, right?
    Ambassador Nuland. Senator Rubio, as you correctly pointed 
out, I cannot speak to the whole chain of events. When I 
received the talking points, on the evening of Friday the 14th, 
they said--they did not make reference to al-Qaeda, they made 
reference to Ansar al-Sharia.
    Senator Rubio. Right.
    Ambassador Nuland. As I said, I had no difficulties, in 
substance, with that. When I, as a citizen, read the dozens and 
dozens and dozens of e-mails that we released to the Congress, 
to the public, about this, it was clear to me, in reading 
those, as I am sure it was clear to you, that significant 
changes were made, apparently, inside the CIA before they----
    Senator Rubio. But, they were----
    Ambassador Nuland [continuing]. Were circulated.
    Senator Rubio. Right. And I understand that the CIA typed 
the changes, but----
    Ambassador Nuland. But, the----
    Senator Rubio [continuing]. The subsequent----
    Ambassador Nuland. While they were in--while they were in 
clearance within the CIA----
    Senator Rubio. Right.
    Ambassador Nuland [continuing]. Before they went into the--
--
    Senator Rubio. But, the point is that the major substantive 
changes came between Friday evening, after you and other State 
Department officials expressed concerns about criticism from 
Members of Congress, and the Saturday morning, following the 
deputies meeting. That is when the big changes to it came.
    And the reason why that raises alarm is another e-mail, to 
Chip Walter, the head of the CIA's Legislative Affairs Office, 
from Secretary Petraeus, where he expressed frustration at the 
new scrubbed talking points, noting that they had been stripped 
of much of the content his agency had provided.
    So, the point I am driving at has, quite frankly, nothing 
to do with you. But, the point that I just wanted to raise here 
is, in fact, when Mr. Carney and when the President says that 
these talking points were a product of the intelligence 
community, that is not accurate. These talking points were--may 
have been typed by the intelligence community, but these 
talking points were dramatically changed, directly at the input 
of non-intelligence-community individuals, primarily in the 
State Department and in this meeting of the deputies. That is 
where the changes were made. They did not come from the 
intelligence community. The intelligence community--in fact, 
its leader at the CIA--expressed frustration at the changes 
that had been made.
    I know my time is up, but I have to get one real-quick 
question, and it has to do with--is--the START Treaty. Is 
Russia in compliance, in your opinion, with the New START? I 
know that is a big change of topic. [Laughter.]
    Ambassador Nuland. Senator, at this--in this current state 
that I am in, I am not privy to all of the information with 
regard to compliance. If confirmed, obviously I would be fully 
transparent with you, within my responsibilities----
    Senator Rubio. OK.
    Then, here's my----
    Ambassador Nuland [continuing]. With regard to that----
    Senator Rubio [continuing]. Last question. Anyone who wants 
to answer it. Maybe, General, you could help with this. Did the 
administration seek or receive any input from our NATO allies, 
ahead of the President's announcement, 2 weeks ago, about 
additional cuts to U.S. strategic nuclear arsenal, beyond the 
limits imposed of New START? Did we talk to our NATO allies 
about it? And, if we did, what was their reaction?
    General Lute. Yes, Senator, I am not aware of that. I am 
obviously not following that issue at that time. I can 
investigate this and come back to you.
    [The information requested of Ambassador Nuland by Senator 
Rubio follows:]

    Following the 2010 Nuclear Posture Review, the President directed 
his national security team to conduct further analysis and review of 
the U.S. nuclear force structure and posture. The results of this 
analysis were announced during the President's speech in Berlin in June 
2013, including his commitment to continued consultations with allies. 
The speech has been welcomed by our European allies and partners, as 
well as our key Asian allies. The United States regularly consults with 
our NATO allies about our commitment to further nuclear reductions and 
to maintain a safe, secure, and effective nuclear deterrent. Any 
changes in NATO's nuclear posture must be decided jointly by the 
alliance. This ongoing dialogue with NATO informed the analysis 
conducted by the United States and announced by the President in 
Berlin.

    Senator Murphy. Thank you, Senator Rubio.
    Thank you very much for answering all of our questions. You 
have all acquitted yourselves very well. You all have had such 
impressive careers, and I am just so appreciative of the fact 
that you are ready to stand up for this Nation in a new 
capability. Congratulations on your nomination. And we look 
forward to your confirmation.
    This hearing stands adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Victoria Nuland to Questions Submitted 
                       by Senator Robert Menendez

    Question. Do you see the proposals put forward by the new Cyprus 
Government involving Famagusta as helpful in regenerating the efforts 
to resolve the political situation on the island?

    Answer. We would support any agreement on Famagusta that is 
mutually acceptable to both parties. This issue underscores the need 
for a comprehensive settlement reunifying Cyprus as a bizonal, 
bicommunal federation. We firmly believe that a mutually acceptable 
settlement is in the best interests of the people of Cyprus, and we 
hope the parties will seize the opportunity to end the tragic division 
of the island once and for all.

    Question. I noted with pleasure the spirit of religious cooperation 
demonstrated by the trip of Ecumenical Patriarch Bartholomew, the 
spiritual head of 300 million Orthodox Christians and the world's 
second-largest Christian Church, to Rome for the installation of Pope 
Francis, the head of the largest Christian Church, Catholicism. 
Historically, the Ecumenical Patriarch and Pope were both bishops in 
the same undivided Christian church until the year 1054. This trip 
marked the first such recognition between the two churches that has 
occurred in nearly 1,000 years and is a great tribute to the ecumenical 
spirit of both religious leaders.

  <bullet> Can you share with the committee what you plan to do in 
        working with Turkish Government officials to push for full 
        religious freedom for the Ecumenical Patriarchate in Turkey?

    Answer. The United States recognizes the ecumenical status of the 
Patriarchate, which is a part of the rich tradition of religious 
diversity in Turkey. As such, the United States fully supports efforts 
to reopen Halki Seminary, a vital institution of spiritual learning for 
Orthodox Christians around the world, as a symbol of the Turkish 
Government's commitment to ensure full religious freedom for all, 
including religious minorities. The Turkish Government's return of 
property surrounding the Seminary to the Church earlier this year was a 
positive step. If confirmed, I will continue to urge the Turkish 
Government to demonstrate its respect for religious freedom by working 
cooperatively with the Patriarchate to overcome legislative and 
political impediments hindering the reopening of this revered religious 
institution and to resolve matters of importance to Orthodox Christians 
and other religious minorities in Turkey.

    Question. Recent reports indicate that there may be good reason to 
question whether there's been mismanagement at the Holocaust Claims 
Conference. What steps has the U.S. Government taken to investigate 
whether $57 million has been lost to fraud and what are we doing about 
it?

    Answer. In late 2009, suspecting fraudulent internal activity, the 
Conference on Jewish Material Claims Against Germany (``the Claims 
Conference'') retained outside counsel to conduct an independent 
investigation. The Claims Conference then presented evidence derived 
from this investigation to the FBI and the office of the U.S. Attorney 
for the Southern District of New York, which then launched an 
investigation into the fraud.
    In May of this year, the Claims Conference's former Director of 
Hardship and Article 2 Funds, Semen Domnitser, and two coconspirators 
were convicted in federal court on charges of mail fraud and conspiracy 
to commit mail fraud. Twenty-eight others had already pleaded guilty. 
No Holocaust victims were deprived of any funds because of those 
crimes. After uncovering the fraud, the Claims Conference took steps to 
prevent its recurrence. It engaged Deloitte to conduct an independent 
review of all processing procedures and subsequently revamped them. 
Deloitte has prepared a report with preventative recommendations, 
including how to install appropriate safeguards, and the Claims 
Conference is currently in the process of implementing them. The Claims 
Conference also reviewed thousands of files, one case at a time, to 
identify fraudulent applications and instituted a process to obtain 
restitution. Whenever it came upon documents confirming fraud, the 
Claims Conference suspended improper payments and sought restitution. 
Legitimately eligible claimants, however, continued to be paid.
    These losses to fraud must be measured against the overall 
accomplishment of the Claims Conference, a nongovernmental organization 
that since 1951 has sought a measure of justice for Holocaust survivors 
through negotiations with the German Government in order to provide 
payments both directly to individual survivors and grants to social 
welfare organizations serving survivors. As a result of these 
negotiations, the German Government has paid more than $60 billion in 
indemnification for suffering and losses resulting from Nazi 
persecution. Claims Conference negotiations have also resulted in the 
disbursement of additional funds from German and Austrian industry, as 
well as from the Austrian Government. In May of this year the Federal 
Republic of Germany committed to providing approximately $1 billion 
over a 4-year period for home care for Jewish Holocaust victims, with 
the annual amount increasing every year through 2017.

    Question. In recent weeks Transnistrian authorities have acted to 
increase the security along their line of control to make it resemble 
an international border. Has the U.S. position on Moldovan sovereignty 
over Transnistria changed? If not what diplomatic actions have we 
undertaken to address this change in the status quo?

    Answer. The United States strongly supports a peaceful and 
sustainable negotiated resolution of the Transnistria conflict through 
a settlement that provides a special status for Transnistria within 
Moldova's sovereign borders. The administration has underscored to both 
sides the importance of continuing to engage, compromise, and work 
toward a comprehensive settlement through the OSCE-sponsored 5+2 
process. The administration has also called on both sides to refrain 
from any unilateral action that might impede the process or undermine 
confidence in the negotiations. The State Department will continue to 
raise these points and concerns with authorities in Chisinau and 
Tiraspol and work with its partners in the region to amplify this same 
message.

    Question. President Obama has identified genocide prevention as a 
``core national security interest and core moral responsibility'' of 
the United States. What role does genocide recognition play in 
combating future incidents of genocide? Do you have a personal view on 
U.S. recognition of the Armenian genocide?

    Answer. The U.S. Government clearly acknowledges as historical fact 
and mourns that 1.5 million Armenians were massacred or marched to 
their deaths in the final days of the Ottoman Empire. These horrific 
events resulted in one of the worst atrocities of the 20th century, and 
the United States recognizes that they remain a great source of pain 
for the people of Armenia and of Armenian descent, as they do for all 
of us who share basic universal values. As the President emphasized in 
his April 24 Remembrance Day statements, the achievement of a full, 
frank, and just acknowledgement of the facts of what occurred in 1915 
is in all our interests.
    If confirmed, my duty would be to represent the policies of the 
President and administration faithfully, and to work with our allies 
and partners in Europe to make sure that such dark chapters of history 
are not repeated.

    Question. The United States continues to support the democratic and 
economic development of Georgia--both through strong levels of economic 
assistance and a second Millennium Challenge Corporation compact with 
that country. What efforts are being made to ensure that U.S. 
assistance reaches all communities and regions in Georgia equally, 
including the impoverished region of Samtskhe-Javakheti, which is 
predominantly populated by Armenians?

    Answer. U.S. Government assistance in Georgia supports democratic 
and economic development throughout the country, and this includes the 
Samtskhe-Javakheti region. Over the past 6 years, the U.S. Government 
has provided over $240 million in assistance projects in Samtskhe-
Javakheti, including through the Millenium Challenge Corporation (MCC). 
These assistance projects have ranged from rehabilitating public 
hospitals, helping farmers bring crops to market, fostering economic 
development, supporting civil society, and giving voice to the ethnic 
minority communities.
                                 ______
                                 

        Responses of Victoria Nuland to Questions Submitted by 
                      Senator Robert P. Casey, Jr.

    Question. After a meeting with Foreign Minister Kasoulides, 
Secretary Kerry 
stated, ``We also look forward to working with the Foreign Minister and 
with President Anastasiades and others to try to move Cyprus forward on 
one of the world's frozen conflicts. The United States supports a 
bizonal, bicommunal federation. We would like to see us unfreeze this 
conflict and be able to move to a resolution.''

  <bullet> What is your assessment of the most effective way to 
        unfreeze the Cyprus-Turkey conflict?
  <bullet> Do you view the potential for gas exploration in Cyprus's 
        exclusive economic zone as beneficial or harmful to the efforts 
        to solve the country's political problem?

    Answer. As I noted during the hearing, I believe that we have a 
real chance to capitalize on changing attitudes and circumstances to 
help address the 40-year-old division of Cyprus. A comprehensive 
settlement reunifying Cyprus as a bizonal, bicommunal federation will 
benefit the people of Cyprus and help strengthen regional stability by 
facilitating normalization of relations between Cyprus and Turkey. The 
Greek Cypriot and Turkish Cypriot leaders have confirmed their 
intention to resume the settlement process in October, and Turkey has 
also expressed its support for the settlement process. If confirmed, I 
will work both publicly and privately with the parties and with the 
United Nations to encourage a settlement.
    The development of offshore energy resources should be a positive 
incentive for the parties to work toward a comprehensive settlement. We 
continue to believe that, in the context of an overall settlement, the 
island's resources should be equitably shared between both communities.

    Question. Ecumenical Patriarchate.--I noted the spirit of religious 
cooperation demonstrated by the trip of Ecumenical Patriarch 
Bartholomew, the spiritual head of Orthodox Christians, to Rome for the 
installation of Pope Francis. This trip marked the first such 
recognition between the two churches that has occurred in nearly 1,000 
years and is a great tribute to the ecumenical spirit of both religious 
leaders.

  <bullet> What do you plan to do to push for full religious freedom 
        for the Ecumenical Patriarchate?

    Answer. The United States recognizes the ecumenical status of the 
Patriarchate, which is a part of the rich tradition of religious 
diversity in Turkey. As such, the United States fully supports efforts 
to reopen Halki Seminary, a vital institution of spiritual learning for 
Orthodox Christians around the world, as a symbol of the Turkish 
Government's commitment to ensure full religious freedom for all, 
including religious minorities.
    The Turkish Government's return of property surrounding the 
Seminary to the Church earlier this year was a positive step. If 
confirmed, I will continue to encourage the resolution of legislative 
and political impediments that are hindering the reopening of this 
important religious institution.
                                 ______
                                 

          Responses of Victoria Nuland to Questions Submitted 
                       by Senator James E. Risch

    Question. There has been speculation about a third trial of 
Khodorkovsky, Russia's longest serving political prisoner. What would 
be the implications for civil society and the democratic opposition in 
Russia if a third trial were pursued? What can be done by the United 
States or others to ensure Khodorkovsky is released as scheduled next 
year?

    Answer. The Russian Government cannot nurture a modern economy 
without also developing an independent judiciary that ensures equal 
treatment under the law, advances justice in a predictable and fair 
way, and serves as an instrument for furthering economic growth.
    The United States supports the rights of all Russians to exercise 
their freedoms of expression and assembly, regardless of their 
political views. These rights are enshrined in the Russian Constitution 
as well as in international agreements to which Russia is a party.
    If confirmed, I will continue to express our concerns to Russia 
both publicly and privately about the Khodorkovsky case, selective 
prosecutions, and the corrosive effect on society when the rule of law 
is undermined by political considerations.

    Question. It appears U.S. policy toward Central and Eastern Europe 
has lacked focus and this has contributed to the backsliding on 
economic and political developments you referenced in your testimony. 
What are your thoughts on how to fix this?

    Answer. The countries of Central and Eastern Europe are, with one 
exception, strong allies and valued partners of the United States that 
have made critical contributions to NATO and have worked with us on 
other shared priorities around the world. If confirmed, I will seek to 
intensify our already active dialogue with these countries to advance 
our common interests on a broad range of security, economic, global and 
law enforcement issues.
    Although we share with the people of the region a commitment to 
fundamental democratic values and human rights, we have concerns that 
some countries in the region have weakened the institutional checks and 
balances that are essential to democratic governance. We are honest 
with our friends about our concerns, both bilaterally and in venues 
such as the Organization for Security and Cooperation in Europe, and 
work with them to address these issues. If confirmed, I will also make 
it a priority to work actively with individuals and organizations in 
these countries who are striving to strengthen democratic institutions, 
civil protections, and the rule of law.
    Belarus is an exception. In dealing with the Government of Belarus, 
we will continue to impose sanctions until the government releases all 
political prisoners and creates space for democracy.

    Question. After decades of studied neutrality, the newly elected 
Government of Cyprus has decided to adopt a more prowestern foreign 
policy, including by seeking to join NATO's Partnership for Peace 
(PfP). Among other things, admission of Cyprus to the PfP would end the 
anomaly that Cyprus is presently the only significant country in Europe 
or Central Asia (other than Kosovo) that belongs to neither NATO nor 
the PfP.

  <bullet> Does the Obama administration support Cyprus's aspiration to 
        join the PfP? If confirmed as Assistant Secretary for European 
        Affairs, will you work to help Cyprus gain admission to the 
        PfP?

    Answer. The United States has long supported Cyprus's aspiration to 
join the Partnership for Peace (PfP) Program. Since its start in 1994, 
the Partnership for Peace Program has been an important NATO tool 
seeking to promote reform, increase stability, diminish threats to 
peace, and strengthen security relationships between individual Partner 
countries and NATO, as well as among Partner countries.
    If confirmed, I will continue to work for Cyprus' inclusion in the 
PfP.

    Question. As you know, Cyprus has discovered significant offshore 
gas reserves which could provide a future revenue stream for the 
country, and could create the basis for energy cooperation with Israel. 
Expeditious development of this resource, pursuant to international 
law, could substantially improve Cyprus's economic development and 
potentially act as a unifying factor in the eastern Mediterranean.

  <bullet> Does the United States support the right of Cyprus to 
        develop this resource?

    Answer. The United States recognizes Cyprus' right to develop 
hydrocarbons resources in its Exclusive Economic Zone (EEZ). We 
continue to believe that, in the context of an overall settlement, the 
island's resources should be equitably shared between both communities. 
And, that the development of offshore energy resources should be a 
positive incentive for the parties to work toward a comprehensive 
settlement.

    Question. The stalled negotiations between Armenia and Azerbaijan 
over Nagorno-Karabakh continue to threaten the security and stability 
of the South Caucasus. It is even more concerning to see the United 
States, one of the cochairs to the Minsk Group, disengage from the 
region. Contrary to the passive U.S. role in the negotiations, Russia 
is very actively engaged. Former Russian President Dmitry Medvedev 
personally invested substantial political capital on advancing Russian 
interests in the South Caucasus vis-a-vis the Nagorno-Karabakh 
conflict. There is concern about a larger Russian military presence in 
the region, in the absence of U.S. engagement.

  <bullet> What actions should the United States take to move the 
        stalled negotiations 
        forward?

    Answer. As cochair of the OSCE Minsk Group, along with France and 
Russia, the United States plays a major leadership role in helping the 
sides find a peaceful solution to the Nagorno-Karabakh conflict. If 
confirmed, I will make this a priority. I will work with the sides, at 
the highest levels, to help them overcome the current impasse, and 
involve Secretary Kerry and the President, as appropriate, in our 
diplomacy. We will also continue to encourage near term confidence 
building measures that the sides can take to minimize the danger of 
incidents on the line of control and other actions that could take the 
process backward.
    We will continue to stress that the parties themselves must find 
the political will to make the difficult decisions that a peaceful 
settlement requires. Any durable solution will require compromise from 
all sides. On June 18, Presidents Obama, Putin, and Hollande expressed 
their regret for the recent lack of progress, and called on the sides 
to recommit to the Helsinki principles, particularly those relating to 
the nonuse of force or the threat of force, territorial integrity, and 
equal rights and self-determination of peoples. We will also continue 
to emphasize that it is vital that the sides prepare their people for 
peace, not war, and avoid actions and rhetoric that could raise 
tensions or damage the peace process.
                                 ______
                                 

           Response of Douglas E. Lute to Question Submitted 
                       by Senator James E. Risch

    Question. As the Senate considers your nomination, we need to fully 
understand your views on what is arguably the most important arms 
control regime concerning the stability and security of our NATO 
allies--the Intermediate-Range Nuclear Forces (INF) Treaty. This 
agreement prohibits the production or flight testing of all ground-
launched ballistic and cruise missiles with range capabilities between 
500 and 5,500 kilometers, thereby promoting stability on the European 
Continent. As you are undoubtedly aware, however, Russian officials 
have made statements about the viability of the Treaty. For instance, 
on June 21, 2013, the Russian Presidential Chief of Staff stated that 
the INF Treaty ``cannot exist endlessly.'' Such statements obviously 
are cause for concern. I believe it would be helpful to hear your own 
perspective.

  <bullet> Could you please provide your views on the importance of 
        preserving the INF treaty over the next decade, including the 
        impact of doing so on stability in Europe?
  <bullet> Further, could you provide the administration's current 
        policy for information and intelligence sharing with our NATO 
        allied relating to compliance and verification issues 
        associated with the INF and other treaties of importance to 
        NATO?
  <bullet> Finally, can you assure the committee that our NATO allies 
        have been fully and completely informed of all compliance and 
        certification issues associated with the INF and other 
        treaties?

    Answer. The INF Treaty remains a significant achievement in nuclear 
arms control that contributes greatly to peace and security on the 
European Continent. It was the first arms control treaty to result in 
the elimination of an entire class of weaponry. It remains a vital 
element of the security architecture in the Euro-Atlantic region. 
Accordingly, it is critical that this treaty be preserved. The Russian 
Federation remains a party to the treaty and has not communicated to 
the United States an intention to withdraw from it. The reintroduction 
of INF class ground-launched missiles would destabilize and threaten 
the peace and security in Europe that the INF Treaty has helped ensure 
for over 25 years.
    I want to reassure you that the administration is committed to 
maintaining a full and robust dialogue with NATO allies on the range of 
common security issues of concern, including those related to Russia. 
In fact, all allies share information bearing on our common security 
concerns. In addition, the administration regularly consults with 
allies on security and stability issues, at every level. For further 
information on these topics, we would be happy to brief you in a 
classified setting.
    If confirmed, I personally commit both to representing these and 
all other American interests in NATO and to working with the Congress 
on these critical issues.
    The administration is committed to working to seize the 
opportunities before us to revitalize and deepen our ties with Europe. 
We look forward to working with you on these and other important 
issues.
                                 ______
                                 

          Responses of Victoria Nuland to Questions Submitted 
                    by Senator Christopher A. Coons

    Question. If you are confirmed, how will you approach the 
challenges in Cyprus? What role do you think the United States can play 
in supporting Cyprus in its efforts to end the division of the island? 
How do you think gas exploration in Cyprus' Exclusive Economic Zone 
will impact the political situation?

    Answer. The U.S. Government is not a participant in the 
negotiations, but we have offered to provide any help that both sides 
would find useful. The administration will support the settlement 
process under U.N. auspices, which aims at achieving a bizonal, 
bicommunal federation, with political equality as stipulated in past 
United Nations Security Council Resolutions. As a friend to the people 
of Cyprus, the administration will continue to urge the leaders of both 
communities to engage constructively in the settlement process as the 
best way to reach an agreement. The administration will also engage 
Turkey and Greece to encourage reconciliation and reunification.
    The development of offshore energy resources should be a positive 
incentive for the parties to work toward a comprehensive settlement. We 
continue to believe that, in the context of an overall settlement, the 
island's resources should be equitably shared between both communities.

    Question. During your hearing you spoke at length about your 
concerns over human rights issues in Russia. Were you to be confirmed, 
how would you advise Members of Congress to approach our Russian Duma 
counterparts, with a view to seek changes to Russian legislation, such 
as the antigay propaganda bill? What would you do in your new role to 
support LGBT rights more broadly?

    Answer. The administration has raised concerns about this 
legislation and other new laws negatively affecting civil society with 
Russian Government officials, both publicly and privately. If 
confirmed, I would encourage Members of Congress to do the same with 
their counterparts in the Russian Duma. The administration regularly 
supports congressional delegations visiting their Russian colleagues. 
Interactions of this kind provide an opportunity to urge Russia to 
honor its obligations and commitments with respect to freedoms of 
expression, association, and assembly.
    Throughout my career, I have been an ardent supporter of LGBT 
rights, including most recently as State Department spokesperson when I 
spoke out regularly on these issues. If confirmed, I will work with our 
like-minded partners in all European countries and multilateral fora to 
protect the rights of LGBT individuals.
                                 ______
                                 

          Responses of Victoria Nuland to Questions Submitted 
                         by Senator Marco Rubio

    Question. What strategic goals does the President expect to 
accomplish in Europe by 2016?

    Answer. Europe is our partner in everything we do around the world 
and as I said in my testimony, this administration's first task with 
our European allies is to revitalize the foundations of our global 
leadership and our democratic, free market way of life. We need growth 
and jobs on both sides of the Atlantic. The Trans-Atlantic Trade and 
Investment Partnership (T-TIP) that the United States and European 
Union began negotiating last week with the EU could support hundreds of 
thousands of additional jobs and strengthen our international 
competitiveness. But 
T-TIP is about more than our economic underpinnings. T-TIP is also a 
political and strategic investment in our shared future and our 
effectiveness as global leaders in the 21st century.
    We must also focus on the unfinished work within Europe. Today, 
there is a real chance to capitalize on changing attitudes and 
circumstances to address the 40-year-old division of Cyprus. Kosovo and 
Serbia have made important commitments toward long-term reconciliation, 
thanks to the good offices of EU High Representative Ashton. And the 
United States cannot break faith with other members of our European and 
Eurasian family who have been trapped for too long in frozen conflicts 
and territorial disputes.
    Together, the United States and Europe must also do more to defend 
the universal values that bind us. While all states in the EUR region 
hold elections and most have democratic constitutions, the quality of 
democracy and the rule of law in Europe and Eurasia is gravely uneven, 
and in some key places, the trends are moving in the wrong direction. 
Too many citizens do not feel safe criticizing their governments, 
running for office or advancing a vibrant civil society. In too many 
places, press freedom is stifled, courts are rigged and governments put 
their thumbs on the scales of justice. If, as a transatlantic 
community, we aspire to support and mentor other nations who want to 
live in justice, peace, and freedom, we must be equally vigilant about 
completing that process in our own space.
    The United States and Europe must also continue to work together 
beyond our shores to advance security, stability, justice, and freedom. 
Our investment together in a safe, developing, democratic Afghanistan 
is just one example. As we look to future demands on our great 
alliance--and they will come--we must build on that experience, not 
allow it to atrophy. In these difficult budget times, that will require 
working even harder to get more defense bang for our buck, euro, pound, 
krone, and zloty with increased pooling, sharing, and partnering to 
ensure NATO remains the world's premier defense alliance and a capable 
coordinator of global security missions, when required.
    America's work with European partners and the European Union across 
Africa, in Asia, on climate and on so many other global challenges must 
also continue. Today, the most urgent focus of common effort should be 
in Europe's own backyard and an area of vital interest to us all: the 
broader Middle East and North Africa. From Libya, to Tunisia, to Egypt, 
to Lebanon, to Iran, to Syria, to our work in support of Middle East 
peace, the United States and Europe are strongest when we share the 
risk, the responsibility, and in many cases, the financial burden of 
promoting positive change.
    When this administration can, it must also work effectively with 
Russia to solve global problems. With respect to Iran, DPRK policy, 
Afghanistan, counterterrorism and nuclear arms control and 
nonproliferation, we have seen important progress in the past 4 years, 
and the President is looking for opportunities to take our cooperation 
to the next level. However, we must also continue to be frank when we 
disagree with Russian policy, whether it's with regard to weapons sales 
to the Assad regime in Syria or the treatment of NGOs, civil society, 
and political activists or journalists inside Russia.
    Finally, the United States must be attentive to the fast changing 
energy landscape of Europe and Eurasia, and the opportunities and 
challenges that brings. We welcome these developments and need to 
ensure U.S. companies continue to play a leading role in this dynamic 
market.
    As the President said in Berlin last month, ``our relationship with 
Europe remains the cornerstone of our own freedom and security. 
``Europe is our partner in everything we do . . . and our relationship 
is rooted in the enduring bonds . . . (of) . . . our common values.'' 
In every decade since World War II those bonds have been tested, 
challenged, and in some quarters, doubted. In every decade, we have 
rolled up our sleeves with our European allies and partners and beat 
the odds. These times of tight money, unfinished business at home and 
competing priorities abroad are as important as any we have faced.
    If confirmed, I pledge to seize the opportunities before us to 
revitalize and deepen our ties with Europe, and to ensure we continue 
to have the will, the trust, and the capability to advance our shared 
security and prosperity and to meet our many global challenges 
together.

    Question. Please explain how the administration is ensuring that 
growing attention to the Asia-Pacific region does not come at the 
expense of security commitments in Europe, the Middle East, and South 
Asia?

    Answer. The administration's plan to ``rebalance'' our global 
posture to augment our focus on the Asia-Pacific region does not 
diminish our close and continuing partnerships with European and other 
allies. Reductions in U.S.-stationed forces in Europe will not impede 
our ability to fulfill our article 5 or other enduring security 
commitments to allies and partners. Rather, changes to U.S. force 
posture in Europe--such as deployment of missile defense assets to 
Europe and an aviation detachment to Poland; steps to enhance our 
special operations capability; investment in shared NATO capabilities 
like Alliance Ground Surveillance (AGS) and a revitalized NATO Response 
Force--will yield a capable, more modern U.S. presence in Europe that 
will enable us to partner with Europeans and other allies on regional 
and global security operations, build partner capacity, and respond to 
future contingencies. Even after the cuts are implemented, over 60,000 
U.S. servicemembers will remain in Europe, supporting our defense 
commitments to our allies and U.S., NATO-led, and coalition operations 
globally. We will maintain two brigade combat teams in Europe as part 
of a large, permanent military footprint, one of the largest military 
footprints outside the United States.
    NATO will remain the cornerstone of transatlantic security, and our 
European allies--NATO allies in particular--are our partners of first 
resort for dealing with the full range of global security concerns.

    Question. There is significant concern in the Senate about the 
administration's 
potential interest to conduct further nuclear reductions outside of a 
formal treaty process. If confirmed, how would you intend to keep the 
Senate informed about discussions with the Russians on this issue?

    Answer. The administration is committed to continuing its 
consultations with Congress on arms-control-related issues.
    Last month the President said in Berlin that he intends to seek 
further negotiated reductions with Russia. The administration has just 
begun to have conversations with the Russians about how this might 
proceed, so it is very early to know their level of interest and what 
might be possible. Clearly anything we do must be rooted firmly in our 
own national interests and must meet the national security needs of the 
American People.
    If confirmed, I would look forward to working closely with the 
Senate on these issues as they would relate to my responsibilities for 
the bilateral relationship with Russia. I have the utmost respect for 
the Senate's prerogatives and responsibilities with regard to these 
issues.

    Question. What is the administration's assessment of civil freedoms 
and government transparency in Russia? What factors are most 
threatening to the development of independent civil society in Russia? 
How has the environment in which independent civil society operate in 
Russia changed over the last 4 years? Is there more or less space for 
them to operate freely?

    Answer. The administration is concerned about the sharply negative 
trends in democracy and human rights in Russia, particularly the 
shrinking space available for Russian civil society. In the wake of the 
mass public protests that followed parliamentary elections in 2011, the 
Russian Government has adopted a series of measures aimed at 
restricting the workings of civil society and limiting avenues for 
public expressions of dissent. These include laws increasing fines for 
public protests, restricting the funding of nongovernmental 
organizations, recriminalizing libel, expanding the definition of 
treason, and curbing the rights of members of minority groups. A number 
of activists, human rights defenders, and opposition leaders are facing 
charges and prison in what appear to be politically motivated cases, 
while civil society organizations like election monitor Golos face 
steep fines, criminal prosecution, and the suspension of their 
activities under the ``foreign agent'' law.
    The administration continues to believe that political pluralism, 
democratic accountability, and respect for human rights and rule of law 
are the keys to unlocking Russia's enormous potential. We will continue 
in public and private to urge Russia to reverse the negative democratic 
trends. If confirmed as Assistant Secretary of State, I will make it a 
priority to support the work of those Russians that strive to create a 
more free, modern, and democratic country.

    Question. Does the administration have the tools necessary to 
continue to help independent civil society organizations in Russia?

    Answer. As you are aware, at the request of the Russian Government, 
USAID closed its mission as of October 1, 2012. The Russian Government 
has also enacted a series of laws in the last year that restrict 
cooperation between Russian nongovernmental organizations and foreign 
partners. I regret the decision of the Russian Government to end 
USAID's operations and am concerned by its actions against NGOs in 
recent months.
    While these actions have changed how we work with Russian NGOs, the 
administration remains committed to supporting the development of civil 
society in Russia and to fostering links between Russian and American 
civil society. The tools we have include people-to-people ties and 
exchanges, public diplomacy outreach, and the activities of the 
Bilateral Presidential Commission. The administration also raises its 
concerns about restrictions on civil society with Russian officials, 
both publicly and privately. If confirmed, I will keep Congress 
informed of efforts to enhance these links, and I look forward to 
consulting with Congress as we develop new tools to support the 
aspirations of Russian civil society.

    Question. What is the administration's assessment of the 
prosecution in Georgia of officials from the previous government? What 
is the status of the rule of law and due process in Georgia?

    Answer. We are closely following the criminal cases involving 
officials from the previous government in Georgia. Embassy Tbilisi 
personnel observe courtroom proceedings, and meet regularly with 
international monitors from the OSCE's Office for Democratic 
Institutions and Human Rights (ODIHR) and with representatives of both 
the Office of the Chief Prosecutor and the defendants. We continue to 
urge Georgia to conduct prosecutions with full respect for the rule of 
law while avoiding the perception or reality of political retribution. 
The cases are ongoing, and we will continue to watch them closely with 
these criteria in mind.

    Question. Does the administration plan to review U.S. civilian 
assistance programs in Georgia in light of ongoing political 
developments in the country? If so, how?

    Answer. U.S. assistance is an important means for us to achieve our 
foreign policy goals in Georgia, and a significant portion supports 
programs that strengthen the rule of law, civil society, and democratic 
institutions. We regularly monitor and review our foreign assistance 
programs in every country, including Georgia, in order to ensure their 
effectiveness, alignment with our foreign policy goals, and 
responsiveness to changing events on the ground.
    If confirmed, I will keep a close watch on assistance to Georgia to 
ensure it supports that country's democratic development and the rule 
of law.

    Question. What is the administration's position on the popular 
protests that broke out in Turkey in late May and on the Turkish 
Government's response? How is this likely to affect United States-
Turkey relations and the regional picture?

    Answer. We continue to monitor developments in Turkey closely. As 
we have stated repeatedly, as Turkey's friend and NATO ally, we are 
concerned about the excessive use of force by police in several 
instances, endorse calls for a full investigation, and welcome efforts 
to calm the situation through an inclusive political dialogue. The 
United States supports full freedom of expression and assembly, 
including the right to peaceful protest, as fundamental to any 
democracy. If confirmed, I will continue to urge Turkey to strengthen 
its constitutional and legal protections of human and civil rights.

    Question. What practical steps could the administration take to 
work with Turkish authorities in order to meaningfully reduce their 
interference with the Ecumenical Patriarchate in Turkey, including full 
freedom to choose its leadership?

    Answer. The United States supports the Ecumenical Patriarchate's 
right to choose its own Patriarch and its efforts to obtain citizenship 
for Greek Orthodox Metropolitans, as well as gain recognition of the 
Patriarch's ecumenical status from the Turkish Government. We will 
continue to urge the Turkish Government to demonstrate its respect for 
religious freedom by working cooperatively with the Patriarchate to 
resolve these and other matters of importance to Orthodox Christians 
and other religious minorities in Turkey.

    Question. Secretary Kerry expressed an interest in helping resolve 
the Cyprus problem. What are some of the ways the Secretary can do so 
in practical terms?

    Answer. The U.S. Government is not a participant in the 
negotiations, but we have offered to provide any help that both sides 
would find useful. We will support the settlement process under U.N. 
auspices, which aims at achieving a bizonal, bicommunal federation, 
with political equality as stipulated in past United Nations Security 
Council Resolutions. As a friend to the people of Cyprus, we will 
continue to urge the leaders of both communities to engage 
constructively in the settlement process as the best way to reach an 
agreement. We will also use our relationship with Turkey and with 
Greece to encourage reconciliation and reunification.
    If confirmed, I will work with Secretary Kerry to look for 
opportunities to support the reunification talks through his personal 
diplomacy and travel.

    Question. It is troubling to hear Iranian officials' aggressive 
rhetoric on Azerbaijan, including discussions at the Iranian Parliament 
questioning Azerbaijan's territorial integrity. How is the 
administration working with our Azeri partners to counter Iran's 
growing threats to the region?

    Answer. The United States and Azerbaijan have clear, shared 
interests in building regional security, diversifying energy supplies, 
pursuing democratic and economic reforms, combating terrorism, and 
stemming the flow of illegal narcotics and weapons of mass destruction. 
The Government of Azerbaijan has played an important role in enforcing 
international sanctions against Iran.
    U.S. and Azerbaijani security cooperation is focused on a number of 
relevant issues including: Caspian maritime domain awareness, border 
security, combating illegal trafficking, and NATO interoperability. We 
convene the U.S.-Azerbaijan Security Dialogue each year to review 
progress, raise important bilateral issues, and pursue additional areas 
of cooperation. We also work with Azerbaijan on counterterrorism, and 
continue to support Azerbaijan's independence by cooperating closely 
with Azerbaijan to diversify energy routes and resources for European 
markets.
                                 ______
                                 

          Responses of Douglas E. Lute to Questions Submitted 
                         by Senator Marco Rubio

    Question. Given your role in overseeing Afghanistan policy at the 
White House since 2007, what is your view about the appropriate role 
for NATO in Afghanistan after 2014?

    Answer. At the end of 2014, the Afghan forces will be fully 
responsible for security across the country, having already assumed the 
lead for security countrywide with the June 18 announcement of the 
``Mid-2013 Milestone.'' As agreed at the Chicago summit, the new NATO 
mission after 2014 will train, advise, and assist the Afghan forces. It 
will be a narrowly focused, noncombat mission, significantly smaller 
than the current International Security Assistance Force (ISAF) 
mission. NATO's ongoing planning calls for a ``limited regional 
approach'' to cover the army corps and police regions, and also focuses 
on national institutions, including the security ministries and main 
training facilities.

    Question. I'm concerned about reports that the President may decide 
to not leave any U.S. forces in Afghanistan after 2014. What are your 
thoughts on the appropriate post-2014 U.S. presence?

    Answer. The President is still reviewing a range of options from 
his national security team with respect to troop numbers and has not 
made a decision about the size of a U.S. military presence after 2014. 
The President has made clear that--based on an invitation from the 
Afghan Government--the United States is prepared to contribute to 
NATO's train-advise-assist mission and also sustain a U.S. 
counterterrorism capability. A number of factors will define the U.S. 
contribution beyond 2014, including progress in our core goal to defeat 
al-Qaeda, progress with the Afghan National Security Forces (ANSF), the 
Afghan political transition, the potential for Afghan-led peace talks, 
regional dynamics, and completion of a U.S.-Afghan Bilateral Security 
Agreement (BSA) and a NATO-Afghan Status of Forces Agreement (SOFA). 
We've made significant progress on the text of a BSA, which is required 
for us to retain U.S. troops in Afghanistan.

    Question. I've also been troubled by the administration's recent 
decision to apparently drop several key conditions before agreeing to 
talk to the Taliban. What role did you play in the formulation of U.S. 
policy on this issue and what is your assessment of the likelihood that 
such talks will further our goal of a stable democratic Afghanistan 
that respects the rights of women and minorities?

    Answer. As we have long said, and as President Obama and President 
Karzai reaffirmed together in January, as a part of the outcome of any 
negotiations, the Taliban and other armed opposition groups must break 
ties with al-Qaeda, end the violence, and accept Afghanistan's 
Constitution including its protections for women and minorities. There 
is no purely military solution to the Afghan conflict. The surest way 
to a stable, unified Afghanistan is for Afghans to talk to Afghans. We 
have called on the Taliban to come to the table to talk to the Afghan 
Government about peace and reconciliation. Our goal remains for Afghans 
to be talking to Afghans about how they can end the violence, move 
forward, and rebuild their country, while protecting the progress made 
over the past decade.

    Question. What are your views on Russia's behavior in Europe and 
what measures NATO can take to reassure our allies in Central and 
Eastern Europe, particularly the Baltic countries, about our commitment 
to their security?

    Answer. The United States has made clear publicly that Europe--
including Russia--remains a key partner in meeting 21st century 
security challenges throughout the world. NATO and Russia disagree on a 
number of important issues--Georgia, Syria, and missile defense are 
among them--but we also have some areas of common concern, like 
Afghanistan.
    The United States is committed to strengthening the NATO alliance, 
with the cornerstone of NATO being the mutual defense commitment in 
article 5 of the Washington Treaty. We have political consultations 
with all of our NATO allies at every level, including ministers, on the 
full range of security issues. Allies also raise concerns about Russian 
policy directly with Russia in the NATO-Russia Council, where the 
United States continues to urge frank political dialogue, including on 
areas where NATO and Russia disagree.
    The United States is fully capable of and determined to fulfill its 
article 5 commitments, and will remain so even after our ongoing force 
posture changes in Europe are implemented. With respect to the Baltics, 
one example of our commitment to their security is that we have 
committed to extending NATO's Baltic Air Policing mission and are 
working with the Baltic States on their contributions to sustaining 
this initiative through host nation support. This mission exemplifies 
the spirit of Smart Defense, which will become increasingly important 
as we reconcile NATO's security requirements with budget realities.
                                 ______
                                 

          Responses of Victoria Nuland to Questions Submitted 
                        by Senator John Barrasso

                           russian adoptions
    Question. On December 28, 2012, Russian President Vladmir Putin 
signed into law a bill ending the intercountry adoptions between the 
United States and Russia. The law prevents U.S. citizens from legally 
adopting Russian children. The Russian law went into effect on January 
1, 2013.
    On January 1, 2013, the United States Senate unanimously passed 
Senate Resolution 628, which voiced disapproval of the Russian law. It 
also urges Russia to reconsider the law and prioritize the processing 
of intercountry adoptions involving parentless Russian children who 
were already matched with United States families before the enactment 
of the law.
    There are numerous families across this Nation who are already in 
the process of adopting children from Russia, including a family in 
Sheridan, WY. According to the Department of State, there are currently 
between 500 and 1,000 U.S. families in various stages of the adoption 
process.

  <bullet> Since January 1, 2013, what specific efforts have the U.S. 
        Department of State made on allowing those American families to 
        finalize their pending adoption of Russian children?

    Answer. The United States deeply regrets Russia's decision to ban 
the adoption of Russian children by U.S. citizens, restrict Russian 
civil society organizations working with U.S. partners, and to 
terminate the U.S.-Russia Adoption Agreement. The Department has 
repeatedly engaged with Russian officials at all levels and urged them 
to permit all adoptions initiated prior to the law's enactment to move 
forward on humanitarian grounds.
    Despite the Department's continued efforts, Russian officials 
reiterated in our April 17 and June 25 U.S.-Russia adoption discussions 
that they will only permit those cases where an adoption ruling was 
issued before January 1, 2013, to be completed.
    The Department continues monthly meetings with the Russian Embassy 
to provide information regarding the U.S. child welfare system and to 
discuss intercountry adoption matters. The Department also continues to 
correspond with families that have reached out to the Department on 
broad and case-specific issues and to hold conference calls for 
families.

  <bullet> If confirmed, what specific actions do you plan on taking to 
        help those families already in the process of adopting children 
        from Russia to be able to complete the adoption process?

    Answer. The Department has repeatedly engaged with Russian 
officials at all levels and urged them to permit all adoptions 
initiated prior to the law's enactment to move forward on humanitarian 
grounds.
    Despite the Department's continued efforts, Russian officials 
reiterated in our April 17 and June 25 U.S.-Russia adoption discussions 
that only those cases where an adoption ruling was issued before 
January 1, 2013, may be completed.
    If confirmed, I will continue to raise this issue with Russian 
officials at all levels and encourage intercountry adoption as an 
important child welfare measure. While Russia has the sovereign right 
to ban the adoption of its citizens, if confirmed, I will continue to 
underscore that this ban hurts the most vulnerable members of Russian 
society. I will also continue to highlight the dedication of U.S. 
families to these children.

  <bullet> Will you commit to addressing this problem directly to the 
        Russian Government?

    Answer. The Department has repeatedly engaged with Russian 
officials at all levels and urged them to permit all adoptions 
initiated prior to the law's enactment to move forward on humanitarian 
grounds. In this effort, the Department continues monthly meetings with 
the Russian Embassy to provide information regarding the U.S. child 
welfare system and to discuss intercountry adoption matters.
    If confirmed, I will continue to raise this issue with Russian 
officials at all levels and encourage intercountry adoption as an 
important child welfare measure. While Russia has the sovereign right 
to ban the adoption of its citizens, if confirmed, I will continue to 
underscore that this ban hurts the most vulnerable members of Russian 
society. I will also continue to highlight the dedication of U.S. 
families to these children.

  <bullet> Will you ensure that the U.S. Department of State works with 
        impacted U.S. families to provide them with updates and 
        information regarding their individual cases?

    Answer. The Department continues to correspond with families that 
have reached out to the Department on both broad and case-specific 
issues, and to hold conference calls for families. The Department 
values the input of all families and has met with a number of 
prospective adoptive parents to further discuss this matter. If 
confirmed, I will continue to make it a priority for the State 
Department to continue working with all U.S. families impacted by this 
ban and to keep them fully informed.
                       russia's support of syria
    Question. It appears the administration's policy is to basically 
continue to ask Russia to use its leverage to help stop the violence in 
Syria. It is clear Russia has no such interest in doing that.
    The Washington Post reported at the beginning of June that 
``sophisticated technology from Russia . . . has given Syrian 
Government troops new advantages in tracking and destroying their foes, 
helping them solidify battlefield gains against rebels.'' The same 
article went on to quote a Middle Eastern intelligence official as 
saying ``we're seeing a turning point in the past couple of months, and 
it has a lot to do with the quality and type of weapons and other 
systems coming from . . . Russia.''
    It is clear Russia's continued support for Syrian President Assad 
is one of the main reasons close to 100,000 have been slaughtered in 
the current conflict. Russia has vetoed every resolution to come before 
the United Nations Security Council on the matter, and has also voted 
against a nonbinding General Assembly Resolution. The absurdity of 
thinking Russia is going to cooperate with us on Syria is self-evident.

  <bullet> Can you help me understand why the administration thinks 
        Russia has any interest at all in helping in Syria?

    Answer. Russia's continued support to the Assad regime--military 
and otherwise--only serves to prolong the suffering of the Syrian 
people. Since the Syrian uprising began, the State Department and the 
administration have been extremely vigorous, both publicly and 
privately, in exposing and demanding a halt to Russia's support to the 
regime and its vetoes of three Security Council resolutions. The 
administration opposes any arms transfers to the Syrian regime and has 
repeatedly and consistently urged Russia to cease arms transfers and 
sales to the Assad regime.
    In our Syria discussions with Russia, we continue to make the case 
that Moscow's current course of action is exacerbating the very 
regional instability that Russia has asserted is a danger to its 
interests. We have urged Russia stop all support for the regime and 
instead use its influence to bring the regime to the negotiating table 
to find a political solution that expresses the sovereign will of all 
Syrians. If confirmed, I will place a high priority on our efforts to 
change Russia's current calculation and seek more cooperation to end 
the suffering in Syria.

  <bullet> What kind of cooperation is the administration currently 
        seeking from Russia on the situation in Syria?

    Answer. The administration continues to urge Russia to end all 
support for the Assad regime, especially military support, and to use 
its influence to help get the parties to the negotiating table to 
discuss a political transition, along the line agreed in the Geneva 
Communique.

  <bullet> What steps are being taken to end Russia's support for the 
        Assad regime and the Russian Federation's complicity in the 
        crimes against humanity being committed inside Syria?

    Answer. The United States opposes any arms transfers to the Syrian 
regime, which has used helicopters, fighter jets, and ballistic 
missiles to attack civilians. The administration has repeatedly and 
consistently urged Russia to cease arms sales to the Assad regime. 
Providing the regime with additional weapons inhibits reaching a 
negotiated political solution to the conflict and contradicts Russia's 
stated policy of seeking an end to violence.
    The United States, European partners, and Syria's neighbors have 
been consistent and unequivocal in conveying to Russia that supporting 
the Assad regime with arms and access to Russian banks is not in 
Russia's long-term interest and is damaging to the region and to 
Russia's global credibility.

    Question. Russia is essentially a serial violator of arms control 
treaties. When President Obama completed New START there were a number 
of issues outstanding on the original START. The State Department is 
unable to verify Russian compliance with the Biological Weapons 
Convention or the Chemical Weapons Convention, while it affirmatively 
finds Russian noncompliance with the Conventional Forces in Europe 
Treaty and the Treaty on the Open Skies.
    In his April 2009 speech in Prague promising to rid the world of 
nuclear weapons, President Obama proclaimed ``rules must be binding. 
Violations must be punished. Words must mean something.''
    When Russia violates arms control agreements while the United 
States adheres to them, Russia gains a military advantage that puts 
U.S. national security at risk. For example, the former Commander of 
U.S. Strategic Command, General Chilton, predicated his support for 
U.S. nuclear levels and New START on the assumption ``that the Russians 
in the post-negotiation time period would be compliant with the 
treaty.''

  <bullet> Do you agree with the position that for the arms control 
        process to have any meaning, parties must adhere to the treaty 
        commitments they have made?

    Answer. Yes, parties must adhere to their treaty commitments. The 
administration reports regularly to the Congress on arms control 
compliance matters through the annual report on ``Adherence to and 
Compliance with Arms Control, Nonproliferation and Related Agreements 
and Commitments.'' The Compliance Report for 2012 was transmitted to 
the Hill on July 9.
    Regarding compliance matters in general, the administration takes 
very seriously the importance of compliance with arms control treaties 
and agreements. When compliance questions arise, the administration 
raises them frankly with our treaty partners and seeks to resolve them, 
and the administration will continue to do so.
    If confirmed, I will approach issues of noncompliance with arms 
control treaties and agreements with the utmost seriousness. I look 
forward to working on these issues closely with colleagues in the 
administration as they relate to my responsibilities for the bilateral 
relationship with Russia.

  <bullet> Do you agree with the position of President Obama that 
        violations of arms control obligations must be punished?

    Answer. As President Obama said in Prague, violations must be 
punished. Regarding compliance matters in general, the administration 
takes very seriously the importance of compliance with arms control 
treaties and agreements. When compliance questions arise, the 
administration routinely seeks to resolve them with treaty partners, 
and the administration will continue to do so.
    If confirmed, I will approach issues of noncompliance with arms 
control treaties and agreements with the utmost seriousness. I look 
forward to working on these issues closely with colleagues in the 
administration as they relate to my responsibilities for the bilateral 
relationship with Russia.

  <bullet> How has the administration punished Russia for its 
        noncompliance?

    Answer. As you know, the Department reports regularly to the 
Congress on arms control compliance matters through the annual report 
on ``Adherence to and Compliance with Arms Control, Nonproliferation 
and Related Agreements and Commitments.'' The Compliance Report for 
2012 was transmitted to the Hill on July 9. The Compliance Report lists 
several instances of concerns with Russian compliance. It also makes 
clear steps the United States has taken to address those concerns. With 
regard to the Conventional Forces in Europe (CFE) Treaty, for example, 
in 2011 the United States announced that as a legal countermeasure in 
response to Russia's 2007 ``suspension'' of CFE implementation, we 
would cease implementing certain treaty provisions vis-a-vis Russia. 
All our NATO allies and two other treaty parties took a similar step.
    The Department discusses compliance concerns with Russia in 
bilateral channels as well as in appropriate multilateral fora, and the 
Department will continue to discuss these issues and press for full 
compliance with and implementation of treaty obligations. The 
Department also keeps Congress informed of such matters, both through 
the compliance report and through interagency briefings with relevant 
congressional committees.
    If confirmed, I will approach issues of noncompliance with arms 
control treaties and agreements with the utmost seriousness. I look 
forward to working on these issues closely with colleagues in the 
administration as they relate to my responsibilities for the bilateral 
relationship with Russia.

  <bullet> Can you explain why the United States would enter into 
        negotiations for future arms control treaties when there is 
        evidence of a major arms control violations that remain 
        unresolved with Russia?

    Answer. The United States enters into and remains in arms control 
agreements that are in our national security interest. Russia is in 
compliance with the New START Treaty, which includes the right to 
conduct inspections of Russian strategic forces--an opportunity that 
the administration would not have without the New START Treaty.
    Last month the President said in Berlin that he intends to seek 
further negotiated reductions with Russia. The administration has just 
begun to have conversations with the Russians about how this might 
proceed, so it is very early days to know their level of interest and 
what might be possible. Clearly anything we do must be rooted firmly in 
our own national interests and must meet the national security needs of 
the American people.
    If confirmed, I would look forward to working closely with the 
Senate on these issues as they would relate to my responsibilities for 
the bilateral relationship with Russia.

    Question. Presidential candidate Obama promised robust consultation 
with allies in developing the foreign policy of the United States. 
Specifically, for example, at the Munich Security Conference in 2009, 
Vice President Biden said we would develop missile defenses in Europe 
``in consultation with you, our NATO allies.''
    The facts are, unfortunately, quite different, as ``consult'' has 
really turned out to mean ``inform.'' When President Obama in 2009, in 
a gift to the Russians, cancelled plans to deploy certain missile 
defense systems in Europe, the New York Times reported the Czech 
Republic was informed of this decision by ``a hasty phone call after 
midnight from Mr. Obama to the Czech Prime Minister.''
    This is particularly ironic, given that Senator Obama said on the 
floor on July 17, 2007: ``The Bush administration has also done a poor 
job of consulting its NATO allies about the deployment of a missile 
defense system.''

  <bullet> Do you pledge to consult with our allies in NATO and across 
        Europe in developing U.S. foreign policy initiatives of 
        consequence to them, especially U.S. arms control and missile 
        defense plans?

    Answer. Yes. As U.S. Ambassador to NATO from 2005 to 2008, it was 
my honor and privilege to maintain the closest possible consultations 
with our allies on all issues of shared concern, notably including 
missile defense. If confirmed, I look forward to resuming these 
relationships.
    The administration regularly consults with allies on both arms 
control and missile defense. The United States works closely with our 
NATO allies regarding our commitment to further nuclear reductions and 
to maintain a safe, secure, and effective nuclear deterrent. During his 
recent speech in Berlin the President also reaffirmed the U.S. 
commitment to continued consultations with allies on future nuclear 
reductions. Similarly, the administration works closely with NATO 
allies and others on missile defense, regularly updating them and 
exchanging views on missile defense plans.

  <bullet> Do you promise to share with [allies in NATO and across 
        Europe] information we learn about Russia bearing on the 
        security of our allies?

    Answer. Yes. If confirmed, I look forward to maintaining the 
closest possible security consultations with our allies, and sharing 
relevant information, including with regard to Russia.
                                 ______
                                 

          Responses of Douglas E. Lute to Questions Submitted 
                        by Senator John Barrasso

    Presidential candidate Obama promised robust consultation with 
allies in developing the foreign policy of the United States. 
Specifically, for example, at the Munich Security Conference in 2009, 
Vice President Biden said we would develop missile defenses in Europe 
``in consultation with you, our NATO allies.''
    The facts are, unfortunately, quite different, as ``consult'' has 
really turned out to mean ``inform.'' When President Obama in 2009, in 
a gift to the Russians, canceled plans to deploy certain missile 
defense systems in Europe, the New York Times reported the Czech 
Republic was informed of this decision by ``a hasty phone call after 
midnight from Mr. Obama to the Czech Prime Minister.''
    This is particularly ironic, given that Senator Obama said on the 
floor on July 17, 2007: ``The Bush administration has also done a poor 
job of consulting its NATO allies about the deployment of a missile 
defense system.''

    Question. Do you pledge to consult with our allies in NATO and 
across Europe in developing U.S. foreign policy initiatives of 
consequence to them, especially U.S. arms control and missile defense 
plans?

    Answer. Yes. If confirmed, I pledge to continue the close 
discussions we have had with our NATO allies on the full range of 
security issues, including missile defense and arms control, as we seek 
to further deepen our ties with Europe. In my military career, from 
Europe and Kosovo to overseeing operations in Iraq and Afghanistan, I 
appreciate the value and importance of consulting with our allies. As 
Assistant Secretary-designate Nuland has also noted, the policy of this 
administration is that the United States works closely with our NATO 
allies regarding our commitment to further nuclear reductions and to 
maintain a safe, secure, and effective nuclear deterrent. During his 
recent speech in Berlin the President also reaffirmed the U.S. 
commitment to continued consultations with allies on future nuclear 
reductions. The United States is also firmly committed to engaging 
allies regularly regarding bilateral consultations with Russia on 
missile defense and soliciting their views.

    Question. Do you promise to share with [allies in NATO and across 
Europe] information we learn about Russia bearing on the security of 
our allies?

    Answer. Yes. If confirmed as United States Ambassador to NATO, I 
look forward to maintaining the closest possible security consultations 
with our allies, and sharing relevant information, including with 
regard to Russia. We regularly consult with NATO allies on the full 
range of security issues, including those related to Russia, at every 
level. All allies share information bearing on our common security 
concerns. In addition to discussions within NATO, which inform our 
approach to issues including arms control and missile defense, we have 
also briefed allies on our bilateral conversations with Russia, as 
appropriate. NATO allies also raise questions and concerns about 
Russian policy directly with Russia in the NATO-Russia Council, where 
the United States continues to urge frank political dialogue, including 
on areas where NATO and Russia disagree.


                      NOMINATION OF SAMANTHA POWER

                              ----------                              


                        WEDNESDAY. JULY 17, 2013

                              ----------                              

Samantha Power, of Massachusetts, to be the Representative of 
        the United States of America to the United Nations, the 
        Representative of the United States of America in the 
        Security Council of the United Nations, and to be 
        Representative of the United States of America to the 
        Sessions of the General Assembly of the United Nations
                              ----------                              

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Udall, Murphy, 
Kaine, Corker, Risch, Rubio, Johnson, Flake, McCain, Barrasso, 
and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    Good morning, Ms. Power. Welcome to the Senate Foreign 
Relations Committee.
    Your nomination as Ambassador to the United Nations has 
come with much fanfare and with some criticism which, at the 
end of the day, means you must be doing something right. But 
without fanfare or criticism, I do not believe anyone can 
question your credentials. Nor can anyone question your 
service.
    And certainly no one can question your willingness to speak 
your mind, often forcefully, always passionately, and usually 
without hesitation, and I commend you for your willingness to 
speak out, particularly on human rights issues around the 
world, whether as a war correspondent in Bosnia, in the former 
Yugoslavia, in Rwanda and Sudan where, as you said in your 
Pulitzer Prize winning book on genocide, you witnessed ``evil 
at its worst.''
    You have been an unrelenting, principled voice when it 
comes to human rights and crimes against humanity, and I know 
that voice will be heard around the world, should you be 
confirmed.
    Personally, I am incredibly appreciative of the principled 
position you have taken, on many of these issues, but 
particularly on the Armenian genocide. In 2007, you wrote in 
Time Magazine, ``a stable, fruitful 21st century 
relationship,'' in referring to Turkey, ``cannot be built on a 
lie.'' And I completely agree.
    Your belief that we should use the lessons of what clearly 
was an atrocity of historic proportions to prevent future 
crimes against humanity is a view consistent with my own and 
many others on this committee and which is supported by your 
role on the President's Atrocities Prevention Board.
    I agree that we must acknowledge and study the past, 
understand how and why atrocities happen, to put into practice 
and give meaning to the phrase ``never again.''
    As the son of immigrants from Cuba, one whose family and 
friends bore witness to, suffered, and continue to suffer under 
the Castro regime's oppression, I personally appreciate your 
commitment to exposing the Castro dictatorship's total 
disregard for human and civil rights and for not idealizing the 
harsh realities of communism in Cuba. I know from the 
conversation we had in my office that you appreciate the 
suffering of the Cuban people, the torture, abuse, detention, 
and abridgment of the civil and human rights of those who voice 
their dissent.
    I also welcomed your commitment to reach out to Rosa Maria 
Paya, a daughter of the longtime dissident and Cuban activist, 
Oswaldo Paya, who died under mysterious circumstances last year 
in Cuba. Ms. Paya is in Washington this week accepting a 
posthumous award from the National Endowment for Democracy on 
behalf of another young activist from Cuba who died alongside 
Oswaldo Paya, making your commitment to reach out to her that 
much more timely.
    And yesterday's news of the discovery of illegal arms 
shipments from Cuba to North Korea reinforces in my view the 
necessity of the United States keeping Cuba on the list of 
countries who are the sponsors of terrorism.
    I share your view that we should not lose sight of these 
moral issues even as we are addressing the pressing economic 
and security issues that confront our Nation.
    It is fitting that you will be at the United Nations, which 
was created after a period of atrocity and conflict with the 
goal of bringing nations together to achieve peace and 
stability.
    In the words of the U.N. preamble that was created, quote, 
``to reaffirm faith in fundamental human rights, in the dignity 
and worth of the human person, in the equal rights of men and 
women of nations large and small.''
    If confirmed, your focus on the United Nations will, no 
doubt, be on the crisis du jour, the Middle East, Syria, Iran, 
North Korea, Afghanistan, Pakistan, increasingly North Africa, 
and the nature of nations that emerge from the Arab Spring. But 
I would encourage you to also keep your focus and task your 
staff to not forget what is happening off the front page as 
well as on it: What may be happening on freedom of expression 
in Latin America; fighting HIV/AIDS, malaria, and polio in 
Africa; on the status of talks to resolve the 66-year-long 
question of Cyprus; on women's rights in Pakistan; labor rights 
in Bangladesh; and human rights in Sri Lanka.
    The United Nations, for all its faults, has a great ability 
to serve as an arbitrator and neutral fact-finder and overseer 
of peace. I urge you to harness its strengths in the interests 
of our Nation and not coincidentally in the interest of 
fulfilling the stated purpose of the United Nations, which is 
to unite our strength to maintain international peace and 
security.
    We will address these issues, among many others, in our 
questioning, but let me take this opportunity again to welcome 
you to the committee and to say that we look forward to a full 
and frank dialogue on the issues you will face, should you be 
confirmed.
    Let me also say for the record if there are additional 
questions for the record of this nominee, they should be 
submitted by 5 p.m. today.
    With that, let me turn to the distinguished ranking member 
of the committee, Senator Corker, for his opening statement.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you for having this 
hearing.
    And I want to welcome the nominee. We had a very good 
meeting.
    I will be brief.
    I know you are going to be received very well here in spite 
of the two introducers that you have beside you.
    But I do appreciate the time and the candor in our office. 
I want to thank you for being willing to serve in this way, and 
I think you know our Ambassador to the United Nations is one of 
the most important diplomatic posts that we have. You have 
daily contact with leaders from all around the world and, 
therefore, are maybe out there amongst people around the world 
more than anybody else, and it can be a critical component of 
our diplomatic efforts.
    We are the largest contributor to the United Nations. I 
think you know that. And I hope that one of the things you are 
going to pursue--I know you are very policy-oriented, and I 
appreciate that, but I hope you are also going to pursue 
reforms at the United Nations to cause it to function in a much 
better way for not only U.S. taxpayers but for the world. All 
too often--I think you know this--the United Nations acts as a 
place where bad actors deflect criticism. And I hope that you 
will--I think you will actually--but I hope you will follow the 
footsteps of predecessors like Daniel Patrick Moynihan and 
Jeane Kilpatrick who basically got out there and championed our 
national interests at the United Nations even when it was 
unpopular.
    So, again, I thank you for coming before us today. I look 
forward to your service. I know there will be a number of 
questions today that I know you will answer well. And, again, 
thank you for your willingness to serve.
    Mr. Chairman, I look forward to hearing from our extra-
distinguished guests today that I know are looking at their 
watch wanting to go to the next hearing, even though they are 
glad to be here I know.
    The Chairman. Thank you, Senator Corker.
    We are pleased to have our distinguished colleagues from 
Georgia with us to introduce Ms. Power to the committee. So I 
will first recognize the senior member from Georgia, Senator 
Chambliss, followed then by Senator Isakson.

              STATEMENT OF HON. SAXBY CHAMBLISS, 
                   U.S. SENATOR FROM GEORGIA

    Senator Chambliss. Well, thank you very much, Chairman 
Menendez and Senator Corker, for allowing Johnny and me to come 
today to introduce Samantha Power to the Foreign Relations 
Committee.
    Samantha is already well known by this committee, but 
suffice it to say she is an Irish-born American who 
matriculated to Atlanta to become educated in high school to 
prepare herself not just for this job but to go to Yale and go 
to Harvard Law School. Pretty good credentials coming out of 
Lakeside High School in Atlanta.
    She has a passion for human rights, as you stated, Mr. 
Chairman, and she takes her passion very seriously. She is a 
prolific writer who believes in what she is writing about to 
the extent that she gets into the fray as she did in Yugoslavia 
by dodging bullets to report on the war in Yugoslavia.
    She is a Pulitzer Prize winning author.
    She has extensive foreign policy experience as a staffer, 
as well as a member of the President's national security team.
    You know, the job that she has been nominated by the 
President to assume is a very difficult job. It is one that 
requires charisma and at the same time toughness. Now, I am 
told by her friends that Samantha can be kind and gentle, but 
she is one more smart, tough lady who can express herself in 
very strong terms when she needs to. And she is going to need 
that ability.
    I look forward to seeing her as an adversary to some of the 
tougher leaders around the world that she will be dealing with 
at the United Nations because I am confident that the same 
passion she has for human rights she has for this country, and 
she will express that passion in no uncertain terms.
    She is going to be a great representative of the United 
States as Ambassador to the United Nations. I commend her to 
you highly, and I look forward to seeing her confirmed in short 
order.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Chairman Menendez, Senator 
Corker. It is an honor to be here to introduce a woman with 
Georgia roots.
    At the age of 9, Samantha's parents brought her from 
Ireland to the United States and she ended up at Lakeside High 
School in DeKalb County, Georgia, where she graduated.
    I did some research to find out what others said about her 
when she was in Georgia, and a good friend of mine, Jeff 
Hullinger, who is the sports director for WSB in Atlanta, had 
her as one of his interns in 1989. And I want to quote directly 
from what he said about Samantha. He said ``she seemed to be a 
fish out of water in the sports department. Oh, my God, was she 
bright, acerbic, lightning-witted, and the depth of the Mariana 
Trench.'' So I do not know if you have got a better 
introduction or a better compliment than that, but Jeff said 
she is one of the brightest people that he has ever known.
    I appreciate her asking me to introduce her today, and I 
will just share a few thoughts additional to those Senator 
Chambliss said.
    As you know, I have traveled to Sudan. I have traveled to 
Rwanda. I have been to some of the places Samantha has written 
about and been an activist about. In fact, in her book about 
Rwanda, ``A Problem from Hell,'' which was a great book, she 
wrote that she could not believe that during the 3 months of 
the slaughter of over a million Rwandans, there was not even a 
high-level meeting at the White House. That, I am sure, was 
part of the motivation for her to create the Atrocities 
Prevention Board in the White House and for her to be a part of 
it.
    Rich Williamson, who was the Special Envoy for President 
Bush to the Sudan, who I met with in Darfur--Senator Corker 
traveled with me to Darfur--gives her high marks.
    My dear friend, Senator Bob Dole, sent me an e-mail after 
her nomination and said this is one woman who is most 
appropriate for the position to which she has been nominated.
    Last, I am the Republican designee from the United States 
Senate to the United Nations for this session of Congress. 
Senator Leahy is the Democrat. I have traveled to the U.N. 
Security Council and watched the challenges that Senator Corker 
referred to in dealing with those 13 members. I have no 
reservation or doubt whatsoever that Samantha Power will be 
just what her name implies, a powerful representative of the 
United States of America in a very powerful body, the Security 
Council of the United Nations.
    It is a pleasure and a privilege for me to introduce her 
and I wish her the best of luck in her confirmation.
    The Chairman. Well, we thank both of our colleagues for 
coming and joining our work.
    We welcome Senator Isakson back to the committee. Senator 
Isakson was a distinguished member of the committee. We miss 
him on the committee, and we hope that in some point he will 
return in the future.
    And I know you have busy schedules. So when you feel it 
appropriate, please feel free to leave as you need to.
    With that great set of introductions, Ms. Power, you are 
welcome to start your testimony. If you have family or friends 
here, please feel free to introduce them. We understand this is 
a commitment not only of yourself but family, and we appreciate 
that.
    Your full statement will be entered into the record, 
without objection. And the floor is yours.

   STATEMENT OF SAMANTHA POWER, OF MASSACHUSETTS, TO BE THE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE UNITED 
NATIONS, THE REPRESENTATIVE OF THE UNITED STATES OF AMERICA IN 
     THE SECURITY COUNCIL OF THE UNITED NATIONS, AND TO BE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE SESSIONS 
         OF THE GENERAL ASSEMBLY OF THE UNITED NATIONS

    Ms. Power. Thank you, sir, and thank you, Ranking Member 
Corker and distinguished members of this committee.
    It is a great honor to appear before you as President 
Obama's nominee to serve as the U.S. Permanent Representative 
to the United Nations. Representing the United States would be 
the privilege of a lifetime. I am grateful to the President for 
placing his trust in me.
    I would like to thank my friends and my remarkable family. 
My parents, who brought me here from Ireland, Vera Delaney and 
Edmund Bourke; my husband Cass Sunstein; and our children, 4-
year-old Declan and 1-year-old Rian, who has already proven 
less interested in this hearing than others here today. 
[Laughter.]
    I would also like to thank Senator Chambliss and Senator 
Isakson for their generous, remarkable introductions. Growing 
up as an Irish immigrant in Atlanta, GA, I cannot say that the 
United Nations was a popular topic with my classmates at 
Lakeside High School. But it was in Georgia, while working at 
the same local television station, that I witnessed footage of 
the massacre in Tiananmen Square and resolved then that I would 
do what I could for the rest of my life to stand up for 
American values and to stand up for freedom. My Georgia friends 
supported me every step of the way, and I am so proud now to 
count these two great public servants, Senator Isakson and 
Senator Chambliss, among them.
    When I first came to this country, I viewed the United 
Nations as a place where people assembled to resolve their 
differences. It was the stage, as Senator Corker said, on which 
iconic Americans like Daniel Patrick Moynihan and Jeane 
Kirkpatrick stood up for what was right.
    Unfortunately, when I traveled to the Balkans in 1993, I 
saw a different side to the United Nations. U.N. peacekeepers 
had been sent to protect civilians, but in the town of 
Srebrenica, more than 8,000 Muslim men and boys were executed 
in cold blood as the peacekeepers stood idly by.
    The United Nations is, of course, multifaceted and its 
record mixed. It was with the support of the United Nations 
that I traveled in 2004 to Darfur where I discovered a mass 
grave and many charred villages, hallmarks of the genocide 
being carried out by the Sudanese Government. Today it is the 
World Health Organization that is helping to provide polio 
vaccinations, even as terrorists wage an assassination campaign 
against doctors.
    And last Friday, it was the United Nations that provided a 
stage for Malala, the brave, young Pakistani girl who was shot 
last year by the Taliban on her way home from school. Together, 
she and the United Nations will inspire millions to stand up 
for girls' education.
    Yet alongside all of this within the United Nations, an 
organization built in part to apply the lessons of the 
Holocaust, we also see unacceptable attacks against the State 
of Israel. We see the absurdity of Iran chairing the U.N. 
Conference on Disarmament. We see the failure of the U.N. 
Security Council to respond to the slaughter in Syria, a 
disgrace that history will judge harshly.
    What is also clear, 68 years after the United Nations was 
founded in San Francisco, is that an effective United Nations 
depends on effective American leadership. The war in Bosnia did 
not end because the United Nations acted. It ended because 
President Clinton, backed by a bipartisan coalition in 
Congress, including Senator McCain, took robust action. It is 
now possible to imagine an AIDS-free generation in Africa not 
merely because of the essential work of UNAIDS, but because 
President George W. Bush decided to provide lifesaving drugs on 
a massive scale.
    I believe that America cannot--indeed, I know that America 
should not--police every crisis or shelter every refugee. While 
our good will knows no bounds, our resources are, of course, 
finite, strained by pressing needs at home, and we are not the 
world's policeman. We must make choices based on the best 
interests of the American people, and other countries must 
share the costs and burdens of addressing global problems.
    There are challenges that cross borders that the United 
States alone cannot meet. There are cases, as with sanctions 
against Iran and North Korea, where U.S. efforts pack far more 
punch when we are joined by others. There are occasions, as in 
Mali today, when the United Nations has to step up to prevent 
state failure which abets terrorism.
    An effective United Nations is critical to a range of U.S. 
interests.
    Let me highlight quickly three key priorities that I would 
take up, if confirmed by the Senate.
    First, the United Nations must be fair. The United States 
has no greater friend in the world than the State of Israel. We 
share security interests. We share core values, and we have a 
special relationship with Israel. And yet, the General Assembly 
and Human Rights Council continue to pass one-sided resolutions 
condemning Israel. Israel, not Iran, not Sudan, not North 
Korea, is the one country with a fixed place on the Human 
Rights Council's agenda. Israel's legitimacy should be beyond 
dispute and its security must be beyond doubt. And just as I 
have done as President Obama's U.N. advisor at the White House, 
I will stand up for Israel and work tirelessly to defend it.
    Second, the United Nations must become more efficient and 
effective. In these difficult budget times, when the American 
people are cutting back, the United Nations must do the same. 
This means eliminating waste, strengthening whistleblower 
protections, ending any tolerance for corruption, and getting 
other countries to pay their fair share. It means closing down 
those missions and programs that no longer make sense. The 
United States has the right and the duty to insist on reform, 
and if confirmed, I will aggressively pursue this cause.
    Third, the United Nations must stand up for human rights 
and human dignity, which are American values and universal 
values. Today, the Universal Declaration of Human Rights is 
widely hailed and yet only selectively heeded.
    Taking up the cause of freedom is not just the right thing 
to do, it is, of course, the smart thing to do. Countries that 
violate the rights of women and girls will never approach their 
full potential. Countries that do not protect religious freedom 
create cleavages that destabilize whole regions. If I am given 
the honor of sitting behind the sign that says ``United 
States,'' I will do what America does best: stand up against 
repressive regimes and promote human rights. I will also do 
everything in my power to get others to do the same.
    This means contesting the crackdown on civil society being 
carried out in countries like Cuba, Iran, Russia, and 
Venezuela. It means calling on the world to unite against human 
trafficking and against the grotesque atrocities being carried 
out by the Assad regime. And it means uniting peoples who long 
to live free of fear in the cause of fighting terrorism.
    Mr. Chairman, Ranking Member Corker, and other 
distinguished members of the committee, the late ambassador, my 
friend, Richard Holbrooke, told this committee that Congress 
should be in on the take-offs, not just the landings. I appear 
before you today not just to seek your support, but to ask to 
join you in a conversation about how to strengthen what is 
right and fix what is wrong at the UN. If I am confirmed, I 
will continue this dialogue directly and personally. And if the 
prospect of visiting the UN does not immediately entice you, my 
son Declan has resolved to become a tour guide like no other.
    If I am given the privilege of sitting behind America's 
placard, behind the ``United States of America,'' you will be 
able to count on me. I will fight fiercely every day for what 
is in the best interests of the United States and of the 
American people. I will be a blunt, outspoken champion of 
American values and human rights. I will be accessible and 
forthright in my dialogue with you, and above all, I will serve 
as a proud American, amazed that yet again this country has 
provided an immigrant with such an opportunity, here the 
ultimate privilege of representing the United States and 
fighting for American values at the United Nations.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Power follows:]

                   Prepared Statement Samantha Power

    Thank you, Mr. Chairman, Ranking Member Corker, and distinguished 
members of the committee.
    It is a great honor to appear before you as President Obama's 
nominee to serve as the United States Permanent Representative to the 
United Nations. Representing the United States of America would be the 
privilege of a lifetime. I am grateful to the President for placing his 
trust in me.
    I would like to thank my friends and my remarkable family who are 
here with me today--my parents, who brought me here from Ireland, Vera 
Delaney and Edmund Bourke; my husband, Cass Sunstein; and our children, 
4-year-old Declan and 1-year-old Rian, who may prove less interested in 
this hearing than others here today.
    I would also like to thank Senator Chambliss and Senator Isakson 
for their generous introductions. Growing up as an Irish immigrant in 
Atlanta, GA, I cannot say that the United Nations was a popular topic 
with my classmates at Lakeside High School. But it was in Georgia, 
while working at a local television station, that I witnessed footage 
of the horrible massacres in Tiananmen Square and resolved that I would 
do what I could the rest of my life to stand up for American values and 
to stand up for freedom. My Georgia friends supported me every step of 
the way, and I am now very proud to count these two great public 
servants among them.
    When I first came to this country, I viewed the United Nations as a 
place where people assembled to resolve their differences and prevent 
hunger and disease. It was the stage on which iconic Americans like 
Daniel Patrick Moynihan and Jeane Kirkpatrick stood up for what was 
right.
    Unfortunately, when I traveled to the Balkans in 1993, I saw a 
different side to the U.N. The U.N. Security Council had sent 
peacekeepers to Bosnia to protect civilians. But in the town of 
Srebrenica, those Bosnians who sought the protection of the blue 
helmets were handed over to those who wished them harm. More than 8,000 
Muslim men and boys were executed in cold blood, as the peacekeepers 
stood idly by.
    A decade later, I traveled across the Chadian border into Darfur to 
document the genocide being carried out by the Sudanese Government. 
After discovering a mass grave and many charred villages, I brought out 
some of the burnt remnants of those villages, which were exhibited at 
the U.S. Holocaust Museum. It was U.N. humanitarian workers who steered 
me to living witnesses, so eager were they to expose the regime-
sponsored horror. I should note that, as the crisis in Darfur once 
again intensifies, U.N. peacekeepers on Saturday suffered a horrific 
ambush that killed 7 soldiers and wounded 17 others--a reminder of the 
risks that U.N. personnel face every day.
    Elsewhere, today, we see physicians from the World Health 
Organization working with governments and local volunteers to provide 
polio vaccinations in Nigeria and Pakistan--determined to heal even as 
terrorists wage a campaign of assassinations against them. Just last 
Friday, the U.N. provided a platform for Malala Yousafzai--the brave 
young Pakistani girl who was shot in the head last year by Taliban 
gunmen on her way home from school--to inspire millions to stand up for 
girls' education.
    Yet within this organization built in the wake of the Holocaust--
built in part in order to apply the lessons of the Holocaust--we also 
see unacceptable bias and attacks against the State of Israel. We see 
the absurdity of Iran chairing the U.N. Conference on Disarmament, 
despite the fact that its continued pursuit of nuclear weapons is a 
grave threat to international peace and security. We see the failure of 
the U.N. Security Council to respond to the slaughter in Syria--a 
disgrace that history will judge harshly.
    The U.N. is multifaceted, and its record mixed. But 68 years after 
the United Nations was founded in San Francisco, one fact is as true 
today as it was then: an effective U.N. depends on effective American 
leadership. The war in Bosnia didn't end because the U.N. was shamed by 
the massacres in Srebrenica. It ended because President Clinton, backed 
by a bipartisan coalition in Congress, decided that American values and 
interests were imperiled and acted to end the war. It is now possible 
to imagine an AIDS-free generation in Africa not merely because of the 
essential work of UNAIDS, but because President George W. Bush decided 
to provide 
life-saving drugs on a massive scale.
    I believe that America cannot--indeed, I know that America should 
not--police every crisis or shelter every refugee. While our good will 
knows no bounds, our resources are finite, strained by pressing needs 
at home. And we are not the world's policeman. We must make choices 
based on the best interests of the American people. And other countries 
must share the costs and burdens of fighting injustice and preventing 
conflict.
    That is where the U.N. can be very important. There are challenges 
that cross borders that the United States alone cannot meet--terrorism, 
nuclear proliferation, and pandemics. There are cases--as with 
sanctions against Iran and North Korea--where U.S. efforts pack a far 
greater punch when we are joined by others. There are occasions--as in 
Mali today--when the U.N. has to step up to prevent state failure, 
which abets terrorism and regional instability.
    An effective U.N. is thus critical to a range of U.S. interests, 
and strong American leadership at the U.N. is indispensable to 
advancing those interests. Under the leadership of President Obama, the 
U.N. supported action to save countless lives in Libya; assisted a 
peaceful referendum giving birth to an independent South Sudan; and 
established a new agency dedicated to the empowerment of women 
worldwide.
    If I am confirmed by the Senate, I will remain clear-eyed about the 
U.N.'s flaws as well as its promise, and I will fight fiercely every 
day for what is in the best interests of the United States and the 
American people. The list of our challenges in New York is of course 
long, but let me highlight three key priorities.
    First, the U.N. must be fair. The U.N. cannot focus 
disproportionate attention on a few, while giving a pass to others 
flouting their international obligations. There cannot be one standard 
for one country and another standard for all others. The United States 
has no greater friend in the world than the State of Israel. Israel is 
a country with whom we share security interests and, even more 
fundamentally, with whom we share core values--the values of democracy, 
human rights, and the rule of law. America has a special relationship 
with Israel. And yet the General Assembly and Human Rights Council 
continue to pass one-sided resolutions condemning Israel above all 
others. Israel--not Iran, not Sudan, not North Korea--is the one 
country with a fixed place on the Human Rights Council's agenda. 
Israel's legitimacy should be beyond dispute, and its security must be 
beyond doubt. Just as I have done the last 4 years as President Obama's 
U.N. adviser at the White House, I will stand up for Israel and work 
tirelessly to defend it.
    Second, the U.N. must become more efficient and effective. In these 
difficult budget times, when the American people are facing tough cuts 
and scrutinizing every expense, the U.N. must do the same. This means 
eliminating waste and improving accounting and internal management. 
This means strengthening whistleblower protections and ending any 
tolerance for corruption. It means getting other countries to pay their 
fair share. And it means closing down those missions and programs that 
no longer make sense. As both the U.N.'s principal founding member and 
its largest contributor, the United States has the right and the duty 
to insist on reform. I will aggressively pursue this cause.
    Third, the U.N. must stand up for human rights and human dignity, 
which are American and universal values. The U.N. Charter calls for all 
countries ``to reaffirm faith in fundamental human rights and the 
dignity and worth of the human person.'' But fewer than half of the 
countries in the world are fully free. The Universal Declaration on 
Human Rights is universally hailed and yet only selectively heeded.
    Taking up the cause of freedom is not just the right thing to do, 
nor is it simply the American thing to do; it is the smart thing to do. 
Countries that abuse their own people are unstable. Countries that 
violate the rights of women and girls will never approach their full 
potential. Countries that allow people to be trafficked provide safe 
haven to dangerous transnational criminal organizations. Countries that 
do not protect religious freedom create cleavages and extremism that 
cross borders and destabilize whole regions. Countries that fail to 
invest in the health and education of their citizens undermine our 
shared efforts to promote opportunity. Countries that are corrupt 
trample upon the dignity of their people, while scaring away 
investment. If I am given the honor of sitting behind the sign that 
says ``United States,'' I will do what America does best: stand up 
against repressive regimes, fight corruption, and promote human rights 
and human dignity. I will also do everything in my power to get others 
to do the same.
    This means pushing for democratic elections, but also pushing for 
the freedoms necessary for democracy to work--freedom of speech, 
freedom of the press, freedom of assembly, freedom of religion, 
independence of the judiciary, and civilian control over the military. 
It means contesting the crackdown on civil society being carried out in 
countries like Cuba, Iran, Russia, and Venezuela. It means calling on 
the countries of the world to unite against human trafficking and 
against grotesque atrocities of the kind being carried out by the Assad 
regime. It means ensuring that in places like the Democratic Republic 
of Congo, peacekeepers sent into harm's way have the resources and the 
will to protect civilians. It means bolstering U.N. mediation so that 
conflicts can be defused before they become costly, protracted wars. It 
means strengthening non-U.N. forums like the Community of Democracies 
and President Obama's flagship governance initiative, the Open 
Government Partnership. It means redoubling our efforts to end extreme 
poverty. And it means uniting peoples who long to live free of fear in 
the cause of fighting terrorism and terror of all kinds.
    Mr. Chairman, Ranking Member Corker, and other distinguished 
members of the committee, let me stress before closing that this 
administration will most effectively confront our current challenges if 
we benefit from the counsel and collaboration of this essential 
committee, and if we can earn the bipartisan support of both Houses of 
Congress. I would like to echo the words of the late Ambassador, my 
friend Richard Holbrooke, who told this committee that ``Congress 
should be in on the takeoffs, not just the landings.'' So I appear 
before you not just to seek your support, but to ask to join you in a 
conversation about how to strengthen what is right and fix what is 
wrong at the U.N. If I am confirmed, I will continue this dialogue 
directly and personally. If the prospect of visiting the U.N. does not 
immediately entice you, my son Declan has resolved to become a tour 
guide like no other.
    In closing, please know that, if I am given the privilege of 
sitting behind America's placard, you will be able to count on me. I 
will tirelessly promote and defend U.S. interests. I will be a blunt, 
outspoken champion of American values and of human rights. I will be a 
straight-shooter, always accessible to you and forthright in my 
dialogue with you and the American people. And above all, I will serve 
as a proud American, amazed that yet again this country has provided an 
immigrant with such opportunity--here, the ultimate privilege of 
representing the United States and fighting for American values at the 
United Nations.
    Thank you. I look forward to answering your questions.

    The Chairman. Well, thank you very much for your statement.
    We will start a round of questioning.
    And I would just say that following Declan at the United 
Nations, I would not get lost because I would see that red hair 
no matter what. [Laughter.]
    And he is being very well behaved despite that this is 
boring. [Laughter.]
    Ms. Power. The day is young. [Laughter.]
    The Chairman. We have got a lot of rooms here.
    Let me start off. I appreciate your statement on Israel, 
and I agree with you wholeheartedly.
    You know, above and beyond fighting battles against those 
who seek to delegitimize Israel, the United States has been 
very helpful in promoting Israel's position at the United 
Nations. As you know, Israel is seeking to represent The 
Western Europe and Others Group on the Security Council in 
2018, representing the first time that Israel would serve at 
the pinnacle of the U.N. system.
    Do you know if we are working to promote Israel for the 
Security Council, and how can we work in that regard? As well 
as the other injustice that Israel faces in the U.N. system is 
that in Geneva, unlike in New York, Israel is not part of any 
regional grouping. So would you commit to the committee that 
you will make efforts, should you be confirmed, to have Israel 
among the family of nations have an opportunity just like any 
other country would?
    Ms. Power. Absolutely, sir. I did speak in my opening 
remarks about fighting delegitimation, but what is a critical 
complement to that is legitimation. We have had modest success 
I think working with our Israeli friends to secure leadership 
positions across the U.N. system such as the vice-presidency of 
the General Assembly several years back, some leadership roles 
in U.N. Habitat and other organizations, membership in WEOG and 
participation in WEOG in New York.
    But you are right. The Security Council seat is one that 
has eluded Israel despite its many contributions across the 
years. And I commit to you wholeheartedly to go on offense, as 
well as playing defense, on the legitimation of Israel and will 
make every effort to secure greater integration of Israeli 
public servants in the U.N. system.
    The Chairman. Now, this committee has had a great deal of 
focus and the chair has had a great deal of focus on the 
question of Iran and sanctions. You mentioned it in your 
remarks about we are stronger when we can multilateralize those 
sanctions and I agree with you, although often we take the lead 
and we get others to then join us in a multilateral effort. So 
sometimes leadership is important in order to bring others to a 
point where they may not be, but for American leadership.
    As Iran continues, despite our best efforts, to march 
toward nuclear weapons capability, clearly the Senate does not 
always express itself unanimously. It has on this issue to 
continue our efforts to prevent Iran from becoming the next 
nuclear state.
    How do you plan to use your position at the United Nations 
to build consensus for additional measures against Iran and how 
do you see bringing that continuing multilateral effort to the 
next stage? The clock is ticking. The centrifuges are spinning, 
and the window is increasingly closing for us.
    Ms. Power. Thank you, Senator, and thank you for all of 
your leadership on that issue.
    Let me start by saying that the last 4 years have entailed 
a ramp-up of very significant pressure on Iran, including of 
the multilateral kind. And you are absolutely right that the 
foundation for our leadership is the domestic measures that we 
have put in place, which other countries have also replicated 
with their own national measures.
    The Security Council passed a crippling resolution back in 
2011 that I think has had a great effect. They are some of the 
most stringent sanctions that we have ever seen put in place in 
the multilateral system. And I was very much a part of that 
effort by virtue of my position as the President's U.N. advisor 
working with the team in New York.
    I think there are a couple things that we need to think 
about going forward. First of all, given that we need to 
increase the pressure until Iran is willing to give up its 
nuclear weapons program, we should always be prepared to look 
at new measures and see whether further action of the Security 
Council is required.
    In addition, the Panel of Experts, which is a very useful 
way of holding countries accountable--it is a body that holds 
countries accountable for their compliance with the sanctions 
regimen that exists already--has pointed out I think in its 
most recent report that there are a fair number of evasive 
tactics that are being used not only by Iran but by other 
members of the United Nations. So one of the things that we 
need to move forward on with haste--and again, the team in New 
York is already seeking to do this--is the Panel of Experts' 
recommendations as to how those loopholes can be closed and how 
those countries that are in deviance of sanctions can be called 
out and held accountable and, indeed, how those practices can 
stop.
    The other thing I would draw attention to, of course, is 
the human rights situation in Iran. Again, over the last 4 
years, we have had some success. The margin now in which the 
General Assembly Iran human rights resolution passes is larger 
than it ever has been I believe. We have also created the 
first-ever country-specific human rights rapporteur at the 
Human rights Council and that is for Iran. And that 
individual--I talked to Senator Kirk about this earlier this 
week--deserves our full support as the crisis that the Iranians 
are facing inside the country is extremely grave.
    So what I can commit to you, sir, is to be maximally 
consultative with you and to hear any ideas you have about 
things that we could be doing within the U.N. system that we 
are not doing, ways we can shore up the sanctions regime that 
already exists, and any other additional measures we should be 
contemplating to try to increase the pressure on Iran because I 
agree wholeheartedly with your premise which is that there is a 
window, but the window will not stay open forever.
    The Chairman. Finally, this committee acted in a bipartisan 
manner as it relates to Syria, and the conflict in Syria has 
killed over 100,000 Syrians, created 1.7 million refugees, 
millions more displaced inside of the country, a continuing, in 
my mind, tragedy of enormous proportions, probably one of the 
largest ones in the world right now if not the largest one in 
the world.
    But we have seen Russia and China continue to obstruct 
action by the Security Council, so much so that your 
predecessor, Ambassador Rice, said that the council's inaction 
on Syria is a moral and strategic disgrace that history will 
judge harshly.
    I assume you agree with that characterization, and how do 
you work to move the Security Council to a more vigorous role 
on Syria?
    Ms. Power. Thank you, Senator. I agree with you. It is one 
of the most critical issues facing us today, one of the most 
devastating cases of mass atrocity that I have ever seen. I do 
not know that I can recall a leader who has in a way written a 
new playbook for brutality in terms of the range of grotesque 
tactics that the Assad regime has employed in response to a 
democratic uprising.
    What I will say is that the situation on the Security 
Council is incredibly frustrating. I described it as a disgrace 
that history would judge harshly in my opening statement, and I 
certainly agree with Ambassador Rice's claim that this is a 
moral and strategic disgrace in both respects.
    What we have sought to do, as you know, is not simply rely 
on the Security Council, but to proceed with a multifaceted 
approach aimed at isolating the regime, bringing about the end 
of the regime, strengthening the opposition, et cetera.
    We have worked through the General Assembly to signal just 
how isolated Syria is even as the Security Council remains 
paralyzed.
    We have worked on the Human Rights Council to create a 
commission of inquiry to investigate the abuses because when 
the Assad regime falls--and it will fall--the individuals 
responsible for these atrocities will need to be held 
accountable and the evidentiary base needs to be built now.
    And we have gone outside the United Nations, of course, to 
the Friends of Syrian People to coordinate the efforts of the 
likeminded.
    I think we have to be clear-eyed about our prospects for 
bringing in the Russians, in particular, on board at the 
Security Council. I am not overly optimistic. By the same 
token, their interests also are imperiled with the rise of 
terrorism in the region with the use of chemical weapons. And 
we will continue forcefully, repeatedly, to make that argument 
to Russian officials and to engage them given the urgency and, 
again, the devastating human consequences of allowing this 
crisis to persist.
    The Chairman. And one final point before I turn to Senator 
Corker.
    Am I correct in that right now it is the turn of the United 
States to chair the Security Council?
    Ms. Power. We have the presidency of the Security Council 
in the month of July, which happens once every 15 months, yes, 
sir.
    The Chairman. So right now, that presidency--the person who 
is sitting there is in an acting position.
    Ms. Power. It is a wonderful Foreign Service officer named 
Rosemary DiCarlo.
    The Chairman. And I am sure she is wonderful, but it would 
be great to have the United States Ambassador to the United 
Nations sitting in that chair.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you again for being willing to serve. I enjoyed 
our meeting and our discussion about what a liberal 
interventionalist is. I certainly, though, would like to drill 
down a little bit on the responsibility to protect.
    First of all, you know, in following up on the Security 
Council discussion that just was had, do you believe that for 
us to take unilateral military action, that we need a U.N. 
Security Council approval to do so?
    Ms. Power. Sir, I believe the President always should act 
in the interests of the American people when U.S. national 
security is threatened and the Security Council is unwilling to 
authorize the use of force but the President believes that it 
is judicious to do so. Of course, that is something that he 
should be free to do.
    Senator Corker. That was brief. [Laughter.]
    What exactly does the responsibility to protect mean to 
you?
    Ms. Power. Well, sir, as I mentioned in my opening 
statement, some of the foundational events in my life were----
    Senator Corker. I should not say ``to you.'' What does that 
mean to us? Knowing that you are going to be at the United 
Nations, you no doubt are going to be a force. I think anybody 
who has met you knows that that is going to be the case. But 
how will that affect our efforts? When is it that we should 
respond to atrocities? And what are the guidelines as to 
whether we do that unilaterally?
    Ms. Power. Thank you, sir.
    I believe that the way the President has articulated this 
is very important, which is that the United States has a 
national interest, national security interest, and a moral 
responsibility to respond to cases of mass atrocity, when 
civilians are being murdered by their governments. That does 
not mean the United States should intervene militarily every 
time there is an injustice in the world. What the President has 
asked us to do and what I strongly support doing and am eager 
to do again, if confirmed by you, is to look at the tools in 
the toolbox, diplomatic, economic, arms embargos, radio 
jamming, expelling diplomats from various institutions, 
creating commissions of inquiry, et cetera, and maybe deploying 
peacekeepers, providing different forms of assistance. There 
are so many tools in the toolbox.
    So I think the concept of the responsibility to protect, 
which is less important I think than U.S. practice and U.S. 
policy, which is that when civilians are being murdered by 
their governments or by nonstate actors, it is incumbent on us 
to look to see if there is something we might do in order to 
ameliorate the situation. And there is no one-size-fits-all 
solution. There is no algorithm, nor should there be. If I am 
confirmed to this position, I will act in the interests of the 
American people and in accordance with our values. That is the 
formula.
    Senator Corker. And that action might take place under a 
U.N. resolution or it might take place unilaterally. Is that 
what you are saying?
    Ms. Power. If you are referring to the use of military 
force, the President needs to make judgments about when to use 
military force on the basis of U.S. national interests.
    I think what we have found in history is that there are 
times where we have to work outside the Security Council 
because the Security Council does not come along, although 
Presidents have believed that it is in our national interest to 
act.
    There are times when we find it beneficial, of course, to 
have Security Council authorization because then we tend to be 
able to get some buy-in on the back end, maybe get some 
assistance with peacekeeping or reconstruction assistance and 
so forth. There is no question that internationally a Security 
Council authorization is helpful, but from the standpoint of 
American interests, it is U.S. national security interests and 
the needs of the American people that are paramount.
    Senator Corker. Thank you so much.
    We may have a scare about just the overall growth of the 
United Nations. I know that just in 2000, there was a $2.5 
billion budget. It is now up to $5.4 billion. Some people have 
advocated a zero growth policy. I would like for you to speak 
to that and just whether you believe there are many, many 
duplicative programs there that are wasteful and should be 
looked at and streamlined.
    Ms. Power. Well, thank you, Senator. Again, as I said in my 
opening remarks, I completely share the spirit of your 
question. These are such tough times for so many people here at 
home that we have to be zealous in our scrutiny of every 
program and every initiative that the American people are 
helping to support through their generosity.
    We have had, I think, significant success over the last 4 
years on a U.N. reform agenda, building on some of the work 
done by our predecessors. We have found in the peacekeeping 
budget $560 million to cut, and that is a very substantial 
amount when, as you say, the U.S. share of that budget is 
significant.
    The cuts can come when we have found, in the case of 
peacekeeping, duplications where a peacekeeping mission in one 
place is staffed or serviced logistically by one base and in 
another mission there is another base supporting that 
peacekeeping mission. Those have now been consolidated, and 
that is where some of those savings have come.
    The Security Council has closed down two peacekeeping 
missions over the course of the last 4 years, and that is a 
very important cost savings, again looking at the situation on 
the ground and making sure that closing down a mission is 
something that will not squander the gains that have already 
been made, but very cognizant of the tough budget times that we 
operate in.
    We actually brought about the first budget reduction, I 
believe, in 50 years in the history of the United Nations. It 
is very important that we keep that sensitivity that I think we 
have inculcated in New York going forward.
    And as you and I discussed, I believe, in your office, 
there are always countries who want to throw new programs onto 
the table. But what I will commit to you, as I said in my 
opening statement, is when I sit down, if confirmed, in New 
York with the team and to go over the landscape and be as 
aggressive as possible in seeking to deliver again on the 
generosity of the American people.
    Senator Corker. And that includes looking at other 
longstanding peacekeeping missions that may or may not be 
necessary.
    Ms. Power. Indeed. I think we already, looking out on the 
horizon, can see some that can be reduced in size and will be 
reduced in size, which should bring about some savings.
    Senator Corker. Richard Holbrooke was able to negotiate our 
share back in 2000, I think it was, at being 25 percent, and it 
got down to just a little under 26 percent I think in 2009. It 
is back up today to 28.4 percent. And I am just interested in 
your thoughts there and whether you would be willing to try 
to--I know there are lots of Holbrooke doctrines, but if this 
is one you would try to adopt.
    Ms. Power. Certainly, sir, I commit to you that I will do 
everything in my power to reduce the U.S. share of the 
peacekeeping budget. There are complicated formulas that are 
involved in that that we have inherited from our predecessors, 
but I will do everything in my power to address that.
    I will say also again that the absolute size of the 
peacekeeping pie is critical to this as well. So in addition to 
dealing with our share, we have to bring down, if we can, the 
overall cost, and that becomes evermore challenging with al-
Qaeda and other terrorist actors out there on the scene 
targeting the United Nations as they are because the cost of 
peacekeeping missions has gone up in light of the threat posed 
to U.N. workers, which we have seen cause very tragic 
consequences in recent years.
    Senator Corker. And briefly--I know we have to move on, but 
your view of expanding permanent seats on the Security 
Council--I know there has been some discussion there.
    Ms. Power. Thank you, sir.
    The effectiveness of the Security Council is very important 
for U.S. interests, as I have described in my opening 
statement. I think any expansion of the membership of the 
United Nations Security Council should be one that both 
increases the representativeness of the council, which is what 
a lot of aspirants have emphasized, but also ensures the 
effectiveness of the council. And so it is not enough just to 
look to representativeness. We need to look at the degree to 
which the Security Council is going to maintain international 
peace and security. We do oppose, of course, giving up the 
veto.
    Senator Corker. Well, we have lots of people who come 
before us, some of which are more interesting than others. I 
have a feeling that you certainly are going to carve a path at 
the United Nations. I look forward to watching that. And I do 
appreciate the conversations we have had privately. I look 
forward to you carrying out in the same way that we have 
discussed things. I thank you for your willingness, and I 
certainly look forward to your service. OK?
    Ms. Power. Thank you so much, Senator.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you very much, Mr. Chairman.
    Ms. Power, thank you so much for being here today and for 
your willingness to take on this very important role. I 
certainly intend to support your confirmation, and I hope the 
entire Senate does as well.
    You had an interesting exchange with Chair Menendez about 
Iran sanctions. Obviously, one of the things that has changed 
recently in Iran is the election of their new President, Mr. 
Rohani. And I wonder if you think that offers an opening. He 
has indicated that it is his intention to improve relations 
with the United States. Do you think there is an opening there 
with the new President-elect? And how can we pursue that? And 
does the United Nations have a role in trying to move Mr. 
Rohani and Iran to resume negotiations with the P5+1?
    Ms. Power. Thank you, Senator, so much for raising that 
issue.
    I would say first that whatever the public statements out 
of Iran, we have to remember the conditions that gave rise to 
that election or the conditions surrounding that election, 
which were the furthest thing from free, the furthest thing 
from fair. And I do not think anybody can say that the election 
in Iran represented the will of the Iranian people. I think we 
saw the will of the Iranian people reflected in the previous 
election and the democratic will of those people crushed. So 
that is point one.
    Second, I would say that our policy, the administration's 
policy since I am not currently in the administration, is I 
think very much reflective of the views of people here in this 
body as well, which is verify, then trust, deeds not words. And 
again, we have a negotiation track. It is something that we 
want very much to succeed, and we recognize that we need to 
increase the pressure in order to increase its chances for 
success. And so we call upon the Iranians to engage that 
process substantively in a way that has not happened to date.
    Senator Shaheen. And is there further action that could be 
taken at the United Nations that might help move the discussion 
in a positive way?
    Ms. Power. Again, to my exchange with Senator Menendez, I 
think we have to look at everything. This is so critical. This 
is so urgent. The clock is ticking. If there are steps that we 
can take in the Security Council, we should take them. And 
again, this is atop the list of urgent priorities in New York. 
But beyond that, I think it is probably best to get into the 
specifics in the event I am confirmed and can look at what is 
possible.
    Senator Shaheen. You mentioned in your opening statement 
and you have written very eloquently about the tragedy in 
Bosnia. And we have seen, since those days, that Croatia has 
achieved EU membership. We are seeing some breakthroughs with 
Serbia and Kosovo. But Bosnia really seems to be stalled. And 
in talking to some of the folks who have been involved with 
efforts in Bosnia for a very long time, they have suggested 
that the structure that was set up as the result of the Dayton 
Accords has made things more difficult there to really achieve 
long-term resolution in the country for some of their 
challenges.
    Can you speak to that and to what more we might be able to 
do to support efforts in Bosnia to move them toward EU 
integration and further into the West?
    Ms. Power. Thank you, Senator.
    And as you know, yes, Bosnia is a country very close to my 
heart.
    I think what I would say is that, first, it is important to 
put today's challenges in some context. The country is at 
peace, at relative peace. It is an inspiring tribute, I think, 
to American leadership when you travel to the country and see 
the cafes open and see the hills no longer a source of target 
practice for nationalists and extremists, but instead a source 
of beauty. And it is a remarkable country and it is a 
remarkably resilient people. So I think the United States can--
especially, again, the Americans who supported U.S. leadership 
can feel some sense of satisfaction at what the United States 
and our allies have done in preventing what was one of the most 
horrific crises of the last half century.
    Second, though, in terms of ethnic polarization, I agree 
completely with your characterization. I think it is extremely 
problematic when you go to central Bosnia and you see entrances 
for Croatian students on one side of the building and for 
Bosniac or Muslim students on the other side. I mean, how is 
that possible in 2013 in Europe?
    With regard, I think, to the degree to which the Dayton 
structure is to blame versus the absence of political will in 
the leadership across Bosnia, I have not worked on that issue 
very much over the last 4 years. It is something I certainly 
would be eager to look at if I return to the administration. 
But I think starting with popular will, popular culture, doing 
away with the polarization as a matter of social norms is also 
something that needs to be done. And again, there are real 
efforts, an amazing set of contributions by the international 
community, and amazing leadership at the civil society level in 
Bosnia. But of the leadership, we just have not seen that 
commitment to multiethnicity that we need.
    Senator Shaheen. Thank you.
    Finally, there is a relatively new office at the United 
Nations that deals with women and empowering women around the 
world. I think one of the things that we have realized more in 
the last several decades is how important empowering women is 
to the success of communities and countries, and that when 
women have human rights and the opportunity to participate 
fully in a society, that communities and countries do better.
    So I wonder if you will commit to doing everything you can 
to ensure that that office continues to operate in a way that 
continues to support women around the world and recognize the 
importance of the future legacy for that office.
    Ms. Power. Absolutely, Senator. I think President Bachelet 
did a remarkable job. As you know, we worked behind the scenes 
with the Secretary General in order to try to bring about that 
consolidation of all the efforts on women and girls across the 
U.N. system. We are very encouraged with its launch, but 
needless to say the stakes and the urgent needs in the real 
world are very high. So the more support we can give, the 
better. And I think U.N. Women is operating very well in tandem 
with some of our bilateral programming on these issues as well.
    Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Good morning, Ms. Power. Congratulations on your 
nomination. I know your family is proud of you.
    As you recall from our meeting--and I highlighted this at 
the time and I am sure you are aware of it--one of the parts of 
any nomination is a nominee will be asked questions about 
previous statements that they have made and asked to clarify 
those. So I wanted to give you an opportunity to do that here 
this morning. I am not sure that time will permit to go through 
all of them, but I did want to go through a few. And I am sure 
you are familiar with them. You have been asked about them 
before.
    So let me start by a 2002 interview where you advocated the 
use of a, ``mammoth protection force,'' to impose a solution to 
the Israel-Arab conflict saying external intervention was 
needed. Do you still hold that view and how would you place 
that in the context of today?
    Ms. Power. Thank you, Senator, and thanks for giving me an 
occasion to clarify in a very public setting my actual views.
    I have disassociated myself from those comments many times. 
I gave a long, rambling, and very remarkably incoherent 
response to a hypothetical question that I should never have 
answered.
    What I believe in terms of Middle East peace is I think 
what is obvious to all of us here which is peace can only come 
about through a negotiated solution. There is no shortcut. That 
is why Palestinian efforts at statehood--by the way, my 
daughter does not like that quote either, just for the record. 
[Laughter.]
    Senator Rubio. We have all been heckled.
    The Chairman. And we have all answered hypothetical 
questions.
    Ms. Power. Thank you, sir.
    Palestinian unilateral statehood efforts within the U.N. 
system--shortcuts of that nature just will not work. A 
negotiated settlement is the only course.
    Senator Rubio. OK.
    Then in 2003 in an article, you recommended, ``a historical 
reckoning with crimes committed, sponsored, or permitted by the 
United States.'' Which crimes were you referring to, and which 
decisions taken by the current administration would you 
recommend for such a reckoning?
    Ms. Power. Thank you, Senator. And again, thank you for 
giving me occasion to respond to that.
    I, as an immigrant to this country, think that this country 
is the greatest country on earth, as I know do you. I would 
never apologize for America. America is the light to the world. 
We have freedoms and opportunities here that people dream about 
abroad. I certainly did.
    And with regard to that quote, one of the things that had 
moved me I had, as some have mentioned, written very 
critically--I guess Senator Isakson mentioned--written very 
critically about the Clinton administration's response to the 
Rwanda genocide back in 1994, written in great detail about 
that. And President Clinton himself, as you know, had come 
forward and expressed his regret that the United States did not 
do more in the face of the genocide.
    When I traveled to Rwanda, however, having been very, very 
critical, I was stunned to see the degree to which Clinton's 
visit to Rwanda, his apology for not having done more, how it 
had resonated with Rwandans, how it had impacted their sense of 
the United States and the kind of regard the United States had 
for them. And it moved me and I probably very much overstated 
the case in that article.
    But the point, I think, that I was trying to make is that 
sometimes we, as imperfect human beings, do things that we wish 
we had done a little bit differently, and sometimes it can be 
productive to engage in foreign publics--excuse me--engage with 
foreign citizenry in a productive dialogue. And I think that is 
what President Clinton did in the wake of the Rwandan genocide. 
It had a great effect. It really meant a great deal. And that 
is really all I was meaning.
    Senator Rubio. So I would categorize the Rwanda situation 
as a crime, the words you used, permitted by the United States.
    Which ones did the United States commit or sponsor that you 
were referring to?
    Ms. Power. Again, sir, I think is the greatest country on 
earth. We have nothing to apologize for.
    Senator Rubio. So you do not have any in mind now that we 
have committed or sponsored?
    Ms. Power. I will not apologize for America. I will stand 
very proudly, if confirmed, behind the U.S. placard.
    Senator Rubio. No, I understand. But do you believe the 
United States has committed or sponsored crimes?
    Ms. Power. I believe the United States is the greatest 
country on earth. I really do.
    Senator Rubio. So your answer to whether we have committed 
or sponsored crimes is that the United States is the greatest 
country on earth.
    Ms. Power. The United States is the leader in human rights. 
It is the leader in human dignity. As you know, one of the 
things that makes us so formidable as a leader on human rights 
is that when we make mistakes--and mistakes happen, for 
instance, in the case of Abu Ghraib in Iraq. Nobody is proud of 
that. Virtually every American soldier operating in the world 
is operating with profound honor and dignity. We hold people 
accountable. That is what we do because we believe in human 
rights. We believe in international humanitarian law and we 
observe those laws. We are, again unlike any other country, a 
country that stands by our principles.
    Senator Rubio. What is the reckoning you referred to? What 
would you consider reckoning for those instances that you have 
just highlighted for example?
    Ms. Power. I think when any of us who have the privilege of 
serving in public office deviate in any way, we have procedures 
in order to be held accountable--deviate any way from our own 
laws, regulations, standards.
    Senator Rubio. I understand, but that is true of the 
individuals that committed those acts. What about the country? 
Because your quote was about the United States committed or 
sponsored a crime. What reckoning does the country have to face 
in response to acts committed by individuals of that nature? 
Because certainly that was not the command they had received.
    Ms. Power. Again, sir, I mean, I gave the Rwanda example. I 
think sometimes we see in the course of battle--unlike most 
militaries around the world, we put every target every choice 
through the most vigorous scrutiny, and occasionally there is 
collateral damage even after all of that energetic effort. And 
in those cases, we engage with foreign publics. That can be 
done at a national level. That can be done at a local level. I 
think there are various ways one can go about----
    Senator Rubio. My time is about to expire, so two very 
quick questions.
    One is given an opportunity to restate what you wrote in 
that 2003 article, it sounds like you would state it 
differently.
    Ms. Power. Indeed, sir, I would absolutely----
    Senator Rubio. So let me bring you to a more recent one. In 
a 2008 op-ed, you described the Bush administration's concern 
about Iran as a, ``imagined crisis.'' And you said that, 
``redundant reminders that military force is still on the 
table,'' strengthen the regime.
    Do you still hold the views that you held in 2008 with 
regard to Iran? Is it still an imagined crisis? And do you 
believe that reminders that military force is still on the 
table strengthen the Iranian regime?
    Ms. Power. Thank you, sir. I have never referred to Iran's 
pursuit of a nuclear weapon as an imagined crisis. Ever. What I 
have long argued is that it is important both to have a 
pressure track and a negotiation track. And as we have 
discussed here today, it is essential to kick up the pressure, 
to tighten the vice. That is what the sanctions that I worked 
on over the course of the last 4 years have done. That is what 
we need to do in terms of, again, closing loopholes that have 
been established by the Iranian regime. So, of course, part of 
pressure is making very clear that military force is on the 
table.
    With respect to that article, I was stressing the 
importance of also having a negotiation track so that if the 
pressure could be intensified, there was an off-ramp so that 
Iran could, in fact, give up its nuclear weapon, if they ever 
chose to do so.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Welcome, Ms. Power.
    The cold war is over and yet we have seen specifically most 
recently with respect to our deliberations internationally over 
Syria, that the juxtaposition between the United States and 
Russia can effectively cripple deliberations of the United 
Nations. Our relationship with them is obviously incredibly 
complex. Lots of good news in the last decade: cooperation on 
arms control, cooperation on antiterrorism efforts, willingness 
to work together on Afghanistan that was maybe unexpected at 
the beginning of that conflict. And yet, during that time, we 
have seen a very rapid downward slide in terms of the status of 
civil society in Russia.
    And so without asking you to explain how you are going to 
essentially negotiate every different political issue with 
Russia, I would love for you to talk for a minute about what 
the role of the Permanent Representative is to continue to 
raise these issues of civil society and issues of human rights 
abuses in Russia knowing, as we heard at a hearing not long 
ago, that the State Department is preparing, as they told us, 
to send forward another set of names to be added to the 
Magnitsky Act which is going to further complicate 
relationships with Russia but also give us a renewed platform 
to raise some of these issues.
    So the administration is always in a difficult position 
because there are all sorts of important proactive work to do, 
which sometimes makes it difficult for them to try to raise 
issues of human rights. You will be in the same position 
whereby you will be trying to get them to the table on things 
that we care about, which may potentially compromise your 
ability to call them to the table on the way in which they are 
treating political opposition there.
    So talk to me about how you strike that balance.
    Ms. Power. Senator, thank you so much. It is, of course, 
one of the most important relationships that has to be managed 
in New York, and we have a whole range of interests, as you 
have indicated, that flow through Moscow.
    I think the challenge is to maintain--to stand up for U.S. 
interests and to stand up for U.S. values. I mean, it is a sort 
of simple formula. Sometimes our interests, of course, 
necessitate cooperation, as you have again alluded to, 
supplying our troops in Afghanistan, the North Korean and Iran 
sanctions regimes where Russia has stepped up and supported 
multilateral sanctions that are critical in our larger effort. 
These are examples where we have found a way to work with 
Russia.
    But we can never be silent in the face of a crackdown on 
civil society, something I mentioned in my opening remarks 
today. We can never be silent--to get to an exchange I know 
Senator McCain had earlier in the week or last week, we can 
never be silent when the Russian Government sentences Sergei 
Magnitsky or convicts him of a crime rather than looking into 
those who are responsible for his death. I mean, we have to use 
the pulpit. We have to use the platform. We have to recognize 
that when the placard says ``The United States,'' people around 
the world, including across Russian civil society, are looking 
to the United States for leadership.
    And I do think we can do both at once. I think it is 
extremely challenging, and there is no question that threading 
that needle and making sure that you do not sort of silence 
yourself and silence the values of your nation in the service 
of your short-term needs--it is a big challenge. Every diplomat 
has, I think, faced it. But I think our greatest ambassadors in 
New York are remembered for how they stood up for our values.
    Senator Murphy. I do not want to steal Senator McCain's 
thunder on this issue. He has been a hero. But we are at a 
fulcrum point, and the problem is not only the very quick 
downward slide in Russia. It is that their neighbors are 
watching them and we are confronting many of the same issues, 
whether it be in the Ukraine, Belarus, Azerbaijan. And when the 
United States does not stand up at the United Nations to 
Russia, then that is a signal to them that we may allow for 
them to engage in that same kind of behavior.
    Quickly to turn to the issue of climate change, a really 
wonderful new initiative at the United Nations surrounding the 
issue of short-lived climate pollutants and fast-acting climate 
pollutants, specifically working with other nations to try to 
engage in best practices for the capture of methane coming out 
of landfills to work, as the United Nations has been doing for 
years, on building a new type of cook stove to downgrade the 
amount of black carbon escaping into the atmosphere--there is 
technology and best practices out there today with respect to 
noncarbon dioxide emissions. We are going to have a big fight 
over a new international global warming treaty, but there are 
some relatively simple things that you can do when it comes to 
just managing landfills better or trying to get $15 cook stoves 
into the hands of more Indians and Chinese.
    I think the answer to my question as to whether you are 
going to continue to help lead on this issue is probably self-
evident, but this potentially allows for some of the quickest 
gains in the interim between now and when we ultimately get an 
operative global warming agreement in 2020. And you can play an 
incredibly important role in trying to move forward the work of 
the United Nations to engage in voluntary measures with member 
countries to try to engage in best practices as to decreasing 
the release of short-lived common pollutants, and we would love 
to see your leadership on that.
    Ms. Power. Thank you, sir. You will have it.
    Senator Murphy. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Ms. Power, welcome. Like Senator Corker, I certainly 
enjoyed our conversation. It was very interesting. I think you 
will be a force.
    I also want to thank you for your willingness to serve. You 
have got a young family. It will be a sacrifice. So we truly do 
appreciate it.
    I also recognize you are a pretty prolific writer. I did 
compare notes. I actually had another 2003 article which I 
found very interesting. There are a number of interesting 
comments you make in that. And I do have to ask you some 
questions. And I realize your thoughts can certainly change 
over time, but there are certainly some quotes here that do 
disturb me.
    Kind of going back to what we talked about in our office, I 
was very disappointed in President Obama early in his term 
going around the country on, you know, basically what has been 
called as an apology tour. I do not believe that is helpful. 
You are saying you will never apologize for America now. That 
is good.
    But back in this article, this was full force in the New 
Republic, March 3, 2003. You said a country has to look back 
before it can move forward. Instituting a doctrine of mea culpa 
would enhance our credibility by showing that American 
decisionmakers do not endorse the sins of the predecessors.
    Kind of going back to what Senator Rubio was talking about, 
which sins are you talking about there? And do you think 
President Obama's apology tour was well advised? Did that work 
very well?
    Ms. Power. Thank you, Senator. I do not know if it is good 
news, but the quote that Senator Rubio was referring to is the 
same quote as this. So my response is similar.
    But let me start just by saying what I should have said 
perhaps at the beginning before, which is I have written 
probably 2 million words in my career, a million, 2 million. I 
have certainly lost track. Only my husband, Cass Sunstein, 
has--well, there are others perhaps who have written more, but 
Cass has left most of humanity in the dust in terms of 
prolificness.
    There are things that I have written that I would write 
very differently today, and that is one of them, particularly 
having served in the executive branch----
    Senator Johnson. Move forward in terms of President Obama's 
apology tour, the reset with Russia. I mean, has that worked? 
Was that a good strategy for us to go across the world and 
actually provide that mea culpa? Do you think that was good or 
bad? Did it work or did not work?
    Ms. Power. I am not sure exactly to what you are--are you 
talking about the reset?
    Senator Johnson. We can talk about reset, sure.
    Ms. Power. So the reset, again, is I think something that 
has yielded a very complex set of consequences. In some 
respects such as Syria, the reset has not produced the kind of 
dividend that we seek in New York and with devastating 
consequences again for the people of Syria.
    On shipping supplies and reinforcing our troops in 
Afghanistan, the fact that we have a channel of dialogue and 
cooperation with Russia has produced results.
    Honestly, the sanctions imposed against Iran back in 2011, 
the sanctions resolutions we have imposed even recently on 
North Korea--they come about in part because the bilateral 
relationship is strong, at least strong enough to allow us to 
agree on issues of shared interests.
    There is also a lot, which I did not mention in response to 
Senator Murphy, that goes unseen. And again, none of this takes 
away from the crackdown on civil society, takes away from 
Snowden and his presence in Moscow, takes away from Magnitsky, 
takes away again from Syria. But there are things that happen 
on the Security Council, for instance, Russian support for 
robust peacekeeping action in Ivory Coast, Russian support for 
the South Sudan referendum going off on time, which was a major 
mass atrocity averted. So we work with them where we can get 
them to see that their interests align with ours and that their 
interests align with maintaining international peace and 
security.
    Senator Johnson. You had mentioned earlier that Assad will 
fall. I think we have heard that in the past where it is not a 
matter of ``if'' but ``when.'' It seems like he is getting more 
entrenched, and I am not quite so sure. Do you believe there 
was a point in time, had we shown leadership, that we could 
have tipped the scales and he could have already fallen by now? 
Have we missed opportunities?
    Ms. Power. Thank you, sir.
    Look, I think the situation on the ground right now is very 
worrying for a whole host of reasons. First, the military gains 
that the Assad regime has made lately; second, the fact of 
chemical weapons use in recent months; third, something you and 
I talked about I believe, the growth of the extremist presence 
within the opposition, et cetera. So I think nobody is 
satisfied with where we are today. I know the President is not. 
And the administration is constantly examining and reexamining 
how it can heighten the pressure on Assad so as to hasten that 
day that he departs.
    I guess to come back to my comment where, given some of the 
facts on the ground right now, how I could say something of 
that nature, just again I think history shows that regimes that 
brutalize their own people in that manner, that totally forfeit 
their legitimacy, that do not abide by even basic norms of 
human decency--they just do not have the support to sustain 
themselves. So the day of reckoning will come. I agree 
certainly, wholeheartedly with your concern that the day is not 
coming soon enough.
    Senator Johnson. Obviously he is going to fall because we 
are all mortal.
    Getting back to that article, the final concluding 
paragraph, embedding U.S. power in an international system and 
demonstrating humility would be painful, unnatural steps for 
any empire, never mind the most important empire in the history 
of mankind, but more pain now will mean far less pain later.
    Do you believe America is an empire?
    Ms. Power. I believe that we are a great and strong and 
powerful country and the most powerful country in the history 
of the world, also the most inspirational. Again, that is 
probably not a word choice that I would use today having 
served----
    Senator Johnson. Fair enough.
    Besides giving up a pinch of sovereignty will not deprive 
the United States of the tremendous military and economic 
leverage it has at its disposal in the last resort. So you are 
basically recommending that we give up a pinch of sovereignty. 
Is that still your view?
    Ms. Power. One of the things that I would do every day, if 
confirmed for this position, is defend U.S. sovereignty. I 
think nothing that I have supported the last 4 years would ever 
have that effect of giving up U.S. sovereignty. It is 
nonnegotiable.
    Senator Johnson. So your thinking has changed on that then.
    Ms. Power. Again, serving in the executive branch is very 
different than sounding off from an academic perch. Yes.
    Senator Johnson. Good. I appreciate your answers. Thank 
you.
    Ms. Power. Thank you, sir.
    The Chairman. Senator Kaine.
    Senator Kaine. Welcome, Ms. Power, and congratulations. I 
look forward to working together. You have the ideal 
intellectual and values credentials for this position. When I 
heard of the appointment, though, my first reaction was, wow, 
she is pretty blunt and outspoken. I do not think blunt and 
outspoken is actually usually a great qualification for a 
diplomatic post, but actually for this one, it is because my 
experience with the United Nations is it is vague and 
amorphous, and then you translate vague and amorphous into six 
languages. [Laughter.]
    And I think the United Nations could use a lot more blunt 
and outspoken, and I think that is part of the reason why you 
are going to do a very good job in that position.
    I visited the United Nations recently and spent a day with 
Ambassador Rice, and I would encourage any Member of the Senate 
to do it. To go to a Security Council meeting even on a topic 
that may not be the one that you are most passionate about is 
instructive, and you immediately sense some of the dynamics, 
some of the good, some of the bad.
    One of the things that I really came away with from that 
visit, even seeing good and bad, was a real pride, a pride in 
this country for having been such a key part in creating the 
institution. You know, it was an American President who had the 
visionary idea in the aftermath of World War I to try to create 
something like it in the League of Nations, and neither the 
American public nor Congress or really the world embraced the 
idea.
    But America would not let the dream die. And in the closing 
days of World War II, President Roosevelt and his advisors 
planned it. President Roosevelt did not get to see it. He died 
before the San Francisco conference.
    President Truman had two decisions to make in his first two 
days in office, first, whether to keep the Roosevelt Cabinet--
and he decided to do it--and second, when he was asked if we 
should cancel or postpone the San Francisco meeting that was 
going to happen within weeks of President Roosevelt's death, he 
decided that we needed to carry it forward.
    And so for all the frustrations of the United Nations--and 
there are many, and I am going to ask you about my chief one in 
a second. But for all the frustrations, it was the United 
States that would not let the dream of an international 
institution of this type die. It was birthed here. We have 
nursed it along. We have funded it. We have kept it going. We 
have hoped for its improvement. We battled for its improvement. 
And of the many things to be proud about about this country, 
the United Nations I think is one. And yet, there are a lot of 
frustrations.
    I was in Israel in April 2009. I was at Yad Vashem, at Yom 
HaShoah, as a guest of Prime Minister Netanyahu. And at the 
very moment we were there, the United Nations had convened an 
antiracism conference, Durban II, in Geneva, and it invited 
President Ahmadinejad to be one of the keynote speakers. Now, 
the United States, this administration boycotted that 
conference in Geneva, encouraged other nations to boycott it as 
well. Many other nations did. Some others attended and then 
walked out during Ahmadinejad's speech.
    But I think one of the things that we wrestle with here and 
I think the American public wrestles with, too, is the 
psychology within an institution that was so critical to the 
formation of the State of Israel, to the beginning of the State 
of Israel. Explain, because you have been involved with the 
institution, the psychology that puts Israel on the permanent 
agenda to talk about human rights when North Korea is not, when 
so many other nations are not. Israel is not perfect, but 
neither is the United States and neither is any of the member 
nations of the United Nations. You can be frustrated about the 
lack of pace toward a two-state solution, but we can think of 
frustrations about any nation that is a member of the United 
Nations.
    I think the single thing that is the hardest for American 
citizens to grapple with is the continual drumbeat out of the 
United Nations that is hostile to the nation of Israel and it 
seems to hold Israel to a standard that is different than other 
nations that ought to also have their time under the microscope 
in terms of the analysis of their flaws and the recommendations 
for improving those flaws.
    So with your experience in the institution and in working 
in these areas, I would love for you just to explain to us what 
is it about the psychology of the body that makes Israel the 
perennial punching bag at the United Nations.
    Ms. Power. Thank you so much, Senator.
    The constant delegitimation of Israel across the U.N. 
system, as I indicated in my opening remarks, is a source of 
almost indescribable concern to me and to this administration. 
As the President's U.N. advisor the last 4 years, working with 
the team in New York, our team in Geneva and elsewhere, we 
pushed day in/day out to contest this kind of delegitimation.
    In terms of the psychology, what I will say is that fewer 
than half of the countries within the United Nations are 
democratic. When you are not democratic, it helps to have a 
diversion. It helps to scapegoat other countries. And I think 
that is part of the psychology, is just having sort of a 
reliable way of changing the subject, and that is what these 
countries have done over so many years.
    We have contested this, again, day in/day out. I 
spearheaded the decision not to participate in Durban II, 
because it reaffirmed Durban I which was so problematic. We 
stood up against the Goldstone Report, against attempts to 
politicize and judge Israel over the flotilla incident in the 
Human Rights Council which, as you know, we have joined in part 
to be within that institution to stand up for Israel. We have 
succeeded in cutting down the number of special sessions, 
cutting down the number of country-specific resolutions. But 
given, again, what I said at the start, the fact that there is 
a standing agenda item for one country--and that is Israel--and 
not for Cuba and not for North Korea and not for Iran just 
reflects a lack of seriousness and just how political and 
politicized this has become and unfair this has become.
    Senator Kaine. I do not have another question, but I will 
just conclude, Mr. Chair, by saying I think the blunt and 
outspoken part of you will really be pressed in the service in 
this job. And I think the best ambassadors that we have had 
have been willing to do that, and it is issues like this double 
standard with respect to Israel that really demand very blunt 
and outspoken American leadership. And I wish you well.
    Ms. Power. Thank you, sir.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for the answers so far. I appreciate you coming 
by my office and the discussion. It was nice to discover we 
have a mutual interest and time spent in Zimbabwe and writing 
on the subject too. And thanks for sending those articles.
    With regard to the United Nations, our law requires that we 
compile a list, an analysis of who votes with us and who votes 
against us, and it is sometimes frustrating to see so many 
countries where we play a vital role, in terms of aid and 
development and in their economy and see them just continually 
go against us. It sometimes seems in the General Assembly, if 
it were not for Israel, Palau, and the Marshall Islands, we 
would not have any friends. But in fact, I think 131 countries 
in the United Nations vote against the U.S. position more than 
50 percent of the time. In the 2012 General Assembly, there 
were about eight resolutions that went before the General 
Assembly that were deemed important by the State Department, 
and countries voting with us--just about 34 percent of them 
voted with our position.
    How can we change that culture? What can we do to better 
that situation?
    You and I have seen situations--just take the country of 
Namibia where the General Assembly had long declared just one 
of the parties as the sole and authentic representative of the 
Namibian people, which was highly detrimental I think for a 
number of years and forestalled negotiations that should have 
happened. But then the Security Council came in with a 
resolution that actually paved the way for Namibian 
independence and played a vital role and a good role. And so we 
see both within the same institution, just the difference 
between the General assembly and the Security Council.
    How can we in the General Assembly have a better situation 
where countries recognize that we are friendlier than we seem I 
guess?
    Ms. Power. Thank you, Senator.
    This issue of voting divergence is critical. It has been 
acutely frustrating. I will say if you could look at the charts 
that show the trend lines, we are trending more positively than 
you would expect. I would say in the General assembly----
    Senator Flake. It is a pretty low base, but yes.
    Ms. Power. It is a low base. It is. I very much agree with 
that.
    I do not think the convergence rate is trending positively 
in the General Assembly on Israel, however. And again, that is 
something that we have to fight every day to try to change.
    But with regard to other countries, it is acutely 
frustrating. I mean, some of it relates to my response to 
Senator Kaine's question, which is standing up to the United 
States can be a cheap and easy political win for a small 
country to show that they are not with us. But again and again, 
we see them voting against their interests. And in the case of 
those countries that are democratic, either fully free or 
partly free, we see them acting in defiance of the values that 
they are most proud of in their own countries. And that is the 
conversation I have certainly sought to have over the last 4 
years with countries who vote en masse as part of regional 
groupings reflexively rather than thoughtfully. And again, we 
are nibbling away at it.
    But it is an urgent priority for any incoming official in 
New York. And if I am confirmed, getting countries to vote 
their interests and their values, getting them to see the 
importance of maintaining international peace and security, 
doing that has huge consequences for the United States, but it 
has huge consequences for these countries as well. Taking 
advantage of the fact that a lot of countries, including 
several important African countries, are involved in U.N. 
peacekeeping, to get their countries engaged in the politics in 
the countries where their troops and their police are 
deployed--so there are just a lot of disconnects I think 
between at least what we would perceive as beneficial for those 
countries and, as you suggest, how they have performed on 
various votes. And we just have to keep fighting every day and 
be aggressive in our pursuit of convergence, not divergence.
    Senator Flake. On that last point, with Zimbabwe, a country 
that we are both very interested in, elections are scheduled 
July 31, likely too soon to have any real prospect of free and 
fair elections or elections that mean anything. Can you foresee 
a role for the United Nations, a broader role than is currently 
planned, in that situation?
    Ms. Power. Thank you, Senator.
    I mean, that is certainly something we should look to. It 
has been very difficult for the United States, very difficult 
for United Nations programs that Zimbabwe most needs, for 
instance, a human rights office, development assistance that is 
spread equally across the country irrespective of the politics 
of the recipients, et cetera, the kinds of standards we would 
want to see as part of our assistance with the Mugabe regime, 
just almost impossible to operate in that environment.
    And so I think the hope would be that in the wake of the 
election and certainly with the passage of authority to new 
leadership, that there is an opening to have a conversation 
about what an impactful U.N. presence would look like and how 
it could contribute to what has to happen in Zimbabwe, which is 
a meaningful transition to democracy.
    And I would note--and I know you are more familiar with 
this than I am--but the civil society in Zimbabwe is 
unbelievable. I mean, just they keep slogging along and 
battling it out, going to court, getting released from court, 
going on hunger strike, going again and again back at the 
regime, refusing to accept that Zimbabwe cannot achieve its 
promise. And again, I think the United States has a critical 
role. They look to us for leadership. They have some friends in 
the U.N. system, but they are now outliers. You know, friends 
like Cuba and Iran, et cetera are not credible.
    So given that there is a moment of opportunity potentially 
upon us, I think we have to look at what programming could be 
helpful.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Welcome and thank you for your continued service and 
advocacy on behalf of human rights. I am glad you are able to 
correct the record on some of your past statements. Speaking 
for myself and my colleagues, I have never said anything that I 
later regretted or wanted to correct in the record. [Laughter.]
    And I note your young son there. He has a future in the 
diplomatic corps if he has been able to sit quietly through 
this ordeal. I congratulate you on this. There he is.
    In your testimony, you called the failure of the U.N. 
Security Council--failure to respond in Syria a disgrace that 
history will judge harshly. Do you think that the Security 
Council will ever authorize an international military 
intervention in Syria certainly in the foreseeable future?
    Ms. Power. Thank you, Senator, and thank you for all that 
you have done for me and my family. Thank you for all you have 
done for Syria.
    Right now, the fact that the Security Council has not 
managed even to pass a condemnatory resolution, never mind 
economic sanctions, to this point not even anything on chemical 
weapons use, I think we could start there in terms of where we 
would seek to move the Russians. The Russian position, as you 
know----
    Senator McCain. I got you. I have got about three or four 
questions.
    Ms. Power. Oh, please. Go ahead.
    Senator McCain. Go ahead. The answer is I think is not 
likely in the near future.
    Ms. Power. That is probably better put.
    Senator McCain. Is that correct?
    I was struck by an article by Anne Marie Slaughter in a 
piece she published in the Financial Times that said that the 
article 52 of the U.N. Charter could serve as a basis for 
international action in Syria in the event that regional 
organizations like NATO and the Arab League notify the Security 
Council of their actions as required by article 54, but not 
necessarily seek approval. Do you believe that article 52 of 
the U.N. Charter could serve as a basis for international 
military intervention in Syria by regional organizations?
    Ms. Power. Well, Senator, as you know, the President's 
policy is to focus on all forms of assistance to the opposition 
to build up the opposition. In terms of the legal rationales, 
that is not something I feel eqiupped to weigh in on.
    Senator McCain. I hope you will look at that because that 
is specifically under your area, article 52 of the U.N. 
Charter, because I think with 100,000 people massacred, we are 
going to have to look at every option that we possibly can.
    Senator Lindsey Graham, with the help of our chairman and 
ranking member, has passed a couple of authorizations 
concerning Iran. He has now authored, with a large number of 
us, a resolution by the Senate or Congress that would authorize 
the use of force on Iran if the Iranian nuclear progress 
reached a point that the President has described as 
unacceptable.
    What do you think about that?
    Ms. Power. Well, sir, as somebody aspiring to go back into 
the executive branch, it may not surprise you that I would want 
to ensure that the President had the flexibility that he needed 
to make a judgment that he thought best on behalf of the 
American people.
    Senator McCain. Well, it authorizes him to use force. In 
fact, it gives him flexibility.
    Ms. Power. Having not studied the authorization, I probably 
should not comment.
    Senator McCain. I think it is very important because I do 
not think there is anyone who would argue that the Iranians 
have proceeded undeterred from their pursuit of the ability to 
acquire and use nuclear weapons. I think you would agree with 
that. Which means that matters are probably going to come to a 
head, at least in the view of some experts, within 6 months to 
a year. You would agree.
    Ms. Power. That is certainly what our assessments have 
shown.
    Senator McCain. Everybody has for you the cheapest 
commodity in this town, and that is advice. So I will not 
exempt myself from that privilege.
    I have known and admired many men and women who have served 
as our Ambassador to the United Nations, and I agree that it is 
a very important position. The one I admire most is a woman 
named Jeane Kirkpatrick. I hope you will look at her record of 
service in the United Nations. She spoke truth to power. She 
took on the vested interests. She argued for budgetary 
restraint. She spoke up for the United States of America in a 
way that I think still many of us admire her and we revere her 
memory. So when you look at the record of your predecessors, as 
I have looked at my predecessors in the United States Senate, I 
hope you will be instructed to some degree by her performance 
which I think made all Americans who had a very poor opinion of 
the United Nations very proud of the role she played speaking 
for them in the United Nations.
    Ms. Power. Absolutely, sir. I actually got to know her a 
little bit as an intern in this town in the early 1990s when 
she was a forceful advocate on Bosnia long after her service in 
New York and absolutely will study her legacy.
    Senator McCain. Well, I hope you will continue the work you 
have done in speaking up for human rights. We are about to see 
a Middle East that is already imploding. You may be faced with 
issues before the United Nations and the Security Council, the 
likes of which we have not seen. So I know that you will 
preserve your fundamental beliefs in the supremacy of the role 
of the United States in the world and our advocacy for the 
freedoms that are so important to all of us. So I look forward 
to having you go to work as soon as possible.
    Thank you, Mr. Chairman.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Ms. Power, first of all, your work in Idaho has not gone 
unnoticed, and we thank you for that. It is greatly 
appreciated.
    Thank you for coming to see me, and you and I talked about 
a number of things. One of the things I am concerned about is 
one of the matters that Senator Corker raised, and that is 
reform at the United Nations.
    People in America are not happy with the growth and 
particularly with what seems to be this expanding reach. The 
United Nations plays an important role when it comes to 
peacekeeping, when it comes to nations being able to sit down 
and resolve their differences. But this continued growth and 
this continued reach in the areas that really are the sovereign 
concern of an individual nation bothers me and I think it 
bothers a lot of Americans.
    What are your thoughts on that?
    Ms. Power. May I ask you to be more specific? If not 
peacekeeping, what do you have in mind in terms of----
    Senator Risch. Well, I am talking about just the continued 
growth of the size of it and its reach into areas. I have one 
particular item in mind but I am not going to raise it as it 
would probably divide the panel as we talk here. But this 
continual arena in the matters that are sovereign concerns of 
individual nations is concerning.
    Ms. Power. OK. Well, let me, if I could, address maybe two 
dimensions of that, one, the growth, and then second, maybe 
U.N. treaties which tend to raise sovereignty concerns----
    Senator Risch. Always.
    Ms. Power [continuing]. Particularly in this body, yes.
    So in terms of the size, you mentioned peacekeeping, and I 
appreciate your recognition and we discussed this in our 
meeting as well that peacekeeping can perform an important 
service. Mali is a great example today of a mission that 3 
years ago, if you had said in 2013, are we going to have a 
peacekeeping mission in Mali, we would have said Mali--why 
peacekeeping there at that time? And yet, in the wake of the 
French intervention, we cannot afford to squander the gains 
that have been made and to allow al-Qaeda to regain a foothold 
in that country. And again, the peacekeepers are not going to 
be challenging al-Qaeda but they are going to be strengthening 
the Malian Armed Forces who, hopefully, then will have occasion 
or will be in a strong position to hold off any further 
resurgence. So that is just one example of something that sort 
of comes onto our plate because the world demands it.
    The Iraq and Afghanistan missions are much bigger now than 
they were 5 years ago--the U.N. missions, that is, political 
missions. And of course, it is in our interest to see those 
missions do important work particularly in the wake of our 
withdrawal from Iraq and as we draw down from Afghanistan. The 
last thing we want to see after all of the sacrifices that 
Americans have made is those gains in terms of political 
reforms and political transition and the road to democracy--
those gains squandered.
    So, you know, that is the good side of the growth.
    Senator Risch. Let me ask a little more----
    Ms. Power. Pardon me. Okay.
    Senator Risch. Have you been an advocate for any areas for 
the United Nations to expand into that they are not already 
into? I do not mean geographical areas. I mean just issue 
concerns. Is their reach broad enough, I guess, is what I am 
asking.
    Ms. Power. There are two issues. One is are there places 
the United Nations should go where they have not gone. Nothing 
is coming to mind.
    Senator Risch. I am not talking about places.
    Ms. Power. No, no, no. Sorry. I meant thematic areas.
    The United Nations touches so many social and economic 
developments, peace, and security issues, but there is plenty. 
And I would cite corruption as one where there is a U.N. 
Convention on Corruption, but the modalities of actually 
tackling corruption in countries around the world are not as 
strong as I think they could be. And so there is an example 
where there is reach, but not necessarily substance or 
sufficient substance. And so those are the kinds of gaps.
    So there are two forms of cuts that one would seek. One is, 
is there just extraneous stuff being done that was started 50 
years ago for one reason and persists today for no good reason? 
That, of course, we would need to--or even if it started 10 
years ago or 5 years ago. And that is where we draw down 
peacekeeping missions when the original motivation for those 
peacekeeping missions has gone away or has been addressed. And 
then beyond shrinkage are the things the United Nations is 
doing that it should be doing but that it is not doing well, 
where we increase effectiveness and not just efficiencies. And 
so I think both have to be an area of emphasis.
    But my message to you, you know, which I hope I have 
expressed forcefully, is that the American people are making 
cuts. This Congress and this President are negotiating how to 
get our fiscal house in order. It is not tenable for the United 
Nations to exist immune from that conversation. I do not think 
it has in the sense that I think the administration has really 
pushed it to tighten its belt, and I think that is where we 
found more than half a billion dollars in savings in 
peacekeeping just in the last year.
    Senator Risch. Let me touch on just a couple other things.
    Ms. Power. Please.
    Senator Risch. Because my time is running out here.
    First of all, as Senator McCain said, advice is rampant in 
this town, and I want to give you mine. I hope, as you go to 
the United Nations, you will take the view that America is 
unique and exceptional, and we are a unique and exceptional 
people. We need to hold our heads high. We need to be proud. We 
need to not apologize for things that we do. We are leaders in 
this world. We need to be leaders in this world, and I 
certainly hope that when you go to the United Nations, you will 
convey that to them that we are a proud people and we do good 
things. And if you look around the world, the world would not 
be what it is today without the leadership of America when it 
comes to quality of life or anything else.
    Finally, let me say one of my concerns, as we talked about, 
is Israel. There is a lot of us. In fact, Senator Rubio 
yesterday or today dropped a bill on the United Nations 
Transparency, Accountability, and Reform Act. I do not know if 
you are familiar with that or not. A number of us are 
cosponsors of that bill. And it has some really good reform 
provisions in it, and particularly one of the several 
provisions has to do with withholding the United States 
contributions to any U.N. entity that grants full membership to 
the Palestinian Authority. As you know, there has been a push 
to do that in some of the operations of the United Nations to 
include the Palestinian Authority in the absence of a 
negotiated peace settlement with Israel. We want to see that. I 
am sure you want to see that. Everyone wants to see that. One 
of the ways I think we need to do that is to insist that the 
United States withhold contributions to any U.N. entity that 
would grant full membership to the Palestinian Authority.
    Do you have any thoughts on that?
    Ms. Power. Thank you, sir.
    First, on your first point on advice, I have spent my whole 
career standing up for American values.
    Senator Risch. Thank you.
    Ms. Power. And I will not apologize for America. American 
leadership is the light to the world. I could not agree more.
    Second, we need to deter the Palestinians in any way we 
can, and we need to get their attention. They have held off 
but, as you know, they have made clear their previous intention 
to join various U.N. agencies in the wake of the General 
Assembly vote last fall.
    The one caution I would issue--and again, we are completely 
aligned on preventing the Palestinians from seeking unilateral 
actions at the United Nations. The one caution is that when we 
are out of U.N. agencies, which would be the consequence 
ultimately of defunding U.N. agencies, we cannot stand up for 
Israel, we cannot stand up for American values, we are not 
there leading on a range of other U.S. interests. And so I just 
think we have to find the right balance.
    Senator Risch. That is the decision the agency has got to 
make if it goes ahead with that kind of proposal. And I think 
we ought to put them in that position where if they are going 
to make that judgment, they are going to live with the 
consequences of it.
    So thank you for your thoughts on that. Thank you for your 
candor on that.
    My time is up. Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    I would like to follow up a little bit of what Senator 
Risch has talked about.
    First, congratulations to you and to your family, and I 
appreciate you coming by to visit on issues.
    I want to talk about the U.S. Arms Trade Treaty. When 
Secretary Kerry came before this committee in January of this 
year, I asked him during his confirmation process if he would 
support any treaty that allows the United Nations to establish 
and maintain a gun registry on law-abiding U.S. gunowners. He 
stated in writing that we will not support a treaty that 
impacts domestic arms transfers or creates a U.N. gun registry.
    I have that U.N. Arms Trade Treaty here, and article 12 is 
called ``Recordkeeping.'' It encourages countries to maintain 
records on the importation of conventional arms, including 
small arms. It specifically requests that the states maintain 
records on the quantity, the value, the model, the type, and 
the end user. These records, it says, must be maintained for a 
minimum of 10 years.
    Article 13, titled ``Reporting''--that requires signatory 
states to issue annual reports to the United Nations on all 
imports and exports.
    So the question I have is, Do you believe that this 
framework could lead to a U.N. gun registry?
    Ms. Power. Thank you, Senator.
    Let me start just by saying again that we in this 
administration and certainly I, if I have the privilege of 
going to New York, would never do anything that would infringe 
on U.S. sovereignty or that would interfere in any way with 
American law. Second Amendment rights are paramount. American 
law is paramount. The Constitution is paramount.
    Again, in terms of what the U.N.'s designs are in taking 
that treaty forward, I am not myself familiar with those. I 
think what is important is that Secretary Kerry has given you 
the assurance that nothing the administration put forward with 
regard to that treaty would ever contemplate a gun registry in 
this country or our participation in a gun registry. So I think 
that the key point is, irrespective of the provisions that you 
have pointed to, the United States, in dealing with this body 
in any future engagement on the Arms Trade Treaty, would never, 
again, allow anything in that treaty to interfere with American 
law or American practice.
    Senator Barrasso. So the simple question would be, Do you 
support the United Nations in establishing and maintaining a 
gun registry on law-abiding U.S. gunowners?
    Ms. Power. No.
    Senator Barrasso. The answer is no. Thank you.
    Following up on also what some other members have asked 
about in terms of U.N. budget, reporting to Congress, in 2009-
2010, the Office of Management and Budget provided Congress 
with a list of total U.S. contributions to the United Nations 
from the State Department, as well as 18 other U.S. departments 
and agencies. And I believe this information is valuable for 
all citizens. I think it is important for everyone to 
understand how the United States is spending taxpayer money at 
the United Nations. I do not want to quiz you on the specifics 
of the budget, but I would ask, do you support transparency of 
U.S. funding?
    Ms. Power. I do, sir.
    Senator Barrasso. Support the Congress and the American 
people receiving a report from OMB on an annual basis on U.S. 
contributions provided to the United Nations?
    Ms. Power. Full transparency I think to sustain support 
for, again, the generous contributions that the American people 
make--you have to provide transparency.
    Senator Barrasso. The other question that you raised is the 
issue of sovereignty. Your position is very important. Can you 
just talk a little bit about how you plan on preserving and 
protecting American sovereignty within the United Nations?
    Ms. Power. Well, one starts, of course, sir, by asserting 
again and again the importance of American sovereignty. It also 
involves protecting the interests and projecting the values of 
the United States within the United Nations when countries seek 
to judge us and take steps, any steps, that would interfere, 
again, with domestic law or domestic practice, to stand up 
against that and to fight for our laws to be ascendant as they 
are within this country.
    Senator Barrasso. Can you talk a little about your 
commitment to challenging the actions of the United Nations 
that run contrary to our standards, our values, and our 
interests?
    Ms. Power. Well, I think there are at least two dimensions 
to that, one on the mismanagement side. That certainly runs 
contrary to our aspirations for how we govern ourselves. And 
then again, on the values side, whether it is corruption or 
those countries that trample human dignity or that stand with 
human rights abusers, we have to use the bully pulpit and be 
forceful in contesting that wherever we can and also creatively 
thinking about what other tools we can do beyond speaking out, 
what tools we could put in place in order to halt those 
practices.
    Senator Barrasso. Can you talk a little bit about what 
measures you might use in assessing whether or not to veto a 
specific U.N. resolution, just how you would think about those 
things?
    Ms. Power. Obviously, any discussion or decision about 
using the veto would be something that one would have in the 
context of the interagency and so forth, but we will not allow 
anything to go through the Security Council that we deem a 
threat to U.S. national security interests. And that is, I 
think, a broad standard but a critical one.
    Senator Barrasso. I wanted to follow up a little bit with 
Senator Risch on the Palestinian Authority. I have a number of 
written questions that I will submit.
    I am just wondering how you are going to make it clear to 
the Palestinians that their actions at the United Nations will 
have serious implications and consequences.
    Ms. Power. Well, I know from having worked this issue for 
the last 2 years that we make it clear in every bilateral 
encounter we have with the Palestinians that it will have 
serious consequences. Moreover, it will have serious 
consequences not just to the United States-Palestinian 
bilateral relationship but to the peace process which the 
Palestinians have invested in and which all of us have an 
interest in seeing bear fruit. I think there is legislation up 
here as well that would impose direct symbolic and financial 
consequences in terms of the Palestinian office and some of the 
funding, and the Palestinians have been made well aware of 
those consequences as well.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Paul.
    Senator Paul. Congratulations on your nomination, and 
thanks for coming today.
    Was the recent military takeover in Egypt a coup?
    Ms. Power. Thank you, Senator.
    As you know and as we discussed, I share the President's 
concern and your concern over the seizure of power from 
President Morsi, the suspension of the constitution, the 
arrests, et cetera.
    On the legal matter and on the review that the 
administration is carrying out, I just do not feel equipped to 
comment not now serving in the administration, not having 
access to full facts and not being part of the review.
    Senator Paul. So for the record, you are unsure if it is a 
coup.
    Ms. Power. I do not feel equipped to comment.
    Senator Paul. Very politic of your answer.
    You stated that whenever a government is killing its 
citizens, it is morally incumbent, I presume, for us to 
intervene. In Pakistan, they kill their citizens for certain 
types of speech. Does that mean we should intervene in 
Pakistan?
    Ms. Power. Thank you, Senator.
    The quotation that you read surprises me because that is 
not language that I would normally use, but let me refine my 
own view, if I could.
    ``Intervene'' is a word that can mean a range of things. 
When you speak out in a country to contest gross violations of 
human rights or mass atrocities, that is a form of intervention 
in the sense that you are, in a way, meddling in the internal 
affairs of a state on behalf of human rights. Economic 
sanctions are a form of response. I think in the face of gross 
violations of human rights, mass atrocity, genocide--and this 
is, again, something we discussed yesterday--we have a vast 
array of tools in the toolbox: assistance----
    Senator Paul. I guess my specific question then would be 
are you willing today to speak out against the practice of 
killing people for making religious statements that are 
objectionable to certain religions.
    Ms. Power. Absolutely, sir. I have spent my whole life 
speaking out about such.
    Senator Paul. Because I mean, that is part of it. I think 
we have become so timid with certain of these--you know, at the 
very least we can call them intolerances, but basically killing 
people for religious speech I think is something we should not 
be ashamed of speaking out about. I am not proposing we invade 
Pakistan to tell them how to lead their lives in their country, 
but I am saying that not only should we speak out about it, we 
should make our aid contingent upon it. Do you think any aid to 
these countries should be contingent behavior?
    Ms. Power. Well, sir, again as we discussed, I think every 
tool in the toolbox needs to be reviewed, and depending on the 
circumstances--it is a little hard to speak in the abstract, 
but we need to use the levers we have at our disposal, 
consistent with our other interests because we do retain other 
interests, of course, with these countries as well, but 
certainly examine anything we can do to deter such horrible 
practices.
    Senator Paul. When we intervene in countries, who gets to 
make that decision? The President or the Congress?
    Ms. Power. Thank you.
    Well, let me just say--and I hope the last few weeks--that 
the past is prologue in a way. If I am confirmed, I would 
benefit enormously if I could maintain the relationships that I 
feel like I have begun to forge here these last weeks and 
continue these conversations.
    So consultation is indispensable. I cannot do this job, 
even if confirmed without you.
    Senator Paul. Congress or the President decides whether 
we----
    Ms. Power. As you know, there is a longstanding debate 
between the executive and the legislature that has crossed 
Republican and Democratic administrations about authorizations 
for the use of force. And all I can say is that I promise to 
consult with you extensively at all times.
    Senator Paul. It sounds like a nonresponse response.
    But, you know, the thing is that these are important 
questions. The vast majority of the public is not in favor of 
arming Islamic rebels who, in all likelihood, will be killing 
Christians in Syria. The vast majority of the American public 
is not in favor of giving arms to people who are basically 
allied with al-Qaeda in Syria. The vast majority of the public 
does not believe that we are going to have a way of knowing who 
our friends and who our foes are. We cannot even tell who our 
friends are in the Afghan Army, which is a much more stable 
situation than Syria. So I find it incredible to think that we 
will.
    But the thing is those can be honest disagreements among 
people who say, oh, absolutely we can say who the good people 
are and we are only going to give weapons to good people. I 
find it a ridiculous argument, but I think it is an argument 
that some could make.
    But the thing is that I do not think there is a valid 
argument for fighting secret wars without the permission of 
Congress. And basically that is where we are right now.
    I think it is also untenable to the American public for the 
administration to say, well, you know, we are going to go over 
there and we are going to arm them. We are not really going to 
try so much to win, but we really would like to get to 
stalemate so we could get the Russians to negotiate. And I 
think that is really not very tenable either and not too 
exciting for American GIs who might lose lives and limbs, 
should we be stuck in another war in the Middle East, to be too 
excited about this, that well, our goal is stalemate.
    And I think you have noble purposes in wanting to eradicate 
human rights abuses around the world, but realize that war is a 
messy business and people do lose their lives, people you know. 
A young sergeant in the neighboring town to mine lost both legs 
and an arm in Iraq. And so these are not geopolitical games and 
they are not things that we can say we are going to make the 
world this great, groovy place where nobody has any human 
rights abuses, but we are going to do it through war.
    And so my caution is to be careful about what we wish for 
and to be careful about the belief that even though we are a 
good people and we want good things--I think you are a good 
person and you want good things--that in all likelihood, as you 
do this, there are unintended consequences. And as we slip into 
this new war in Syria, if our trainers that are over there--I 
do not know how many there are, but the newspaper says several 
hundred trainers are over there that are Americans.
    So I would just say that even though noble intentions, I 
think, are yours, be very wary of what intervention means when 
we intervene. And it is one thing to send bread, but it is 
another thing to send guns.
    Thank you.
    Ms. Power. Thank you, sir.
    The Chairman. Thank you, Senator.
    I just have some final questions and then we will, 
hopefully, let you go. You have been resilient here for 2 
hours. And your son is doing exceptionally well. It is amazing 
what food can do. [Laughter.]
    Let me ask you. First of all, when you get confirmed--and I 
believe you will be--I would like you to look at our charge and 
mandate at the United Nations on the question of Cyprus and the 
division of Cyprus and where we are at in that regard. I 
believe the Cypriots have a new President and some new 
initiatives even in the midst of economic challenges, and I 
would like to see us be able to be more vigorous in our 
engagement through what is an ongoing U.N. effort to end the 
division of the country for quite some time. So I hope you will 
be able to do that.
    Ms. Power. Absolutely, sir. I take it that the Special 
Representative Downer is hoping to restart talks in October, 
and it feels like a ripe opportunity.
    The Chairman. Now, these are two generic questions but they 
are important I think. Is genocide genocide only when it is 
convenient to call it so, or is genocide genocide when it 
violates the Convention on the Prevention and Punishment of the 
Crime of Genocide?
    Ms. Power. I have written, as you know, a great deal about 
this. I think the Genocide Convention is a worthy instrument. I 
would note that political groups are excluded from the 
convention as a potentially targeted group by virtue of the 
role of the Soviet Union in the drafting of the convention. So 
it is not a perfect instrument, but I think it is an agreed 
upon tenet of international law today.
    The Chairman. Well, let us move the convention aside then 
for a moment. Is genocide genocide when all of the facts that 
we observe would lead to a conclusion that a genocide has taken 
place, or is that only when it is convenient to acknowledge it 
is genocide?
    Ms. Power. The former. The facts should drive the analysis.
    The Chairman. And if the facts drive the analysis, then we 
should call that set of actions, whether historical in nature 
of present--God forbid--in reality a genocide.
    Ms. Power. I believe so, yes.
    The Chairman. Is a violation of human rights a violation of 
human rights depending upon where it takes place, or is it 
universal?
    Ms. Power. Universal, sir.
    The Chairman. I think you understand why I asked you those 
questions. And I hope that your past history in this regard, 
even in the context of understanding the new role that you will 
play, will not diminish your fire for making the case 
internally why genocide should be called genocide when the 
historical facts attain themselves to that standard.
    All right. With that, Senator Corker, any final remarks?
    Senator Corker. I do. I want thank you for having the 
hearing and I want to thank Ms. Power for coming before us. 
There are very few people nominated to positions like this that 
have so many people in advance giving strong opinions about 
your service, and as I mentioned on the front end, sometimes 
our nominees are more interesting than others. You, no doubt, 
are one of the interesting nominees.
    And I very much appreciate the conversation that we had in 
the office. I think you have handled yourself exceptionally 
well today. You know, based on those conversations--I know 
nothing know about premeeting you a few weeks ago firsthand--I 
think you are going to be a significant and positive force at 
the United Nations, something that certainly our Nation and the 
world needs at this time from, as you mentioned, the world's 
greatest nation.
    So I happen to be, based on the interaction and again the 
way you have answered questions today, exceptionally excited 
about the fact that you are going to be in this position, and I 
hope that you will continue in your service along the lines 
that the answers were today and certainly the meeting that we 
had in our office and I think you will.
    So, look, we need very, very strong representation and 
leadership at the United Nations especially today. My sense is 
you are going to be, again, an exceptional advocate for our 
country and for causes around the world that we care about. And 
I am thankful that you are going to be in this position very 
soon.
    And I thank your family. I have enjoyed getting to know 
them. I had a chance to spend a little extra time with your 
daughter in the back. [Laughter.]
    Thank you very much.
    The Chairman. I would remind members that 5 o'clock today 
is the close for any questions submitted for the record. I 
would urge you to answer the questions as quickly as possible. 
It is the chair's intention to put your name on an executive 
calendar meeting for next Tuesday. That will depend upon 
answers to questions being submitted in a timely fashion, which 
I would expect you would do, so that we could get, hopefully, 
you seated while we are still the President of the Security 
Council and get you to work.
    With the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 12:17 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Samantha Power to Questions Submitted 
                       by Senator Robert Menendez

    Question. U.S. engagement in the United Nations allows us to 
leverage both 
resources and influence with other like-minded nations toward common 
goals.

  <bullet> Please give us examples of how, by working through the 
        United Nations, we've been able to magnify our efforts. How 
        does the United States work through the United Nations to 
        better protect U.S. national interests? Do we do so 
        effectively? What can we do better?

    Answer. As I noted in my testimony, The U.N. has an important role 
in a wide range of U.S. national security issues, including efforts to 
combat terrorism, nuclear proliferation, and pandemics. The U.N. also 
plays an essential role in advancing American values around the world.
    The United Nations is a primary partner in our efforts to maintain 
peace and security around the world. From Haiti to the Golan Heights to 
Cote d'Ivoire, U.N. peacekeeping operations are the lynchpin to 
maintaining peace, protecting civilians, and stabilizing fragile 
states. In 2011, the United States worked with our partners on the U.N. 
Security Council to prevent a massacre in Libya and help the Libyan 
people begin a transition to democracy after four decades of brutal 
dictatorship. In Mali, U.N. peacekeepers will be critical to our 
efforts to restore stability, which will help prevent the creation of 
an al-Qaeda safe haven in the Sahel region.
    The United Nations also plays a critical role in U.S. and 
international efforts to prevent the proliferation of nuclear weapons 
and fight terrorism. Working through the U.N. Security Council, we have 
helped facilitate the adoption of robust multilateral sanctions on Iran 
and North Korea that remain key tools in our efforts to convince these 
actors to change their behavior. Similarly, U.N. sanctions on al-Qaeda 
and other terrorist groups are a key tool in our efforts to eliminate 
the threat of terrorism.
    The United States also relies on the U.N. system to help address 
humanitarian crises that require international response. The U.N. World 
Food Programme, the U.N. High Commissioner for Refugees (UNHCR) and the 
U.N. Children's Fund (UNICEF) have the expertise, capacity, and 
networks to reach displaced persons and victims of conflict even in 
highly insecure areas. For example, the United Nations has played a 
critical role in coordinating and delivering humanitarian assistance to 
nearly 7 million people affected by the violence in Syria, as well as 
nearly 1.8 million refugees from Syria who have fled to Turkey, 
Lebanon, Jordan, Iraq, and Egypt. U.N. agencies such as the World 
Health Organization, the Food and Agriculture Organization and the U.N. 
Development Program also play a critical role in U.S. and international 
efforts to strengthen global pandemic preparedness, fight infectious 
disease, improve food security, and promote development to alleviate 
poverty in the world's poorest regions.
    Finally, U.S. engagement in the U.N. helps to advance American 
values such as freedom of speech and association, protection of 
minorities and the rights of women and children. Through the U.N. Human 
Rights Council, the United States has helped shine a spotlight on the 
worst human rights abusers, including North Korea, Syria, and Iran. We 
have also helped pass the U.N.'s first ever resolution on the human 
rights of LGBT persons and at a time of crackdown on civil society 
created a special rapporteur on freedom of association.
    While the U.N. does much to advance U.S. interests around the 
world, it could do more. Under President Obama's leadership, the United 
States has worked to strengthen and improve the effectiveness of the 
U.N. system to carry out its many mandates. This administration has 
also worked with the U.N. to reduce waste and inefficiency, and to 
guarantee that the contributions of the United States and other member 
states are used as effectively and transparently as possible. If 
confirmed, I will continue our engagement with the U.N. in pursuit of 
U.S. interests, and our efforts to make the U.N. a stronger, more 
effective organization.

    Question. Please explain the different elements of U.S. assessed 
contributions to the United Nations, how they are assessed, and how the 
United States provides for their payment. For example, there is the 
U.N. regular budget; there is the U.N. Capital Master Plan; and there 
are two U.N. War Crimes Tribunals.

  <bullet> Are we assessed 22 percent for each of these? Do you think 
        these assessment levels are appropriate? What is the success 
        rate of the United States in keeping the rate of growth in the 
        U.N. regular budget within certain limits?

    Answer. The Unites States pays 22 percent of the U.N. regular 
budget. The 22 percent is the maximum (ceiling) rate under the regular 
budget scale of assessments. The costs of the U.N. Capital Master Plan 
were also assessed according to the regular budget scale. The United 
States paid 22 percent of that assessment over 5 years, from FY 2008 
through FY 2012.
    There is a separate scale of assessments for U.N. peacekeeping 
budgets. One half of the budgets for the U.N. War Crime Tribunals are 
assessed according to the peacekeeping scale of assessments, and one-
half according to the regular budget scale of assessments. The United 
States is assessed 28.4 percent of the total U.N. peacekeeping budget 
under the peacekeeping scale and 22 percent of the amount assessed 
under the regular budget scale.
    The United States and other major contributors to the United 
Nations have been working very hard to limit growth in the U.N. regular 
budget. The administration has been successful in keeping the 2012-2013 
budget level below the level of the 2010-2011 budget, marking only the 
second time in 50 years that the U.N. regular budget decreased from the 
previous biennium.
    Over the next 2 years, in advance of the General Assembly's next 
review of the scales of assessment in 2015, the administration will 
work to achieve reforms in the U.N. scales of assessment methodology to 
better reflect changes to the global economy. Although the latest scale 
of assessments included notable increases for several countries, 
including China and Russia, the methodology used to calculate each 
country's share needs to be streamlined and updated.
    The administration will also work to address the scales in the 
context of a broader U.N. reform agenda, identifying alternative 
formulations for the scales of assessments that better reflect capacity 
to pay, and working closely with other major financial contributors to 
ensure their support for our efforts.

    Question. What is the current status of U.S. arrears in its 
contributions to the U.N. regular budget, including the Capital Master 
Plan and the two war crimes tribunals? Please explain these arrears.

    Answer. The United States has approximately $529 million in arrears 
at the U.N., the vast majority of which date from prior to 2000. The 
unpaid amount consists of $341 million for peacekeeping missions, $176 
million for the regular budget, and $12 million for the U.N. war crimes 
tribunals for Rwanda and the former Yugoslavia.
    In 2009, with the support of Congress, the administration cleared 
$243 million in post-2000 arrears at the United Nations. This amount 
consisted of $159 million for peacekeeping missions and $84 million for 
the U.N. regular budget. There are no arrears for the Capital Master 
Plan.

    Question. The United Nations has a longstanding presence in Burma, 
focused largely on humanitarian and development issues. The United 
Nations has sent aid convoys--which frequently have been blocked--to 
aid civilians in areas of fighting between the army and Kachin rebels, 
assisted refugees in camps for the displaced along the country's 
borders, aided ethnic Rohingya minorities who are denied citizenship by 
the government, and carried out disaster risk reduction, health, 
environmental protection, and food security programs, among other 
activities.

  <bullet> What positive roles do you think the United Nations can play 
        in furthering Burma's tenuous transformation from military 
        dictatorship to democracy?

    Answer. As you noted, the U.N. has been working in Burma for many 
decades and has provided much-needed humanitarian assistance to the 
people of Burma. The Burmese Government has taken positive steps, 
including the release of hundreds of political prisoners and holding 
elections in which the democratic opposition participated as a legal 
political party and its leader Aung San Suu Kyi was elected into the 
Parliament. In response, the United Nations--with the support of the 
United States--has stepped up efforts to assist the transition and 
support long-term economic development.
    Given its expertise and programming, as well as the experience that 
comes with a longstanding presence in Burma, the U.N. can provide 
valuable assistance to help the country transition to a prosperous 
democratic society. Many areas in which the U.N. can work--legal 
reforms regarding political participation, labor, human rights, media, 
and commerce, as well as providing health, education, and livelihood 
programs--can bring tangible benefits to the Burmese people and help 
consolidate political transition. The U.N. can complement U.S. efforts 
in these and other areas.
    The administration supports efforts to resolve ethnic conflicts 
peacefully, and is working with the government, the U.N., and other 
international partners to help the parties reach political settlements 
that address longstanding grievances as well as to provide needed 
humanitarian and development assistance to affected populations.
    Despite the positive efforts, the United States remains concerned 
about the severe limits on humanitarian access in certain parts of the 
country and also concerned about the protection of internally displaced 
persons, refugees, asylum seekers, and other vulnerable migrants. The 
U.N. can play an important role in both Burma and neighboring countries 
to help address these issues. In this regard, the administration 
supports the U.N.'s recent extension of the mandate for a special 
rapporteur on the human rights situation in Burma, paying particular 
attention to the plight of the Rohingya.
    On the eve of President Obama's historic visit to Burma in November 
2012, President Thein Sein publically committed to take concrete steps 
in 11 areas of human rights and humanitarian reforms, including to 
``extend an invitation to the U.N. High Commissioner for Human Rights 
(OHCHR) to establish an office in Myanmar.'' An OHCHR presence in 
country would provide an institution through which the government can 
seek technical assistance and human rights expertise to push to 
completion the ambitious democratic reform agenda it has set out to 
accomplish. During the visit, President Obama spoke at the University 
of Yangon and said, ``No process of reform will succeed without 
national reconciliation. You now have a moment of remarkable 
opportunity to transform cease-fires into lasting settlements, and to 
pursue peace where conflicts still linger, including in Kachin State. 
Those efforts must lead to a more just and lasting peace, including 
humanitarian access to those in need, and a chance for the displaced to 
return home.''
    If confirmed, I will work to ensure that the commitment to open an 
OHCHR office in Burma is fulfilled. I will also work closely with 
senior U.N. management as well as like-minded countries to support the 
U.N.'s continued provision of assistance to support the country's 
transition.

    Question. I remain deeply troubled by reports of systematic 
discrimination and 
organized violence targeting Burma's ethnic Muslim minorities. What can 
the United Nations do to deal with this situation? How will you use 
your position to advance these efforts rapidly?

    Answer. As I said in my opening comments, if confirmed, standing up 
for human rights and human dignity will a priority for me as U.N. 
Ambassador.
    The U.N. General Assembly (UNGA) and the Human Rights Council (HRC) 
each adopt an annual resolution on the human rights situation in Burma, 
which include expressions of concern regarding discrimination, human 
rights violations, and violence directed against persons belonging to 
ethnic, religious, or linguistic minorities in Burma. Recent 
resolutions have maintained scrutiny on Burma and urged continued 
reforms while recognizing the positive changes that the Government has 
made in the past year. The HRC's resolution also renews the mandate of 
the Special Rapporteur (SR) for the Human Rights Situation in Burma. 
The current SR for Burma is Tomas Quintana (Argentina), who conducts 
regular visits to Burma and reports to the HRC and UNGA on his findings 
concerning the situation in the country. If confirmed, I intend to 
continue to work closely with and support the important work of the 
Special Rapporteur.
    During the June HRC session, the Council adopted a Presidential 
Statement (PRST) on the ``Situation of Human Rights in Myanmar as 
Regards to Rohingya Muslims in Rakhine State and other Muslims'' that 
the United States supported and joined consensus on alongside of the 
Organization for Islamic Cooperation (OIC) and other HRC members.
    Despite the evolution in the UNGA and HRC resolutions on Burma and 
in the United States bilateral relationship with Burma, significant 
human rights concerns remain. There have been ongoing human rights 
violations against the Rohingya community in Rakhine State since an 
initial flareup in June 2012 and an increase in the expression of anti-
Muslim sentiment across the country.
    The United States also continues to engage with the Government of 
Burma and the Office of the High Commissioner for Human Rights (OHCHR) 
to press for the establishment of an OHCHR country office in Burma, a 
commitment that President Obama secured from the Burmese Government on 
his November trip. An OHCHR office could provide the Government of 
Burma with valuable training and other assistance to build Burma's 
capacity to protect human rights.

    Question. A Commission of Inquiry to examine allegations of human 
rights abuses in North Korea set up by the United Nations Human Rights 
Council began work last week in response to long-expressed concerns by 
U.N. High Commissioner for Human Rights, Navi Pillay and several 
independent U.N. human rights experts that serious crimes, including 
crimes against humanity, have been prevalent in North Korea for 
decades. The Inquiry will examine claims of ``systematic, widespread 
and grave violations of human rights'' in North Korea.

  <bullet> What is your sense of the current human rights situation in 
        North Korea, and how do you think the United States can most 
        effectively move the human rights agenda forward in tandem with 
        our efforts to bring North Korea's nuclear and missile programs 
        under control?

    Answer. As I said in my opening comments, if confirmed, standing up 
for human rights and human dignity will be one of my priorities as 
Ambassador to the United Nations. The human rights situation in the 
DPRK remains deplorable. The DPRK is one of the world's most systematic 
abusers of human rights. The State Department's annual ``Country 
Reports on Human Rights Practices'' details the breadth and depth of 
the government's human rights abuses. The human rights situation in the 
DPRK is addressed every year at the U.N. Human Rights Council (HRC) and 
in the U.N. General Assembly Third Committee and U.S. officials use 
their voice in these venues and beyond to highlight the horrible 
conditions in the DPRK. The United States calls on the DPRK to close 
its gulags, and end systematic repression and the starvation of its 
population. At the March 2013 HRC session, the United States worked 
closely with Japan, the European Union, and the Republic of Korea 
(ROK), among others, to cosponsor a resolution that established a 
Commission of Inquiry (COI) to investigate the grave, widespread, and 
systematic human rights violations in North Korea. The resolution was 
adopted by consensus, illustrating the extent to which the 
international community shares the concerns voiced repeatedly by the 
United States and others on the Council. The COI, led by Michael Kirby 
(Australia), and including Sonja Biserko (Serbia) and Marzuki Darusman 
(Indonesia), began its work on July 1.
    The COI will build on the important work by the Special Rapporteur 
on the situation of human rights in the DPRK, Marzuki Darusman, who has 
provided insightful and detailed reporting on the human rights 
situation despite the DPRK Government's refusal to grant him access to 
the country. The Special Rapporteur, whose mandate the United States 
has consistently supported, has provided an important monitoring 
function, reporting to the U.N. Human Rights Council every March as 
well as to the U.N. General Assembly every fall. The United States 
takes the opportunity of the interactive dialogue with the Special 
Rapporteur to express our concerns about human rights in North Korea.
    The United States will continue to work with partners at the Human 
Rights Council to support the COI in its important work, and looks 
forward to the COI's interim report to the Human Rights Council in 
September and its full report of its findings to the HRC in March 2014.
    Ensuring the well-being of North Korean refugees and asylum seekers 
is also very important. If confirmed as Ambassador, I will ensure that 
we continue to work with other countries in the region and our 
international organizations, including the U.N. Human Rights Council 
and the U.N. High Commissioner for Refugees, to raise attention to the 
deplorable human rights conditions in the DPRK and to cooperate in the 
protection of partners, especially South Korea, on the issue of North 
Korean refugees and asylum seekers. If confirmed, I would continue to 
urge all countries in the region to act in conformity with the 1951 
U.N. Convention Relating to the Status of Refugees and its 1976 
Protocol.
    I would welcome any additional ideas you have on how we might raise 
the profile of the human rights crisis in the DPRK.

    Question. I'm interested in your insight on where China is 
regarding North Korea, and how you intend to work with the Chinese 
Ambassador to the United Nations to continue to build on the close 
cooperation Ambassador Rice has established with her Chinese 
counterpart.

  <bullet> Do you think China is prepared to be serious and implement 
        and enforce sanctions this time? Do you think the PRC has 
        leverage to play to change North Korea's behavior?

  <bullet> If North Korea conducts an additional missile or nuclear 
        test what do you think U.S. policy ought to be? Are there 
        additional sanctions or action through the UNSC? Additional 
        unilateral sanctions--along the lines of the Banco Delta Asia 
        sanctions from 2005--that we ought to pursue? As you know, 
        there is some consideration in Congress to creating new 
        statutory authority for additional unilateral U.S. financial 
        sanctions on North Korea. Do you think that that would be 
        helpful?

  <bullet> Cuba's recent shipment of weapons systems to North Korea 
        clearly has serious implications for international security. 
        Does this shipment amount to a violation of U.N. Security 
        Council resolutions and sanctions on North Korea? Does the 
        administration plan to submit this issue to the Security 
        Council for review?

    Answer. The administration has commended Panama for the recent 
actions it has taken to implement relevant U.N. Security Council 
resolutions with regard to the North Korean ship Chong Chon Gang. The 
United States will work closely with the Government of Panama, which 
has requested our assistance, and the administration intends to provide 
assistance as best we can.
    Panama has informed the UNSC DPRK Sanctions Committee of the 
incident and has invited the Panel of Experts, which assists the United 
Nations Security Council North Korea Sanctions Committee, to conduct an 
investigation.
    Panama's actions regarding the Sanctions Committee as well as 
requesting the involvement of the Panel of Experts will help clarify 
involvement of the Government of Cuba with this issue. We will look at 
all possibilities regarding appropriate actions once the Committee and 
Panel complete their work. The administration will keep your staff 
informed.
    North Korea's nuclear, ballistic missile, and proliferation-related 
activities constitute a serious threat to international peace and 
security and undermine the global nonproliferation regime. Shipments of 
arms or related material to or from North Korea, and services related 
to such items, would violate U.N. Security Council Resolutions 1718 and 
1874, as reaffirmed this year in Resolutions 2087 and 2094. These 
Security Council resolutions generally provide that all states shall 
prevent the direct or indirect transfer of weapons from their territory 
or by their nationals to North Korea and shall prohibit procurement of 
such weapons from North Korea. The administration hopes that the 
Sanctions Committee, with the support of the Panel of Experts, will 
investigate this case thoroughly, identify parties responsible and 
recommend actions to be taken in response. The administration notes 
that the Sanctions Committee has the ability to impose targeted 
sanctions (asset freeze/travel ban) on individuals and entities found 
to have contributed to prohibited activities or to evasion of the 
sanctions.
    The United States also continues to work closely with China to 
deepen our dialogue on North Korea to achieve our shared goal of 
verifiable denuclearization of the Korean Peninsula in a peaceful 
manner. Through our discussions, the administration will continue to 
encourage China to leverage more effectively its unique relationship 
with the DPRK. Chinese officials have made clear their concerns about 
North Korea's destabilizing and provocative behavior and their 
commitment to the denuclearization of the Korean Peninsula.
    The administration worked closely with China in the adoption of 
U.N. Security Council Resolutions 2087 and 2094, the two 2013 
resolutions that imposed new sanctions on North Korea. Chinese 
officials have stated publicly that China is committed to strict 
implementation of UNSC sanctions. It is a leading priority in the 
bilateral relationship for the administration to work with China on 
enforcement of all relevant DPRK-related UNSCRs and to address North 
Korea's threats to regional peace and security and the global 
nonproliferation regime.
    The United States will continue to work closely with all U.N. 
member states to ensure the full and transparent implementation of U.N. 
Security Council resolutions concerning North Korea. This will make it 
harder for the DPRK to acquire the technology, know-how, and funds to 
develop its nuclear and ballistic missile programs, which the 
international community has repeatedly condemned. The administration 
will likewise continue to exercise our national authorities, where and 
when appropriate, to impede Pyongyang's nuclear, ballistic missile, and 
proliferation-related activities.

    Question. In July 2012, the Azerbaijani State Civil Aviation 
Administration said in a statement that planned flights between 
Stepanakert and Yerevan would represent an invasion of Azeri airspace 
and ``taking corresponding measures in connection with that is 
inevitable.''

  <bullet> What has the United States done to prevent Azerbaijan from 
        committing provocative acts against civil aviation? What 
        consequences would Azerbaijan face if they threatened a 
        civilian aircraft? What role can the United Nations do to 
        protect civil aviation in this situation?
  <bullet> Members of the international community have repeatedly 
        called for the withdrawal of snipers from the Armenian-
        Azerbaijani line of contact. What's the status of international 
        efforts to accomplish this? Is it true that the Azeri 
        Government has refused?

    Answer. As a Cochair of the OSCE Minsk Group, the United States 
remains committed to helping the sides find a peaceful solution to the 
Nagorno-Karabakh conflict. Secretary Kerry has discussed the issue of 
civil flights to Nagorno-Karabakh with the governments of Armenia and 
Azerbaijan at the highest levels. The Cochairs of the Minsk Group 
(United States, Russia, and France) are working to help the sides find 
a means of resolving this issue diplomatically, and have received 
assurances that they will reject any threat or use of force against 
civil aircraft. We remain concerned about any action that could fuel 
tension in the region or threaten the peace process. We believe the 
Minsk Group remains the best mechanism to help the sides reach 
agreement.
    The Cochairs of the OSCE Minsk Group are working to help reduce 
tension in the region. Over the years the Cochairs have proposed a 
number of confidence-building measures that would reduce violence and 
improve the climate for negotiations. The longstanding proposal from 
the Minsk Group to withdraw snipers is one such measure; they noted 
with regret in March 2011 that it had not been implemented, and they 
continue urging the sides to consider such ideas. In their June 2012 
statement on the Nagorno-Karabakh conflict, the Presidents of the 
United States, the Russian Federation, and France reiterated the need 
for the sides to ``respect the 1994 cease-fire agreement, and abstain 
from hostile rhetoric that increases tension.'' We remain committed to 
helping the sides find a peaceful resolution to this conflict. Member 
states of the U.N. should also reinforce these efforts.

    Question. Alexander Downer has been the U.N. Secretary General's 
envoy to 
Cyprus since 2008. What has he been able to accomplish in his 5 years 
in the position? How often is he present on the island? What is your 
view of the role Turkey plays in the Cyprus issue and in its 
resolution?

    Answer. The United States strongly supports the work of the U.N. 
Secretary General in Cyprus under the leadership of Special Advisor 
Alexander Downer. During his tenure, Downer has worked effectively with 
both sides to restart full-fledged negotiations. From 2008 to 2012, 
Downer and his team convened approximately 150 meetings of the Greek 
Cypriot and Turkish Cypriot leaders, in addition to hundreds of other 
meetings of the leaders' representatives and the bicommunal Technical 
Committees.
    Following the election of President Anastasiades in February, 
Special Advisor Downer resumed regular visits to Cyprus to hold 
meetings with both leaders and to lay the groundwork on the way 
forward. The Greek Cypriot and Turkish Cypriot leaders have confirmed 
their intention to resume the settlement process in October, and while 
Greece and Turkey have also expressed support for the settlement 
process. If confirmed, I would support the efforts of the United States 
to work closely with the United Nations, both Cypriot communities, 
Greece, and Turkey to encourage reconciliation and reunification. The 
administration is prepared to commit energy and resources toward the 
goal of finally achieving the fair and lasting settlement that has 
eluded the people of Cyprus for so long.

    Question. Does the election of a new President of Cyprus present a 
new opportunity for peace efforts in Cyprus? What can and should the 
United Nations do to take advantage of any existing opportunities? Is 
the resolution of this 66 yearlong dispute a policy priority for the 
administration?

    Answer. The United States applauds the commitment of the two 
leaders to resume the settlement process in October. President 
Anastasiades has taken promising steps in support of the Cyprus talks, 
including the July 16 appointment of a lead negotiator.
    If confirmed, I would strongly support intensive U.N. engagement. 
The United States firmly believes that a mutually acceptable settlement 
is in the best interests of the people of Cyprus and will continue to 
support such a settlement. The United States will continue to urge the 
leaders of both communities to engage constructively in the settlement 
process as the best way to reach an agreement and will also engage with 
Turkey and Greece to encourage reconciliation and reunification. And we 
will consult with you and look to see if there are additional steps we 
should be taking to advance progress.

    Question. For years MONUSCO has been criticized for failing to 
protect civilians. What are your views on this new intervention 
brigade? Tanzania, South Africa, and Malawi are expected to be the 
major troop contributors. Do you think they are they up to the task of 
rooting out armed groups in the DRC?

    Answer. Rooting out armed groups in the DRC is something that has 
been attempted by many different groups over many years. Although it 
will prove a challenging task, it is significant that in March, the 
United States supported the Security Council's approval of an 
Intervention Brigade (IB) within MONUSCO. The South African and 
Tanzanian battalions now are in place, and Malawi is due to arrive in 
the coming weeks. The United States is in the process of providing 
training and limited equipment support to the deployment of the initial 
Malawian battalion and the follow-on Tanzanian battalion and is 
prepared to support South Africa should there be a request. It is in 
the U.S. interest for this force to succeed, and we are looking at the 
ways in which we can support its mission.
    Through the IB, MONUSCO now has a more explicit mandate to conduct 
independent military operations to disarm and neutralize armed groups, 
which have long been a major source of instability and violence against 
civilians, including sexual and gender-based violence, in the DRC. Such 
security operations will be essential to create space in which the DRC 
Government can undertake security sector reform and deliver on all its 
commitments in the Peace, Security and Cooperation Framework (the 
Framework) in support of a lasting, regional peace.
    The administration has given its full backing to the Secretary 
General's recent appointments of Martin Kobler as his Special 
Representative and Head of Mission, as well as of Carlos Alberto dos 
Santos Cruz as Force Commander. The United States has been assured in 
turn that MONUSCO stands ready to protect civilians and that it will 
defend Goma if faced with an M23 offensive. The administration 
continues to urge all troop-contributing countries of MONUSCO to remain 
committed to implementing the mission's robust mandate.
    Even though the IB has not fully deployed, it is already having a 
positive effect on the ground. M23 defections have risen and morale is 
reportedly very low. MONUSCO and its IB will play an important part in 
confronting armed groups, but the peacekeeping mission alone cannot 
solve the problem. Signatories must abide by and demonstrate their 
commitments under the framework, the international community must stay 
engaged, and there must be an end to impunity for those who have 
committed abuses and violations of human rights or violations of 
international humanitarian law. There are no overnight solutions to the 
human rights and security challenges in the DRC, but the United States 
has demonstrated, with our recent appointment of former Senator Russ 
Feingold as Great Lakes Envoy and our significant investments in the 
humanitarian and security situation on the ground, how invested we are 
in trying to find ways to help stabilize and promote human rights in 
the region.

    Question. The Security Council recently announced the U.N. Mission 
in South Sudan (UNMISS) will be extended for another year. What other 
steps can the United States take through the United Nations in order to 
help the government better protect civilians?

    Answer. I am deeply disturbed by mounting reports of abuse of 
civilians, including ongoing killings, beatings, and looting and 
destruction of homes and humanitarian facilities in Jonglei State. I am 
extremely concerned about the detrimental impact that these ongoing 
clashes have on the physical security and humanitarian situation of 
tens of thousands of affected South Sudanese. The rainy season, 
currently in progress, makes travel difficult or impossible across vast 
swathes of South Sudan, and this--combined with SPLA restrictions on 
U.N. movement into active conflict areas--greatly complicates 
international efforts to gather information about the extent of the 
conflicts, deliver humanitarian assistance, or to respond to the 
violence that the United States believes to be underway.
    The administration continues to strongly advocate for the U.N. 
Mission in South Sudan (UNMISS), U.N. humanitarian agencies, and NGOs 
to have full, unfettered access to all areas in order to protect 
civilians. This access would allow UNMISS to conduct timely patrols and 
air reconnaissance and permit humanitarian workers and U.N. 
representatives to provide assistance and protection to all affected 
populations. The United States has also called on the Government of 
South Sudan to meet its obligations to ensure the safety and security 
of all civilians regardless of their background or ethnicity. The 
United States has reiterated that the Government is responsible for 
preventing SPLA attacks on UNMISS or humanitarian staff and assets. If 
confirmed, I will also continue to press the government to hold 
accountable those individuals who are responsible for the violence and 
who have committed abuses--including members of the security forces--
through transparent judicial processes that respect the rule of law. I 
am also keenly aware of the mobility issues facing UNMISS, particularly 
restrictions affecting the use of helicopters, and will work vigorously 
with the U.N. and other stakeholders to fill these gaps. I am also 
interested in obtaining the views of Members of Congress and advocates 
with long histories of working on South Sudan as I think through what 
additional steps may be taken.

    Question. In the last month, we've seen increasing violence in 
Sudan, particularly in Darfur, against U.N. peacekeepers and between 
ethnic groups. Earlier this month, the U.N. Representative to the 
Secretary General noted that ``[t]he deterioration in the security 
situation in parts of South Sudan has been accompanied by human rights 
violations by both armed groups and national security institutions . . 
. [while] cases of arbitrary arrest, detention, abuse and incidences of 
killings by security forces, as well as the inability of the 
authorities to hold those responsible to account, are cause for deep 
concern.'' And just last week, 7 United Nations peacekeepers were 
killed and 17 were injured.

  <bullet> What more can be done to better support the United Nations 
        Mission in Darfur?

    Answer. The United States is deeply concerned about increasing 
violence in Darfur and deteriorating humanitarian and human rights 
conditions. The administration has also condemned in the strongest 
possible terms the attack by unidentified assailants on an African 
Union--United Nations Hybrid Operation in Darfur (UNAMID) patrol north 
of Nyala in South Darfur on July 13, which may constitute a war crime, 
and which constituted the largest single loss of life in the history of 
the UNAMID deployment. The United States deplores the persistent 
impunity for attacks on U.N. peacekeepers in Darfur and calls on the 
Government of Sudan to promptly conduct full and credible 
investigations into all attacks against UNAMID and to hold the 
perpetrators accountable.
    The administration is pressing for a full investigation of this 
latest attack by the United Nations and the African Union. Once the 
perpetrators are identified, the United States will pursue targeted 
U.N. sanctions against those responsible for this attack and other 
attacks on peacekeepers.
    The administration will continue to engage the African Union and 
troop contributing countries and work together to press the Government 
of Sudan and all parties to the conflict to cooperate fully with UNAMID 
and humanitarian organizations, to lift all bureaucratic and 
operational impediments to the mission's freedom of movement, and to 
allow the mission to implement its mandate without restriction. The 
administration will also emphasize to the U.N. and UNAMID leadership 
the importance of UNAMID's troops actually enforcing their Chapter VII 
mandate and the rules of engagement under which they operate.
    The United States is providing predeployment training to 
contingents deploying to UNAMID and is engaging diplomatically with the 
governments of nations that provide troops and police contingents to 
UNAMID to encourage them to provide better trained and equipped 
personnel, and to protest the Government of Sudan's restrictions on 
UNAMID.
    Obviously what is most needed, beyond better tactical civilian 
protection, is a meaningful political solution, which has long remained 
elusive. The administration will redouble its efforts to work with 
local parties and international stakeholders to resolve the crisis in a 
manner that addresses the root causes of the violence, holds 
perpetrators accountable, and addresses the longstanding grievances of 
the people of Darfur, who have suffered too long.

    Question. The discovery of significant petrochemical resources in 
Cyprus' offshore economic exclusion zone (EEZ) may provide a new area 
for cooperation with the United States and with Israel. Prompt 
development of this resource could be a key driver of Cyprus's economic 
recovery and could potentially act as a stabilizing and unifying factor 
in the eastern Mediterranean. What can the United States do within the 
U.N. system to assist Cyprus in defending its right to operate in its 
exclusive economic zone?

    Answer. The administration recognizes Cyprus' right to develop 
hydrocarbon resources in its EEZ. It does not believe that developing 
offshore energy resources need hinder the reunification talks. The 
administration continues to believe that, in the context of an overall 
settlement, the island's resources should be equitably shared between 
both communities. It fully supports the settlement process, under U.N. 
auspices, to reunify Cyprus as a bizonal, bicommunal federation. Such a 
settlement will help to strengthen regional stability as it would 
facilitate the normalization of relations between Cyprus and Turkey. If 
confirmed, as I stated during the hearing, I will support U.N. efforts 
to facilitate the settlement process. I will also support Cyprus' right 
to develop hydrocarbon resources in its EEZ, and urge U.N. member 
states to adopt a similar posture.

    Question. In your book, ``A Problem from Hell: America and the Age 
of Genocide,'' you described American inaction during the Armenian 
genocide. What is the obligation of the United States to condemn and 
commemorate past instances of genocide? What are the dangers of 
genocide denial?

    Answer. With regard to your question about genocide, condemning and 
commemorating such crimes is extremely important. Doing so is a form of 
accountability, and it honors the memory of the victims and the 
survivors. It also reminds us that such horrors can be repeated unless 
we work to bring the promise of ``never again'' to life. As President 
Obama said at the launch of the Atrocities Prevention Board, ``We must 
tell our children. But more than that, we must teach them. Because 
remembrance without resolve is a hollow gesture. Awareness without 
action changes nothing. In this sense, `never again' is a challenge to 
us all--to pause and to look within.'' If confirmed, as I said in my 
hearing, I will stand up for human rights and stand up against 
atrocities and genocide.
    On the first part of your question, the United States clearly 
acknowledges as historical fact and mourns the fact that 1.5 million 
Armenians were massacred or marched to their deaths in the final days 
of the Ottoman Empire. I will represent the United States Government 
and faithfully carry out the policy of the administration. As President 
Obama has said, a ``full, frank, and just acknowledgement of the facts 
is in all of our interests.''
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                         by Senator Bob Corker

    Question. If confirmed, will you commit to making oversight a 
priority of your tenure as U.N. Ambassador? Do you consider the OIOS to 
be an independent inspector general and does the current Office of 
Internal Oversight (OIOS) have the tools and authority it needs to 
adequately perform an effective oversight role? If not, what 
recommendations would you make to further strengthen oversight and 
transparency?

    Answer. As I noted in my opening testimony, making the United 
Nations more efficient and effective will be a priority, if I am 
confirmed as Ambassador to the United Nations. The United Nations 
Office of Internal Oversight Services (OIOS), which was established in 
1994 and uncovers numerous cases of mismanagement, fraud, and abuse 
each year, serves as the U.N.'s inspector general by fulfilling the 
Secretary General's internal oversight responsibilities. The General 
Assembly resolutions governing OIOS established operational 
independence for the Office in order for it to effectively deliver its 
mandates without interference. However, the United States continues to 
press for even greater operational independence for OIOS, including 
greater control over budget and personnel decisions.
    If confirmed, I will support efforts to revitalize OIOS and further 
strengthen its core functions of audit, investigation, and evaluation. 
While I was an advisor at the White House, the United States worked 
tirelessly in the General Assembly to establish an Assistant Secretary 
General position to serve as OIOS Deputy to improve overall management. 
The United States also has strongly supported efforts of the current 
OIOS head, Ms. Carman Lapointe of Canada, to reduce vacancies across 
the Office, particularly in the Investigation Division where the 
vacancy rate was the highest. In addition, the United States supports 
the Secretariat's reaffirmation of OIOS' jurisdiction over U.N. funds 
and programs, to enable OIOS to have full access to these entities and 
all parts of the U.N. system.

    Question. The 2008 report of the cochairs of the Mandate Review, 
which sought to identify and review the ongoing relevance of ``all 
mandates older than five years originating from resolutions of the 
General Assembly and other organs,'' concluded that only 155 (56 
percent) of the 279 mandates in the Humanitarian cluster were ``current 
and relevant'' and that only 18 (35 percent) of the 52 mandates in the 
African Development cluster were current and relevant.

  <bullet> Which, if any, of these mandates have been eliminated? Do 
        you intend to seek an update of the Mandate Registry or revive 
        the Mandate Review?

    Answer. As the United States faces difficult budgetary challenges, 
the United Nations also needs to closely scrutinize all its budgeted 
activities. The administration remains concerned about the size of the 
U.N. budget and the continuation of anachronistic mandates, policies, 
and programs. Even before joining the U.S. Government, I was outspoken 
about the need for far more rationalization of mandates and missions 
across the U.N.
    The 2005 World Summit established a process to review U.N. 
mandates. That process effectively came to an end with UNGA Resolution 
62/278 (2008). While there was some consensus reached in setting aside 
74 completed mandates and identifying overlapping mandates during Phase 
I of the review, during Phase II of the review, there was limited 
progress in reviewing any significant number of mandates and no 
progress in eliminating or consolidating any mandates.
    Overall, this attempt at a ``mandate review'' was highly 
contentious. Developing countries refused to engage in the process in a 
meaningful way because they viewed the exercise as an effort by the 
United States and others to cut the U.N. budget in areas that they most 
strongly support. As a result of the experience and the controversy, 
the term ``mandate review'' is now viewed negatively by many member 
states. Despite this, I firmly believe the problems this exercise was 
attempting to address are real and continue to deserve attention.
    The administration continues to push for a more selective and 
strategic approach to improve problematic mandates or selective groups 
of related mandates such as in the area of development. In addition, 
the administration supports inclusion of sunset clauses in mandates. 
The administration continues to provide input and look for 
opportunities to evaluate mandates on a routine basis, for example 
through the application of results-based management. The Secretary 
General recently called for the need to seriously review mandates 
again, and I look forward to offering him the whole-hearted support of 
the United States as well as my personal support.

    Question. Previous reform efforts have included strengthening 
protections for whistleblowers at the United Nations. What steps do you 
intend to take to further protect whistleblowers at the United Nations 
from retaliation, including best practices for protecting 
whistleblowers from retaliation? Would you support extending 
whistleblower protections beyond formal U.N. employees and staff 
members to others who report illegality, waste, mismanagement, abuse of 
authority, or acts that pose a substantial and specific danger to 
public health or safety?

    Answer. This administration remains deeply committed to advancing 
oversight, ethics, and accountability reforms throughout the U.N. 
system. Through the United Nations Transparency and Accountability 
Initiative (UNTAI) and U.S. leadership in the General Assembly and 
relevant governing bodies, the United States has pressed U.N. 
leadership to robustly enforce U.N. policies on whistleblower 
protection.
    The UNTAI benchmark for whistleblower protection is based on 
research of best practices, which includes policies on zero tolerance 
of retaliation and mandatory training. If confirmed, I would support 
continued consultations with U.N. system organizations on how they can 
build a culture of accountability and further effective whistleblower 
policies.
    I agree that whistleblowers should be able to report fraud and 
corruption without fear of reprisal. The current U.N. whistleblower 
policy is tailored to protect U.N. personnel against retaliation. The 
policy includes measures to reverse administrative actions deemed to be 
retaliatory, which deems it largely inapplicable to individuals not 
employed by the United Nations. That said, I believe that it is 
important to consider measures for providing greater protection to 
individuals who report illegality, waste, mismanagement, abuse of 
authority, or acts that pose a substantial and specific danger to 
public health or safety.
    At U.S. urging, U.N. member states made a formal request to the 
Secretary General this past spring to expedite the development of 
strengthened protections against whistleblower retaliation, and the 
U.N. Ethics Office is expected to present recommendations to the 
General Assembly this fall. The U.S. Mission to the U.N. also remains 
committed to maintaining a hotline for waste, fraud, and abuse on its 
Web site where U.N. staff or other persons can report to the United 
States any abuse or retaliation at the United Nations.

    Question. Considering the expense and difficulty of obtaining troop 
commitments for peacekeeping operations, especially those missions with 
a more robust mandate, and given the U.S. role as a permanent Security 
Council Member, if confirmed, will you commit to reviewing and 
reporting back to Congress on the ongoing necessity for longstanding 
peacekeeping missions?

    Answer. The United States Government reviews individual 
peacekeeping missions annually, or more frequently in some cases. 
Especially in tough budget times, we need to make sure each mission is 
justified. If confirmed, I look forward to consulting with Congress 
throughout this process.
    In addition, the Department briefs the Senate Foreign Relations 
Committee on U.N. peacekeeping on a monthly basis. The Department of 
State also provides an annual report to Congress on U.N. peacekeeping 
operations. The Department also notifies Congress when impending votes 
in the Security Council may modify the mandate of an individual mission 
or increase its size, as required by law.

    Question. What steps has the United Nations undertaken since 2009 
to address sexual exploitation, abuse and misconduct by U.N. 
peacekeepers and civilian personnel participating in those operations? 
What further steps will you pursue, if confirmed?

    Answer. The United States remains a leader in international efforts 
to eliminate sexual exploitation and abuse (SEA) by U.N. personnel, 
including by U.N. peacekeepers (whether international or local, 
civilian, military, or police). Predatory behavior by a few discredits 
the approximately 111,000 people serving with distinction in U.N. 
peacekeeping missions around the world, and undermines the trust that 
is essential to the success of each mission.
    In late 2011, the United Nations launched an internal review to 
ensure that all peacekeeping missions are complying with the 
regulations and procedures recommended in the 2005 report by Prince 
Zeid of Jordan, the U.N. Secretary General's Adviser on SEA. As a 
result of this review, the U.N. has undertaken a program of action 
focusing on three aspects: (1) ensuring the credibility of the 
Organization's response through increased transparency and cooperation; 
(2) strengthening governance, oversight, and enforcement; and (3) 
enhanced awareness and advocacy for more responsive protection and 
assistance to victims of SEA. These efforts are coordinated by the 
Conduct and Discipline Unit (CDU) in the Department of Field Support.
    Under this program of action, there have been a number of key 
developments over the last year. For example, beginning in September 
2014, the United Nations will include in the annual report of the 
Secretary General on special measures for protection against sexual 
exploitation and sexual abuse, country-specific data on SEA 
allegations, including pending actions and any sanctions imposed. Field 
missions are currently reviewing a draft accountability framework for 
conduct and discipline. The U.N. has also taken steps to improve the 
Misconduct Tracking System (MTS), a database for tracking allegations 
of misconduct, including SEA. As part of a new human rights screening 
policy, issued in December 2012, MTS is now linked to the recruitment 
tool used by the Police Division in the Department of Peacekeeping 
Operations, facilitating clearance of police personnel prior to 
deployment to the field. Work is also underway to establish a similar 
link with the recruitment system used by the Office of Military Affairs 
for military personnel. The enhanced reporting and improvements to MTS 
were undertaken in large part due to sustained engagement by the United 
States over the past few years.
    Persons guilty of sexual misconduct must be held accountable. While 
the U.N. can conduct administrative procedures and waive immunity for 
its own civilian employees, many nations which host peacekeeping 
operations do not have sufficient capacity to provide for fair trials 
or acceptable standards of confinement, which makes local prosecution 
problematic. In addition, different procedures apply for military and 
police personnel, as often do the laws of the host country and the 
sending country. The U.N. can request a sending country to investigate 
and hold accountable its military personnel under their national laws, 
but the U.N.'s authority is limited to ordering repatriation of a 
soldier and requesting the troop contributing country report on actions 
taken to discipline its personnel. In 2011, in an important step 
forward, the General Assembly adopted a U.S. proposal to withhold 
reimbursement to troop-contributing countries for military contingent 
personnel repatriated for disciplinary reasons, including violation of 
the zero-tolerance policy for SEA.
    If confirmed, I will continue to work with the United Nations and 
member states. I view pressing for ending impunity for U.N. officials 
as particularly important, as well as taking the steps needed to ensure 
that the U.N.'s database can effectively prevent previous offenders 
from serving again in the U.N. system, in any capacity.

    Question. The United Nations Human Rights Council has the authority 
to establish mandates to monitor, advise, and report to the Council on 
human rights issues with respect to specifically identified countries. 
The Special Rapporteurs who govern these mandates are authorized to 
investigate and report to the UNHRC on alleged human rights violations 
or abuses. The United States has every reason to expect the Special 
Rapporteurs to carry out their functions in a professional and 
impartial manner. Yet the U.N. does not have a process or system to 
provide transparency and ensure accountability for these rapporteurs 
and other special mandate holders' poor performance, abuse of their 
position, or gross impartiality.

  <bullet> If confirmed, would you support steps to bring greater 
        transparency, accountability, and professionalism to the 
        position of Special Rapporteur? For example, would it make 
        sense to establish processes for dismissing Special Rapporteurs 
        who repeatedly violate the code of conduct, engage in serious 
        personal misconduct, or provide evidence that their 
        impartiality is gravely compromised or otherwise seriously 
        harms the trust they enjoy of all stakeholders?
  <bullet> Would you support increased transparency on resources 
        budgeted and expended in support of the mandate?
  <bullet> Would you consider leading an effort to require Special 
        Rapporteurs to disclose all sources of funding or other 
        compensation received?

    Answer. There are just under 50 different thematic and country 
specific U.N. Special Procedures, which include U.N. Special 
Rapporteurs, Independent Experts, Commissions of Inquiry, and Working 
Groups. While the effectiveness of these mandates depends greatly on 
the mandate holder, at their best these independent experts raise and 
maintain critical human rights issues on the international agenda, 
including gross violations of human rights by countries such as Syria 
and Iran, and often conduct important fact finding country visits.
    While we do not always agree with specific Special Procedures, we 
greatly respect their independence and the overall importance of their 
work. It is essential that they maintain their independent voices, as 
some nations with poor human rights records regularly engage in 
attempts to undermine and weaken mandate holders, especially those who 
heavily scrutinize the records of human rights abusers. We work with 
mandate holders who are under attack from abusive states, such as the 
Iran Special Rapporteur, to ensure their ability to work independently.
    The United States regularly consults with the special procedures 
mandate holders, and we scrutinize their work through their regular 
reports. We also take advantage of the regular interactive dialogues to 
press them on their methodology, operations, and the specific findings 
of their investigations; convey our views on those issues; and 
recommend topics for future inquiry.
    I agree that Special Procedures are discredited and 
counterproductive when used for political purposes. One notorious and 
deeply disturbing example is the biased and discredited United Nations 
Special Rapporteur on ``the situation of human rights in the 
Palestinian territories,'' Richard Falk, who undermines the credibility 
of the Special Procedures and the Human Rights Council--thus hampering 
the promotion and protection of human rights. The United States has 
repeatedly condemned Falk for his despicable and offensive statements, 
as has U.N. Secretary General Ban Ki-moon. Earlier this year, Falk 
sought to blame the terrorist bombings in Boston on U.S. foreign policy 
and on Israel. Falk also called for a watchdog NGO to be stripped of 
its U.N. observer status after the group rightly criticized Falk's 
repeated biased and anti-Israel remarks, including Falk's publishing of 
a clearly anti-Semitic cartoon on his blog and his repeated assertions 
of an equivalence between Israeli actions toward the Palestinians and 
the Holocaust.
    That said, as a member of the Human Rights Council the United 
States is well placed to engage in efforts to strengthen the 
effectiveness of the Special Procedure mechanisms, and we will continue 
to work with other countries and the mandate holders themselves to do 
so. In 2014, more than one-third of all Special Procedures mandate 
holders (including the Special Rapporteur on the situation of human 
rights in the Palestinian territories) will reach their maximum term to 
serve and will need to be replaced. The United States will seize this 
opportunity to seek and support qualified candidates and will work with 
the Office of the High Commissioner for Human Rights and the HRC 
President to fill these positions.

    Question. The Gingrich-Mitchell Task Force on U.N. Reform called 
for the U.N.'s hiring practices to increase the focus on competence 
over geographic considerations. To what extent has this reform been 
implemented and, if confirmed, what steps will you take to ensure that 
competence is the first and foremost criteria in hiring decisions?

    Answer. The United States is a strong proponent for reform of the 
U.N. Human Resources Management system. Over the past 8 years, the 
United States has advocated for reforms that facilitated recruiting 
highly skilled staff in a timely manner, while promoting top 
performers, getting rid of underperformers, encouraging mobility, and 
providing professional development to ensure continued excellence.
    In 2010, the General Assembly adopted Resolution 65/247, which 
called for a comprehensive review of the entire recruitment process. 
Since then, the Office of Human Resources Management introduced the 
``Long List/Short List'' approach that identifies candidates with the 
highest qualifications. They also developed a roster system that 
compiles the credentials of highly qualified, prescreened candidates to 
facilitate swift placement.
    The United States has also been a strong advocate for the rigorous 
implementation of a comprehensive performance management system. The 
administration believes it is important that the U.N. strengthen the 
link between performance and career progression, in particular for 
those staff members in managerial positions.
    Over the next few years, a large number of U.N. Secretariat staff 
members will retire. This turnover is an opportunity to reshape and 
streamline the U.N. by demanding a thorough review of staffing needs of 
the organization. The administration will support efforts to eliminate 
those positions that no longer contribute to the strategic objectives 
of the organization, as well as plans to combat ``grade inflation'' by 
ensuring the adequate classification of vacant positions.
    This also is an opportunity to ensure that highly qualified 
Americans are employed in the United Nations. As part of the 
administration's strategic approach to fill key positions at the United 
Nations, the United States has taken a proactive approach by focusing 
on positions where the U.S. Government could make the strongest 
contributions and by conducting its own targeted recruitment of 
exceptionally qualified U.S. candidates.

    Question. With respect to U.N. professional compensation, do you 
support the principle that U.N. compensation should not exceed 
equivalent U.S. civil service salaries? If so, what do you plan to do 
to ensure this principle is observed?

    Answer. As the United States Government undertakes an austere 
fiscal diet, including staff furloughs and other cutbacks, it is 
important we send a message to the U.N. that salaries and other 
expenses must be controlled. This is key to ensuring that the overall 
U.N. budget is in line with the new realities.
    The United Nations sets salaries for professional staff according 
to the Noblemaire Principle, which states that compensation should be 
set high enough to attract nationals from all member states, including 
those member states with the highest paid national civil service 
employees. Since its inception, the U.N. has based salaries for 
professional employees on the U.S. civil service scale. In 1985, the 
U.N. General Assembly decided, with agreement from the Reagan 
administration that average U.N. net salaries should fall within 110 to 
120 percent of average U.S. civil service net salaries.
    While the United States has joined consensus a number of times 
since 1985 on maintaining the current margin system, this 
administration has been vocal about the need for greater clarity in the 
methodology used by the International Civil Service Commission (ICSC). 
The Department of State readily accepted the Government Accountability 
Office (GAO) recommendation in its recent report, ``U.N. COMPENSATION: 
United Nations Should Clarify the Process and Assumptions Underlying 
Secretariat Professional Salaries,'' which requested that the U.S. 
Mission to the U.N. request that the ICSC clarify the methodology and 
assumptions used to calculate the margin between U.S. civil service and 
U.N. Secretariat staff salaries and to make this information available 
to member states.
    The administration was pleased that GAO was conducting a follow-on 
study because, in actuality, the total U.N. compensation package 
includes salaries, locality pay, benefits, and allowances. It is 
important to determine whether the U.N.'s compensation package in its 
entirety is more generous than the U.S. civil service package. This 
study coincides with the administration's successful request for the 
ICSC to conduct its own comprehensive review of U.N. compensation and 
the methodology used. The administration will continue to push for the 
ongoing ICSC comprehensive review of U.N. compensation and use the 
findings of GAO as an opportunity to review the various components of 
the U.N. compensation package and to seek ways to streamline the 
current system.

    Question. The international community, including the UNSC, has 
imposed broad and far-reaching sanctions on North Korea for its illicit 
nuclear, missile, and proliferation-related activities. Yet the record 
of member state implementation and enforcement of these sanctions 
remains mixed.

  <bullet> If confirmed, what actions will you undertake to ensure 
        effective implementation and enforcement of sanctions to 
        prevent North Korea's continued illicit proliferation 
        activities?
  <bullet> If confirmed, will you support continued efforts by outside 
        experts to document sanctions loopholes and expose member 
        states' noncompliance with UNSC resolutions on North Korea?
  <bullet> Do you believe universal implementation of UNSC requirements 
        in the context of North Korea is achievable?
  <bullet> Are there additional sanctions that the United States should 
        pursue against third countries should they fail to fully 
        implement and enforce United Nations Security Council 
        resolutions?
  <bullet> Chinese adherence to its commitments in UNSC resolutions is 
        especially important. If confirmed, what actions will you 
        undertake to specifically influence or pressure China to 
        implement and enforce existing UNSC sanctions?

    Answer. North Korea's nuclear, ballistic missile, and 
proliferation-related activities constitute a serious threat to 
international peace and security and undermine the global 
nonproliferation regime. Shipments of arms or related material to or 
from North Korea, and services related to such items, would violate 
U.N. Security Council Resolutions 1718 and 1874, as reaffirmed this 
year in resolutions 2087 and 2094. These Security Council resolutions 
generally provide that all states shall prevent the direct or indirect 
transfer of weapons from their territory or by their nationals to North 
Korea and shall prohibit procurement of such weapons from North Korea. 
The administration notes that the Sanctions Committee has the ability 
to impose targeted sanctions (asset freeze/travel ban) on individuals 
and entities found to have contributed to prohibited activities or to 
evasion of the sanctions.
    The United States also continues to work closely with China to 
deepen our dialogue on North Korea to achieve our shared goal of 
verifiable denuclearization of the Korean Peninsula in a peaceful 
manner. Through our discussions, the administration will continue to 
encourage China to leverage more effectively its unique relationship 
with the DPRK. Chinese officials have made clear their concerns about 
North Korea's destabilizing and provocative behavior and their 
commitment to the denuclearization of the Korean Peninsula.
    The administration worked closely with China in the adoption of 
U.N. Security Council resolutions 2087 and 2094, which imposed strong 
new sanctions on North Korea. Chinese officials have stated publicly 
that China is committed to strict implementation of UNSC sanctions. It 
is a key priority in our bilateral relationship with China for the 
administration to work with China on enforcement of all relevant DPRK-
related UNSCRs and to address North Korea's threats to regional peace 
and security and the global nonproliferation regime.
    The United States will continue to work closely with all U.N. 
member states to ensure the full and transparent implementation of U.N. 
Security Council resolutions concerning North Korea. This will make it 
harder for the DPRK to acquire the technology, know-how, and funds to 
develop its nuclear and ballistic missile programs, which the 
international community has repeatedly condemned. The administration 
will likewise continue to exercise our national authorities, where and 
when appropriate, to impede Pyongyang's nuclear, ballistic missile, and 
proliferation-related activities.

    Question. A United Nations Commission of Inquiry recently convened 
to investigate and document North Korea's ``grave, systematic, and 
widespread'' human rights abuses.

  <bullet> If confirmed, will you commit the full resources of the U.S. 
        mission to assist the efforts of the Commission? If confirmed, 
        how will you use your position to highlight the deplorable 
        human rights situation in North Korea? Can the United States do 
        more to assist North Korean refugees, and if so, what?

    Answer. As I said in my opening comments, if confirmed, standing up 
for human rights and human dignity will be one of my priorities as U.N. 
Ambassador. The human rights situation in the DPRK remains deplorable. 
The DPRK is one of the world's most systematic abusers of human rights. 
The State Department's annual ``Country Reports on Human Rights 
Practices'' details the breadth and depth of the government's human 
rights abuses. The human rights situation in the DPRK is addressed 
every year at the U.N. Human Rights Council (HRC) and in the U.N. 
General Assembly Third Committee and U.S. officials use their voice in 
these venues and beyond to highlight the horrible conditions in the 
DPRK. At the March 2013 HRC session, the United States worked closely 
with Japan, the European Union, and the Republic of Korea (ROK), among 
others, to cosponsor a resolution that established a Commission of 
Inquiry (COI) to investigate the grave, widespread, and systematic 
human rights violations in North Korea. The resolution's adoption by 
consensus illustrated the extent to which the international community 
shares the concerns voiced repeatedly by the United States and others 
on the Council. The COI, led by Michael Kirby (Australia), and 
including Sonja Biserko (Serbia) and Marzuki Darusman (Indonesia), 
began its work on July 1.
    The COI will build on the important work by the Special Rapporteur 
on the situation of human rights in the DPRK, Marzuki Darusman, who has 
provided insightful and detailed reporting on the human rights 
situation despite the DPRK Government's refusal to grant him access to 
the country. The Special Rapporteur, whose mandate the United States 
has consistently supported, has provided an important monitoring 
function, reporting to the U.N. Human Rights Council every March as 
well as to the U.N. General Assembly every fall. The United States 
takes the opportunity of the interactive dialogue with the Special 
Rapporteur to express our concerns about human rights in the DPRK.
    The United States will continue to work with partners at the Human 
Rights Council to support the COI in its important work, and looks 
forward to the COI's interim report to the Human Rights Council in 
September and its full report of its findings to the HRC in March 2014.
    Ensuring the well-being of North Korean refugees and asylum seekers 
is also very important. If confirmed as Ambassador, I will ensure that 
we continue to work with other countries in the region and our 
international organizations, including the U.N. Human Rights Council 
and the U.N. High Commissioner for Refugees, to raise attention to the 
deplorable human rights conditions in the DPRK and to cooperate in the 
protection of partners, especially South Korea, on the issue of North 
Korean refugees and asylum seekers. We will continue to urge all 
countries in the region to act in conformity with the 1951 U.N. 
Convention Relating to the Status of Refugees and its 1976 Protocol.
    I would welcome any additional ideas you have on how we might raise 
the profile of the human rights crisis in the DPRK.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                     by Senator Benjamin L. Cardin

    Question. Thank you for your thoughtful answers to the many 
questions my colleagues and I have raised regarding Israel today and 
during our private meeting. As you know, U.S. support for Israel within 
the United Nations is critically important to our foreign policy and 
national security priorities. As I mentioned during our private meeting 
a few weeks ago, I greatly appreciate the constant efforts by you and 
the President to defend Israel at the United Nations and other 
international bodies. Yet I am discouraged that, as you noted during 
your testimony, Israel continues to be singled out at every opportunity 
by U.N. member states. As you stated, many close allies and aid 
recipients blindly support anti-Israel resolutions in the General 
Assembly and various U.N. bodies.

  <bullet> If confirmed, how would you leverage our bilateral 
        relationships with specific countries, particularly African and 
        Asian partner countries and U.S. aid recipients, to reduce 
        hostile activities aimed at delegitimizing Israel at the United 
        Nations?
  <bullet> In your opinion, how can the United States promote Israel's 
        fair treatment with the professional staff of the U.N., the 
        Secretary General and the heads of individual agencies? Do you 
        believe such engagement is necessary?
  <bullet> What can be done to more effectively push for structural 
        changes to eliminate the institutional bias against Israel?

    Answer. If confirmed, I will continue the administration's efforts 
to normalize Israel's status at the United Nations, including 
vigorously opposing one-sided, biased resolutions, fighting any efforts 
to delegitimize Israel, and supporting Israel's positive engagement 
with the United Nations.
    In addition, I will make clear the administration's position that 
one-sided actions in international fora will not advance the 
aspirations of the Palestinian people. I believe that such actions at 
the U.N. will make it harder to achieve progress toward Middle East 
peace, possibly driving the parties further apart, heightening the risk 
of violence on the ground that could claim innocent lives on both 
sides, and risking hard-won progress in building Palestinian 
institutions.
    U.S. officials meet regularly with host governments and U.N. 
officials to make known our opposition to unfair and biased resolutions 
that directly or indirectly target Israel. I will engage with my 
counterparts in New York from all regions, including Africa and Asia, 
and urge them to put a stop to efforts to delegitimize Israel in the 
U.N. system. The United States consistently opposes any texts or 
actions that criticize Israel unfairly in any U.N. body or specialized 
agency, and I will maintain that position.
    If confirmed, I will also explore new opportunities for Israel to 
engage in the U.N., whether it is supporting the participation and 
selection of Israelis for leadership roles in U.N. programs and 
agencies, or backing Israeli initiatives at the General Assembly, like 
this year's entrepreneurship resolution. Israel was elected to the 
Executive Board of the U.N. Development Programme in 2012 and will 
serve on the board of UNICEF in 2013. The United States will continue 
to support efforts to expand Israel's participation in an important 
negotiating group in New York and Geneva (WEOG) to enhance Israeli 
participation in the U.N. system. Israel's candidacy for a seat on the 
U.N. Security Council for the 2019-2020 term--which the United States 
strongly supports--is based on its membership in WEOG.

    Question. Maritime disputes in the East and South China Seas have 
caused 
 increased tensions and considerable friction among East Asian 
countries. Secretaries Hagel and Kerry have both emphasized the need 
for bilateral and multilateral dialogue and peaceful dispute resolution 
mechanisms within ASEAN.

  <bullet> If confirmed, would you be willing to facilitate a meeting 
        of the relevant East Asian country representatives, and Members 
        of Congress, in New York to discuss options for the peaceful 
        resolution of maritime disputes in the East China Sea and South 
        China Sea?

    Answer. I agree that the peaceful resolution of maritime disputes 
in the East China Sea and South China Sea must be a priority. U.S. 
officials regularly discuss this issue with relevant countries, and if 
confirmed, I would support those efforts in my meetings with 
representatives from other diplomatic missions. I would also look 
forward to having Members of Congress visit the U.N. to participate in 
discussions on this topic or any other topic of interest and concern.

    Question. During your long and distinguished career as a human 
rights champion, you served on the Board of the U.S. Committee for 
Human Rights in North Korea. The issue of North Korea's nuclear program 
is rightfully on the U.N. Security Council's agenda. The country's 
atrocious record of human rights abuse and crimes against humanity, 
however, are rarely addressed or invoked there.

  <bullet> If confirmed, do you pledge to publicly raise the North 
        Korean regime's human rights violations?
  <bullet> Do you believe that in addition to demands on the nuclear 
        program, the United States should routinely make demands to 
        North Korea that it undertakes reform, close its gulags, and 
        end the systematic repression and starvation of its population?

    Answer. As I said in my opening comments, if confirmed, standing up 
for human rights and human dignity will be one of my priorities as 
Ambassador to the United Nations. The human rights situation in the 
DPRK remains deplorable. The DPRK is one of the world's most systematic 
abusers of human rights. The State Department's annual ``Country 
Reports on Human Rights Practices'' details the breadth and depth of 
the government's human rights abuses. The human rights situation in the 
DPRK is addressed every year at the U.N. Human Rights Council (HRC) and 
in the U.N. General Assembly Third Committee and U.S. officials use 
their voice in these venues and beyond to highlight the horrible 
conditions in the DPRK. The United States calls on the DPRK to close 
its gulags, and end systematic repression and the starvation of its 
population. At the March 2013 HRC session, the United States worked 
closely with Japan, the European Union, and the Republic of Korea 
(ROK), among others, to cosponsor a resolution that established a 
Commission of Inquiry (COI) to investigate the grave, widespread, and 
systematic human rights violations in North Korea. The resolution was 
adopted by consensus, illustrating the extent to which the 
international community shares the concerns voiced repeatedly by the 
United States and others on the Council. The COI, led by Michael Kirby 
(Australia), and including Sonja Biserko (Serbia) and Marzuki Darusman 
(Indonesia), began its work on July 1.
    The COI will build on the important work by the Special Rapporteur 
on the situation of human rights in the DPRK, Marzuki Darusman, who has 
provided insightful and detailed reporting on the human rights 
situation despite the DPRK Government's refusal to grant him access to 
the country. The Special Rapporteur, whose mandate the United States 
has consistently supported, has provided an important monitoring 
function, reporting to the U.N. Human Rights Council every March as 
well as to the U.N. General Assembly every fall. The United States 
takes the opportunity of the interactive dialogue with the Special 
Rapporteur to express our concerns about human rights in North Korea.
    The United States will continue to work with partners at the Human 
Rights Council to support the COI in its important work, and looks 
forward to the COI's interim report to the Human Rights Council in 
September and its full report of its findings to the HRC in March 2014.
    Ensuring the well-being of North Korean refugees and asylum seekers 
is also very important. If confirmed as Ambassador, I will ensure that 
we continue to work with other countries in the region and our 
international organizations, including the U.N. Human Rights Council 
and the U.N. High Commissioner for Refugees, to raise attention to the 
deplorable human rights conditions in the DPRK and to cooperate in the 
protection of partners, especially South Korea, on the issue of North 
Korean refugees and asylum seekers. If confirmed, I would continue to 
urge all countries in the region to act in conformity with the 1951 
U.N. Convention Relating to the Status of Refugees and its 1976 
Protocol.
    I would welcome any additional ideas you have on how we might raise 
the profile of the human rights crisis in the DPRK.

    Question. In your last position, one of your main responsibilities 
was promoting human rights as part of U.S. foreign policy. Highlighting 
human rights issues in China is one of the most contentious parts of 
the United States-China relationship; many critics have said that the 
U.S. Government soft pedals on human rights in China at the expense of 
other political and economic concerns.

  <bullet> If confirmed, how will you use your position to promote 
        human rights in China? Will you ensure that China's human 
        rights problems are not made secondary to other issues?
  <bullet> How will you use China's candidacy to the U.N. Human Rights 
        Council in Geneva--which requires a U.N. General Assembly 
        vote--to highlight and raise international concerns with 
        China's human rights record?

    Answer. Promoting human rights--including the fundamental freedoms 
of religion, expression, assembly, and association--is a central 
objective of U.S. foreign policy around the world, including with 
China. In my opening statement, I highlighted standing up for human 
rights and human dignity as one my priorities, if I am confirmed as 
Ambassador to the United Nations. The United States has consistently 
pressed the Chinese Government in senior-level meetings and dialogues, 
including during the Human Rights Dialogue, to improve its human rights 
record. If confirmed, I will emphasize to the Chinese that the 
deterioration of the human rights situation in China inevitably affects 
the overall bilateral relationship and harms China's own pursuit of 
stability and prosperity I will raise publicly and privately human 
rights concerns, while pursuing practical engagement with China on a 
range of human rights-related issues, such as the benefits of legal 
reform and a more robust rule of law. I would welcome additional ideas 
from you as to how to advance the case of human rights in China.
    The Obama administration has consistently urged the Chinese 
leadership to address the counterproductive policies that contribute to 
tensions and violence in Tibet and the Uighur areas, and pressed for a 
substantive dialogue with the Dalai Lama or his representatives, 
without preconditions.
    In addition to high-level bilateral dialogues, the United States 
uses every appropriate opportunity to highlight China's human rights 
record in multilateral fora, including regularly raising China's human 
rights abuses during the Item 4 intervention the United States delivers 
at the Human Rights Council (HRC).
    One useful vehicle for taking up this case is the Universal 
Periodic Review (UPR) process of the Human Rights Council. In China's 
previous UPR in 2009, participants highlighted repression of religious 
and other minorities, harassment and detention of human rights 
defenders, and the use of ``re-education through labor.'' As it does 
for all states undergoing review, the United States will make a 
statement highlighting key human rights concerns and recommendations 
for improvement during China's upcoming review in October, ahead of the 
elections for the Human Rights Council, expected in November.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                         by Senator Marco Rubio

    Question. On July 16, Panamanian authorities intercepted an illegal 
arms shipment from Cuba to North Korea. Cuba's actions violate at least 
three United Nations Security Resolutions.

  <bullet> Given North Korea's record of proliferation of weapons 
        technologies to other state sponsors of terrorism such as Syria 
        and Iran, doesn't this latest case make clear once again that 
        North Korea should be relisted as a state sponsor of terrorism?
  <bullet> What actions will the United States take at the United 
        Nations as a result of Cuba's violation of U.N. Security 
        Council resolutions regarding trade of prohibited items with 
        North Korea?

    Answer. As a matter of law, in order for any country to be 
designated as a State Sponsor of Terrorism, the Secretary of State must 
determine that the government of that country has repeatedly provided 
support for acts of international terrorism. The administration makes 
these designations after careful review of all available evidence to 
determine if a country meets the statutory criteria for designation.
    Even without being designated as a state sponsor of terrorism, 
North Korea remains among the most heavily sanctioned of any country in 
the world based on its announced nuclear detonations, ballistic missile 
activity, proliferation activities, human rights violations, and status 
as a Communist state. North Korea has also been subject to sanctions 
under multiple U.N. Security Council resolutions for its ongoing 
nuclear and ballistic-missile related activities, which constitute a 
clear threat to international peace. In January 2013, the U.N. Security 
Council adopted UNSCR 2087 (2013), condemning North Korea's December 
2012 satellite launch, which used prohibited ballistic missile 
technology, and on March 7, 2013, the U.N. Security Council unanimously 
adopted UNSCR 2094, condemning North Korea's February 12, 2013, nuclear 
test and imposing significant new sanctions under Chapter VII of the 
U.N. Charter.
    The administration has commended Panama for the recent actions it 
has taken to implement relevant U.N. Security Council resolutions with 
regard to the North Korean ship Chong Chon Gang. The United States will 
work closely with the Government of Panama, which has requested our 
assistance and the administration intends to provide assistance as best 
it can.
    North Korea's nuclear, ballistic missile, and proliferation-related 
activities constitute a serious threat to international peace and 
security and undermine the global nonproliferation regime. Shipments of 
arms or related material to or from North Korea, and services related 
to such items, would violate U.N. Security Council Resolutions 1718 and 
1874, as reaffirmed this year in Resolutions 2087 and 2094. These 
Security Council resolutions generally provide that all states shall 
prevent the direct or indirect transfer of weapons from their territory 
or by their nationals to North Korea and shall prohibit procurement of 
such weapons from North Korea.
    Panama has informed the U.N. Security Council DPRK Sanctions 
Committee of the incident and has invited the Panel of Experts, which 
assists the United Nations Security Council North Korea Sanctions 
Committee, to conduct an investigation.
    Panama's actions regarding the Sanctions Committee as well as 
requesting the involvement of the Panel of Experts will help clarify 
the involvement of the Government of Cuba with this issue. The 
administration hopes that the Sanctions Committee, with the support of 
the Panel of Experts, will investigate this case thoroughly, identify 
parties responsible and recommend actions to be taken in response. The 
administration notes that the Sanctions Committee has the ability to 
impose targeted sanctions (asset freeze/travel ban) on individuals and 
entities found to have contributed to prohibited activities or to 
evasion of the sanctions. The administration will look at all 
possibilities regarding appropriate actions once the Committee and 
Panel complete their work. The administration will keep you and your 
staff informed of progress and would welcome your recommendations on 
next steps.
    The United States will continue to work closely with all U.N. 
member states to ensure the full and transparent implementation of U.N. 
Security Council resolutions concerning North Korea. This will make it 
harder for DPRK to acquire the technology, know-how, and funds to 
develop its nuclear and ballistic missile programs, which the 
international community has repeatedly condemned. The administration 
will likewise continue to exercise our national authorities, where and 
when appropriate, to impede Pyongyang's nuclear, ballistic missile, and 
proliferation-related 
activities.

    Question. The National Security Staff at the White House is 
reportedly looking at ways to delist Cuba as a state sponsor of 
terrorism. Reports from July 16, 2013, clearly show Cuba's collusion 
with North Korea on weapons transfers. Additionally we already know 
that Cuba continues to provide safe haven to terrorist groups such as 
ELN and the FARC.

  <bullet> Do you agree that it only makes sense to retain Cuba on the 
        list of state sponsors of terrorism?

    Answer. The Reagan administration designated Cuba as a state 
sponsor of terrorism in 1982 due to its repeated provision of support 
for acts of international terrorism. After a designation is made, it 
remains in place until rescinded in accordance with the relevant 
statutes. The Department has no current plans to remove Cuba from the 
state sponsors of terrorism list. I support Department policy.
    The administration has commended Panama for the recent actions it 
has taken to implement relevant U.N. Security Council resolutions with 
regard to the North Korean ship Chong Chon Gang. The United States will 
work closely with the Government of Panama, which has requested our 
assistance and the administration intends to provide assistance as best 
it can. Panama has informed the U.N. Security Council DPRK Sanctions 
Committee of the incident and has invited the Panel of Experts, which 
assists the United Nations Security Council North Korea Sanctions 
Committee, to conduct an investigation. Panama's actions regarding the 
Sanctions Committee as well as requesting the involvement of the Panel 
of Experts will help clarify the involvement of the Government of Cuba 
with this issue.

    Question. I believe that we should immediately cease granting 
people-to-people 
licenses for travel to Cuba because of this latest evidence of 
collusion with North Korea. How can this administration advocate for 
relaxing policies with regard to the Cuban regime considering their 
support for illegal weapons transfers to North Korea? Is the President 
prepared to immediately halt all people-to-people programs to Cuba?

    Answer. If confirmed as Ambassador to the United Nations, I will 
stand up for human rights and human dignity. As I indicated in my 
opening statement, I intend to draw attention to the crackdown on civil 
society in several countries, including Cuba.
    The administration believes U.S. citizens are the best ambassadors 
of American values and that well-defined, purposeful travel that 
appropriately expands religious, cultural, and educational connections 
between Cubans and Americans allows Cubans to experience the freedom of 
association and expression they have too long been denied.
    Regulations regarding such travel have been intentionally 
structured to maximize the benefits to, and contact with, the Cuban 
people.

    Question. Will you support efforts to get the United Nations to 
increasingly rely on voluntary contributions to fund its regular 
budget?

    Answer. In these tough times, when American taxpayers are 
scrutinizing their budgets, we need to do the same. I share your 
concern about the historical growth in the U.N. budget and increase in 
our share of the peacekeeping assessment. We have to be zealous in our 
scrutiny of every program and every initiative that the American people 
are helping to support through their generosity.
    We have had significant success over the last 4 years on a U.N. 
reform agenda--building on some of the work done by our predecessors. 
We have sought reductions in the peacekeeping budget of over $500 
million.
    The United States and other major contributors to the United 
Nations have been working very hard to limit growth in the U.N. regular 
budget. The administration has been successful in keeping the 2012-2013 
budget level below the level of the 2010-2011 budget, marking only the 
second time in 50 years that the U.N. regular budget decreased from the 
previous biennium.
    Assessed contributions ensure a shared financial responsibility 
among all U.N. member states and provide a stable and predictable 
funding source needed to enable the United Nations to address a wide 
array of global challenges.
    A voluntary approach to funding would undercut U.S. arguments for 
burden-sharing in areas where the United States has strong national 
interests, such as peacekeeping and the special political missions in 
Iraq and Afghanistan. In addition to this, a voluntary approach would 
likely result in an overreliance on a handful of member states with the 
United States paying a greater share of the costs.

    Question. Do you agree that the most effective tool we have in 
getting the United Nations to become more effective and transparent is 
to condition our financial contributions on specific reform metrics?

    Answer. We must seek reforms across the U.N. system to guarantee 
our financial contributions are spent effectively. The best metric is a 
well-run cost-efficient United Nations. By contrast, successive 
administrations--Republican and Democratic--have argued against 
conditioning U.S. contributions to the U.N., because the U.S. 
Government experience has been that the United States has diminished 
our leverage for reform when we are not inside. For example, when we 
were in arrears, even our closest allies were less willing to cooperate 
with us, including on reform issues. In 1996, our candidate to the 
Advisory Committee on Administrative and Budgetary Questions (ACABQ)--
an important body that scrubs U.N. budgets and advises on management 
issues--suffered an embarrassing defeat (receiving only 55 of 173 
votes) in a rebuke over U.S. arrears.
    By contrast, we have seen significant reforms achieved by robust, 
long-term, sustained engagement. These include: the establishment of 
the Office of Internal Oversight Services, the U.N. Independent Audit 
Advisory Committee, and the U.N. Ethics Office; advancement in U.N. 
transparency efforts by making the Office of Internal Oversight 
Services' internal audit reports publicly available; reforms to the 
current U.N. air travel policy that put in place common sense 
restrictions on use of business class travel and abolishment of several 
unnecessary and costly reimbursement practices; and improvements to 
U.N. human resources policies, including a pay freeze and right-sizing 
exercise pending the outcome of comprehensive reviews of staff needs 
and compensation and enhancements to performance management and 
management accountability.

    Question. Given that several notorious human rights abusers (as is 
the case with Iran and Syria currently), perennially try to run for 
seats on the Council, do you agree that the United States should make 
its participation in the Council contingent upon certain standards for 
membership?

    Answer. United States engagement in the U.N. Human Rights Council 
(HRC) has resulted in real progress in promoting and protecting human 
rights globally. U.S. reelection to the HRC last year--with the highest 
number of votes among its five Western competitors--was a clear 
indication that the rest of the world views U.S. leadership on the HRC 
as crucial. Though hard to measure, we also believe the good will 
generated by our principled engagements has enhanced U.S. standing as a 
human rights leader beyond the Council.
    The United States remains concerned that countries with poor human 
rights records continue to be elected to seats on the HRC. The U.N. 
General Assembly, which elects members of the HRC by secret ballot, is 
supposed to elect only members that ``uphold the highest standards in 
the promotion and protection of human rights.'' The United States 
actively seeks to positively influence the elections both by 
encouraging countries with strong human rights records to seek seats 
and by encouraging competitive elections for the HRC.
    The United States has also worked behind the scenes with other 
countries to oppose the election of some of the worst human rights 
violators to the Human Rights Council and other important global bodies 
and will continue to do so. As you may know, a relentless diplomatic 
campaign by the United States helped keep Syria, Iran, and Sudan from 
becoming members in the recent past.
    We agree it should not take this kind of effort to keep countries 
in regional blocs from voting for bad actors. But we pledge to fight 
aggressively such disturbing campaigns which undermine the Council and 
the broader human rights agenda.
    U.S. membership and leadership are critical to improving the 
Council's performance, and we recognize that a lot of hard work lies 
ahead.

    Question. In the last session of the United Nations General 
Assembly, 131 countries--out of 193 member states--voted against the 
United States position on more than 50 percent of the rollcall votes. 
Among these 131 countries are several recipients of considerable 
amounts of U.S. foreign assistance.

  <bullet> Do you agree that a country's voting pattern at the United 
        Nations should be a factor in determining levels of U.S. 
        foreign assistance?

    Answer. A country's voting record at the United Nations is always 
relevant to its bilateral relationship with the United States. The 
administration references U.N. voting in our bilateral discussions at 
all levels, and we believe that member states should be held 
accountable for votes we deem problematic.
    Obviously, there are a range of factors that go into our assessment 
of the bilateral relationship and divergent votes are just one 
dimension of a country's relations with the United States. We should 
consider the full range of economic, strategic, and political factors 
when considering how to utilize our foreign assistance.

    Question. In late 2000, the U.N. agreed to lower the U.S. 
peacekeeping assessment to 25 percent of its total budget. However, in 
the most recent U.N. Budget (2013-2015) the U.S. share of the 
peacekeeping budget will rise to 28.4 percent.

  <bullet> Do you agree that the United States should seek to reverse 
        this trend and lower the U.S. share of the peacekeeping budget 
        to 27 percent?
  <bullet> What specific steps can you pledge to take to reverse this 
        increase in the U.S. share of the U.N. peacekeeping budget?

    Answer. The United States will work over the next 2 years to try to 
achieve reforms in the U.N. scales of assessment methodology to more 
equitably distribute the U.N. budget, in advance of the General 
Assembly's next review of the scales of assessment in 2015. The United 
States believes that emerging power--including China, India, Brazil, 
and Turkey--need to pay their fair share of the U.N. budget.
    Although the latest scale of assessments included notable increases 
for several countries, including China and Russia, the methodology used 
to calculate each country's share needs to be streamlined and updated. 
If confirmed, I will work to address the scales in the context of a 
broader U.N. reform agenda, identify alternative methodologies for the 
scales of assessments that properly reflect capacity to pay, and work 
closely with other major financial contributors to ensure their support 
for our efforts.

    Question. Do you support the creation of an inspector general to 
investigate and audit the use of U.S. contributions to the United 
Nations?

    Answer. Strong oversight is important, which is why the United 
States has consistently pushed for credible external and internal audit 
functions at all U.N. organizations. The United States has great 
confidence in the quality and integrity of the National Audit Offices 
serving as the external auditors of U.N. organizations, which functions 
like a U.S. Government IG. The external auditors examine the financial 
statements and accounts of U.N. organizations. This arrangement avoids 
duplication of effort and assures that the external auditors are 
accountable to the entire membership.
    If confirmed, I would support efforts to assure that U.N. internal 
auditors have adequate resources and independence to carry out their 
oversight responsibilities.

    Question. Do you agree that the United States should condition its 
contributions to the United Nations on certification that no U.N. 
agency or affiliated agencies grants any official status, 
accreditation, or recognition to any organization which promotes or 
condones anti-Semitism?

    Answer. Anti-Semitism is a scourge that cannot be tolerated. Our 
special envoy to combat anti-Semitism uses all means and venues to make 
sure it is stamped out. The United States is steadfast in combating all 
forms of anti-Semitism, and actively works to prevent the United 
Nations from being used as a platform for any hate speech. For example, 
the United States has continued its opposition to the Durban 
Declaration and Programme of Action (DDPA) in all U.N. venues given 
concern about anti-Israel references, as well as language that calls 
for undue restrictions on freedom of expression. Our diplomats have 
staged walkout during the presentations by Iranian President 
Ahmadinejad or other leaders who spew anti-Semitic hate. At the U.N. 
Human Rights Council (HRC), the U.S. delegation calls points of order 
if any delegations use anti-Semitic language, including terms such as 
``blood libel.'' Senior government officials, including now-National 
Security Advisor Ambassador Susan E. Rice and Ambassador Eileen Donahoe 
(HRC) have stated publicly several times that Richard Falk is not fit 
to serve as a U.N. special rapporteur given his past anti-Semitic 
remarks.
    If confirmed, I will join these public condemnations. If confirmed 
as Ambassador to the United Nations, I would continue to stand up to 
every effort that seeks to delegitimize Israel or undermine its 
security.

    Question. Last year, 19 out of 78 rollcall votes at the General 
Assembly, involved the condemnation of Israel. Do you agree that this 
represents a disproportionate focus on Israel? If so, what practical 
measures would you, if confirmed, take to significantly reduce or end 
this practice?

    Answer. I agree that the U.N. General Assembly disproportionately 
focuses on Israel. As I said in my testimony, ``Israel's legitimacy 
should be beyond dispute, and its security must be beyond doubt. Just 
as I have done the last 4 years as President Obama's U.N. adviser at 
the White House, I will stand up for Israel and work tirelessly to 
defend it.''
    If confirmed, I will continue the administration's efforts to 
normalize Israel's status at the United Nations, including vigorously 
opposing one-sided, biased resolutions, fighting any efforts to 
delegitimize Israel, and supporting Israel's positive engagement with 
the United Nations.
    U.S. officials meet regularly with host governments and U.N. 
officials to make known our opposition to unfair and biased resolutions 
that directly or indirectly target Israel. We repeat this message in 
capitals and in Geneva. The United States consistently opposes any 
texts or actions that criticize Israel unfairly in any U.N. body or 
specialized agency, and I will maintain that position.
    If confirmed, just as I did as President Obama's U.N. adviser, I 
would take every opportunity to make clear the administration's 
position that one-sided actions in international fora will not advance 
the aspirations of the Palestinian people. We make the costs of 
unilateral action clear to the Palestinians and to those who have 
supported counterproductive unilateral action in the United Nations. I 
believe that such actions at the U.N. will make it harder to achieve 
progress toward Middle East peace, possibly driving the parties further 
apart, heightening the risk of violence on the ground that could claim 
innocent lives on both sides, and risking hard-won progress in building 
Palestinian institutions.
    U.S. officials meet regularly with host governments and U.N. 
officials to make known our opposition to unfair and biased resolutions 
that directly or indirectly target Israel. The United States 
consistently opposes any texts or actions that criticize Israel 
unfairly in any U.N. body or specialized agency, and I will maintain 
that position.
    If confirmed, I will also explore new opportunities for Israel to 
engage in the United Nations, whether it is supporting the 
participation and selection of Israelis for leadership roles in U.N. 
programs and agencies, or backing Israeli initiatives at the General 
Assembly, like this year's entrepreneurship resolution. Israel was 
elected to the Executive Board of the U.N. Development Programme in 
2012 and will serve on the board of UNICEF in 2013. The United States 
will continue to support efforts to expand Israel's participation in an 
important negotiating group in New York and Geneva (WEOG) to enhance 
Israeli participation in the U.N. system. Israel's candidacy for a seat 
on the U.N. Security Council for the 2019-2020 term--which the United 
States strongly supports--is based on its membership in WEOG.

    Question. If confirmed, would you advocate for the United Nations 
Relief and Works Agency for Palestine Refugees in the Near East (UNRWA) 
to harmonize its definition of ``refugee'' with that of the U.N. 
Refugee Agency (UNHCR)?

    Answer. The United Nations High Commissioner for Refugees (UNHCR) 
defines a refugee under the terms of the 1951 United Nations Convention 
Relating to the Status of Refugees as a person who, ``owing to a well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality, and is unable to 
or, owing to such fear, is unwilling to avail himself of the protection 
of that country or return there because there is a fear of persecution 
. . . ''.
    The United Nations Relief and Works Agency for Palestine Refugees 
in the Near East (UNRWA), which predates the creation of UNHCR, defines 
a refugee for purposes of its operation as any person whose ``normal 
place of residence was Palestine during the period 1 June 1946 to 15 
May 1948 and who lost both home and means of livelihood as a result of 
the 1948 conflict,'' and descendants of fathers fulfilling those 
criteria.
    In protracted situations of displacement, groups experience natural 
population growth over time. UNHCR and UNRWA both generally recognize 
descendants of refugees as refugees for purposes of their operations; 
this approach is not unique to the Palestinian context. For example, 
UNHCR recognizes descendants of refugees as refugees in populations 
including, but not limited to, the Burmese refugee population in 
Thailand, the Bhutanese refugee population in Nepal, the Afghan 
population in Pakistan, and the Somali population seeking refuge in 
neighboring countries.
    The United States acceptance of UNRWA's method of recognizing 
refugees is unrelated to the final status issue of Palestinian 
refugees, which can only resolved in negotiations between the parties.

    Question. July 22 will mark the first anniversary of the death of 
Oswaldo Paya Sardinas in a car crash Cuba. Mr. Paya was an 
internationally respected member of Cuba's beleaguered democracy 
movement, and newly available evidence by a survivor of the crash has 
raised questions about the possible involvement of the Cuban regime in 
the crash.

  <bullet> If confirmed, what measures would you take to seek a 
        credible U.N. investigation of the circumstances surrounding 
        Mr. Paya's death?
  <bullet> Would you commit to give Mr. Paya's surviving daughter (Rosa 
        Maria Paya) a forum at the United Nations to ask for such 
        investigation?

    Answer. I understand and agree strongly with the call the 
Department of State has already made for an independent investigation, 
with independent, international observers, into the circumstances 
leading to the deaths of Oswaldo Paya and Harold Cepero, and if 
confirmed I will continue to support such calls and encourage other 
U.N. delegations to do the same. Additionally, I understand the 
Department of State also called for an independent investigation at the 
June 2013 session of the U.N. Human Rights Council.
    At both the U.N. General Assembly (UNGA) in New York and the U.N. 
Human Rights Council (HRC) in Geneva, civil society representatives 
play a crucial part in highlighting human rights issues of concern. In 
March 2013, Ms. Paya came before the HRC to call the Council's 
attention to her father's tragic and untimely death.
    As you know, if I am confirmed as Permanent Representative to the 
United Nations, I have agreed to reach out to Rosa Maria Paya to speak 
with her directly. I would also reach out to Assistant Secretary 
General for Human Rights, Ivan Simonovic, to encourage the Office of 
the High Commissioner for Human Rights to conduct a thorough 
investigation. I would like to explore any and all appropriate venues 
for raising the profile of this case and of the broader human rights 
plight of the Cuban people.

    Question. If confirmed, what steps would you take to raise 
international attention about Cuba's poor human rights record at the 
General Assembly?

    Answer. As I stated in my opening testimony, the United Nations 
must stand up for human rights and human dignity, which are American 
and universal values. I also spoke about the need to contest the 
crackdown on civil society being carried out in Cuba. If confirmed, I 
intend to continue to speak about this issue, including at the U.N. 
General Assembly and at any other appropriate venue that we identify. 
As it stands now, the United States uses every appropriate opportunity 
to highlight Cuba's human rights record in multilateral fora, including 
at the U.N. General Assembly. If confirmed, I will redouble these 
efforts. This will include diplomacy to strongly make the case to 
increase votes against the annual Cuban embargo resolution at the U.N. 
General Assembly. It will also include consulting with you, other 
interested Members of Congress, and Cuban advocates to come up with 
fresh venues and approaches to drawing attention to the dire human 
rights conditions inside Cuba.

    Question. Has the United States response to events such as the 2009 
protests in Iran after the fraudulent election of Mahmoud Ahmadinejad 
or to the revolutions of the Arab Spring been adequate and timely? Have 
we capitalized on the opportunity for fundamental change to occur in 
these countries that would advance U.S. interests in the long term?

    Answer. The uprisings in the Arab Spring grew out of the deep 
longings of the people of the region for freedom, dignity, and 
opportunity, after decades of oppression and an illusory stability 
where citizen aspirations were suppressed but never addressed. Today we 
see many countries in the region struggling on the long, very bumpy 
road to democracy and stability, and the administration is deploying a 
range of diplomatic, economic, and other tools to support the peoples 
and governments of the region, as it is in the U.S. interest to see a 
more peaceful, democratic Middle East. Through this period the United 
States policy has been defined by support for three principles: 
nonviolence, respect for universal human rights, and meaningful 
political and economic reform on the road to democracy.
    As you note, the first match was lit in Tehran in 2009, when 
millions rose up to demand democracy and protest Iran's stolen 
election. The United States stood with the Iranian people, voicing 
strong American support for those seeking to exercise their universal 
rights. However, the Iranian regime--terrified of the implications of a 
democratic movement within its borders--crushed that inspiring 
movement, arresting, beating, and killing peaceful oppositionists, 
political activists, and average Iranians who refused to have their 
voices ignored. This was an outrage, and the administration said so. On 
June 23, the President said, ``The United States and the international 
community have been appalled and outraged by the threats, the beatings, 
and imprisonments of the last few days. I strongly condemn these unjust 
actions, and I join with the American people in mourning each and every 
innocent life that is lost.'' Over the past several years, the 
administration has worked in Geneva to establish and support the first-
ever country-specific Special Rapporteur for Human Rights, for Iran; we 
have established ever-wider margins for the annual Iran human rights 
resolution in the General Assembly; and we continue to impose sanctions 
against human rights abusers, including those who use technology to 
commit human rights abuse. I would welcome the opportunity to consult 
about any additional steps we might take to support human rights in 
Iran.
    In Libya President Obama mobilized broad international support and 
led a coalition to help the Libyan people rid their country of a tyrant 
who had made clear his intention to murder all those who opposed him 
and stood up for democracy. He was also a dictator who had brought 
great harm to American and other innocent families. With Ghadaffi gone, 
the Libyan people have the opportunity to chart a new direction for 
their country and build their democracy. They face significant 
challenges in light both of the evisceration of institutions under 
Ghadaffi and the growth of militias and the vast quantities of arms in 
Libya. These challenges cannot be overstated. And it will surely take 
time--and support from the broader international community--for the 
Libyan people to build a peaceful democratic Libya, but U.S. leadership 
made it possible for the brave Libyan people to embark upon that 
journey. The United States now stands as a partner to Libyans who are 
investing their lives in building that future.
    Egyptians, too, stand at another crossroads in their journey toward 
peace and democracy. There is a tremendous yearning for change and yet 
enormous challenges remain for the Egyptian people to move in an 
inclusive, rights-respecting fashion toward stability and justice. In 
response to the original uprising, President Obama made it clear to the 
Egyptian people that he respected their universal rights of protest; 
the administration worked behind the scenes through political and 
military channels to urge nonviolence against the protesters; and, with 
congressional support, the United States stepped in with a variety of 
forms of technical, democracy, and other assistance to help support 
Egypt as it planned and executed its first democratic elections. In a 
country of such strategic importance to the broader region, this 
support was important. Unfortunately, while the Muslim Brotherhood won 
Egypt's elections, millions of Egyptians had legitimate grievances with 
the way the Morsi government was governing, prompting large-scale 
popular protests. There was considerable unrest, and the potential for 
greater violence. U.S. officials at all levels engaged the Muslim 
Brotherhood in an effort to convince them to address the people's 
legitimate concerns, make compromises, govern in a more inclusive 
manner, respect human rights, and promote minority rights. Today, in 
the wake of recent events, it is critical that those attempting to 
shepherd the transition back to democracy change that dynamic by 
attempting to govern on behalf of all Egyptians, including those with 
whom they disagree. This is a message the administration is sending 
through all channels, including, most recently, through the very public 
comments by Deputy Secretary Burns in Cairo. The administration is 
eager to stand with the Egyptian people as they rebuild their economy 
and their political system so that it is truly democratic and respects 
human rights. Our assistance and longstanding ties with the government, 
the military, and the people give us a platform from which to urge them 
to promptly and responsibly get back on a path toward an inclusive and 
sustainable democracy.
    Syria is the most complex and tragic of the issues confronting us, 
our allies and the entire Middle East. The President has put in place a 
multifaceted approach designed, with our international partners, to 
strengthen moderate elements of the opposition and bring about the too-
long-awaited political transition to democracy. In addition to imposing 
crippling sanctions against the Assad regime, we have contributed 
nearly a billion dollars' worth of humanitarian aid, and critical 
nonlethal assistance to strengthen opposition capabilities and 
institutions. In addition, the President announced recently that--in 
response to Assad's chemical weapons use--we would provide additional 
forms of support to vetted units in the opposition military. We have 
encouraged the opposition, which has been woefully fractured, to unite 
so the people in Syria view them as a viable alternative. This is very 
much a work in progress, and nobody is satisfied with the state of 
events on the ground, especially as more than 100,000 Syrians have been 
killed and the conflict continues to destabilize the broader region.
    These are just a few examples of a region in flux and tumult. The 
best way for us to capitalize is to continue to be engaged, 
understanding that the path will not be smooth nor without setbacks. We 
need to work with the governments and groups who represent democratic 
values and respect for human rights, and who understand the need to 
create jobs and economic opportunity. The President is committed to 
seeing that happen, and I am committed to supporting his efforts 
throughout the region.
    As with all of these issues, if confirmed, I will need to rely on 
your thoughts and advice. As I said in my meetings and at my hearing, I 
cannot do this job without you.

    Question. The administration has been criticized for not speaking 
out frequently and forcefully enough in support of democratic movements 
and freedom fighters over the last 5 years. How do you judge the 
administration's record in this area? If confirmed, how would you use 
your platform at the United Nations to highlight the plight of those 
oppressed by their governments?

    Answer. Support for democracy and human rights defenders is a core 
American value, and the Obama administration has not shied away from 
speaking out for those who are seeking their universal fundamental 
freedoms. As I said in my opening statement, if confirmed, standing up 
for human rights and human dignity will be one of my priorities as 
Ambassador to the United Nations. I believe peoples suffering human 
rights violations look to the United States for leadership. And often 
in our history the U.S. Ambassador to the U.N. has raised a loud voice 
on behalf of American values and fundamental freedoms.
    In his first address to the U.N. General Assembly in 2009, 
President Obama stated, ``there are basic principles that are 
universal; there are certain truths which are self evident. And the 
United States of America will never waver in our efforts to stand up 
for the right of people everywhere to determine their own destiny.''
    President Obama firmly supported the international effort to ensure 
the emergence of an independent South Sudan. Likewise, U.S. leadership 
was key in building an international coalition to prevent a massacre of 
civilians in eastern Libya, and to support the Libyan people to 
overthrow the Qadhafi regime and begin a transition to democracy after 
four decades of brutal dictatorship. More broadly, in response to the 
Arab Spring, the United States has spoken out strongly for political 
change that gives citizens a greater voice in their government, for the 
rights of 
free speech and peaceful protest, and for the political participation 
of women and minorities.
    Obviously, when fewer than half the countries in the United Nations 
are fully free, we cannot be satisfied. When men, women, and children 
are being slaughtered in Syria we cannot be satisfied. When individuals 
are routinely jailed, harassed, and abused for advocating for their 
freedoms, and when governments are cracking down on civil society 
around the world, we have to find fresh ways to influence governments 
and support freedom and those who struggle to promote it. I would 
welcome any further ideas you have to achieve our shared ends.
    As a means to highlight their struggles and improve their 
situations, the United States joined more than 60 other countries in 
2011 to cosponsor a resolution at the U.N. Human Rights Council 
renewing the mandate for the Special Rapporteur on the situation of 
human rights defenders. Additionally, in March 2012, the U.S. 
cosponsored a resolution on the promotion and protection of human 
rights in the context of peaceful protests.

    Question. If confirmed, as a member of the Principals Committee, 
what unexplored options for influencing the outcome in Syria and 
achieving the fall of Assad would you advocate?

    Answer. I agree with the premise of your question, which is that 
the administration should leave no stone unturned and no option 
unexplored. The administration has said repeatedly that the President 
continues to review all options for addressing the crisis in Syria, as 
the situation changes on the ground. If confirmed, it will be my 
responsibility to contribute to that constant assessment and review of 
the situation and potential options for U.S. policy, given the truly 
outrageous situation on the ground in Syria. If confirmed, I will work 
with my colleagues to explore, evaluate, and reevaluate every means we 
might use to bring about the day when the Syrian people can be rid of 
Assad's tyranny, and begin to rebuild their country with a government 
that respects their rights and gives them the opportunity for a better 
future. I would also like to consult very closely with Members of the 
Congress who care deeply about this issue, to be sure that we are 
considering all variables and all options that could help influence 
outcomes in Syria in a manner that advances our national security 
interests.

    Question. In an essay titled ``Full Force'' published by the New 
Republic on March 2003 you recommended ``a historical reckoning with 
crimes committed, sponsored, or permitted by the United States.'' These 
views strike me as outside the mainstream American view of our Nation's 
role in the world, and I would like to give you an opportunity to 
clarify them.

  <bullet> Which crimes do you believe have been committed by the 
        United States that need reckoning?
  <bullet> Which crimes do you believe have been sponsored by the 
        United States that need reckoning?
  <bullet> Which crimes do you believe have been permitted by the 
        United States that need reckoning?

    Answer. Thank you for the opportunity to expand on my response to 
your question regarding language in the 2003 New Republic article. The 
passage you cite does not accurately reflect my view of the United 
States. If I had it to do over, I would have used very different 
language, especially because the article itself is an extended and 
passionate call for America's moral leadership in the world. Promoting 
American values as a pillar of our foreign policy has been the 
objective of everything I have written about American foreign policy. 
There have been times when we have failed to live up to our high 
standards and when American leaders of both parties have acknowledged 
error and changed course, often after vigorous domestic policy 
disagreements and sometimes at the behest of Congress. This ability of 
the United States to honestly explore areas of policy disagreement and 
move forward is a hallmark of our strength. In my testimony I cited 
President Clinton's discussion of his feelings about the genocide in 
Rwanda. I might also have cited President Reagan, who in 1988 in 
signing the Civil Liberties Act memorably said, ``We must recognize 
that the internment of Japanese-Americans was just that: a mistake.'' 
Such statements help set us apart from those countries that tolerate no 
criticism, trample on checks and balances, and deny their people the 
fundamental freedoms that Americans enjoy.
    If I have the privilege of representing this country at the United 
Nations, I will work tirelessly to protect the interests and values of 
the American people.
    I will defend America because I am proud of America.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                    by Senator Christopher A. Coons

    Question. Mali.--The events in both Mali and Libya show how 
instability in one country can destabilize an entire region, and create 
attractive targets for extremist groups intent on harming local and 
American interests.

  <bullet> In the case of Mali, do you think it is important for the 
        international community to deploy U.N. peacekeepers to the 
        north in an effort to secure the gains made by the French 
        earlier this year?
  <bullet> What effect do you think greater stability in northern Mali 
        will have on the 
         region as a whole?

    Answer. The United States believes it is vitally important for the 
international community to deploy U.N. peacekeepers to consolidate the 
gains achieved by French forces earlier this year and to make progress 
in addressing the underlying causes of instability in northern Mali. 
Bert Koenders, Special Representative of Secretary General Ban Ki-moon 
and Head of the United Nations Multidimensional Integrated 
Stabilization Mission in Mali (MINUSMA), said: ``The establishment of 
MINUSMA is the result of a unanimous decision of the United Nations 
Security Council and has reaffirmed the engagement of the international 
community to accompany the people of Mali in their quest for stability, 
peace, and prosperity.''
    MINUSMA has a comprehensive mandate to stabilize key northern 
population centers, support the political process, and contribute to 
strengthening Mali's institutions, which are crucial to ensuring that 
northern Mali is no longer hospitable to extremist and terrorist 
forces, whose protracted entrenchment contributed to state collapse in 
Bamako last March. The United Nations envisions that MINUSMA will 
maintain a relatively light presence in Bamako, while deploying to key 
northern cities, including Gao, Timbuktu, Kidal, Tessalit, and 
Douentza.
    Greater stability in northern Mali is critical to international 
peace and security, and particularly, the stability of the Sahel 
region, which faces complex and interrelated security and governance 
challenges, including from al-Qaeda. If confirmed, I will work with 
colleagues in the United States Government, as well as the United 
Nations and our allies and partners, to support and implement an 
integrated strategy for peace and security in the Sahel.

    Question. Mali.--With more than 12,600 uniformed personnel deployed 
to a vast and extremely difficult operating environment, it will be 
critical for MINUSMA to possess the resources and equipment necessary 
to be effective. Because of the timing of the crisis, this mission was 
not included in the administration's budget request.

  <bullet> How would a lack of adequate U.S. funding affect MINUSMA's 
        ability to operate and carry out its mandate?

    Answer. It is essential that all U.N. peacekeeping operations have 
the resources they need to fulfill their mandates, which are critical 
to the maintenance of international peace and security.
    Insufficient funding may lead to personnel and capability 
shortfalls in U.N. peacekeeping operations that negatively impact their 
ability to fulfill their mandates, undermining the effectiveness of 
peacekeepers and threatening the lives of both the peacekeepers and the 
civilians they are mandated to protect.
    In the case of Mali in particular, the consequences of insufficient 
funding to the U.N. Multidimensional Integrated Stabilization Mission 
in Mali (MINUSMA) could undermine the recent progress and fragile peace 
and endanger stability in the region, which would directly damage our 
own national security interests.
    The administration will continue to explore all available options 
to meet President Obama's commitment to pay our dues on time and in 
full, consulting closely with Congress on the appropriate way forward.

    Question. Peacekeeping operations are now being termed 
``stabilization operations'' in DRC and Mali, and being asked to use 
force and undertake roles and responsibilities that far outstrip 
existing U.N. military doctrine, training, capacity (e.g., intelligence 
and command and control), not to mention civilian capacity. The United 
States authorized these mandates.

  <bullet> How will you ensure that new iterations of peace operations 
        do not make the United Nations more vulnerable to belligerent 
        threats or increase risks to civilians that peacekeepers are 
        mandated to protect?
  <bullet> How do you view this new mandate, and the supply of unmanned 
        aerial vehicles, impacting the situation in the DRC 
        specifically?

    Answer. The world is more dangerous, and the challenges and threats 
to peacekeepers more acute than they were 30 or 40 years ago. While the 
fundamentals of U.N. peacekeeping remain unchanged--such as the use of 
force only in self-defense or in defense of the mandate--the 
circumstances in which peacekeepers are needed today are often far more 
complex and challenging than traditional operations implementing a 
peace agreement between two warring states. Instead, they are often 
needed to help protect civilians and build peace in fragile states 
facing armed groups and other spoilers to the peace, as in Mali and 
Congo. Al-Qaeda and its affiliates have also targeted U.N. personnel on 
numerous occasions. To operate in such challenging environments, U.N. 
personnel require a wide range of military, police, and civilian skills 
and capacity, as well as adequate security.
    The United States helps to build this capacity by actively 
supporting the U.N.'s development of modern doctrine, guidance, and 
training, and by providing training and equipment. This includes the 
new infantry battalion manual the United Nations recently released, and 
the development of similar manuals currently being drafted for other 
peacekeeping units, as well as work on issues such as command and 
control, protection of civilians, gender, and child protection. State 
and Defense offices work in very close cooperation on these issues, 
including through the Global Peace Operations Initiative which helps 
troop-contributing countries prepare their contingents to serve in U.N. 
missions, including through the provision of personal protective 
equipment.
    The administration has been very engaged for several years in 
reforms to the U.N.'s process for recruiting, hiring, and retention of 
staff with the necessary skills, including addressing the incentives 
and working conditions necessary to keep good people in the field. The 
United States commissioned a study on the reasons for the shortage of 
helicopter assets, which is a key step toward finding solutions. The 
administration is actively encouraging and supporting the 
implementation of recommendations from that study. The administration 
is also a lead proponent of contingency planning for crises, including 
support to the U.N.'s new Operations and Crisis Center and mission-
specific plans, in particular related to protection of civilians.
    As for the U.N. mission in the Democratic Republic of the Congo, it 
has long had the authority to use force to protect civilians from the 
predations of armed groups. Security Council Resolution 2098 of March 
2013 did not change that authority or the mission; it only made it more 
explicit, by adding a brigade that is trained, organized, and equipped 
to deal with armed groups and other threats to civilians. We will 
encourage the troop contributors to enforce the critical mandate. 
Similarly, the introduction of unarmed, unmanned aerial systems in 
Congo will permit the U.N. mission to detect and react more rapidly to 
threats to the civilian population and to the mission itself.

    Question. President Obama announced the creation of an interagency 
Atrocities Prevention Board (APB) during a speech last year at the U.S. 
Holocaust Memorial Museum. The Atrocities Prevention Board, previously 
under your leadership, has been tasked with creating new tools to 
prevent wide-scale violence against civilians, in addition to 
identifying countries at risk of such crimes. Over the past year, the 
APB has sparked preventive action in places like Burma and Kenya, in 
addition to crafting important bureaucratic reforms to mainstream 
atrocities prevention training and early warning. However, the United 
States has yet to meaningfully engage diplomatically with other 
countries' on strengthening their own atrocities prevention capacities.

  <bullet> In your new role at the United Nations, should you be 
        confirmed, how will you engage with U.N. members states on 
        atrocities prevention and challenge them to create structures 
        similar to the APB?

    Answer. As President Obama said in his August 2011 Directive on 
Mass Atrocities, ``preventing mass atrocities and genocide is a core 
national security interest and a core moral responsibility of the 
United States.'' In the same directive, the President also sent a 
strong signal on the importance of sharing that responsibility with 
other countries. Just as the United States is committed to 
strengthening our own capabilities to focus on preventing and 
responding to mass atrocities, this administration is committed to 
working with a wide range of partners to ensure that the international 
community is well-positioned to be effective in this regard.
    While many of our partners already have strong commitments to 
civilian protection and conflict prevention, the administration 
believes that the process we have undertaken in formulating our 
comprehensive atrocity prevention strategy and standing up the 
Atrocities Prevention Board has generated new and useful insights into 
how governments can do more to position themselves to prevent and 
respond to the worst crimes known to humankind. For more than a year, 
we have sought opportunities to share our experience and insights with 
our partners in a range of settings.
    For example, the administration regularly discusses our efforts on 
atrocity prevention with those who join the U.N. Security Council in 
order to see how we can learn from each other, develop stronger tools, 
and enhance cooperation.
    Given the important role of regional organizations, the United 
States has held technical discussions at the regional level on 
strengthening our joint capabilities for conflict prevention, which can 
help protect civilian populations vulnerable to the threat of violence 
and atrocities.
    A significant part of the administration's effort is its 
partnership with the United Nations. The United States is working to 
build the capacity of the United Nations for atrocity prevention by 
advocating for better coordinated crisis planning and response across 
U.N. bodies; deepening our partnership with the Office of the Special 
Advisor on the Prevention of Genocide; urging all U.N. field missions 
to enhance their early warning capacity; and contributing voluntary 
funding to U.N. preventive diplomacy.
    To bolster the administration's diplomatic engagement with 
countries on atrocity prevention matters, the United States has also 
joined with other member states in fora dedicated to the discussion of 
atrocity prevention and to promoting the use of mediation as a tool for 
conflict prevention.
    If confirmed, I will work to deepen this cooperation, look for new 
ways to share the lessons the administration has learned, and foster 
new and enhanced partnerships that will advance our efforts to prevent 
atrocities.

    Question. Great Lakes.--Despite the passage of a U.N. resolution, 
the creation of a multilateral Peace, Security and Cooperation 
Framework for negotiations, and the appointment of an envoy to the 
Great Lakes, the crisis in eastern Congo continues.

  <bullet> If you are confirmed, what steps will you take up in New 
        York to support implementation of the Framework and cessation 
        of external support to militias, which has been documented by 
        the United Nations, that continue to destabilize the DRC and 
        create human misery.

    Answer. The administration's overarching goal is to help stop the 
cycle of violence that has plagued eastern DRC for nearly two decades 
and to allow political stability and economic development to take root. 
The United States welcomed the signing of the Peace, Security, and 
Cooperation Framework for the DRC and the Region. The administration is 
also encouraged by the appointment of former Irish President Mary 
Robinson as the U.N. Special Envoy to the region and supports her 
mandate to lead the implementation of the Framework. If confirmed, I 
will work with U.N. Special Envoy Robinson, as well as U.S. Special 
Envoy Feingold, and partners on the Security Council, to encourage the 
Framework's signatories to fully and quickly implement their 
commitments, including prioritizing the regional commitments to not 
support armed groups and to respect the territorial integrity of 
neighboring states. As the President recently said, all the parties 
concerned need to follow through on their commitments in order to bring 
about a lasting solution in the DRC and Great Lakes Region. There is no 
question that civilians in this region have suffered far too long, and 
we must find a way collectively to forge a path that better secures 
their physical security and human rights.
    The administration believes that its diplomatic engagement over the 
past 6 months has had an impact. However, the United States is deeply 
concerned by recent reports that external support to armed groups 
within the DRC--while limited--continues. There are also reports of 
collusion between state forces and armed groups. All such support, as 
well as any government collusion, must end.
    The administration will continue to closely monitor the role of the 
U.N. peacekeeping mission, MONUSCO, which must be a critical part of 
the effort to stabilize the DRC and needs to help provide political and 
security conditions space for a lasting settlement under the PSC 
Framework. In March, the Security Council approved an Intervention 
Brigade (IB) within MONUSCO tasked with neutralizing and disarming 
armed groups. The United States strongly supports the IB and the larger 
mission, but we recognize that we and other Security Council countries 
who supported this deployment must stay vigilant about the mission and 
the broader security challenges, seeking to ensure that it makes a 
meaningful difference on the ground.

    Question. The United Nations plays a significant role in South 
Sudan. Since its independence, there have been a number of worrisome 
developments that indicate the country may be moving in the wrong 
direction. In fact, earlier this month the U.N. Representative to the 
Secretary General noted that ``[t]he deterioration in the security 
situation in parts of South Sudan has been accompanied by human rights 
violations by both armed groups and national security institutions.

  <bullet> What steps will you take, if confirmed, to help address the 
        challenges in South Sudan and what aspects of the U.N. system 
        do you think will be most useful to such an effort?

    Answer. I am deeply disturbed by mounting reports of abuse of 
civilians, including ongoing killings, beatings, and looting and 
destruction of homes and humanitarian facilities in Jonglei State. I am 
extremely concerned about the detrimental impact that these ongoing 
clashes have on the physical security and humanitarian situation of 
tens of thousands of affected South Sudanese. The rainy season, 
currently in progress, makes travel difficult or impossible across vast 
swathes of South Sudan, and this--combined with SPLA restrictions on 
U.N. movement into active conflict areas--greatly complicates 
international efforts to gather firsthand information about the extent 
of the conflicts, deliver humanitarian assistance, or to respond to the 
violence that the United States believes to be underway.
    The administration continues to strongly advocate for the U.N. 
Mission in South Sudan (UNMISS), U.N. humanitarian agencies, and NGOs 
to have full, unfettered access to all areas in order to protect 
civilians. This access would allow UNMISS to conduct timely patrols and 
air reconnaissance and by permit humanitarian workers and U.N. 
representatives to provide assistance and protection to all affected 
populations. The United States has also called on the Government of 
South Sudan to meet its obligations to ensure the safety and security 
of all civilians regardless of their background or ethnicity. The 
United States has reiterated that the Government is responsible for 
preventing SPLA attacks on UNMISS or humanitarian staff and assets.
    If confirmed, I will also continue to press the Government to hold 
accountable those individuals who are responsible for the violence and 
who have committed abuses--including members of the security forces--
through transparent judicial processes that respect the rule of law. I 
am also keenly aware of the mobility issues facing UNMISS, particularly 
restrictions affecting the use of helicopters, and will work vigorously 
with the United Nations and other stakeholders to fill these gaps. I am 
also interested in obtaining the views of Congress and advocates with 
long histories of working on South Sudan as we think through what 
additional steps may be taken.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                         by Senator Jeff Flake

    Question. Over the past several years, the Palestinian Authority 
has successfully sought end-runs around direct negotiations with Israel 
by getting votes in various U.N. bodies to upgrade its status. Such 
attempts undermine the long-held belief that peace between Israel and 
the Palestinian Authority can only come about as a direct result of 
direct negotiations.

  <bullet> What is your plan to stop initiatives like this from even 
        coming before U.N. entities, or the General Assembly, for a 
        vote?
  <bullet> How will you address future attempts by the Palestinian 
        Authority to achieve statehood through the United Nations?
  <bullet> Will you support current U.S. law that requires the 
        cessation of U.S. assistance to U.N. entities which recognize 
        Palestinian statehood?

    Answer. There are no shortcuts to Palestinian statehood, and I and 
other U.S. officials have long made that clear. As I said in my 
testimony on July 17, the administration has been absolutely clear that 
it will continue to oppose firmly any and all unilateral actions in 
international bodies or treaties that circumvent or prejudge the very 
outcomes that can only be negotiated, including Palestinian statehood. 
As President Obama's U.N. adviser, I helped coordinate and lead the 
delivery of this message. If confirmed, I will strongly support this 
effort, and I will work tirelessly to contest any effort that seeks to 
delegitimize Israel or undermine its security.
    The administration will continue to stress, both with the parties 
and with international partners, that the only path for the 
Palestinians to realize their aspiration of statehood is through direct 
negotiations, and that Palestinian efforts to pursue endorsements of 
statehood claims through the U.N. system outside of a negotiated 
settlement are counterproductive. The administration remains vigilant 
on this matter and works in close coordination with the Israeli 
Government and our other international partners to firmly oppose one-
sided action in international fora and to reinforce the importance of 
resumed direct negotiations between the parties as the only way to 
address their differences and achieve lasting peace. There is simply no 
substitute for the difficult give-and-take of direct negotiations.
    The administration has requested a waiver to allow the President to 
continue to provide contributions to U.N. specialized agencies when he 
determines it is in the national interest. The waiver would allow the 
United States to maintain our vote and influence within the United 
Nations and its specialized agencies, and to remove from the 
Palestinians or their allies any ability to force a contribution cutoff 
and diminish our influence within these agencies.
    Without a national interest waiver the administration's ability to 
conduct multilateral diplomacy and pursue U.S. objectives will be 
eroded, and the United States standing and position in critical U.N. 
agencies will be harmed. As a result, the United States ability to 
defend Israel from unfair and biased attacks in the United Nations will 
also be greatly damaged.
    Congress has passed legislation that provides the United States 
with additional tools that are better suited for the purposes of 
deterrence than the contribution cutoff mechanism. Legislation passed 
in the aftermath of the Palestinians' successful UNESCO bid, if 
triggered, would place limits on U.S. economic support to the 
Palestinian Authority and would require the closure of the 
Palestinians' Washington, DC, office if they obtain membership as a 
state in a U.N. specialized agency going forward. These requirements 
are, appropriately, directed at the Palestinians in the event they 
engage in conduct that we are seeking to discourage. By contrast, the 
implications of the contribution cutoff will be most felt by the United 
States and the partners whose interests we defend across the spectrum 
of the U.N. system.
    The proposed waiver, if enacted, will not diminish the 
administration's commitment to supporting Israel and defending our 
interests at the United Nations. It will not alter the administration's 
conviction that Palestinian status issues can be appropriately resolved 
only on a bilateral basis in direct negotiations with the Israeli 
Government, and that seeking to do otherwise undermines prospects for 
securing long-term peace. We prove our commitment and our conviction 
day in and day out, as we have over the past 4 years at the U.N. The 
waiver will allow the administration to continue to wage that fight 
more intelligently and more successfully, and at the same time better 
protect U.S. interests across multilateral organizations--including 
halting the proliferation of nuclear weapons, defending intellectual 
property rights, and preventing and tracking potential pandemics.

    Question. Elections in Zimbabwe are slated to occur on July 31, 
even though it is widely believed that that date is far too soon to 
accommodate free, fair, and credible elections.

  <bullet> Many believe that the election results have already been 
        determined due to a large-scale effort to intimidate voters in 
        Zimbabwe which began with elections in 2008 and has gone on 
        since. If this is the case, and Mugabe pulls out a reelection, 
        what role do you see the United Nations playing in the wake of 
        those elections? What sort of cooperation--or opposition--would 
        the United States have in the Security Council?
  <bullet> Regardless of the elections, there will come a point when 
        there is a transition to democratic governance in Zimbabwe. 
        What role do you see the United Nations playing in Zimbabwe as 
        that transition takes place?

    Answer. The July 31 Presidential election is a critical moment for 
the people of Zimbabwe that will build on progress since the Global 
Political Agreement was agreed in 2008. Zimbabwe's economy has begun to 
recover from devastating economic mismanagement and hyperinflation, and 
the people of Zimbabwe peacefully approved a new constitution in March.
    Nevertheless, the administration remains deeply concerned about the 
lack of transparency in preparations for the upcoming Presidential 
elections, as well as continued partisan behavior by state security 
institutions and the technical and the logistical issues hampering the 
administration of a credible and transparent election. The 
administration is troubled by reports of targeted harassment against 
civil society groups and other individuals in the weeks leading up to 
the elections and has stressed that civil society organizations, 
independent media, political parties, and regular citizens in Zimbabwe 
must be afforded the right to operate without harassment, detention, 
and intimidation.
    To date, the United Nations has implemented humanitarian aid 
programs for children and women, economic growth and empowerment 
projects, and social service expansion programming. While these efforts 
must be commended, it is worthwhile for the United Nations to explore 
and encourage opportunities to expand their programmatic footprint in 
Zimbabwe.
    At present, the United Nations supports the continued efforts by 
the South African Development Community (SADC) to encourage all parties 
in Zimbabwe to work together in completing the critical reforms 
outlined in the Global Political Agreement (GPA), SADC electoral 
roadmap, and Zimbabwe's new constitution, including media, security 
sector, and other reforms. Regardless of the outcome of the elections, 
the U.N. Country Team in Zimbabwe must continue to provide the high 
level of humanitarian and development aid assistance that it offers 
despite operating in a difficult environment.
    As it has shown through critical ongoing support to democratic 
transitions from authoritarian regimes in countries such as Tunisia, 
Yemen, Libya and Iraq, the United Nations could play a constructive 
role in supporting a democratic transition in Zimbabwe. Depending on 
the particular circumstances and dynamics of such a transition, the 
United Nations has an array of expertise that it could provide to a 
transition in Zimbabwe, including electoral assistance, mediation among 
stakeholders as well as support for national reconciliation and 
transitional justice processes, strengthening human rights, and 
providing humanitarian aid. The U.N. could also provide political 
support to the efforts of Zimbabweans, the Southern African Development 
Community, and other international partners to promote long-term peace 
and development. I would strongly advocate for the U.N. to utilize all 
its tools and capabilities, as appropriate, to support a peaceful 
democratic transition for the people of Zimbabwe.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                          by Senator Tom Udall

    Question. I have been increasingly concerned by the 
administration's attempts to circumvent the Congress and arm Syrian 
rebels, whom we know little about. I am especially concerned about 
plans to arm rebels with heavier weapons. From what we know, the 
motivation of rebels is diverse, ranging from individuals who truly 
want a free and secular society, to those who are intent on 
establishing an intolerant theocracy and who are allied or sympathetic 
with al-Qaeda. Some of these elements were reportedly active in Iraq 
attacking U.S. and coalition forces.
    I believe that until we know more about the rebels, until we can 
trust the Syrian opposition to control their weapons, the Congress 
should not allow the President to have the authority to transfer heavy 
weapons. There is too high of a chance that those weapons could be used 
against the United States or our friends and allies.

  <bullet> At the United Nations, will you actively work to pursue a 
        diplomatic solution to the conflict or will you pursue arming 
        of Syrian rebels?
  <bullet> You supported air strikes in Libya. The situation, and the 
        players in Syria are much different, do you or the President 
        plan on advocating for an international military response to 
        the situation in Syria as some on this committee have called 
        for?

    Answer. Thank you for your question. I share the concern expressed 
by the administration and by so many members of this committee 
regarding the ongoing crisis in Syria, and the brutal atrocities 
committed by Bashar al-Assad's forces against the Syrian people in a 
conflict that has left more than 100,000 Syrians dead and has 
destabilized the broader region. As I said in my testimony, Syria is 
one of the most critical issues facing us today, and one of the most 
devastating cases of mass atrocity that I have ever seen. I also share 
your assessment of the rebels and agree that the presence of those 
allied or sympathetic with al-Qaeda has further complicated a complex 
situation that has brought such horrible suffering to the Syrian 
people.
    The President has put in place a multifaceted approach designed, 
with our international partners, to strengthen moderate elements of the 
opposition and bring about the too-long-awaited political transition to 
democracy. In addition to imposing crippling sanctions against the 
Assad regime, we have contributed nearly a billion dollars' worth of 
humanitarian aid, and critical nonlethal assistance to strengthen 
opposition capabilities and institutions. In addition, as you mention, 
the administration announced recently that--in response to Assad's 
chemical weapons use--we would provide additional forms of support to 
vetted units in the opposition military. We have encouraged the 
opposition, which has been woefully fractured, to unite so the people 
in Syria view them as a viable alternative. Nobody in the 
administration is satisfied with the conditions on the ground in Syria,
    To your question, our priority remains achieving a political 
settlement that achieves Assad's departure and that leads to a 
transitional governing body with full Executive power. If confirmed, I 
will work with other members of the administration to continue to 
explore the prospects of convening, under the U.N.'s auspices and 
working with our partners as well as Russia, diplomatic negotiations to 
achieve this political transition. The administration and I agree that 
it is a top priority to prevent the emergence of terrorist safe havens 
in Syria that al-Qaeda and other extremists could exploit to threaten 
the United States and our interests.
    As you know, the U.N. Security Council should be supporting these 
efforts at achieving a political solution. But Russia's obstruction has 
consistently prevented the Council from taking appropriate action to 
address the Syria crisis. This is a disgrace that history will judge 
harshly. The administration has worked through other parts of the U.N. 
system to galvanize international support for political transition. The 
United States has backed resolutions in the U.N. General Assembly that 
have highlighted the regime's overwhelming political isolation; for the 
most recent resolution in May, Syria could only muster 11 other 
countries in opposition. The administration also has worked through the 
U.N. Human Rights Council to promote accountability for the atrocities 
the regime has committed, establishing a commission of inquiry to 
investigate and document these violations. And the administration has 
supported and provided information to the U.N.'s chemical weapons 
investigation team as they work to gain access to the sites where we 
and others believe Assad has used chemical weapons against the Syrian 
people.
    Separate from the actions of these U.N. bodies comprised of member 
states, U.N. officials have also shown important leadership during this 
crisis. U.N. Secretary General Ban and other senior U.N. officials have 
been vocal and consistent in demanding an end to atrocities and attacks 
on civilians. And in the field, U.N. humanitarian workers put their own 
lives at risk every day to bring assistance to more than 1.8 million 
Syrian refugees, and nearly 7 million more Syrians displaced within the 
country. The United States remains by far the largest donor to the 
U.N.'s humanitarian appeal for Syria.
    Recognizing your very legitimate concerns about some of those who 
comprise the opposition, the administration's view is that the 
political solution we all seek does not appear to be immediately within 
reach. In providing direct assistance to the Syrian Military Council 
the administration is working with General Idris and the SMC to channel 
U.S. assistance to moderate, vetted recipients. The assistance is 
designed to strengthen the effectiveness of the opposition, as it 
resists continued vicious assaults from the regime, and to help 
coordinate the provision of assistance from U.S. partners and allies, 
from where we would seek to reduce the risk that materiel the 
opposition is receiving from others falls into the wrong hands. The 
administration has encouraged moderate opposition partners to distance 
themselves from extremists who are also fighting against the Assad 
regime, and minimized the risk of U.S. assistance being diverted. The 
administration also has sanctioned the anti-Assad extremist group and 
al-Qaeda-affiliated al-Nusra Front, both under U.S. domestic sanctions 
and through our support for the sanctions the U.N. Security Council 
adopted in June.
    The administration has said repeatedly that the President continues 
to review all options for addressing the crisis in Syria, as the 
situation changes on the ground. If confirmed, it will be my 
responsibility to contribute to that constant assessment and review of 
the situation and potential options for U.S. policy, given the truly 
outrageous situation on the ground in Syria. If confirmed, I will work 
with my colleagues to explore, evaluate, and reevaluate every means we 
might use to bring about the day when the Syrian people can be rid of 
Assad's tyranny, and begin to rebuild their country with a government 
that respects their rights and gives them the opportunity for a better 
future.

    Question. New Mexico and other Western States have begun to 
experience the impact of climate change. NASA, the United Nations, our 
national labs, and the overwhelming majority of scientists have noted . 
. . our climate is changing. And in some areas, such as the arid West, 
this is contributing to record temperatures, a drought that is 
crippling agriculture, and catastrophic wildfires. While climate change 
is a global problem, it is also a local problem that is hitting the 
Western United States hard.

  <bullet> Will we have your commitment to continue to address the 
        issue of climate change in the United Nations, and how do you 
        intend to use your office to pursue the climate goals of the 
        administration and to work with other nations ahead of the 
        COP20 summit which will be held next December in Peru?
  <bullet> Would you agree that much more can be done internationally 
        to address climate change prevention and mitigation?

    Answer. If confirmed, I will continue the strong commitment of the 
Obama administration to engage on climate change. Addressing climate 
change at home and abroad is a priority for President Obama and for 
Secretary Kerry, and the administration is working actively across the 
U.N. system and through complementary initiatives to address this 
global challenge. This includes continued active engagement in the U.N. 
Framework Convention on Climate Change (UNFCCC) to reduce emissions. 
The administration is already working closely with the hosts of UNFCCC 
COP19 (Poland), COP20 (Peru), and COP21 (France) to ensure that those 
meetings are successful and continue to move the issue forward.
    This is a global challenge that requires a global solution. In 
addition taking leadership at home to reduce our own greenhouse gas 
pollution, the United States has been working internationally to craft 
an approach in which all countries reduce emissions. This includes not 
only negotiations around the UNFCCC but also work to reduce emissions 
in concrete and ambitious ways through the Major Economies Forum and 
the Climate and Clean Air Coalition, and greater bilateral cooperation 
with countries critical to solving this challenge. We have made great 
strides, but I agree that much work remains.

    Question. This week the Panamanian Government held a ship bound 
from Cuba to North Korea due to the discovery of missiles and missile 
components hidden inside a sugar shipment. While many of us are still 
waiting for a full briefing on this seizure, I am first, grateful to 
the Panamanian authorities who made the seizure, and concerned about 
other attempts to circumspect U.N. Security Council resolutions and 
sanctions which prohibit countries from providing North Korea with 
advanced weaponry.

  <bullet> I would like to know what your thoughts are regarding how 
        the United States should address this situation, and what in 
        your opinion, can be done to ensure that future shipments are 
        not actually attempts to arm the North Koreans?

    Answer. The administration has commended Panama for the recent 
actions it has taken to implement relevant U.N. Security Council 
resolutions with regard to the North Korean ship Chong Chon Gang. The 
United States will work closely with the Government of Panama, which 
has requested our assistance and the administration intends to provide 
assistance as best it can.
    North Korea's nuclear, ballistic missile, and proliferation-related 
activities constitute a serious threat to international peace and 
security and undermine the global nonproliferation regime. Shipments of 
arms or related material to or from North Korea, and services related 
to such items, would violate U.N. Security Council Resolutions 1718 and 
1874, as reaffirmed this year in Resolutions 2087 and 2094. These 
Security Council resolutions generally provide that all states shall 
prevent the direct or indirect transfer of weapons from their territory 
or by their nationals to North Korea and shall prohibit procurement of 
such weapons from North Korea.
    Panama has informed the U.N. Security Council DPRK Sanctions 
Committee of the incident and has invited the Panel of Experts, which 
assists the United Nations Security Council North Korea Sanctions 
Committee, to conduct an investigation.
    Panama's actions regarding the Sanctions Committee as well as 
requesting the involvement of the Panel of Experts will help clarify 
the involvement of the Government of Cuba with this issue. The 
administration hopes that the Sanctions Committee, with the support of 
the Panel of Experts, will investigate this case thoroughly, identify 
parties responsible and recommend actions to be taken in response. The 
administration notes that the Sanctions Committee has the ability to 
impose targeted sanctions (asset freeze/travel ban) on individuals and 
entities found to have contributed to prohibited activities or to 
evasion of the sanctions.
    The administration will look at all possibilities regarding 
appropriate actions once the Committee and Panel complete their work. 
The administration will keep you and your staff informed of progress 
and would welcome your recommendations on next steps.
    The United States will continue to work closely with all U.N. 
member states to ensure the full and transparent implementation of U.N. 
Security Council resolutions concerning North Korea. This will make it 
harder for North Korea to acquire the technology, know-how, and funds 
to develop its nuclear and ballistic missile programs, which the 
international community has repeatedly condemned. The administration 
will likewise continue to exercise our national authorities, where and 
when appropriate, to impede Pyongyang's nuclear, ballistic missile, and 
proliferation-related activities.

    Question. I was greatly disappointed that the Senate did not ratify 
the U.N. Convention on the Rights of Persons with Disabilities as well 
as the U.N. Convention on the Law of the Sea. I believe that both of 
these treaties advance U.S. interests and ideals, and also work to 
create a more just and equitable world.

  <bullet> In light of our failure to ratify these important treaties, 
        how will you work to ensure that U.S. interests are represented 
        in these bodies?

    Answer. The administration continues to work with a bipartisan 
Senate coalition, disability groups, veterans groups, and others in 
pursuit of ratification of the Disabilities Convention. The 
administration understands that some Senators have concerns about the 
treaty, and we are working with Democratic and Republican Senate 
sponsors to address those concerns, so that the United States is in a 
position to join the over 130 countries that are party to the 
Disabilities Treaty. We are eager to establish a foundation for more 
impactful leadership on these issues--leadership designed to ensure 
that protections for persons with disabilities does not end at the 
Nation's shores.
    In advance of progress on the treaty, U.S. diplomats continue to 
encourage governments to eliminate discrimination on the basis of 
disability and to develop and enforce laws and policies to protect the 
rights of persons with disabilities. Ratification of the Disabilities 
Treaty will ultimately make a difference to the millions of disabled 
Americans, including our wounded warriors, who often face severe 
challenges and indignities when abroad.
    Accession to the Law of the Sea Convention also remains a priority 
for this administration. As a non-Party, the United States must rely on 
customary international law for the navigational rights and freedoms 
reflected in the convention.
    U.S. accession to the Law of the Sea Convention will protect and 
advance a broad range of U.S economic and national security interests, 
will secure as treaty law highly favorable provisions that guarantee 
our military and commercial vessels worldwide navigational rights, and 
will accord to the United States the ability to assert expansive 
sovereign rights over offshore resources, including oil and gas on the 
Continental Shelf beyond 200 nautical miles from shore.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                          by Senator Rand Paul

    Question. As you know, I have been an outspoken critic of the 
administration's perceived unwillingness to leverage our aid to 
Pakistan for the release of Dr. Shakil Afridi. During the July 16, 
2013, meeting in my office, you stated that it was your assumption that 
the administration was working behind the scenes to secure his release.

  <bullet> What do you think is holding up the release of Shakil 
        Afridi? In your estimation, will his continued incarceration 
        have a chilling effect on our ability to access human 
        intelligence around the world? If confirmed, will you work with 
        me to advocate for the freedom of Dr. Afridi?

    Answer. Dr. Afridi remains in prison awaiting a hearing on his 
appeal. The administration continues to raise Dr. Afridi's case with 
the Government of Pakistan and have repeatedly said he should be 
released. If confirmed as Ambassador to the United Nations, I will 
eagerly join these efforts. The administration believes that the impact 
of Dr. Afridi's case on intelligence activities is unclear. The 
administration has also made clear to Pakistan that Dr. Afridi's 
prosecution and conviction sends the wrong message about the importance 
of our shared interests and the value of our cooperation.

    Question. As you may know, I have been a critic of the United 
Nations, both because I feel it jeopardizes our sovereignty, but also 
because it is an organization rife with corruption. If confirmed, 
please outline specific steps you will take to improve the performance 
of the United Nations.

    Answer. The United Nations is a valuable partner for advancing U.S. 
interests, but as I said in my testimony, there is much we need to do 
to improve its effectiveness and performance and to hold Secretariat 
staff accountable. Therefore, the United States has been actively 
working to make the U.N. a more effective and accountable organization 
that is capable of addressing complex global challenges. If confirmed, 
I will continue the administration's push for strong management, sound 
budgeting, increased accountability, and greater transparency.
    As a result of intense U.S. engagement and leadership across 
administrations the U.N. has adopted reforms to promote accountability, 
including: the establishment of the Office of Internal Oversight 
Services, the U.N. Independent Audit Advisory Committee, and the U.N. 
Ethics Office; advancement in U.N. transparency by making the Office of 
Internal Oversight Services' internal audit reports publicly available; 
reforms to the current U.N. air travel policy that put in place common 
sense restrictions on use of business class travel and abolishment of 
several unnecessary and costly reimbursement practices; and 
improvements to U.N. human resources policies, including a pay freeze 
and right-sizing exercise pending the outcome of comprehensive reviews 
of staff needs and compensation and enhancements to performance 
management and management accountability.
    In addition, the State Department's U.N. Transparency and 
Accountability Initiative (UNTAI) allows the United States to verify 
that concrete improvements in management and accountability are being 
made in the U.N. system.
    If confirmed, I will continue to work diligently across the U.N. 
system with other likeminded member states to ensure that U.S. tax 
dollars are well spent and that the U.N. lives up to both its ideals 
and potential. As I said in my testimony, improving the U.N.'s 
effectiveness and efficiency is a priority. ``In these difficult budget 
times, when the American people are facing tough cuts and scrutinizing 
every expense, the United Nations must do the same. This means 
eliminating waste and improving accounting and internal management. 
This means strengthening whistleblower protections and ending any 
tolerance for corruption. It means getting other countries to pay their 
fair share. And it means closing down those missions and programs that 
no longer make sense. As both the U.N.'s principal founding member and 
its largest contributor, the United States has the right and the duty 
to insist on reform. I will aggressively pursue this cause.''
    On peacekeeping, we must continue to closely review mandates to 
ensure that the missions have the means to accomplish their assigned 
tasks. Peacekeeping is not immune from the need to do more with less, 
and when a mission has outlived its usefulness it should close. To 
drive down the cost of peacekeeping, we should continue to eliminate 
redundant back-office operations, continue moving to longer 12-month 
deployments, and strengthen oversight of peacekeeping operations to 
prevent waste, fraud, and abuse.
    If confirmed, I will continue to work with the United Nations and 
member states to strengthen the U.N.'s response to sexual exploitation 
and abuse. I view pressing for ending impunity for U.N. personnel as 
particularly important, as well as taking the steps needed to ensure 
that the U.N.'s database can effectively prevent previous offenders 
from serving again in the U.N. system, in any capacity.
    The United States remains concerned that countries with poor human 
rights records continue to be elected to seats on the Human Rights 
Council. The United States actively seeks to positively influence the 
elections both by encouraging countries with strong human rights 
records to seek seats and by encouraging competitive elections for the 
HRC. The United States has also worked behind the scenes with other 
countries to oppose the election of some of the worst human rights 
violators to the Human Rights Council and other important global bodies 
and will continue to do so. A relentless diplomatic campaign by the 
United States helped keep Syria, Iran, and Sudan from becoming members 
in the recent past. We agree it should not take this kind of effort to 
keep countries in regional blocs from voting for bad actors. But we 
pledge to fight aggressively such disturbing campaigns which undermine 
the Council and the broader human rights agenda.
                                 ______
                                 

          Responses of Samantha Power to Questions Submitted 
                        by Senator John Barrasso

    Question. During your testimony before the committee, you expressed 
your support for transparency of U.S. funding to the United Nations.

  <bullet> What is the total annual U.S. contribution to the United 
        Nations from all U.S. agencies, including in kind support?

    Answer. The total amount of U.S. assessed and voluntary 
contributions to the United Nations System in 2012 were approximately 
$6.7 billion. These funds support a wide array of activities such as 
U.N. peacekeeping and special political missions, nonproliferation 
activities by the International Atomic Energy Agency, heath programs 
provided by the World Health Organization, food aid provided by the 
World Food Programme, and humanitarian assistance provided by the U.N. 
Offices of the High Commissioner for Refugees and the Coordinator for 
Humanitarian Affairs. Many of these programs and activities are 
described in detail in the Department's annual congressional budget 
justifications.

    Question. What percentage of the U.N. budget is directed to the 
day-to-day administrative and personnel costs?

    Answer. The United States and other major contributors to the 
United Nations have been working very hard to limit growth in the U.N. 
regular budget. The administration has been successful in keeping the 
2012-2013 budget level below the level of the 2010-2011 budget, marking 
only the second time in 50 years that the U.N. regular budget decreased 
from the previous biennium.
    Approximately 75 percent of the U.N. regular budget goes to 
personnel costs, including salaries and benefits. The United Nations 
employs a wide array of personnel that work in the areas of peace and 
security, human rights, humanitarian assistance, development, the 
environment, and drug control and crime prevention. However, as the 
United Nations becomes a target and continues to operate in countries 
such as Afghanistan and Iraq, security costs must also be considered.
    Rising U.N. personnel costs are a significant concern. The United 
States and other member states have been striving to rein in these 
costs, including through a 6-month pay freeze that the United States 
was instrumental in achieving last fall.

    Question. How much has the budget of the United Nations grown over 
the past 10 years?

    Answer. The U.N. regular budget has grown from $3 billion in 2002-
2003 to $5.4 billion in 2012-2013. The primary drivers of the growth 
are increased personnel costs and the costs of new and expanded special 
political missions, particularly in Afghanistan and Iraq. The United 
States and other major contributors to the United Nations have been 
working very hard to limit growth in the U.N. regular budget, and have 
been successful thus far in keeping the 2012-2013 budget below the 
level of the 2010-2011 budget.
    The limitation in growth up to this point was only possible because 
of U.S. efforts to ensure that the initial approved budget for 2012-
2013 was $5.15 billion, marking only the second time in 50 years that 
the U.N. regular budget decreased significantly from the previous 
biennium. The annual U.N. peacekeeping budgets has grown from $2.6 
billion in 2003-2004 to approximately $7.3 billion for the U.N. 
peacekeeping fiscal year 2012-2013, with the number of U.N. 
peacekeepers deployed nearly tripling over that period. Many of the 
peacekeeping missions that the U.N. Security Council has authorized 
over the past decade have been larger and deployed to more dangerous 
and logistically demanding environments than before, as new missions 
were established in the Congo, Darfur, South Sudan, and Mali, and 
al-Qaeda has made no secret of its aim of targeting the U.N., 
successfully killing U.N. humanitarian workers and personnel in places 
like Afghanistan, Iraq, Nigeria, and elsewhere.
    With this budget the United Nations is able to field more than 
100,000 troops, police, and civilians in some of the most austere, 
dangerous, and demanding places on earth. If confirmed, I will continue 
to further U.S. efforts to improve the performance, efficiency, and 
accountability of U.N. operations through initiatives such as the 
Global Field Support Strategy and the reforms proposed by the Senior 
Advisory Group on peacekeeping issues, which have already yielded 
significant savings of $560 million in the peacekeeping budget that 
help keep peacekeeping costs down.

    Question. Do you support Congress and the American people receiving 
an annual report from the Office of Management and Budget listing the 
total U.S. contributions to the United Nations from the State 
Department as well as all other U.S. departments and agencies?

    Answer. Yes.

    Question. I would like to follow up on my questions regarding the 
United Nations Arms Trade Treaty. You testified that you do not support 
a United Nations gun registry that includes law abiding U.S. citizens. 
There has been speculation that President Obama will sign onto the U.N. 
Arms Trade Treaty in the near future.

  <bullet> As you familiarize yourself with the U.N. Arms Trade Treaty 
        over the weekend, can you please describe in detail how the 
        United States will comply with Articles 12 and 13?

    Answer. The Arms Trade Treaty (ATT) addresses international trade 
in conventional arms. It does not require or impose controls on 
domestic transfers of conventional arms, or the rights of U.S. citizens 
to possess firearms. Nothing in the treaty violates or is inconsistent 
with the rights of U.S. citizens including those conferred by the 
second amendment. In fact, the treaty includes an explicit 
reaffirmation of ``the sovereign right of any State to regulate and 
control conventional arms exclusively within its territory, pursuant to 
its own legal or constitutional system.'' The ATT does not require or 
in any way reference the creation of a gun registry of any kind, U.N. 
or domestic.
    As Secretary Kerry said on June 3 when the treaty was opened for 
signature, the United States fully supports the ATT and looks forward 
to signing it as soon as the remaining translation issues have been 
satisfactorily resolved. The United States looks forward to all 
countries having and implementing effective national systems to control 
the international transfer of conventional arms, as the United States 
does already. Progress in other countries in raising their standards 
nearer to the level we already set would advance U.S. and global 
security by curbing illicit arms transfers and potentially reducing the 
access of wrong-doers to the arms that they employ to commit gross 
violations of human rights.
    U.S. recordkeeping practices with respect to international 
transfers of conventional arms are already consistent with Article 12 
of the treaty. Article 13 requires States Parties to report on measures 
undertaken to implement their obligations under the treaty as well as 
an annual report concerning the authorized or actual exports and 
imports of conventional arms covered under the treaty. The 
administration notes that the reporting requirement does not address 
purely domestic transactions in any way.
    If the United States were to become a Party to the treaty, the 
first reporting requirement could be fulfilled by providing a summary 
of existing U.S. export and import controls, along with references to 
existing U.S. law and regulations, such as the Arms Export Control Act. 
For the annual report, the United States already reports much of this 
information to the U.N. Register of Conventional Arms, the Wassenaar 
Arrangement, the Organization for Security and Cooperation in Europe 
(OSCE), and to Congress.

    Question. What is your evaluation of the effectiveness of the U.N. 
Security Council in addressing the situations in Iran and Syria?

    Answer. On Iran, the United States led a global coalition to create 
the toughest, most comprehensive international sanctions on the Iranian 
regime, and effective multilateral diplomacy at the U.N. Security 
Council has been critical to this effort. U.S. diplomacy led to the 
adoption of four rounds of U.N. Security Council sanctions on Iran 
since 2006, underscoring international consensus against its 
acquisition of a nuclear weapon and demanding Iran address 
international concerns over the nature of its nuclear program. U.N. 
Security Council sanctions on Iran have impeded Iran's ability to 
procure items necessary to expand its nuclear program, and have 
provided the international community with the basis to counter Iran's 
illicit activities, including restricting its access to technology and 
funding for its nuclear and ballistic missile programs. As the 
President has said repeatedly, the administration is committed to 
preventing Iran from acquiring a nuclear weapon, and we will continue 
working with all of our partners at the United Nations and more broadly 
to demand that Iran fulfill its international obligations. Because Iran 
has not halted its pursuit of a nuclear weapon, we cannot be satisfied, 
and, if confirmed, we will look for additional ways to increase the 
pressure on Iran to halt its activities in violation of UNSC 
resolutions.
    Russia's obstruction has consistently prevented the Council from 
taking appropriate action to address the Syria crisis. This is a 
disgrace that history will judge harshly. The administration has worked 
through other parts of the U.N. system to galvanize international 
support for a political solution to the crisis in Syria. The United 
States has backed resolutions in the U.N. General Assembly that have 
highlighted the regime's overwhelming political isolation; for the most 
recent resolution in May, Syria could only muster 11 other countries in 
opposition. The administration also has worked through the U.N. Human 
Rights Council to promote accountability for the atrocities the regime 
has committed, establishing a commission of inquiry to investigate and 
document these violations. And the administration has supported and 
provided information to the U.N.'s chemical weapons investigation team 
as they work to gain access to the sites where we and others believe 
Assad has used chemical weapons against the Syrian people.
    Separate from the actions of these U.N. bodies comprised of member 
states, U.N. officials have also shown important leadership during this 
crisis. U.N. Secretary General Ban and other senior U.N. officials have 
been vocal and consistent in demanding an end to atrocities and attacks 
on civilians. And in the field, U.N. humanitarian workers put their own 
lives at risk every day to bring assistance to more than 1.8 million 
Syrian refugees, and nearly 7 million Syrians more displaced within the 
country. The United States remains by far the largest donor to the 
U.N.'s humanitarian appeal for Syria.

    Question. What type of cooperation does the United States currently 
expect from Russia at the U.N. Security Council?

    Answer. Both at the U.N. Security Council and more broadly, the 
administration has cooperated with Russia where we can advance our 
mutual interests, engaged Russia in a frank discussion of our policy 
differences, and firmly stood by our principles, our partners, and our 
allies. The United States has worked with Russia and other members of 
the Security Council on several issues of paramount concern to the 
United States, including imposing strong sanctions on both Iran and 
North Korea, building robust peacekeeping missions in the Sahel and 
Central Africa, and helping strengthen fragile states from Afghanistan 
to Somalia.
    However, as I stated in my testimony, we need to be clear-eyed 
about the prospects for cooperation with Russia on Syria. The 
administration believes that Russia and the United States should share 
an interest in preventing the further growth of extremism in Syria. The 
administration believes that Russia and the United States should share 
an interest in preventing chemical weapons use. And we believe Russia 
should share the desire to achieve a political settlement so that state 
institutions can be preserved and state failure prevented. However, the 
three vetoes Russia has cast on draft resolutions aimed at addressing 
the crisis in Syria does not bode well for Russia's willingness to use 
the Security Council to maintain international peace and security in 
Syria and the broader region.

    Question. How do you plan on addressing Russia's continued 
insistence on supplying arms to the Assad regime?

    Answer. The administration has made it absolutely clear that we 
oppose Russian arms transfers to the regime. We have also sought to 
enlist other countries in delivering this message. Russia's continued 
support to the Assad regime--military and otherwise--is prolonging the 
conflict and the suffering of the Syrian people. Since the conflict in 
Syria began, the administration has advocated publicly and privately 
against Russian support to the Syrian regime, including arms transfers, 
and ongoing Russian obstruction of Security Council action.
    At the same time, the administration recognizes that it is in 
everyone's interest that Russia uses its influence to help bring the 
regime to the negotiating table in a serious manner. Despite grave 
differences with Russia concerning this conflict, the administration 
continues to stress to the Russians that the transition to a post-Assad 
future is inevitable, and that the United States and Russia share an 
interest in a stable and inclusive Syria that neither harbors 
extremists and terrorists nor uses or proliferates chemical weapons.

    Question. I am very concerned that the Obama administration's 
budget request provides $77.8 million for the U.N. Educational, 
Scientific, and Cultural Organization (UNESCO). Last year, the United 
States terminated its funding for UNESCO as a result of the Palestinian 
Liberation Organization (PLO) being admitted as a full member. The 
administration's budget proposal shows the Palestinians that the United 
States is not serious about our concerns with their disregard for the 
peace process and unilaterally seeking a change in status through the 
United Nations. The United States needs to continue to send the message 
that we will not fund international institutions that make these types 
of decisions.

  <bullet> Do you unequivocally oppose the Palestinians' efforts to 
        circumvent the peace process and seek state recognition and 
        membership in the United Nations?

    Answer. There are no short cuts to Palestinian statehood, and I and 
other U.S. officials have long made that clear. As I said in my 
testimony on July 17, the administration has been absolutely clear that 
it will continue to oppose firmly any and all unilateral actions in 
international bodies or treaties that circumvent or prejudge the very 
outcomes that can only be negotiated, including Palestinian statehood. 
If confirmed, I will strongly support this effort, and I will continue 
to stand up to any effort that seeks to delegitimize Israel or 
undermine its security.
    The administration will continue to stress, both with the parties 
and with international partners, that the only path for the 
Palestinians to realize their aspiration of statehood is through direct 
negotiations, and that Palestinian efforts to pursue endorsements of 
statehood claims through the U.N. system outside of a negotiated 
settlement are counterproductive. The administration remains vigilant 
on this matter and works in close coordination with the Israeli 
Government and our other international partners to firmly oppose one-
sided action in international fora and to reinforce the importance of 
resumed direct negotiations between the parties as the only way to 
address their differences and achieve lasting peace. There is simply no 
substitute for the difficult give and take of direct negotiations.
    Congress has passed legislation that provides the United States 
with additional tools that are better suited for the purposes of 
deterrence than the contribution cutoff mechanism. Legislation passed 
in the aftermath of the Palestinians' successful UNESCO bid, if 
triggered, would place limits on U.S. economic support to the 
Palestinian Authority and would require the closure of the 
Palestinians' Washington, DC, office if they obtain membership as a 
state in a U.N. specialized agency in the future. These requirements 
are, appropriately, directed at the Palestinians in the event they 
engage in conduct that we are seeking to discourage. By contrast, the 
implications of the contribution cutoff will be most felt by the United 
States and the partners whose interests we defend across the spectrum 
of the U.N. system.

    Question. How would restoring funding to UNESCO send that message 
to the Palestinians?

    Answer. We agree with the critical importance of sending the 
message to the Palestinians that there are no shortcuts to statehood 
and that we will contest any effort to delegitimize Israel in the 
international system. The administration has requested a waiver to 
allow the President to continue to provide contributions to U.N. 
specialized agencies when he determines it is in the national interest. 
The waiver would allow the United States to maintain our vote and 
influence within the United Nations and its specialized agencies. This 
would, remove from the Palestinians or their allies any ability to 
force a contribution cutoff and diminish our influence within these 
agencies, which, given our vocal leadership would present spoilers with 
a double victory.
    Without a national interest waiver the administration's ability to 
conduct multilateral diplomacy and pursue U.S. objectives will be 
eroded, and the United States standing and position in critical U.N. 
agencies will be harmed. As a result, the United States ability to 
defend Israel from unfair and biased attacks in the United Nations will 
also be greatly damaged.
    Congress has passed legislation that provides the United States 
with additional tools that are better suited for the purposes of 
deterrence than the contribution cutoff mechanism. Legislation passed 
in the aftermath of the Palestinians' successful UNESCO bid, if 
triggered, would place limits on U.S. economic support to the 
Palestinian Authority and would require the closure of the 
Palestinians' Washington, DC, office if they obtain membership as a 
state in a U.N. specialized agency in the future. These requirements 
are, appropriately, directed at the Palestinians in the event they 
engage in conduct that we are seeking to discourage. By contrast, the 
implications of the contribution cutoff will be most felt by the United 
States and the partners whose interests we defend across the spectrum 
of the U.N. system.
    The proposed waiver, if enacted, will not diminish the 
administration's commitment to supporting Israel and defending our 
interests at the United Nations. It will not alter the administration's 
conviction that Palestinian status issues can be appropriately resolved 
only on a bilateral basis in direct negotiations with the Israeli 
Government, and that seeking to do otherwise undermines prospects for 
securing long-term peace. We prove our commitment and our conviction 
day in and day out, as we have over the past 4 years at the United 
Nations. The waiver will allow the administration to continue to wage 
that fight more intelligently and more successfully, and at the same 
time better protect U.S. interests across multilateral organizations--
including halting the proliferation of nuclear weapons, defending 
intellectual property rights, and preventing and tracking potential 
pandemics.

    Question. The Palestinians continue to unilaterally circumvent the 
peace process by attempting to seek statehood recognition at the United 
Nations. In November, the United Nations General Assembly voted to 
allow the Palestinians to change their status. The best path to peace 
is through direct negotiations between the Israelis and the 
Palestinians--not through manipulations at the United Nations.

  <bullet> What additional efforts do you recommend the United States 
        take in order to persuade the Palestinians to cease their 
        efforts to upgrade their status within the U.N. system?
  <bullet> How can the United States build opposition among member 
        states to these types of efforts?

    Answer. If confirmed, just as I did as President Obama's U.N. 
adviser, I would take every opportunity to make clear the 
administration's position that one-sided actions in international fora 
will not advance the aspirations of the Palestinian people. The only 
path for the Palestinians to realize their aspiration of statehood is 
through direct negotiations, and Palestinian efforts to pursue 
endorsements of statehood claims through the U.N. system outside of a 
negotiated settlement are counterproductive. We make the costs of 
unilateral action clear to the Palestinians and 
to those who have supported counterproductive unilateral action in the 
United Nations.
    If confirmed, I will work tirelessly to oppose firmly unilateral 
actions in international bodies or treaties that circumvent or prejudge 
the very outcomes that can only be negotiated, including Palestinian 
statehood. If confirmed, I will also continue to stand up to every 
effort that seeks to delegitimize Israel or undermine its security. I 
will also build on this administration's extensive coordination with 
Israel and our outreach efforts to combat any further action by the 
Palestinians.
    Congress has passed legislation that provides the United States 
with additional tools that are better suited for the purposes of 
deterrence than the contribution cutoff mechanism. Legislation passed 
in the aftermath of the Palestinians' successful UNESCO bid, if 
triggered, would place limits on U.S. economic support to the 
Palestinian Authority and would require the closure of the 
Palestinians' Washington, DC, office if they obtain membership as a 
state in a U.N. specialized agency in the future. These requirements 
are, appropriately, directed at the Palestinians in the event they 
engage in conduct that we are seeking to discourage. By contrast, the 
implications of the contribution cutoff will be most felt by the United 
States and the partners whose interests we defend across the spectrum 
of the U.N. system.
    The message from the United States to the Palestinians and in 
capitals around the world is consistent. The only way to establish a 
Palestinian state and resolve all permanent-status issues is through 
the crucial work of direct negotiations between the parties. There is 
simply no substitute for the difficult give and take of direct 
negotiations.


                   NOMINATION OF CATHERINE M. RUSSELL

                              ----------                              


                        WEDNESDAY, JULY 17, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Catherine M. Russell, of the District of Columbia, to be 
        Ambassador at Large for Global Women's Issues
                              ----------                              

    The committee met, pursuant to notice, at 2:28 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer, Kaine, and Paul.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good afternoon. Today, we meet to consider 
the nomination of Catherine Russell to be the United States 
Ambassador at Large for Global Women's Issues.
    I want to welcome Ms. Russell, and congratulations on your 
nomination.
    If confirmed, Ms. Russell will play an important role as 
our country's second Ambassador-at-Large for Global Women's 
Issues. This position and the office created by President Obama 
in 2009 is strongly supported by Hillary Clinton, our former 
Secretary of State, has elevated the status of women's issues 
in U.S. foreign policy, and has helped ensure that the United 
States stands as a powerful advocate for the rights and 
empowerment of women and girls all over the world.
    But as we know, despite the tremendous efforts of Secretary 
Clinton and our first Ambassador at Large, Melanne Verveer, 
much work remains to be done. This important work ranges from 
ending the devastating scourge of violence against women and 
girls to ensuring that young girls have the opportunity to 
avoid child marriage and, instead, receive an education, to 
providing women and girls the opportunity to own and inherit 
property, to hold elected office, and to start small 
businesses.
    Ms. Russell's distinguished resume indicates that she is up 
to the task. Most recently, she served as chief of staff to the 
second lady of the United States, Dr. Jill Biden, another 
tireless advocate for women's empowerment. Prior to her time in 
the White House, Ms. Russell served as senior advisor on 
international women's issues to our former chairman and current 
Vice President, Joe Biden.
    Ms. Russell also served as an Associate Deputy Attorney 
General at the Department of Justice and as the staff director 
for the Senate Judiciary Committee. She attended Boston 
College, where she received her B.A. in philosophy, and George 
Washington University Law School, where she received her juris 
doctorate.
    And I am so pleased that Senator Leahy is here. You could 
not have a finer Senator to introduce you. He is so respected 
and well loved here.
    And Senator Leahy, the floor is yours.

               STATEMENT OF HON. PATRICK LEAHY, 
                   U.S. SENATOR FROM VERMONT

    Senator Leahy. Well, thank you very much, Madam Chair.
    I apologize for bursting in at the last moment. We have 
been doing hearings on the Voting Rights Act with----
    Senator Boxer. Good.
    Senator Leahy [continuing]. Congressman Lewis and 
Congressman Sensenbrenner, a bipartisan panel.
    But I really wanted to be here to introduce Cathy Russell, 
and you talked about all of the amazing things that she has 
done. I cannot think of anybody better for the President to 
pick to be U.S. Ambassador at Large for Women's Issues.
    If I could just on a personal note, I do not want to take 
from something she is going to say, but she has a note from her 
two children here saying the fact that, ``Mommy, we love you.'' 
So I knew when both those children were born because we have 
known Cathy and her husband, Tom, for so many years, known them 
for more than 25 years.
    And I went back over the compilation like that, and I said 
this had to be the first 10-year-old we ever hired in here----
    [Laughter.]
    Senator Leahy [continuing]. When she served as senior 
counsel on the Senate Judiciary Subcommittee on Technology and 
the Law. Brilliant mind. Uncanny ability, though, to take the 
most complex issues, get them down to where even a Senator like 
myself and others could understand it, but to make sure that 
Senators on both sides of the aisle knew that what she gave 
them was the best knowledge possible.
    She wanted to serve as staff director to the full Senate 
Judiciary Committee several years later. Again, the women's 
issues in the Judiciary Committee, she worked on the bedrock of 
her qualifications for this role.
    Then she became senior advisor to the Senate Foreign 
Relations Committee. She specialized in international women's 
issues. She helped draft the International Violence Against 
Women Act of 2007. And I know, Madam Chair, how hard you worked 
on the Violence Against Women Act here in the Senate and the 
House, and Cathy Russell worked to expand that worldwide.
    I know that Dr. Biden, Jill Biden, has found Cathy to have 
been an invaluable chief of staff over the past 4 years. She 
assisted both Dr. Biden and the first lady to support women in 
military families through the Joining Forces Program.
    She oversaw a governmental interagency process to develop 
the first United States strategy to prevent and respond to 
gender-based violence globally. I mean, I could go on and on 
with all of these things about her.
    If I could just close with this. She is able to handle the 
most complex issues and seeking the truth and being totally 
honest in it. But I have known her as a lawyer, as a person, as 
a mother, spouse of one of my best friends. And throughout all 
that time, I have been constantly impressed with her, thinking 
here is a person any one of us could rely on on any issue she 
took and know that she would be totally honest, totally loyal 
to this country.
    And I think that it is wonderful she is willing to take 
this position.
    Senator Boxer. Senator Leahy, let me say your words mean a 
lot to us. We are so pleased, and I am sure Ms. Russell is 
eternally pleased and grateful to you for this, all that you 
have to do. And we thank you for coming over here. We know you 
have a lot to do. So thank you so much.
    And I have a hunch it is going to be smooth sailing. I do 
not see a lot of people here, which is an indication of that. 
We have a vote coming up soon. So we are going to hear from Ms. 
Russell, and if things go the way I plan, you will be out of 
here in time to take your wonderful husband for a celebratory 
cup of coffee. [Laughter.]
    And I know that Tom Donilon is here. We are so grateful to 
you, sir, for your amazing contribution to this country.
    And are there any other members of your family you wish to 
introduce?
    Ms. Russell. Senator, I think my brother-in-law, Mike 
Donilon, is here, and my cousin, Susie Saraf, is here.
    Senator Boxer. Welcome.
    Ms. Russell. My children are not here today. One is at 
camp, and one is in school. So neither one of them is here 
today.
    Senator Boxer. Well, that makes a lot of sense. So here is 
the deal. We would love you to synthesize your remarks to 5 
minutes.
    Ms. Russell. OK.
    Senator Boxer. I have some questions. If no one else shows 
up, that will be it.
    Ms. Russell. OK. Great.
    Senator Boxer. This might go well. Go ahead.

STATEMENT OF CATHERINE M. RUSSELL OF THE DISTRICT OF COLUMBIA, 
      TO BE AMBASSADOR AT LARGE FOR GLOBAL WOMEN'S ISSUES

    Ms. Russell. Senator Boxer, members of the committee, it is 
a privilege to appear before you today.
    I would like to thank Senator Leahy so very much for coming 
here to speak on my behalf.
    I am grateful to the President and to Secretary Kerry for 
asking me to serve as the next Ambassador at Large for Global 
Women's Issues. I am humbled by their trust and by the prospect 
of following in the footsteps of Melanne Verveer, who served in 
this position so extraordinarily during the President's first 
term.
    Finally, I am grateful to share this day with my husband 
and my children, at least in spirit, Sarah and Teddy.
    As Senator Leahy mentioned, I started my career in the 
Senate, first as a lawyer on the Judiciary subcommittee he 
chaired and then as staff director of the full committee when 
Senator Biden was the chairman. I saw firsthand not only the 
vital work of the Senate, but also the expertise and careful 
deliberation that Senators and their staffs bring to the issues 
before them.
    During my tenure as staff director of the committee, in 
1994, Congress came together to pass the Violence Against Women 
Act. That legislation was important for many reasons, not least 
of which it made clear to all Americans that domestic violence 
was not a private family member--private family matter, but a 
crime. I am proud that landmark law has, indeed, made a 
difference in the lives of so many women in this country.
    When I joined the Foreign Relations Committee staff more 
than a decade later, we sought to apply some of the same 
principles of the Violence Against Women Act to our global 
efforts against gender-based violence. We drafted the first 
International Violence Against Women Act legislation, which 
then-Senator Biden introduced in 2007.
    My work on that legislation was informed in part by my 
experience with Women for Women International, an organization 
that helps women survivors of conflict rebuild their lives. I 
realize that while women are often targets in conflicts, they 
also have tremendous capacity not only to survive, but to 
thrive, to make better lives for themselves and their families, 
and to rebuild their communities and their countries.
    While chief of staff to Dr. Jill Biden, I spearheaded an 
administration-wide effort to develop the U.S. strategy to 
prevent and respond to gender-based violence globally. It is my 
hope that this strategy and accompanying Executive order from 
President Obama will make a significant difference in efforts 
to ensure that all persons can live free from violence.
    America's leadership in advancing the rights of women is 
vital not just to women themselves, but to our national 
security and economic stability. None of the world's most 
pressing economic, social, and political problems can be solved 
without the full participation of women.
    As Secretary Kerry has said, gender equality is critical to 
our shared goals of prosperity, stability, and peace, and 
investing in women and girls worldwide is critical to advancing 
U.S. foreign policy.
    Secretary Clinton and Ambassador Verveer made unprecedented 
progress not only in promoting gender equality and advancing 
the status of women and girls abroad, but also in elevating 
women's issues in our foreign policy. They worked to integrate 
these issues into high-profile multilateral forums and 
bilateral dialogues and into the duties of our foreign and 
civil service.
    If you grant me the privilege, I will work with Secretary 
Kerry to build upon this progress. I will continue to advocate 
at home and abroad that investing in women, advancing and 
protecting their rights, is not just the right thing to do 
morally, it is the smart thing to do economically and 
strategically.
    I will focus my energies in six main areas. First, I will 
carry on with the critical work of moving the State Department 
to implement fully the Department's gender guidance, which 
requires that gender issues be incorporated into all aspects of 
diplomacy. I will ensure that the Secretary's Office of Global 
Women's Issues remains a resource for the diplomats who will be 
advancing this work at our posts abroad.
    Second, I will support efforts to expand women's 
entrepreneurship and economic participation. We know that 
women's potential to help grow economies is vast, yet still 
largely untapped. I will continue the Department's leadership 
in supporting women entrepreneurs in every region.
    Next, I will provide strong leadership in implementing the 
United States first-ever National Action Plan on Women, Peace, 
and Security. Today, with conflicts and transitions affecting 
millions, women must not only be protected from violence, but 
also be empowered to shape the futures of their countries.
    I will work with global partners to expand women's 
political participation, ensuring that their voices are heard 
everywhere, especially in emerging democracies.
    Next, the United States must be at the forefront of global 
efforts to address gender-based violence. The continuing 
reports of horrific violence against women and girls are simply 
unacceptable. I will work to help more women live in greater 
safety and gain access to health care, protection, and justice.
    Finally, investing in women and girls is one of the most 
powerful forces for international development. We have seen 
that when a girl has a chance to go to school, has access to 
health care, and is kept free from violence, she will marry 
later, have healthier children, and earn income that she will 
invest back into her family and community, breaking the cycle 
of poverty.
    I look forward to working with colleagues at USAID and 
PEPFAR to ensure strong investments in women and girls' health 
and education, in agriculture, child survival, nutrition, and 
preventing child marriage.
    I am humbled by the task ahead, but eager to get to work. 
If confirmed, I am looking forward to the privilege of working 
with talented foreign and civil service members throughout the 
State Department to promote gender equality and advance the 
status of women around the world.
    Most of all, I hope to work with each of you to advance our 
shared goals of global peace, prosperity, and security.
    Thank you very much. I look forward to answering your 
questions.
    [The prepared statement of Ms. Russell follows:]

               Prepared Statement of Catherine M. Russell

    Madame Chairwoman, Senator Paul, members of the committee, it is a 
privilege to appear before you today. I would like to thank Senator 
Leahy for coming here to speak on my behalf.
    I am grateful to the President and to Secretary Kerry for asking me 
to serve as the next Ambassador at Large for Global Women's Issues. I 
am humbled by their trust and by the prospect of following in the 
footsteps of Melanne Verveer, who served in this position so 
extraordinarily during the President's first term.
    Finally, I am very grateful to share this day with my husband, Tom, 
and our children, Sarah and Teddy.
    As Senator Leahy mentioned, I started my career in the Senate, 
first as a lawyer on the Judiciary Subcommittee he chaired and then as 
the staff director for the full committee when Senator Biden was the 
chairman. I saw firsthand not only the vital work of the Senate, but 
also the expertise and careful deliberation Senators and their staffs 
bring to the issues before them.
    During my tenure as staff director of the committee in 1994, 
Congress came together to pass the Violence Against Women Act. That 
legislation was important for many reasons, not least of which it made 
clear to all Americans that domestic violence was not a private family 
matter, but a crime. I am proud that landmark law has indeed made a 
difference in the lives of so many women in this country.
    When I joined the Foreign Relations Committee staff more than a 
decade later, we sought to apply some of the same principles of the 
Violence Against Women Act to our global efforts against gender-based 
violence. We drafted the first International Violence Against Women Act 
legislation, which then-Senator Biden introduced in 2007.
    My work on that legislation was informed, in part, by my experience 
with Women for Women International, an organization that helps women 
survivors of conflict rebuild their lives. I realized that while women 
are often targets in conflicts, they also have tremendous capacity not 
only to survive but to thrive, to make better lives for themselves and 
their families, and to build their communities and countries.
    While chief of staff to Dr. Jill Biden, I spearheaded an 
administration-wide effort to develop the U.S. Strategy to Prevent and 
Respond to Gender-Based Violence Globally.It is my hope that this 
strategy, and accompanying Executive order from President Obama, will 
make a significant difference in efforts to ensure that all persons can 
live free from violence.
    America's leadership in advancing the rights of women is vital not 
just to women themselves, but to our national security and economic 
stability. None of the world's most pressing economic, social, and 
political problems can be solved without the full participation of 
women. As Secretary Kerry has said, ``Gender equality is critical to 
our shared goals of prosperity, stability, and peace, and investing in 
women and girls worldwide is critical to advancing U.S. foreign 
policy.''
    Secretary Clinton and Ambassador Verveer made unprecedented 
progress not only in promoting gender equality and advancing the status 
of women and girls abroad, but also in elevating women's issues in our 
foreign policy. They worked to integrate these issues into high-profile 
multilateral forums and bilateral dialogues and into the duties of our 
foreign and civil service.
    If you grant me the privilege, I will work with Secretary Kerry to 
build upon this progress. I will continue to advocate at home and 
abroad that investing in women--advancing and protecting their rights--
is not just the right thing to do morally; it is the smart thing to do 
economically and strategically.
    I will focus my energies on six main areas.
    First, I will carry on with the critical work of moving the State 
Department to implement fully the Department's gender guidance, which 
requires that gender issues be incorporated into all aspects of 
diplomacy. I will ensure the Secretary's Office of Global Women's 
Issues remains a resource for the diplomats who will be advancing this 
work at our posts abroad.
    Second, I will support efforts to expand women's entrepreneurship 
and economic participation. We know that women's potential to help grow 
economies is vast, yet still largely untapped. I will continue the 
Department's leadership in supporting women entrepreneurs in every 
region.
    Next, I will provide strong leadership in implementing the United 
States first-ever National Action Plan on Women, Peace, and Security. 
Today, with conflicts and transitions affecting millions, women must 
not only be protected from violence, but also be empowered to shape the 
futures of their countries.
    I will work with global partners to expand women's political 
participation, ensuring that their voices are heard everywhere, 
especially in emerging democracies.
    Next, the United States must be at the forefront of global efforts 
to address gender-based violence. The continuing reports of horrific 
violence against young women and girls are simply unacceptable. I will 
work to help more women live in greater safety, and gain access to 
health care, protection, and justice.
    Finally, investing in women and girls is one of the most powerful 
forces for international development. We've seen that when a girl has 
the chance to go to school, has access to health care, and is kept safe 
from violence, she will marry later, have healthier children, and earn 
an income that she will invest back into her family and community--
breaking the cycle of poverty. I look forward to working with 
colleagues at USAID and PEPFAR to ensure strong investments in women 
and girls' health and education, in agriculture, child survival, 
nutrition, and preventing child marriage.
    I am humbled by the task ahead, but eager to get to work. If 
confirmed, I am looking forward to the privilege of working with 
talented foreign and civil service members throughout the State 
Department to promote gender equality and advance the status of women 
around the world. Most of all, I hope to work with each of you to 
advance our shared goals of global peace, prosperity, and security.
    Thank you very much. I look forward to answering your questions.

    Senator Boxer. Well, I must say that everything you said 
resonates mightily with me and just speaks to why this office 
is so important. And why, when I went to then-Chairman Kerry 
and asked that we have our first-ever subcommittee looking at 
the status of women throughout the world and he said yes, I 
knew it was a real breakthrough.
    And there are many people out there in the audience who 
supported that, and I think it is critical. And I have to say 
the most conservative-thinking historians have said that the 
reason so much of the world is lagging is because they do not 
give women a fair chance. So, as you point out, it is a huge 
economic issue.
    And of course, the tragedy of violence against women, we 
see it all over, in our own military, I might say.
    Ms. Russell. I know.
    Senator Boxer. And we have to keep on pushing because if we 
do not, it is going to continue.
    And I have to say we have a heroine in the world named 
Malala Yousafzai. And I introduced a bill earlier this year 
with Senator Landrieu, and we all know that incredible story. 
Shot in the head by the Taliban because she spoke out bravely 
for girls' education in Pakistan and around the world.
    So the fact that she survived this is definitely God-given 
blessing to the world, and she is continuing her crusade. So, 
as you know, she spoke before the United Nations. I was just 
riveted listening to her words, but more than her words, her 
passion, and her power.
    And so, this bill pays tribute to Malala's vision for her 
country by reinforcing the U.S. commitment to girls' education 
in Pakistan. It is a very simple bill. It expands an existing 
USAID program. So we are not adding more money.
    It awards university scholarships to economically 
disadvantaged Pakistani students. It requires that new 
scholarships be awarded to women because, to date, only 25 
percent of the scholarships awarded through the program have 
been for women. The women are the ones who need it. For them to 
be getting just 25 percent is just wrong on its face.
    So I know we are going to take up this bill, and I know the 
State Department does not have an official position. So I am 
not asking you that. But I am asking if you would work with me, 
as we move forward, because I think you could be a great 
resource to me in just getting the facts out. Would you work 
with me to get the facts out surrounding this legislation?
    Ms. Russell. Well, Senator, first let me say that I think--
I completely agree with you that girls' education is a critical 
issue for us to be working on. I think that the case of Malala 
was so horrifying for so many reasons. But first of all, it was 
such a cowardly act for them to go after her, and I think that 
the reason that they are so threatened by a young girl going to 
school is precisely why we need to be so supportive of girls' 
education.
    It is a horrifying thing to imagine that girls on their way 
to a class are such a threat that they are going to shoot a 
young woman in the head. And I think it just reinforces the 
importance for us of really coming back and saying this is 
absolutely unacceptable, and we need to do everything we can to 
make sure that these girls can get an education to make their 
lives better, to make their children's lives better.
    Because I think one thing we know for sure, that girls 
getting an education is really one of the most--I mean, I think 
there are so many things that we need to do for women's 
empowerment. Education is one of them. Health care. Making sure 
legal protections are in place. But I think one of the first 
and most important is certainly education.
    And I think we need to do everything we can to make sure 
that these girls have that opportunity, and so, yes, I will 
certainly work with you. I commend you for your leadership on 
that. I just think it is sort of first, one of the first 
principles, that girls' education is critically important.
    Senator Boxer. Well, clearly, what the terrorists do, they 
rule by fear. And they know if people have confidence in 
themselves and they are educated and they can stand up for 
themselves, that is a threat to them.
    Ms. Russell. Exactly.
    Senator Boxer. So, you know, they go after the women and 
terrorize. But I think what we saw with Malala's speech at the 
United Nations is if they thought they were going to stop the 
conversation, they certainly have another think coming.
    Ms. Russell. Yes.
    Senator Boxer. And in this committee, we are going to work 
together, and we are going to see that the girls have that 
opportunity.
    Ms. Russell. That opportunity.
    Senator Boxer. I see I have been joined by my ranking 
member. Senator Kaine, do you have time to just wait for his 
opening statement? All right, we will call on Senator Paul.
    Senator Paul. Actually, I am fine. I do not have an opening 
statement.
    Senator Boxer. You are OK? OK. We will call on Senator 
Kaine.
    Senator Paul. That will be fine.
    Senator Boxer. And then we will go back to you for 
questions. Go ahead.
    Senator Paul. Sure.
    Senator Kaine. Great. Thank you, Madam Chair.
    Congratulations.
    Ms. Russell. Thank you, Senator.
    Senator Kaine. I cannot think of somebody more qualified to 
do this important job.
    Just in terms of--I have two questions, really. One about 
partnership and one about the U.N. convention and the current 
status of it not being ratified in the United States.
    Partnership. A lot of the success, I think, of the office 
is the partnership that you create with other entities within 
State that have a human rights portfolio, as well as 
partnerships beyond State. And I would like you to just talk 
about your sort of philosophy about such partnerships, 
partnerships that are already working between the office and 
other entities within or around State. I would love to hear 
that.
    Ms. Russell. OK. Thank you, Senator, for that question.
    It is interesting. When I worked on the strategy on 
violence against women globally, one of the things that became 
very clear to me was that there are lots of entities around the 
Government who are working on different pieces of the violence 
portfolio.
    We brought all of these pieces, all of the organizations 
together, many of them in State, AID, and then across the 
Government--Justice Department folks, people from Labor, people 
from CDC, OPIC. I mean, lots of people had a lot of interest in 
this.
    I think that everybody was looking. I think sort of one of 
the things that happen anywhere across the Government is there 
is a lot of stove-piping that goes on. But everybody is looking 
for opportunities to work together, and I think that it is 
important--this is a fairly small office, but I think that what 
we can do is really--we have the opportunity to look for people 
who are interested in working on these issues and really look 
for partnerships and ways to kind of bring people together in a 
way that will benefit all of us.
    I mean, everybody has some interest in gender, right? 
Because women sort of cross lots of different portfolios here. 
But I think what we are looking for are places where we can be 
particularly effective in using kind of the bully pulpit and 
also making sure that with the limited resources we have in the 
Government that we are all doing things that are the most 
effective way to help women kind of across portfolios.
    And everybody--you know, obviously, I am not in the job. 
So----
    Senator Kaine. Right.
    Ms. Russell. But everybody has been very interested in sort 
of reaching out to me and looking for opportunities, saying if 
you are confirmed, we would be interested in working together. 
So I think it is going to be a very effective way to do 
business.
    Senator Kaine. What is your sense of--one worry I would 
have is that issues dealing with women's empowerment could be 
kind of an add-on issue rather than a central issue in 
bilateral foreign policy, whether it is bilateral or 
multilateral. What are your thoughts about the ways to take 
women's empowerment issues and not make them an add-on, but 
make them really central to the daily work of diplomacy that 
the Nation does?
    Ms. Russell. I think that was one of the things that 
Secretary Clinton and Ambassador Verveer were very good about. 
And I think it is the purpose of the gender integration that is 
going on at the State Department, where Secretary Clinton 
issued a policy saying you need to make sure that gender is 
integrated in the work of the Department.
    It is an ongoing process, frankly. But I think that there 
are places where there are efforts underway now, but I think, 
obviously, we would need to continue to look for places to do 
that. There are probably places where it makes more sense than 
others to focus. But I do think that that is an ongoing 
process.
    Senator Kaine. Finally, I just would like to get your 
thoughts about the convention. I am really struck and 
discouraged by the fact that we are a signator but haven't 
ratified the U.N. Convention on Elimination of Discrimination 
Against Women.
    And do you know whether the administration has plans to 
promote that issue before this Congress? And I would just like 
to have your sense of the convention and what it requires and 
its validity.
    Ms. Russell. Well, the administration supports the 
ratification certainly, and I would support it as well. What I 
understand is that certainly in the United States, we kind of 
have the gold standard in terms of nondiscrimination laws. And 
so, it really, I think, is more of an issue when we are 
overseas.
    And my understanding is that what diplomats have expressed 
is that it would be very helpful as kind of a tool in our 
arsenal to say to countries where they are not abiding by 
nondiscrimination laws, where their laws and their practices 
are not favorable toward women--where ours are, but where 
countries are not as favorable--to say--and they are 
signatories to CEDAW, to say that--you know, to try to get them 
to abide by their obligations under CEDAW.
    I understand that there are people in this country and in 
this Congress who have concerns about it. I know that those are 
not people who believe in discrimination against women. So I 
would like to think that there may be a way forward here, and 
certainly if I could be helpful doing that, I would be 
interested in doing that. Because I have to think that there is 
a way we can do this.
    Because I am sure that it is not, as I say, that folks who 
have concerns about it, I have to believe that there is a way 
we can----
    Senator Kaine. Their concern is probably more the 
sovereignty concern than the discrimination concern.
    Ms. Russell. Yes. And just given that it would be such an 
effective tool for us to use overseas, and I think as it is 
now, we are kind of lumped in with Sudan and Somalia and Iran 
as people who are not signatories to this treaty, it does put 
us in a bad place. And again, it is not really as much an issue 
in the United States. We do have great laws here.
    But in other places, it would be very helpful for us to be 
able to say we, too, are signatories. And now they use it and 
say, well, the United States cannot even sign onto this. So why 
do we need to worry about whether we abide by our obligations 
under it? And that is kind of an unfortunate place for us to be 
at this point.
    Senator Kaine. Well, I would love to be involved in an 
effort to get the United States Senate to ratify, and your 
advice about how it might be perceived and how it might help us 
internationally could be very valuable. I think the 
nonratification of that convention and the one on the rights of 
citizens with disabilities are just out of character with who 
we are.
    Ms. Russell. Yes.
    Senator Kaine. I think we--in both the antidiscrimination 
areas and in the areas of treatment of citizens with 
disabilities, while every day we can wake up and we can and 
should do more, I think we have a lot of examples to offer the 
world about the things that we have done. And I think the 
absence of ratification of both of these conventions gets in 
the way of us presenting the best case that we can.
    And I would look forward to you helping us maybe figuring 
out a way to make that happen.
    Thank you, Madam Chair.
    Ms. Russell. Thanks.
    Senator Boxer. Thank you, Senator.
    Senator Paul.
    Senator Paul. Congratulations on your nomination, and 
thanks for coming.
    There is a Pakistani poet by the name of Parveen Shakir, 
and she has a poem that makes me think of Malala. It says, 
``The children of our age have grown clever. They insist on 
examining the firefly in the daylight.''
    I remember seeing the speeches of Malala before she was 
injured. Her speech is still incredible, even with the massive 
injury that she sustained. But what I would say is that there 
is such a mixture in so many of these worlds of allowing women 
to advance. I mean, there have been Prime Ministers of 
Pakistan. I have met the Ambassador from Pakistan, who is a 
woman.
    But then there are strains, and not insignificant strains, 
I think maybe as much as a third of the population of Pakistan, 
maybe half, said they would vote for bin Laden, which basically 
means they are voting for the Taliban, voting for a repressive 
culture that would shoot a little girl. I mean, I think we 
should speak out on these things, and we should condemn these 
things.
    I think there has been too much hesitancy sometimes in our 
society that we are going to offend all of Islam. I do think 
there need to be more voices within Islam saying this is not 
and does not represent Islam, and it is harder for a Christian 
because it looks as if I am just criticizing another religion. 
But someone should speak out, and our country, I think, should 
not be shy about speaking out about this.
    Among the great human rights abuses I think is putting 
people to death for their speech. In Pakistan, there is a 
woman, and I do not know if this is a women's rights issue. But 
she is a woman, and she is in prison on death row, basically 
for speaking out. Well, she thinks, actually, for drinking out 
of the same glass as Muslim workers is why she thinks she is on 
death row.
    She is officially charged with blasphemy and saying 
something about the prophet. She denies this. And in our 
country, gossip like that or any kind of accusation of 
religious speech would not be considered to be any kind of 
crime.
    But I think it is important as we speak out that we not try 
to be so politically correct that we excuse behavior because we 
say, oh, we are afraid of offending an entire religion. I do 
think it would be easier if it were someone who were from the 
same religion saying this doesn't represent it. But at the very 
least, I think we need to not be afraid to speak out on issues 
where people are misusing religion, but it really is a human 
rights abuse and, in this case, the abuse of a woman.
    I would appreciate your comments.
    Ms. Russell. Well, Senator, you raise a critical issue. I 
am not familiar with that specific case, but I do think that 
that is certainly a really important----
    Senator Paul. Her name is Asia Bibi, if you want to have 
your staff look into it.
    Ms. Russell. OK.
    Senator Paul. She has been, I think, in prison for 2 years 
or more. They say it may take another 2 years for her trial to 
come up, if it comes up. They say she may be pardoned 
ultimately. But for goodness sakes, to spend 5 years in prison, 
even if that is all. But she is under the threat of the death 
penalty the entire time.
    And it is the blasphemy laws. But almost every country 
through the Middle East has these laws. They do not always 
enforce them. But having them on the books is a great human 
rights abuse.
    Ms. Russell. Yes. No, I appreciate you raising that, and I 
will have somebody take a look at it, and I will look at it. 
And I appreciate your raising it, and then if I am confirmed in 
this position, I would be interested in continuing 
conversations with you about that. I appreciate that.
    Thank you.
    Senator Boxer. Anything else, Rand?
    Senator Paul. No, thank you.
    Senator Boxer. I have just one more question. I was deeply 
disappointed by recent attempts by the Government of Bangladesh 
to fundamentally alter the future of Bangladesh's Nobel Prize-
winning Grameen Bank, which was founded by Muhammad Yunus.
    As you know, Grameen Bank provides lifesaving microfinanced 
loans to its shareholders, and the majority of them are very 
poor women. And what makes the bank unique is it is owned by 
the very women who borrow from it.
    I had the privilege of speaking with Muhammad Yunus, and 
what an amazing man he is. And this idea, just getting a few 
hundred dollars, sometimes even less, and how that grows. So I 
have joined a number of my colleagues, including every female 
member of the Senate on both sides of the aisle, in urging 
Bangladesh to allow Grameen Bank to continue to operate with 
autonomy and without government influence.
    Most recently, I joined Senator Durbin in an op-ed in which 
we wrote, ``Any effort to restructure the bank is the wrong 
decision and one that threatens the most vulnerable and the 
tremendous strides the country has made toward poverty 
reduction and growing civil society.''
    Could you speak to this issue of the bank, and if 
confirmed, would you commit to working for the protection of 
this vitally important institution?
    Ms. Russell. Yes, Senator. I am not familiar specifically 
with what the Bangladeshi Government is doing, but I am 
certainly familiar with the Grameen Bank and with microfinance 
programs in general.
    Senator Boxer. Well, they have basically taken it away, 
taken it over.
    Ms. Russell. Yes, which is a terrible thing. The 
microfinance programs are especially important for women 
because they provide such small loans that are often critically 
important for women to get started in business.
    I saw a great program in Bosnia where the women were 
borrowing small bits of money, starting sewing businesses, milk 
businesses. It was amazing to see. And the women came together 
and made decisions about who in the community would get the 
loans. They all backed each other in the loans.
    I mean, it was an amazing process, and it was interesting 
especially because the women finally had the kind of say in the 
family about what was happening with the money because it was 
they, rather than the husbands, who were earning the money. And 
it changed the dynamic.
    And initially, it was interesting because there were some 
kind of flareups of violence where the husbands resented the 
fact that the women were making decisions about the money. But 
ultimately, the men kind of got the hang of it. Sometimes the 
women were then employing their husbands in their businesses. 
And so, it changed kind of the family dynamic.
    So I am a big believer in microfinance, and I cannot 
imagine why the--well, I actually can imagine why they would, 
but certainly I can see that this is a problem, and I would----
    Senator Boxer. Well, we can work together on it.
    Ms. Russell. We definitely can work together on that, yes.
    Senator Boxer. OK.
    Ms. Russell. And thank you for raising that. I appreciate 
your question.
    Senator Boxer. Senator Kaine, have any more questions? Any 
more questions from----
    Well, I told you this would be easy.
    Ms. Russell. You did. I did not believe you, but you did 
tell me that.
    Senator Boxer. Well, we are all very happy that you are 
willing to do this. You will have to fill very giant shoes, but 
I know that you are up to it.
    And we thank you, and we stand adjourned.
    Ms. Russell. Thank you. Thank you, Senator.
    [Whereupon, at 3 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Catherine Russell to Questions Submitted 
                       by Senator Robert Menendez

    Question. The Office of Global Women's Issues is a critically 
important tool in 
advancing the rights of women around the world. Our values, and U.S. 
policy, call for preserving and advancing the role women have in 
society, improving access to health and education, and alleviating the 
impact violence has on women. These measures are necessary, not only 
for promoting essential rights for women, but for economic growth and 
global security.

  <bullet> What advances have been made with regard to women's health 
        and education since the office's installment in 2009? How can 
        we improve access in conflict-ridden areas like Afghanistan?

    Answer. Investing in women and girls is one of the most powerful 
forces for international development. Improving the health and 
education of women and girls also enhances their productivity and 
social and economic participation, and acts as a positive multiplier, 
benefiting the development and health of future generations.
    Since 2009, the United States and partners around the world have 
made remarkable progress in advancing women's health--including in 
reducing maternal mortality, increasing access to contraception, and 
increasing access to HIV prevention, care, and treatment services. In 
2010, for example, the U.N. Secretary General launched his ``Every 
Woman Every Child'' strategy, an initiative to reduce maternal and 
child mortality worldwide.
    President Obama's Global Health Initiative (GHI), launched in 2009, 
recognizes that the health and rights of women and girls have a 
significant impact on the success--or failure--of our global health 
programs. In 2011, the Secretary's Office of Global Women's Issues (S/
GWI) led an interagency working group to develop ``Supplemental 
Guidance on Women, Girls and Gender Equality'' to help countries 
integrate gender issues and priorities into their health strategies. 
Today, every country-level global health initiative strategy has 
incorporated this gender guidance.
    The President's Emergency Plan for AIDS Relief (PEPFAR) promotes 
the integration of gender throughout its prevention, care, and 
treatment programs. Furthermore, S/GWI and PEPFAR jointly support 
approximately $3 million in small grants to grassroots organizations in 
over 25 countries working to prevent and respond to gender-based 
violence, with a link to HIV prevention, treatment, and care.
    The world has also seen significant progress in girls' access to 
education; and in many countries across the developing world gender 
parity in primary school enrollment has been reached. In FY 2012, 
around 9.5 million girls were enrolled in primary and secondary schools 
(or equivalent non-school-based settings) with USG support. USAID, 
which directs the United States global education investments in 
developing countries, focuses on the following three goals: (1) 
improving reading skills for primary school children; (2) improving 
workforce training programs; and (3) increasing equitable access to 
education in conflict and crisis environments. Efforts to promote 
gender equality within USAID's education activities include: creating 
safe spaces for women and girls pursuing education in fragile 
environments; ensuring teacher training and education materials reflect 
equitable gender norms; engaging communities to ensure girls have equal 
access to education. USAID also supports programs that target girls' 
access to education in countries such as Ethiopia, Liberia, South 
Sudan, and Tanzania. The recently concluded Ambassador Girls 
Scholarship Program provided more than 500,000 scholarships to girls in 
40 African countries between 2004 and 2011.
    In 2012, S/GWI brought USAID and PEPFAR together to support 
``Empowering Adolescent Girls to Lead through Education (EAGLE),'' a 5-
year, $15 million program to ensure that more adolescent girls in the 
Democratic Republic of Congo (DRC) make successful transitions to 
secondary school. Just 11 percent of Congolese women over age 25 have 
completed secondary education, and studies show that keeping girls in 
school dramatically reduces their vulnerability to HIV and improves 
overall health outcomes. EAGLE seeks to raise this rate by tackling 
many of the barriers keeping girls from continuing their post-primary 
educations--including cost and school safety.
    The State Department also seeks to support girls' education through 
its exchange programs. Beginning in 2013, all teachers who come to the 
United States under the auspices of Department-sponsored Teaching 
Excellence and Achievement and International Leaders in Education 
exchange programs will take courses on addressing the unique challenges 
girls face in the classroom. Hundreds of teachers per year come to the 
United States through these programs, most from the developing world, 
where a lack of such training and awareness is considered a serious 
barrier to girls' success in school.
    The United States also recognizes the critical importance of 
ensuring women's and girls' access to health care and education in 
conflict and post-conflict areas.
    For example, U.S. efforts in Afghanistan to increase and improve 
primary health care, increase safe childbirth, support healthier 
adolescent girls and women, and build training and job opportunities in 
health for women have all contributed to the improved status of women. 
Maternal mortality has fallen from 1,600 per 100,000 births to 327. 
Life expectancy for women has risen from 44 years in 2001 to 64 years 
today. USAID will continue to help address urgent problems by providing 
basic health and essential hospital services to women in 13 provinces 
and supporting midwifery training programs.
    Additionally, USAID's education programs in Afghanistan--whether 
focused on basic or higher education or on technical and vocational 
education and training (TVET)--have had a significant impact over the 
last 10 years. Today, 37 percent of the 8 million Afghan students in 
primary school are girls. Since 2001, more than 120,000 Afghan women 
have finished secondary school and 40,000 are working on university 
degrees. Earlier this week, USAID launched a new initiative, Promoting 
Gender Equality in National Priority Programs (PROMOTE), which will 
invest in opportunities to enable educated women to enter and advance 
into decisionmaking positions in Afghanistan's public, private, and 
civil society sectors. USAID will further our commitment to Afghan 
women in education by providing an international scholarship program 
for Afghan women pursuing careers in highly technical professions and 
through the establishment of an Institute for Gender and Development 
Studies at an Afghan university.
    If confirmed, I will seek to strengthen all these efforts and 
continue to be a strong voice for increased access to health care and 
education for women and girls worldwide.

    Question. What efforts are being made to encourage women's 
participation in the political process in nascent democracies?

    Answer. The U.S. Government supports the aspirations of women 
around the world, especially those in nascent democracies, who seek to 
participate fully in the political lives of their nations. U.S. 
officials regularly convey to foreign officials and civil society 
representatives that security, stability, and economic prosperity 
cannot be achieved without the participation of women.
    U.S. officials regularly meet with women's rights activists to 
support their efforts. They also encourage governments, political 
parties, police and security forces, religious leaders and other civil 
society groups to include more women in their organizations, and to 
listen to and act on the concerns of women's rights advocates.
    Around the world, the United States is actively supporting women's 
political empowerment. For example, the Middle East Partnership 
Initiative (MEPI) funds initiatives to support emerging women leaders, 
including the Arab Women's Leadership Institute (AWLI). AWLI trains 
female elected officials and women leaders to support their efforts to 
lead constituent-driven reforms. AWLI trainees have gone on to win 
public office and play active roles in developing advocacy efforts. The 
Women in Public Service Project, an initiative launched by the State 
Department and several leading women's colleges, identifies, trains, 
and mentors young women leaders from countries in transition.
    The United States and Tunisia cohosted the ninth Forum for the 
Future in 2012, which brought together government officials from 21 
Middle East and North African countries (including Tunisia, Egypt, 
Libya, and Yemen) and G8 countries, and civil society and private 
sector representatives. Ministers agreed by consensus to the Tunis 
Declaration, recognizing that the full and equal participation of all 
people regardless of race, sex, or religion, is critical for political 
and economic development. Ministers, in particular, publicly recognized 
the critical role women play in the transformations underway in the 
Broader Middle East and North Africa (BMENA) region, and underscored 
the importance of making progress on longstanding BMENA objectives 
related to gender equality, with a view to achieving women's full 
political, social, and economic empowerment.
    In Egypt, the President, the Secretary of State, and other senior 
officials have made clear to Egyptian leadership the need for a 
transparent, inclusive, democratic government in Egypt that respects 
universal human rights, including the political rights of women. Along 
with USAID, the State Department has programs on the ground that work 
in partnership with local civil society organizations to reinforce 
these values.
    I understand the U.S. Government is watching closely how the 
Egyptian Government drafts and implements the new constitution. Human 
rights activists have raised concerns about provisions in the 
constitution that could limit women's rights. If confirmed, I will 
continue to highlight the importance of equal protection under the law 
and urge the Egyptian Government to include women in the ongoing 
transition process. The interim President of Egypt recently swore in 
three women ministers in his new Cabinet.
    In Syria, U.S. officials continue to reiterate that no transition 
can be considered inclusive and democratic if it does not include the 
concerns and participation of Syrian women.
    In the Balkans, the Office of Global Women's Issues is working with 
our Embassy and mission in Pristina and the Government of Kosovo to 
implement an ongoing initiative to highlight the work and build the 
capacity of women leaders in government, politics, and civil society in 
fighting corruption and to advance key elements of the rule of law in 
their societies.
    In Afghanistan, the United States provides extensive support to 
bolster women's participation in the political process and support 
advocacy efforts through equal voter registration outreach, assistance 
to women candidates, gender equality in political parties, and support 
of female Parliamentarians and diplomats.


    NOMINATIONS OF MORRELL JOHN BERRY, DANIEL CLUNE, AND JOSEPH YUN

                              ----------                              


                         TUESDAY, JULY 23, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Morrell John Berry, of Maryland, to be Ambassador to 
        Australia
Daniel Clune, of Maryland, to be Ambassador to Laos
Joseph Yun, of Oregon, to be Ambassador to Malaysia
                              ----------                              

    The committee met, pursuant to notice, at 9 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, presiding.
    Present: Senators Cardin, Kaine, and Rubio.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. As I was explaining to our distinguished 
panel of nominees, there is a Senate Foreign Relations 
Committee meeting at 10:15 this morning. So we are going to 
start on time.
    I know that Congressman Hoyer will be here, and we will 
interrupt when my colleague arrives. He has indicated he is 
probably about 5 to 10 minutes out. So I expect he may be here 
before I finish my opening comments.
    I want to acknowledge Ambassador Beasley, the Ambassador 
from Australia to the United States. It is a real pleasure to 
have you in our committee room, and thank you very much for 
your representation of a close friend and ally of the United 
States.
    Let me also first acknowledge that Senator Corker, I 
expect, will be by sometime during the hearing.
    And I thank Chairman Menendez for allowing me to chair 
today's hearing. As the subcommittee chair for East Asia and 
Pacific, I am particularly pleased with the three nominees that 
are present today: John Berry, the nominee to be Ambassador to 
Australia; Dan Clune, to be Ambassador to Laos; and Joseph Yun, 
to be Ambassador to Malaysia, all three critically important 
countries to the United States.
    I deeply respect all three of you, but two of you have the 
distinct good sense to be Marylanders, and I thank the two 
Marylanders that are here. Nothing against Oregon, but we do 
take care of our own State's people first. So the order of 
presentation, we will have Mr. Yun go third. [Laughter.]
    Let me also just point out that all three of these 
countries are very important to our rebalance to Asia, 
President Obama's commitment to focus on the importance of Asia 
to the United States.
    John Berry brings a wealth of experience, OPM leadership, 
in an extremely challenging time, and we thank you for the work 
that you have done there, a Deputy Assistant Secretary at 
Treasury, your environmental record, which is particularly 
important for Australia and United States, having been involved 
in the National Fish and Wildlife Foundation and National Zoo 
director and extraordinary work that you did there, and then 
surviving working for Congressman Hoyer. If you can survive 
Congressman Hoyer, you should do very well in Australia. So we 
welcome you, a personal friend, and I thank you for your 
continued commitment to public service.
    Dan Clune. The good news about Dan, his wife is a Terp. 
Congressman Hoyer will appreciate that very much. And I am very 
happy that your son and daughter-in-law are alumni of the 
University of Maryland Law School. So that also shows good 
judgment. A career diplomat, Principal Deputy Assistant 
Secretary for the Bureau of Oceans and Environment and 
Scientific Affairs, served in the Embassies of Nassau, Lima, 
Jakarta, and Canberra. So you certainly bring a great 
experience to this post.
    And Joseph Yun, who has been an advisor to me as chair of 
the Subcommittee on East Asia and the Pacific, helped me 
prepare for my first visit to that region, testified before our 
subcommittee on two previous occasions. We are going to miss 
you tomorrow at the hearing. A career diplomat, acting 
Assistant Secretary for East Asia and Pacific Affairs, has 
served in the Embassies of Bangkok, Thailand, Seoul, Paris, and 
Hong Kong. We are not going to ask you which one you enjoyed 
the most out of all those assignments. But you bring a wealth 
of experience.
    I particularly want to thank not just the nominees for your 
willingness to continue in public service but your families. I 
said it privately, but let me just put it on the record. It is 
an incredible sacrifice that the families share in the public 
service that you all have undertaken, and we very much 
appreciate that and want to acknowledge that. And we welcome 
the family participation in the responsibilities of your 
office.
    Each of these countries are very important to the 
rebalanced Asia. Asia is very important to the United States 
for many reasons: for military reasons, for strategic issues, 
economic issues, environmental issues. Australia is a strategic 
ally of the United States. We rely on Australia's cooperation 
with us on military issues since World War I. A key TPP 
negotiator, and one of our key environmental partners.
    Laos is a member of the ASEAN group, is very important on 
environmental issues, particularly the Lower Mekong Initiative. 
We still have the problems of healing the problems of the war. 
I am particularly concerned about demining unexploded 
ordnances. It is my understanding about 100 casualties a year, 
many of whom are children. That should be of great interest to 
our relationship with Laos. It presents real challenges on 
human rights, the human trafficking issues, the freedom of 
expression. So it is a challenging post and a very important 
post.
    Malaysia is a moderate Muslim majority democratic nation, a 
key partner in ASEAN. It recently entered into with Maryland's 
Johns Hopkins University School of Medicine in helping to build 
Malaysia's first fully integrated private medical school. That 
is certainly a connection that we want to encourage. It is a 
TPP aspirant, but has challenges, challenges in the rights of 
its opposition, the freedom of expression, the freedom of the 
press. These are issues that we will certainly want to hear 
from the nominees as to how you will represent the United 
States in advancing all of these goals.
    So, again, welcome to the hearing. Your full statements 
will be made part of the record. You may proceed as you see 
fit. As soon as Senator Corker or Congressman Hoyer arrives--
look at that. Right on cue. I am telling you, he has been 
waiting outside for this moment. [Laughter.]
    But it is always a pleasure to have my friend come over to 
the Senate side of the Congress and acknowledge that there is 
the United States Senate and that we do work----
    [Laughter.]
    Senator Cardin [continuing]. And that there is a relevancy 
to the United States Senate. But we very much admire and 
appreciate Congressman Hoyer's incredible role in not only 
leadership in our State of Maryland but his national 
leadership. We are very proud of the bridges that he has built 
to move forward on issues and bring this Nation and make it 
stronger. As I have already indicated before, it is an honor 
for him to be here to introduce to our committee his friend and 
former staff person, John Berry.
    Congressman Hoyer.

                STATEMENT OF HON. STENY HOYER, 
               U.S. REPRESENTATIVE FROM MARYLAND

    Mr. Hoyer. Well, Mr. Chairman, thank you very much. It is 
always a privilege to visit with my dear friend. For those who 
are in audience, I am not objective. Ben Cardin and I went to 
the General Assembly together in 1966 before many of you were 
born, and we have served together for all those years in 
government. Ben Cardin, I think, is one of the finest 
legislators and human beings with whom I have had the 
opportunity to work ever. So thank you, Mr. Chairman.
    And, Senator Kaine, good to be with you, sir, as well.
    Mr. Chairman, we do not have a ranking member here right 
now, but Senator Kaine, members of the committee, I want to 
thank you for this opportunity to voice my strong support for 
John Berry to serve as our next Ambassador to Australia.
    I have known John Berry since 1986 when a former staffer of 
mine called me up and said do you have a vacancy on your staff. 
And I said, well, not right now. He said, well, you need to 
fire somebody. [Laughter.]
    I said, what do you mean? He said, you need to hire John 
Berry. He is one of the most extraordinarily talented human 
beings you are ever going to meet.
    Well, it just so happens that somebody you know, Senator 
Cardin, John Moag, decided to leave just a month later, and I 
had the opportunity of asking John Berry to come on my staff 
and he worked from 1985 to 1994.
    Throughout that time, John was instrumental in helping me 
serve the people of Maryland and the people of our country. 
After leaving my staff, John served in senior executive roles 
in the Treasury Department, the Smithsonian Institution, the 
Department of the Interior in the Clinton administration, and 
served in every one of those positions, as he did with me, with 
great distinction.
    In 2000, he became the director of the National Fish and 
Wildlife Foundation where he worked diligently, which is an 
understatement when you refer to John Berry's work ethic, to 
improve conservation through innovation, public/private 
partnerships.
    His commitment to our Nation's natural wildlife and habitat 
preservation was recognized further when John was appointed to 
serve as director of the National Zoo, and how he loved that 
job and the employees for every institution for whom he has 
worked, including my office, loved him. He was so successful at 
turning around the institution that had been faltering, that 
the zoo named a lion cub after him. I am not sure exactly what 
the significance of that is. [Laughter.]
    But it is a recognition of the affection and respect with 
which he is held by everybody who has worked with him.
    In 2009, President Obama selected John as director of the 
Office of Personnel Management. He got right to work making 
improvements in the way we recruit and retain a top notch 
Federal workforce, something that is important, of course, to 
all of us but important to every American. As OPM Director, 
John became one of our Nation's fiercest defenders of public 
service and the role Federal employees play in keeping our 
Nation safe and our economy strong. Even in the face of COLA 
freezes and cuts to the retirement benefits, John made a strong 
case for Federal employees to be recognized for their hard work 
with a pay comparable to the private sector. And he has made it 
a hallmark of his career to make sure that employees no longer 
face discrimination in the workplace based upon age, race, 
gender, religion, or sexual orientation. No one with whom I 
have worked has a greater commitment to individual liberty and 
fairness and justice than John Berry.
    In every position in which he has served, he has elevated 
that office through his thoughtful approach to management, his 
natural ability to lead, and his commitment to achieving 
results.
    Senator Kaine, I may have told this to Ben Cardin, but I 
called up the Secretary of the Interior. There was a vacancy in 
the Assistant Secretary for Planning, Management, and Budget. 
And I told him that he needed to hire John Berry, sort of like 
the guy who called me. I said, and if you hire him, you are 
going to find him to be the most capable, able, focused, and 
upbeat person you have ever worked with. And the Secretary said 
OK, well, yes. I have to touch base with the White House. He 
was not too enthusiastic, just another Congressman calling him 
to beat on him about something.
    About a year later, he had hired John Berry, and a year 
later, I saw him in the airport. He came up to me. He said, 
Steny, you know that guy you talked to me about, John Berry? I 
said, of course. You undersold him. [Laughter.]
    I could not have been more generous in describing John 
Berry, and I undersold him according to the Secretary. He was 
right.
    In every position in which he has served, he has elevated 
that office through his thoughtful approach to management. I 
already said that. John is someone who leads by example, which 
is an enormously important quality in someone who will be 
representing our Nation abroad.
    In John Berry, the Australians will see the best of America 
because they will see a man committed to promoting our values 
of justice, quality, and opportunity. They will also come to 
know him as someone dedicated to preserving the earth's natural 
resources and wildlife, an issue, of course, that like so many 
Americans, Australians hold dear.
    As the administration continues its strategic pivot toward 
Asia and the Pacific, Australia continues to be an instrumental 
partner to the United States in both security and trade. 
Australia remains one of America's closest and most important 
strategic allies, and our ties are based not only on common 
interests but on a shared heritage and a history of fighting 
side by side to defend democracy in two world wars.
    I congratulate the Obama administration, for in that 
context, they have elected to send someone to Australia who the 
Australians will see as the perfect example of the good 
American, of the positive American, of the American who shares 
their values and respects them as a sovereign nation and dear 
friend. I am confident that John will continue to work to bring 
our countries even closer as Americans and Australians pursue 
our shared goals of peace, stability, and economic prosperity.
    It says here I am going to urge you to support. I have no 
doubt that you are going to support John Berry. But I want all 
of you to know how fortunate America is that we have somebody 
of John Berry's skill and judgment and personality who has 
dedicated so much of his life to public service.
    Mr. Chairman, I thank you for this opportunity to appear on 
his behalf.
    Senator Cardin. Well, Congressman Hoyer, thank you for 
coming over and sharing those thoughts on John Berry.
    On OPM, I had the opportunity to sit there and introduce 
him to the committee. So your observations about my support is 
very accurate.
    You are absolutely right about the upbeat nature. Sometimes 
it is just not fair.
    Mr. Hoyer. It drives you crazy, does it not?
    Senator Cardin. It does. [Laughter.]
    Mr. Hoyer. John, things are bad. Do you not understand? 
Things are bad. [Laughter.]
    Senator Cardin. Well, I cannot think of a more appropriate 
ambassadorship than Australia where he will, I think, create 
the type of relationship between two friends who are leaders on 
economic and environmental and military issues that will help 
us in the rebalance to Asia.
    So thank you so much for sharing your thoughts with us 
today. I appreciate it.
    Now, Mr. Berry, if you dare, you can now try to follow Mr. 
Hoyer. [Laughter.]

   STATEMENT OF HON. MORRELL JOHN BERRY, OF MARYLAND, TO BE 
                    AMBASSADOR TO AUSTRALIA

    Mr. Berry. Mr. Chairman, thank you so much, and again, 
thanks to Mr. Hoyer. It is always extremely humbling for his 
generosity. I never realized, when I started working for him in 
the 1980s, in the mid-1980s, was that I was also getting a 
second father, and he has been an amazing force in my life. And 
I am eternally grateful for his participation in my life.
    Mr. Chairman, I am also extremely honored. As you 
mentioned, Ambassador Beasley is with us today from Australia. 
Ambassador Beasley is one of the most distinguished statesmen 
from Australia. I think in American history, you would have to 
go all the way back to Ben Franklin to find someone of such 
stature. And I am very honored and humbled that he would be 
here today.
    My brother, Joseph, his wife, Jodi, and their son, Thomas, 
are here. Both my nephews, James Ramo and Kate London, are 
here. And my partner of 17 years, Curtis Yee, is here as well, 
and I am very grateful for the committee's allowing them to 
join us.
    Mr. Chairman, as you know, America is a Pacific nation, and 
if confirmed, I will be the second generation of Berry's to 
serve our country in the Pacific. My father served in the First 
Marine Division at Guadalanal. He then moved on to fight in 
Papua New Guinea at Cape Gloucester, and then served aboard the 
USS Bon Homme Richard toward the end of World War II. I am 
named for my uncle, his younger brother, who was a Marine 
fighter pilot who was shot down and killed in action over 
Mindanao in the Philippines.
    My partner, Curtis Yee, is a fourth generation Chinese 
American from Hawaii, and his uncle, Hiram Fong, was Hawaii's 
first United States Senator and America's first Chinese 
American Senator. And as a result, the President's nomination, 
for which I am extremely grateful and humbled to serve as a 
U.S. Ambassador in the Asia-Pacific region, has deep and 
personal meaning both to my family and to me.
    If the Senate confirms me, my overarching goal as 
Ambassador to Australia will be threefold.
    First, I will work to strengthen our alliance with 
Australia, which has served as an anchor of peace and stability 
in the Asia-Pacific region for more than 60 years.
    America could not ask for a better friend, partner, and 
ally than Australia. Our relationship is built on a solid 
foundation of trust. It has been proven under fire and it is 
steeled by deeply held values. From World War I to the present 
day, America has not entered any major battle without 
Australians at our side. Thousands of Australians have made the 
ultimate sacrifice of laying down their lives.
    America is profoundly grateful for Australia's sacrifices 
in pursuit of our common purposes. But our country is 
especially grateful that after 9/11 Australia stepped forward 
to help us counter terrorism in Afghanistan, and we honor the 
contribution of their nation and most deeply the 40 proud 
Australians who have given their lives in combat there. And I 
would ask, Mr. Chairman, if I could, as part of the record to 
include the 40 names of those Australians.
    Senator Cardin. Without objection, they will be included in 
the record.
    Mr. Berry. Thank you, Mr. Chairman.
    Second, if confirmed, I will endeavor to increase our 
mutual trade and investment.
    The United States has $136 billion in direct investment in 
Australia, more than any other country in the Asia-Pacific and 
twice the value of our investments in China. Our bilateral free 
trade agreement has already resulted in impressive returns, 
increasing our trade by 98 percent since 2004 and last year 
topping $64 billion. And we are working today on trying to 
conclude a successful Trans-Pacific Partnership which will open 
up huge opportunities.
    Finally, if confirmed, I will strive to further deepen our 
cultural, scientific, and conservation cooperation.
    The United States and Australia share common objectives, a 
world that respects human rights and the rule of law, that 
benefits from transparent, free, fair, and open trade, and that 
settles our differences peacefully. We share a deep and abiding 
love of liberty and freedom, and we draw strength from our rich 
diversity and pride ourselves on providing opportunity or, as 
Australians say, a ``fair go'' for all. Our bonds with 
Australia are truly unbreakable.
    At the Australian Parliament House in 2011, President Obama 
delivered his clarion message on the Asia-Pacific region and 
the United States commitment there. He stressed that the United 
States and Australia ``alliance continues to be indispensable 
to our future,'' and that, ``in the Asia-Pacific in the 21st 
century, the United States of America is all in.''
    Mr. Chairman, I am honored for the opportunity to appear 
before you today and happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Berry follows:]

                Prepared Statement of Morrell John Berry

    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to appear before you today, it is a great honor. I 
am deeply grateful to President Obama for his confidence in nominating 
me to serve as the U.S. Ambassador to Australia. If confirmed, I 
promise that I will work tirelessly in service to our country.
    For the past 4 years, I have had the distinct privilege of serving 
as the President's Chief People Person as head of the Office of 
Personnel Management. OPM is a relatively small agency, but it has a 
broad reach and a tremendously important mission--to recruit, retain, 
and honor a world-class workforce. In my role at OPM, I traveled 
throughout the country meeting with students and universities, 
veterans, employee groups, tribal communities, Fortune 500 companies, 
affinity groups, and civil servants. Every day, across our government 
and private sector, I witnessed remarkable innovations and 
accomplishments. I saw first-hand the dedication and hard work of men 
and women committed to making our Nation and our world a better place.
    Along the way, I was reminded again and again of the tremendous 
diversity of our great country, building lasting relationships with 
fellow Americans from all backgrounds as we worked together to address 
shared challenges. If confirmed, I will carry with me these many voices 
of America, along with a profound commitment to strengthening the 
shared values that lie at the heart of our strategic relationship with 
Australia.
    America is a Pacific nation, and, if confirmed, I would be the 
second generation of Berrys to serve our country in the Pacific. My 
father, Morrell Berry, fought in the First Marine Division at 
Guadalcanal, at Cape Gloucester in Papua New Guinea, and as a Marine 
gunnery sergeant aboard the USS Bon Homme Richard. My uncle Jack, for 
whom I am named, served as a U.S. Marine fighter pilot during World War 
II and was killed in action over the Philippines. My partner, Curtis 
Yee, is a fourth generation Chinese American from Hawaii, and his uncle 
Hiram Fong was Hawaii's first U.S. Senator and the first Chinese 
American Senator. As a result, the nomination to serve as a U.S. 
Ambassador in the Asia-Pacific region has deep meaning to my family and 
to me.
    As proud as America's past has been in the Pacific, our future 
promises only to be brighter. President Obama and both Secretaries 
Clinton and Kerry have made clear that America will remain fully 
engaged in the Asia-Pacific region in the 21st century, using our 
alliances for mutual good. Without question, one of the United States 
greatest alliances is with Australia.
    If confirmed, my overarching goals as Ambassador to Australia are 
threefold.
    First, I will work to strengthen our strategic alliance with 
Australia, which has served as an anchor of peace and stability in the 
Asia-Pacific region and the world for more than 60 years.
    America could not ask for a better friend, partner, and ally than 
Australia. Our relationship is built on a solid foundation of trust, 
proven under fire, and steeled by deeply held shared values. From World 
War I to the present day, America has never entered a major battle 
without Australians firmly by our side. Thousands of Australians have 
made the ultimate sacrifice, laying down their lives alongside our own 
brave service men and women in pursuit of freedom and a better world.
    America is profoundly grateful for Australia's sacrifices in 
pursuit of our common purposes. We are especially appreciative that 
after 9/11, Australia stepped forward to help us counter terrorism in 
Afghanistan, and we honor the 40 proud Australians who have fallen in 
combat there. I would ask, Mr. Chairman, that I be allowed to enter the 
names of those brave soldiers in the official record of this hearing.
    The U.S.-Australia defense and security relationship is rock solid. 
Right now in northern Australia, more than 30,000 U.S. and Australian 
service members are taking to the sea, land, and sky as part of 
Exercise TALISMAN SABER 2013--a biennial combined training activity 
designed to improve the combat readiness and interoperability of our 
forces.
    As part of the force posture initiatives announced by President 
Obama in November 2011, U.S. Marines are also conducting exercises and 
training on a rotational basis with the Australian Defence Force in 
Darwin and Northern Australia, which will enable both countries to join 
with other partners to respond in a timely and effective manner to a 
range of contingencies in the Asia-Pacific, including humanitarian 
assistance and disaster relief in the region. The President summed it 
up succinctly: ``The United States is a Pacific power, and we are here 
to stay.''
    If confirmed, I pledge to do everything in my power to strengthen 
our strategic alliance and to ensure that we are fully prepared to work 
together to respond to the challenges of tomorrow, whether they are on 
land or at sea, in space or in cyberspace.
    Second, if confirmed, I will endeavor to increase our mutual trade 
and investment.
    The United States has $136 billion in direct investments in 
Australia, more than in any other country in the Asia-Pacific and more 
than twice the value of our investments in China. Our bilateral Free 
Trade Agreement has resulted in impressive returns benefiting both 
countries--bilateral trade in goods and services has increased by 
nearly 98 percent since 2004, topping $64 billion in 2012. Australia is 
a key center of operations for many U.S. companies, and their work 
there brings technology and capital into Australia, and creates jobs 
and enhances our exports sector here at home.
    Today, we are also working with Australia to conclude the Trans-
Pacific Partnership, the ambitious, next-generation, trade agreement 
that reflects our shared economic priorities and values and whose 
members span the Asia-Pacific.
    If confirmed, I will work to strengthen our economic relationship 
with Australia and the Asia-Pacific region.
    Finally, if confirmed, I will strive to further deepen our 
cultural, scientific, and conservation cooperation.
    The United States and Australia share strong people-to-people ties, 
with some 400,000 Americans visiting Australia and around 1 million 
Australians visiting the United States last year alone. Academic 
exchanges are a critical part of our relationship with Australia. From 
food security and linguistics to oncology and renewable energy, 
students and scholars are bringing our countries ever closer together 
through cooperative innovations in the service of all humankind.
    The United States and Australia share common objectives--a world 
that respects human rights and the rule of law; benefits from 
transparent, free, fair and open trade; and settles differences 
peacefully. We share a deep and abiding love of liberty and freedom. We 
both draw strength from our rich diversity and pride ourselves on 
providing opportunity or a ``fair go'' for all. Our bonds with 
Australia are truly unbreakable.
    At the Australian Parliament House in 2011, President Obama 
delivered his clarion message on the Asia-Pacific region and the United 
States commitments there. He stressed that the U.S.-Australia 
``alliance continues to be indispensable to our future,'' and that, 
``[i]n the Asia Pacific in the 21st century, the United States of 
America is all in.''
    To conclude, I am deeply honored to be nominated for the position 
of U.S. Ambassador to Australia, and welcome the opportunity to lend my 
experience, passion, and dedication to enhancing our relationship with 
one of our strongest allies and partners, and to cementing the United 
States commitment to the Asia Pacific.
    Mr. Chairman, I thank you for the opportunity to appear before you 
today and stand ready to answer any questions that you and other 
members may have.

    Senator Cardin. Thank you very much, Mr. Berry.
    We have been joined by Senator Rubio who is the ranking 
Republican on the East Asia and Pacific Subcommittee. He is 
willing to defer an opening statement due to the time issues 
that I mentioned at the beginning of this hearing. Thank you, 
Senator Rubio. I appreciate your cooperation.
    Of course, Senator Kaine has been here. I appreciate both 
my colleagues being here.
    Mr. Clune.

            STATEMENT OF DANIEL CLUNE, OF MARYLAND, 
                    TO BE AMBASSADOR TO LAOS

    Mr. Clune. Mr. Chairman and members of the committee, thank 
you for the opportunity to appear before the committee today. 
And thank you, Senator Cardin, for your kind introduction.
    With your permission, I would like to briefly highlight 
five priorities outlined in the statement that has already been 
included in the record.
    But, first, I would like to introduce the members of my 
family who are here today who have shared the adventures and 
the hardships of a 28-year career in the Foreign Service with 
me: my wife, Judy, and two of our daughters, Sarah and Katie.
    Mr. Chairman, if confirmed, I would focus on five broad 
priorities.
    First, the issues arising from the war in Vietnam, that is, 
the accounting for U.S. personnel missing in action and the 
removal of unexploded ordnance, as you mentioned, Mr. Chairman. 
And I welcome the cooperation of the Lao Government in both of 
these efforts. We have made great progress in accounting for 
missing personnel, locating and returning the remains of 266 
missing to their loved ones, and will continue to search for 
the 309 still missing.
    We have also made good progress in clearing unexploded 
ordnance, educating affected communities, and assisting the 
victims. Last year, casualties were reduced to 56, down from an 
annual average of 300, and we have increased annual funding for 
the program from $5 million to $9 million.
    Another high priority for me will be promotion of human 
rights and the rule of law, a central pillar of the 
administration's foreign policy. If confirmed, I will continue 
our efforts to help Laos reform its legal and regulatory 
systems and to speak forthrightly about incidents such as the 
recent disappearance of Lao civil society leader, Sombath 
Somphone, and the return of nine young asylum seekers to North 
Korea.
    Continued cooperation in the areas of health, 
counternarcotics, and the environment will also be a priority 
for me, including existing efforts to control infectious 
diseases, new efforts to address very high rates of child and 
maternal mortality, and support of Laos and other countries in 
the region on plans to construct dams on the main stem of the 
Mekong River. The Mekong underpins the livelihood of nearly 70 
million people, and if confirmed, I will encourage cooperation 
between U.S. and Lao experts to minimize the impact of dams on 
local populations, habitat, and wildlife.
    I will also work to strengthen people-to-people ties. With 
70 percent of the Lao population under the age of 30, I intend 
to focus on building ties with students, young professionals, 
and government officials.
    Finally, increasing U.S. trade and investment will also be 
a priority for me. The United States ranks 13th on the list of 
foreign investors in Laos and accounts for just 1 percent of 
its foreign trade. Laos joined the World Trade Organization 
earlier this year, and we are helping it to implement the 
reforms necessary to meet its WTO obligations. And I will work 
to acquaint U.S. businesses with the new opportunities this 
offers and encourage them to do more business in Laos.
    Mr. Chairman and members of the committee, if confirmed, I 
look forward to working with the committee and other interested 
Members of Congress to advance U.S. interests in Laos.
    Thank you again for the opportunity to appear before you 
today, and I am pleased to answer any questions you might have.
    [The prepared statement of Mr. Clune follows:]

                    Prepared Statement of Dan Clune

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before the committee today. I am deeply honored 
to have been nominated by President Obama to be the U.S. Ambassador to 
the Lao People's Democratic Republic. I am grateful for the President's 
confidence and to Secretary Kerry for his support of my nomination. If 
confirmed, I look forward to working with the committee and other 
interested members of Congress to advance U.S. interests in Laos.
    I have served our country as a Foreign Service officer since 1985 
and have led large interagency teams at two embassies and here in 
Washington. In my most recent position I served as the Principal Deputy 
Assistant Secretary in the Bureau of Oceans and International 
Environmental and Scientific Affairs. Previously, I was Deputy Chief of 
Mission and Charge d'Affaires at the U.S Embassy in Australia. I have 
served previously in Southeast Asia, as the Finance and Development 
Officer at our Embassy in Jakarta.
    If confirmed, I would be greatly honored to move our foreign policy 
goals forward as Ambassador to Laos. Among my priorities would be 
promotion of human rights, removal of Vietnam war era unexploded 
ordnance, accounting for U.S. personnel missing in Laos from the 
Vietnam war, and continued improvement of people-to-people ties.
    With the resumption of full diplomatic relations in 1992, U.S.-Lao 
cooperation has improved significantly, but there have been ups and 
downs along the way. Former Secretary Clinton, during her historic 
visit in July 2012, became the first U.S. Secretary of State to set 
foot in the country since John Foster Dulles in 1955. Her visit 
reaffirmed the United States commitment to working with the Lao people 
to promote sustainable economic development and redoubling our efforts 
to remove unexploded ordnance, also known as UXO.
    The cornerstone of our bilateral cooperation with Laos since 1985 
has been the close cooperation in accounting for U.S. servicemen and 
civilians still missing in Laos from the Vietnam war. I am committed to 
returning these patriots to their loved ones. I see this mission as a 
humanitarian one and welcome the Government of Laos' cooperation.
    Continued cooperation between Laos and the United States in UXO 
removal has helped to reduce the number of unexploded ordnance 
casualties in 2012 to 56, down from an annual average of 300. If 
confirmed, I will continue to advance our efforts to not only clear the 
unexploded ordnance, but also to educate the affected communities on 
the dangers of UXO and assist the victims.
    Earlier this year, Laos officially joined the World Trade 
Organization, which opened new avenues to integrate the country into 
the regional and global economies. The Department of State and USAID 
played an integral role in helping Laos reform its legal and regulatory 
infrastructure to be able to comply with WTO rules. A follow-on project 
will help them implement these reforms and move toward integration in 
the ASEAN Economic Community.
    We will also continue our longstanding work with Laos to counter 
illicit drug cultivation, trafficking and addiction. Our assistance 
helped contribute to a sharp drop in illicit opium poppy cultivation 
from 1998 to 2007, and we are currently working to build support for 
science-based drug addiction treatment in Laos. Along with 
international partners, we are assisting the Lao Government in 
implementing its Legal Sector Master Plan framework for justice sector 
reform.
    We have worked closely with Laos and other countries in the region 
to support improved decision making on plans to construct dams on the 
mainstream of the Mekong River. Managed poorly, dams can displace local 
inhabitants, irreparably alter the natural habitat, and threaten 
fragile aquatic life. The Mekong River underpins the livelihoods and 
food security for nearly 70 million people. If confirmed, I will 
encourage cooperation between U.S. and Lao experts on smart hydropower 
development to sustainably develop energy resources and reduce negative 
impacts to local populations, habitat, and wildlife.
    The United States and Laos have cooperated very closely on health-
related issues like the control of infectious diseases. If confirmed, I 
hope to devote more attention and resources to the issues of 
undernutrition and the high rates of infant, child, and maternal 
mortality. Malnutrition is the single largest cause of child mortality 
in Laos with 59 percent of all child deaths related to nutritional 
deficiencies.
    This problem will affect Laos' social and economic development in 
the future and urgently needs to be addressed.
    Despite the progress in our relationship, recent incidents have 
raised serious questions regarding the Lao Government's adherence to 
its international human rights obligations. The December 15, 2012, 
disappearance of Lao civil society leader, Sombath Somphone, from a 
police post in downtown Vientiane continues to have a chilling effect 
on civil society. The failure of Lao authorities to conduct a 
transparent investigation and account for Mr. Sombath's disappearance 
calls into question the government's commitment to uphold human rights 
and the rule of law. I am also concerned about the Lao Government's 
decision on May 27 to return nine young North Korean asylum seekers to 
North Korea. I hope this action does not signal a trend of sending 
future asylum seekers back to their home country against their will.
    The increasing openness of the economy, growing access to the 
Internet, and the recognition by the Lao Government of the importance 
of English language skills presents an opportunity to engage the Lao 
public through cultural and educational exchanges. With 70 percent of 
the Lao population under the age of 30, I intend to redouble mission 
efforts to build ties with students, young professionals, and young 
government officials.
    The U.S. mission in Laos is small but growing; with approximately 
36 direct hire Americans and 230 local staff. I am pleased to inform 
the committee that construction of the New Embassy Compound should be 
completed in September 2014. The new facility will provide a safe 
working environment for the dedicated and highly capable American and 
Lao staff members of the U.S. mission. I look forward to the mission 
moving to this new facility, and if confirmed, to advancing the goals 
of the American people. Of course, I would also welcome visits by you 
or members of your staff.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you today. I am pleased to answer any 
questions you may have.

    Senator Cardin. Well, thank you very much for your 
testimony.
    Mr. Yun.

              STATEMENT OF JOSEPH YUN, OF OREGON, 
                  TO BE AMBASSADOR TO MALAYSIA

    Mr. Yun. Mr. Chairman, Senator Rubio, and Senator Kaine, it 
is an honor for me to appear before you today as President 
Obama's nominee to be the next Ambassador to Malaysia.
    Mr. Chairman, with your permission, I would like to take 
this opportunity to introduce to you and the committee my wife 
of 35 years, Melanie, who has been with me in all our foreign 
and domestic assignments. Our son, Matthew, could not be here 
today because he is working in Oregon. He grew up as a Foreign 
Service brat, moving from country to country, school to school. 
Melanie and Matt really do exemplify our Foreign Service 
families. We ask a lot from them, and I cannot thank them 
enough.
    Mr. Chairman, this nomination is very meaningful to me. As 
a career member of the Foreign Service, I have devoted 27 years 
of service to promoting American interests abroad. My main 
motivations for joining the Foreign Service in 1985 were 
twofold.
    The first was the example of my father, who was a medical 
doctor devoting most of his professional life in Africa, 
working for the World Health Organization, establishing 
hospitals and clinics. He exemplified for me the concept of 
public service, and I wanted to follow in his footsteps.
    The second was the searing impression left on me by the 
1979-1980 Iran Embassy hostage crisis, especially the courage 
shown by men and women of our Embassy in Tehran. I wanted to 
belong to such a community that exemplifies honor and loyalty.
    If confirmed, I will have an opportunity to lead such a 
community, and I cannot think of a higher honor. The men and 
women who work in our missions overseas, whether they are 
Americans or locally engaged staff, whether they are from the 
State Department or from other USG agencies, are our greatest 
assets. If confirmed, I pledge to maintain high ethical and 
managerial standards. I will insist on the best possible 
security for our personnel, property, and national security 
information. I will also insist on full, clear, and transparent 
communications between the Embassy and Washington, including 
with you, members and staff of this committee.
    Mr. Chairman, over the past 4 years, I have worked as 
Deputy Assistant Secretary, Principal Deputy Assistant 
Secretary, and the last 6 months as Acting Assistant Secretary 
for the East Asian and Pacific Bureau. In that capacity, I have 
testified in front of your committee, as you mentioned, on 
several occasions, and I have discussed various aspects of the 
administration's Asia policy with you and committee staff on 
many occasions.
    Much of our discussions have focused on the 
administration's strategic commitment to rebalance our policy 
toward the Asia-Pacific. I want to take this opportunity to 
thank you and members of the committee and staff for your 
support and counsel, which I have greatly valued.
    The administration's policy in Malaysia is very much 
consistent, indeed, a part of our Asia rebalance policy. This 
policy is founded upon expanding trust and understanding, 
growing mutual prosperity, and ensuring peace and security in 
the broader region. Malaysia has become an important supporter 
of the U.S. rebalance to Asia-Pacific. If confirmed, I will 
work to make the United States-Malaysia relationship stronger 
still because I firmly believe that we have much to gain 
through expanded trade and investment, people-to-people 
exchanges, and deeper cooperation on issues such as climate 
change, energy security, counterterrorism, and 
nonproliferation.
    Mr. Chairman, on the political side, while we were very 
pleased--I think you did mention in your opening statement 
about the election--to see a very large turnout in a very hotly 
contested election earlier this year. However, we did note with 
concern allegations of voter fraud and arrest of opposition 
members.
    Mr. Chairman, advocacy for democratic freedoms is an 
essential pillar of what we do abroad. Throughout my 27-year 
career, I have worked toward this end, most recently as the 
point man for the State Department for reforms in Burma. If 
confirmed, I will strongly uphold this objective in Malaysia.
    Malaysia is an important partner for the United States, and 
if confirmed, I look forward to representing the United States 
as our Ambassador, leading our Embassy and enhancing our 
relationship with Malaysia.
    Thank you for the opportunity to speak to you today, and I 
welcome any questions you may have.
    [The prepared statement of Mr. Yun follows:]

                    Prepared Statement of Joseph Yun

    Chairman Cardin, Senator Rubio, and distinguished members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee to be the next Ambassador to Malaysia. I am deeply 
grateful to President Obama and to Secretary Kerry for placing their 
confidence in me with this nomination to serve the United States of 
America.
    With your permission, Mr. Chairman, I would like to take this 
opportunity to introduce to you and the committee my wife of 35 years, 
Melanie, who has stood by me in all our foreign and domestic 
assignments. Our son, Matthew, could not be here today, because he is 
gainfully employed in Oregon; he grew up as a ``foreign service brat,'' 
moving from country to country, school to school. Melanie and Matt 
exemplify our foreign service families--we ask a lot from them--and I 
cannot thank them enough.
    Mr. Chairman, this nomination is very meaningful for me because, as 
a career member of the Foreign Service, I have devoted 27 years of 
service to promoting American interests abroad, mostly in Asia. My main 
motivations for joining the Foreign Service in 1985 were two. First was 
the example of my father, who was a medical doctor, devoting most of 
his professional life in Africa, working for the World Health 
Organization, establishing hospitals and clinics; he exemplified public 
service, and I wanted to follow in his footsteps. Second was the 
searing impression made on me by the 1979-80 Iran Embassy hostage 
crisis, especially the courage shown by the men and women of our 
Embassy Tehran--I wanted to belong to such a community that exemplifies 
honor and loyalty.
    If confirmed, I will have an opportunity to lead such a community; 
I cannot think of a higher honor. The men and women who work in our 
missions overseas--whether they are American or locally engaged staff, 
whether they are from the State Department or other USG agencies--are 
our greatest assets. If confirmed, I pledge to maintain high ethical 
and managerial standards. I will insist on the best possible security 
for our personnel, property, and national security information. I will 
also insist on full, clear, and transparent communications between the 
Embassy and Washington, including with you, members and staff of this 
committee.
    Mr. Chairman, over the past 4 years, I have worked as Deputy 
Assistant Secretary and Principal Deputy Assistant Secretary--and last 
6 months as Acting Assistant Secretary--for the East Asia and Pacific 
Bureau. In that capacity, I have testified in front of your committee 
on several occasions and I have discussed various aspects of the 
administration's Asia policy with you and committee staff on many 
occasions.
    Much of our discussions have focused on the administration's 
strategic commitment to rebalance our policy toward the Asia-Pacific. I 
want to take this opportunity to thank you and members of committee and 
staff for your support and counsel, which I have greatly valued.
    The administration's policy in Malaysia is very much consistent, 
indeed an integral part, of our Asia rebalance policy. This policy is 
founded upon expanding trust and understanding, growing mutual 
prosperity, and ensuring peace and security in the broader region. I 
know Malaysia has become an important supporter of the U.S. rebalance 
to Asia-Pacific; if confirmed, I will work to make the U.S.-Malaysia 
relationship stronger still, because I firmly believe that we have much 
to gain through expanded trade and investment, people-to-people 
exchanges, and deeper cooperation in issues such as climate change, 
energy security, counterterrorism, and nonproliferation.
    The United States has extensive bilateral and multilateral 
cooperative agenda with Malaysia. We are working together to increase 
the security of our populations and the safety of our borders. Our law 
enforcement cooperation has increased in recent years, as we have 
jointly fought terrorism, proliferation, trafficking in persons and 
narcotics, and other serious crimes. We are continuing to improve an 
already strong military relationship through exercises, security 
dialogues, ship visits, military education, and joint training.
    Malaysia is also an important commercial and economic partner for 
us. Our bilateral trade totals over $39 billion. This year we look 
forward to concluding our first free trade agreement with Malaysia, 
through the Trans-Pacific Partnership (TPP). We are engaging all our 
TPP partners, including Malaysia, to secure commitments to achieve a 
high-standard agreement that expands market access and establishes 
common rules for a level playing field. We also are thrilled with 
Malaysia's hosting of the fourth Global Entrepreneurship summit in 
October. This important presidential initiative will energize, empower, 
and connect entrepreneurs from around the region and around the world.
    Our growing people-to-people connections reflect the overall growth 
of the bilateral relationship. Most significantly, the Fulbright 
English Teaching Assistant program--our third-largest program of its 
kind--Malaysia currently hosts 75 English Teaching Assistants who are 
placed in Malaysian communities, and that number is set to increase to 
100 next year.
    Travel to the United States by the Malaysian people is also on the 
upswing. Since fiscal year 2010, there has been a 23-percent increase 
in the number of Malaysians applying for visas (tourist, student, and 
work) to visit the United States temporarily, and this increase cuts 
across all major ethnic groups in the country.
    On the political side, while we were extremely pleased to see large 
voter turnout in a hotly contested election earlier this year, we noted 
with concern allegations of voter fraud and arrest of opposition 
members.
    Advocacy for democratic freedoms is a central pillar of what we do 
abroad. Throughout my 27-year career I have worked toward this end; 
most recently as the point man in the Department for reforms in Burma. 
If confirmed, I will strongly uphold this objective in Malaysia.
    Another area in which we can work together with Malaysia is on 
human trafficking. Malaysia just entered its 4th consecutive year on 
the Tier Two Watch List for human trafficking. If confirmed, I will 
prioritize working with the Malaysian Government and civil society to 
help improve its trafficking victim protection regime.
    Malaysia is an important partner for the United States. If 
confirmed, I look forward to representing the United States as our 
Ambassador, leading our Embassy, and enhancing our relationship with 
Malaysia.
    Thank you for the opportunity to speak with you today, and I 
welcome any questions you may have.

    Senator Cardin. Well, thank you, Mr. Yun. I appreciate your 
testimony and your service.
    When you and I first met, we talked about good governance. 
We talked about human rights issues, and we talked about the 
challenges we have in the Pacific because we have countries 
that are some of the greatest democracies in the world and we 
have some of the most repressive governments in the world.
    My question is going to be to all three of you on how we 
are going to advance good governance and human rights, and I 
particularly want to acknowledge that Senator Rubio, the 
ranking Republican on the subcommittee, and I have worked 
together on this agenda in this Congress, that we are going to 
put a spotlight on human rights issues. Our first hearing was 
on good governance and human rights. In my visit to the region, 
it was one of the primary focuses that I did in all three 
countries that I visited.
    The Foreign Minister of Australia, Foreign Minister Carr, 
stated in a March 2013 statement that he wants to work with the 
United States on promoting human rights and development of 
democracy and good governance through the Asia-Pacific region.
    So let me start with Mr. Berry, if I might. Australia 
shares our values, one of the great democracies in the world. 
How can the United States and Australia work together to 
promote good governance in a region where there are many 
countries that are very challenged in that direction?
    Mr. Berry. Mr. Chairman, I think it is an incredibly 
important pillar in our relationship and one that Australia has 
stepped forward in a significant way. Most recently, they 
increased their willingness to accept political refugees to a 
number, almost doubling their commitment, which makes them 
second only to the United States in their willingness to step 
forward to help people who are seeking political asylum, 
according to the U.N. convention standards.
    The Australians are also heavily involved with us on so 
many issues of human rights. Human trafficking, as we know, is 
a major issue throughout the Asia-Pacific, and Australia is 
working closely with our professionals at the Department of 
State and our law enforcement folks throughout the region to, 
hopefully, beat back an issue that we know has a human toll 
that is reprehensible. It is modern day slavery, and that is 
something that we all must commit to ending. And we have a 
great partner in Australia in that regard.
    Otherwise, we are involved in almost every front through 
the United Nations, Mr. Chairman. You know, Australia will take 
over the seat on the Security Council this coming fall, and in 
that capacity, they have advanced this as one of the most 
significant issues of their concern and their leadership in 
that body. And so we will look forward to working 
diplomatically on all of these issues, which I know that you 
and the ranking member and Senator Kaine care so deeply and 
passionately about. Thank you for your leadership.
    Senator Cardin. Mr. Clune, Mr. Berry mentioned trafficking. 
In Laos, the reports are not favorable at all as to the current 
situation on human trafficking in Laos. The freedom of 
expression is very much not respected in the country. How will 
you, if confirmed as the Ambassador, help advance our goals for 
good governance and respect for rights in Laos?
    Mr. Clune. Thank you, Senator.
    Human rights is one area where we do have differences with 
the Government of Laos. If confirmed, I would work in three 
areas. One, as I mentioned, is to speak very forthrightly about 
incidents which involve violations of human rights, and I 
mentioned the arrest of the NGO leader Sombath Somphone and the 
return of the nine very young asylum seekers to North Korea.
    But I also think it is important to help build 
institutions, and we do have some small programs to help Laos 
institute reforms in its legal and regulatory systems. One is a 
USAID-funded project designed to help them implement their WTO 
obligations, and our International Narcotics and Law 
Enforcement Bureau has a program to strengthen the judicial 
sector and provide training to judges and police. I think the 
more we can strengthen those institutions, the better chance 
there will be for the government to respect human rights.
    And third--and I think in a way this may be the most 
important of all, and that is to really work on people-to-
people ties because the one thing I think we can offer to the 
Lao people is our experience as a free and democratic society, 
and as we reach out to especially the younger members of the 
Lao population, I think we can persuade them that respect for 
human rights is really essential to their prosperity and 
security in the future.
    Senator Cardin. Thank you.
    Mr. Yun, Malaysia is a democratic state, and yet the way 
that it deals with its political opposition, the way that it 
tightens on freedom of expression is a major concern. How do 
you balance that, if confirmed as the Ambassador, to continue 
to promote democracy but point out our concerns about--I think 
universal concerns about the freedom of expression?
    Mr. Yun. Mr. Chairman, of course, those are difficult 
issues.
    I think one tool we should use more is multilateral forums 
and multilateral diplomacy. We have a great example, for 
example, in OSCE. You, yourself, are chairman of the U.S. 
Helsinki Commission and some of the countries in Asia have 
recently become dialogue partners in OSCE.
    Another tool is, of course, the ASEAN, and there is a human 
rights dialogue that goes on there.
    And so my experience especially dealing with tough 
domestic, political, freedom issues is also to do more 
multilaterally, whether it is in the ASEAN setting and others.
    But in the end, Mr. Chairman, I do believe we do have to 
speak our mind. We do have to speak very clearly not just to 
the government but to others. And in that sense, also the 
growth of civil society throughout the region is an important 
tool. And I do believe that in many of these debates, there is 
beginning to be more--the gap is now narrowing. We have 
witnessed that, you know, for example, in Indonesia over the 
last 10 years and certainly in Burma over the last few years. 
And so I think there is generally a good trend and generally 
emerging consensus.
    Thank you.
    Senator Cardin. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you all for your service to our 
country and for being willing to step up and be nominated to 
these posts.
    Let me begin with you, Mr. Clune, and Laos, and I have a 
couple of questions. Let me just go right to the issue of the 
nine North Korean defectors. My understanding is that these 
were orphans between the ages of 15 and 23, were traveling 
through Laos to reach South Korea. They were detained by 
authorities and they were forcibly repatriated to North Korea. 
We do not know their fate. Previously, of course, Laos had been 
a safe haven for defectors and had assisted many in finding 
safety to South Korea. Is this a policy change on behalf of the 
government? Are we seeing a change on the ground there? What is 
behind that? And by the way, what did we do or what do we know 
about that case moving forward?
    Mr. Clune. Senator, I fully share your concerns about that 
incident. Following the detention of the nine young orphans, we 
and the South Koreans and various members of the European Union 
made repeated representations to the Lao Government about that 
case and insisted that they fulfill their international 
obligations and not return these asylum seekers to a place 
where they obviously would be in danger.
    Following that incident and following our representations, 
there was another group of asylum seekers, 20 individuals from 
North Korea, who were allowed to travel on to South Korea. So 
we hope this signals a return to their previous policy, but in 
any case, we will very closely monitor that situation, along 
with our friends in South Korea and Europe, and consult with 
this committee about the situation going forward.
    Senator Rubio. Let me pivot to another concern which I have 
as well about Malaysia. And it is about the increasing 
encroachment on religious liberties, which I think is an 
essential human right.
    In Laos--and maybe you could comment on this, but the 
government continues to impose legal restrictions on the 
freedom to fully worship. For example, we have seen multiple 
news reports that it is common practice for local village 
leaders to expel and harass Christians with little fear of 
repercussion from the government for that.
    What is the state of that and what are our efforts to speak 
out loudly about how that is unacceptable behavior?
    Mr. Yun. We do, as you know, have an annual freedom of 
religion report, and that report really does take a 
considerable amount of resources and we do it fairly actively. 
And I would say religious freedom in Malaysia, as it is in the 
region, is becoming much more serious, especially the 
polarization between the Muslim and Christian community, and 
Christians are, of course, in the distinct minority.
    Senator Rubio, like many issues, I do believe that this is 
a factor of what is happening, for example, in the Middle East 
and elsewhere. And Secretary Kerry was out there in Brunei 
about a month ago. I accompanied Secretary Kerry. On that 
occasion, he did talk a lot about what he is doing in terms of 
Middle East peace. And really what the leaders of this region 
want to see is less polarization, and we need to help them.
    Senator Rubio. And Malaysia is important. It is a 
democratic country. And I am going to have some specific 
examples here in a second.
    But just in general on the issue of Laos, what is the 
situation there? This is still one of the world's remaining 
Communist countries. So it is not surprising. But how would you 
describe--I guess we all agree that religious liberty is not 
really existent for Christians in particular in Laos. And is 
that going to be part of our relationship with them to be a 
voice on behalf of those who are being persecuted in these 
official and unofficial ways?
    Mr. Clune. Definitely, Senator Rubio. Laos, of course, is a 
one-party authoritarian state, and as I mentioned, we do have 
very significant differences with them on human rights issues.
    On the question of religious freedom, I think looking back 
over many years, there has been some progress in Laos, and 
there is a law that has been passed which is intended to 
guarantee religious freedom. There is a section of the central 
government that is charged with that, but the enforcement on 
the ground is uneven at best. And I think the religious freedom 
report mentioned that there are cases where the provincial and 
local leaders are not following the law that has been passed by 
the central government. And if confirmed, I will closely 
monitor that situation and certainly bring the government's 
attention to those kind of cases.
    Senator Rubio. Our hope is, if you are confirmed, you will 
not just monitor and bring attention but that you will be a 
forceful advocate on behalf of those who are being oppressed. I 
think it is important for the United States that our 
representative there be someone who speaks clearly on these 
issues.
    Malaysia is a different challenge. I want to briefly 
describe, in the time that I have left, kind of the situation 
there on the ground. The ruling party--and if I mispronounce 
this--Barisan Nasional--they ran a campaign where they put up a 
bunch of billboards carrying pictures of churches during the 
election campaign which asked the people in the Malay language, 
do we want to see our children and grandchildren pray in this 
Allah's house? If we allow the use of the word ``Allah'' in 
churches, we will sell our religion, race, and nation. Vote 
Barisan Nasional because they can protect your religion, race, 
and nation.
    As a followup to that, one of the first efforts from the 
ruling government was to try to pass a law which, I understand, 
has been withdrawn at this time. But what the law basically 
said was that if just one of the two parents consent that a 
child could be forced to convert to Islam. And this is a 
country--correct me if I am wrong--where being a Muslim grants 
you special rights and privileges under the law that other 
religious minority--or other religious groups do not have. Of 
course, this is very concerning because there have been cases, 
particularly of men, fathers, who will try to force their 
children to convert in an effort to access these benefits. So 
we are concerned about that.
    And then just a couple of days ago, we get this report from 
the AFP that basically says that several Islamic groups on 
Friday are demanding the recall of the Vatican's first envoy to 
Malaysia describing him as an enemy of the state after he 
supported the use of the word ``Allah'' by non-Muslims. Dozens 
of protesters gathered outside the Vatican's mission in Kuala 
Lumpur after prayers on Friday urging the government to expel 
Archbishop Joseph Marino.
    He, by the way, has apologized for using those terms. I am 
not sure why, but it was not enough for some Muslim 
organizations. They consider him an enemy of the state. His 
actions have strained race relations in this country.
    What is the state of this with regard to the government, 
and what are your plans, if confirmed, to be a forceful voice 
on behalf of religious liberty in a so-called democracy?
    Mr. Yun. Thank you, Senator Rubio.
    I do believe that we have to partner with the Government of 
Malaysia. They are the moderating voice. In fact, the Prime 
Minister of Malaysia has started a movement called Global 
Movement of Moderates, GMM, and it is very important we support 
these elements in society who are forwarding moderation. If 
confirmed, we will work effectively with these partners so that 
voice of moderation and there is less polarization. And I think 
that ought to be the message of the United States.
    Senator Rubio. I just have one final question. I am sorry. 
I am over my allotted time.
    But if you are confirmed and cases like this arise and we 
bring them to your attention, will you be a forceful voice on 
behalf of those, particularly religious minorities, in Malaysia 
who are being persecuted on an ongoing basis?
    Mr. Yun. Absolutely, sir.
    Senator Rubio. Thank you.
    Senator Cardin. Let me just add my total support for 
Senator Rubio's questioning. The two of us have talked about 
religious rights in the East Asia and Pacific. I was very 
disappointed and surprised in my visit to China to see how 
widespread religious persecution has gone. The Subcommittee on 
the East Asia and Pacific is going to put a spotlight on this. 
Senator Rubio and I have talked about it. So we expect that in 
Malaysia and Laos, among other countries, that we get regular 
updates on the progress being made and that our Embassy is 
promoting the universal values of religious protections 
particularly for minorities.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And to the nominees, congratulations. I do not particularly 
have questions, but I wanted to come this morning just to thank 
you and all who are here to support you for your service to the 
country. I recently returned from a CODEL to the Middle East 
and Afghanistan that was led by Senator Cornyn and had an 
opportunity to meet with some of the best of the best American 
Foreign Service professionals in Turkey, Jordan, the UAE, and 
Afghanistan. And I just was struck, as I am always struck 
because there are so many Foreign Service professionals that 
live in Virginia, but I am just struck by the professionalism, 
the challenge, and also the incredible sacrifice of family 
members. And I am so glad your life partners, spouses, 
children, nieces and nephews, and friends are here today. It is 
a huge sacrifice. I think we often think more about the 
sacrifice made by those in military service for a reason, and 
yet the careers you have had, while they have had some 
wonderful opportunities, I am sure that moving to so many 
places is not easy on families. I have been in public life for 
20 years, and I have lived at two locations, one public 
housing, the Governor's mansion. But they were 3 miles apart 
from one another. That is the only move I have had to do in 20 
years in public life. And yet, the kinds of things you had to 
do in the Foreign Service as families is significant.
    Now, Mr. Berry, this will be your maiden venture in the 
Foreign Service but not into Government service. You sacrificed 
along the way. And I want to add to what Congressman Hoyer 
said. The Federal workforce has not had a better champion than 
you, and the Federal workforce, whether it is the State 
Department, USAID, or EPA, or any other agency, needs some 
champions. And you have been a great champion. Senator Cardin 
has been a great champion. We have got a lot of Federal 
employees that live in Maryland and Virginia, and I think it 
has become common to try to knock the Federal workforce around 
and use them as a punching bag or a scapegoat. But I am just 
impressed again and again by the dedication of folks, not that 
we do not have problems, not that we do not have agencies that 
do things wrong. We are a Government by, of, and for the 
people, and people are imperfect. So that means Government is 
imperfect. But again and again, we have got wonderful people 
just like you who are doing jobs known in public or unknown and 
unrecognized all over this country. And I just want to thank 
you all for being such good examples, being such good examples 
of what our Federal employees can do. And I have no doubt that 
in each of your different responsibilities, you will represent 
us well.
    The other thing I just wanted to mention to Mr. Berry is 
apropos of your comments on this CODEL in the Middle East and 
Afghanistan. We finished with a stop at Landstuhl Regional 
Medical Center in Germany where the wounded warriors from 
Afghanistan go as soon as they are able to be medevaced out of 
Afghanistan. And I met a very chipper, under 30-year-old 
Australian who was recovering at the hospital with his wife. 
And when I inquired about him, in a very comical way he just 
said, you know, I just should not have accepted that fifth 
deployment, putting a smile and a joke on a very serious 
reality. But the points you made about Australians being with 
us anytime we needed to act and protect not only our own 
interests, but important global interests, Australians have 
been right there with us. That is an important thing that was 
made very plain to me recently.
    So thanks to all of you and my congratulations.
    Senator Cardin. I mentioned in my opening statement the 
challenges we have on environment. So I am not going to ask 
specific questions although in Laos, the Lower Mekong 
Initiative is an incredible opportunity to make advancements on 
the economic front. We have the TPP and two of the countries 
here are very much involved in that.
    I do want to ask one question, Mr. Yun, in regards to the 
military aspects. The President has indicated that he is 
looking for closer defense cooperation with countries in the 
Asia-Pacific region such as Malaysia. How do you see that 
developing and what role can you play to advance our mutual 
defense interests?
    Mr. Yun. Thank you, Mr. Chairman.
    We do have actually very strong military and security ties 
with Malaysians at the moment. We have had a number of ship 
visits, mostly those from our Pacific Command, and we do some 
joint exercise together, search and rescue mission exercise 
together.
    Mr. Chairman, as we look at rebalance to Asia or pivot to 
Asia, the military element is a big part of that, you know, 
diplomatic, of course, economic, of course, so is the military 
if we are to protect freedom of navigation, maritime 
boundaries, and especially our lawful exploitation of resources 
there. We also need military presence, and in that sense, I do 
believe Malaysia will be a good partner, as is their neighbor 
just south there, Singapore, and is the Philippines, for 
example. So we will increasingly rely, work together, as we 
have done for the past several decades. Despite ups and downs 
in the diplomatic relationship, I am happy to say the military-
to-military relationship has been quite steady.
    Senator Cardin. Well, thank you.
    Mr. Clune, you mentioned in your opening statement--I 
mentioned in my statement--the legacies from the Vietnam war. 
We strongly support your statement about accountability of 
those missing in action and that we get full accounts of all of 
our service men. Both you and I mentioned the concerns on the 
unexploded ordnances that are still there.
    I just want you to know that in this committee you have an 
ally. As you look and assess the circumstances, please keep us 
informed as to the way that the United States can strengthen 
its partnership to accomplish both of those objectives on the 
legacy from the Vietnam war. Sometimes the politics of 
appropriations, et cetera, can become challenging. So please 
feel comfortable to keep us informed as to how progress is 
being made on both of those fronts and the tools that you need 
in order to achieve we hope a more rapid resolution of these 
issues.
    Mr. Clune. Thank you, Senator. I really appreciate that 
offer of assistance and I promise I will take you up on that 
and get back to after I have got a better understanding of 
these issues, if I am confirmed and go to Laos.
    Senator Cardin. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    And before I pivot to Australia, I wanted to close the loop 
again on Laos and Malaysia. Here is one more example, another 
article about a young woman who has had a 3.8 GPA and her 
foundation here at the University of--her application to pursue 
a medical course was rejected. According to her father, his 
daughter's application was rejected because her name sounded 
foreign and Christian. So just one more example again of a news 
report of that sort of oppression.
    I raise these points because I think sometimes in the past 
being on the right side and issuing a communique or statement 
is not enough. In many of these countries where religious 
minorities are being persecuted, the U.S. mission is perhaps 
the only entity on the ground that could be their voice and 
speak for them. And so my hope, moving forward, is that--and I 
have full confidence that you will do that based on your 
testimony today--that both in Laos and Malaysia, as the 
situation there continues to unfold, not only will we be 
communicating with government leaders about the importance of 
religious liberties and the respect for religious minorities, 
how important that is to our bilateral relationships, but also 
to be a forceful voice condemning instances in which that is 
violated and condemning instances in which that is being 
ignored and, in particular, these atrocities and terrible cases 
like the ones we outlined a little earlier and are existing in 
other parts of the world. So my hope is that, in fact, that our 
missions will not just be on the right side but will be 
forcefully speaking out on the right side of these issues.
    Now, to a relationship that has probably been a little bit 
easier to manage in that regard is Australia. I do have a 
couple questions.
    One, Mr. Berry, can you describe for us briefly how your 
experience as a Federal administrator you believe has prepared 
you now to assume a diplomatic post and in particular 
furthering the bilateral relationships we have with Australia?
    Mr. Berry. Thank you, Senator. Let me also personally thank 
you for your leadership and your forceful voice for religious 
liberty. As a grateful American, thank you.
    I have been honored to serve in many capacities in the 
Government, and one thing I can tell you is that, as Senator 
Kaine mentioned, the men and women of the State Department are 
amongst the best and brightest I have encountered. I think when 
one is proposed to be considered for one of these important 
posts, it is important that one be a good leader. And the first 
test of leadership is appreciating the talents of your team, 
and I know I am going to have a very strong team to rely upon, 
if I am confirmed into this position.
    But also in previous appointments, I have had the privilege 
to be involved in international activities, especially focused 
around conservation. When I headed the National Fish and 
Wildlife Foundation, I got to be involved in tiger conservation 
throughout Asia and as director of the National Zoo was 
directly involved with the Chinese in conserving giant panda 
habitat in China. We had a significant success story there to 
tell.
    And then finally, when I was Assistant Secretary at the 
Department of the Interior, one of the responsibilities at the 
time--there was not an Assistant Secretary for the Pacific 
territories and the trust territories of the United States. 
That was part of my portfolio in that responsibility.
    And so I have been involved in the Pacific throughout my 
career and in Asia in many of these topics. And if I am 
confirmed, it would be my high honor to work my heart out to 
continue.
    Senator Rubio. Thank you. And just as an irony, from time 
to time, folks back home describe the capital as the National 
Zoo. [Laughter.]
    So I think you are at home here. [Laughter.]
    I do have a question, and you may have addressed it in your 
opening statement. I apologize for being a few minutes late. 
What information do you have for us on the progress on the 
Trans-Pacific Partnership negotiations? I know that the 
administration had hoped to finalize the agreement by October 
2013. What is the status of that? What can you tell us today 
about whether we are going to meet that deadline or that date 
that we had hoped to?
    Mr. Berry. Senator Rubio, I know the President has placed 
high importance on successful conclusion of this treaty this 
year, and I know in briefings at the U.S. Trade Representative 
that they are pulling out all stops. Australia is actually 
working closely with us to help us secure the passage of this 
treaty. As you know, we already enjoy a free trade agreement 
with Australia, but if we can expand the boundaries of free 
trade throughout the Asia-Pacific region, it opens up 40 
percent of the world's gross domestic product for U.S. trade 
and exports, which will be a huge opportunity both for us and 
for Australia.
    So I can promise you, if confirmed, it will be one of my 
highest priorities to work with the committee, with the Trade 
Representative, and the President to see if we can meet the 
deadline of securing the passage of that treaty and presenting 
that to the Senate this year.
    Senator Rubio. And my final question is--I view Australia--
you probably do as well. I am sure the chairman does--as a 
critical component of the U.S.'s enduring presence in the 
Pacific region as a Pacific power. I would not call it a 
concern, but an observation that I have is that China continues 
to be Australia's biggest trade partner mainly due to its 
strong demand for Australia's minerals and energy resources. 
And just recently there was a report of a shale oil deposit 
above 223 billion barrels that an energy company in Australia 
discovered. This essentially puts Australia ahead of places 
like Iraq, Iran, Venezuela, Canada in terms of energy reserves.
    So with this new availability of energy in Australia and 
that existing mineral relationship between China and Australia, 
how will that impact that relationship moving forward? And in 
particular, I am curious with regards to how that impacts our 
ongoing defense posture with the Australians that have been 
welcoming. I think there is a Marine presence now in Australia 
with joint exercises. The Chinese, obviously, sometimes view 
that both publicly and privately as an effort to contain them.
    And so, in essence, can you foresee a situation where this 
increased reliance on exports to China, combined with this 
increased energy supply that is now available to them, could 
potentially strengthen those economic bonds, which may or may 
not be a bad thing, but could undermine our efforts to work in 
a military cooperation with the Australians? How do we balance 
that? Are we concerned about balancing that? What are your 
thoughts?
    Mr. Berry. Senator, thank you. First and foremost, there is 
nothing more important than our strategic alliance with 
Australia, and that will be and remain one of my highest 
priorities if I am confirmed into this position.
    The Australians have worked closely with us, with the 
Marines in Darwin, and not only with the rotation of those 
Marines that are there, but right now there is an operation 
going on that involves tens of thousands of both Australian and 
U.S. forces called Talisman Saber that is looking at crisis 
response throughout the Asia-Pacific.
    And our partnership with Australia is critical in terms of 
the breadth of that response. We together share the concern of 
maintaining open and free commerce and free trade on the seas. 
We both share a concern for proliferation in the region and 
work together tirelessly to combat that. We both need to be 
ready to respond to human and natural disasters, and we need to 
look at conflict in the region, for example, in North Korea. 
And Australia is a great partner with us there.
    Turning to the trade portion of your question, sir, the 
United States is a major--we are the largest investment partner 
for Australia, and our investment in Australia exceeds that of 
our investment in China from the United States. Our economic 
relationship has increased 98 percent since we began our free 
trade agreement, last year topping $65 billion. Much of that 
energy development that you are talking about is joint with 
U.S. companies. Chevron is very involved, along with other 
United States oil and gas companies. And I suspect with this 
new discovery that you referenced this week, the United States 
will be very competitive in terms of helping Australia develop 
those resources for the world.
    Finally in closing, I would say the Australian LNG gas 
development that has been historic in terms of the speed with 
which they have been able to bring on line is one of the ways 
that, as you know, the United States--we have helped to reduce 
our carbon footprint in the world with our own LNG gas 
development. Australia contributing to that is going to help us 
and help the world in terms of those overall carbon targets in 
reducing the impact of that carbon footprint.
    Obviously, China is going to remain an active trading 
partner with Australia. That is one of the opportunities that 
we can use to help China continue its forward momentum but do 
so in a peaceful basis.
    So, Senator, thank you, and if I am confirmed, I promise 
you I will stay in close touch with you and members of the 
committee on these issues as we move forward.
    Senator Cardin. Well, let me thank all three of our 
nominees for their presence here and again their willingness to 
serve.
    I just want to underscore one of the security issues that 
you have mentioned. That is maritime security. We talked about 
that before the hearing started. The maritime security issues 
are of a great concern to us because the maintaining of free 
shipping lanes is critically important, the resources that are 
in that region under water which are currently being looked at 
for development and the territorial integrity. The United 
States has a very strong position that these issues must be 
resolved peacefully with direct negotiations among the parties. 
And we will expect again that you will keep us informed as to 
issues that may be developing in regards to maritime security 
matters.
    If there is no further questioning, we will bring the 
hearing to a conclusion and thank you all again for your 
cooperation.
    [Whereupon, at 10:08 a.m., the hearing was adjourned.]
                              ----------                              


 Additional Material and Questions and Answers Submitted for the Record


 Names of 40 Australian Servicemen Who Died in Afghanistan as Part of 
              Coalition Activities Submitted By John Berry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 

  Prepared Statement of Senator Barbara A. Mikulski in Support of the 
        Nomination of John Berry as U.S. Ambassador to Australia

    Mr. President, I want to take this opportunity to congratulate Mr. 
John Berry on his nomination to be the next U.S. Ambassador to 
Australia. Hailing from Maryland and a proud alumnus of the University 
of Maryland, I am pleased that John has been nominated for this new and 
important challenge.
    John began his career in public service as an intern with the 
Montgomery County, MD, government and later served as a legislative 
aide in the Maryland General Assembly. We were lucky to have him as a 
member of ``Team Maryland'' here on Capitol Hill when he joined the 
staff of Congressman Steny Hoyer as Legislative Director.
    In 2009, we came together to confirm John as Director of the Office 
of Personnel Management. At OPM, he worked to reform and streamline 
federal hiring practices, boost veteran hiring in the Federal 
Government, and eliminate security clearance backlogs. I am confident 
we can come together to support his nomination once more.
    John's career has included leadership roles at the Department of 
Interior, where he served as both CFO and COO. During this time, John 
demonstrated his commitment to serving those that he worked with. He 
focused on improving educational opportunities and employees' work-life 
balance in addition to holding townhall meetings with employees to 
improve working conditions. While serving at the Department of the 
Treasury, he oversaw essential security personnel that keep our Nation 
safe.
    John has also been honored to serve in his dream job as Director of 
the National Zoo. I was impressed to find out that he even has a lion 
cub there named in his honor!
    Australia has long been a close friend and ally of the United 
States. The genuine affinity and affection between our people is 
enhanced by our strategic interests. While I am sorry to see Ambassador 
Jeffrey Bleich leave his post after four productive years, I am pleased 
to know that John will take on the role with the same devotion. I know 
that he will excel in this new role. I call on my colleagues to join me 
in supporting his nomination as U.S. Ambassador to Australia.
                                 ______
                                 

  Responses of Joseph Yun to Questions Submitted by Senator Bob Corker

    Question. What role does Malaysia play in the administration's 
rebalancing strategy? Specifically, are there areas in which the United 
States and Malaysia could potentially enhance security cooperation?

    Answer. Malaysia has welcomed the renewed U.S. focus on the Asia-
Pacific and is an important partner for the United States. Over the 
last few years, there has been a significant increase in political 
dialogue, including bilateral meetings between the two leaders, 
Cabinet-level visits, and engagement by Members of Congress with senior 
Malaysian officials, all of which play an important part in raising the 
level of our bilateral relationship. The United States has a 
longstanding military relationship with Malaysia, but our political, 
economic, and people-to-people ties are growing as well. Malaysia is 
also a founding member of ASEAN. It will have the ASEAN chair in 2015.
    The United States has a strong military partnership with Malaysia. 
In October we had our first aircraft carrier visit to East Malaysia in 
Kota Kinabalu, and we recently completed a Cooperation Afloat Readiness 
and Training (CARAT) exercise. Malaysia has participated in CARAT since 
1996. Malaysia also benefits from our international military education 
and training (IMET) programs, which have been hugely successful and 
well received. The U.S. Army has also reinvigorated partnerships with 
the Malaysian Army, with joint training and exercises. Defense 
procurement is another area where we are working to expand cooperation. 
The Embassy is prioritizing the U.S. exports and jobs created by these 
important sales, which I would focus on if confirmed. I will work 
closely with the Government of Malaysia to continue to foster 
confidence and trust between our Armed Forces.

    Question. Malaysia is a significant U.S. trading partner and site 
of U.S. investment. How will the United States and Malaysia 
specifically benefit from the successful conclusion of TPP 
negotiations?

    Answer. The United States is Malaysia's fourth-largest trading 
partner, a change from when the United States was the top partner 10 
years ago. U.S. goods exports to Malaysia fell to $12.8 billion in 
2012, from $14.2 billion in 2011. U.S. goods imports from Malaysia 
increased slightly to $25.9 billion in 2012 from $25.7 billion in 2011. 
The Trans-Pacific Partnership (TPP) will provide significantly expanded 
market access for goods and services between the United States and 
Malaysia. With its high-standard rules and disciplines, the TPP will 
reduce barriers and help promote increased trade and investment between 
our two countries and with their other 10 TPP partners. The current 
negotiating round in Kota Kinabalu, Malaysia, is progressing well, and 
we expect to be closer to completion of the TPP once the round is 
finished on July 25. The United States has not previously concluded a 
free trade agreement with Malaysia.
    If confirmed, I will work closely with Malaysian officials to 
promote the successful completion of TPP as well as to ensure its full 
implementation.
                                 ______
                                 

  Responses of John Berry to Questions Submitted by Senator Bob Corker

    Question. The United States and Australia enjoy a close alliance 
partnership. And as part of the administration's rebalancing strategy 
the United States has sought to strengthen the alliance, particularly 
our robust security cooperation. What areas of security cooperation are 
ripe for further engagement between Washington and Canberra?

    Answer. Over the past six decades, the U.S.-Australia treaty 
alliance has served as an anchor of stability, security, and prosperity 
in the world. Australia has stood beside us in every major 
international conflict in the last century. Our bilateral defense 
cooperation reached new heights with the force posture initiatives 
announced by President Obama and then-Prime Minister Gillard in 2011, 
and the recent entry into force of our Defense Trade Cooperation Treaty 
with Australia, which will help enhance the interoperability of our 
Armed Forces. In January, the United States warmly welcomed Australia 
to its 2-year term on the U.N. Security Council, where it has focused 
heavily on counterterrorism and nonproliferation. Its presence on the 
UNSC has provided even greater opportunities for coordination on Iran, 
Syria, the DPRK, and other critical issues.
    If confirmed, I will work diligently to further deepen our 
bilateral security relationship to ensure we are prepared to meet the 
challenges of tomorrow. Our governments both recognize the value of 
close collaboration with allies and like-minded nations on cyber 
issues, and are working together closely to address mutual threats 
emerging in and from cyberspace. Space is also vital to protecting the 
economic prosperity and national security interests of the United 
States, its allies, and partners, and we should expand our partnership 
with Australia on space situational awareness and jointly pursue 
transparency and confidence building measures to strengthen stability 
in space.
    As one of the largest non-NATO troop contributors to ISAF and a 
major contributor of development and security assistance, Australia has 
been a steadfast partner in Afghanistan. If confirmed, I will work to 
ensure continued coordination with Australia in support of the Afghan 
people, so that Afghanistan will never again become a safe haven for 
terrorists.
    Most importantly, if confirmed I will work with colleagues from the 
U.S. Department of Defense and our Australian partners to fully 
implement our force posture initiatives. The rotational presence of 
U.S. Marines in Darwin affords an unprecedented combined training 
opportunity with our Australian allies in world-class training areas. 
The proximity of Australia's Northern Territory to Southeast Asia and 
South Asia will enable our Marines to more effectively exercise and 
operate with Australia and other partners across the region and to 
respond more rapidly to a range of contingencies, deliver humanitarian 
assistance, and provide disaster relief. With our second rotation of 
250 Marines to Darwin currently underway, our initiatives are off to a 
very strong start, however more work remains. If confirmed, I will do 
my best to ensure full implementation of our remaining initiatives as 
quickly as possible.

    Question. Australia plays a key role in Southeast Asia and the 
Pacific. If confirmed, will you commit to pursue opportunities to 
enhance cooperative engagement with Australia in Southeast Asia and the 
Pacific, particularly in the areas of democracy promotion, good 
governance and rule of law?

    Answer. If confirmed, I will pursue opportunities to enhance 
cooperative engagement with Australia in Southeast Asia and the 
Pacific, including on democracy promotion, good governance, and the 
rule of law.
    Standing up for human dignity abroad is directly linked to the 
national interests of the United States. Democracy and respect for 
human rights are increasingly part of the fabric of the Asia-Pacific, 
but many challenges remain. As part of our rebalance, the United States 
must continue to promote universal values, including transparency, rule 
of law, human rights, and good governance. We do this not only because 
it is the right thing to do, but also because now more than ever human 
rights and governance failings in countries around the world have 
consequences for U.S. interests--from economic and monetary policy, to 
climate change and national security. Across the Asia-Pacific region, 
the United States seeks sustained adherence to democratic practices and 
improved governance, as well as quality health care and education, 
strengthened disaster preparedness and emergency response, and 
increased natural resource management. These efforts will contribute to 
greater human security, stability, and prosperity, as well as stronger 
U.S. ties to the region.
    Given our history of shared values, Australia is one of our closest 
global partners in promoting democratic reform, good governance, and 
the rule of law. The United States and Australia are working together 
to encourage Fiji to honor its commitment to make serious, sustained, 
inclusive, and transparent preparations for national elections by 2014 
and we have reiterated our call for Fiji to protect human rights, 
including freedoms of expression, association, and religion. Our 
international aid agencies cooperate to combat disease in Southeast 
Asia and to promote the empowerment of women in the Pacific Islands. 
The United States and Australia both participate in the Voluntary 
Principles on Security and Human Rights Initiative and the 
International Code of Conduct for Private Security Service Providers, 
multistakeholder initiatives that guide extractive companies and 
private security companies on providing security in a manner that 
respects human rights. The United States and Australia jointly provide 
technical assistance to support ASEAN economic integration and APEC 
trade and structural reform. These are but a few examples of the 
efforts Australia and the United States have already undertaken 
cooperatively.
    As exceptional as our collaboration with Australia has been to 
date, I believe there is even more that we can accomplish together. If 
confirmed, I pledge to continue supporting the strong bilateral work we 
are already doing, while seeking out new and different opportunities 
for us to collaboratively promote our shared core values in Southeast 
Asia and the Pacific.
                                 ______
                                 

 Responses of Daniel Clune to Questions Submitted by Senator Bob Corker

    Question. The recent repatriation of several young North Korean 
orphans from Laos to North Korea has cast a harsh spotlight on the 
plight of North Korean refugees. If confirmed, what steps will you 
undertake to encourage the Laotian Government to refrain from forcibly 
repatriating North Korean refugees? If confirmed, will you commit to 
working with the Special Envoy for North Korea Human Rights and other 
State Department officials to develop a coherent strategy to ensure the 
USG will proactively implement the North Korean Child Welfare Act of 
2012? What initial elements would you propose for such a strategy?

    Answer. If confirmed, I will continue to work closely with the 
Republic of Korea (ROK), the United Nations, and other countries that 
share our concerns about North Korean refugees and asylum seekers to 
encourage the Government of Laos to fulfill its international 
obligations and not return refugees and asylum seekers to North Korea. 
The human rights situation in North Korea is deplorable and returnees 
and their families routinely face harsh punishments. For this reason, 
the United States has consistently called on all countries in the 
region to protect North Koreans. I have met with Special Envoy for 
North Korean Human Rights Issues, Robert R. King, to discuss the North 
Korean refugees issues, and I will work closely with him and other 
State Department officials, including the Bureau of Population, 
Refugees, and Migration and the Bureau of Democracy, Human Rights, and 
Labor, to ensure the development of an effective strategy to meet the 
goals of the North Korean Child Welfare Act of 2012. I will urge the 
Government of Laos to cooperate in the protection of North Korean 
refugees and asylum seekers and will work with the Special Envoy for 
North Korean Human Rights Issues to do everything that can be done to 
ensure the safety and welfare of refugees and asylum seekers from North 
Korea and give them opportunities for a better future.

    Question. As one of the largest investors in Laos, China maintains 
significant leverage over Vientiane's diplomatic and political 
decisions. As Vientiane grows increasingly dependent upon Beijing, it 
has become gradually more challenging for the United States to balance 
its relatively small foreign assistance while simultaneously 
articulating U.S. values and support for basic human rights, including 
religious minorities. If confirmed, what steps will you propose the 
United States undertake to more effectively leverage our assistance to 
encourage Laos to pursue genuine reforms and adhere to international 
human rights obligations?

    Answer. If confirmed, I will look for ways to leverage most 
effectively existing programs to encourage Laos to pursue genuine 
reforms, strengthen its judicial system, and adhere to its 
international human rights obligations. The State Department's Bureau 
of International Narcotics and Law Enforcement Affairs is providing 
$300,000 annually for legal education, prosecutor training, and police 
prosecutor cooperation in support of the Lao Government's ``Master Plan 
on the Development of the Rule of Law in the Lao PDR toward the Year 
2020.'' The State Department's Bureau of Democracy, Human Rights, and 
Labor funds a $500,000 program to increase the capacity of civil 
society organizations, a program which was recently extended, and has 
included Laos in regional programs addressing disability rights and 
religious freedom. In addition, the USAID LUNA-Lao project provides 
technical assistance to ministries, the National Assembly, and the 
judiciary to modernize laws and policies, judicial procedures, and 
institutional capacities in keeping with international best practice. 
In supporting the implementation of far-reaching trade agreements, the 
project not only helps stimulate economic growth but also advances the 
rule of law and improves governance. If confirmed, I will analyze each 
of these programs and seek additional funding in those areas which 
would most effectively promote genuine reforms and adherence to human 
rights obligations.


   NOMINATIONS OF LINDA THOMAS-GREENFIELD, JAMES ENTWISTLE, PATRICIA 
HASLACH, REUBEN BRIGETY II, STEPHANIE SANDERS SULLIVAN, PATRICK GASPARD

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Linda Thomas-Greenfield, of Louisiana, to be Assistant 
        Secretary of State for African Affairs
Hon. James F. Entwistle, of Virginia, to be Ambassador to the 
        Federal Republic of Nigeria
Hon. Patricia Marie Haslach, of Oregon, to be Ambassador the 
        the Federal Democratic Republic of Ethiopia
Reuben Earl Brigety II, of Florida, to be Representative of the 
        United States of America to the African Union, with the 
        rank and status of Ambassador
Stephanie Sanders Sullivan, of New York, to be Ambassador to 
        the Republic of Congo
Patrick Hubert Gaspard, of New York, to be Ambassador to the 
        Republic of South Africa
                              ----------                              

    The committee met, pursuant to notice, at 9:08 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons presiding.
    Present: Senators Coons, Kaine, Murphy, and Flake.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Good morning. I call this hearing of the 
African Affairs Subcommittee of the Senate Foreign Relations 
Committee to order. I am very pleased to chair this nomination 
hearing of the Senate Foreign Relations' Committee Subcommittee 
on African Affairs for Linda Thomas-Greenfield to be Assistant 
Secretary of State for African Affairs; James Entwistle to be 
Ambassador to Nigeria; Patricia Haslach to be Ambassador to 
Ethiopia; Reuben Brigety to be the U.S. Representative to the 
African Union with the rank of Ambassador; Stephanie Sanders 
Sullivan to be Ambassador to the Republic of Congo; and Patrick 
Gaspard to be Ambassador to South Africa.
    I welcome each of the nominees and their family members who 
are here to support them. I also welcome and thank my Africa 
Subcommittee ranking member and colleague, Senator Flake, for 
his diligence in working and making possible this full agenda 
of nominees for today.
    We are considering nominees today for different diplomatic 
assignments, each with its own unique characteristics, 
challenges, and opportunities. Each nominee will also work 
through many common cross-cutting challenges and opportunities 
that face the United States in Africa, including vast economic 
potential, a rapidly growing middle class, challenged 
democratic institutions, poverty, terrorism, and many more.
    The choices made by African leaders, our government, and 
international partners will chart not only the future course of 
many African countries, but the role and influence of the 
United States. At a time when we have impending elections in 
Mali and Zimbabwe and an upcoming AGOA ministerial, there is so 
much for us to talk about this morning.
    I will dispense with much of my usual opening statement and 
simply say I am convinced we must deepen, broaden, and sustain 
United States engagement with the leaders and people of Africa. 
President Obama's recent trip was a positive demonstration of 
U.S. commitment and the President's initiatives on trade, 
energy, young African leaders, and wildlife trafficking have, I 
think, significant potential that I hope we will soon explore 
further. But our relationships have to extend broadly, beyond a 
single Presidential trip, and as the United States works to 
sustain and broaden our relationships each of you will play a 
central role in sustaining that.
    The nominees before us bring a wealth of foreign policy and 
public service experience and have served in some of the most 
challenging diplomatic posts around the world. I am interested 
in hearing your views on how we can help build strong, enduring 
partnerships in Africa in support of democracy, security, and 
prosperity.
    Linda Thomas-Greenfield has served as Principal Deputy 
Assistant Secretary in the Bureau of African Affairs and as 
Ambassador to Liberia, where I first met her, during an 
exciting time of transition. Importantly, she has also shown a 
strong commitment to supporting the professional development of 
the people of the State Department, its most valuable asset.
    Ambassador James Entwistle, who I had the pleasure of 
meeting when I traveled to Kinshasa earlier this year, is an 
able and experienced senior diplomatic who would bring lessons 
learned from places as diverse as Thailand, Kenya, and the 
Congo to the critically important and challenging task of 
managing our relations with Nigeria.
    Patricia Haslach has worked to promote development, 
stability, and democracy around the world, including in Iraq, 
Afghanistan, and Nigeria. Her experience with the Feed the 
Future program and commitment to women's empowerment would make 
important contributions to our diplomacy in Ethiopia.
    Reuben Brigety has devoted his career to public service. 
His unique blend of experience in the military, academia, civil 
society, USAID, and the State Department would in my view be a 
valuable asset at our mission to the AU.
    Stephanie Sullivan has shown a long commitment to Africa 
from her time as a Peace Corps Volunteer in the DRC to several 
Foreign Service assignments in the Africa Bureau. She would 
bring strong managerial skills and relevant experience to 
Brazzaville.
    Patrick Gaspard knows the rough and tumble world of labor 
relations, community organizing, school reform, and of course 
politics. These are all critical to understanding South Africa, 
where he also, I would note, had the honor of meeting Nelson 
Mandela in 1992 while serving in New York Mayor David Dinkins' 
office.
    I will dispense with the rest of my comments. I very much 
look forward to hearing from each of the nominees and will now 
turn to Senator Flake.
    Senator Flake. I thank the chairman for making this hearing 
possible, to get through a number of nominees all at once. I 
enjoyed meeting with each of you in my office in the past 
weeks. I am convinced that we have the right people for what 
will be a tough job. As Senator Coons said, and I agree, we 
ought to broaden and deepen our involvement in Africa. I think 
we have the right people to do that and look forward to hearing 
your testimony today.
    Thanks.
    Senator Coons. I would like to now turn to Senator Nelson 
to introduce Ambassador Thomas-Greenfield. I will also, when he 
arrives, be inviting Senator Schumer to say a few words about 
our nominee for South Africa. Given the demands of Senator 
Schumer's schedule, he is not able to be here for the second 
panel. So I would like to invite Senator Nelson, and thank him 
for his timely arrival, for an introduction of Linda Thomas-
Greenfield, who is the nominee for Assistant Secretary.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. It is a privilege 
for me to return to the committee that I spent six very happy 
years here and appreciate the dedication that you and Senator 
Flake are bringing to the Africa Subcommittee of this full 
committee. It is obvious the devotion that you have, Mr. 
Chairman, and I want you to know that I appreciate that.
    We have a unique, very competent and very qualified 
candidate, nominee, to be the Assistant Secretary of State for 
African Affairs, because Ambassador Greenfield has been in the 
Foreign Service for her adult life. Right now she leads a team 
of 600 folks who work day and night over in the State 
Department. She started her career in the Foreign Service back 
in 1962, and most of that service has been dedicated to 
policymaking with regard to Africa.
    She has served in Jamaica, Nigeria, the Gambia, Kenya, 
Pakistan, Switzerland, and most recently as U.S. Ambassador to 
Liberia. It was there that my wife Grace and I got to meet 
Ambassador Thomas-Greenfield, and it was very interesting. In 
that country there was a woman President, still is, Ellen 
Johnson Sirleaf. The U.S. Ambassador was a woman, and that is 
Linda, and the top USAID representative, a woman, Pam White, 
who so distinguished herself in USAID that she was asked to be 
an Ambassador, first in the Gambia and today--and I will see 
her in another week and a half--in Haiti.
    So you can imagine the kind of quality representation that 
we had there in this struggling little country that is trying 
to come out of the chaos that it had in a very tumultuous 
former regime as the new President, President Sirleaf, is 
trying to straighten out the country.
    Well, we were fortunate to have the quality that we had 
with Linda. As a result, she has moved up in the State 
Department and now is awaiting confirmation for this very 
important post. The post is to strengthen the democracy and the 
institutions throughout the continent. It fosters economic 
growth in the continent and it tries to lessen the effects of 
the armed conflicts in the continent.
    So what more can I say, Mr. Chairman, but that I am very 
privileged to be here to introduce a nominee of such quality, 
that when quality is staring you in the face you act on it. I 
want to thank you for this committee's consideration and I look 
forward to casting my vote on the floor of the Senate when we 
confirm her.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Nelson. I am 
grateful for your time and, being mindful of your schedule, 
invite you to leave whenever is convenient for you.
    Before I turn to an opening statement by Ambassador Thomas-
Greenfield, I am going to encourage Senator Schumer of New York 
to make an introductory statement of Patrick Gaspard, whom we 
will consider as part of our second panel, the President's 
nominee to serve as Ambassador to South Africa.
    Senator Schumer.

              STATEMENT OF HON. CHARLES SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Well, thank you, Mr. Chairman.
    First to Ambassador Thomas-Greenfield and to my colleague 
Bill Nelson, I apologize for the interruption. Thank you for 
your patience. I will be chairing another committee hearing in 
a few minutes, but wanted the opportunity to introduce Patrick 
Gaspard, who will be appearing a little later this morning.
    Before doing that, I would like to acknowledge Ambassador 
Thomas-Greenfield's distinguished diplomatic career serving the 
United States around the globe. She is an excellent candidate 
for the position of Assistant Secretary for Africa and I join 
my colleague and friend Bill Nelson in looking forward to 
supporting her nomination when it comes before the full Senate, 
the two of us are not privileged to serve on this committee, 
where we would cast two votes for you. One in the committee, 
one on the floor is what I mean.
    Anyway, it is my great privilege to introduce Mr. Patrick 
Gaspard, the nominee to be the next Ambassador to South Africa. 
Patrick was not born in New York, but, like millions of others 
through the years, found his way to New York and found in New 
York his hopes, his dreams, and a place to call home.
    Mr. Gaspard's long and distinguished career in public 
service leaves no doubt he is well qualified to take on this 
great task that awaits him if he is confirmed to be Ambassador 
to South Africa. Patrick was born in the Democratic Republic of 
the Congo to Haitian parents. Returning to the African 
Continent will bring Patrick full circle.
    His parents--he has an amazing life story. Patrick's 
parents moved from what was then Zaire from their native Haiti 
following an appeal from Prime Minister Patrice Lumumba for 
French-speaking academics of African descent. Patrick then 
moved with his parents to New York when he was just 3. He grew 
up on New York City's Upper West Side. He lived there until he 
was 11, like many Manhattanites migrated to the great, often 
forgotten outer boroughs. He moved in a fine, beautiful middle 
class neighborhood that I ride my bicycle through frequently, 
Saint Alban's in southeast Queens.
    He then got into one of New York City's finest public 
schools, Brooklyn Tech--Go Engineers--before--it was a lot 
better than Stuyvesant's nickname. They are ``The Peg Legs.'' 
Can you believe a team calls itself ``The Peg Legs''? Only in 
New York--before going on to attend another great New York 
institution, Columbia University.
    Patrick worked his way up in New York City politics. He 
played a key role in helping David Dinkins become New York 
City's first African American Mayor in what was to become a 
historic campaign. And, interestingly and relevantly enough, 
one of his signature achievements working for Mayor Dinkins was 
spearheading a trip to South Africa for the Mayor's Cabinet 
members to meet Nelson Mandela in 1992, who 2 years later would 
go on to become South Africa's first democratically elected 
President.
    He then went on to work for almost a decade as Executive 
Vice President for Politics and Legislation for 1199, the SEIU 
United Health Care Workers East labor union. That is the 
largest local union in America. It is one of the strongest, one 
of the best organized, one of the most effective. And I say 
this--I think this is not without exaggeration--it was Patrick 
and his team that were one of the most effective at building 
any union organization that I have been familiar with, and they 
now have over 300,000 members.
    In 2004 he became National Field Director for America 
Coming Together. He overseen a paid staff of 8,000 people 
dedicated to getting out the vote. He has shown a remarkable 
dedication and involvement in our country's electoral process, 
and his efforts to advance the cause of working class families 
led him to serve in 2006 as the Political Director for SEIU 
during the national union's very successful efforts that year.
    Then-Senator Barack Obama recognized Patrick's talents, 
tried to lure him away from SEIU to join the campaign. He first 
resisted. He did not want to leave his family in New York. But 
he eventually caved and became Political Director for the 
President's successful 2008 campaign. He was then Director of 
Political Affairs, 2008, an office I would say needs some 
filling right now. There is no one there who could fill his 
shoes. His responsibilities were to provide the President with 
an accurate assessment of the political dynamic affecting the 
work of his administration.
    He is one of the hardest working people I have ever met. I 
have worked with him for decades and he just works and works 
and drives and drives and gets things done. But he is a good 
listener. He is a polite and thoughtful fellow, and he has had 
a great career already.
    He became the executive director of the DNC under Chairman, 
now our colleague, Tim Kaine and Chairman Deborah Wasserman-
Schultz.
    So, as you can see by his bio, he has dedicated his entire 
career and political life to helping advance the values of 
better life and more opportunities for families in America. He 
will take advantage and enhance our dynamic relationship with 
South Africa, and he will take it to new heights.
    As you all know, Mr. Chairman, Ranking Member Corker, South 
Africa is a strategic partner for the United States. Our 
countries are currently involved in widespread cooperation in 
health, education, food security, trade, investment, energy, 
and nonproliferation. There is no one better to help strengthen 
these bonds than Patrick Gaspard.
    So I wholeheartedly endorse his nomination, and again thank 
you, Madam Ambassador, my colleague Bill, and the committee for 
their courtesy.
    Senator Coons. Thank you, Senator Schumer, for that 
introduction. We very much look forward to our second panel of 
nominees. Understanding the Senators' schedules and your 
impending hearing, I thank you for your testimony here this 
morning, your introductions, and I would now like to invite 
Ambassador Thomas-Greenfield to make her opening statement and 
to introduce any family or friends who may be with you in 
support today.
    Ambassador.

   STATEMENT OF HON. LINDA THOMAS-GREENFIELD, OF LOUISIANA, 
   NOMINATED TO BE ASSISTANT SECRETARY OF STATE FOR AFRICAN 
                            AFFAIRS

    Ambassador Thomas-Greenfield. Thank you very much, Chairman 
Coons. Let me start by thanking Senator Nelson and Senator 
Schumer for their very generous and kind introduction.
    Chairman Coons, Ranking Member Flake, and members of the 
committee, it is an honor for me to appear before you today as 
President Obama's nominee to be the Assistant Secretary of 
State for African Affairs. I am honored by President Obama's 
and Senator Kerry's confidence in me and, if confirmed, I hope 
to work closely with the Congress and particularly with this 
committee and with you, Senator Coons, and other members to 
further our partnership with the African people, to nurture our 
shared values, and to advance U.S. interests in the region.
    Mr. Chairman, I would like to take the opportunity to 
introduce my husband, Lafayette, who is sitting behind me, my 
daughter Lindsay. My son, Deuce, could not be here today, but I 
can tell you that I would not be here today if it were not for 
their support over a 31-year career in the Foreign Service, and 
I would like to take this opportunity to thank them for their 
support.
    If you will permit me, I will submit a longer version of my 
testimony for the record, but I would like to take the 
opportunity here to underscore that I have spent the majority 
of my career in Africa, as you have heard, working on African 
issues, working on humanitarian issues in Africa, and this 
nomination is really an honor for me.
    I come before the committee at a very propitious moment. 
The President just completed a highly successful trip to 
Senegal, South Africa, and Tanzania. During that time he 
announced critical new initiatives and reinforced our efforts 
to expand economic growth in a mutually beneficial manner, to 
strengthen democratic institutions, and to invest in the next 
generation of African leaders.
    If confirmed, I am particularly looking forward to the 
Africa Heads of State summit in Washington in 2014, which will 
further advance the President's efforts on these critical sets 
of issues.
    Our partnership with the countries and the people of Africa 
has contributed to real progress, made all the more evident by 
the strength of our relationships across the continent, from 
Ghana to Tanzania, from Liberia, where I served as Ambassador, 
to Namibia. We have been especially encouraged by peaceful 
transitions between political parties, as we witnessed in 
Senegal and Zambia recently, and we are now watching closely as 
the people of Mali and the people of Zimbabwe prepare to head 
to their polling stations in just a few days for elections that 
will be critical to the future of their respective countries, 
but particularly to their people.
    In the coming years cross the continent, we will have to 
prioritize our support for critical democracy and governance 
programs that underpin the success of all other efforts. 
However, we will also need to continue efforts to encourage 
American businesses to actively participate in Africa's 
economic renaissance.
    Lack of fiscal transparency and corruption significantly 
discourage investment. Trade and sustainable economic 
development will flow where rules are predictable and 
investment is protected. When the playing field is level, I am 
confident that American firms can compete successfully with 
anyone in the world, including China. But ultimately, African 
governments themselves should drive a hard bargain in the deals 
that they make with every nation to ensure that they get the 
best deals for their people and for their future.
    To further support U.S. efforts and U.S. trade with Africa, 
I am looking forward to the upcoming Africa Growth and 
Opportunity Act trade ministerial in Ethiopia this August and, 
if confirmed, I hope to work closely with this committee and 
with you in particular, Senator Coons, and other Members of 
Congress to pave the way for AGOA's renewal.
    As we deepen our partnerships on the continent, our efforts 
will also stay true to the fact that human rights is a core 
American value. We will continue to speak out, both in public 
and in private, when nations stray from their responsibilities 
to protect their people. We must also remember that from 
eastern Congo to the Sahel, from Liberia and Somalia to the 
tensions that are still taking place between Sudan and South 
Sudan, too many lives have been lost and too many futures have 
been destroyed.
    Violent extremist organizations, some of them affiliated 
with al-Qaeda, seek to exploit conflicts and weak institutions 
to expand their reach. In each of these cases, we will continue 
to work with the African Union as well as other regional and 
international organizations, allies, and countries themselves 
to find solutions.
    I understand that the opportunities and the challenges in 
Africa require a comprehensive United States policy, one that 
takes a holistic approach, is integrative, proactive, and 
forward-leaning. If confirmed, I will always balance our long-
term interests with the near-term and urgent imperatives we 
face each week.
    For far too many years, we have been Africa's partner in 
times of adversity. While we will continue to support African 
people in moments of crisis, we will also be Africa's partner 
in prosperity. Admittedly, this is a big challenge, but I can 
say if I am confirmed it is one that I very much look forward 
to pursuing with your help and with the Africa Bureau's 
enthusiasm and energy.
    Before I conclude, I would like to also thank the many 
friends that I have sitting in the audience who are here to 
support me today, and if confirmed, Mr. Chairman, I look 
forward to working with you, members of the committee, and 
others on the Hill on the challenges and the opportunities that 
we will face on the continent of Africa in the future.
    I am pleased to take your questions. Thank you very much.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

           Prepared Statement of Hon. Linda Thomas-Greenfield

    Chairman Coons, Ranking Member Flake, and members of the committee, 
it is an honor to appear before you today as President Obama's nominee 
to be the Assistant Secretary of State for African Affairs. I am 
honored by President Obama's and Secretary Kerry's confidence in me 
and, if confirmed, I hope to work closely with the Congress and with 
this committee and its members, to further our partnership with the 
African people and organizations, nurture our shared values, and 
advance U.S interests in the region.
    Mr. Chairman, I would like to take the opportunity to introduce my 
husband, Lafayette, and our two children, Lindsay and Deuce. I would 
not be here today if it were not for their support and encouragement 
over the last 31 years.
    My first introduction to Africa occurred in 1964, when I was a mere 
12 year old and had the opportunity to meet Peace Corps Volunteers and 
their African teachers, who were living in my small community in Baker, 
LA, prior to departing for their assignments in Swaziland and Somalia. 
From that moment, I knew I wanted to be a Peace Corps Volunteer and I 
knew I wanted to go to Africa. Unfortunately, I never became a 
volunteer, something I continue to regret today, but did I get a chance 
to go to Africa.
    I have spent the majority of my career working in Africa and on 
African issues, including as the Deputy Assistant Secretary of State in 
the Bureau of Population, Refugees, and Migration responsible for 
Africa, as the Deputy Assistant Secretary of State in the Africa Bureau 
responsible for west Africa, as the Principal Deputy Assistant 
Secretary of State for African Affairs, and as the U.S. Ambassador to 
Liberia. Most recently in my position as Director General of the 
Foreign Service and Director of Human Resources I led a team of 600 
employees who managed the Department's 70,000-strong workforce. 
Ultimately, any organization is only as good as its people. In all my 
leadership positions, I have sought to better enable our personnel to 
meet our ambitious foreign policy objectives, to promote strong 
leadership and accountability, and foster diversity in the workplace. 
These will continue to be priorities for me, if confirmed. The Bureau 
of African Affairs is home to approximately 1,100 Foreign Service 
officers, 76 Civil Servants, and 12,800 locally employed staff who are 
spread across 50 posts, as well as here in Washington. Entry-level 
officers are often the backbone of our lightly staffed embassies and 
many of our desks within the Bureau. If confirmed as Assistant 
Secretary of State for African Affairs, I will continue my strong 
professional and personal commitment to the welfare and safety of our 
people, and to their development through mentorship and my attention to 
management issues. I am also committed to keeping our people safe and 
facilities secure. To that end, I will work closely with the Bureau of 
Diplomatic Security to achieve that goal.
    I come before the committee at a very propitious moment. The 
President just completed a highly successful trip to Senegal, South 
Africa, and Tanzania during which he reinforced our efforts to expand 
economic growth in a mutually beneficial manner, to strengthen 
democratic institutions, and to invest in African youth as the next 
generation of African leaders. If confirmed, I particularly look 
forward to the African Heads of State summit in Washington in 2014, 
which will further advance the President's efforts on this critical set 
of issues. The President's trip also extended U.S. engagement on the 
continent through the unveiling of three critical initiatives. Power 
Africa aims to increase electricity by at least 20 million new 
households and commercial entities with on-grid, mini-grid, and off-
grid solutions by complementing government resources with private 
sector commitments. With more than two-thirds of the continent without 
electricity, this initiative will address Africa's major constraint to 
economic growth and increased private sector investment. In conjunction 
with our efforts to expand trade, the President also announced Trade 
Africa--an initiative that aims to double intraregional trade in the 
East African Community (EAC), which includes increasing exports to the 
United States through targeted investments and support to regional 
governments and institutions. With one in three Africans between the 
ages of 10 and 24 and approximately 60 percent of the population below 
the age of 35, the Young African Leaders Initiative helps provide the 
next generation of male and female leaders with the training and 
mentoring needed for business and entrepreneurship, civic leadership, 
and public administration.
    Our partnership with the countries and people of Africa has 
contributed to real progress, made all the more evident by the strength 
of our relationships across the continent--from Ghana to Tanzania and 
from Liberia to Namibia. Africa has been too often described as a 
continent of ``emerging'' nations. However, given the recent strong 
economic growth, it is undeniable that a number of the nations on the 
continent have fully ``emerged'' and are well on their way toward 
sustained economic growth with visible and strong democratic 
institutions. We have been especially encouraged by peaceful 
transitions between political parties, as we witnessed in Senegal and 
Zambia. As President Obama has said, ``Africa doesn't need strong men, 
it needs strong institutions,'' and this shift is the best guarantee 
for Africa's future development and stability. This is a trend that the 
President has emphasized to great effect across Africa, and it is one 
that I intend to work hard to reinforce and expand, if confirmed. We 
are watching closely as the people of Mali and Zimbabwe prepare to head 
to their polling stations in just a few short days for elections that 
will be critical to the future of their respective nations. Holding 
credible, democratic elections in Mali is the first step in the 
nation's return to constitutional order and the establishment of a 
government with the legitimacy to pursue longer term political and 
development priorities, including national reconciliation and 
peacebuilding efforts. In Zimbabwe, we are concerned that elections are 
moving forward in spite of incomplete reforms and insufficient 
electoral preparations. Zimbabwe's elections need to be peaceful and 
credible, and reflective of the will of the people.
    In the coming years, across the continent, we will have to 
prioritize our support for the critical democracy and governance 
programs that underpin the success of all other efforts--from our 
investments in global health, to our assistance in the security sector, 
to our work on advancing women's participation. Democracy and 
governance have long been--and should remain--a top priority. Without 
these efforts, progress in other sectors may ultimately be 
unsustainable.
    We are beginning to see visible evidence of parallel gains in 
economic growth and economic development on the continent. Africa is 
booming in nearly every sector, from massive energy developments in 
Mozambique, Tanzania, and Ghana; to the growth of Rwanda and Kenya's 
information technology sectors; to the thriving auto industry in South 
Africa. At the same time, we will need to continue efforts to encourage 
American businesses to actively participate in Africa's economic 
renaissance. During his address to business leaders in Tanzania, 
President Obama noted that strengthening good governance is good 
business as well. Lack of fiscal transparency and corruption 
significantly discourage investment. The administration is working with 
countries across Africa to improve governance, enhance open government, 
and uphold the rule of law. Trade and sustainable economic development 
will flow where rules are predictable and investment is protected. I 
believe that these political and economic trends are self-reinforcing 
and will form one of the principal cornerstones of my personal efforts 
if confirmed. Our businesses understand the importance of respecting 
international norms, and I will strive to ensure that U.S. companies 
operating in Africa are treated fairly and are given every opportunity 
to compete in the marketplace.
    When the playing field is level, I am confident that American firms 
can compete successfully with anyone in the world, including nations 
such as China. We do not view U.S. and Chinese engagements in zero-sum 
terms. Chinese efforts to build infrastructure and enable economic 
growth are much needed but we will also continue to encourage China to 
play a constructive role through activities that are consistent with 
international norms. Ultimately, African governments should drive a 
hard bargain in the deals they make with every nation to ensure they 
are the best for their people and their futures. U.S. businesses add 
value and our partnerships create broad, sustainable, economic 
opportunity, making a meaningful difference in people's lives.
    To further support U.S.-African trade, we are looking forward to 
the upcoming African Growth and Opportunity Act (AGOA) Trade 
Ministerial in Ethiopia this August, and if confirmed, I hope to work 
closely with Congress to pave the way for AGOA's renewal. Working 
together alongside our African partners, we will also have to make 
these trade preferences more effective and ensure that more African 
goods can compete successfully in the global marketplace. The bulk of 
our trade is currently with just three countries, South Africa, 
Nigeria, and Angola, and it must be further broadened. We also continue 
to support African women entrepreneurs through the African Women 
Entrepreneurship Program, which identifies and builds networks of women 
entrepreneurs across sub-Saharan Africa. This program has been 
instrumental in building the capacity of African women entrepreneurs, 
who are often agents of change in their communities.
    Another part of the challenge ahead will be to maintain our focus 
on the people of Africa, to listen to their voices, and to include 
their concerns in our policy deliberations. Our work on HIV/AIDS 
through PEPFAR is a great example of the new kinds of partnerships we 
are forming. Thirteen countries have now passed the programmatic 
``tipping point'' where more people are newly receiving treatment than 
are being newly infected with HIV. And countries such as South Africa 
and Namibia are increasingly taking on their own epidemics, assuming 
greater costs and leadership for treatment.
    As we deepen our partnerships on the continent, our efforts will 
also stay true to the fact that human rights is a core American value. 
Governments that respect human rights, including women's rights, and 
democratic norms make stronger and more stable partners for economic 
growth, development, peace, and prosperity. We will continue to support 
partners who respect these norms, and will continue to speak out, both 
in public and in private, when nations stray from their responsibility 
to protect their people's rights. We must continue to strengthen local 
human rights groups in Africa and engage high-level foreign leaders 
when we see laws or actions that impinge on the human rights of their 
citizens--whether it is attempts to restrict the free flow of 
information or freedom of assembly, obstruct the operations of civil 
society and local NGOs, or the ways in which countries confront 
insurgencies that may put civilians at risk.
    We will continue to work hard to consolidate democratic progress, 
economic growth and the security necessary for families to live 
``normal'' lives in peace and freedom. Both instability and insecurity 
greatly diminish the prospects and aspirations of future generations, 
and dampen the hopes of too many citizens. While some countries are 
stable and experiencing economic and social vitality, others remain 
years and even decades behind owing to conflict. From the eastern Congo 
to the Sahel, and from Somalia to the tensions that still exist between 
Sudan and South Sudan, too many lives have been lost and too many 
others remain under severe threats. Violent extremist organizations, 
some of them affiliated with al-Qaeda, seek to exploit conflicts and 
weak institutions to expand their reach. Our efforts to promote 
stability have also led to the expansion of partnerships focused on 
responding to transnational threats such as terrorism, drug 
trafficking, wildlife trafficking, and piracy. Meanwhile U.S. support 
to critical peacekeeping operations has allowed us to leverage our 
resources and work multilaterally to encourage peace. In each of these 
cases we are working with the African Union, as well as other regional 
and international organizations and the countries themselves to help 
find solutions. We will continue both our humanitarian efforts on 
behalf of those living with conflict and our efforts to resolve those 
conflicts. We also know that for true stability to flourish, we have to 
push for the full inclusion of women at every step of the process.
    I understand that the opportunities and the challenges in Africa 
require a comprehensive U.S. policy, one that takes a holistic view, is 
integrative, proactive, and forward-looking. If confirmed, I will 
always balance our long-term interests with the near-term and urgent 
imperatives we face each week. I will work to build on the foundation 
of successes set during President Obama's first term, and clearly 
articulated in the June 2012 Presidential Policy Directive on sub-
Saharan Africa. This will mean working closely with our African 
partners to strengthen democratic institutions beyond just the need for 
free, fair and transparent elections. If confirmed, I will strive to 
also establish environments where new entrepreneurship ecosystems can 
flourish, economic opportunities can grow, and comprehensive 
development frameworks can take root, not only to encourage more trade, 
investment, and economic growth, but to help reform and create the 
conditions under which they can thrive. Equally important will be 
finding sustainable ways to advance peace, security, and stability 
throughout the region as prerequisites for meeting the aspirations of 
Africans and Americans alike. I do not mean to sound immodest by 
raising our expectations and setting very high goals, but for far too 
many years we have been Africa's partner in times of adversity. While 
we will continue to support the African people in moments of crisis, we 
will now also be Africa's partner in times of prosperity. Admittedly 
this is a big challenge, but, if confirmed, it is one that I very much 
look forward to pursuing with your help and with the Africa Bureau's 
enthusiasm and energy.
    I would be pleased to respond to any questions you may have.

    Senator Coons. Well, thank you, Madam Ambassador. We will 
now begin a round of 7 minutes for questions if we could.
    Ambassador, I love the way you concluded your testimony by 
stating that the United States has long been friends of the 
people of Africa in adversity, at times of crisis, and we now 
need to sort of refocus our energies and efforts on how to be 
good partners and friends in the times that they move toward 
prosperity as well.
    I believe we can and should do much more to promote direct 
investment and trade with Africa. A number of the initiatives 
announced by the President have to do with that. What steps can 
the State Department and our embassies take to strengthen that 
and do you have the tools and skills amongst the embassies that 
you need, and if not what more could we do to support that 
work?
    Ambassador Thomas-Greenfield. Senator, thank you very, very 
much for that question. We are working--and I can talk from the 
vantage point of having just completed my assignment as 
Director General of the Foreign Service. We have been working 
to build the economic capacity through econ statecraft in the 
State Department over the past year. My colleagues and I in HR 
have worked with the EB Bureau to look at how we can better 
train and better prepare our economic officers to deal with the 
investment and commercial climate that they will face in our 
embassies overseas. I think we have had quite a bit of success 
in doing that.
    But it also requires other entities within the U.S. 
Government structure to help with that. You and I met earlier 
and we talked about the lack of presence of commercial 
officers, and I would like to see more presence of our 
commercial officers overseas. I think that we have to look 
broadly at all of our activities, the activities that relate to 
Treasury, the activities that relate to governance, to help 
build the capacity of African countries to take advantage of 
investments, so that they are prepared also to deal with 
prosperity and not just adversity.
    So we still have a lot of work to do, and any help that you 
can provide in supporting our efforts would be most 
appreciated.
    Senator Coons. I know I and others are eager to work with 
you on AGOA specifically, but more broadly on how we get an 
``all of the above'' strategy for the Federal Government and 
its facilitation of the private sector's engagement with 
Africa. We have got lots of folks, Exim, OPIC, TDA, Commerce 
among many others, to get in the mix, and USAID is a vital 
partner as well.
    You referenced also the importance of democracy and 
governance in the portfolio of activities funded by the United 
States and delivered through State. On the eve of elections in 
Mali and Zimbabwe, and given the fragility or the tensions 
within some of our key allies--Uganda, Ethiopia, Nigeria--how 
will you advance democratic values? How will our embassies 
advance democratic values, and how do we manage the tension 
with our competitors, the Chinese and others, who offer an 
alternative source of partnership, both diplomatic and 
economic, that does not raise difficult issues of human rights, 
of democracy, of press freedom, and others across the 
continent?
    Ambassador Thomas-Greenfield. Again, thank you. Thank you 
for that question. I think it is clear to us that democracy and 
governance does not end with elections, that we have to be 
there to continue to support African countries in building the 
institutions that they need to prosper and succeed in the 
future.
    As the Ambassador to Liberia, I worked very, very closely 
with the Government of Liberia to help them prepare for not 
just the election, but prepare for moving their democracy 
forward to the next level. Our USAID programs that support 
institutions such as the press, support NGOs, support local 
college students who are looking to go into politics, helping 
to build the capacity of them to understand how politics work 
and how they can succeed in being successful politicians, these 
are all programs that we have to continue to work on, and the 
Presidents Initiative on African Leaders I think will 
contribute to that significantly.
    The tensions with China. I think we have a good story to 
tell. When you talk to African leaders across the board, they 
appreciate the support that they get from us, even when that 
support comes with criticism, because they know that our 
criticism is constructive. And they know that in the final 
analysis, that what we offer in terms of our own values on 
human rights is so much better than what they are getting from 
outside of the United States.
    So again, I think I do not see us as competing. I do not 
even see the Chinese as being an alternative. As I said, 
African leaders have to strike the best deal that they can 
strike for their people, and I think they get it. So we just 
have to do more to help build their capacity, so that they can 
negotiate in a stronger position with countries that are not 
raising issues of human rights, as we do on a regular basis.
    Senator Coons. I appreciate the sentiment. I do at times 
think we are in competition, but I do think a primary focus on 
calling upon African leaders to serve their people, their 
government, their agenda, I respect and agree with.
    As my last question of this round: If you would focus on 
the President's recent trip, there is a whole series of 
initiatives. You mentioned the upcoming summit of heads of 
state. There is also the Young African Leaders initiative, 
initiatives on energy, on trade, on wildlife trafficking. How 
do we turn these into broader, more effective, more sustained 
initiatives, particularly given the many other priorities that 
various ambassadors will face? How do we make these make a 
lasting difference?
    Ambassador Thomas-Greenfield. I think the important key to 
making these lasting is to get buy-in from the African 
countries who will benefit from these initiatives. I think we 
have gone a long way in getting that buy-in. The summit to take 
place next year will also give us an opportunity to ensure that 
we have their support and that we move the agenda forward on 
these issues.
    If confirmed, I will work very, very quickly within the 
Africa Bureau and within the building, because it is not just 
an Africa Bureau responsibility to ensure that we have the 
resources in place to address the initiatives that the 
President announced when he was in Africa.
    Senator Coons. Well, sadly, there are several buildings 
that are relevant here. One of them is here, and I look forward 
to working with you to ensure support in this building as well 
as in that building.
    I will turn to Senator Flake. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for your testimony. There is obviously a lot to 
do across the continent and you have the benefit or detriment, 
I guess, to have to answer questions about all of Africa. But 
with regard to trade for a minute, if you look at the overall 
trade between the United States and Africa and China and 
Africa, there is not much difference right now. We are about 
$70 billion a year. But Chinese trade has increased 
substantially over the past decade and we have not.
    What can we do, aside from AGOA? And I agree we will work 
hard to get that reauthorized and go forward. But what 
specifically can we do aside from AGOA to change that 
direction?
    Ambassador Thomas-Greenfield. I think there are two things 
that we can do. First, on the continent of Africa we need to 
advocate for American companies and American businesses. We 
need to push for a level playing field with African countries 
so American companies can feel comfortable bidding on projects 
in Africa and investing in Africa.
    But the second part of that is also to work with American 
companies here in the United States to make sure that they are 
aware of the opportunities in Africa to invest, aware of the 
opportunities to make profits on the continent of Africa. 
Africa is booming and we need to make sure that American 
companies are prepared and knowledgeable about what is 
available there for them.
    I think that AGOA is one part of that. The other part of it 
is to ensure that we do the kinds of things that my predecessor 
did. He took a trade mission to Africa. I hope to continue with 
that kind of initiative in encouraging American companies to 
look at Africa.
    Senator Flake. There is no doubt that the United States, 
because of what we have done particularly with regard to AIDS 
across the continent, PEPFAR and what-not, is viewed more 
favorably than we would be otherwise, and our humanitarian 
assistance, health-related assistance, has been a great boon to 
our relationship with many countries. There has been some 
criticism, however, that our aid and overall aid to Africa is 
tilted too much toward humanitarian or health-related issues 
and that it ought to be more toward long-term sustainable 
development and trade. What is your assessment there?
    Ambassador Thomas-Greenfield. Sir, I think we need to do 
both. We cannot stop doing humanitarian assistance when people 
are dying. We cannot pull back on health programs when there 
are no health programs. So those programs have been very, very 
important to the success, our success in Africa, and also 
helping African countries develop.
    At the same time, we have to take a much more long-term 
view and again help African countries build the capacity so 
that they can deal with their health initiatives and then we 
can work with them on building their infrastructure so that 
they can encourage investments and push for opportunities for 
their people to move into the middle class so that they no 
longer need our aid and assistance. That is the ultimate goal.
    Senator Flake. With regard to elections in Zimbabwe coming 
up here soon, obviously the neighboring countries, SADC, are 
involved heavily and a lot of our involvement is through those 
countries. What can we do and what are we prepared, and are we 
prepared, for whatever eventuality comes after these elections 
to move ahead?
    Specifically, we have some sanctions that have been 
imposed. We have relaxed a bit on some of our loans to the 
development bank and what-not. What is your feeling in terms of 
our flexibility with regard to sanctions and what can the 
Congress do to help State respond in a timely fashion to ensure 
the best outcome that is possible?
    Ambassador Thomas-Greenfield. Thank you for that question. 
I look forward to working with you on what is a very, very 
difficult and important issue for us. The sanctions that we 
have in place have worked. There are sanctions on individuals 
and I think we will continue to use those sanctions to ensure 
that those who are involved in violence, who are blocking 
Zimbabwe's progress on democracy, feel the response of the U.S. 
Government, and I think we should continue to use those as we 
have used them in the past.
    We are working with, as you noted, others in the region, 
with SADC, with the EU, with the AU, to ensure to the extent 
possible that the election is one that is free and fair. But we 
are prepared, as other countries are, to call it as we see it. 
Our Ambassador and his team in Zimbabwe have been actively out 
in the field and will continue to do that throughout the 
election process. It is something that--that election is one 
that we are watching very, very closely and we are preparing 
ourselves for the responses that will be required should the 
election not be one that we can accept. From everything we have 
seen in recent days, we are not convinced that it will be.
    Senator Flake. Well, thank you. Please come to us if you 
need more flexibility in that regard to respond appropriately 
and you think that it is something that Congress needs to move 
on. I am sure that we will be willing to look at it and work 
with you on that. So I look forward to that and I look forward 
to working with you on this and other issues.
    Thanks.
    Ambassador Thomas-Greenfield. And I thank you.
    Senator Coons. Ambassador, I have just a few more 
questions, if I might. First, following up on your most recent 
role and assignment, the embassies that we have across the 
continent range from the very large and very well staffed with 
many different functions, such as Nairobi, to those that are 
relatively small, lightly staffed, with relatively junior 
officers, often in conflict-ridden states. When I saw you in 
Liberia, I was struck at how relatively small, compared to the 
scale of the challenges, our Embassy was there and how highly 
motivated the folks at the Embassy were.
    How will you work to ensure that Africa Bureau, and the 
Department more broadly, provides the support, the training, 
the security, to ensure that our diplomats in Africa are able 
to do their jobs, are able to be out, to engage in countries, 
able to promote commerce, support democracy, deal with crises 
and challenges, yet be safe and supported in doing so?
    Ambassador Thomas-Greenfield. Thank you very much for that 
question. As the Director General of the Foreign Service, I did 
get to see up close and very personal the limitations that we 
have in terms of staffing. We have this huge, huge bulge of 
entry-level officers who are rising very rapidly through the 
system, because there is a mid-level gap. What that means is 
that in most of our embassies, and particularly in Africa, we 
have our ambassadors, our deputy chiefs of mission, and then a 
huge group of entry-level officers who need to be mentored and 
who need strong leadership.
    So the important element of this for me is that we provide 
them with the strong leadership so that they can do the jobs 
that we have sent them out to do in very, very difficult 
locations. I think with the six ambassadors that you will be 
looking at confirming today and other ambassadors we have in 
the field, we are preparing our ambassadors for those very 
intense leadership roles.
    At the same time, we have to work to get those new officers 
the training they need to do their jobs. We are getting them 
the language training. As the Director General, it was rare, if 
ever, that I approved a language waiver because I know how 
important it is for our people to go in the field with the 
language skills that they require. I ensured that people got 
the training that they required and that we help build the 
training capacity at our Foreign Service Institute so that we 
can provide that training to our officers.
    That said, it is still going to be very difficult. We are 
still going to be struggling for a few years to build that 
capacity. But I think we are moving in the right direction.
    Senator Coons. One of the things I am most interested in as 
it unfolds, working with you on and others, is the Young 
African Leadership Initiative the President announced. You also 
referenced the upcoming head of state conference here. Several 
of the other countries that are principally interested in the 
African market have been hosting comparable summits for years, 
both in their countries and on the continent. I have had a 
number of heads of state comment directly, pointedly, to me 
that they feel the absence of an American investment in that 
kind of continent-wide convening.
    I have also heard comments from both young and mid-career 
African leaders of many sectors that they are concerned that 
the YALI initiative will simply be a semester abroad experience 
in the United States and will not be Africa-centered and 
broadly representative of all the different sectors in which 
young leaders are emerging.
    Any comments on how we might succeed by comparison with 
other countries that have invested very heavily in senior 
leadership trips to Africa?
    Ambassador Thomas-Greenfield. I think we do that, sir. We 
have our visitors programs, but also if we look at the number 
of senior visitors, particularly members of Congress, who visit 
Africa on an annual basis, we are not neglecting Africa. We are 
very, very focused on that relationship.
    It is true that we have not had a large summit and I look 
forward to the one that we are going to have. I think that will 
advance our agenda quite a bit. But I do not think any African 
leader can say that we have neglected them in any way, shape, 
or form.
    Secretary Clinton made three trips to Africa. She came to 
Liberia twice, which is unheard of, during her tenure. 
Secretary Kerry has already been to Africa and, if I am 
confirmed as the Assistant Secretary for Africa, he will be 
going as regularly as I can get him to go, to ensure that there 
is an understanding that we are committed to the African 
Continent.
    On the Young Africa Leaders Initiative, this did not just 
start with the President's visit. When I was in Liberia we sent 
three young Liberian leaders to a youth program organized by 
the White House about 2\1/2\ years ago. Those three individuals 
have been actively connecting with other youth in Liberia. They 
have held a number of programs. They have communicated with 
other youth across Africa. So the initiative did not just start 
and it did not stop with that first visit of African leaders.
    So I think this is just taking it the next step and we will 
continue to take it further steps. Even if these young people 
have a semester abroad in the United States, that will impact 
them for their entire lives. I meet so many senior African 
leaders who spent a semester in the United States. Many of them 
I went to college with at the University of Wisconsin, and they 
are still actively and politically important in their 
countries, but also have great feelings toward the United 
States because of those experiences. President Sirleaf is one 
of them, having spent just 1 year in the United States at the 
University of Wisconsin.
    Senator Coons. Well, as you know, even a semester spent 
overseas can have a lifetime impact.
    Ambassador Thomas-Greenfield. Yes.
    Senator Coons. My concern simply is that we craft something 
that is broad, that is sustainable, and that has mutually 
reinforcing opportunities on the continent and here. I look 
forward to working with you to ensure a sustained and high 
level of enthusiasm and interest.
    One of the best things about working on Africa in the 
Senate is its bipartisan support. This is a continent of 
concern and engagement that enjoys very broad Republican 
support as well as Democratic support at a time when we have 
difficulty agreeing on lots of things. It is a great area of 
shared interest and shared endeavors. So I look forward to 
working with you in that.
    A last question if I might. I just am personally concerned 
about Iran's reach across the continent. The immediate past-
President, Ahmadinejad, made a number of trips. They have tried 
with a variety of resources, energy, investment, and so forth, 
to build partnerships and bridges. Is this of any concern to 
you? Is it something you have noticed and is it an area that 
you might follow up on as Assistant Secretary?
    Ambassador Thomas-Greenfield. Thank you, sir. Yes, it is an 
area that we will follow up on. I think the--and again, this is 
not my expertise, but, having been in Africa when the President 
of Iran visited the AU when I was at the AU in 2006 and he gave 
a speech, my personal opinion is that the impact of that was 
not particularly rewarding for him. I think African countries 
are sensible enough to know where their friends are and they 
know that the United States is a friend, and we will continue 
to work with them to address those kinds of impacts and 
concerns.
    I certainly look forward to working with you as well as 
other Members of the Senate and on the Hill on addressing those 
types of issues.
    Senator Coons. Thank you very much, Ambassador. I very much 
look forward to working with you as well on assuring a 
sustained broad relationship of respect, of trust, of 
friendship, of investment, and of a steady movement towards 
democracy and prosperity.
    Senator Flake, any further questions?
    Senator Flake. No.
    Senator Coons. Thank you very much, Ambassador.
    Ambassador Thomas-Greenfield. Thank you.
    Senator Coons. I would like to invite our second panel to 
come before us now.
    Thank you. I would like to continue with our second panel. 
You are seated in a slightly different order than my questions, 
so forgive me. I will attempt to follow the order that is in 
front of me and introduce you apparently in order of State 
Department seniority.
    So if I might, I am going to ask you each to make an 
opening statement and I invite you to make some comments of 
welcome or appreciation to any family or friends who might be 
with you. We have got your written statements, but I know we 
are both interested in hearing your personal inflection and 
delivery of them as well.
    I would like to first invite Ambassador James Entwistle, 
the nominee to serve in Nigeria. Ambassador Entwistle.

   STATEMENT OF HON. JAMES F. ENTWISTLE, OF VIRGINIA, TO BE 
         AMBASSADOR TO THE FEDERAL REPUBLIC OF NIGERIA

    Ambassador Entwistle. Thank you very much, and apologies 
again for that ride in from the Kinshasa Airport, Senator 
Coons, earlier this year.
    Senator Coons. It was wonderful, memorable, and 
instructive.
    Ambassador Entwistle. Mr. Chairman, members of the 
committee, I am honored today to appear before you as the 
President's nominee to be the United States Ambassador to the 
Federal Republic of Nigeria. I would like to thank President 
Obama and Secretary Kerry for the confidence they have placed 
in me, and if confirmed I look forward to working with this 
committee and the rest of the Congress to advance our 
relationship with Nigeria.
    In my 32 years in the U.S. Foreign Service, I have had the 
privilege of serving in a number of African posts, currently as 
the U.S. Ambassador to the Democratic Republic of the Congo. I 
have found all of these assignments richly satisfying in that 
they presented an opportunity to work on fundamental issues of 
war and peace, alleviating human suffering, promoting democracy 
and economic growth.
    I would also note that my wife and I met and married in 
west Africa many years ago and thus on a personal level we are 
very excited to be going back.
    Mr. Chairman, I believe strongly that the success of our 
diplomacy depends on our people and if confirmed my highest 
priority will be to ensure the safety, security, and well-being 
of our mission employees and the American community in Nigeria.
    Nigeria is a dominant economic force and political leader 
in west Africa. They have accomplished much in the past 14 
years of civilian rule, but prospects are tempered by many 
challenges, with good governance, civilian security, and 
accountability the keys to realizing Nigeria's enormous 
potential.
    In 2011 they conducted its most successful and credible 
elections since the return to multiparty democracy in 1999. We 
are eager to build on this achievement with the 2015 national 
elections and we hope to work with our Nigerian friends to make 
them even more credible and peaceful. If confirmed, I will 
ensure that we will deploy our resources and engagement in 
support of an inclusive and transparent electoral process. I 
will continue focusing United States efforts on partnering with 
Nigeria to more effectively fight corruption and advance 
transparent and accountable governance.
    Nigeria is the second-largest recipient of American direct 
private sector investment in Africa, our largest trading 
partner in Africa, and our largest export market for United 
States wheat. I am committed to expanding bilateral trade and 
promoting U.S. investment.
    As one of the most influential members of the Economic 
Community of West African States and with more than 6,000 
peacekeepers deployed worldwide, Nigeria has played a key role 
in helping to resolve major political and security disputes in 
west African over the years.
    Right now Nigeria faces a very real threat from extremist 
groups, in particular Boko Haram, which has killed hundreds of 
political and security officials and attacked civilians who 
have congregated peacefully in mosques, churches, and places of 
business. If confirmed, I will work with the Nigerian 
Government to assist security forces to increase public 
confidence in its efforts to address violence and terrorism, 
while addressing the legitimate economic needs of communities 
vulnerable to violent extremism.
    United States engagement with the Nigerian Government is 
done in the context of partnership and reflects the whole of 
government approach that we encourage the Nigerians to pursue. 
Our forum for engagement is the U.S.-Nigeria Binational 
Commission. If confirmed, I am committed to using that body as 
a mechanism to advance our bilateral dialogue. I will be an 
active advocate for America as we advance our bilateral 
relationship with Nigeria and our partnership with the nations 
of the region.
    Mr. Chairman and members of the committee, thank you very 
much for this opportunity. I welcome your questions.
    [The prepared statement of Ambassador Entwistle follows:]

             Prepared Statement of Hon. James F. Entwistle

    Mr. Chairman, members of the committee, I am honored today to 
appear before you as the President's nominee to be the United States 
Ambassador to the Federal Republic of Nigeria. I would like to thank 
President Obama and Secretary Kerry for the confidence they have placed 
in me and, if confirmed, I look forward to working with this committee 
and other Members of Congress to advance our relationship with Nigeria. 
In my 32 years in the U.S. Foreign Service, I have had the privilege of 
serving in a number of African posts, currently as the U.S. Ambassador 
to the Democratic Republic of the Congo. I have found all of those 
assignments richly satisfying in that they presented an opportunity to 
work on fundamental issues of war and peace, alleviating human 
suffering, promoting democracy, and economic growth. In my view, 
nowhere else in the world does the United States have the opportunity 
to make a positive difference than in Africa, and I am deeply honored 
to have an opportunity to do just that once again. I would also note 
that my wife and I met and married in west Africa many years ago and 
thus on a personal level we are very excited about going back.
    Mr. Chairman, I believe strongly that the success of our diplomacy 
depends on our people, and, if confirmed, I will make it my highest 
priority to ensure the safety, security, and well-being of our mission 
employees, and the American community in Nigeria. We have a robust and 
effective interagency presence in Nigeria, and we are committed to 
enhancing our engagement in the critically important and predominantly 
Muslim north.
    Nigeria is a dominant economic force and political leader in west 
Africa. While Nigeria has accomplished much in the past 14 years of 
civilian rule, its prospects are tempered by many challenges, with good 
governance, civilian security, and accountability the keys to realizing 
the country's enormous potential. In 2011, Nigeria conducted its most 
successful and credible elections since its return to multiparty 
democracy in 1999, and we are eager to build on this achievement with 
the 2015 national elections being even more credible and peaceful. If 
confirmed, I will ensure that we deploy our resources and engagement in 
support of an inclusive and transparent process. In 2011 Nigeria passed 
a landmark Freedom of Information Act, allowing citizens to request 
information from government offices, and in recent years, Nigeria has 
joined and become compliant with the principles of the Extractive 
Industry Transparency Initiative, providing greater transparency and 
accountability in the management of the country's natural resources. I 
will continue focusing U.S. efforts on partnering with Nigeria to 
develop measures to more effectively fight corruption and advance 
transparent and accountable governance. Nigeria is the second-largest 
recipient of American direct private sector investment in Africa, our 
largest trading partner in Africa, and our largest export market for 
wheat. I am committed to expanding bilateral trade and promoting U.S. 
investment in Nigeria as a vehicle for economic growth.
    As one of the most influential members of the Economic Community of 
West African States and with more than 6,000 peacekeepers deployed 
worldwide, Nigeria has played a key role in helping to resolve major 
political and security disputes in west Africa from the Liberian and 
Sierra Leone crises in the 1990s to the political problems in Guinea, 
Niger, Cote d'Ivoire, and Mali. Nigeria faces a real threat from 
extremist groups, including Boko Haram, which have killed hundreds of 
political and security officials and attacked civilians who have 
congregated peacefully in mosques, churches, and places of business. In 
order for Nigeria to continue to exercise leadership in the region, 
however, it must address the serious problems of development and 
security at home, particularly in the north. If confirmed, I will work 
with the Nigerian Government to assist security forces to increase 
public confidence in its efforts to address violence and terrorism 
while addressing the legitimate economic needs of communities 
vulnerable to violent extremism.
    U.S. engagement with the Nigerian Government is done in the context 
of partnership, and reflects the comprehensive, whole-of-government 
approach we have asked the Nigerians to pursue. The forum for this 
engagement is the U.S.-Nigeria Binational Commission. If confirmed, I 
am committed to using this body as a mechanism to advance our bilateral 
dialogue. We have a rich agenda with Nigeria, with many challenges and 
opportunities. If I am confirmed as U.S. Ambassador to Nigeria, I will 
be an active advocate for America as we advance our partnership with 
this strategic African country.
    Mr. Chairman, and members of the committee, thank you for the 
opportunity to appear before you today, and I welcome your questions.

    Senator Coons. Thank you, Ambassador. I appreciate your 
service and your willingness to continue your service and to 
return to west Africa.
    Ambassador Entwistle. Thank you, sir.
    Senator Coons. I would now like to invite Ms. Haslach to 
make her opening statement, and then we are going to invite 
each to do a statement in order and then we will do 7-minute 
rounds of questions.

  STATEMENT OF HON. PATRICIA MARIE HASLACH, OF OREGON, TO BE 
   AMBASSADOR TO THE FEDERAL DEMOCRATIC REPUBLIC OF ETHIOPIA

    Ambassador Haslach. Mr. Chairman, Ranking Member Flake, and 
distinguished members of the committee, I am deeply honored to 
appear before you today to seek confirmation as United States 
Ambassador to the Federal Democratic Republic of Ethiopia. I 
appreciate the confidence that President Obama and Secretary 
Kerry have shown in me by this nomination.
    I would like to say that my family could join me, but 
unfortunately they were not able to attend. My mother lives in 
Portland, OR. So I asked my boss, Assistant Secretary Rick 
Barton from the Bureau of Conflict and Stabilization 
Operations, who comes from that other Portland, to come today, 
and he is behind me, as well as my colleague, Jerry White, 
Deputy Assistant Secretary in our State Department's newest 
Bureau.
    If confirmed, I look forward to working with the committee, 
interested members of Congress, and other Americans to 
represent the United States in Ethiopia. Ethiopia is a vital 
partner to the United States in the Horn of Africa, sharing our 
interest in regional stability and strategic objectives. 
Participation in the African Union's counterterrorism efforts, 
for example, supports our objectives in the region.
    Ethiopia deployed troops in Somalia as well as in Sudan and 
has been actively involved in facilitating negotiations between 
the leaders of Sudan and South Sudan in two summits. Ethiopia 
is also host to refugees in the region.
    If confirmed, I intend to build on this partnership. It is 
in the interest of the United States to promote sustainable 
economic development and liberalization of the economy in 
Ethiopia. Prosperity and economic freedom go hand in hand with 
good governance, rule of law, and respect for human rights. 
Ethiopia ranks among the 10 fastest-growing economies in the 
region, averaging 10 percent GDP growth over the past 5 years.
    If confirmed, I will work to facilitate economic reforms 
that could benefit United States trade and investment while 
improving economic freedom and self-sufficiency for Ethiopians. 
If confirmed, I will press the Government of Ethiopia to 
respect the rights of all its citizens regardless of ethni--I 
cannot pronounce that--clan, political views, or religious 
affiliation. If confirmed, I will work with the Ethiopian 
Government to open up the political space and advance reforms 
that promote freedom of expression, association, and rule of 
law. America's steadfast commitment to the advancement and 
protection of human rights and democratic principles around the 
world provides hope for many who seek positive change in 
Ethiopia.
    Some recent events are encouraging. On June 2 of this year, 
for example, 7,000 demonstrators from the Muslim community 
marched peacefully throughout the capital without government 
interference. This was the first political demonstration the 
Ethiopian government officially permitted since 2005.
    If confirmed, a major priority will be to ensure that my 
talented men and women who work for us in Addis Ababa remain 
safe, as well as the American community.
    I am proud to have served my country for a number of years, 
first with the Foreign Agricultural Service, where Ethiopia was 
the first country that I ever had the privilege of working on. 
So I am honored to serve my country and if confirmed I will 
devote myself to persuading the Ethiopian people and their 
government that commitment to human rights and liberalization 
of the economy is in our common future.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to address you. I will leave some time for the 
questions.
    [The prepared statement of Ambassador Haslach follows:]

             Prepared Statement of Hon. Patricia M. Haslach

    Mr. Chairman, Ranking Member Corker, and distinguished members of 
the committee, I am deeply honored to appear before you today to seek 
confirmation as U.S. Ambassador to the Federal Democratic Republic of 
Ethiopia. I appreciate the confidence that President Obama and 
Secretary Kerry have shown in me by this nomination. If confirmed, I 
look forward to working with the committee, interested members of 
Congress, and other Americans to represent the United States in 
Ethiopia.
    Ethiopia is a vital partner to the United States in the Horn of 
Africa, sharing our interest in regional stability and strategic 
objectives. Participation in the African Union's counterterrorism 
efforts, for example, supports U.S. objectives in the region. Ethiopia 
deploys troops alongside the Somali National Army and the African Union 
Mission in Somalia (AMISOM), and contributes nearly all of the troops 
that currently serve as the U.N. Interim Stabilization Force in Abyei 
(UNISFA). Ethiopia is also active in the Sudanese peace process, having 
facilitated negotiations between the leaders of Sudan and South Sudan 
in two summits. If confirmed, I intend to build on this partnership.
    It is in the interest of the United States to promote sustainable 
economic development and liberalization of the economy in Ethiopia. 
Prosperity and economic freedom go hand-in-hand with good governance, 
rule of law, and respect for human rights. Ethiopia ranks among the 10 
fastest-growing economies in the world, averaging 10 percent GDP growth 
over the last 5 years. If confirmed, I will work to facilitate economic 
reforms that can benefit U.S. trade and investment, while improving 
economic freedom and self-sufficiency for Ethiopians.
    If confirmed, I will press the Government of Ethiopia to respect 
the rights of all its citizens regardless of ethnicity, clan, political 
views, or religious affiliation. Politically motivated trials, ongoing 
tensions between some in the Muslim community and the government, and 
restrictions on nongovernmental organizations cause serious concern. If 
confirmed, I will work with the Ethiopian Government to open political 
space, and advance reforms that promote freedom of expression, 
association, and rule of law.
    If confirmed, I will be committed to promoting our efforts and 
policy approach on gender-based violence and discrimination against the 
LGBT community. Domestic violence, especially spousal rape and the lack 
of legal remedy or support for survivors, are challenging problems of 
critical focus. Encouragingly, Ethiopia's national prevalence of HIV/
AIDS declined to 1.4 percent nationally since the President's Emergency 
Plan for AIDS Relief (PEPFAR) began work with Ethiopia in 2005.
    America's steadfast commitment to the advancement and protection of 
human rights and democratic principles around the world provides hope 
for many who seek positive change in Ethiopia. Although many problems 
exist and abuses occur, some recent events are encouraging. On June 2 
of this year, for example, several thousand demonstrators calling for 
the release of political prisoners, an end to interference in religious 
affairs, action on unemployment and corruption, and an end to illegal 
evictions marched peacefully through the capital, without government 
interference. This was the first such political demonstration the 
Ethiopian Government officially permitted since 2005.
    If confirmed, a major priority will be to ensure that the talented 
men and women working for the U.S. mission in Addis Ababa remain safe 
and have every opportunity to succeed as our representatives to 
Ethiopia. Of equal importance is the safety of American citizens living 
and traveling in Ethiopia.
    I am proud to have served my country as a Foreign Service officer 
since 1986, first with the Foreign Agricultural Service and then with 
the Department of State. I have been honored to serve as U.S. 
Ambassador twice, first to the Lao People's Democratic Republic, then 
as U.S. Senior Official for the Asia-Pacific Economic Cooperation forum 
(APEC). In my current position in the Bureau of Conflict and 
Stabilization Operations, I have become quite familiar with the 
challenges the United States faces in the east Africa region. If 
confirmed, I will devote myself to persuading the Ethiopian people and 
their government that commitment to human rights, liberalization of the 
economy, and a transparent, inclusive political process are central to 
our common future.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to address you. I am prepared to respond to any questions 
you may have.

    Senator Coons. Thank you very much.
    I would now like to turn to Mr. Reuben Brigety, nominee for 
the African Union. Mr. Brigety.

    STATEMENT OF REUBEN EARL BRIGETY, II, OF FLORIDA, TO BE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE AFRICAN 
         UNION, WITH THE RANK AND STATUS OF AMBASSADOR

    Mr. Brigety. Chairman Coons, Ranking Member Flake, members 
of the committee, good morning. It is a great honor to appear 
before you today as President Obama's nominee to be the next 
Representative of the United States of America to the African 
Union, with the rank of Ambassador. I am deeply grateful for 
the confidence that President Obama and Secretary Kerry have 
shown in me through this appointment, this nomination.
    If I am confirmed by the Senate, my engagement with the 
African Union, also known as ``the AU,'' will focus on the four 
themes that encompass President Obama's strategy for sub-
Saharan Africa: first, democracy and governance; second, 
economic growth, trade, and investment; third, peace and 
security; and fourth, promotion of opportunity and development. 
If I am confirmed, my tenure will be defined by pursuing and 
attaining concrete advancements in these four priority areas, 
and I look forward to working closely with this committee on 
each.
    My earliest exposure to Africa was listening to stories of 
my father, Dr. Reuben Brigety Senior, about the time he spent 
in Northern Rhodesia, in what is now Zambia, as a volunteer 
with Operation Crossroads Africa in 1963. I am pleased that my 
father is here in the room with us today alongside my mother, 
Dr. Barbara Brigety. I am also happy to be joined today by my 
wife, Dr. Leilie Selassie, and our two young sons whom we 
adore, Roebel, age eight, and Redda, age five, five and three-
quarters.
    Senator Coons. Let the record reflect that a wave was 
returned from the chairman to Roebel and Redda.
    Mr. Brigety. I am also very pleased to be joined by many 
friends in the hearing room today as well.
    My duties in the State Department, as well as my 
experiences in the U.S. military, the nonprofit sector, and 
academia, have given me a diverse skill set that is directly 
relevant to leading the U.S. mission to the AU. From November 
2011 until June 2013 I served as Deputy Assistant Secretary of 
State in the Bureau of African Affairs. My duties there 
included supervising the Office of Regional and Security 
Affairs, which supports our mission to the African Union. In 
this capacity I became familiar with the issues facing the 
African Union, the leadership of the AU Commission, and the 
complexities involved in leading the U.S. mission to the AU.
    In addition, I supervised the Office of Southern African 
Affairs and engaged in democracy and trade promotion activities 
throughout Africa. In short, I have direct experience in each 
of the four themes that I hope to advance at the African Union. 
I am excited at the prospect of assuming this responsibility at 
such a critical time in the history of the African Union and 
indeed of the continent.
    At the 50th anniversary AU summit in Addis Ababa earlier 
this year, Secretary Kerry quoted the African proverb, ``If you 
want to go quickly, go alone; but if you want to go far, go 
together.'' If confirmed, I will be dedicated to helping the 
United States and the African Union to go far together, 
building an Africa that is peaceful, prosperous, and proud.
    I look forward to working with this committee and the 
Congress on these worthy goals. Thank you very much for your 
attention. I look forward to your questions.
    [The prepared statement of Mr. Brigety follows:]

             Prepared Statement of Dr. Reuben E. Brigety II

    Chairman Coons, Ranking Member Flake, members of the committee, 
good morning. It is a great honor to appear before you today as 
President Obama's nominee to be the next Representative of the United 
States of America to the African Union, with the rank of Ambassador. I 
am deeply grateful for the confidence that President Obama and 
Secretary Kerry have shown in me through this nomination.
    If I am confirmed by the Senate, my engagement with the African 
Union (also known as the AU) will focus on the four themes that 
encompass President Obama's strategy for sub-Saharan Africa: (1) 
democracy and governance; (2) economic growth, trade, and investment; 
(3) peace and security; and (4) promotion of opportunity and 
development. If I am confirmed, my tenure will be defined by pursuing 
and attaining concrete advancements in these four priority areas, and I 
look forward to working closely with this committee on each.
    My earliest exposure to Africa was listening to stories of my 
father, Dr. Reuben Brigety, Sr., about the time he spent in Northern 
Rhodesia (in what is now Zambia) as a volunteer with Operation 
Crossroads Africa in 1963. I am pleased that my father is here in the 
room with us today, alongside my mother, Dr. Barbara Brigety. I am also 
happy to be joined today by my wife, Dr. Leelie Selassie, and our two 
young sons whom we adore: Roebel, age 8, and Redda, age 5.
    My duties in the State Department, as well as my experiences in the 
U.S. military, the nonprofit sector, and academia, have given me a 
diverse skill set that is directly relevant to leading the U.S. mission 
to the AU. From November 2011 until June 2013, I served as Deputy 
Assistant Secretary of State in the Bureau of African Affairs. My 
duties there included supervising the Office of Regional and Security 
Affairs, which supports our mission to the African Union. In this 
capacity, I became familiar with the issues facing the African Union, 
the leadership of the AU Commission, and the complexities involved in 
leading the U.S. mission to the AU. In addition, I supervised the 
Office of Southern African Affairs and engaged in democracy and trade 
promotion activities throughout Africa.
    From December 2009 until November 2011, I served as Deputy 
Assistant Secretary of State in the Bureau of Population, Refugees, and 
Migration, where I supervised U.S. refugee programs in Africa. This 
role led me to humanitarian crises across the continent, from Kenya to 
Ethiopia, and from eastern Congo to western Algeria. These travels 
showed me in unforgettable detail the human consequences of Africa's 
conflicts.
    In short, I have direct experience in each of the four themes that 
I hope to advance at the African Union. I am excited at the prospect of 
assuming this responsibility at such a critical time in the history of 
the African Union, and indeed of the continent.
    The United States remains committed to partnering with the AU and 
deepening our cooperation to advance our goals on the continent. We 
continue to work with the AU and support their efforts to resolve 
conflicts on the continent including Sudan, South Sudan, Somalia, and 
Mali. We will work along with the AU on the priorities they have set 
for advancing democratic norms, empowering women, and engaging youth. I 
will also continue our partnership with the AU in its leadership on 
food security issues and our dialogue on promoting trade and investment 
across the continent.
    At the 50th anniversary AU summit in Addis Ababa earlier this year, 
Secretary Kerry quoted the African proverb: ``If you want to go 
quickly, go alone. But if you want to go far, go together.'' If 
confirmed, I will be dedicated to helping the United States and the 
African Union to go far together, building an Africa that is peaceful, 
prosperous, and proud. I look forward to working with this committee, 
and the Congress, on these worthy goals.
    Thank you for your attention. I look forward to your questions.

    Senator Coons. Thank you, Mr. Brigety.
    I would like to invite Stephanie Sanders Sullivan to offer 
her opening comments and any welcome of friends or supporters 
in the audience.
    Ms. Sullivan.

  STATEMENT OF STEPHANIE SANDERS SULLIVAN, OF NEW YORK, TO BE 
              AMBASSADOR TO THE REPUBLIC OF CONGO

    Ms. Sullivan. Mr. Chairman, Ranking Member Flake, members 
of the committee, It is an honor to appear before you today as 
the President's nominee to serve as Ambassador to the Republic 
of the Congo. I appreciate the confidence the President and 
Secretary of State have shown in nominating me for this 
position. I am also grateful for the consideration of this 
distinguished committee. If confirmed, I look forward to 
working with you, other members of Congress and staff, to 
protect and advance American interests in the Congo.
    I would like to introduce my husband, John, and our sons, 
Dan and Scott, who join me here today. John accompanied me to 
Cameroon and Ghana, also served in the Peace Corps in the 
Democratic Republic of the Congo, and our children have happy 
memories of our 4 years in Accra.
    I have spent nearly half of my 30-year career working on 
African issues, starting with my service as a Peace Corps 
Volunteer some 50 miles from Brazzaville, across the Congo 
River. If confirmed, I look forward to serving in the region 
again.
    The Congo offers many opportunities for positive United 
States engagement. The country has largely recovered from the 
1997 civil war and it is now sub-Saharan Africa's fourth-
largest oil exporter. President Sassou Nguesso's development 
strategy, ``Congo Vision 2025,'' targets 2025 as the year in 
which the Congo will become an emerging economy.
    Our bilateral relationship aims to promote three mutually 
beneficial goals: first, strengthen democratic institutions; 
second, promote economic development; and third, improve 
regional security. The first goal is to strengthen democratic 
institutions. This includes the promotion of civil and 
political rights. The government carried out legislative 
elections in 2012 in an atmosphere of relative calm. In the 
runup to Congo's Presidential elections in 2016, the United 
States is focused on strengthening civil society groups that 
advocate government accountability and transparency.
    If confirmed, Mr. Chairman, I will encourage the Government 
of the Congo to enhance democratic institutions and continue to 
implement judicial reforms.
    The second goal is to promote economic development. To 
achieve debt relief, the Congo committed itself to reforms, 
including more rigorous fiscal discipline. This year Congo was 
found compliant under the Extractive Industries Transparency 
Initiative. However, more remains to be done. If confirmed, I 
will vigorously encourage improvements to the business climate 
and support U.S. private sector engagement. I know we have 
multiple programs for development in the country, including in 
the health and environmental sectors.
    The third goal is to improve regional security. Last year's 
munitions depot explosions highlighted new opportunities for 
security cooperation and disaster management. We also aim to 
further professionalize the Congolese Armed Forces and improve 
maritime security, which is critical to the Congo's offshore 
petroleum sector, and antipiracy efforts in the Gulf of Guinea. 
I note the U.S. Coast Guard has certified the Congo's deep 
water port under the international port security program.
    The Republic of the Congo has begun to play a more active 
role in facing regional security conflicts, from sending 
peacekeepers to the Central African Republic and to assuming 
the rotating presidency of the International Conference on the 
Great Lakes this fall. These reinforce all of our regional 
security objectives.
    If confirmed, I would enthusiastically pursue my mandate to 
protect United States citizens and interests in the Congo and 
enhance our relationship between the two nations and peoples.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today and I look forward to your questions.
    [The prepared statement of Ms. Sullivan follows:]

            Prepared Statement of Stephanie Sanders Sullivan

    Mr. Chairman, Ranking Member, and members of the committee, it is a 
privilege and honor to appear before you this morning as the 
President's nominee to serve as United States Ambassador to the 
Republic of the Congo. I appreciate the confidence the President and 
Secretary of State have shown in nominating me for this position. I am 
also grateful for the consideration of this distinguished committee. If 
confirmed, I look forward to working with you and other Members of 
Congress, and congressional staff, to protect and advance American 
interests in the Republic of the Congo.
    If I may, I'd like to introduce my husband John and our sons Dan 
and Scott, who are here with me today. John accompanied me to both 
Cameroon and Ghana. Our children have happy memories of our 4 years in 
Accra. I have spent nearly half of my 30-year career working on African 
issues, starting with my service as a Peace Corps Volunteer, some 50 
miles from Brazzaville, across the river in the Democratic Republic of 
the Congo. If confirmed, I look forward to serving in the region again.
    The Republic of the Congo offers many opportunities for positive 
United States engagement. The country has largely recovered from the 
1997 civil war, thanks to rising oil revenues that have funded 
reconstruction and infrastructure projects. The Republic of the Congo 
is sub-Saharan Africa's fourth-largest oil exporter. President Sassou-
N'Guesso's development strategy known as ``Congo Vision 2025'' targets 
2025 as the year that the Republic of the Congo will become an emerging 
economy.
    Our bilateral relationship with the Republic of the Congo aims to 
promote three mutually beneficial goals: to strengthen democratic 
institutions; promote economic development; and improve regional 
security.
    The first goal is to strengthen democratic institutions. This 
includes the promotion of civil and political rights. The government 
carried out legislative elections in mid-2012, in an atmosphere of 
relative calm. In the runup to the Republic of the Congo's Presidential 
elections in 2016, the United States is focused on strengthening civil 
society groups that advocate government accountability and 
transparency. If confirmed, Mr. Chairman, I will encourage the 
Government of the Republic of 
the Congo to enhance democratic institutions and continue implementing 
judicial reforms. We note that recent improvements in the Republic of 
the Congo's legal framework have resulted in more effective enforcement 
of laws against human trafficking.
    The second goal is to promote economic development. To achieve debt 
relief, the Government of the Republic of the Congo committed itself to 
reforms, including changes in government procurement practices, more 
rigorous fiscal discipline, and more effective budget implementation. 
This year, the Republic of the Congo was found compliant under the 
Extractive Industries Transparency Initiative, representing steps 
toward transparency in the Republic of the Congo's main revenue source, 
petroleum. However, more remains to be done. If confirmed, I will 
vigorously encourage improvements to the business climate and support 
U.S. private sector engagement.
    As a significant contributor to the Global Fund, the United States 
is working with the Republic of the Congo and other partners to improve 
the health of the Congolese people, half of whom are under the age of 
15.
    Sound management of the environment is another important area of 
partnership. The United States supports several regional environmental 
initiatives. Enhanced transparency in forest management has forged 
linkages between climate change mitigation, good governance, and 
economic development.
    The third goal is to improve regional security. The munitions depot 
explosions in Brazzaville in 2012, which killed more than 200 people, 
highlighted new opportunities for security cooperation with the United 
States in disaster management. Our programs aim to further 
professionalize the Congolese Armed Forces and improve maritime 
security, which is critical to the Republic of the Congo's offshore 
petroleum sector and antipiracy efforts in the Gulf of Guinea. Indeed, 
in 2011, the U.S. Coast Guard certified the deep-water port of Pointe-
Noire under the International Port Security Program, as maintaining 
effective antiterrorism measures.
    The Republic of the Congo has begun to play a more active role in a 
region that faces chronic regional security conflicts. The Republic of 
the Congo has sent peacekeepers to the Central African Republic and 
will assume the rotating presidency of the International Conference on 
the Great Lakes Region (ICGLR) in the fall of 2013. Talks to resolve 
the conflict in the eastern DRC have been held under the auspices of 
the ICGLR. Continued U.S. engagement with the Republic of the Congo on 
security issues will advance our broader regional goals of promoting 
peace and stability, countering terrorist groups, and protecting 
civilians from conflicts.
    If confirmed, I would enthusiastically pursue my mandate to protect 
U.S. citizens and interests in the Republic of the Congo. I would use 
all our public diplomacy tools to advance our goals of strengthening 
democratic institutions, promoting economic development, and improving 
regional security, while enhancing the relationship between our two 
nations and peoples.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I look forward, if confirmed, to serving the United States in 
Brazzaville, the Republic of the Congo. I would be happy to respond to 
any questions.

    Senator Coons. Thank you very much, Ms. Sullivan.
    Last but not least, we would like to turn to Mr. Patrick 
Gaspard for his opening statement and welcome of any family and 
friends who might be present.
    Mr. Gaspard.

    STATEMENT OF PATRICK HUBERT GASPARD, OF NEW YORK, TO BE 
           AMBASSADOR TO THE REPUBLIC OF SOUTH AFRICA

    Mr. Gaspard. Thank you. Mr. Chairman, Ranking Member Flake, 
and members of the committee, I am honored to appear before you 
today as the President Obama's nominee to serve as the next 
United States Ambassador to the Republic of South Africa. I am 
appreciative of the trust placed in me by President Obama and 
Secretary of State Kerry.
    Please allow me to acknowledge and thank my son and 
daughter, Indigo and Cybele, and my wonderful wife, Raina, who 
has worked as an educator and who takes to heart our obligation 
to provide opportunity for all young people. Let me especially 
thank Senator Schumer for his earlier very kind and generous 
introduction and for his principled leadership.
    South Africa occupies a central place in my political 
development. My forays into the early antiapartheid movement as 
an activist and the success of that movement in raising the 
consciousness of the world gave me an early sense that justice 
can be attained by ordinary people who labor with aspirational 
urgency.
    I was blessed to travel to South Africa shortly after the 
release of Nelson Mandela and developed an abiding affection 
for its spirited people and culture. Should I be confirmed, it 
will be my great fortune to represent this country in our 
efforts to partner with the South African government as it 
strives to improve the economic conditions of its citizens and 
as it helps to lead global efforts to increase security and 
prosperity for all.
    The President's recent trip to South Africa highlighted 
opportunities and ongoing challenges. Most importantly, the 
President expressed the reality that Americans have a shared 
interest in these outcomes. I am excited to take on this 
mission at a moment when South Africa is helping to shape a 
region that is finally close to receiving more foreign 
investment than foreign aid.
    Should this committee recommend my confirmation, my service 
in government, politics, and the trade union movement will make 
me a successful envoy at this critical juncture when South 
Africa is negotiating the relationship between labor and 
industry while tackling stubborn income disparities.
    South Africans are rightly proud of the progress they have 
made in their two decades of post-apartheid governance. They 
have tackled innumerable problems with unmatched resolve. The 
much-documented crisis in HIV, sustainable housing, and 
widespread poverty have galvanized the nation into noteworthy 
accomplishments. South Africa is currently administering 
antiretroviral treatment to a staggering 1.6 million people and 
the government has risen to take responsibility for PEPFAR care 
and treatment programs in the next 5 years. Entrenched poverty 
is a persistent drag, but the country has developed 
institutions that routinely deliver support grants for children 
and pensions for millions. There is much that needs 
improvement, but there is a foundation for lasting change.
    The United States has an ongoing vital role to play in 
President Zuma's efforts to improve the quality of and access 
to education, the struggle to combat high unemployment, and by 
extension the epidemic in crime. Beyond our aid, though, our 
technical assistance is a great contribution, but our greater 
contribution will be in stimulating private sector investment 
and trade. This will be a major priority for my mission if I am 
confirmed.
    As we move toward negotiations on the renewal of AGOA, we 
must work with our South African partners to enact policies 
that benefit workers and businesses on both sides of the 
Atlantic. South Africa has a leadership influence that extends 
throughout the continent, playing a key role in Madagascar, the 
DRC, Sudan, South Sudan, and in ensuring that Zimbabwe's 
upcoming elections are peaceful and credible. We will continue 
to partner with South Africa on these and many other regional 
and global issues.
    As we take pause collectively and focus on President 
Mandela's legacy--and he is in all of our hearts right now--it 
is altogether right to take in the vista of progress, but we 
must make sure to continue to work closely with South Africa to 
attain the summit of achievement.
    Mr. Chairman, Ranking Member Flake, committee members, 
thank you for this opportunity to address you. If I am 
confirmed, I look forward to working with all of you to 
strengthen this important bilateral relationship.
    [The prepared statement of Mr. Gaspard follows:]

                Prepared Statement of Patrick H. Gaspard

    Mr. Chairman and members of the committee, I am honored and humbled 
to appear before you as President Obama's nominee to serve as the next 
United States Ambassador to the Republic of South Africa. I am deeply 
appreciative of the trust placed in me by President Obama and Secretary 
of State Kerry at this critical juncture in our bilateral relationship. 
Please allow me a pause to acknowledge and thank my son and daughter, 
Indigo and Cybele, and my wife, Raina, who has worked as an educator 
and who takes to heart our obligation to provide opportunity for all 
young people.
    South Africa has long occupied a central place in my political 
development. My forays into the antiapartheid movement as a young 
activist and the success of that movement in raising the consciousness 
of the world gave me an early sense that justice can be attained by 
ordinary people who labor with aspirational urgency. I was blessed to 
travel to South Africa shortly after the release of Nelson Mandela and 
immediately developed an abiding affection for its spirited people and 
culture. Should I be confirmed, it will be my great fortune to 
represent the United States in our efforts to partner with the South 
African Government as it strives to improve the economic conditions of 
its citizens and as it helps to lead efforts throughout the continent 
to increase security and prosperity for all.
    The President's recent trip to South Africa highlighted 
opportunities and ongoing challenges. Most importantly, the President 
expressed the reality that Americans have a shared interest in these 
outcomes. As I consider the arc of the continent of my birth, I'm 
excited to take on this mission at a moment when South Africa is 
helping to shape a region that is finally close to receiving more 
foreign investment than foreign aid. Should this venerable committee 
recommend my confirmation, my experiences in government, politics, and 
the trade union movement will all make me a successful envoy at this 
transformative crossroads. My management experience and leadership in 
both grassroots and national politics, my leadership position on the 
President's Transition Committee and my years as an officer with the 
largest local union in America, have all equipped me with an 
appreciation for operational efficacy which is essential for the 
principal manager of one of the largest missions in Africa. 
Furthermore, my service at the White House and with the health care 
workers union allowed me to engage in public policy that had a clear 
and discernible impact on the lives of average Americans and 
disadvantaged communities. This knowledge would be employed in my 
diplomatic career in a country that is negotiating the relationship 
between labor and industry while tackling stubborn income disparities.
    South Africans are rightly proud of the progress they have made in 
their two decades of post-apartheid governance. They have tackled 
innumerable problems with unmatched resolve. The much-documented crisis 
in HIV care, sustainable housing, and widespread poverty have 
galvanized the nation into noteworthy social accomplishments. South 
Africa is currently administering antiretroviral treatment to a 
staggering 1.6 million people. Delivery capacity has been improved to 
the remotest regions of the country. And the government has risen to 
take responsibility for PEPFAR care and treatment programs in the next 
5 years. On the housing front, the government has built over 3 million 
homes to provide shelter for over 13 million people. Entrenched poverty 
is a persistent drag, but the country has developed institutions that 
routinely deliver support grants for children and pensions for 
millions. There is much that needs improvement but there is a 
foundation for lasting change.
    The United States has an ongoing vital role to play in President 
Zuma's efforts to improve the quality and accessibility of education; 
the struggle to combat high unemployment and by extension the epidemic 
in crime; and the challenge of income inequality. Beyond our aid 
assistance and technical expertise, our greatest contribution will be 
in stimulating private sector investment and trade. This will be a 
major priority for my mission if I am confirmed. I am pleased that more 
than 600 American companies are already based in South Africa and I 
will work to see that number grow. As we move toward negotiations on 
the renewal of the African Growth and Opportunity Act we must work with 
our South African partners to enact policies that benefit workers and 
businesses on both sides of the Atlantic.
    South Africa has a leadership influence that extends throughout the 
continent, playing a key role in Madagascar, the DRC, Sudan and South 
Sudan and in ensuring that Zimbabwe's upcoming elections are peaceful 
and credible. We will continue to partner with South Africa to resolve 
conflicts, to enhance our counterterrorism cooperation, to encourage 
nonproliferation, to combat wildlife trafficking, and to facilitate 
intraregional trade. South Africa's reach is indeed global in scope as 
they advance policies at the U.N., AU, G20 and the BRICS. As the world 
has collectively focused on Nelson Mandela's legacy, and he is in all 
of our hearts right now, it's altogether right to pause to take in the 
vista of progress but to then determinedly press on knowing the summit 
is attainable. In that spirit, we must work with South Africa to engage 
the next generation of leaders as is the focus of President Obama who 
of course hosted the Young African Leaders Institute in Johannesburg.
    Mr. Chairman, committee members, thank you for this opportunity to 
address you today and thank you for your thoughtful consideration of my 
nomination. If I am confirmed, I look forward to working with you all 
to strengthen this important bilateral relationship. I look forward to 
answering your questions.

    Senator Coons. Thank you very much, Mr. Gaspard.
    I will begin now our rounds, several rounds I suspect, of 7 
minutes each of questions in succession to our different 
nominees.
    First, I would like to just open by thanking all of your 
family members, spouses, children, coworkers, colleagues who 
are present here. I am very conscious that the careers on which 
you have already dedicated decades of service to this country, 
often overseas, often in difficult and demanding posts, are 
possible only because of the support of your families. So I 
just want to start by thanking your families who have come, and 
in particular those who are paying rapt attention and behaving 
very well, Mr. Brigety, in case you had any concern about that. 
[Laughter.]
    If I might start, Ambassador Entwistle, you are choosing to 
go from one challenging and engaging assignment to another and 
I appreciate the seasoning and seniority that you will bring to 
our relations in Nigeria. You served in the DRC during a 
particularly flawed and difficult Presidential election. As you 
commented in your opening statement, Nigeria has recently had 
one of its most successful elections ever and moving toward 
another round of credible, transparent elections is a vital 
part of the steady progress toward a sustainable democracy.
    What sorts of lessons do you bring from the experience in 
DRC? What can the United States do to ensure steady progress 
toward a free and fair electoral system in Nigeria? And how 
relevant is this in a country that faces many other more 
fundamental security challenges and economic opportunities?
    Ambassador Entwistle. Thank you, Senator. Indeed, the 
elections in the DRC were not what we hoped for. They were not 
what the Congolese people hoped for. Hindsight is always 
brilliant. Looking back, I think one of the first lessons would 
be that, given the size of the country, the lack of 
infrastructure, all of us in the international community were 
focused on getting things ready for the voting process itself, 
making sure that everyone could vote, put the ballot in the box 
in every corner of that vast country. With the benefit of 
hindsight, we should have been more focused on the next step: 
What happens in the counting centers? Because it is very clear 
to me that that is where the process fell down, in the counting 
centers.
    The other lesson I would learn, and it is not a 
particularly original one, is the importance of what we say as 
the U.S. Government. Looking back, I think we more or less said 
the right things at the right moments, but I remain very 
attuned to that. Having the privilege of being the U.S. 
Ambassador gives you a pedestal from which to speak on these 
issues.
    So as we move forward toward elections in Nigeria, if 
confirmed, I would take with me a focus on the whole process, 
not just day one, and be very judicious and put a lot of time 
and energy into when you speak out in public as the U.S. 
Ambassador.
    Senator Coons. Thank you, Ambassador. I am also mindful of 
the importance of what we say. We do occasionally hold 
hearings, adopt resolutions, and hope that they are heard in 
some way. So I look forward to working with you, the Assistant 
Secretary, and obviously the Secretary to ensure that we are 
speaking in concert, in harmony rather than in dissonance.
    I think in the runup to the election in Zimbabwe, electoral 
outcomes in Kenya and in Senegal, the American voice has 
mattered quite a bit. In the last Nigerian elections, the 
strength of the Electoral Commission was particularly vital and 
Senator Isakson and I in meeting with the immediate past chair 
of the Electoral Commission were struck at how successfully 
they deployed a nationwide network of volunteers to use a text 
system on cell phones to validate what was being done at 
polling stations and counting centers. I am hopeful that a 
comparable system will be in place at this upcoming election.
    If I could, I would ask for a comment on that and then one 
other topic. As to Boko Haram, one of the most striking 
conversations I had was with the archbishop and the imam of the 
central mosque in Abuja during a week when there had been a 
Boko Haram attack, literally 2 days before we arrived and 3 
days after we left. It was that archbishop's cathedral that was 
the focus of a really deadly Christmas Eve attack.
    How can we work more effectively to achieve some measure of 
development and stability in the north and to reduce the 
tension, and how can we help support the security forces in 
respecting human rights and in being more effective in 
combatting Boko Haram?
    Ambassador Entwistle. Senator, the United States and 
Nigeria have been friends and partners for a long time and that 
will continue for a long time. But I think the true test of 
friendship and partnership are are you there when things are 
not going well. As you know, they face a serious security issue 
in the north with Boko Haram.
    It seems to me that we need to help them with their 
security response to Boko Haram. A key aspect of that will be 
having the kinds of conversations that friends and partners 
have about appropriate conduct of their operations against Boko 
Haram. We have all seen the disturbing reports of heavy-
handedness by the military, and the problem with that and what 
I look forward to discussing with them if confirmed is making 
sure that their response does not alienate more people in the 
north.
    So those are the kinds of discussions that we need to have 
as friends and partners. You put your finger, I think, on 
another key aspect, which is this is happening in a part of the 
country that is historically underdeveloped compared to the 
rest of the country. In preparing for this I was surprised to 
read that northern Nigeria I think has some of the worst health 
statistics in all of Africa.
    So it is making sure that the security force, which is 
entirely appropriate--that response does not make things worse 
rather than better. It is helping them to develop the northern 
part of their own country. It is helping develop education. It 
is helping young girls go to school. It is all sorts of things 
that hopefully will lift up northern Nigeria and now allow Boko 
Haram and related groups to exploit what is happening in 
northern Nigeria right now.
    Senator Coons. Thank you. I look forward to your leadership 
on this and to working with you. I think Nigeria is a country, 
as you mentioned in your opening, of enormous opportunity for 
us, our largest export market for wheat in Africa, for example, 
a major source of oil and other petroleum products. But I also 
think there are real mutual opportunities in manufacturing, in 
clean energy and sustainability. So I look forward to working 
with you to find ways to further that.
    Senator Flake.
    Senator Flake. Well, thank you, Mr. Chairman.
    Thank you all. I want to echo what the chairman said about 
families. I know it is difficult. I lived about 3 years of my 
life in southern Africa before any meaningful Internet. I think 
it is a little easier today, but my guess is--Ms. Sullivan, 
your family's experience in Accra, when was that?
    Ms. Sullivan. We were there from 1997 to 2001, sir.
    Senator Flake. A little more difficult then than it would 
be now, I assume, with communications and Skype and everything 
else with the extended family. It does make it easier, but it 
is still difficult. So I appreciate the sacrifice that you make 
and your families make. I am glad that they are here, and the 
extended family and friends as well. It speaks well for all of 
you to have such good support.
    With regard to--let us talk about the Gulf of Guinea, Mr. 
Entwistle and Ms. Sullivan. Is the United States doing enough 
in terms of maritime security? You mentioned that the port 
there is certified. Is that something that has to happen every 
year? Is that an ongoing effort by governments there, regional 
organizations? Is the AU sufficiently concerned?
    I just want to make sure that we do not get to a situation 
like we did in the Horn of Africa. Is the United States doing 
enough? I will speak to those who are representing countries 
that border the Gulf.
    Mr. Entwistle.
    Ambassador Entwistle. Thank you, Senator. I think we are 
very involved in this. It has an immediate effect on us 
because, as we discussed when I had the privilege of calling on 
you, we have U.S. oil companies who have offshore platforms. So 
this is not just a theoretical issue. It is a very real issue 
for American companies who operate in Nigeria.
    We are working with the appropriate Nigerian security 
forces to improve their offshore response. We have a good bit 
of success with that, but there is a lot more to do, not just 
offshore in Nigeria, but throughout the Gulf of Guinea. But my 
understanding is we are making good progress.
    Senator Flake. Ms. Sullivan.
    Ms. Sullivan. We have a very--compared to the size of the 
mission in Brazzaville--we have a fairly robust engagement with 
AFRICOM, and regular ship visits, joint exercises with the 
Congolese navy. I think that the regular visits by the Coast 
Guard to recertify--I am not quite sure of the exact frequency 
that that occurs, but I can certainly take that question back 
and give you a proper answer.
    [Ms. Sullivan's written answer to Senator Flake's question 
follows:]

    Thank you for allowing me to add to the comments I made about 
Congo's contribution to maritime security in the Gulf of Guinea at my 
July 24 confirmation hearing. The U.S. Maritime Transportation Security 
Act of 2002 mandates that the U.S. Coast Guard (USCG) evaluate the 
effectiveness of antiterrorism measures in foreign ports when ships 
from those ports dock in the United States. In October 2011, the USCG 
determined Congo was maintaining effective antiterrorism measures in 
its ports and was in compliance with the International Ship and Port 
Facility Security (ISPS) Code. U.S. legislation, the Maritime 
Transportation Security Act, requires the Coast Guard to visit all 
countries that trade with the United States on a biennial basis to 
assess their compliance with the International Maritime Organization's 
ISPS Code. Concerns about Congolese capacity to maintain a high 
standard for port security led to follow up visits to the Republic of 
the Congo.
    These visits determined that the Congo was maintaining effective 
antiterrorism measures in its deepwater ports and was in compliance 
with the International Ship and Port Security (ISPS) Code. As part of 
its compliance with the ISPS Code, the Congo is now required to undergo 
a biennial Country Assessment (CA) of its port security. Previously it 
was required to undergo an annual CA.
    The assessment is only one piece of Coast Guard assistance and 
engagement with the Republic of the Congo. The improvements Congo-
Brazzaville has made to its ports are part of a larger strategy to 
integrate Congolese maritime operations, to enhance economic 
development and competitiveness, to improve its ability to control its 
territorial waters, and to combat piracy along with other countries 
around the Gulf of Guinea. Congo is an effective regional partner in 
regard to port security. The Republic of the Congo hosted, with U.S. 
support, a Regional Port Security Workshop in Pointe Noire that was 
attended by officials from Gabon, Cameroon, the Democratic Republic of 
the Congo and Benin. Earlier this year, the Republic of the Congo also 
stood up a maritime operations center in Pointe-Noire. The center is 
staffed by personnel from countries along the West African Coast under 
the auspices of the Economic Community of Central African States.
    In addition, military-to-military cooperation remains an important 
point of engagement with the Congolese Government. The Republic of the 
Congo is active in the Africa Partnership Station (APS), the 
international maritime security cooperation program led by the U.S. 
Naval Forces Africa that provides intensive training through 
multinational joint exercises and hands-on practical courses. Just this 
year, a Congolese littoral interdiction vessel successfully 
participated in U.S Africa Command's exercise that brought allied 
navies together to train regional forces in coordinating counterpiracy 
efforts.
    The Republic of the Congo remains proactive and attentive to U.S. 
engagement in all areas of security cooperation. If confirmed, I look 
forward to working in partnership with the Government of the Republic 
of the Congo on maritime security issues.

    Senator Flake. Mr. Brigety, is there a role for the AU in 
this regard?
    Mr. Brigety. Senator, thank you for the question. Indeed 
there is. As you well know, maritime security is a major issue 
for the continent, not only for the security aspects, but also 
for the impact on commercial activity.
    With regard to the Gulf of Aden and the Red Sea, as you 
well know, through a robust international effort in which the 
United States participated we have essentially reduced that 
piracy level almost to be negligible. Yet, even as that has 
happened, the rate of piracy in the Gulf of Guinea has 
increased. There have been talks between the AU and a variety 
of other partners, principally NATO and others, to see what 
more can be done in order to enhance maritime security in the 
Gulf of Guinea.
    I should also say that on the staff of the U.S. mission to 
the AU is a Navy captain, O6, whose sole job is to advice on 
maritime security both to the Ambassador and also to the AU. So 
this will continue to be a great focus of mine if I am 
confirmed.
    Senator Flake. Thank you.
    Mr. Gaspard, with the Zimbabwe elections coming up, I think 
South Africa has played a more useful role this time in the 
leadup to the elections in statements that have been made by 
the South African Government. What can we do in terms of the 
mission in the outcome--you will get there after the Zimbabwean 
elections have happened--to ensure that we can help as much as 
possible aid that transition to democracy? All of us know that 
those countries in the region, particularly South Africa, will 
have the biggest impact on where we go in Zimbabwe. What can we 
do and how can we help South Africa help Zimbabwe in this 
regard?
    Mr. Brigety. Thank you for your question, Senator. As 
Ambassador Linda Thomas-Greenfield rightly pointed out earlier, 
we need to make certain that we are doing all that we can to 
increase capacity between election cycles and to be mindful of 
transparency issues and democratic capacity issues when 
elections are not being litigated.
    You are right, Senator, South Africa has played a helpful 
and useful role of late. Of course, we should all be encouraged 
by the March referendum in Zimbabwe, which was relatively 
peaceful and enabled the people of Zimbabwe to go to the polls 
to vote for term limits and other electoral reforms. Should 
there be challenges in this upcoming election, I am certain 
that our Ambassador in Zimbabwe, working with forces there in-
country and then partnering, of course, with us in South 
Africa, will do all we can to elevate any crisis that arise 
from that outcome and will make absolutely certain that in our 
conversations with the South African Government we continue to 
put particular emphasis on rule of law issues in Zimbabwe.
    I should note that South Africa has its own economic and 
political interests in a successful outcome in Zimbabwe. We all 
of course are aware of some of the turbulence that has taken 
place along the border with the recent refugee crisis in South 
Africa. So it is incumbent upon the South African Government to 
be particularly mindful of outcomes in Zimbabwe.
    Senator Flake. Thank you.
    Ms. Haslach, with regard to--you mentioned our interest in 
helping the government there increase the political space that 
is offered, that people operate under in Ethiopia. How is the 
United States viewed when we offer advice in that regard? Is it 
positively or negatively, and if it is negatively what can we 
do to change that? How are we viewed?
    Ambassador Haslach. Senator, thank you for your question. I 
think we have a strong relationship with Ethiopia. Coming back 
to the question that was asked earlier of Ambassador Linda 
Thomas-Greenfield with regard to China, the example that 
America sets of our steadfast commitment to the advancement and 
the protection of human rights, democratic principles around 
the world, we think that this actually provides hope for the 
Ethiopian people.
    I will certainly raise any issues we have with concern to 
human rights and governance regularly if confirmed, like 
Ambassador Booth is currently doing. We were very happy to see 
that they had a historic peaceful and constitutional transition 
with the last turnover of power after the death of Prime 
Minister Meles. We will continue to use our private 
conversations as well as make public statements when we feel it 
is necessary to speak out in support of our principles.
    We will also use formal mechanisms. We have a bilateral 
formal working group on democracy and governance issues. And we 
will use our U.S. assistance programs. Our USAID has a two-
pronged approach. One is trying to bring some of these 
principles into our health, education, and business assistance 
programs, as well as looking for opportunities with civil 
society and communities on the ground.
    So it will be a multipronged approach, and I expect 
sometimes the Government of Ethiopia may not be pleased with 
some of the statements and things that we say. We do not always 
agree, but we talk to each other. We have a good dialogue. We 
have a strong relationship.
    Thank you.
    Senator Flake. Thank you. I thank you all, and I appreciate 
you coming by my office and I enjoyed the private conversation 
and look forward to working with each of you in your new 
capacity.
    Thank you.
    Senator Coons. Thank you, Senator Flake, and thank you for 
your investment of time and your thoroughness in preparing for 
this hearing today.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair and members of the 
committee.
    I will begin also with my congratulations to you for your 
nominations and thank you for your service. I had an 
opportunity recently to return from a congressional delegation 
visit to the Middle East and Afghanistan, where I interacted 
with a lot of our ambassadorial State Department, USAID 
employees. I am just struck again and again by the challenges 
of the work, but even the challenges just of physically moving 
so often, at cost to family. I know there are up sides. I know 
there are wonderful experiences as well.
    But as somebody who has been in public life for 20 years 
and always lived within a 2\1/2\ mile radius of other locations 
where I have lived, I really honor the incredible sacrifice 
that the family members make.
    I want to offer a special congratulations to my friend, 
Patrick Gaspard, somebody I really admire greatly. I am very 
excited to see you on this distinguished panel.
    I am not on the Africa Subcommittee of the Foreign 
Relations Committee; I do not have the expertise that Chris and 
Jeff have. But I have a passion for your work in a slightly 
different way. I think it has been an American tradition to 
have a foreign policy that moves along an east-west axis. We 
had a foreign policy that was largely focused on Europe. That 
was then changed to a foreign policy--and even when we were 
engaged in Africa or, for example, in Latin America, the Monroe 
Doctrine, it was largely a European foreign policy, with the 
Southern Hemisphere nations sort of being an afterthought or a 
theater of operations when the intellectual concern was really 
Europe.
    We then moved to a foreign policy in the aftermath of World 
War II that was largely focused on the Soviet Union, and again 
in Africa and Latin America we were engaged, but those 
engagements were essentially side consequences of a focus on an 
east-west foreign policy.
    We have announced a pivot to Asia that I think is largely a 
focus on China, again an east-west focus. It is very important 
that we focus east-west, whether it is the Middle East or China 
or Europe, but I just have a feeling that the world is going in 
such a way that America needs a foreign policy that is every 
bit as much about north-south as it is about east-west.
    I am passionate about the Americas, but your work in Africa 
will involve that same passion of creating a foreign policy in 
tandem with our President, Secretary of State, Congress that is 
not about Southern Hemisphere countries as afterthoughts or 
attachments to an east-west foreign policy, but really respects 
them for what they are, who they are, and especially what they 
might be.
    So I will just start with that observation and stop. If any 
of you might have comments on that, I would love to hear it. 
But I do think we are entering a new phase of our history where 
having a foreign policy that has a north-south axis would be 
the right thing for us to do. As people who have devoted a lot 
of your time to countries on a north-south axis, I would love 
to hear any comments you might have about that.
    Ambassador Entwistle. Well, Senator Kaine, thank you. What 
I find works well where I have the honor of serving now in the 
Congo and everywhere else I have served, and I think it will be 
the case in Nigeria as well if confirmed, is that what works 
very well is just talking about our own experience, our own 
history, talking about what has gone well for us, what has not 
gone well, to acknowledge that our own experience of nation-
building has been difficult and taken a long time. I find in 
particular that is something that Africans relate to.
    As I get ready for Nigeria, I am struck by the similarities 
in our history. Both of our nations, as you know, had 
devastating civil wars. We are both coping with how do you deal 
with extremist groups that threaten us, but in a way that 
promotes the rule of law and human rights. We are both looking 
at how do you extract energy, but in a way that respects the 
people who live in those regions and the environment.
    So I think if we tell our own story, allow Africans to draw 
the lessons that they wish to from our experience, I think that 
is an incredibly beneficial approach and I think it generally 
works very well.
    Mr. Brigety. Senator, thank you for your comment. If I may 
add to Ambassador Entwistle's intervention, we have signed a 
historic agreement with the African Union on February 1 of this 
year. A memorandum of understanding was signed with the current 
chairperson of the African Union, Dr. Dlamini Zuma, and former 
Secretary of State Hillary Clinton on February 1, elevating the 
nature of our partnership to that of a strategic partnership 
with the African Union that will focus on the four broad areas 
that I articulated in my testimony.
    The signature of that memorandum of understanding suggests 
that we understand as a country the strategic importance of 
Africa, the strategic importance of the African Union, and that 
we want to be equal partners in building a continent that is 
peaceful and prosperous, not only because it is the right thing 
to do, but also because it is in our interests.
    I should also say that there are a number of enormous 
indicators that I think our public needs to be aware of. Six of 
the ten fastest growing economies in the world are in Africa. 
Some 60 percent of the population of the continent is under the 
age of 30. In many ways it really is the continent of the 
future, and I think that we are hopeful that a variety of 
interventions that our government is making will position us 
well to have a very strong partnership with the continent in 
the decades to come.
    Senator Kaine. Ms. Haslach.
    Ambassador Haslach. Senator Kaine, thank you very much. 
When I first started working for the Federal Government, I 
worked on Ethiopia. It was in the mid-eighties during a very 
bad sub-Saharan drought. I was amazed when I went back when I 
was working on the Feed the Future Initiative how much progress 
had been made in the area of agriculture. A lot of that is due 
to our assistance and our providing help in that area.
    We share the same goals that Ethiopia has with regard to 
development and investment. In fact, in their 5-year 
development plan, they hope to meet all of the Millennium 
Challenge goals. They hope to become a middle-income country. I 
think that is where we really should be focusing a lot of our 
efforts and energy, and that is an area where I think we can 
share a lot of our experiences in helping them to open up their 
economy in so many ways for the prosperity of both Ethiopia as 
well as Africa as well as the United States.
    Thank you.
    Senator Kaine. Mr. Gaspard.
    Mr. Gaspard. Senator Kaine, if I can, first thank you for 
your incredibly generous comments at the top, and thank you so 
much for your continued friendship and your phenomenal 
leadership.
    I think it is incredible actually, Senator, when you 
consider the arc of very recent history. I can remember not 
long ago being in Soweto right after President Mandela had been 
released and observing all of the incredible disparities that 
existed then and the enormous challenges as South Africans 
struggled to really have some agency and ownership over their 
own direction and over their own democracy. Now today we are 
having conversations about the ways in which we need to work 
with our partners in South Africa to overcome some of the 
disadvantages that American businesses have in trading with 
South Africa because of their trade partnership with Europe.
    So it is incredible to come from a place where people were 
incredibly disempowered to now being in negotiations with them 
about increasing access to our markets. So it is an incredible 
period of transformation. There are remarkable opportunities 
that yet exist and some enormous challenges.
    Earlier, Ambassador Thomas-Greenfield noted that it is 
terribly important that as we continue to do things to 
encourage trade with Africa that we still continue to 
appreciate the need for increasing humanitarian capacity. It is 
exciting that right now the United States military forces are 
engaged in a humanitarian exercise with the South African 
military in the eastern Cape right now today to expand South 
Africa's capacity to help in neighboring states.
    So great opportunities exist, and you are absolutely right 
about the sweep of history and where we are today.
    Senator Kaine. Ms. Sullivan--with your permission, Mr. 
Chair.
    Senator Coons. Of course.
    Senator Kaine. Thank you.
    Ms. Sullivan. If I may, Senator Kaine, thank you for your 
interest in the relationship between the United States and 
Africa. I agree with the statements of my colleagues. Also, 
coming from a perspective of a former Peace Corps Volunteer, I 
think we can build on the historical and cultural links that 
have traditionally existed at this moment of confluence with 
the potential and economic interests that we share with Africa.
    I would just like to emphasize that we do have tools at our 
disposal for enhancing mutual understanding, and exchanges that 
exist in both the government sector and the private sector 
really go a long way toward promoting dialogue and partnership 
and helping establish those links and further deepen our broad 
relationships with our partners in Africa.
    Senator Kaine. Great, thank you.
    Thank you, Mr. Chair.
    Senator Coons. Thank you, Senator Kaine.
    Let me, if I could, follow up on something that your 
exchange with Mr. Gaspard just sort of highlights. You 
mentioned the eastern Cape exercises today. I have met with 
Chairperson Dlamini Zuma of the AU. There is a commitment by 
the AU to create an African Standby Force by 2015. There is 
deployed today for the first time in the eastern DRC a U.N. 
mission that has an active mandate--it has been authorized to 
take proactive military initiative in a way that was lacking 
previously and that largely led to some of the M23 actions in 
Goma.
    There are, I think, enormous opportunities for us to work 
to build regional structures, both through the AU and through 
SADC, the East African Community, ECOWAS and others. And we 
have seen some success in Somalia, in Cote d'Ivoire, in DRC, in 
regional engagement by African nations.
    How does the United States do a stronger, a better, a more 
sustained job of partnering with the AU and of partnering with 
countries like South Africa, countries like Nigeria, countries 
like Ethiopia, where we have been supporting training, 
deployment, resources, in support of peace, security, and 
stability in Somalia, in DRC, in Mali, and in other places? I 
think this is literally a question for every member of the 
panel, please, because I believe Congo Brazzaville is also 
contributing peacekeeping forces for the first time.
    Peacekeeping on the continent, by the continent, led by 
entities of the continent strikes me as far more desirable than 
the model that has dominated over recent decades. In the Mali 
conflict, a timely intervention by the former colonial power 
may have been necessary, but I hope it is the last time that 
such an intervention is necessary. And I am hopeful that the 
African Union will, in fact, stand up an African Standby Force, 
that South Africa will play a central contributing role, and 
that Nigeria will be able to continue to play a central role in 
peacekeeping.
    I would be interested in each of you in turn just 
commenting on how you think the United States can most 
appropriately support the fielding of an African Standby Force 
or other regional entity.
    Mr. Brigety. Senator, thank you for your question. Perhaps 
I can start by answering from the perspective of the AU. As you 
correctly noted, the African Standby Force is one of the 
central pillars of the African peace and security architecture. 
There are challenges with fielding it. There are two principal 
challenges as I see it. The first is financial and the second 
largely has to do with the politics of regional integration on 
the continent.
    The good news with regard to the financial aspect is I 
think that for the first time ever in its history the African 
Union actually assessed its own members to help pay for AFISMA, 
the African Union-led intervention force in Mali, to the tune 
of some $50 million, which is significant in terms of 
demonstrating responsibility of African solutions or at least 
contributing to it for African peace and security.
    Obviously, there will have to be other mechanisms to help 
pay for this kind of robust, sustained security environment 
over time. But the African Union understands that and I look 
forward to working with them in that regard.
    Frankly, in my view the issue of regional integration as it 
relates to peace and security is a much more challenging 
problem. As you well know, there are essentially five regional 
standby brigades that are loosely aligned--that are directly 
aligned to the five regions of Africa, but that are loosely 
aligned in the various regional economic communities.
    This is a problem that, frankly, is for the AU and for 
Africans to solve. We have something of a role to play both in 
terms of how we just engage and talk with our partners at the 
AU. As you also know, the current incumbent, our current 
Ambassador to the AU, is also duly accredited to the U.N. 
Economic Commission of Africa, which has as part of its mandate 
supporting regional integration in Africa. If I am confirmed, I 
anticipate that Secretary Kerry will also accredit me to the 
UNECA, and that I will be working very closely with UNECA to 
help support broadly this issue of regional integration, which 
not only has implications, frankly, for security, but also for 
all the other economic issues that we have been talking about.
    We have had successes in terms of our bilateral assistance 
in supporting peacekeeping operations through the ACOTA 
program, a program which I help supervise in my current 
capacity as the Deputy Assistant Secretary. But clearly the 
vision, as you correctly noted, that we have and that indeed 
Africans have for themselves is to increasingly take 
responsibility for their own security, and we are looking 
forward to helping them do that.
    Thank you, Senator.
    Senator Coons. Ambassador Entwistle, as you take that up I 
am interested in ACOTA and human rights training in particular 
in the context of peacekeeping. Clearly, our training in Mali 
perhaps failed to fully reinforce the idea of respect for 
civilian control of military forces. But we are not responsible 
for everything that happens everywhere in the world.
    Ambassador.
    Ambassador Entwistle. I agree completely with Ambassador 
Brigety's comments. I think to me we need to help this process 
happen, and the way we do that is through training. I think one 
of the things that we as Americans can be very proud of is the 
quality of military training we provide. I think we need to do 
that to help build up African capabilities to handle their own 
security crises.
    In particular, I am thinking of what we call professional 
military education, leadership training that involves training 
on rule of law and leadership and respect for human rights when 
dealing with civilians in conflict situations. I think within 
the embrace of our Leahy vetting requirements we need to push 
it and do as much as we can to help the Africans do better. I 
believe in that very sincerely.
    As I noted in my testimony, the Nigerians have a proud 
history of working through ECOWAS on various crises in West 
Africa. They are deployed around the world in other 
peacekeeping operations. I think to the extent that the 
situation at home permits them to do that we need to encourage 
them to keep up that proud history.
    Senator Coons. I agree.
    Ms. Haslach, Ethiopia has played a central role in bringing 
stability to Somalia. Yet there remain some real challenges, 
both internal to Ethiopia and in its region. How do you think 
we can work in support of Ethiopia and the AU while still 
respecting human rights?
    Ambassador Haslach. Senator, thank you very much, and thank 
you for noting Ethiopia's role. They currently deploy troops 
alongside the Somali National Army and the African Union 
mission in Somalia, and they contribute nearly all of the 
troops that currently serve as the U.N. Interim Stabilization 
Force in Abiye and they were also involved in Darfur.
    I echo what my colleague James Entwistle was saying with 
regard to the positive impacts of our professional training and 
would urge that we continue to fund those types of training. 
Ethiopia has well-respected military troops and they have 
actually contributed quite positively in these engagements. So 
I think continuing to recognize the positive role that our 
professional training, training in the areas of human rights, 
very critical for our peacekeeping forces, that they be trained 
in that, and that we continue to provide our support to that, 
and of course working our support to the African Union as it 
attempts to set up its own peacekeeping force.
    Senator Coons. Ethiopia has been particularly constructive 
in the Sudan-South Sudan conflict.
    Ambassador Haslach. Yes.
    Senator Coons. And regionally, our hope is to continue to 
support them.
    Ambassador Haslach. Thank you.
    Senator Coons. Ms. Sullivan, what makes it possible for the 
Republic of Congo to contribute to peacekeeping forces and what 
more could we do in the region to help integrate them into a 
regional security structure?
    Ms. Sullivan. Thank you, Senator, for your interest. I 
would note that Congo has a relatively modest-sized military. I 
do not expect that they will be enormous contributors in the 
future. But I think that there is a growing interest and will 
toward contributing positively to the regional security 
situation.
    There is always the threat of refugee inflows on one side 
of the border or another. I will note that as political chief 
in Accra, Ghana, we did a lot of military training, and what I 
really appreciated about the U.S. training at the time for 
peacekeepers across the continent was the doctrine that we were 
trying to harmonize for different countries so that they were 
not all developing their own ways of doing things and then when 
put all together, kind of like an all-star soccer team brought 
in for the championship, doing things different ways and not 
playing on the same page.
    We also trained and equipped for interoperability as well. 
We all know the down side of radios with frequencies that are 
incompatible. So some of these fundamental things are areas I 
think that we can from a broad regional perspective contribute, 
as well as working with some of our other like-minded partners 
who are also working in the professional development and 
capacity-building.
    Senator Coons. I agree, Ms. Sullivan. In my last visit, my 
visit to Bamako in Mali, I met with a variety of the 
international military leaders, Nigerian, Indian, and others, 
and was struck by the challenge they faced in assembling the 
AFISMA force from seven different nations of different 
languages, different military traditions, different skill sets.
    Mr. Gaspard, I am most optimistic about the United States-
South Africa relationship. South Africa really can, and should 
be, a significant leader on the continent in terms of peace and 
security, stability, democracy. Yet there remain tensions in 
our relationship that I trace back to our being, some of 
America, being on the wrong side of the liberation struggle. I 
am very optimistic that your personal experience and your 
commitment to strengthening this relationship can help move it, 
accelerate its steady movement forward.
    How do you view the task of strengthening United States-
South Africa ties and its possibility for taking a real 
leadership role in the AU?
    Mr. Gaspard. Senator, thank you for the question and for 
your insights on this issue. You are right that we should be 
encouraged by South Africa's ability to play an incredibly 
helpful role in this regard. But we should note that there are 
some capacity challenges that exist in the country. While South 
Africa may have one of the largest and best prepared militaries 
on the continent, of late there has been some shrinkage because 
the country has rightly needed to focus resources on education, 
health care, and other infrastructure issues.
    We should also note that the South African military was 
certainly impacted by the high rates of HIV infection in its 
ranks. That being said, they continue to be an important 
partner on counterterrorism cooperation in the continent and 
they have been a true leader in encouraging nonproliferation 
and we should all be encouraged by the exercises that I noted 
today in the eastern Cape working alongside the U.S. 
Government.
    I should also note, just to echo some of what some of my 
fellow nominees have said on the question of technical support, 
in addition to the direct technical support we have extended to 
the South African military, our technical support to the South 
African policing forces is also essential in giving South 
Africa the capacity to extend its reach throughout the 
continent.
    Regrettably, the South African military has had to really 
be flexible in its mission because of a lack of capacity with 
internal policing. That is improving, with our help. I am 
looking forward to working with our regional security officer 
in South Africa and of course with AFRICOM on these issues.
    Senator Coons. Thank you. I think this is an area of broad 
and sustained interest by members of this committee and by the 
leaders both within AFRICOM and within State and USAID, and I 
look forward to working with all of you on this in the months 
and years ahead.
    Senator Flake.
    Senator Flake. I am good.
    Senator Coons. Senator Kaine.
    Senator Kaine. Just very briefly, on South Africa, Mr. 
Gaspard, you mentioned nonproliferation. One of the areas where 
I think South Africa can play a wonderful leadership role and 
would encourage you to work on this in tandem with our own 
interests is in the nonproliferation area. I think it is the 
case that there have only been three nations who have gone down 
the path toward developing nuclear weapons and then decided, 
you know what, we do not need nuclear weapons to have the right 
kind of future for our nation--Libya, South Africa, and Brazil. 
At least those are the ones that are publicly known. There 
might have been others who made those decisions privately.
    But I think that decision--we were moving toward a nuclear 
weapons future, but then we realized for the good of our Nation 
we could accomplish the right objectives without nuclear 
weapons--in a world where we are really wrestling here with 
Iran and with North Korea and potentially others, I think there 
is a wonderful leadership opportunity for South Africa to play 
in that message. So since you mentioned nonproliferation, I 
just thought I would underline that and put an exclamation 
point on it.
    The second thing I would like to say, and again just sort 
of a general question to all of you, is--and many of you 
touched on the evolution of thinking about international 
development from an aid perspective to promotion of trade. I 
think it was President Nixon who took out of USAID the Overseas 
Private Investment Corporation. At the time, maybe in the 
1960s, aid was what do we grant, what do we give. There was a 
realization that, well, maybe we can through entrepreneurship 
and the involvement of the private sector promote development 
and trade as well. OPIC was split out of USAID, and that was a 
prescient move because it seems like that is the way most 
international development has gone. Within a generation we have 
gone from international development being sort of 80-percent 
governmental moneys industry 20-percent companies or NGOs to 
the reverse. It is about 80-percent companies and NGO now.
    I would just like to have each of your sort of 
perspectives. Some of you have addressed it briefly, but your 
perspectives in your own role about international development, 
broadly defined, and how you would hope to bring the 
partnerships of today's international development to bear in 
the missions that you will pursue.
    Mr. Brigety. Senator, thank you very much for your 
question. I will begin if I may. I am convinced that the next 
historical phase in Africa's development is private sector-led 
economic growth. We in the United States have the most dynamic 
private sector in the world. The challenge, frankly, is getting 
them to show up in Africa.
    OPIC plays clearly a role in that. I can tell you, every 
time I go to the continent I am surprised by how eager African 
business leaders, African political leaders are for American 
companies to show up. If I am confirmed, I will work very 
closely with my colleagues in the Department of Commerce, in 
OPIC, USTR, USTDA, et cetera, to try to see what more we can do 
to use U.S.-AU as a platform to encourage American businesses 
to show up and to engage in this important epic of Africa's 
growth.
    Senator Kaine. Great. Thank you.
    Ambassador Entwistle. Senator, I feel that in our 
development activities these are things we can be incredibly 
proud of, like PEPFAR and things like that.
    Senator Kaine. Absolutely.
    Ambassador Entwistle. But I feel very strongly that 
everything we do, every development activity, has to have a 
component of building up the host country's ability to do it 
themselves. For example, a health project should contain a 
component of building up the health ministry and the health 
infrastructure.
    So in my current job and if confirmed in Nigeria that is 
going to be an issue for me, is looking at everything we are 
doing and asking the tough questions to find out, to be blunt, 
are we working ourselves out of a job, as we should be, quite 
frankly? So thank you.
    Ambassador Haslach. I agree with both of my colleagues, but 
I would just also add, Senator, I view this sort of as a 
multiplier effect, where we plant the seed with Feed the Future 
and then there is a private sector component that comes in 
behind that and really has the resources and works locally with 
local companies to really make this sustainable.
    I think the same will go with our new initiative Power 
Africa, where we sort of hope to light the fire there a little 
bit. But really the focus on Power Africa is on the private 
sector and using the tools, OPIC, EXIM, TDA, the ones that were 
mentioned prior to that. So I see--there is plenty of room out 
there for everybody. But the government, our role is sort of 
promoting this, and then the private sector joining us as 
partners. I think it works really well and partners with local 
business and local communities.
    Senator Kaine. Ms. Sullivan.
    Ms. Sullivan. I would add that the prospect of U.S. 
investment is a real incentive for improving the local business 
climate, because the private sector companies are going to vote 
with their feet, and if there is opportunity and a level 
playing field and money to be made that will help everyone 
American companies will come. If not, the opposite would 
happen.
    Senator Kaine. Mr. Gaspard.
    Mr. Gaspard. Senator, I would just add that we should 
appreciate that there is mutual benefit in encouraging this 
kind of investment. Senator Corker in many instances has 
rightly pointed out that we need to find ways in which we can 
grow American jobs by investing in increased entrepreneurship 
and trade with Africa. Very recently Eximbank moved significant 
resources to a company that is building a railroad in South 
Africa, and fortunately for us workers in States like Indiana 
and Michigan have benefited in that one instance. So we need to 
encourage more activity along those lines and recognize our 
common interest in those outcomes.
    Senator Kaine. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you.
    If I might just follow up on my previous line of 
conversation with several of you. There is a longstanding 
partnership program between the U.S. National Guard of specific 
States and specific countries. I do find in some countries that 
it has allowed for a long-term training relationship that has 
been effective with a number of countries. It is something I 
have advocated for us to broaden and strengthen within the 
National Guard Bureau in the countries where I have visited. I 
have also had an opportunity to talk to the State adjutant.
    One of the differences of having a long-term National Guard 
to national military relationship is that, unlike other 
commands, they do not rotate every 2 years. You can build a 
long-term relationship with a homestate National Guard that 
actually is sustained over a decade or more. And the National 
Guard typically directly understands the civilian military role 
and is often involved in things like disaster recovery, youth 
training, and housing issues, that regular armed forces are 
not. So just a small point on that.
    If I might, Ms. Haslach, just to follow up on the questions 
about Ethiopia and development: Feed the Future strikes me as 
an initiative of enormous potential and breadth. I was 
encouraged to hear that on your return to Ethiopia you were 
struck at just how much progress had been made in terms of 
resiliency, in terms of the strength of the smallholder farmers 
across Ethiopia.
    What else do you think we can be doing to help strengthen 
the role of the private sector and to help strengthen the 
partnership that will sustain this initiative and really bring 
to an end the cycles of famine in the Horn?
    Ambassador Haslach. I think there are two areas that I was 
involved with. One has been working with them on improving the 
quality of the seeds. Again, that is where our private sector 
is very, very active. I am really pleased that they are also 
not following the path of some countries by prohibiting certain 
types of seeds to be used. Again, that is one area.
    The other is in the area of moving beyond just growing the 
food. It is processing the food, working with the private 
sector in the next stage of processing and improving the 
market, the farm to market access, as well as improving 
regional trade between Ethiopia and its countries. That is an 
area that I think we can give a little bit more focus and 
attention to.
    Thank you.
    Senator Coons. Thank you for that followup.
    If I might, Ms. Sullivan, I just have one other question if 
I could about Congo. The President has been a somewhat 
autocratic ruler, but the country is relatively stable, and it 
has been a constructive player in what has otherwise been a 
fairly volatile region. Under the constitution, if I understand 
correctly, he is not eligible to run for reelection in 2016. 
But we have seen in other countries across the continent--
Senegal might come to mind--a challenge where there is an 
effort to amend the constitution to allow another term or to 
sort of steer succession.
    How do you think you will promote the twin goals of 
democracy and stability in this particularly challenging 
environment?
    Ms. Sullivan. Senator, you have raised one of the key 
issues that, if confirmed, I will certainly focus on. I think 
that it is not only the external perspectives, but clearly the 
internal perspectives. We have talked about country ownership 
as it relates to development. The same is true for 
democratization.
    So one of the things that the Embassy has been doing and I 
will continue to work on if confirmed is building up the 
capacity of the civil society organizations that are focused on 
issues of accountability to the people and transparency in 
government operations.
    I think that the Congo has a really great opportunity in 
2016 to show and start establishing a legacy of smooth 
transitions. It is only really come out of the civil war in the 
last decade or so and ever since independence in 1960 had a bit 
of a turbulent past. I think people are interested in 
stability. I think we can continue to work with all of our 
partners within the government and the private sector and our 
like-minded colleagues in the diplomatic corps as well to help 
the Congolese realize what an opportunity they have in 2016 to 
start that tradition of a smooth democratic transition.
    Thank you.
    Senator Coons. Thank you, Ms. Sullivan. I suspect, as 
Ambassador Entwistle testified, one of our broader challenges 
is being engaged in elections up to and then following on the 
day of election. One of the challenges I know the Assistant 
Secretary and I will work on is the relative scale of resources 
for democracy and governance, which is a very small portion of 
our total budget.
    We are facing other critical issues. One of them, Mr. 
Gaspard, as you well know, is the historic investment by the 
United States through PEPFAR in dealing with what is one of the 
greatest global pandemics. We have really turned a corner in 
terms of our relationship with South Africa and country 
ownership for funding and sustainment of PEPFAR. But in a very 
vigorous series of discussions I had in South Africa both in 
Soweto and in Cape Town with legislators, with advocates, with 
providers, and with the Health Minister, the trajectory of the 
United States-South African partnership and PEPFAR will require 
I think your close attention and will demand some active 
engagement.
    How do you see the path forward? How will we ensure 
successful transition in terms of full ownership of PEPFAR from 
the United States to South Africa, and how do we persuade the 
South Africans that we are not abandoning this core commitment 
of the United States? That we intend to remain a strategic 
partner in the fight against HIV-AIDS.
    Mr. Gaspard. Senator, thank you for this question about a 
core pillar of the South Africa mission going forward. We 
should be encouraged by the progress that has been made in 
South Africa on the question of country ownership of the PEPFAR 
program. We are well on track to be able to meet the goals, the 
ambitious goals that were laid out for our 2017 drawdown and 
for South Africa's increased investment in this realm.
    There continue to be, of course, some very, very real 
challenges, particularly as it relates to deficits in personnel 
in South Africa. There are some real shortages of social 
workers, front-line nurses who can administer these programs, 
and there is a need for more technicians as we transfer support 
from NGOs directly into the government health sector. In some 
of the most remote regions of the country, there are still some 
challenges in getting antiretroviral medications to those who 
are in need.
    So real progress has been made, but there is a real 
challenge before us that I know that we will be able to meet.
    I should also note that when you consider that 60 percent 
of new infections in the country are focused on women and 
girls, there is something that we need to do in particular to 
make certain that women are receiving not only the aid that 
they need, but that they are playing a vital leadership role in 
this transition because they are most impacted by the outcomes.
    Senator Coons. There are, as you well know, Mr. Gaspard, 
there are enormous challenges and opportunities here. I am 
particularly excited about the skills and strengths you bring 
from your 1199 union years to understanding the delivery of 
health care and the development of a whole new cadre of health 
care workers.
    There is also across the continent, but in particular in 
this context, real challenges of gender-based violence as a 
mechanism of transmission and real challenges in terms of 
cultural sensitivity and our investment in delivering the kind 
of rule of law and accountability systems that allow for 
respect and protection of women that I think are a critical 
next step in the work against HIV-AIDS in South Africa. And I 
am eager to work with you and support you in any way I can 
because these are quite difficult conversations, but ones that 
must be had, investments that we need to make.
    A last question for you, if I might, Mr. Gaspard. In my 
last trip to South Africa, every conversation with a South 
African official began and ended with AGOA. It was the one 
thing they wanted to know that we would work steadfastly 
toward. Senator Isakson, who is now in the Finance Committee, 
is passionate and determined to help this happen. Congresswoman 
Karen Bass has been quite engaged in it.
    But as we visited several facilities in South Africa, the 
sort of core question was, has South Africa outgrown AGOA? The 
luxury car market--South Africa takes better and broader use of 
AGOA than any other country. My hope would be that we would 
seriously consider its scope and whether there are ways that it 
can be tweaked or retooled so that it will be as effective as 
possible in opening and sustaining a very real and enduring 
relationship.
    Most of AGOA has really had an impact just in textiles and 
apparel. In South Africa it is everything from steel to citrus 
to wine to luxury automobiles, and it is literally billions of 
dollars a year in trade into the United States market, which I 
think is tremendous.
    SASOL also recently made a direct investment in Louisiana 
in the United States, and I think we are at a critical moment, 
as you observed--I had great conversations with the Minister of 
Trade about this--that we can really talk about a mutual 
relationship.
    How do you think AGOA ought to be rebalanced or 
reconsidered in light of South Africa's growth and progress and 
in light of the opportunities across the continent and in all 
the other countries to which there are nominees sitting with 
you today?
    Mr. Gaspard. Senator, thank you for the question. My 
conversations with you about this issue and conversations with 
Congresswoman Karen Bass have done much to inform my thinking 
on AGOA. I think, as you rightly noted, there are many 
questions about whether or not South Africa should continue to 
benefit from this program. I think it is important for all of 
us to appreciate that South Africa continues to be really two 
countries, two dichotomous countries. We have got one South 
Africa that of course is an important leader, not only in sub-
Saharan Africa, but as a member of the BRIC's leads in trade on 
the continent and is a place that many would like to go to 
continue to conduct business.
    We should also appreciate that South Africa also right now 
has a formal unemployment number of roughly 25 percent of the 
population. That number doubles when you consider youth 
unemployment, and there are many new university graduates in 
South Africa who are seriously challenged to find opportunities 
to employ their new skills.
    In the decade since AGOA passed, there are roughly 70,000 
jobs in South Africa that can be attributed directly to AGOA 
trade and countless others that have benefited from collateral 
trade. However, there is just so much more that needs to be 
done in order to close the income disparities in that country.
    I know that in your conversations with the Minister of 
Trade in South Africa you noted some of the ways in which 
American companies are currently disadvantaged in trade with 
South Africa, and I think that as we have the conversation 
about AGOA renewal it is tremendously important that we make 
clear that there is a need for those on both sides of the 
Atlantic to benefit going forward.
    Senator Coons. Thank you.
    As I have had conversations with United States business 
leaders who are investing in South Africa, one just last week. 
I have urged them to take the model of skills transfer, 
technology transfer, and investment. Not a mercantilist 
approach to seeking a market but a mutuality approach that 
begins with here are ways that we will invest in and help grow 
the future and potential of South Africa.
    I have just three more brief observations I will make. Do 
you have more questions, Senator Kaine?
    Senator Kaine. No, thank you.
    Senator Coons. First, generally the Millennium Challenge 
Corporation--I have visited projects and sites across a number 
of countries--we have not touched on at great length here 
today, but I have found to be a compelling vehicle for long-
term engagement, particularly in countries--you mentioned in 
Ethiopia--where there is real alignment between development 
goals and our objectives. I hope that each of you will find a 
way to work, if appropriate, if relevant, with the MCC as 
another tool in our toolkit.
    When we raised human rights issues, whether it is 
journalistic freedom or the transition to democracy, we 
sometimes ruffle feathers. Ambassador Entwistle, as you go to 
Nigeria I have particular concern for an anti-LGBT bill that 
has been taken up and considered in the Parliament and that may 
move to the President. I am hopeful that you will be mindful of 
a strong commitment to human rights on the part of the United 
States and in particular to respect for people of all sexual 
orientations.
    I had a particularly compelling recent visit with a 
Zimbabwean woman who has sought asylum in the United States 
after being horribly tortured in Zimbabwe simply for who she 
loves. So I think that is an important piece of our human 
rights agenda in Africa.
    Then last, Mr. Gaspard, just a reflection that I think was 
encouraging. In meeting with South African parliamentarians, I 
was struck at how many other countries had recently sent 
delegations to South Africa as a place from which to learn 
about reconciliation. A team of Iraqis from Iraq's national 
assembly had just left and were looking to South Africa as a 
model for how possibly Kurds, Sunnis, and Shia could learn to 
live together in Iraq.
    This is a continent of enormous opportunity and enormous 
challenges. I am grateful for each of you for your willingness, 
for your family's willingness, to continue in your careers in 
public service, and I very much look forward to visiting you in 
your respective countries in the months and years ahead.
    Senator Kaine, any further questions?
    Senator Kaine. No, thank you.
    Senator Coons. With that, I would like to thank each of the 
nominees today. I look forward to voting for your confirmation 
both in the committee and on the floor. It is my hope that we 
will accomplish this swiftly. I am very conscious of the 
pressure on families and the beginning of school years and the 
need to make transitions and so forth.
    Any members who were not able to attend today I will ask to 
submit any questions for the record by the close of business 
today so that we can conclude this record in a timely fashion 
and move toward a business meeting next week.
    With that, with my appreciation to my colleagues who joined 
me today, this hearing is hereby adjourned.
    [Whereupon, at 11:11 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


   Response of Hon. Linda Thomas-Greenfield to Question Submitted by 
                        Senator Robert Menendez

    Question. The President's recent trip to Africa was well-received 
for the new and expanded initiatives he announced, including the new 
Power Africa and Trade Africa Initiatives, an expansion of the Young 
African Leaders Initiative, and the initiation of an annual summit-
level meeting among the United States and African countries. These 
initiatives build on the legacy of prior administrations with the 
introduction of PEPFAR, AGOA, the MCC, and other initiatives.

  <bullet> In what ways is Africa strategically important for the 
        United States, and is the level of our engagement sufficient 
        relative to its strategic importance? What can the United 
        States do to improve our engagement with Africa?

    Answer. Dramatic changes that have taken place in sub-Saharan 
Africa over the past decade make the continent ever more important to 
the United States. Some of the fastest-growing economies in the world 
are on the continent--a growth that reflects an increasingly vibrant 
private sector, improved business climate, and expanded opportunities 
for U.S. trade and job creation. There has also been great progress in 
governance and democratization, though remaining challenges require our 
continued engagement. Africa's security is increasingly linked to 
global and U.S. national security. We and the international community 
continue to be required to assist Africans in countering terrorism and 
drug, human, and wildlife trafficking that grows in ungoverned spaces 
on the continent. By the same token, with our and others' help, African 
nations have increased their capability to end conflicts and preserve 
peace in Africa and beyond with their militaries.
    As I indicated in my testimony, our engagement in Africa must 
proactively and comprehensively address these opportunities and 
challenges. The President's 2012 Presidential Policy Directive and our 
many initiatives designed to spur economic growth, combined with the 
African Leaders summit announced during the President's recent trip, 
certainly reflect a heightened engagement with the continent. If 
confirmed, I look forward to working with African nations to use these 
initiatives to strengthen democratic institutions and foster sustained 
equitable economic growth. Also, if confirmed, I will ensure that the 
resources of the Bureau of African Affairs are dedicated to an 
enhanced, holistic engagement with Africa.
                                 ______
                                 

     Response of Hon. James F. Entwistle to Question Submitted by 
                        Senator Robert Menendez

    Question. Boko Haram is growing increasingly active with a rising 
number of attacks against state and civilian targets. Attacks now occur 
almost daily in northeast Nigeria and have increased in reach and 
lethality beyond this region. The bombing of the U.N. building in Abuja 
on August 24, 2011, represented a shift from an exclusively domestic 
focus to international targets.

  <bullet> How would you characterize the Nigerian Government's 
        response to Boko Haram? What approach would you take to help 
        address the problem and strengthen America's relationship with 
        Nigeria on security issues?

    Answer. As the Secretary of State stated in May, ``We are deeply 
concerned by credible allegations that Nigerian security forces are 
committing gross human rights violations, which, in turn, only escalate 
the violence and fuel extremism. The United States condemns Boko 
Haram's campaign of terror in the strongest terms. We urge Nigeria's 
security forces to apply disciplined use of force in all operations, 
protect civilians in any security response, and respect human rights 
and the rule of law.'' As part of this effort, it is vital to protect 
civilian populations and respect Nigeria's human rights obligations; to 
reestablish public trust with local communities; and to improve the 
professionalism of the security services.
    If confirmed, I will continue to convey our concerns that a heavy-
handed approach is counterproductive to addressing the threat posed by 
Boko Haram, and urge the Nigerian Government to address drivers of 
conflict, including poverty, food insecurity, disenfranchisement, lack 
of quality government services, and frustration with corruption and 
poor governance. The State Department and USAID will continue to assist 
these efforts.
                                 ______
                                 

   Response of Hon. Patricia Marie Haslach to Question Submitted by 
                        Senator Robert Menendez

    Question. Human Rights groups continue to characterize Ethiopia by 
its restrictive environment for political opposition groups, media, and 
civil society. Several pieces of legislation, such as the Anti-
Terrorism Proclamation, and the Charities and Societies Proclamation 
have institutionalized the government's grip on dissenting views. 
Successive U.S. administrations have committed to advancing human 
rights and democracy in Ethiopia, yet it's not clear what initiatives 
are in place to address these.

  <bullet> How will you deliver the message that an open democratic 
        environment ultimately promotes stability and prosperity, and 
        by extension its partnership with the United States?

    Answer. Ethiopia is an important partner in the Horn of Africa and 
one of the United States priority countries on the continent. Our 
partnership allows us to raise democracy and human rights concerns 
frankly and honestly. One of the key ways we express concerns, 
including on the restrictive environment for political opposition, the 
media, and nongovernmental organizations, is through a formal bilateral 
dialogue on democracy, governance, and human right messages. Three such 
dialogues have occurred since we began the process in 2011. Along with 
providing an opportunity to discuss concerns, the dialogue allows us to 
identify constructive opportunities to work toward improving the 
environment. I will seek to schedule the next dialogue early in my 
tenure as Ambassador, if confirmed. Though much of our engagement with 
the government is private, we also publicly demonstrate support for 
civil society. Our statements in reaction to the verdicts and sentences 
in Ethiopia's high-profile terrorism cases involving journalists and 
the political opposition are examples of this. Equally important was 
our notable presence at the trials. As I did during my previous 
ambassadorial appointments and if confirmed, I will deliver the tough 
human rights messages both privately and publicly, because, as 
Secretary Kerry has stated, ``we believe very deeply that where people 
can exercise their rights and where there is an ability to have a 
strong democracy, the economy is stronger, the relationship with the 
government is stronger, people do better.''
                                 ______
                                 

    Response of Stephanie Sanders Sullivan to Question Submitted by 
                        Senator Robert Menendez

    Question. The United States has supported capacity-building 
initiatives for the Armed Forces of the Republic of Congo for several 
years. The goal is to professionalize the Congolese military, which in 
turn contributes troops to regional peacekeeping missions. As we have 
seen in Mali and the Democratic Republic of Congo, U.S.-trained forces 
do not always have a healthy respect for civilian oversight, or for 
human rights of the general population.

  <bullet> Can you explain the types of U.S. assistance to the Armed 
        Forces of the Republic of Congo, and the regional security 
        interest that serves? How are we ensuring that the troops we 
        train will continue to serve in the interests of the Congolese 
        people?

    Answer. Military capacity-building is one of the key points of 
engagement between the United States and the Republic of the Congo. The 
U.S. Mission in Brazzaville has a strong engagement with AFRICOM, 
especially in relation to the Embassy's size. The Republic of the Congo 
benefits from approximately $100,000 annually in International Military 
Education and Training (IMET), which is managed by the U.S. Office of 
Security Cooperation at the U.S. Embassy in Kinshasa with the 
assistance of Embassy Brazzaville personnel. A key component of almost 
all IMET training is the reinforcement of human rights norms and 
civilian control of the armed forces.
    Two other programs that directly impact the Congolese people are 
the Humanitarian Mine Action (HMA) training as well as the Defense 
Institute for Medical Operations (DIMO). HMA is designed to train a 
cadre of Congolese officials how to identify and make safe unexploded 
ordinance. This training is especially relevant in the wake of the 
deadly munitions depot explosion that occurred in Brazzaville on March 
4, 2012, resulting in hundreds of deaths and the destruction of 
thousands of homes. With a professional unit of Explosive Ordinance 
Disposal (EOD) technicians at its disposal, the GOC will be better able 
to eradicate any unsafe munitions, as well as better understand how to 
store munitions and to avoid further injury to the civilian population.
    DIMO is an ongoing project that trains Congolese military officials 
in a wide range of medical related topics, from trauma nursing to 
disaster response. This training has a direct impact on the citizens of 
the ROC because the Congolese military routinely provides a variety of 
medical care to the civilian population. The military hospital in 
Brazzaville, which is one of two public hospitals in the capital, 
provides 24-hour emergency care to civilians. Additionally, the GOC 
periodically erects field hospitals throughout the Congo with the 
intent of serving the local population. These field hospitals provide 
free care and medicine to hundreds of civilians a day in the area to 
which they are deployed.
    The Republic of the Congo has a modestly sized military of around 
8,000, and is currently contributing 350 troops to the peacekeeping 
mission in the Central African Republic. The United States sees this 
deployment as a positive step in the ROC's efforts to bolster regional 
engagement and stability. The Congo is also playing a major role in 
regional maritime security in the petroleum-rich region of the Gulf of 
Guinea. Earlier this year, the Congo established a maritime operations 
center in Pointe-Noire. The center is staffed by personnel from 
countries along the West African Coast under the auspices of the 
Economic Community of Central African States (ECCAS).
    In all our military cooperation and assistance activities, we seek 
to instill higher professional standards in the forces with whom we 
work, so that there is a stronger commitment to serving civil society 
and complying with international human rights norms. We also provide 
joint training and common standards to strengthen interoperability so 
that forces of varying abilities from different countries are able to 
function cooperatively.
                                 ______
                                 

      Response of Patrick Hubert Gaspard to Question Submitted by 
                        Senator Robert Menendez

    Question. After Zimbabwe's disputed 2008 election, former South 
African President Thabo Mbeki, acting through the Southern Africa 
Development Community (SADC), was able to secure an agreement between 
President Robert Mugabe and Prime Minister Morgan Tsvangirai. South 
Africa subsequently assumed the role of overseeing its implementation.

  <bullet> How would you characterize South Africa's role in overseeing 
        the Global Political Agreement in Zimbabwe, particularly under 
        the stewardship of President Zuma?

    Answer. President Zuma has played a critical role in pursuing 
political reform in Zimbabwe. He and the Southern African Development 
Community (SADC) want Zimbabwe's elections to go well. South Africa's 
goal has been a stable, peaceful, democratic Zimbabwe that reflects the 
will of its people and provides for a prosperous future. South African 
mediation helped pull Zimbabwe back from the brink of political and 
economic collapse and was instrumental in establishing a government of 
national unity. It also helped sustain the long and difficult process 
of developing Zimbabwe's new constitution.
    South Africa has taken its facilitation role seriously, applying 
steady pressure on all parties to implement the roadmap in the face of 
political setbacks and protracted delays. While there has been real 
progress in Zimbabwe, such as the recent adoption of a new 
constitution, there is wide concern that few of the agreed-upon media, 
security sector and electoral reforms have been fully implemented. We 
are especially concerned that the rush to an election on July 31 may 
not have provided sufficient time for voter education and registration 
and review of voters' rolls, putting the credibility of the outcome at 
risk.
    The large team of election observers fielded by SADC will play a 
critical role in verifying the credibility of the upcoming election and 
its conformance with internationally accepted electoral standards. 
Given the exclusion of most other international election observers, the 
presence of SADC and African Union observers is doubly important to 
deter political intimidation, vote rigging and violence, which would 
undermine the credibility of the election and 5 years of work by South 
Africa and SADC.
                                 ______
                                 

    Response of Dr. Reuben Earl Brigety II to Question Submitted by 
                        Senator Robert Menendez

    Question. In May, the African Union marked 50 years since the 
founding of its predecessor, the Organization of African Unity (OAU). 
How operationally effective are the main institutions of the AU, in 
particular the AU Commission and the Peace and Security Council? What 
main institutional challenges does the AU face, and in what ways could 
the United States more effectively help the AU build its capacity, 
particularly in partnership with other donors?

    Answer. The AU's ability to positively shape the African continent 
has developed dramatically in the past decade, as evidenced by such 
initiatives as the African Union Mission in Somalia (AMISOM) and the AU 
High-level Implementation Panel's mediation of conflict between Sudan 
and South Sudan. However, significant capacity challenges still exist: 
the AU sometimes encounters funding shortfalls, and it does not yet 
have the capacity to absorb all of the funding it does receive due to 
understaffing.
    African Union Commission (AUC) Chairperson Dlamini-Zuma has made 
strengthening the AUC's capacity and reforming its operations key 
priorities. She has welcomed assistance from her home country South 
Africa and other AU Member States, and international partners including 
the United States in providing staffing, staff funding, and training. 
The AU is currently exploring alternative sources of financing, 
including possible continental taxes on air travel or on insurance 
policies, but in the near future, the AU budget is likely to be 
predominantly drawn from Member States' dues and contributions from 
international partners.
    In FY 2012, the U.S. Government funded seven technical staff 
positions in the AU and held three innovative training sessions for 
five AUC departments interested in cross-department cooperation on 
trade in services. The United States and AU are exploring a number of 
areas under which the two sides can cooperate on our mutual goals of 
economic development, strengthening governance, and promoting peace and 
security on the African Continent, which are outlined in the U.S.-AU 
Memorandum of Understanding signed by Former Secretary of State Clinton 
and Chairperson Dlamini-Zuma on February 1, 2013.
                                 ______
                                 

    Responses of Hon. James F. Entwistle to Questions Submitted by 
                          Senator Marco Rubio

    Question. What is the reason behind the administration's hesitation 
to designate Boko Haram a foreign terrorist organization? In addition, 
is it not a policy anomaly that the leaders responsible for the 
organization's current ethos have been designated terrorists, but the 
organization they lead has not?

    Answer. The Department does not comment on deliberations related to 
Foreign Terrorist Organization (FTO) designations, but we can provide 
you a classified briefing on this issue. As you note, we have 
designated a number of Boko Haram's senior commanders as Specially 
Designated Global Terrorists, shining a light on their horrific acts 
and cutting off their access to the U.S. financial system. The State 
Department has also offered Rewards for Justice for select members of 
Boko Haram that have ties to Al Qaeda in the Islamic Maghreb. The 
designations of individuals and organizations for terrorism, while 
frequently overlapping, are made separately.

    Question. Is there a certain threshold of terrorist activities that 
Boko Haram must commit before the entire organization is designated? 
If, so what is that threshold?

    Answer. The Department does not comment on deliberations related to 
Foreign Terrorist Organization (FTO) designations, but we can provide 
you a classified briefing on this issue. We are constantly assessing 
the nature of Boko Haram and those who claim to be its adherents. There 
is an ongoing, active process to review U.S. efforts to counter the 
threat posed by Boko Haram, including the appropriateness and 
effectiveness of specific terrorism designations. This process includes 
regular high-level dialogue with the Nigerian Government about its 
strategy toward Boko Haram and specific areas of U.S. assistance.

    Question. What work is the administration engaged in regarding the 
prevention of child marriage in Nigeria? In particular, how do you plan 
to address the issue considering a girl under 18 who is married is 
considered an adult?

    Answer. A recent vote in the Nigeria's legislature to change the 
age at which a Nigerian citizen may renounce his or her citizenship was 
erroneously reported as the Nigerian Senate voting to legalize underage 
marriage. To date, there are no laws in Nigeria that say girls under 
18, if married, are considered adults. Embassy officials regularly meet 
National Assembly members, local officials and leaders of 
nongovernmental organizations to discuss all human rights matters, 
including women and children's rights. If confirmed, I will continue to 
work with Nigerian officials to address these important issues.
                                 ______
                                 

  Responses of Hon. Linda Thomas-Greenfield to Questions Submitted by 
                       Senator Richard J. Durbin

    Question. Last winter, I authored an amendment to the National 
Defense Authorization Act (NDAA) that requires the State Department and 
the Treasury Department to impose visa bans and asset freezes on anyone 
found to be supporting the M23 rebel group operating in eastern 
Democratic Republic of the Congo (DRC). There have been multiple, 
public records, including from the U.N. Group of Experts and Human 
Rights Watch, that state that the M23 rebels receive support from 
officials in the Rwandan Government. A similar statement was issued 
from the State Department's spokesperson herself on July 23, 2013, and 
the same statement was issued during the fighting in Goma in late 2012.

  <bullet> Who from the names listed in Group of Experts report of 
        2012, the more recent Group of Experts interim report released 
        earlier this month, or from any other source has been subject 
        to a U.S. visa ban?

    Answer. Under Executive Order (EO) 13413, the Department of 
Treasury's Office of Foreign Assets Control (OFAC) designated Bosco 
Ntaganda on April 28, 2010; Sultani Makenga on November 13, 2012; 
Myamuro Ngaruye Baudoin and Innocent Kaina on December 18, 2012; and 
Jean-Marie Runiga and Eric Badege on January 3, 2013. We continually 
assess available information regarding individuals who may meet the 
criteria in EO 13413. Individuals designated by OFAC under EO 13413 are 
also subject to visa restrictions under Presidential Proclamation 8693. 
As for any action taken with regard to a visa application for an alien 
who has been so designated, the confidentiality provisions of section 
222(f) of the Immigration and Nationality Act would apply.

    Question. My understanding is that as of this month, no individuals 
were yet subject to this visa ban (nor have any waivers been invoked)--
at least 6 months since enactment of the bill. If correct, why is that 
the case and how does State justify this significant discrepancy?

    Answer. More generally, we are continuing to collect information 
and assess whether additional individuals should be subject to a U.S. 
visa ban or other sanctions. Additionally, consistent with section 1284 
of the NDAA for fiscal year 2013, the Department has taken steps to 
watch-list individuals involved in or who have provided support to the 
M23 rebel group or its predecessor the National Congress for the 
Defense of the People (CNDP) in our consular lookout database, Consular 
Lookout and Support System (CLASS.) We have taken action to ensure that 
individuals designated by OFAC will be identified in visa screening. We 
consider the U.N. Group of Experts report along with other available 
information when making determinations about watch-listing individuals 
who may be involved with the M23. Again, the confidentiality provisions 
of section 222(f) of the Immigration and Nationality Act would apply to 
any individual visa record.
    The State Department pursues these efforts as part of its broader 
work, in concert with interagency partners, to advance peace and 
security in the DRC. The Department has informed your staff that we 
will discuss these developments with your office in the near future.
                           text of amendment

SEC. 1284. IMPOSITION OF SANCTIONS WITH RESPECT TO SUPPORT FOR THE 
                    REBEL GROUP KNOWN AS M23.

    (a) Blocking of Assets--
          (1) In General.--The Secretary of the Treasury shall, 
        pursuant to the International Emergency Economic Powers Act (50 
        U.S.C. 1701 et seq.) or Executive Order 13413 (74 Fed. Reg. 
        64105; relating to blocking property of certain persons 
        contributing to the conflict in the Democratic Republic of the 
        Congo), block and prohibit all transactions in all property and 
        interests in property of a person described in subsection (c) 
        if such property and interests in property are in the United 
        States, come within the United States, or are or come within 
        the possession or control of a United States person.
          (2) Exception.--
                  (A) In General.--The requirement to block and 
                prohibit all transactions in all property and interests 
                in property under paragraph (1) shall not include the 
                authority to impose sanctions on the importation of 
                goods.
                  (B) Good Defined.-- In this paragraph, the term 
                `good' has the meaning given that term in section 16 of 
                the Export Administration Act of 1979 (50 U.S.C. App. 
                2415) (as continued in effect pursuant to the 
                International Emergency Economic Powers Act (50 U.S.C. 
                1701 et seq.)).
    (b) Visa Ban.--The Secretary of State shall deny a visa to, and the 
Secretary of Homeland Security shall exclude from the United States, 
any alien who is a person described in subsection (c).
    (c) Persons Described.--A person described in this subsection is a 
person that the President determines provides, on or after the date of 
the enactment of this Act, significant financial, material, or 
technological support to M23.
    (d) Waiver.--The President may waive the application of this 
section with respect to a person if the President determines and 
reports to the appropriate congressional committees that the waiver is 
in the national interest of the United States.
    (e) Termination of Sanctions.--Sanctions imposed under this section 
may terminate 15 days after the date on which the President determines 
and reports to the appropriate congressional committees that the person 
covered by such determination has terminated the provision of 
significant financial, material, and technological support to M23.
    (f) Termination of Section.--This section shall terminate on the 
date that is 15 days after the date on which the President determines 
and reports to the appropriate congressional committees that M23 is no 
longer a significant threat to peace and security in the Democratic 
Republic of the Congo.
    (g) Definitions.--In this section:
          (1) Appropriate Congressional Committees.--The term 
        `appropriate congressional committees' means--
                  (A) the Committee on Banking, Housing, and Urban 
                Affairs, the Committee on Armed Services, and the 
                Committee on Foreign Relations of the Senate; and
                  (B) the Committee on Financial Services, the 
                Committee on Armed Services, and the Committee on 
                Foreign Affairs of the House of Representatives.
          (2) M23.--The term `M23' refers to the rebel group known as 
        M23 operating in the Democratic Republic of the Congo that 
        derives its name from the March 23, 2009, agreement between the 
        Government of the Democratic Republic of the Congo and the 
        National Congress for the Defense of the People (or any 
        successor group).
          (3) United States Person.--The term `United States person' 
        means--
                  (A) an individual who is a United States citizen or 
                an alien lawfully admitted for permanent residence to 
                the United States; or
                  (B) an entity organized under the laws of the United 
                States or of any jurisdiction within the United States.


NOMINATIONS OF JAMES COSTOS, DENISE BAUER, JOHN GIFFORD, JOHN EMERSON, 
                            AND DAVID PEARCE

                              ----------                              


                        THURSDAY, JULY 25, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. David D. Pearce, of Virginia, to be Ambassador to Greece
John B. Emerson, of California, to be Ambassador to the Federal 
        Republic of Germany
John Rufus Gifford, of Massachusetts, to be Ambassador to 
        Denmark
Denise Campbell Bauer, of California, to be Ambassador to 
        Belgium
James Costos, of California, to be Ambassador to the Kingdom of 
        Spain and to serve concurrently and without additional 
        compensation as Ambassador to the Principality of 
        Andorra
                              ----------                              

    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy, presiding.
    Present: Senators Murphy, Boxer, Shaheen, Kaine, and 
Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Good afternoon. We will call this hearing 
of the Senate Foreign Relations Committee to order.
    To begin with, we are going to have very brief opening 
statements from myself and Senator Johnson. Then we will 
proceed with the introduction of the witnesses, many being made 
by my colleagues and possibly at least one to join us. And then 
we will proceed to your opening statements, just to get you 
ready.
    I will start to my left and go down the row, starting with 
Mr. Costos for opening statements.
    I am pleased to welcome all of our nominees and their 
friends and families who have come here to support them today.
    We are considering today the nominations of David Pearce to 
serve as Ambassador to Greece, John Emerson to be Ambassador to 
the Federal Republic of Germany, John Rufus Gifford to be 
Ambassador to Denmark, Denise Campbell Bauer to be Ambassador 
to Belgium, and James Costos to be United States Ambassador to 
Spain and Andorra.
    As I said at our last hearing, probably one of the most 
overused words in diplomatic circles these days is ``pivot.'' 
While the United States clearly faces a lot of new and emerging 
threats and challenges from Asia, our most important, long-
lasting, and unbreakable alliance is with Europe.
    Almost without exception when the United States faces a 
crisis, we turn to Europe first. And almost without exception, 
Europe responds.
    It does not mean we do not have our disagreements, but it 
is going to be your job to help strengthen and maintain this 
vital security relationship while expanding on our economic 
relationship.
    All the countries of which we are discussing today are 
members of the European Union, amongst the first members of 
NATO, and from Syria to Afghanistan, from climate change to 
counterterrorism, the nations to which you have been nominated 
serve on the front line as partners to the United States.
    Each of you are going to play a critical role in success of 
the Transatlantic Trade and Investment Partnership, which 
requires the agreement of the European capitals as well as the 
European Parliament.
    You are going to represent the United States in discussions 
urging our friends to keep working to resolve the eurozone 
crisis and encourage them to keep up the momentum on necessary 
reforms.
    And I hope that you will work with our colleagues to 
advance the cause of human rights, both on the European 
Continent and beyond.
    You are also going to hear complaints from our European 
friends.
    You are going to be charged with explaining the U.S. 
interests in global information gathering to prevent attacks on 
both the United States and European soil. And you will also 
hear criticism that the United States leads too often from 
behind on the issue of climate change.
    The President has recently clearly and strongly reiterated 
his commitment to changing this perception, and I hope that you 
will be on the leading edge of a renewed effort to stand side 
by side with Europe in combating the disastrous increase in 
global temperatures.
    We congratulate you all on your nominations. We look 
forward to this hearing and hope that the Senate will work to 
quickly and positively respond to your confirmations today.
    We have got a full panel. So let us get busy with 
introductions. And well, actually first, let me recognize 
Senator Johnson for his opening statement and then we will do 
introductions.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. I will be quick. First of all, thank you, 
Mr. Chairman.
    I certainly want to join you in congratulating the nominees 
for your nomination. And I also want to thank you for your 
willingness to serve. Thank you for your past service as well.
    I also want to thank you for stopping by my office, Mr. 
Emerson. I am sorry that our schedule kind of conflicted.
    I certainly believe America is a phenomenal force for good 
in the world. It is your job to represent our interests and, 
certainly, hopefully, convey to the countries you are going to 
be representing America to about our goodness.
    But your job also is then to report back and represent the 
countries you are going to be Ambassadors to, to not only this 
country, but also this committee. So again, I just want to 
thank you for your willingness to serve and wish you the best 
to luck.
    And with that, I will end my comments.
    Senator Murphy. Senator Feinstein, welcome, and I know you 
have a busy schedule and cannot stay. So we would love to have 
your introduction of our one of our guests first.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Well, thank you very much, Mr. Chairman. 
And I am delighted to see my friend and colleague, Senator 
Boxer, here.
    And if she were speaking, I would say just ``ditto,'' and I 
hope she would say the same thing for me, because I think I can 
speak for her as well by saying that John Emerson is a friend 
of ours. He is the President's nominee to be the next 
Ambassador to Germany.
    And a little bit about him. He is the son of a Presbyterian 
minister, raised in the suburbs of New York City. He attended 
Mamaroneck High School outside of New York before earning his 
bachelor's degree from Hamilton College in 1975. In 1978 he 
received a law degree from the University of Chicago.
    Then he moved to Los Angeles to practice with the law firm 
Manatt Phelps & Philips, specializing in business and 
entertainment litigation and administrative law.
    In 1982, he was appointed by the Governor to the California 
Law Revision Commission, where he served for 2 years. In 1984, 
he became a partner in Manatt Phelps. He left the firm in 1987.
    He also served as deputy chief and chief of staff to the 
Los Angeles City Attorney, Jim Hahn. He left in 1993 to join 
the Clinton White House as a deputy assistant to the President. 
In that role, he was the economic conference coordinator for 
the Clinton-Gore transition of 1992, was the deputy director of 
the President's personnel in 1993. He was the chair of the 
Federal Interagency Task Force on the Northridge earthquake. 
That recovery was in 1994. He was the coordinator for the GATT 
implementing legislation in 1994, and he helped on the renewal 
of China's Most Favored Nation status in 1996.
    He was the deputy director of intergovernmental relations 
for the administration, which was the outreach to governors 
throughout America.
    He left the Clinton administration to become the President 
of the Capital Group, which is one of the world's largest 
investment management firms. In 1998, he was named to the Los 
Angeles Mayor's blue ribbon committee on public safety 
infrastructure. He joined the Pacific Council on International 
Policy, and he has been a member of the Council of Foreign 
Relations.
    From 2008 to 2012, he served as a board member of the Los 
Angeles Mayor's Trade Advisory Council. In 2010, he was 
appointed by President Obama to serve on his advisory committee 
on trade policy and negotiations, and he remains at this time a 
member of that committee. He retains his membership in the 
California State Bar.
    Now, I think both Barbara and I have known John for a long 
time. He is a man with amazing followup, drive, and 
determination.
    I actually think he will be superb Ambassador to Germany. I 
understand he speaks the language. He is interested in the 
country. As you will see, he is articulate. He is verbal. He is 
likable. And he is sort of the total package.
    So I am very happy to be here to put in a few words for 
him, Mr. Chairman.
    Senator Murphy. Thank you very much, Senator Feinstein. I 
know you have other events to attend to.
    Senator Feinstein. I do.
    Senator Murphy. But I thank you for being here with us.
    Senator Feinstein. Thank you. Thank you so much.
    Senator Murphy. And with that, I would like to recognize 
Senator Boxer.
    Senator Boxer. Thank you.
    I am not going to say ditto because----
    [Laughter.]
    Senator Boxer [continuing]. I want to put my remarks in the 
record and be clear.
    But I certainly am not going to go through John's resume, 
because it is exhausting just to listen to it, let alone to 
have lived it. [Laughter.]
    Senator Boxer. And I just want to say to colleagues here on 
both sides of the aisle, I think you have a wonderful panel 
before you, and we are lucky to have these folks come forward.
    I do want to point out there are two other Californians on 
the list today sitting before us: Denise Campbell Bauer to be 
Ambassador to Belgium, and James Costos to be the U.S. 
Ambassador to Spain.
    I want to say to all of you who are sitting here, 
congratulations.
    And to my Californians, I want to say a special thank you, 
because I know in California, we have an optimistic can-do 
spirit. And I know you will bring that spirit to your very 
important jobs.
    Well, I certainly consider myself fortunate, as Dianne 
does, to have known John for more than 20 years. And I, too, 
have seen him excel in every endeavor, including in the public 
and the private sector.
    I also know he is a wonderful husband and a wonderful dad. 
And I also know that his wife is here
    Kimberly, will you stand up?
    She is taking pictures now. [Laughter.]
    Recording the moment. Welcome.
    And what I want to say to all the families who are here, 
thank you. I often say you are serving our country, too. You 
are. The whole family signs up. When one of your members goes 
into Diplomatic Service or into the military, it is a family 
deal.
    And I want to say that as I look at John and I think about 
this assignment, I just think it is so tailor-made for you, 
John. Your interest in Germany, the fact that you do speak the 
language.
    And when I look at all of your experience, I know that your 
private sector skills will come to play as you work to 
represent our Nation in working with Germany and the whole 
European alliance by extension, because they are really a 
leader in many of the economic solutions there.
    You bring that private sector experience to the fore. And 
you will also bring your public sector experience to the fore 
when you have to deal with national security matters.
    So in closing, let me say, I hope we are going to move 
these nominees quickly. We need to have our best and brightest 
out there on the ground. It is a world that is changing. It is 
a world that deals with all kinds of problems and challenges.
    And I just really believe that we have a panel here that is 
up to the task. And just knowing John as I have for so long, I 
just want to say I can give you clear assurance on that one 
because I know and I have watched him.
    Thank you very much.
    Senator Murphy. Thank you, Senator Boxer.
    And now, for introduction of Mr. Gifford, Senator Kaine.

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chairman, to committee 
colleagues and to the panel, congratulations to all of you.
    There are a number of friends sitting on this panel, and it 
is a treat to be here today on a special day for you.
    I had a chance to visit the Middle East and Afghanistan 
with six Senators about a month ago, Senator Cornyn led a 
delegation, and it was really a powerful one. And as we were in 
Turkey, Jordan, the UAE, Afghanistan, we spent a lot of time 
with some of the best and brightest in this country, people who 
are Ambassadors or working in embassies in those countries.
    And it was really a spectacular opportunity to see the best 
of America at work, but also to come to understand in a little 
bit more dramatic way the challenges and sacrifices to do the 
job, hearing about people's careers and certainly they were 
exciting places that they had been, but the number of times 
they had moved and the challenges and sometimes living in some 
tough parts of the world, you really made me proud of folks who 
work in these capacities.
    And you will have your challenges. But you are going to be 
great Ambassadors. You are joining a wonderful, wonderful 
collegial fraternity and sorority of American public servants.
    I am happy to introduce my friend, Rufus Gifford.
    Rufus is from Massachusetts. He spent most of his 
professional career in California.
    But, John, I guess he did not call Senator Boxer and 
Feinstein faster than you did, so he has got a Virginian 
introducing him. [Laughter.]
    Aside from that, that is probably to his detriment, but it 
is to my pleasure because Rufus is a great friend.
    I had an opportunity to work very closely with Rufus during 
the Obama campaign in 2008, when I was chairman of the 
Democratic National Committee and he was the head of our 
finance operation. And then, again, in both the campaign in 
2012 and in his work in the inaugural.
    And I will just say, Mr. Chair, a couple of things about 
Rufus.
    Consummate professional. Consummate professional with 
always a positive attitude. Great leadership skills in all of 
the capacities he has had in professional life, from his time 
doing film and television production to his work in the 
political realm.
    He has had to build teams. He has had to lead teams. He has 
had to inspire teams. He has had to set ambitious goals and 
then leverage the power of relationship-building to achieve 
them. Team-building and leveraging the relationships to achieve 
goals is a key part of what you'll do in this role.
    He will think outside the box, not wedded to old views and 
ideas, but willing to be creative. A significant degree of 
honesty and integrity. Not afraid of a challenge. You do not 
take on a fundraising job if you are afraid of a challenge, and 
Rufus has done that and done it well.
    But something that I think is really important is--and 
there are many friends of Rufus's in this room, and you are 
going to know exactly what I mean when I say this. To do the 
jobs that he has had to do, he has had to be a real diplomat, a 
real diplomat, because, I would like to say that every person 
he has dealt with along the way has been incredibly happy. And 
I know from experience that that is not always been the case. 
And Rufus has been able to be a great problem-solver to deal 
with folks whether they are happy or unhappy and make them feel 
listened to and make them feel included. And that is something 
that I value about him, and I relied on him.
    And finally, Rufus is a master of hospitality. He is from 
Massachusetts, but I give him an honorary Southerner degree in 
hospitality area. And that is part of what an Ambassador does 
as well is making American visitors feel welcome, and then 
making those of the host country feel that they are also 
welcome as friends.
    And Denmark is a great ally. Denmark has been with us in so 
many national security alliances, as a NATO ally. Denmark has 
been a key partner of ours from the very beginning in 
Afghanistan. It is a close security relationship. It is a close 
economic relationship.
    When I was Governor of Virginia, Maersk, A.P. Moller-
Maersk, one of the major Danish firms that has shipping 
operations around the world, had a huge Virginia presence. And 
so we have very close economic and security ties.
    I am happy that we are sending somebody to be Ambassador to 
Denmark that the Danish will know is someone that the President 
cares very deeply about. And by sending somebody like Rufus to 
do that job, it sends a message to folks in Denmark that they 
are important and that the relationship is important.
    And so, for that, Mr. Chair, I recommend Rufus without 
hesitation. He is going to make this country proud in this 
role.
    Senator Murphy. Thank you very much, Senator Kaine.
    It gives me pleasure to introduce three other of our 
panelists.
    First, from my left to right, let me welcome James Costos, 
who is our nominee to serve as Ambassador to Spain. There are 
going to be rare people who come before this panel who have 
such a deep background with regard to success both in the 
private sector, with the diversity of experience that Mr. 
Costos has had, and just a commitment to philanthropy, 
representing our ideals as you head off to represent us in 
Europe.
    Mr. Costos is a respected leader with global business 
experience. He is currently the vice president of global 
licensing and retail at HBO and was previously the president 
and CEO of Eight Cylinder Inc., and head of promotions and 
consumer products at Revolution Studios.
    Earlier in his career, Mr. Costos served in high-level 
positions at Hermes and Tod's in New York. A dedicated 
philanthropist, he is on the board of directors at the Humane 
Society of the United States and is active on human rights 
issues.
    Mr. Costos obtained a degree in political science from the 
University of Massachusetts. He will be serving in a country 
that has hit very difficult economic times, has a strained 
relationship with Europe, but one that is more interdependent 
than ever, a country with strong national security ties to the 
United States.
    We welcome you here today to the panel.
    Let me now introduce Denise Bauer. Actually, I think I 
butchered your name at the beginning, because I am confusing 
you with one of our previous nominees, Dan Baer, and I do not 
think it will be the last time in Europe that Denise Bauer is 
confused with Dan Baer, our nominee to the OSCE.
    But Denise brings to this position an overwhelming 
commitment to community that she has displayed throughout her 
life. She began her career in broadcast journalism as a 
producer at KCBS News in Los Angeles, and later worked for the 
American Red Cross in San Francisco.
    She went on to become a leader in her community of 
Belvedere, CA, serving in an organizations such as the 
Belvedere Parks and Open Space Committee, the Belvedere Women's 
Forum, on the board of directors of the Belvedere Community 
Foundation, and the list just goes on and on.
    More recently, Ms. Bauer found a way to pursue her long-
time interest in politics and public service at a national 
level by joining the Obama for America team as finance chair 
for women, as the cochair of the Democratic National 
Committee's National Issues Conference, and chair of the 
Women's Leadership Forum.
    As Denise and I got the chance to talk privately, though 
our relationship with Belgium, hopefully, will be rather 
uncomplicated over the next 4 years, your post is one of the 
most important in Europe, because you are at the intersection 
of the United States and European politics.
    And as we try to negotiate this trade agreement, which 
could be transformational for the United States, it will be 
Brussels in many ways that will decide whether this agreement 
moves forward or does not.
    And the fact that you will be sitting as the welcoming 
committee for U.S. diplomats and European diplomats during this 
challenging time makes your role even more important and 
critical.
    And last, let me introduce and welcome David Pearce, no 
stranger to this committee. He has dedicated his life to 
serving the United States and our diplomatic interests abroad.
    He is nominated to be the United States Ambassador to 
Greece, but he has had a highly distinguished Foreign Service 
career, most recently serving as the Deputy Special 
Representative for Afghanistan and Pakistan, and before that as 
our Ambassador to Algeria.
    At the beginning of his time in the Foreign Service, he 
served as a Greece country officer, and so this is in part a 
full-circle journey for Ambassador Pearce.
    He began his career in journalism covering the foreign 
desks for such publications as the Associated Press, United 
Press International, and Rome Daily American, and the 
Washington Post. He has published a book on diplomacy and the 
media, received numerous awards, speaks six languages.
    I want to also thank your family, Mr. Ambassador, for their 
service as well. I know that you have your wife and children 
here with them today.
    We know that when you commit your life to public service 
abroad, you do it as a family, and we welcome them here today. 
I know that other members have families here, and I know that 
you will introduce them, I hope you will, when your turn for 
remarks comes.
    So with that, let us get to the testimony of our witnesses. 
Let me first introduce James Costos.

 STATEMENT OF JAMES COSTOS, OF CALIFORNIA, TO BE AMBASSADOR TO 
        THE KINGDOM OF SPAIN AND PRINCIPALITY OF ANDORRA

    Mr. Costos. Thank you, Mr. Chairman. Thank you, Senators.
    Thank you for this opportunity to speak before this 
distinguished committee as President Obama's nominee to serve 
as the United States Ambassador to Spain and Andorra.
    But before I begin today, I would just like to take a 
moment to express my heartfelt condolences to the family and 
friends of the victims of last night's train crash in Santiago 
de Compostela in Spain.
    The U.S. Embassy in Madrid is working closely with our 
Spanish counterparts to provide for U.S. citizens who need 
assistance. I know our thoughts and prayers are with all of 
them.
    I would also like to take this most important moment to 
introduce the most important people in my life who are with me 
today as they are every day. My parents, first-generation 
Greek-Americans who instilled in our middle-class family the 
values of hard work, self-reliance, and service, exemplified by 
my father's tenure as a U.S. Marine who was stationed at Camp 
David under President Truman.
    My sister, Maria, a teacher's aide, is here.
    And, of course, I am so grateful and proud that my partner, 
Michael Smith, of 14 years is also here. I am certain he will 
also represent our country very well.
    My passion for service and community involvement began at a 
very young age, and I have remained politically and 
philanthropically active ever since, serving on the board of 
the Humane Society, working with the Human Rights Campaign, 
dedicating my time and resources to arts and cultural 
institutions, and supporting the effort to elect President 
Obama.
    Today, it would be the greatest honor and privilege of my 
life to represent the values and interests of the country I 
love in Spain and Andorra.
    As an HBO executive responsible for global marketing and 
licensing, my leadership must inspire and gain the respect of 
employees in a large company. I manage by empowerment, and I 
develop my team to make decisions that allow them to take 
ownership of their work if they succeed or if they fail.
    In the end, all that we do is for the greater good of the 
organization and those we serve.
    If confirmed, the same will be true of my tenure as 
Ambassador. I will work to strengthen America's relations with 
Spain and particularly within the NATO alliance. Spain has been 
critical in supporting U.S. and NATO operations and Spain's 
strategic military bases in Rota and Moron host four Aegis-
equipped U.S. destroyers and a 500-strong special Marine task 
force to provide rapid response to threats against America's 
interests in the region.
    Spain is also a serious and committed partner in 
Afghanistan.
    If confirmed, I will continue to strengthen our 
relationship with Spanish defense officials and make sure the 
Spaniards know how much we appreciate their shared commitment 
to investing in democracy and freedom around the globe. And I 
will encourage Spain to continue with its support of shared 
U.S. and NATO efforts.
    Above all, I will work every day to ensure the safety and 
security of the 170,000 U.S. citizens in Spain and millions of 
visiting U.S. tourists reinforcing the cooperation amongst law 
enforcement agencies in the United States, Spain, and Andorra.
    If confirmed, I look forward to relying on my extensive 
business experiences to encourage more commerce between Spain 
and the United States. With the Transatlantic Trade and 
Investment Partnership negotiations well underway, I will work 
with Spain to move these free trade negotiations forward by 
meeting and listening to the concerns of government officials 
and the Spanish people, traveling the country to raise 
awareness about the economic benefits of this agreement, and 
using traditional and social media to engage in public 
diplomacy on America's behalf.
    I will also focus my strict attention on intellectual 
property rights issues, engage with the Spanish and Latino 
population in the United States and the United States-Spain 
Council to help encourage more business opportunities and 
investments, and make it a priority to focus on youth 
entrepreneurship and engagement using technology, science, the 
arts, cultural, educational, and sports exchange programs.
    I believe the values I was raised with, my deep commitment 
to social and cultural issues, and the business experience I 
have gained over the past several decades, have uniquely 
prepared me for this role to strengthen our partnership and 
champion America's values and interests.
    I am deeply committed to the economic and foreign policies 
of the country we love. And if confirmed, it would be the 
greatest honor to serve America in this official capacity as 
the Ambassador to Spain and Andorra.
    I thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Costos follows:]

                   Prepared Statement of James Costos

    Chairman Murphy, Ranking Member Johnson, members of the committee, 
thank you for the opportunity to speak before this distinguished 
committee as President Obama's nominee to serve as the United States 
Ambassador to Spain and Andorra. I would also like to thank the most 
important people in my life for being with me today, as they are every 
day.
    My Mom and Dad are second-generation Greek-Americans who instilled 
in our middle-class family the values of hard work, self-reliance, and 
service, exemplified by my father's tenure as a U.S. Marine who was 
stationed at Camp David under President Truman.
    My sister, a teacher's aide, is also here; as is my niece, who I'm 
proud to say is a recent graduate of nursing school. And of course, I'm 
so grateful that my partner, Michael, of 14 years is here, who will be 
a great asset to our country. He is equally committed to representing 
the very best of American art and culture to Spain, Europe, and 
visitors from all over the world.
    My passion for service came from my parents, and my community 
involvement began at a very young age, when I volunteered with the 
local Chamber of Commerce in Lowell, MA, to help revitalize our city. I 
have remained politically and philanthropically active ever since, 
serving on the board of the Humane Society, working with the Human 
Rights Campaign, dedicating my time and resources to several arts and 
cultural institutions and supporting the effort to elect President 
Obama.
    Today, it would be the greatest privilege of my life to represent 
the values and interests of the country I love in Spain and Andorra. 
Spain is an important historical ally of the United States and if 
confirmed, I will add to our more than 200 years of diplomatic history 
to further our shared interests. I believe that my experience as an HBO 
executive responsible for global marketing and communications should 
serve our country well as we tell America's story in Spain and Andorra.
    A diplomatic mission, like a company, is comprised of multiple 
departments, all of which must be relied upon to move business forward. 
At HBO, my leadership had to inspire and gain the respect of employees 
in a large company with over 100 external business relationships in 
dozens of countries. I managed by empowerment, and developed my team to 
make decisions that allowed them to take ownership of their work if 
they succeeded or if they failed. In the end, all that we do is for the 
greater good of the organization and those we serve.
    If confirmed, the same will be true of my tenure as Ambassador. I 
will work to strengthen U.S. relations with Spain bilaterally, 
multilaterally, and particularly within the NATO alliance. As you know, 
Spain's strategic military bases in Moron and Rota host U.S. forces on 
both a permanent and rotational basis and have been critical in 
supporting U.S. and NATO operations from Iraq to Afghanistan to Libya 
for more than a decade. In recognition of the strategic nature of these 
bases, the United States sought and was granted authorization to 
station four Aegis-equipped U.S. destroyers, along with their crews and 
families in Rota, beginning with two ships in 2014. In March of this 
year, Spain also authorized the temporary use of Moron to base a 500-
strong Special Marine Air-Ground Task Force to provide rapid response 
to threats against U.S. interests in the region, especially in northern 
and western Africa. If confirmed, I will continue to strengthen our 
relationship with senior Spanish defense officials and make it a 
priority to visit these bases and the U.S. service men and women, and 
their families, protecting the United States and our allies.
    Spain has been a serious and committed partner in Afghanistan for 
more than a decade and, as a key NATO member, has been an important 
contributor to the international community's peace and security agenda. 
I also intend to make sure the Spaniards know how valued they are and 
how much we appreciate their shared commitment to investing in 
democracy and freedom around the globe. If confirmed, I will encourage 
Spain to continue its support of shared U.S. and NATO efforts in 
training, advising, and assisting the Afghan National Security Forces 
in post 2014 Afghanistan as well as supporting peacekeeping operations 
in Africa.
    Above all, I will work every day to ensure the safety and security 
of the 170,000 U.S. citizens in Spain and millions of tourists--
reinforcing the strong cooperation among law enforcement agencies in 
the United States, Spain, and Andorra in combating terrorism, piracy, 
and drug trafficking, and working with the Government of Spain to 
encourage legitimate business and tourist travel and to prevent 
unauthorized travel to the United States.
    If confirmed, I look forward to relying on my extensive business 
experiences to encourage more commerce between Spain and the United 
States. With the Transatlantic Trade and Investment Partnership 
negotiations just beginning, I will work with Spain to move these free 
trade negotiations forward by meeting and listening to the concerns of 
government officials and the Spanish people, traveling the country to 
raise awareness about the economic benefits of this agreement, and use 
traditional and social media to engage in public diplomacy on America's 
behalf. I will also pay special attention to working with our Spanish 
partners to protect Intellectual Property Rights, to ensure the proper 
policies and legal mechanisms are in place to encourage investment and 
innovation, and to protect the rights of businesses that trade and 
invest transatlantically. I am also focused on engaging with the 
Spanish and Latino population in the United States to help encourage 
more Spanish-American exchanges, and uncover new business opportunities 
and investments. Additionally, I want to focus on youth engagement 
using technology, science, arts, cultural, educational and sports 
programs.
    I am deeply committed to furthering the economic and foreign 
policies of the country we love, and it would be the greatest honor to 
serve the United States in this official capacity. I believe that the 
values I was raised with and the business experience I have gained over 
the past several decades have uniquely prepared me for this role. Spain 
is a valued partner of the United States on vital issues and we must 
continue engaging bilaterally and multilaterally to the benefit of both 
countries and the European Union. If confirmed, I will use my time as 
Ambassador to strengthen our partnership and champion the United States 
values and interests.

    Senator Murphy. Thank you, Mr. Costos.
    Ms. Bauer.

   STATEMENT OF DENISE CAMPBELL BAUER, OF CALIFORNIA, TO BE 
                     AMBASSADOR TO BELGIUM

    Ms. Campbell Bauer. Thank you, Senator. Mr. Chairman and 
members of this distinguished committee, it is a great honor to 
appear before you today as President Obama's nominee to serve 
as the United States Ambassador to the Kingdom of Belgium.
    I am deeply grateful to President Obama and Secretary Kerry 
for the confidence they have placed in me.
    If confirmed, I will look forward to working with this 
committee and the Congress as I proudly dedicate myself to 
protecting and advancing U.S. interests in Belgium.
    Belgium is a valued NATO ally, and the United States and 
Belgium have a long history of friendship and close 
cooperation. Belgians today still remember the generosity of 
ordinary Americans who sent food and medical aid during World 
War I, as well as the sacrifices made to liberate Belgium 
during the Battle of the Bulge 70 years ago this December.
    Since then, our relationship has grown even stronger and 
Belgium has taken an important leadership role on the 
international stage. The United States has worked with Belgium 
on many issues of mutual interest, such as counterterrorism and 
countering violent extremism, expansion of trade relations, 
NATO missions in Afghanistan and Libya, and peacekeeping 
missions in the Middle East and Africa.
    Belgium shares our commitment to promoting security, 
stability, and human rights around the world.
    Belgium is also one of our most important trading partners. 
In 2012, the United States exported nearly 30 billion dollars' 
worth of goods and services to Belgium. U.S. companies have 
substantial investments in the Belgian economy, including in 
the chemical, automotive, petroleum, and pharmaceutical 
sectors.
    The negotiations of the Transatlantic Trade and Investment 
Partnership present an opportunity to further expand this 
relationship. As President Obama said, America and Europe have 
done extraordinary things together before. And I believe we can 
forge an economic alliance as strong as our diplomatic and 
security alliances.
    If confirmed, I will encourage Belgium to play a positive 
role in the trade negotiations and will work to expand American 
exports to Belgium and to help create more jobs and greater 
prosperity for the American people and Belgians alike.
    In his statement before the Senate Committee, Secretary 
Kerry said, American foreign policy is defined by food security 
and energy security, humanitarian assistance, the fight against 
disease and the push for development, as much as it is by any 
single counterterrorism initiative. It is defined by leadership 
on life-threatening issues like climate change, or fighting to 
lift up millions of lives by promoting freedom and democracy.
    I believe in this approach to foreign policy. If confirmed, 
I will embrace Secretary Kerry's diplomatic vision for 
furthering the interests of both the United States and Belgium, 
and will proudly lead an accomplished group of American 
interagency professionals and locally engaged staff.
    As you know, this past Sunday was a historic day for 
Belgium. His Majesty King Philippe was sworn in as the seventh 
King of the Belgians.
    If confirmed, it will be my privilege to work with the 
people of Belgium and their new king in opening this important 
new chapter in the long history between our nations.
    In closing, if I may, I would like to take a moment to 
thank my family and friends for their incredible support 
through all life's journeys, particularly my husband, Steve, 
and our wonderful daughters, Katherine and Natalie. They are 
home in California now, but, should I be confirmed, they will 
join me in Belgium and will be part of a team effort. They 
share my commitment to serving our country and my appreciation 
of the vital role diplomacy plays in international peace and 
prosperity.
    Once again, Mr. Chairman and members of this distinguished 
committee, thank you very much for this opportunity.
    [The prepared statement of Ms. Campbell Bauer follows:]

              Prepared Statement of Denise Campbell Bauer

    Mr. Chairman and members of this distinguished committee, it is a 
great honor to appear before you today as President Obama's nominee to 
serve as the United States Ambassador to the Kingdom of Belgium. I am 
deeply grateful to President Obama and Secretary Kerry for the 
confidence they have placed in me.
    If confirmed, I will look forward to working with this committee 
and the Congress as I proudly dedicate myself to protecting and 
advancing U.S. interests in Belgium.
    Belgium is a valued NATO ally, and the United States and Belgium 
have a long history of friendship and close cooperation. Belgians today 
still remember the generosity of ordinary Americans who sent food and 
medical aid during World War I, as well as the sacrifices Americans 
made to liberate Belgium during the Battle of the Bulge 70 years ago 
this December. Since then, our relationship has grown even stronger and 
Belgium has taken an important leadership role on the international 
stage. The United States has worked with Belgium on many issues of 
mutual interest, such as counterterrorism and countering violent 
extremism, expansion of trade relations, NATO missions in Afghanistan 
and Libya, and peacekeeping missions in the Middle East and Africa. 
Belgium shares our commitment to promoting security, stability, and 
human rights throughout the world.
    Belgium is also one of our most important trading partners. In 
2012, the United States exported nearly 30 billion dollars worth of 
goods to Belgium. U.S. companies have substantial investments in the 
Belgian economy, including in the chemical, automotive, petroleum, and 
pharmaceutical sectors. The negotiations of the Transatlantic Trade and 
Investment Partnership present an opportunity to further expand this 
relationship. As President Obama said, ``America and Europe have done 
extraordinary things together before. And I believe we can forge an 
economic alliance as strong as our diplomatic and security alliances.''
    If confirmed, I will encourage Belgium to play a positive role in 
the trade negotiations and will work to expand American exports to 
Belgium to help create more jobs and greater prosperity for the 
American people and Belgians alike.
    In his statement before the Senate Committee, Secretary Kerry said, 
``American foreign policy is . . . defined by food security and energy 
security, humanitarian 
 assistance, the fight against disease and the push for development, as 
much as it is by any single counterterrorism initiative. It is defined 
by leadership on life-threatening issues like climate change, or 
fighting to lift up millions of lives by promoting freedom and 
democracy.''
    I believe in this approach to foreign policy. If confirmed, I will 
embrace Secretary Kerry's diplomatic vision for furthering the 
interests of both the United States and Belgium, and will proudly lead 
an accomplished group of American interagency professionals and Locally 
Engaged Staff.
    As you know, this past Sunday was a historic day for Belgium. His 
Majesty King Philippe was sworn in as the seventh King of the Belgians. 
If confirmed, it will be my privilege to work with the people of 
Belgium and their new king in opening this important new chapter in the 
long history of friendship between our nations.
    In closing, if I may, I would like to take a moment to thank my 
family and friends for their incredible support through all life's 
journeys, particularly my husband Steve, and our wonderful daughters, 
Katherine and Natalie. They are home in California now, but, should I 
be confirmed, they will join me in Belgium and will be part of a team 
effort. They share my commitment to serving our country and my 
appreciation of the vital role diplomacy plays in international peace 
and prosperity.
    Once again, Mr. Chairman and members of this distinguished 
committee, thank you very much for this opportunity.
    I am happy to answer any questions you may have.

    Senator Murphy. Thank you, Ms. Bauer.
    Ms. Campbell Bauer I am happy to answer any questions.
    Senator Murphy. Thank you.
    Mr. Gifford.

   STATEMENT OF JOHN RUFUS GIFFORD, OF MASSACHUSETTS, TO BE 
                     AMBASSADOR TO DENMARK

    Mr. Gifford. Mr. Chairman, Senator Johnson, and members of 
the committee, thank you for permitting me this opportunity to 
appear before you as the President's nominee for the position 
of United States Ambassador to the Kingdom of Denmark.
    It is a tremendous honor to be asked to serve in this post, 
and I thank President Obama and Secretary Kerry for their 
confidence in me.
    I am joined here today by my mom and dad. And while my 
partner, Dr. Stephen DeVincent, could not be here, I am honored 
to be joined by a number of family and friends.
    Throughout my life, whether I was working in the 
entertainment industry, self-employed, or in politics, my 
success was determined by my ability to build a strong team, to 
set and exceed goals, and to establish new and innovative ways 
to accomplish the mission.
    If confirmed, I hope to bring the professional skills I 
have built over the course of my career to the Embassy in 
Copenhagen. I believe that leadership means investing in each 
and every one of your employees. I believe in pursuing a 
specific set of goals that are aggressive yet achievable. And, 
in my mind, innovation in all of its forms is vital to success.
    Diplomatic relations between the United States and Denmark 
began in 1783 when Denmark negotiated a commercial treaty with 
our brand new country. Since then, the relationship between the 
United States and Denmark has endured and thrived because we 
both share common principles and ideals, value our 
comprehensive partnership, and are committed to leading by 
example throughout the world.
    If confirmed, my goals for the mission are as follows: to 
maintain and strengthen our country's already strong 
relationship. The Danes make outsized contributions across the 
board to global peace, security, and development.
    Denmark is a country of fewer than 6 million people, but it 
is not shy about investing its resources and manpower in 
efforts to promote stability around the world. As close NATO 
allies, we are committed to each other's security.
    Danes stands shoulder to shoulder with U.S. service men and 
women in Afghanistan, and Denmark's support of the missions in 
Kosovo and Libya has also been critical. Denmark's significant 
contributions to peace and security also come in the form of 
stabilization and development assistance programs in Africa and 
the Middle East.
    Two, trade and economic prosperity. We must not just focus 
on the bilateral relationship in this ever-changing world but 
also the multilateral relationship. The Transatlantic Trade and 
Investment Partnership, or TTIP, will be a significant focus of 
our work in the coming months. Denmark is a logical partner in 
this incredibly bold initiative.
    But we cannot center our business relationship around TTIP 
alone. The United States is Denmark's third-largest trading 
partner. More than 250 Danish companies have subsidiaries in 
the United States, employing over 35,000 Americans. We must 
continue to build our economic partnership, focusing on 
emerging industries such as information technology, 
biotechnology, and clean energy.
    And three, leading by example with innovation, technology, 
and sustainability. The economic partnership between our two 
countries is vast. Denmark is a leader in medical research and 
technology as well as in wind energy, smart grid technology, 
and energy efficiency.
    I am passionate about creating new alliances between the 
smartest minds in science and medicine in Denmark and here at 
home, with the ultimate goal of making the planet safer, 
cleaner, and smarter.
    In addition, if confirmed, I will reach out to Greenland 
and the Faroe Islands. We will continue to strengthen our bonds 
with these parts of the Kingdom of Denmark, where innovation, 
technology, and sustainability can extend our commercial and 
economic ties.
    Mr. Chairman, and members of the committee, by investing in 
teamwork, by setting smart and strategic goals, and by pushing 
the edge of the envelope, we can achieve great success and 
ensure that this relationship between our two great countries, 
230 years old, is even stronger 230 years from now.
    Again, thank you for permitting me to be here before you. I 
am truly honored by this opportunity.
    If confirmed, I will do my very best to represent the 
United States, and I would hope to meet with you again in the 
future to report on our continuing partnership with Denmark.
    Thank you. And I look forward to answering whatever 
questions you may have.
    [The prepared statement of Mr. Gifford follows:]

                Prepared Statement of John Rufus Gifford

    Mr. Chairman, Ranking Member Johnson, and members of the committee, 
thank you for permitting me this opportunity to appear before you as 
the President's nominee to be United States Ambassador to the Kingdom 
of Denmark. It is a tremendous honor to be asked to serve in this post 
and I thank President Obama and Secretary Kerry for their confidence in 
me.
    When I was 10 years old my parents asked me what I wanted for my 
birthday. Expecting the typical answer of games or toys, they were 
surprised to hear my answer. All I wanted was a trip, just the three of 
us--leaving my brothers and sisters at home--to Washington, DC. I got 
my wish. I remember standing wide-eyed watching the Senate in session, 
touring the Reagan White House and walking the grounds of the Jefferson 
Memorial at night. My fascination with government and politics was 
already well established but it was this trip when I knew I just had to 
be part of it.
    I am joined here today by the two people who took me on this first 
trip, my Mom and Dad along with my partner, Dr. Stephen DeVincent, who 
is taking a day off from his veterinary practice to be here. My one 
regret today is that my paternal grandparents could not be here. 
Through their frequent travel to Denmark, my grandparents fell in love 
with Copenhagen and the country, and would often regale us as children 
with stories of their experiences. To me Denmark seemed too good to be 
true, a land of Hans Christian Andersen's fairy tales. Turning the 
fantasy into reality, sitting here today, I wish more than anything 
that they could be here with us.
    I grew up in Manchester, MA, a son of a banker with an eagerness to 
pave his own path. After graduating from Brown University in 1996, my 
career has taken me to Los Angeles, Washington, DC, and Chicago. 
Throughout my career, whether when I was working in the entertainment 
industry, I was self-employed or in politics, I have prided myself on 
three things:

          (1) Teambuilding;
          (2) Setting and exceeding goals; and
          (3) Establishing new and more innovative ways to accomplish 
        the mission.

    If confirmed, I hope to bring the professional skills I have built 
over the course of my career to the Embassy in Copenhagen. I believe 
that leadership means investing in each and every one of your 
employees; it's about management and creating an atmosphere where 
teamwork and collaboration can thrive.
    I believe in pursuing a specific set of goals that are aggressive 
yet achievable. The status quo is never good enough. Success is not 
just about maintaining the status quo, it's about promoting new ideas 
and thinking outside the box. In my mind, innovation in all its forms 
is vital to success.
    Diplomatic relations between in the United States and Denmark began 
in 1783 when Denmark negotiated a commercial treaty with our new 
country. Since then, the relationship between the United States and the 
Kingdom of Denmark has endured and thrived.
    Why is that? A large part of the answer can be found in the fact 
that we share common principles and ideals, value our comprehensive 
partnership both politically and economically, and are committed to 
leading by example throughout the world.
    If confirmed, my overall goal is to maintain and build upon that 
relationship. I believe that, as good as our bilateral relationship is, 
there will always be more to do.
    My goals for the mission are as follows:

(1) To maintain and strengthen the strong relationship between the 
countries, focusing on our partnership to resolve and prevent conflicts 
abroad, stabilize regions in conflict, and foster democratic 
development, tolerance, and respect for human rights.

    One cannot help but be impressed at the outsized contributions the 
Danes make across the board to global peace, security, and development. 
Denmark is a country of fewer than 6 million people, but it is not shy 
about investing its resources and manpower in efforts to promote 
stability around the world. As close NATO allies, the United States and 
Denmark are committed to each other's security and stand together in 
critical crisis areas worldwide. Danish soldiers and civil servants 
stand shoulder to shoulder with our service men and women today in 
Afghanistan, and Denmark's support of the missions in Kosovo and Libya 
has also been critical.
    Denmark's significant contributions to international peace and 
security also come in the form of stabilization and development 
assistance programs in west and east Africa as well as the Middle East. 
The Danes are leaders in Scandinavia and in Europe as a whole in 
addressing the root causes of extremism and are key partners in 
countering the threat of terrorism.
    If confirmed, my goal will be to ensure this partnership remains 
and is strengthened.

(2) Trade and Economic Prosperity.

    We must not just focus on the bilateral relationship in this ever-
changing world but also the multilateral relationship. The 
Transatlantic Trade and Investment Partnership--or TTIP--will be a 
significant focus of our work in the coming months. President Obama 
called TTIP a potential ``groundbreaking partnership'' while creating 
``hundreds of thousands of jobs on both sides of the Atlantic.''
    While the negotiations are between the United States and the 
European Union, the support of EU member states will be crucial as 
well. Denmark is a logical partner in this incredibly bold initiative. 
The English translation of ``Copenhagen'' is actually ``Merchants' 
Harbor.'' Denmark is a country built upon centuries of trade. Like us, 
the Danes know that when we break down barriers to trade, we improve 
our ability to raise standards and increase prosperity around the 
world. I am not naive about the work ahead--it will be an ``all hands 
on deck'' endeavor. But considering the strong relationship between the 
United States and Denmark, we can help support an initiative that will 
lead the way to creating more jobs and growth on both sides of the 
Atlantic.
    But we cannot center our business relationship on TTIP alone. The 
United States is Denmark's third-largest trading partner. More than 250 
Danish companies have subsidiaries in the United States employing over 
35,000 Americans. We must continue to build our economic partnership, 
focusing on emerging industries such as information technology, 
biotechnology, and clean energy. Secretary Kerry has called on the 
State Department to ``double down'' on economic diplomacy. That means 
engaging both the political and economic decisionmakers in Denmark to 
advance opportunities for U.S. businesses.

(3) Leading by example with innovation, technology and sustainability.

    The partnership here between our two countries is vast. Denmark is 
a leader medical research and technology. The Danes are also leaders in 
wind energy, in smart grid technology, and energy efficiency. I am 
passionate about furthering this relationship, creating alliances 
between the smartest minds in science and medicine in Denmark and the 
smartest minds here at home with the ultimate goal of making the planet 
safer, cleaner, and smarter.
    In addition, if confirmed, I will also reach out to Greenland and 
the Faroe Islands. We will continue to strengthen our bonds with these 
parts of the Kingdom of Denmark, where innovation, technology, and 
sustainability can extend our commercial and economic ties.
    Mister Chairman and members of the committee, by investing in 
teamwork, by setting smart and strategic goals, and by pushing the edge 
of the envelope, we can achieve these goals and ensure that the 
relationship between our two great countries--230 years old--is even 
stronger 230 years from now.
    Again, thank you for permitting me to appear before you. I am truly 
honored by this opportunity. If confirmed, I will do my very best to 
represent the United States--and I would hope to meet with you again in 
the future to report on our continuing partnership with Denmark.
    I look forward to answering any questions you may have.

    Senator Murphy. Thank you, Mr. Gifford.
    Mr. Emerson, welcome.

 STATEMENT OF JOHN B. EMERSON, OF CALIFORNIA, TO BE AMBASSADOR 
               TO THE FEDERAL REPUBLIC OF GERMANY

    Mr. Emerson. Thank you very much.
    Good afternoon, everybody.
    Mr. Chairman, Senator Johnson, distinguished Senators, 
thank you very much for the privilege of appearing before you 
today.
    And I would also like to thank my good friends, Senators 
Boxer and Feinstein, for their generous and kind words on 
behalf of my nomination to be Ambassador to the Federal 
Republic of Germany.
    I am also deeply grateful to President Obama and Senator 
Kerry for their confidence and for this honor.
    And if you would permit me, I would like to introduce to 
the committee my wife, Kimberly Marteau Emerson. Kimberly 
worked at USIA during the Clinton administration and 
subsequently has been extremely active in promoting public 
diplomacy and human rights and in the cultural and civic life 
of our community. And I have no doubt that, if I am confirmed 
to serve in Germany, she will be a great asset to our country.
    And our three teenage girls, Jackie, Taylor, and Hayley, 
are unable to be with us today, but I can guarantee you that 
they will be enthusiastically accompanying us.
    If confirmed by the Senate, I will have the privilege of 
returning to Germany for the fourth time in four separate 
decades. Both Kimberly and I share a deep German heritage, 
through my paternal and her maternal grandparents.
    From my youth, I have had an interest in the culture and 
the people of Germany, although I will admit that my decision 
at age 12 to begin studying the language probably had more to 
do with the fact that my father and grandmother would speak it 
when they did not want me to know what they were talking about. 
[Laughter.]
    I first visited Germany upon graduating from college, 
staying with my former German history professor who had moved 
to Berlin and who subsequently spent many years working with 
this committee--Michael Haltzel.
    A decade later, I was selected by the Friedrich Ebert 
Stiftung to be one of four Americans from the public sector to 
travel the country and participate in meetings with local and 
federal German officials. During these visits and subsequent 
family travel, I have been struck by the warmth of the German 
people, as well as the special relationship that America and 
Germany share.
    The partnership between our two countries is one of our 
most important alliances, as we confront the economic and 
security challenges of the present day.
    If confirmed, I would work with our German partners to 
ensure financial and economic stability in the eurozone, as a 
successful European market base allows for increased American 
business opportunities and jobs here at home. I would work to 
support the TTIP negotiations as appropriate, and if they are 
successfully concluded, would focus on promoting trade and 
investment with Germany.
    While serving in the Clinton White House, I had the 
privilege of managing our efforts to secure congressional 
approval of the Uruguay round of the GATT, working closely with 
then-White House Fellow, Michael Froman. Well, I look forward 
to working with now-U.S. Trade Representative, Michael Froman, 
on TTIP-related issues.
    It is critical that we incorporate economic statecraft at 
all levels of our diplomacy. I hope to build on my experience 
in business and global investment management to engage in 
promoting U.S. business interests, and thereby helping to 
create jobs here at home.
    Germany is a committed partner in combating terrorism and 
promoting our mutual national security. Its support of the 
approximately 45,000 American troops currently forward 
positioned on German soil remains vital to European security 
and our defense initiatives aboard.
    As Ambassador, I would encourage Germany to continue its 
strong support of NATO, as Germany sends the largest number of 
troops to Kosovo, and, with 4,300 troops, is the third-largest 
contributor to Afghanistan. Germany has also indicated a 
willingness to lead NATO's efforts in northern Afghanistan 
post-2014.
    Germany has deployed two Patriot surface-to-air missile 
batteries in response to Turkey's request for NATO ballistic 
missile defense support and is actively engaged in helping us 
to secure peace and security and nonproliferation efforts in 
Syria and Iran.
    Germany and the United States are leaders in energy 
transformation, and as such, there is a great opportunity for 
bilateral cooperation in emerging energy and environmentally 
friendly technologies. And if confirmed, I would work to see 
where U.S. companies with expertise in energy and environmental 
areas might be able to engage in this exciting market.
    Mr. Chairman, Senator Johnson, members of the committee, I 
am honored to have been nominated to serve as Ambassador to a 
country that is so consequential to our economic and national 
security interests as well as a place where I have a strong 
personal connection, and if given the opportunity, I pledge I 
will serve the American people with dignity and honor, and work 
to foster an even stronger alliance between these two important 
allies based on our common shared values.
    Thank you so much for your consideration.
    [The prepared statement of Mr. Emerson follows:]

                 Prepared Statement of John B. Emerson

    Mister Chairman, Ranking Member Johnson, and distinguished members 
of the Senate Foreign Relations Committee, thank you for the privilege 
of appearing before you today.
    I would also like to thank my friends Senator Feinstein and Senator 
Boxer for their kind words in support of my nomination to be Ambassador 
to the Federal Republic of Germany. I am deeply grateful to President 
Obama and Secretary Kerry for this great honor, and for giving me the 
opportunity to work yet again as a public servant.
    If you would permit me, I would like to introduce to the committee 
my wife, Kimberly Marteau Emerson. Kimberly worked at USIA during the 
Clinton administration and subsequently she has been active in 
promoting public diplomacy and in the civic and cultural life of our 
community. I know that if I am confirmed to serve in Germany, she would 
be a great asset to our country. Our three teenage girls, Jackie, 
Taylor, and Hayley, are unable to be with us today, but they would be 
enthusiastically accompanying us as well.
    If confirmed by the Senate, I will have the privilege of returning 
to Germany for the fourth time in four separate decades. Both Kimberly 
and I share a deep German heritage, through my paternal and her 
maternal grandparents. From my youth, I have had an interest in the 
culture and the people of Germany--although I will admit that my 
decision at age 12 to begin studying the German language may have had 
more to do with the fact that my father and grandmother would speak it 
when they didn't want me to know what they were discussing!
    I first visited Germany upon graduating from college, staying with 
my former German history professor who had moved to Berlin and who 
subsequently spent many years working for this committee--Michael 
Haltzel. A decade later, I was selected by the Friedrich Ebert Stiftung 
to be one of four Americans from the public sector to travel the 
country and participate in meetings with local and federal German 
officials. During these visits and subsequent family travel, I have 
been struck by the warmth of the German people, as well as the special 
relationship that America and Germany share. The partnership between 
our two countries is one of our most important alliances, as we 
confront the economic and security challenges of the present day.
    If confirmed, I would work with our German partners to ensure 
financial and economic stability in the eurozone, as a successful 
European market base allows for increased American business 
opportunities. I would work to support Transatlantic Trade and 
Investment Partnership (TTIP) negotiations as appropriate, and if they 
are successfully concluded, would focus on promoting trade and 
investment with Germany. While serving in the Clinton White House, I 
had the privilege of managing our efforts to secure congressional 
approval of the Uruguay Round of the GATT, working closely with then-
White House Fellow, Michael Froman. I look forward to working with now-
U.S. Trade Representative Froman on TTIP-related issues. It is critical 
that we incorporate economic statecraft at all levels of our diplomacy. 
I hope to build on my experience in business and global investment 
management to engage in promoting U.S. business interests, and thereby 
help create jobs here at home.
    Germany is an important NATO ally and a committed partner in 
combating terrorism and promoting our mutual national security. Germany 
hosts approximately 45,000 American troops that remain vital to our 
shared security interests, including beyond Europe. As Ambassador, I 
would encourage Germany to continue its strong support of NATO. Germany 
leads the alliance in terms of number of troops deployed to Kosovo, and 
it has an important leadership role in Afghanistan, leading efforts in 
the north and providing 4,200 troops. Germany has also indicated 
willingness to continue to lead NATO efforts in northern Afghanistan 
post-2014. Germany has deployed two Patriot surface-to-air missile 
batteries in response to Turkey's request for NATO ballistic missile 
defense support. Germany also is actively engaged in peace and security 
and nonproliferation efforts Syria and Iran. It has cohosted the 
Friends of Syrian People working group for economic development and 
established, together with the UAE, a Trust Fund for Syria, to support 
Syrian reconstruction. It has also pledged 125 million euros for 
humanitarian assistance in Syria. Germany shares our commitment to 
prevent a nuclear-armed Iran through a dual-track approach of pressure 
and engagement. As a member of the P5+1, Germany is actively involved 
in efforts to reach a negotiated solution that addresses the 
international community's concerns over Iran's nuclear program.
    Germany and the United States are leaders in energy transformation 
and as such, there is great opportunity for bilateral cooperation in 
emerging energy and environmentally friendly technologies. If 
confirmed, I would support Germany's efforts to diversify its energy 
routes and sources, as well as the role it has and can continue to play 
in broader EU efforts to promote regional energy security. Germany has 
made impressive progress in developing renewable energy sources 
including wind and solar power. If confirmed, I would also work to see 
where U.S. companies with expertise in energy and environmental areas 
might be able to engage in this exciting market.
    Mister Chairman, Ranking Member Johnson, and members of the 
committee, I am honored to have been nominated to serve as Ambassador 
to a country that is so consequential to our economic and national 
security interests, as well as a place where I have strong personal 
connections. If confirmed, I would be excited to begin work during this 
key juncture in United States-German relations, in the approach to 
particularly as Germany's federal elections in September approach. If 
given the opportunity, I pledge that I will serve the American people 
with honor and dignity, and will work to foster an even stronger 
alliance between the United States and Germany based on our shared 
values.
    Thank you for your consideration, and I would be happy to answer 
any questions you may have.

    Senator Murphy. Thank you, Mr. Emerson.
    Welcome, Ambassador Pearce.

        STATEMENT OF HON. DAVID D. PEARCE, OF VIRGINIA, 
                   TO BE AMBASSADOR TO GREECE

    Ambassador Pearce. Thank you, Mr. Chairman, and thank you 
to the distinguished members of the committee.
    It is a great honor to be here today as the President's 
nominee to be the next United States Ambassador to the Hellenic 
Republic.
    Mr. Chairman, given the constraints on time, if you will 
allow me, I will present an abbreviated version of my statement 
and let the full one be added for the record.
    First though, I very much appreciate the opportunity to 
introduce my wife, Leyla, who has ably represented the United 
States and served with me through more than three decades of 
Foreign Service postings in the Middle East, Europe, and North 
Africa. And with her are our daughter, Jenny, and our son, 
Joey, in the second row.
    Mr. Chairman, I am grateful for the confidence and trust 
President Obama and Secretary Kerry have placed in me, and for 
the opportunity to appear before you today.
    Since the founding of our Republic, the United States has 
looked to Greece, where the very idea of democracy was born, 
with special respect and affection. Relations between Greece 
and the United States are excellent, and we look forward to 
welcoming Prime Minister Samaras to the White House on August 
8.
    As you know, the bonds between our countries have been 
strengthened over the years by millions of Americans who trace 
their ancestry to the Hellenic Republic. The Greek-American 
diaspora community is always generous with its time, and if 
confirmed, I will look forward to working with them and seeking 
out their views.
    Mr. Chairman, and members of the committee, Greece, as you 
all know, is experiencing a very critical period in its modern 
history as it seeks to emerge from an acute economic crisis 
that has now lasted 4 years. We stand in solidarity with the 
Greek people, who are making major but essential sacrifices to 
achieve the changes that are necessary to return Greece to 
economic prosperity.
    There are still many challenges, but it is very much in the 
U.S. interest that these reforms succeed, given the importance 
of Greece to the broader eurozone financial stability.
    If confirmed, I will work closely with the Greek Government 
to support its reform efforts, which are essential to restoring 
Greece's competitiveness and growth, improving market 
confidence, and creating a more prosperous future for its 
people.
    I will also look for ways to expand bilateral trade and 
investment, and advocate for U.S. business and investors.
    While much focus has justifiably been on Greece's economic 
situation, we need to remember it also plays a very important 
regional role.
    In the first half of 2014, Greece assumes the presidency of 
the European Union. It is a longstanding NATO ally and has 
supported a variety of allied operations, including in Libya 
and Kosovo. Our strong security relationship is reflected in 
excellent cooperation at the Naval Support Activity base at 
Souda Bay, Crete.
    Together, we have worked to combat transnational terrorist 
threats. We applaud, of course, the recent efforts by the Greek 
and Turkish governments to foster closer ties and build trust. 
We support the U.N. effort to settle the long-running 
Macedonian name dispute.
    And of course, there is the continued division of Cyprus. 
We believe a mutually acceptable settlement there is in the 
best interest of the people of Cyprus and the region. We look 
forward to settlement talks resuming later this year, and we 
will support them in any way we can.
    Mr. Chairman, these are some of the things I look forward 
to working on, if I am confirmed.
    I first visited Greece as a classics student from Maine in 
the spring of 1971. Since then, I have maintained that 
interest, first as a journalist in Southern Europe and the 
Middle East, and then as a diplomat in nearby Rome, Jerusalem, 
Damascus, Tunis, and Algiers.
    I have been in the Foreign Service for 31 years now, and if 
confirmed, I would bring that accumulated experience to Embassy 
Athens.
    So, Mr. Chairman, thank you for the opportunity to appear 
again before you. I pledge to do my best to advance U.S. 
interests and our relationship with Greece, a valued friend and 
ally in every way possible, if confirmed. I also look forward 
to working with this committee, as well as your staff and your 
congressional colleagues, in that effort.
    And now I would be pleased to answer any questions you may 
have. Thank you.
    [The prepared statement of Ambassador Pearce follows:]

               Prepared Statement of Hon. David D. Pearce

    Thank you, Mr. Chairman, and thank you, distinguished members of 
the committee. It is a great honor to be here today as the President's 
nominee to be the next United States Ambassador to the Hellenic 
Republic.
    I appreciate the opportunity to introduce my wife, Leyla, who has 
ably represented the United States, and served with me for three 
decades of Foreign Service postings in the Middle East, Europe, and 
North Africa. With Leyla are my daughter, Jenny, and our son, Joey.
    Mr. Chairman, I am grateful for the confidence and trust President 
Obama and Secretary Kerry have placed in me, and for the opportunity to 
appear today before this committee.
    Since the founding of our Republic, the United States has looked to 
Greece, where the very idea of democracy was born, with special respect 
and affection. Relations between Greece and the United States are 
excellent, and we look forward to welcoming Prime Minister Samaras to 
the White House on August 8. The bonds between our countries have been 
strengthened over the years by millions of Americans who trace their 
ancestry to the Hellenic Republic. The Greek-American diaspora 
community is always generous with its time, and if confirmed, I will 
look forward to working with them and seeking out their views.
    Mr. Chairman, members of the committee, Greece is experiencing a 
critical period in its modern history as it seeks to emerge from an 
acute economic crisis that has now lasted 4 years. We stand in 
solidarity with the Greek people, who are making major but essential 
sacrifices to return Greece to economic prosperity. The Greek 
Government has made deep budget cuts to restore fiscal sustainability, 
but now needs to make progress on structural reforms that will revive 
the country's economic growth, including opening up its markets, 
privatizing state assets, reducing the public sector, and improving tax 
collection. There are still many challenges, but it is very much in the 
U.S. interest that these reforms succeed. If confirmed, I will work 
closely with the Greek Government to support its reform efforts--which 
are essential to restoring Greece's competitiveness and growth, 
improving market confidence, and creating a more prosperous future for 
its people. I will also look for ways to expand bilateral trade and 
investment and advocate for U.S. business and investors.
    While Greece has justifiably been focused on its economic situation 
in recent years, it also plays an important role in the wider region:

  <bullet> In the first half of 2014, Greece will assume the Presidency 
        of the European Union.
  <bullet> As a longstanding NATO ally, Greece has helped us meet 
        global challenges, from supporting allied operations in Libya 
        to stabilization efforts in Kosovo. And our strong security 
        relationship with Greece is exemplified by our excellent 
        cooperation at the Naval Support Activity base at Souda Bay, 
        Crete.
  <bullet> We have worked together with Greece not only to investigate 
        and bring to justice domestic anarchists who have claimed Greek 
        and U.S. victims, but also to combat transnational terrorist 
        threats.
  <bullet> We applaud the efforts of the Greek and Turkish Governments 
        to foster closer ties and build trust--efforts that include a 
        March meeting between Prime Ministers Samaras and Erdogan in 
        Istanbul, and the resumption of Greek-Turkish Exploratory Talks 
        on Aegean issues.
  <bullet> Regrettably, the continued division of Cyprus has not yet 
        been resolved. A mutually acceptable settlement is in the best 
        interests of the people of Cyprus, and the region, so we look 
        forward to settlement talks resuming later this year. The 
        United States will work closely with the United Nations, both 
        Cypriot communities, Greece, and Turkey to actively encourage 
        reconciliation and reunification.
  <bullet> Not least, we support the ongoing U.N. effort to settle the 
        nearly 20-year-old name dispute between Athens and Skopje. Here 
        too, a lasting and mutually acceptable solution is manifestly 
        in the interest of both countries and the wider region.

    Mr. Chairman, those are some of the challenges and opportunities I 
look forward to working on if I am confirmed. I first visited Greece as 
a Classics student in the spring of 1971. In the four decades since, I 
have maintained that interest working as a journalist in southern 
Europe and the Middle East, and then as a diplomat in nearby Rome, 
Jerusalem, Damascus, Tunis, and Algiers. I have been a Chief of Mission 
twice, and also an Assistant Chief of Mission, Principal Officer, and 
Deputy Chief of Mission. So, if confirmed, I would bring that 
accumulated experience to the policy, security, and management 
challenges that Embassy Athens faces.
    Mr. Chairman, thank you again for the opportunity to appear before 
you. If confirmed, I pledge to do my best to advance U.S. interests, 
and our relationship with Greece, a valued friend and ally, in every 
way possible. I look forward to working with this committee, as well as 
your staff, and your colleagues, in that effort. I would be pleased to 
answer any questions you may have.

    Senator Murphy. Thank you very much, Mr. Ambassador.
    Thank you to all of our nominees. We will now proceed with 
a round of 7-minute questions. I will just warn the panel we 
have a vote that is imminent, and so that may interrupt our 
hearing. We will figure out how to proceed with it once the 
vote is called.
    Let me start with you, Ambassador Pearce. You know we have 
a saying around here that with crisis comes opportunity, and 
that is kind of by necessity here because we are constantly in 
crisis, so we can only hope that there is opportunity in 
crisis. But you remarked that you are going to be coming to 
Greece at a moment of ongoing economic crisis, but also at a 
time in which there is still hope that there is some resolution 
somewhere around the corner with respect to Cyprus and also the 
name dispute in Macedonia.
    And so, I will ask, I guess, an open-ended question to hear 
a little bit more of your thoughts in terms of what role the 
United States can play, but ask it through this prism: Does it 
become harder or easier to try to solve those two problems as 
Greece is looking more constantly inward during this economic 
tumult? And what is the appropriate role for the United States 
to play in this new round of talks with Turkey and in a just 
very meddlesome name change dispute that should be resolved in 
the short term, we hope, with respect to Macedonia?
    Ambassador Pearce Thanks, Senator. Let us see, that is a 
lot to chew on.
    I think that, clearly, the economic crisis in Greece is 
really tough. I mean, it has been going on for about 4 years 
now. And the economy has contracted 25 percent, and it is a lot 
of pain for ordinary people. That is very tough politically, of 
course, for any government to come to grips with.
    Nevertheless, I think that the Greeks have made significant 
progress. They have started to close their fiscal gap. They 
have recapitalized their banks, and the labor costs are coming 
down.
    But there is a lot more to do. And I think that the main 
chore here is going to be to work with them to help them get 
through this very tough period.
    I think that you are right that there are opportunities. 
And I do think that one opportunity I can think of right off 
the bat is that, if Greece is successful with its reform 
process, it will mean a better investment climate. It will mean 
more business opportunities. And I think that would be good for 
U.S. companies and firms in the future.
    So I think there is a lot to do in terms of the domestic 
and the economic side.
    In terms of Cyprus and the name issue, well, I was on the 
desk 26 years ago. And, regrettably, Cyprus is still an issue. 
I do think though, from what I have seen as I prepared for this 
appointment, that there are a couple of things which are 
encouraging. One of them is that the quality of relations 
between Greece and Turkey is better now, it seems to me, than 
it was back when I was working on the desk before.
    Another is that there is an expectation that settlement 
talks in Cyprus are going to resume in October. That would be 
great. If this dispute can finally be moved out of frozen 
status, and if the tragic division of the island can end, and 
we can reach a comprehensive settlement, and, of course, we 
support a bizonal, bicommunal federation, that would be 
enormous.
    And I think it would be not just for Cyprus, but for 
regional stability. And that would be a really great thing. And 
if confirmed, I would, of course, do everything that I can do 
from my perch in Athens to help in that regard.
    The name dispute was not there 26 years ago when I was on 
the desk, although it has been running for more than 20 years 
now, I guess. This is a very difficult issue, but we hope that 
the U.N. special envoy, Matt Nimetz, will be able to make some 
progress. We support his efforts. And we do hope that a 
solution can be found that can be finally mutually acceptable 
to both sides because that, too, would be good for regional 
stability and the integration of Euro-Atlantic institutions.
    The U.S. role, I think, in the economic crisis, which you 
asked specifically about, the U.S. role I believe is to be 
there to engage, to monitor, to report, and to make sure that 
policymakers back here have the information they need in order 
to take the decisions that they need to.
    Senator Murphy. We have a NATO summit in 2014. There are a 
number of other potential issues for Macedonia to join, but, 
clearly, this is at the top of the list. Clearly, that is a 
timetable a lot of people are going to look to try to get this 
resolved.
    Mr. Emerson, let me ask you a specific question. You are 
going to be showing up in Germany in the middle of an election, 
a hotly contested election in which Germany's relationship with 
America is on the table. One of the pending issues that the SPD 
is raising is their allegation that Chancellor Merkel has been 
too close to the United States with regard to our surveillance 
programs and our information-gathering programs.
    And you, probably, on the first day you are there, are 
going to be asked questions about the extent of this program 
and what the future of it is. I know you are not there, but can 
you just share with us your perspective on how the next 
Ambassador should manage this particular issue, given the fact 
that it is going to be, as it already is, an issue in the 
German election?
    Mr. Emerson. Well, thank you for that, Senator.
    Obviously, that is a very, very important issue and 
something, clearly, we have given a lot of thought to. I think, 
first of all, we need to just step back and take a look at this 
in the context of the overall extraordinary relationship and 
partnership that the Americans and the Germans have and have 
had over the years.
    As President Obama has said, Germany is one of our most 
important allies in the world. We work together on just about 
everything from economic engagement to national security 
issues. And as part of that, we share intelligence on security 
matters and security threats that could impact all of us.
    I am obviously very well aware of the concerns that Germany 
has raised. And the administration, as I understand it, has 
engaged with Germany and our other European allies and partners 
with regard to those concerns.
    I think as Ambassador, my principle role is going to be to 
listen and to engage on the ground, and to continually reassure 
government officials, political leaders, the German people, 
that the United States will continue to work hard together with 
Germany to combat terrorism to keep our country safe, but to do 
so with collective action based upon our shared respect for the 
rule of law.
    Senator Murphy. I can tell by that answer that you are 
going to be an excellent Ambassador. [Laughter.]
    I am going to turn the chair over to Senator Johnson. I am 
going to go vote. Then we will swap out, so we can keep this 
hearing running.
    So, Senator Johnson. And I will return.
    Senator Johnson [presiding]. Thank you, Mr. Chairman. I am 
not exactly sure what you meant by that, but I think I know. 
[Laughter.]
    So we can kind of spread out the questions, what I would 
like to do is just go down the panel, starting here on the 
left-hand side, since Senator started on the right.
    And I would just like to ask each one of the future 
Ambassadors or the nominees what is the No. 1 diplomatic issue 
between the United States and the country that you are going to 
be representing?
    Mr. Costos. Thank you, Senator. I appreciate the question.
    As we know, Spain is in the middle of an economic crisis. 
At this point, unemployment is almost above 30 percent. And for 
youth in Spain under the age of 25, it is rapidly approaching 
over 50 percent.
    President Rajoy has put many reforms in place and has been 
doing a very good job about trying to normalize that particular 
issue in Spain. As a matter of fact, he has just put 22 new 
initiatives in place in April to help promote business and 
increase employment and jobs in Spain.
    What I would like to do using my experience and involved 
with the TTIP is basically to use my international and global 
experience to build businesses and develop an opportunity to 
bring my skills to the Spanish people and grow our 
international businesses on both sides of the Atlantic.
    So my focus will be purely on economics at this point and 
using TTIP as the tool to do that.
    I plan on using public diplomacy to help promote that when 
I am in Spain. At HBO, one of my major initiatives is in charge 
of global communications, and I am responsible for promoting 
the best of what America has to offer. And I will do the same 
on both sides. And I hope that with my relations that I have 
with the business community here and working as well with the 
U.S. Spanish Council, I will be able to increase our relations 
and our business relationships, including investment in trade 
in Spain.
    Senator Johnson. Thank you.
    Ms. Campbell Bauer.
    Ms. Campbell Bauer Thank you, Senator.
    I am happy to say we have an excellent relationship with 
Belgium. They are some of our strongest partners on many 
issues. So a primary focus for me will be just continuing to 
build on that.
    We also have an excellent team in place in Brussels with 
whom I will be working. I really view my role in that as being 
additive, because they are wonderful professionals. And I hope 
to bring a fresh perspective, some leadership skills, and a 
strong network in business to that effort.
    And then we will work to promote key values that we share. 
Also to focus on TTIP, which everyone has mentioned, and is, of 
course, incredibly important, but also to focus more broadly on 
how to expand the business relationship between the United 
States and Belgium.
    One of the things that I consider--and I need to explore 
this more, of course, with your committee and also with the 
people in Belgium--is really focusing on tourism and expanding 
that as an opportunity for economic growth, but also for public 
diplomacy, so it will be a very efficient use of our time to 
focus on both those things.
    And, of course, I will be focusing on security, both for 
U.S. citizens in Belgium and also strengthening our 
international partnerships to assure security throughout the 
world.
    Senator Johnson. Thank you.
    Ms. Campbell Bauer Thank you, sir.
    Senator Johnson. Mr. Gifford.
    Mr. Gifford. Thank you, Senator. Thank you very much for 
the question. And, if you will allow me, I would like to get in 
two, if possible.
    The first one, and at the risk of sounding redundant, is 
economic statecraft. Frankly, Denmark has vocally supported 
TTIP, and the TTIP negotiations that have just begun. They are 
a nation built on trade.
    As I have said to some of my friends, the translation of 
Copenhagen, literally, is ``merchant's harbor.'' They produce 
phenomenal products. They are an export-driven nation, and they 
do need to import raw materials in order to produce the 
products that they do have.
    So TTIP is actually critically important for them. And we 
will be working together, over the course of the next several 
months, to ensure that we do get a deal there.
    In addition to that, we just cannot overlook the military 
coordination between Denmark and the United States. They have 
been a stalwart ally. They have fought alongside U.S. troops in 
Iraq, in Afghanistan, in Libya, in Kosovo. They are currently 
off the Horn of Africa fighting piracy.
    And the continued coordination from a military standpoint 
will be a significant issue for me as well.
    Senator Johnson. Thank you.
    Mr. Emerson.
    Mr. Emerson. Thanks, Senator.
    I would have to agree with my cohorts here that getting the 
eurozone on a stable economic footing for the long term will be 
an absolute top priority not only for the United States, but 
for Germany. The U.S.-EU relationship is the largest economic 
relationship in the world. Germany is our fifth-largest trading 
partner. Germany companies employ over half a million U.S. 
workers.
    And not only is it critical to the United States but also 
to Germany that we get the EU on a stable growth trajectory--I 
mean, I am sorry, the eurozone on a stable growth trajectory. 
And I know that they will be a very important ally and partner 
to us in that effort.
    Senator Johnson. Thank you.
    Mr. Pearce.
    Ambassador Pearce Thank you, Senator.
    The economic crisis in Greece, its effort to get on the 
path to recovery and reform. And I would add, too, that defense 
cooperation is very important.
    Senator Johnson. OK. So we all mentioned economic 
cooperation. That actually sets up my next question, starting 
left to right.
    In terms of trade talks, what is going to be the most 
difficult issue between the United States and the country that 
you are going to be representing?
    Mr. Costos. Senator, thank you for the question. In my 
knowledge at this point, we have not had any difficulties that 
we have heard from Spain at this point. I have been briefed on 
several different aspects of the TTIP and the Spanish 
relationship with the EU And there has not been anything that 
particularly has come up, except for geographical issues, and 
there is something that we had talked about in your office at 
one point, related to Serrano ham and cheese from Spain.
    So talking about those particular names could be a 
potential issue. However, nothing else at this point has 
actually come to my attention that could be problematic with 
the TTIP negotiations in Spain, sir.
    Senator Johnson. Let us hope it stays that way.
    Mr. Costos. Thank you very much.
    Senator Johnson. Ms. Campbell Bauer.
    Ms. Campbell Bauer Thank you, Senator. I think we are going 
to have a good relationship with Belgium. It is a continuing 
dialogue and a negotiation. So Belgium stands to benefit 
significantly with the trade agreement through TTIP. As a 
gateway to Europe, it is particularly important to them, and 
the amount of trade we do is significant.
    At this point, I think it is the beginning of a dialogue, 
so I will work to encourage them to cooperate and work 
progressively, and consult back with Washington as often as 
possible, should I be confirmed.
    Senator Johnson. OK. Mr. Gifford.
    Mr. Gifford. Thank you, Senator. Similar to my colleagues 
here, we have not yet seen any real stumbling blocks with the 
Danes. I believe that my role, if confirmed as Ambassador, 
would be to try to get a sense of what is going on, on the 
ground, and if there are issues that do arise in the coming 
months, to report back to this committee and the folks at USTR 
the issues that may be percolating. But, as of right now, we do 
not see any.
    Senator Johnson. Well, it sounds pretty good so far.
    Mr. Emerson.
    Mr. Emerson. Thank you, Senator.
    Senator Johnson. Smooth sailing, this seems to be a slam-
dunk.
    Mr. Emerson. I think the good news about Germany is that it 
has been a huge proponent of TTIP, actually, for a number of 
years now. And I think my challenge and our challenge will be 
much more in working with Germany to help work through some 
issues that may come up from other places in the course of the 
negotiations through the EU process. And I know Germany will be 
a strong ally in that regard.
    Senator Johnson. OK. Great.
    Mr. Pearce.
    Ambassador Pearce Senator, I am not aware of a specific 
issue with regard to Greece. I do know that they--or at least I 
understand, that they hope it will help them strengthen their 
exports and also their overall economic recovery effort.
    Senator Johnson. Well, I really wish you all the success in 
the world, trying to really solidify those economic 
relationships. And with that, I will turn the hearing over to 
the capable hands of Senator Kaine.
    Thank you.
    Senator Kaine [presiding]. Thank you, Senator Johnson, and 
forgive us all, you see what we are doing. The bells ring and 
we have to go vote. So forgive me if I ask a question that was 
asked while I stepped out.
    But just to educate myself on some of the issues that you 
will be wrestling with in your countries, this is a question 
that is really kind of directed toward Ms. Bauer and Mr. 
Gifford.
    And, Denise, it is so good to be here with you today and 
see you as well.
    You know, one of the issues we are always wrestling with in 
this country is the wonderful diversity issues that we have and 
how to put this Nation, the 300-plus million, together and show 
an example to the world and at the same time manage diverse 
populations.
    And Belgium and Denmark have each had some interesting and 
challenging diversity issues. Belgium, the language 
differential between, I guess the Dutch language is Flemish and 
the French speakers, Dutch-based language Flemish and French 
speakers, and sort of the division of the country politically 
has been a consistent issue and seems to have become more 
challenging.
    And so kind of interested in your thoughts on that and 
especially how the new King and the new government there may 
help deal with those issues.
    And then, Rufus, for you, one of the issues that we in this 
country have read about in Denmark, is the issue of the 
treatment of Muslims in the country and some of the tensions 
there over religious issues in Denmark. And as people who are 
proud champions of diversity American style, I just would love 
some insights about both Belgium and Denmark in the way they 
are wrestling with their own diversity issues.
    Ms. Campbell Bauer Thank you, Senator. It is an honor to be 
before you today.
    So Belgium is a strong democracy. With that comes some 
differences, and there is a linguistic social and economic 
divide that is one of the greatest challenges that they face 
internally in domestic policy.
    Voters will have a chance to address this next year in 
their elections. And more recently, the new king, King 
Philippe, had spoken out not in broad terms, but just to note 
that diversity is really one of their strengths, much as in the 
United States. Diversity is our strength. And I think they are 
addressing that and working through it.
    Thank you.
    Senator Kaine. Thank you, Denise.
    Mr. Gifford. Thank you, Senator, for the question very 
much. Embassy Copenhagen was sort of a pilot within a pilot for 
a new State Department program which focused on countering 
violent extremism.
    And if she is still here, I would like to acknowledge 
Ambassador Fulton, who really took it upon herself to invest in 
this program. She is my predecessor.
    Essentially, what this program is, Denmark has certainly 
acknowledged the fact that there are communities coming in to 
the country that had not historically been coming in. That has 
posed a range of issues.
    This program, this countering violent extremism program, 
was a mechanism for the Embassy, for the U.S. Embassy, to go 
and engage these communities directly to preach what it means 
to be an American, to explain to the communities out there the 
sort of Western ideals, including things like freedom of 
speech, freedom of religion, et cetera, et cetera, et cetera.
    I am passionate about continuing these programs, if I am 
confirmed, at post and look forward to even potentially taking 
it to the next level.
    Senator Kaine. Excellent.
    Mr. Gifford. Thank you, sir.
    Senator Kaine. Thank you.
    Ambassador Pearce, it is a treat to have you here. I know 
you call Virginia home when you are not traveling so many 
different places, and I appreciate your service.
    I am on the Budget Committee, and we spend a lot of time on 
the Budget Committee wrestling with, essentially, Keynesian 
economics--I am not saying that with any source of pride--but 
Keynesian economics versus sort of austerity economics. And we 
often hear discussions about Greece and is it an example that 
we can learn from, is it an aberration that does not really 
offer any lessons for us.
    Less on the economic side but sort of the popular feeling 
right now, what is happening, sort of on the economics front in 
Greece, and what is the current attitude both of the government 
and the populace around sort of austerity? And what is the path 
toward turning the economy around from a shrinking economy back 
to a growing one?
    Ambassador Pearce Thanks, that is a great question.
    Well, I think the popular attitude is people are very tired 
of all the economic pain that they have gone through in the 
last few years. Unemployment is very high, something like 27 
percent, I think, generally, and over 50 percent for young 
people.
    Their people have had a tough time. The government for its 
part has taken some very tough measures. As I said before, it 
is not easy. But they have made a lot of difficult cuts.
    The problem that the government has and that I think people 
generally see--and they are quite realistic about it, as I 
understand it--is that they are not done. There is more to do. 
There is more to do, particularly in the area of structural 
changes, and that is a lot of lifting.
    And it is also tax administration, which is as you know is 
a tough thing to get a grip on.
    They have got to do more in terms of their privatization 
effort. This is something they have discussed with the European 
Union.
    So this is quite a difficult agenda, but my sense reading 
it is, although it is hard, people do understand that more is 
needed. And I think that the hope is that they will be able to 
get on a path where they are able to do the reforms that are 
necessary and that that will lead to a better future for the 
country once they get through it.
    I think what gives people pause is not knowing how long it 
is going to take.
    So I think that is the main challenge is the uncertainty. 
And therefore, I think that our engagement is really important. 
I think it is really important that Treasury Secretary Lew 
stopped this past weekend in Athens after the G20 and had 
meetings with Greek leaders. I think it is very important that 
the Prime Minister is coming here on August 8.
    These things count for a lot, particularly when people are 
going through a tough period.
    Senator Kaine. Thank you. Mr. Emerson, we often read here 
the kind of bookend phenomenon. We will read stories about 
Germany and Greece, as we read stories about the eurozone.
    And I know you are going to do a very good job because of 
your background. But it kind of seems to an outside observer, 
and I am not a Europeanist, I am more of a Western hemisphere 
person, an American, Americas person.
    But it seems like the challenge for Germany is, from an 
economic standpoint, that they need to do what is necessary to 
keep the EU together, but they sort of need to do the minimum 
necessary to keep the eurozone together because it is 
politically difficult internal for the German Government to do 
things that are perceived by their own population as sort of 
bailouts of other countries.
    That is for them to decide, not us. But I am kind of 
interested in your take now on the sort of German governmental 
philosophy about, over the course of the next few years, what 
will they be doing to maintain, improve, reform the eurozone?
    Mr. Emerson. Well, thank you, Senator. You are right, that 
has received a fair amount of attention in the press, and 
obviously, we have got an election coming on the 22nd, so it is 
a little hard to predict what they will be doing in the future.
    I would just say this, I think the German approach is 
actually quite straightforward. No. 1, as largely export-driven 
economy, it is crucial to Germany that the rest of the 
eurozone, the eurozone entirely, be on a path toward stability 
and sustained growth.
    And then No. 2, I think there is a belief that has been 
articulated and acted upon that economic assistance to 
countries that are in crisis ought to be coupled with 
commitment to structural reform, and that without that 
structural reform, a long, sustained period of economic growth 
would be very, very difficult to attain.
    Senator Kaine. Thank you.
    And, Mr. Costos, just one quick question for you. As I 
think about the Spanish challenges, one of the things that I 
have been troubled by is the youth unemployment rate. You have 
been in a line of work where you probably think a lot about 
young people and about communicating with young people, and I 
just am curious about that issue of the current Spanish 
economy, and do you have any insights about how the Spanish 
Government is trying to tackle that?
    Mr. Costos. Thank you, Senator. I appreciate the question. 
It is a very important one.
    I had mentioned while you were out of the room that youth 
unemployment for under the age of 25 is over 50 percent and 
probably more at this point in Spain. And it is a very 
important issue. And Spain has put together some new 
initiatives to help focus on youth.
    And as I mentioned in my opening statement, it is one of 
the pillars of what I would like to accomplish, if I am 
confirmed, when I do get to Spain.
    I know Embassy Madrid is working very closely with youth at 
this point, and the Spanish Government has many initiatives on 
the ground already to help do exchanges and help to inspire 
entrepreneurship with youth. And this will be one of my pillars 
as well, if confirmed.
    Senator Kaine. Thank you.
    Mr. Costos. Thank you, sir.
    Senator Kaine. Thank you to the panel.
    Thank you, Mr. Chairman.
    Senator Murphy [presiding]. Thank you, Senator Kaine.
    We will have a second round that I will at least take 
advantage of. Let me start with Mr. Gifford.
    The Danes have a very aggressive commitment to renewable 
energy. In fact, I think they are looking at 100 percent 
renewable energy by 2050. And clearly, with Greenland in their 
portfolio, they have a greater interest than many others in 
Europe in trying to see the United States help lead us out of 
this crisis regarding climate change.
    Can you just talk a little bit about the opportunity for 
you as the next Ambassador to work with the Danes on what I 
hope is a communal commitment to the issue of climate change? 
And in particular, how can we learn from some of their very 
aggressive approaches to grow their economy based on a 
commitment to renewable energy?
    This is a high-tech economy, an economy, that in some ways 
parts of the United States, want to aspire to, and they clearly 
have figured out a way to link leadership on the issue of 
renewable energy to the development of a robust, high-tech, 
green energy economy.
    Mr. Gifford. Yes. Well, thank you so much for the question, 
Senator. And I love the question for exactly what you said. And 
it is a way that we can do what is right for the world while at 
the same time investing in things like economic statecraft and 
investing in trade and investing in new ideas, which is exactly 
the types of things that I am passionate about, if confirmed.
    So the Danes have been a stalwart ally on this issue, as 
you know. They are leaders internationally. There is a variety 
of different international treaties. Denmark joined the U.S.-
led clean air initiative in 2012, and Secretary Clinton 
launched the Green Partners for Growth with the Prime Minister 
of Denmark as well. So I think that there is certainly pieces 
that we can do from a political standpoint between the two 
countries in order to address the issues.
    But I think what is incredibly exciting is what you said 
toward the end of your question, which is the economic 
opportunity. Denmark is the only exporter of energy in Europe. 
And I think, frankly, most countries around the world have a 
little to learn about that.
    I am excited about the relationship between the smartest 
minds, as you say, the smartest minds in Denmark that are 
investing in this sort of technology and this type of research, 
the next generation of research, and the smartest minds here in 
Silicon Valley or wherever to try to forge partnerships that 
can actually, in the end, increase trade between the two 
countries as well.
    And, of course, we do have to think about Greenland within 
this framework, because the changing Arctic certainly does open 
up an interesting can of worms as it relates to both the 
economic issues and opportunities, potentially, as well as 
security issues and opportunities.
    So I am incredibly passionate about focusing on these 
issues, were I to be confirmed.
    Senator Murphy. Thank you very much, Mr. Gifford.
    I sort of ask the same question to both Ms. Bauer and Mr. 
Costos. We are going to undergo a very difficult conversation 
about the future of NATO over the course of the next several 
years. There is, first of all, a conversation as to whether 
this remains a truly values-based alliance or whether it is 
just going to become an operational alliance in which we get 
together when we all align with regard to our security 
interests.
    And of course, we have to have a different conversation 
about NATO because the world has changed and the reason for its 
existence to a certain extent no longer exists. But part of the 
reason we have to have the conversation is because today the 
United States is picking up about 75 percent of the tab. Some 
of that is due to the operations in Afghanistan, but some of 
that is due to the fact the defense budgets of European 
countries are declining.
    And the Belgians and the Spaniards are poster children for 
this issue, I think. Today, the Spaniards are spending about 
0.8 percent of their GDP on defense. Belgians are talking about 
massive cuts to defense.
    And of course, we are asking all of our allies there to be 
spending at least 2 percent of their GDP. I think all but two 
or three countries fall below that mark, so they are not in 
rare company. But it clearly is going to be an issue that will 
come to a head as we have a bigger discussion about how we 
reformulate NATO.
    I will start with you, Mr. Costos, because we have a very 
strong military partnership with Spain, access to their naval 
bases. But this is a tough conversation we have to have with 
them.
    And I will pose the same question to you, Ms. Bauer, about 
how we encourage the Belgians to not balance their budget on 
the backs of a military budget that we rely on for our 
operations in NATO.
    Mr. Costos. Thank you, Senator. I appreciate the question.
    I would like to start off by sort of talking about Spain in 
terms of its support already, in terms of its military 
presence. As you mentioned, Rota in Spain have opened up their 
bases to American troops. We have 500 marines in Moron and Rota 
has allowed us to have four Aegis destroyers who will be 
stationed off the coast in 2014 to protect American interests 
in the region.
    In Afghanistan, Spain has also been supportive since 2002. 
They have spent roughly $263 million in support. They committed 
1,500 troops at the beginning of 2002 and have been still at 
this point have about 500 there that are committed until after 
2014, in terms of a commitment and investment, as well as 
troops who will remain for reconstruction and peacekeeping.
    I know, at this point, they are not living up to the 2 
percent of GDP. They are at, I believe, 0.7 percent at this 
point. They are having very difficult economic times. That is 
no excuse for them not committing to and carrying the burden 
share of what other members of NATO are doing.
    If I am confirmed, it is a very difficult conversation 
issue, as you said, to have, but it must be had. And I will 
have that conversation with our Spanish partners, at the same 
as thanking them for their support. We need to keep them and 
get them up to speed to engage at the limit that we have set, 
which is, as you have said, at 2 percent.
    So if confirmed, I will do my best to have those 
conversations, and I will continue to urge Spain to contribute 
and share the burden with the rest of NATO.
    Thank you.
    Ms. Campbell Bauer Thank you, Senator. That is a very 
important question, and I appreciate being asked.
    This is something that I would intend, should I be 
confirmed, to continue to work on and encourage Belgians to do 
more.
    They are contributing about 1.1 percent of GDP at this 
point. They are also, I think it is worth nothing, just 
stalwart partners for us on everything we do, including 
Afghanistan, Libya, Syria, Mali. They currently have 302 troops 
still in Afghanistan. And they host NATO as well.
    So there are some other intangible things that they bring 
to the relationship that I think are very, very important. But 
it is something that I will continue to urge them to do more, 
as they can. It is tough economic times for everyone, and I 
will certainly stay in touch with this committee and work hard 
to encourage that.
    Senator Murphy. Thank you very much, to both of you.
    Senator Kaine, any further questions?
    Senator Kaine. Just one other thought for Rufus.
    One of the things that interests me about Denmark, having 
done a little bit of economic development work there when I was 
a Governor, because of this Maersk connection, was that they 
seemed to be a little bit of an outlier in European countries 
on some labor policies. There are some European nations that, 
for example, very difficult for employees to be fired or 
something like that.
    Denmark has kind of had a different attitude, which is it 
is a much more fluid labor market. But when people lose jobs, 
there are intensive job retraining programs for them and there 
may be some retraining and workforce development ideas that I 
found intriguing in a brief visit there, and we are clearly 
grappling with that here.
    I think we often talk about training as if it is not a 
college degree, it does not count. But I think more and more, 
we are waking up to the notion that post-secondary educational 
programs do not just have to be college, that apprenticeship or 
other kinds of programs can be very strong.
    And I think in all of these countries, I mean, Germany has 
really been a tremendous country, in terms of apprenticeship 
programs. And that may be the case in all of your countries, 
bringing us back some good ideas in that space, because I think 
we need to make a little bit of a transition from it is all 
about the college degree to it is all about post-secondary 
education or training of one kind or another. And I think many 
of the countries that you'll represent would have some good 
ideas for us there.
    So I just would encourage you to bring good ideas back in 
that area.
    And that is all that I have, Mr. Chairman.
    Senator Murphy. Well, thank you very much, Senator Kaine.
    Thank you all for your testimony today. You performed ably. 
Our hope is to bring votes before the committee next week.
    We are going to keep the record open for questions until 
Friday at noon. To the extent that you do get posed with 
additional questions, if you could act with alacrity in turning 
those around back to the committee, that would be much 
appreciated.
    With that, the hearing stands adjourned.
    [Whereupon, at 3:53 p.m., the hearing was adjourned.]


  NOMINATIONS OF STEVE LINICK, MATTHEW BARZUN, LILIANA AYALDE, DAVID 
HALE, EVAN RYAN, KIRK WAGAR, DANIEL SEPULVEDA, TERENCE McCULLEY, JAMES 
         SWAN, JOHN PHILLIPS, KENNETH HACKETT, AND ALEXA WESNER

                              ----------                              


                         TUESDAY, JULY 30, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Steve A. Linick, of Virginia, to be Inspector General, 
        Department of State
Hon. Matthew Winthrop Barzun, of Kentucky, to be Ambassador to 
        the United Kingdom of Great Britain and Northern 
        Ireland
Hon. David Hale, of New Jersey, to be Ambassador to the 
        Republic of Lebanon
Hon. Liliana Ayalde, of Maryland, to be Ambassador to the 
        Federative Republic of Brazil
Evan Ryan, of Virginia, to be Assistant Secretary of State for 
        Educational and Cultural Affairs
Kirk W.B. Wagar, of Florida, to be Ambassador to the Republic 
        of Singapore
Daniel A. Sepulveda, of Florida, for the rank of Ambassador 
        during his tenure of Service as Deputy Assistant 
        Secretary of State for International Communications and 
        Information Policy in the Bureau of Economic, Energy, 
        and Business Affairs and U.S. Coordinator for 
        International Communications and Information Policy
Hon. Terence Patrick McCulley, of Washington, to be Ambassador 
        to the Republic of Cote d'Ivoire
James C. Swan, of California, to be Ambassador to the 
        Democratic Republic of the Congo
John R. Phillips, of the District of Columbia, to be Ambassador 
        to the Italian Republic, and to serve concurrently and 
        without additional compensation as Ambassador to the 
        Republic of San Marino
Hon. Kenneth Francis Hackett, of Maryland, to be Ambassador to 
        the Holy See
Alexa Lange Wesner, of Texas, to be Ambassador to the Republic 
        of Austria
                              ----------                              

    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Coons, Murphy, 
Kaine, Markey, Corker, Risch, and Flake.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Moving to the nomination hearing, thank you 
all for joining us on the business meeting today.
    Today, as we approach the August recess, we have a plethora 
of well-qualified nominees for the committee's consideration 
before us. We welcome them to the Senate, as well as their 
family members who are joining us today to offer their support. 
We recognize that an obligation that is taken on by one of our 
ambassadors, really is an obligation by family, and we 
understand the sacrifices involved and we appreciate and 
applaud all of our nominees and their families who are willing 
to serve their country.
    Before we begin, let me say I hope we can expedite the 
process which too often can be long and fraught with delay, as 
you well know. I would urge my colleagues on the committee to 
submit any additional questions for our nominees to the 
committee by this evening, and I urge our nominees to return 
their answers in writing as quickly as possible.
    I want to thank Senators Kaine and Markey who will be 
taking the gavel for panels 3 and 4, and I want to thank 
Senator Corker again and his staff for working on this process 
so diligently with me, including reviewing files, meeting with 
nominees, and making the time to hold this hearing during a 
very busy week. But I believe our efforts are crucial to 
filling critical posts in a timely manner.
    Before I introduce the first of two panels, let me turn to 
Senator Corker for his comments.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. I look forward to this process continuing 
today. Again, I know much of the paperwork has just come in 
recently, and I know in this particular case, it has been 2,022 
days since we have had an inspector general nomination. So I am 
glad that you are here. I look forward to your testimony and I 
want to thank all the members of this committee for 
participating in this especially today so we can hopefully move 
many of these out by week's end, if there are no objections.
    The Chairman. Thank you, Senator Corker.
    We will start with our first panel. I and others have been 
deeply concerned that the Department of State has been 
operating without a permanent inspector general since 2008. 
Inspectors general plays a crucial role in identifying 
ineffective programs, process weaknesses, wasteful spending 
that undermine public confidence in Government. A permanent 
State IG is essential for the proper functioning of the 
Department.
    I am, therefore, pleased that the administration has 
nominated Steven Linick as the inspector general for the 
Department of State. He is a highly qualified nominee who can 
function independently and objectively. He is currently the IG 
for the Federal Housing Finance Agency. He has previously 
served as an Assistant United States Attorney and as the Deputy 
Chief of the Fraud Section of the Department of Justice's 
Criminal Division. In other words, just the sort of 
qualifications that one wants from the State Department 
inspector general.
    With that, Senator Corker.
    Senator Corker. Yes. This is a critically important post, 
something that both of us have been pushing for, and I am glad 
the State Department finally has made this nomination.
    Obviously, the safety of our Foreign Service officers is 
something that has become of even greater focus to all of us 
with recent events, and I know that one of the roles that you 
all have is to ensure that there is integrity in what we are 
doing in that regard.
    So I thank you for being here. I think it is incredibly 
important, with all the moving parts that we have at the State 
Department, to have a functioning and strong inspector general, 
and I look forward to your testimony.
    The Chairman. Thank you.
    With that, Mr. Linick, we will ask you to make your 
statement. We would ask you to synthesize your statement in 
about 5 minutes or so. Your full statement will be entered into 
the record, without objection. And the floor is yours.

        STATEMENT OF HON. STEVE A. LINICK, OF VIRGINIA, 
          TO BE INSPECTOR GENERAL, DEPARTMENT OF STATE

    Mr. Linick. Chairman Menendez, Ranking Member Corker, and 
members of this committee, thank you for this opportunity to 
appear before you today.
    I am honored to be President Obama's nominee for Inspector 
General of the U.S. Department of State. This is the second 
time President Obama has nominated me to serve the Nation, as I 
was confirmed by the Senate in late 2010 to serve as the first 
inspector general of the Federal Housing Finance Agency, FHFA, 
the agency responsible for overseeing Fannie Mae, Freddie Mac, 
and the Federal Home Loan Banks.
    Before I begin my official testimony, I would like to 
introduce my wife, Mary; my son, Zackary; my daughter, Sarah; 
my mother, Madeleine; and family friend, Robert King, who are 
here supporting me today.
    By way of background, most of my professional life has been 
devoted to public service. Shortly after graduating from the 
Georgetown University Law Center, I joined the Philadelphia 
District Attorney's Office as an assistant district attorney. 
In 1994, I became a Federal prosecutor and, over the next 16 
years, worked with various components of the U.S. Department of 
Justice, including two U.S. attorney's offices. Since October 
of 2010, I have served as the inspector general of FHFA.
    I believe my professional experiences make me well suited 
to serve as the Inspector General of Department of State. As a 
former Federal prosecutor, I have a strong and successful 
background in combating fraud, waste, and abuse in Government 
programs at home and abroad. Notably, while at the Department 
of Justice, I served for 4 years as the Executive Director of 
the National Procurement Fraud Task Force. During that time, I 
supervised the investigation and prosecution of individuals and 
companies for contract fraud and corruption related to the wars 
and reconstruction efforts in Iraq and Afghanistan. I worked 
closely with officials from the Special Inspectors General for 
Iraq and Afghanistan Reconstruction, plus the offices of the 
inspectors general from the Department of State, the Department 
of Defense, and the U.S. Agency for International Development.
    In addition, my service as the FHFA inspector general 
demonstrates that I have the skill, judgment, and experience 
necessary to manage a large Office of Inspector General, an 
independently overseen agency with significant program 
responsibilities and financial resources. In this role, I have 
gained a deep appreciation for the critical mission of 
inspectors general within Federal Government agencies, as well 
as the importance of conducting vigorous, independent, 
objective oversight.
    As FHFA's first inspector general, I was responsible for 
building an organization from the ground up, including hiring 
approximately 140 professionals. My Office's oversight 
responsibilities for Fannie Mae and Freddie Mac, which have 
received approximately $187 billion to keep them solvent--this 
is taxpayer money. From the outset of the Office's formation, I 
employed innovative strategies to maximize results, including 
collaborating with inspectors general to leverage resources and 
benefit from best practices.
    To date, my team has published approximately 50 reports and 
numerous management alerts on critical topics affecting the 
U.S. housing crisis. We have made recommendations that are 
expected to produce at least $2 billion in added recoveries. 
Additionally, we have initiated or participated in many 
criminal and civil investigations relating to mortgage fraud 
that have resulted in significant indictments and convictions.
    It has been an honor to serve as the inspector general of 
FHFA, and I am very proud of my Office's accomplishments.
    If confirmed, I commit to bring the same leadership, 
energy, vision, and independence to the Office of Inspector 
General for the State Department. From a strategic and 
leadership perspective, I understand that the responsibilities 
of the position to which I have been confirmed are great. If 
confirmed, I will ensure that the Department of State Office of 
Inspector General is an independent, objective organization 
that provides robust oversight, transparency, and 
accountability to the programs and operations of the Department 
of State.
    I will maintain close relationships with Congress, 
including this committee and other committees of jurisdiction.
    I will develop effective working relationships with State 
Department management.
    I am honored to be considered for this important position, 
and I look forward to answering your questions.
    Thank you.
    [The prepared statement of Mr. Linick follows:]

               Prepared Statement of Hon. Steve A. Linick

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for this opportunity to appear before you today. I 
am honored to be President Obama's nominee for Inspector General of the 
U.S. Department of State. This is the second time President Obama has 
nominated me to serve the Nation, as I was confirmed by the Senate in 
late 2010 to serve as the first Inspector General of the Federal 
Housing Finance Agency, the agency responsible for overseeing Fannie 
Mae, Freddie Mac, and the Federal Home Loan Banks.
    Before I begin my official testimony, I would like to introduce my 
wife, Mary, my son, Zackary, and my daughter, Sarah, who are here with 
me today.
    Most of my professional life has been devoted to public service. 
Soon after graduating from Georgetown University, I spent about 8 
months in Burkina Faso working on international development issues for 
Africare, a nongovernmental organization. Shortly after graduating from 
Georgetown University Law Center, I worked in the Philadelphia District 
Attorney's Office. I then became a federal prosecutor and, for the next 
16 years, worked within various components of the Department of 
Justice, including two United States Attorney's Offices (in Los 
Angeles, CA, and in Alexandria, VA) and here in Washington (in the 
Criminal Division, Fraud Section).
    I believe my professional experiences make me well suited to serve 
as Inspector General of the Department of State. As a former federal 
prosecutor, I have a strong and successful background in combating 
fraud, waste, and abuse in both U.S. domestic and overseas programs. 
Furthermore, I have the skill, judgment, and experience necessary to 
manage a large office of inspector general and independently oversee an 
agency with significant program responsibilities and financial 
resources.
    Having served as the FHFA Inspector General for more than 2\1/2\ 
years, I gained a deep appreciation for the critical role played by 
inspectors general within federal government agencies. It has also 
highlighted for me the importance of conducting vigorous, independent, 
and objective oversight.
    As FHFA's first Inspector General, I was responsible for designing 
and building an organization from the ground up. I recruited and hired 
seasoned professionals with backgrounds in housing, finance, 
investigations, and auditing to staff critical operational offices, 
including an Office of Administration, Office of Audits, Office of 
Investigations, Office of Evaluations, and an Office of General 
Counsel.
    From the outset of the Office's formation, I employed innovative 
strategies to maximize results, including collaborating with inspectors 
general and law enforcement agencies that have shared interests and 
goals to leverage resources and benefit from best practices. For 
example, I staffed the Office of Investigations with highly experienced 
former prosecutors to investigate and prosecute FHFA-OIG cases in U.S. 
Attorney's Offices across the Nation. I also spearheaded an initiative 
among the federal inspectors general with oversight of housing programs 
to address collaboratively housing crisis issues.
    To date, my Office has published approximately 50 reports and 
numerous management alerts on critical topics affecting many aspects of 
the U.S. housing crisis. We have made recommendations that are expected 
to produce at least $2 billion in added recoveries, and potentially 
more. Additionally, we initiated or participated in multiple criminal 
and civil investigations relating to mortgage fraud that have resulted 
in many indictments and convictions.
    If confirmed as Inspector General of the Department of State, I 
commit to bringing the same energy, vision, innovation, independence 
and leadership to that Office.
    Additionally, as a former federal prosecutor with substantial 
white-collar and government fraud experience, I managed and coordinated 
complex grand jury investigations and prosecutions involving a variety 
of criminal cases, including procurement fraud and public corruption in 
Iraq and Afghanistan. I also participated as an instructor in overseas 
programs sponsored by the Department of Justice and other agencies in 
Uganda, Mozambique, United Arab Emirates, and Mali, where I taught 
topics such as money laundering, public corruption, contract fraud, and 
financial crimes.
    Notably, I served for four years as the Executive Director of the 
National Procurement Fraud Task Force. That group was led by the 
Department of Justice and included inspectors general from numerous 
federal agencies. Under my watch, the Task Force investigated and 
prosecuted individuals and companies for corruption and fraud related 
to contracts and grants, with a special emphasis on overseas programs 
focused on the conflicts and reconstruction efforts in Iraq and 
Afghanistan. In that regard, I worked very closely with officials from 
the Special Inspectors General for Iraq (SIGIR) and Afghanistan 
Reconstruction (SIGAR), plus the Offices of Inspectors General from the 
Department of State, the Department of Defense, and the U.S. Agency for 
International Development.
    From a strategic and leadership perspective, I understand that the 
responsibilities of the position to which I have been nominated are 
great. Based on the significant issues facing the Department of State, 
it is clear to me that assuming the leadership role of Inspector 
General will be challenging and rewarding. I look forward to this task, 
if confirmed.
    If confirmed, I pledge to:

  <bullet> Ensure that the Department of State Office of Inspector 
        General (OIG) is an independent and objective organization that 
        provides timely, robust, fact-based oversight, transparency, 
        and accountability to the programs and operations of the 
        Department of State;
  <bullet> Consult stakeholders regularly (including the Government 
        Accountability Office and affected communities);
  <bullet> Efficiently and effectively deploy OIG resources to those 
        areas that present the highest risk to the Department of State;
  <bullet> Collaborate with other inspectors general who have 
        potentially overlapping interests, jurisdiction, and programs;
  <bullet> Ensure whistleblowers have a safe forum to voice grievances 
        and are protected from retaliation; and
  <bullet> Aggressively protect taxpayer funds against fraud, waste, 
        and abuse.

    I am honored to be considered for this important position and look 
forward to answering your questions. Thank you.

    The Chairman. Well, thank you very much for your testimony.
    Let me start off with this position has been vacant since 
January 2008, the longest unfilled position among the 
inspectors general across the Federal Departments. Based on 
your experience as a confirmed inspector general in your 
present position, what effect do you think that a vacancy of 
that length may have created at the Department of State?
    And I heard your commitment to independence. How will you 
assure the independence of State OIG, if confirmed, upon 
assuming the position?
    Mr. Linick. Senator, thank you for that question.
    I recognize there has been a longstanding vacancy. Clearly, 
it is one of the challenges that I face at the State 
Department. I do not know what impact that has had on the OIG, 
and one of my first goals would be to roll up my sleeves, go 
into the office, if confirmed, and find out where there are 
gaps in oversight or problems in the Office and look for 
solutions.
    In terms of independence, I have been very independent at 
the FHFA OIG, and I would certainly employ the same strategy at 
the Department of State Office of Inspector General. For me, 
this means telling the truth, even if it is unpleasant; 
promoting transparency; resisting any interference; pursuing 
investigations wherever the facts may lead; protecting 
whistleblowers to make sure they have a safe forum for 
expressing grievances; and ensuring there are high standards 
for audits, investigations, and inspections.
    The Chairman. Let me ask you, if you are confirmed, what is 
your thinking on how you will work--inevitably your audits will 
produce some understanding, some recommendations, some 
legitimate concerns about the operations of the Department 
within the context of your purview of your work. How will you 
work with the Secretary of State and other senior Department 
officials to ensure that recommendations made by you are 
implemented?
    Mr. Linick. There is a process that I employ at FHFA OIG. 
It is a process that all inspectors general employ, starting 
with making the recommendations; informing Congress about those 
recommendations; following up on those recommendations; doing 
additional reports to ensure compliance with those 
recommendations. If I had a problem with implementation of 
recommendations, I would certainly not hesitate to take it up 
with the Secretary and also discuss it with Congress.
    The Chairman. Can we get your commitment to that as part of 
that process, since this is the committee of oversight and 
jurisdiction, that you will bring to our attention those issues 
that you are having a problem getting implemented?
    Mr. Linick. You have my commitment. I am very close with 
the Senate Banking Committee and other committees of 
jurisdiction at FHFA OIG and routinely debrief both Senate and 
House bipartisan on events and activities at the OIG and at the 
agency.
    The Chairman. And then finally, under the Foreign Affairs 
Act of 1980, each State Department post or mission is supposed 
to be inspected by the OIG at least once every 5 years. There 
are about 85 posts and bureaus that have not been inspected in 
the past 5 years, and Congress has had to grant the Department 
a waiver to this requirement. What do you believe, upon your 
confirmation, can be done to remedy the situation?
    Mr. Linick. I am aware of the statutory requirement for 
inspections. One of my first tasks will be to look at the 
resources allocated to inspections, audits, investigations and 
determine where OIG priorities are. I am very interested in 
working with this committee, if confirmed, to understand the 
committee's perspectives on the need for inspections of various 
embassies.
    The Chairman. I am going to turn to Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    I know you are aware of the challenges that GAO has laid 
out regarding the lack of using appropriate accounting 
standards, if you will, at the State Department. And I guess 
you understand that there may be some personnel changes or 
other kind of practices that need to be changed. I do not know 
anything specifically in that regard, but are you willing to do 
whatever is necessary to bring the State Department into using 
appropriate accounting standards there as they are dealing with 
these issues?
    Mr. Linick. I absolutely am. I believe that those standards 
are important for the integrity of the Office of Inspector 
General for its credibility, and one of my first tasks, if 
confirmed, is to take a look at the GAO issues, the 
independence issues. It is concerning to me. I have not formed 
a conclusion yet. It is something I would certainly want to 
understand better, consult with staff, and view the terrain.
    Senator Corker. One of the other issues that has occurred 
within the Office of Inspector General is there has been a 
tremendous amount of turnover. So there is a lack of what you 
might call institutional knowledge and the ability to really 
have the background to delve into issues in an appropriate way. 
I assume that you would address that issue also if confirmed.
    Mr. Linick. Yes. That is something else I would address.
    Senator Corker. And I guess there is an opportunity to make 
better use of contracting within the State Department. That has 
been definitely pointed out. Obviously, that will be a major 
responsibility of yours, and I assume, if confirmed, you will 
do everything you can to demonstrate to the State Department 
better ways of contracting and getting value for taxpayers and 
what they are doing.
    Mr. Linick. I certainly will, Senator.
    Senator Corker. And I assume the same thing relating to--I 
guess you have a background that I guess equips you to help 
with all acquisition activities there, and I assume that you 
will use that background that you talked about earlier to help 
the State Department in all of its acquisition activities.
    Mr. Linick. Yes. My background has prepared me for that.
    Senator Corker. I appreciate the in-depth meeting you had 
with our staff. I appreciate your willingness to serve in this 
way, and I look forward to your confirmation.
    Mr. Linick. Thank you.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman and Senator 
Corker. I very much appreciate both of your attention to 
getting the appointment of an inspector general for the 
Department of State. As you both pointed out, it has been a 
very long time, and so we are very pleased, Mr. Linick, that 
you have been willing to take on this task. Obviously, the 
challenge is tremendous. And I think as the American taxpayers' 
eyes and ears inside Federal agencies, that inspectors general 
provide really important oversight that is of benefit not only 
to Congress and the administration but also to the agencies 
themselves. So thank you for your willingness to serve.
    As you know, one of the challenges that all of Government 
is facing right now at the Federal level are the impacts from 
sequestration, those automatic cuts that have gone into effect. 
I wonder if you can talk about how this factors into the job, 
if you are confirmed, and how it will affect your priorities as 
you go into State.
    Mr. Linick. Certainly sequestration will impact the role of 
the OIG. I am not there yet so I do not know exactly what the 
resources look like, but if confirmed, that would be my first 
task is to explore the various management challenges and how 
resources are allocated to those management challenges.
    At the end of the day, it is all about prioritization, as 
you said, and it is about strategic planning and planning 
audits and evaluations in a way which targets the highest risk 
areas. And that is what I do at FHFA OIG. We have a very 
rigorous strategic planning process, and we try to do our best 
to maximize, to leverage our resources without expending too 
much money.
    Senator Shaheen. And can you talk about who is involved in 
that planning process? So as you think about putting together 
that kind of plan at State, who should be involved in those 
discussions?
    Mr. Linick. At OIG at the State Department, if confirmed, I 
would talk with all stakeholders, the State Department itself. 
Hopefully this committee would be willing to talk as well and 
to provide perspectives. GAO and other stakeholders and, of 
course, consulting with OIG staff about this.
    At the OIG at FHFA, we have a working group that is 
comprised of various division representatives from audits and 
evaluations and other offices, and we get together and take all 
the information that we have culled from the various 
stakeholders and inventory everything. And then what we do is 
we categorize them into buckets based on their risk factor, and 
then we come down with a list of, you know, ``must to-do's.'' 
And that is how we do it, and I would employ the same approach 
at the State Department OIG if confirmed.
    Senator Shaheen. Thank you. And I hope you will commit to 
continuing to work with this committee as you are going through 
that process and reporting to us so that we will have some 
sense of what you are doing as well.
    Mr. Linick. I would look forward to that.
    Senator Shaheen. Thank you.
    The Special Inspector General for Afghan Reconstruction 
reported on July 26 that the State Department has provided 
inadequate oversight of a $50 million rule-of-law training 
contract being implemented in Afghanistan by an Italian NGO.
    I wonder, as Senator Corker raised, contract management and 
oversight continues to be an issue, not just within State but 
throughout the Federal Government. If confirmed, what more can 
you do to ensure that contracts are prepared with effective 
oversight requirements and conditions that ensure they are more 
successful as they are being implemented and more cost 
effective?
    Mr. Linick. This is clearly an area that has been 
identified as a management challenge. The State Department, 
from what I can tell, is spending a lot of money on 
contracting. This is an area with which I am familiar having 
worked as the director of the National Procurement Fraud Task 
Force. Contingency contracting especially is very risky. In my 
experience, oversight is an afterthought because everybody 
wants to get the money out the door, and we all know that--and 
the story that we have heard from the SIGAR is an old story, 
unfortunately, as far back as I can remember. I have heard 
similar stories with lack of oversight.
    If confirmed, I would certainly bring my experience to bear 
and look very closely at the controls that the State Department 
has to oversee these contracts.
    Senator Shaheen. Thank you.
    One of the other issues that has been in the news recently 
is an IG audit report that the Bureau of International 
Information Programs has spent about $630,000 on two campaigns 
to raise the number of fans that it has on its Facebook page. 
And the critics have suggested that this is not a good use of 
funds, and while I understand that the IIP has since agreed 
with some of the State IG recommendations--can you talk about 
how your role as IG, if you are confirmed, could be employed in 
helping agencies not to get into this kind of situation where 
money is being spent on issues that are not necessarily the 
direct mission for those agencies and where they should be 
focusing funds?
    Mr. Linick. That is a fundamental role for an inspector 
general to protect taxpayers against fraud, waste, and abuse, 
and that is something that we do at FHFA OIG through trying to 
employ cost savings, provide recommendations to the agency, to 
suggest ways to minimize costs.
    I am familiar with this particular incident. I understand 
public diplomacy is one of the management challenges identified 
by the inspector general, and this is something that I would 
focus on if confirmed as well.
    Senator Shaheen. I guess I am asking a little bit different 
question and that is how do you look at the mission of an 
agency within the Department and determine--or do you see that 
as being part of your role as you are looking how money is 
spent?
    Mr. Linick. I do. If there are articulated standards or 
articulated policies that consist of the mission and those 
policies are not being met, it is within the IG's mandate to 
review how the implementation of that mission, whether or not 
the end result complies with that mission. So that would be 
part of the OIG role.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Mr. Linick, thank you very much for your willingness to 
serve in this position and coming before the committee today.
    With the expected closure of the Special Inspector General 
for Iraq Reconstruction, your office is going to now have new 
responsibilities. You are obviously going to continue to do 
oversight on State Department operations there, but you are 
also going to be taking over oversight for our civilian 
assistance programs. And I understand the budget calls for some 
additional new positions to cover that responsibility, I think 
about five people.
    But can you talk a little bit about how you are going to 
split your time and your Office's time between overseeing what 
is still an enormous State Department presence there, along 
with the civilian assistance programming that was previously 
overseen by SIGIR?
    Mr. Linick. That is something that I would explore once I 
am there, if I am confirmed. I am not able to tell you what the 
allocation would be from this vantage point because I am 
outside of it. So prioritization and making sure resources are 
allocated would be first priority.
    But I think the issue of Iraq and the transition coming in 
Afghanistan are obviously going to put enormous 
responsibilities on the State Department in Iraq that it 
already has in supporting the civilian presence. There is more 
spending on housing and medical and all these other things that 
are attendant to supporting the civilian presence. It has been 
identified as a management challenge, at least the transition 
in Afghanistan, and this is something that I would take a close 
look at and work closely with the SIGAR and the SIGIR as they 
both sunset. I know that the SIGIR is about to sunset and the 
SIGAR will at some point in the future. But I would commit to 
working closely with both of them.
    Senator Murphy. Well, and I hope you will also commit to 
coming back to us to tell us whether five people is enough to 
cover what is an enormous new responsibility there.
    One other related question. Maybe, again, you have not had 
the opportunity to really think about this or take a look at 
it. But during my one trip to Iraq, we were there for the 
specific purpose to oversee some of the contracting programs, 
and even with, at the time, tens of thousands of American 
troops there, we could not get anywhere. We were not allowed to 
essentially go and see 80 percent of the contracting programs 
because they were not in areas that were safe for us to travel. 
And this will be a problem not only in Iraq with your new 
responsibilities, but in Afghanistan as we draw down our 
military presence and certainly, as it is today, in Pakistan.
    So to the extent that you have thought about this, one of 
the challenges that are presented to you in terms of mobility--
you are going to need to go and see things in these countries, 
and yet today in Iraq, and within a year or so in Afghanistan, 
there just is not going to be the military presence to give 
your operations cover. This could be problematic if there is 
not proper security to allow you to go and do the job where you 
want to do it.
    Mr. Linick. Based on my experience, I know that this is a 
very difficult issue for oversight because if you cannot do 
site visits and you cannot get out, if you do not have 
protection if you are an auditor, for example, you cannot do 
your job. This is something that I would have to look at. I am 
not in a position to tell you right now how to solve that 
problem, but I am aware of the problem. And it costs money, 
obviously, to protect folks to go out and do oversight of 
projects and so forth.
    Senator Murphy. Well, you are asking for protection from 
the very group that you are auditing. Sometimes it obviously 
presents an obvious conflict, again as you experience perhaps 
those inherent tensions in asking for major security resources 
from an organization that you might be in the end critiquing. I 
hope that you would report back to us as well on those 
challenges.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Mr. Linick, thank you for your service and congratulations 
on your nomination.
    Just a couple of items. You might have talked a bit about 
this but I wanted to delve into a bit more. In your work on the 
National Procurement Fraud Task Force, to what extent did that 
involve international procurement issues?
    Mr. Linick. A significant amount of international 
procurement issues were involved. Part of my job was to 
coordinate all the war zone prosecutions for the Department of 
Justice, and I worked very closely with the ICCTF, which is the 
International Contract Corruption Task Force. It included the 
State Department IG, the Department of Defense, SIGIR, SIGAR, 
and I was integrally involved in----
    Senator Kaine. USAID?
    Mr. Linick. USAID as well. Sorry for that. USAID as well, 
FBI. I was very involved in working those cases. I was also the 
deputy chief of the Fraud Section at that time, and many of 
those cases were provided to folks in my section. So I 
supervised a lot of the prosecutions involved in Iraq and 
Afghanistan, and they involved corruption, bribery, all sorts 
of contract fraud. So I am very familiar with that.
    Senator Kaine. Good.
    Mr. Linick. And I have been to Kabul and Bagram.
    Senator Kaine. In that work.
    Mr. Linick. Yes.
    Senator Kaine. In late March, the State Department's OIG 
notified the Department that it was going to start a special 
review of the accountability review board process in order to 
determine, I think, the effectiveness of the whole ARB process, 
but it also specifically mentioned recommendations regarding 
the ARB convened in the aftermath of Benghazi. I would love to 
hear you talk about either how that work is progressing or--you 
are not there yet--what would be your hope in terms of 
continuing that work and looking at the accountability review 
boards and how they can be made most helpful to the Department, 
also to Congress and the public.
    Mr. Linick. I really have no knowledge of that review. I 
have not been involved in it. I have not studied the underlying 
facts. I plan, if confirmed, on taking a hard look at all 
pending matters. Of course, that is one of the pending matters. 
I have formed no conclusions or judgment yet. Obviously, once I 
am able to look at facts and review documents, then I will be 
in a better position to make an independent determination as to 
next steps.
    Senator Kaine. I have no further questions, Mr. Chair.
    The Chairman. Well, thank you all. Seeing no other members 
of the committee--again, I remind members that we will have 
questions open until the close of business today. And if you do 
get any questions, I would urge you to answer them 
expeditiously. It would be the chair's desire, working with the 
ranking member, to have your name up for a business meeting 
vote on Thursday, but that will depend upon making sure we have 
answers to any questions that are posed.
    With that and with the thanks of the committee, you are 
excused.
    Mr. Linick. Thank you.
    The Chairman. Thank you.
    Let me call up our next panel. And as we have them come 
forward, I am going to introduce them in the interest of time 
here.
    I am pleased to welcome Matthew Barzun as we consider his 
nomination to be our next Ambassador to the Court of St. James 
or, if you prefer, the United Kingdom of Great Britain and 
Northern Ireland. The United Kingdom is one of our closest 
allies, and the job of representing the United States in London 
was first held by John Adams and a succession of remarkable 
Americans. Matthew Barzun is no stranger to the world of 
diplomacy, having served successfully as our Ambassador to 
Sweden in 2009 and 2011, and I am sure that he will represent 
us well. We welcome you to the committee.
    You can all come up.
    Mr. David Hale. I welcome David to the committee. He is 
from the great State of New Jersey. So that gets you past first 
base here as we consider his nomination to be our next 
Ambassador to the Republic of Lebanon. While many countries in 
the Middle East have experienced significant difficulties from 
Syria's civil war, Lebanon has certainly taken the brunt of the 
fallout. Currently there are over 600,000 Syrian refugees in 
Lebanon and the number is expected to surpass 1 million by the 
end of the year. Mr. Hale is no stranger to Lebanon, having 
served there twice before, most recently from 1998 to 2001 as 
the Deputy Chief of Mission and having also served as our 
Ambassador to Jordan from 2005 to 2008. The chair is confident 
he is up to the challenge.
    Let me welcome Evan Ryan to the committee today who has 
been nominated to serve as the Assistant Secretary of State for 
Educational and Cultural Affairs. This is a Bureau that plays 
an essential role in U.S. public diplomacy by promoting better 
understanding between the United States and other countries 
through a variety of partnerships and professional exchanges. 
Ms. Ryan is qualified for this particular role and has the 
experience to prove it. She previously served as Assistant to 
the Vice President, Special Assistant to the President for 
Intergovernmental Affairs and Public Engagement, and prior to 
that, she worked as a consultant for the Educational 
Partnership for Children of Conflict and served as the Deputy 
Chair for Governance for the Clinton Global Initiative. So we 
believe that she will make an excellent Assistant Secretary of 
State in this regard, and I look forward to working with her in 
the coming years.
    And I understand that Ms. Ayalde is stuck in security. So 
we will hopefully liberate her so that she can be at the 
hearing here shortly.
    With that in the order in which I introduced you, 
Ambassador Barzun, we will start with you. If you would 
synthesize your statement in about 5 minutes for each of you, 
your full statements will all be included in the record, 
without objection. And we will start with you, Ambassador 
Barzun.
    I see you have been liberated from security. Let me welcome 
as well Liliana Ayalde, who has been nominated to be our next 
Ambassador to Brazil. This is an incredibly important bilateral 
relationship, as well as the role that Brazil increasingly 
plays in a regional as well as an international context, so 
much so that President Obama will host President Rousseff for 
an official visit this coming October. Ms. Ayalde has strong 
experience in the hemisphere as the Deputy Assistant Secretary 
of State for the Western Hemisphere, as well as having served 
in an ambassadorial post in that regard. So we welcome you as 
well.
    Ambassador Barzun, you can start off.

 STATEMENT OF HON. MATTHEW WINTHROP BARZUN, OF KENTUCKY, TO BE 
AMBASSADOR TO THE UNITED KINGDOM OF GREAT BRITAIN AND NORTHERN 
                            IRELAND

    Ambassador Barzun. Mr. Chairman, distinguished members of 
this committee, it is an honor to appear before you today as 
the President's nominee to be the next United States Ambassador 
to the United Kingdom of Great Britain and Northern Ireland. I 
would like to thank President Obama and Secretary Kerry for 
placing their confidence in me with this nomination, and I 
thank you for considering it. If confirmed, I will work every 
day to nurture and deepen this special relationship.
    It is a relationship that has been meaningful to me for as 
long as I can remember and comes from my own family's 
connection to England. My 10 times great grandfather was John 
Winthrop, a Founding Governor of my home State of 
Massachusetts. His statue is right over there in Statuary Hall.
    Back in 1630, John Winthrop left his comfortable life in 
Suffolk to lead a group of 700 across the Atlantic to New 
England to build a new life in a place he named Boston. In the 
middle of that journey, he gave a sermon. Echoing the Sermon on 
the Mount, he said, ``We must consider that we shall be as a 
city upon a hill, the eyes of all people are upon us.'' Those 
words quoted by Presidents Kennedy and Reagan and so many 
others have become part of the American DNA.
    But it is also fitting that the sermon was delivered 
between England and America because those words also described 
the hopes and the expectations shared by so many around the 
globe for the United States-United Kingdom relationship. As the 
President and Prime Minister Cameron have said, the United 
States and the United Kingdom count on each other, and the 
world counts on our alliance.
    That is why we stand with our U.K. ally to advance our 
common agenda: ensuring our security, delivering economic 
growth, and safeguarding our shared values. That is the work 
our two governments are engaged on right now on all topics at 
all levels. I know there are far too many to list now with my 
allotted time, but I would like to highlight just three.
    First, our work together in Afghanistan where, after us, 
the United Kingdom is the largest troop contributor to the NATO 
mission.
    Second, our work together on the Transatlantic Trade and 
Investment Partnership, which the United Kingdom strongly 
supports.
    And third, our work together on every security challenge of 
our times, whether it is securing a lasting peace in the Middle 
East, providing humanitarian assistance to Syrian refugees, or 
calling for Iranian compliance with nonproliferation standards. 
Progress in these areas and others is only possible if we 
continue our long history of cooperation.
    As we saw in the Boston Marathon and the solidarity shown 
with Boston at the start of the London Marathon just a week 
later, it is the nature of our friendship that we always keep 
moving forward together.
    Mr. Chairman, 4 years ago, this committee gave me the 
opportunity and the honor of serving my country as U.S. 
Ambassador to Sweden. My wife, Brooke, who is my partner in 
diplomacy and life, and our three wonderful children are ready, 
if I am confirmed, to serve again.
    Mr. Chairman, members of this distinguished committee, if 
confirmed, I will serve with deference to this body, to your 
colleagues in Congress, and to the administration that has 
nominated me. I will serve with the utmost respect for the 
time-tested bonds shared by our great nations. I will serve 
with purpose and with optimism, knowing that the eyes of all 
people are indeed upon us.
    I thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Ambassador Barzun follows:]

           Prepared Statement of Hon. Matthew Winthrop Barzun

    Mr. Chairman and distinguished members of the Senate Foreign 
Relations Committee, it is an honor to appear before you today as the 
President's nominee to be the next United States Ambassador to the 
United Kingdom of Great Britain and Northern Ireland. I would like to 
thank President Obama and Secretary Kerry for placing their confidence 
in me with this nomination, and I thank you for considering it. If 
confirmed, I will work every day to nurture and deepen this special 
relationship and important NATO ally. As the President and Prime 
Minister Cameron have said, the United States and United Kingdom count 
on each other, and the world counts on our alliance.
    It is an intimate connection as we saw last week when so many 
Americans shared Britain's excitement about the new prince. And it's a 
relationship that has been meaningful to me for as long as I can 
remember.
    Part of that meaning stems from my own family's connection to 
England. My ten-times Great Grandfather was John Winthrop, the first 
Governor of my home State of Massachusetts (his statue is right over 
there in Statuary Hall). In 1630, John Winthrop left behind his life in 
Suffolk county, England, to lead 700 men and women across the Atlantic 
to New England so they could build a new life in a city he named 
Boston.
    In the midst of that journey he delivered a sermon whose words have 
inspired Americans ever since. Echoing the Sermon on the Mount, he 
said, ``We must consider that we shall be as a city upon a hill, the 
eyes of all people are upon us.'' Quoted by Presidents Kennedy, Reagan, 
and countless others, these words express an ideal that has become part 
of America's DNA. But it is fitting that the sermon was delivered while 
traveling between England and America, because these words also 
describe the hopes and expectations held by so many around the world 
for the United States-United Kingdom relationship: ``The eyes of all 
people are upon us.''
    With this in mind, I come before you today with a tremendous sense 
of purpose and optimism. This optimism is not based on nostalgia, but 
on a history of continuing our common purpose, adapted for the times in 
which we live. I am confident that, working together, our two countries 
will not only preserve this critical relationship, but will continue to 
adapt it to a quickly changing world.
    I began my professional life in 1993 when I left Boston to join a 
four-person Internet startup in San Francisco called CNET. The company 
grew quickly, our success a result of realizing early that the web was 
different. What didn't work was trying to just ``build an audience'' 
the way publishers and producers did. What did work was directly 
engaging with our users--to build a community.
    I met my amazing wife, Brooke, in California. She has since become 
my partner in diplomacy and in life and we now have three wonderful 
children. At the height of the Internet boom, we decided to move to her 
hometown of Louisville, KY, where the daily practice of building a 
community is as old as the frontier generations. I embraced the city 
and it embraced me. Even when I am not there, I always try to channel 
Louisville's spirit of generosity, hospitality, and warmth.
    I brought this spirit to Sweden when I served as the U.S. 
Ambassador there at an important time. During my years there, Sweden 
held the presidency of the EU, and Wikileaks posed unforeseen 
challenges to the diplomatic community. Together with our Swedish 
counterparts, our embassy team built stronger relations on behalf of 
trade, security and human rights, earning a medal for exemplary 
diplomatic service in the process.
    I look forward to building on this diplomatic success if confirmed 
as Ambassador to the United Kingdom.
    We live in a complex world, and the challenges we face today not 
only demand strategies that can evolve with the speed of change, but 
also wisdom and perspective. Standing with our U.K. ally, we must 
continue to advance our common agenda of ensuring our security, 
delivering economic growth, and safeguarding our shared values.
    That's the work our two governments are engaged on right now--on 
all topics and at all levels. To list them all would fill my allotted 
time, but you know them well: (i) our work together in Afghanistan 
where, after us, the U.K. is the largest troop contributor to the NATO 
mission; (ii) our work together on the transatlantic trade and 
investment partnership, which the U.K. strongly supports, (iii) our 
work together to on every security challenge of our times--whether it 
is securing a lasting peace in the Middle East, providing humanitarian 
assistance to Syrian refugees, or calling for Iranian compliance with 
nonproliferation standards. Together, the United States and the United 
Kingdom support democracy and freedom across the globe.
    Progress in these areas and others is only possible if we continue 
our long history of cooperation. As we saw in the Boston marathon and 
the solidarity shown with Boston at the start of the London marathon a 
week later, it is the nature of our friendship that we always keep 
moving forward. Together.
    What Britain means to us can be summed up in so many ways, but 
here's one I like that came up in a conversation with our youngest son. 
When talking about the possibility of moving to London, I mentioned the 
fabled ``special relationship.'' He asked me what that meant. My first 
attempts were long and failed. Words like ``allies'' didn't work. 
``Historic bilateral bonds'' was met with a blank stare. I thought for 
a while and then said, ``We're best friends.'' That worked.
    Mr. Chairman and members of the committee, if confirmed, I will 
serve with deference to this body, to your colleagues in Congress, and 
to the administration that has nominated me to be the next steward of 
this key post. I will serve with the utmost respect for the time-tested 
bonds shared by our great nations. I will serve with purpose and 
optimism, knowing that the eyes of all people are upon us.
    I thank you for your time and look forward to your questions.

    The Chairman. Thank you very much.
    Secretary Ayalde.

STATEMENT OF HON. LILIANA AYALDE, OF MARYLAND, TO BE AMBASSADOR 
              TO THE FEDERATIVE REPUBLIC OF BRAZIL

    Ambassador Ayalde. Mr. Chairman and members of the 
committee, thank you very much for the opportunity to appear 
before you.
    I am extremely honored to be here today as the President's 
nominee to be the United States Ambassador to the Federative 
Republic of Brazil. Please allow me to express my deep 
gratitude to the President and the Secretary of State for the 
trust and confidence in me as shown through this nomination. 
Also, please allow me to express my sincere appreciation to the 
committee as it undertakes its vitally important constitutional 
role of advice and consent.
    With the chairman's permission, I wish to recognize my 
family and friends and colleagues who have supported me over 
the years--many of whom are here today. I especially would like 
to acknowledge my parents, Jaime and Mercedes; my nieces, 
Bianca, Karina, and Alexa; and my lovely daughters, Stefanie 
and Natalia. Each knows the joys and sacrifices of public life, 
and I am grateful for their love and their steady support.
    I come before you today as a career member of the United 
States Foreign Service. I have served my country for 30 years 
in diplomacy and development, mostly in the Western Hemisphere. 
As a preteen, I had the privilege of spending 3 years of my 
life living and learning in Brazil. The impact this vibrant and 
ambitious country had on me has never really faded. I was 
impressed by the openness and the spirit of the people and the 
deep pride Brazilians have in their national heritage.
    If confirmed, I would give the highest priority to ensuring 
the well-being and safety of our mission and that of the 
American citizens who live and travel in Brazil. In 2012 alone, 
Brazil received nearly 600,000 tourists from the United States. 
As the host to the 2014 World Cup and the 2016 Summer Olympics, 
Brazil will receive even more visitors and attention in the 
coming years, providing the opportunity to showcase to the 
world its dynamism and its diversity.
    The relationship between the United States and Brazil is 
strong. We share important values, including a commitment to 
democracy, the rule of law, human rights, environmental 
protection, and multilateralism. In recent years, we have made 
great progress in expanding this relationship, not just on the 
political and economic levels, but also in the people-to-people 
exchanges aimed at expanding learning opportunities and 
promoting innovation.
    If confirmed, I will work to consolidate these important 
gains and allow our relationship to grow by promoting the 
following three themes.
    One, the shared leadership to address global challenges. It 
is in our interest to work with Brazil to address common 
challenges such as food security, environmental stewardship, 
nonproliferation, public health, and the collective defense of 
democracy and human rights, and the trafficking of drugs, 
weapons and people. We welcome Brazil's commitment to be a full 
partner in tackling this global agenda.
    Second, partnering to realize our trade and investment 
potential. Boosting and sustaining economic growth is a key 
priority for the United States and Brazil. Strengthening the 
middle classes and expanding interest in a diversified cross-
border trade and investment are important shared priorities. If 
confirmed, I would work to promote mutually beneficial 
investments between our private sectors to spur innovation, 
support growth, and create jobs in both of our countries.
    And third, building our people-to-people capacity. Our 
public diplomacy efforts are of vital importance. If confirmed, 
I would focus on education, tourism, and English language 
training to increase the Brazilians' exposure to the United 
States and understanding of United States policies and goals in 
the region. Brazil's Scientific Mobility program--a fully 
funded initiative that will send 101,000 Brazilian students to 
study science--will connect us with Brazil's next generation of 
entrepreneurial leaders and complements President Obama's 
100,000 Strong in the Americas initiative.
    Brazil's history has shown that it is not necessary to 
choose between democracy and economic development. A commitment 
to democratic institutions and free markets can allow a country 
to peacefully transform itself into a middle-class society and 
a global leader. In the process, Brazil has created the 
opportunity for us to re-imagine our relationship and open the 
possibility for both countries to construct a new kind of 
strategic partnership.
    If confirmed by the Senate, I look forward to working with 
the distinguished members of the committee, Congress, and your 
staff, to achieve the goals of United States policy and foster 
a relationship with Brazil that is worthy of both our great 
nations.
    Let me once again thank you for inviting me to testify 
today and I look forward to your questions.
    [The prepared statement of Ambassador Ayalde follows:]

               Prepared Statement of Hon. Liliana Ayalde

    Mr. Chairman, and members of the committee, thank you very much for 
this opportunity to appear before you.
    I am extremely honored to be here today, as the President's nominee 
to be the U.S. Ambassador to the Federative Republic of Brazil. Please 
allow me to express my deep gratitude to the President and the 
Secretary of State for the trust and confidence in me as shown through 
this nomination. Also, please allow me to express my gratitude to the 
committee as it undertakes its vitally important constitutional role of 
advice and consent.
    With the chairman's permission, I wish to recognize my family, 
friends, mentors, and colleagues who have supported me over the years--
many of whom are here today. I especially would like to acknowledge my 
parents and my daughters. Each knows the joys and sacrifices of public 
life, and I am grateful for their love and steady support.
    I come before you today as a career member of the United States 
Foreign Service. I have served my country for 30 years in diplomacy and 
development, mostly in the Western Hemisphere. As a teenager, I had the 
privilege of spending 3 years of my life living and learning in Brazil. 
The impact this vibrant and ambitious country had on me has never 
faded. I was impressed by the openness and spirit of the people, and 
the deep pride Brazilians have in their national heritage. I recognized 
in Brazil's racially and ethnically diverse society strong similarities 
with the United States.
    If confirmed, I would give the highest priority to ensuring the 
well-being and safety of our mission and that of American citizens who 
live and travel in Brazil. In 2012 alone, Brazil received nearly 
600,000 tourists from the United States. As host to the 2014 World Cup 
and the 2016 Summer Olympics, Brazil will receive even more visitors 
and attention in the coming years, providing the opportunity to 
showcase to the world its dynamism and diversity. If confirmed, I will 
work closely with the Brazilian Government to support its efforts to 
ensure safe and successful major events.
    The relationship between the United States and Brazil is strong. We 
share important values, including a commitment to democracy, rule of 
law, human rights, environmental protection, and sustainable 
development; the desire to see peaceful resolution of disputes between 
nations; and a commitment to multilateralism. In recent years, we have 
made great progress in expanding the relationship, not just on 
the political, economic, energy, and defense levels, but also in 
people-to-people exchanges aimed at expanding learning opportunities 
and promoting innovation. Dozens of bilateral dialogues, memoranda of 
understanding, agreements, working groups, and people-to-people 
exchanges underpin our broad-based relationship.
    If confirmed, I will work to consolidate these important gains and 
allow our relationship to grow by promoting the following themes:
    Shared leadership to address global challenges. Brazil has 
committed itself to global leadership. The May 2013 selection of 
Brazilian Ambassador Roberto Azevedo as the World Trade Organization's 
next director general and Paulo Vannuchi to the Inter-American 
Commission on Human Rights further illustrates Brazil's growing 
influence. It is in our interest to work with Brazil to address common 
challenges, such as food security, environmental stewardship, arable 
land and fresh water management, nonproliferation, advancement of women 
and girls, public health, the collective defense of democracy and human 
rights, and the trafficking of drugs, weapons, and people. Our 
engagement includes a growing number of innovative trilateral 
initiatives, and we welcome Brazil's commitment to be full partners in 
tackling this global agenda. A perfect example of our increased 
cooperation is the upcoming Global Partnership Dialogue, led by the 
Secretary of State and his Brazilian counterpart, which deepens our 
interactions with Brazil on priority strategic challenges.
    Partnering to realize our trade and investment potential. Boosting 
and sustaining economic growth is a key priority for the United States 
and Brazil. Both of our societies look to their policymakers to advance 
policies that lead to greater prosperity, equity, and opportunity. 
Strengthening our middle classes and expanding diversified cross-border 
trade and investment are important shared priorities. If confirmed, I 
would work to promote mutually beneficial investment between our 
private sectors to spur innovation, support growth, and create jobs in 
both of our countries.
    Building our people-to-people capacity. Our public diplomacy 
efforts are of vital importance. If confirmed, I would focus on 
education, tourism, and English language training to increase 
Brazilians' exposure to the United States and understanding of U.S. 
policies and goals in the region. Brazil's Scientific Mobility 
program--a fully funded initiative that will send 101,000 Brazilian 
students to study science, technology, engineering, and math at foreign 
universities--will connect us with Brazil's next generation of science, 
technology, and entrepreneurial leaders, provide a huge boost to U.S. 
colleges and universities, and complements President Obama's 100,000 
Strong in the Americas initative.
    If confirmed, I would encourage outreach to Brazil's vibrant 
community by engaging civil society and strengthening outreach to youth 
and future leaders in universities, political parties, and business. I 
will strive to expand our relationship by reaching out to people and 
regions across Brazil we might not have reached in the past and 
acquaint Brazilians from all backgrounds with the United States.
    Brazil's history has shown that it is not necessary to choose 
between democracy and economic development. A commitment to democratic 
institutions and free markets can allow a country to peacefully 
transform itself into a middle class society and global leader. In the 
process, Brazil has created the opportunity for us to re-imagine our 
relationship and opened the possibility for both countries to construct 
a new kind of strategic partnership. This is not to say that Brazil 
does not have challenges, or that we do not have differences. But we 
have the mechanisms in place to address these issues constructively, 
and the points of converging interests far outweigh our differences. 
The potential for the relationship between Brazil and the United States 
is as great as our willingness to embrace the opportunities before us, 
and our goal is to show that we can best achieve our mutual interests 
through collaboration and cooperation.
    If confirmed by the Senate, I look forward to working with the 
distinguished members of this committee, Congress, and your staffs to 
achieve the goals of U.S. policy and foster a relationship with Brazil 
that is worthy of both our great nations.
    Let me once again thank you for inviting me to testify today and I 
look forward to your questions.

    The Chairman. Thank you.
    Ambassador Hale.

 STATEMENT OF HON. DAVID HALE, OF NEW JERSEY, TO BE AMBASSADOR 
                   TO THE REPUBLIC OF LEBANON

    Ambassador Hale. Mr. Chairman and members of the committee, 
I am deeply honored and humbled by the privilege to appear 
before you today, and by the trust that President Obama and 
Secretary Kerry have bestowed upon me. If I am confirmed, I 
look forward to working with the Senate on how best to advance 
United States interests in Lebanon.
    I have had the honor and privilege of serving my country in 
the Foreign Service since 1984. I have devoted my career to 
advancing U.S. interests in the Middle East. Lebanon and its 
people have been a part of my life for decades. I was first 
assigned to Beirut just after the civil war ended and Lebanon 
lay in ruins. Years later, I returned as the Deputy Chief of 
Mission in a brighter time as the country rebuilt.
    I learned a lot from the Lebanese people, particularly from 
their unflagging aspirations and endurance. I was proud to help 
build partnerships between America and Lebanon as we supported 
Lebanese efforts to regain true independence, sovereignty, and 
unity, to restore stability and security throughout the 
country, to revitalize their economy, and to build strong state 
institutions accountable to all Lebanese citizens.
    This work is incomplete, but furthering that partnership 
remains a priority for the Obama administration because it is 
in the U.S. national interest. If confirmed, I will devote 
myself to working with the Lebanese to advance these common 
goals.
    If confirmed, I will have no higher priority than the 
safety and security of American personnel, information, and 
facilities in Lebanon, as well as that of all American citizens 
there. My overseas career since 1990, including as Ambassador 
to Jordan, has been at high-threat posts in the Middle East. 
That experience has taught me to guard against complacency, to 
minimize risk, and to ensure that we have the resources and 
practices we need to advance America's business as safely and 
securely as possible.
    The Syria crisis is having a profound effect on Lebanon. 
The spillover threatens to disrupt Lebanon's progress toward 
democracy, independence, and prosperity. There are those who 
would drag Lebanon into the Syrian conflict. Hezbollah is 
putting its own interests and those of its foreign backers 
above those of the Lebanese people. Hezbollah's active military 
support for the Syrian regime contradicts the Baabda 
Declaration, violates Lebanon's disassociation policy, and 
risks Lebanon's stability. My mission, if confirmed, will be to 
do everything possible to support the Lebanese in their policy 
of disassociation from the Syrian conflict, help them maintain 
their sovereignty, and ensure that America is helping to meet 
the humanitarian challenge posed by refugee flows into Lebanon.
    Violence is already spilling over. The work of the Lebanese 
Armed Forces and the Internal Security Forces to protect 
Lebanon from these consequences reminds us that U.S. security 
assistance is a pillar of our bilateral relations and clearly 
in the U.S. national interest. We have worked with these two 
institutions to fight common terrorist threats. We have a 
strong commitment to support the Lebanese as they build up 
these institutions so they can project state authority to all 
corners of Lebanon. Only with such institutions can Lebanon 
ever attain stability, sovereignty, and security.
    There are over 700,000 refugees from the Syrian conflict in 
Lebanon, a nation of only 4 million. The strain is great. Our 
humanitarian aid helps the refugee population, as well as 
Lebanese host communities, many disadvantaged themselves, with 
food, shelter, health care, and schooling. If confirmed, I will 
seek new ways to support Lebanese protection and assistance for 
those fleeing the terrible violence next door.
    Lebanon's banking sector is the backbone of its economy. 
For the financial sector to continue to attract capital, it 
must meet international standards on countering money 
laundering and terrorist financing. If confirmed, I will work 
with the Lebanese banking community to ensure that it remains a 
stabilizing force for the economy.
    It is now more important than ever to promote Lebanon's 
democratic traditions. The decision to forgo elections and to 
extend the current Parliament for nearly 2 years undermines 
Lebanon's democratic practices. We recognize this is a Lebanese 
process, but Lebanese political leaders should respect the 
electoral process and the constitution, crucial bulwarks for 
Lebanon's democracy.
    Finally, Lebanese-American relations are more than a 
bilateral tie between governments. There is a strong, proud, 
energetic community of Lebanese Americans who have contributed 
much to our country. Many of these Americans are committed to 
the development of their land of origin as well. And I am proud 
of my ties to a community that has done so much for the United 
States and for Lebanon.
    Mr. Chairman, members of the committee, I thank you again 
for the opportunity to be here. If I am confirmed, I hope to 
see you and your staffs soon in Beirut, and I look forward to 
your questions. Thank you.
    [The prepared statement of Ambassador Hale follows:]

                 Prepared Statement of Hon. David Hale

    Mr. Chairman and members of the committee, I am deeply honored and 
humbled by the privilege to appear before you today and by the trust 
that President Obama and Secretary Kerry have bestowed upon me. If I am 
confirmed, I look forward to working with the Senate on how best to 
advance U.S. interests in Lebanon.
    I have had the honor and privilege of serving my country in the 
Foreign Service since 1984. I have devoted my career to advancing U.S. 
interests in the Middle East. Lebanon and its people have been a part 
of my life for decades. I was first assigned to Beirut just after the 
civil war ended and Lebanon lay in ruins. Years later, I returned as 
the Deputy Chief of Mission in a brighter time, as the country rebuilt. 
I learned a lot from the Lebanese people, particularly from their 
unflagging endurance and aspirations. I was proud to help build 
partnerships between America and Lebanon, as we supported Lebanese 
efforts to regain true independence, sovereignty, and unity, to restore 
stability and security throughout the country, to revitalize their 
economy, and to build strong state institutions accountable to all 
Lebanese citizens. This work is ongoing, and furthering that 
partnership remains a priority for the Obama administration, because it 
is in the U.S. national interest. If confirmed, I will devote myself to 
working with the Lebanese to advance these common goals.
    If confirmed, I will have no higher priority than the safety and 
security of American personnel, information, and facilities in Lebanon, 
as well as that of all Americans there. My overseas career since 1990, 
including as Ambassador to Jordan, has been at high-threat posts in the 
Middle East. That experience has taught me to guard against 
complacency, to minimize risk, and to ensure that we have the resources 
and practices needed to conduct America's business as safely and 
securely as possible.
    The Syria crisis is having a profound effect on Lebanon. The 
spillover threatens to disrupt Lebanon's progress toward democracy, 
independence, and prosperity. There are those who would drag Lebanon 
into the Syrian conflict. Hezbollah is putting its own interests and 
those of its foreign backers above those of the Lebanese people. 
Hezbollah's active military support for the Syrian regime contradicts 
the Baabda Declaration, violates Lebanon's disassociation policy, and 
risk Lebanon's stability. My mission, if confirmed, will be to do 
everything possible to support the Lebanese in their policy of 
disassociation from the Syrian conflict, help them maintain their 
sovereignty, and ensure that America is helping to meet the 
humanitarian and economic challenge posed by refugee flows into 
Lebanon.
    Violence is already spilling over. The work of the Lebanese Armed 
Forces and Internal Security Forces to protect Lebanon from these 
consequences reminds us that U.S. security assistance is a pillar of 
our bilateral relations and serves U.S. interests. We work with these 
two institutions to fight common terrorist threats. We have a strong 
commitment to support the Lebanese as they build up these institutions 
so they can project state authority to all corners of Lebanon. Only 
with such institutions can Lebanon ever attain stability, sovereignty, 
and security.
    There are over 700,000 refugees from the Syrian conflict in 
Lebanon, a nation of 4 million. The strain is great. Our humanitarian 
aid helps the refugee population as well as Lebanese host communities, 
many disadvantaged themselves, with food, shelter, health care, and 
schooling. If confirmed, I will seek new ways to support Lebanese 
protection and assistance for those fleeing the terrible violence next 
door.
    Lebanon's banking sector is the backbone of its economy. For the 
financial sector to continue to attract capital, it must meet 
international standards on countering money laundering and terror 
financing. If confirmed, I will work with the Lebanese banking 
community to ensure that it remains a stabilizing force for the 
economy.
    It is now more important than ever to promote Lebanon's democratic 
traditions. The decision to forgo elections and extend the current 
Parliament for nearly 2 years undermines Lebanon's democratic practices 
and stability. We recognize that this is a Lebanese process. But, 
Lebanese political leaders should respect the electoral process and the 
constitution, crucial bulwarks for Lebanon's democracy. These 
institutions are cherished by the Lebanese people.
    Lebanese-American relations are more than a bilateral tie between 
governments. There is a strong, proud, energetic community of Lebanese-
Americans who have contributed much to our country. Many of these 
Americans are committed to the development of their land of origin as 
well. I am proud of my ties to a community that has done so much for 
both the United States and Lebanon.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to be here. If I am confirmed, I hope to see you and your 
staff soon in Beirut. I look forward to your questions.

    The Chairman. Thank you very much.
    Ms. Ryan.

STATEMENT OF EVAN RYAN, OF VIRGINIA, TO BE ASSISTANT SECRETARY 
         OF STATE FOR EDUCATIONAL AND CULTURAL AFFAIRS

    Ms. Ryan. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to appear before you today.
    I will like to thank my parents, Donna and Tony Ryan; my 
husband, Tony Blinken, for joining me here. I am deeply 
grateful for their support.
    The Chairman. Let me interrupt you for a moment. We want to 
welcome Mr. Blinken back to the committee, who was the staff 
director in the committee at one time and is the Deputy 
National Security Advisor. So we are thrilled to see that the 
world could wait a moment for you to be here with your wife.
    Ms. Ryan. I am honored to be considered by the Senate for 
this important position, and I am grateful for the trust and 
confidence that President Obama and Secretary Kerry have placed 
in me with this nomination to be Assistant Secretary of the 
Bureau of Educational and Cultural Affairs. If confirmed, I 
look forward to joining the administration's foreign policy 
team and advancing our country's public diplomacy goals.
    The mission of ECA is to increase mutual understanding 
between the people of the United States and the people of 
countries around the world through educational and cultural 
exchanges. International exchanges enjoy broad bipartisan 
support in Congress. ECA's wide range of programs and 
initiatives continue to capitalize on American strengths and 
ideals--the near universal appeal of our education system, our 
culture and our values, our entrepreneurs and our innovators, 
our scientists, athletes, and thinkers. ECA is the lifeblood of 
public diplomacy, establishing the personal relationships that 
become the foundations of international partnerships.
    My background draws me to the position of the Bureau and 
has prepared me for the considerable responsibilities of 
Assistant Secretary. For the past 4 years, as the Assistant to 
Vice President Biden for Public Engagement and 
Intergovernmental Affairs, my work focused on bringing people 
together from across America on a broad range of issues. I 
built and strengthened constituencies and saw the power of 
shared ideas. If confirmed, I will see that the American people 
remain at the heart of ECA exchanges.
    I have also seen the power of people-to-people exchanges 
through serving on the board of directors of PeacePlayers 
International and working with the Education Partnership for 
Children of Conflict. When you bring people together through 
areas of mutual interest, you open lines of communication and 
build trust that is essential for solving long-term challenges. 
Thanks to the opening made through this sports exchange, 
children learn that what they have in common far outweighs the 
differences that divide their communities.
    These experiences instilled in me a conviction that through 
education, culture, and sports, the United States can help 
defuse conflict, bring people together, and build partnerships 
to face global challenges.
    With citizens increasingly able to shape local and even 
global events, ECA's mission is more vital now than ever. 
Annually ECA engages 350,000 exchange participants and is 
connected with more than 1 million ECA alumni, including 365 
who became leaders of their countries, 54 who won Nobel Prizes, 
and many more who returned to become leaders in their chosen 
fields. This is the legacy of flagship programs like Fulbright 
and International Visitor Leadership Program, which was started 
by Nelson Rockefeller who invited Latin American journalists 
who came to the United States to learn about freedom of speech 
and democratic values.
    ECA's international program participants get to see America 
firsthand. ECA is connecting with new audiences from every part 
of society and empowering youth, women, minorities, and 
underserved communities, the world's future problem-solvers.
    Equally important is the impact of ECA exchange programs on 
the United States. When ECA sends Americans abroad, they become 
ambassadors for our Nation. Through ECA programs, Americans 
learn about other cultures and gain skills needed to succeed in 
the global marketplace.
    And every day in every State, your constituents demonstrate 
American values to exchange participants through their 
hospitality. They open their classrooms, their workplaces, 
homes, and hearts to people from nearly 190 countries.
    By linking Americans together with people from around the 
world, we can develop lasting relationships and partnerships 
that overcome political and cultural differences. And there is 
a tangible benefit too. Last year, international students 
contributed nearly $23 billion to the U.S. economy.
    If I am confirmed, I will sustain and build on the Bureau's 
extraordinary record of connecting with youth, women, emerging 
leaders, and the underserved to address the challenges of today 
and invest in the future of America's global relationships.
    For example, I am committed to engaging youth from every 
region and background because 65 percent of the world's 
population is under the age of 30. If confirmed, I am excited 
to expand ECA programs like the Youth Ambassadors which started 
in Latin America and promotes mutual understanding and 
increases leadership skills.
    ECA programs are also a bridge to opportunities and 
alternative narratives for the next generation.
    If confirmed, I believe the following are also essential 
strategic directions for ECA.
    No. 1, ensuring ECA programs are aligned with foreign 
policy priorities.
    Two, leveraging technology and new media to connect more 
people with America such as virtual exchange programs.
    Three, investing in long-term relationships with exchange 
alumni to increase the overall impact of ECA's programs.
    And last, increasing opportunities for Americans.
    Public diplomacy relies on our country's greatest asset, 
the American people. When you meet Americans, you meet American 
values. If confirmed, my focus will be on creating lasting 
people-to-people relationships that are the foundation of U.S. 
global engagement.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Ryan follows:]

                    Prepared Statement of Evan Ryan

    Thank you, Mr. Chairman, and thank you, Ranking Member Corker, for 
the opportunity to appear before you today.
    I am honored to be considered by the Senate for this important 
position--and I am grateful for the trust and confidence that President 
Obama and Secretary Kerry have placed in me with this nomination to be 
Assistant Secretary of the Bureau of Educational and Cultural Affairs. 
If confirmed, I look forward to joining the administration's foreign 
policy team. It would be a privilege to advance our country's public 
diplomacy goals under the leadership of Secretary Kerry, whose 
commitment to solving global challenges by bringing people together has 
been unwavering throughout his career.
    The mission of ECA is to increase mutual understanding between the 
people of the United States and the people of countries around the 
world through educational and cultural exchanges. International 
exchanges enjoy broad bipartisan support in Congress. ECA's wide range 
of programs and initiatives continue to capitalize on American 
strengths and ideals--the near universal appeal of our education 
system, our culture and values, our entrepreneurs and innovators, our 
scientists, athletes, and thinkers. Through these programs, the State 
Department is building ties to emerging leaders around the world. ECA 
is the lifeblood of public diplomacy--establishing the personal 
relationships that become the foundation of international partnerships.
    My background draws me to the mission of the Bureau and has 
prepared me for the considerable responsibilities of Assistant 
Secretary. For the past 4 years, as the Assistant to Vice President 
Biden for Public Engagement and Intergovernmental Affairs, my work 
focused on bringing people together from across America--including law 
enforcement and labor, state and local elected officials, business and 
religious leaders, educators and community activists--on a broad range 
of issues. I built and strengthened constituencies and saw the power of 
shared ideas in advancing the administration's goals. These 
constituencies remain deeply engaged with foreign exchange 
participants, share invaluable expertise, and host them in our 
communities. If confirmed, I will see that the American people remain 
at the heart of ECA exchanges.
    I have also seen the power of people-to-people exchanges overseas 
through serving on the Board of Directors of Peace Players and working 
with the Education Partnership for Children of Conflict. When you bring 
people together through areas of mutual interest, you open lines of 
communication and build trust that is essential for solving long-term 
challenges. In Northern Ireland, South Africa, and Israel, Peace 
Players uses sports to bring together children of different races, 
religions, and ethnicities. Thanks to the opening made through this 
sports exchange, children learn that what they have in common far 
outweighs the differences that divide their communities.
    The Education Partnership for Children of Conflict helps make sure 
that children whose lives are disrupted by war still have access to 
schools, books, and teachers. War can produce a lost generation; the 
Partnership promotes education and offers opportunities to overcome 
divisions that lead to conflict in the first place.
    These experiences instilled in me a conviction that, through 
education, culture, and sports, the United States can help defuse 
conflict, bring people together and build partnerships to face global 
challenges. We must continue to find creative ways to connect with 
people around the world. Exchange programs open doors.
    With citizens increasingly able to shape local and even global 
events, ECA's mission is more vital now than ever. Annually, ECA 
engages 350,000 exchange participants and is connected with more than 1 
million ECA alumni--including 365 who became leaders of their 
countries, 54 who won Nobel Prizes and many more who returned to become 
leaders in their chosen fields. This is the legacy of flagship programs 
like Fulbright, founded in 1946, and the International Visitor 
Leadership Program, which was started by Nelson Rockefeller who invited 
Latin American journalists who came to the United States to learn about 
freedom of speech and democratic values.
    ECA's international program participants get to see America first-
hand. They live and work here and return to their own countries and 
share their new skills and understanding. The impact is global. 
Participants are from every part of society. They are high school and 
university students, emerging leaders, entrepreneurs, journalists, 
activists, government officials, religious leaders, and academics from 
every class and background. ECA is connecting with new audiences and 
empowering youth, women, minorities, and underserved communities--the 
world's future problem-solvers.
    Equally important is the impact of ECA exchange programs on the 
United States. We live in a globalized world, and providing Americans 
international experiences makes our country stronger--better able to 
understand, cooperate, and compete. When ECA sends Americans abroad 
they become ambassadors for our Nation. They often study, work, and 
live with people who have never met an American. Through ECA programs, 
Americans learn about other cultures and gain skills needed to succeed 
in a global marketplace.
    And, every day, in every state, your constituents demonstrate 
American values to exchange participants through their hospitality. 
They open their classrooms, workplaces, homes, and hearts to people 
from nearly 190 countries. From their hometowns, they are sharing the 
best of America with the world.
    By linking Americans together with people from around the world, we 
can develop lasting relationships and partnerships that overcome 
political and cultural differences. And there is a tangible benefit, 
too: last year, international students contributed $23 billion to the 
U.S. economy.
    If I am confirmed, I will sustain and build on the Bureau's 
extraordinary record of connecting with youth, women, emerging leaders, 
and the underserved to address the challenges of today and invest in 
the future of America's global relationships.
    For example, I am committed to engaging youth from every region and 
background because 65 percent of the world's population is under 30. I 
know the transformative impact new ideas and experiences have on a 
young person. We have to be in the business of talent scouting around 
the world, finding emerging leaders, empowering them to fulfill their 
dreams, and building a long-term relationship with the people of the 
United States. If confirmed, I am excited to bolster and expand ECA 
programs like the Youth Ambassadors, which started in Latin America and 
has brought young people throughout the hemisphere together to promote 
mutual understanding, increase leadership skills, and prepare youth to 
make a difference in their communities. And to support the President's 
Young African Leaders Initiative, by bringing young Africans to the 
United States for summer leadership institutes at U.S. colleges and 
universities, and providing opportunities for them to network and 
contribute to their country's future when they return home.
    It is also essential that ECA connect with young people in 
vulnerable communities. ECA programs are a bridge to opportunities, 
alternative narratives, and a marketplace of ideas for the next 
generation. These relationships are an investment in our shared 
futures.
    If confirmed, I would look to continue expanding the reach of the 
Bureau's English language programs to build on the strong global demand 
for English language proficiency. English language skills connect young 
people to America, open doors, develop communities, and allow people to 
enter the global economy. This is a priority for the President and will 
have an impact far into the future. To cite just one example, already 
ECA's English Access Microscholarship program reaches tens of thousands 
of students each year in underserved communities in more than 85 
countries worldwide. They are building strong bridges between 
countries, communities, and cultures while strengthening America's 
popularity and appeal.
    I also believe the following are essential strategic directions for 
ECA:
          1. Ensuring ECA programs are aligned with foreign policy and 
        are mutually reinforcing;
          2. Leveraging technology and new media to connect more people 
        with America, such as virtual exchange opportunities;
          3. Investing in long-term relationships with exchange alumni 
        to increase the overall impact of ECA's programs; and
          4. Increasing opportunities for Americans and impact on 
        domestic communities.
    Public diplomacy relies on our country's greatest asset, the 
American people. When you meet Americans, you meet American values. If 
confirmed, my focus will be on creating lasting people-to-people 
relationships that are the foundation of U.S. global engagement. I 
would be honored to lead this important effort for our country.
    Thank you very much, and I look forward to answering your 
questions.

    The Chairman. Thank you all for your testimony and to your 
family members for being here.
    Let me start off with an answer I want from each of you and 
it is a simple yes or no. If you are confirmed, will you be 
responsive to requests from this committee and responsive to 
sharing insights in your respective posts with this committee 
by both the chair and members of the committee?
    Ambassador Barzun. May I start?
    The Chairman. Yes.
    Ambassador Barzun. Senator, thank you for that question. In 
the spirit of brevity, yes, absolutely.
    Ambassador Ayalde. Mr. Chairman, I would welcome those 
insights.
    Ambassador Hale. Yes, Mr. Chairman.
    Ms. Ryan. Mr. Chairman, yes, absolutely. I look forward to 
working with the committee.
    The Chairman. All right. Thank you.
    Now, let me start off with you, Ambassador Barzun. As 
former Prime Minister Thatcher would say, the Anglo-American 
relationship has done more for the defense and future of 
freedom than any other alliance in the world. That is very 
true. You embodied it in your opening statement.
    In that context, there are still challenges before us, 
challenges on terrorism, challenges in North Africa, challenges 
as we still seek to deter Iran's march toward nuclear weapons, 
for which the United Kingdom has been a tremendous ally in this 
regard and forward thinking within Europe. How do you envision 
working to strengthen our mutual interests, but of course U.S. 
policy in this regard, to get our British allies to continue 
not only on the path they have been on but to intensify it in 
these areas with us?
    Ambassador Barzun. Thank you, Senator, for that question 
and raising that important topic--or topics, I should say.
    As you pointed out, the defense and security cooperation 
between our two countries is unrivaled, and precisely because 
the cooperation has been going on for so long and it is so 
strong, I will certainly make sure to never be complacent. That 
takes a lot of work from an incredibly talented country team 
over there at post. And if confirmed, I will engage with the 
talented country team to engage on political, economic, 
defense, and security, on all those issues because those all 
come to play, as we seek to make the world a more peaceful, 
prosperous, and just place and of course, if confirmed, would 
welcome the opportunity to work closely with you, your staff, 
and this committee to make sure that that remains just as 
strong as it is today.
    The Chairman. Well, I appreciate that. I am particularly 
concerned about Iran. This committee has acted a series of 
times, in concert with the Congress, in a way in which it is 
rare today to have one unified voice of 100-to-0 votes about 
our concern about Iran's march toward nuclear weapons. And 
Great Britain has been a tremendous ally in this regard, and we 
need their continued leadership as we get into a phase of, I 
think, increasing challenge. So I commend that to your 
attention in your portfolio as you go there.
    And something that is on a personal note but I think also 
important to our country, but on a personal note, I have for 
some time been involved in questions of Northern Ireland from 
my days in the House as a member of the Ad Hoc Irish Caucus 
from convincing President Clinton's national security advisor 
to give Gerry Adams his first visa to the United States, from 
helping seven boys called the Ballymurphy 7 to be liberated 
from a system of which they had 98 percent conviction rates 
just simply because they were Irish Catholics.
    And while we have come a long way, a recent set of 
circumstances in Northern Ireland with protests exacerbated by 
the parades that take place annually and the riots that have 
ensued thereon has had a process by which Richard Haas, a 
former U.S. special envoy to Northern Ireland, is going to 
chair an effort. I hope that you will work with him and play a 
role in this regard. I think we have invested too much not to 
see the path to peace continue. It has been a cold peace but, 
nonetheless, to continue on a march toward greater integration. 
So I hope that you will consider that as part of your 
portfolio.
    Ms. Ayalde, you and I had a conversation about Brazil. I 
think it is an incredibly important regional partner. I think 
it is incredibly important in its continuing aspirations in the 
world. I think the Brazilians have so much potential.
    I, however, get concerned when I see, when they have 
opportunities, where they are headed sometimes. I get concerned 
in their position as the revolving chair of the Security 
Council where they seek further engagement with Iran, on Libya, 
in Syria in a way in which clearly diverts from my mind from 
where our views are. And to the extent that they want to be a 
new permanent member of the Security Council, it would make me 
real concerned about their aspirations in that regard.
    And regionally I hear about their desire to be the regional 
leader, but I see them do very little outside of the country on 
democracy and human rights.
    So while there is a lot that we are in common cause with 
the Brazilians, I hope that you are going to pursue, upon 
confirmation, a broadening of what I hope their vision is and 
their participation is in the days ahead.
    Ambassador Ayalde. Senator, I appreciate your comments and 
certainly this is going to be a priority for me, if confirmed. 
My understanding is that the intensity of this dialogue over 
the last 2 years has improved. As Brazil becomes a much more 
active global player, the space in which we can dialogue and 
influence on these very important issues has increased. And so, 
if confirmed, I would want to pursue these very high priority 
foreign policy objectives so that we could have a much more 
fruitful and constructive way forward.
    The Chairman. Ambassador Hale, you have one of the most 
challenging posts here, and in that respect, I wonder what your 
perspective is on a continuing political and military stalemate 
in Syria in terms of affecting Lebanon. What would be the 
ramifications in Lebanon for either a rebel victory or a regime 
victory in Syria?
    Ambassador Hale. Thank you, Mr. Chairman.
    Of course, the situation we are facing today is an impasse 
in Syria and the consequences that flow into Lebanon. It is 
going to be very challenging in a post-conflict environment, 
frankly, to even predict what Syria itself will look like, much 
less what Lebanon is going to look like.
    But one thing I think is very important to bear in mind is 
that Lebanese society is interwoven very deeply into Syrian 
society. The connections between these two countries run very, 
very deep. All you have to do is look at a map and see why that 
is the case.
    Our hope is that Lebanon will stay out of this conflict, 
that Hezbollah's role in trying to drag Lebanon into this 
conflict will be showcased and rejected by other elements of 
the population, and that as the situation in Syria stabilizes, 
Lebanon itself can go back to a stable environment as well, 
that the refugees will be able to go back into Syria. 
Ultimately, that will require a political solution there, that 
the violence slipping over the border will cease, and the 
Lebanese will be able to take back the command of their own 
agenda, which is to rebuild their country from years of civil 
conflict.
    The Chairman. And finally and before I turn to Senator 
Corker, because time has run and I want to make sure everybody 
gets an opportunity here, what do you think is the view--what 
is the degree of your view in terms of having the Lebanese 
leadership not allow the country to backslide into their past 
in terms of the type of conflict that we have seen in Lebanon 
before? What is your barometer reading on it?
    Ambassador Hale. I think that the President of the 
Republic, President Suleiman, is showing remarkable leadership 
in preventing that from occurring. He has spoken out forcefully 
about that. He has defended the disassociation policy and he 
has condemned those, such as Hezbollah, who are violating it. 
That is also true of the commander of the Lebanese Armed 
Forces, who has also made similarly courageous statements. I 
believe that the vast majority of Lebanese political and 
factional leaders and religious leaders, as well as the vast 
majority of the population of that country, has a very strong 
aversion to returning to conflict. The evidence of what 
happened to that country is all around them. All you have to do 
is drive the streets of Beirut or in the countryside. Everyone 
knows the costs and the consequences of it. But it is very 
important that the tension that is rising from the conflict in 
Syria and Hezbollah's involvement in it be dealt with directly 
and that the political process, which is currently paralyzed, 
return to function well so that all elements of that society 
feel that they are participating in the decisions being made 
for the security and future of the country.
    The Chairman. Ms. Ryan, I will get to you in my second 
round.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thank each of 
you for your public service and continued public service, 
hopefully, after this weekend.
    Ms. Ryan, I had to step out for a moment with something on 
the floor and you may have spoken to this in your opening 
comments. But I would love to hear how your positions in the 
private sector and the public sector have prepared you for this 
role in cultural affairs that hopefully you will take.
    Ms. Ryan. Thank you so much, Ranking Member Corker, and 
thank you again for letting me be here today.
    I actually was an exchange student in college, and so I 
have that firsthand experience.
    But shortly after college, I worked for First Lady Hillary 
Clinton, and in that job, I was able to travel to 22 countries 
around the world and see the different cultures and different 
societies and how different cultures and societies can offer us 
insights and we can learn from them and vice versa.
    I then worked with a nonprofit called PeacePlayers 
International, and PeacePlayers International works with 
children of different races, religions, and ethnicities, and 
brings them together with sports. They play together, learn 
that they have more in common with each other than they do have 
differences. They currently operate in Northern Ireland, in 
South Africa, and Israel and the West Bank. And what was 
fascinating to learn working with PeacePlayers is when you work 
with young people who have not yet formed hard opinions about 
people who differ from them, you can show them that there is 
much more in common that they have with one another than 
differences.
    I also worked with the Education Partnership for Children 
of Conflict, and what we found is one of the first things to go 
by the wayside in an area of conflict is a school, a child's 
ability to learn. And that can stunt that country's growth, 
that country's path in the future if you are not educating its 
young people.
    So through all of these, as well as through my most recent 
work with Vice President Biden when I worked with 
constituencies all around the country and saw that when you 
bring people together and open a dialogue, there is more that 
we can accomplish together than apart.
    I think the power of ECA is that you do open doors to 
people around the world. There are currently 350,000 
participants in exchange programs through ECA, and we bring 
them here to this country. They see American ideas, American 
values. They are exposed to American democracy. They then go 
home to their country. They share their experience of America. 
And that benefits us in the long term. I think Senator Lindsey 
Graham called ECA's exchange programs ``national security 
insurance'' because if you send people back to their home after 
they have been here, seen what America is really about, perhaps 
something that they had not been exposed to in their own media, 
and given them a chance to see how much broader their horizons 
can be, that impacts us in the long term in terms of our 
diplomacy and in terms of how this country deals with leaders 
who have been exposed and been through our exchange programs.
    So I think it is a very powerful place to be in terms of 
our public diplomacy, and I feel that my background is uniquely 
suited to accomplish a lot in this role. And I really 
appreciate your question.
    Senator Corker. Well, thank you.
    We have had some difficulties over the last couple years 
where certain efforts have taken place to clamp down on these 
programs where we have had people coming here to the United 
States and really learning a great deal about entrepreneurship 
and for enterprise and all those things that have helped make 
this country great. And I do hope, if confirmed, that you will 
work with us to ensure that these programs are not clamped down 
upon but actually, you know, within the resources available, 
expanded because I agree. I think it is a tremendous 
opportunity for us to share values with people in other 
countries, for them to take those back to their home. But, 
again, there have been some efforts, I think you may be aware, 
to curtail these activities, and I hope you will help us ensure 
that that does not happen.
    Thank you again for being here.
    Ambassador Hale, I know that Senator Menendez asked you a 
couple questions about Lebanon, and I think you talked a little 
bit about post. But right now as things sit, what is it that 
you think we could be doing to help stabilize Lebanon with the 
conflict that is occurring in Syria?
    Ambassador Hale. Thank you, Mr. Ranking Member.
    There are a number of things that we are doing now and that 
I will continue to do in order to help stabilize the situation 
in Lebanon.
    One of my first priorities is going to be to make sure that 
Washington has a clear picture of the impact of developments in 
Syria on the ground in Lebanon politically, economically, 
security, and the humanitarian situation.
    Second, we have to stay focused on that humanitarian issue. 
The United States has contributed $160 million out of our total 
budget for the Syrian refugee crisis to our partners in Lebanon 
to help work with the refugee issues there.
    I think we also want to make sure that the Lebanese 
leadership is thinking ahead about contingencies related to the 
refugees so that they are prepared and the international 
community as a partner for them is also prepared and ready with 
planning.
    And then we need to continue to help with this 
disassociation policy rhetorically and behind the scenes 
politically to make sure that those who support disassociation 
have our support.
    One of the most important and tangible ways that we can 
stabilize Lebanon is to continue our very concrete support for 
the Lebanese Armed Forces and the Internal Security Forces. We 
are contributing resources to them so that they can train and 
equip to deal with the security challenges inside the country, 
including countering the terrorist threats, controlling the 
border, including the Syrian border, making sure that Hezbollah 
can no longer claim that there is a vacuum in the state, but 
there is a strong state institution capable of carrying forth 
the security of that country.
    Senator Corker. Ms. Ayalde, Ambassador, I thank you for 
being here and thank you for your willingness to serve in 
another country.
    I see I am out of order here. I apologize.
    There is a lot of economic and development changes taking 
place in Brazil right now. What do you think we can do? I mean, 
there is tremendous turmoil. There was growth for a period of 
time, obviously much dissension within the country right now 
about direction. What do you think we as a country can do to 
help move Brazil along in a productive way?
    Ambassador Ayalde. Thank you, Mr. Ranking Member, and thank 
you for the question.
    Brazil has tremendous potential on all fronts, and we are 
best situated to take advantage of that. We have various 
dialogues going on that try to hone in on some of the barriers 
to trade, we are already very well poised to address these 
issues. It is a very dynamic process.
    We have CEO's working on this. We have a very active CEO 
forum with 12 CEOs from Brazil and 12 CEOs from the United 
States working together trying to identify what those potential 
barriers may be and how we can help address them jointly.
    There are opportunities in the energy sector that we are 
looking at very eagerly. Bids are due to be announced for oil 
and gas exploration, and we are looking forward to the 
opportunity this can offer U.S. business.
    We have a number of areas that we are going to continue to 
work with the Brazilians to try to take advantage of 
opportunities. But we are already doing a lot. Tourism, for 
instance, has just grown exponentially from the United States 
to Brazil and from Brazil to the United States. And as a 
result, we accommodated our consulates. We had to address the 
streamlining. We have one of the highest visa issuance in the 
world, and we have a number of Brazilians coming to the United 
States and buying. That means jobs.
    You mentioned the recent turmoil or protests that have 
gotten a lot of public attention. We believe this is a sign of 
the resilience of the Brazilian democracy and the voices came 
out and protested, and the President responded immediately in a 
peaceful way. And those concerns are being taken seriously and 
the government is looking at ways of trying to address the call 
for improved health services, improved education, and better 
transportation.
    And then again, there are also opportunities for our 
engagement on the infrastructure. There are new airports and 
ports projects, and we are looking forward to seeing more U.S. 
business engagement. And if confirmed, I would certainly work 
with our private sector and the Brazilian government to try to 
make sure that there are fair rules of the game for that 
economic engagement.
    Senator Corker. Thank you.
    And, Ambassador, I will probably get to you in a second 
round, but I thank you for your willingness to go from Sweden 
to where you are going. Thank you very much.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to all of our witnesses for your willingness to 
serve.
    Ambassador Barzun, I appreciate your mention of TTIP in 
your list of the top three issues that will confront you in 
your new post. I, in my service in the House, was not a 100-
percent supporter of trade agreements that came before the 
Congress, but I am a big supporter of this one because I think 
it has not only enormous economic potential but has large 
geopolitical consequences if we get it right.
    That being said, it will be a lot easier to enforce and 
maintain a TTIP that we hopefully eventually sign if England is 
still part of Europe. And you are going to be there during a 
really consequential time for the identity of that nation. In 
particular, in 2015, we expect there will be a conversation and 
perhaps a referendum, according to Cameron if he wins 
reelection, on the U.K.'s continued participation in the EU.
    Talk to us just a little bit about our disposition and your 
future disposition as Ambassador as England and the United 
Kingdom goes through what could be a pretty tumultuous debate 
about their future role in the European Union and what the 
consequences perhaps are to the United States if their decision 
to perhaps withdraw or either further limit their 
participation.
    Ambassador Barzun. Thank you, Senator, for raising very 
important topics and topics I do plan to deeply engage on, if 
confirmed.
    I think the President said it quite well when Prime 
Minister Cameron came to visit earlier this spring, and I will 
echo those words in answer to your question. And it is 
important to say right up front that the U.K.'s decision for 
how it works with and within Europe is a decision and internal 
matter for the United Kingdom.
    That said, the United States interests--our interest is, as 
the President said, for a strong U.K. voice in a strong 
European Union for the reasons you touched on, Senator. A 
strong U.K. voice--we share a commitment to free and fair 
trade. We get a strong, bit TTIP deal done with the European 
Union. That is not only good for the European Union and the 
United States, which is a third of global trade. It also sets 
great, high standards for the rest of the world.
    So that is how I plan to handle it, if confirmed, and as 
that evolves, I, of course, look forward to working with you, 
your staff, and this committee to monitor progress. Thank you.
    Senator Murphy. Thank you very much, Mr. Ambassador.
    Ambassador Hale, in our conversation before today's 
hearing, you were referencing comments regarding the Syrian 
refugee inflow to Lebanon as creating an existential crisis in 
Lebanon. And sort of thinking about that afterward, it sort of 
strikes me as maybe one existential crisis layered on top of 
another existential crisis, perhaps layered on top of another. 
This is about as confusing a country for identity politics 
purposes as you get, and it plays out in the LAF. It is playing 
out right now as the general of the LAF and the ISF are both 
seeing their terms expire and you have got infighting amidst 
the political groups trying to figure out who comes next.
    And it often causes consternation here in Congress because 
we, for instance, look at the sometimes watered-down 
willingness of the Lebanese Security Forces to take on 
Hezbollah, for instance, and we wonder why we are continuing to 
fund them if they are not taking the kind of rigorous posture 
that we would like them to. I think we sometimes have that 
consternation because we misunderstand the complicated nature 
of identity politics and political coalition building today, 
and we also probably misunderstand the importance of the LAF 
and a nonsectarian armed forces in trying to be one of the few 
legitimate brokers of peace and political stability.
    So we talked a little bit about this privately but talk to 
us just a little bit about the role you can play to help us 
make the case to appropriators here that we should continue 
military funding for Lebanon, certainly with an understanding 
that there is a line that they can cross that would cause us to 
change our disposition. But how can you help us make the case 
that this is an incredibly important funding stream for the 
Lebanese people and for our regional security interests?
    Ambassador Hale. Senator, that is an absolutely essential 
issue that you have raised, and I think you have captured very 
well the nature of the challenge that we are facing on this.
    I would cast things in the following way. This has got to 
be a long-term effort. You know, I saw the Lebanese Armed 
Forces at the end of the civil war personally as a diplomat. It 
was a broken vessel. The war broke it. We have been helping 
them build up literally from the boots up since this period.
    And one of the reasons that Hezbollah was able to become 
what it is today is that it thrived in the vacuum that was left 
by this absent state security authority. So if we have the 
long-term ambition, as we do, of making sure that Hezbollah is 
no longer the militia and terrorist threat that it is today, 
then we have got to have in place state institutions that can 
carry on the security challenges that are present in Lebanon 
and around the region. So that is the long-term goal that we 
have here.
    We, obviously, would anticipate that there is not going to 
be a military solution to Hezbollah. We saw that in 2006. There 
has to be a much more complex approach to it. There has to be a 
political strategy by Lebanese to reach a consensus that 
Hezbollah can no longer be the one militia that is still around 
and still armed and still controlling spots of Lebanese 
territory that is still making decisions that affect the life 
and prosperity of every Lebanese citizen without any 
accountability at all. But we will never get there if we do not 
have these institutions in place.
    And think of the alternative. If we were not engaging and 
bolstering the Lebanese Armed Forces, then you would have not 
only Hezbollah but a whole host of terrorist groups seeking 
haven in Lebanon, finding their own sanctuaries, developing 
their own means, fighting amongst themselves, and then spilling 
all that over into Israel and other countries. We have seen 
that movie, and it is the last thing we want to see again 
happen in Lebanon or anywhere else in the world.
    So I believe that this is the right investment to be 
making.
    Senator Murphy. Thank you. Mr. Ambassador, I just want to 
also thank you for your comments about the strong Lebanese 
American population and your willingness to draw upon them to 
try to make some of these cases I think ultimately to make your 
job and our job easier.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And to the witnesses, congratulations. Thank you for your 
service.
    Mr. Barzun, your inspiring story about John Winthrop makes 
me want to offer a sentimental piece of advice to you to 
exemplify the same point, the great connection between our 
countries. There is a tiny Anglican church a few blocks from 
the Thames in the little community of Gravesend, which is at 
the mouth of the Thames where it flows into the sea. And in 
that parish, there is a very well-tended grave and it is the 
grave of the archetypal Virginian Pocahontas. The English 
settlers who came to Jamestown--frankly, they did not know how 
to survive Virginia weather, and if it had not been for John 
Smith, they all would have died. Pocahontas stayed her father's 
hand as they were about to kill John Smith and that really 
began the peaceful relations between Virginians, Native 
Americans, and the English, that first example of English 
settlement on this continent.
    Pocahontas married another Virginian, John Rolfe, and 
traveled back to England, and when she had been there for a 
while, they gave her the Christian name Rebecca. She was coming 
home and fell ill on the journey down from London and was taken 
ashore in Gravesend and died.
    The English have taken care of her grave there since the 
early 1600s, and in the church, there are two stained glass 
windows over the altar. One is Rebecca, her Christian name. 
When I went in and looked at it, the other one was Ruth. And I 
could not figure out why Ruth was in a stained glass window. 
But as you well know from the King James Bible that John 
Winthrop probably preached from, Ruth is the subject of the 
wonderful Old Testament story of Ruth and Naomi, the mother-in-
law and daughter-in-law, who were of different nations. And 
when Naomi told Ruth to go back home after her husband died, 
Ruth famously said, ``Wither thou goest, I shall go. Thy people 
shall be my people. Thy God shall by my God.''
    It is a wonderful tribute to the relationship and that tie 
between Virginian Indians and the English but also between the 
United States and England. And that is why the stained glass 
windows are there and that is why the grave has been so 
carefully maintained for so many years. It will inspire you in 
your role. I doubt you need inspiration, but it will inspire 
you to see it. It is evidence of your proposition.
    The Chairman. That is just an example of the tip of the 
depth of knowledge that exists on this committee. [Laughter.]
    And I thank the Senator for exhibiting it.
    Senator Kaine. So now on to the more mundane. I am really 
interested in this Scotland referendum, the devolution 
referendum. And I do not know if you have any thought about 
that or what the conventional wisdom of that is. My 
understanding is the Prime Minister offered to Scottish people 
the ability to have a referendum about their future, including 
potential independence. And I think it might even be right 
about the same time as you would be having the discussion about 
the European Union.
    Do you have any sense about how that is perceived right now 
and how it would likely go? I know the United States would have 
no position on it, but I am just curious.
    Ambassador Barzun. Thank you, Senator.
    You are right. The Scottish referendum will be at the end 
of 2014, and you are also right that, of course, it is an 
internal matter for the United Kingdom. So it would not be 
appropriate for me to speculate about future outcomes.
    I would, however, like to ask your permission to use that 
story about Pocahontas early and often, if confirmed. That is 
fantastic.
    Senator Kaine. It is not trademarked, as far as I know.
    Ambassador Barzun. Thank you, Senator.
    Senator Kaine. Thank you.
    Ambassador Ayalde, if I could. Just one little thing that 
interests me. I could ask you a lot. But the chairman talked 
about his concerns about Iran in speaking to you that Brazil, 
you know, I think often showing an independence that a great 
nation and a great economy would have, does things in the 
foreign relations field that make us antsy and ought to make us 
antsy.
    But one thing about the relationship with Iran I think is 
this. Brazil is one of the few nations in the world that gave 
up a nuclear weapons program. They were developing nuclear 
weapons when they had a military government in the 1970s and 
1980s largely because of their concerns about their neighbor 
Argentina. And about 5 years after the military government fell 
in 1990, they voluntarily abandoned their nuclear weapons 
program. They are one of the few examples. I think South Africa 
and Libya might be the other two, each for their own reasons, 
of nations that were well on their way to developing nuclear 
weapons and then decided not to.
    It is my hope--the chairman is working on this. We need to 
do things with respect to Iran, military options, strong 
diplomacy, strong sanctions. And yet, at the same time, there 
ought to be some positive examples out there of why nations 
have decided that it is in their own long-term interest to 
abandon nuclear weapons programs.
    And I hope that that story of Brazil as an example of a 
nation that abandoned a nuclear weapons program might be 
something that you and your colleagues in the Brazilian 
Government, should you serve in that capacity, could tell 
because I think it would offer some lessons to Iran and 
possibly to North Korea or other nations that are deciding to 
pursue a nuclear path. You do not need to pursue a nuclear path 
to be a strong economy and be a global power. I think that is a 
lesson from Brazil, and I just wondered if you might want to 
say anything about that.
    Ambassador Ayalde. Thank you, Senator. Yes, very much so. 
That is the kind of positive moves that we are trying to 
encourage. The global partnership dialogue includes some of 
these global issues, including the relationship with Iran, and 
we hope to be able to move in positive directions through 
forceful diplomatic dialogue. And the experience that you have 
highlighted certainly points to ways in which this can happen, 
but we want to see that more frequently and obviously much more 
robustly.
    Senator Kaine. And I know, as the chairman knows, one of 
the things that is most troubling about Iran is the way they 
are trying to play all throughout the Americas, the Spanish 
language TV and radio networks, trying to spread the influence 
of Iran in Brazil elsewhere. And we need to pay attention to 
Iran in the southern hemisphere not just in the Middle East. 
And I look forward to working with you on that.
    Ambassador Hale, I recently went with Members of the Senate 
to the Middle East and Afghanistan and saw in Turkey and Jordan 
the effects of Syrian refugees. But we did not go to Lebanon 
and have extensive discussions about the effect of Syrian 
refugees in Lebanon. In Turkey, the refugees tend to be in 
camps of about 10,000 each, and when a camp is filled, then you 
build another camp of about 10,000 each. In Jordan, the camps 
tend to be larger, and because of water shortages in Jordan, 
they tend to be very challenging for the Jordanian Government.
    I would suspect because of the ties between Syria and 
Lebanon, a lot of the refugees who would come from Syria into 
Lebanon would sort of maybe not be in camps but blend in more 
with family or friends or connections in parts of the country. 
But could you describe the effect of the Syrian refugees 
currently on Lebanese life?
    Ambassador Hale. It is having a huge effect, Senator. And I 
appreciate your observations on the situation around Syria's 
borders.
    The Lebanese decided not to set up camps. There are pros 
and cons in all these decisions. There are camps in other 
countries where the Syrian refugees themselves are extremely 
unhappy, in fact, have rioted because of the conditions in 
those camps.
    And I think you put your finger exactly on the reason why 
the Syrian refugees, because of the ties between these 
countries, are able to integrate a little bit better into the 
society. If you look at a map of where they are located, they 
are literally spread all over the country, but not 
unexpectedly, the majority are in areas near the Damascus 
highway, in the Bekaa Valley, and the coastal highway that 
comes down in north Lebanon.
    The impact is on almost every aspect of life. These people, 
some of them, have had resources but their resources are 
beginning to dry up. They have rented apartments and so forth, 
but others do not have resources and are living with extended 
families in overcrowded housing, unable to necessarily meet 
their basic needs. And that is where our role becomes so 
important. They are doubling up in schools. The Lebanese have 
opened up the schools, but the demand is very great.
    I saw this in Jordan. By the way, I served there during a 
large period of the conflict in Iraq. We had a very similar 
challenge.
    So one of the objectives that we have is to make sure that 
our assistance goes to the community where the refugees are not 
just to the refugees, because their demands are spilling over 
into areas that are already disadvantaged.
    Like Jordan, the Lebanese have a neuralgia about refugees, 
and you can understand why, because of the Palestinian refugee 
population and the distortions that that generated in the 
society.
    So I think everyone, going back to chairman's initial 
question, is looking to us also to see that there is going to 
be a solution to this problem. And so that is why, working with 
the Syrian opposition, ultimately the answer is to find a 
political solution inside Syria.
    Senator Kaine. Thank you.
    Ms. Ryan, I will have a question in round two, but back to 
you, Mr. Chairman.
    The Chairman. Let me ask you, Ms. Ryan. I agree with 
everything you said--that is rare around here--with reference 
to the importance of educational and cultural affairs in the 
Bureau. There is an effort underway to make significant 
reductions to the Department's funding to the tune of 
approximately $124 million below the State Department's request 
for fiscal year 2014. I personally will work against that, but 
I hope it does not get realized.
    But inevitably, the challenge is when you are looking at 
the overall resources for our State Department, our Foreign 
Service abroad, this is an area that seems to be ripe for those 
who do not understand--and I agree with Senator Graham that 
this is probably one of the best placed resources germinating 
our ideas across the globe on democracy, freedom, and the 
potential of each individual human being to fulfill their God-
given potential. So it has enormous value.
    But to the extent that we are restricted with sequester and 
other challenges looking ahead, if you were to be confirmed, 
how do you look at how do we prioritize this effort in the 
world? How do we look at the changing realities in the Middle 
East and North Africa? How do we tailor our programming or 
should we tailor our programming as part of an overall mission 
to fight extremism?
    So, you know, in my mind, we would love everybody to come 
and see and engage and then go back in their own countries and 
promote these values that they will see for themselves are, in 
essence, really not just American but universal. But that is 
not going to happen.
    So is there a prioritization that we should be pursuing in 
this regard, especially in light of the budget challenges that 
we consistently face?
    Ms. Ryan. Thank you, Mr. Chairman. You make a critical 
point and that is an excellent question.
    I know that ECA works very closely with the regional 
bureaus of the State Department and with our embassies around 
the world to ensure that our programs at any given time are in 
line with our foreign policy priorities. And as you stated, in 
these budget times, we do have to make sure that the programs 
that we are developing are the ones that are most helpful to 
our foreign policy priorities and that they meet the needs of 
the changing global landscape.
    To your point, there is a program that ECA has called Tech 
Women that started just with women in the Middle East. It has 
now been expanded to parts of North Africa. And what they do is 
they bring women from the Middle East who are interested in 
developing skills in tech. They come here for a mentorship 
program in Silicon Valley where they are matched with women who 
teach them tangible skills and technology. They go back to 
their home countries. They have marketable skills. They know 
how to start a business. They know how to develop these things. 
We have now empowered them, taught them these skills. They have 
benefited completely from the United States.
    And what you will find is, especially with women--this is 
why I think this program is so unique and powerful--women 
invest in their children and in their children's education and 
help form the opinions that their children are going to grow up 
with about the United States. So that is one example of, I 
think, how ECA has been nimble in making sure that their 
programs do align with the foreign policy priorities of the 
administration of this country.
    The Chairman. So if you are confirmed, you will oversee a 
department that will be nimble enough to respond to the 
changing challenges we have within the context of your fiscal 
constraints.
    Ms. Ryan. Exactly. And making decisions about which 
programs we need to prioritize based on what the current needs 
are for our goals.
    The Chairman. I have one last question and you referenced 
it in your opening statement, which I was glad to see, and that 
is using new media platforms as a way of expanding our reach 
globally within the context of public diplomacy. Can you 
expound a little bit upon that because I think that especially 
when we are having budget challenges, this is an opportunity to 
reach mass audiences in a way that, first of all, is aware in 
how they seek to communicate and, secondly, gives us the 
opportunity to expand our reach?
    Ms. Ryan. Thank you, sir. That is a very important point.
    One of the things that ECA has focused on recently is 
virtual exchanges where people can learn from us online. We can 
develop programs where they can sit at their computer in their 
country and learn virtually with programs here in the United 
States. So that is something that will be a priority. It is 
something that, as you can imagine, is at a much lower cost 
than actually transporting people. So virtual exchanges is 
something that is on the horizon and that ECA is already 
working on. And I look forward to, if confirmed, to continuing 
in that effort.
    One other piece of--you know, in terms of what you have 
raised and how we can accomplish these goals and meeting 
people's needs through other means. We already have very strong 
English language programs around the world. What that has 
accomplished and what I hope it will continue to accomplish at 
a, hopefully, lower cost is purely by teaching American English 
to people around the world, you then enable them to read 
American media, to read English online in a way they would not 
have been able to before, be exposed to ideas online purely 
because there are these English language opportunities that 
have been a priority for a very long time of ECA and I hope, to 
your point, do not get cut in any budget cuts because English 
language teaching is a very subtle diplomatic tool and very 
powerful way to engage people not only with the United States 
but with U.S. Web sites, Internet, ideas, and information. And 
so I am hoping that that English language teaching could remain 
because I think it is a very subtle and powerful way to teach 
people about this culture but also open their minds.
    The Chairman. That is great. I hope we are teaching 
highbrow New Jersey English. [Laughter.]
    Senator Corker.
    Senator Corker. We could debate that.
    I want to thank you all again for your service. I know 
there are a number of panelists. We have two more coming up, 
and I will be very brief.
    But, Ambassador Barzun, you know, the United Kingdom has 
been--we have a special relationship with them, as you have 
mentioned. And if you can remember the Pocahontas story when 
you get there, you will be one of the most outstanding 
Ambassadors ever.
    But you know, the fact is, at the same time, there are only 
three NATO countries that are actually living up to their 
obligations as it relates to funding defense. U.K. is barely 
doing that right now and it looks like through budgetary cuts 
could in fact drop down below. I know this is a short and quick 
answer. But I assume you will be a strong advocate for the 
United Kingdom in spite of the fact that we have a special 
relationship with them in maintaining their obligations to NATO 
in that regard.
    Ambassador Barzun. Absolutely, Senator. Thank you for 
raising the issue around this important NATO ally.
    It is my understanding that Chancellor of the Exchequer 
Osborne in his most recent budget laid out a defense budget 
that would remain above the 2 percent. And we all know--both of 
our countries know--that maintaining a modern deployable force 
is expensive. And because of our deep cooperation with the 
U.K., we are committed to working with that strong relationship 
to make sure that they remain full spectrum capability, that 
they remain interoperable with us, and also that they finally 
are able to continue to lead missions on behalf of NATO.
    So it is an area of critical concern, one that I will 
engage on when I get on the ground, and I look forward to 
working with you, your staff, and this committee, if confirmed.
    Thank you.
    Senator Corker. Well, again, I thank all four of you for 
your willingness to serve our country in this way and for being 
before us today. And I look forward to a long engagement with 
each of you. Thank you very much.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Ms. Ryan, just briefly. Again, 
congratulations to you.
    One of the programs that your office administers is called 
the Exchange Visitor Program, and this is already kind of like 
a constituent question. Virginia has been a great user of this 
program, and it is to bring international teachers to Virginia 
who have been very enriching of the student experience in the 
Virginia public schools.
    I just wanted to put on your radar screen for the day that 
you are doing the job that the traditional time period for 
these international visits is about 3 years. But the State 
Department and Virginia have worked very cooperatively for some 
time in allowing 2-year extensions to ultimately take those 
periods in Virginia to about 5 years. And I know my 
superintendent of public instruction, Patricia Wright, will 
have that letter on your desk as soon as you are there. And I 
just want to encourage you--I know you know the value of this 
program and these teachers--how much they enrich students. But 
just to encourage you in that because in Virginia we have found 
that to be a really important program that your office operates 
and we are big fans of it.
    Ms. Ryan. Thank you, Senator Kaine. Indeed, I do know that 
it is a very important program. The teachers who come over here 
are teaching critical language skills to our students, but they 
are also exposing our students just by being there to different 
cultures and that is a very important program. And if 
confirmed, I look forward to working with you.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman. Well, thank you all for your testimony, your 
willingness to serve.
    I remind members that the record for these nominees will 
stay open until the close of business today for any questions. 
If you do receive a question, I urge you to answer it 
expeditiously. It is the intention of the chair, working with 
the ranking member, to have these nominees before a business 
committee later this week, but that will depend upon having 
answers to all questions at that time.
    With that and with the thanks of the committee, this panel 
is excused.
    I invite Senator Kaine to take the chair. And I invite our 
next panel to come forward: Kirk Wagar, Daniel Sepulveda, 
Terrence Patrick McCulley, and James Swan.
    Senator Kaine [presiding]. If I could get members of the 
panel, please, to come forward, we will begin now panel three. 
I will do introductions of the four nominees who are before us 
and then ask Senator Nelson to make some statements. I know he 
is here to introduce his friend, Kirk Wagar. And after Senator 
Nelson's comments, we will hear from the four nominees in the 
order that I introduce them.
    First, Kirk Wagar is a friend and has been nominated to 
serve as Ambassador to Singapore. Mr. Wagar is a Floridian who 
has had a distinguished and very successful career as an 
attorney with a deep commitment to public service, including 
service on the Advisory Board of the Import-Export Bank of the 
United States. I am pleased to welcome him before the committee 
to consider his nomination as Ambassador to Singapore.
    The position for which he has been nominated is a very 
important one in the region, both for the issues on the United 
States-Singapore agenda, such as deepening defense cooperation 
and the Trans-Pacific Partnership and also because Singapore's 
role in helping to forge a new and emergent regional 
architecture for a rules-based Asia-Pacific order. Singapore is 
also a wonderful innovation capital, and there are great 
exchanges of information and ideas that can be forged in this 
role.
    The unique role that Mr. Wagar has had as an attorney and 
his commitment to public service, including the Export-Import 
Bank, will qualify him in a great position for this Ambassador.
    And I will introduce Senator Nelson in a minute who will 
say more.
    Terence McCulley. Ambassador McCulley, welcome. Ambassador 
Terence McCulley is to be the nominee of the U.S. Ambassador to 
Cote d'Ivoire. As a senior member of the Foreign Service, 
Ambassador McCulley brings extensive leadership skills, coupled 
with strong management and interagency experience. His previous 
service in challenging countries, such as Mali and Nigeria, 
have instilled necessary insight to serve in a country 
beginning to find its way after a long and difficult civil war.
    Since the crisis following the disputed Presidential 
elections in 2010, Cote d'Ivoire has been steadily emerging 
from a difficult era. The current President initiated measures 
to restore security, address human rights issues, ensure 
transitional justice, promote political reconciliation, revive 
the economy, reform security, and rebuild state legitimacy. A 
sizable agenda.
    The United States has been a steadfast partner in these 
efforts, especially in work on the judiciary and electoral 
systems. We have also supported efforts to disarm and 
demobilize former combatants and promote national 
reconciliation. The immense challenges are not insurmountable. 
With the wealth of experience and steadfast leadership of 
Ambassador McCulley, the United States will continue to be a 
partner of the Ivoirian people, and in a region that has been 
too long plagued by conflict, a renewed Cote d'Ivoire will be a 
valuable partner.
    Next, Ambassador James Swan. Maybe one of the most 
challenging countries in Africa, the Democratic Republic of 
Congo, is wealthy in natural resources yet remains poor and 
divided by conflict. Few people know more about these 
challenges than Ambassador Swan. And I am pleased to welcome 
him here as we consider his nomination.
    Ambassador Swan has the depth and breadth of experience to 
engage our partners in the Democratic Republic of Congo to move 
toward realizing its potential and the Congolese people deserve 
no less than the best the United States can offer.
    It is one of the largest countries in Africa, presents 
great challenges, but there are few people in the service of 
the United States who understand the challenges and 
opportunities more than Jim Swan. As a career Foreign Service 
officer, he has had a long relationship with this country. 
Deputy Assistant Secretary in the Africa Bureau. He has 
promoted security reforms and the establishment of broad-based 
government across the continent, and these happen to be two of 
our highest priorities in the Congo. Welcome.
    Daniel Sepulveda. The Internet and telecommunications are 
at the heart of the modern international economy and both 
present huge opportunities and challenges. With many years of 
experience on just these issues while in Congress and past 
administrations and in the private sector, Daniel Sepulveda is 
the perfect candidate to champion the Nation's international 
information and communication policies and priorities. I am 
pleased to welcome him as the nominee for Deputy Assistant 
Secretary of State for International Communications and 
information Policy with the rank of Ambassador.
    He is well known here in Congress both for his expertise on 
global telecom and Internet issues, as well as for his 
extensive experience working for both Senators Cowan and Boxer, 
as well as for President Obama and Secretary of State Kerry 
when they were both Senators.
    Mr. Sepulveda would assume the head of the State 
Department's Information Policy Group at a moment when our 
country is faced with complex international debates over 
privacy, data flows, Internet governance issues, as well as a 
time when the administration is pursuing a very significant set 
of trade and investment agreements that impact directly upon 
his portfolio.
    I want to welcome all of the witnesses before us. Thank you 
for your public service.
    And I am going to begin by asking Senator Bill Nelson of 
Florida to say a few words of introduction to Kirk Wagar, and 
then we will have--actually before I do that, I am going to ask 
my ranking member, with a great hand signal from Senator Nelson 
about what I was supposed to do next----
    [Laughter.]
    Senator Kaine [continuing]. That I was able to observe. 
Before I introduce him, I would like to ask Senator Corker, the 
ranking member of the committee, to offer some introductory 
comments.
    Senator Corker. I think you have done an outstanding job of 
introducing these great candidates and nominees. And I know we 
have a very distinguished Senator from Florida who is waiting 
patiently to speak. So I will defer and look forward to your 
testimony and thank you again for your willingness to serve.
    Senator Kaine. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. As you said, it is 
my privilege to be back to the committee that I spent many very 
happy years as a member of this committee and thank you all for 
your dedicated service doing what has to be done in the 
confirmation of these nominees. And I am here on behalf of Kirk 
Wagar.
    I have known Kirk for many years. He is from Miami. He is a 
University of Miami law graduate. He has his own Miami-based 
law firm. And he has a passion for justice and advocacy. And, 
of course, someone possessing those characteristics, it is no 
wonder that the President picked him for a very sensitive 
diplomatic and political post, and that is Singapore, because 
Singapore is a major trading partner. It will continue to play 
a major part in our engagement in efforts, particularly trade 
efforts, in Asia and our Ambassador there oversees the 17th 
largest trade relationship. It is worth $50 billion a year.
    Singapore, fortunately, has a history of championing trade 
agreements. And as we get to looking to these Pacific trade 
agreements, it is going to be all the more important that the 
Ambassador representing us in Singapore in the Trans-Pacific 
Partnership negotiations is going to be very crucial.
    Now, interestingly, Singapore plays a very strategic 
military role for us not because they have an army but because 
we have an agreement with them that the U.S. Navy maintains a 
logistical command unit in Singapore, and it serves in 
coordinating warship deployment and logistics. And this is 
right there at the critical Strait of Malucca, which is the 
narrow passage from the Pacific to the east, to the Indian 
Ocean to the west. So our U.S. representative in this tiny, in 
effect, nation state is critical. Squadrons of U.S. fighter 
planes are rotated to Singapore, for example, for a month at a 
time, and the naval vessels make regular port calls. And so the 
security cooperation with this little country is extremely 
important to the interests of the United States.
    And I want to commend to you for your consideration Kirk 
Wagar as our Ambassador.
    Senator Kaine. Thank you very much, Senator Nelson. We 
understand that you may have other events to attend to, but we 
appreciate you being here.
    And, Mr. Wagar, why do we not start with you and then we 
will just move from your side of the table all the way across 
in the opening comments. And then Senator Corker and I will ask 
questions, along with any other members who might come.

           STATEMENT OF KIRK W.B. WAGAR, OF FLORIDA, 
         TO BE AMBASSADOR TO THE REPUBLIC OF SINGAPORE

    Mr. Wagar. Thank you, Senator. Mr. Chairman, Senator 
Corker, it is an honor and a humbling experience to appear 
before you as President Obama's nominee to be the next United 
States Ambassador to the Republic of Singapore.
    I am blessed to be a citizen of the greatest Nation on 
earth. I came here as an 18-year-old student, the first member 
of my family to attend college, and from that time, this 
country has provided me with my family, my education, my 
career, my home, and numerous opportunities to serve in our 
political process. My story is not possible in any other 
country in the world.
    I would like to first thank President Obama for the faith 
he has shown in me with this tremendous responsibility and 
assure this committee that I do not take it lightly.
    I also want to thank my dear friend, Senator Nelson, not 
only for his far too generous words but also his friendship and 
leadership on behalf of my family and all Florida's families. 
We could not ask for a more dedicated and gracious champion. 
His example is one I have followed and I will follow every day.
    If the committee will allow, I would like to recognize my 
family. I was adopted at 4 months old into the most loving of 
families, and while my parents could not be with us today, I 
must acknowledge it is because of their guidance and strength 
that I have achieved anything in my time on this planet.
    I would also like to introduce my brilliant and wonderful 
wife, Crystal Wagar. From her Midwestern roots to her 
unparalleled work ethic, Crystal serves as a model and 
inspiration every day, and her willingness to embark on this 
adventure on behalf of the country we both so dearly love 
ensures that we will do the best job we can on behalf of the 
American people.
    Mr. Chairman, if confirmed, it would be an honor to serve 
my country as the United States Ambassador to the Republic of 
Singapore.
    Singapore is one of our strongest partners in the region, a 
region that President Obama has made clear is a priority for 
our future. There are three main pillars to our comprehensive 
and productive relationship with Singapore.
    The historic foundation of the relationship is our dynamic 
and robust defense cooperation. Few countries surpass Singapore 
as a partner and a friend to the United States on our defense 
priorities in the region. Singapore is eager to have 
interoperable equipment, facilities, and processes that make it 
easy for us to cooperate with them on broad ranges of 
activities. We recently forward deployed to Singapore on a 
rotational basis the first of the U.S. Navy littoral command 
ships, which serves as an example of the depth of our shared 
interest in peace and prosperity in the region. If confirmed, I 
will work tirelessly to keep this relationship moving full 
steam ahead on a positive trajectory.
    The second pillar of our relationship is the economic 
cooperation we have with Singapore bilaterally, regionally, and 
globally. The U.S.-Singapore Free Trade Agreement was our first 
free trade agreement in Asia. This bilateral free trade 
agreement set high standards and broke new ground for future 
FTAs. Since entering into force in 2004, bilateral trade has 
flourished, increasing almost 60 percent. U.S. investment in 
Singapore is twice what we have in China and five times that of 
what we have in India. By many, many measures, this is 
America's best performing FTA.
    And we are building on that success as we partner with 
Singapore in the Trans-Pacific Partnership. The TPP will create 
a 21st century trade and investment agreement among a dozen 
countries that make up almost 40 percent of the world's GDP. If 
confirmed, I will work with Singapore to successfully complete 
the TPP negotiations this year, if possible, and to ensure 
TPP's full implementation. Singapore has a remarkable open 
economy with strong protections for intellectual property 
rights. It is no secret why over 2,000 American companies base 
their regional headquarters in Singapore. Taking this success 
and building on it in the region will be an exciting challenge 
for me.
    Our cooperation with Singapore on law enforcement and 
homeland security issues is the third pillar of our 
relationship. Our law enforcement cooperation with Singapore 
over the years has successfully used the available tools and 
resources, but it is time to update the cooperation to use 21st 
century tools to combat the 21st century challenges that face 
us. There is untapped potential in our partnership with 
Singapore as we confront the global challenges of cyber crime, 
illicit finance, counterproliferation, and trafficking in 
persons. I look forward to working with Singapore, if 
confirmed, on coming up with modern and mutually beneficial 
solutions to the problems of the present and of the future. I 
want to see our nonmilitary security cooperation elevated to 
the same parity we have on our military and economic 
cooperation.
    Finally, I came to this country because of the values that 
make America great: freedom, equality, and opportunity. Those 
values will be intertwined throughout all that I will do, if 
confirmed. Through our strong people-to-people exchange 
programs and my own personal public diplomacy efforts, we will 
continuously represent these values with dignity, sensitivity, 
and humility. I consider working to increase respect for 
universal human rights and fundamental freedoms a key element 
of the job of an ambassador and pledge to make sure that human 
rights is squarely on the embassy's agenda, if confirmed. It 
would be my distinct honor to serve as Ambassador to Singapore 
on behalf of this great country that has given me everything.
    Mr. Chairman, Senator Corker, thank you for inviting me to 
testify before you today and for giving my nomination your 
serious consideration. I am pleased to answer any questions you 
may have. Thank you.
    [The prepared statement of Mr. Wagar follows:]

                 Prepared Statement of Kirk W.B. Wagar

    Mr. Chairman, members of the committee, it is an honor and a 
humbling experience to appear before you as the President Obama's 
nominee to be the next United States Ambassador to the Republic of 
Singapore. I am blessed to be a citizen of the greatest nation on 
Earth. I came here as an 18 year old student--the first member of my 
family to attend college--and from that time, this country has provided 
me with my family, my education, my career, my home, and numerous 
opportunities to serve in our political process. My story is not 
possible anywhere else in the world.
    I would like to first thank President Obama for the faith he has 
shown in me with this tremendous responsibility and assure this 
committee that I do not take it lightly. I also want to thank my dear 
friend, Senator Nelson, not only for his far too generous words, but 
also his friendship and leadership on behalf of my family and all 
Florida's families. We could not ask for a more dedicated and gracious 
champion and his example is one I have followed and will follow every 
day. If the committee would allow, I would like to recognize my family. 
I was adopted at 4 months old into the most loving of families, and, 
while my parents could not be with us today, I must acknowledge that it 
is because of their guidance and strength that I have achieved anything 
in my time on this planet. Lastly, I would like to introduce my 
brilliant and wonderful wife, Crystal Wagar. From her Midwestern roots 
to her unparalleled work ethic, Crystal serves as a model and 
inspiration everyday and her willingness to embark on this adventure on 
behalf of the country we so dearly love ensures that we both will do 
the best job possible on behalf of the American people.
    Mr. Chairman, if confirmed, it would be an honor to serve my 
country as the United States Ambassador to the Republic of Singapore.
    Singapore is one of our strongest partners in the region--a region 
that President Obama has made clear is a priority for our future. There 
are three main pillars to our comprehensive and productive relationship 
with Singapore. The historic foundation of the relationship is our 
dynamic and robust defense cooperation. Few countries surpass Singapore 
as a partner and friend to the United States on our defense priorities 
in the region. Singapore is eager to have interoperable equipment, 
facilities, and processes that make it easy for us to cooperate with 
them on a broad range of activities. We recently forward deployed to 
Singapore on a rotational basis the first of the U.S. Navy Littoral 
Combat Ships, which serves as an example of the depth of our shared 
interest in peace and prosperity in the region. If confirmed, I will 
work tirelessly to keep this relationship moving full steam ahead on a 
positive trajectory.
    The second pillar of our relationship is the economic cooperation 
we have with Singapore bilaterally, regionally, and globally. The U.S.-
Singapore Free Trade Agreement was our first FTA in Asia. This 
bilateral FTA set high standards and broke new ground for our future 
FTAs. Since entering into force in 2004, bilateral trade has 
flourished, increasing almost 60 percent. U.S. investment in Singapore 
is twice what we have in China and five times our investment in India. 
By many, many measures, this is America's best performing FTA, and we 
are building on that success as we partner with Singapore in the Trans-
Pacific Partnership negotiations. The TPP will create a 21st century 
trade and investment agreement among a dozen countries that make up 
almost 40 percent of the global GDP. If confirmed, I will work with 
Singapore to successfully complete the TPP negotiations this year if 
possible and to ensure the TPP's full implementation. Singapore has a 
remarkable, open economy with strong protection for intellectual 
property rights. It is no secret why over 2,000 American companies base 
their regional headquarters in Singapore. Taking this success and 
building on it in the region will be an exciting challenge for me.
    Our cooperation with Singapore on law enforcement and homeland 
security issues is the third pillar of our relationship. Our law 
enforcement cooperation with Singapore over the years has successfully 
used the available tools and resources, but it is time to update this 
cooperation to use 21st century tools to combat the 21st century 
challenges that face us. There is untapped potential in our partnership 
with Singapore as we confront the global challenges of cyber crime, 
illicit finance, counterproliferation, and trafficking in persons. I 
look forward to working with Singapore, if confirmed, on coming up with 
modern and mutually beneficial solutions to the problems of the present 
and of the future. I want to see our nonmilitary security cooperation 
elevated to the same parity we have on our military and economic 
cooperation.
    Finally, I came to this country because of the values that make 
America great: freedom, equality, opportunity. Those values will be 
intertwined throughout all that I will do if confirmed. Through our 
strong people-to-people exchange programs and my own personal public 
diplomacy efforts, we will continuously represent these values with 
dignity, sensitivity, and humility. I consider working to increase 
respect for universal human rights and fundamental freedoms a key 
element of the job of an ambassador and pledge to make sure that human 
rights is squarely on the Embassy's agenda if confirmed. It would be my 
distinct honor to serve as Ambassador to Singapore on behalf of this 
great country that has given me everything.
    Mr. Chairman, Senator Rubio, and members of the committee, thank 
you for inviting me to testify before you today and for giving my 
nomination your serious consideration. I am pleased to answer any 
questions you may have.

    Senator Kaine. Thank you so much, Mr. Wagar.
    And just to alert you all, we have just been informed there 
may be a series of up to seven Senate votes beginning in a very 
few minutes. But what we are going to try to do is get through 
opening statements, and if the votes happen, we will just keep 
you posted as to when we will come back to questions.
    Mr. Sepulveda.

 STATEMENT OF DANIEL A. SEPULVEDA, OF FLORIDA, FOR THE RANK OF 
  AMBASSADOR DURING HIS TENURE OF SERVICE AS DEPUTY ASSISTANT 
    SECRETARY OF STATE FOR INTERNATIONAL COMMUNICATIONS AND 
   INFORMATION POLICY IN THE BUREAU OF ECONOMIC, ENERGY, AND 
    BUSINESS AFFAIRS AND U.S. COORDINATOR FOR INTERNATIONAL 
             COMMUNICATIONS AND INFORMATION POLICY

    Mr. Sepulveda. Thank you, Mr. Chairman. Thank you, Senator 
Corker.
    I am honored to appear before you as the President's 
nominee for the title of Ambassador while serving as Deputy 
Assistant Secretary of State and U.S. Coordinator for 
International Communications and Information Policy.
    I would like to submit my full statement for the record and 
summarize it for you now.
    Senator Kaine. Without objection.
    Mr. Sepulveda. I want to recognize my wife, Heather 
Higginbottom, who happens to be the Secretary's counselor as 
well, and is here today. And I want to recognize our baby girl, 
Giselle Fabiana Sepulveda, who is at home.
    My parents, Alejandro and Fabiola Sepulveda, are in 
Florida, but I also want to recognize their support and express 
my appreciation to them.
    Mr. Chairman, I served 12 years in the United States Senate 
for four Senators, as you mentioned. I managed technology and 
telecommunications issues, as well as international trade, for 
all of them. I am well-versed in these issues and passionate 
about the importance of a thriving, open, and interconnected 
global communications infrastructure both to our economy and 
our democracy.
    The State Department office I am nominated to lead promotes 
and preserves global innovation and communications, including 
international wireless, wired, and satellite communications. 
The office is also charged with defending and promoting the 
existing multistakeholder system of Internet governance that 
has allowed the global information system to revolutionize how 
we work, educate, and express ourselves. And this mission is 
more critical now than ever, not just to us but to the billions 
of people not yet connected to the Internet.
    In the coming years, we will face international proposals 
on Internet issues that will be discussed in multiple fora. You 
can be confident that the administration's positions on those 
proposals will continue to reflect the consistent bipartisan 
approach to Internet governance issues that has prevailed since 
the Internet's privatization in the 1990s.
    If confirmed, I will look to you for guidance and 
assistance. I take your oversight authority very seriously and 
I know that jobs, innovation, and discourse of the 
communications sector has helped enable in your States are 
critical to the economic and democratic well-being of the 
country.
    Thank you for giving me the opportunity and the honor of 
appearing before you today, and I look forward to any questions 
you might have.
    [The prepared statement of Mr. Sepulveda follows:]

               Prepared Statement of Daniel A. Sepulveda

    Thank you, Mr. Chairman and distinguished members of the committee. 
I am honored to appear before you as the President's nominee for the 
title of Ambassador while serving as Deputy Assistant Secretary of 
State and U.S. Coordinator for International Communications and 
Information Policy in the Bureau of Economic and Business Affairs.
    I want to thank President Obama and Secretary Kerry for the honor 
of being nominated for your consideration to serve as a representative 
of the United States. If confirmed, I will discharge the important 
responsibilities assigned to the U.S. Coordinator to the best of my 
ability.
    I want to recognize my family here today and those that could not 
be here as well for all of their support.
    Mr. Chairman, I served approximately 12 years in the U.S. Senate, 
assisting Senator Boxer, then-Senator Obama, then-Senator Kerry, and 
Senator Cowan. I managed technology and telecommunications issues as 
well as international trade for all of them. Most recently, I was a 
senior advisor to Senator Kerry in his capacity as chairman of the 
Subcommittee on Technology and Telecommunications on the Senate 
Commerce Committee and worked with his Foreign Relations Committee 
staff on international issues in the same space. I am well versed in 
these debates and passionate about the importance of a thriving, open, 
and interconnected global communications infrastructure to our economy 
and democracy.
    In simple terms, this State Department Office promotes and 
preserves global innovation in communications. In international 
wireless communications, this has required the coordination of rules 
and licenses in wireless operations around the world and the promotion 
of best practices in policy and law that attract investment in 
broadband networks.
    In addition, we are charged with defending and promoting the 
existing multistakeholder system of Internet governance that has 
allowed the global information system to revolutionize how we work, 
educate, and express ourselves. Preserving and enabling the Internet 
environment for innovation is our mission. And this mission is more 
critical now than ever, not just to us, but to the billions of people 
not yet connected to the open Internet.
    After last year's sometimes contentious World Conference on 
International Telecommunications, it seemed that an unbridgeable divide 
was potentially opening between the developing world and developed 
economies on how best to address the role of intergovernmental 
organizations in the management of international Internet-based 
communications. We are working to close that divide to protect the 
openness of the Internet and the freedom it grants innovators and 
citizens alike to create new services that reach the world as well as 
exercise their rights to speech and assembly.
    Toward that end, I have some good news and a lot of hope. Last May, 
we were able to start changing the tone of the debate. At the 
International Telecommunication Union's fifth World Telecommunication 
Policy Forum (WTPF), participants again debated important issues like 
the adoption of IPv6 (the protocol that provides an identification and 
location system for computers on networks), promoting Internet Exchange 
Points, and supporting the multistakeholder model of Internet 
governance. As the head of the U.S. Delegation in my capacity as a 
Deputy Assistant Secretary, I was acutely aware of the anxiety leading 
up to this conference that some governments would push for an outcome 
pointing toward international regulation of the Internet.
    Fortunately, at the event over 900 participants from more than 130 
countries came together to adopt six consensus-based opinions on 
important subjects including the promotion of Internet exchange points 
and the facilitation of the transition to IPv6. None of the consensus 
opinions threaten the existing multistakeholder Internet governance 
system. This outcome validated the multistakeholder preparatory 
process, which brought together governments, the technical community, 
civil society, and academia on an equal footing. The U.S. Delegation 
and key private sector stakeholders were very pleased.
    In the coming years, additional international proposals on Internet 
issues will be discussed in multiple international bodies. 
Specifically, the United States is preparing for future Internet-
related public policy discussions at the Internet Governance Forum in 
Bali, Indonesia (October 2013), ICANN's Governmental Advisory Committee 
in Argentina (November 2013), the ITU's World Telecommunication 
Development Conference in Sharm el-Sheikh, Egypt (April 2014), and the 
ITU's Plenipotentiary Conference in Busan, Korea (October-November 
2014).
    You can be confident that the administration's position on Internet 
related proposals will continue to reflect the consistent bipartisan 
approach to Internet governance issues that has prevailed since the 
Internet's privatization in the 1990s.
    Another key communications priority for the Obama administration is 
the World Radiocommunication Conference (WRC), which will take place in 
the last quarter of 2015. At WRC-15, we will address critical spectrum 
needs such as identifying frequencies to command unmanned aircraft by 
satellite and new internationally harmonized mobile allocations to 
progress the administration's broadband agenda. The decisions we will 
shape at WRC-15 will advance emerging technologies, protect essential 
government systems, and drive competition in an international 
regulatory framework hospitable to U.S. industries.
    In addition to these international conferences, my office will 
continue to host a number of bilateral discussions on ICT issues with 
key engagement countries such as India, Brazil, Mexico, Japan, Korea, 
and the European Union. Under the stewardship of my predecessor, U.S. 
Ambassador Philip Verveer, these bilateral relationships have proven 
critical in helping to ensure strong support and collaboration on a 
myriad of communications and information technology issues.
    As U.S. Coordinator, I will continue to promote the development of 
the global Internet and work to enhance our relationships and 
partnership with the developing world in our shared desire to expand 
Internet broadband access worldwide. If confirmed, I will look to you 
for guidance and assistance. I take your oversight authority very 
seriously and I know that the jobs, innovation, and discourse that the 
communications sector help enable in your states are critical to the 
economic and democratic well-being of the country.
    Thank you for giving me the honor of appearing before you today. I 
look forward to any questions you may have.

    Senator Kaine. Thank you, Mr. Sepulveda.
    Ambassador McCulley.

 STATEMENT OF HON. TERENCE PATRICK McCULLEY, OF WASHINGTON, TO 
         BE AMBASSADOR TO THE REPUBLIC OF COTE D'IVOIRE

    Ambassador McCulley. Thank you, Mr. Chairman.
    And with your permission, I would like to recognize three 
people who are here with us today. First, a great friend and 
great mentor, retired career Ambassador Johnny Young who served 
four times as Chief of Mission for our country and I had the 
honor of serving with him in Togo.
    Second, I would like to recognize Christie Arendt, our desk 
officer for Cote d'Ivoire, who has helped prepare me for this 
hearing.
    And finally, Ambassador Daouda Diabate, the Ivoirian 
Ambassador to the United States who has joined us today.
    Senator Kaine. Welcome, Mr. Ambassador.
    Ambassador McCulley. Mr. Chairman, I am going to recognize 
my wonderful family in the course of my statement, and with 
your permission, I will continue.
    Senator Kaine. Please.
    Ambassador McCulley. Mr. Chairman, I am honored to appear 
before you today as the President's nominee to be the United 
States Ambassador to Cote d'Ivoire. I would like to thank 
President Obama and Secretary Kerry for the confidence they 
have placed in me and, if confirmed, I look forward to working 
with this committee, with Members of Congress, and others on 
our important relationship with Cote d'Ivoire.
    I would also like to thank my wife, Renee, and our great 
sons, Sean and Liam, for their constant support. Renee and Liam 
are in Washington State at the moment, and I believe they are 
following this on a webcast. Sean is in Japan. I am quite 
certain he is sleeping. It is about 5:30 in the morning. But he 
has promised that he will be watching this on a recording.
    Mr. Chairman, with nearly three decades of service in 
Africa, most recently as the U.S. Ambassador to Nigeria, I am 
eager to remain on the continent and, if confirmed, represent 
the United States in a country that we hope will once again be 
a political and economic hub in the West African subregion.
    Mr. Chairman, I believe strongly that the success of our 
engagement abroad depends on our people, and I will make it my 
highest priority to ensure their safety, their well-being, and 
their security, as well as that of the private American 
community in Cote d'Ivoire. If confirmed, I look forward to 
working with interagency partners and our Ivoirian friends to 
improve an already excellent relationship and to promote the 
interests of the United States while continuing to press for 
the peace and prosperity the Ivoirian people deserve.
    After more than a decade of instability, Cote d'Ivoire is 
on a corrective yet challenging path in key areas. The country 
held free and fair elections in 2010, and the Ivoirian 
Government has made progress in investigating crimes committed 
during the preelectoral crisis. Yet there is much more to be 
done, and if confirmed, I am resolved to engage with our 
Ivoirian friends to promote transparency, inclusiveness, 
equity, and accountability.
    Yet justice and reconciliation will not be successful 
without a credible and transparent legal process nationally and 
internationally that ensures the investigation of crimes 
committed by both sides of the conflict and holds those 
responsible to account, irrespective of political affiliation. 
If confirmed, Mr. Chairman, I will work with Ivoirian and 
international partners to press for progress on these 
critically important issues.
    The economy of Cote d'Ivoire is improving, and the United 
States is engaging with the Ivoirian Government to address 
corruption and improve the investment climate in order to 
promote stability and economic growth. If confirmed, I will 
make it a priority to pursue our economic statecraft agenda 
supporting and advocating for American businesses that seek 
opportunities in Cote d'Ivoire.
    I am also committed to the collective effort to advance 
security sector reform, as well as disarmament, demobilization, 
and reintegration of ex-combatants in Cote d'Ivoire. The 
country can, the country must, redouble its efforts in both 
areas in order to promote stability, protect civilians, and 
realize Cote d'Ivoire's considerable economic potential.
    With President Ouattara's democratic election, the United 
States lifted restrictions on assistance to Cote d'Ivoire. The 
bulk of our support now goes toward global health programs 
focused on prevention, care, and treatment for those living 
with HIV/AIDS. But we are also providing assistance to support 
democratic institutions and support capacity building in the 
security sector, including in respect for human rights and on 
the role of professional security services in a democracy.
    Mr. Chairman, Cote d'Ivoire is a keystone country in a 
region of growing interest to the United States, and a 
politically stable and economically vibrant Cote d'Ivoire will 
promote prosperity in the subregion. Our agenda with Cote 
d'Ivoire is complex, challenging, and ripe with opportunity and 
includes support for democracy, good governance and 
reconciliation, for security sector reform, and for economic 
recovery. If I am confirmed as United States Ambassador to Cote 
d'Ivoire, I will be a vigorous advocate for America as we 
advance our relationship with this important west African 
country.
    Mr. Chairman, I thank you for the opportunity to appear 
before you today, and I welcome your questions.
    [The prepared statement of Ambassador McCulley follows:]

          Prepared Statement of Hon. Terence Patrick McCulley

    Mr. Chairman, Ranking Member Corker, and members of the committee, 
I am honored today to appear before you as the President's nominee to 
be the United States Ambassador to the Republic of Cote d'Ivoire. I 
would like to thank President Obama and Secretary Kerry for the 
confidence they have placed in me and, if confirmed, I look forward to 
working with this committee, other Members of Congress, and others on 
our important relationship with Cote d'Ivoire. I would also like to 
thank my wife, Renee, and my sons, Sean and Liam, for their constant 
support. Renee and Liam are on the West Coast at the moment, and Sean 
is in Japan. They are watching the webcast of this hearing. With nearly 
three decades of service in Africa, most recently as the U.S. 
Ambassador to Nigeria, I am eager to remain on the continent and, if 
confirmed, represent the United States in a country that we hope will 
once again be a political and economic hub in the West African 
subregion.
    Mr. Chairman, I believe strongly that the success of our engagement 
abroad depends on our people, and I will make it my highest priority to 
ensure their safety, security, and well-being, as well as that of the 
American community in Cote d'Ivoire. If confirmed, I look forward to 
working with interagency partners and our Ivoirian friends to improve 
our already excellent relationship and promote the interests of the 
United States while continuing to press for the peace and prosperity 
the Ivoirian people deserve.
    After more than a decade of instability, Cote d'Ivoire is on a 
corrective if challenging path in key areas. The country held free and 
fair elections in 2010, and the Ivoirian Government has made progress 
investigating crimes committed during the post-electoral crisis. Yet 
there is much more to be done, and I am committed to engaging with our 
Ivoirian friends to promote transparency, inclusiveness, equity, and 
accountability.
    In the current post-crisis climate, where significant rifts remain 
and with the 2015 Presidential elections on the horizon, serious 
efforts must be made to advance national healing. Justice and 
reconciliation will not be successful without a credible, transparent 
legal process, nationally and internationally, that ensures the 
investigation of crimes committed by both sides of the conflict and 
holds those responsible to account, irrespective of their political 
affiliation. If confirmed, I will work with Ivoirian and international 
partners to press for progress on these critically important issues.
    The economy of Cote d'Ivoire is improving, and the United States is 
working with the Ivoirian Government to address corruption, and improve 
the investment climate in order to promote stability and economic 
growth. If confirmed, I will make it a priority to pursue our economic 
statecraft agenda, supporting and advocating for American businesses 
that seek opportunities in Cote d'Ivoire.
    I am also committed to the collective effort to support Cote 
d'Ivoire's security sector reform; as well as disarmament, 
demobilization, and reintegration of ex-combatants. The country can--
and must--redouble its efforts in both areas in order to promote 
stability, protect civilians, and realize Cote d'Ivoire's significant 
economic potential.
    With President Ouattara's democratic election, the United States 
lifted restrictions on our assistance to Cote d'Ivoire. The bulk of our 
assistance goes toward global health programs focused on prevention, 
care, and treatment for those living with HIV/AIDS. We also provide 
assistance to strengthen democratic institutions to build strong 
systems of governance and rule of law. We advance maritime security in 
the subregion and we provide training to build the capacity of Cote 
d'Ivoire's military and police, including in respect for human rights, 
and on the role of a professional security services in a democracy.
    Cote d'Ivoire is a keystone country in a region of growing interest 
to the United States, and a politically stable and economically vibrant 
Cote d'Ivoire will promote prosperity in the subregion. Our agenda with 
Cote d'Ivoire is complex, challenging, and ripe with opportunity, 
including support for democracy, good governance and reconciliation, 
for security sector reform, and for economic recovery. If I am 
confirmed as U.S. Ambassador to Cote d'Ivoire, I will be a vigorous 
advocate for America as we advance our relationship with this important 
West African nation.
    Mr. Chairman, and members of the committee, I thank you for the 
opportunity to appear before you today, and I welcome your questions.

    The Chairman. Thank you, Ambassador McCulley.
    Ambassador Swan.

     STATEMENT OF HON. JAMES C. SWAN, OF CALIFORNIA, TO BE 
       AMBASSADOR TO THE DEMOCRATIC REPUBLIC OF THE CONGO

    Ambassador Swan. Mr. Chairman, I am honored to appear 
before you today as the nominee to serve as U.S. Ambassador to 
the Democratic Republic of the Congo, and I am grateful to the 
President and the Secretary for the confidence they have placed 
in me.
    I will briefly summarize some longer prepared remarks, if 
they could be entered into the record.
    Senator Kaine. Without objection.
    Ambassador Swan. First, before beginning more formal 
testimony, I would like to recognize my wife, Daphne Michelle 
Titus, and my children, Mitchell and Garner, who regrettably 
cannot be with us here today, but I am thinking of them.
    Mr. Chairman, as you noted in your opening remarks, I have 
devoted most of my Foreign Service career to Africa and, 
indeed, much of it to the Democratic Republic of the Congo, 
including service as desk officer in the mid-1990s and then a 
6-year period when I was assigned to our Embassy in Kinshasa. 
And if confirmed, I look forward to drawing on this extensive 
background to advance our interests in the Democratic Republic 
of the Congo and the Great Lakes.
    And indeed, Mr. Chairman, the United States has significant 
interests in the Democratic Republic of the Congo. It is the 
largest country in sub-Saharan Africa and borders on nine other 
nations. It has an enterprising population of some 70 million 
people, and it is of global environmental significance because 
of the Congo Basin rainforest.
    A stable, prosperous, and well-governed Congo would advance 
peace and development throughout central Africa. Yet 
regrettably, as you noted, Senator, in recent decades the Congo 
has instead been more notable for recurring cycles of cross-
border conflict, internal rebellion, human rights abuses, 
sexual and gender-based violence, and the like.
    I see three sets of issues as of particular importance to 
advance American interests in the Congo over the next several 
years.
    First, we must intensify efforts to help the Congolese 
resolve the longstanding conflict in eastern Congo. There are 
many dimensions to this decade-long human tragedy, including 
recurrent meddling by the neighbors, proliferation of armed 
groups, lack of sufficiently capable and professional Congolese 
security forces, and a culture of impunity for human rights 
abuses.
    This array of challenges may seem daunting, but we are 
encouraged this year by the opportunity for peace presented by 
a framework agreement for peace, security, and cooperation that 
was signed among 11 countries in the Great Lakes region earlier 
this year. And that framework agreement has now been bolstered 
in recent months by actions such as an unprecedented joint 
visit by the U.N. Secretary General and the President of the 
World Bank to the region, by the appointment by Secretary 
General Ban Ki-moon of the former Irish President, Mary 
Robinson, as special envoy, and by adoption by the Security 
Council of an expansion of the U.N. peacekeeping operation to 
include a robust intervention brigade to pursue negative forces 
and militia groups in eastern Congo.
    The United States has also stepped up its already 
considerable efforts in the Great Lakes region with, for 
example, the appointment of former Senator Russell Feingold, a 
former member of this committee, as the special envoy for the 
Great Lakes, and just last week, Secretary of State Kerry, also 
a former member of this committee, hosted a meeting at the U.N. 
Security Council focused on the Great Lakes.
    In addition to the international attention on eastern 
Congo, a second main area of focus must be support for improved 
Congolese governance. With strong international assistance, the 
DRC held national elections in 2006 that were generally hailed 
as credible and reflective of the will of the people. But we 
noted a setback with the flawed 2011 elections. The Congolese 
now have the opportunity of upcoming regional and perhaps local 
elections in 2014 and 2015 and then a Presidential election in 
2016 to put that right and ensure that they are afforded a free 
and fair choice of leaders.
    A third emphasis must be on continuing to work to unleash 
the economic potential of this resource-rich country and its 
people. This means working to develop the human capital of that 
population. It also means working to foster a stable, 
predictable, and attractive investment climate in order that 
Congo's potential can be developed and also developed by 
American companies that already are invested there.
    Finally, let me mention two overarching priorities that 
will guide my work every day, if I am confirmed as Ambassador. 
First, of course, I will give priority to the well-being of all 
American citizens in the Congo, and they number in the 
thousands. I also take, with utmost seriousness, my 
responsibility, if confirmed, to lead and ensure the safety of 
the entire U.S. Embassy team, including American staff of all 
agencies, their family members, and our invaluable Congolese 
colleagues.
    Mr. Chairman, once again I am honored to testify before 
your distinguished committee and stand ready to answer any 
questions. Thank you.
    [The prepared statement of Ambassador Swan follows:]

             Prepared Statement of Ambassador James C. Swan

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as the nominee to serve as U.S. Ambassador to the 
Democratic Republic of the Congo. I am grateful to the President and 
Secretary of State for the confidence they have placed in me. Before 
beginning my formal testimony, I would like to recognize my wife, 
Daphne Michelle Titus, and children, Mitchell and Garner, who 
regrettably are unable to be here in person today.
    Mr. Chairman, I have devoted the majority of my Foreign Service 
Career to African issues, most recently serving as Special 
Representative for Somalia since 2011, and prior to that as Ambassador 
to the Republic of Djibouti (2008-2011). If confirmed as Ambassador to 
the Democratic Republic of the Congo, I would return to a portfolio I 
have known well since the mid-1990s. I served as Desk Officer for then-
Zaire (1996-1998) during the rebellion that toppled Mobutu Sese Seko 
after 32 years in power and during the turbulent first year of his 
successor, Laurent Kabila. I was then assigned to our Embassy in 
Kinshasa for 6 years (1998-2004), including 3 years as Deputy Chief of 
Mission, during the peace process that led to the withdrawal of six 
foreign armies from Congo and an internal political settlement that 
resulted in a transitional government to prepare for nationwide 
elections. I later returned to Washington as Director of Analysis for 
Africa in the Bureau of Intelligence and Research (2005-2006) and then 
Deputy Assistant Secretary for African Affairs (2006-2008). In both of 
these positions, DRC issues were also at the top of my agenda. If 
confirmed, I look forward to drawing on this extensive background to 
engage the Congolese Government and people to advance the wide-ranging 
U.S. agenda in the DRC and the Great Lakes.
                      u.s. interests in the congo
    Mr. Chairman, the United States has significant interests in the 
Democratic Republic of the Congo. It is the largest country in sub-
Saharan Africa (as large as the United States east of the Mississippi) 
and borders nine other nations. It has an enterprising population of 
some 70 million people, vast natural resources, and global 
environmental significance due to the Congo River Basin rainforest. 
With its size and geography, Congo's chronic instability has a 
destabilizing effect in the broader central Africa region, which 
stretches from the Atlantic to the Indian Ocean. A stable, prosperous, 
and well-governed DRC would advance peace and development throughout 
central Africa and the Great Lakes and could go a long way in fostering 
regional economic integration and realizing the Congo's significant 
energy potential. Regrettably, in recent decades, the DRC has instead 
been more notable for recurring cycles of cross-border conflict, 
internal rebellion, human rights abuses, sexual and gender-based 
violence, humanitarian crises, and weak human development indicators. 
As a sign of the challenges faced by the DRC and the help it needs, the 
country hosts the second-largest U.N. Peacekeeping Operation in the 
world, the United Nations Organization Stabilization Mission in the 
Democratic Republic of the Congo (MONUSCO).
    In preparing to serve as Ambassador to the Democratic Republic of 
the Congo, if confirmed, I see three sets of issues as of particular 
importance to U.S. interests over the next several years.
          conflict in eastern congo and security sector reform
    First, we must intensify efforts, working with our regional and 
international partners, to help the Congolese resolve the longstanding 
conflict in their eastern provinces. There are many dimensions to this 
decades-long human tragedy, including recurrent meddling by the 
neighbors, the proliferation of armed groups, the lack of sufficiently 
capable and professional Congolese security forces to secure the 
region, impunity for human rights abusers, a horrific pattern of sexual 
and gender-based violence, protracted internally displaced and refugee 
populations, the ongoing illegal trade in conflict minerals, the 
absence of government services, and inadequately representative 
regional and local governance structures. A durable response to the 
conflict in the east will require a comprehensive approach that 
addresses all these factors, among others. A number of U.S. Government 
agencies, both at State and at the United States Agency for 
International Development, will play an important role in developing 
this comprehensive response, as well as in continuing to ensure the 
provision of life-saving humanitarian assistance.
    While this array of challenges may seem daunting, we are encouraged 
this year by the opportunity for peace presented by the February 
signing of the Peace, Security and Cooperation Framework agreement 
amongst 11 countries in the region and the resulting increase in 
international attention and energy being devoted to the Congo and the 
Great Lakes. To address the root causes of conflict and instability in 
the region, the Framework agreement includes commitments by the DRC 
Government to undertake much-needed security, governance and economic 
reforms. The signing of the Framework also launched a comprehensive 
peace process, which has been bolstered in recent months by U.N. 
Secretary General Ban Ki-moon and World Bank President Jim Kim's 
historic joint visit to the region, the World Bank's commitment of $1 
billion in development assistance under certain conditions, the 
appointment of former Irish President Mary Robinson as U.N. Special 
Envoy for the Great Lakes to oversee the peace process, the U.N. 
Security Council's approval of a robust 3,000-person Intervention 
Brigade to strengthen MONUSCO's military capability, and the refocusing 
of the Congolese Government's commitment to significant security sector 
reform. Along with other international partners, the United States is 
increasing its already considerable focus on the Great Lakes, for 
example, Secretary Kerry's appointment of former Senator--and chairman 
of this subcommittee--Russell Feingold as U.S. Special Envoy for the 
Great Lakes, the Secretary's convening and chairing a Ministerial 
Debate at the U.N. Security Council just last week, and the active 
congressional engagement on Congo and Great Lakes issues. While a great 
deal of work remains to implement the Framework agreement and to 
translate these positive steps into lasting progress on the ground, the 
increased attention and commitment I have noted is an important start.
    I am also encouraged by the DRC's commitment in the Framework to 
undertake security sector reform, or SSR, a key objective in the DRC. 
The people of the Congo will not know safety and security until the 
country has a military capable of securing the territory and protecting 
the people. If confirmed, I look forward to working with the DRC 
Government to prioritize SSR, including the army, police, and 
judiciary, as an integral part of combating the conflict in the East, 
eventually paving the way for the eventual exit of MONUSCO, and in 
upholding the Framework agreement. I welcome the DRC Government's 
recent publication of its army and police reform plans, but much more 
needs to be done to implement both plans, including implementing a more 
robust vetting system, increasing the capacity of the judicial sector, 
and ending impunity across all military ranks.
                        elections and governance
    In addition to the international attention on eastern Congo, a 
second main area of focus must be support for improved Congolese 
governance. Only through effective and representative governance at the 
national, regional, and local levels can Congolese leaders truly speak 
for their people and make legitimate decisions to address the critical 
policy issues facing the country. With strong international support, 
the DRC held national elections in 2006 that--while not perfect--were 
generally hailed as credible and reflective of the will of the people. 
Electoral assistance from the United States and other partners was 
catalytic in helping Congolese institutions prepare for that vote. 
Regrettably, the flawed 2011 elections were widely perceived as a step 
backward. We now have the opportunity of upcoming regional--and 
possibly local--elections in 2014 and 2015 and then the next 
Presidential election in 2016 to ensure that the Congolese people are 
afforded a free and fair choice of their leaders, consistent with the 
Congolese constitution. This focus on elections must of course also be 
matched by continued attention to building strong legislative, 
administrative, judicial, and civil society institutions to sustain 
improved governance beyond polling day.
                    development and economic growth
    A third emphasis must be on continuing to work to unleash the 
economic potential of this resource-rich country and its people. This 
means working to develop the human capital of 70 million Congolese by 
improving their health and education and ameliorating the country's 
infrastructure. USAID is a key partner in these endeavors, among many 
others.
    In order to unleash Congo's potential, we will also need to help 
foster a stable, predictable, and attractive investment climate. By 
helping the DRC increase transparency in public finances, decrease 
corruption, and expand the legal and licit trade of natural resources 
we can help boost private sector growth that will benefit not only the 
Congolese population but also American firms, such as those already 
invested in the manufacturing, mining, oil, and telecommunications 
sectors in Congo. Vast natural resources in agriculture, energy, 
minerals, and many other sectors present real opportunities for rapid 
economic growth--even beyond recent levels of approximately 7 percent 
real GDP growth per year--if the right enabling environment can be 
established. The DRC's resources, of course, also include priceless 
environmental assets, notably the Congo River Basin Rainforest, the 
second-largest in the world after the Amazon, and the Congo River and 
its tributaries, which has the hydropower potential to help provide 
electricity to much of the entire continent.
              american citizens and the embassy community
    Finally, let me mention two overarching priorities that will guide 
my work every day if confirmed as Ambassador to the Democratic Republic 
of the Congo. The well-being of all American citizens will of course be 
my top priority. Americans in the DRC, working in private business, for 
nongovernmental organizations, on missionary programs, with U.N. 
agencies, or in other endeavors number in the thousands. I also take 
with utmost seriousness my responsibility, if confirmed, to lead the 
entire U.S. Embassy team, including American staff of all agencies, 
their family members, and our invaluable Congolese colleagues and to 
ensure their safety. I will advocate tirelessly for our team to have 
the necessary management platform and security support so that we may 
represent the American people to maximum effect in the DRC.
    Mr. Chairman, once again, I am honored to testify before this 
distinguished committee and stand ready to answer any questions. Thank 
you.

    Senator Kaine. Thank you, Ambassador Swan.
    We will proceed to questions. I will begin and I may be 
relieved by Senator Menendez. We will try to tag team on the 
votes a bit.
    I will start with just a thank you, especially to those of 
you who are career State, and your families who are here. I am 
just really struck by the challenges of your careers. I know 
there are upsides. I know there is excitement. But the frequent 
moves and the challenges that that pose for spouses and kids 
are very, very notable. And you are all to be commended for 
being willing to serve in these capacities, and I thank you for 
it.
    First to Mr. Wagar, I am really fascinated with the 
Singapore story as a small fishing village not that many 
decades ago that has become our 17th-largest trading partner 
and become really a global brand in a way of how innovation can 
power an economy. It is not a piece of real estate that has 
vast national resources, but they have a very innovative and 
entrepreneurial spirit.
    Many of the innovations in Singapore were innovations that 
they went out and found, including finding them here in the 
United States. They had a significant effort to improve their 
educational system where they came to the United States and 
decided that rote memorization learning techniques were not 
getting them far enough and they needed to learn American 
qualities of entrepreneurship and creativity. They developed an 
educational philosophy called ``teach less, learn more'' that 
really focused on the learner even more than the teacher. And 
so they had a wonderful innovation track record.
    I know as an innovator, and so I just wanted to ask you 
about how you think in your role as Ambassador you can both be 
a champion of American innovation but also bring back good 
innovation ideas and continue to deepen the relationships 
between our two countries around that central theme.
    Mr. Wagar. Thank you, Senator, and it is a great question.
    One of the most fascinating things that I have learned, as 
I have gotten more and more familiar with the day-to-day 
mechanism of Singapore, is their commitment to excellence that 
crosses every sector and high standards and high rewards when 
they are met.
    Senator, I am sure you are aware that Yale is starting a 
new project in Singapore partnering with the National 
University of Singapore. It is the first liberal arts college I 
think in Asia but certainly in Singapore. And their first class 
right now, I understand, is in New Haven and will be going 
back. They have 154 students, and there were 11,000 applicants 
for those spots. So this is the first year that they are trying 
to even go further than they have gone to, I think, experiment 
with our liberal arts education.
    This is the kind of innovation that certainly through our 
shared values we can work with Singapore on a daily basis, and 
it is something that I think is the role of any ambassador but 
I think it is particularly important in Singapore.
    Senator Kaine. Thank you, Mr. Wagar.
    Mr. Sepulveda, I would like it if you might talk a little 
bit about the debates going on in the International 
Telecommunications Union and, if you would, talk a little bit 
about the administration's approach to advancing our telecom-
Internet objectives, technology objectives, through the ITU and 
what is the administration's approach in those debates for 
addressing concerns raised by other governments about 
governance issues. These have been much debated and will be 
much debated, and I know many of our allies and countries 
around the world have significant concerns. What is the 
administration's approach to dealing with those concerns?
    Mr. Sepulveda. Thank you very much, Mr. Chairman.
    It is a longer conversation but the ITU is a body within 
the United Nations, a 150-year-old body. It started as the 
International Telegraph Union and evolved over time. Its 
primary purpose is to ensure that we have global communications 
that are interoperable, so satellite services and spectrum 
services, as well as wired services, historically the telephone 
system, that those communications work on a global basis.
    There has been some question relative to the Internet 
because the Internet is not person-to-person communications but 
computer-to-computer communications which has been outside the 
jurisdiction of the ITU and has been governed by an 
international multistakeholder system in which academics, 
scientists, industry, and governments all play a role in 
ensuring that the global information system that is the 
Internet continues to operate and that the technological and 
day-to-day functions of the Internet are managed by 
technological experts.
    So it is our goal as the Government of the United States to 
continue to promulgate that system because it has worked quite 
well. In Reston, Virginia, for example, you have one of the 
capitals of the Internet where whole networks come together, 
and you see this Internet exchange of information and exchange 
of services working extremely well to generate innovation, 
democratic discourse, entrepreneurship, and we want to continue 
promoting that.
    Now, the challenge at the ITU is that there are a number of 
developing countries who feel like they are not reaping the 
benefits of the Internet, that they are predominantly consumers 
of services. They are not producing the kind of services on the 
Internet that they would like to see. Their deployment is not 
as wide as they would like to see, and the prices are not where 
they would want to be.
    And we share all of those concerns, and there are a number 
of ways to address those through the existing multistakeholder 
system, through capacity-building and cooperation between our 
Nation directly with the developing world. And the 
administration's current strategy is to go out to the 
developing world--I was just in South Africa and other parts of 
the developing world--to ensure that they know that we care 
deeply about ensuring that their people are connected to what 
is the world's most revolutionary communications system and 
that we want to see them reap those benefits and we are 
prepared and willing to provide the technical assistance 
necessary to do that.
    Senator Kaine. How is the aftermath of the news about 
Snowden, the Snowden affair, affecting particularly our 
relations with European partners on some of these issues that 
are pending at the ITU? Just give your sense of that, please.
    Mr. Sepulveda. Well, yes, sir. As you know, President Obama 
has directly reached out and worked with German Chancellor 
Merkel and others, and there is ongoing dialogue between the 
intelligence services in our partner countries, among our 
allies with our intelligence services. That is well outside of 
the scope of my work. But the way that it affects our work is 
to ensure that you do not get a conflation of these issues so 
that we do not have a federated system of the Internet in which 
there would be a cloud for Europe and a cloud for China and a 
cloud for India and we would lose the economies of scale and 
efficiencies and the benefits that come with cloud computing in 
a global network.
    We are taking the concerns of our colleagues abroad very 
seriously and are working with them on a daily basis to 
ameliorate whatever concerns they might have.
    Senator Kaine. Great. Thank you.
    Ambassador McCulley, I would like you to talk a little bit 
further about the national reconciliation efforts in Cote 
d'Ivoire and how they are proceeding and what would be your 
sense about their progress going forward.
    Ambassador McCulley. Thank you, Mr. Chairman. Let me first 
start by thanking you for your generous comments about our 
Foreign Service families. I would not have the honor to appear 
before you today without friends and colleagues and mentors 
like Ambassador Johnny Young. But of equal importance, much 
greater importance, is the support that I have enjoyed from my 
family over the years, particularly the strength and resilience 
and counsel of my wife, Renee, and the courage and adaptability 
of my sons. So thank you for those comments.
    Mr. Chairman, reconciliation is absolutely essential to 
both the political development and economic recovery in Cote 
d'Ivoire. The country, as you know, went through a divisive 
civil war. And the reconciliation process needs to proceed, and 
that means reform of the security sector. It means 
demobilization of ex-combatants. It means accountability for 
those who committed crimes on both sides of the political 
divide, and that means justice in an evenhanded fashion.
    This process is moving forward, Mr. Chairman. The 
Government of Cote d'Ivoire has established a national security 
council. They have a security sector reform strategy. The U.N., 
UNOCI, the U.N. mission in Cote d'Ivoire, is deeply engaged in 
promoting security sector reform. The United States is 
supporting that effort through provision of advisors. The 
justice sector is in the process of being rebuilt. And Cote 
d'Ivoire has had successful elections both legislative and 
municipal and will be heading toward a critically important 
election in 2015 in the Presidency.
    It is important, going forward, that that process of 
reconciliation be accompanied by accountability; accountability 
for those who committed crimes during the post-electoral 
crisis. And as we discuss this issue with our Ivoirian friends, 
we have said that it is important that the national process be 
credible and transparent and that Cote d'Ivoire, at the same 
time, work with the International Criminal Court on the 
international process to assure accountability and transparency 
because that is really the only way to achieve reconciliation, 
and without reconciliation, Cote d'Ivoire's economic recovery 
cannot proceed effectively, Mr. Chairman.
    Senator Kaine. Thank you, Ambassador McCulley.
    Ambassador Swan, a question about economics and natural 
resources in the DRC. How would you characterize U.S. and other 
efforts, multinational attempts, to stem adverse impacts of 
illicit resource extraction in eastern Congo? I know Dodd-Frank 
contained a special reporting requirement with respect to this. 
Is that a useful tool or something that would make us feel good 
but that would not ultimately serve the purpose? And is there 
more that we can do that is calibrated toward accomplishing the 
right objective?
    Ambassador Swan. Thank you very much, Senator.
    Congo is a deeply resource-rich country, and if those 
resources can be properly channeled, developed, and exploited 
for the benefit of the people, this can truly be an engine of 
growth not just for the country but for the broader region.
    Unfortunately, in many cases, certain minerals, known 
widely as ``conflict minerals,'' have regrettably contributed, 
in fact, to cycles of violence and actually financed militia 
forces and others.
    The provisions of Dodd-Frank, indeed, are designed to get 
at that by seeking to provide greater traceability and 
accountability of minerals entering the broader economic 
system.
    The United States has supported and encouraged firms that 
are operating in Congo to comply with the provisions of this 
legislation. Their initial reporting requirement will be due in 
2014 and we have urged American firms to develop the necessary 
information in order to be able to respond to that requirement 
of the legislation.
    Moreover, through the U.S. Agency for International 
Development, we have been working on a partnership arrangement 
that includes both NGOs, civil society organizations, and firms 
that are operating in the minerals sector in Congo as a way to 
develop further information about additional steps that could 
be taken to try to ensure that conflict minerals do not enter 
the broader economic stream.
    It continues also to be an issue that we raise regularly 
with the Congolese Government as an important issue that will 
require their continued and ongoing attention.
    Senator Kaine. Thank you, and I am going to now turn the 
gavel back over to the Chair who has his own questions.
    The Chairman [presiding]. Well, thank you very much. I 
wanted to relieve Senator Kaine so he can go vote. We have a 
series of up to seven votes. So we are a little bit between and 
betwixt.
    One or two final questions. Unless there are members who 
wish to do so, we can excuse this panel.
    Mr. Wagar, you are familiar, because you and I had an 
opportunity to discuss the case of Shane Todd who is a U.S. 
citizen who was lost and who died in Singapore. And it is an 
important case to us. And I would hope that upon your 
confirmation, you would raise this issue. We have come a long 
way with the Singaporeans in this from where we started, but it 
is a continuing case that not only the Chair but Senator Baucus 
as well as Senator Tester, whose citizen home State is from--is 
an important issue. So I assume that we can count on you to 
continue to pursue that case upon your becoming the Ambassador.
    Mr. Wagar. Absolutely, Senator.
    The Chairman. I just met with the Japanese Ambassador 
because we are going to be having a trip to Japan during the 
August recess. And I was asking him what are your goals here 
because I understand you and the Singaporeans are getting 
together as it relates to TPP. And they have been good allies 
and certainly good economic partners at the end of the day. But 
I wonder sometimes what their goal is at the end of the day to 
try to pursue a mutual effort as it relates to their strategic 
pursuit in TPP. So he was very diplomatic, but he basically 
gave me harmonization of global rules which, of course, we are 
for harmonization of global rules, but how they cut depends a 
great deal.
    So I want to commend that to your attention because, 
obviously, there are a lot of concerns here domestically by the 
domestic automotive industry, and yet there are other 
opportunities in many parts of our sector. So this is going to 
be, I think, one of the critical assignments that you will have 
even though you are not going to be negotiating the whole TPP, 
but you are going to be having a bilateral relationship in 
which our messaging is going to be very important. So I look 
forward to your efforts in that regard.
    Mr. Wagar. Thank you, Senator, and I look forward to 
working with this committee.
    The Chairman. Now, with reference to Mr. Sepulveda's 
position--congratulations to all of you on your nominations. I 
think Senator Kaine may have pursued this, but I want to get a 
sense of whether you think your challenges were heightened as a 
result of Mr. Snowden's actions? And if so, how do we continue 
to overcome those challenges? Because obviously it is in the 
global interest of the United States playing a global 
leadership position in this regard in telecommunications and 
information technology in the world. So what do you think will 
be your challenge? And I apologize if you already addressed 
this question, but it is important to me.
    Mr. Sepulveda. Mr. Chairman, thank you very much for the 
question.
    As you know, in the short term, obviously, this raises a 
number of diplomatic challenges. The President has reached out 
at the highest levels to our colleagues abroad. The Secretary 
has as well to ensure that the intelligence communities work 
with each other on those questions relative to what nations can 
do to protect themselves in an age of mass information and the 
Internet.
    As it relates specifically to the economic aspects of our 
work and the diplomatic work that we do abroad, our goal is to 
retain an international, global, functional, and open network. 
And I think as more information comes out about how these 
different areas of governance play in terms of how our 
Government deals with these situations, you will see that we 
remain the strongest champion for Internet freedom in the 
world, whether that be the freedom to engage in commerce or the 
freedom to engage in discourse, assembly, speech. And that is 
the message that we are taking out to the world.
    Particularly as it relates to the developing world, I know 
you are deeply concerned about much of the developing world 
particularly in Latin America. We have built very strong 
relationships in Colombia, Chile, and elsewhere and are working 
with our colleagues in Brazil to get a united and regional 
understanding of the virtues and value of having an open 
Internet, of having open communications, and having an open 
platform for entrepreneurship.
    So in the short term, yes, the disclosures have led to some 
degree of diplomatic difficulty, but we believe that through 
continued discourse, through open engagement at the highest 
levels throughout both the national security community and our 
economic channels, that we will continue to be able to protect 
what is the most revolutionary communications system the world 
has ever seen, which is the Internet.
    The Chairman. Mr. McCulley, let me ask you. How do you view 
the success of the Cote d'Ivoire Government in reviving the 
economy of the country and particularly in creating employment 
especially for demobilized former combatants?
    Ambassador McCulley. Thank you for the question, Mr. 
Chairman.
    I think the Ivoirian Government has made enormous strides 
in bringing the country back from a position of considerable 
decline. Cote d'Ivoire, before the coup in 1999, represented 
about 80 percent of the West African Monetary Union's gross 
GDP. That had fallen considerably over 10 years of crisis. It 
has now has come back to the point where Cote d'Ivoire 
represents 40 of the West African Monetary Union's GDP. I think 
that is a signal and a symbol of President Ouattara's success 
in building an economic team to address Cote d'Ivoire's 
economic decline.
    But you are correct. In order to proceed to the most 
difficult part of demobilization, disarmament, and 
reintegration, it is critically important to provide jobs for 
the some 64,000 ex-combatants who need to be demobilized. And 
so the government needs to do more particularly in creating 
conditions that attract investment especially in the 
agricultural sector to grow the economy.
    Senator, if confirmed, my goal will be to continue that 
dialogue with the Government of Cote d'Ivoire to encourage them 
to take greater steps to combat corruption, take greater steps 
to create a better investment climate, a more transparent 
public procurement process so that Cote d'Ivoire can benefit 
from its considerably advantages, a great port, a significant 
cocoa sector, to grow its economy to create the kind of jobs 
that will provide employment for the number of ex-combatants, 
to continue with economic recovery, and to conclude this 
important process of political and economic reconciliation, 
Senator.
    The Chairman. And finally, Mr. Swan, what do you think 
about--the President has appointed a special envoy to the Great 
Lakes region. Given the heightened interest in the conflict in 
the eastern DRC, in your view how successful have past 
appointments of special envoys been in focusing the U.S. 
Government's attention on the Great Lakes conflict? And what 
more can we do to elevate this issue?
    Ambassador Swan. Thank you very much, Senator, for the 
question.
    Mr. Chairman, former Senator Feingold's appointment as a 
special envoy for the Great Lakes I think is a further signal 
of the additional attention that the United States----
    The Chairman. Excuse me. I am sorry.
    I want to hear your answer and I cannot do it when staff 
was talking in my ear. So go ahead.
    Ambassador Swan. Yes, Mr. Chairman. The appointment of 
former Senator Feingold as a special envoy for the Great Lakes 
I think is a strong additional signal of U.S. interest in the 
Great Lakes region and particularly in trying to help the 
region resolve the conflict in eastern Congo.
    It should not be seen, however, as an isolated measure 
being taken by the United States. We have also seen just last 
week Secretary Kerry's personal engagement by convening a 
meeting at the ministerial level in New York. And that meeting 
itself should be seen in the context of a broader international 
effort to bring further attention to this problem set. An 
international effort reflected particularly in a framework 
agreement, was concluded among the countries of the region. 
That has been reinforced by recent travel of the U.N. Secretary 
General to the region, by the appointment of a U.N. special 
envoy, former Irish President Mary Robinson, and by efforts 
through the Security Council to ensure that there is a more 
robust capability of the peacekeeping operation there.
    So despite the, frankly, huge challenges that we see still 
in eastern Congo and in the Great Lakes region, there is an 
intensified energy and new focus, and we very much believe that 
the appointment of someone of the caliber and the deep 
knowledge of Africa represented by Russell Feingold adds to 
that and will, indeed, contribute to our efforts to assist in 
resolving the situation.
    The Chairman. On a different topic, what about the election 
process? We put a lot of effort in 2006. It turned out to be a 
pretty successful election process. In 2011, there was a lot of 
dispute and concern about the results. How do we move forward 
and prepare for the appropriate next set of elections that 
ultimately can create a sense of confidence and transparency 
and honesty in the process?
    Ambassador Swan. Mr. Chairman, the 2006 elections were 
quite successful. I think that a good deal of the reason for 
that was related to catalytic U.S. involvement several years in 
advance in terms of assisting the Congolese both with the 
constitutional reform process and with putting in place a 
capable electoral commission and drafting electoral 
legislation. So I think the lesson of 2006--and I think it is a 
lesson that we learned in other electoral cases also--is that 
engagement must happen as far upstream as possible to help 
shape the whole environment around which the elections will 
take place.
    And I believe that there is an opportunity, as we now look 
out to planned regional and provincial elections in 2014 or 
2015, then the next Presidential election in 2016, that if we 
are able to engage early, along with other partners, in support 
of the Congolese, that we do have an opportunity to help them 
shape this to be a much more successful election. But we will 
need to engage early. I can assure you, Senator, that if I am 
confirmed for this position, that will be a high priority for 
me.
    The Chairman. I appreciate hearing that.
    Well, I understand there are no members that were seeking 
to at least appear and ask questions. There is a variety of 
votes going on. So with the thanks of the committee to all of 
you for your willingness to serve, the record will remain open 
until the close of business today. If there are any questions, 
we urge you to answer them because it is the Chair's intention 
to seek to place these nominees at a business meeting toward 
the end of the week so that we can get you on to your posts and 
begin to represent America abroad. And we thank you all for 
joining us.
    The Chair will call the committee into recess so that the 
tranche of votes that are presently before the floor can be 
voted on by members. And then Senator Markey will return and 
chair the final panel of nominees here. So we ask those 
nominees to bear with us as we deal with votes on the floor. 
Until then, the committee stands in recess.

    [Recess.]

    Senator Markey [presiding]. We will reconvene the 
committee, and we will begin by hearing from John Phillips. He 
is the grandson of Italian immigrants. He is a leading attorney 
and litigator. His ability to negotiate and his legal acumen 
will serve the United States very well. We recognize you, Mr. 
Phillips, for an opportunity here to address the committee.

STATEMENT OF JOHN R. PHILLIPS, OF THE DISTRICT OF COLUMBIA, TO 
      BE AMBASSADOR TO THE ITALIAN REPUBLIC, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
                 TO THE REPUBLIC OF SAN MARINO

    Mr. Phillips. Thank you, Senator.
    Let me start out by first congratulating you on your recent 
election. I understand this is your first hearing.
    Senator Markey. Sitting in this chair.
    Mr. Phillips. Sitting in this chair. And so it is a 
privilege and honor for me to be your first witness of your 
first hearing.
    Senator Markey. Thank you.
    Mr. Phillips. It is a great honor to appear here today.
    First, I want to acknowledge my wife of 40 years, Linda 
Douglass, who spent many years up here covering this Congress 
as the chief Capitol Hill correspondent for ABC News, and my 
daughter, Dr. Katie Byrd, an emergency room doctor at George 
Washington University Hospital, and her husband Keith, a fire 
and explosives investigator here in the District. I am proud to 
have them with me here today. I am grateful for their love and 
their support.
    The United States and Italy enjoy a robust and vibrant 
relationship, something that was on full display when President 
Napolitano visited President Obama in the White House as 
recently here as last February. And Secretary of State Kerry 
recently made Rome the centerpiece of his first trip to Europe 
as Secretary of State.
    But as strong as the ties are between our leaders, the 
bonds between our people are what make the relationship stand 
out. More Americans visit Italy each year, about 5 million, 
than visit any other non-English speaking country. When it 
comes to studying abroad, Italy remains a top choice of 
American students, with some 35,000 a year. What is more, 20 
million Americans trace their ancestry back to Italy. Italian 
Americans have been some of the most outstanding contributors 
to the growth and success of our country in a wide variety of 
fields.
    While it may not be apparent--my last name is Phillips--I 
am one of those 20 million Americans with Italian ancestors. My 
grandparents, Angelo Filippi and Lucy Colussy, left their 
villages in Friuli of northern Italy to come to America over 
100 years ago. They settled down in a small town near 
Pittsburgh where others from their hometown in Italy had come 
before them. When my father's older brother, my Uncle Louie, 
went to school for the first time, the teacher showed him how 
to write Filippi in English: ``Phillips.'' So my brothers and 
my cousins and I have always regretted losing our distinctive 
Italian heritage.
    My interest in Italy and in the United States-Italian 
relations has grown over the years from an initial desire to 
connect with my roots to personal engagement committed to 
bringing our two nations closer together. This effort has 
brought me to Italy 50 times in the last decade alone. I have 
had the honor of serving as a trustee of the American Academy 
in Rome, perhaps the preeminent institution in Europe promoting 
United States-Italian cultural exchange. I also learned a great 
deal about Italian local government and cultural and historic 
preservation when I, in 2001, invested in an abandoned group of 
five 800-year-old houses in Tuscany and worked over an 8-year 
period to bring them back to life, always mindful of, and 
faithful to, the region's proud cultural and historic heritage.
    I believe my professional career as a lawyer involved in 
public policy issues over 40 years has prepared me well for 
this challenging new assignment. In 1970, I cofounded one of 
the first Ford Foundation-funded public interest law firms 
which, for two decades, successfully brought important cases on 
public policy issues.
    In the mid-1980s, I worked closely with Senator Charles 
Grassley and Congressman Howard Berman to strengthen the Civil-
War-era False Claims Act, which was designed to root out fraud 
against the taxpayers. Since 1986, when President Reagan signed 
the amendments that we worked on together into law, more than 
$55 billion has been recovered by the United States Government 
from companies that defrauded it. My firm, Phillips & Cohen, is 
responsible for about 20 percent of those recoveries, or $11 
billion.
    In 2009, I was appointed by President Obama to serve as 
chairman of the President's Commission on White House 
Fellowships, considered by many to be the Nation's premiere 
fellowship program. While I have not previously served as a 
diplomat, I believe my experience in public policy and public 
service will serve me well in leading our mission and engaging 
Italy on a full range of issues.
    That engagement is a crucial job. Italy is a leader and 
contributor to peacekeeping missions worldwide and has 
committed to continuing its leadership role in western 
Afghanistan as part of the NATO mission in that country. Italy 
works hard with us to find resolutions to violence and unrest 
in many parts of the globe, including Syria and the Middle 
East. Italy is also an important partner for building regional 
stability in North Africa. We are grateful that Italy hosts 
approximately 15,000 U.S. military personnel at United States 
and NATO military bases on Italian soil.
    In an increasingly globalized world, economic ties with 
Italy remain important for the health of the United States 
economy. The United States remains the largest source of 
foreign investment in Italy. If confirmed, I would promote 
United States exports to Italy and support the Transatlantic 
Trade and Investment Partnership as a way to boost economic 
growth in the United States and the EU.
    Once again, Mr. Chairman and members of the committee, 
thank you for this opportunity. I am humbled and honored to 
receive this nomination. If confirmed, I look forward to 
working with this committee and the other Members of Congress 
in advancing United States policy and interests in Italy and in 
the Republic of San Marino. Thank you.
    [The prepared statement of Mr. Phillips follows:]

                 Prepared Statement of John R. Phillips

    Mr. Chairman and members of this distinguished committee, it is a 
great honor to appear before you today. I want to express my gratitude 
to President Obama and Secretary Kerry for the trust and confidence 
they have placed in me with this nomination to serve as the next U.S. 
Ambassador to Italy and to the Republic of San Marino. I also want to 
acknowledge my wife of 40 years, Linda Douglass, who spent many years 
up here covering the Congress as the Chief Capitol Hill Correspondent 
for ABC News, my daughter, Dr. Katie Byrd, an emergency room doctor at 
George Washington University Hospital, and her husband, Keith, a fire 
and explosives investigator. I am proud to have them with me here today 
and am grateful for their love and support.
    The United States and Italy enjoy a robust and vibrant 
relationship--something that was on full display when Italian President 
Giorgio Napolitano visited President Obama in the White House this past 
February. Secretary of State Kerry made Rome a centerpiece of his first 
trip abroad as Secretary and has consulted closely with our Italian 
partners since that time.
    But as strong as the ties are between our leaders, the bonds 
between our people are what make the relationship between the United 
States and Italy stand out. More Americans visit Italy every year than 
any other non-English speaking country. When it comes to studying 
abroad, Italy remains a top choice of American students. What's more, 
more than 20 million Americans trace their ancestry to Italy. Italian 
Americans have been some of the most outstanding contributors to the 
growth and success of this country in a wide variety of fields.
    While it may not be apparent from my last name, Phillips, I am one 
of those 20 million Americans of Italian descent. My grandparents, 
Angelo Filippi and Lucy Colussy, left their villages in the Friuli 
region of northern Italy to come to America to seek a better life. They 
settled down in a small town near Pittsburgh, where others from small 
towns in Italy had come before. When my father's older brother went to 
school for the first time, the teacher showed him how to write Filippi 
in American: Phillips. My brothers, cousins, and I have always 
regretted losing that distinctive Italian identity.
    My interest in Italy and in U.S.-Italian relations has grown over 
the years--from an initial desire to connect with my roots, to personal 
engagement committed to bringing our two nations closer together. For 
several years now, I have had the honor of serving as a trustee of the 
American Academy in Rome, perhaps the preeminent institution in Europe 
promoting U.S.-Italian cultural exchange. I also learned a great deal 
about Italian local government and cultural preservation when I 
invested in an abandoned group of houses in Tuscany and worked to 
restore them, always mindful of, and faithful to, the region's proud 
cultural heritage.
    I believe my professional career as a lawyer involved in public 
policy issues for over 40 years has prepared me well for this 
challenging new assignment. In 1970, I cofounded one of the first Ford 
Foundation-funded public interest law firms which, for two decades, 
successfully brought important cases on major public policy issues. In 
the mid-1980s, I worked closely with Senator Chuck Grassley and 
Congressman Howard Berman to strengthen the Federal False Claims Act, 
which is designed to root out and deter fraud against the taxpayers. 
Since 1986, when President Reagan signed the amendments we worked on 
into law, more than 55 billion dollars have been recovered by the U. S. 
Government from companies that defrauded it. My firm, Phillips & Cohen, 
is responsible for recovering $11 billion of those 55 billion dollars.
    Since 2009, I have been privileged to serve as Chairman of The 
President's Commission on White House Fellowships, considered by many 
to be the Nation's premiere fellowship program. Each year the 
Commission selects 12 to 15 outstanding candidates to be future leaders 
of America and to work for a year at the highest levels of government. 
While I have not previously served as a diplomat, I believe that, if 
confirmed, my experience in public policy and public service will serve 
me well in leading our mission and engaging Italy on a full range of 
issues.
    That engagement is a crucial job. Italy is a leader and contributor 
to peacekeeping missions worldwide, and has committed to continuing its 
leadership role in western Afghanistan as part of the NATO mission in 
that country. Italy works hard with us to find resolutions to violence 
and unrest in many parts of the globe, including Syria and the Middle 
East. Italy is also an important partner for building regional 
stability in north Africa. We are grateful that Italy hosts 
approximately 15,000 U.S. military and civilian personnel at U.S. and 
NATO military bases on Italian soil.
    In an increasingly globalized world, economic ties with Italy 
remain important for the health of the U.S. economy. The United States 
remains the largest source of foreign investment in Italy. If 
confirmed, I would promote U.S. exports to Italy and support the 
Transatlantic Trade and Investment Partnership (TTIP) as a way to boost 
economic growth in the United States and the EU.
    I would be remiss if I did not mention the relationship between the 
United States and San Marino. The United States cooperates closely with 
this small but proud nation on many important issues, including the 
fight against international terrorism and serious crime. We also 
maintain excellent collaboration in the United Nations and other 
international organizations.
    Once again, Mr. Chairman and members of the committee, thank you 
for this opportunity. I am humbled and honored to receive this 
nomination to serve as the next U.S. Ambassador to Italy and San 
Marino. If confirmed, I look forward to working with this committee and 
the other Members of Congress in advancing U.S. policy and interests in 
Italy.

    Senator Markey. I thank you very much. You are an excellent 
choice to be Ambassador. I am sure your grandparents are very 
happy right now knowing that you will go back to Italy as the 
United States Ambassador, something I am sure that they could 
have never thought possible. But congratulations.
    Our next nominee is Kenneth Francis Hackett, the 
President's nominee to be Ambassador to the Holy See. He is 
uniquely qualified to serve as the U.S. Ambassador to the 
Vatican, having served a long and distinguished career in 
international human development and relief.
    To mention only a few highlights of Mr. Hackett's career, 
he served as CEO/President of Catholic Relief Services from 
1993 to 2012. He is still an advisor for the University of 
Notre Dame Institute of Global Development and was Director of 
the Millennium Challenge Corporation from 2004 to 2010.
    The election of Pope Francis, the first Pope from the 
southern hemisphere, and one who gives every indication of 
being fully engaged in the pursuit of social justice, gives Mr. 
Hackett a unique opportunity to reengage the Vatican on these 
issues of pressing mutual concern. His lifelong dedication to 
helping the less fortunate around the globe and working within 
Catholic institutions make him an excellent choice to be our 
Ambassador to the Holy See.
    And finally, relevant at least to me and to Mr. Hackett, as 
a graduate of Boston College class of 1968, the two of us sit 
here today I think amazed that I am chairing and he is being 
nominated to represent our country at the Vatican as graduates 
of this Jesuit university up in Boston.
    So we welcome you, Mr. Hackett. Whenever you are ready, 
please begin.

 STATEMENT OF HON. KENNETH FRANCIS HACKETT, OF MARYLAND, TO BE 
                   AMBASSADOR TO THE HOLY SEE

    Mr. Hackett. Thank you very much, Mr. Chairman. And let me 
extend my congratulations to you for your new position. It is 
wonderfully ironic that we are here together.
    It is also a great honor for me to appear here today. I 
want to express my gratitude to President Obama and to 
Secretary Kerry for the trust and confidence they have placed 
in me with this nomination to serve as the next U.S. Ambassador 
to the Holy See.
    Of course, I could not be here today without the love and 
the support of my wife, Joan, behind me, my children, Jennifer 
and Michael.
    Growing up in Boston, I never expected that my life would 
be dedicated to international service. My model was my dad, a 
telephone worker who returned from World War II, started 
climbing poles for the New England Telephone Company, and rose 
through the ranks into senior management.
    At Boston College, I studied business. You were in the 
smart school over at Arts and Sciences, Mr. Chairman. And I 
thought for sure that I would work at a major U.S. corporation 
after graduation.
    But as chance would have it, in my senior year, a Peace 
Corps recruiter convinced a friend and me to sign up for the 
Peace Corps, and a few months after graduation, I find myself 
in Ghana working in an isolated farming and fishing community. 
I began my journey in international service in a very rural 
area of a place called the Afram Plains where I was assigned to 
live at a Catholic mission with a priest from the former 
Czechoslovakia. It was 1968, the year of the Prague Spring. And 
as we listened on a short wave radio each night, my host would 
interpret and explain what was happening in his country. After 
3\1/2\ wonderful years in Ghana, I knew that I wanted to 
dedicate my career to international relief and development.
    So when I returned home from Ghana, I applied to work for 
Catholic Relief Services. Initially they turned me down but I 
was not going to give up. And finally I was hired and sent back 
to West Africa. I spent 18 years as President and CEO of 
Catholic Relief Services and a total of 40 years at the 
organization. And throughout those four decades, I encountered 
many inspired, dedicated, and heroic people in countries around 
the world. Whether they were lay people, clerics, or religious, 
they exhibited true witness to faith through acts of compassion 
during times of hardship and often physical danger.
    During those years, I had numerous opportunities to engage 
with leaders of the Catholic Church in countries where CRS 
works. And in many cases, my work led me to the Vatican. And as 
you can read from my record, I served for many years as a 
member of the Pontifical Council Cor Unum, the Holy See's 
coordinating body for Catholic charitable endeavors and as the 
North American Vice President of Caritas Internationalis, a 
confederation of national Catholic charitable entities. I have 
met frequently with staff and the leadership of the Secretariat 
of State at the Holy See and other offices in the Vatican.
    If confirmed, I would expand not only my connections with 
the Holy See in Rome, but with Catholic leaders and workers 
whom I came to know in over 100 countries over my 40-year 
career. Over the years, I have found that cooperation and 
communication with leaders and lay people of other faiths was 
crucial as well. I look forward to expanding these 
interreligious ties in advancing U.S. policy goals.
    Recent profound social changes across the world have 
highlighted the important role of religion and religious 
tolerance in our foreign policy. The Obama administration 
considers religious freedom a strategic national interest and 
has made it a diplomatic priority. President Obama has called 
for integrating religious leaders in the faith community into 
the policy process to address the critical global issues of our 
day. The Holy See represents, I would suggest, one of the most 
significant religious entities able to affect the course of 
development around the world. Since President Reagan 
established diplomatic relations with the Holy See almost 30 
years ago, the United States and the Vatican have enjoyed 
strong cooperation on many issues of mutual importance such as 
the pursuit of peace, interreligious dialogue, environmental 
protection, spurring human development, and promoting human 
rights.
    With the Senate's consent, I would look forward to 
continuing that work with the Holy See and its global network 
of dioceses, religious workers, and charitable and humanitarian 
agencies on these critical issues. And let me expand on just 
two areas that are priorities for the United States and where 
the global network of allies, including I believe the Catholic 
Church, is necessary.
    The first is the area of human trafficking, an issue where 
our interests overlap. We have done much with the Holy See 
already and we look forward to doing much more on this terrible 
scourge.
    Just recently, the Holy See welcomed President Obama's plan 
to reduce greenhouse gas emissions and to contribute to a 
resilient, low-emission world. I believe the President's plan 
provides a renewed opportunity to work more closely on 
environmental advocacy with the Holy See.
    Once again, Mr. Chairman and members of the committee, 
thank you for this opportunity. I am humbled and honored to 
receive the nomination to serve as the next U.S. Ambassador to 
the Holy See. If confirmed, I look forward to working closely 
with you.
    [The prepared statement of Mr. Hackett follows:]

             Prepared Statement of Kenneth Francis Hackett

    Mr. Chairman and members of this distinguished committee, it is a 
great honor to appear before you today. I want to express my gratitude 
to President Obama and Secretary Kerry for the trust and confidence 
they have placed in me with this nomination to serve as the next U.S. 
Ambassador to the Holy See. Of course, I could not be here today 
without the love and support of my wife, Joan, and my children, 
Jennifer and Michael.
    Growing up, I never expected that my life would be dedicated to 
international service. My model was my dad, a telephone worker who 
returned from World War II, started climbing poles for the New England 
Telephone Company, and rose through the ranks into senior management. 
At Boston College, I studied business and thought for sure that I would 
work at a major U.S. corporation after graduation. But as chance would 
have it, in my senior year, a Peace Corps recruiter convinced a friend 
and me to sign up. A few months later, I found myself in Ghana working 
with isolated farming and fishing communities. I began my journey in 
international service in a very rural village on the Afram Plains where 
I was assigned housing at a Catholic mission with a priest from the 
former Czechoslovakia. This was 1968: the year of the Prague Spring. As 
we listened to the short wave radio each night, my host would interpret 
and explain what was happening in his country. After 3\1/2\ wonderful 
years in Ghana I knew that I wanted to dedicate my career to 
international relief and development work.
    When I returned home from Ghana, I applied to work at Catholic 
Relief Services (CRS). Initially, I was turned down by CRS but I was 
persistent and finally was hired and sent back to West Africa. I spent 
18 years as President/CEO of CRS and a total of 40 years at the 
organization. Throughout those four decades, I encountered many 
inspired, dedicated, and heroic people in countries around the world. 
Whether they were lay people, clerics, or religious, they exhibited 
true witness to faith through acts of compassion during times of 
hardship and often physical danger.
    During those years I had numerous opportunities to engage with 
leaders of the Catholic Church in countries where CRS works. And in 
many cases, my work led me to the Vatican. As you can read from my 
record, I served for many years as a member of the Pontifical Council 
Cor Unum, the Holy See's coordinating body for Catholic charitable 
endeavors, and as the North American Vice President of Caritas 
Internationalis, the confederation of national Catholic charitable 
entities. I have met frequently with staff and leadership in the 
Secretariat of State and other offices of the Holy See in the Vatican.
    If confirmed, I would expand not only on my connections with the 
Holy See in Rome, but with Catholic leaders and workers whom I came to 
know in over 100 countries over my 40-year career. Over the years, I 
found that cooperation and communication with leaders and lay people 
from other faiths was crucial as well. I look forward to expanding 
these interreligious ties in advancing U.S. policy goals.
    Recent profound social changes across the world have highlighted 
the important role of religion and religious tolerance in our foreign 
policy. The Obama administration considers religious freedom a 
strategic national interest and has made it a diplomatic priority. 
President Obama has called for integrating religious leaders and the 
faith community into the policy process to address the critical global 
issues of our day. The Holy See represents, I would suggest, one of the 
most significant religious entities able to affect the course of 
developments around the world. Since President Reagan established 
diplomatic relations with the Holy See almost 30 years ago, the United 
States and the Vatican have enjoyed strong cooperation on many 
important issues of mutual interest such as the pursuit of peace, 
interreligious dialogue, environmental protection, spurring 
development, and promoting human rights.
    With the Senate's consent, I would look forward to continuing to 
work with the Holy See--and its global network of dioceses, religious 
workers, and charitable and human development agencies--on these 
critical issues and others where we share a common purpose and cause. 
Let me expand on two areas that are priorities for the United States, 
where a global network of allies, including, I believe, the Catholic 
Church, is necessary for meaningful progress.
    Human trafficking is an issue where our interests clearly overlap. 
The Holy See and the United States see trafficking as a human rights 
issue, and have already worked closely together to prevent and address 
this crime. Pope Francis has been at the forefront of advocacy for 
concerted international action to combat trafficking and is a natural 
partner for us. If confirmed, I will continue to work with the Holy See 
on this priority and build on successful programs supported by the 
Embassy, like the training programs for male and female religious in 
antitrafficking skills, strategies, and networking that have made a 
real difference in this fight.
    Just recently, the Holy See welcomed President Obama's plan to 
reduce greenhouse gas emissions and to contribute to a resilient, low-
emissions world. I believe the President's plan provides a renewed 
opportunity to work more closely on environmental advocacy with the 
Holy See, a priority issue for the Church, linked to its goal of 
safeguarding the world's resources, and making them available equally 
to all.
    Once again, Mr. Chairman and members of the committee, thank you 
for this opportunity. I am humbled and honored to receive this 
nomination to serve as the next U.S. Ambassador to the Holy See. If 
confirmed, I look forward to working with you and other Members of 
Congress in advancing U.S. policy and interests with the Holy See. I am 
more than happy to answer your questions.

    Senator Markey. Thank you.
    And next is Alexa Lange Wesner. As the President of Be One 
Texas, Austin, Texas, she has pursued an impressive career in 
civic engagement and public service. She is an accomplished 
leader and has successfully built productive civic partnerships 
among the business community, all levels of government and 
civil society. A seasoned spokesperson, organizer, and 
philanthropist with lifelong multicultural experience and 
German language ability, Ms. Wesner will bring essential skills 
to the task of furthering bilateral relations with the 
Government of Austria, a key U.S. partner within the European 
Union. I am sure Ms. Wesner will prove an extremely 
distinguished United States Ambassador to Austria. Welcome and 
whenever you feel comfortable, please begin.

          STATEMENT OF ALEXA LANGE WESNER, OF TEXAS, 
          TO BE AMBASSADOR TO THE REPUBLIC OF AUSTRIA

    Ms. Wesner. Thank you, Mr. Chairman. And I would like to 
echo my colleagues in offering congratulations. Good evening, 
Senator Kaine.
    I am honored to appear before you as President Obama's 
nominee to be the United States Ambassador to the Republic of 
Austria.
    I am deeply grateful for the confidence and the trust that 
President Obama and Secretary Kerry have placed in me. I am 
humbled by this opportunity, and if confirmed, I will proudly 
represent our country abroad.
    With the chairman's permission, I would like to acknowledge 
the family members who have joined me today. I particularly 
wish to thank my husband, Blaine, for his unwavering support in 
this new endeavor. I would also like to recognize my three 
young children, Natalie, Tennyson, and Livia, who are with 
their grandparents this evening. My children continue to 
inspire me to enter public service, just as they inspired me to 
take leadership positions in the nonprofit sector, a segment of 
society that has helped strengthen our country's democracy 
through the promotion of civic values.
    I come before you today as an accomplished business woman. 
If confirmed, I will bring to our Embassy in Vienna more than 
15 years of founding leadership in business and not-for-profit 
endeavors. My professional experience has deepened my 
appreciation for international trade and global economic 
vitality. This experience will serve me well in promoting 
United States exports and advocating for United States firms 
doing business in Austria. I will also bring to bear my passion 
for cultivating business and social entrepreneurship. If 
confirmed, I will draw upon all my knowledge and experience to 
successfully advance United States interests in Austria and 
enhance our strong cooperation with this important partner.
    If confirmed, I will give the highest priority to ensuring 
the safety of the United States citizens living, working, and 
traveling in Austria. I will also seek opportunities to enhance 
our cooperation and mutual understanding on international 
security issues, as Austria plays an important role in 
international peace and stability. Austria contributes to 
peacekeeping missions around the world, most notably in the 
Balkans and Lebanon. Austria also contributes personnel to the 
International Security Assistance Force mission in Afghanistan 
and has pledged resources through 2017 to help sustain the 
Afghan National Security Forces following the 2014 security 
transition. I will encourage Austria to continue to contribute 
to these important security efforts.
    If confirmed, I also look forward to continuing our 
productive dialogue with Austria to promote the stability, 
democracy, prosperity, and Euro-Atlantic integration efforts of 
the countries of the western Balkans region.
    While our approaches to regional and international issues 
may differ at times, the United States and Austria share many 
common values and perspectives. These include a commitment to 
reducing the threats posed by climate change and nuclear 
proliferation, and the promotion of economic development and 
environmental sustainability through new and renewable energy 
supplies. We also share an agenda of broad support for human 
rights and the rule of law, stabilization in the western 
Balkans, and a common vision of peace and freedom for all.
    To build upon these commonalities, if confirmed, I will 
draw on my ability to build strong partnerships for a common 
cause, uniting the force of government with the private sector 
and NGOs. In addition, it is my hope that I can help further 
Austria's dedicated pursuit of a tolerant and inclusive 
society.
    Both the United States and Austria currently occupy seats 
on the U.N. Human Rights Council. This gives our two countries 
real opportunities to ensure that our mutual aims of global 
security, prosperity, and the protection of human rights are 
achieved together. If confirmed, I will work with Austria to 
encourage the leadership and innovation it takes to strike that 
important balance.
    Austria is a great friend to the United States. Indeed, 
this year we are celebrating our 175th anniversary of 
diplomatic relations between our two countries. We have strong 
trade and investment in both directions. We are bound together 
through myriad people-to-people contacts in business, the arts, 
education, tourism, and a host of other exchanges.
    If confirmed, I pledge to do my best in advancing America's 
interests and values. I look forward to working with this 
committee and Congress in that effort.
    Thank you again for the opportunity to appear before you 
today, and I would be happy to answer any questions.
    [The prepared statement of Ms. Wesner follows:]

                Prepared Statement of Alexa Lange Wesner

    Thank you, Mr. Chairman, Ranking Member, and distinguished members 
of the Senate Foreign Relations Committee.
    I am honored to appear before you as President Obama's nominee to 
be the United States Ambassador to the Republic of Austria.
    I am deeply grateful for the confidence and trust that President 
Obama and Secretary Kerry have placed in me. I am humbled by this 
opportunity, and if confirmed, I will proudly represent our country 
abroad.
    With the chairman's permission, I would like to acknowledge the 
family members who have joined me today. I particularly wish to thank 
my husband, Blaine, for his unwavering support in this new endeavor. I 
would also like to recognize my three young children, Natalie, 
Tennyson, and Livia, who are with their grandparents today. My children 
continue to inspire me to enter public service just as they inspired me 
to take leadership positions in the nonprofit sector, a segment of 
society that has helped strengthen our country's democracy through the 
promotion of civic values.
    I come before you today as an accomplished businesswoman. If 
confirmed, I will bring to our Embassy in Vienna more than 15 years of 
founding leadership in business and not-for-profit endeavors. My 
professional experience has deepened my appreciation for international 
trade and global economic vitality. This experience will serve me well 
in promoting U.S. exports and advocating for U.S. firms doing business 
in Austria. I will also bring to bear my passion for cultivating 
business and social entrepreneurship. If confirmed, I will draw upon 
all my knowledge and experience to successfully advance U.S. interests 
in Austria and enhance our strong cooperation with this important 
partner.
    If confirmed, I will give the highest priority to ensuring the 
safety of U.S. citizens living, working, and traveling in Austria. I 
will also seek opportunities to enhance our cooperation and mutual 
understanding on international security issues, as Austria plays an 
important role in international peace and stability. Austria 
contributes to peacekeeping missions around the world, most notably in 
the Balkans and Lebanon. Austria also contributes personnel to the 
International Security Assistance Force mission in Afghanistan, and has 
pledged resources through 2017 to help sustain the Afghan National 
Security Forces following the 2014 security transition. I will 
encourage Austria to continue to contribute to these important security 
efforts. If confirmed, I also look forward to continuing our productive 
dialogue with Austria to promote the stability, democracy, prosperity, 
and Euro-Atlantic integration efforts of the countries of the Western 
Balkans region.
    While our approaches to regional and international issues may 
differ at times, the United States and Austria share many common values 
and perspectives. These include a commitment to reducing the threats 
posed by climate change and nuclear proliferation, and the promotion of 
economic development and environmental sustainability through new and 
renewable energy supplies. We also share an agenda of broad support for 
human rights and the rule of law, stabilization in the Western Balkans, 
and a common vision of peace and freedom for all. To build upon these 
commonalities, if confirmed, I will draw on my ability to build strong 
partnerships for a common cause, uniting the force of government with 
the private sector and NGOs. In addition, it is my hope that I can help 
further Austria's dedicated pursuit of a tolerant and inclusive 
society.
    Both the United States and Austria currently occupy seats on the 
U.N. Human Rights Council. This gives our two countries real 
opportunities to ensure that our mutual aims of global security, 
prosperity, and the protection of human rights are achieved together. 
If confirmed, I will work with Austria to encourage the leadership and 
innovation it takes to strike that important balance.
    Austria is a great friend to the United States. Indeed, this year 
we are celebrating the 175th anniversary of diplomatic relations 
between our two countries. We have strong trade and investment in both 
directions. We are bound together through myriad people-to-people 
contacts in business, the arts, education, tourism, and a host of other 
exchanges. If confirmed, I pledge to do my best in advancing America's 
interests and values. I look forward to working with this committee and 
Congress in that effort.
    Thank you, again, for the opportunity to appear before you today. I 
would be happy to answer any questions.

    Senator Markey. Thank you.
    So now we will begin questions from the members, and we 
will begin by recognizing Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. And it is a treat to 
be on this committee with you. Your background as a leader on 
foreign relations issues is decades-long, and it is going to be 
wonderful to work together in this way.
    And to the nominees, congratulations to all of you. I feel 
personal connections. I have personal connections to two, and 
as a Jesuit educated former missionary in Honduras, a Jesuit 
Pope from the Americas is warming my heart virtually every day, 
including today with a front page article that made me very 
happy in the Washington Post. So that is all I will 
editorialize.
    But to begin, Mr. Phillips, one of the things that we 
probably hear most about with respect to Italy--and I am not on 
the Europe Subcommittee of Foreign Relations, but the 
significant economic challenges and how they play in terms of 
the broader eurozone and the European efforts to find a path 
forward. If you would, just talk a little bit about the 
challenge currently facing the Italian Government and your 
sense, as you are getting ready to take this post, about the 
tasks ahead of them in dealing with these significant issues.
    Mr. Phillips. Thank you for the question, Senator.
    These are challenging times for all the EU countries and 
particularly Italy. It has had a period of nine consecutive 
quarters of negative growth. Its GDP today is lower than it was 
10 years ago. Italy has had a strong record of success, but it 
really has to confront some of the important issues that will 
establish growth and establish opportunity. They have a very 
high percentage of unemployment among youth, 40 percent right 
now. And so the key for Italy is to increase demand to get more 
of the companies, the small- and medium-sized business 
companies, to have access to credit. They are not getting 
access to credit.
    Their financial problems did not stem like others did from 
mortgage failures or from exotic financial instruments. It is 
really created from a period of stagnation and no growth. And 
when they have, they have had a very high percentage of loans 
in trouble with Italian banks, and the Italian banks today have 
had to increase their own capital. So they have not been able 
to make loans to these small businesses that have not been able 
to hire people. It is not unlike a lot of the other EU 
countries.
    I think the real way out here is to figure out how to 
establish greater demand in the EU zone. The Transatlantic 
Trade and Investment Partnership treaty negotiations which are 
beginning--have just begun I think are really important for 
Italy and for EU. Everybody will benefit if they can come up 
with more standardized ways of exchanging materials and having 
agreed upon rules. That is going to be a very ambitious 
undertaking but I think now they need the political will to 
face up to a lot of the things that have stymied the growth in 
Italy.
    I think the Italian people are resilient. I think they want 
to find a way out just like all of EU does. And the ways that 
we can help them try to get real progress on the trade 
agreement and really develop our relationships on trade issues 
with them so that growth will expand and more opportunities 
will expand for them.
    Senator Kaine. Thank you very much, Mr. Phillips.
    Ambassador Hackett, welcome. What an exciting time to be 
taking on your role.
    And you mentioned religious freedom. I think that is a 
fertile ground for work between our government and you in 
particular and the Holy See. So much of what we deal with, 
sadly, on this committee is starting to take on the tones of 
sectarian challenges between religious factions. The hearings 
that we have on the Middle East--it often seems that that is at 
the core. We have Christian communities, Coptic communities in 
Egypt, and Christian communities in Syria. We have Ba'hais in 
the Middle East and other smaller segments of the Muslim 
population that feel oppression. It is a fundamental value It 
is in the first amendment for a reason in our country, the 
freedom to worship as you please and not having an established 
state religion. Our birth of that idea that if you do not 
punish or prefer someone for their religious views, you will do 
the right thing by government and the right thing by religion 
is one of the best things about our country.
    And I just would like you to talk a little bit more about 
how you see working with the Vatican on spreading that message 
of religious liberty and religious freedom because I think the 
partnership could be a very powerful one.
    Mr. Hackett. Thank you very much for the question, Senator.
    As I mentioned, this is an important--and I just learned in 
the last few weeks in being briefed for this new possible 
assignment--an important new part of the Obama administration's 
agenda. Diplomatic priority is being given to it. Focus is 
being given to it. And it offers a great opportunity both 
through collaboration and joint efforts with the Holy See, of 
which there have already been some, but they can be expanded 
far beyond where they are now particularly if it is given a 
priority within the administration.
    But even beyond that, in my understanding of where the Holy 
See sees this kind of issue, it takes it beyond just 
collaboration in a one-path way to engagement in interfaith as 
well as ecumenical efforts and to put behind those efforts real 
type of collaborations and not just dialogue. So we can work 
together with Jewish groups and Muslim groups around taking 
care of refugees who have left Syria. This is where you put the 
heart into the whole religious liberty and freedom question. So 
I believe we can do much, much more in that regard, and I have 
to believe that the door is open on the Holy See as well.
    Senator Kaine. Everything I have seen from the Holy See in 
the last few months would suggest that that would be a topic of 
great interest to them as well. And I will look forward to 
watching your progress in that way.
    Ms. Wesner, finally, one of the things I think is 
interesting about Austria is not only the bilateral United 
States to Austria--and they have been a very strong ally--but 
also that Vienna is a city that is a very international city 
and a lot of international organizations like OPEC and others 
are headquartered there.
    The one that I am really focused on that is going be 
getting an awful lot of attention is the U.N.'s International 
Atomic Energy Agency, the inspectors. You know, we spend 
probably more time in this committee talking about the Iranian 
nuclear threat than virtually any other issue. The United 
States has to have a strong, credible military response to not 
allowing Iran to get nuclear weapons. We have to continue 
powerful sanctions. But there is no substitute ultimately for 
good diplomacy because I do not imagine Iran or any other 
country is ever going to back away from something because 
somebody else made them. There has to be strong diplomacy. 
There is going to be a new President of Iran in on Saturday who 
was elected with a strong and surprising majority vote from a 
public that was demonstrating a desire for reengagement with 
the West and with the United States. And I think the role of 
the U.N. agencies and particularly the IAEA in Vienna could be 
very powerful.
    So I just want to encourage and then if you have any 
comments on it, I would love to hear. I just really want to 
encourage, take advantage of those other international partners 
in the international city of Vienna because some of them are--
OPEC also will be playing very critical roles to broader global 
peace efforts in the coming years.
    Ms. Wesner. Senator Kaine, thanks for the comment. I could 
not agree with you more. We have a trimission in Vienna. There 
are three missions there, the United Nations and then the OSCE 
and the bilateral relationship, the Embassy, of course, and 
other international organizations that are there. And working 
with them is going to be very important, if confirmed. I know 
that I and colleagues at the trimissions will be working with 
those agencies.
    Senator Kaine. Great. Thank you very much.
    Thank you, Mr. Chair.
    Senator Markey. I thank the gentleman.
    Let me just follow up on Senator Kaine's question going to 
Austria again and its international role as a place where 
energy policy is created and ask you about natural gas in 
Austria. About 51 percent of its natural gas comes from Russia. 
And one of the issues, of course, that we have is this ongoing 
effort by Russia to use natural gas as an economic weapon and, 
as a result, a political weapon. The central European gas hub 
is located in Austria, and the Russian Government has been 
seeking to purchase a 50-percent control or more of that.
    So I guess what I was wondering about was, from your 
perspective, what the role do you think the United States can 
play with Austria in helping to create an alternative energy 
view that can help Austria and help other countries to break 
this kind of vice-like control which the Russians seek to use 
as part of their natural gas political strategy.
    Ms. Wesner. Thank you, Senator, for the question. It is a 
very important issue.
    As you know, Austria's petroleum company, OMV, was recently 
the lead support of a project, one of two competing pipelines. 
They were leading the Nabucco West pipeline to get gas from the 
Caspian Sea. Now, in June the consortium did not choose the 
Nabucco West pipeline, and since OMV has stated that they will 
now explore production and exploration in the Black Sea.
    It is a very important issue for the United States and for 
Austria--energy diversification. And the Embassy has done great 
work, and if confirmed, I will continue that great work to work 
with the Austrian energy officials to work on their 
diversification of their sources and their roots as a form of 
energy security. It is very important.
    Senator Markey. Thank you.
    Mr. Phillips, could we talk a little bit about nuclear 
weapons in Italy and the role that the United States has in 
partnering with Italy on this issue and get your perspective in 
terms of the role which Italy plays as a security partner with 
the United States, not just in nuclear weapons deployment but 
also in terms of the military bases which are there in Italy 
and the role which it plays in helping to project American 
power?
    Mr. Phillips. Well, with respect, Senator, to nuclear 
weapons under the NATO program, that is not something I am 
fully briefed of. That is more of a NATO issue and stationing 
of nuclear weapons in the country. I certainly will look into 
it and be glad to get back to you with respect to that 
regarding policy.
    Italy has been a tremendous partner with the United States 
on defense-related issues. It has played a critical role 
because of its strategic location especially. If you go back in 
the 1990s in Bosnia, the three major bases that are now 
stationed in Italy--American bases and NATO bases--have been 
utilized very effectively to provide safeguard and defense both 
there, Afghanistan--they are great partners in Afghanistan. 
There are 3,000 troops there now. They have made a commitment 
post-2014 to commit to spend 120 million euros a year and have 
their own troops there on the training of the Afghan forces 
after we exit. They have been very helpful and active in north 
Africa, in Libya, given their longstanding relationship. They 
were part of a no-fly zone.
    It is a critical relationship for us and for all the NATO 
countries. And Italy has been very forthcoming and very 
supportive. And if confirmed and I am serving there as an 
Ambassador for the United States, I will want to really 
continue to develop that relationship because it has been so 
important to us.
    Senator Markey. Good. Thank you.
    Mr. Hackett, the Pope, the new Pope, has been now speaking 
about the poor of the world in a way which I think is 
refreshing for many people on the planet. Could you give your 
insight as someone who ran one of the major Catholic Relief 
organizations what you think might be a partnership that the 
United States could create with the Vatican and perhaps even 
with Catholic Relief organizations to better serve the poor 
people of this planet?
    Mr. Hackett. I think we have all been deeply impressed at 
what Pope Francis has been saying in a lot of different areas.
    We have had a longstanding relationship between the 
development and relief efforts of our Government with Catholic 
organizations throughout the world. There is much more that 
could be done. The network of Catholic hospitals, Catholic 
development groups, Catholic charitable groups is enormous. It 
stretches from the capital cities into the most rural and 
isolated areas. And I believe that the people at USAID and 
other people in the administration, Millennium Challenge 
Corporation that I was associated with for a while, recognize 
that capacity. And I just see the time being right to expand it 
and to move it even further, adding dimensions of religious 
freedom, human rights to long-term development efforts.
    Senator Markey. Thank you.
    The gentleman from Virginia, do you have any additional 
questions?
    Senator Kaine. No. Thank you, Mr. Chairman.
    Senator Markey. Why do we not do this? I would like to give 
each one of you 1 minute just to summarize from your 
perspective the job that you are asking for the United States 
Senate to confirm you to, and just give us your 1-minute 
summation. We will begin with you, if we could, Ms. Wesner.
    Ms. Wesner. Certainly. Thank you so much for allowing us 
the opportunity to talk about that.
    You know, Austria-United States relations are very strong. 
As I said, it is the 175th anniversary of our bilateral 
cooperation. We are their fourth-largest trading partner. There 
are approximately 340 United States companies doing business in 
Austria. Yet, we do not want to be complacent as it relates to 
the economic issues of our time.
    If confirmed, I would like to increase trade and use TTIP 
as a tool to do so. I would like to further the security 
cooperation that my predecessor has begun. And I would like to 
continue the dialogue on energy security, very important. And 
last, I would like to harness my experience as an entrepreneur. 
I view entrepreneurship not only as an export but as an 
American value as it relates to individual empowerment, to 
regional security, and to global growth.
    Thank you.
    Senator Markey. Mr. Hackett.
    Mr. Hackett. Mr. Chairman, as you and Senator Kaine have 
recognized, this is a very unique and poignant time in regard 
to the relations between our country and the Holy See with the 
new Pope. The relations are strong and good and longstanding. 
The Holy See has no battalions, has no nuclear arsenals, but it 
has credibility and influence around the world, as you well 
know. I believe that this is a time where we can enhance and 
expand our contacts with the Holy See in important areas, areas 
such as the care of refugees, conflict resolution, trafficking 
of persons, wider religious freedom issues, and of course, 
dealing with the insidious problems of poverty that still 
infect so many communities around the world. It is an 
opportunity for us to take our message to them and expand on 
what is already happening.
    Senator Markey. Mr. Phillips.
    Mr. Phillips. Well, what I would like to do, if confirmed 
as Ambassador, is first to work with the mission there. It is a 
large mission. There are 500 people in Italy alone and it is so 
important to establish the relationships with everybody, 
everybody working on the same page, everybody understanding 
what the goals ahead are and moving ahead. Morale is very 
important and you have to have a strong team to achieve all of 
your objectives.
    I think the security issues that we talked about are going 
to be a fundamental focus to sustain that relationship, to 
improve it. Italy is such a strategically located country with 
respect to northern Africa and southern Europe, and we have to 
maintain and continue to develop that relationship.
    But third, Italy is such an amazing place. That peninsula--
you think about 2,000 years what has gone on in Italy. They 
have probably delivered more to civilization to benefit 
civilization in the world than any place in the world. When you 
go to the Pantheon in Rome and you see 2,000 years old. Look at 
that amazing engineering and brilliance and genius that 
produced this. And you look at everything else that has gone on 
in Italy from the Renaissance to art, this is an amazing place. 
These people who live there now on the Italian peninsula 
inherit this. They have a great opportunity ahead.
    What I would like to see as Ambassador is to help get their 
economy going with our joint efforts on our trade agreements, 
create jobs, create demand so Italy feels very secure going 
into the future. And I think they have a great future ahead.
    Senator Markey. Well, thank you.
    Senator Kaine, anything?
    Senator Kaine. Congratulations.
    Senator Markey. Ms. Wesner, I think you did a fantastic 
job. Thank you for being here, and we know you are going to 
represent our country very well.
    Ms. Wesner. Thank you, Senator.
    Senator Markey. I think we are sending a dream team here, 
Mr. Hackett and Mr. Phillips, to Rome and to Italy, and you can 
just see it in this hearing. And we thank you both for your 
willingness to serve our country. We thank you. I think we are 
sending America's finest to Italy with the pair of you. Thank 
you.
    So we thank everybody for your attention to this hearing.
    And for the other members, questions for the record must be 
filed by the close of business today if any committee member or 
staff wishes to pose questions to the witnesses. And we request 
that each of the members respond promptly to that request.
    So with that, we wish you all Godspeed in your mission, and 
this hearing is adjourned.
    [Whereupon, at 6:50 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Matthew Barzun to Questions Submitted 
                       by Senator Robert Menendez

    Question. It was been 15 years since the Good Friday Accords were 
signed, a triumph many thought impossible. While there has been peace, 
many would argue that it has been a cold peace and that the political 
peace that was expected to grow over time from the Accords has not, in 
fact, taken root. Deep rooted divides continue to exist between the 
Catholic and Protestant communities. These divides are exacerbated by 
events like the annual Protestant street parades through traditionally 
Catholic neighborhoods in Belfast. A decision this year by the Parades 
Commission to alter the route away from these neighborhoods set off 5 
days of protests by Protestant loyalists. In the wake of the riots, 
members of the legislature have agreed to form an all-party group aimed 
at addressing hot-button issues such as parades. The all-party process 
will be chaired by Richard Haass, a former U.S. special envoy to 
Northern Ireland.

  <bullet> What role can the United States play in helping to resolve 
        these tensions and to support the peace? Do you anticipate 
        working closely with Envoy Haass on these issues?

    Answer. The United States has remained strongly engaged both 
politically and economically with Northern Ireland for decades. The 
administration continues to support the vision that was set out in the 
Good Friday and subsequent agreements. The Department maintains our 
support through the U.S. Consulate General in Belfast, through 
contributions to the International Fund for Ireland, and through strong 
and vibrant academic and cultural exchanges with the people of Ireland 
and Northern Ireland. Over the past year, the administration has 
increased cooperation in science and technology with Ireland and 
Northern Ireland through the U.S.-Ireland R&D Partnership, which is 
working to accelerate economic development and research by encouraging 
collaboration between United States, Irish, and Northern Irish 
scientists and industries to bring innovations to market. The United 
States will continue to fully support Northern Ireland as it works to 
build a brighter future for its people.
    In his capacity as the independent chair of the All-Party Talks, 
Dr. Richard Haass will be assisting Northern Ireland leaders address 
historically divisive issues such as parades and protests, flags, 
symbols, emblems, and issues related to the past to encourage community 
reconciliation. While he is not a U.S. envoy, the Embassy in London and 
the Consulate General in Belfast are prepared to offer Dr. Haass and 
the All-Party Group every support in this endeavor. On July 15, Vice 
President Biden spoke with Dr. Haass, as well as First Minister 
Robinson and Deputy First Minister McGuinness, to welcome the launch of 
an All-Party Group process and to express the full support of the 
United States. As President Obama said in Belfast in June, it is 
essential Northern Ireland leaders tackle sensitive issues to create a 
lasting and prosperous peace in Northern Ireland. The administration 
stands ready to assist the political parties in this crucial work. If 
confirmed as Ambassador to the United Kingdom, I will ensure the 
Embassy in London and our consulate in Belfast remain fully engaged in 
advancing reconciliation and the peace process.

    Question. The United States has relied on British military support, 
in the gulf war, the NATO air war over Serbia, the war in Iraq, Libya, 
and the ISAF mission in Afghanistan--it is a visible manifestation of 
``the special relationship'' in the post-cold-war world. This spring, 
there were reports that the Cameron government's budget cutting might 
reduce the defense budget below 2 percent of Gross Domestic Product. 
Ongoing cuts have already led to the Ministry of Defense losing 30,000 
personnel and the elimination of major weapons systems.

  <bullet> Mr. Barzun, are you concerned about the United Kingdom's 
        ability over the 
        medium or long term to participate in military actions to 
        address challenges overseas, and what's the significance for 
        ``the special relationship'' with the United States?

    Answer. If confirmed, it is certainly an issue on which I intend to 
engage. The United States-United Kingdom special relationship is 
grounded in our shared history, values, and traditions. It remains as 
vibrant and as relevant today as it has ever been. We count on each 
other, and the world counts on our alliance. The administration is in 
constant communication at all levels of government and work together on 
a wide range of political, economic, and security issues. And we 
respond in like fashion to the shared challenges we face around the 
globe: on Iran, Syria, Middle East Peace, Mali, and instability 
elsewhere in Africa, terrorist threats, and humanitarian crises. The 
United Kingdom is our closest, and one of the most capable, NATO 
allies. It is also one of the few countries in NATO that continues to 
meet the 2 percent of GDP defense spending target. I am gratified by 
Chancellor George Osborne's recent announcement that the United Kingdom 
would continue to meet this important target through 2016, thus 
demonstrating the kind of leadership we count on the United Kingdom to 
show at NATO. The United Kingdom plays a vital role in NATO's most 
important mission, ISAF, and within NATO HQ is focused on improving the 
efficiency of NATO structures so they are as efficient as possible.
    The United States-United Kingdom defense relationship is as strong 
as ever. The administration honors the commitment and sacrifice of the 
U.K.'s soldiers and civilians who serve alongside our forces in 
Afghanistan and around the world. We are committed to working with the 
U.K. Armed Forces to help ensure they remain a full-spectrum defense 
and security partner, maintain interoperability with U.S. forces, and 
continue to lead in the full range of NATO missions.
                                 ______
                                 

           Responses of Steve Linick to Questions Submitted 
                       by Senator Robert Menendez

    Question. Both the OIG and the Bureau of Diplomatic Security 
conduct investigations into allegations of passport and visa fraud and 
investigate alleged misconduct by State Department employees. Over the 
years, this practice has led to concerns about duplication of effort, 
conflicting investigations, and competition for jurisdiction.

  <bullet> How will you ensure that these two organizations work in a 
        complementary fashion?

    Answer. If confirmed, I will meet on a regular basis with senior 
management officials from the Bureau of Diplomatic Security and other 
affected offices to ensure that investigations are complementary, 
adequately supported, and appropriately leveraged. To that end, I will 
work to ensure that OIG investigative resources are used wisely and 
efficiently, which will include an assessment of how to avoid 
duplication of effort, conflicting investigations, and competition for 
jurisdiction.

    Question. In January 2013, the OIG released a report highly 
critical of the Broadcasting Board of Governors (BBG)--an institution 
whose FY13 budget exceeded $750 million. The report cited a 
dysfunctional structure, limited Board oversight of the institution, 
and inadequate self-governance policies, among other issues.

  <bullet> What steps will you take to follow up on this report?

    Answer. I have read the January 2013 OIG inspection report and its 
recommendations. I recognize that oversight of the Broadcasting Board 
of Governors (BBG) is an important part of OIG's mission. If confirmed, 
I will work to ensure that OIG provides ongoing independent and 
effective oversight of the BBG. Such OIG oversight will include 
vigorous followup efforts to prompt BBG compliance with the 
recommendations in the 2013 report.
                                 ______
                                 

 Responses of Steve Linick to Questions Submitted by Senator Bob Corker

              improving oig's independence and credibility
    Question. Are you aware of the challenges identified by GAO about 
lack of adherence to proper auditing standards and a lack of 
independence within the State OIG and are you willing to make policy 
and, if necessary, staffing changes to restore the credibility and 
independence of the Office? What do you think can be done to address 
these issues?

    Answer. I am aware of the challenges identified by GAO and have 
read the GAO reports regarding the issues. As I noted in my written 
testimony, if confirmed, I pledge to ensure that the Department of 
State OIG is an independent and objective organization that provides 
timely, robust, oversight, transparency, and accountability to the 
programs and operations of the Department of State. After I have had 
time to study the key issues identified by GAO, I will be prepared to 
make any needed changes to achieve my goals. I also will devote 
considerable time to meeting with stakeholders interested in and 
affected by the work of the OIG, including Department of State 
management, Congress, GAO, and other interested groups, as appropriate.

    Question. Do you agree that a constantly rotating staff of Foreign 
Service officers and other State Department employees at OIG prevents 
the OIG from having institutional, investigative know-how? If 
confirmed, what will you do to address these issues?

    Answer. I believe that it is important for the Department of State 
OIG to employ dedicated individuals who have experience, skill, and 
expertise in the core mission areas of the OIG, including 
investigations, inspections and/or audits. I agree that a constantly 
rotating staff can adversely affect institutional, investigative know-
how. At this stage, however, it would be premature for me to reach any 
conclusions or make recommendations without first-hand knowledge of the 
surrounding facts and circumstances.
                contractor oversight and accountability
    Question. Should you be confirmed as the next inspector general, 
how would you use the Office of the Inspector General to assist the 
Department to make better use of this important contracting oversight 
and accountability tools such as suspension and debarment?

    Answer. The Department of State uses substantial taxpayer dollars 
to fund its various programs and operations. Protecting taxpayer funds 
from potential misuse is a core OIG function. Suspension or debarment 
remedies should be pursued when contractors and other awardees violate 
the public trust through poor performance, noncompliance, misconduct, 
or other actions. If confirmed, I will review carefully the 
Department's suspension and debarment program and make any necessary 
recommendations for improvement. In addition, I will take steps to 
enhance OIG referrals for suspension and debarment.

    Question. Based on your experience with procurement related 
investigations and oversight, what are the acquisition-related 
challenges the Department faces that you feel best equipped to address, 
and how do you plan to tackle each one?

    Answer. Based on my experience as the former Director of the 
Department of Justice (DOJ) National Procurement Fraud Task Force, I am 
well equipped to address the challenges associated with procurement 
issues, particularly in high risk areas. Under my guidance, the task 
force investigated and prosecuted individuals and companies for 
corruption and fraud related to contracts and grants, with a special 
emphasis on overseas programs focused on the conflicts in Iraq and 
Afghanistan.
    The Department of State OIG has identified contract and procurement 
management, including grants and cooperative agreements, and the 
military to civilian-led transitions in Iraq and Afghanistan as two of 
the Department's 10 most serious management challenges. If confirmed, I 
expect to focus audit, investigative, and inspection efforts on these 
acquisition related challenges. In addition, I will look at systemic 
problems related to acquisition practices and make necessary 
recommendations to address these problems.
                                 ______
                                 

         Responses of Daniel Sepulveda to Questions Submitted 
                         by Senator Marco Rubio

    Question. Last year there were several proposals put forward at the 
World Conference on International Telecommunications (WCIT) that could 
have fundamentally harmed the free flow of information and negatively 
impact the Internet. Moving forward, I am especially concerned about 
the International Telecommunications Union (ITU) adopting detailed, 
binding, technical solutions that could have unintended consequences 
that lead to censorship or stifle innovation. On the other hand, many 
countries do struggle with the problem of bringing broadband access to 
their citizens and look to the ITU for solutions to that problem.

  <bullet> What do you see as your and the State Department's roles in 
        preparing for the 2014 Plenipotentiary Conference and engaging 
        stakeholders inside and outside government?

    Answer. The International Telecommunication Union (ITU) will 
convene a Plenipotentiary Conference (PP-14) from October 20 to 
November 7, 2014, in Busan, Korea. This conference, which takes place 
every 4 years, is the highest policymaking body of the ITU and will 
adopt the strategic plan for the ITU; consider proposed amendments to 
the ITU Constitution and Convention; and adopt resolutions and other 
nontreaty decisions.
    Consistent with prior PP meetings, the Department of State will 
lead the U.S. delegation to PP-14 and our delegation will include 
representatives from the private sector and other federal government 
agencies. In leading the delegation, the State Department will engage 
stakeholders inside and outside government to develop American 
proposals and positions for the PP. The State Department will also work 
to promote international support for our positions.
    U.S. proposals and positions will reflect the following objectives:

  --Ensure that the ITU continues to perform vital functions in the 
        area of radio communication and other telecommunication areas 
        efficiently and effectively.
  --Maintain the ITU's existing mandates while allowing the institution 
        to remain relevant and evolve relative the needs of member 
        states.
  --Promote a proactive strategy of institutional reform in order to 
        improve member state oversight of the organization, strengthen 
        the accountability of ITU officials, enhance overall 
        efficiency, and increase transparency of ITU activities.
  --Secure sufficient budgetary support within the current zero nominal 
        growth limits of the overall ITU budget for the efficient 
        operations of the ITU Radiocommunication (R), Standardization 
        (T) and Development (D) Sectors.
  --Ensure that the ITU promotes predictable, transparent, 
        procompetitive regulatory policies for radio communication and 
        other telecommunication areas that will lead to increasing 
        investment in the world's wireless and wired broadband 
        telecommunications infrastructure.
  --Preserve the role of sector members in the ITU and expand the 
        participation of civil society, the technical community, and 
        academia in Internet-related discussions.

    Question. Does the State Department plan to facilitate bringing 
American technical expertise to countries that do not have deep 
knowledge in deploying broadband and ensuring that the ITU does not 
adopt heavy-handed regulation or expand its reach?

    Answer. Yes. The State Department is committed to working with 
other countries to foster accelerated growth of broadband and the 
Internet sector in such countries, especially by promoting private 
investment and helping facilitate sharing of U.S. expertise. Our 
experience at WCIT-12 in Dubai has further crystallized the need to 
focus on greater Internet access and broadband infrastructure 
development, especially in developing countries. For example, with 
funding from USAID, we are developing a ``Technology Leadership 
Program,'' through which we will provide direct technical assistance 
and expertise to countries that do not have deep knowledge in deploying 
broadband. So far, in FY13, we have funded eight projects, which 
included bringing a high-level Burmese delegation to Washington for 
intensive training in telecommunications regulations, sending expert 
groups to Iraq and Mexico to assist in systems modernization, and 
sending U.S. Government experts to conduct workshops at regional 
meetings. We also coordinate closely with USAID's programs in this 
area, including its Global Broadband and Innovation Program, and we 
support public-private partnerships, such as the U.S. 
Telecommunications Training Institute, which are active in providing 
technical assistance.

    Question. Did the International Telecommunication Union (ITU) 
overstep its jurisdiction at the 2012 WCIT by adopting the revised 
International Telecommunications Regulations that included Internet 
provisions?

    Answer. The United States approached the World Conference on 
International Telecommunications (WCIT) as an opportunity to promote 
continued development of international telecommunications services by 
updating the International Telecommunications Regulations (ITRs) in a 
way that would avoid unnecessary regulation and support liberalized 
markets. The United States stated clearly in the runup to the event 
that we opposed any effort to expand the scope of the treaty to address 
issues related to the Internet.
    The United States remains unsatisfied with the ITRs as finally 
adopted because they include provisions and a resolution that address 
issues which relate to the Internet and therefore lie outside the scope 
of the ITU's existing remit to address international 
telecommunications. And although the WCIT did not result in a 
consensus, we can draw valuable lessons from it about the way ahead for 
both telecommunications and Internet policy. It is around these 
outcomes that we seek to strengthen our coalition of likeminded states 
as well as build much broader global consensus around the importance of 
telecommunications services and support for the highly successful, 
existing framework for Internet governance.

    Question. Do you believe that there should be more transparency at 
upcoming ITU meetings? If confirmed, will you ensure that ITU meetings 
are not closed to scrutiny and input from civil society and the general 
public, and how?

    Answer. The Department of State believes that there should be more 
transparency at upcoming ITU meetings. If confirmed, I will work with 
other Department officials to build on existing international support 
to broaden the role of both the civil society and the public in the 
proceedings of the ITU. We will stress to senior ITU officials and 
other senior government officials the need for the ITU to engage in 
open consultations with stakeholders, so that they can bring in their 
unique and invaluable insight to issues central to the activities of 
the ITU. We will also stress the importance of conducting meetings and 
deliberations in an open, transparent and inclusive manner, making 
documents freely accessible, broadcasting proceedings, and taking steps 
to enable greater remote participation. We will continue to welcome 
members of civil society as members of the United States delegation to 
ITU meetings.
    Because of the State Department's efforts, the proceedings at the 
ITU's recent World Telecommunications/ICT Policy Forum for the first 
time gave industry and civil society the opportunity to voice opinions 
and concerns during the Forum's deliberations. This, along, with 
additional participation from new voices into the Forum's opinions 
greatly benefited the outcome of the event. We are hopeful that this 
trend will continue for future ITU meetings.


                    NOMINATION OF NISHA DESAI BISWAL

                              ----------                              


                      THURSDAY, SEPTEMBER 12, 2013

                              ----------                              

Hon. Nisha Desai Biswal, of the District of Columbia, to be 
        Assistant Secretary of State for South Asian Affairs
                              ----------                              

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
presiding.
    Present: Senators Kaine, Risch, Rubio, and McCain.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. I am calling this meeting to order. This is 
a Senate Foreign Relations Committee confirmation hearing of 
Ms. Nisha Biswal. So glad to have you all here. I welcome you 
all to this hearing.
    A word of introduction. We will have a more closeup and 
personal one in a second from Congresswoman Lowey. We are so 
glad to have her with us. Ms. Biswal is a distinguished public 
servant and this is a very important position within the State 
Department family. I have had a good visit with the nominee and 
feel very excited about the prospect of her serving in this 
important position.
    I tried to take out all bias for her because she graduated 
from the University of Virginia, but I am finding that hard to 
do. Of course, she would be one of a number of UVA graduates 
that have devoted themselves and their careers to public 
service, and this way UVA has a great track record of putting 
people into the Peace Corps, the State Department, other NGOs 
that do work in the international area. Ms. Biswal is a 
distinguished addition to that great group.
    After the University of Virginia, she started her public 
service career with the Red Cross, inspired by the horrible 
tragedy in Rwanda and wanting to make a difference and thereby 
starting her work in the international field. She had a long 
and successful run working in both international affairs and 
appropriations for the House of Representatives, left those 
positions to work with InterAction, the largest alliance of 
U.S.-based international humanitarian and development NGOs.
    She currently serves in a very important role since 2010 as 
USAID's Assistant Administrator for Asia. Much of the real 
estate that you would represent in this important post in the 
State Department she has worked on in her capacity with USAID.
    We are very happy to have Ms. Biswal and her family before 
us. I want to welcome family members especially. This is an 
exciting day for you and I know you are very, very proud, as 
you should be.
    Senator Risch, the ranking member of the Subcommittee on 
Near East and South and Central Asian Affairs, will be joining 
us, but will be a bit late, and he has indicated that it is 
good to proceed because we are joined by Congresswoman Nita 
Lowey, who has good personal experience working with Ms. Biswal 
during her on the House side, and they are close, and we are 
very, very happy to welcome Congresswoman Lowey, who I think 
may have votes coming up. So I wanted to get right to it. So, 
Congresswoman Lowey, it is great to have you here and we would 
love to have your introductory comments.

           STATEMENT OF HON. NITA M. LOWEY, MEMBER, 
                 U.S. HOUSE OF REPRESENTATIVES

    Representative Lowey. Thank you, Mr. Chairman. It is such 
an honor for us to appear--I will thank you again, Mr. 
Chairman. It is such an honor for me to appear before you today 
and to assume this very important, pleasurable task.
    It gives me such pleasure to introduce today's witness and 
President Obama's nominee to be the Assistant Secretary of 
State for South and Central Asia Affairs, Nisha Desai Biswal. 
Nisha was the Clerk of the Appropriations Subcommittee on State 
and Foreign Operations, of which I was chair, from 2005 until 
2010, when she joined the administration as an Assistant 
Administrator for Asia at USAID.
    Over those 5 years, Nisha consistently demonstrated 
tremendous foreign policy acumen. She proved herself to be a 
leader, manager, who had the respect and admiration of both the 
staff and members on both sides of the aisle. While with the 
subcommittee, Nisha spearheaded a number of important 
initiatives that changed the way America engages with important 
allies and partners throughout the world, as well as how we 
address the more challenging and dangerous regions in which we 
work.
    It would be impossible for me to encapsulate all the 
incredible work she did in the short time I have here this 
morning. So I will limit myself to just a few examples. Nisha 
led the subcommittee through the reorganization of the 
appropriations bills which united State Department funding with 
our foreign operations work. Through this complex process, 
Nisha immersed herself in the gritty details of how we fund our 
work overseas and was a driving force behind making our 
programs more accountable and effective.
    She helped draft benchmarks for continued funding in Iraq 
as we work to draw down our troop presence there and 
conditioning of our aid to Afghanistan under her watch. She 
worked to shift how we engage with Colombia, focusing on 
critical development initiatives to promote stability and the 
rule of law.
    We also worked closely with partners in Jordan and Israel 
to create the Palestinian Security Training Program that has 
equipped the Palestinian Authority with its own security forces 
to provide stability for itself and for Israel.
    Most importantly, Nisha proved to be a fearless, persistent 
negotiator in dealing with our arch-nemesis, the United States 
Senate.
    In all seriousness, I know that the time she spent with the 
subcommittee has prepared her well for the responsibility she 
will assume at the State Department if confirmed by the Senate. 
While at USAID, Nisha was responsible for repositioning our 
assistance programs in Asia to more closely align with our 
foreign policy goals for the region. Nisha worked with her 
colleagues at USAID, the State Department, and the whole of the 
U.S. Government to ensure our assistance to Central Asia is 
focused on strengthening regional trade between those countries 
and Afghanistan.
    She transitioned the aid program in India into a true 
partnership between American and Indian private sector 
institutions and universities to find cost-effective solutions 
that will benefit India and the world. In east Asia, Nisha 
accompanied the President on his historic visit to Burma and 
joined him in opening our aid mission there to support Burma in 
its transition to democracy. Her work on the Lower Mekong 
Initiative and new programs in the Pacific Islands has 
supported the administration's increasing focus on Asia.
    That is a lot to accomplish in 3 years and I have no doubt 
that, with her energy and determination, she will be equally 
successful at the State Department. I have greatly enjoyed 
knowing Nisha over the years and watching her grow, both 
professionally and personally. I had the pleasure of attending 
her wedding and seeing her embrace motherhood with her two 
beautiful daughters, who were born while she was working on the 
committee.
    Nisha is a talented, dedicated, brilliant public servant 
who will capably serve the administration and the country. She 
has the substantive knowledge and personal skills to be 
incredibly successful in this challenging position.
    I also want to acknowledge her husband, her two daughters, 
her brother, her in-laws, because it is a big job and without 
the support of her family I know it would be very, very 
difficult, as talented as Nisha is, to accomplish all she has 
done and all she will do.
    So I am very proud to call her a friend and honored to be 
here today. Thank you, Mr. Chairman, for allowing me to be part 
of this important occasion. I yield back.
    Senator Kaine. Thank you, Congresswoman Lowey. Even more 
important I think than a candidate's resume or credentials is 
the quality of people who stand up and vouch for them and 
validate the work that they have done. Having you in her corner 
is a wonderful attribute that Ms. Biswal brings to the table 
and we appreciate you being here with us on the committee 
today. Do not miss any votes on our account. You have done good 
work.
    With that, I will turn to our nominee. With Senator Risch, 
I may offer Senator Risch the opportunity to make some opening 
comments when he comes, but now would be a great time, Ms. 
Biswal, for your opening comments, and then we will follow that 
up with a vigorous Q and A.
    Thanks again, Congresswoman Lowey.

   STATEMENT OF HON. NISHA DESAI BISWAL, OF THE DISTRICT OF 
  COLUMBIA, NOMINATED TO BE ASSISTANT SECRETARY OF STATE FOR 
                      SOUTH ASIAN AFFAIRS

    Ms. Biswal. Thank you, Mr. Chairman. Chairman Kaine, 
Senator Risch, members of the committee. Thank you very much 
for the opportunity to appear before you today. I am honored to 
be the administration's nominee for the Assistant Secretary of 
State for South and Central Asia. I particularly want to thank 
Nita Lowey for her glowing introduction. I am tempted at this 
point to simply say let us just go straight to questions and 
let me dispense with any remarks that I may have. But she has 
truly been a friend and a mentor over the years and I am 
honored that she would take time out of her busy schedule to be 
here today.
    As was noted, I am joined here today by family and friends, 
whom I would like to take a moment to introduce. My parents, 
Kanu and Lata Desai, could not be here today, but I am joined 
by my brother, Pinank Desai, my mother-in-law and father-in-
law, Anu Biswal and Dr. Nilambar Biswal, and most importantly 
my husband and children. You know, the best decision that I 
ever made was in marrying Subrat Biswal, and he and Safya and 
Kaya, our two daughters, are the source of boundless joy for me 
and I am grateful for their support in my career and in all 
things that I do.
    Finally, I am grateful for the friendship and support of so 
many former colleagues in the authorizing and appropriations 
committees of the House and the Senate and colleagues from the 
administration who are here today. I want to particularly note 
the presence of Amos Hochstein and Sonal Shah, two very close 
friends who have been just an incredible source of support.
    Mr. Chairman, I will offer brief remarks and ask that my 
full statement be entered into the record.
    Senator Kaine. Without objection.
    Ms. Biswal. As I said, I am indeed honored to be the 
President's nominee for the Assistant Secretary of State for 
South and Central Asia at a time of incredible challenge, as 
well as opportunity, for the countries of the region and for 
U.S. interests there. As you well know, the entire region is 
focused on the upcoming transition in Afghanistan and the 
implications for future security, stability, and prosperity.
    While my direct responsibilities if confirmed would not 
include Afghanistan or Pakistan, one of the Bureau's top 
priorities will be to work with Ambassador Dobbins and his team 
to support that transition by strengthening Afghanistan's 
economic connectivity to its neighbors. Already we have seen 
strong cooperation from South and Central Asian states in 
support of our efforts in Afghanistan. India, which has 
provided over $2 billion in economic aid, continues to play an 
important role, and all five Central Asian states have provided 
vital support for our mission and for our military through the 
Northern Distribution Network.
    Understandably, Mr. Chairman, there is a lot of anxiety in 
the region and uncertainty about what this transition will 
bring. Yet it is important to remember that, while there are 
many players with divergent interests, all are interested in a 
stable and secure Afghanistan that brings benefit to the entire 
neighborhood. I look forward, if confirmed, to promoting U.S. 
policies that will make regional economic integration a 
reality, knitting together all of the countries of the region 
through a web of economic, energy, transit, trade, and people-
to-people linkages.
    In South Asia, advancing the United States-India strategic 
partnership will be of paramount importance. The United States-
India relationship, founded on our shared democratic values, 
our converging strategic and economic interests, and strong 
people-to-people ties, has broadened and deepened dramatically 
over the past decade. In the defense sector alone, we have seen 
defense trade increase to over $8 billion today. And the 
broader United States-India trade has quintupled over the past 
decade, to about $100 billion. But it can and should be 
significantly higher.
    India's economic growth can benefit greatly if it takes 
steps to remove additional constraints to foreign direct 
investment, it enhances the intellectual property protection, 
eases local content requirements, and addresses other trade-
inhibiting policies.
    If confirmed, I will engage with our counterparts in the 
Indian Government to ensure that our two countries work 
together to meet the significant potential of what President 
Obama has called the defining partnership of the 21st century.
    Mr. Chairman, let me briefly touch upon a few key 
challenges and priorities in the region, particularly with 
respect to strengthening democratic governance and advancing 
human rights. As Sri Lanka works to rebuild its society after a 
devastating civil war, I will, if confirmed, continue to stress 
the importance of reconciliation and accountability and for the 
government to meet its commitments to all of its population.
    Across Central Asia, this administration has steadfastly 
championed core American and universal values, such as 
religious freedom and broader human rights and political 
freedoms, as part of all of our bilateral engagements, a 
practice which I will strongly endorse and continue if 
confirmed. In Bangladesh, where we have seen remarkable 
economic and developmental gains, the administration continues 
to urge greater progress on labor rights and transparency as we 
seek a more comprehensive partnership with that country.
    Nations such as the Kyrgyz Republic, Nepal, Bhutan, 
Maldives have embraced democratic values and we will continue 
to support them on this journey.
    Finally, I wanted to share with you, Mr. Chairman, three 
lessons that I have learned over the course of my career which, 
if confirmed, which I take with me into this new position. The 
first, which I learned working with the Red Cross with refugees 
in the Caucasus, is the link between human security and 
national security. This of course has played out across the 
globe as we see tragic circumstances that impact national 
security emanating from human insecurity.
    The second, informed by my work at USAID, is that our 
policies and programs have to speak not just to the governments 
of these countries, but to the hopes and aspirations of the 
people.
    The third lesson, which I have learned in my extensive time 
on the Hill, is the importance of transparency and trust in 
relations and interactions between the executive and 
legislative branches. To that end, Mr. Chairman, if confirmed I 
pledge to work closely with you, Senator Risch, consult 
regularly with this committee and the Congress. And I thank you 
for your consideration of my nomination and I would be pleased 
to answer any questions that you and the committee might have.
    [The prepared statement of Ms. Biswal follows:]

             Prepared Statement of Hon. Nisha Desai Biswal

    Chairman Kaine, Ranking Member Risch, members of the committee, I 
am honored to be here today as President Obama's nominee for Assistant 
Secretary of State for South and Central Asian Affairs. It is a 
privilege to appear before this committee again, and I'm grateful for 
the confidence President Obama and Secretary Kerry have placed in me. I 
also want to thank Representative Nita Lowey for taking time away from 
her important responsibilities to introduce me. Representative Lowey 
has been much more than a boss over the years. She is a friend and 
mentor. Working for her and with the dedicated staff of the House and 
Senate appropriations committees has been one of the highlights of my 
career. I also want to thank the members and staff of the House Foreign 
Affairs Committee, where I cut my teeth and had the opportunity to work 
with some extraordinary individuals, many of whom have crossed over to 
this side of the Capitol. I'm grateful for their continued friendship 
and support.
    I am joined today by many family and friends to whom I owe my 
success. First, my parents, Kanu and Lata Desai, who could not be here 
today but who changed my life when they immigrated to America, leaving 
behind all that they knew in pursuit of opportunity. I am joined by my 
brother, Pinank Desai, and my father and mother-in-law, Dr. Nilambar 
Biswal and Anu Biswal. And finally, as Sheryl Sandberg wrote in her 
book, ``Lean In,'' the most important career decision a woman makes is 
in choosing her life partner. I showed profound good judgment when I 
married Subrat Biswal. He and our two girls, Safya and Kaya, are the 
light of my life.
    Mr. Chairman, I am indeed honored to be the President's nominee for 
Assistant Secretary of State for South and Central Asia at a time of 
incredible challenge as well as opportunity for the countries of the 
region and for U.S. interests there. A career spent in the executive 
and legislative branches, as well as working in the development and 
humanitarian community, has prepared me well for this important 
responsibility. There are three lessons that I have learned in my 
career which I carry with me into this new position. The first, which I 
learned as a delegate for the Red Cross working with refugees and 
vulnerable populations in the Caucuses after the fall of the Soviet 
Union, is the link between human security and national security. The 
second, which builds on the first, and which underpinned my work at 
USAID over the past 3 years, is that, for our diplomatic and 
development efforts to be successful and sustainable, our policies and 
programs have to speak to the hopes and aspirations of the people and 
not just the governments of the region. The third, which became very 
clear during my time on the House Foreign Affairs Committee and House 
Appropriations Committee, is the importance of transparency and trust 
in the interactions between the executive and legislative branches of 
government.
    As you know well, the region is focused on the upcoming transition 
in Afghanistan and the implications for future security, stability, and 
prosperity. While my direct responsibilities, if confirmed, would not 
include Afghanistan or Pakistan, one of the South and Central Asia 
bureau's top priorities will be to help connect Afghanistan to an 
increasingly stable and prosperous region. If confirmed, I look forward 
to working with Ambassador Dobbins, the Special Representative for 
Afghanistan and Pakistan, to build on the progress we have made so far 
to foster stability and economic opportunities in South and Central 
Asia.
    Already, we have seen strong and steady cooperation from South and 
Central Asian states in support of our efforts in Afghanistan. India 
continues to play an important role in supporting the economic 
development of Afghanistan with its provision of over $2 billion in aid 
to Afghanistan. Kazakhstan, with its support for the Afghan Security 
Forces and training of Afghans in Kazakh universities as well as 
hosting the Istanbul process ministerial and the P5+1 talks, has 
demonstrated its importance as a leader in the region. In fact, Mr. 
Chairman, all five Central Asian states have provided vital support for 
our mission in Afghanistan, including through the Northern Distribution 
Network. That support will be all the more important in the months and 
years ahead.
    Understandably, there is a lot of anxiety in the region. 
Afghanistan's neighbors are uncertain what the transition in 2014 will 
bring and whether we will leave behind a political and security vacuum 
that will destabilize the region. Many still doubt our long-term 
commitment and fear we will turn our attention elsewhere. And in a 
region that is the least economically integrated in the world, Central 
and South Asian states wonder how the economic transition will affect 
their interests and economies. I look forward, if confirmed, to 
promoting U.S. policies that will make regional integration a reality, 
knitting together all the countries through a web of economic, energy, 
transit, trade, and people-to-people linkages.
    Mr. Chairman, while there are many players with divergent interests 
in this region, one unifying sentiment is that a stable and secure 
Afghanistan will benefit the entire neighborhood as we understand that 
it affects our own national security. That is why this administration 
has invested significant effort and resources to find a political 
solution to the conflict in Afghanistan and increase economic 
connectivity and cooperation. The administration's vision is for 
Afghanistan to be at the heart of a region with more trade and 
investment, more infrastructure and energy links, and more economic 
opportunities for its people. We are clear-eyed about the challenges of 
promoting greater regional cooperation, but we also see the potential 
and opportunities. It's telling that since former Secretary Clinton 
first articulated the ``New Silk Road'' vision in 2011, the region has 
adopted its own vision of greater connectivity and integration. The 
administration welcomes partnership with other key players in the 
greater region, like China, to achieve this important goal that, in the 
end, will bolster peace, stability, and prosperity for all the peoples 
of South and Central Asia.
    Important regional infrastructure linkages are already developing. 
Uzbekistan has built a rail line from its border to Afghanistan's key 
northern city of Mazar-i-Sharif and now Turkmenistan and Tajikistan 
have agreed to build a rail line linking their two countries via 
Afghanistan. Turkmenistan, Afghanistan, Pakistan, and India are making 
progress on the proposed TAPI gas pipeline. Pakistan recently announced 
its intention to sign the intergovernmental agreement on CASA-1000, 
which would substantially link the electrical grids of Afghanistan and 
Pakistan with those of Kyrgyzstan and Tajikistan for the very first 
time. And we hope that Pakistan and India will continue taking steps 
toward trade normalization. Perhaps most importantly, and for the first 
time, all of the countries in the region are either WTO members or on a 
path or exploring steps toward accession. We still have many challenges 
ahead but, if confirmed, expanding greater regional connectivity and 
linking economies and markets will be one of my top priorities.
    Shifting to our bilateral relations, if I am confirmed by the 
Senate, advancing the U.S.-India Strategic Partnership will naturally 
be of paramount importance. India's growing economic power make it a 
vital anchor for the vision of regional economic engagement, as well as 
a cornerstone of our strategic rebalance to Asia. The U.S.-India 
relationship, founded on our shared democratic values, converging 
strategic interests, and strong people-to-people ties, has broadened 
and deepened dramatically in the last decade. Nowhere has this 
cooperation been stronger than in the defense sector, where we have 
seen defense trade increase from a cumulative $300 million through 2008 
to over $8 billion today, and we are now engaging in robust joint 
training and exercises. As an example of the synergies inherent in our 
partnership, U.S.-made C-17s and C-130s now flying in Indian Air Force 
colors add a powerful new capability to India's regional security role, 
as well as added capacity to provide humanitarian and disaster relief, 
complementing U.S. efforts in these areas. India and the U.S. are 
already strong partners in combating terrorism and the proliferation of 
weapons of mass destruction, and, if confirmed, I will endeavor to 
strengthen and expand these efforts.
    While there is much to laud in the U.S.-India partnership, which 
President Obama has called a defining partnership of the 21st century, 
the potential for greater cooperation and opportunity remains vast. 
While U.S.-India trade has quintupled over the past 10 years to almost 
$100 billion, it can and should be significantly higher. The political 
transition in Burma has opened the potential for long-anticipated 
greater economic connectivity between South and Southeast Asia. The 
vision of an Indo-Pacific Economic Corridor and its potential for 
driving global economic growth will require free, efficient, 
integrated, and open markets. India's economic growth can benefit 
greatly from removing constraints to foreign direct investment, 
enhancing protection of intellectual property; signaling clear tax 
policies for international investors; facilitating market access, 
easing requirements for local content, and facilitating trade links to 
the broader region. These are tough challenges, but, as Vice President 
Biden and Secretary Kerry have underscored during their visits, our two 
countries can and should work collaboratively to meet the significant 
economic potential of this vital relationship. I believe that the 
Indian people and their government will take the necessary steps to 
stimulate further economic growth for the benefit not only of the 
Indian people, but for many millions across the broader region who rely 
on India as a source of stability, prosperity, and democratic values.
    By connecting the countries of South and Central Asia, we will not 
only unleash the flow of energy and commerce, but also the flow of 
ideas and innovations, of science and technology. If confirmed, I will 
build upon the rich science and technology collaboration with India and 
the nascent Science and Technology dialogue we have launched with 
Kazakhstan, an important regional partner, to expand collaboration 
between our private sector and academic institutions with organizations 
across the region to address common challenges of food security, water 
management, climate change, and infectious diseases.
    Mr. Chairman, I would be remiss if I did not also touch upon key 
challenges in the region with respect to democratic governance, human 
rights, and corruption. As Sri Lanka works to rebuild its society after 
a devastating civil war, we continue to stress the importance of 
sustainable post-conflict reconciliation, ensuring accountability for 
wartime atrocities, and fulfilling the government's own commitments to 
its people. In Uzbekistan, where we are seeing some steps toward 
addressing the problem of forced labor, we will remain closely engaged 
to press for steady progress toward ending this practice and continue 
to press on human rights concerns. Across Central Asia, where freedom 
of religion remains heavily circumscribed, we are steadfastly 
championing this core American and universal value. The administration 
strongly supports Bangladesh as it continues to make remarkable 
economic and developmental progress, but we express our concerns as it 
grapples with challenges such as labor rights and political gridlock. 
As countries such as the Kyrgyz Republic, Nepal, Bhutan, and Maldives 
embrace democratic values, the United States is committed to supporting 
and strengthening their democratic institutions and helping these 
societies combat corruption and advance the rule of law. If confirmed 
by the Senate, I will continue to use our broad engagement with 
countries throughout the region to underscore that, while we will 
continue to work with them to safeguard against the threats of 
terrorism and extremism, we believe that progress toward democracy and 
human rights, so that people have peaceful avenues for expressing 
dissent, is essential to achieving that goal.
    Finally, there is no higher priority for the Department than the 
security of American citizens, our personnel, and our facilities 
overseas. In the past year, the Bureau of Diplomatic Security and the 
regional bureaus have already done a great deal of work to ensure 
closer information-sharing and coordination on security, and to make 
sure that our decisions about our presence abroad are informed by a 
thorough and ongoing review of the value of the work we conduct 
overseas, the threats we face, and the costs of mitigating those 
threats. If confirmed, I will continue to make this a top priority, 
working together with our colleagues in Diplomatic Security and at our 
overseas posts.
    Mr. Chairman, let me close by again thanking you for the honor and 
the opportunity to testify before the committee. I am humbled by the 
trust and confidence that President Obama and Secretary Kerry have 
placed in me by this nomination. I consider this appointment to be the 
highest honor and a sacred responsibility to undertake on behalf of the 
President and the Nation. If confirmed, I will collaborate closely and 
consult regularly with this Committee and Congress in fulfilling my 
responsibilities.
    Thank you. At this time I would be pleased to answer any questions 
you and the committee might have.

    Senator Kaine. Thank you, Ms. Biswal, for that statement.
    Again, thank you, Congresswoman Lowey, and our best.
    I think I will begin with questions. We will ask questions 
in 7-minute rounds. Senator Risch has decided, to the extent 
that he would like to do opening, he can do that as part of his 
Q and A. We may do more than one round, and we may be joined by 
other Senators, but we will just now begin with the dialogue.
    You actually stole my first one. I was going to ask you 
about lessons learned in your previous capacities and how you 
would apply them to this position.
    The United States-India relationship, let us begin there, a 
very important one. We talked in my office, and I would like 
you to maybe elaborate a bit more, on what you see as a 
potential sort of trajectory in that relationship. As new 
generations of leaders in both countries come about, talk about 
some of the reasons for optimism about the United States-India 
relationship. Then I have a followup question about the 
civilian nuclear deal and the prospects for that between our 
countries.
    Ms. Biswal. Thank you, Mr. Chairman. As I mentioned in my 
statement, the United States-India partnership, as the 
President has indicated, is the defining partnership for the 
21st century, both because the United States and India share 
profound values of democracy, diversity, secularism, and human 
rights, but also because as an emerging power and an economy of 
global consequence, the model that India represents for 
democratic development is one that the United States actively 
supports and promotes across the globe, and that partnership is 
one that will benefit deeply not only the people of the United 
States and India, but really the globe.
    I do think that there is tremendous potential and scope to 
broaden and deepen that relationship in all sectors, whether it 
is in science and technology, whether it is in defense and 
security cooperation, and certainly in terms of how our two 
economies are increasingly intertwined and interlinked.
    Senator Kaine. Could you talk a bit about the prospects for 
progress on the civilian nuclear deal between the United States 
and India?
    Ms. Biswal. Sure, thank you. I think that the 123 Agreement 
was a transformational agreement between the relationship 
between the United States and India. But since that deal was 
enacted I think that there has been very slow and halting 
progress because of the nuclear liability law in India and the 
hindrances that that has posed to advancing civil nuke 
cooperation.
    I am hopeful, though, that we are making progress and that 
there seems to be some progress between Westinghouse and the 
Indian Government and NPCIL on approving a small contract. We 
are hopeful that that is something that can be announced in the 
near future and that that will pave the way for additional work 
in the months ahead. It is going to be a long and tough road to 
work through the issues with the nuclear liability law, but I 
think it is fundamentally in India's interests as well as in 
the interest of the United States to work through those issues 
so that we can progress with civil nuclear cooperation.
    Senator Kaine. You mentioned in your opening statement that 
the Afghanistan-Pakistan issues are very important to your work 
and yet they are under the purview of a different leader in the 
State Department, Jim Dobbins, the Special Representative to 
Afghanistan and Pakistan. If you could, share a little bit 
about what you hope to do working in tandem with Jim Dobbins, 
especially on the India-Pakistan relationship?
    Ms. Biswal. Sure. Thank you, Mr. Chairman. I think that 
that is an important question that is on many people's minds. I 
have profound respect for Jim Dobbins. I think he is an 
incredible professional with an incredible track record of 
service to the Nation on tough issues, and I think he is 
exactly the right person in the right job at this time.
    If confirmed, working closely with him on the priorities 
that we have set for an Afghanistan that is stable, secure, and 
economically linked and integrated into its neighborhood is one 
that I will work diligently toward. One aspect of that is going 
to be looking at how the countries of the region interact with 
Afghanistan.
    Already much work has been done to promote trade and 
people-to-people linkages. Turkmenistan is currently working 
toward a rail line that will connect Turkmenistan to 
Tajikistan, via Afghanistan. Uzbekistan has already established 
rail linkages into Mazar-i-Sharif. There is tremendous power 
that is already being provided by Uzbekistan and the lights are 
on in Kabul because of Uzbek power. So there are already much 
that is happening. Kazakhstan has been a tremendous supporter 
and an important player for our efforts in Afghanistan.
    But as we move toward this transition, those efforts are 
going to need to be stepped up. That will be a very key 
priority. Looking at the long term, trying to bring on line the 
Turkmen-Afghanistan-Pakistan-India pipeline to provide gas into 
South Asian markets is going to be an important thing. CASA-
1000, which is the provision of hydropower coming from 
Kyrgyzstan and Tajikistan into predominantly Pakistan, I think, 
is going to be important to the energy security of Pakistan. We 
have seen very positive steps that the Government of Pakistan 
has already taken to bring that about, to make that into a 
reality.
    So those will be some of the areas where I will be putting 
considerable attention during my tenure if confirmed.
    Senator Kaine. Great. Thank you, Ms. Biswal.
    Chairman Menendez will very much want me to ask a question 
about Bangladesh. It is an issue, and especially labor 
conditions there, that he cares about deeply. We had a full 
committee hearing on these issues on June the 6th. If you could 
just talk a little bit about status of reforms--the President 
suspended trade benefits under the Generalized System of 
Preferences earlier this year as a result of concerns about 
some of these labor issues. If you could talk about status of 
reforms in Bangladesh, that would be helpful.
    Ms. Biswal. Sure. Senator, Mr. Chairman, let me start first 
by thanking you, thanking Senator, Chairman Menendez, because 
it was very important both in our engagement with Bangladesh 
and for the Bangladeshi people to see the very strong concern 
and reaction that was elicited from the United States and from 
the United States Congress after that horrific tragedy in Rana 
Plaza. Indeed, the suspension of GSP and the incredible 
outpouring of concern from the United States and really the 
world has forced the Bangladeshis to take action, and it has 
focused attention.
    We have seen some progress to date. We have seen greater 
ability for unions to form and organize, and we have supported 
those efforts. We have redoubled our own support for 
organizations like the Solidarity Center and the International 
Labor Organization to work with those nascent unions. We have 
seen the private sector, the ready-made garment industry, come 
together both in Europe and in the United States and put 
forward some standards that it will adhere to in terms of 
building safety, in terms of worker safety.
    So these are all very positive movements. There is still a 
long ways to go, and if confirmed I will continue to work 
diligently in this area with counterparts in the interagency 
and with counterparts in the private sector to ensure that we 
are meeting those worker safety issues.
    Thank you.
    Senator Kaine. Thank you, Ms. Biswal.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, can you give me your view? What do you hear 
about how the Indians are looking at our withdrawal from 
Afghanistan? Are they worried about it? Are they preparing for 
it? What's your observation there?
    Ms. Biswal. Thank you, Senator. There is understandable 
anxiety in India and across the region about what this 
transition will bring. But we are in very close dialogue with 
the Indians, and from my role at USAID I was able to 
participate in some of the trilateral conversations between the 
United States, Afghanistan, and India about the transition, 
about our prospects and priorities for the coming 18 months. 
India has played an important role in Afghanistan's economic 
development and continues to do so, and we will continue to 
work very closely with our Indian counterparts and with the 
Afghan Government on what an appropriate and stabilizing role 
that India can play in the region.
    Senator Risch. Are they concerned at all about the 
relationship that Afghanistan is going to have with Pakistan, 
that is from a competitive standpoint?
    Ms. Biswal. Senator, I actually think that there is 
somewhat of a convergence of interests here, in that neither 
India nor Pakistan want to see an insecure and unstable 
Afghanistan. I think that the opportunity that we have before 
us is to engage both countries on that particular interest. 
Ultimately, the efforts for Afghanistan's political transition 
and reconciliation will be Afghan-led and it will be for the 
Afghans to determine how they will engage with other partners 
in the region. We are certainly supportive of working with all 
of the interested parties toward that.
    Senator Risch. Thank you.
    Let us turn for a minute to the nuclear liability law. You 
are right about the agreement that was entered into. I think it 
is probably a model for what is going to happen around the 
world on nuclear agreements for generating electricity for 
peaceful use of nuclear power. What are the prospects for some 
movement on the nuclear liability law in India?
    Ms. Biswal. It is a difficult undertaking. I think we----
    Senator Risch. Why is that?
    Ms. Biswal. Well, India is still grappling with the 
devastating legacy of the Bhopal tragedy, and that has defined 
in many ways how the Indian population has viewed nuclear 
power. We understand those concerns and we understand that 
legacy.
    Nonetheless, as you look at India's energy needs into the 
future, civil nuclear power is an important option, and for 
that option to really play out this is an issue that I think 
India is going to need to grapple with and it is a conversation 
that the government is going to need to engage with its 
parliament and with its population.
    We are hopeful that that will happen, that this will move 
forward, because we do think that this is an area that is 
fundamentally in the Indian interest and we want to support 
that.
    Senator Risch. Is there an understanding there about the 
inevitability of nuclear power when it comes to being able to 
provide the kind of base load that is needed for a country like 
India to thrive?
    Ms. Biswal. Certainly in some quarters that is the case. I 
would not want to speak to the whole of the country, but I 
think that there is a very strong desire to move forward on 
this. But I think it is going to be a political challenge for 
the Indians, and we look forward to working with them.
    Senator Risch. Transitioning from that to the purchase of 
oil from Iran, that is something that has been very troubling 
to me and I think troubling to a lot of people. Have you had 
conversations with the Indian Government about this?
    Ms. Biswal. Senator, I know that the administration has had 
many and an active and ongoing dialogue. If confirmed, I intend 
to continue that very close engagement. I will say that 
Secretary Kerry found, earlier this summer, India to have 
significantly reduced its import of Iranian crude when he made 
the determination and exercised the waiver. I think that that 
determination is based on multiple sources and comprehensive 
analysis of India's imports.
    I am aware that Indian imports of Iranian crude have gone 
down significantly since the sanctions have been in place. Iran 
used to be the No. 2 supplier and it is somewhere in the 
neighborhood of five or six on that list currently.
    Senator Risch. I understand. I was one that was deeply 
disappointed when the waiver was granted. I do not understand 
it. We have a clear policy as far as our embargo with Iranian 
oil and other products. I had a spirited conversation with the 
Ambassador from India. I still do not understand it.
    It seems to me that there are--with oil being as fungible 
as it is and as widely available as it is, there is absolutely 
no reason for India to purchase oil if indeed they want to 
support the world community and indeed want to support us as a 
friend and a partner, for them to be buying anything from Iran.
    I understand it is a longstanding relationship and what 
have you. But the Iranians have demonstrated that it is going 
to take who knows what to stop them from the path that they are 
on. So the Indians' purchase of oil from Iran in my judgment 
endangers the entire world community and is a destabilizing 
factor for the Middle East. So I hope you will convey that 
message when you talk with them and tell them at least some 
Members of this body are deeply disappointed in what they are 
doing.
    I understand they keep telling me, well, they have reduced 
it. Well, again, you do not need to reduce it; you need to just 
quit it. That would be my message to them.
    Thank you very much. My time is up.
    Thank you very much, Mr. Chairman.
    Ms. Biswal. Thank you, Senator.
    Senator Kaine. Thank you, Senator.
    Senator Rubio.
    Senator Rubio. Thank you.
    First of all, thank you for being here today. 
Congratulations on your appointment.
    Ms. Biswal. Thank you.
    Senator Rubio. Thank you for your service and your 
continued service.
    My question really is going to start in the form of a 
statement and then get your impressions on it. I would begin by 
just saying something I think you will agree with, and that is 
that our foreign policy should not just reflect our interests; 
it should also reflect our values. I imagine that you agree 
with that.
    Ms. Biswal. Indeed.
    Senator Rubio. And in fact, it is one of the things that 
makes America exceptional, despite Vladimir Putin's assertion 
to the contrary. So I wanted to walk you through one of the 
values that I think are critically important to Americans and 
that is religious liberty, because I think this region of the 
world that you will be tasked overseeing our foreign policy on 
is a part of the world where religious liberties are under 
incredible duress, with few exceptions.
    We start, of course, with Afghanistan. There is real worry 
there among some of the political class about the growth of 
Christianity. For example, the president of their Parliament, 
Abdul Rauf Ibrahimi, he condemned proselytizing and he asked 
the Committee for National Safety to follow the issue 
carefully. In fact, one of the parliamentarians there has made 
a suggestion about a new law that would outlaw Christianity and 
to punish it. So there are concerns about Afghanistan.
    In Pakistan, we have all heard the terrible stories that 
emerge from there. A 16-year-old from Lahore was abducted, 
gang-raped, and forcibly converted to Islam and then forced to 
marry a Muslim. Her family reported it to the media and to 
authorities, but she, as a result, was insulted and harassed. 
There is of course the infamous story of Asia Bibi, who drank 
water from the same cup as a Muslim woman. The woman then 
claimed that the water was unclean and that the only way to 
clean it was for her to convert to Islam. She refused and of 
course has been accused of blasphemy.
    These blasphemy laws, by the way, are used in Pakistan as a 
way to settle scores and personal vendettas. It is not just a 
religious thing.
    The U.S. Commission on International Religious Liberty 
issued a report that said that in the last 18 months in 
Pakistan there are 203 documented incidents of violence in the 
name of religion, the resulted in 1,800 casualties and more 
than 700 deaths. One of the cases in point is this Christian 
Sajjad Masih, who was accused of insulting the Prophet 
Mohammed. His accuser recanted. His accuser said: It is not 
true; the police made me say that. Nevertheless, he is 
convicted and he is serving a life in prison because of it.
    In India that we have been talking about here, I am 
concerned about what appears to be a growing wave of Hindu 
nationalism that's sweeping the country. As a result, on August 
3 there is the report of a Christian woman that was confronted 
with demands that she convert back to Hindu. She refused and as 
a result was abused and beaten.
    There is this horrifying story of a Christian woman who was 
raped and brutally murdered by two men on August 29. She was 
raped in front of her 3-year-old daughter. She suffered 
multiple stab wounds to her torso and had been strangled with 
her own sari. Her body was left naked, her screaming child 
beside her. Two suspects were arrested. They have both been 
released and it is unclear whether they will face any official 
charges in the future.
    As a result, India now ranks among the 50 countries--
according to an organization called Open Doors International, 
India now ranks among the 50 countries where life as a 
Christian is most difficult. The country is actually number 31, 
largely because of the streak of Hindu nationalism that 
envisions India as a purely Hindu state. We are concerned about 
that.
    In Sri Lanka, in the last 4 months 30 churches have been 
attacked by Buddhist extremists. I quite frankly was not aware 
that there was such a thing, but apparently that exists.
    In Nepal there has actually been some progress. I know that 
there was an agreement there between the government and the 
Christian community, but apparently that agreement has not been 
fully carried out and we have reports that the Christian 
community there has been forced to bury their dead outside of 
cemeteries and have to bury their dead in forests because their 
cemetery is too close to some Hindu shrine.
    In Uzbekistan--and we could go on and on. I do not want to 
run out of time here. But that is one of the places where--
Freedom House says, Uzbekistan is among the 17 worst countries 
in the world when it comes to freedom. I didn't know this, but 
the law in Uzbekistan only allows people to own government-
approved religious material. So for example, a Protestant 
minister there was sentenced to 1\1/2\ years of what they call 
``corrective labor,'' which does not sound very pleasant, for 
illegally storing religious liberty. In Uzbekistan the 
government regulates how many copies of a Bible you can have 
and they regulate which translations of the Bible you are 
allowed to have.
    So I guess my question is, When it comes to this part of 
the world, how do we ensure that our policies reflect our 
interests, and our interests in the area are important, but 
also our values? In particular, our aid programs and so forth 
should be conditioned upon progress on all these counts. I am 
concerned that this discussion is not happening.
    So I wanted to get your perceptions about, No. 1, how can 
we be a more forceful voice on behalf of religious liberty and 
in particular condemning even our allies in those countries 
where a lot of this stuff is happening at the street level 
where individuals, because of their own prejudices or views, 
are carrying out these attacks. But what is more concerning is 
when the government actually backs it up, either through laws 
or--as in the case of the blasphemy laws, or by selective 
enforcement, where they decide that when individuals carry 
these things out they will not punish them, they will not do 
anything about it, they will overlook it, or in fact they 
harass the victims or their families when they report these 
things.
    So I think my question is, How do we ensure that all of our 
programs, from how we talk about it in terms of condemning 
these acts to how our foreign policy with regard to these 
nations and our aid programs, are conditioned upon real 
progress when it comes to the issue of religious liberty? I 
could say the same about human trafficking, by the way, and so 
forth. But this is one that I think is a growing problem in 
many parts of the world, but in particular in Central Asia and 
the other countries that you will be tasked with overseeing.
    So I wonder if you would share with us your impressions on 
the situation and on how we can improve our foreign policy so 
that, in fact, it is the foreign policy of an exceptional 
nation, because it reflects both our interests and also our 
values?
    Ms. Biswal. Thank you, Senator, for that question. I think 
you have raised some very important concerns and concerns that 
extend across the region, as you rightly pointed out. I will 
say that one of the things, as you noted, that makes America 
great is that it stands for human dignity, human freedom, 
freedom of religion, and freedom of expression. Those are 
values that the United States does not shy away from and the 
administration does not shy away from in our engagements with 
all of the countries in the region.
    I know that the administration has conducted bilateral 
negotiations, bilateral dialogue and consultations with all of 
the countries that you have referenced, and in all of those 
consultations religious freedom and human rights have been at 
the top of the discourse. If confirmed, that would certainly be 
my intention, to continue to stress upon in all of our 
conversations the very important concerns that we have with 
respect to religious freedom.
    Senator Rubio. Just one closing question. Do you believe, 
given your experience--I believe you were at USAID as well, so 
you have been involved in aid programs. Do you believe that it 
is wise for us--I am a believer in foreign aid, but I think 
foreign aid has to reflect both our interests and our values. 
Do you believe it is wise for us to ensure that any foreign aid 
and other programs reflect that in the sense that they be 
conditioned upon progress on these issues?
    Foreign aid is not charity. Should not our foreign aid 
reflect our values as well as our interests, in that we provide 
aid to countries, but they have to be making measurable 
progress toward things that reflect both our interests and our 
values? Otherwise they can look somewhere else for the money.
    Ms. Biswal. Senator, I would agree that our foreign aid is 
a reflection of our values, and in the sense that our foreign 
aid is aimed at not benefiting governments, but the people of 
these countries, and in many ways reaches those very 
populations that are often marginalized and discriminated 
against. So in that sense I would say I do not know if 
conditionality is the way to go, but targeting of that 
assistance to ensure that it is reaching populations for whom 
we have the greatest concern is something that we have 
consistently sought to do and perhaps need to do more of in 
some of these countries.
    Senator Rubio. Just in closing, I would say there is no 
doubt that we have foreign aid that is directly related to 
populations and individuals, and certainly you can target that 
aid in the way you described. But we also do give foreign aid 
and assistance to governments, and I would just argue, and 
would like to have a further conversation with you about, the 
notion that when we do give foreign aid to governments one of 
the things that we should be looking at is whether these 
governments are conducting themselves in a way that reflects 
not just our interests, but also our values. Otherwise perhaps 
it's not a wise investment on the government side of aid.
    Thank you.
    Senator Kaine. Thank you, Senator Rubio.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Congratulations to you. I see your family is here today and 
I know they are very proud of you as well. I consider you 
another compelling argument for comprehensive immigration 
reform.
    I want to talk just a minute about India and then a little 
bit about Sri Lanka. We all know India has been having some 
tough times. It is plagued by political gridlock and divisions, 
slow growth and a battered currency. It sounds like another 
country that I know.
    It has led too many people believe that India is out of the 
arena, that it will never match up to China and many of us are 
wrong to have the aspirations that we had for the United 
States-India strategic partnership. I do not believe any of 
that. I have confidence in India, in our strategic partnership, 
and both our nations' ability to renew ourselves.
    But I would like to ask you generally whether you share my 
optimism about India and our strategic partnership, but also 
can you describe what plans the administration has to step up 
our coordination and cooperation with India in Afghanistan, 
especially after 2014?
    Ms. Biswal. Thank you, Senator, for that very important 
question. I do share your optimism. I think that the United 
States-India strategic partnership is an incredibly important 
one and one that has tremendous further potential for growth, 
for broadening, and for deepening, and that will be a priority 
if I am confirmed in terms of where I focus time and effort.
    I think that, despite the concerns that are currently in 
place, I think the fundamentals of the Indian economy are 
strong and sound and that, as I noted in my statement, that 
India needs to perhaps take a more aggressive stance on opening 
and liberalizing its economy, and that that will enable further 
population between the United States and India on the economy 
front.
    With respect to Afghanistan, I will note that the United 
States and India and Afghanistan participate in a trilateral 
dialogue where there is an opportunity to both share 
information and discuss concerns and priorities. That is 
something that if confirmed I will continue to engage in 
robustly. It allows the Indians to have greater visibility into 
where the United States-Afghanistan relationship, how the 
transition is unfolding, and for the United States and for 
Afghanistan to have an understanding of India's concerns and 
interests in the region.
    India has already provided $2 billion in economic aid to 
Afghanistan. We understand that it will continue to be an 
important and stabilizing influence on Afghanistan.
    Finally, I note that in the Istanbul process in the heart 
of Asia, India does chair the confidence-building measures with 
respect to the Afghan economy, with trade and with economic and 
with commerce.
    Senator McCain. What is the administration and your 
position on a free trade agreement with India?
    Ms. Biswal. I think that that is something that in the 
future we see as a very important and positive development. 
There are certainly concerns between the United States and 
India in terms of some of the protective tariffs and trade 
barriers that we think that India needs to address. But I would 
be very hopeful that we can see----
    Senator McCain. Does India seek to join the negotiations 
for the Trans-Pacific Partnership?
    Ms. Biswal. I know that that is something that the Indian 
Government has said that it is looking forward to at some 
moment.
    Senator McCain. Do you encourage that?
    Ms. Biswal. I would like to see us make progress on the 
bilateral investment treaty, Senator, and I would like to see 
the TPP as a natural outcourse of ongoing discussions between 
the United States and India.
    Senator McCain. Let us talk about Sri Lanka for a minute. 
It went through a terribly bloody conflict and now 
unfortunately there continues to be reports from human rights 
organizations, both ours and international organizations, that 
there is still significant human rights abuses taking place 
there against the Tamils, which rise to a level that is very 
disturbing. Is that your view?
    Ms. Biswal. That certainly comports with my understanding 
of the situation, Senator.
    Senator McCain. Should the United States be a little more 
active in condemning these ongoing serious abuses?
    Ms. Biswal. Senator, the United States has been very active 
and very engaged with Sri Lanka and in the international 
community in expressing our concern about both accountability 
and reconciliation between minority populations and majority 
populations in Sri Lanka. And we have made clear that we 
believe that if Sri Lanka does not address through its own 
internal processes that there will be increasing call for 
international processes to address these issues.
    Senator McCain. Does it make sense for the administration 
to offer India an opportunity to participate in the F-35 
program?
    Ms. Biswal. I would like to look further into that, sir, 
and get back to you for the record.
    Senator McCain. I would appreciate it.
    [The written information supplied by Ms. Biswa pertaining 
to the above question follows:]

    India is a valued defense partner, and we are deepening cooperation 
in a number of fields, including a bilateral channel to enhance 
coproduction and codevelopment of defense platforms, sometimes referred 
to as the Defense Trade Initiative. To date, the Government of India 
has not formally expressed interest in participating in the F-35 
program. Should India indicate interest in the F-35, the United States 
would be willing to talk to India about this program.

    Senator McCain. Despite your misguided political 
affiliation, I would like to say that you are a great example 
to all of us of people who come to this country--I know you 
were very young--and the opportunities that this country 
provides. Today Mr. Putin said that it was wrong of the United 
States of America to call itself an exceptional nation. I think 
you and others like you are a great example of the fact that we 
are an exceptional nation. I do not think a lot of people are 
banging down the door to go to Russia, but I do believe that we 
continue to have an influx of blood and dynamism into our 
country that has made this nation an exceptional nation, and 
you're a great example of that.
    So we look forward to confirming you as rapidly as 
possible.
    Ms. Biswal. Thank you, Senator.
    Senator Kaine. Thank you, Senator.
    Ms. Biswal, a couple more questions. One, does the 
rebalance to Asia overall strategy announced by the 
administration--I know that presents many opportunities and is 
probably seen positively throughout the real estate that you 
will represent, particularly to the extent there is a concern 
about withdrawal of Afghanistan signifying a weakening U.S. 
connection.
    But the fact that we are rebalancing toward Asia I assume 
has some positives. Does it create any anxieties in the region, 
or is it seen as a good thing?
    Ms. Biswal. Well, I cannot speak to what anxieties 
individual countries might be feeling, but I do think, Senator, 
that the rebalance is an overwhelmingly positive refocusing and 
sharpening of the United States commitment and engagement to 
the Asia-Pacific region. If you look at some of the economic 
prospects for Asia over the coming decades, some projections 
indicate that Asian economies will comprise 50 percent of 
global GDP over the coming decades. So increasingly for the 
United States and for the world the success of Asian societies 
and Asian economies to create inclusive, transformational, and 
sustainable economic growth will drive economic growth 
globally, and it is in the United States interest, it is in the 
interest of the countries in the region, for the United States 
to forge a strong partnership for stability, for security, and 
for prosperity for all of our peoples.
    Senator Kaine. Thanks, Ms. Biswal.
    One of the questions that Senator Risch asked, really a 
line of questioning, concerned Indian purchases of oil from 
Iran. He pointed out correctly there has been a long historical 
relationship and probably some reluctance on India's behalf to 
terminate that relationship. But I do think there are some 
interesting opportunities here. In April of this year there was 
an announced transaction where India was purchasing liquefied 
natural gas, LNG, from a United States producer and supplier. 
One of their announced reasons why they were happy about that 
purchase was it would enable them to reduce reliance upon oil 
from the Middle East.
    Just in working with your Indian counterparts, they can 
maintain a relationship with Iran by saying: Look, we are going 
to eliminate our purchases or dramatically cut them even more 
unless and until you make plain that you do not have a path 
toward nuclear weaponry, but as soon as you do we are not only 
going to buy what we are buying, we want to buy more. So just 
in your dialogue with Indian counterparts that would be an 
important thing.
    I raised a similar proposition with Chinese Government 
officials recently and one of the first things they said is: We 
would love to do that if you will sell us natural gas. So the 
natural gas issue and natural gas exports, it is controversial 
for other reasons here in the body and we are going to be 
thrashing that through.
    But to look at natural gas not only as a valuable commodity 
for our own country, but as a way through strategic 
partnerships to advance our goal of tightening sanctions on 
Iran until they make the right decision about their nuclear 
weapons program, there are some real opportunities there in the 
natural gas reserves of the United States and using that in 
trade. So I just recommend that for your use.
    Ms. Biswal. Absolutely, Mr. Chairman. Apropos to your 
point, I was pleased to note that yesterday the Department of 
Energy approved Dominion Cove Point for exporting LNG to non-
FTA countries, and India stands to benefit from over half of 
the exports from that facility.
    Senator Kaine. The news accounts--and Senator Rubio 
mentioned a couple of them--about violence against women in 
India in the recent months and maybe in the last year or two 
have been very, very troubling. Based on your experience in the 
region, is it an uptick in violence, is it an uptick in the 
reporting of violence? Is it sort of changing cultural or 
religious sensibilities?
    To what do you attribute the fact that this is an issue 
that is much more prominent in news here and around the world?
    Ms. Biswal. Well, certainly the reporting, the coverage of 
some of the horrific incidents that have come to light in 
recent months, have shocked, shocked Indians as well as those 
who care about these issues, which is all of humanity. What I 
would say is that the coverage and the reaction to that 
horrific incident in Delhi with Nirbhaya has I think in some 
ways transformed and galvanized how the Indian public and the 
Indian media look at these issues.
    So certainly you are seeing far more coverage because you 
have an Indian press that is very sensitized to this and you 
have a public that is very sensitized to it. So I do not know 
that it would necessarily reflect an uptick, but I am heartened 
by the fact that there is now so much attention and so much 
demand for action and accountability.
    Senator Kaine. One last question I have is just moving to 
Central Asia. You talked in your opening statement about how so 
much of our policy with respect to the five Central Asian 
states that were formerly part of the Soviet Union has been 
driven by Afghanistan. As we are moving into the next chapter 
of our relationship with Afghanistan after 2014, talk a little 
bit about the opportunities and challenges in those five 
countries and how you hope to focus on them in your new role?
    Ms. Biswal. Thank you, Senator. We had a chance to talk 
about this a little bit in our discussion yesterday. But what I 
would say is that the United States because of its engagement 
in Afghanistan has had an opportunity to establish deeper 
relationships with the countries of Central Asia. Understanding 
that we have many concerns about many of these countries, I 
think it has been a positive that we have been able to engage 
in dialogue and discourse with all five Central Asian states 
and that we have annual bilateral consultations and a strategic 
partnership with Kazakhstan, which allows us to talk about how 
the United States can engage with and support the economic 
development priorities of all of these countries and also 
engage in discourse about the areas where we have disagreement 
and divergence.
    But that dialogue is an important one to advance these 
issues, because they will not be advanced overnight and easily, 
but if we are present and if we have a continuing commitment to 
engage in the region, then we will be far more likely to be 
able to see some results in the course of time. And it is 
certainly critical that we see Central Asia, Afghanistan, 
Pakistan, and a region that historically has been one of the 
least connected in the world in terms of trade and economy, 
that we see that region become more integrated.
    That is something that will advance the interests of all in 
the region. So we would like to see a Central Asia that has 
greater connections into South Asia through the linkages with 
Afghanistan and Pakistan, and that is something that we can 
only advance through our ongoing engagement.
    Senator Kaine. And that engagement is desired by the other 
countries as well. I mean, they have traditionally been in very 
close sphere of influence with Russia. They are proximate to 
China. India is close. But there is also a desire for that 
engagement with the United States.
    Ms. Biswal. Absolutely, across the board.
    Senator Kaine. I have no other questions. What I would like 
to do is thank you for your presentation today, and I think the 
tenor of the questions has been positive and we will move I 
think promptly on your nomination.
    I want to announce, for Senators, either those here or not 
here, that questions for the record--additional questions to be 
submitted to you--will be due by noon tomorrow. But again, I 
very much appreciate the opportunity to chair this meeting. The 
Foreign Relations subcommittee that I chair is overlapping much 
of your real estate. Congratulations on the nomination and my 
best to your family.
    With that, the meeting is adjourned.
    [Whereupon, at 11:01 a.m., the meeting was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


       Responses of Nisha Desai Biswal to Questions Submitted by 
                        Senator Robert Menendez

    Question. On August 12, 2013, The Wall Street Journal reported that 
India was considering increasing crude oil imports from Iran. This 
reported arrangement would include the purchase of Iranian oil with 
Indian rupees which would then be used by the Iranians to purchase 
Indian goods. Over the past 2 years, India has made noteworthy progress 
in sharply decreasing crude oil purchases from Iran, a move which has 
contributed greatly to international efforts to increase pressure on 
the regime. I am very concerned that anything but a continued steady 
decline in oil imports to India will send the wrong message of 
diminished international resolve to the Iranian regime. I am also 
concerned that such a move would significantly impact United States-
Indian relations at a time when the relationship has steadily 
strengthened.

  <bullet> Has the Indian Government communicated its intention to the 
        U.S. Government that it will increase imports of Iranian oil in 
        the coming period? What measures is the State Department 
        prepared to take to ensure that India continues to decrease 
        imports of Iranian crude oil?

    Answer. We have engaged the Government of India about the recent 
press reports in question and expressed our concerns. We understand 
Indian officials have floated the idea of increasing oil purchases from 
Iran to stabilize the falling rupee. India pays Iran for its oil in 
rupees, which are then used to purchase food and medicine to be 
exported to Iran. However, we believe India's importers intend to 
continue to reduce the volume of purchases of Iranian crude oil. The 
United States continues to engage in close consultations with the 
Indian Government on U.S. sanctions, and our governments share the 
objective of pressing Iran to comply with its international 
obligations.
    India's strategic decision to diversify its crude oil imports has 
resulted in significant reductions in its crude oil purchases from 
Iran. Since India was the second-largest importer of Iranian crude oil 
prior to the enactment of oil sanctions, every percentage point in 
reduced crude oil imports translates into a significant revenue loss 
for Iran.
    When considering renewing the exception, which expires on December 
1, 2013, the Secretary will take into account a variety of public and 
nonpublic information sources. We are confident we are making an 
accurate determination, based on the best possible available data, both 
public and nonpublic. In India, as in all other importing countries, it 
is important to look at the actual import numbers and trends rather 
than press reports or other statements which may be misleading. We have 
worked diligently to establish a worldwide effort to track Iranian 
crude oil exports and ensure full implementation of sanctions. India 
appears to be on a trend of further diversifying its crude oil supplies 
and reducing its imports of Iranian crude oil, despite some variation 
in its crude oil purchases. There is always some month-to-month 
variability in crude oil purchases.

    Question. The political situation in Sri Lanka continues to 
deteriorate with 
increased reports of human rights abuse against the Tamil population 
and lack of progress by the government to abide by commitments made 
following the Lessons Learned and Reconciliation Commission. The 
government of Mahindra Rajapaksa has also refused to comply with the 
U.N. Human Rights Council's March 2012 resolution on reconciliation and 
accountability. The United States has played a strong leadership role 
in advancing resolutions on Sri Lanka at the U.N. Human Rights Council, 
but these efforts have not resulted in any significant change in 
behavior on these issues by the Sri Lankan government.

  <bullet> Under what circumstances would the United States support an 
        international 
        investigation into reports of atrocities and human rights 
        violations committed during the country's civil war?

    Answer. Four years after the end of Sri Lanka's terrible civil 
conflict, the United States remains deeply concerned about the lack of 
meaningful progress on reconciliation and accountability, and about 
recent backsliding on human rights and democratic governance. The two 
U.N. Human Rights Council resolutions in March 2012 and March 2013 drew 
international attention to these concerns and provided much-needed 
support to Sri Lankan civil society working on issues of 
reconciliation, accountability, and human rights. As part of our 
strategy to encourage both credible progress on reconciliation and 
investigations into serious allegations of violations of human rights 
law and international humanitarian law, we are currently reviewing a 
range of options for further action in the March 2014 Human Rights 
Council session.
    We support United Nations High Commissioner for Human Rights Navi 
Pillay's recent call for credible investigations into alleged human 
rights abuses. As she stated, ``unless there is a credible national 
process, calls for an international inquiry are likely to continue.'' 
We also frequently raise our concerns with the highest level of the Sri 
Lankan Government about the lack of progress on accountability and urge 
them to utilize U.N. resources, including technical assistance, to make 
meaningful progress. In the past 6 months, Sri Lanka has taken some 
initial steps, including creation of a Commission of Inquiry to 
investigate disappearances and abductions during the war. We will 
continue to press the Sri Lankan Government to ensure that these 
mechanisms are credible, independent, and transparent.

    Question. The United States has clear national security interests 
in maintaining the Northern Distribution Network capability through the 
end of 2014 and perhaps beyond, as U.S. forces gradually draw down from 
Afghanistan. Given the authoritarian nature of the Uzbek Government, I 
am concerned about the depth of our security relationship with the 
country.

  <bullet> How much security assistance has the United States. provided 
        to the Uzbek Government over the past 2 fiscal years? How has 
        cooperating with Uzbekistan strengthened our national security 
        interests in the region? Has our security cooperation with the 
        Uzbek Government had any measurable impact on U.S. efforts to 
        support human rights and democratic reform in the country?

    Answer. The United States provided $33.26 million in security 
assistance to Uzbekistan in FY 2012 and plans to provide $24.11 million 
in FY 2013. This assistance included funding for two railroad scanners 
on the Northern Distribution Network (NDN), which will speed up 
clearance of retrograde shipments from Afghanistan. The United States 
also provides nonlethal training and tactical equipment to strengthen 
counternarcotics and border security capabilities of law enforcement 
organizations; training to support the professionalization of 
Uzbekistan's military, including English-language training; and 
maintenance of radiation detection equipment through the Institute of 
Nuclear Physics, which will be handed over to the Uzbekistani 
Government over the next 2 years. Assistance also includes funding for 
Ravens, small hand-launched remote-controlled unmanned aerial vehicles 
with no lethal weapons capabilities.
    As the United States draws down forces in Afghanistan, the NDN, as 
an alternative to southern ground lines of communication, is an 
important transit route. Maintaining more than one route increases our 
flexibility and guards against the disruption that occurs when a single 
route is subject to interdiction or delay. In 2011, the United States 
and Uzbekistan negotiated an overflight agreement, which permits 
frequent flights of cargo aircraft to and from Afghanistan. Uzbekistan 
understands that the NDN helps address one of its major national 
security concerns--establishing a stable and secure Afghanistan on its 
southern border--and this helps us secure Uzbekistan's support for the 
NDN.
    Improving Uzbekistan's capabilities to secure its southern border 
also improves regional security, one of our top national security 
priorities. To this end, we have worked with Uzbekistan to improve its 
counternarcotics capacity and enhance its ability to monitor and secure 
its southern border, strengthening Uzbekistan's ability to guard 
against transnational threats.
    A growing security relationship with Uzbekistan has enabled us to 
develop a principled and constructive relationship with its government 
and people on issues such as human rights. Our engagement with 
Uzbekistan on security and logistics issues demonstrates the mutually 
beneficial nature of the bilateral relationship, and it has afforded us 
greater opportunities to raise sensitive human rights and democratic 
reform issues with the government. As we develop our relationship, we 
have greater room to argue that respect for human rights, fundamental 
freedoms, and political liberalization serve Uzbekistan's national 
interest by contributing to greater domestic stability and security. We 
also have been able to expand our work with Uzbekistan on judicial 
reform.
    We continue to urge Uzbekistan to implement and enforce its 
international commitments on the elimination of forced labor. We are 
pleased that Uzbekistan has invited the International Labor 
Organization to monitor its labor practices during the 2013 cotton 
harvest, a step we have long advocated. The government also took law 
enforcement efforts to combat sex and transnational labor trafficking 
in 2012. In our bilateral dialogue with Uzbekistan, we have suggested 
concrete steps that the government can take to improve the environment 
for religious freedom. We continue to stress that allowing citizens to 
peacefully exercise their beliefs is an effective way to prevent 
violent extremism. We also are working actively to promote greater 
interaction between the government and independent civil society.
    While cognizant of the importance of the NDN to the efforts in 
Afghanistan, we will continue to make clear that the nature of our 
partnership and the assistance we can provide Uzbekistan under current 
legislation is limited by Uzbekistan's actions on democratic 
governance, human rights, and fundamental freedoms.

    Question. How is the United States supporting the Government of 
Bangladesh's efforts to implement the tripartite national action plan? 
The U.S.-Bangladesh Action Plan? The EU-ILO-Bangladesh Sustainability 
Compact? What is the United States Government's assessment of the 
Government of Bangladesh's ability to fulfill the requirements of these 
three plans in a timely and effective manner?

    Answer. The United States, through high-level diplomatic 
discussions and U.S.-funded programs, is closely engaging with 
Bangladesh to implement an action plan to restore Bangladesh's 
Generalized System of Preferences (GSP) privileges, the ILO-supported 
tripartite national action plan, and the EU-ILO-Bangladesh 
Sustainability Compact. Through discussions in Dhaka with all 
stakeholders, the United States is working to help Bangladesh 
strengthen unions, ramp up inspections and improve compliance and 
transparency. Through these three plans, Bangladesh has publicly 
committed to working closely with the ILO, the United States, the EU, 
labor groups, industry associations, and buyers on important reforms to 
afford internationally recognized worker rights, but considerable steps 
still remain.
    Bangladesh has committed to developing and implementing a plan to 
increase the number of government labor, fire, and building inspectors, 
including by hiring 1,000 inspectors (200 in 2013 and 800 in 2014) and 
900 support staff; increase fines and other sanctions for failure to 
comply with labor, fire, or building standards; create a publicly 
accessible database of all RMG factories; establish a confidential 
complaint mechanism to report safety and worker rights violations; 
enact overall labor law reforms to address key concerns related to 
freedom of association and collective bargaining; and review and reform 
labor regulations governing Export Processing Zones for conformity with 
international standards.

    Question. How many union organizers have been trained on workers' 
rights through USAID's Global Labor Program in Bangladesh? What is the 
current assessment of the effectiveness of this program in increasing 
and improving their capacity to organize workers? In terms of numbers 
trained and increased capacity, what is the end-goal of the program?

    Answer. Initiated in 2011, USAID's Global Labor Program allocates 
approximately $500,000 to Bangladesh to strengthen freedom of 
association by enabling garment workers to organize unions and 
represent their interests through collective bargaining. This program, 
implemented by the Solidarity Center, also works at the national level 
to codify labor standards related to wages and worker safety. Already, 
1,850 activists have been trained on labor law, 185 trained on 
collective bargaining, 40 trained on comprehensive worker rights, and 
20 organizers have been mentored on organizing.
    The program already shows signs of success. The number of 
organizing committees formed has increased significantly in the first 
half of year in comparison to the 2 prior years of the program. In the 
last reporting quarter alone, organizers formed 21 new unions--11 
already registered--equivalent to the number of unions formed in all of 
the first year.

    Question. How many factoryowners and managers have been trained on 
workers' rights through USAID's Global Labor Program in Bangladesh? 
What is the current assessment of the effectiveness of this program in 
increasing their understanding of the role of trade unions and their 
acceptance of and cooperation with union leaders and trade unions in 
their factories? In terms of numbers trained and achievable outcomes, 
what is the end-goal of the program?

    Answer. As part of our comprehensive effort to support labor reform 
in Bangladesh, the U.S. Federal Mediation and Conciliation Service 
(FMCS) is working with the ILO on the critical early stages of 
developing a functioning industrial relations system in Bangladesh. 
FMCS has conducted negotiation and interest-based problem solving 
training to workers and management, including Bangladesh Export 
Processing Zone and Ministry of Labor officials, with the goal of 
providing an essential foundation for achieving real workplace rights 
and safety in Bangladesh. Since late 2012, two FMCS mediators have 
conducted three sessions of interest-based negotiation training under 
the ILO's Fundamental Principles and Rights at Work program. The 
sessions engaged more than 100 tripartite participants from RMG 
employers, BEPZA, unions, and Bangladesh's Ministry of Labor and 
Employment.

    Question. How many trainers have been trained through the State 
Department's Strengthening the Capacity of Independent Workers' 
Organizations in Bangladesh's Readymade Garment Section and Export 
Processing Zones program? How many trainers does the program plan to 
train through the program's expiration in December 2014? What kind of 
training will the program provide to organizers and activists, 
especially women, to increase their capacity to recruit and represent 
Bangladeshi garment workers?

    Answer. The Solidarity Center has received $495,000 through 
December 31, 2014, to implement the ``Strengthening the Capacity of 
Independent Workers' Organizations in Bangladesh's Readymade Garment 
Sector and Export Processing Zones'' program. The overall goal of the 
program is to improve the economic well-being and working conditions of 
Bangladeshi garment workers by strengthening their independent worker 
organizations. As of September 2013, the program has trained 40 
activists and leaders on plant-level organizing, including topics such 
as developing strategic organizing plans, identifying organizing 
targets and leaders, building organizing committees, charting the 
workplace and assessing workers, developing organizing messages, and 
understanding effective communication with workers. To support the 
organizers success in implementing their organizing strategies, the 
Solidarity Center is following up with the organizers on a weekly basis 
to get progress reports and work through challenges the organizers face 
in the implementation of the plans.
    The Solidarity Center also partnered with the Bangladesh Institute 
for Labor Studies (BILS) to increase the participation and skills of 
women to be active organizers and leaders of the workers' 
organizations. The Solidarity Center and BILS will soon begin gender 
equity training for 360 people to garner support from both male and 
female workers to address some of the challenges preventing women from 
joining or taking on leadership positions in the garment sector. In 
addition, the Solidarity Center and BILS will conduct women's 
leadership trainings for 720 people, focused on women leaders and 
activists.

    Question. How many collective bargaining agreements have been 
reached in factories outside the EPZs? How can programs sponsored by 
the United States Government increase the capacity of union leaders to 
reach collective bargaining agreements outside the EPZs?

    Answer. Collective bargaining agreements and union registration 
have increased substantially in 2013 compared to previous years. Over 
the last year, the Government of Bangladesh has registered 
approximately 50 new unions in the RMG sector, although about five are 
management-affiliated, and several unions have presented their charters 
of demands to employers and await a response. The Government of 
Bangladesh in August reregistered the Bangladesh Center for Workers 
Solidarity (BCWS), a prominent labor rights NGO and local implementing 
partner of the Solidarity Center.
    To increase the capacity of union leaders to reach collective 
bargaining agreements, the Solidarity Center program also focuses on 
developing more effective leaders, especially women. The Solidarity 
Center hosts full-day organizing practitioners' roundtables to allow 
RMG union organizers to report on their organizing projects and to 
develop new skills on organizing and bargaining techniques as they 
operate in an otherwise challenging environment. The Solidarity Center 
also plans to host seminars that include bargaining skills training to 
utilize occupational safety and health and fire safety material as the 
basis of negotiations with employers.

    Question. How many collective bargaining agreements have been 
reached in factories inside the EPZs? How can programs sponsored by the 
United States Government increase the capacity of Worker Welfare 
Societies to reach collective bargaining agreements inside the EPZs?

    Answer. Bangladesh has publicly committed to bringing the EPZ law 
into conformity with international standards, so that workers within 
EPZ factories enjoy the same freedom of association and collective 
bargaining rights as other workers in the country. The United States 
has pressed Bangladesh to extend the national labor law, the Bangladesh 
Labor Act, into EPZs and has warned authorities against union busting.
    Just as the Solidarity Center program works with unions outside the 
EPZs to reach collective bargaining agreements, it also engages in an 
almost identical way with Workers Welfare Associations (WWAs) inside 
the EPZs. Activities similarly focus on developing more effective 
leaders, especially women, by providing capacity-building for union 
leaders on effective collective bargaining techniques and occupational 
safety. The Solidarity Center hosts full-day organizing practitioner's 
roundtables to allow WWA organizers to report on their organizing 
projects and to develop new skills on organizing and bargaining 
techniques. The seminars utilizing OSH and fire safety material as the 
basis of negotiations with employers will include participation from 
unions and WWAs.

    Question. It appears that the Strategic Dialogue meeting in June 
was quite successful, and I understand that Secretary Kerry agreed with 
his Indian counterparts that the United States and India would work 
together in the leadup to Prime Minister Singh's visit to Washington 
this month to resolve a number of bilateral issues. These include 
outstanding trade and investment difficulties facing U.S. companies, 
possible resumption of talks on a Bilateral Investment Treaty, 
advancing the civil nuclear agreement, resolving defense contract 
issues, and making progress on a climate change (hydrofluorocarbons) 
agreement. These are all critical to advancing the bilateral 
relationship. In particular, however, I remain concerned about the 
generally deteriorating investment climate in India and the 
difficulties American companies are facing in doing business there. I 
made my concerns clear in the letter Senator Portman and I--along with 
38 other Senators--sent to Secretary Kerry prior to the Strategic 
Dialogue meeting, urging him to work with India to improve the business 
operation environment. There is great potential to expand our bilateral 
cooperation with India,

  <bullet> I would appreciate your comments on the state of bilateral 
        discussions to advance our mutual civil nuclear, defense 
        cooperation, and environmental interests, and also request an 
        update on the actions the administration is taking with India 
        to eliminate the challenges facing American companies, such as 
        forced local production, retroactive taxation, and inadequate 
        protection for intellectual property rights. How do you see 
        your role and that of the State Department in furthering these 
        various objectives?

    Answer. The U.S.-India Strategic Dialogue, launched in 2010, has 
significantly broadened and institutionalized engagement and 
cooperation between our two countries across a wide spectrum of 
interests and priorities. Challenges and opportunities related to the 
civilian nuclear and defense sectors, climate change, and India's trade 
and investment policies remain top priorities for advancing the U.S.-
India bilateral relationship. The 123 Agreement was a landmark in the 
United States-India relationship. While progress remains slow, 
particularly in the area of addressing concerns over India's domestic 
liability law, both sides are committed to working through the 
obstacles together, so that we can meet India's energy needs and help 
U.S. companies realize the agreement's commercial benefits.
    Defense sales to India during this administration have resulted in 
tens of thousands of jobs created across the country. United States-
India defense trade has grown from almost zero a decade ago to a 
cumulative total of nearly $9 billion today. If confirmed, I will 
continue to advocate on behalf of U.S. defense companies who seek to 
enter into India's defense market, and encourage the further 
streamlining and integration of our respective procurement procedures, 
and will support the efforts underway through the Defense Trade 
Initiative, to encourage greater defense cooperation.
    At the 4th U.S.-India Strategic Dialogue, Secretary Kerry and his 
Indian counterpart, External Affairs Minister Khurshid, announced a new 
bilateral Climate Working Group to elevate discussions on this 
administration priority, where Indian leadership is vital to global 
progress. More recently, G20 Leaders, including India, agreed to work 
more closely together in addressing dangerous hydrofluorocarbons. We 
also aim to work with India within the UNFCCC to advance efforts to 
reach an ambitious and inclusive international climate agreement for 
2015. Through the annual Energy Dialogue and its working groups, the 
U.S. Government and India are also advancing clean, low-carbon energy 
access and reliability solutions through joint programs such as the 
Partnership for the Advancement of Clean Energy (PACE).
    Advancing U.S. exports and access for U.S. companies abroad is a 
top priority for the Obama administration, including the Department of 
State. I understand that the Department of State, the Department of 
Commerce, USTR and other agencies continue to raise concerns with 
India, both bilaterally and in multilateral bodies such as the WTO, on 
a broad range of trade and investment concerns, including localization 
barriers and intellectual property protection. The State Department 
also plays an active role in the interagency task force on localization 
barriers to trade, established by USTR in 2012. We have also 
consistently raised the importance of a fair and predicable tax 
environment to U.S. businesses. Alongside the business community, the 
U.S. Government continues to make the case against policy measures that 
harm U.S. firms and prevent India from meeting its own growth and 
innovation goals.
    If confirmed, one of my top goals will be to ensure that the 
Department of State continues to coordinate with agencies across the 
U.S. Government to encourage Indian policymakers to adopt policies that 
create a level playing field for U.S. companies. We have many avenues 
for this engagement, including the U.S.-India CEO Forum, Bilateral 
Investment Treaty negotiations, the U.S.-India Commercial Dialogue, and 
the Trade Policy Forum. I will also work closely with our teams at our 
Embassy and consulates in India, who are actively engaged with Indian 
policymakers and opinion leaders on a daily basis to advance U.S. 
interests.
                                 ______
                                 

       Responses of Nisha Desai Biswal to Questions Submitted by 
                           Senator Bob Corker

    Question. For the past decade, the United States has consistently 
encouraged India to shoulder greater responsibility in international 
affairs. Yet New Delhi continues to shy away from assuming a more 
ambitious role on the international stage.

  <bullet> What accounts for India's reluctance to play a larger role 
        in international 
        affairs? Does New Delhi lack the political will or 
        institutional capacity or are other factors at play?
    Answer. While India's economic transformation since 1991 has 
fundamentally changed the way it engages with the international system, 
India is sometimes reticent about shouldering greater global 
responsibilities, particularly given its focus on domestic 
responsibilities. India's foreign policy and national security 
architecture is still growing and building capacity will take time--for 
example, India's foreign service, while growing, is still smaller than 
Singapore's.
    These factors, however, should not overshadow India's important 
role in the world, which has grown significantly over the last decade. 
A G20 member, India is playing a greater role in shaping regional 
architecture in Asia Pacific, has contributed $2 billion in assistance 
to Afghanistan, is the third-largest troop contributor to U.N. 
peacekeeping operations, and is an active development partner in Africa 
through the India-Africa Forum. The United States and India hold 
regular consultations on a wide range of issues, from global energy 
flows to the Indian Ocean Region.
    Like the United States at the turn of the 20th century, India's 
global emergence will not happen overnight, but because of our shared 
democratic values and convergence of interests, it remains in the U.S. 
interest to continue building a broad and vital partnership with India.

    Question. Does the United States overstate India's strategic 
importance? Why or why not?

    Answer. The priority we place on India reflects its growing global 
role and the potential of our partnership. Our European partners, 
Japan, Australia, Russia, and China are all eager to expand ties and 
enhance trade and investment with the Indian market. In the next two 
decades, India will become the world's most populous nation. Despite 
the recent slowdown, India remains one of the largest economies in 
Asia, and our bilateral trade in goods and services reached nearly $100 
billion in 2012. The world's largest democracy, India shares our 
commitments to pluralism and the rule of law. The 3-million strong 
Indian Diaspora underpins our strong people-to-people ties. With the 
world's third-largest army and a navy with growing blue water 
capabilities, India is an increasingly important security partner in 
Asia Pacific and beyond. Our strategic partnership will continue to 
grow given our democratic values, economic ties, and common interest in 
maintaining international norms.

    Question. What areas for cooperation exist for the United States 
and India to partner with others in the Indo-Pacific, including 
Australia and Japan?

    Answer. As part of its Look East policy, India has made expanding 
strategic and economic linkages in the Asia-Pacific a top priority and 
supports a strong U.S. presence in the region. This makes the Asia-
Pacific a natural area for cooperation, and over the last 4 years our 
collaboration has grown significantly. The United States and India hold 
a substantive, twice-yearly regional dialogue on East Asia. Together 
with Japan, we have also held four trilateral dialogues and a fifth 
round is expected to take place this fall in Tokyo. The trilateral 
discussions have focused on humanitarian assistance and disaster 
relief; space cooperation; and regional connectivity. India has also 
been invited to participate in the 22-country Rim of the Pacific 
(RIMPAC) naval exercise hosted next year by PACOM.
    The United States encourages India to take a greater leadership 
role in multilateral fora, including the East Asia Summit and ASEAN 
Regional Forum, due to our shared interests in maritime security, 
counterterrorism, nonproliferation, disaster relief, and other key 
issues. India signed an ASEAN Free Trade Services Agreement in December 
2012. Taking advantage of the opening in Burma, India, is a strong 
support of greater connectivity and economic integration in South East 
Asia, including an Indo-Pacific economic corridor. Both our countries 
also recognize the strategic importance of the Indian Ocean and have 
expanded our engagement in this vital region. India served as chair of 
the Indian Ocean Rim Association for Regional Cooperation in 2012, and 
was instrumental in helping secure Dialogue Partner status for the 
United States.
    India-Australia ties have been greatly bolstered by the Australian 
Labor Party's 2011 decision to overturn its prohibition of uranium 
sales to India, and through the commencement of civil-nuclear 
cooperation agreement negotiations in March 2013. Then-Prime Minister 
Gillard traveled to India in October 2012, and during a visit to 
Australia by Indian Defense Minister Antony in June 2013, the two 
countries agreed on enhanced security cooperation, including maritime 
exercises.

    Question. What role does South Asia play in the Obama 
administration's ``rebalance'' to Asia?

    Answer. Given the strategic and economic linkages between the 
Indian Ocean and the Western Pacific, South Asia, particularly India, 
is vitally important to advancing American interests in the Asia 
Pacific. In a February 2013 address, Indian Ambassador to the U.S. 
Nirupama Rao stated ``We welcome U.S engagement in Asia and the Indo-
Pacific. The continuance of economic growth and prosperity in both our 
countries is in many ways linked to the opportunities for growth and 
prosperity in this region. It is a space that impacts our destinies, 
whose security and prosperity is vital to both of us.'' Like the United 
States, India views this region as vital to its interests; India's own 
rebalance, the Look East Policy, is over two decades old. As we 
continue our rebalance to Asia, our growing cooperation in Asia Pacific 
is a testament to our shared interests.

    Question. The Bangladeshi High Court on August 1 declared illegal 
the registration of the political party Jamaat-i-Islami with the 
Election Commission. The order came following a petition filed in 2009 
challenging the legality of Jamaat's charter under the country's 
constitution. If the verdict stands, Jamaat would be unable to compete 
in upcoming national elections scheduled to be held in January 2014.

  <bullet> What is your view of the Sheikh Hasina Government's efforts 
        to ban the Jamaat from the political process?

    Answer. We support the democratic process and respect for the rule 
of law. One of Bangladesh's great strengths is its commitment to 
pluralism. The Bangladesh High Court cancelled the registration of 
Jamaat-e-Islami as a political party after hearings on a petition filed 
by private citizens. This is a matter to be decided by Bangladeshi 
authorities, in accordance with Bangladeshi law and the Bangladeshi 
Constitution.

    Question. There is concern that if the ruling Awami League Party 
and the opposition Bangladesh National Party (BNP) fail to agree on the 
mechanisms for conducting impartial elections, the BNP may refuse to 
participate in the electoral process.

  <bullet> What impact would a BNP poll boycott have on political 
        stability in Bangladesh?

    Answer. A BNP boycott of the elections may lead to increased 
political protests and street violence. Such protests and violence 
could undermine Bangladesh's political stability and economic 
development. We have repeatedly urged the leaders of the major parties 
in Bangladesh to come together and agree on a way forward that will 
ensure free, fair, and credible elections in the coming months. What 
the way forward looks like is for the parties of Bangladesh to decide, 
but we firmly believe violence is never an acceptable solution and call 
upon all parties to refrain from the use of violence. Secretary Kerry 
wrote to Prime Minister Hasina and BNP leader Begum Zia on September 8, 
encouraging them to engage in constructive dialogue.
                                 ______
                                 

       Responses of Nisha Desai Biswal to Questions Submitted by 
                          Senator James Risch

    Question. Administrations for decades have sought to build deeper 
economic integration throughout Central Asia, but these efforts have 
met, at best, with modest success.

  <bullet> What do you see as the obstacles to success and what changes 
        would you prioritize to improve the chances of success for the 
        region?

    Answer. U.S. engagement and assistance have fostered economic 
development among the five Central Asian states. Initiatives such as 
the New Silk Road seek to link the economies and infrastructure of 
central Asia, Afghanistan, and south Asia. The United States has worked 
closely with multilateral and bilateral partners to support regional 
efforts to strengthen business and infrastructure links between the 
central Asian countries and Afghanistan, links that would aid their 
economic development and strengthen regional stability as well as 
Afghanistan's fiscal sustainability. The United States has also 
leveraged the Asian Development Bank's Central Asia Regional Economic 
Cooperation framework, which provides billions to advance regional 
development programs.
    Regional consensus around the importance of economic integration is 
growing. Kazakhstan has recognized the value of, and become a strong 
advocate for, greater regional economic integration. Turkmenistan is 
working with Afghanistan, Pakistan, and India on a natural gas pipeline 
that will connect gas reserves in central Asia with growing demand for 
energy in south Asia. With support from our multilateral development 
bank partners, rail and electricity projects are under construction and 
helping build a stronger foundation for regional economic integration. 
Efforts to build people-to-people links, through regional projects such 
as two U.S.-supported symposia on women's economic empowerment, also 
advance our goals for regional economic integration.
    The United States strongly believes that everyone's interests are 
served by inclusive and transparent trade regimes such as the WTO. To 
this end, we have encouraged and supported the central Asian states and 
Afghanistan in their WTO aspirations. Kyrgyzstan and Tajikistan are 
already members; Afghanistan and Kazakhstan are making good progress 
toward achieving membership; and other states have also expressed 
renewed interest.
    While historically limited regional cooperation and securing 
international financing for large infrastructure have been challenges, 
these recent developments all show that central Asian states recognize 
the importance of regional integration. Continued strong U.S. support 
for these regional initiatives not only helps overcome past challenges 
these countries faced in working with each other, but also supports our 
interest in a secure, stable, and prosperous region.

    Question. Please explain U.S. policy toward the Eurasian Union.

    Answer. The United States does not oppose formation of the Eurasian 
Economic Union (EEU), to the extent that it is consistent with the 
prospective members' WTO and other international trade commitments. The 
United States believes strongly in the importance of inclusive and 
transparent trade regimes such as the WTO. We have an interest in 
continued engagement with the future members of the EEU to promote U.S. 
trade and investment interests. There are 170 million consumers living 
in Russia and other countries that form the current Customs Union, 
which will become the EEU in 2015.
    However, the EEU can only promote the stability and prosperity it 
aims to achieve if it is truly voluntary and presents benefits to all 
member states. We have an interest in the EEU's development as a 
responsible member of the global economic system, rather than serving 
as a mechanism to protect internal industries and domestic 
constituents. The extreme inequality in size between the EEU's members 
means that it will be both important and challenging for negotiators to 
ensure that all EEU provisions and regulations are genuinely equal for 
all parties and will not constrain the ability of member states to 
liberalize trade and adopt the global framework of the WTO and other 
international arrangements.

    Question. What are the major obstacles in India to completing a 
Bilateral Investment Treaty with India?

    Answer. The United States Government remains committed to 
concluding a Bilateral Investment Treaty (BIT) with India that will 
help support our common goal of expanding foreign investment in each 
others' economies. A BIT would provide greater protections and 
opportunities for U.S. firms seeking to invest in India for the first 
time or expand existing investments.
    In the past 10 years, the U.S. model text for our Bilateral 
Investment Treaties (BITs) has evolved to meet the needs of a variety 
of stakeholders. India is currently in the process of updating its 
model BIT agreement. Our current model BIT texts differ in several 
areas, including the treatment of investors prior to the time the 
investment is made, the coverage of local content requirements, and the 
approach to international arbitration. The U.S. model BIT also includes 
important labor and environment provisions that are not included in the 
model texts of many countries.
    A BIT with India could stimulate Indian investment into the United 
States. India is one of the fastest growing sources of investment into 
the United States. Indian foreign direct investment in the United 
States increased from $227 million in 2002 to almost $5.2 billion in 
2012, supporting tens of thousands of U.S. jobs.
    The United States and India have engaged in BIT negotiations since 
2008, with the last round held in June 2012. Both countries agree that 
concluding a BIT is a top economic priority, and we are pursuing 
further negotiations toward a comprehensive treaty, which has high 
standards, meets the needs of businesses, and more clearly defines 
investment rules and practices.

    Question. While India has focused heavily on its border with 
Pakistan, India is growing more concerned about its border with China. 
Please explain these concerns and what assistance the United States can 
provide.

    Answer. India has expressed a desire to build a positive 
relationship with China, but issues relating to a longstanding disputed 
border have led to friction in the relationship. The boundary begins 
north of Kashmir, in the Aksai Chin region, which is administered by 
China but claimed by India. From there the line runs southeast in three 
segments to the northeastern Indian state of Arunachal Pradesh. Most of 
Arunachal Pradesh is claimed by China as part of Tibet, and this area 
saw fierce fighting during the 1962 Sino-Indian war. The eastern part 
of the boundary, between Bhutan and Burma, is also referred to as the 
McMahon Line, a 1914 colonial boundary agreed to by British India and 
Tibet, but never recognized by China. The United States officially 
recognizes the McMahon Line as India's northeastern border with China.
    Most recently, in April a People's Liberation Army incursion across 
the Line of Actual Control occurred in the Ladakh region. The Chinese 
State Councilor responsible for foreign affairs and the Indian National 
Security Advisor have held multiple rounds of border talks.
    The United States continues to encourage greater dialogue between 
India and China, including dialogue for a peaceful settlement of their 
boundary disputes.


     NOMINATIONS OF CAROLINE KENNEDY, ANNE PATTERSON, GREGORY STARR

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Caroline Kennedy, of New York, to be Ambassador to Japan
Hon. Anne W. Patterson, of Virginia, to be Assistant Secretary 
        of State for Near Eastern Affairs
Gregory B. Starr, of Virginia, to be Assistant Secretary of 
        State for Diplomatic Security
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Murphy, Kaine, 
Markey, Corker, Risch, Flake, McCain, and Barrasso.
    Also Present: Senators Charles Schumer and Kristen 
Gillibrand.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order. Today we have a 
distinguished group of nominees for some critical positions in 
our Foreign Service. We will start off with the nominee for the 
ambassadorship to Japan, Caroline Kennedy. Normally, the chair 
and ranking member would make their opening statements first, 
but since we have two of our colleagues here today we are going 
to extend them the courtesy of making their comments and 
presentations to the committee first, and then we will give our 
opening statements. We look forward to having our two 
distinguished colleagues present their constituent from the 
State of New York.
    I also appreciate my colleague and friend, Congressman 
Crowley being here in the audience as well.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I want to thank 
you and Senator Corker, not only for the courtesy of 
introducing our great constituent, but for the great job you 
have been doing on this committee, and thank all the members 
for being here.
    Mr. Chairman, Ranking Member Corker, it is my great 
privilege to introduce an individual who is well known to this 
committee, to most Americans, and to so many people around the 
world. Caroline Bouvier Kennedy is an American author, editor, 
philanthropist, and attorney, and I am proud to present her as 
President Barack Obama's nominee to be the next Ambassador to 
Japan.
    I would like to welcome her lovely family, who I have had 
the privilege of knowing. Her husband Edwin Schlossberg and two 
of her three wonderful children are here: Tatiana, who actually 
went to high school with my daughter, and John. And Rose is in 
California, as well as Vicki Kennedy, Tim Shriver, John 
Bouvier, who are joining us here today as well. I am also sure 
that her father, mother, her uncles, and extended family are 
looking down with pride upon this hearing.
    I should also note that I am extremely impressed that 
Caroline made it to this hearing today. You see, Mr. Chairman, 
just this past weekend she and her daughter Tatiana swam the 
Hudson River to raise money for the Leukemia and Lymphoma 
Society. It is a 3-mile swim from Nyack to Sleep Hollow, Mr. 
Chairman. I am not sure either of us could have accomplished 
that amazing feat.
    But back to the introduction. Caroline Kennedy was educated 
in New York and Massachusetts. She attended the Brearley 
School, the Convent of the Sacred Heart, and the Concord 
Academy. She earned her bachelor of arts at Radcliffe College 
at Harvard University, her J.D. from Columbia Law School, 
graduating in the top 10 percent of her class.
    From there, she embarked on a long and distinguished career 
that has spanned law and politics, as well as education and 
charitable work. It is a career that leaves me no doubt she is 
well qualified to take on this great task that awaits her if 
she is confirmed as the next United States Ambassador to Japan.
    Caroline Kennedy grew up in the public eye and we as a 
nation grew up with her, sharing her joys as well as her 
heartbreaks. Born into a family that has built a legacy of 
service, both domestic and globally, she has dedicated her life 
to public service and to the elevation of our public debate, 
something badly needed these days. She has authored and edited 
books on the Bill of Rights, the right to privacy, poetry, and 
patriotism. She has served as a member of many, many boards of 
directors, the Commission on Presidential Debates, the NAACP 
Legal Defense and Educational Fund, and New York City's Fund 
for the Public Schools.
    She also serves as an adviser to the Harvard Institute of 
Politics and as president of the Kennedy Library Foundation, 
something all of us here have taken a great interest in because 
it is doing such a great job up there in Massachusetts.
    In 2002 Caroline turned her attention to New York City's 
public schools and she accepted Mayor Bloomberg's offer to 
serve in the New York City Department of Education as the 
Director of the Office of Strategic Partnerships. In that 
position she succeeded in raising tens of millions in private 
funding to help modernize New York City's public schools, and 
we have many beautiful, new, up-to-date public schools in New 
York teaching kids, giving them a path, because of her efforts.
    You see, Mr. Chairman, Caroline Kennedy represents the best 
of what our Nation has to offer and her dedication to public 
service continues in her desire to represent our Nation in 
Japan.
    Too often forgotten in the history of the United States-
Japanese relations is the critical role her father, President 
John F. Kennedy, and her uncle, Senator Bobby Kennedy, played 
in stabilizing that relationship in a time of crisis. Their 
efforts enhanced bilateral relations on a personal, cultural, 
and diplomatic basis and helped solidify the close and enduring 
ties between our countries that have lasted to this very day. A 
half century later, Mr. Chairman, I am fully confident that 
Caroline Kennedy will help nurture those ties built by her 
father and uncle and no doubt strengthen relations for another 
half century to come.
    We all know that Japan remains one of our important allies 
in the Asia-Pacific region. It is a critical partner as we 
continue our economic strategy and pivot to the region. It is 
entering one of the most exciting periods in its history, 
because Japan is launching a bold economic program, which 
includes a major focus on women in the workforce, what has come 
to be called ``womenomics.'' I am confident that Caroline 
Kennedy will serve as a role model for Japanese, as well as 
American, women, especially in light of the fact that, if 
confirmed, she would be the first woman to be Ambassador to 
Japan, something that makes me and Senator Gillibrand very, 
very happy.
    Caroline's appointment would be a reaffirmation of the 
importance we place on bilateral relations at a time when Prime 
Minister Abe says ``Japan is back.''
    As you well know, Mr. Chairman, a key to successful 
ambassadors in Japan and elsewhere has been a close 
relationship that the ambassador has with the President. 
Caroline Kennedy has precisely the sort of close relationship 
with President Barack Obama that will ensure United States-
Japan relations remain a focus at the very highest levels.
    I have known her for many years. We have worked on many 
things together. She is one of the most sincere individuals I 
have ever met. Her passion to do right and do good burns so 
strongly within her. And I am certain that she will be able to 
take our dynamic relationship with Japan to new heights.
    So I am proud to wholeheartedly support Caroline Kennedy's 
nomination to be the next Ambassador to Japan, and I hope my 
colleagues will unanimously support her as well.
    Thank you for the privilege--it is truly a privilege--to 
make this introduction.
    The Chairman. Thank you, Senator Schumer.
    Senator Gillibrand.

           STATEMENT OF HON. KIRSTEN E. GILLIBRAND, 
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Senator Schumer, for those 
great remarks.
    Thank you, Mr. Chairman, Ranking Member Corker. I am deeply 
honored to have the opportunity to introduce you today to Ms. 
Caroline Kennedy, a favorite daughter of New York, as 
Ambassador-designee to Japan. The confidence President Obama 
and Secretary Kerry have placed in her to represent the United 
States in Japan and advance relations with a key U.S. ally in 
the Asia-Pacific region is well earned.
    Ms. Kennedy has proven herself extraordinarily qualified 
for the position and the Nation will be stronger with her 
presence in Japan as the United States rebalances diplomatic 
engagement and resources toward the Asia-Pacific region. In 
addition to Ms. Kennedy's distinguished career as an author and 
an attorney, as president of the John F. Kennedy Library 
Foundation and chair of the Senior Advisory Committee of the 
Institute of Politics at Harvard University, she has dedicated 
much of her life to charitable and educational service. Her 
work has helped inspire generations of students and others to 
make their voices heard and to serve and strengthen our 
country.
    I had the pleasure of visiting the Asia-Pacific region 
earlier this month, including Tokyo, where I was able to 
discuss with Japanese officials the deep and abiding 
relationship between the United States and Japan. This 
relationship has stood for decades and is a cornerstone in our 
efforts to bolster stability and security throughout the region 
amidst a rising number of challenges, including the ever-
provocative North Korean regime intent on expanding its nuclear 
program over the objections of the international community.
    Ms. Kennedy is undoubtedly the right person to advance and 
strengthen relationships with our Japanese ally in the face of 
these challenges and will play a key role in the 
administration's rebalance toward the Asia-Pacific region.
    Finally, I am pleased to note that Ms. Kennedy would be the 
first woman ever to serve as U.S. Ambassador to Japan. During 
my trip to Japan, I had the chance to speak with a number of 
young women regarding the importance of women's leadership 
there.
    Through her life, her work, her intellect, and her 
character, Ms. Kennedy will undoubtedly serve as a shining 
example of Japanese and American women, showing the power and 
potential of women in public service and how far we can go when 
women lead the way.
    Mr. Chairman, I want to thank you again for the privilege 
of introducing this outstanding nominee.
    Ms. Kennedy, I wish you great success as you undertake this 
very important post. I am fully confident that your passion and 
dedication will make you and our home State of New York proud. 
I look forward to your testimony.
    Thank you.
    The Chairman. Well, thank you both for the tremendous 
statements on behalf of Ms. Kennedy. We know that you have busy 
schedules, so please do not hesitate to move on to your next 
meetings whenever you need to. But you are welcome to stay as 
long as you wish.
    Let me again welcome our nominee this morning, Ms. Caroline 
Kennedy Schlossberg of New York, to be the Ambassador to Japan. 
Let me welcome the family as well, because we always say that 
the families of those who make a commitment to Foreign Service 
are part of that commitment, and we appreciate their 
willingness to sacrifice and be part of that service to the 
Nation.
    Let me take the opportunity to recognize the distinguished 
Ambassador of Japan to the United States, Ambassador Sasae, who 
is here today. Welcome, Mr. Ambassador. Thank you for being 
here. We appreciate you taking the time to join us.
    Let me just say, Senator Rubio wanted it to be known for 
the record that he cannot attend today's hearing because of a 
death in his family, but otherwise he would have been present 
for this hearing. So we send our condolences to him and his 
family.
    To all of us on both sides of the aisle, no matter our 
politics, the Kennedy name has been synonymous with public 
service for over a century, a family that has sacrificed so 
much in service to the Nation. Ms. Kennedy, your uncle Ted was 
a good friend to me here in the Senate, probably one of the 
best friends I had when I came here, and a good friend to many 
of our colleagues. His ability to express strong convictions, 
yet find a way to reach across the aisle, was a compelling 
example of what good governance is all about. Vicki, it is 
great to see you here today as you join in your niece's efforts 
here.
    You represent a legacy of the best and brightest in 
politics in a time in our history when we were at the 
confluence of intellectualism and a respect for public service 
in government. You bring to this opportunity to serve the 
Nation an extraordinary range of qualifications beyond the 
oversimplified perceptions of your family pedigree--your own 
experiences, your own abilities, your own perspective, that 
uniquely qualify you for this position.
    As an author and editor, president of the John F. Kennedy 
Library Foundation, chair of the Senior Advisory Committee of 
the Institute of Politics at Harvard, a trustee of the Kennedy 
Center for the Performing Arts, vice chair of the Fund for 
Public Schools in New York City, board member of New Visions 
for Public Schools, honorary chair of the American Ballet 
Theater, board of directors of the NAACP, as well as on the 
Commission on Presidential Debates, you have lived a life that 
honors your family's history of service to the arts and 
education, government, and the Nation. I believe you will bring 
a broad intellectual curiosity and commitment to serve in your 
new role as Ambassador.
    If confirmed, as my colleagues have said, you will be the 
first woman to represent the United States as our Ambassador to 
Japan, a post that has been held by some of the most respected 
leaders in our country: former Senator Mike Mansfield, the 
longest serving U.S. Ambassador to Japan; former Speaker of the 
House Tom Foley; and former Vice President Walter Mondale.
    It is a post that has always been and remains of the utmost 
importance to this Nation and to the people of Japan. Your 
nomination underscores the regional importance of the 
relationship between our two nations.
    Now, having just visited Japan and the region this past 
August, I can tell you that you will assume these new duties 
amidst the rise of the Asia-Pacific region, which may well 
prove to be the single most transformative geopolitical shift 
of the 21st century. You will arrive in Tokyo at a time when 
friction between Japan and China on maritime disputes is high 
and many other challenges lie ahead as Asia-Pacific issues 
become global in nature.
    You will arrive as the region takes on new economic 
importance. In 2010 U.S. exports to the Asia-Pacific region 
totaled $775 billion, up almost 26 percent from 2009. In 2011 
they totaled $895 billion, accounting for 60 percent of our 
exports, creating and sustaining millions of U.S. jobs in 
sectors across the board, from automobiles to power generation, 
machinery, aircraft, and other vital sectors of our industrial 
economy. In just 3 years we have gone from $775 billion in 
exports to the region to almost $900 billion, and we can assume 
that figure will be a trillion in the not too distant future.
    I think it is safe to say that for the rest of this century 
and beyond, much of the strategic, political, and economic 
future of the world will likely be shaped by the decisions made 
in Washington and the capitals in this region over the next 4 
to 5 years.
    Our alliance with Japan is a cornerstone of our strategic 
engagement in Asia, which will put you front and center in the 
United States-Japan partnership, a partnership of equals that 
links the world's first- and third-largest economies and 
highlights our shared commitment to democracy and human rights. 
Japan is a valuable trade and economic partner of the United 
States. Its views on regulation, the environment, and 
intellectual property complement those of the United States, 
and your voice on these issues will be America's voice in 
Tokyo.
    On the Trans-Pacific Partnership, we look forward to 
working with Japan toward a comprehensive agreement that 
addresses labor, the environment, currency manipulation, and 
intellectual property rights. For Congress to support the TPP, 
we need to be assured that our industries are competing with 
Japanese industries on a level playing field. As Ambassador, 
you will be part of that effort. You will be at the table on 
illues concerning our military presence in Japan, like Okinawa. 
You will be there to bridge differences on any issues that may 
arise between our two nations.
    So let me close by quoting your father from a commencement 
address he gave at Syracuse University the year you were born, 
not too long ago, which described the nexus between education 
and intellectualism and the importance of public service, 
reminding students that, ``Our Nation's first great politicians 
were truly our ablest, most respected, most talented leaders, 
who moved from one field to another with amazing versatility 
and vitality.''
    In that speech he reminded graduates that a contemporary 
described Thomas Jefferson as ``a gentleman who could calculate 
an eclipse, survey an estate, tie an artery, plan an edifice, 
try a cause, break a horse, dance a minuet, and play the 
violin.'' Now, I do not believe your father would have expected 
you to dance a minuet, but his point is well taken. Your 
background, your experience, your versatility, your intellect, 
and the legacy of service your family has stood for in American 
history makes you exactly the kind of person we need to serve 
the interests of this Nation as Ambassador to Japan.
    Let me turn to my distinguished colleague, the ranking 
member, Senator Corker, for his comments.

             OPENING STATEMENT OF HON. BOB CORKER, 
                   U.S. SENATOR FROM TENNESSE

    Senator Corker. Thank you, Mr. Chairman.
    I want to thank our two Senators from New York, who are 
highly respected, for being with us today, and certainly the 
nominee. I enjoyed our time together a couple days ago, and 
thank you for your lifetime of public service in a different 
way. I know you are doing something, or getting ready to do 
something, that is very, very different and it will have its 
own challenges. But I very much appreciate your desire to serve 
in this way.
    Having your family here, as I mentioned in the back room, I 
doubt you are going to get much of a hard time today, for lots 
of reasons, but having your kids here ensures that that will be 
the case. I am glad that they are there, and certainly enjoyed 
talking with Vicki a little bit about her husband and our 
friend, and certainly appreciate the wonderful legacy that you 
and your family have in public service.
    I want to also thank our Ambassador to the United States 
from Japan for being here. I think it signifies the tremendous 
role that you are going to be playing in Japan. Japan--I was 
just there also--relishes having people of great notoriety and 
public acclaim, and certainly in this case they are getting 
that in a heavy dose. I am glad that you are willing to do 
this, again.
    You know, there are a lot of difficult issues in Japan 
right now, as we talked about the other day. While the 
relationship is a cornerstone of stability in the Asian-Pacific 
region and I know you know that well--we have 50,000 troops 
there. There are issues with North Korea that you as Ambassador 
will be heavily involved in. And we have the issues of 
strengthening our maritime abilities in that area, and I know 
that again that will be something that you will be focused on.
    The fact that Japan was willing to enter the TPP 
negotiations was a game-changer, and I know our chairman 
alluded to some of the challenges that you will be dealing with 
there to ensure that we are able to compete on an equal basis.
    I know as I was there Prime Minister Abe was very concerned 
about Washington's ability to deliver on the relationships that 
we have with some of the financial issues that we are dealing 
with here internally in our country. I know that you are going 
to have to be a champion for our national interests and 
assuring the Japanese people that we are going to honor those 
commitments. I know you are going to be willing to do that.
    We still have the thorny issues, as you and I talked about 
in the office, regarding the relocation of the troops that we 
have there and some of the issues that internally the people of 
Japan have with us right now regarding that. But I know you are 
going to do that well.
    Mr. Chairman, I know we have a second panel that is coming. 
I am going to go ahead and make my comments relative to them 
very briefly to save time. I know we have an ambassador's 
ambassador, if you will, coming up, Anne Patterson. I want to 
thank her for her wonderful public service also. She will be 
looking after the areas of the Middle East and North Africa. I 
do not know if we have a more qualified ambassador in our 
Foreign Service, and I know that she is going to have to 
develop a coherent, comprehensive strategy for how we deal with 
a lot of thorny issues, including and specifically Syria and 
Egypt. I think the American people are going to need to fully 
understand the importance of Syria to our country and what our 
national interests are there. I know you will articulate that 
well.
    In Egypt, while we might not like what the military has 
done in every way, we have a very important relationship with 
them. I know you will help lead us to a very good place there, 
keeping in mind that we have a lot of national interests. And I 
know that you will help us figure out a way to balance our 
security interests, but also our interest in democracy and 
human rights.
    To Greg: I appreciate you being here regarding the 
diplomatic piece. I was, as you know, in Libya right after the 
events of that time. I know our diplomatic posts are very much 
at risk around the world. I thank you for your commitment in 
that regard. I know that what happened in Iraq was heroic in 
many ways and shows the best of our diplomatic security. At the 
same time, there is a lot of money that is flowing into 
Afghanistan and Iraq and that is not the case in many other 
places. I know that you will attack this job with great fervor.
    So I thank all three of you for offering yourself in this 
way. I look forward to your comments and questions and 
certainly look forward to your service.
    The Chairman. Thank you, Senator Corker. I will have some 
comments to make about our other nominees when I introduce them 
before the full committee.
    Ms. Kennedy, it is now an opportunity for you to make a 
statement before the committee. Your full statement will be 
included in the record without objection, and the floor is 
yours.

          STATEMENT OF CAROLINE KENNEDY, OF NEW YORK, 
            TO BE UNITED STATES AMBASSADOR TO JAPAN

    Ms. Kennedy. Mr. Chairman, Ranking Member Corker, members 
of the committee, Senator Schumer, Senator Gillibrand, it is an 
honor to appear before you this morning as the President's 
nominee to serve as the United States Ambassador to Japan. I 
appreciate the confidence that President Obama and Secretary 
Kerry have shown in nominating me for this important position, 
and I am grateful for the consideration of this distinguished 
committee.
    I appreciate the opportunity to be here today to answer 
your questions and hear firsthand your thoughts and concerns 
about our essential relationship with Japan. If confirmed, I 
look forward to working with the committee and with other 
Members of Congress to advance the interests of the United 
States, protect the safety of our citizens, and strengthen the 
bilateral relationship to the benefit of both our countries.
    I would also like to thank my family for their support 
throughout this process and their enthusiasm for this mission. 
My husband, Ed, is here along with two of my three children, my 
daughter, Tatiana, and my son, Jack, and I am so pleased that 
my aunt, Vicki, could be here this morning as well. She carries 
with her every day the spirit of my uncle, Teddy, whose 
devotion to this institution, to his colleagues and our country 
was an inspiration to all of us.
    I am humbled to be following in the footsteps of some of 
Congress' most distinguished members--Senator Mansfield, Vice 
President Mondale, Speaker Foley, and Senator Baker. If 
confirmed, I will try every day to live up to the standard they 
set in representing the United States and advancing our 
relationship with Japan. I am also grateful to Ambassador Tom 
Schieffer and especially to Ambassador John Roos and Susie Roos 
for their generous advice and wisdom.
    I would also like to acknowledge Ambassador Sasae from the 
Embassy of Japan, who is himself a distinguished diplomat and 
has been a steadfast friend to the United States.
    I can think of no greater honor than to represent my 
country abroad. I have spent my career working to make American 
history and ideals accessible to the widest possible audience 
and in particular to younger generations. As President of the 
Kennedy Library, I am proud that my father became the first 
digital President when we made his papers available online 
around the world. As chair of Harvard's Institute of Politics, 
I have worked to train new generations of leaders to pursue 
careers in public service and expand international 
opportunities for students.
    In my books on the Bill of Rights and the right to privacy, 
I sought to engage young audiences in the debate over our 
fundamental rights and give them the tools and understanding to 
advance and defend our liberties.
    For the past 10 years I have been working with the New York 
City public schools on education reform efforts. In a school 
system where students speak more than 130 languages at home, I 
worked to increase individual literacy, cultural awareness, 
college access, arts education, and international exchange 
programs. I saw the power of public-private partnerships to 
leverage involvement and results, and if confirmed I look 
forward to building upon these experiences to strengthen the 
ties between young people in Japan and the United States.
    And finally, this appointment has a special significance as 
we commemorate the 50th anniversary of my father's Presidency. 
I am conscious of my responsibility to uphold the ideals that 
he represented--a deep commitment to public service, a more 
just America, and a more peaceful world. As a World War II 
veteran who served in the Pacific, he had hoped to be the first 
sitting President to make a state visit to Japan. If confirmed 
as Ambassador, I would be humbled to carry forward his legacy 
in a small way and represent the powerful bonds that unite our 
two democratic societies.
    I can think of no country in which I would rather serve 
than Japan. I first visited in 1978 with my uncle, Senator 
Kennedy, and was deeply affected by our visit to Hiroshima. Our 
countries are bound by deep political, economic, cultural, and 
strategic ties, and our partnership has a global reach. The 
United States and Japan share a commitment to freedom, human 
rights, and the rule of law. Japan is the world's third-largest 
economy, our fourth-largest trading partner, and the second-
largest source of foreign direct investment in the United 
States.
    Japan is home to 50,000 U.S. troops, the Seventh Fleet, and 
170,000 American citizens. As the United States rebalances 
toward Asia, our alliance with Japan remains the cornerstone of 
peace, stability, and prosperity in the region, as it has been 
for more than 50 years. If confirmed, I will work closely with 
the leadership in the U.S. military to further strengthen our 
bilateral security relationship.
    At the same time, Japan is an indispensable partner in 
promoting democracy and economic development in the region, as 
well as in global humanitarian efforts and peacekeeping. These 
are areas I care deeply about, and if confirmed I will work to 
further strengthen this critical partnership at a vital moment 
in its history.
    This is indeed an important moment in the history of United 
States-Japan relations. Japan is enjoying a period of political 
stability and economic renewal and is eager to increase trade 
and investment with the United States. If confirmed, I look 
forward to working with American business to expand and promote 
American exports, trade, and support initiatives such as the 
Trans-Pacific Partnership.
    In addition, I will work to increase exchanges between 
American and Japanese students, scholars, and citizens, so that 
future generations will understand our shared history and 
continue to bind our nations closer.
    Finally, if confirmed I will meet my most fundamental 
responsibility, to promote and protect the welfare of all 
American citizens in Japan. This includes providing a safe and 
secure environment for U.S. Government employees and their 
families.
    I especially look forward to benefiting from the support of 
the talented Foreign Service professionals, both American and 
locally engaged staff, at our mission in Japan.
    I would like to thank this committee for your consideration 
of my nomination. If confirmed, I look forward to working 
closely with you to advance our national interests, protect our 
citizens, and deepen our ties with Japan.
    Thank you.
    [The prepared statement of Ms. Kennedy follows:]

                 Prepared Statement by Caroline Kennedy

    Mr. Chairman, Ranking Member Corker, and members of the committee, 
it is an honor to appear before you this morning as the President's 
nominee to serve as United States Ambassador to Japan. I appreciate the 
confidence that President Obama and Secretary Kerry have shown in 
nominating me for this important position, and I am grateful for the 
consideration of this distinguished committee.
    I appreciate the opportunity to be here today; to answer your 
questions and hear first-hand your thoughts and concerns about our 
essential relationship with Japan. If confirmed, I look forward to 
working with the committee and with other Members of Congress to 
advance the interests of the United States, protect the safety of our 
citizens, and strengthen the bilateral relationship for the benefit of 
both our countries.
    I would also like to thank my family for their support throughout 
this process, and their enthusiasm for this mission. My husband Ed is 
here along with two of my three children, my daughter, Tatiana, and my 
son, Jack. I am so pleased that my aunt, Vicki, is here as well. She 
carries with her every day the spirit of my uncle, Teddy, whose 
devotion to this institution, to his colleagues and country, was an 
inspiration to all of us.
    I am humbled to be following in the footsteps of some of Congress' 
most distinguished members--Mike Mansfield, Walter Mondale, Tom Foley, 
and Howard Baker. If confirmed, I will try every day to live up to the 
standard they set in representing the United States and advancing our 
relationship with Japan. I am also grateful to Ambassador Tom Schieffer 
and especially to Ambassador John Roos and Susie Roos for their 
generous advice and wisdom.
    I would also like to acknowledge Ambassador Sasae from the Embassy 
of Japan, who is himself a distinguished diplomat and who has been a 
steadfast friend of the United States.
    I can think of no greater honor than to represent my country 
abroad. I have spent my career working to make American history and 
ideals accessible to the widest possible audience, and in particular, 
to younger generations. As President of the Kennedy Library, I am proud 
that my father became the first ``digital'' President, when we made his 
papers available online around the world. As Chair of Harvard's 
Institute of Politics, I have worked to train new generations of 
leaders to pursue careers in public service and to expand international 
opportunities for students.
    In my books on the Bill of Rights and the Right to Privacy, I 
sought to engage young audiences in the debate over our fundamental 
rights and to give them the tools and understanding to advance and 
defend our liberties.
    For the past 10 years I have been working with the New York City 
public schools on education reform efforts. In a school system where 
students speak more than 130 languages, I worked to increase individual 
literacy, cultural awareness, college access, arts education and 
international exchange programs. I saw the power of public-private 
partnerships to leverage involvement and results, and, if confirmed, I 
look forward to building upon those experiences to strengthen the ties 
between young people in Japan and the United States.
    And finally, this appointment has a special significance as we 
commemorate the 50th anniversary of my father's Presidency. I am 
conscious of my responsibility to uphold the ideals he represented--a 
deep commitment to public service, a more just America and a more 
peaceful world. As a World War II veteran who served in the Pacific, he 
had hoped to be the first sitting President to make a state visit to 
Japan. If confirmed as Ambassador, I would be humbled to carry forward 
his legacy in a small way and represent the powerful bonds that unite 
our two democratic societies.
    I can think of no country in which I would rather serve than Japan. 
I first visited in 1978 with my Uncle, Senator Kennedy, and was deeply 
affected by our visit to Hiroshima. Our countries are bound by deep 
political, economic, cultural and strategic ties, and our partnership 
has a global reach. We share a commitment to freedom, human rights, and 
the rule of law. Japan is the world's third-largest economy, our 
fourth-largest trading partner, and the second-largest source of 
foreign direct investment in the United States.
    Japan is home to 50,000 U.S. troops, the U.S. 7th Fleet, and 
170,000 American citizens. As the United States rebalances toward Asia, 
our alliance with Japan remains the cornerstone of peace, stability, 
and prosperity in the region, as it has been for more than 50 years. If 
confirmed, I will work closely with the leadership in the U.S. military 
to further strengthen our bilateral security relationship.
    At the same time, Japan is an indispensable partner in promoting 
democracy and economic development in the region, as well as in global 
humanitarian efforts and peacekeeping. These are areas I care deeply 
about, and, if confirmed, I will work to further strengthen this 
critical partnership at a vital moment in its history.
    This is indeed an important moment in the history of U.S.-Japan 
relations. Japan is enjoying a period of political stability and 
economic renewal and is eager to increase trade and investment with the 
United States. If confirmed, I look forward to working with American 
business to promote American exports, expand trade, and support 
initiatives such as the Trans-Pacific Partnership.
    In addition, I will work to increase exchanges between American and 
Japanese students, scholars, and citizens so that future generations 
will understand our shared history and continue to bind our two nations 
even closer.
    Finally, if confirmed, I will meet my most fundamental 
responsibility: to promote and protect the welfare of all American 
citizens in Japan. This includes providing a safe and secure 
environment for U.S. Government employees and their families.
    I especially look forward to benefiting from the support of the 
talented Foreign Service professionals, both American and locally 
engaged staff, at our Mission in Japan.
    I would like to thank this committee for your consideration of my 
nomination. If confirmed, I look forward to working closely with you to 
advance our national interests, protect our citizens, and deepen our 
ties with Japan.

    The Chairman. Thank you very much.
    We will start a round of questions. Here in the United 
States we have been closely following Abenomics, the efforts by 
Prime Minister Abe to economically revitalize Japan's economy. 
He talks about three arrows: the first two are fiscal stimulus 
and monetary easing--and the markets have reacted very 
positively to those. The last one--structural reforms-- is a 
tough one. It is tough here in the United States, and it is 
tough in Japan.
    In that regard, when I met with the American Chamber of 
Commerce in Japan, they expressed concern about the narrowly 
targeted tax reform in Japan, in contrast to the broader 
investment and tax incentives that the U.S. business community 
has been calling for.
    How do you envision working with our Japanese counterparts 
to ensure that structural reform in Japan is seen as both an 
internal issue there and an economic issue back here in the 
United States. How do you see your role as Ambassador in that 
respect?
    Ms. Kennedy. Well, I think that Japan's entry into the 
Trans-Pacific Partnership provides an opportunity for our 
countries to work more closely economically. This agreement 
also provides an opportunity for bilateral talks between the 
United States and Japan on a number of these nontariff issues 
and market access issues, as well as a dispute settlement 
mechanism should there be issues along the way.
    I know that the team in Tokyo is focused on the 
implementation of that agreement should it go forward, and I as 
Ambassador would take a deep and personal interest in working 
with American companies to make sure that the Japanese market 
is open to them and working with the Japanese Government to 
make sure that the accord is fully implemented.
    The Chairman. I appreciate that. I think Prime Minister Abe 
looks at the Trans-Pacific Partnership as an opportunity to 
achieve some of the structural reforms that will be needed for 
accession to the agreement. I hope that, upon your confirmation 
as our Ambassador to Japan, you will work with our Trade 
Ambassador to develop the strongest TPP, which I think provides 
a pathway for the reforms that we just talked about.
    Another significant issue is that the Abe government is in 
the midst of a defense policy review that will yield new 
national defense program guidelines by the end of the year, and 
may very well re-interpret the constitution to exercise the 
right of collective self-defense, with implications for the 
United States-Japan alliance. Collective self-defense means 
that if you have a U.S. ship alongside a Japanese ship and if, 
God forbid, there was a strike against the U.S. ship, 
collective self-defense means that the Japanese would be in a 
position to respond and not just simply watch.
    That is important to our national security interests in the 
region, as well as our efforts in changing our base status at 
Okinawa, which has been both an opportunity for continued 
security, but also a challenge. Creating the space for the 
Governor of Okinawa to issue the landfill permit is a linchpin 
of our efforts to refocus our position there and is incredibly 
important. To a large degree, the Japanese Government will have 
to create the space for the Governor, but I think there is a 
role for the American Ambassador to help create a space for the 
Governor.
    Could you talk a little bit about how you see that process?
    Ms. Kennedy. Well, our military and national security 
relationship obviously has many complex issues embedded within 
it. But it is, as you say, the cornerstone of peace and 
stability in the region. I think that there seems to be some 
hope for progress on the Okinawa issues and I know that Senator 
McCain, in particular, and other members who I have spoken to, 
are deeply concerned about the process moving forward involving 
a realignment plan and a landfill plan.
    So I have assured him that I will take a personal interest. 
I have met and hope to meet further with Admiral Locklear, I 
have met with General Angelella, and military issues would be 
something that I would spend a good deal of time on and work 
hard to see those issues through.
    As you say, I think the Japanese are engaged in a process 
of debating their self-defense and collective self-defense, and 
I think that is obviously a debate that they need to have 
within their own society. I would watch it very carefully and 
work with people here in Washington and people in Tokyo to make 
sure that we understand and are supportive of that process in 
whatever way that I can.
    The Chairman. A final question before I turn to Senator 
Corker. We ask this of all of our nominees. At least since I 
have become the chairman, we ask it of all of our nominees. And 
that is that, If confirmed, will you be responsive to questions 
and requests from the committee about issues facing our 
bilateral relationship?
    Ms. Kennedy. Of course that would be one of my most 
important activities, and if confirmed I hope that I will get 
to spend even more time with all of you than I have already 
been fortunate enough to do.
    The Chairman. You have already shown your prowess, all 
right.
    Senator Corker.
    Senator Corker. I will say that the question he asks of all 
Ambassadors is the easiest question they get, and they all 
answer it the same way. Anyway, that is very good, and thank 
you.
    Listen. We talked the other day at length and to try to get 
into a lot of depth on policy issues when I know that you have 
been wafted out of New York into this position and are 
preparing heavily is really not the thing to do. It would be 
like, candidly, asking me those questions upon my first day of 
arrival in the United States Senate. So I will not go down that 
path.
    I do know that you care deeply about public service and I 
think that matters. I think you have a good sense of what our 
national interests are and will develop those even more deeply. 
I think you are going to be a great Ambassador to Japan and, 
candidly, the kind of Ambassador that they are used to having 
in Japan. So I am glad you want to serve in this way and your 
family is willing to let you do that.
    I would like to talk just a little bit about, between now 
and then, what is happening to prep and get you ready for all 
the complexities that you are going to be dealing with when you 
get there.
    Ms. Kennedy. Well, I have had the benefit of a lot of 
guidance from the State Department already and I am now engaged 
in meeting with other agencies, and I would love to come back 
and meet with all of you and other Members of Congress before I 
leave, and I will do my best to get up to speed on all the 
issues, especially those affecting Tennessee and the auto 
industry.
    Senator Corker. Well, thank you. I know that as a matter of 
fact, since you have jumped to that issue of the TPP, I think 
it is a tremendous opportunity for us and I think you do, too. 
What are some of the things--I know you met with Mike Froman 
the other day to talk a little bit about TPP and some of the 
things that we are going to be dealing with. Can you raise--do 
you know at present what some of the rubs may be, some of the 
tougher areas that we might have to overcome relative to TPP in 
Japan itself?
    Ms. Kennedy. Well, I think the USTR is hopeful and 
everybody has been impressed that the Japanese have come to the 
table and are willing to put everything on the table. So they 
seem rather optimistic about the chances for success and the 
benefits that this would bring to both our economies.
    Senator Corker. So have they raised any issues, though, 
that they think might be some of the more difficult to 
overcome?
    Ms. Kennedy. Well, I think that those are being handled in 
this bilateral set of talks, and they had a good session, I 
understand, and they are speaking about American autos entering 
the Japanese market and removing restrictions to that, as well 
as some of the agricultural products that Japan has long sought 
to protect, obviously. But I think that everybody is impressed 
by Prime Minister Abe's commitment to really a comprehensive, 
high quality accord.
    Senator Corker. Has there been much discussion about the 
East China Sea territorial issues and what role you are going 
to be expected to play as Ambassador in those issues, with 
China flexing, if you will, in those areas?
    Ms. Kennedy. Well, I think our policy on the islands in the 
East China Sea is obviously we would like to see those issues 
resolved through peaceful dialogue between the nations in the 
region, but as far as the islands are concerned the U.S. policy 
has been, as you know, longstanding and very clear: We do not 
take a position on the ultimate sovereignty of the islands, but 
we do recognize they are under Japanese administrative control 
and are covered by article 5 of our security treaty. So it is 
something that I would be watching very carefully and working 
as many different ways as I can to encourage the nations in the 
region to discuss and resolve those disputes and lower the 
tension in the region.
    Senator Corker. We talked a little bit about the current 
Ambassador, and he has been able, I guess, to develop an area 
that he is really focused on in the public-private 
partnerships, and I know you alluded to that earlier. You know, 
the way the Ambassador's role is in Japan, it is really unique. 
The Ambassador has a very special role there, and the 
relationship between the United States Ambassador and the 
people of Japan or the country at large is very different than 
in many other cases.
    I know we talked a little bit about you are going to have a 
tremendous opportunity, not just to deal with the United 
States-Japanese relationship and the things that are in our 
national interest, but you are going to have an opportunity 
really to carve out an area where you can have a real impact in 
Japan, just like you have done in New York and other places. I 
do not know if you have thought about that. I know you are just 
beginning to see those opportunities, and none of us really 
know until we arrive exactly how things are going to be.
    As a matter of fact, you do not even have to answer the 
question. I know you are going to figure out a way of doing 
that. I have a sense that you will do that very, very quickly 
and you will have a big impact there. I just, without pushing 
you to have to respond to that now, I want to thank you for 
your willingness to serve. I know you are going to address 
these issues in a serious way, and we look forward to working 
with you.
    Ms. Kennedy. Thank you, Senator.
    The Chairman. Let me just say, Senator Corker said that is 
the easiest question; the last question I asked. I ask it for a 
purpose because, having had an experience on this and other 
committees, sometimes our nominees when they are nominees are 
very forthright and very helpful in sharing information; once 
they become the Ambassador it is a little more difficult. So I 
like to have it on the record to remind them.
    Ms. Kennedy. That is good.
    The Chairman. I do not expect that in this case, but I have 
had experiences here. It may be the easiest question----
    Ms. Kennedy. I grew up under the tutelage of a great 
Senator, so I have the utmost respect for the position.
    The Chairman. I appreciate that.
    Senator Cardin, who is our chairman of our Asia-Pacific 
Subcommittee.
    Senator Cardin. Well, Mr. Chairman, you are absolutely 
right, it is an easy question, but when you start to hear the 
requests from Members of the United States Senate we hope that 
your respect will continue.
    Thank you very much for being willing to step forward to 
continue in public service. We thank your entire family. As 
Senator Menendez said, this is a commitment of the entire 
family.
    Vicki, it is great to see you. During my first term I was 
fortunate enough to have a seat on the United States Senate 
floor next to Senator Kennedy. It was a remarkable opportunity. 
What Senator Menendez said about your uncle is absolutely true. 
He was able to get through the partisan division here, standing 
up for principle and move the process forward. So we know that 
spirit is in your family and we thank you very much for your 
willingness to move forward.
    Mr. Ambassador, it is great to see you here. You represent 
Japan very well in the United States, and we know that your 
presence here just underscores the importance of the 
relationship between Japan and the United States.
    Congressman Crowley, I am glad we had a reason to get you 
over to the Senate side, but it is great to see you and thank 
you for being here.
    We had a chance to talk and a lot of the issues we talked 
about have already been brought out. I want to mention one 
issue that I mentioned with Prime Minister Abe when I was in 
Tokyo this year. You mentioned protecting Americans. Recently 
Japan agreed to the Hague Convention in regards to child 
abduction cases. We are very appreciative of that, and the 
Diet's taken action to pass the necessary laws.
    I have been told there is pending almost 400 cases 
involving Americans that will not come under the Hague 
Convention, but need to be resolved. I am aware of three of 
those cases involving Marylanders. As one of my first requests 
under your response to the chairman, will you use your office, 
the best that we can, to help resolve these open cases?
    Ms. Kennedy. As a parent, I certainly understand the 
emotional aspects of this issue. I have met with the Bureau of 
Consular Affairs already and indicated to them my concern. I 
understand why these parents--I think it is a welcome sign that 
Japan has joined the Hague, and I hope that these cases that 
might not be covered can still be handled in the spirit of the 
Hague, and I think that everyone that I have talked to in Japan 
and in the State Department is really committed to making that 
happen and to working with the families to bring these issues 
forward and resolve these cases.
    Senator Cardin. Thank you. Thank you very much.
    I want to follow up briefly on Senator Corker's point on 
maritime security issues. It is very true that Japan and 
China--there is tension in regards to the territorial claims to 
the islands. But it is also true there are many other countries 
involved in maritime security issues that threaten the free 
transport of commerce and that threatens major U.S. interests, 
that also could cause serious security issues. We have already 
seen some tension among other countries.
    Will this be a priority of your mission, to further reduce 
the tension on the maritime issues so that we can maintain the 
type of policy that you said, peaceful resolution of these 
issues, directly negotiating through the parties, developing 
codes of conduct, that reduces the tension in the region?
    Ms. Kennedy. Yes. Also, I know that we spoke about the 
Helsinki Commission as being a sort of a model for perhaps 
countries working together in the region and multilaterally and 
exploring kind of a North Pacific dialogue that way. As you 
say, the code of conduct, the procedures for any kind of 
resolution of any kind of incidents, is something that I am 
committed to work through because it is in everyone's interests 
that those issues are resolved diplomatically.
    Senator Cardin. Thank you. We talked about--and I really do 
appreciate your understanding and commitment. We have many 
allies in the region, but two of our closest allies are Japan 
and the Republic of Korea. Yet the relationship between the 
Republic of Korea and Japan is not as strong as we would like 
to see it. I think your offices can help improve the 
relationship between two of our closest allies in the region, 
to the benefit of both countries and to regional security.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Ms. Kennedy, welcome. I know you are looking forward to 
this and I hope and I have every confidence that you will bring 
the same warmth and good feeling to the people of Japan that 
Ambassador Sasae has brought here to America. He has done an 
outstanding job and I think you would do well to emulate that. 
I know you will make every effort to do that.
    I want to talk about the East China Sea for just a moment. 
I would like to get your thoughts on why this controversy 
continues to get worse instead of better. We of course have not 
adopted the Law of the Sea Treaty here in the United States, 
and indeed those of us that opposed it argued that we would be 
giving up certain sovereignty and not getting much for it. The 
proponents were telling us about what a great document this was 
and what a great protocol it was for resolving international 
disputes.
    But it seems to me the East China Sea is a poster child for 
the lack of the ability of the treaty to resolve these kinds of 
things. Could you give me your thoughts on that, please?
    Ms. Kennedy. Well, I think those issues in the East China 
Sea are driven by the regional countries, but that means that 
the United States has an interest and an obligation to do 
everything we can to support and continue to support the 
peaceful resolution, to encourage dialogue between our allies 
and other countries in the region. I know the Senate resolution 
was helpful in that, but I think it is something that we are 
going to continue to have to work on.
    Senator Risch. I agree with everything that you have said. 
Would you agree with me that the Law of the Sea Treaty has done 
nothing to try to ameliorate the situation there in the East 
China Sea?
    Ms. Kennedy. Well, I would like to study that further 
before I speak specifically on that.
    Senator Risch. That is fair. I understand. That is fair.
    I know you have been briefed on the importance of the Idaho 
National Laboratory, which is the home--it is the leading 
laboratory for nuclear energy in America. Of course, with the 
tragedy that occurred at Fukushima the INL is doing things as 
they examine what happened there and how plants can be built 
more safely around the world. I would only encourage you to 
take your knowledge in that regard to the Japanese people, to 
the Japanese Government, and underscore for them that we in 
Idaho want to be helpful in that regard and we have the 
expertise, and we are the lead laboratory on nuclear energy in 
America and indeed in the world. So I hope you will take that 
message when you go to Japan.
    Ms. Kennedy. Well, thank you, and I would love to learn 
more about the laboratory's work. I have heard already that 
they have been in a close partnership and have made their 
expertise available. So I would love to follow up on that with 
you.
    Senator Risch. They have that, and they are ready, willing, 
and able every time that there is an incident somewhere in the 
world to respond and to assist and to be helpful in seeing that 
these kinds of things do not happen in the future.
    Thank you very much and thank you for your service.
    Ms. Kennedy. Thank you.
    The Chairman. Thank you, Senator Risch.
    If you could have opined on the Law of the Sea Treaty, we 
would not let you go to Japan. We would keep you here to help 
us.
    I also want to recognize--we have more House Members than 
we normally ever have here--Congressman Kennedy for joining us 
as well. Thank you very much.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I think Ms. Kennedy's recognition that she should not weigh 
in to the Law of the Sea Treaty debate is a good indication 
about what a good diplomat she is going to be.
    Let me welcome you. It is so nice to see you here----
    Ms. Kennedy. Thank you.
    Senator Shaheen [continuing]. And nice to welcome your 
family, Ed and your children. Vicki, of course always nice to 
have you back in the Senate.
    For some of my colleagues who may not know, I had the good 
fortune to have had a chance to work with you at the Institute 
of Politics as you chaired that board. I can reassure anyone 
who has any doubts that once you set your mind to doing 
something well, you do it. So I have every confidence that you 
will be a great Ambassador to Japan, and very much appreciate 
you and your family's willingness to take on this challenge at 
this time, when we are really looking at, as the President 
says, the refocus on the Asian-Pacific region.
    I think the President's choice of you as the nominee for 
this post is an indication of his strong interest in 
maintaining the great relationship that the United States and 
Japan have had for so many years. So I look forward to seeing 
what you do in this role and to having a chance to work with 
you in that capacity.
    I want to start by following up on Senator Risch's point 
about Fukushima and what has happened in Japan, and really ask 
you a two-part question. First of all, I think all of us in 
America looked with horror at the tragedy that happened in 
Japan with the tidal wave and the typhoon and then the tragedy 
at Fukushima. So I would ask you if you see a role for 
continued support for the United States as Japan continues to 
rebuild in those regions that were damaged by the tidal wave; 
and also to ask if you would look at ways to facilitate the 
lessons learned from what happened at Fukushima.
    As Senator Risch said, we have some technology here that is 
important to share with Japan. But I think there are also 
lessons there that are important to share with our nuclear 
industry here, and for all of us who have nuclear plants in our 
States and our regions some of the lessons from Fukushima are 
ones that we think it is very important for the industry to 
look at and to see how to respond to.
    Ms. Kennedy. I think the United States military and then 
the Ambassador and the team at the Embassy did a wonderful job 
in assisting after the tragic triple disasters in Japan. I know 
that I, if confirmed, would benefit from the good will that 
their efforts have generated. So I am deeply aware of that and 
I will do everything I can to build upon those efforts and 
sustain them. I think there are a lot of opportunities for us 
to continue to promote exchange programs and other kinds of 
efforts, and I would certainly want to learn about whatever 
help the United States could provide.
    As Senator Risch said, I met with the Department of Energy 
and I have heard that they have technology, they have 
expertise, and they are eager to assist in any way that they 
can. I think that across our government there is a sense that 
that incident had international implications and certainly it 
matters, and so we would all do well to learn everything we 
could from that to benefit the world going forward in the 
nuclear area.
    Senator Shaheen. Thank you.
    As you know, this past March the United States renewed 
Japan's exemption from Iranian sanctions as a result of its 
reduction in oil imports. Despite the energy shortfalls 
following Fukushima, Japan has worked hard to reduce its 
Iranian oil imports. Is there more that we could expect from 
Japan on compliance with Iranian sanctions, and what should we 
look for from the country as we continue to see how sanctions 
can hopefully bring Iran to the table to look at negotiating on 
what is happening in Iran?
    Ms. Kennedy. I think in the context of Japan's energy 
challenges, their efforts have been significant in reducing 
their dependence on Iranian oil in their auto industry. I think 
they have indicated that they are going to continue to make 
efforts to reduce their connections. I know that they are our 
partner in many humanitarian and other efforts, and so 
hopefully all of those put together will help bring pressure on 
the Iranian regime.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for being here. I just want to thank you for your 
willingness to serve, and for your family and others who will 
sacrifice as well. You are going at an interesting time with 
the trade agreements that will be discussed and debated over 
the next while. These are extremely important, not just for our 
economies, but for those involved as well. Also the maritime 
issues that have been addressed and regional security issues 
with North Korea and other pressing issues. So I just think 
that you are going at a fascinating time and that you are very 
well suited to--that you are up for the challenges that are in 
your future.
    So thank you for your willingness to serve.
    Ms. Kennedy. Thank you, and you have a lot of friends in 
Boston, fans.
    Senator Flake. Thank you.
    Ms. Kennedy. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Again, congratulations. This is wonderful. Thank you for 
taking the time to visit with me last week to discuss the 
United States-Japan relationship. This ambassadorship to Japan 
is a very important position. As others have said, the United 
States and Japan have a very strong relationship. Our nations 
work closely together on issues impacting our shared interests, 
our shared values. I am very pleased to see that you are 
engaged on those issues and willing to serve our Nation in this 
critical region.
    Although there are many topics to cover, from our security 
alliance to Japan's need for U.S. liquified natural gas, I want 
to focus my time on one of our significant U.S. exports that we 
have discussed, soda ash. As I mentioned to you previously, 
soda ash is an issue that your family has spoken about in the 
past. Actually, the day I got sworn in to the Senate your uncle 
Ted told me about his time in Wyoming, talked about soda ash--
``trona,'' it is also known--and he told me how he stood with 
the Wyoming delegation in 1960 at the nominating convention and 
it was Wyoming's 15 votes that put your father over the top to 
get the nomination.
    I questioned it a bit, but actually got back and found a 
picture of Ted Kennedy standing with the Wyoming sign at the 
convention, and it is a great picture.
    He also talked about his rodeo days in Wyoming, which is 
impressive.
    Also, 50 years ago almost to the day, this coming week, 50 
years ago, in 1963 President John Kennedy spoke at the 
University of Wyoming in Laramie and 13,000 people attended, a 
huge day. Mike Mansfield, who you mentioned, Mr. Chairman, Mike 
Mansfield, who was the longest serving Ambassador to Japan, was 
on the stage with President Kennedy, as was Secretary of 
Interior Stewart Udall, whose son Tom serves on this committee, 
all on the stage in Laramie. It was a memorable moment for many 
folks across my State.
    At the event, President Kennedy talked about the need for 
ingenuity and scientific application of knowledge to develop 
new resources. Amazingly, he specifically mentioned soda ash in 
his remarks. People say he actually, using his Boston accent, 
called it ``soda rash,'' and some people thought it was a skin 
condition for a while.
    But he said--and I will quote from his speech. He said: 
``For example, soda ash is a multimillion dollar industry in 
this State. A few years ago there was no use for it.'' He said 
``It was wasted. People were unaware of it. And even if it had 
been sought,'' he said, ``it could not be found, not because it 
wasn't there, but because effective prospecting techniques 
hadn't yet been developed.'' ``Now,'' he said, ``soda ash is a 
necessary ingredient in the production of glass, steel, and 
other products. As a result of a series of experiments, of a 
harnessing of science to the use of man, this great new 
industry has opened up.'' John Kennedy in Laramie 50 years ago 
this month.
    The United States is the most competitive supplier of soda 
ash in the world due to the abundance of the raw material, 
trona, and it is in our country. U.S. natural soda ash is 
refined from the mineral trona. The Green River Basin in 
Wyoming has the world's largest known deposits. It is a key 
component, as we said, of glass, also detergent, soap, and 
chemicals. It is used in many other industrial purposes. It has 
long been regarded as the standard of quality.
    Currently Japan has a 3.3-percent tariff, which is what we 
had discussed, on natural soda ash imports into Japan. So now 
we have formally joined--now Japan has formally joined the 
Trans-Pacific Partnership negotiations. Out of all the Trans-
Pacific Partnership countries, Japan is the only country with a 
tariff on U.S. natural soda ash. It is important for the United 
States to work, I believe, to resolve this problem. Eliminating 
the tariff on naturally sourced soda ash would benefit Japanese 
manufacturers, who want it, and U.S. soda ash producers alike.
    So my question is, As the negotiations on the Trans-Pacific 
Partnership continue, will you commit to me that you will 
advocate for the elimination of this tariff on natural soda ash 
imports?
    Ms. Kennedy. Well, I guess I would not be sitting here if 
it were not for the State of Wyoming, so I would definitely 
make that commitment. In fact, I did pass along your concerns 
to the USTR and they have indicated that soda ash will be an 
important issue in the upcoming negotiations. So I will let you 
know, and I look forward to working with you on this issue.
    Senator Barrasso. Thank you.
    Also we had talked about beef, Wyoming's No. 1 cash crop, 
but also I know, Senator Risch, it is a big cash crop in Idaho, 
MT, the Rocky Mountain West. We are looking forward to pursuing 
every opportunity to eliminate trade barriers and increase 
exports to Japan for--actually, for all U.S. industry. So I 
appreciate your efforts.
    We also had a chance to talk a bit about liquified natural 
gas, where we have an ability to export. I know, visiting with 
the Ambassador from Japan, they have great interest in 
importing liquified natural gas.
    Ms. Kennedy. In terms of beef, as you know, there has been 
a 43-percent increase in our sales to Japan recently this year. 
I think that hopefully they will continue to accept more high-
quality U.S. beef.
    Obviously, liquid natural gas--in fact, Senator Cardin, 
they have just approved a project, and so it is a win for both 
countries. So I look forward to working on that because it is 
of benefit to all of us.
    Senator Barrasso. Thank you very much and congratulations 
again.
    Ms. Kennedy. Thank you so much.
    The Chairman. Thank you, Senator Barrasso.
    I now know more about soda ash than I ever did in my career 
and I appreciate the edification.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Ms. Kennedy, congratulations. This is an exciting, exciting 
hearing. I was struck during your opening comments at the 
poignancy not only of your personal story, but what it says 
about our two nations. Your father received the Congressional 
Medal of Honor for heroism displayed and injuries suffered in a 
war with Japan, and yet here you are about to achieve this 
wonderful diplomatic post, which is a tribute not just to you, 
but to the deep friendship between the two nations.
    That does not happen by accident. That arc of enemies to 
friends does not happen by accident. It happens because of 
diplomacy. It happens because of the magnanimity of the 
Japanese people and the American people. And it is an 
interesting thing for us to think about, that we do not have to 
assume that hostilities are permanent. Who are we at odds with 
today or who any country is at odds with today does not mean 
that we need to be despairing about that we might not be 
wonderful allies in a few decades. And that is a really hopeful 
thing. There is a real element of hope and optimism because of 
this hearing and your personal arc and the way that it connects 
the lives of our two nations.
    Two questions I just wanted to ask quickly. I see enormous 
up sides in the United States-Japan relationship because of the 
rebalance to Asia and because of the specific status of the TPP 
negotiations. But I wonder, are there any potential downsides? 
Is there any concern in your dialogue with folks on the 
Japanese side thus far or your briefings, that there is a worry 
that a rebalance to Asia more generally or a TPP that 
encompasses multiple nations, is there a concern that it would 
sort of deemphasize the relationship, the strong relationship 
between the United States and Japan? And if there are those 
downsides, how could we continue to make sure that Japan knows 
how special this relationship is?
    Ms. Kennedy. Thank you, Senator, for reminding us all about 
the--I do think that I am conscious of the evolution of our 
relationship and how my family and my appointment is emblematic 
of that. It is something that I am very honored by.
    I think from my conversations it seems that the United 
States and Japan are facing an important moment, but it is a 
moment that is full of promise. The Asia-Pacific region is the 
future in many ways. It is 40 percent of the world's trade. I 
think that with the political stability in Japan, there are 
many opportunities to strengthen this alliance, and hopefully I 
can contribute to that.
    There are complexities as well, of course. But I think, as 
you said, there are so many people here in the United States 
willing to work to strengthen this alliance, as well as in 
Japan, so I am hopeful that whatever issues crop up, they can 
be worked through, as we have done so far.
    Senator Kaine. Great, great. Thank you.
    The last question. I think this was touched on when I was 
out of the room briefly, but just to connect a couple of dots, 
including the point that Senator Barrasso was just making. The 
Japanese continued purchase of oil from Iran--and there is an 
exemption that we have recognized--nevertheless is a troubling 
thing. We want to continue to do what we can. Even recent 
statements of President Rouhani, we are looking at those with 
interest. But to do what we can to make sure that Iran does not 
obtain nuclear weapons.
    Japan's scale-down of purchases of Iranian oil, that is a 
notable thing. We think they could do more. Nevertheless, they 
have their own energy challenges, especially after Fukushima, 
that put some constraints on them. But there is a potential 
connection between their ability to go even further and this 
LNG issue, and I just wanted to bring that up.
    I had a dialogue recently with another government official 
in another Asian country that does not need to be named. But I 
was really focusing upon this issue of how could we help you 
reduce your reliance on oil from Iran, and he came right back 
and said: Well, the main thing you could do is export liquid 
natural gas to us.
    So the exportation of LNG has other issues. It connects to 
domestic pricing and things for natural gas here. Yet it is an 
important asset for us to contemplate, even in working with 
Japan, that the better we are in that the more they may be able 
to take additional steps to reduce reliance upon Iranian oil 
and then help us with that important goal that we share of 
making sure Iran does not develop nuclear weapons.
    So in the broader negotiation around these topics, I just 
wanted to put that on that table and encourage you in that 
regard.
    Ms. Kennedy. Thank you.
    Senator Kaine. Thanks very much, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I welcome our witness and family members and our beloved 
Vicki. I know that Ted is very proud today to have you here 
continuing a long family tradition of outstanding service to 
our Nation.
    You and I had a discussion of several issues in my office. 
But I think it is important to reemphasize a couple of points. 
One is that tensions between Japan and China are higher than at 
any time since the end of World War II. The issue of the 
Senkaku Islands, although unknown to most Americans, is very 
high on the agenda of both Japan and China, and there have been 
incidents of significant tension in that region--movement of 
Chinese ships there and military presence.
    The new Prime Minister, Abe, is now committed to a 
significant increase in defense spending on the part of Japan. 
A lot of that has to do with their concern about the aggressive 
behavior of China in the South China Sea.
    I am sure you are aware of those tensions and I am 
wondering if you share my concern about this situation.
    Ms. Kennedy. I think it is a matter of grave concern. I 
think that, as we spoke about, the U.S. military and the Japan 
alliance is a cornerstone of peace and security in the region, 
and the United States is committed under article 5 of our 
security treaty to support Japan in the Senkakus. But overall 
our priority is for those disputes to be resolved through 
negotiation and diplomacy and for all parties in the region to 
seek to lower the tensions as much as possible.
    Senator McCain. You know that the United States position 
has been that we support Japanese management of the islands, 
but do not acknowledge the sovereignty. You agree with that 
policy?
    Ms. Kennedy. It is the longstanding policy of the United 
States, so that would be the policy that I would try to 
further.
    Senator McCain. As part of our view of the importance of 
the Asia-Pacific region, there has been an announcement a 
couple years ago by the administration that--at first they used 
the unfortunate word ``pivot,'' but ``rebalancing'' of our 
military to the Asia-Pacific region. One of the most important 
parts of that that we have been wrestling with for years in the 
Armed Services Committee in particular is the movement of U.S. 
Marines out of Okinawa.
    It is a very volatile issue with the people of Okinawa. It 
has got to be accomplished. We have watched with great 
frustration time after time, expenditure of billions of 
dollars, and we still have not achieved the movement of the 
Marines out of Okinawa to a suitable replacement base. We know 
that some will go to Guam, some will go, envisioned to a new 
base that's being built.
    I hope you will give this issue a very high priority. One 
more incident in Okinawa and you will see a very serious 
reaction from the people of Okinawa, and they have to be 
assured that we are moving forward, making progress on this 
issue, which frankly in my view has been fraught with delays 
and expenditures, which is almost an embarrassment.
    Ms. Kennedy. I take that very seriously, Senator, your 
concerns, and thank you for expressing them to me in your 
office as well as here this morning. I look forward to learning 
as much as I can, to studying this issue very closely, and to 
working with you to move this forward.
    Senator McCain. Well, we look forward to visiting with you 
in Japan in the near future, at the taxpayers' expense.
    Thank you for your willingness to serve.
    Ms. Kennedy. Thank you.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Massachusetts is very proud of you today. Your mother and 
father, your aunts and uncles, all of your family, inspired 
generations now of people to public service. I am one of those 
people. You are really the pluperfect embodiment of someone who 
has dedicated her life to helping other people. And your uncle 
Ted and Bobby, but every member of your family just really was 
very special in the lives of our country.
    You are continuing that story, and I think it is important 
for the country to actually see you giving, asking not what 
your country can do for you, but what you can do for your 
country. And you are doing that here today. I think our country 
and all of us really appreciate your following in this 
tremendous tradition that your family represents, sitting 
proudly behind you here today.
    I guess what I was wondering is, are there any personal 
priorities that you might have going to Japan? Is there 
anything that you might want to share with us that might be a 
part of something that you might want to accomplish during your 
time in Japan representing our country?
    Ms. Kennedy. Well, thank you, Senator Markey, and thank you 
for mentioning my family. I feel that I am the most fortunate 
to be part of such a supportive and inspiring extended family, 
and I am fortunate that not only is my immediate family here, 
but my cousin, Timmy, is here, who runs the Special Olympics, 
which my aunt started, and my cousin, Joe, who is following in 
his grandfather and his father's footsteps serving in 
government. So I am very honored and happy to have their 
support, and I hope that I can make them proud of me.
    In terms of my own priorities, I think as a woman I do have 
opportunities in Japan to represent the United States and the 
progress that we have made here on some of those issues and the 
dialogue about what needs to be done, both here and there. So I 
am looking forward to learning more about those issues as they 
relate to Japan when I am there if I am confirmed.
    Again, I think because of my background in education and 
because I have worked to engage young generations in civic 
engagement and dialogue and public service, I am hopeful that 
because President Abe, Prime Minister Abe, has made education 
exchanges and education another cornerstone of his reform 
efforts, that I would have a positive role to play in 
encouraging those and facilitating exchanges between our young 
people and the young generation in Japan, so that this alliance 
can continue to be strong going forward and our leaders enjoy 
the same kinds of friendships and connections that they have 
until now.
    Senator Markey. Ambassador Roos has lamented the decline in 
the number of Japanese students coming to the United States. 
Obviously, that is a big part of creating understanding between 
our two nations. So your focus on that is I think absolutely on 
the money. It is where we have to be.
    Again, I just want to tell you how----
    Ms. Kennedy. Thank you.
    Senator Markey [continuing]. Proud we are of you. I think 
your uncle Ted is really proud of you sitting here.
    Ms. Kennedy. Thank you.
    Senator Markey. And I thank you for your service.
    The Chairman. Seeing no other members, thank you very much 
for your answers before the committee. I think you have 
acquitted yourself very well.
    Ms. Kennedy. Thank you.
    The Chairman. The record will remain open until the close 
of business on Friday for questions to the nominee. If the 
nominee receives any questions, we ask you to answer them 
expeditiously so that we can consider you at the next business 
meeting.
    With that, you are excused at this time. Thank you very 
much.
    Ms. Kennedy. Thank you, Senator. Thank you for this 
hearing.
    The Chairman. As Ms. Kennedy departs, I would like to call 
our second panel this morning.
    [Pause.]
    The Chairman. I am pleased to bring before the committee 
two of the Nation's most experienced career Foreign Service 
officers: Ambassador Anne Patterson, who is the nominee for 
Assistant Secretary of State for Near Eastern Affairs; and 
Gregory Starr, who is no stranger to this committee, as 
Assistant Secretary of State for Diplomatic Security.
    Anne Patterson has spent the last 2 years serving as 
Ambassador to Egypt at a tumultuous and transitional time in 
Egypt's history, and I personally want to extend our thanks and 
appreciation for her service. She was in the eye of the storm 
as the winds of the Arab Spring began to blow across the 
region, and her expertise and experience served her well. She 
has a long record of service since the time she left her home 
in Arkansas and went to Wellesley. Her experience is exemplary 
of our Foreign Service officers, who put their lives at risk--
often in places where an American presence is necessary but not 
always welcome.
    I look forward to supporting her nomination, but I want to 
express several ongoing concerns in the region. As you know, 
Ambassador Patterson, the impact of sanctions on Iran has been 
significant. While I support a diplomatic solution to the 
crisis and hope that we can find such an opening with a newly 
elected government in Iran, at the end of the day we need a 
partner who comes to the table in good faith and with a real 
offer in hand and, more importantly than an offer, real 
actions. Until then it is my view we must maintain and increase 
pressure on the regime in order to ensure the success that we 
want. I look forward to hearing your views on the situation in 
Iran.
    I would also like to know your views on the next steps 
moving forward in Egypt to realize the promise we had hoped for 
from the events in Tahir Square in 2011, that has given way to 
an increasingly undemocratic and insecure environment for all 
Egyptians.
    In Iraq, I have several concerns about our diplomatic 
relations following the drawdown of U.S. troops. I am also 
disturbed by Iraq's failure--and I want to underscore, Iraq's 
failure, from my perspective--to protect the MEK community at 
Camp Ashraf and Camp Liberty, which most recently resulted in 
52 deaths and the kidnapping of seven individuals who remain 
hostages. I expect the Iraqis to hold the guilty parties 
responsible for their actions, and I also hold the Iraqis 
responsible for the security of those at Camp Liberty, and I 
hope that the administration will send the same message.
    Finally, on the peace process, I support Secretary Kerry's 
efforts and believe that we must continue to keep the 
Palestinians at the table engaged in face to face negotiations 
with the Israelis. I applaud Israel's courage in agreeing to 
the release of prisoners at the outset of negotiations and hope 
the Palestinians will publicly commit to remain at the 
negotiating table and not pursue statehood or enhanced status 
through any international bodies while this effort is going 
along. It is only through the hard work of direct negotiations 
that we will be able to realize a durable and realistic peace.
    You are no stranger to these complex issues. You are a 
decorated Foreign Service officer, and I will look forward to 
your service.
    Let me turn to Greg Star, the nominee for Assistant 
Secretary of State for Diplomatic Security, who appeared before 
the committee this summer to testify on a bill cosponsored by 
Senator Corker and I and other members of the committee, the 
Chris Stevens-Sean Smith-Tyrone Woods, and Glen Doherty Embassy 
Security, Threat Mitigation, and Personnel Protection Act. You 
provided us with insights and benefits of many years in 
diplomatic security, as a special agent in the Foreign Service 
serving in Tunisia, Senegal, and the Democratic Republic of the 
Congo. You later served in the Secretary of State's security 
detail and technical security operations, as Chief of the 
Division for Worldwide Local Guard and Residential Security 
Programs, and as a senior regional security officer at our 
Embassy in Tel Aviv.
    And now you are returning, coming out of retirement, to be 
considered for Assistant Secretary of State for Diplomatic 
Security at a time when we sorely need your experience and 
expertise.
    Let me conclude by saying I have said in the past and will 
say again, the lessons we have learned from the tragedies in 
Nairobi, Dar es Salaam and Benghazi are emblematic of the 
broader issue we will increasingly face in the 21st century. It 
will require our full, unequivocal, unwavering commitment to 
fully protect our embassies and those who serve this Nation 
abroad, and that will be your charge as Assistant Secretary, to 
help strike the proper balance between sealing off 
vulnerabilities in high-threat areas and continuing to conduct 
vigorous and effective diplomacy that serves the national 
interest.
    The fact is we can never have absolute security in an 
increasingly dangerous world. But security alone is not our 
objective. At the end of the day, we need to address both the 
construction of new embassies that meet security needs and we 
need to do what we can to secure existing high-risk posts where 
we need our people to represent our interests and where new 
construction is not an option. That is what Senator Corker and 
my embassy security bill seeks to do, and my hope is that we 
can look forward to the legislative process soon to achieve 
that.
    So we look forward to hearing from you, Mr. Starr, about 
the progress we have made, what other challenges we may have, 
and how do we pursue it. Again, thank you both for your years 
of service.
    I know Senator Corker had some original comments. I do not 
know if there is anything you wish to pursue?
    Senator Corker. No.
    The Chairman. With that, Ambassador Patterson, we will 
welcome your statement. Both of your statements will be fully 
included in the record without objection, and the floor is 
yours.

    STATEMENT OF HON. ANNE W. PATTERSON, OF VIRGINIA, TO BE 
     ASSISTANT SECRETARY OF STATE FOR NEAR EASTERN AFFAIRS

    Ambassador Patterson. Thank you, Mr. Chairman, Ranking 
Member Corker, members of the committee. It is an honor to 
appear before you today as the President's nominee for 
Assistant Secretary for Near Eastern Affairs.
    Mr. Chairman, I would like to introduce, if I could, my 
husband David and my older son Edward and my daughter Lamin.
    Mr. Chairman, I have prepared a longer statement for the 
committee which I submitted for the record.
    I am grateful for the confidence shown by President Obama 
in nominating me for this position. If confirmed, I pledge to 
work with you to advance U.S. interests across an important and 
complex region that is facing historic upheaval.
    Mr. Chairman, the changes taking place across the region 
carry the promise of a more democratic political order that 
will benefit the region and the United States in the long term. 
However, the region will remain volatile and often violent for 
some time to come. The challenges we face are complex, but our 
extensive security, economic, and humanitarian interests demand 
our continued engagement. The region has changed in the past 
few years and there is no going back.
    If confirmed, my top priority will be to protect our 
country and our allies. Doing so will require a vigorous effort 
to identify and disable Syria's chemical weapons. It will mean 
continuing to prevent Iran from developing a nuclear weapon. 
And we must continue to combat terrorism and confront violent 
extremism across the region.
    Second, we will continue to promote sustainable democratic 
transitions. Let me stress again how hard this is going to be. 
The results of elections may not be to our liking, and 
transitions are often plagued by false starts and reverses. We 
will continue our efforts to promote democracy and universal 
rights, and we will stand up for the rights of women, 
Christians, and other minorities.
    Third, we need to support governments and the private 
sector to create economic opportunities and jobs. Many 
countries in the region need to fight corruption and cut 
subsidies to spur investment and growth. Our global economic 
leadership and our assistance programs both can play a role. 
And we must press for open business and trade environments so 
American businesses have fair access to growing markets.
    Fourth, Mr. Chairman, mindful that our country has lost 
6,757 men and women in Iraq and Afghanistan, I would focus on 
coping with the enormous sacrifices that our colleagues in the 
State Department, in the international community, and other 
civilian agencies are making, supporting these professionals 
and their families as we continue to ask more of them. People 
working in this region have been deeply and disproportionately 
affected by evacuations, lengthy separations from families, and 
the sheer workload associated with living and working on the 
critical front lines of American diplomacy.
    Mr. Chairman, protecting our country requires us to 
practice diplomacy in dangerous places. Our people understand 
this. Accepting calculated risks is part of what it means to be 
an American diplomat today. Our Bureau will work closely 
together with our Ambassadors, with Mr. Starr if confirmed, and 
our Diplomatic Security colleagues, and with all other elements 
of government to protect Americans overseas.
    I understand fully the responsibilities arising from the 
attack on our mission in Benghazi that resulted in the murders 
of four of our colleagues. If confirmed, I will work to fulfill 
our obligation to bring the perpetrators of that attack to 
justice.
    Allow me to briefly review some of your key concerns. Mr. 
Chairman, I know that the Secretary of State has briefed you on 
Syria and the negotiations under way at the United Nations and 
in The Hague. I will simply reiterate his point that there can 
be no room for anything less than full compliance with our 
consistent goal of deterring and degrading Syria's ability to 
use these weapons in the future. The threat of unilateral use 
of force by the United States remains on the table should Syria 
not comply.
    Mr. Chairman, I have just completed 2 years as Ambassador 
to Egypt, an extraordinarily important country for the national 
security interests of the United States that deserves our 
continued partnership and support. Mohammed Morsy was elected 
as President of Egypt in elections that were free and fair, 
even though the complex constitutional and legal process that 
produced these elections managed to confuse and upset nearly 
everyone. His removal from office on July 3 followed an 
extended series of political miscalculations and an inability 
to create an inclusive democratic process.
    In the end, Egyptians will be the ones to determine whether 
that action was correct. We have made our concerns about this 
method of government change and about the violence used against 
unarmed protesters abundantly clear. Our response to the 
situation in Egypt will be consistent with U.S. laws, our 
national interest, and our values.
    At the President's direction, we have undertaken a major 
review of our economic and our military assistance program. As 
Egypt changes, so too must our bilateral relationship. If 
confirmed, I will continue to urge the Egyptian government to 
move toward an inclusive civilian-led transition that 
guarantees universal rights for all citizens, including women 
and Christians. I look forward to working with the Congress to 
assure that we have the flexibility to respond to and influence 
changing events.
    Mr. Chairman, the United States is fully committed to 
helping Israel and the Palestinians negotiate a final status 
resolution to their conflict. We are also fully and deeply 
committed to Israel's security. Our security cooperation has in 
fact never been closer. Israel is our close friend and the 
region's only stable democracy. The United States also 
continues to assist the Palestinians as they build governing 
institutions.
    As we mark 35 years since the Camp David Accords this week, 
the search for Middle East peace remains at the very heart of 
U.S. national security interests. Secretary Kerry has worked 
very hard for the resumption of negotiations, which has 
required courageous leadership by Prime Minister Netanyahu and 
President Abbas.
    Mr. Chairman, Iran is the world's foremost state sponsor of 
terrorism, including in Iraq, Syria, and Lebanon. It continues 
to defy the international community by pursuing nuclear 
activity in violation of its international obligations. The 
United States will not allow Iran to acquire nuclear weapons.
    Thanks to the indispensable role played by Congress and 
with international support, we have put in place an 
unprecedented sanctions regime against Iran. Mr. Chairman, I 
would like to acknowledge the efforts you played in this effort 
along with other members of this committee. Sanctions have hurt 
Iran's economy badly. The people of Iran have voted for change 
in the recent election of President Hassan Rouhani, who has 
demonstrated a markedly different tone from his predecessors. 
But to make progress, we need to see concrete actions.
    Mr. Chairman, if confirmed I pledge to work with you to 
assure that the resources and tools you provided our Bureau are 
supporting activities that advance our top national interests.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Patterson follows:]

                Prepared Statement of Anne W. Patterson

    Thank you, Mr. Chairman, Ranking Member Corker and members of the 
committee. It is an honor to appear before you as the President's 
nominee for the Assistant Secretary for Near Eastern Affairs.
    I am grateful for the confidence shown by President Obama in 
nominating me for this position. If confirmed, I pledge to work with 
you to protect and advance U.S. interests across an exceedingly 
important and complex region, facing historic upheaval.
    I am also pleased to appear before you today with Greg Starr, whom 
the President has nominated to be Assistant Secretary for Diplomatic 
Security. I have known Mr. Starr for some time and look forward to 
working closely with him on the important task of protecting U.S. 
personnel, facilities and interests in the region.
A Long Transformation Underway
    Mr. Chairman, despite the tremendous challenges it faces, I believe 
that the historic political and social transformations taking place 
across the region carry the promise of a more democratic, more 
tolerant, and more vibrant political order that ultimately will benefit 
both the region and the United States. However, I anticipate that the 
region will remain volatile, unpredictable, and often violent for some 
time to come. We face complex and difficult challenges, but our 
extensive security, economic and humanitarian interests demand our 
continued involvement and active engagement.
    There are some fundamental trends underway that will set the 
context for U.S. diplomacy. Sixty percent of the population in this 
region is under 25 and nearly 45 percent of young people in the Arab 
world are unemployed. The three most populous Arab countries, Egypt, 
Algeria, and Morocco, have median ages of 20, 20, and 21, respectively. 
The region's rapidly growing, youthful populations lack confidence in 
rigid and unresponsive leaders who are unwilling or unable to address 
their aspirations for a better life and a greater say in their own 
decision making.
    Shockingly, across the region, statistics indicate that 
unemployment levels rise with the level of education, leading to deep 
frustration with educational systems that fail to prepare its graduates 
for the modern labor force. National economies are hobbled by 
inefficiency and corruption, unable to provide jobs. In many countries, 
young people and their families invest enormous resources in what turn 
out to be poor university educations, and are deeply disappointed when 
they cannot find jobs or are not properly trained for the labor market. 
The situation is even more dire for young women.
    At the same time, in addition to more traditional forms of street 
protest, these young people have been empowered by new technologies to 
communicate and share information in unprecedented ways--and they are 
not shy about expressing their anger and frustration. They reject the 
tired and transparent excuses and efforts by authorities to avoid 
responsibility for their poor performances--and they thirst for 
leadership and solutions, even as they watch the wintering of state 
institutions meant to protect citizens' personal and economic security.
    What will come next is uncertain, but the region's political and 
social trajectory has been broadly and irrevocably changed by the 
events of the last 2\1/2\ years. Mr. Chairman, as one of your 
colleagues pointed out to me in Cairo, we Americans can never go back 
to looking at the region in the same way as we did before.
    These inherent uncertainties will also pose security, diplomatic, 
and economic challenges to the United States, to our allies, and to the 
people of the region. With both our important national security 
interests and our values in mind, we have much work to do to protect 
our interests and to help the people of the region build peace and 
economic prosperity.
Our Priorities
    If confirmed, Mr. Chairman, my top priority will be to protect our 
country and our allies. This will require a vigorous effort under 
international auspices to identify and disable Syria's chemical weapons 
capability. It will also mean continuing to prevent Iran from 
developing a nuclear weapon.
    The United States must continue to do everything we can to combat 
terrorism and confront violent extremism. Currently, we are seeing 
renewed efforts by Al Qaeda in Iraq to undermine that country and an 
influx of foreign fighters to the Syrian civil war from other countries 
in the region. Such breakdowns in security in the region have allowed 
the growth of regional militias, threatening legitimate governments and 
becoming breeding grounds for extremism. The United States needs to 
work with the region's leaders and its national military forces to 
extend counterterrorism cooperation and training for law enforcement 
charged with providing security for their citizens.
    Second, we need to continue to promote sustainable democratic 
transitions in the region. Let me stress again how hard this is going 
to be: the results of elections may not be to our liking and 
transitions are often plagued by false starts and reverses. Islamist 
and populist political parties that do not share our values can be 
effective in mobilizing voters. In the face of such challenges, we need 
to remain patient and firmly engaged in our efforts to promote 
democracy. Free and fair elections based on inclusive politics, 
effective governance, and respect for universal human rights, including 
freedom of expression and freedom of association, are key elements of 
any country's long-term stability. And we will need to stand up for the 
rights of women, and ethnic and religious minorities, including 
Christians. The broadening of political participation is a key demand 
of people in these changing societies; it is also a prerequisite for 
successful democratic governance.
    I reject the view expressed by some in the region that their 
countries are ``not ready'' for democracy, that the low levels of 
education and high levels of poverty assure that voters will be easily 
led astray, or that only a traditional strongman can control these 
fragmented societies. If this were true, future generations in the 
region would be doomed to live under autocrats and dictators. Our role, 
and the role of the international community, will be to assist these 
countries in building more democratic and tolerant societies.
    Third, we need to support the private sector and governments in the 
region to help create economic opportunities. The region needs to 
create as many as 80 million new jobs by 2020 just to meet the needs of 
its growing population, a staggering number since the Arab world's 
current labor force stands at about 100 million people. The United 
States is uniquely positioned to help the region address its economic 
challenges. Many countries in the region need to fight corruption and 
undertake economic reforms to end subsidies that constrain investment 
and growth. In my view, U.S. economic assistance is only one facet of 
our influence. Assistance does provide tools for the United States to 
encourage and support reforms in needed areas, like higher education, 
economic growth or the reform of security forces. But our global 
economic leadership and the power of our economy are equally important. 
We also need to work with governments to assure open business and trade 
environments that promote sustainable growth and enable American 
businesses to have fair access to growing markets. Everyone will 
benefit because American businesses are respected in the region for 
training their people in global business skills and promoting employees 
on the basis of merit--and because much of our own business growth is 
projected to come from growth in overseas markets. A few months ago, 
Mr. Chairman, your Subcommittee on African Affairs issued a report 
outlining concrete steps the United States could take to both improve 
standards of living in sub-Saharan Africa and to lock American 
businesses into primary roles in these fast growing markets. I hope we 
can collaborate on a similar study for the Middle East.
    And fourth, Mr. Chairman, mindful that our country has lost 6,757 
service men and women in Iraq and Afghanistan, I also would focus on 
coping with the enormous sacrifices that my colleagues in the State 
Department, in the intelligence community, and in other civilian 
agencies must make and are making--and supporting these professionals 
and their families as we continue to ask more of them. People in the 
Bureau of Near Eastern Affairs have been deeply and disproportionately 
affected by evacuations, lengthy separations from families, and just 
the sheer workload of living in or working with posts that are 
understaffed and always on the critical front lines of America 
diplomacy. A large number of our personnel have served tours of duty 
without their families at high security threat posts--some of them 
several times--as the number of such posts has expanded beyond Iraq and 
Afghanistan to Libya, Yemen, Lebanon, Tunisia, and Egypt.
    Mr. Chairman, if confirmed, I will be asking our people to serve in 
these and other countries, continuing the hard work of outreach and 
engagement on behalf of the United States. Protecting our country 
requires us to practice diplomacy in dangerous places. Our people 
understand this--accepting calculated risks is part of what it means to 
be an American diplomat today. Our Bureau will work together closely 
with our Ambassadors and with our Diplomatic Security colleagues to do 
everything we can to protect Americans overseas. We will maintain open 
channels of communication on security matters within the Department, 
with the intelligence community and with the Defense Department.
    I would like to review with you the broad scope of American 
interests that involve the Bureau of Near Eastern Affairs. We cannot 
cover them all here, but I hope it will inform our discussions in the 
months ahead.
Syria, Lebanon, and Jordan
    The current crisis in Syria underscores the challenges we face. The 
authoritarianism and brutality of the Asad family toward the Syrian 
people has been unrelenting; the regime has maintained itself in power 
through fear and the pitting of one group against the other. It has 
also systematically manipulated and destabilized Lebanon through its 
partnership with Iran and its support for Hezbollah. As change swept 
the region over the past 2\1/2\ years, the Syrian regime has tried to 
maintain its power by waging war on its own people. The U.N. estimates 
that over 100,000 Syrians have been killed, 2 million people have 
become refugees and millions more have been displaced internally due to 
the conflict.
    The prolonged Syrian crisis has attracted extremists from across 
the region. The regime has recruited Hezbollah fighters from Lebanon to 
support them in battle. Meanwhile, terrorist groups linked to al-Qaeda 
have worked to gain a foothold in Syria and expand their influence 
among elements of the Syrian opposition. The regime has violated 
Lebanon's sovereignty with shelling and airstrikes. On August 21, the 
Syrian regime again brutally and indiscriminately used chemical weapons 
in attacks against its own people that killed more than 1,400 
civilians. The recent framework whereby we would work with Russia to 
transfer the regime's chemical weapons program to international control 
and implement its rapid elimination will require Syria to promptly 
declare their holdings and cooperate in steps to eliminate them. The 
world will now expect Russia to hold the Asad regime accountable for 
its public commitments. There can be no room for anything less than 
full compliance with international efforts to dismantle the Syrian 
chemical weapons (CW) program. Clearly, the threat of unilateral use of 
force by the United States played a key role in propelling the Asad 
regime to finally acknowledge its CW program and declare its 
willingness to accede to the Chemical Weapons Convention (CWC). If 
these efforts fail, the President has made clear that he remains 
willing to act.
    Moving forward, we continue to believe that there is no military 
solution to the Syrian crisis, which should be resolved via 
negotiations based on the framework outlined in the June 2012 Geneva 
Communique. The United States remains in close contact with the 
moderate Syrian opposition about next steps. Along with our 
international partners, we continue to support the moderate Syrian 
opposition as they work toward a democratic and unified Syria that 
respects the universal human rights of all its citizens. Mr. Chairman, 
I know that members of this committee are not satisfied with the speed 
of delivery of equipment to the Syrian opposition or with the level and 
speed of humanitarian assistance to neighboring countries. Many of you 
have visited Syrian refugee camps in Turkey and Jordan. The United 
States is providing over $1 billion in humanitarian assistance to 
respond to the crisis within Syria and in neighboring countries. We are 
also providing $250 million in nonlethal transition assistance to the 
Syrian opposition, including items requested by the Syrian Military 
Council. Mr. Chairman, if confirmed, I will work closely with your 
committee on these issues.
    From its base in Lebanon, Hezbollah has fully entered the Syrian 
civil war on the side of the Asad regime, which has long provided it 
with support and a reliable connection to its Iranian financial and 
military support. Hezbollah seeks to involve the Lebanese people in a 
foreign war against their will, with no concern for the destabilizing 
effects on Lebanon.
    The United States supports Lebanon's sovereignty, independence, 
national unity, and territorial integrity. We support efforts by 
responsible Lebanese leaders to promote democratic practices and 
institutions that foster Lebanon's true national interests. That is why 
we will continue to support the Lebanese Armed Forces and Internal 
Security Forces with whom we work to confront the threats of terrorism 
and instability. We appreciate Congress' support for these important 
programs. We will also continue to support Lebanon and its people as 
they cope with the burden of assisting the nearly 730,000 Syrians and 
45,000 Palestinians from Syria who have sought refuge there.
    The Syrian civil war has also created severe challenges for Jordan, 
a key ally and partner with whom we work on important U.S. interests in 
the region, including Middle East peace, helping reintegrate Iraq into 
the Arab world, countering violent extremism and managing the Syrian 
refugee crisis. Politically, economically, and on humanitarian grounds, 
the United States must continue to demonstrate a strong commitment to 
Jordan and its long-term stability.
    King Abdullah II's efforts to implement political reforms in Jordan 
underscore his leadership in seeking a better future for the Jordanian 
people. Moving forward with these reforms is vital to Jordan's 
security, stability, democratic development and economic prosperity. 
The U.S. continues to support Jordan with bilateral assistance--as well 
as loan guarantees and IMF loans--that place special emphasis on reform 
and growth. In the past 2 years, we have provided Jordan with 
significant additional assistance to ease the burden of hosting over 
520,000 refugees from Syria. We appreciate the support Congress has 
shown for this key ally.
Egypt
    I have just completed 2 years as Ambassador in Egypt, the most 
populous Arab country and a bellwether for trends across the region. 
Simply put: what happens in Egypt matters far beyond its borders. I 
remain convinced that Egypt is an extraordinarily important country for 
the national security interests of the United States--it is a country 
that deserves our continued partnership and support.
    Mohamed Morsy was elected as President of Egypt in elections that 
were free and fair, even though the complex constitutional and legal 
process that produced those elections managed to confuse and upset 
nearly everyone. The Muslim Brotherhood's Freedom and Justice Party and 
Salafist and other Islamist parties won widespread support across 
Egypt, in part, because Egyptians hoped to see an end to the corruption 
and mismanagement of the Mubarak regime and also because other 
political parties were poorly organized.
    During his 1 year in office, President Morsy, who entered office 
promising to be a President for all Egyptians, managed to anger and 
disappoint many people. His removal on July 3 followed a series of 
political miscalculations and an inability to sustain national 
consensus. Demands for his removal regrettably were not tested by an 
electoral process, yet in the end Egyptians will be the ones to 
determine whether that action was correct. The United States stands for 
democracy. And we have made our concerns about this method of 
government change and about the violence used against unarmed 
protesters abundantly clear. But it is also clear that many Egyptians 
seek security and stability after the recent tumultuous period.
    The interim government has announced a roadmap to seat a 
democratically elected civilian government. The roadmap includes a 
constitutional amendment process culminating in a national referendum. 
The failure of the Morsy government to create an inclusive democratic 
process in Egypt was a mistake that other governments--including the 
current interim Egyptian Government--must avoid. The guarantee of 
universal rights for all citizens, the inclusion of ethnic and 
religious minorities, including Christians, and the empowerment of 
women is the government's duty. Egypt needs inclusive processes to 
amend the constitution and to conduct parliamentary elections if it is 
to stabilize the situation and place the country on a sound political 
and economic footing.
    The United States believes that only Egyptians can decide the 
future direction for their nation. As long-time friends and partners of 
the Egyptian people we will do our best to support them as they seek to 
stabilize their nation and reignite their economy. Since July 3, the 
President, Secretary Kerry, and Secretary Hagel have all clearly 
affirmed our support for Egypt's transition to that stable, democratic 
and prosperous future. Members of this committee have also helped to 
reinforce this message. Senators McCain and Graham, well-known friends 
of Egypt, provided the Egyptian leadership with frank advice about 
America's expectations for the future.
    Moving forward, our response to the situation in Egypt will be 
consistent with our laws, our national interests and our values. Over 
the past weeks, at the President's direction, we have undertaken a 
major review of our economic and our military assistance programs. As 
Egypt changes, so too must our bilateral relationship evolve. As we 
consider how to best recalibrate our assistance, we must take account 
all of the events that have taken place in Egypt, including the last 2 
months. The President is currently reviewing how we will proceed, 
consistent with the law. If confirmed, I will continue to urge the 
Egyptian Government to move expeditiously toward an inclusive, 
civilian-led, democratic transition and I look forward to working with 
the Congress to assure that we have the flexibility to respond to and 
influence changing events.
The Search for Middle East Peace
    The United States is fully committed to helping Israel and the 
Palestinians negotiate a final status resolution to their conflict. As 
the President and Secretary have repeatedly stated, the U.S. is fully 
and deeply committed to Israel's security. Israel is our close friend 
and the region's only stable democracy; our security cooperation has 
never been closer. Meanwhile, the United States continues to assist the 
Palestinians as they build governing institutions. This week marks 35 
years since the Camp David accords between Israel and Egypt, shepherded 
by the United States, lifted hopes for a permanent end to the Middle 
East conflict. The search for Middle East peace remains a diplomatic 
challenge that is also at the very heart of U.S. national security 
interests; it affects all of our relationships in the region.
    To his great credit, Secretary Kerry has devoted many hours and 
many trips to the region in an extraordinary effort to make possible 
the resumption of Israeli-Palestinian negotiations. The resumption has 
taken courageous leadership by Prime Minister Netanyahu and President 
Abbas. We all know that this is a complicated process that will require 
difficult choices for both Israelis and Palestinians as they work 
toward reasonable compromises on tough issues with our support. 
Consistent with the Secretary's view that the negotiators not be 
restricted in their search for peace by public comment or release of 
details of proposals on the table, I will not go into the details of 
those talks in public. The Bureau of Near Eastern Affairs and our posts 
in the region will support Secretary Kerry in every aspect of this very 
important mission. Everyone knows that this will not be easy, but the 
goal of a two state solution, with Israelis and Palestinians living 
side-by-side in peace and with secure borders is at the center of 
American national interests in the region and beyond.
Iraq
    The United States has made enormous investments and sacrifices in 
Iraq, including the 4,489 lives lost and 32,230 wounded during 
Operation Iraqi Freedom and Operation New Dawn. The United States 
military departed Iraq in 2011, with Saddam Hussein gone and an elected 
government in his place.
    Over the past decade, we have come to better understand Iraq as a 
country with many diverse ethnic and religious tensions and which, 
freed from the despotic regime of Saddam Hussein, has struggled to find 
its balance. The United States must support Iraq's efforts to build a 
unified and stable democratic nation. We are conducting a great deal of 
our engagement with Iraq under the Strategic Framework Agreement. The 
U.S. will continue to support the increased production and export of 
Iraq's energy resources, because they are so very important for Iraq's 
economy--and the global economy.
    Regrettably, al-Qaeda in Iraq continues to threaten the Iraqi 
Government's efforts to establish a stable government and economy with 
violent acts, such as vehicle and suicide bombings. It is also seeking 
to rekindle a cycle of sectarian violence that in the past did so much 
to damage relations between Iraqis. We are urging Prime Minister Maliki 
and all Iraqi leaders to unite and fortify the country politically 
against extremist trends from any group or community. We continue to 
provide advice to Iraqi Forces on counterterrorism issues. I share the 
concern of members of this committee about the situation in Iraq and, 
if confirmed, look forward to consulting closely on this matter.
    U.S. diplomacy supports Iraq as it seeks to remain independent of 
regional disputes and to integrate itself in the global economy, 
efforts in keeping with our regional interests. This work has produced 
important results, and we welcomed this year Iraq's renewal of 
relations with Kuwait after decades of war and enmity. Iraq has been 
conducting a series of provincial council elections--and it will face 
national elections in the first quarter of 2014, elections that will be 
a truly pivotal moment for the future of Iraq's democracy.
Iran
    The Government of Iran has for many years been the world's foremost 
state sponsor of international terrorism--including in Iraq, Syria, and 
Lebanon--and it continues to defy the international community by 
pursuing nuclear activity in violation of its international 
obligations.
    The United States will not allow Iran to acquire nuclear weapons. 
Thanks to the indispensable role played by Congress, and with 
international support, we have put in place an unprecedented sanctions 
regime against Iran to impede its progress in prohibited nuclear 
activities, as well as to persuade Tehran to address the international 
community's concerns about its nuclear program. I would like to 
acknowledge the efforts you have played in this effort, Mr. Chairman, 
as well as the efforts of other members of the committee. Acting both 
through the United Nations Security Council and regional or national 
authorities, the United States and our partners have put in place the 
strongest sanctions measures in history relating to Iran's nuclear, 
missile, energy, shipping, transportation, and financial sectors. Those 
sanctions have had a serious negative impact on Iran's economy. The 
people of Iran, frustrated with their government's aggressive foreign 
policy and straining under the effects of economic sanctions, voted for 
change in the recent election of President Hassan Rouhani.
    President Rouhani has demonstrated a markedly different tone than 
his predecessor and we note he has used conciliatory language since his 
election. However, we have made it clear that we need to see concrete 
actions to address the international community's concerns about Iran's 
nuclear program. The Iranian Government has an opportunity to reduce 
its isolation by resolving these concerns. The United States and our 
international partners remain committed to a dual track approach of 
pressure and engagement to prevent Iran from acquiring a nuclear 
weapon--and we are prepared to meet with Iran as soon as possible on 
the matter through the P5+1.
    Iran has a rich history and talented people--it is a country which 
could be making important contributions to the global community. Should 
the Iranian Government choose to engage substantively and seriously to 
meet its international obligations and find a peaceful solution to this 
issue, the United States will be a willing partner.
The Arabian Peninsula
    Over many decades, the United States has built deep and mutually 
beneficial relationships with the countries of the Arabian Peninsula. 
Generations of students from the region have studied in the United 
States, including rising leaders we will see assume positions of 
greater authority in the near future. We share common interests in 
confronting regional threats, including the proliferation of nuclear 
and chemical weapons, and in ensuring stable world markets in finance 
and energy. American businesses have developed thriving partnerships in 
these expanding economies, which had over 100 billion dollars' worth of 
trade with the United States in 2011
    While we do not always see precisely eye to eye on the many 
challenges facing the Middle East, we have established an unprecedented 
counterterrorism and security cooperation. This has been a significant 
priority for President Obama and Secretary Kerry and will be for me, as 
well. Our security relationships with the Gulf countries over the past 
12 years have been vital to our military operations in the region, and 
will continue to be strategically critical as we together confront 
threats from Iran and regional instability stemming from the Asad 
regime's oppression of its people. Qatar hosts CENTCOM Forward 
Headquarters and U.S. Air Force Central Command operations at Al Udeid 
Air Base. Bahrain is a major non-NATO ally that hosts the U.S. Navy's 
Fifth Fleet. Kuwait is a major non-NATO ally that hosts the largest 
presence of U.S. forces in the region. The UAE and Oman have been 
strong partners and made major contributions to regional peacekeeping 
security, and counterterrorism efforts.
    Even as we work to strengthen the longstanding security and 
economic aspects of our relationships in the Gulf, we are facing new 
challenges. These societies have struggled over the past decades to 
cope with the rapid pace of modernization, population growth and the 
rising expectations of their young people. Our continued engagement 
with these countries, both government to government, and people to 
people, will be important in addressing key principles such as 
adherence to universal human rights, including equality for women and 
freedom of religion, as these processes continue to play out. While at 
times we have seen an impulse toward greater restrictions, there is a 
countervailing domestic pressure toward greater openness and to 
strengthen the bridges connecting these societies with the rest of the 
world. At least 77,000 Saudi students are pursuing higher education in 
the United States, even as King Abdullah has undertaken some initial 
steps toward social modernization such as improving the Kingdom's 
education and judicial establishments, advancing an interfaith 
dialogue, appointing women to the Consultative Council, and passing an 
antidomestic violence law.
    After some early progress on reform following the Bahrain 
Government's 2011 response to domestic protests, the pace has slowed, 
particularly on accountability and freedom of expression. Bahrain's 
leadership needs to pursue a process of meaningful dialogue with the 
country's peaceful opposition that results in sustainable political 
reforms. The United States will support Bahrain as it undertakes these 
reforms and expands its commitment to the protection of citizens' 
universal human rights--changes that will enhance Bahrain's long-term 
stability. Across the region, we will continue to express our strong 
concerns over restrictions on religious freedom, freedom of expression 
and assembly, and women's issues. Our message is clear and consistent: 
the only way forward in responding to the demands of a new generation 
is increasing openness and adherence to universal human rights.
    Finally, I would note that we have seen the Gulf Cooperation 
Council states come together and work effectively with us and other 
international partners in Yemen, one of the world's poorest and least-
developed countries, which continues to face serious security 
challenges. Al Qaeda in the Arabian Peninsula remains one of the most 
significant terrorist threats to the United States, and it continues to 
exploit Yemen's weak governance to find safe haven and to project these 
threats outside of Yemen's borders. Under a Gulf Cooperation Council 
initiative, and with the help of the United States, Yemen's Government 
has defied enormous odds to move from the protests that brought about 
an end to the three decade rule of President Ali Abdullah Saleh to a 
relatively peaceful and well-defined transition under the leadership of 
President Abd Rabbuh Mansur Hadi. The United States has provided 
significant assistance to Yemen's transition. Ultimately, Yemen's 
successful transition is a key underpinning of long term stability and 
security in the region, and the United States will continue work with 
the GCC and other international partners to support Yemen's ongoing 
transition.
North Africa
    More than 2 years after its revolution, Libya continues to contend 
with the serious challenges resulting from Qadhafi's dictatorial rule, 
including the need to rebuild almost from scratch security forces and 
weak institutions, porous borders and loose weapons, and to root out 
militia groups and terrorists. There has been political progress: Libya 
held its first free and fair elections in over 40 years just over a 
year ago and continues taking the steps necessary to draft a new 
constitution. Yet recent political unrest has sharply reduced Libya's 
oil and gas exports, demonstrating how difficult and fragile this 
transition is.
    There is tremendous goodwill toward the United States and a strong 
desire on the part of Libyans to reengage with the West after decades 
of Qadhafi-imposed isolation. The United States has a strategic 
opportunity to forge a strong and mutually beneficial relationship with 
Libya. Our limited, targeted technical assistance to help Libya build 
the capacity to address issues of concern for our own national 
interests has been a welcomed part of this reengagement. We have had a 
good working relationship with Prime Minister Ali Zeidan and his 
government, and I look forward to discussing ways in which we can work 
together to advance Libya's democratic reforms and help it address its 
security concerns.
    Mr. Chairman, we understand fully the responsibilities arising from 
the attack on our special mission facilities in Benghazi a year ago 
that resulted in the murders of four of our colleagues. If confirmed, I 
will work closely with the Justice Department and Libyan authorities to 
bring the perpetrators of that attack to justice.
    Tunisia and the United States share over 200 years of history, 
resulting in rich cultural, economic, and security ties. Tunisia's 
January 2011 revolution, which initiated the ``Arab Awakening,'' marked 
the beginning of a new phase of cooperation between our two countries. 
Tunisia continues to make progress in its democratic transition and has 
made major progress in efforts to draft a new constitution. Over the 
last 2 years, the United States has committed more than $350 million in 
assistance to Tunisia to support its democratic transition, economic 
stabilization and growth, as well as its efforts to enhance security in 
the country and along its borders. I look forward to improving and 
deepening our security cooperation with Tunisia, to include urging the 
Government of Tunisia to bring to justice the perpetrators of the 
September 14, 2012, attack on our Embassy and the American school.
    Algeria and the United States have built a strong bilateral 
relationship, with a focus on our shared interest in battling terrorism 
and violent extremism. Algeria's experience fighting an Islamist 
insurgency during the 1990s resulted in a well-equipped and battle-
hardened military that constitutes one of the strongest counterterror 
forces in the region. We hope Algeria will continue to assume a greater 
regional leadership role to help stabilize neighboring states, which 
are also struggling with the presence of terrorists, loose weapons, and 
porous borders. We are working to expand our trade relationship with 
Algeria and will continue to support efforts to make room for civil 
society and to implement other political reforms en route to 
Presidential elections next year.
    After more than 235 years of friendship, the U.S. and Morocco 
continue to enjoy a strong bilateral relationship, with shared 
interests in promoting regional stability, countering violent 
extremism, and strengthening trade and cultural ties. In recent years, 
King Mohammed VI has initiated reforms to strengthen the role of 
Parliament, rule of law, and human rights. Morocco remains a key 
partner to the United States on regional security and counterterrorism 
issues. Since 2006 the United States and Morocco have had a bilateral 
Free Trade Agreement, which has increased bilateral trade by 244 
percent. During its current term on the U.N. Security Council, Morocco 
has played an important role in international efforts to end the Syrian 
civil war.
Focused on our Highest Priorities
    Mr. Chairman and members of the committee, I am well aware that we 
are facing a period of difficult budgets and many competing priorities. 
However, we have a responsibility to protect our national interests, so 
many of which are tied to the Middle East and north Africa. The popular 
ferment, reform efforts and the transitions underway across the region 
highlight the need for the Bureau of Near Eastern Affairs to have a 
well-resourced and flexible platform from which to conduct our 
diplomacy--with an up-to-date, secure infrastructure. Our diplomatic 
and consular posts are being asked to do more and must have the State 
Operations and Diplomatic Security resources to meet our diplomatic 
challenges. In my view, it is critical that our posts in the region be 
able to build new relationships now, in this time of unsettled 
transitions, in order to set the tone and direction for America's 
partnerships in the region for decades to come. In spite of the immense 
challenges, now is not the time to withdraw from the region. Instead, 
we must refocus our efforts in support of the many American strategic 
interests in the region.
    If confirmed, I pledge to work with you to assure that the 
resources and tools you provide our Bureau are being directed to our 
highest priorities and are supporting activities that advance our top 
national security and economic interests. Under the President's 
leadership, I pledge to work with you to build a principled structure 
on which the United States can deepen our ties with the region, and to 
ensure that we continue to have the will, the trust, and the capability 
to advance our shared security and prosperity and to meet our many 
global challenges together.

    The Chairman. Thank you, Ambassador.
    Mr. Starr.

  STATEMENT OF GREGORY B. STARR, OF VIRGINIA, TO BE ASSISTANT 
           SECRETARY OF STATE FOR DIPLOMATIC SECURITY

    Mr. Starr. Mr. Chairman, Ranking Member Corker, members of 
the committee, I too am honored to appear before you today. I 
would like to thank the committee for your continued support 
and the interest in the Bureau of Diplomatic Security Programs 
in protecting American diplomats abroad. This support enables 
Diplomatic Security, also known as ``DS,'' to safeguard 
American diplomats and facilities for the conduct of U.S. 
foreign policy, while maintaining our robust investigative 
programs which serve to protect the United States borders and 
our presence overseas.
    As the President's nominee to become Assistant Secretary at 
the Bureau of Diplomatic Security, I am thankful to the 
President and Secretary Kerry for the confidence that they have 
placed in me to lead Diplomatic Security during these difficult 
and demanding times.
    I have been a security professional for more than 30 years. 
My experience both within the Department and outside government 
has prepared me to take on the challenges of leading Diplomatic 
Security in the future.
    The world is changing and so is the way in which diplomacy 
is conducted. Therefore the way in which we provide security 
for our diplomats must change with it. We can never truly 
eliminate all risks faced by the U.S. Government personnel as 
they advance our national interests abroad. We in the 
Department constantly review evolving threats and seek to 
mitigate risk as much as possible.
    The challenges we have faced in the previous decade, over 
the previous year in particular, have been significant and 
growing. Increasingly, our people are called upon to live and 
work in difficult and dangerous environments. We operate in 
these environments out of necessity because that is where we 
must be to serve our Nation's interests. I have learned that we 
cannot shut ourselves inside embassies, embrace a zero risk 
posture, and forgo the work of helping build the rule of law 
and strengthen democratic institutions abroad. It is in just 
these countries where it is toughest to serve where American 
diplomacy pays the greatest dividends.
    This is the face of American diplomacy today and it is my 
job and the job of Diplomatic Security to keep our people safe 
while still allowing the important work to continue.
    As a senior leader within Diplomatic Security, I can tell 
you that we are looking toward the next challenges and threats. 
We must continue to embrace change across the spectrum of 
security requirements. If confirmed, I plan to focus on three 
broad priorities. Those are: staffing and resources; improving 
coordination among our investigative elements; and continuing 
to improve our physical security protections for U.S. personnel 
serving overseas.
    In terms of staffing and resources, I want to ensure that 
we have qualified people with sufficient training and the right 
resources at our posts overseas in order to respond to each 
post's unique security environment; and we improve the training 
of our foreign affairs colleagues by expanding our foreign 
affairs counterthreat courses.
    On the investigative side of Diplomatic Security, I will 
continue to ensure that our criminal investigators, background 
investigators, and cyber security personnel are working closely 
together, as well as with other Department offices. Under my 
leadership we have improved our coordination both within the 
Department and with our interagency partners in the Department 
of Defense and the international community.
    Finally, we will continue to work closely with our partners 
in the Bureau of Overseas Buildings Operations and regional 
bureaus to provide safe, secure, and functional embassies and 
consulates that represent the United States abroad.
    In conclusion, I want to assure this committee that we in 
DS realize that our work in securing our posts and protecting 
our people will never be done. We take great pride in our 
accomplishments, but we are focused on the future. If 
confirmed, I pledge that through my leadership everyone in DS 
will understand that they must lead by example, properly 
delegate authority, and be committed to continually improving 
how we deliver security to our constituents and achieve our 
global mission.
    Having said that, I want to be clear that I believe that 
responsibility for the provision of security lies with the 
Assistant Secretary of Diplomatic Security, and if confirmed I 
am committed to shouldering that responsibility.
    I will be glad to answer any questions you have. Thank you 
very much for allowing me to appear here.
    [The prepared statement of Mr. Starr follows:]

                 Prepared Statement of Gregory B. Starr

    Mr. Chairman, Ranking Member Corker, members of the committee, I am 
honored to appear before you today. I would like to thank the committee 
for your continued support and interest in the Bureau of Diplomatic 
Security's programs. This support enables Diplomatic Security, also 
known as DS, to safeguard American diplomats and facilities for the 
conduct of U.S. foreign policy, while maintaining our robust 
investigative programs which serve to protect the United States borders 
and our presence overseas. As the President's nominee to become the 
Assistant Secretary for the Bureau of Diplomatic Security, I am 
thankful to the President and Secretary Kerry for the confidence they 
have placed in me to lead DS during these difficult and demanding 
times.
    I have been a security professional for over 30 years. My 
experience both within the Department and outside our government has 
prepared me to take on the challenges of leading DS into the future. 
The world is changing, and so is the way in which diplomacy is 
conducted; the way in which we provide security for our diplomats must 
change with it.
    Although we can never truly eliminate all risks faced by U.S. 
Government personnel as they advance our national interests abroad, we 
in the Department constantly review evolving threats and seek to 
mitigate risk as much as possible. The challenges we have faced over 
the previous decade, and over the previous year in particular, have 
been significant and growing. Increasingly, our people are called upon 
to live and work in difficult and dangerous environments. We operate in 
these environments out of necessity, because that is where we must be 
to serve our Nation's interests. I have learned that we cannot shut 
ourselves inside our embassies, embracing a zero-risk posture, and 
forgo the work of helping build the rule of law and strengthen 
democratic institutions abroad. It is in just these countries where it 
is toughest to serve, where American diplomacy pays the greatest 
dividends. This is the face of American diplomacy today and it is my 
job, and the job of DS, to keep our people safe while still allowing 
this important work to continue.
    As a senior leader within DS, I can tell you that we are looking 
toward the next challenges and threats. We must continue to embrace 
change across the spectrum of security requirements. If confirmed, I 
plan to focus on three broad priorities: staffing and resources, 
improving coordination among our investigative elements, and continuing 
to improve our physical security protections for U.S. personnel serving 
overseas.
    In terms of staffing and resources, I want to ensure that we have 
qualified people, with sufficient training, and the right resources at 
our posts overseas in order to respond to each post's unique security 
environment. We improved the training our foreign affairs colleagues 
receive by expanding our Foreign Affairs Counter-Threat (FACT) course. 
On the investigative side of DS, I will continue to ensure that our 
criminal investigators, background investigators, and cyber security 
personnel are working closely together, as well as with other 
Department offices. Under my leadership, we have improved our 
coordination both within the Department and with our interagency 
partners in the Department of Defense and the Intelligence Community. 
Finally, we will continue to work closely with our partners in the 
Bureau of Overseas Buildings Operations and Regional Bureaus to provide 
safe, secure, and functional embassies and consulates that represent 
the United States abroad.
    In conclusion, I want to assure this committee that we in DS 
realize that our work in securing our posts and protecting our people 
will never be done. We take great pride in our accomplishments, but we 
are focused on the future. If confirmed, I pledge that through my 
leadership, everyone within DS will understand that they must lead by 
example, properly delegate authority, and be committed to continually 
improving how we deliver security to our constituents and achieve our 
global mission. Having said that, I want to be clear that I believe 
that responsibility for the provision of security lies with the 
Assistant Secretary of DS and if I am confirmed, I am committed to 
shouldering that responsibility.

    The Chairman. Thank you very much. Thank you both for your 
statements.
    Ambassador, thank you for an in-depth statement. I know 
that is partly as a response to issues that I raised, so let me 
explore one or two of them with you. Over the last 2 months we 
have had over a thousand people killed in Egypt. Hundreds have 
been arrested for their political allegiances. The Mubarak-era 
emergency law has been reinstated and just extended for another 
2 months.
    So I look at our efforts here and I see our canceling 
Bright Star exercises, I see our suspending the delivery of F-
16s. And it has not, at least to me, indicated changing much of 
the behavior of the present leadership inside of the country. 
So what other leverage do we have here to get back on the track 
to ensure a civilian government, moving toward an inclusive 
Egypt? What are your views on conditioning or restructuring aid 
to Egypt in the current environment?
    Ambassador Patterson. Thank you, Mr. Chairman. Let me say 
that certainly the incidents of the past few months, the 
killing of unarmed demonstrators and the reinstitution of 
emergency law, have been quite worrisome. But let me also point 
to a roadmap that the government has put forward, and we will 
do everything we possibly can to push them along that path of 
reinstating a civilian government.
    But this does provide an opportunity to look at the 
assistance program in a new way. The President has instructed 
us to undertake a full-scale review of our assistance programs 
in Egypt and to look at ways to, at the very least, to 
modernize those to reflect the new realities, particularly in 
the military assistance package. That process is ongoing, 
Senator, so I cannot predict what the results will be. But it 
is an opportunity to look at things anew in our assistance 
relationship.
    Senator, I might add that it is not just assistance that 
will, I think, encourage the government to resume a democratic 
path. Tourism has dried up, investment has dried up. We have 
not seen a great deal of disinvestment for the moment, but 
engagement with the West is much more widespread than the 
assistance relationship. I think there are many in the Egyptian 
Government and certainly in the business community who 
appreciate that they need those ties and they need that 
revenue.
    The Chairman. Well, I would appreciate and I hope you will 
take back to the Department that it would be good to engage 
with this committee as they evaluate what the new paradigm 
might be for assistance. I was one of those who argued 
strenuously, including on the floor of the Senate, against 
cutting all aid or freezing all aid to Egypt. But I have to be 
honest with you. As I see circumstances unfold, I increasingly 
am concerned about whether that now at this point is the 
continuing right decision. I would look forward to a dialogue 
with the Department to share views about how we move in a 
direction that achieves our goals inside of Egypt.
    Let me turn to Iran quickly. I know that there is a lot of 
bubbling expectation and hope, and I certainly share the hope, 
that some of the words and limited actions that are being taken 
are an expression of something deeper. But at the end of the 
day, only actions as it relates to the international 
community's position, not just the U.S. position but the 
international community's position, will lead us to believe 
that Iran is sincere about changing their course toward nuclear 
weapons.
    The expression that ``we will never have nuclear weapons'' 
is not enough. If the world could just trust everybody, like 
Assad, who said he did not have chemical weapons, but now 
admits that he has them--to say that ``we will never have 
nuclear weapons'' is not enough.
    You know, since the Iranian election Iran has added 2,000 
centrifuges, including 300 second generation ones. It is 
looking at a plutonium process, which is very worrisome. And 
yet the administration has issued very few new sanctions.
    So I would like to get a sense from you as to what more can 
the administration do to send a message to the Iranians that we 
appreciate the words, but we will only trust actions that go in 
line with the international community?
    Ambassador Patterson. Mr. Chairman, I think that is right. 
We have seen some encouraging signs in the past few days, the 
release of a limited number of political prisoners, some of the 
statements by President Rouhani about the nuclear program. But 
the fundamental issue here is that they have to comply, Iran 
has to comply, with the provisions of their international 
obligations, both to the IAEA and to the Security Council 
resolutions.
    Let me say, Senator, as I was getting ready for this 
hearing I looked at the sanctions and I was surprised at how 
effective they have been. This is the most effect sanctions 
program that I can ever remember. The effect on their petroleum 
exports, cutting off Iran from the international financial 
system, the effect on inflation, the effect on the depreciation 
of the rial--this is what, one might hazard a guess, is what 
has brought them to this point.
    So I think we need to see how the sanctions regime will 
play out. There are some targets coming up. There is the 
evaluation of the reduction in oil imports. So I think we need 
to give it a little more time. But again, I look forward, if 
confirmed in this position, to working closely with you on the 
Iranian sanctions program, because again I think it has been 
very successful.
    One way, one demonstration of that, I believe was the 
election of President Rouhani, since the Iranian people voted 
for change, clearly voted for change.
    The Chairman. Let me just close by saying, look, sanctions 
are a means to an end. As strongly as I have been an advocate 
and the author of them, if Iran were to act in accordance with 
the P5+1 positions, with the international community's 
positions, with the Security Council's positions, then upon 
acting in that way in a verifiable way, I will be one of the 
advocates of seeking to lift those sanctions, because I am sure 
the Iranians wonder whether the sanctions would ever be lifted 
if they actually comply. I for one would be ready to do so, but 
only if, in fact, we have compliance in accordance with the 
United Nations Security Council resolutions and the efforts of 
the P5+1.
    I have a whole host of other questions for you and Mr. 
Starr, but I will turn to Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you both again for your distinguished careers. I 
think both of you are very suited for the positions you have 
been nominated to and I look forward to working with you both.
    In your case, Ambassador Patterson, you are moving from in 
a way a field commander's position to a strategist. Some of us 
have watched and feel like sometimes that our responses to what 
is developing in the Middle East are ad hoc, maybe especially 
so in Syria until recent times. I am just wondering if you get 
a sense as to whether there is an overarching strategy in the 
region or whether, in fact, our foreign policy and our 
relationships in these countries is more dependent on events as 
they evolve. I would just like for you to expand on that if you 
could.
    Ambassador Patterson. Thank you, Senator Corker. Yes, I 
know this is a very difficult issue, because frankly I think 
the changes in the Arab Spring or Arab Awakening, as we now 
call it, came at us very, very rapidly. But I do think there is 
an overarching strategy toward the region and I tried a bit to 
lay that out in my longer written statement.
    The first is to try and promote some kind of democratic 
transition. These societies are not going to go back to where 
they were. They have gotten rid of old autocrats. There is a 
high degree of violence. There is a lack of institutional 
structures throughout the region. So that I think is our first 
priority, and it is going to be really hard, because each 
country is at a different level of development.
    At the same time we have these enormous security interests 
in the region, in Syria and Iran and Libya, and we are going to 
have to pursue those simultaneously. So those I would say would 
be the two overriding elements in our strategy, but the 
implementation of them is going to be extraordinarily 
difficult. I might hazard to say that it is going to be 
expensive at times. Look at the Syria situation. But I would 
say those would be our two priorities for the region, to, one, 
promote our security interests, which are going to differ from 
country to country, and to promote an overall broad strategy of 
democratization.
    Senator Corker. You know, a recent observation in the 
Middle East would be that democracy means to many of the folks 
in the Middle East that democracy is an election. It is almost 
a ``one and done'' mentality. The election occurs and then 
there is the consolidation of power. Right now in Iraq, one of 
the reasons we are having some of the security issues or they 
are having some of the security issues they have there is 
Maliki is focused on concentrating power and appealing to the 
base. We had the same thing with Morsi in Egypt.
    Is there anything you might--is there any light you might 
shed to us regarding how you see that evolving over time to 
real governance issues?
    Ambassador Patterson. Senator Corker, that is going to be a 
huge challenge, because these countries--elections obviously 
are not enough, because these countries have no institutional 
structures. I mean, in the most fundamental way they have weak 
structures even to support an electoral process. So we are 
going to have to help them develop rule of law systems, to help 
them develop commercial regulation, to help them develop all 
the things, participation by minorities, which I think is 
probably the most critical element throughout the Middle East, 
to have adequate participation by minority populations in the 
overall political environment.
    That involves working with political parties. It involves 
working with civil society. And it is going to take a really 
long time because there is no history of this. I do not want to 
come before you and suggest this is going to be easy.
    I think we may be aided by having the support of many of 
our allies in this respect, but it is going to be a long, hard 
slog.
    Senator Corker. I appreciated your comment about the 
sanctions on Iran, and I do think they have had a big effect 
and there is no question of the people on this committee that 
have had the biggest role, there is no question our chairman 
has, and I want to thank him for that.
    I also want to say that I think the committee's actions 
relative to Syria a few weeks ago had a big effect on moving 
toward the discussions that are now under way.
    Now, recently, I guess I read this morning in the paper and 
heard through conversations last night that maybe the Iranian 
issue is now being discussed. Do you have any sense of what is 
happening right now relative to negotiations and how the Syrian 
issue may lead to other conversations in Iran that we might not 
be aware of?
    Ambassador Patterson. No, Senator, I do not have any 
information about that.
    Senator Corker. Let me ask you this. The Arab Spring or the 
Awakening, as you just called it, as we look, and I know the 
chairman mentioned something about how we look at our national 
interests in Egypt--I too felt like at the time of the debate 
it was not the time to just cut off all aid. I think at some 
point we will figure out a way to pursue aid in a way that does 
further our national interests, at the same time does send a 
signal to the Egyptian military.
    But can you tell, with everything that has happened--we had 
a dictator that left, we had an election, now we have a 
different situation--has the Arab Awakening, as you call it, 
ushered in any difference in Egypt at this point? Has anything 
really changed? Are we back where we started a couple of years 
ago?
    Ambassador Patterson. Senator Corker, I do not think we are 
back where we started, because the population is energized. 
This huge number of largely unemployed young men who have now 
the ability to communicate through means that they did not have 
even 5 years ago--the population is hugely energized and at 
least in Egypt believes that taking to the streets in 
demonstrations is the way to express yourself politically.
    The trick for the international community will be to try to 
help countries, and not just Egypt, get past that and channel 
this enormous enthusiasm and, frankly, frustration of young 
people, which is very multifaceted, into a legitimate political 
structure. So I do not think it is going to go back by any 
means, but I do think, because of a combination of factors, we 
may be in for a prolonged period of instability in this region, 
and not just in Egypt.
    Senator Corker. I know my time is up and we have other 
panelists, and I do not know if we are going to have another 
round. If we do not, again I want to thank you both for your 
desire to serve in this way.
    Mr. Starr, I know we talked at length about Diplomatic 
Security. I know that you have emphasized that the buck stops 
with you, and I really like that attitude. I do hope that in 
the State Department itself you will figure out a way to have a 
different degree of accountability than we now have. I hope 
that will be a thrust. I think the bill that we have looked at 
here in the Senate may help with that. But I do thank you for 
your willingness and I will look forward to working with you.
    The Chairman. Thank you, Senator Corker.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Ambassador Patterson and Mr. Starr, both of you, 
for your willingness to continue to serve the country and take 
on these important posts at a very critical time.
    Ambassador Patterson, I especially appreciate the kindness 
you have showed to a number of us when we visited Pakistan 
during your tenure there and your great work in Egypt in a 
turbulent time.
    I actually want to start, Ambassador Patterson, by asking 
you about the special immigrant visa program. Having served in 
some of the countries that have been critical to the effort in 
Iraq and Afghanistan, as I am sure you are aware, the special 
immigrant visa program was established by Congress to address 
those people in Iraq and Afghanistan who have been very helpful 
to our efforts there, who in many cases risked their lives and 
their families' lives to help ensure that the Americans who 
were on the ground were safe and able to accomplish their 
missions.
    I am very troubled that we are here with the special 
immigrant visa program for Iraqis due to expire at the end of 
this month. I am hopeful that we are going to see a willingness 
on the part of the House to extend this program. I know that 
the Senate is very committed to this, that there is language on 
the defense authorization bill that Senator McCain and I have 
offered to address it.
    But hopefully we can reassure those people who are in the 
queue to come to the United States to safety that they will 
have our assistance in doing that. I wonder if you could speak 
to what might happen to some of those folks if we are not able 
to extend this program and allow them to come to the United 
States?
    Ambassador Patterson. Thank you, Senator Shaheen. Let me 
start off with my son, who is here today, Edward, was a captain 
in Iraq a few years ago. He sent me an e-mail--I will never 
forget this. He sent me an e-mail about one of the interpreters 
with his unit, who had pulled some of the injured soldiers in 
his unit to safety. So I feel a personal connection to this 
issue.
    The administration is asking for an extension. I know the 
number has been under the cap; 2,500 people have been 
processed. We are trying to speed up that process and I hope we 
can do that. I will certainly promise you that I will do 
everything we possibly can to speed that process up. But we are 
going to ask for an extension.
    Senator Shaheen. Well, thank you. I appreciate that. As you 
point out, it is a two-part problem. One is to make sure that 
the program gets extended, that the authorization gets 
extended, past September 30. But the other problem is to make 
sure that at the State Department we are processing those 
special visas in a way that keeps people moving through the 
queue. Sadly, I think that to date the record has not been as 
good as I would like to see it in terms of addressing the 
people who are waiting. I appreciate that there are security 
issues and that we need to address those, but it would be 
tragic for us to fail to help the people who helped our men and 
women on the ground and as the result they and their families 
are at risk and threatened.
    So thank you for your commitment.
    Ambassador Patterson. Thank you.
    Senator Shaheen. Can I also ask you if you could give us an 
update on where the current Israeli-Palestinian negotiations 
are? I think all of us have applauded the effort to restart 
those and Secretary Kerry's tireless work in doing that. But we 
are watching with great interest and some concern about whether 
these talks are going to go anywhere.
    Ambassador Patterson. Senator Shaheen, I have talked to 
Secretary Kerry about this and he is very optimistic. I must 
tell you, we all admire his leadership on this issue, that he 
has really put an enormous amount of his personal prestige 
behind this.
    But I frankly do not have any details to offer you, because 
he has said that he would like to be the one that will engage 
on this issue. So I will certainly convey that to him. But I 
think Martin Indyk is also--I think he may be back in town, and 
perhaps we can arrange a discussion with members of the 
committee.
    Senator Shaheen. I think that would be very helpful. I 
hope, Mr. Chairman, that you will facilitate that.
    Thank you.
    Ambassador Patterson. Thank you.
    Senator Shaheen. I am almost out of time, but I just wanted 
to ask, Mr. Starr, one question for you, because with the focus 
on what happened tragically in Benghazi, we know that security 
at our embassies is critical and that, despite their diplomatic 
role, that anybody who is assigned overseas is in a risky 
position and there is the potential for danger.
    At the end of the day, it is really our host countries that 
we depend on to address our embassy security. Can you speak to 
whether there is more that we can or should be doing in terms 
of working with those host countries on ensuring that our 
embassies are protected?
    Mr. Starr. Thank you for that question, Senator. Yes, I 
think that, despite the fact that we work so closely with the 
international community and with the Department of Defense, 
others in the Federal Government, on all of these issues, in 
many cases it really does come down to the State Department 
people on the ground and the host country. We believe that 
programs like the Antiterrorism Assistance Program and other 
programs where we are trying to help host countries develop the 
capabilities to protect themselves and protect us at the same 
time and protect our presence, are critical. We need to 
continue those programs. They have been effective in the past.
    We look for opportunities to expand those programs. Quite 
honestly, I think that that is an important factor. Beyond just 
continuing to say things like we will hold the host country 
responsible, we have to help them be responsible. So yes, there 
are ways that we can do this and we will continue. If I am 
confirmed, I will continue to look closely at that. The 
Antiterrorism Assistance Programs, Diplomatic Security is the 
implementer. The Bureau of Counterterrorism is the director of 
the programs. We will work closely toward that.
    Senator Shaheen. Thank you. I appreciate that and hope you 
will share what happens with this committee.
    The Chairman. Thank you, Senator Shaheen.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Ms. Patterson, I have a series of questions for you on 
Syria and on Egypt and others. But I am going to set those 
aside, because I have got to tell you, I am shocked, I am 
absolutely shocked, to sit here and have you describe the 
sanctions against Iran, after you have reviewed them, as you 
said, and your conclusion that they have been effective. You 
described them as successful.
    I am one that was a sponsor of those. I have promoted them. 
I had reservations about them, but I have got to tell you, if 
this is the administration's view, that these have been 
effective and successful, I hope you will take the message back 
to the State Department that this is not a ``mission 
accomplished'' moment. I think they have been an abject 
failure.
    You heard the chairman describe about the new centrifuges 
they have brought in, about the new technology they are using. 
I mean, I do not understand this. I am taken aback by your 
description of what the sanctions have done.
    These sanctions were not put in place to impose some kind 
of pain or something like that. They were imposed to change 
conduct. They were imposed in order to make conduct different. 
They have been an abject failure in that response, and I would 
really hope that you and the administration, if that is their 
position, would rethink this.
    Ambassador Patterson. Senator Risch, I certainly did not 
mean to imply that they have been successful in changing 
behavior. But they have certainly been very successful at 
causing pain in the Iranian economy, and hopefully they will be 
successful in bringing Iran to the table to discuss these other 
issues, to actually affect behavior.
    I totally understand your point, that it is not just to 
cause pain in the economy, but also to change behavior. But 
causing pain in the economy is how sanctions work. The 
reduction in oil revenue has been dramatic. Cutting them off 
from the international financial system has made it almost 
impossible for them to export or trade. Again, the distress in 
the population, which we think had an impact on President 
Rouhani's election.
    So it needs time for diplomacy to work. We think there is 
still time. But let me again stress, Senator Risch, the 
President's position that Iraq will not--Iran, excuse me--Iran 
will not acquire a nuclear weapon. But I certainly understand 
your point. Let me say that I absolutely--what matters is 
results and not just economic pain.
    Senator Risch. Well, as we all know, in this diplomatic 
business vocabulary is important. I would hope you would remove 
the word ``success'' and you would remove the word 
``effective'' from the vocabulary when you are talking about 
this program, because they are not in any way, shape, or form 
successful or effective in making these people comply with the 
conduct that the world demands of them.
    So I would hope you would review that and instead go back 
to the point that we were going to try these things first. We 
were going to try sanctions first, but that all options are on 
the table, and every day that goes by it looks more and more as 
if we are going to have to turn to other options, which we do 
not want to do, the world does not want to do, and I guarantee 
you when we are done the Iranian people are not going to want 
to do.
    So I would really hope that you will revisit the language 
and the adjectives and the vocabulary that we are using.
    Let me just finish up with something that is much more 
parochial. I understand this is difficult to do in an open 
setting as opposed to a classified setting. But I have a 
constituent, Pastor Abedini, that you are familiar with, who 
has been held now for 418 days in prison in Iran for doing 
nothing but being a Christian and speaking about Christian 
matters.
    I understand we do not have diplomatic relationships with 
the country and we all know how difficult the relationship is. 
And we also understand that there are other channels that we 
cannot talk about here. But I hope you will take back a message 
again to the State Department on how important it is that this 
man be released from prison, for doing something that the world 
does not condone, and that is simply for exercising his 
religious freedom.
    My time is up and I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    Let me just take a moment. I appreciate what the Senator 
had to say about how you view the word ``success'' or 
``effective.'' I personally believe if we say that the end game 
that we want, which is Iran to deter its nuclear weapons 
program, have we succeeded in that? No, not yet. But I do 
believe that, as I understood the Ambassador's use of the word, 
which I would embrace personally, that they have been effective 
in moving the Iranians to a point to understand the 
consequences to everyday Iranians in their lives, and therefore 
to the regime.
    The regime ultimately wants to be able to stay in power. 
And they may think our efforts as it relates to the nuclear 
program is about regime change. It is not. It is about, as the 
international community has said, not to pursue nuclear 
weapons, a nuclear capacity that could ultimately turn into a 
nuclear weapon, not regime change, as much as I may have issues 
with the regime. That is not the focus.
    But part of the consequences of sanctions, especially if 
they continue to be vigorously enforced and ratcheted up, is 
that the population inside of Iran will increasingly clamor 
against the regime to change the consequences in their lives. 
So the regime will have to think about regime change, not from 
without, but from within. In that context, I think it is very 
important, and I do believe they have been effective. They can 
be even more effective.
    I would just say to all of my colleagues, having just gone 
through the exercise in this committee about the question of 
the authorization for the use of military force as it related 
to Syria--and each issue is different, but the absence of 
continuing to pursue the sanctions regime to a point that may 
be what we see in the election of Rouhani, may be what we see 
in the comments that have ensued since, is as a result of the 
economic pressures that they are facing and are continuously 
ratcheted up. But if that is not successful, then the only 
option left then will be a vote for a use of force. I hope that 
colleagues who feel, as I do, that Iran at all costs cannot 
have the wherewithal to achieve nuclear weapons will be in a 
position at that time to support the use of force, because 
otherwise either we have sanctions vigorously pursued, 
hopefully with the goal that we collectively want, or there is 
only one other option after that, assuming that does not yield 
the diplomacy we want. That is the challenge we will face.
    Senator Risch. Mr. Chairman, first of all, thank you very 
much for those words. Again, I come back to the fact that I 
think we should take out of this description of what is 
happening there, the words ``success'' and ``effective,'' 
because, as you pointed out, they have not even been effective 
or successful in getting them to put their nuclear program on 
hold. Indeed, they are expanding it, as you eloquently 
described in your opening statement.
    So I think by using in front of a committee like this, the 
Foreign Relations Committee of the United States Senate, for 
the administration to come here and say, well, you know, we are 
pleased that they have been effective and successful, I think 
back in Iran, who watches these statements very closely, they 
are going to breathe a little bit of a sigh of relief and say, 
well, you know, I guess they are not thinking about the other 
things that are on the table.
    I think people should understand there and should 
understand in the international community and the 
administration should understand that the other options on the 
table we are getting closer and closer and closer to because of 
the ineffectiveness and the lack of success with the sanctions. 
So that is my view of the thing.
    Thank you, Mr. Chairman.
    The Chairman. I appreciate that, and I will not belabor it, 
that we have a disagreement, that the use of the word I think 
is in the context of having abiding economic consequence that 
may change part of the equation. But the gentleman and I share 
the same goal, and I just hope that, as he and I share the same 
goal, that others who have expressed the willingness to share 
that same goal also are going to be willing to be supportive of 
what the President will need if diplomacy does not yield at the 
end of the day.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and to the committee.
    Ambassador Patterson, first thank you for being here today. 
I look forward to supporting your nomination and working with 
you in my subcommittee chairmanship capacity. I have decided to 
give Mr. Starr his money's worth for coming, so I am going to 
direct my questions at him if you do not mind.
    Mr. Starr, some things have happened since we went on 
recess and I think it would just be helpful for the committee 
and all who are watching this to understand some of your recent 
actions. On the 4th of August the State Department ordered the 
closure of 22 diplomatic missions across the Middle East and 
North Africa due to potential terrorist threats. If you could, 
in the unclassified way, just quickly kind of walk us through 
making that decision and then how you made the decision about 
when to reopen those consulates and missions, please?
    Mr. Starr. Sir, trying to keep this unclassified will be 
difficult. We had specific threat information that was 
credible. It was not specific to where something might happen 
against us. In close collaboration with all of our partners, 
decisions were made that closing some of our facilities would 
give us time to develop what that threat information was, to 
more adequately put protective measures in place, to work with 
host governments to protect us while we worked to determine and 
counter that threat.
    I think it is important that we have the capability to do 
things like that.
    I would like to put something on the record, which is that 
oftentimes we say, you know, an embassy gets closed. In many 
cases we may have to close our operations to the public, but 
the essential work that goes on in many of our embassies 
continues in many cases. We do not abandon our facilities. 
There is much that still goes on while we may still be closed 
to the public.
    But you are correct, there was specific threat information. 
We needed a broad brush to address that specific threat 
information. I think it is indicative of the administration's 
willingness to balance the fact that, yes, we need to stay 
there and we need to be able to continue in the long run, with 
sometimes we need to take short-term steps that are effective 
and help us mitigate threats against us.
    Senator Kaine. Mr. Starr, also within the last week there 
was a significant attack on the consulate in Afghanistan's 
Herat province. There were no U.S. casualties, I think because 
of a very strong response, both by embassy personnel and 
others. I was hoping you would just describe, again in an 
unclassified way, that attack and how State Department 
personnel and others worked to make sure that it was rebuffed 
without any U.S. casualties?
    Mr. Starr. Sir, at approximately 5:30 in the morning a 
group of individuals, which we now believe were probably led by 
Haqqani or sponsored by the Haqqani network, using Taliban 
personnel, attacked our facility in Herat, first with a very 
large truck bomb that exploded at our front gate, and then 
followed up with attackers that were wearing suicide vests, 
carrying automatic weapons, a large variety of mines and 
antipersonnel devices, and RPGs.
    That Post is one of our posts where it is not protected by 
the Department of Defense. It is Diplomatic Security along with 
a cadre of very experienced contractors. It is a post that 
benefited from the fact that the nondefensive personnel that 
are assigned there, the regular Foreign Service officers, had 
gone through what we call our FACT--Foreign Affairs Counter 
Threat--training beforehand. At the moment that attack 
commenced, every one of them donned their protective gear. They 
had been drilled to make sure that they got immediately to the 
safe havens, which is exactly what they did.
    The drilling on the part of the regional security officers 
and the defensive personnel that we had was incredibly 
effective, and in fact we neutralized the threat. I believe the 
total number was eight attackers that our personnel 
neutralized.
    I would like to go on record saying that it was not without 
casualties to our side when we look at the Africa National 
Police and guard force members that were killed in that attack, 
some of our own Afghan national employees that were translators 
and security personnel, and some other personnel that were 
wounded. It was significant, but the defense of the facility 
was effective. Our personnel were not injured.
    Senator Kaine. A very grim reminder of the challenges of 
the job, but it sounds as if it was a job effectively done.
    Finally, Mr. Starr, we have talked before, most recently in 
July at a hearing, about future embassy training needs for 
State Department personnel. Is it still the position of the 
State Department--I know there is additional dialogue on this. 
Is it still the position of the State Department that the best 
option for the training of embassy personnel in the future is a 
FASTC Center at Fort Pickett, VA?
    Mr. Starr. It is certainly my position, sir. We very much 
understand that our world has changed, and with that world it 
is not just a question of training Diplomatic Security agents, 
but it is the entire Foreign Service that needs to be prepared 
for the places that they work.
    We believe the equities of having a consolidated training 
center in the nearby area to all of our other equities--the 
Foreign Service Institute, the Department of Defense, the 
intelligence community, the Marine Corps bases at Quantico--is 
still the most effective solution.
    Senator Kaine. Thank you very much.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator.
    I have just some final questions. First of all, Ambassador 
Patterson, will you commit to me that, upon confirmation, that 
you will make an effort with the Iraqis to make it very clear 
to them that they are equally as responsible for the security 
of those individuals at Camp Liberty and also to do all that 
they can to both pursue the attackers at Camp Ashraf and to 
return the hostages; the seven hostages that were taken out of 
Camp Ashraf?
    Ambassador Patterson. Yes, sir, I will.
    The Chairman. I want to ask both of you what I ask every 
witness: If confirmed, will you be responsive to questions and 
inquiries from the committee?
    Ambassador Patterson. Certainly, Mr. Chairman.
    Mr. Starr. Absolutely, Mr. Chairman.
    The Chairman. Then finally, Mr. Starr, how often does State 
now plan to review presence at high-threat, high-risk posts 
through the High Threat Board mechanism?
    Mr. Starr. We did the first review earlier this spring, 
sir. We have just finished a worldwide review of our threats 
against all of our posts overseas. It is something we call the 
Security Environment Threat List. Once we have that out--and it 
will be out by the end of this month--I intend to conduct 
another review in October of our high-threat, high-risk posts 
in conjunction with the regional bureaus, the other sections in 
the Department that are critical, with USAID, with our 
intelligence partners, and with the Peace Corps and others. It 
will be this October.
    The Chairman. OK.
    Now, the Department's six-person panel to, ``thoroughly 
review the Diplomatic Security organization and management 
structure'' concluded its work on May the 3rd, as I understand. 
I am not aware that this report has been released publicly. Is 
there an intention to release it to the Congress?
    Mr. Starr. It is an unclassified report, sir. I believe it 
will be released to Congress. I believe at the moment what we 
are doing is going through our responses and trying to line up 
what we are doing in regard to the recommendations. But yes, I 
believe that ultimately this report is releasable.
    The Chairman. Well, I would ask the Department to release 
it upon its completion.
    I understand 4 of the 35 recommendations were not accepted 
by State. Is that a final determination?
    Mr. Starr. More or less, sir.
    The Chairman. Can you speak to why those four were not 
accepted?
    Mr. Starr. One was a specific reference to putting a chief 
of staff position for the Director of Diplomatic Security. We 
do not usually have chief of staff positions in the Department. 
It is just a technical response.
    The other was about whether Diplomatic Security's 
Intelligence and Threat Analysis Section should be part of the 
intelligence community. There are plusses and minuses in our 
minds to being ``part of'' the intelligence community when in 
fact what we are is users of intelligence. Over the past year, 
one of the things that we have done best is to increase our 
reach and depth into the intelligence community and expanded 
our collaboration with the intelligence community.
    We at the moment do not necessarily believe that it is the 
best answer to try to become ``part of'' the intelligence 
community, but to expand our contacts and make sure that we are 
getting the international that we need.
    The Chairman. Have you had any obstacles in getting the 
intelligence that you need?
    Mr. Starr. No, sir. We are linked very closely.
    The Chairman. Then finally--well, two last things. The 
August 29 report of the ``Independent Panel on Best Practices 
for Security at High-Risk, High-Threat Posts,'' of which the 
committee has not received an official copy, but has had to 
rely on Al-Jazeera America's leaked copy, which says a lot, 
recommends that a new position be created for an Under 
Secretary of Diplomatic Security and the responsibility for 
diplomatic security be shifted from the Under Secretary of 
Management to this new position.
    Do you have views on that recommendation?
    Mr. Starr. Sir, as I am up here trying to hopefully become 
confirmed, if your committee concurs, as the Assistant 
Secretary, I think that is my first hurdle. Looking at that 
larger question of whether or not my position should be an 
Under Secretary position, I think that is a larger issue that 
the Department needs to look at holistically.
    I will tell you that one of the reasons I think that 
recommendation was made was to ensure that the head of 
security, whatever the rank, had access to the Secretary of 
State and other senior officials if they needed it. I think it 
will be a long process to determine whether or not we need an 
Under Secretary of State for Security. It needs to be closely 
looked at.
    What I would like to do is assure you that I have the 
access that I need so far, and should I be confirmed I 
absolutely believe I will have the access that I need to have 
to the Secretary when necessary, to the Deputy Secretaries, to 
the Assistant Secretaries and the Under Secretaries in this 
Department. I think that is the critical issue.
    The Chairman. Well, I would expect you to have that access, 
and in the absence of it, should you be confirmed, I would 
expect you to, upon review of this committee, to let us know if 
you are not.
    Then finally, with reference to the Marine Security Guards, 
which I applaud, but my understanding is that two such 
detachments of the 35 new Marine Security Guard detachments are 
in place, with another expected by the end of September. That 
is 3 of 35. How long is it going to take to get the full 
complement?
    Mr. Starr. I hope to have another six or seven activated by 
the end of this calendar year. We believe that is possible. 
There are issues that we have to undertake, such as leasing the 
facility for the Marines to live in and making sure it is safe 
and secure and altering the embassy or consulate profile so 
that they have the right place to work out of. That does take a 
little bit of time.
    Ultimately, we believe this will be a 3-year process to put 
all 35 detachments out there. But as I say, by the end of 
calendar 2013 I hope to have 6 or 7 more, for a total of 9 or 
10 activated this year.
    The Chairman. Is the 3-year process because of the physical 
aspects that you have just described as part of the process? Or 
is it resources, or what?
    Mr. Starr. It is not resources, sir. Well, first we have to 
have the facilities. We have to lease the facilities. We have 
to alter the embassy property or the consulate property so that 
we can have the post and the electronics in it. That takes a 
while.
    Second, the Marine Corps is upping the numbers of Marines 
that they can provide for us, and this activation plan is in 
accordance with how many Marines can be turned out of the 
system and given to us in a timely fashion. Thirty-five 
detachments is a lot of detachments. I believe it was the 
nineties, sir, when we increased from about 112 to about 150 
detachments. We have done this before and there are problems--
not problems. There are issues that come up that we must solve. 
We think that the 3-year timeframe is a realistic timeframe.
    I would also note, sir, that there are other programs, such 
as increasing the number of Marines that we have at our 
existing detachments at our highest threat posts, which are 
also a very high priority for us. And in some cases, instead of 
activating another detachment, we are taking the Marines that 
could be available for that and increasing the number of 
Marines that we have at an existing facility to improve the 
protective capabilities that we have.
    The Chairman. Well, obviously the committee wants to work 
with you to ensure that we can effectively, but as quickly as 
possible, achieve these goals.
    Let me just finally say, we appreciate the men and women 
who serve in the Diplomatic Security. Having traveled many 
places in the world, we see firsthand their efforts and we 
appreciate that.
    Senator Corker.
    Senator Corker. Yes, sir, very briefly. I appreciate your 
patience in being here today and your service.
    Mr. Starr, we talked a little bit about one of the 
positions that you need to fill, the Deputy Assistant for high-
risk, high-threat posts. I guess we passed a piece of 
legislation out of committee that will go to the floor that has 
some recommendations about the qualifications for that person. 
I know you had some concerns about that.
    For the record, would you briefly state what those are?
    Mr. Starr. Sir, I want to thank the committee for all of 
the work that has been done on the embassy security bill. I 
think it is an excellent opportunity. It gives us resources and 
gives us guidance that helps us go in the right direction.
    The Deputy Assistant Secretary position for high threats, 
which reports directly to me, is a very good position. It is 
something that we need and it works very closely. I think that 
the committee was trying to ensure that that position met the 
highest of requirements, but I think in trying to do that some 
of the requirements were very prescriptive, and I have some 
concerns whether or not I can meet some of the prescriptive 
requirements that were put down for the Deputy Assistant 
Secretary position.
    In the final analysis, I believe what I need to be able to 
do is pick the most qualified person that I have within my 
organization to fill that position. That is just my concern, 
that some of the prescriptive requirements were put down, which 
with the best of intentions were to ensure that this person met 
the highest level of qualifications, may be difficult for me to 
fulfill.
    Senator Corker. I think the committee worked very well 
under the chairman's leadership to produce I think a good piece 
of legislation. My sense is that to make it work is also a 
goal, and I have a sense we will be able to resolve that issue.
    We also talked a little bit that there have been some 
concerns about you narrowing down or shortening the training 
program down to 10 weeks. I know we had thought maybe that had 
been done solely for monetary purposes, but you really do 
believe the length of the training and what is being 
implemented or what is being put forth in that training program 
is exactly what you need for the folks that are moving into 
Diplomatic Security posts?
    Mr. Starr. Yes, sir. At the current time, the 10 weeks that 
we are putting our agents through for high-threat training is 
what I believe we need. I will submit to you, though, sir, that 
what I have committed to is to run two iterations of that 
training, two classes of it, and then do a review of the 
training to determine whether or not we got exactly out of it 
what we needed to do. So we will be doing a review after we run 
it twice and make sure that that is exactly what we need.
    Senator Corker. If you would share with us after those two 
iterations your sense of what the shortcomings and plusses are, 
we would appreciate it.
    Just one last question. We will have a debate soon about 
aid to Egypt. I do not know when it will occur, and I know that 
you are trying to think through the best way to handle that. We 
talked a little bit about that yesterday or the day before. A 
lot of times people go down to the Senate floor and they talk 
about our influence on Egypt regarding the aid, and I think on 
the other hand some of us talk about our national interest 
relative to aid. Would you just, for the record, talk a little 
bit about the influence component with other countries 
supplying other types of aid and whether that is what we should 
look at or whether it is our national interest in how that aid 
is flowing?
    Ambassador Patterson. Senator Corker, let me talk about our 
national interest, particularly vis-a-vis the relationship with 
the Egyptian military. Let me say that I have been deeply 
influenced by some of these issues by my experience in 
Pakistan, where we cut off assistance to the Pakistani military 
for 12 years, with in my view disastrous strategic 
consequences, because now we have a generation of people that 
have no contact with the American military and no exposure to 
our values because of their training here.
    So I think we have some very difficult political issues to 
work through. But I think our relationship with the Egyptian 
military and in turn their relationship with their counterparts 
in the Israeli military on the very important issues of Camp 
David implementation and on border issues and on the situation 
in Gaza, is really a cornerstone of peace in the region.
    So I think we have to look very closely at the role of our 
assistance in preserving our national security interests in 
Egypt, and particularly in protecting and working with our ally 
Israel.
    Senator Corker. So sometimes countries do not do things 
exactly the way we wish for them to do them, but we still have 
an interest in preserving the relationship; is that what you 
are saying?
    Ambassador Patterson. Yes, sir. Often they do not do what 
we tell them to do, frankly. But we have conflicting interests 
in many cases, and we have to balance our interests. In this 
particular case, the Camp David Accord and its implementation 
has been really the cornerstone of peace in this region for 
decades. So it is very important to sustain that.
    And it is very important to sustain the ties, the ties with 
the officer corps, not just in Egypt, but in other countries 
throughout the region.
    Senator Corker. Well, my sense is after your experiences 
you will help shape a policy that both helps us influence Egypt 
in a positive direction, but at the same time maintains our 
national interest.
    I thank you both for your testimony and for your 
willingness to serve and, as I have mentioned before, I look 
forward to working with you both.
    The Chairman. Thank you, Senator Corker.
    I am sure what we do is we urge countries to consider a 
course of action that we believe shares both our interests as 
well as theirs as well. I am not sure we tell them what to do.
    In any event, we appreciate your answers to the questions. 
The record will remain open until the close of business 
tomorrow. If there are any questions that come to you, we urge 
you to answer them expeditiously so that we can consider you 
for the next business meeting.
    With thanks to both of you and to your family who is here, 
this hearing is adjourned.
    [Whereupon, at 12:36 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Gregory B. Starr to Questions Submitted 
                       by Senator Robert Menendez

    Question. Establishment of a DAS for High Threat Posts: After the 
Benghazi 
attack, the Department made a number of internal organizational 
changes, the most conspicuous of which was the creation of a Deputy 
Assistant Secretary (DAS) for High Threat Posts. Please provide your 
assessment of how well these changes have served to better secure U.S. 
personnel and facilities abroad.

    Answer. On November 29, 2013, the Department of State announced the 
appointment of a Deputy Assistant Secretary for High Threat Posts. In 
January 2013, the Directorate of High Threat Posts, subsequently 
renamed to High Threat Programs (HTP), was created. Under the guidance 
and direction of one of our most senior and experienced Diplomatic 
Security (DS) Officers, DS/HTP has been providing strategic policy 
direction and program support focusing specifically on those posts 
deemed to be operating under especially high threat and high risk. For 
example, DS/HTP was instrumental in the coordination of the recent 
temporary closing of a number of posts and several that went to reduced 
staffing. Conversely, DS/HTP will be intimately involved in reviewing 
the specific security situations at each post and contributing directly 
to the decision to reopen or increase staff, as appropriate, and 
prepare those posts for the secure resumption of diplomatic activity.
    Domestically, DS/HTP is the focal point for directing resources and 
program support to the diplomatic missions in the countries falling 
under its responsibilities. DS/HTP is also the central point of contact 
for the interagency community when an emergency or crisis or other 
situation arises requiring an immediate response. DS/HTP is responsible 
for ensuring that our most high-threat and high-risk diplomatic 
missions are better protected, better equipped, and better informed 
than ever before.

    Question. The Department has announced plans to hire and field 151 
new Diplomatic Security Personnel by the end of the next fiscal year. 
What progress has been made toward this goal? What factors will 
influence whether you meet this timeline? How do you foresee deploying 
these agents? What is the retention rate for Special Agents? What 
challenges, if any, exist to retaining the Agents you hire and train, 
and how can those challenges be addressed?

    Answer. The Bureau of Diplomatic Security (DS) plans to hire and 
field 151 new employees by the end of fiscal year (FY14). A total of 75 
will be DS Special Agents. The remainder consists of 15 Security 
Protective Specialists, 15 Security Technical Specialists, 4 Security 
Engineering Officers, 9 Office Management Specialists, 14 Intelligence 
Research Analysts, and 19 other Civil Servants. To date we have hired 
113 individuals and the other 38 will be hired by the end of FY14. The 
locations for the 75 DS Special Agents have been determined based on 
input from the Regional Bureaus and the Regional Security Officers and 
the DS agents have begun arriving at their respective posts.
    Every year the Department sets our hiring goal based on attrition. 
For FY14 it was set at 72 for DS Special Agents. Our agent population 
is about 2,000, with an attrition rate of about 3.5 percent per year. 
DS faces the same retention challenges that are faced by the rest of 
the Foreign Service (FS). For example, the strain on employees and 
their families at having to serve in overseas assignments and at 
unaccompanied tours to high or critical threat posts. Some employees' 
family situation changes after they join the FS and serving overseas 
becomes a challenge.

    Question. Ensuring that a sufficient number of Diplomatic Security 
Special Agents are deployed to high-threat posts has been a key 
concern. Have there been difficulties in filling these high-threat 
positions? If you have met the full staffing needs of the high-threat 
posts, how will that affect DS staffing in the rest of the world, if at 
all?

    Answer. The State Department completed a worldwide security 
assessment in March and designated 27 high-threat, high-risk (HTHR) 
posts. DS is taking steps to ensure HTHR posts are correctly resourced:

  <bullet> In FY 2013, DS hired 113 new security professionals, 
        including 75 special agents and 15 security protective 
        specialists. Many of these new employees will directly serve at 
        or will provide regional or Washington-based support to HTHR 
        posts.
  <bullet> An additional 38 DS personnel will be hired in FY 2014.
  <bullet> New Marine Security Guard detachments are in the process of 
        being established and staffing levels for a number of 
        detachments located at posts designated as HTHR are increasing.
  <bullet> Based on the work of the Interagency Security Assessment 
        Teams (ISAT), we are directing considerable physical security 
        resources to HTHR posts to enhance their capability to 
        withstand an attack.
  <bullet> We are providing increased training for personnel to better 
        prepare them for their assignments to HTHR posts.

    However, we are not just focused on high-threat, high-risk posts. 
We apply the lessons learned from previous attacks to all of our 
facilities. Although there are unique conditions at each of our posts 
which guide how we provide security each facility and its personnel, 
there are a number of programmatic commonalities that apply worldwide, 
regardless of threat level and local security environments including:

  <bullet> The construction of hardened, secure facilities;
  <bullet> The use of appropriate technical and physical security 
        technologies and countermeasures;
  <bullet> Development and maintenance of a well trained, well equipped 
        and flexible cadre of security professionals across a variety 
        of disciplines;
  <bullet> The training of the entire foreign affairs community to deal 
        with enhanced-risk environments;
  <bullet> The deployment of the equipment needed to protect our 
        facilities and people;
  <bullet> Close cooperation with interagency partners and host country 
        security agencies to detect, deter, and disrupt threats 
        directed against U.S. interest abroad.

    Managing resources and ensuring that our Regional Security Officers 
have the resources they need in order to carry out their mission is 
vitally important. This issue will have my full attention and be of the 
highest priority for both me and my senior management team.

    Question. One problem identified with respect to the facility in 
Benghazi was that DS does not have a floating pool of agents that can 
provide a surge capacity when the need arises. To what extent has that 
problem been addressed? Will any new Special Agents be used to create 
such a surge capacity?

    Answer. The 75 Special Agents hired under the Increased Security 
Proposal (ISP) will fill gaps left in domestic offices so more 
experienced agents can fill newly established overseas positions. All 
newly hired agents will be provided some basic ``high-threat'' training 
during their Basic Special Agent Training (BSAC). Diplomatic Security 
recently added 2 weeks of high-threat training to BSAC. The newly hired 
DS Special Agents will also undergo the full 10-week high-threat 
training course, as time permits, during their first tour in a field 
office so they can be deployed to field to assist posts in crisis.
    We will continue to work with Congress as we determine how we can 
meet the evolving security needs to include additional staffing 
requirements.

    Question. In order to ensure critical continuity and institutional 
knowledge at high-threat posts, the Benghazi Accountability Review 
Board (ARB) recommended that key officers--including security 
officials--should be deployed to these posts for a minimum of 1 year 
(with assignments of no less than 4 months for lower level officials). 
What progress has the Bureau of Diplomatic Security made on this 
recommendation? What challenges, if any, exist in implementing this 
recommendation?

    Answer. All high-threat posts now have a minimum of a 1-year tour 
of duty. Diplomatic Security (DS) is planning to ensure overlap between 
incumbent and incoming positions to facilitate continuity of operations 
at high-threat posts. Temporary duty assignments are set at a minimum 
of 120 days. With congressional support, we have been able to hire 113 
additional DS personnel, of which 75 are DS agents in fiscal year 2013 
and 38 additional personnel in fiscal year 2014. These additional 
personnel will provide direct support to high-threat posts and well as 
improving embassy security at other overseas posts around the world.

    Question. The Bureau of Diplomatic Security analyzes threats to 
U.S. diplomatic facilities in order to determine what security measures 
need to be taken to mitigate those threats. How has DS's ability to 
analyze and disseminate information about those threats to key security 
management officials improved since the Benghazi attack?

    Answer. The Department, including the Bureau of Diplomatic Security 
(DS), is working more closely with the Intelligence Community (IC) than 
ever before to identify and analyze credible threat information. DS has 
established liaison positions at various IC elements to improve the 
flow of threat reporting and analysis. DS has also undertaken an effort 
to provide highly classified threat reporting directly to regional 
security officers at high-threat, high-risk posts by improving our 
computer infrastructure at all classification levels. This effort has 
improved the timeliness of threat warning. Within the Department, DS 
has expanded the distribution of threat reports and analysis by vastly 
expanding the readership of the DS daily threat publication.

    Question. The Bureau of Diplomatic Security is responsible for 
defending the 
Department of State's global network of information technology systems 
and information assets. Please describe the Department's strategies for 
defense against network intrusion and other cyber threats.

    Answer. The Bureau of Diplomatic Security (DS) coordinates closely 
with the Bureau of Information Resource Management (IRM) and other 
offices to protect the Department's global network of information 
technology systems and information assets. DS has established a 
comprehensive ``defense-in-depth'' cyber security program which enables 
the Department to detect, react, analyze, and respond to sophisticated 
malicious cyber activity from foreign intelligence services and 
computer criminals. DS provides this operational security capability 
through an interdependent set of cyber security teams, tools, and 
programs including network intrusion detection, compliance 
verification, vulnerability assessment, incident handling, threat 
analysis and the Regional Computer Security Officer program. This fully 
integrated program capability enables rapid coordination and action on 
a number of issues involving global cyber threats and network security 
vulnerabilities.
    In functional terms, the DS programs address the following cyber 
threat issues:

  <bullet> The Network Monitoring Center maintains a 24/7 watch on the 
        Department's global network traffic, which checks for anomalous 
        and/or suspicious activity and reports on events.
  <bullet> The Computer Incident Response Team (CIRT) reviews events 
        and keeps operational managers, law enforcement and US-CERT 
        informed about incidents and coordinates incident response 
        actions with all stakeholders.
  <bullet> The Cyber Threat Analysis team delivers daily and topical 
        all-source reports on pressing threat issues and works closely 
        with law enforcement and counterintelligence agencies to 
        develop a comprehensive threat picture and remediation 
        measures. This unit also performs proactive penetration testing 
        and network forensic analysis to detect and resolve major 
        threat issues.
  <bullet> Regional Computer Security Officers (RCSOs) are the 
        Department's ``boots on the ground'' performing cyber security 
        assessments at overseas sites and reporting findings to DS.
  <bullet> DS also works closely with the Department's virus detection 
        and other security programs to stay abreast of any problems 
        affecting the confidentiality, integrity, or availability of 
        the Department's networks.

    In addition, DS uses its expert cyber security teams to address and 
improve the Department's cyber security posture abroad through these 
initiatives:

  <bullet> Providing customized cyber security support to the Secretary 
        and other senior officials during major diplomatic events.
  <bullet> Detailing DS personnel on a full-time basis to other federal 
        cyber security operations centers to ensure the timely sharing 
        and analysis of threats, cyber intelligence and technical 
        developments. This includes DS personnel assigned to:

      <all>  National Security Agency/Central Security Service Threat 
            Operations Center (NTOC);
      <all>  Department of Homeland Security's U.S.'-Computer Emergency 
            Readiness Team (US-CERT);
      <all>  DS Special Agent assigned to the Federal Bureau of 
            Investigations 
            National Cyber Investigative Joint Task Force (NCIJTF).

    DS can provide a briefing in an appropriate setting that will 
provide a fuller understanding of the threats affecting the Department 
and our cyber security program's ability to mitigate risk.

    Question. The Department of State has faced well-publicized 
challenges in monitoring and overseeing contracts of all types in high-
risk areas such as Afghanistan and Iraq in recent years. Please 
describe your view of DS's performance in this area. Specifically, 
please outline what measures have been put in place from an 
organizational standpoint (recruitment, training, retention, etc.) to 
improve the State Department's performance in this area.

    Answer. The Department, including the Bureau of Diplomatic Security 
(DS), strives to ensure adequate government oversight of contracts and 
will continue to seek to improve that oversight going forward. 
Maintaining the appropriate security posture at our missions is a 
continually evolving effort. The use of contractors has been important 
to permitting the Department to quickly deploy personnel with multiple 
skills to operate in nonpermissive environments. Civilian agencies do 
not always possess the necessary personnel for such deployments, and 
contracting allows agencies to quickly deploy personnel with the 
necessary skills where needed. Security programs operating in 
contingency environments, such as Iraq and Afghanistan, require 
layered, multifaceted approaches that incorporate redundancies in 
capabilities, resources, and services.
    As part of its effort to improve oversight of security contractors, 
the Department institutionalized many additional control measures as 
part of the Worldwide Protective Services (WPS) contract awarded in 
September 2010. This contract incorporates important lessons learned to 
ensure that Private Security Contractors (PSCs) retained by the 
Department perform their activities in a professional, responsible, 
culturally sensitive, and cost-effective manner. Diplomatic Security's 
management and oversight of PSCs includes:

  <bullet> DS Special Agents at each post manage and oversee the Static 
        Guard and Personal Protective Security programs;
  <bullet> DS Special Agents at each post serve as Contracting 
        Officer's Representatives (CORs) and Assistant CORs (ACOR) for 
        the direct management and oversight of the WPS contract;
  <bullet> DS personnel at each post are assigned as Government 
        Technical Monitors (GTMs) to assist the COR and ACOR in the 
        oversight of the WPS contract; Direct-hire DS personnel (DS 
        Special Agents or SPS) provide direct operational oversight of 
        all protective motorcades;
  <bullet> Revised mission firearms policies further strengthen post's 
        rules on the use of force, and new less-than-lethal equipment 
        has been distributed to the field as a means to minimize the 
        need to employ deadly force;
  <bullet> All incidents involving a weapons discharge or other 
        incidents are required to be reported by PSCs and thoroughly 
        investigated by the Regional Security Officer;
  <bullet> The Office of Acquisitions Management has a dedicated, 
        qualified team of contracting officers and contract specialists 
        assigned to administer PSC contracts. They make regular field 
        visits to each post to conduct reviews of PSC contracts.
  <bullet> Improving the image of the security footprint through 
        enhanced cultural sensitivity:

      <all>  Mandatory country-specific cultural awareness training for 
            all security contractors prior to deployment;
      <all>  Revised standards of conduct, including a ban on alcohol;
      <all>  Interpreters included in protective security details.

  <bullet> Achieving greater efficiencies through new contract terms:

      <all>  One set of terms and conditions enhances the ability to 
            provide uniform, appropriate, and consistent oversight;
      <all>  Reduced acquisition timelines;
      <all>  A larger number of qualified base-contract holders, 
            thereby increasing competition while controlling costs;
      <all>  Timely options in the event a company fails to perform;
      <all>  More efficient program management compared to multiple, 
            stand-alone contracts;
      <all>  Computerized tracking of contractor personnel to aid in 
            reviewing personnel rosters used to support labor invoices.

    Despite all of these changes, certain contracting challenges 
remain. The Department is currently seeking the permanent authority to 
use Best Value contracting for local guard contracts. The Department 
would use this authority at a limited number of posts, which face 
challenges in delivering adequate security using the lowest price, 
technically acceptable model. While the Department does not anticipate 
using this authority broadly, we do seek to use this authority in those 
countries where traditional contracting models have proven inadequate.

    Question. As I understand it, New Embassy Construction is 
prioritized on the basis of security. If confirmed, what are the 
criteria by which you think it is important to assess a facility's 
overall security? How will you prioritize projects?

    Answer. The prioritization process to build new embassy and 
consulate compounds that has been in place has proven to be effective, 
but we can and will do better. Since 1999, the Bureau of Overseas 
Building Operations (OBO) has completed over 100 projects to construct 
new facilities, providing a safe and secure work environment for over 
29,000 U.S. Government employees. Still, approximately 158 facilities 
do not fully meet current security standards. If confirmed, I will 
continue to work closely with OBO to ensure that the U.S. Government 
has safe, secure, and functional facilities to support the 
implementation of U.S. foreign policy.
    In keeping with U.S. national security considerations, our foreign 
policy goals, and the provisions of the Secure Embassy Construction and 
Counterterrorism Act (SECCA) and the Overseas Security Policy Board's 
(OSPB) standards and policies, the Department prioritizes new 
diplomatic construction based on a risk analysis process that ranks 
overseas facilities on a variety of security threats, including 
vulnerability. This analysis informs OBO's Capital Security 
Construction Program schedule, which prioritizes the top 80 posts 
ranked most vulnerable, taking into consideration location and site 
availability, and schedules construction based on anticipated contract 
award dates. With the creation of the high-threat, high-risk post list, 
the Bureau of Diplomatic Security (DS) has requested that, when 
feasible, OBO prioritize projects from the Department's high-threat, 
high-risk list.

    Question. The Benghazi Accountability Review Board, in 
recommendation number 17, recommended expanded counter threat training. 
Right now, the Department is at capacity with respect to its ability to 
provide security training and diplomatic security training is conducted 
at up to 19 different, geographically separated, leased, and contracted 
facilities nationwide. If confirmed as Assistant Secretary would you 
feel comfortable in your ability to prepare DS agents and Foreign 
Service officers for positions in high-threat high-risk posts without a 
consolidated security training center?

    Answer. The Bureau of Diplomatic Security (DS) currently trains at 
19 leased or use-fee facilities. Utilizing all of these facilities, DS 
currently does not have the capacity to train everyone going to high-
threat posts in the Foreign Affairs Counter Threat course. Without a 
dedicated, consolidated hard-skills training center, the Department is 
not able to offer systematic, efficient hard-skills security training. 
Without this training, I do not believe personnel are sufficiently 
prepared to counter the violent actions they face abroad.
    Working since 2009, the Department of State (DOS) developed plans 
for construction of the Foreign Affairs Security Training Center 
(FASTC). The attacks on U.S. diplomatic facilities last September--in 
Libya, Tunisia, Egypt, Yemen, and Sudan--emphasize the need for a 
dedicated hard-skills security training center to ensure the foreign 
affairs community and other agency personnel serving in overseas are 
well-prepared. The evolving overseas mission mandates a stronger 
emphasis on the Department of State and the Department of Defense 
coordination and collaboration. Strengthening this partnership in areas 
of training, planning, contingency support, transportation, logistics, 
emergency response, and evacuations is among the Department's highest 
priorities.
    The purpose of the consolidated hard-skills training center is to 
efficiently conduct security, law-enforcement, and antiterrorism 
training within the Department of State for the protection of diplomats 
and U.S. embassies abroad. FASTC will primarily train U.S. Government 
employees, most of whom work for the Department of State. They will 
include Foreign Service officers assigned to high-threat posts abroad, 
DS special agents, and other DS personnel, such as security engineers 
and technicians. A limited number of police and security professionals 
from countries that are partner nations in fighting terror will also 
receive training. FASTC will also be the site for training of personnel 
from other government agencies assigned to specifically designated 
high-threat posts to prepare them for those environments.
    If confirmed, I am committed to constructing FASTC to maintain and 
strengthen synergies with our State Department and interagency partners 
training facilities within a ``half-day'' driving range from these 
facilities.

    Question. What is your understanding of the role and how the 
Interagency 
addresses security needs at facilities where a facility is shared--or 
is used principally by a U.S. Government agency other than the 
Department of State? What role do you see for the Assistant Secretary 
of State for Diplomatic Security in helping to lead the interagency 
process and forge a coherent interagency approach to these issues?

    Answer. The Secure Embassy Construction and Counterterrorism Act of 
1999 (SECCA) requires that all newly constructed/occupied overseas U.S. 
diplomatic facilities possess a 100-foot setback from their perimeter, 
and that all U.S. Government operations be collocated on one chancery 
or consulate compound. Any deviation from these SECCA provisions 
requires a waiver from either the Secretary (all newly constructed 
chancery and consulate buildings that do not meet SECCA requirements) 
or the Assistant Secretary of Diplomatic Security (all other requests).
    In addition to SECCA's requirements for colocation and setback, 
security standards are established by the Overseas Security Policy 
Board (OSPB), an intergovernmental board comprised of representatives 
from all agencies that operate in an overseas environment under Chief 
of Mission authority. The Board is chaired by the Department of State's 
Bureau of Diplomatic Security. It is through these authorities that the 
Assistant Secretary for DS leads the interagency process on facility 
security. This process however, involves an interagency approach.
    The Department works very closely with the Intelligence Community, 
Department of Defense, and the National Security Staff. The Assistant 
Secretary of Diplomatic Security coordinates holistically on security 
matters and threats facing our embassies. Regular interaction with our 
interagency partners and Department of State officials, at both the 
senior and working levels, allows the Department to share information 
and coordinate on security. Similarly, at every post, the Emergency 
Action Committee, a group of subject matter experts appointed by the 
Chief of Mission, meet regularly to discuss threats, emergencies, and 
manage crises.
    For High Threat/High Risk (HTHR) posts, the Department has created 
a High Threat Review Board to conduct an internal review of the HTHR 
post list every 6 months. The High Threat Post Review Board will review 
the U.S. official presence annually, and on an ad hoc basis if required 
(e.g., if the security environment deteriorates at a post). Critical 
elements for discussion in the designation process include: the 
regional bureau's assessment of the political/economic situation, the 
ability and willingness of the host nation to protect U.S. interests, 
known and perceived threats against the United States, and the 
vulnerabilities of U.S. personnel, facilities, residences, and outlying 
structures.

    Question. Recommendation number 23 of the ARB noted that ``the 
Board is of the view that findings of unsatisfactory leadership 
performance by senior officials in relation to the security incident 
under review should be a potential basis for discipline recommendations 
by future Accountability Review Boards, and would recommend a revision 
of Department regulations or amendment to the relevant statute to this 
end.'' We included a provision in the Embassy Security and Personnel 
Protection Act that aims to satisfy this recommendation.

  <diamond> In your estimation, does the Secretary currently have the 
        authority to fire individuals identified to have exhibited 
        ``unsatisfactory leadership in relation to a security 
        incident''? Are there additional authorities necessary? How do 
        you view the role of Assistant Secretary for Diplomatic 
        Security in assuring that there is senior-level management 
        accountability and oversight--and responsibility--for security 
        incidents?

    Answer. Section 202 of Senate Bill 1386 would provide that 
unsatisfactory leadership by a senior official with respect to a 
security incident involving loss of life, serious injury, or 
significant destruction of property at or related to a U.S. Government 
mission abroad may be grounds for disciplinary action, and authorizes 
future ARBs to recommend disciplinary action on this basis. The 
Department also is amending its internal regulations to provide for 
disciplinary action based on unsatisfactory leadership by a senior 
official in relation to such incidents. These provisions will enable 
the Department to take disciplinary action, up to and including 
separation, with respect to future incidents of unsatisfactory 
leadership in relation to a security incident, even in the absence of 
some other misconduct. It should be noted that career Foreign Service 
employees receive an automatic hearing on separation before the Foreign 
Service Grievance Board.
    With regards to the ensuring senior leader accountability and 
responsibility for security incidents, the Assistant Secretary of 
Diplomatic Security (DS) has a shared responsibility with other senior 
Department officials to support Chiefs of Mission in protecting U.S. 
personnel and facilities, exercising judgment to balance U.S. interests 
and policy priorities, evolving security threats, and mitigation of 
security risks. Ultimately, the provision of security for the 
Department lies with the Assistant Secretary of DS. However, that also 
means instilling a culture of responsibility and accountability within 
the DS leadership at all levels and better communication within the 
State Department, including the Regional Bureaus, and also with the 
interagency, as was implemented following the independent Benghazi 
Accountability Review Board.
                                 ______
                                 

         Responses of Caroline Kennedy to Questions Submitted 
                         by Senator Bob Corker

    Question. Our alliance relationship with Japan is one of the 
strongest and, indeed, the most critical security relationship in the 
Asia-Pacific. It also is complex and nuanced in ways that are not 
obvious to the casual observer.

  <diamond> How do you propose to navigate the hidden complexities of 
        the bilateral relationship, particularly in light of your lack 
        of foreign policy experience in the region?

    Answer. As the United States rebalances toward Asia, our alliance 
with Japan remains a cornerstone of peace, stability, and prosperity in 
the region, as it has been for more than 50 years. If confirmed, I look 
forward to working to advance the interests of the United States, 
protect the safety of our citizens and strengthen the bilateral 
relationship for the benefit of both our countries. I will coordinate 
closely with the Department of State and the interagency to continue 
our strong partnership with Japan. I will also work closely with the 
leadership in the U.S. military to further strengthen our bilateral 
security relationship. I especially look forward to benefiting from the 
support of the talented Foreign Service professionals and locally 
engaged staff at our mission in Japan. I will also consult closely with 
Members of Congress on important issues concerning the relationship 
between the United States and Japan.
    I believe that a key to understanding and operating within a 
foreign context is to maintain an openness to people and to ideas 
within that culture while advancing the interests of the United States 
and the American people. Through meaningful interaction with Japanese 
officials, civil society, and average citizens, I hope to build a 
stronger bilateral relationship and partnership between our two 
countries. If confirmed, I will seek advice and guidance from many 
quarters to serve my country.

    Question. What areas do you see as having the most potential for 
improvement in our relationship with Japan, and how do you plan on 
approaching them?

    Answer. Japan is an indispensable regional partner in promoting 
democracy and economic development and in global humanitarian and 
peacekeeping efforts. These are areas I care deeply about, and if 
confirmed, I will work to further strengthen this critical partnership 
at a vital moment in its history.
    In addition, I will work to increase exchanges between American and 
Japanese students, scholars, and citizens, so that future generations 
will understand our shared history and continue to bind our nations 
closer. The United States-Japan relationship remains so strong because 
it stands on the shoulders of our people-to-people ties, and the 
continued strength and vitality of the United States-Japan relationship 
will support our efforts to deepen the connections between the people 
of Japan and the United States. Throughout my career I have worked to 
expand educational opportunity and empowerment, and I look forward to 
dedicating myself to expanding exchanges and educational ties between 
our two countries.

    Question. During my visit to Tokyo earlier this year, Prime 
Minister Abe expressed concern over the effect of sequestration on U.S. 
security commitments to Japan and about the overall staying power of 
the United States in the Asia-Pacific.

  <diamond> In your capacity as Ambassador, how do you intend to 
        reassure the Japanese public that Washington will continue to 
        fulfill its security commitments to Tokyo? Are you concerned 
        that the administration's focus on the Middle East will 
        contribute to Japanese skepticism of the U.S. ``rebalance'' to 
        the Asia-Pacific? Why or why not?

    Answer. The stabilizing presence of U.S. forces in the Asia-Pacific 
region has never been more important than it is today. If confirmed, I 
will work with the Departments of State and Defense to reassure the 
Japanese people that the United States stands fast in our obligations 
under the Treaty of Mutual Cooperation and Security. One way to do this 
is to continue the close cooperation between the United States and 
Japan to address common security challenges, both in the region and 
globally; Japan's contributions to our security alliance, including 
bases in Japan, are an important component of our shared efforts to 
promote peace and stability throughout the world.
    Japan is an indispensable partner of the United States at 
international fora such as the United Nations, and in responding to 
global issues such as the Syria crisis and advancing Middle East peace 
efforts. I do not believe the ``rebalance'' is an either/or decision 
between Asia and the Middle East. The Obama administration's rebalanced 
approach shows its commitment to work with Japan on the global stage, 
including in the Middle East.

    Question. If confirmed, how will you approach the sensitivities 
regarding territorial issues in the East China Sea? How should the 
United States respond to Chinese admonitions that Washington refrain 
from taking a position on the peaceful resolution of maritime disputes 
in the East China Sea?

    Answer. U.S. policy on the Senkaku Islands has not changed. The 
United States does not take a position on the ultimate sovereignty of 
the Senkaku Islands. The Senkaku Islands have been under the 
administration of the Government of Japan since they were returned as 
part of the reversion of Okinawa in 1972. As such, they fall within the 
scope of Article 5 of the Treaty of Mutual Cooperation and Security. 
The United States calls on all parties to avoid actions that raise 
tensions and to prevent miscalculations that could undermine peace, 
security, and economic growth in the region. The United States opposes 
any unilateral or coercive actions that would seek to undermine 
Japanese administration. The United States is fully committed to our 
alliance with and security obligations toward Japan. If confirmed, I 
will publicly and privately continue to assure the Japanese of our 
long-standing position.
    The administration has engaged in sustained, intensive, and high-
level diplomacy with China and Japan on easing tensions in Northeast 
Asia for many months now. The United States has clearly stated our 
position to all parties both privately and publicly, most recently by 
Secretary Kerry while in Japan. The State Department and other agencies 
repeatedly encourage all parties to adopt a peaceful approach and 
pursue dialogue with each other to resolve this issue. If confirmed, I 
intend to continue emphasizing this message. Both Japan and China 
understand that Northeast Asia is an engine of global economic growth, 
and miscalculations have the potential to undermine peace, security, 
and economic growth.

    Question. Japan's economic revitalization plan or ``Abenomics'' 
includes monetary, fiscal and structural reforms. If confirmed, what 
role do you expect to play in resolving issues that may arise in the 
economic relationship between the United States and Japan, including in 
the context of the parallel bilateral negotiations to TPP?

    Answer. Prime Minister Abe has specifically referred to TPP as a 
key element in his overall ``Abenomics'' growth strategy, including 
implementing domestic reforms. TPP is an important economic opportunity 
for the United States to spur regional growth and expand our exports to 
Japan as well as throughout the region--this comprehensive and high-
standard agreement will benefit the U.S. economy and advance the United 
States-Japan trade relationship.
    The ongoing parallel bilateral negotiations are addressing specific 
bilateral issues of concern, including those faced by the automotive 
and insurance industries and their workers. If confirmed, I and the 
team at the U.S. Embassy in Tokyo will work closely with the U.S. Trade 
Representative, the State Department, other U.S. Government agencies 
and the Government of Japan to achieve the strongest outcome from these 
negotiations. In this and other instances, I intend to play a strong 
personal role in working with American companies to make sure that the 
Japanese market is open to them.

    Question. In advance of President Obama's visit to Japan in 
November 2009, there was speculation that he might visit either 
Hiroshima or Nagasaki, particularly on the heels of his August 2009 
remarks in Prague calling for a world without nuclear weapons. Indeed, 
President Obama has expressed the desire to visit Hiroshima and 
Nagasaki.

  <diamond> Having noted in your testimony that you visited Hiroshima 
        in 1978, would you recommend that President Obama be the first 
        sitting U.S. President to visit Hiroshima and/or Nagasaki? What 
        impact would such a visit potentially have on the credibility 
        of U.S. extended deterrence commitments to Japan?

    Answer. As I noted to the committee during my hearing, I was deeply 
affected by my 1978 visit to the Hiroshima with my uncle, Senator 
Kennedy. The Hiroshima Peace Park provides an important message to all 
nations to avoid the horrors of nuclear war. If confirmed, I would be 
honored to visit Hiroshima and Nagasaki as United States Ambassador to 
Japan.
    Although I do not want to speculate on what specific recommendation 
I might make to President Obama should he visit Japan in the future, I 
would consider ways that a Presidential visit could highlight mutual 
United States-Japan interests in arms control, nuclear disarmament, and 
nonproliferation. The Japanese people warmly welcomed the President's 
Prague speech and his call for a nuclear-free world. Nuclear 
disarmament and nonproliferation are two areas in which Japan and the 
United States can accomplish much by working together and at the United 
Nations General Assembly First Committee. Over the past few years, for 
example, the United States has cosponsored Japan's nuclear disarmament 
resolution. The United States and Japan also work together in the 
context of their security alliance, whereby the United States has 
consistently reassured Japan of U.S. extended deterrence commitments in 
robust dialogues on this topic.
    The United States-Japan commitment to nuclear disarmament in no way 
diminishes the strength or capacity of the U.S. extended deterrence 
commitments to Japan, which are a cornerstone of our security 
relationship.
                                 ______
                                 

         Responses of Gregory B. Starr to Questions Submitted 
                         by Senator Bob Corker

    Question. You mentioned during your testimony that the Bureau of 
Diplomatic Security has procedures for closing embassies that are 
either attacked or under threat of potential attack.

  <diamond> What governs such closure decisionmaking and procedures?
  <diamond> Please inform the committee about what the State Department 
        does to ensure mission or facility continuity of operations in 
        the wake of a closure.

    Answer. When the widespread closure of about 20 U.S. embassies and 
consulates occurred in August, we had specific threat information that 
was credible and noncounterable. In the event we receive such threat 
information, we weigh these threats against the host government 
capabilities and willingness, and the state of our facilities and 
security presence. The decision was made with input from the post on 
the situation on the ground; the Bureau of Diplomatic Security on 
security generally, as well as threat analysis; the Bureau of Overseas 
Buildings Operations on facilities; as well as input from Consular 
Affairs, the applicable Regional Bureau, Intelligence and Research; 
Counterterrorism, and other Bureaus, and the Under Secretaries, the 
Deputy Secretary, and the Secretary of State. We also seek information 
from the interagency.
    In the event that an embassy closes, operations such as routine 
visa issuance are closed to the public but the essential work that goes 
on in our embassies continues in many cases. American Citizen Services 
are still provided, as are emergency visas for medical purposes or 
death of a family member, etc. The facility is not abandoned. We rarely 
totally suspend operations, but will do so in a situation where we can 
no longer operate safely, such as when we ceased operations in 
Damascus, Syria. We then would make arrangements for one of our allies 
to serve as the U.S. protecting power so that U.S. interests are 
protected.
    Above all, the safety and security of mission employees is 
paramount in the conduct of foreign affairs. Certain situations require 
a mission to reduce the number of employees at the post, including 
authorized and ordered departures.
    Authorized Departure allows for Voluntary Departure of all family 
members and selected employees, while Ordered Departure requires 
Mandatory Departure of all family members and designated employees.
    An embassy can close to the public, without having an authorized or 
ordered departure. However, if an authorized or ordered departure is 
necessary, the post must plan to keep a sufficient amount of staff 
available at post to maintain certain operating functions until a 
decision is made to lift the departure or suspend operations 
completely. In preparing for a drawdown of mission personnel, the post 
must ensure the following programs have sufficient resources:

          (1) Security and logistics for the remaining mission;
          (2) Communications with the Department;
          (3) U.S. citizen and other consular services;
          (4) Communication of U.S. foreign policy; and
          (5) Public affairs.

    Prior to an emergency and in accordance with the Department's 
Emergency Planning Handbook, post determines the number of employees 
for each of the following three categories:

          (1) Current staffing;
          (2) Emergency staffing (to remain under authorized 
        departure); and
          (3) Minimal staffing (to remain under ordered departure).

    The Department would be glad to provide more detail on post 
closures and drawdowns in a briefing.

    Question. You mentioned during your testimony that you had either 
sought or would be seeking additional detachments of U.S. Marine Corps 
(USMC) guards to supplement Diplomatic Security resources and personnel 
at volatile posts.

  <diamond> How many USMC guards you have been seeking?
  <diamond> If you have already made a specific request for additional 
        detachments, what has been their response?

    Answer.Answer: The Department requested funding to support an 
additional 35 Marine Security Guard (MSG) Detachments in the FY 2013 
Increased Security Proposal. The Department is responsible for 
providing the housing for the MSGs, constructing ``post ones,'' the 
command post for the MSG and equipping ``post ones.'' With the support 
of the Marine Corps, we will have three new MSG detachments activated 
by September 30, 2013, and are working with the Marines to have the 
remaining detachments activated by the end of FY 2014. In addition, the 
U.S. 
Marine Corps has been sending extra guards to augment the existing 
detachments at some high-threat posts. The U.S. Marine Corps is working 
to identify and train more Marines for this program and our efforts 
have been closely coordinated.

    Question. You mentioned during your testimony that Diplomatic 
Security provides a 10-week program for relevant training.

  <diamond> Is Diplomatic Security providing, or planning to provide, 
        any additional training for agents who are tasked with high-
        risk, high-threat posts, or does the baseline training program 
        already offer this specific training?

    Answer. Based on the Benghazi Accountability Review Board (ARB), a 
panel of Senior and Supervisory Diplomatic Security (DS) Special Agents 
was established to revise high-threat training and raise the standards 
for the High-Threat Tactical Course (HTTC). From January to March 2013, 
the panel worked in conjunction with the Diplomatic Security Training 
Center to develop over 170 enhanced operational requirements and 
associated proficiency levels needed for high-threat environments. 
Training plans based on these operational requirements were created and 
approved for DS Special Agents at the basic-, mid-, and executive-
level.
    A new High-Threat Training Strategy was approved on May 15, 2013. 
The training strategy envisions a career-long cycle of high-threat 
operations-related instruction and ensures that all DS Special Agents 
receive an increased level of training to support Department objectives 
in high-threat, high-risk areas.
    The training strategy calls for three new, intensive high-threat 
training courses for basic-, mid-, and senior-level agents permanently 
assigned, or going TDY to any of the designated high-threat, high-risk 
posts. The foundation of these three courses is the new 10-week High 
Threat Operations Course (HTOC), which will replace the former 5-week 
High Threat Tactical Course (HTTC). Additionally, a new 4-week High 
Threat Operations Mid-Level/In-Service Course (HTOC-IS), and new 4-week 
High Threat Operations Executive-Level Course (HTOC-EX) have been 
developed.
    Further, fundamental high-threat precepts and orientations are now 
included in existing basic and in-service training courses: Basic 
Special Agent Course (BSAC), Basic Regional Security Officer (BRSO), 
Regional Security Officer In-Service (RSO-IS), Special Agent In-Service 
(SA-IS), and the Basic Field Firearms Officer Course (BFFOC). The 
integration of high-threat material across multiple levels of DS 
training acknowledges that threats are not limited to high-threat, 
high-risk areas and better prepares DS Special Agents to function 
effectively if called upon to provide emergency support. Furthermore, 
it provides an introduction to material that will support DS personnel 
who may later attend the new operations-specific courses. Overall, the 
strategy is a long-term plan that will replace previous High-Threat 
Tactical Courses by approximately 2018.

  <diamond> Does Diplomatic Security conduct periodic assessments of 
        the effectiveness of its current 10-week program?

    Answer. DS plans to conduct periodic reviews of the new high-threat 
training. Not only will the 10-week High Threat Operations Course, 4-
week High Threat Operations Mid-Level/In-Service Course, and the High 
Threat Operations Executive-Level Course have student and instructor 
feedback assessments as part of each individual iteration, but the 
Diplomatic Security Training Directorate in conjunction with the newly 
established Directorate for High Threat Programs will be conducting an 
overall review of course effectiveness in April 2014 (following the 
first two iterations) and again in October 2014 (after 1 full year of 
delivered coursework). The goal of these reviews will be to answer 
whether or not DS is meeting its established goal of achieving 
operational proficiency in 170 enhanced operational requirements. 
Following these evaluations, recommendations will be delivered to the 
Assistant Secretary for Diplomatic Security for any necessary additions 
or deletions from the curriculum.

  <diamond> What was the cost of Diplomatic Security for fiscal years 
        2004-2013?

    Answer. The total cost of the relevant high-threat agent training 
during fiscal years 2004-2013 was $37.8 million dollars.

    Question. Please describe, in your own words, what you think it 
means for a government official to be held accountable for poor 
decisionmaking.

    Answer. Accountability means taking responsible measures before 
things happen. Accountability includes being the advocate for security 
within the Department and as part of the interagency process overseas. 
Accountability means working with the Regional Bureaus, overseas posts, 
and the interagency to ensure that a pragmatic balance is struck 
between security and the need to carry out the diplomatic mission of 
protecting America's National Security. Accountability also means that 
if, despite our best efforts, there is a security failure, that the 
Assistant Secretary of Diplomatic Security takes responsibility and 
that we all work to learn lessons that can help us prevent similar 
failures in the future. While risk can never be completely eliminated 
from our diplomatic duties, regardless of the threat level, we must 
always work to mitigate it.

    Question. Do you think the standard for accountability should be 
one of gross negligence or a lesser standard? Should be different in a 
situation where there has been loss of life?

    Answer. First and foremost, it should be clear that the Department 
believes that no one should be excused for gross negligence. Leaders at 
all levels of the organization should take both responsibility for the 
duties of their position, and they should be held accountable for the 
decisions they make. It is also clear that we can never truly eliminate 
all risks faced by U.S. Government personnel as they advance our 
national interests abroad. We can only seek to mitigate those risks to 
the extent possible. Despite our best efforts, we may still suffer 
losses of our diplomats overseas. Our recent decision to temporarily 
suspend operations at about 20 of our embassies and consulates 
demonstrates the steps we are willing to take to ensure the safety of 
our personnel abroad.

    Question. During the recent attacks on the U.S. facilities in 
Herat, Afghanistan, please describe the safeguards, including host 
nation protection, that were in place that prevented the attack from 
successfully taking U.S. casualties.

    Answer. The security elements of the U.S. consulate in Herat are 
supervised by the Regional Security Officer and are comprised of 
Diplomatic Security Special Agents, Security Protective Specialists, 
Security Engineers, and a private security contract force of Americans, 
third country nationals, and locally employed Afghan nationals. Outer 
perimeter security is augmented by a small contingent of Afghan 
National Police who were present at the time of the attack.
    Safeguards protecting the consulate included an increased setback 
from the main highway which provides additional protection for the main 
access control point from a potential improvised explosive device 
blast. A setback waiver was originally processed for Herat in March 
2011. The consulate building has ample setback on the south side of the 
property, the side that was attacked. Setbacks on the remaining sides 
of the property were less than the 100-foot requirement, and therefore 
granted a waiver. Through the field expedient mitigation efforts, 
setback was effectively increased on these three sides.
    The Regional Security Officer regularly conducts drills with the 
entire consulate community, and recently conducted a joint evacuation 
drill with U.S. military and Afghan participation. Physical security 
safeguards at the consulate include: first floor Forced Entry Ballistic 
Resistant (FE/BR) windows and doors; surface mounted antivehicle 
planters along the outer perimeter; and steel plates on outer walls to 
form anticlimb surfaces. In addition, there are antiram drop arm 
barriers at the outer perimeter, which prevented the vehicle borne 
improvised explosive device (VBIED) from reaching the Compound Access 
Control facility and barriers on September 13.

    Question. What, if any, were the security waivers that were granted 
for the U.S. facilities in Herat?

    Answer. On March 30, 2011, a waiver for the Secure Embassy 
Construction and Counterterrorism Act of 1999 (SECCA-Public Law 106-
113) statutory requirement for setback of U.S. Consulate Herat was 
granted.

    Question. Was there any U.S. military response to the attacks? If 
so, approximately how long after the attack started did the U.S. 
military response arrive?

    Answer. On September 13, 2013, at approximately 0532 local hours, 
insurgents conducted a complex attack against the U.S. consulate in 
Herat. For approximately the next 35 minutes, Diplomatic Security (DS) 
Agents, Security Protective Specialists, and security contractors 
engaged and neutralized the threat. At 0655, the first U.S. military 
units arrived at the consulate to augment the consulate guard force, 
establish a cordon around the facility, and conduct a search of the 
consulate grounds.

    Question. Approximately how long after the attack started did the 
Afghanistan National Police (ANP) and Security Forces (ANSF) arrive on 
the scene?

    Answer. Afghanistan National Security Forces personnel arrived at 
the scene at 0558, approximately 26 minutes after the attack was 
initiated.

    Question. When the ANP and ANSF arrived, were the attackers still 
engaged in their attack?

    Answer. Responding Afghanistan National Security Forces reported 
receiving fire from insurgent positions located across the road from 
the consulate when they first arrived on scene.

    Question. Were any of the Afghan casualties a result of friendly 
fire and if so, how many?

    Answer. No, there were no friendly fire casualties.
                                 ______
                                 

          Responses of Anne Patterson to Questions Submitted 
                         by Senator Bob Corker

    Question. A recently released Zogby International poll found that 
65 percent of Egyptians believe that the United States was too 
supportive of President Morsi, and 82 percent of Egyptians believe that 
U.S. policy toward Egypt under President Morsi was harmful to Egypt. 
Another 62 percent believe that the United States has little or no 
understanding of Egypt and the Egyptian people.

  <diamond> What went wrong with our policies toward Egypt to create 
        such strong negative views? How can we correct these policy 
        failures?

    Answer. Polling data stretching back many decades have consistently 
reflected Egyptian mistrust of U.S. policy and intentions in Egypt and 
in the region. Egyptians express similar sentiments about most other 
Western countries. In recent years, polls have also reflected deep 
dissatisfaction with Egypt's successive leaders, including the Mubarak, 
Supreme Council of the Armed Forces (SCAF) and Morsy governments. Our 
widely reported role in convincing President Mubarak to leave office 
has fueled speculation that the United States has been a force behind 
every subsequent government. In fact, we have been attacked by all 
sides in Egypt, alternatively being accused of supporting the Muslim 
Brotherhood or organizing its removal from power on July 3.
    Our policy in Egypt has been premised on the need to protect core 
U.S. interests in the region, including its implementation of the Peace 
Treaty with Israel, countering terrorism, promoting a more inclusive, 
democratic Egypt that reflects the will of the people, and encouraging 
fundamental economic reform. We will continue to support Egypt's 
democratic transition, offering our partnership on the Egyptian 
people's priorities.
    Where possible, we will continue and expand outreach programs and 
exchanges, including programs to help prepare young Egyptians for the 
jobs and the economy of the future. We will also support Egyptian 
Government efforts to undertake needed economic reforms and fight 
corruption. I believe that views of the United States will begin to 
realign as Egyptians begin to experience the benefits of democracy, 
development, and open markets. If confirmed, I will work with our 
Ambassador and Embassy in Cairo to underscore our support for, and 
shared goals with, the Egyptian people.

    Question. The media--especially Western media--has focused on the 
situation in Egypt as a fight between the military and the Muslim 
Brotherhood disregarding--or at least not analyzing deeply--the 
opinions of the millions of people that turned out, nationwide, in the 
streets to protest the undemocratic actions of the Muslim Brotherhood.

  <diamond> How does the United States take into account the views of 
        the Egyptian citizens? Where do the opinions of the Egyptian 
        public fit into U.S. policymaking?

    Answer. Following the July 3 events in Egypt, President Obama 
clearly articulated the United States support for a set of core 
principles--opposing violence, protecting universal human rights, and 
meeting the legitimate aspirations of the Egyptian people. We also 
acknowledged the role of public opinion leading up to the events of 
July 3.
    As Ambassador, I regularly met with a wide range of Egyptian 
society, including political groups and parties, business leaders and 
civil society organizations to better understand their desires, 
motivations, and aspirations for their country. We heard substantial 
criticism of the Morsy government as well as the growing sense of 
personal and economic insecurity that Egyptians have faced in recent 
years. Secretary Kerry devoted substantial effort during his first 
visit to Cairo last March to talking with Egyptian civil society, 
business and government leaders about these problems.
    If confirmed, I will continue to work with our Ambassador to Egypt 
to ensure that we solicit a broad range of views from the Egyptian 
public on the direction of Egypt's transition to democracy, using these 
views to identify our priorities for assistance and engagement.

    Question. Libya is at its most violent and precarious state since 
the conflict that toppled Gaddafi. Foreign investors are now growing 
wary as security costs stifle business growth.

  <diamond> What specifically can the U.S. Government do to help make 
        Libya a safe place to do business, particularly in the 
        neglected eastern part of the country?

    Answer. Libya seeks to enter the global economy and community of 
democracies after 42 years of isolation under Qadhafi. Improved 
security is a precondition to expanded trade and investment in Libya. 
If confirmed, I plan to make Libya one of my top priorities. Since the 
revolution, the United States has provided the Libyan Government with 
targeted technical assistance in a number of critical areas to help 
establish security sector institutions appropriate for a democratic 
state and to develop the capacities needed to control loose weapons, 
counter terrorism, and improve border security management.
    We responded positively to a request this spring from Prime 
Minister Ali Zeidan that we help train a new, professional General 
Purpose Force which could form the core of a new Libyan Army. We are 
still working out the details of the arrangement, but the cost will be 
fully paid by the Libyan Government. Moreover we are working together 
on a $14 million border security program to assess, train, and equip 
Libyan border security forces in securing and management of their land 
borders and points of entry (POE) including land, sea, and air. We are 
particularly focused on programs intended to prevent proliferation of 
weapons of mass destruction.
    Additional targeted assistance includes support for 
professionalization of security and justice sector institutions, 
including the police, demobilization and reintegration of militias, 
detention and prison reform, control of conventional weapons, and 
chemical weapons destruction.

    Question. What is the Department of State currently doing to help 
the vetted, moderate opposition in Syria, and what do you plan to do 
with such programs if confirmed?

    Answer. Over the last 2 years, the United States has committed to 
providing a total of $250 million in nonlethal support to the Syrian 
Opposition Coalition (SOC) and the Supreme Military Council (SMC). Of 
this assistance, approximately $167 million has been obligated to 
support the following lines of effort, while the remainder will be 
notified to Congress shortly. Assistance already obligated and expended 
includes:

  <bullet> Approximately $90 million in small grants and in-kind 
        assistance to support the SOC, Assistance Coordination Unit 
        (ACU) and Local Councils' ability to provide basic services for 
        impacted communities. Examples of support include over $2.5 
        million in grants to 15 local councils and civil society 
        organizations to be able to respond to community needs and 
        improve governance in liberated areas. In addition, the 
        Liberated Areas Initiative is providing $10 million worth of 
        generators, cranes, trucks, ambulances, and water bladders to 
        areas under opposition control. This support is designed to 
        increase the linkages between local and national-level 
        opposition groups and improve service delivery and governance 
        in areas under opposition control.
  <bullet> Approximately $26.6 million in nonlethal equipment to the 
        SMC to enhance its logistical capabilities on the battlefield. 
        We have provided 330,000 MREs, 529 medical kits, and over 3 
        tons of surgical and triage medical supplies to support field 
        clinics. Over the next several months we plan to deliver 
        additional equipment consisting of vehicles, satellite access 
        equipment, laptops, radio communication equipment, and medical 
        kits.
  <bullet> Approximately $26 million in training and equipment for 
        civil society groups and local councils to help build the 
        capacity of nearly 1,500 grassroots activists, including women 
        and youth, from over 100 opposition councils and organizations 
        to mobilize citizens, share information, provide community 
        services, and undertake civic functions.
  <bullet> Approximately $9.5 million in support for independent media, 
        including assistance to community radio stations providing 
        information for refugees about available services; training for 
        networks of citizen journalists, bloggers, and cyber activists 
        to support their documentation and dissemination of information 
        on developments in Syria; and support to enhance the 
        information and communications security of activists within 
        Syria.
  <bullet> Approximately $9 million for support of interreligious and 
        communal dialogues, encouraging citizen participation in 
        shaping the Syrian transition and supporting human rights 
        documentation and transitional justice efforts to lay the 
        foundation for future accountability efforts.
  <bullet> Approximately $5 million in equipment, training, and 
        stipends for local police and judges in opposition-controlled 
        areas. This assistance includes efforts to help local 
        communities maintain public safety, extend the rule of law and 
        enhance the provision of justice to improve local stability and 
        prevent sectarian violence.

    This assistance is in addition to the now $1.3 billion in total 
U.S. humanitarian assistance for the Syrian people. In addition to our 
efforts to aid the Syrian opposition, the United States remains the 
single largest contributor of humanitarian assistance for the Syrian 
people.
    If confirmed, I plan to continue providing assistance--with the 
goal of reducing delivery times--to support the Syrian opposition both 
from the top-down by supporting national groups like the SOC and SMC as 
well as from the bottom-up by strengthening capable local councils and 
civil society groups in Syria. This strategy is helping build an 
ethnically and religiously diverse network at the national and 
subnational level. I plan to work closely with the committee on these 
issues.
    U.S. assistance remains a crucial component of our multidimensional 
campaign to support a peaceful political transition in Syria, and the 
emergence of a stable, responsible government.

    Question. How is the conflict in Syria affecting what is seen as a 
larger conflict between Sunni and Shia states?

    Answer. The Asad regime has worked to stoke sectarian divides and 
many among Syria's minority communities, including Alawis, Druze, and 
Christians, now fear what the future holds. The Sunni majority is 
divided, fractious, and likewise anxious about its role, as it seeks to 
assert the rights long denied them by the Asad regime. Some factions 
are using these divides to position regional players against one 
another, working to lure in Saudi Arabia and Qatar on one side and Iran 
and Iraq on the other. The complexity of this conflict, and 
particularly its regional dimensions, makes it clear that there can be 
no military solution for the conflict. A negotiated transition, as laid 
out in the Geneva Communique, is the only way to resolve this conflict 
and put an end to the devastating loss of life. If confirmed, I will 
continue the administration's work with the U.N. and the international 
community to bring both parties to the negotiating table.
                                 ______
                                 

         Responses of Caroline Kennedy to Questions Submitted 
                     by Senator Benjamin L. Cardin

    Question. On May 30, 2009, the Japanese Ambassador to the United 
States, Ichiro Fujisaki, delivered in person a long-sought formal and 
official apology to the former American POWs from the Japanese 
Government. In September 2010, Japan's Foreign Ministry initiated a 
visitation program to Japan for American former POWs and their 
families. The many Japanese companies that used the POWs as slave labor 
in their mines, factories, and on their docks have never, however, 
acknowledged the POWs nor apologized. There have been three visits of 
seven former POWs or family members. The fourth program will be this 
October. Japanese politics and budgets threaten to end this program of 
reconciliation and friendship.

  <diamond> How do you plan to encourage the Japanese Government to 
        continue the POW visitation program and to encourage Japanese 
        companies to follow their government's example of contrition? 
        It goes without saying the members of America's Greatest 
        Generation will not be long among us.

    Answer. I echo your praise of former American Prisoners of War 
(POWs). Their contributions and heroism should never be forgotten or 
minimized. The U.S. Government appreciates the Japanese Government's 
words and actions to express remorse for the treatment of American 
POWs, especially the yearly visit invitations to POWs to Japan. I am 
aware that several Japanese companies have expressed contrition to U.S. 
POWs, and many have welcomed meetings with the POWs in an attempt at 
healing and reconciliation. If confirmed, I will continue efforts to 
build friendship and trust between POWs and Japan, while cognizant of 
the fact that the declining number of POWs and their poor health makes 
future trips to Japan challenging. I will emphasize that reconciliation 
will not only help to ease the suffering of the POWs, but also will 
promote healing within Japanese society.
                                 ______
                                 

         Responses of Gregory B. Starr to Questions Submitted 
                     by Senator Benjamin L. Cardin

    Question. I recently visited China, Korea, and Japan, and although 
those missions certainly have different physical security needs than 
high-threat posts, there is a keen interest in ensuring adequate 
language capabilities for their personnel. This is especially true in 
China.

  <diamond> Can you explain the importance of, and your priorities for, 
        language training for our security personnel?

    Answer. The Bureau of Diplomatic Security (DS) has made significant 
strides in increasing language abilities over the past several years. 
DS endeavors to ensure DS agents have sufficient time to learn the 
language they will need when required for overseas posts. It takes up 
to 2 years or more in some ``hard'' and ``super-hard'' languages like 
Mandarin to become proficient enough to carry on an in-depth 
conversation with counterparts. Unfortunately, DS sometimes must send 
someone to post without the necessary language skills when the security 
conditions at post require the immediate dispatching of personnel and 
such language skills are not essential to the performance of duties.
    In early 2014, the Director General of Human Resources will request 
that all Foreign Service positions be reviewed as part of the 
``triennial language review'' process. At that time, DS will make 
adjustments to positions that may need to have language requirements 
changed--either increased or decreased.
    DS is committed to ensuring that positions that require hard 
languages, such as Chinese and Arabic, are filled with DS Agents 
qualified to speak that language.

    Question. The Bureau of Diplomatic Security is responsible for 
defending the Department of State's global network of information 
technology systems and information assets. The Embassy Security bill 
which the Senate Foreign Relations Committee passed rightly addresses 
our physical security needs; however, our cyber security posture in is 
increasingly under attack. In China, for example, our consulate's 
social media page was shut down by the Chinese Government, and the 
Chinese also heavily monitor cell phone and other communications.

  <diamond> Please describe the Department's strategies for defense 
        against network intrusion and other cyber threats.
  <diamond> How are we working to improve our cyber security posture 
        abroad?

    Answer. The Bureau of Diplomatic Security (DS) coordinates closely 
with the Bureau of Information Resource Management (IRM) and other 
offices to protect the Department's global network of information 
technology systems and information assets. DS has established a 
comprehensive ``defense-in-depth'' cyber security program which enables 
the Department to detect, react, analyze, and respond to sophisticated 
malicious cyber activity from foreign intelligence services and 
computer criminals. DS provides this operational security capability 
through an interdependent set of cyber security teams, tools, and 
programs including network intrusion detection, compliance 
verification, vulnerability assessment, pen testing, incident handling, 
threat analysis, and the Regional Computer Security Officer Program. 
This fully integrated program capability enables rapid coordination and 
action on a number of issues involving global cyber threats and network 
security vulnerabilities.
    In functional terms, the DS programs addresses cyber threat issues 
as follows:

  <bullet> The Network Monitoring Center maintains a 24/7 watch on the 
        Department's global network traffic checking for anomalous and/
        or suspicious activity and reports on events.
  <bullet> The Computer Incident Response Team (CIRT) reviews events 
        and keeps operational managers, law enforcement and US-CERT 
        informed about incidents and coordinates incident response 
        actions with all stakeholders.
  <bullet> The Cyber Threat Analysis team delivers daily and topical 
        all-source reports on pressing threat issues and works closely 
        with LE and CI agencies to develop a comprehensive threat 
        picture and remediation measures. This unit also performs 
        proactive penetration testing and network forensic analysis to 
        detect and resolve major threat issues.
  <bullet> Regional Computer Security Officers (RCSOs) are the 
        Department's ``boots on the ground'' performing cyber security 
        assessments at overseas sites and reporting findings to DS.
  <bullet> DS also works closely with the Department's virus detection 
        and other security programs to stay abreast of any problems 
        affecting the confidentiality--integrity--availability of the 
        Department's networks.

    In addition, DS uses its expert cyber security teams to address and 
improve the Department's cyber security posture abroad through these 
initiatives:

  <bullet> Providing customized cyber security support to the Secretary 
        and other senior officials during major diplomatic events;
  <bullet> Detailing DS personnel full-time to other federal cyber 
        security operations centers to ensure the timely sharing and 
        analysis of threats, cyber intelligence, and technical 
        developments. This includes DS personnel assigned to:

      <all>  National Security Agency /Central Security Service Threat 
            Operations Center (NTOC);
      <all>  Department of Homeland Security's US-Computer Emergency 
            Readiness Team (US-CERT);
      <all>  DS Special Agent assigned to the Federal Bureau of 
            Investigations 
            National Cyber Investigative Joint Task Force (NCIJTF).

    DS can provide a briefing in an appropriate setting that will 
provide a fuller understanding of the threats affecting the Department 
and our cyber security program's ability to mitigate risk.
                                 ______
                                 

         Responses of Anne W. Patterson to Questions Submitted 
                     by Senator Benjamin L. Cardin

    Question. Secretary of State Kerry has facilitated the resumption 
of substantive negotiations between Israel and the Palestine Liberation 
Organization (PLO) in Jerusalem in mid-August at the negotiator level. 
Many observers are skeptical that the negotiations will lead to 
meaningful resolution on core issues of the dispute, citing ongoing 
turmoil in neighboring states as one of many factors influencing both 
parties' domestic constituencies away from substantive compromise. Some 
observers have asserted that time may be running out for a two-state 
solution.

  <diamond> What are your expectations for Israeli-Palestinian 
        negotiation over the next few months? How likely is an Israeli-
        Palestinian resolution on core issues of dispute? What are the 
        main signs of hope and the main obstacles?

    Answer. Thus far negotiations between the two sides have been 
substantive and serious. The parties have engaged on the core issues in 
good faith and we expect that to continue in the months ahead. But we 
do not expect that we will be announcing any major breakthroughs, both 
because the parties have agreed to keep the content of their 
discussions private and because, as has been the case in the past, the 
basic premise of the negotiations is that nothing is agreed until 
everything is agreed.
    We remain optimistic because in Prime Minister Netanyahu and 
Palestinian President Abbas, we believe we have two leaders who are 
serious about pursuing peace. Both leaders have stepped up to resume 
negotiations despite significant domestic political pressure, and we 
don't believe they would have paid that political price if they were 
not serious about following through.
    We know that this will not be easy and that the negotiators will 
need to make difficult compromises on issues that have created major 
obstacles in the past. They will also face skeptical publics and 
numerous spoilers on both sides who will try to sabotage any progress. 
However, we believe that with courageous and bold leadership of the 
parties, and the commitment by Secretary Kerry and President Obama to 
peace, these challenges can be overcome. I know Ambassador Indyk is 
happy to come up and brief you in further detail on this very important 
subject.

    Question. What are we doing to help Israel maintain and enhance its 
qualitative military edge?

    Answer. As President Obama stated during his March visit to 
Israel--and several Israeli leaders have reiterated--the security 
relationship between the United States and Israel has never been 
stronger. We continue to ensure that Israel maintains its Qualitative 
Military Edge so that it can counter and defeat any credible threat 
from any state, coalition, or nonstate actor. This is the cornerstone 
of the United States-Israeli security relationship.
    Through both our government-to-government Foreign Military Sales 
program and Direct Commercial Sales, we are able to provide Israel with 
advanced defense articles and services available only to our closest 
allies and partners.
    Additionally, we have strengthened our military-to-military 
cooperation with Israel and now conduct more joint exercises and 
exchanges of our political, military, and intelligence officials than 
ever before.
    We are in the fifth year of a $30 billion, 10-year MOU with Israel 
on Foreign Military Financing (FMF). In FY 2013, Israel received just 
under $3 billion in FMF funds, slightly lower than MOU levels, due to 
sequestration. Additionally, the United States has separately funded 
development of several Israeli missile defense programs, including the 
Iron Dome rocket defense system, which helped defend Israeli 
communities against rockets launched from Gaza by Hamas and other 
terrorist groups in November 2012.
    In April 2013 the United States announced it would make available 
to Israel a number of new advanced military capabilities, including 
antiradiation missiles and advanced radars for its fighter jets, KC-135 
refueling aircraft, and most significantly, the V-22 Osprey, which the 
United States has not released to any other nation. When combined with 
the Joint Strike Fighter and major advances in our cooperative missile 
defense efforts (e.g., Iron Dome, Arrow Missile Defense Systems), these 
capabilities will ensure Israel's qualitative military edge and air 
superiority for decades.

    Question. What is the timetable for concluding a new Memorandum of 
Understanding with respect to security assistance to Israel?

    Answer. Our current 10-year, $30 billion MOU expires at the end of 
fiscal year 2018. As part of our long-term commitment to Israeli's 
security, President Obama announced during his March visit to Israel 
that the United States would begin discussions with Israel on how we 
will extend assistance for the years beyond the current MOU.
    At the President's direction, we and the Israelis have already 
begun discussions about an MOU for the period beyond FY 2018, given 
Israel's security needs and the complex technical issues involved. 
These discussions between our two governments are at an early stage and 
are ongoing. As the talks progress, we will consult closely with 
members of this committee.

    Question. As you know, in Geneva, unlike in New York, Israel is not 
a part of any regional grouping. It will take a significant amount of 
U.S. effort and support to get Israel included in the Western European 
and Others Group (WEOG) in Geneva.

  <diamond> Will you commit to making such an effort in Geneva, as we 
        did in New York? In your opinion, what can be done to ensure 
        that Israel is treated more fairly at the U.N.?

    Answer. Normalizing Israel's participation across the U.N. and 
ending its institutionalized unfair treatment in Geneva remains a top 
priority of this administration and of mine.
    If confirmed, I will support the continuing work to promote full 
and equal Israeli inclusion in international bodies, including the 
consultative groups in the U.N. system that act as organizing venues 
for determining candidates and coordinating policy approaches.
    The United States has helped gain Israeli membership in the Western 
Europe and Others regional group (WEOG) for several U.N. committees in 
New York, and the ultimate goal is Israeli membership in all WEOG 
groupings, including in Geneva. The United States believes it is 
essential for Israel to be included, as it is the only country not to 
belong to a regional group in Geneva, and I share that belief.
    If confirmed, I will support my colleagues in coordinating closely 
with Israel and with WEOG members to press for Israel's membership in 
the group.
    Further, as I did as Deputy PermRep in New York when I worked 
closely with the Israeli delegation, I will support the 
administration's continuing efforts to normalize Israel's status at the 
United Nations, including vigorously opposing one-sided, biased 
resolutions, fighting efforts to delegitimize Israel, and supporting 
Israel's positive engagement with the UN. I will also work with my 
colleagues to explore new opportunities for Israel to engage in the 
U.N., whether it is supporting the participation and selection of 
Israelis for leadership roles in U.N. programs and agencies, or backing 
Israeli initiatives at the General Assembly, like this year's 
entrepreneurship resolution.
                                 ______
                                 

         Responses of Caroline Kennedy to Questions Submitted 
                         by Senator Marco Rubio

    Question. What is your assessment of the Asia pivot/rebalance and 
its effect on United States-Japan relations?

    Answer. I believe President Obama made a strategic commitment to 
rebalance our interests and investments in Asia. As a Pacific nation 
that takes our Pacific partnership seriously, the United States will 
continue to build on our active and enduring presence in the region. 
Secretary Kerry has traveled to the region twice since assuming office 
and will be traveling to Asia again in early October, underscoring his 
commitment to the rebalance and to close ties in the region.
    The specific objectives of the rebalance are to strengthen U.S. 
treaty alliances, deepen economic and political partnerships in Asia, 
increase trade and investment, and promote democratic development. 
People-to-people engagement underpins all of these goals.
    The United States-Japan alliance is the cornerstone of U.S. 
security interests in Asia and is fundamental to regional stability and 
prosperity. The United States and Japan are committed to promoting 
peace and stability--both regionally and globally.
    The rebalance represents comprehensive engagement in the region, 
including trade and investment ties. The Trans-Pacific Partnership 
(TPP) is the economic centerpiece of the rebalance, and a critical 
initiative to promote U.S. exports, growth, and jobs. Japan is an 
important partner in the ongoing TPP negotiations. If confirmed, I will 
coordinate closely with USTR, the Department, and the interagency, as 
appropriate, to work with Japan to achieve a high standard, 
comprehensive agreement and meet the TPP Leaders' goal of concluding 
the negotiations this year.
    I would like to reiterate the importance of people-to-people ties. 
If confirmed, I will work to invigorate educational and cultural 
exchanges in order to enhance understanding and affection between the 
Japanese and American peoples. These grassroots ties benefit both our 
nations tremendously, as an important investment in even closer 
partnership and cooperation with Japan into the future.

    Question. What new measures would you take to encourage greater 
trilateral United States-South Korea-Japan security cooperation? Do you 
agree that such cooperation strengthens U.S. interests in the Asia-
Pacific region?

    Answer. The United States treaty alliances with Japan and the 
Republic of Korea (ROK) have been the foundation for peace, stability, 
and prosperity in Asia for decades. The United States shares with these 
two allies many strategic interests: improving regional security and 
stability, fostering economic prosperity and open trade, and promoting 
our shared values of democracy and the rule of law. Increased 
trilateral cooperation not only strengthens U.S. interests, but also 
benefits Japan, the Republic of Korea, and the rest of the Asia-Pacific 
region.
    Our three countries meet regularly at senior levels in a trilateral 
format and enjoy close cooperation on a wide range of regional and 
global issues, particularly on North Korea. The United States, Japan, 
and the ROK seek the denuclearization of the Korean Peninsula and are 
working together to stress to North Korea that it must abide by its 
commitments and comply with relevant U.N. Security Council resolutions, 
which obligate it to denuclearize, among other things. The three 
countries are actively strengthening efforts to reinforce regional 
mechanisms including ASEAN, the ASEAN Regional Forum (ARF), and the 
East Asia Summit (EAS) and working to strengthen cooperation on 
counterpiracy, disaster response, maritime security, and peacekeeping. 
In addition to cooperating on Middle East issues, all three countries 
are actively providing assistance toward the humanitarian crisis in 
Syria.
    If confirmed, I will make it a priority to continue and expand 
United States-Japan-Republic of Korea trilateral cooperation.

    Question. Given the pattern of increasingly aggressive harassment 
and incursions by Chinese aerial and naval assets into Japanese-
administered territory, what will you personally do to reassure the 
Japanese Government and public about the steadfastness of American 
commitments to Japan's security?

    Answer. The United States is fully committed to our alliance with 
and security obligations toward Japan. If confirmed, I will publicly 
and privately continue to assure the Japanese of our longstanding 
position. In terms of specific territorial issues between China and 
Japan, U.S. policy has not changed: the United States does not take a 
position on the ultimate sovereignty of the Senkaku Islands. We call on 
all parties to avoid actions that raise tensions and to prevent 
miscalculations that could undermine peace, security, and economic 
growth in the region. The Senkaku Islands have been under the 
administration of the Government of Japan since they were returned as 
part of the reversion of Okinawa in 1972. As such, they fall within the 
scope of Article 5 of the Treaty of Mutual Cooperation and Security. 
The United States opposes any unilateral or coercive actions that would 
seek to undermine Japanese administration.
    But I would note that the administration has engaged in sustained, 
intensive, and high-level diplomacy on easing tensions in Northeast 
Asia for many months now. The State Department and other agencies 
repeatedly encourage all parties to do the same and to pursue dialogue 
with each other to resolve this issue. If confirmed, I intend to 
continue emphasizing this message. Both Japan and China understand that 
Northeast Asia is an engine of global economic growth, so of course we 
are very concerned that miscalculations have the potential to undermine 
peace, security, and economic growth.
    And I will continue to remind the Japanese that the United States-
Japan alliance is the cornerstone of our Asia-Pacific strategy, and our 
shared values and ideals provide a broad scope for bilateral 
cooperation with a global reach. Japan and the United States also share 
common objectives in working with China on a wide array of issues, 
including increasing military transparency, strengthening rule of law, 
making progress toward denuclearization of the Korean Peninsula, 
combating climate change, and strengthening the protections for 
intellectual property.

    Question. In May 2013, the Japanese Diet approved Japan's accession 
to the Hague Convention on International Child Abduction, an important 
and commendable step that could lead to Japan's ratification and 
implementation of the Convention by March 2014. I have been assured by 
Japanese officials that ratification of the Convention would 
immediately cover existing cases of parental abduction as far as the 
rights of left-behind-parents to visit their abducted children. 
However, I am deeply concerned that implementation of the Convention 
does not seem to protect left-behind-parents' rights to see their 
children returned to the country in which he/she habitually resided.

  <diamond> What steps would you take to work with Japanese officials 
        in finding a compassionate solution to these cases?

    Answer. The United States Government looks forward to Japan's 
ratification of the Hague Abduction Convention. One of the Department's 
highest priorities is the welfare of U.S. citizens overseas. This is 
particularly true for children, who are our most vulnerable citizens 
and who cannot speak on their own behalf.
    As a parent, I am deeply concerned about those children not covered 
by the Hague Convention. The left-behind parents, of course, want to 
know what the U.S. Government is doing specifically to help their cases 
when the Convention is not an option for them to seek their child's 
return. In those cases, options for seeking the return of a child are 
far more limited, thus underscoring why Convention membership is 
critical as we move forward.
    If confirmed, I will work hard to resolve the existing cases of 
international parental child abduction to Japan by raising this 
important issue through diplomatic channels and continuing to use every 
appropriate opportunity to raise all existing cases with the Japanese 
Government. I will reexamine efforts taken in the past and discuss 
views with Japanese officials in order to try to develop a workable 
approach to resolving this important issue.
    The Department of State currently works closely with these parents 
to provide information about domestic and foreign resources that may 
help parents to resolve their children's cases. Department officials 
raise individual cases with foreign governments, requesting through 
diplomatic channels that they return abducted children to the United 
States. They assist parents to obtain access, confirm their children's 
welfare, and understand their options. The Department monitors legal 
proceedings as the cases unfold in the court, attends hearings when 
appropriate, engages child welfare authorities, advocates for consular 
and parental access, coordinates with law enforcement authorities when 
parents choose to pursue criminal remedies, and works day-to-day to 
explore all available and appropriate options for seeking the 
children's return to their countries of habitual residence.
                                 ______
                                 

         Responses of Anne W. Patterson to Questions Submitted 
                         by Senator Marco Rubio

    Question. Please clarify the administration's understanding of the 
specific violations and timelines that would trigger the use of 
military force in Syria under the September 14, 2013, bilateral 
agreement with the Russian Federation.

    Answer. The Geneva Framework for Elimination of Syrian Chemical 
Weapons specifies a target date by which the Syrian regime is to submit 
a comprehensive listing, including names, types, and quantities of its 
chemical weapons agents, types of munitions, and location and form of 
storage, production, and research and development facilities. The 
Framework also sets target dates for the completion of initial 
inspections by the Organization for the Prohibition of Chemical Weapons 
(OPCW), the destruction of production and mixing/filling equipment, and 
the complete elimination of all chemical weapons material and 
equipment. The Framework also stresses that Syria must provide the 
OPCW, the U.N., and other supporting personnel with the immediate and 
unfettered right to inspect any and all sites in Syria.
    The Framework does not specify that missing these target dates or 
other violations of the Framework would automatically trigger United 
States use of force. However, the President has said that the credible 
threat of the use of force is important both in maintaining pressure on 
the regime and as a means of holding the regime accountable for its use 
of chemical weapons against its own people.

    Question. Upon announcing the agreement with Russia, Secretary 
Kerry was confident in the possibility of getting access to Syria's 
chemical weapons, because the Syrian regime had maintained area and 
access control to these weapons.

  <diamond> Please explain how the administration would prioritize 
        between supporting the opposition's ability to pose a credible 
        challenge to the Assad regime versus the regime's desire to 
        maintain unchallenged control and authority over Syrian 
        territory.

    Answer. We believe that a negotiated political agreement, rather 
than a military solution, is the preferred outcome of the conflict in 
Syria. A negotiated political agreement provides the opportunity to 
separate the regime from the institutions of the Syrian state--
institutions that are key to ensuring national stability into the 
future. Yet the Assad regime is unlikely to negotiate political 
compromises without feeling genuine pressure on the battlefield.
    The regime has lost control over substantial portions of Syria, but 
we do not believe it is yet ready to engage seriously in negotiations. 
Therefore we and partner countries are increasing our support to the 
Syrian opposition.

    Question. U.S. law requires the suspension of our direct foreign 
assistance to ``the government of any country whose duly elected head 
of government is deposed by military coup d'etat or decree in which the 
military plays a decisive role.''

  <diamond> In your opinion, does the removal of President Morsi on 
        July 3 in Egypt constitute a coup under this definition?

    Answer. We appreciate the complexity of the situation, but we do 
not believe it is in our national interest to make a decision as to 
whether the events of July 3 in Egypt were a coup. Following the events 
of July 3, the President directed a review of U.S. assistance to Egypt 
to reflect our top priorities; that review is ongoing.
    The interim government announced a roadmap that it says will 
conclude in the seating of a democratically elected civilian 
government. This roadmap includes a constitutional amendment process 
conducted by two government-appointed committees, culminating in a 
national referendum. We have made clear to the interim government that 
this process should be fully inclusive and that the constitution should 
respect the universal rights and freedoms of all Egyptians. We also 
continue to make clear the importance of holding inclusive, free and 
fair elections for an early transition to a representative, 
democratically elected, and civilian-led government. We will support 
robust observation of those elections so that we can assess their 
fairness.
    Our response to the situation in Egypt will be in line with our 
values and our national interests. Maintaining flexibility to influence 
changing events on the ground in a better direction will be critically 
important. We will urge the Egyptian Government toward an inclusive, 
civilian-led, democratic transition. As the President and Secretary 
have said, we want to see Egypt's transition succeed, and we support a 
path for a stable, democratic, and prosperous Egypt.

    Question. What was your message to General el-Sisi and other 
military leaders in the runup to the events of July 3? Did you or any 
other U.S. official raise the possibility that U.S. assistance could be 
cut off in the event of a military takeover?

    Answer. We have been clear publicly and privately since the 
beginning of the Arab Spring changes that events in Egypt have 
implications for our bilateral relationship, including our assistance. 
We raised these points with the Egyptian military leadership as well, 
including in the runup to the events of July 3. Just as we urged 
Egypt's military leadership to let the democratic process proceed 
without interruption, we also urged the Morsy government to be more 
inclusive and to appoint more competent ministers, particularly in the 
economic fields.
    The review of our assistance ordered by the President on July 3 and 
the subsequent suspension of certain military assistance deliveries and 
the Bright Star bilateral military exercise are in response to Egyptian 
actions.

    Question. Over the past year, the administration worked hard to 
provide about $450 million in direct cash transfers to the Egyptian 
Government, even as the country failed to take steps toward adopting a 
fiscal stabilization program as prescribed by the International 
Monetary Fund and it continued to prosecute 43 American, Egyptian, and 
German NGO employees working for democracy organizations and block 
these organizations' activities in Egypt.

  <diamond> Please provide the committee a full account of your role in 
        advising the U.S. Government on these decisions as U.S. 
        Ambassador in Egypt.

    Answer. In May 2011, President Obama promised Egypt $1 billion in 
assistance toward managing the debt accumulated by the Mubarak regime, 
in an effort to help prospects for a successful democratic political 
transition. The program was tied to Egypt's commitment to make progress 
toward an internationally accepted set of economic reforms under the 
International Monetary Fund (IMF). We planned to offer $450 million in 
cash transfers--about half of the promised assistance--with tranches of 
funding tied to a series of Egyptian Government promised reforms ending 
in an IMF agreement. In March, the Secretary announced that $190 
million of the cash transfer program for the Egyptian Government would 
be transferred; however, the $260 million second tranche remains on 
hold since conditions have not been met.
    Throughout my tenure in Cairo, I repeatedly outlined to Egyptian 
officials and the public international concerns about the economy and 
the need for fundamental reform, because economic collapse in Egypt is 
in nobody's interest: not America's, not Israel's, and not Egypt's. I 
consistently reminded Egyptian officials that political and economic 
stability go hand in hand. I had many conversations with the Supreme 
Council of the Armed Forces (SCAF), with the Morsy government, and then 
with the interim government about the need for economic reform, a 
message that was conveyed repeatedly by other members of our 
government. We urged the interim government to use the space provided 
by the substantial gulf assistance since July 3 to undertake these 
reforms, improve the business climate, attract investment, and 
reconcile with business elites.
    Regarding the NGO issue, I sought a resolution of our differences 
with the Egyptian Government over the status of American 
nongovernmental organizations (NGO) working in the country--both with 
respect to the unfair trial and the larger issue of pending legislation 
under the Morsi government that would have further restricted civil 
society. I engaged frequently with the Egyptian Government on this 
matter, both immediately after the December 2011 raid, as the trial 
progressed, and with the Morsi government after the trial verdict on 
June 4, 2013. I was told by the Morsi government that the matter would 
be handled bilaterally after the trial was complete. Since July 3, we 
have repeatedly called on the Egyptian Government to demonstrate its 
commitment to defending the universal rights of expression, 
association, and assembly. The steps taken against NGO workers were an 
important element in the decision to postpone some of our assistance 
programs. My team and I closely monitored and spoke out on the NGO 
trial, legal actions against NGOs, and broader civil society issues in 
Egypt. As Ambassador, I met with the Egyptian Government and the 
Presidency on several occasions since legal actions began with raids of 
the NGOs offices in December 2011, with subsequent charges filed 
against the 43 employees alleging they were operating a foreign NGO and 
receiving foreign funding without permission. I consistently pointed 
out to the government that we considered the trial to have been 
politically motivated.
    On the NGO trial verdicts, I, along with senior U.S. officials in 
Washington, strongly deplored the decision of the court. The charges, 
trial, and verdict discourage the exercise of the freedom of 
association. The court's decision to shut down several NGOs and seize 
their assets contradicts the Egyptian Government's stated commitments 
to respect and protect universal rights and freedoms and to support the 
role of civil society in Egypt. We have made clear that we want to see 
the trial verdict redressed for the sake of all the defendants, and we 
will continue to press for that.
    More broadly, we continued to urge the government to meaningfully 
consult with Egyptian civil society organizations to draft an NGO law 
that conforms to international standards. We have repeatedly called on 
the Egyptian Government to demonstrate its commitment to ensuring the 
universal rights of expression, association, and assembly that 
Egyptians aspired to during the revolution. As Ambassador, I repeatedly 
conveyed to the Egyptian Government that NGOs continue to play a 
significant and positive role in Egypt's society and economic 
development and an essential role in ensuring that Egypt's Government 
fulfills the aspirations of its citizens for dignity, justice, and 
political and economic opportunity.

    Question. If confirmed, what will you do to get these verdicts 
wiped from the books and for these important groups to be allowed to 
reestablish operations in Egypt?

    Answer. The administration has consistently made clear since the 
trial was launched that it views the charges as politically motivated. 
As Secretary Kerry said, the verdicts run contrary to the universal 
principle of freedom of association and are incompatible with the 
transition to democracy. I frequently raised our objections with the 
Egyptian Government as Ambassador, and, if confirmed, I will continue 
our efforts to redress these verdicts and allow U.S. support for 
Egyptian civil society to continue unimpeded.
    Alongside our efforts with the Egyptian Government, we have sought 
to minimize the impact of these verdicts on the defendants and their 
organizations. We have supported the legal costs associated with the 
trial through existing grants. We have worked with INTERPOL to ensure 
that it declared invalid Egypt's pursuit of international red notices 
against the defendants, due to the trial being politically motivated 
and not in compliance with INTERPOL's constitution. The Department is 
providing each defendant with official letters for use in the pursuit 
of employment or other matters indicating the U.S. Government's view 
that the convictions were politically motivated, without merit, and 
invalid.

    Question. Does the administration plan to provide remaining FY13 
FMF or ESF funds to Egypt prior to the end of the fiscal year and what 
conditions, if any, will be placed on those funds?

    Answer. The President's assistance review is still ongoing. We do 
not have any updates on that review beyond what the administration has 
already announced. We plan to take the administrative steps necessary 
to prevent funds from expiring. These administrative actions are not an 
indication of any broader decision about our assistance to Egypt, but 
preserve the availability of funds for use in the future. Regardless of 
the outcome of the ongoing review, it is important to retain this 
flexibility.

    Question. What specific actions did you take as Ambassador to Egypt 
to raise persecution of Coptic Christians and treatment of women with 
the Supreme Council of the Armed Forces (SCAF), the Morsi government, 
and the current Egyptian leadership?

    Answer. The treatment of religious minorities and women has 
consistently been one of the highest priority issues in our engagement 
with the Egyptian Government, and I raised these issues with Egyptian 
officials at all levels throughout my tenure as Ambassador. One 
particular focus of our engagement was ensuring that Christians and 
women be included in government committees, political party leadership, 
and all national institutions in order to give voice to their oft-
neglected demands. We also strongly pushed for investigations into 
crimes against Christians and women and accountability for those found 
guilty of violence against these groups.
    President Obama, Secretary Kerry, and the administration strongly 
denounced the recent attacks on Christian churches, homes, and 
businesses and called on the interim government to protect the rights 
of all religious minorities. The interim government has arrested a 
number of individuals suspected of attacking churches, and it has 
committed itself to investigating these heinous crimes. The interim 
government needs to do more, however, to protect Christians before such 
attacks occur, and we will continue to work with the Egyptian 
authorities to stress the need to protect all Egyptians from hateful 
attacks on themselves and their institutions.
    In response to a wave of despicable sexual assaults against women, 
the Department and our Embassy in Cairo initiated a program to help 
train Egyptian police to combat all forms of sexual harassment. This 
was in addition to our public and private efforts to ensure the 
government held the perpetrators accountable for their crimes. We also 
launched a Department-wide effort to bring together our assistance 
programs and direct them more efficiently to support women's 
empowerment. If confirmed, I would continue those efforts to ensure 
women, Christians, and all Egyptians, have a voice in determining their 
future.

    Question. What will you personally do to address the growing 
persecution of Christians in Iran and across the Middle East?

    Answer. I am very concerned by the increasing reports of threats 
and violence against religious minorities in Iran and across the Middle 
East. I am committed to protecting freedom of religion for all. I am 
also dedicated to protecting Christians and other religious minorities 
around the world. Freedom of religion is critical to a peaceful, 
inclusive, and thriving society, and supporting it is a critical 
component of U.S. foreign policy.
    The administration has raised its concerns about the persecution of 
Christians in Iran and across the Middle East on numerous occasions, 
and in multiple international fora. If confirmed, I will continue to 
speak out and highlight cases of religious persecution, work with our 
international partners to shine a spotlight on abuses, urge governments 
to provide these minorities the requisite rights and protections, and 
encourage accountability for acts of violence directed against 
religious minorities. I will also press for the release of U.S citizen 
Saeed Abedini, who was sentenced to 8 years in prison in Iran on 
charges related to his religious beliefs.

    Question. What new measures would you adopt to ensure that the 
State Department more openly prioritizes human rights and democracy in 
its relations with Bahrain, and what leverage points would you use to 
encourage progress on these issues?

    Answer. Human rights and democracy are core U.S. values that will 
remain a priority in our relationship with countries in the region, 
including Bahrain. Last week, we publicly expressed our concern over 
the Government of Bahrain's recent decrees restricting the rights and 
abilities of political groups to assemble, associate, and express 
themselves freely. If confirmed, I will make a strong case to the 
Government of Bahrain that meaningful dialogue between the government 
and the peaceful opposition, political reforms and the protection of 
human rights are vital both to Bahrain's long-term stability and to its 
relationship with the United States. Moreover, I will ensure that we 
continue to review all credible information documenting human rights 
violations and to press for investigations into and accountability for 
these violations. In addition, I will support advocacy and programming 
efforts to expand the space for civil society in Bahrain.
    The U.S. Government continues to withhold the export to Bahrain of 
lethal crowd control items and other items that have a potential 
internal security use due to the Bahraini Government's response to 
protests and concerns about ongoing unrest. If confirmed, I will 
continue to work to ensure our arms transfer policy continues to take 
into account any human rights issues.


    NOMINATION HEARING OF DWIGHT BUSH, SR., MARK CHILDRESS, THOMAS 
DAUGHTON, MATTHEW HARRINGTON, EUNICE REDDICK, JOHN HOOVER, AND MICHAEL 
                                  HOZA

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2013

                                      U.S. Senate ,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Dwight L. Bush, Sr., of the District of Columbia, to be 
        Ambassador to the Kingdom of Morocco
Mark Bradkey Childress, of Virginia, to be Ambassador to the 
        United Republic of Tanzania
Thomas F. Daughton, of Arizona, to be Ambassador to Namibia
Matthew Harrington, of Virginia, to be Ambassador to Lesotho
Hon. Eunice S. Reddick, of the District of Columbia, to be 
        Ambassador to Niger
John Hoover, of Massachusetts, to be Ambassador to Sierra Leone
Michael S. Hoza, of Washington, to be Ambassador to Cameroon
                              ----------                              

    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons presiding.
    Present: Senators Coons, Kaine, Murphy, Markey, and Flake.
    Also Present: Senator Durbin.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to call to order this hearing 
of the Senate Foreign Relations Committee Subcommittee on 
African Affairs as we consider the following nominations: 
Dwight Bush to be Ambassador to Morocco; Mark Bradley Childress 
to be Ambassador to Tanzania; Thomas Daughton to be Ambassador 
to Namibia; Matthew Harrington to be Ambassador to Lesotho; 
Eunice Reddick to be Ambassador to Niger; John Hoover to be 
Ambassador to Sierra Leone; and Michael Hoza to be Ambassador 
to Cameroon.
    As I have discussed with our nominees, before we begin more 
formally I would like to just say a few words about the 
horrific attack in Nairobi in Kenya. My deepest condolences go 
out to the families of those injured or killed in this 
senseless violence. My prayers are with those who have been 
lost with the security forces and the people of Kenya and with 
all who have been touched by this event.
    The United States stands firmly with the people of Kenya as 
they move forward from this unconscionable act of terror and we 
will continue to assist the Kenyan Government in responding to 
this attack and ensuring that those who are responsible are 
brought to justice. It is my hope that this incident will 
remind all of us of the value of our alliances around the world 
and of those who are willing to stand with us and to take 
actions and take risks in the global effort against terrorism.
    I welcome each of the nominees and their family members who 
are here to support them today, and I welcome my colleague and 
subcommittee ranking member, Senator Flake, and I expect we may 
see some other members of the committee this morning.
    Today we consider nominees for seven different diplomatic 
assignments, and I will briefly touch on the relevant 
countries. Cameroon has a strong record of stability, but it 
has come at the cost of democracy and opportunity for its 
citizens that presents some challenges for long-term prospects.
    Namibia has achieved upper income status, but works through 
the lingering legacy of apartheid.
    Sierra Leone has made very significant strides since 
emerging from a brutal civil war, but remains challenged by 
poverty.
    Tanzania has shown a strong commitment to democracy and 
benefits from a very wide array of U.S. assistance, but some 
weak institutions. Poverty and corruption remain persistent.
    Lesotho appears to have successfully embraced democracy 
after a tumultuous transition, an AGOA success story, 
especially in the textile sector, but that success has bypassed 
many Basotho and more than a third of the Lesotho's children 
suffer from malnutrition.
    Niger has restored constitutional rule following the 2010 
coup and its leadership has sought to include diverse voices, 
but it is vulnerable to a wide range of threats, both domestic 
and international.
    Morocco is a steady ally and has signed a free trade 
agreement with the United States, but the unresolved status of 
western Sahara continues to present some governance and human 
rights challenges.
    As all my colleagues on the committee know, I am convinced 
the United States has to deepen and diversify our engagement 
with the leaders and people of Africa. Some of these countries 
we are going to discuss today are more often seen through the 
lens of two-dimensional cartoons or cliches, both positive and 
negative. But countries are not simple cliches. Each deserves 
our attention, support, and respect as we work to advance 
economic development, security and democracy both for their 
benefit and for the benefit of the United States and our 
interests. Investing in the success of African countries is 
good in my view for both Africans and Americans.
    The nominees before us today bring a wealth of foreign 
policy and public service experience and I am interested in 
hearing your views about how we can build these partnerships.
    Dwight Bush has excelled in the world of business and 
finance and serves on the board of many nonprofits, including 
the GAVI Alliance, which is reaching millions with lifesaving 
vaccines and immunizations, and I am confident he will apply 
his expertise to managing U.S. bilateral relations.
    Mark Childress brings strong insights on law, health, 
labor, agriculture, minority rights, all important elements of 
Tanzania's development and our enduring bilateral relationship.
    Thomas Daughton has most recently served as DCM in Beirut, 
during which he was immersed in sensitive security and 
development issues. They are important qualifications for any 
chief of mission charged with protecting Americans abroad, but 
I imagine he is also looking forward to the opportunity to 
handle the more diverse set of issues Namibia will present.
    Matthew Harrington has demonstrated a deep commitment to 
Africa from his service as a Peace Corps Volunteer in 
Mauritania to serving as DCM in Windhoek and Lome and 
assignments focused on Sudan, Zimbabwe, and Ghana, and is 
eminently qualified to represent our interests in Lesotho.
    Ambassador Eunice Reddick brings a deep understanding of 
the difficult and complex challenges and threats facing Niger 
and U.S. policy in the Sahel. Having served most recently as 
Director of the Office of West African Affairs, her experience 
with the Sahel and previous service as Ambassador in Gabon make 
her an excellent choice to lead our mission in Niamey.
    John Hoover has served around the globe from Paris to 
Beijing to Nairobi, covering consular, economic, security, 
political affairs. These skills will serve him well in the 
complex and dynamic environment of Sierra Leone as they seek to 
move sustainably decisively past a history of conflict.
    Michael Hoza has served as a management counselor in 
Nairobi and Moscow, two of our largest and most complex 
embassies in the world, and as DCM in smaller and more remote 
posts, such as in Mbabane, Swaziland. In Yaounde he will have 
the opportunity to apply these management skills and his 
African experience in pursuit of our interests.
    With that broad overview of our remarkably qualified 
nominees, I would like to turn to Senator Flake for his opening 
statement.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you all. I enjoyed meeting with all of you in my 
office earlier last week and the week before, and I am 
convinced that all of you have a great background to serve the 
Nation in the capacity that you have been chosen for. I am 
envious, especially of Mr. Daughton going back to Namibia, 
where I spent a good deal of time. From Arizona to Namibia, 
that seems to be a good connection here. But I really 
appreciate your willing to make the sacrifice and for your 
families as well.
    As I mentioned with the last group of African Ambassadors, 
when I spent time over there it was a little different, before 
the Internet age. It was a little tougher to keep contact with 
family here. You have it easier in that sense. But you face 
difficult challenges, as we are reminded of just in the last 
couple of days, particularly in Kenya.
    And I want to, along with the chairman, I want to express 
my condolences to those who are affected. Hopefully, we will be 
able to help our allies move away from this points up the fact 
that we live in a dangerous world, and it points to the 
importance of your role here in representing this great 
country. So I appreciate your willingness to serve in this 
capacity and look forward to your testimony here.
    Thanks.
    Senator Coons. Thank you.
    We will be joined by Senator Durbin in a few minutes. But I 
think we should simply proceed, if we could, for the moment. I 
would like to invite Mr. Bush, Mr. Childress, Mr. Daughton, and 
Mr. Harrington, in order if you would, to make your 
introductory statements.
    In particular, I would like to encourage you to recognize 
your families and your coworkers or colleagues who might be 
here to support you today. We are all of us on the committee 
conscious of the fact that your service, your willingness to go 
and represent us overseas, your service--many of you have 
dedicated long periods of time to public life--is possible 
really only because of the support and encouragement of your 
family and colleagues. So please do take a moment to recognize 
them.
    Mr. Bush.

STATEMENT OF DWIGHT L. BUSH, SR., OF THE DISTRICT OF COLUMBIA, 
      NOMINATED TO BE AMBASSADOR TO THE KINGDOM OF MOROCCO

    Mr. Bush. Mr. Chairman, Ranking Member Flake, and 
distinguished members of the Senate Committee on Foreign 
Relations, I thank you for the privilege to appear before you 
today. I am deeply honored to be nominated to serve as 
Ambassador to the Kingdom of Morocco by President Obama and 
Secretary Kerry.
    I sit before you today as a testament to the remarkable 
promise and beauty of our great country. I am a child of 
Charlie and Jessie Bush, who committed their entire lives to 
making sure that their children could fully participate in the 
American dream. I grew up in East St. Louis, IL, a town of rich 
history whose boom and bust cycles reflect both the hope and 
tragedy of industrial America.
    My father passed away several years ago and I know that he 
is at peace today and happy with his progeny. My mother sits 
here behind me, and I must acknowledge and thank her for the 
sacrifices that I know she and my dad made for my siblings and 
me.
    I also must thank my dear wife, Antoinette Cook Bush, for 
her love and steadfast support of me; and to Dwight Junior and 
Jacqueline, who bring me joy endlessly every single day.
    The extensive friends and families behind me are here 
because they know that I depend on them daily for support and 
sustenance.
    Mr. Chairman, I believe that my life experiences to date 
have prepared me for the job at hand. After graduating from 
Cornell University, I have had a 35-year career characterized 
by increasing responsibility and broad leadership experiences. 
I have been a banker and an entrepreneur and I have engaged in 
corporate education and philanthropic governance.
    One of the things I am most proud of is my 10-year 
involvement in the GAVI Alliance, a public-private partnership 
that vaccinates over 70 million children a year in the poorest 
countries throughout the world. Through GAVI, I have become 
keenly aware of the nuances of diplomatic engagement.
    Through my experiences I have developed a management style 
that encourages consensus-building, teamwork, and excellence. 
If confirmed, I look forward to working with our outstanding 
Career Foreign Service colleagues in Morocco.
    Mr. Chairman, no country has been a friend of the United 
States longer than Morocco. They were the first country to 
recognize us in 1777. However, we should not be satisfied with 
the longevity of our relationship. Rather, we should want a 
relationship that is dynamic, growing, and reflective of the 
times.
    We must also acknowledge the challenges that face the 
Maghreb region today. We have bilateral priorities to advance, 
American interests to maintain, and a United States workforce 
in Morocco to protect. If confirmed, protecting Americans and 
American interests in Morocco will be my highest priority.
    Our longstanding relationship with Morocco is broad. They 
are a major non-NATO ally. We also have a thriving free trade 
agreement with Morocco and a nearly $700 million Millennium 
Challenge Corporation compact that went into effect in 2008. 
When the MCC compact ends at the end of this month, Morocco 
will commit to completing the programs that we helped them to 
start.
    Exports to Morocco have increased dramatically since the 
FTA went into effect. The expansion of Morocco's deepwater 
Tangier Med port positions Morocco to become a bridge for 
American exports to Europe, the Middle East, and beyond. 
Expanding trade not just in Morocco but throughout the Maghreb 
region could lead to greater levels of regional integration and 
greater cooperation on issues like trafficking, illegal 
migration, and violent extremism.
    Morocco is on a positive path, but it faces significant 
challenges. Morocco's youth face high levels of unemployment 
and they could be susceptible to violent extremist ideologies. 
While the Moroccan Government has aggressively and successful 
pursued terrorist cells over the years, the specter of 
transnational terrorism remains. Accordingly, it is all the 
more important for Morocco to continue investing in education, 
job creation, and ensuring that all Moroccans feel that they 
are equal stakeholders in their country.
    Morocco's continued development and stability depend on 
political, economic, and social reforms that King Mohammed VI 
championed for the last 15 years that he has been in power.
    The 2011 constitutional amendments and reforms strengthened 
the role of the Parliament and the elected government. They 
enhanced Parliament's ability to pass laws on a wide range of 
issues and shifted some political prerogatives from the King to 
the Parliament.
    Separately, our good friends at USAID engage in activities 
that will enhance the lives and potential for Moroccans in the 
future.
    If confirmed, I will work with the Government of Morocco 
and our colleagues across various U.S. agencies to continue to 
make progress on principles of good governance.
    In addition to political and economic advancement, the 
promotion of human rights is also important. Human rights are a 
core value of the United States and if confirmed human rights 
will figure prominently in my engagement with Morocco.
    Finally, there has been progress made in the Western Sahara 
and if I am confirmed I will fully support the efforts of the 
U.N. Secretary's personal envoy to develop with Morocco and 
other parties in the region a just, lasting, and political 
solution for the western Sahara.
    Mr. Chairman, I am truly humbled today and if confirmed I 
will do all that I can to further deepen our relationships with 
Morocco. Mr. Chairman, I thank you and the members of the 
committee for this opportunity to address you and I am 
available for any questions that you may have.
    [The prepared statement of Mr. Bush follows:]

               Prepared Statement of Dwight L. Bush, Sr.

    Mr. Chairman, Ranking Member Flake, and distinguished members of 
the Senate Committee on Foreign Relations, I thank you for the 
privilege to appear before you today. I also want to specifically thank 
Senator Durbin for his kind words in support of my nomination. I am 
deeply appreciative for the trust and confidence placed in me by 
President Obama and Secretary Kerry for nominating me to be the 
Ambassador to the Kingdom of Morocco.
    I sit before you today as a testament to the remarkable promise and 
beauty of our great country. I am the fourth of five children raised by 
Charlie and Jessie Bush, two parents who committed their entire lives 
to only one mission: to make sure that their children could fully 
participate in the American dream. I grew up in East St. Louis, IL, a 
town of rich history whose boom and bust cycles reflect both the hope 
and tragedy of industrial America. I consider myself fortunate to have 
grown up with the working class families, the great teachers, and the 
mentors that helped me along the way.
    My father passed away several years ago, and I know that he is at 
peace today and happy with his progeny. My mother sits here behind me, 
and I must acknowledge and thank her for the sacrifices that I know she 
and my dad made for my siblings and me. I must also thank my dear wife, 
Antoinette Cook Bush, for her love and steadfast support of me, and our 
children, Dwight Bush, Jr., and Jacqueline Bush, who bring me endless 
joy every day. The rather extensive family and friends gathered are 
here today because they know that I depend on them daily for sustenance 
and support.
    Mr. Chairman, I believe that my life experience to date has 
uniquely prepared me for the job at hand. After graduating from Cornell 
University I have had a nearly 35-year career characterized by 
increasing responsibility and broad leadership experiences in the areas 
of corporate management and investing, as well as corporate, education, 
and philanthropic governance. Among other things, at The Chase 
Manhattan Bank I raised capital for Fortune 500 companies. As an 
entrepreneur, I have started and served as the Chief Executive Officer 
of a bank. I have been a member of the Executive Committee of Cornell 
University, and I have been on the boards of directors of several 
public and private companies, and not for profit organizations. For the 
last 10 years I have been a member of the board of trustees of the GAVI 
Alliance, a public-private partnership that vaccinates over 70 million 
children a year in the poorest countries throughout the world. Through 
my involvement with GAVI I have interacted with leaders of many 
developing countries, and I have become keenly aware of the nuances of 
diplomatic engagement. I am a student of history, and I have previously 
visited Morocco and several other Saharan countries as well as over 
other 40 countries, most in the developing world. These experiences 
have helped me to develop a broad set of leadership skills, including 
the ability to set goals, establish an esprit de corps, and motivate 
others to perform at high levels. I look forward to working with our 
outstanding career Foreign Service officers, and if I am confirmed by 
this committee, I will bring the fullness of my experiences together in 
my representation of our country in the Kingdom of Morocco.
    Mr. Chairman, no country has been a friend of the United States of 
America longer than Morocco. It was the first nation to recognize our 
country back in 1777. However, we should not be satisfied with simply 
having a friendship that is longstanding. We should want a relationship 
that is dynamic, growing, and reflective of the times. As we look 
ahead, we must also acknowledge the challenges that face the Maghreb 
region today. We have bilateral priorities to advance, American 
interests to maintain, and a U.S. workforce in Morocco to protect. If 
confirmed, protecting Americans and American interests in Morocco will 
be my highest priority.
    Our longstanding relationship has produced several milestones that 
demonstrate the depth and breadth of our close relationship. Morocco is 
a major non-NATO ally. We also have a thriving Free Trade Agreement 
with Morocco, and a $697.5 million Millennium Challenge Corporation 
(MCC) Compact that entered into force in 2008. When that MCC Compact 
ends this month, Morocco will commit its own resources to complete MCC 
programs.
    Morocco is on a positive path, but it faces significant challenges. 
Morocco's youth face high levels of unemployment and they could be 
susceptible to violent extremist ideologies. While the Moroccan 
Government has been successful in finding, arresting, and prosecuting 
terrorist cells over the years, the specter of transnational terrorism 
has grown significantly in the region. These facts make it all the more 
important for Morocco to continue to address the problems that cause 
young people to lose faith in their system and communities. There needs 
to be a heightened focus on education and employment opportunities, and 
creating an environment in which Moroccans feel they are real 
stakeholders in their government and their society.
    Morocco's continued development and stability depend on the 
political, economic, and social reforms that King Mohammed VI has 
championed since he assumed power nearly 15 years ago. In early 2011, 
Morocco introduced a reform program that included a new constitution 
and parliamentary elections that were widely found to be free and fair. 
The 2011 constitution strengthened the role of the Parliament and the 
elected government, enhanced its ability to pass laws on a wide range 
of issues, and shifted some political prerogatives from the King to 
Parliament. Additionally, the work of USAID will expand opportunities 
for millions of Moroccans to lift themselves out of poverty and play 
productive roles in Morocco's future. If confirmed I will work closely 
with my colleagues across various agencies and with the Government of 
Morocco to ensure we continue to make progress on principles of good 
governance.
    On the economic front, the U.S.-Morocco Free Trade Agreement has 
increased exports of American products to Morocco, by 369 percent. U.S. 
investment in Morocco has also risen sharply in recent years. With the 
expansion of Morocco's deep-water Tangier-Med port, Morocco may be well 
positioned to become a bridge for American exports to Europe, the 
Middle East, and sub-Saharan Africa. These steps should increase access 
to Moroccan markets for U.S. exports and investment. If confirmed, I 
will commit myself to working to increase commerce with this key ally.
    While political and economic reforms are extremely important, the 
promotion and protection of human rights is also important. Human 
rights are a core value of the United States and will certainly figure 
prominently in my engagement with Morocco. If confirmed, I will make 
the promotion and protection of human rights a high priority.
    The Moroccan Government also understands that its future depends on 
the development of the region. Increasing trade among the countries of 
the Maghreb could lead to greater levels of economic development than 
they can achieve alone. Improving cooperation among these neighboring 
countries can help them all better cope with illegal migration, 
trafficking, and violent extremism. However, one of the major 
impediments to improved cooperation among North African countries has 
been the issue of western Sahara. If I am confirmed as Ambassador to 
Morocco, I will fully support the efforts of the U.N. Secretary 
General's Personal Envoy to develop with Morocco and other parties in 
the region a just, lasting and mutually acceptable political solution.
    If confirmed, my priorities will be to promote partnership, expand 
U.S. exports, promote human rights, counter violent extremism, 
reinforce military cooperation and peacekeeping, and of course, protect 
Americans living in Morocco.
    Mr. Chairman, I want to express how humbled I am to be nominated to 
this great country. If confirmed, I will do all that I can to further 
deepen our relations with Morocco, our strategic ally, and a key 
partner in the Maghreb.
    Mr. Chairman, I thank you and members of the committee for this 
opportunity to address you. I welcome any questions that you may have.

    Senator Coons. Thank you very much, Mr. Bush.
    Mr. Childress.

STATEMENT OF MARK BRADLEY CHILDRESS, OF VIRGINIA, NOMINATED TO 
        BE AMBASSADOR TO THE UNITED REPUBLIC OF TANZANIA

    Mr. Childress. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Flake, members of the committee, it's an honor 
to appear before you today as President Obama's nominee to be 
the Ambassador to the United Republic of Tanzania and the East 
African Community. I am humbled by the trust that President 
Obama and Secretary Kerry have placed in me and, if confirmed, 
I look forward to further strengthening our relationship with 
Tanzania and broadening our engagement with the EAC.
    I would like to take a moment to acknowledge my wife, Kate, 
and note with some chagrin that you were much more eloquent in 
thanking her, Mr. Chairman, than I was going to be. So I think 
we will just put your comments in the record and move on.
    I lived and worked in Africa on several occasions as far 
back as the 1980s, and I have returned as often as possible. 
Should I be confirmed, I believe my years of public service in 
both the executive and legislative branches, my strong legal 
background, and my previous work overseas in Africa and in 
Australia assisting development organizations provide me with 
the experience and the tools necessary to carry out this 
important assignment.
    Mr. Chairman, we are at an important juncture in our 
relationship with Tanzania. Tanzania's Government, under the 
leadership of President Kikwete, has embarked upon an ambitious 
economic and political reform agenda. This agenda presents an 
opportunity for the United States to move toward what President 
Obama has described as a new model for Africa that builds 
capacity in countries like Tanzania based not just on aid and 
assistance, but on trade and partnership.
    In agriculture, in energy, and in many other areas, the 
best way for Tanzania to achieve its own ambitious goals is to 
use public resources to leverage private sector investments.
    Tanzania's development also provides business opportunities 
for both American and Tanzanian companies to expand trade 
between Tanzania, the EAC, and the United States. If confirmed, 
I stand ready to promote U.S. firms and I will work to ensure a 
level playing field for U.S. interests.
    Tanzania has significant natural gas reserves and it is 
important that the United States contribute to its efforts to 
develop these resources as rapidly and responsibly as possible. 
President Kikwete has committed to increased accountability and 
regulatory reform in the energy and power sectors, and the 
United States supports these reforms because they are essential 
for an attractive environment for private investment.
    In addition, tourism provides approximately 14 percent of 
the gross domestic product and an estimated $1.7 billion in 
revenue. Unfortunately, poaching and wildlife trafficking 
threaten not only this important contribution to the Tanzanian 
economy, but a unique, natural legacy. If confirmed, I am 
personally committed to assisting Tanzania in combating these 
threats.
    Our strategic objectives in Tanzania include promoting 
democratic institutions, supporting Tanzania's economic growth 
and private sector development, working with Tanzania to tackle 
HIV-AIDS, malaria, and other health challenges, promoting 
regional stability, including Tanzania's peacekeeping efforts, 
and cooperating on security threats such as terrorism, drug 
trafficking, and piracy. As the chairman noted, the events in 
Nairobi are a stark reminder of the importance of keeping our 
focus on counterterrorism.
    Today the partnership with Tanzania is as strong as ever 
and President Obama's recent trip highlighted the successes 
already achieved and the challenges that remain. Tanzania is 
one of only four Partnership for Growth countries and it has 
committed to jointly addressing constraints to broad-based 
economic development. Tanzania receives assistance under almost 
every Presidential initiative, in addition to the recently 
announced Power Africa and Trade Africa. These programs can 
produce tangible and lasting results.
    For example, since the inception of PEPFAR the American 
people have provided treatment to more than 405,000 Tanzanians. 
The President's Malaria Initiative has been an important factor 
in helping Tanzania to virtually eliminate malaria from 
Zanzibar. And our partnership with Tanzania under Feed the 
Future has helped 14,000 farmers and we have seen rice yields 
in that program increase by 50 percent since it started.
    Tanzania has recently successfully completed its first 
Millennium Challenge Compact that was the largest awarded to 
date, almost $700 million, a little bit larger than Morocco, 
which focused on building new roads and increasing access to 
water and electricity. In order to ensure successful completion 
of these projects, Tanzania has made a significant contribution 
of its own, which is really important, I think.
    Key to many of these successes is a transparent democratic 
society that protects rights and promotes tolerance.
    If confirmed, I will utilize the Young African Leaders 
Initiative to engage with Tanzania's youth. This is essential 
as nearly 45 percent of the population of Tanzania is under the 
age of 15. I will also work with the Government of Tanzania to 
continue to promote human rights and the rule of law across all 
sectors.
    Looking ahead, Tanzania has its next election in 2015 and 
is currently in the process of constitutional reform that will 
further define individual rights and which will ultimately 
determine the structure of the union between Zanzibar and the 
mainland. If confirmed, I will monitor these developments 
closely and promote a democratic and peaceful process.
    Mr. Chairman, I thank you and the committee for considering 
my nomination and look forward to answering any questions that 
you have.
    [The prepared statement of Mr. Childress follows:]

                Prepared Statement of Mark B. Childress

    Mr. Chairman, Ranking Member Flake, and members of the committee, 
it is an honor to appear before you today as President Obama's nominee 
to be Ambassador to the United Republic of Tanzania and the East 
African Community (EAC). I am humbled by the trust and confidence that 
President Obama and Secretary Kerry have placed in me; and if 
confirmed, I look forward to further strengthening our relationship 
with Tanzania and broadening our engagement with the EAC.
    I would like to take a moment to acknowledge my wife, Kate, a 
business executive, who also has worked in the government and nonprofit 
sectors, and whom I wish to thank for her support.
    I lived and worked in Africa on several occasions as far back as 
the 1980s, and I have returned as often as possible. Should I be 
confirmed, I believe my years of public service, in both the executive 
and legislative branches, my strong legal background, and my previous 
work overseas in Africa and in Australia assisting development and 
nonprofit organizations, provide me with the experience and tools 
necessary to carry out this important assignment.
    Mr. Chairman, I come before this committee at an important juncture 
in our relationship with Tanzania. Tanzania's Government, under the 
leadership of President Kikwete, has embarked upon an ambitious 
economic and political reform agenda. This agenda, a driving force for 
Tanzania's development, presents an opportunity for the United States 
to move toward what President Obama has described as a new model for 
Africa that builds capacity in countries like Tanzania, based not just 
on aid and assistance, but on trade and partnership. In agriculture, 
energy, and many other areas, the best way for Tanzania to achieve its 
own ambitious goals is to use public resources to leverage private 
sector investments.
    Tanzania's development also provides business opportunities for 
both American and Tanzanian companies, and the recently announced Trade 
Africa is just one of the platforms that can expand trade between 
Tanzania, the EAC, and the United States. If confirmed, I stand ready 
to promote U.S. firms, and will work to ensure a level playing field 
for U.S. interests.
    Tanzania has significant natural gas reserves, and it is important 
that the United States support its efforts to develop these resources 
as rapidly and responsibly as possible. President Kikwete has committed 
to increased accountability and regulatory reform in the energy and 
power sectors, and the United States supports these reforms because 
they create an attractive environment for private investment.
    In addition, tourism provides approximately 14 percent of the gross 
domestic product and an estimated $1.7 billion in revenue. 
Unfortunately, poaching and wildlife trafficking threaten not only this 
important contribution to the Tanzanian economy, but a unique, natural 
legacy. If confirmed, I am personally committed to assisting Tanzania 
in combating these threats.
    Our strategic objectives in Tanzania include promoting democratic 
institutions; supporting Tanzania's economic growth and private sector 
development; working with Tanzania to tackle HIV/AIDS, malaria, and 
other health challenges; helping Tanzania improve its schools, 
promoting regional stability, including Tanzania's peacekeeping efforts 
throughout the region, and cooperating on security threats such as 
terrorism, drug trafficking, and piracy.
    Today, the partnership with Tanzania is as strong as ever, and 
President Obama's recent trip highlighted the successes already 
achieved and the opportunities and challenges that remain. Tanzania is 
one of four Partnership for Growth countries because of its 
demonstrated commitment to democratic governance and economic freedom, 
and receives assistance under almost every Presidential initiative, 
including: Feed the Future, Global Climate Change, and the Global 
Health Initiative which includes the President's Emergency Plan for 
AIDS Relief (PEPFAR) and the President's Malaria Initiative, in 
addition to the recently announced Power Africa and Trade Africa. These 
programs can produce tangible and lasting results. For example, since 
the inception of PEPFAR the American people have provided treatment to 
more than 405,000 Tanzanians and placed more than 1.2 million into care 
and support programs. Tanzania is close to eliminating malaria from 
Zanzibar. On the mainland, where the mortality rate in children under 5 
years has been reduced by half, much of this progress is thought to be 
a result of gradually scaled-up malaria control efforts. Our 
partnership with Tanzania under Feed the Future has helped 14,000 
farmers apply improved technologies and management practices, 
contributing to a rice yield increase of 50 percent since the program 
started. In addition, nutrition programs have reached over 96,000 
children.
    Tanzania has successfully completed its first Millennium Challenge 
Compact, the largest awarded to date, which focused on building new 
roads, and increasing access to water and electricity. In order to 
ensure successful completion of all the projects, Tanzania made a 
significant contribution of its own financial support. Tanzania was 
found eligible for a second compact, and is developing its new project 
proposals.
    Key to many of these successes is a transparent, democratic society 
that protects rights and promotes tolerance. If confirmed, I will 
actively engage with Tanzania's youth, and support their efforts to 
advance democratic values. This is essential, as nearly 45 percent of 
the population is under age 15. I will utilize the Young African 
Leaders Initiative and other exchanges to build relationships that will 
continue into the future. I also will work with the Government of 
Tanzania to continue to promote human rights and the rule of law across 
all sectors. And, I will seek out opportunities to support Tanzania's 
traditions of religious and ethnic tolerance, which have come under 
strain over the past several months.
    Looking ahead, Tanzania has its next election in 2015, and is 
currently in the process of constitutional reform that will further 
define individual rights, and which will ultimately determine the 
structure of the union between Zanzibar and the mainland. It is 
critical that Tanzania's constitutional process continues to be 
transparent and includes consultations with civil society. If 
confirmed, I will ensure that we monitor these developments closely and 
promote a democratic and peaceful process.
    Mr. Chairman, I thank you and the committee for considering my 
nomination, and look forward to answering any questions that you may 
have.

    Senator Coons. Thank you very much, Mr. Childress.
    Mr. Daughton.

 STATEMENT OF THOMAS F. DAUGHTON, OF ARIZONA, NOMINATED TO BE 
                     AMBASSADOR TO NAMIBIA

    Mr. Daughton. Mr. Chairman, Ranking Member Flake, members 
of the committee, it is a great honor and privilege for me to 
appear before you today as President Obama's nominee to be the 
Ambassador to the Republic of Namibia. I appreciate the 
confidence that the President and Secretary Kerry have shown in 
putting my name forward for your consideration. If confirmed, I 
look forward to working with this committee and the Congress to 
advance United States interests in Namibia.
    I have spent a third of my 25 years in the Foreign Service 
working on the African Continent, including as Charge 
d'Affaires in Gabon more than 10 years ago. If confirmed, I 
very much look forward to returning to Africa. In doing so, I 
will have the invaluable support of my wife of 7 weeks, Melinda 
Burrell, who I am delighted to have with me here today along 
with her father, Steve.
    U.S. relations with Namibia are strong and our two 
countries share a firm commitment to democratic values. Since 
its independence in 1990, Namibia has stood as an example of 
stability and good governance in southern Africa. Namibia has 
held several democratic elections in its relatively short 
history and will conduct elections for a new President next 
year.
    One of the goals of the United States in Namibia is to see 
the young country's democratic institutions continue to become 
stronger. If confirmed, I will work with the Namibian 
Government and civil society toward that goal.
    The United States and Namibia also share an interest in 
increasing economic growth and prosperity. For more than 20 
years, Namibia has worked hard to create jobs, attract foreign 
investment, and seek advice and assistance to diversify its 
economy. A $305 million Millennium Challenge Corporation 
compact with Namibia that will come to a close next year has 
targeted tourism and agriculture as sectors where growth can 
help decrease poverty and has provided assistance to the 
education system in order to give more Namibians the skills 
employers need to be competitive in the regional economy.
    Namibia has, however, one of the highest levels of income 
inequality in the world and education can help narrow that 
divide.
    If I am confirmed, one of my priorities will be to ensure 
that the implementation of the final phase of our MCC compact 
is effective and has a lasting beneficial impact in Namibia.
    Namibia also has a 13-percent HIV-AIDS prevalence rate 
among adults and one of the highest tuberculosis case rates in 
the world. Statistics from recent years reflect significant 
progress in tackling both diseases and the United States 
continues to work actively with Namibia to combat them. An 
important focus of the United States effort is helping the 
Namibian Government to strengthen its health system to sustain 
treatment and prevention of these devastating diseases as we 
work together to achieve an AIDS-free generation.
    Namibia has been at the forefront of PEPFAR's efforts to 
move its programs to a more sustainable response. The Namibian 
Government today funds more than half of the HIV-AIDS response 
and has taken financial and supervisory responsibility for 
doctors, nurses, and pharmacists previously supported by PEPFAR 
and the Global Fund.
    Namibia stands as a model in the region of a host country-
led HIV-AIDS response and a transitioning PEPFAR Program. If 
confirmed, I will do my utmost to make sure that our taxpayers' 
resources continue to be used effectively in this joint effort.
    There is also considerable potential for growth in trade 
between Namibia and the United States. The Namibian Government 
has ambitious plans for expansion in the electricity generation 
and transportation sectors, plans that should create 
significant opportunities for American companies to sell their 
products. Trade goes both ways, of course, and more exports 
from Namibia will help the Namibian economy grow, thus 
increasing demand for goods and services.
    If confirmed, I look forward to promoting the efforts of 
United States companies to do business with Namibia and making 
available the tools we can offer for Namibians to grow their 
own economy.
    Namibia has the potential to emerge as a strong leader in 
southern Africa. I welcome the opportunity to promote stronger 
diplomatic ties between our two nations and better mutual 
understanding among our peoples. If confirmed, I look forward 
to leading a team committed to advancing our interests and to 
supporting one of Africa's youngest nations as it tackles the 
challenges of development.
    Mr. Chairman, Ranking Member Flake, members of the 
committee, thank you again for the opportunity to appear before 
you today. I will be happy to answer any questions you might 
have.
    [The prepared statement of Mr. Daughton follows:]

                Prepared Statement of Thomas F. Daughton

    Mr. Chairman, Ranking Member Flake, and members of the committee, 
it is a great honor and privilege to appear before you today as 
President Obama's nominee to be the Ambassador to the Republic of 
Namibia. I appreciate the confidence that the President and Secretary 
Kerry have shown in putting my name forward for your consideration. If 
confirmed, I look forward to working with this committee and the 
Congress to advance U.S. interests in Namibia.
    I have spent a third of my 25 years in the Foreign Service working 
on the African Continent, including as Charge d'Affaires in Gabon in 
the early 2000s. Recent years have taken me elsewhere in the world, but 
if confirmed, I very much look forward to getting back to Africa. In 
doing so, I will have the invaluable support of my wife, Melinda 
Burrell, who I am delighted to have here with me today.
    U.S. relations with Namibia are strong, and our two countries share 
a firm commitment to democratic values. Since its independence in 1990, 
Namibia has stood as an example of stability and good governance in 
southern Africa. Namibia has held several democratic elections in its 
relatively short history, and will conduct elections for a new 
President next year. One of the goals of the United States in Namibia 
is to see the country's young democratic institutions continue to 
become stronger. If confirmed, I will work with the Namibian Government 
and civil society toward that goal.
    The United States and Namibia also share an interest in increasing 
economic growth and prosperity. For more than 20 years, Namibia has 
worked hard to create jobs, attract foreign investment, and welcome 
advice and assistance as it works to diversify its economy. A $305 
million Millennium Challenge Corporation Compact (MCC) with Namibia 
that will come to a close next year has targeted tourism and 
agriculture as sectors where growth can help decrease poverty, and has 
provided assistance to the education system in order to give more 
Namibians the skills employers need to be competitive in the regional 
economy. Namibia has one of the highest levels of income inequality in 
the world, and education can help narrow that divide. In its first 4 
years, the MCC compact has helped Namibia benefit from a growing 
tourism industry, increase and improve its livestock production, and 
improve its national education system. If I am confirmed, one of my 
priorities will be to ensure that the implementation of the final phase 
of our MCC compact is effective and has a lasting beneficial impact in 
Namibia.
    Namibia has a 13-percent HIV/AIDS prevalence rate among adults and 
one of the highest tuberculosis case rates in the world. Statistics 
from recent years reflect significant progress in tackling both of 
these interrelated diseases, and the United States continues to work 
actively with Namibia to combat them. Namibia received nearly $90 
million in PEPFAR funds in FY 2012 and is included in the Global Health 
Initiative. An important focus of the United States effort is helping 
the Namibian Government to strengthen its health system to sustain 
treatment and prevention of these devastating diseases as we work 
together to achieve an AIDS-free generation. Namibia has been at the 
forefront of PEPFAR's efforts to move its programs to a more 
sustainable response. Specifically, since 2004, the Namibian 
Government, in collaboration with PEPFAR, has achieved major success in 
the areas of preventing mother-to-child transmission, treatment 
coverage (80 percent), human resources for health, and health 
financing. The Namibian Government today funds over half of the HIV/
AIDS response and has taken financial and supervisory responsibility 
for doctors, nurses, and pharmacists previously supported by PEPFAR and 
the Global Fund to Fight AIDS, Tuberculosis and Malaria. Namibia stands 
as one the models in the region of a host country-led HIV/AIDS response 
and a transitioning PEPFAR Program. If confirmed, I will do my utmost 
to make sure that our taxpayers' resources continue to be used 
effectively in this effort.
    There is considerable potential for growth in trade between Namibia 
and the United States. The Namibian Government has ambitious plans to 
increase electricity generation and transmission capacity throughout 
the country. It also plans to expand the port at Walvis Bay and develop 
a transportation corridor to connect the port with neighboring 
countries. These efforts should provide significant opportunities for 
American companies to sell their products. Trade goes both ways. More 
exports from Namibia will help the Namibian economy grow, thus 
increasing demand for goods and services. If confirmed, I look forward 
to promoting the efforts of U.S. companies to do business with Namibia 
and making available the tools we can offer for Namibians to grow their 
economy.
    Namibia has the potential to emerge as a strong leader in southern 
Africa. I welcome the opportunity to promote stronger diplomatic ties 
between our two nations and better mutual understanding among our 
peoples. I look forward to leading a team committed to advancing our 
interests and to supporting one of Africa's youngest nations as it 
tackles the challenges of development.
    Mr. Chairman, Ranking Member Flake, and members of the committee, 
thank you again for the opportunity to appear before you today. I will 
be happy to answer any questions you might have.

    Senator Coons. Thank you, Mr. Daughton.
    Mr. Harrington.

 STATEMENT OF MATTHEW T. HARRINGTON, OF VIRGINIA, NOMINATED TO 
                    BE AMBASSADOR TO LESOTHO

    Mr. Harrington. Mr. Chairman, Ranking Member Flake, members 
of the committee, I am honored to be considered for the 
position of Ambassador to the Kingdom of Lesotho. I am grateful 
for the confidence President Obama and Secretary Kerry have 
shown in me by this nomination. If confirmed, I look forward to 
working with this committee and the Congress in advancing 
United States interests and supporting Lesotho in its efforts 
to strengthen democratic institutions, reverse the HIV-AIDS 
pandemic, and achieve sustainable broad-based economic growth.
    At the outset, Mr. Chairman, I want to thank my family for 
their support during this process. In particular, I would like 
to recognize my father, Tracy Harrington, who traveled from 
Georgia to be with me today. My mom and dad took me to Tanzania 
at the age of 1 and Zambia was I was 11. Those experiences 
instilled in me a respect and fascination for other cultures 
and drew me to a career in the Foreign Service.
    I also appreciate the support of a number of good friends 
and colleagues who are here today.
    I am excited by the opportunity to return to the continent 
where I have spent much of my life, as a child, as a Peace 
Corps Volunteer, and as a Foreign Service officer. If 
confirmed, I will draw on my knowledge of the region as well as 
the opportunities I have had to lead interagency teams, oversee 
large PEPFAR Programs and MCC Compacts, and design programs to 
encourage effective and accountable governance. Those 
experiences will enhance my effectiveness in working with the 
government and people of Lesotho to shape what is in our mutual 
interests--a country that is stable, healthy, and prosperous.
    A democratic Lesotho is consistent with American interests 
and contributes to regional stability. The United States 
remains a strong supporter of Lesotho's efforts to consolidate 
the gains achieved since the country's embrace of democratic 
governance in the 1990s. The parliamentary elections of 2012 
produced the country's first peaceful transfer of power between 
political parties since independence and the establishment of 
its first coalition government.
    If confirmed, I will work in partnership with the 
Government of Lesotho to continue to strengthen democratic 
institutions and help ensure that the progress made so far is 
sustained.
    One of Lesotho's biggest challenges is an HIV-AIDS adult 
prevalence rate of 23.6 percent, one of the world's highest. 
Lesotho has demonstrated a strong commitment to fighting this 
scourge, which has devastated the country's social and economic 
fabric. The government covers half the cost of the total HIV-
AIDS response, while most external support comes from PEPFAR 
and the Global Fund. As a result, the country has made 
substantial progress. Sixty percent of adults who require 
treatment now receive antiretroviral therapy, or ART, while 
more than half of HIV-positive women, pregnant women, receive 
ART to prevent transmission of HIV to their children.
    These interventions, along with the recently launched 
medical circumcision campaign, are critical in reducing the 
incidence of new infections. If confirmed, I will focus on 
promoting the continued expansion of these key elements of the 
HIV-AIDS response.
    As the largest bilateral donor to Lesotho, the United 
States plays a pivotal role in helping promote economic 
development in a country whose government is strongly committed 
to improving the lives of its citizens. This month marked the 
end of the 5-year implementation period for Lesotho's $362.5 
million MCC compact. Through this partnership, Lesotho is 
realizing significant improvements to its water and sanitation 
systems, health care infrastructure, and investment climate.
    As a sign of its substantial commitment, the Government of 
Lesotho pledged $150 million of its own funds to cover 
additional costs associated with compact projects.
    If confirmed, I will work with the Government of Lesotho to 
ensure that MCC investments are sustained and benefit as many 
Basotho as possible.
    Finally, Lesotho is a shining example of how AGOA 
stimulates economic growth. AGOA has spurred a vibrant textile 
and apparel industry that is the nation's largest private 
sector employer and sub-Saharan Africa's largest exporter of 
garments to the United States. Lesotho is also the most 
improved country in Africa in the World Bank's most recent 
``Doing Business'' report, due in part to reforms implemented 
under the MCC compact.
    The country continues to face substantial economic 
challenges, however. If confirmed, I will work to encourage the 
Government of Lesotho to continue policy and legislative 
reforms necessary to promote sustainable economic growth, 
empower Basotho entrepreneurs, and attract foreign investment. 
I will also engage with the American business community to 
ensure U.S. companies are aware of investment opportunities in 
Lesotho.
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to appear before you today. I welcome any 
questions.
    [The prepared statement of Mr. Harrington follows:]

              Prepared Statement of Matthew T. Harrington

    Mr. Chairman, Ranking Member Flake, and members of the committee, I 
am honored to be considered for the position of United States 
Ambassador to the Kingdom of Lesotho. I am grateful for the confidence 
President Obama and Secretary Kerry have shown in me by this 
nomination. If confirmed, I look forward to working with this committee 
and the Congress in advancing U.S. interests and supporting Lesotho in 
its efforts to strengthen democratic institutions, reverse its HIV/AIDS 
epidemic, and achieve sustainable, broad-based economic growth.
    At the outset, I want to recognize and thank my father, Tracy 
Harrington, who traveled from Georgia to be with me today. My mom and 
dad took me to Tanzania at the age of 1 and later to Zambia when I was 
11. Those enlightening experiences instilled in me a respect for other 
cultures and drew me to a career in the Foreign Service. I also 
appreciate the support of friends and colleagues who are here today.
    I am excited by the opportunity to return to the continent where I 
have spent much of my life--as a child, as a Peace Corps Volunteer, and 
as a Foreign Service officer. If confirmed, I will draw on my knowledge 
of the region, as well as the opportunities I have had to lead 
interagency teams, oversee large PEPFAR Programs and MCC Compacts, and 
design programs to encourage effective and accountable governance. 
Those experiences will enhance my effectiveness in working with the 
Government and people of Lesotho to shape what is in our mutual 
interests: a country that is stable, healthy, and prosperous.
    A democratic Lesotho is consistent with American interests and 
contributes to regional stability. The United States remains a strong 
supporter of Lesotho's efforts to consolidate the gains achieved since 
the country's embrace of democratic governance in the 1990s. The 
parliamentary elections of 2012 produced the country's first peaceful 
transfer of power between political parties since independence and the 
establishment of its first coalition government. If confirmed, I will 
work in partnership with the Government of Lesotho to continue to 
strengthen democratic institutions and help ensure that the progress 
made so far is sustained.
    One of Lesotho's greatest challenges is an HIV/AIDS adult 
prevalence rate of 23.6 percent, one of the world's highest. Lesotho 
has demonstrated a strong commitment to fighting this scourge, which 
has devastated the country's social and economic fabric. The government 
covers half the cost of the total HIV/AIDS response, while most 
external support comes from PEPFAR and the Global Fund. As a result, 
the country has made substantial progress. Sixty percent of adults who 
require treatment now receive antiretroviral therapy (ART), while more 
than half of HIV-positive pregnant women receive ART to prevent 
transmission of HIV to their children. These interventions, along with 
a recently launched medical male circumcision campaign, are critical in 
reducing the incidence of new infections, but they must be expanded. If 
confirmed, I will focus on promoting the continued expansion of these 
key elements of the HIV/AIDS response.
    As the largest bilateral donor to Lesotho, the United States plays 
a pivotal role in helping promote economic development in a country 
whose government is strongly committed to improving the lives of its 
citizens. This month marked the end of the 5-year implementation period 
for Lesotho's $362.5 million Millennium Challenge Corporation Compact. 
Through this partnership, Lesotho is realizing significant improvements 
to its water and sanitation systems, health care infrastructure, and 
investment climate. As a sign of its substantial commitment, the 
Government of Lesotho pledged $150 million of its own funds to cover 
additional costs associated with compact projects. If confirmed, I will 
work with the Government of Lesotho to ensure that MCC investments are 
sustained and benefit as many Basotho as possible.
    Lesotho is a shining example of how AGOA stimulates economic 
growth. AGOA has spurred a vibrant textile and apparel industry that is 
the nation's largest private sector employer and sub-Saharan Africa's 
largest exporter of garments to the United States. Lesotho was also the 
most improved country in Africa in the World Bank's most recent Doing 
Business report, due in part to reforms implemented under the MCC 
Compact. The country continues to face substantial economic challenges, 
however. If confirmed, I will work to encourage the Government of 
Lesotho to continue policy and legislative reforms necessary to promote 
sustainable economic growth, empower Basotho entrepreneurs, and attract 
foreign investment. I will also engage with the American business 
community to ensure U.S. companies are aware of investment 
opportunities in Lesotho.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I welcome any questions.

    Senator Coons. Thank you very much, Mr. Harrington.
    We will start with 7-minute rounds, if we might, since we 
have three interested members of the committee and others who 
may join us.
    Thank you for your willingness to serve. As we heard at the 
opening of each of your personal statements, it is either your 
parents, your spouses, or both who have inspired in you a 
passion for service in the continent of Africa, a passion for 
public service, are going to sustain you in the service, God 
willing, that lies ahead.
    Let me start with something that Mr. Childress said, but 
that I think sets a theme across all four of you and across all 
seven of the countries that we are discussing today. Mr. 
Childress, you mentioned that Tanzania offers a new model for 
Africa, our relationship with Tanzania, that builds capacity 
based not just on aid and assistance, but on trade and 
partnership.
    You are going to be accredited not just to the United 
Republic of Tanzania, but also the East African Community. Each 
of these four countries are countries where the Millennium 
Challenge Corporation, MCC, compact is either just concluding, 
is in the middle of being executed, they are on the threshold 
of their second compact, but where it has played a very central 
role in economic development and in creating the conditions for 
significant economic growth.
    Please talk in turn each, if you would, about how you 
intend to focus on--and each of you spoke compellingly about 
it--how you intend to focus on strengthening the United States 
economic partnership with the countries in which you may be 
representing us? What are the tools that you most need? How can 
we strengthen the MCC? There are more compacts represented just 
amongst the countries, the seven of you may be representing us 
at, than there is funding in the MCC at the moment. Given your 
previous experience supervising MCC compacts and teams, how 
would you advise us to strengthen it?
    Last, are we doing enough to engage the diaspora community 
within the United States, which is one of our unique 
competitive advantages over, for example, the Chinese or Indian 
or Russian or Brazilian or other investors who are seeking a 
larger role in the countries that you would seek to represent 
us in? Has the United States done as much as we could to 
harness the real skills and abilities of the diaspora community 
in the United States in terms of entrepreneurship and 
engagement?
    So how will you as Ambassador advocate for a stronger 
United States role with Morocco, Tanzania, Namibia, and 
Lesotho? Please, Mr. Bush.
    Mr. Bush. Mr. Chairman, thank you for that question. As you 
know, we have had a very longstanding, very close relationship 
with Morocco since they recognized us in 1777. The relationship 
has various aspects that range from coordination of military to 
coordination of antiterrorism activities, but is significantly 
toward building an economic base that is sustainable and 
creates opportunities for the Moroccan people.
    It is my view that our ability to help them to develop in a 
way that they can sustain themselves as one of the most 
important things we can do. I am a businessman by background 
and training. I am very familiar with taking a long-term view 
on putting in place strategic initiatives that can play out 
over an extended period of time.
    The Millennium Challenge compact that we signed will 
complete at the end of this month. The initial indications are 
that it has been a very successful program. We have been 
engaged in agricultural activities. We have helped to train 
artisans. We have helped to develop the fishing industry. We 
have helped small business people to develop their businesses.
    One of my priorities if I am confirmed is to work closely 
with the Moroccan Government; to work closely with our 
colleagues in the Business Council, the Chamber of Commerce; to 
work with those companies that appear to have business that is 
attractive to the Moroccan people. We need to find a way to 
help them to sustain themselves.
    One of the things I will advocate after looking at the 
review of the Millennium campaign is to look at what the next 
phase should be. I do not anticipate we will go at the same 
industries. I think we should expand our focus there. But that 
is going to be one of my priorities.
    The free trade agreement that we have with Morocco has been 
very successful. Since it went into effect in 2007, U.S. trade 
with Morocco has grown by almost 400 percent. Moroccan trade 
with the United States has grown by 150 percent. My view, my 
personal view, is that we need to continue to push the free 
trade agreement in a way that allows us to export more 
products, but also we need to be mindful that the relationship 
has to go the other way as well. So one of the things I will do 
if confirmed is to help the Moroccan Business Council to 
identify additional products that they should be exporting to 
the United States.
    Also I want to help to make sure that they have the right 
type of infrastructure in place that promotes trade. There are 
still some issues with transparency. We need to work more 
closely with them to have in place a business regime that is as 
transparent and open as it can be.
    Senator Coons. Thank you, Mr. Bush. Moroccan clementines 
make up a significant percentage of our Port of Wilmington 
business, so it is of particular interest to me. A delegation 
from Delaware is about to go to Morocco to pursue strengthening 
that relationship further.
    Mr. Childress, the nation of Tanzania offers a very wide 
range of opportunities and challenges in strengthening our 
relationship in the EAC as well.
    Mr. Childress. Thank you, Mr. Chairman. I think it sort of 
comes down from my perspective to answer the variety of 
questions that you have asked by power, because whoever has 
looked at the situation in Tanzania--as you know, Tanzania has 
enjoyed significant growth, 6-to-7 percent a year, but it has 
not gotten translated into the kind of economic development 
that you would expect.
    So the MCC folks took a look at this and they said, look, 
the big constraint we see is power. The Partnership for Growth 
folks took a look at it and they said the biggest constraint is 
power. The Tanzanians on ``Big Results Now'' took a look at 
what the biggest constraint was and it was power. So clearly 
there is sort of a twofold challenge, I think.
    One is the immediate demands that Power Africa is trying to 
meet, which is sort of transmission-based, how do we look at 
places where the pickle jar is loose and we just need to take 
those extra few steps. I think, as you know, the Tanzanians 
identified several dozen of these sorts of programs, both 
distribution, power, et cetera. I think in the short term that 
is a huge opportunity for American businesses, particularly if 
we can make sure they have open tender processes and 
transparent bidding, and that is critical because it has to be 
on the level.
    But in the longer term the real answer here, as you know, 
Mr. Chairman--we have talked about this. A country that has 
less than 20 percent of its country with electrification and a 
significant portion of that coming from emergency power, which 
is incredibly expensive--in some cases it is jet fuel--cannot 
sustain the kind of economic development that they have as part 
of their ambition.
    So I think American companies can help in the immediate 
term, and then in the longer term--and this is, as you know, 
what the MCC second compact really is all about--you have to 
have fundamental structural reforms in the energy and power 
sector. That is also another opportunity for us.
    So I sort of feel as if one hands off to the other. I think 
that there are a plethora of challenges, but to me that one is 
one that I think answers both your questions.
    By the way, on the diaspora thing, I have to tell you I do 
not think from my sense that we do at all what we need to do in 
Africa. I talked to some of my colleagues who are ambassadors 
in Europe. I am incredibly impressed at the programs that they 
use, both the direct line programs, but the stuff that they do. 
I think we all have to be more creative about that because I 
think that is a real untapped reserve.
    Senator Coons. Thank you, Mr. Childress.
    Mr. Daughton.
    Mr. Daughton. Thank you, Mr. Chairman. As you know, Namibia 
is a large country with a very small population and as a 
result, among other things, I think has no diaspora in the 
United States to speak of. But it nonetheless offers, I think, 
opportunities that have not yet been fully exploited for the 
United States. We have focused most of our attention, to be 
honest, on HIV-AIDS relief and on the environment in Namibia 
over the last 15 or 20 years.
    When you look at what Namibia appears to be poised to do at 
this point in terms of its own internal development, I think 
that is where the opportunities lie. I mentioned they are 
looking at some significant expansion in power generation 
because, like Tanzania, they need more electricity. They are 
also looking at developing the Walvis Bay port, with the idea 
that it might serve as a regional entrepot for materials going 
into a larger market. I think both of those areas offer 
opportunities for American business.
    The U.S. Trade and Development Agency had a reverse trade 
mission here just a couple weeks ago looking at the power 
generation sector. That seems to have attracted quite a bit of 
interest on the part of the Namibian participants.
    I think for my purposes, in terms of what I can do in 
addition to seeking to promote those opportunities, Namibia has 
also not kept up with some of its neighbors in terms of 
advertising itself as an attractive place to invest and do 
business. I do not think the situation has gotten worse, but it 
has not gotten any better, and a number of their neighbors have 
gotten better in the process, which makes them look worse.
    So one of the things that I will be looking to do is work 
with them to see if they can streamline the investment process 
for businesses that are interested in setting up, even domestic 
businesses, because in the end the most important thing for 
them economically at this point is creating an employment for 
their huge youth bubble. That is what the MCC compact that ends 
next year has been aimed at doing and I think it is made some 
significant progress in that respect. But there is a lot of 
work left to be done.
    Senator Coons. Thank you, Mr. Daughton.
    Mr. Harrington, if you would speak also specifically to 
AGOA as the country that is sort of the poster child for 
success.
    Mr. Harrington. Absolutely. Mr. Chairman, AGOA has done 
exactly what it was intended to do in Lesotho. It has generated 
a vibrant textile industry, it has generated 36,000 jobs. It is 
the largest private sector employer. Most of those working in 
the textile industry in Lesotho are women, so that it is a good 
news story.
    I think the challenge--I see two challenges going forward 
if confirmed. One is working with the Government of Lesotho to 
create the kind of environment that is attractive to the 
private sector and to foreign direct investment. That was one 
of the key elements of the MCC compact and there has been some 
progress made under the compact. It is easier now, for example, 
to register a business. It is much quicker to do that. It is 
easier to register and sell property as well.
    There is more work to be done in terms of ensuring better 
access to credit and that is an area that I would pay attention 
to if confirmed.
    I think the down side of the AGOA success story is that 
there really needs to be more economic diversification. The 
economy relies heavily on textile exports, SACU customs 
receipts, remittants from Basotho working in South Africa. So 
there really needs to be a broadening of the economy. That is 
an issue that the government has recognized as a challenge, and 
if confirmed I would work to address that.
    One of the ways I would do that I think--as a colleague 
mentioned, Lesotho could do a much better job of marketing some 
of the opportunities for American business. I will mention just 
three quickly.
    The area of agriculture--80 percent of the country is 
involved in agriculture, most of that at the subsistence level. 
But there are some real opportunities in commercial 
agriculture, aquaculture, horticulture for instance.
    The second sort of major opportunity I think for U.S. 
business is in the area of tourism. Lesotho is the only country 
in the world entirely above 1,000 meters above sea level. It is 
a pristine environment for things like ecotourism, for things 
like competitions at high altitudes, for athletes, elite 
athletes who want to train in high altitudes. The challenge is 
they do not have the kinds of facilities necessary to attract 
those kinds of activities.
    The third major category is renewable energy. Lesotho 
currently meets about 80 percent of its energy needs through 
hydropower. They are about to build another dam next year. So 
that percentage is going to expand. They are also looking at 
the possibility of building a wind farm. So in the not too 
distant future Lesotho may meet all of its energy needs 
completely through renewable sources.
    So I think there are some real opportunities there for U.S. 
business, and we will use things like direct line and bidding 
systems to get that word out.
    Senator Coons. That is tremendous. Thank you.
    Thank you, all four, and I appreciate Senator Flake's 
forbearance with my pursuing one question.
    Senator Flake. No, no problem.
    Mr. Harrington, I would expect that you will be entering 
the Marine Corps Marathon on your return after all that high-
altitude training.
    I did travel to Lesotho several years ago and was struck 
by, one, the success of AGOA. Textile factories, as you 
mentioned, are quite significant. Levi is there and others. But 
the need for diversification is certainly there, and so I hope 
that you are successful in helping them broaden their economy.
    Mr. Daughton, with regard to investment in Namibia, there 
is significant Chinese investment going on in the mining 
sector. Do you want to address that, and is that an area that 
perhaps we could look for some more U.S. interests?
    Mr. Daughton. Thanks, Senator. It is an interesting issue 
because the Chinese appear at the moment to be investing 
primarily in the uranium sector for their own use, which makes 
a certain amount of sense because I think they are trying to 
secure stable sources of things like uranium.
    There has not been, for various reasons as far as I can 
tell, much interest on the part of U.S. mining firms to doing 
business in Namibia. My impression is it is primarily because 
the South Africans have had such a tight hold on the market 
traditionally. I think there are probably opportunities there, 
but I have yet to run across any American mining firms that are 
expressing current interest, though I would be happy to try to 
find some and promote it.
    Senator Flake. Well, good.
    I know that tourism is obviously important to the country, 
and I would love to see more U.S. tourism there, ecotourism. 
One thing that struck me back at the time, I think Namibia has 
one of the largest populations of cheetahs in the world in the 
wild. We have had Americans there helping them with their 
program, particularly with conservation and keeping the 
population healthy on private ranch land and what-not. So that 
I think there are other opportunities with regard to tourism, 
and I hope that the country will pursue those.
    Mr. Childress, with regard to the power initiatives, you 
mentioned that your effort would be to see that there are 
tangible benefits from these initiatives, the U.S. programs. 
What kind of tangible benefits in the end with regard to the 
power initiative can you see in terms of percentage of the 
population that has access to power? What tangible benefits are 
you looking for?
    Mr. Childress. One of the things I think, Senator, that is 
interesting about the Tanzanians ``Big Results Now'' effort is 
that one of the things that they have adopted--and I think some 
of this has come, frankly, from the success of our USAID 
programs and other programs with the Tanzanians, is that they 
have been very clear about sort of setting metrics and saying, 
these are our deadlines about how we want to achieve things.
    So they, actually, as part of this ``Big Results Now,'' for 
the next 3 years they have 29 specific projects. I think their 
ultimate goal is to try to get from, as I said, less than 20 
percent of the population with electricity to 34 percent in 
that period of time. That is incredibly ambitious, obviously, 
but I think it is important that as we get involved with them, 
that we apply the same sort of set of standards and metrics 
that we have applied in our assistance to assisting them to get 
the private sector in.
    I will also say, by the way, that one of the things that I 
am really concerned about--well, interested, challenged about--
is that we have a number of companies, GE, other U.S. 
companies, that are very familiar with the terrain in Tanzania 
and are very enthusiastic about their opportunities there, but 
I think there are going to be a number of other companies that 
have not really thought about it. One of the jobs that I would 
have if confirmed, I think is to try to identify that next 
layer of companies, because there are enormous opportunities, 
but it is not necessarily a place where American companies 
other than some of the ones I have mentioned have made a 
recourse to have as one of their standard sort of places to 
operate.
    I think it will present, particularly as these new natural 
gas reserves come on line, it will present new opportunities, 
but not if we are not there.
    Senator Flake. Right.
    Mr. Bush, you mentioned the cooperation over a long period 
of time between Morocco and the United States. One of the most 
fruitful parts of our relationship is in the area of the war on 
terrorism--intelligence-gathering. How important is that in the 
future and what will you do to continue to foster that 
relationship?
    Mr. Bush. Thank you, Senator. I think that with all that is 
going on to our neighbors to the east, it would be very naive 
for us to think that we are somehow insulated from the issues 
in the region. So with that in mind, what I know about Morocco 
and our partnership is that they have worked very closely with 
us on counterterrorism issues. They are members of the 
Counterterrorism Forum. They have aggressively pursued cells in 
their country. Over the last 12 months or so--excuse me--since 
2012 they have shut down four significant al-Qaeda cells in 
their country.
    In the future, I think that we need to continue to work 
very closely with them on a cross-agency basis to make sure 
that we are helping them to have infrastructure in place to 
address this issue on an ongoing basis.
    Senator Flake. Thank you.
    Back to southern Africa for a minute. I was able to be in 
Namibia during those first elections in 1989 and the drafting 
of the constitution in 1990 and to watch that independence 
process and to see them go through several elections since that 
time. It has been heartening to see that.
    We look just a couple countries away in Zimbabwe, where we 
have not had that experience. The poor Zimbabwean people have 
been through it over the past couple of decades. One thing that 
has been disappointing I think to all of us is that regional 
organizations, in particular SADC and the African Union, have 
not spoken out more forcefully and more on the side of 
democracy.
    I would hope that--and we talked about this in our previous 
meeting. I would hope that you can impress on the governments 
that you will be representing us in, or with, the importance of 
not living up to some artificially high standard that we have 
set, but living up to their own documents, their own charters, 
with regard to SADC or the AU that they have maintained as a 
high standard that all of them will live up to. I can tell you, 
I think everyone knows that that was not the case with Zimbabwe 
in this last election.
    As we consider trade agreements, concessionary trade 
agreements and what-not, that is an important thing that these 
countries that make representations to us with regard to 
compacts and charters and documents that they have set and 
signed and believe in, that they live up to them. So I hope 
that you will impress upon those governments the importance of 
doing that. I think that that will go a long way in Zimbabwe if 
we have other countries putting the right kind of pressure 
there.
    So thank you. Thank you all.
    Senator Coons. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    To the nominees before us, congratulations. You have had 
distinguished careers and this is a major step you are each 
undertaking, and you come to the task well-qualified.
    I want to focus my questions on Morocco. I am the chair of 
a different subcommittee of FRC and Arab North Africa is part 
of the Committee on the Near East, South and Central Asian 
Affairs. So, Mr. Bush, I am very excited about the relationship 
we have and about the opportunity that Morocco presents. Even 
though I think we are doing a lot with Morocco, I still do not 
think as a nation that we are doing enough to really 
demonstrate the opportunity.
    A nation that has been an ally of the United States since 
the 1770s, that is a predominantly Muslim nation, with a King 
who is a direct descendant of Mohammed, that has a strong track 
record of supporting the rights of religious minorities, that 
has done an awful lot in recent years to promote democratic 
reforms, including increased inclusion of women in civic life 
and political office, and that has an economy that is very 
oriented around trade--the free trade agreement with the United 
States is but one of the trade agreements that Morocco has 
struck with nations around the world--I think offers a 
wonderful opportunity for us to spotlight what Morocco is doing 
and hold it up as an example in a part of the world that needs 
good examples.
    Their orientation toward the West, Europe, and the United 
States, toward Africa, especially Francophone Africa, and 
toward the Middle East makes it a very pivotal player. I think 
that the opportunity that you will have is a remarkable one.
    Could you talk a little bit about the current status of--I 
think the one issue that is often a point of at least some 
contention between the United States and Morocco is the status 
of the western Sahara, and what is the current status of that 
sort of in the United Nations? And what is the right way for 
the United States to play a helpful role, but not kind of 
overplay our involvement in that issue?
    Mr. Bush. Senator, thank you so much for that question. The 
western Sahara remains a very complicated story, if you will. 
The interests of various parties are involved--the Moroccan 
people, the Sahari people. It is indeed very complicated. It is 
also an area in which there are human rights issues that we all 
have to think through.
    The position of the Obama administration is the same as it 
has been for the last five administrations, which is to support 
and embrace U.N. Security Resolutions 20-44 and 20-99 and to 
support the personal envoy, former Ambassador Chris Ross', 
efforts to engage on our behalf. There has not been a change in 
that approach and my expectation is that we will continue to 
work through the United Nation on that matter.
    But you should know that if I am confirmed, trying to 
support a resolution on western Sahara will be one of my top 
priorities.
    Senator Kaine. One of the concerns I have about the status 
of the western Sahara, Mr. Bush, is with the rise of al-Qaeda 
and terrorism in north Africa, a disputed border that is a 
little bit potentially porous from South Africa north, presents 
some real challenges, and I would not be surprised if some of 
the al-Qaeda operations in Morocco that you described earlier 
have been benefited by a border that is somewhat in dispute.
    So while 20 years ago the disputed border might not have 
had such significant impact, I would say now it is something 
that I just hope that we will keep a very close eye on, because 
that may actually change what the United States posture should 
be if that disputed border is one that is exploited by 
terrorists, especially those that are connected with al-Qaeda. 
So that is something that over time I would look forward to 
talking to you more about and folks in the State Department as 
well.
    Then a related issue. Because part of the complication in 
western Sahara is the relationship between Morocco and Algeria, 
what do you see that you might be able to do in the role of 
Ambassador to Morocco to be a bridge-builder in your way?
    Mr. Bush. Sure. Thank you, Senator. You know, I speak to my 
colleagues, potential colleagues, in Morocco; they make some 
interesting observations. Observation No. 1 is that every day 
there are flights from Casablanca to Algiers that are filled 
with business people going back and forth. At the same time, we 
have a border that has been closed and there does not appear to 
be any sign that that is likely to be opened in the near term.
    It is in the mutual best interests of both of those 
countries to work, I believe, more closely together. It is an 
opportunity to build a regional economic base that can help 
them to shore up their defenses against external forces like 
al-Qaeda cells that could come and affect both of the countries 
as well.
    If I am confirmed for this position, working with our 
colleagues across the State Department, working with the 
Moroccan Government, working with my colleague, the Ambassador 
to Algeria, I would expect to be actively engaged in trying to 
find solutions for those problems.
    Senator Kaine. Thank you, Mr. Bush.
    Just finally, I hope that one of the things that you might 
do in your capacity is to really spotlight the issues of the 
protection of religious minorities in Morocco and also the 
growing inclusion of women in political office in Morocco. Some 
of the recent political reforms have really advanced that, 
because I think both of those trends are really good examples 
that can be, I think, articulated in a more dramatic way, in a 
neighborhood where both religious liberty and the inclusion of 
women in political life are not what we would hope, but the 
fact that there is home-grown examples of it working in a 
positive way is something that we should spotlight.
    I appreciate your testimony.
    Thank you, Mr. Chair.
    Senator Coons. Thank you, Mr. Kaine. Thank you for your 
strong interest and for your joining us today and for your 
leadership of the subcommittee.
    We are honored to be joined by Senator Durbin, whose 
schedule in his leadership role is quite demanding. So I am 
grateful he is taking some time today to introduce Ambassador-
nominee, Mr. Bush, who is also from East St. Louis and has 
acquitted himself wonderfully so far. But I look forward to 
your introduction and questions.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. It reminds me of when you are on an 
airplane and the flight attendant says as you are about to 
land: Let me be the first to welcome you. I thought you were on 
the plane with me. [Laughter.]
    To the entire panel: Thank you very much for being here.
    My apologies to the committee. Something is going on on the 
floor today and I just learned about it--no, it has been going 
in anticipation of some important business on the floor and I 
was tied up for a little while.
    But my special apologies to Mr. Bush and his family, but I 
do want to take a moment to acknowledge a little bit about your 
background that I think is an indication of why this was such a 
good selection by the President to have you represent us in 
Morocco.
    I do not know if you are from a suburb of St. Louis where I 
grew up or the actual city of St. Louis, but we are from the 
same region, and I thank you. I know that your wife, 
Antoinette, is here with you today. Are your children, 
Jacqueline and Dwight here as well? Glad that they have joined 
you. And your special guest, your mother, Jessie Bush, is here. 
Thank you so much for being with us today.
    Your son has brought experience as a CFO and CEO in a 
variety of different companies, which I will enter into the 
record here, but in the interest of time will not list 
specifically. A trustee of his alma mater, Cornell; and a 
special interest in Africa, including many visits to Morocco, 
South Africa, Tanzania, Rwanda in business and philanthropic 
endeavors.
    We have many important shared interests in Morocco. I know 
that you are going to--you have already answered some questions 
on the subject, and I know that you are going to represent the 
United States very well, and I am honored to be here and say a 
word on your behalf.
    Now, Mark Childress is another person I have known and 
worked with for many, many years with Senator Daschle's staff 
and beyond. Mark, I know of your passionate interest in Africa 
and I am sure that you are going to be an excellent choice in 
your representation; and to the others as well.
    I would like to ask one general question of all of you, and 
start with Mr. Bush. When I visit Africa, time and again the 
thing I hear is the increasing influence of China on the 
continent of Africa, the involvement of the Chinese in so many 
different economic activities, investments. They are in fact--I 
use this word advisedly--insinuating themselves in local 
economies in a major way.
    They believe, I think, that China is not only a growing 
economic possibility, but also a good resource of energy and 
raw materials, and they send many Chinese workers into 
countries in Africa and establish a long-term presence in that 
regard.
    I would like to ask each of you, if you could, to comment 
on this phenomenon as you have observed it, or maybe even 
disagree with my premise. But what do you think about China in 
Africa?
    Mr. Bush.
    Mr. Bush. Thank you, Senator, for that question. Also, may 
I thank you also for your kind words of support. May I also 
acknowledge that I am aware that now that you are here there 
are at least two St. Louis Cardinals baseball fans in the room.
    Senator Durbin. And we are in real trouble.
    Mr. Bush. And that brings me a great joy because I continue 
to be a Redbird fan.
    Mr. Senator, with respect to Morocco, it is my 
understanding that China has not been actively engaged in many 
economic activities in the country as of yet. However, I would 
say that I would share your concern about the growing influence 
that they are having on the continent, and I think that we 
should be cognizant of that and we should therefore be 
cognizant that we can have an impact on these countries as well 
by being perhaps a little more forthright and aggressive in 
helping these countries from an economic perspective as well.
    Senator Durbin. Mr. Childress.
    Mr. Childress. Tanzania is a little unusual in the sense 
that, as you know, China for many decades was in Tanzania, 
almost to the exclusion of the United States because of 
socialism and so forth. In some ways, one might argue that the 
dynamic is reversing significantly, because the Tanzanians are 
looking more and more to the United States. This is true, by 
the way, not only of business, but also with the military and 
police and training and so forth.
    President Kikwete spoke to this actually just a little 
while ago and made the point that, you know, look, China is 
going to be here. He, interestingly, adverted mainly to the 
sort of bilateral development programs, the stadiums and that 
sort of thing that China does, but made the point that United 
States companies bring technology and expertise that is unique 
to America as distinct from China.
    I think that is an important point. First of all, it is 
very important it is in their consciousness. But I also think, 
and I mentioned this earlier, it is vital that we have open and 
transparent bid processes because to the extent that processes 
are on the level our American companies are going to be more 
than able to compete. I think that from my perspective, if I 
were confirmed, that is something I would be very focused on as 
a practical response to your question.
    Senator Durbin. Mr. Daughton.
    Mr. Daughton. Thank you, Senator. Namibia and China have a 
longstanding relationship that dates from the age when the 
Namibian, the current Namibian leadership was a liberation 
movement in southern Angola. And Namibia has an important trade 
relationship with China that actually benefits Namibia. It is 
one of their largest export markets, which makes it a slightly 
different dynamic than I think you see in other parts of 
Africa.
    At the same time, the Namibians do not appear to be slavish 
to their relationship with the Chinese. President Pohamba 
recently publicly criticized Chinese employers in Namibia for 
their treatment of Namibian workers. So I think my impression 
is that the Namibians have a fairly wide-eyed or open-eyed view 
of what the Chinese are interested in and see their 
relationship with China as economically important to them.
    I do not think it is a threat to us, however, because the 
Chinese are interested as much in the extractive industries 
there as anything else.
    Senator Durbin. Mr. Harrington.
    Mr. Harrington. Senator, thank you for the question. China 
has one of five bilateral diplomatic missions in Lesotho. It is 
a very small diplomatic community. The bilateral relationship 
between China and Lesotho is an active and a positive one. 
China's interest in Lesotho seems primarily in the realm of 
diplomatic relationships and in funding the construction of 
large government buildings.
    I do not see them in Lesotho as really undermining our 
ability to advance our national interests. We continue to be 
the major bilateral donor in Lesotho and our focus in working 
with the Government of Lesotho is on the building of a 
democratic, accountable government, which has certainly not 
been China's focus in Lesotho.
    Senator Durbin. Thank you.
    After I had met with the late President of Ethiopia, who 
raised this issue with me, I came back and called together all 
of the agencies I could think of in Washington that deal with 
Africa--they are pretty obvious--brought them all into one 
room. I think it is unfair to say it is the first time they 
have met, but they clearly had not spent much time together 
thinking about a coordinated strategy of the United States on a 
continent that is growing in importance by the day.
    We have passed out of this committee a recommendation to 
move toward a new export goal for Africa and it has been 
bottled up on the floor by some who think we should have no 
government involvement in this. China does not think that, and 
I hope that we will be more forward-leaning, not just in 
promoting values but also in promoting economic relations with 
many countries in Africa that you represent.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to our panel. You are all eminently qualified, 
about to embark on a wonderful journey for you and your 
families, and I look forward to your swift and timely 
confirmation.
    I really have only one comment that maybe will prompt a 
response from you, Mr. Bush. I have spent some time in Morocco. 
I hope to be back there later this year and look forward to 
seeing you there. Of course, we are all struck by the relative 
stability that Morocco has enjoyed in a region and latitude 
that has seen a lot of strife over the past several years.
    I guess I just ask you to pay attention to one phenomenon. 
You may have already talked about this and I apologize. But the 
JCO, which is the Islamic Justice and Charity Organization, in 
Morocco is in a lot of ways very unlike the Muslim Brotherhood, 
but it does represent sort of the largest grassroots opposition 
to the King. Again, though the parallels certainly are not 
complete, I just hope that while you are there that you will 
watch very carefully both the development of that organization 
as it rebounds from the death of its founder--they do seem to 
have stabilized somewhat and ushered in some new leadership 
rather quickly--but also watch the King and the regime's 
treatment of that group. They do not participate in politics 
openly, but as we have seen other places the quiet but fierce 
repression of these groups in other parts of the region has 
obviously led in Egypt and other places to some very, very 
difficult transitions once that transition to democracy 
happens.
    So I look forward to seeing you there. It is a country that 
I have taken great interest in over the years, a great U.S. 
partner, but an underlying issue there, one that simmers under 
the surface of a lot of our more worrisome conversations about 
the more violent smaller cell Islamic groups that exist in 
Morocco, but one that I hope that you will take an interest in 
as well.
    Mr. Bush. Senator, thank you so much for your comment. As I 
mentioned a little bit earlier, I think we would be naive to 
think that the issues there to our east are not issues that we 
should have a focus on in Morocco as well.
    The good news is that we have a very strong working 
relationship with the Government of Morocco. We work with them 
on issues ranging from counterterrorism to empowerment through 
some of our USAID programs engaged in the type of activities 
that we hope will keep those type of influences at bay.
    I would look forward to your coming to Morocco. If I am 
confirmed, I will keep this issue as an issue on the top of my 
head, and I will be back in touch with you to make sure that we 
are on point.
    Senator Murphy. Thank you very much, Mr. Bush. Good luck to 
all of you.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Murphy.
    We are going to start a second round with this panel if we 
might. I wanted to thank Senator Durbin for his leadership on a 
bill that he referenced there that aims to double our exports.
    My previous round of questioning was really all about the 
economic relationship. Now I want to talk, if I might, about 
our significant investment in health. In Lesotho and in Namibia 
in particular, we are significant contributors both through 
PEPFAR and through many other programs, the MCC compact in 
Lesotho really focusing on the health sector.
    What do we need to do to achieve better results? Lesotho 
remains strikingly burdened by significant public health 
challenges, despite significant investment by the United States 
over a number of years. And what can we learn from Namibia, a 
country that, as you mentioned in your opening statement, has 
made the transition to significant country ownership, like 
South Africa is now increasingly invested in being a real 
partner with the United States.
    So if I might, across Mr. Harrington and Mr. Daughton, what 
are the lessons we need to learn about how to strengthen and 
focus PEPFAR and our health interventions, and how do we get 
better results in partnership with Lesotho and Namibia?
    Mr. Harrington. Thank you for the question, Mr. Chairman. I 
would say there have been successes on the health front. Let me 
mention those first. In Lesotho 60 percent of those who qualify 
for ART treatment are receiving it. That needs to be higher. A 
little more than half of pregnant women are receiving ART. That 
needs to be higher.
    The government has shown a real commitment, not only in 
terms of political will, but in terms of real resources that 
they bring to the table. They are paying about half the total 
cost of the HIV-AIDS response and about 70 percent of the cost 
of ARV's. So that is the positive side.
    I think the negative side is that, as I mentioned in my 
opening statement, the adult prevalence rate is pretty 
stubborn. It has been at about 23 percent for the last 10, 12 
years. So the folks on the ground, PEPFAR, some of the 
government partners and multilateral partners, have recognized 
that really more needs to happen in the area of prevention. The 
numbers in that--the three major interventions I mentioned, 
more focus on ART's, more women getting medication which 
prevents mother-to-child transmission, and a medical 
circumcision program, which is in the beginning stages in 
Lesotho, all of those need to be expanded as we move forward.
    I would also mention in Lesotho the partnership framework 
implementation plan is beginning to wrap up. So I think we are 
talking with the Government of Lesotho and our multilateral 
donors about what the new kind of partnership looks like in 
terms of transitioning to host country leadership more than we 
have in the past.
    So those are a few ideas.
    Senator Coons. Thank you, Mr. Harrington.
    Mr. Daughton.
    Mr. Daughton. Namibia as a role model. I think perhaps the 
thing that has come out most clearly from the success of the 
PEPFAR effort in Namibia is the need to develop sustainable--a 
human resource base, people locally who can take over the 
problem. The Namibians simply did not have that 10 years ago. 
They are now beginning to have it.
    They are in the fortunate position in that they have the 
money to be able to pay for it. They are now paying for all of 
their ARVs. They have taken over supervision and funding of all 
of their health care professionals as well.
    Going forward, as we look to fine-tune the PEPFAR Program 
in Namibia to address the remaining issues and to--in essence, 
to make sure that we are contributing where we have the 
greatest chance to add value, I think that there is going to be 
an increasing focus on at-risk groups, who continue to be kind 
of the kernel of the problem. The demography of Namibia is such 
that, particularly because of the movement of people back and 
forth across the Angolan border, it makes it challenging to 
develop a stable treatment and public outreach campaign.
    In the end, the Namibians recognize that this is a program 
they will have to maintain forever, in essence, and we are now 
past, I think, the peak of the epidemic phase and are into a 
kind of long-term management phase. The lessons that we draw 
from that will be ones that I think can probably be applied in 
other countries in the region.
    Senator Coons. Thank you.
    If I might, Mr. Daughton, just a followup. You mentioned, 
in response to another Senator's question, a significant trade 
between China and Namibia in uranium. Has there been effort by 
Iran to secure access to uranium reserves from Namibia? Have 
they been receptive? Is that an area of concern for you as you 
take over the security role as well as the development and 
trade role?
    Mr. Daughton. Thank you, Mr. Chairman. It is an interesting 
question and one I have looked at quite a bit, because the 
largest mine in Namibia is--15 percent of it is owned by an 
Iranian state investment corporation that has owned it since 
the era of the Shah actually. The mine is controlled by Rio 
Tinto, an Australian company. The U.S. Government as I 
understand it has worked very closely with both Rio Tinto and 
the Namibia Government to ensure both that no product from the 
mine reaches Iran and that no profits from the mine reach Iran. 
The profits in fact, their 15 percent is held by the Namibians 
in an escrow account, so they have no access to the money. And 
Rio Tinto has been punctilious, I think, in ensuring that there 
is no way that any product from the mine can get to the 
Iranians.
    It is an odd situation in that they cannot get rid of them, 
but at the same time they do seem to have effectively walled 
off any Iranian access to the product of the mine.
    Senator Coons. Perhaps some creative corporate lawyers from 
Delaware could help with the restructuring. We will see. 
[Laughter.]
    If I could, Mr. Childress, Tanzania seems to be blessed 
with an abundance of U.S. Government programs. There is almost 
literally not an initiative that is not represented. Every 
initiative is represented in Tanzania in some way, at some 
level.
    Something that really struck me in my visit to Tanzania, to 
Zanzibar in particular, you referenced it in your opening 
statement. Very proudly, one of the folks with the President's 
malaria initiative was announcing that we are on the verge of 
completely eradicating malaria from the island of Zanzibar, an 
island with more than a million residents about 26 miles off 
the coast. And I was very pleased, and we visited a number of 
sites and this was very encouraging. Someone sitting next to me 
leaned over and said, ``Yes, just like we did in 1964.''
    I said, ``Excuse me?'' They said, ``Yes, you know, with the 
help from the Americans we had eradicated malaria in 1964. It 
might have been 1965. All I remember is it was right around 
when I was born.''
    How do we sustain investment and development? This follows 
on the questions about transition to country ownership. 
Apparently that success wasn't sustained over time. There were 
other distractions.
    And how, as the Ambassador, will you be able to reduce some 
of the siloed nature of our investments there? My trip to the 
PEPFAR facility there was heralded as the first time that the 
logos of all three of the main cooperating entities had 
appeared on the same sign. But if we are going to have six, 
seven, eight different entities from MCC to PEPFAR to PMI to 
Power Africa all operating under the American umbrella, how do 
you coordinate them, focus them, and make them more effective?
    Mr. Childress. By the way, I was told by the experts 
apparently there has been not just the one occasion when you 
talked about where we apparently got into preelimination phase; 
there has been another one between the one in the early 1960s 
and this. So this is a real and ongoing problem. But I do think 
our folks with respect to that specific issue are trying to be 
aware of the fact of what went wrong before and how to follow 
through.
    I think you are absolutely right. One thing I know you know 
is that the current Ambassador, it is something of an idee fixe 
for him, this idea of having these different logos and 
different ideas of who is acting where within the country, and 
that it is all from the American people. I think he has done a 
lot in terms of trying to make sure at a branding level that 
message is delivered.
    Now, in terms of programs, it is interesting. I actually 
think you are absolutely right, people have begun to understand 
that the sheer weight of the number of programs--there is a 
requirement that we have some synergies develop. Some of that 
is happening. For example, as you know, one of the key elements 
of the MCC Program was to build roads, also to do electricity. 
They took a look at some of the activities that the Feed the 
Future folks were doing in the southern agricultural corridor 
and realized if we put certain electrical distribution points 
in these particular places we can give cold storage facilities, 
we can give irrigation facilities to the Feed the Future 
Program. It seems simple, but it is a huge deal.
    A corollary to that, the Feed the Future Program, although 
obviously agriculture-focused, is building and maintaining 
thousands of kilometers of roads in its next go-around, which 
is, in fact, one of the MCC's objectives. So I think that is 
happening.
    I think as Ambassador, if I were confirmed, I think it 
would be really important that we do a lot more of that very 
rigorously.
    The other thing--and this references what we were talking 
about before and you and I have talked about this--it really is 
critical, with respect to these programs, that we make the 
point to our friends in Tanzania that we are here today, and we 
are going to be here tomorrow, but that we do want to be 
looking for opportunities for country ownership.
    As you and I also talked about, I think the Tanzanians have 
begun to really understand this. With respect to the MCC 
challenge compact, it was about a $700 million compact.
    The Tanzanians are putting in about $130 million of their 
money to make sure that all the activities are completed as 
agreed to.
    So I think there is a willingness there. They do not, 
obviously, have the resources of South Africa, for example, to 
take over the PEPFAR Program. But we have got to be looking for 
ways and being creative. For example, since PEPFAR has been 
successful in Tanzania, there are some moneys that have been 
released from the health care system. Can we look at maybe 
reinvesting those in certain programs in Tanzania?
    So I really think this is an exciting opportunity for us to 
work with the Tanzanians and something I really look forward 
to.
    Senator Coons. Thank you, Mr. Childress. I believe Zanzibar 
was the second after Morocco to begin diplomatic relations with 
the United States.
    If I might, my last question for this panel. Mr. Bush, you 
bring to the table significant experience with the GAVI 
Alliance. Talk more broadly, if you would, about your 
experience in terms of their effort to vaccinate millions 
around the world and the benefits of public-private 
partnerships in the provision of relief, as well as in economic 
development?
    Mr. Bush. Senator, thank you for that question. I am 
pleased that you have this on record because my involvement in 
GAVI has been one of the most significant experiences of my 
life. The GAVI Alliance was formed specifically as a public-
private partnership to try to prove the theory that the public 
sector and private sector working together could be more 
effective than either working apart.
    It has been in existence for about almost 11 years now. The 
initial seed money came from the Bill and Melinda Gates 
Foundation. They provided $750 million, which was subsequently 
matched by another $750 million. We have subsequently raised 
billions of dollars from countries across the world, 
principally in Europe, the United States. We have also raised 
additional moneys from the private sector.
    We are active in the 72 poorest countries in the world at 
all times, and the population shifts as some countries graduate 
out or they exceed the income guidelines.
    GAVI has helped to basically eliminate some childhood 
diseases in countries across the world. We have been 
extraordinarily successful. If you were to go to South Africa 
you could see the rates of measles going down almost to zero 
percent now because of what GAVI has been able to do.
    I think it is a structure that should be replicated for 
other types of initiatives. As you know, the Gates Foundation 
has some similar initiatives that they have put in place, and I 
would encourage in a lot of the countries that are represented 
at this table that they think about how they can have this type 
of engagement to address the issues in their countries.
    Senator Coons. Tremendous.
    I would like to thank all four of the members of our first 
panel--Mr. Bush, Mr. Childress, Mr. Daughton, and Mr. 
Harrington--thank you, your spouses, your parents, all who have 
supported you in your service. I am grateful for your 
willingness to move forward, and I will simply echo what was 
said by a record number of colleagues on this committee, that 
we will work diligently for your swift confirmation and look 
forward to hearing from you in your service and to hopefully 
visiting you in the time that you are serving us overseas.
    Thank you very much.
    We will now move to the second panel, and I will mention 
while we are in transition Senator Flake is currently on the 
floor and will be returning. But we have a vote scheduled at 
11:45, so we will begin the second panel if we might and we may 
end up suspending for a few minutes so that I might go cast a 
vote and return.

    [Recess from 11:27 a.m. to 11:31 a.m.]

    Senator Coons. We will now resume the hearing and go to our 
second panel, whom we are equally excited to hear from and who 
are going to be representing us, should they be confirmed--I 
know I am supposed to put it in the conditional tense--to 
countries that also present a wide range of development and 
strategic and democracy challenges.
    If we could encourage folks to allow us to focus on the 
second panel, that would be great.
    First, Ambassador Eunice Reddick, who is seeking 
confirmation to a post in Niger; second, Mr. John Hoover, 
seeking a post in Sierra Leone; and Mr. Michael Hoza, who has 
been nominated for a post in Cameroon. As I stated at the 
outset, all three of you bring a wide range of previous 
service, both in Africa and in the Foreign Service, and I am 
very eager to hear from you.
    Again, I will invite you to recognize any members of your 
extended family or your colleagues who you would like to or who 
might be with you today or who you would like to recognize.
    Ambassador Reddick, please.

    STATEMENT OF HON. EUNICE S. REDDICK, OF THE DISTRICT OF 
         COLUMBIA, NOMINATED TO BE AMBASSADOR TO NIGER

    Ambassador Reddick. Thank you, Mr. Chairman. I am honored 
to appear before you as President Obama's nominee for United 
States Ambassador to Niger. I deeply appreciate the confidence 
and trust the President and Secretary of State have shown in 
nominating me for this position. Thank you as well to the 
committee for your consideration, and I look forward to working 
with the Congress to advance our relationship with Niger.
    My adult children are unable to be here today, but I would 
like to introduce Melissa Cline, who is the head of the Sahel 
Unit in the Office of West African Affairs, the office I just 
left. And I have other colleagues here from the Africa Bureau 
who have given me great support through the years and who I 
consider part of my Foreign Service family.
    During my more than 30 years in the Foreign Service, I have 
had the great fortune to serve and travel throughout Africa, 
including as Ambassador to Gabon and Sao Tome and Principe. If 
confirmed, I will draw upon my experience to expand the close 
relationship between Niger and the United States as we continue 
to work toward our mutual goals of combatting extremism 
throughout the region, strengthening democratic governance, and 
fostering inclusive economic growth.
    Despite being one of the poorest countries in the world, 
Niger has made such significant progress in developing 
democratic institutions, combating corruption, and promoting 
human rights that the Millennium Challenge Corporation selected 
Niger in December 2012 as eligible to develop a proposal for a 
compact. If confirmed, I will work closely with the Nigerien 
Government and civil society to continue this momentum for 
reform.
    Despite some encouraging progress, Niger faces great 
challenges. The collapse of security in southern Libya and 
conflict in Mali and northern Niger have placed Nigeria at a 
dangerous crossroads. Extremist groups and international 
criminal networks exploit Niger's porous borders and long-used 
smuggling routes to move people and weapons between the Sahel 
and North Africa.
    Niger has also been a victim of terrorism. In May, 
coordinated al-Qaeda-associated terrorist attacks against a 
military barracks in Agadez and a uranium mining company in 
Arlit took the lives of over 20 Nigerien soldiers and 
civilians. The United States and Niger share a common goal of 
combating terrorist groups and denying extremist ideology an 
environment to thrive. We are committed to supporting Niger's 
efforts to protect its borders and build capacity to interdict 
illicit material and people.
    Niger also has been a leader in the international response 
to the Mali crisis, both by providing critical support for 
Mali's political process and committing ground troops to the 
African force deployed in Mali and the follow-on U.N. 
stabilization mission. The United States provided Nigerien 
troops logistical support, training, and equipment through the 
Africa Contingency Operations Training and Assistance Program. 
Niger is also a strong partner in our Trans-Sahara 
Counterterrorism Partnership.
    On top of great security threats, Niger also continues to 
face serious humanitarian challenges and persistent food 
insecurity. Despite its own serious humanitarian situation 
following a severe drought in 2011, Niger generously opened its 
borders to over 50,000 Malian refugees. Since fiscal year 2012 
the United States has provided over $172 million in 
humanitarian assistance in Niger to address food insecurity and 
the needs of Malian refugees.
    The United States and Niger partner across a variety of 
programs to address the needs of Niger's most vulnerable people 
and build resilience to the Sahel's constant cycle of droughts.
    In addition to addressing food insecurity, Niger must 
generate sustainable economic growth. Economic diversification, 
investments in infrastructure, and improvements to education 
are all needed to create real economic opportunities. If 
confirmed, I will continue to encourage the Nigerien Government 
to implement the economic reforms needed to attract investment 
and promote trade.
    I will also seek to build new relationships between 
Nigerien and American companies, to create opportunities for 
trade that benefit both our countries. If confirmed, I will 
work to ensure that our bilateral relationship remains firmly 
rooted in our shared vision for a democratic and prosperous 
Niger. Through this partnership, I look forward to fulfilling 
my priorities of protecting American citizens and interests, 
advancing U.S. national security interests in the Sahel, and 
expanding mutual understanding between our citizens.
    Mr. Chairman, thank you for inviting me to appear before 
you today. I would be pleased to answer any questions you may 
have.
    [The prepared statement of Ambassador Reddick follows:]

           Prepared Statement of Ambassador Eunice S. Reddick

    Mr. Chairman, Ranking Member Flake, and distinguished members of 
the committee, I am honored to appear before you as President Obama's 
nominee for United States Ambassador to Niger. I deeply appreciate the 
confidence and trust the President and Secretary of State have shown in 
nominating me for this position. Thank you as well to the committee for 
your consideration, and I look forward to working with the Congress to 
advance our relationship with Niger.
    I began my Foreign Service career in Zimbabwe over 30 years ago, 
and have since had the great fortune to serve and travel throughout 
Africa, including as Ambassador to Gabon and Sao Tome and Principe, and 
most recently, as the Director of West African Affairs in the 
Department of State's Africa Bureau. During my career, I have witnessed 
firsthand Africa's great challenges, including the effect on 
populations of conflict, drought, floods, and famine. More importantly, 
I have also witnessed an incredible growth in vibrant democracies and 
economies driven by phenomenal human capital. If confirmed, I will draw 
upon my experience to expand the strong friendship between Niger and 
the United States, as we continue to work toward our mutual goals of 
combating extremism throughout the region, strengthening democratic 
governance and fostering inclusive economic growth.
    Niger is a committed partner of ours, who has invested its own 
limited resources to combat the scourge of extremism, both within its 
own borders and across the Sahel region. Despite being one of the 
poorest countries in the world, President Issoufou has--in 2\1/2\ years 
since Niger's return to democracy--invested in concrete steps to break 
Niger's destructive cycle of conflict and coups. Niger has made such 
significant progress in developing democratic institutions, combating 
corruption, and promoting human rights that the Millennium Challenge 
Corporation selected Niger in December 2012 as eligible to develop a 
proposal for a Compact. If confirmed, I will work closely with the 
Nigerien Government and civil society to continue this momentum for 
reform by creating strong and responsive democratic institutions, 
improving the delivery of government services and promoting food 
security.
    Despite some encouraging progress, Niger faces great challenges. 
The country's expansive and harsh terrain would be difficult to protect 
under the best of circumstances. The collapse of security in southern 
Libya and conflict in Mali and northern Nigeria have placed Niger at a 
dangerous crossroads, as extremist groups and international criminal 
networks exploit porous borders and long-used smuggling routes to move 
people and weapons between the Sahel and North Africa. Niger has also 
been a victim of terrorism. In May, coordinated al-Qaeda-associated 
terrorist attacks against a military barracks in Agadez and a uranium 
mining company in Arlit took the lives of over 20 Nigerien soldiers and 
civilians. The United States and Niger share a common goal of combating 
terrorist groups and denying extremist ideology an environment to 
thrive. We are committed to supporting Niger's efforts to protect its 
borders, build capacity to interdict illicit material and people, and 
help return security and stability to northern Mali.
    Niger has been a leader in the international response to the Mali 
crisis, both by providing critical support for the political process 
and committing a battalion of ground troops to the African-led 
International Support Mission to Mali (AFISMA) and an even larger 850-
ground-troop contingent to the follow-on U.N. Multidimensional 
Stabilization Mission in Mali (MINUSMA). The United States provided 
those troops logistical support, training, and equipment through the 
African Contingency Operations Training and Assistance (ACOTA) Program.
    Niger is also a strong partner in our Trans-Sahara Counterterrorism 
Partnership (TSCTP), through which we are working together to increase 
security sector capacity, address underlying causes of radicalization, 
and increase the voices of moderate leaders to positively influence 
populations potentially vulnerable to radicalization. If confirmed, I 
will seek to advance our already strong security cooperation to further 
our shared goal of denying extremist groups space to operate.
    On top of great security threats, Niger also continues to face 
serious humanitarian challenges and persistent food insecurity. A 
severe drought in 2011 resulted in a humanitarian crisis in 2012 as 6.4 
million of Nigeriens were at risk for food insecurity, including more 
than 330,000 children at risk for severe acute malnutrition. Despite 
its own serious humanitarian situation, Niger generously opened its 
doors to over 50,000 Malian refugees, who they continue to host. Since 
fiscal year 2012, the United States has provided over $172 million in 
humanitarian assistance in Niger to address food insecurity and the 
needs of Malian refugees.
    The United States and Niger partner across a variety of programs to 
address the needs of Niger's most vulnerable people and build 
resiliency to the Sahel's constant cycle of droughts. The Nigerien 
Government has created innovative programs to address food security, 
including the ``3N Initiative'' (Nigeriens Nourishing Nigeriens) that 
empowers local communities to work together to improve agricultural 
productivity. USAID selected Niger as one of its priority countries for 
the new Sahel Joint Planning Cell effort, which focuses on combating 
food insecurity and building resiliency among vulnerable populations 
through layering, integrating and sequencing humanitarian relief and 
development programs. In fiscal year 2012 and fiscal year 2013, the 
United States provided $66.4 million in bilateral development-focused 
assistance to Niger for programs supporting democracy, governance, 
health and nutrition, and agriculture. If confirmed, I look forward to 
supporting these efforts and exploring new areas of cooperation.
    In addition to addressing food insecurity, Niger must generate 
sustainable economic growth to tackle high poverty rates and improve 
health indicators that place Niger at the bottom of most measures of 
well-being. Rapid demographic growth driven by the highest fertility 
rate in the world threatens to overwhelm the government's ambitious 
plans for development. Economic diversification, investments in 
infrastructure, and improvements to education will all be needed to 
create real economic opportunities. If confirmed, I will continue to 
encourage the Nigerien Government to implement the economic reforms 
needed to attract investment and promote trade. I will also seek to 
build new relationships between Nigerien and American companies to 
create opportunities for trade that benefit both our countries.
    If confirmed, I will work to ensure that our bilateral relationship 
remains firmly rooted in our shared vision for a democratic and 
prosperous Niger that respects human rights and provides economic 
opportunities for all. Through this partnership, I look forward to 
fulfilling my priorities of protecting American citizens and interests, 
advancing U.S. national security interests in the Sahel, and expanding 
mutual understanding between our citizens.
    Thank you for inviting me to appear before you today. I would be 
pleased to answer any questions you may have.

    Senator Coons. Thank you, Ambassador Reddick, and thank you 
for your long service across a number of countries and across a 
number of functions within the State Department. I look forward 
to our exchange.
    Ambassador Reddick. Thank you.
    Senator Coons. Mr. Hoover.

  STATEMENT OF JOHN HOOVER, OF MASSACHUSETTS, NOMINATED TO BE 
                   AMBASSADOR TO SIERRA LEONE

    Mr. Hoover. Mr. Chairman, thank you for this opportunity to 
appear before you and for your consideration of my nomination 
by President Obama to be the next U.S. Ambassador to the 
Republic of Sierra Leone. I want to thank President Obama and 
Secretary Kerry for their trust in me to lead the U.S. Embassy 
and to manage our relationship with Sierra Leone. If confirmed 
by the U.S. Senate, I shall uphold that trust.
    Thank you, Mr. Chairman, for your comments about family 
members. I would like to acknowledge several colleagues from 
the State Department who are here from the African Bureau. We 
consider them to be family members also. I have an aunt and 
uncle here who are also observing the proceedings. And most of 
all, I am honored and pleased to be joined by my wife, Kathy, 
who is sitting behind me. She and I were married 1 day after I 
was sworn in to the Foreign Service 25 years ago and she has 
had my back and been at my side ever since then.
    In the aftermath of its devastating civil war, which ended 
only a little more than a decade ago, much progress has been 
made in Sierra Leone toward consolidating peace and stability, 
establishing and strengthening democracy, and generating 
sustainable economic development. Indeed, in some respects, 
despite meager resources, Sierra Leone is emerging as a model 
for post-conflict recovery and development.
    The country has held three rounds of successful 
parliamentary and Presidential elections since 2002, including 
most recently in November 2012 when the country held elections 
widely judged to be free, fair, and transparent.
    Sierra Leone is also implementing economic reforms and 
opening itself up to investment. The results are encouraging, 
as the economy grew by around 15 percent last year. The IMF 
predicts the economy will continue to grow at similarly high 
rates for the remainder of this decade and that Sierra Leone 
stands poised for an economic takeoff that could propel the 
country to middle income status after 2020.
    On the security front, whereas Sierra Leone had the dubious 
distinction of hosting the then-largest U.N. peacekeeping 
mission during its civil war, the country is now a contributor 
of peacekeepers to regional stability. Earlier this year a 
battalion of Sierra Leoneon soldiers, trained and equipped by 
the United States, deployed to the African Union mission in 
Somalia.
    Yet, even as Sierra Leone rises and rebuilds, the country 
still faces daunting challenges. Despite rapid recent economic 
growth, Sierra Leone is still one of the poorest countries in 
the world, ranking only 10 from the bottom of the U.N.'s Human 
Development Index. The country also faces many tests in terms 
of strengthening governance and rule of law. Despite recent 
encouraging progress in pursuing corrupt officials, corruption 
remains entrenched and poses a major threat to Sierra Leone's 
nascent democracy and still-fragile social stability.
    If confirmed, I will continue our focus on strengthening 
democratic institutions and norms in Sierra Leone, including 
continued support for anticorruption efforts. I will also work 
to continue U.S. support for market-oriented small farmer 
agricultural activity to increase employment and food security, 
and I will also continue our support to strengthen Sierra 
Leone's capacity to deliver basic health care services.
    I will also promote greater transparency, accountability, 
and economic sustainability as Sierra Leone begins to earn 
significant new revenues from its abundant stock of natural 
resources. I will work closely with the U.S. business community 
to encourage greater trade and investment between our two 
countries as a way to spur prosperity for Americans and Sierra 
Leoneons alike.
    In December 2012, Sierra Leone became eligible to develop a 
compact program with the Millennium Challenge Corporation, 
opening an opportunity for significant new U.S. Government 
investment in Sierra Leone's future. If confirmed, I will work 
to support successful compact development.
    In addition to these policy priorities, I take as my most 
important responsibility the safety and security of the 
hundreds of U.S. citizens in Sierra Leone and the entire U.S. 
Embassy team, including our officers, their families, and our 
invaluable Sierra Leoneon colleagues.
    In the interest of time, I will stop there and refer you to 
my written statement for details of my background and 
experience working in Africa. Thank you, Mr. Chairman. I look 
forward to your questions.
    [The prepared statement of Mr. Hoover follows:]

                   Prepared Statement of John Hoover

    Mr. Chairman, Ranking Member Flake, and members of the committee, 
thank you for this opportunity to appear before you and for your 
consideration of my nomination by President Obama to be the next United 
States Ambassador to the Republic of Sierra Leone. I would like to 
thank President Obama and Secretary Kerry for their trust in me to lead 
the U.S. Embassy and manage our relationship with Sierra Leone. If 
confirmed by the U.S. Senate, I shall uphold that trust. I am also 
honored to be joined here today by my wife, Kathy.
    In the aftermath of its devastating civil war, which ended a little 
more than a decade ago, much progress has been made in Sierra Leone 
toward consolidating peace, establishing and strengthening democracy, 
and generating sustainable economic development. Indeed, in some 
respects, despite meager resources, Sierra Leone is emerging as a model 
for post-conflict recovery and development. The country has held three 
rounds of successful Presidential and parliamentary elections since 
2002, including most recently in November 2012, when the country held 
elections widely judged to be free, fair, and transparent. Sierra Leone 
is implementing economic reforms and opening itself up to investment. 
The results are encouraging as the economy grew by around 15 percent 
last year. The IMF predicts the economy will continue to grow at 
similarly high rates for the remainder of this decade, and that Sierra 
Leone stands poised for an economic takeoff which could propel the 
country to middle income status after 2020. On the security front, 
whereas Sierra Leone had the dubious distinction of hosting then-
largest U.N. peacekeeping mission during its civil war, the country is 
now a contributor of peacekeepers to regional stability. Earlier this 
year, a battalion of Sierra Leonean soldiers, trained and equipped by 
the United States, deployed to the African Union Mission in Somalia.
    Yet, even as Sierra Leone rises and rebuilds, the country still 
faces daunting challenges. Despite rapid recent economic growth, Sierra 
Leone is still one of the poorest countries in the world, ranking only 
10 countries from the bottom of the U.N.'s Human Development Index. 
Sierra Leone also still faces many tests in terms of strengthening 
governance and rule of law. Despite recent encouraging progress in 
pursuing corrupt officials, corruption remains entrenched and poses a 
major threat to Sierra Leone's nascent democracy and still fragile 
social stability.
    If confirmed, I will continue our focus on strengthening democratic 
institutions and norms in Sierra Leone, including continued support for 
anticorruption efforts. I will also work to continue U.S. support for 
market-oriented small-farmer agricultural activity and education to 
increase employment and food security, and basic health care. I will 
continue also to promote greater transparency, accountability, and 
economic sustainability as Sierra Leone begins to earn significant new 
revenues from its abundant stock of natural resources. I will work 
closely with the U.S. business community to encourage greater trade and 
investment between our two countries as a way to spur prosperity for 
Americans and Sierra Leoneans alike. In December 2012, Sierra Leone 
became eligible to develop a compact program with the Millennium 
Challenge Corporation, opening an opportunity for significant new U.S. 
Government investment in Sierra Leone's future. If confirmed, I will 
work to support successful compact development.
    In addition to these policy priorities, I take as my most important 
responsibility, the safety and security of hundreds of U.S. citizens 
resident in Sierra Leone, and the entire U.S. Embassy team, including 
U.S. citizen employees, their dependents, and our invaluable Sierra 
Leonean colleagues.
    I first served in Africa as a junior officer at the U.S. Embassy in 
Mbabane, Swaziland. I returned to Africa later in my career to Nairobi, 
Kenya, as the Counselor for Economic Affairs, and then as Deputy Chief 
of Mission at the U.S. Embassy in Kampala, Uganda. Most recently, I was 
the Director of the Africa Bureau's Office of Regional and Security 
Affairs. If confirmed, I would bring a strong understanding of the 
African Continent and the needs of its people, as well as the knowledge 
and experience to successfully advance our national interests in 
Freetown.
    Thank you, Mr. Chairman for the opportunity to appear today. I 
would be pleased to respond to your questions.

    Senator Coons. Thank you, Mr. Hoover. Your background does 
include a number of impressive and relevant areas of service in 
East Africa as well as throughout the continent.
    Mr. Hoza, if I might, to your opening statement.

 STATEMENT OF MICHAEL S. HOZA, OF WASHINGTON, NOMINATED TO BE 
                     AMBASSADOR TO CAMEROON

    Mr. Hoza. Mr. Chairman, Ranking Member Flake, members of 
the committe, I am deeply honored to appear before you today as 
the President's nominee to be the next Ambassador of the United 
States to the Republic of Cameroon. I thank President Obama and 
Secretary Kerry for the trust they have shown by nominating me 
for this position.
    I would like to acknowledge the service and support of my 
wife, Suzanne, currently overseas advancing U.S. Government 
health programs in Ethiopia, and our two sons, Paul and 
Christopher. They have supported me through challenging 
overseas assignments, endured hardship, shared risks, and ably 
represented our country with pride and unflagging enthusiasm. I 
am truly grateful for their support, without which I would not 
be before you today.
    I have had the privilege of serving in Africa for 14 of my 
28 years of service with the Department. I have seen our 
diplomatic efforts yield tremendous gains in difficult places. 
If confirmed, I look forward to using my experience in the 
region to help further U.S. interests in Cameroon as well.
    With one of the largest economies in sub-Saharan Africa and 
a landscape rich in natural resources and biodiversity, 
Cameroon has the potential to become an economic stalwart and 
serious regional player. Despite this rich endowment and 
notwithstanding 53 years of relative political and economic 
stability, the country struggles to attain food security and to 
combat disease. Moreover, concerns related to human rights, 
weak governance, and pervasive corruption continue to serve as 
impediments to meaningful economic growth and development.
    Cameroon is a relatively stable country in a region that is 
decidedly less so. Recent events in both Nigeria and the 
Central African Republic continue to spill over into Cameroon, 
where an influx of new refugees is taxing local resources. The 
insecurity in neighboring countries, compounded with the 
growing threat of extremism by Boko Haram in Cameroon's Far 
North Region, has the potential to threaten Cameroon's security 
and stability.
    Cameroon has taken a leading role in combating piracy in 
the Gulf of Guinea and is active in regional and domestic 
efforts against wildlife trafficking. If confirmed, I will 
continue to support U.S. efforts to strengthen Cameroon's 
military capacity to confront terrorism, piracy, and wildlife 
trafficking, and to encourage greater Cameroonian engagement in 
regional security matters.
    On April 14 Cameroon took an important step toward 
maintaining its long-term political stability by holding the 
first Senate elections in its history. Cameroon is also 
expected to hold municipal and legislative elections on 
September 30. I look forward to the opportunity to build on 
this momentum and work in partnership with civil society and 
the government to support efforts to strengthen democratic 
institutions, enhance transparency, and promote democracy, 
human rights for all persons, and the rule of law.
    Bilateral trade between our countries exceeded $557 million 
in 2012 and U.S. exports to Cameroon have more than doubled 
since 2010. Should I be confirmed, I hope to build on these 
gains and further strengthen our economic relationship.
    The kidnapping of French expatriates in Cameroon's Far 
North Region earlier this year demonstrated that, even in a 
seemingly stable and safe country as Cameroon, the threat of 
violence and extremism can be a reality. It has also reaffirmed 
that now more than ever the safety and security of our American 
staff and citizens overseas needs to be at the forefront of our 
mission. If confirmed, I will ensure that this remains a top 
priority for the Embassy.
    Mr. Chairman, members of the committee, I thank you for 
this opportunity to appear before you. If confirmed, I look 
forward to working with the committee and others in Congress to 
advance U.S. interests in Cameroon. I would be pleased to 
answer any questions you may have.
    [The prepared statement of Mr. Hoza follows:]

                 Prepared Statement by Michael S. Hoza

    Mr. Chairman, Ranking Member Flake, and members of the committee, I 
am honored to appear before you today as the President's nominee to be 
the next Ambassador of the United States to the Republic of Cameroon. I 
thank President Obama and Secretary Kerry for the trust they have shown 
by nominating me for this position.
    I would like to acknowledge the service and support of my wife, 
Suzanne, currently overseas advancing U.S. Government health programs 
in Ethiopia, and our two sons, Paul and Christopher. They have 
supported me through challenging overseas assignments, endured 
hardship, shared risks, and ably represented our country with pride and 
unflagging enthusiasm. I am truly grateful for their support, without 
which I would not be before you today.
    I have had the privilege of serving in Africa for 14 of my 28 years 
of service with the State Department. I have seen our diplomatic 
efforts yield tremendous gains in difficult places and, if confirmed, I 
look forward to using my experience in the region to help further U.S. 
interests in Cameroon as well.
    With one of the largest economies in sub-Saharan Africa and a 
landscape rich in natural resources and biodiversity, Cameroon has the 
potential to become an economic stalwart and serious regional player. 
Despite this rich endowment, and notwithstanding 53 years of relative 
political and economic stability, the country struggles to attain food 
security and to combat disease. Moreover, concerns related to human 
rights, weak governance, and pervasive corruption continue to serve as 
impediments to meaningful economic growth and development.
    Cameroon is a relatively stable country in a region that is less 
so. Recent events in both Nigeria and the Central African Republic 
continue to spill over into Cameroon, where an influx of new refugees 
is taxing local resources. The insecurity in neighboring countries, 
compounded with the growing threat of extremism by Boko Haram in 
Cameroon's Far North region, has the potential to threaten Cameroon's 
security and stability. Cameroon has taken a leading role in combating 
piracy in the Gulf of Guinea and is active in regional and domestic 
efforts against wildlife trafficking. If confirmed I will continue to 
support U.S. efforts to strengthen Cameroon's military capacity to 
confront terrorism, piracy, and wildlife trafficking and to encourage 
greater Cameroonian engagement in regional security matters.
    On April 14, Cameroon took an important step toward maintaining its 
long-term political stability by holding the first Senate elections in 
its history. Cameroon is also expected to hold municipal and 
legislative elections on September 30. I look forward to the 
opportunity to build on this momentum and work in partnership with 
civil society and the government to support efforts to strengthen 
democratic institutions, enhance transparency, and promote democracy, 
human rights for all persons and the rule of law.
    Bilateral trade between our countries exceeded $557 million in 
2012, and U.S. exports to Cameroon have more than doubled since 2010. 
Should I be confirmed, I hope to build on these gains and further 
strengthen our economic relationship--one of the cornerstones of United 
States-Cameroon ties. Achieving this goal, as well as Cameroon's goal 
of promoting increased U.S. investment in Cameroon, will require 
continued attention to improving the country's business climate, 
addressing endemic corruption, and improving transparency.
    The kidnapping of French expatriates in Cameroon's Far North region 
earlier this year demonstrated that even in a seemingly stable and safe 
country such as Cameroon, the threat of violence and extremism can be a 
reality. It has also reaffirmed that, now more than ever, the safety 
and security of our American staff and citizens overseas needs to be at 
the forefront of our mission. If confirmed, I will ensure that this 
remains a top priority for the Embassy.
    Mr. Chairman and members of the committee, I thank you for this 
opportunity to appear before you. If confirmed, I look forward to 
working with the committee and others in Congress to advance U.S. 
interests in Cameroon. I would be pleased to answer any questions you 
may have.

    Senator Coons. Thank you, Mr. Hoza.
    We are, as ever, juggling a little bit since it is not 
quite clear how soon our vote will be called or not. If I 
might, with the forbearance of Senator Flake, I am going to 
invite Senator Markey to ask an initial question or two, and 
then I may go to vote while Senator Flake questions, and then I 
may return, since of the three of us I have the most time to 
dedicate to this as a panel. Any objection?
    [No response.]
    Senator Coons. Senator Markey.
    Senator Markey. Thank you.
    Mr. Hoover, thank you today for appearing before the 
committee. I know that you are going to make Massachusetts 
proud if you are confirmed as Ambassador to Sierra Leone. I 
just wanted to ask you this. What would be your one or two top 
specific goals as Ambassador?
    Mr. Hoover. Thank you, Senator, and Go Sox. That is all I 
can say about that.
    Sierra Leone really has a great deal of needs across the 
spectrum. But one of the keys I see on this, Senator, is 
because there is a lack of institutional capacity and human 
capacity, in addition to a lack of resources, financial 
resources to fuel economic development. A key really is going 
to be supporting Sierra Leonean efforts to improve governance 
and specifically economic governance.
    As I noted in my statement, the country is moving now to 
generate revenues from its abundant stock of natural resources. 
It is very important that Sierra Leone gets that right so that 
those resources can be used to help develop the economy in a 
very sustainable way that benefits all Sierra Leoneans.
    Senator Markey. Countries in the developing world with 
major extractive industries are often regarded as suffering 
from the so-called ``resource curse,'' where the growth of such 
countries is constrained because the wealth created by the 
industry goes to an elite few in the country. It was to combat 
this situation that Congress mandated that the Securities and 
Exchange Commission enact increased transparency rules on 
resource extraction projects as part of the Dodd-Frank Act, and 
Senators Cardin, Leahy, Levin, and I, along with former Senator 
Lugar, recently wrote to the Securities and Exchange Commission 
to urge that they release strong rules in line with Congress' 
mandate.
    In Sierra Leone the diamond industry actually played a 
large role in fueling the civil war. In fact, the war began in 
the impoverished region that was the source of most of the 
country's diamonds. How has in your opinion Sierra Leone's 
Government sought to reform the diamond sector, a source of 
wealth that helped fuel the civil war, and the mining sector 
generally?
    Mr. Hoover. Thank you again for that question. That is an 
excellent question. On diamonds specifically, Senator, after 
the end of the civil war, as you may know, Sierra Leone and a 
group of other countries established the Kimberley Process, 
which is a certification scheme to ensure that diamond exports 
from countries like Sierra Leone are not used to fuel conflict. 
So the conflict diamond issue has essentially gone away in 
Sierra Leone.
    Much of the diamond mining is still artisanal, which is to 
say informal, which is to say illegal, and the country 
continues to lose 15 to 20 percent of its diamond export 
revenues through smuggling. So that remains a problem.
    More broadly, I should note that Sierra Leone joined the 
Extractive Industries Transparency Initiative, which is an 
international initiative to increase transparency in natural 
resource revenue flows. They are temporarily suspended, but I 
understand the government is working hard now to get back into 
compliance with EITI.
    Senator Markey. OK, great.
    Mr. Hoover. Thank you.
    Senator Markey [presiding]. My time has expired. The 
Senator from Arizona is recognized.
    Senator Flake. Thank you. Now I can stage a coup. Chairman 
Coons is finally gone here. [Laughter.]
    I appreciated meeting with all of you in my office earlier 
and I appreciated the discussion there.
    Mr. Hoza, a followup with regard to Cameroon. Can you 
describe some of the antipiracy efforts that the United States 
is contributing to there?
    Mr. Hoza. Yes, Senator. I appreciate that question. It 
talks to one of the true success stories in our bilateral 
relationship. U.S. personnel have combined with a special unit 
of the Cameroonian military to address piracy in Cameroonian 
waters. That program has been sustained over the course of 2 
years, and in the course of 2 years incidents of piracy within 
Cameroon waters have been eliminated.
    That is not necessarily a harbinger for success in the 
future without continued effort, and we look forward to 
sustaining that.
    Senator Flake. Good. It is hoped that in the Gulf of Guinea 
we can, I think we have, move to intercept the issue before it 
gets as bad as it did off the coast of Somalia certainly. So 
that's important and we want to make sure that that continues.
    With regard to the antipoaching initiatives that we have, 
can you describe those? Are we looking more on the finance 
side? How are we combating at this point the poaching 
activities there?
    Mr. Hoza. Senator, as you are aware, Cameroon is in a 
unique position in that it has such a wide range of fauna, 
endangered species, throughout the country, but it is also on 
the border between the Sahel and the Congo Basin, which means 
it is right on the frontier of poaching. In 10 years the 
Cameroonian elephant population has declined from 80,000 to 
5,000. So the time for action is now and it is across the 
spectrum.
    First and foremost, we must stop the organized poaching of 
the savannah elephants. Last year in December, you may be very 
aware, professional poachers came across the desert and 
slaughtered 300 elephants in one raid. These are organized 
operations, and this is what we will work with with the 
Cameroonian military, to stand up an ability to receive early 
warning of these raids and to thwart them.
    Beyond that, though, sir, the poaching, as you point out, 
requires a full spectrum approach. So we will be working with 
the Cameroonian justice system to make sure that penalties for 
poaching are raised to the same level as penalties for, say, 
drug trafficking or trafficking in persons. And we will help 
them to prosecute cases more successfully.
    Finally, there is a third act and that is to intercept all 
of the routes by which the produce of poaching is transported 
out of the country. These are the same routes that transport 
people, the same routes that transport drugs, the same routes 
that transport arms and explosives for terrorism in the north. 
So it is an essential part of our program to work with the 
Cameroonian military to stop this traffic.
    Senator Flake. To what extent are Cameroonians complicit in 
this, or is it outsiders typically that are involved? Or is 
there some knowledge or help received by either the military or 
other institutions?
    Mr. Hoza. Cameroon has a very strong commitment on the part 
of its military, through a special unit that is committed to 
antipiracy, antipoaching, and counterterrorism, and we are very 
impressed with this unit. We are also impressed with the 
commitment of the Cameroonian Government to thwarting all three 
of these activities in their country.
    Much of it comes from outside the country, but of course 
there are problems within the country that have to be 
addressed. If confirmed, this is one of the areas that I intend 
to focus on with much of my attention and time and much of the 
time and attention of the Embassy.
    Senator Flake. Thank you.
    Mr. Hoover, in Sierra Leone there is significant Chinese 
investment going on there. Can you describe that, and should 
we--is this an area that there is a U.S. alternative? I have 
found that most African countries, if given the choice between 
U.S. investment and Chinese investment, will choose the former 
because it is much--the local population is typically better 
off and more involved, whether it is resource extraction or 
whatever it is. But can you describe the Chinese investment 
there and what our response should be?
    Mr. Hoover. Certainly. Thanks, Senator, for that question, 
a very important question. Chinese companies are investing 
heavily in Sierra Leone. They are in a number of sectors, 
including the power sector. They are building roads. There is 
some talk of Chinese concerns building a new airport closer to 
the capital, which is a great need in Sierra Leone right now. 
And of course, they are investing also or looking to invest in 
extractive industries as well.
    These are investments that in principle we should welcome. 
These are investments which should help Sierra Leone further 
its own economic development goals, which we share. The trick I 
think is in--and this goes back to Senator Markey's question--
is supporting Sierra Leone on efforts to make sure that they 
have the tools in terms of economic governance to make sure 
that they get a good deal when they negotiate these 
investments, that there is accountability, that there is 
transparency in these investments, that these investments are 
socially responsible, that they meet international standards in 
terms of labor rights, environmental protection, et cetera.
    The other piece of it is, as you alluded to, Senator, is we 
need to get more U.S. companies out there to compete with 
Chinese and other companies from around the world, because, as 
you say, all the good things we can do as a government I think 
are far outdone by what our private sector can do in these 
countries.
    So if confirmed I will work very hard with our private 
sector to at least try to make them aware of the opportunities 
that are there in Sierra Leone in extractive industries, 
agriprocessing, tourism, and other sectors--power.
    Senator Flake. We talked about tourism. I did not realize 
there was such potential there, but it seems to be so.
    Mr. Hoover. There is. It is a beautiful country with 
beautiful beaches. But because of the unfortunate legacy of the 
civil war, all the earlier tourism infrastructure was 
destroyed, and so there is an opportunity now for foreign 
companies. In fact, a couple of U.S. hotel chains are looking 
to invest or are presently investing in Sierra Leone.
    Senator Flake. Ms. Reddick, we spoke in my office about the 
impact of the situation in Mali on Niger. Can you describe 
that? Presently, looking forward, what do we need to--
specifically, let me say, we do have a drone presence, unarmed 
drones. It seems to be welcomed in the country, but how is it 
going to be perceived as you know and understand it now? You 
will know more on the ground there, I am sure. But what 
diplomatic efforts are going to have to accompany that program 
of the use of drones in Niger?
    Ambassador Reddick. Thank you, Senator. Niger is in what 
could be called a difficult neighborhood, with Mali, Libya, and 
Nigeria on its borders. The Nigeriens understand that they are 
faced with a great problem, in part because convoy routes pass 
through northern Niger and convoys traditionally have carried 
drugs, weapons, and illicit goods. We know they also are 
carrying extremists and terrorists involved in the conflict in 
northern Mali.
    Nigeriens have reached out to the United States and other 
international partners for assistance. The political will is 
there. It is a democratic government that is trying to satisfy 
the needs of its own population. They have worked very closely 
with minority populations like the Tuareg. They are attempting 
to create a more inclusive government.
    The Government of Niger has reached out for assistance to 
build their capacity to monitor their borders and to interdict 
these convoys, to try to stop the spread of extremism and the 
terrorist threat. We have responded with training. We are 
working with various types of assistance to help Niger build a 
crisis response unit, and a counterterrorism unit. They are 
working with their own population to ensure that their young 
people are not attracted to the extremist groups operating in 
the region.
    I mentioned we have a number of security programs to assist 
Niger. We do have unarmed remotely piloted aircraft in Niger. 
The Niger Government has welcomed our presence and has 
explained to the population why we are there, and we have not 
had problems.
    If confirmed, I do intend to make sure that I am well 
informed before I go out to post, but also while I am there, to 
ensure that the programs we have in place are coordinated with 
the Government of Niger. Also, as Chief of Mission, I intend to 
work very closely with the Combatant Commanders involved in our 
programs in Niger. I have already met with General Rodriguez, 
who heads our Africa Command, and I do look forward to 
maintaining close contact with him.
    I think this is a partnership that serves Niger well, but 
also serves our own interests in stopping the terrorism threat 
in the region. We are working with countries in the region that 
have the political will and want to be part of the solution. 
Niger has played an important role in the political process 
that has led to elections and a return to a democratic 
government in Mali. I think the Nigeriens also want to be part 
of the political process that looks at the needs of minority 
populations and tries to find way to make more inclusive 
governments in the region.
    Senator Flake. Well, thank you.
    With regard to physical security there with the Embassy, 
what upgrades has the Embassy gone through over the past decade 
in terms of setbacks and everything else? Are we where we need 
to be or do we still--is that a continuing process there?
    Ambassador Reddick. Yes, the Embassy in Niamey is not one 
of the newer embassies. It is going through a major renovation 
right now, which will continue into the next year, with 
additional security measures to be constructed in the Embassy.
    I also would like to point out that following the terrorist 
attacks in May the Government of Niger was very responsive to 
the Embassy's request for certain security measures to be added 
to the neighborhood, and I am very pleased that we have 
established that type of relationship with the Government of 
Niger.
    But I do intend, if confirmed, once I arrive at post, to 
get together with my security team and take a look at the 
renovations, what lies ahead, and what is still needed. If 
there are things that need to take place to better secure the 
Embassy for Americans and our locally employed staff, I want to 
make sure that information gets transmitted back to Washington 
as soon as possible.
    Senator Flake. Well, thank you.
    Mr. Hoza, with regard to the perception of the U.S. in 
Cameroon, have the programs, be it PEPFAR, be it aid with 
antipiracy or antiterrorism cooperation, antipoaching, have 
these programs bought us good will in the country? How are we 
perceived there?
    Mr. Hoza. Senator, I think we enjoy a very positive image 
in the Republic of Cameroon amongst the people, first and 
foremost from our efforts to combat HIV-AIDS along with the 
Ministry of Health. Many implementing partners there are very, 
very effective at their programs and they are demonstrating an 
expertise derived from our best practices that we brought to 
them. Their own initiative has been impressive in trying to 
slow the rate of increase in the prevalence of HIV-AIDS in the 
country.
    As far as the military to military relationship on 
counterterrorism, antipiracy, and antipoaching, all of these 
are welcomed by the Cameroonian Government and the Cameroonian 
people. I think they are very much aware of the terrorism 
threat. The recent kidnapping of a French family from northern 
Cameroon brought home the fact that Cameroon is not immune to 
the extremism that is running rampant in the neighborhood.
    The important thing, though, is the way our personnel 
conduct themselves in the course of their interaction with 
military counterparts and with their professional counterparts 
in the health sector. We must transmit American values of 
respect for human rights, democracy, civilian leadership over 
the military in terms of the military side, but on the health 
care side, human rights respect for all individuals regardless 
of their ethnic affiliation, their religion, or their sexual 
preferences.
    So these are the sort of values we must convey and we hope 
that these values will become common values with our Cameroon 
partners.
    Senator Flake [presiding]. Well, thank you.
    You will have to excuse me. I have got to go vote before 
they close it out in a minute here. We will just recess the 
hearing for about probably 3 minutes, until Senator Coons 
returns. I am going to have to stay there at a meeting 
afterward. I appreciate your willingness to serve and the 
service you have already given to the country, and I think all 
of you are well qualified and will represent the country well.
    We will not have to recess at all, because here's Senator 
Coons. So thank you.
    Senator Coons [presiding]. Thank you, Senator Flake.
    All three of you will, if confirmed, be representing the 
United States in countries where the MCC plays a somewhat 
different role than it did in the previous and where the 
opportunities for economic development are significant, but not 
yet fully realized, and for economic partnership between the 
United States and the countries to which you will hopefully be 
appointed.
    So please, if you would, just speak about how you see 
having been invited or being MCC-eligible playing a role and 
how you think we might do a more effective job at sustaining 
and building relationships, in particular in Niger, and then 
what we need to do in Cameroon in order to move toward a place 
where we can have a sustained economic relationship?
    One of the values I place on MCC compacts, threshold 
compacts and then full compacts, is it requires transparency, 
commitment to democracy, commitment to certain sort of core 
principles. If I remember correctly, Cameroon is not MCC-
eligible, but the other two nations are. So if you would speak 
to how that mechanism helps and what you see as being the best 
or likely focus as the countries to which you may well be 
confirmed go through the MCC process?
    Just in order, if you would, Ambassador Reddick, Mr. 
Hoover, Mr. Hoza.
    Ambassador Reddick. Thank you, Mr. Chairman, for that 
question. In Niger the Millennium Challenge Corporation has 
been a motivating factor. With a democratic government in place 
with the political will to do better by its population, to 
deliver more services, to become more democratic, I think MCC 
has acted as a motivation to do more.
    Niger has had an MCC Threshold Program that has focused on 
areas of investing in people, governing justly, and doing 
business in Niger. After the return of a democratic Government 
in Niger, we were able to restart the Threshold Program and 
construct many of the schools that were scheduled to be 
completed under the Threshold. That has been a very important 
part of investing in people. Many of these schools will bring 
more women and more young girls into the education system.
    There has been a focus on corruption in the Threshold 
Program and this issue is also important to the current 
government of President Issoufou, so I think we are walking 
hand in hand down the same path with the Nigeriens under the 
MCC Threshold Program.
    Senator Coons. Is the prospect of an MCC compact a 
significant incentive or is it a rounding error in the greater 
context of the concerns facing President Issoufou?
    Ambassador Reddick. My sense is, from my experience working 
in the West Africa Office and also with Sao Tome-Principe as an 
MCC Threshold Program country, it is a great incentive, very 
much so. We have continued to see a push by Niger to continue 
to meet the criteria, and I am sure they are looking forward to 
being eligible again when the indicators are published over the 
next couple of months.
    MCC is in Niger now considering what a good proposal for a 
compact will look like. I understand they are looking, in 
particular, at livestock, one of the major exports of Niger. 
Livestock depend upon water. MCC is focusing on where water 
sites are available for the livestock. What happens to the 
livestock? Well, a lot of the livestock have traditionally been 
exported to Nigeria. What are the constraints to maintaining 
these exports or increasing them? What are the trade barriers, 
for example? This is another area that MCC is looking at with 
the Nigerien Government.
    The government understands very well that, for example, 
they do need to reduce trade barriers. They still need to work 
on corruption and they are doing so through new agencies within 
the government to attack corruption by developing cases and 
prosecuting those individuals involved in corruption.
    I see MCC working hand in hand with governments with the 
political will to invest in their people, expand the economy, 
strengthen democracy and good governance, and bring prosperity 
to their citizens. Niger a very good example, and if confirmed 
I look forward to working closely with MCC there. From what I 
have seen, from my experience, what works well is when there is 
a development team that brings together MCC and USAID. I look 
forward to working with such a team when I am in Niamey, if 
confirmed.
    Senator Coons. Thank you, Ambassador Reddick.
    Mr. Hoover, does eligibility for an MCC compact have much 
of an impact in Sierra Leone? And if so, how would you see the 
trajectory playing out?
    Mr. Hoover. Thank you, Senator. I am a big fan of the MCC. 
Eligibility itself has already had an impact without a single 
dollar really being disbursed yet in Sierra Leone. Just the 
prospect of becoming compact-eligible has been used by the 
administration there in Sierra Leone, to their credit, as a way 
to improve their political and economic governance.
    When they were made eligible last year in December, their 
performance on their MCC score card had improved dramatically, 
and that was specifically because the government had identified 
the MCC compact or threshold program as an incentive that they 
chose to pursue. So it has had a great benefit already without 
any money even being spent.
    Currently, MCC and the Government of Sierra Leone are 
working toward compact development. I do not want to prejudge 
how that is going to come out. There are huge needs across the 
board in Sierra Leone. We do not know what our budget will be 
for the MCC compact if one materializes. But I can see 
investments in governance, in anticorruption efforts, in the 
power sector, education, health. It really is kind of the whole 
gamut. Again, I do not want to prejudge that, where those 
resources might go. But I look forward, if confirmed, to using 
MCC and using the compact development again to continue to 
shape incentives to encourage further economic reform. And at 
the end of the day we hope actually to disburse some money, so 
that we can invest in the country's future.
    Senator Coons. That is encouraging. I have noticed both in 
a recent trip to Liberia and a previous trip to Benin sort of a 
real significant focus by national leadership on what an MCC 
compact, or a second compact in Benin's case, could mean, not 
just the raw dollar value, but sort of the prestige of being 
deemed eligible and then deemed a partner, and the way it is 
delivered in terms of real partnership for the long term.
    So, Mr. Hoza, Cameroon President Biya in some ways 
epitomizes entrenched power in Africa. It is, as you mentioned 
in your statement, a relatively speaking stable country, but 
one where the reach of its natural resources has not yet been 
fully developed to the benefit of its people.
    What are the tools you might use in Cameroon? Is MCC even 
on the horizon as one of them, or are there others, to help 
encourage liberalization, steady progress toward democracy? And 
what do you think of the prospects for elections soon, if at 
all this year?
    Mr. Hoza. Thank you, Senator. We have to be very, very 
clear-eyed about the challenges in Cameroon and maintain a very 
clear-eyed perspective on some of the shortcomings that need to 
be overcome. But we also have to keep in mind the importance of 
Cameroon to the region. Stability in a very unstable region is 
valuable. They are custodians of great biodiversity and 
custodians of much of the Congo Basin. So there is a lot at 
stake here.
    Progress has been made. In April of this year, a senate was 
elected. Of 100 senators, 20 are women and 18 are members of 
the opposition. So we are beginning to see some steps forward.
    On September 30 there will be parliamentary and municipal 
elections and there have been some electoral reforms, not least 
of which is biodata voter registration and publishing of the 
voter rolls on the Internet. These are all positive steps 
forward towards what we hope will be a democratic process of 
transparency that will have the confidence of the Cameroonian 
people.
    We are looking at Presidential elections in 2018.
    We have also seen some greater press freedom, particularly 
in the area of Cameroonian politics, and these are encouraging. 
Again, we must be clear-eyed. There are still severe challenges 
to the democratic process in Cameroon and it will be important 
for us to bring to bear all of our influence to improve that 
situation.
    Senator Coons. We often face challenges when advocating for 
values that are rooted in America, whether it is democracy, 
transparency. Cameroon is a country that Human Rights Watch has 
identified as having one of the most aggressive anti-LGBT 
prosecution and enforcement efforts. What would you do as 
Ambassador to raise the issue of human rights broadly and also 
specifically to advance the rights of those whose sexual 
orientation makes them subject to harassment or abuse in 
Cameroon?
    Mr. Hoza. Cameroon recently witnessed two very tragic 
murders of LGBT activists. Ambassador Jackson attended the 
funerals and has commenced a program, with the assistance of 
various offices back here in Washington, commenced a program to 
address legislation, to attempt to change legislation in 
Cameroon to protect the rights of LGBT individuals.
    He has pressed also for a proper investigation into those 
murders and to bring the perpetrators to justice. If confirmed, 
I will continue those efforts.
    Senator Coons. Thank you. I would look forward to hearing 
updates on your progress in that important work.
    Last, you mentioned there are significant resources in 
Cameroon, but some real challenges in terms of transparency. 
Tell me about how EITI or other initiatives that are designed 
to improve transparency--I think Senator Markey asked about 
some of the SEC rules--might be applied in the private sector, 
in particular in extractive industries, both the transmission 
and the development of oil resources from Chad and then within 
Cameroon?
    Mr. Hoza. EITI has been a very, very helpful tool. We 
import--the largest amount of exports from Cameroon to the 
United States is from their oil industry, and a significant 
portion of our exports to Cameroon have to do with the oil 
industry, whether it is in surveying for oil and natural gas or 
actually extracting the product from the ground. The pipeline, 
of course, as you mentioned, is also another important factor 
in Cameroon's economy.
    We see a number of ways to impact transparency and a way to 
reduce the corruption that is endemic in the private sector in 
the market in Cameroon. We have seen a doubling in U.S. exports 
to Cameroon and we are selling things like civilian aircraft 
and diesel-electric locomotives, important to the development 
of their industries from the eastern portion of the country, 
drawing out the mineral and forest resources responsibly, to 
the new deepwater port in Kribi.
    So Cameroonians see the advantage of trade with the United 
States and know that we have the technology and the products 
that they need to develop their economy. We need to capitalize 
on that. We need to press them to make sure that there is a 
level playing field, that all tenders are open and transparent, 
and that corruption will not be tolerated. The more we can 
press that issue and the more that we can ensure that our 
corporations adhere to all of our rules and regulations and all 
the rules and regulations of Cameroon, the better the trade 
will be.
    Senator Coons. I think you are right, Mr. Hoza.
    Mr. Hoover, if I might. If confirmed, you will be 
overseeing a relatively small embassy, mostly first or second-
tour officers, in somewhat challenging, at times even 
difficult, living circumstances. How do you support the 
professional development of your staff in that kind of an 
environment? How do you maintain morale and ensure their 
safety?
    Mr. Hoover. As you pointed out, Senator--thank you for that 
question--it is a difficult environment in Freetown. The 
Embassy is pretty much supplying all of its own water, its own 
power, and much of its own infrastructure because of the 
context there of underdevelopment. So maintaining morale, 
maintaining unity of purpose, I think will be one of my biggest 
challenges if confirmed and one of my biggest areas of focus.
    As you also noted, we have a lot of one-person sections at 
that Embassy, and often those one or two people in those 
sections are quite junior. I have already spoken to the deputy 
chief of mission there, a person I have worked with before. She 
and I share a very, very strong belief in developing those 
younger officers. That will be one of my--in terms of the 
internal management and leadership of the mission, that will be 
one of my highest priorities, is providing those younger 
officers with the support they need, the guidance they need, to 
be fully successful, not just at the mission there in Freetown, 
but throughout their careers.
    How do we go about doing this? It is just what you do every 
day, day in and day out, working with people, encouraging them 
and giving them the guidance they need to do good work.
    Senator Coons. I know that is a challenge for all chiefs of 
mission.
    But if I might, Ambassador Reddick. As someone who is going 
to a country that both faces significant challenges and has 
real opportunities, if I might by way of a closing question, In 
your opening you referenced the regional environment and how 
Niger has been exposed to increased violence and the potential 
of real terrorism, both because of southern Libya's 
instability, because of developments in Mali, and developments 
more regionally relating to Nigeria.
    How do we ensure that Niger, currently a relatively staunch 
U.S. ally with which we have built some strong partnerships, 
does not become the next Mali? What are the steps we need to be 
taking to ensure that it remains stable and a key ally in our 
work in the Sahara and the Sahel?
    Ambassador Reddick. That is an excellent question, Mr. 
Chairman. I think we frankly need to continue what we are 
already doing in Niger. We have important programs in place 
through USAID, through MCC, that allow us to work with the 
Government of Niger in key areas of strengthening 
democratization, focusing on good governance, and improving the 
situation of the people of Niger.
    I think this will make a big difference. It will create a 
more stable Niger. It has had a history of political fragility 
and that is why I think we need to continue to work with the 
Nigerien government on strengthening institutions, and also 
continue to work with civil society. We do work through a 
number of NGOs, including local NGOs, through USAID. All this 
empowers the people of Niger. It gives them a voice to hold 
their own government accountable. And the government of 
President Issoufou, I think, hears them and is trying to 
respond. We need to help them with the tools to become more 
resilient to these cycles of drought, and focus on 
diversification of crops, so if one crop fails, such as millet, 
then perhaps there can be a successful onion crop.
    We are doing these things through USAID to make a 
difference for the people of Niger so that they can become more 
resilient to the environmental shocks of drought and famine and 
also flooding, which they recently experienced.
    We are working in the area of education, not only building 
schools but focusing also on women, especially young girls, to 
improve the human resources of Niger so that women can fully 
participate in the economy.
    These are just a few examples. Our government is headed in 
the right direction; we are doing the right thing. We need to 
do more of it perhaps. We could always use more resources, not 
only in Niger but also in the Sahel region. We are looking at 
working more regionally. We have started a special unit of 
USAID based in Dakar that focuses on the Sahel as a region. I 
think this will have resonance as USAID also develops 
activities that will strengthen each of the countries in the 
region.
    I am very pleased to be going out to Niger, if confirmed 
because there is a lot we can do. I think we are already doing 
some good things that will have an impact, and we are working 
with a very cooperative partner with the Government of Niger 
and the people of Niger.
    Senator Coons. Great. Thank you, Ambassador Reddick. Thank 
you, Mr. Hoover. Thank you, Mr. Hoza. All three of these 
countries are countries that are valued American allies and 
where we have some real challenges, in stabilizing Sierra Leone 
and ensuring its ongoing recovery from what was a devastating 
civil war, and in ensuring transparency and progress toward 
tackling very significant human poverty challenges; in 
Cameroon, preserving the value of stability while still really 
promoting our values, democracy and openness in the economy and 
protecting vulnerable minorities; and in Niger, ensuring that 
we are helping them deal with the likely impact of climate 
change and become more resilient and become better able to 
fight poverty, but also to continue to be a real stalwart ally 
for us in the region.
    Thank you, all three of you. Thank you to your families and 
coworkers and colleagues who have come today to support you.
    I am going to leave the record open for a week for those 
members of the committee who were not able to join us today, 
but who may want to submit questions.
    With that, this hearing is hereby adjourned.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


           Response of Dwight L. Bush to Question Submitted 
                       by Senator Robert Menendez

    Question. Morocco's claim to the Western Sahara has caused friction 
in United States-Morocco relations, with its neighbor Algeria, and 
within the African Union. Its claim stymies regional economic and 
security cooperation.

  <diamond> How can the United States facilitate political discussions 
        around this contentious issue?

    Answer. The U.S. Government continues to support the process led by 
U.N. Secretary General Ban Ki-moon and his Personal Envoy for Western 
Sahara, Christopher Ross, to find a peaceful, sustainable, and mutually 
agreed solution to the Western Sahara conflict. The U.S. Government, 
along with all the other members of the Security Council, unanimously 
adopted Resolution 2099 (2013), which took note of the Moroccan 
autonomy proposal presented to the Secretary General on April 11, 2007, 
and welcomed the serious and credible Moroccan efforts to move the 
process forward toward a resolution. It also took note of the Polisario 
proposal presented on April 10, 2007.
    In November 2012 and March of this year, the U.N. Secretary 
General's Personal Envoy held broad-based consultations with the 
parties to the conflict, Morocco and the Frente Polisario, as well as 
with important regional stakeholders Algeria and Mauritania. He also 
consulted with the Friends on Western Sahara (France, Spain, Russia, 
the United Kingdom, and the United States). Ambassador Ross' work to 
bring the two parties together continues to hold promise and inspires 
hope for progress toward the resolution of this conflict. The United 
States supports Ross' approach of bilateral talks with the parties with 
the aim to launch shuttle diplomacy to work toward finding a just, 
lasting, and mutually acceptable political solution. If confirmed, I 
will work diligently to translate that support into tangible 
improvements.
                                 ______
                                 

         Response of Matthew Harrington to Question Submitted 
                       by Senator Robert Menendez

    Question. Lesotho has flourished under the African Growth and 
Opportunity Act (AGOA) to become the act's top nonenergy exporter to 
the U.S. of goods, exclusively textiles. Labor disputes, including over 
minimum wage, have accompanied the growth of the textile industry.

  <diamond> Can you describe Lesotho's institutional capacity to 
        resolve future labor disputes? What role can and should the 
        United States play in helping to resolve these disputes?

    Answer. Lesotho's primary institutional mechanism for labor 
mediation and dispute resolution is the Directorate of Dispute 
Prevention and Resolution, an independent government agency established 
in 2000. The Directorate effectively resolves most disputes through 
conciliation or arbitration, although the process can be lengthy.
    The United States plays a leading role in helping Lesotho resolve 
labor disputes in the textile industry, which employs more than 36,000 
Basotho, mainly women. The majority of textile firms exporting to the 
United States under the African Growth and Opportunity Act (AGOA) 
participate in the International Labor Organization's (ILO) Better Work 
Lesotho Program (BWL), which was established in 2009. BWL works with 
factories and unions to improve compliance with ILO core labor 
standards and the Lesotho national labor law, with the goal of 
maintaining Lesotho as an ethical sourcing destination. American buyers 
like Gap, Levi's, and Walmart support industry participation in the 
program by encouraging all of the factories they source from to enroll 
in the program. In addition, these buyers rely on Better Work Lesotho 
assessment reports rather than conducting their own periodic audits. A 
U.S. Department of Labor grant of $3.3 million solely funds Better Work 
Lesotho for the period 2010-2014.
    In 2012, the U.S. Embassy worked with Better Work Lesotho and the 
U.S. Department of Labor to bring experts from the Federal Mediation 
and Conciliation Service (FMCS) to Lesotho to train union officials and 
employers on communication skills and dispute resolution. FMCS returned 
to Lesotho in September 2013 to provide additional training in 
collective bargaining and problem solving at the factory level.
    The labor movement in Lesotho's textile industry is fragmented, 
with multiple unions competing for membership; as a result, unions have 
reduced bargaining power with employers. Nonetheless, labor relations 
in Lesotho are generally positive--the textile industry experiences 
relatively few strikes or other mass labor actions. While in prior 
years unions concentrated on industrywide minimum wage negotiations, 
more recently their efforts have been focused on negotiations with 
individual factories.
                                 ______
                                 

          Response of Eunice S. Reddick to Question Submitted 
                       by Senator Robert Menendez

    Question. Niger struggles with security issues due to ongoing 
threats from Boko Haram, AQIM and affiliated groups, and broad regional 
security challenges. What are Niger's existing counterterrorism 
capabilities? What is the extent of United States-Niger 
counterterrorism efforts? Do they meet the needs of the United States 
to protect U.S. interests in the region?

    Answer. Niger is a committed partner in combating terrorist groups 
and extremist ideology throughout the Sahel. Our relationship enjoys 
broad-based support from the government and people of Niger and is 
cognizant and reflective of Nigerien priorities, interests, and 
concerns.
    The United States has long supported the Government of Niger's 
efforts to secure its borders and counter the threat of extremism. 
Under the Trans-Sahara Counterterrorism Program (TSCTP), the United 
States provides training and equipment to Niger. Support under this 
program aims to increase security sector capacity, address underlying 
causes of radicalization, and increase the voices of moderate leaders 
to positively influence populations potentially vulnerable to 
radicalization.
    We are also working closely with Niger to support the deployment of 
the U.N. Multidimensional Stabilization Mission in Mali (MINUSMA). 
Niger has committed an 850-ground-troop contingent to the mission, 
almost all of which have already deployed to Mali. The United States 
provided those troops logistical support, training, and equipment 
through the African Contingency Operations Training and Assistance 
(ACOTA) Program.
    Niger provides critical support for U.S. regional security goals 
throughout the region. U.S. Africa Command has positioned unarmed 
remotely piloted aircraft in Niger to support a range of regional 
security missions and engagements with partner nations. This effort is 
designed to promote regional stability, and to strengthen relationships 
with regional leaders committed to security and prosperity.
                                 ______
                                 

           Response of Dwight L. Bush to Question Submitted 
                        by Senator John Barrasso

    Question. The United States is the most competitive supplier of 
soda ash in the world, due to the abundance of the raw material trona 
in our country. U.S. natural soda ash is refined from the mineral 
trona. The Green River Basin in Wyoming 
has the world's largest known deposits of naturally occurring trona. 
Soda ash is a 
key component of glass, detergents, soaps, and chemicals. American soda 
ash has 
long been regarded as the standard for quality, purity, and energy 
efficiency in 
production.
    As I have discussed in this committee before, soda ash continues to 
face significant trade barriers around the world. Since 2009, the U.S. 
soda ash industry 
has urged the administration to press the Government of Morocco to live 
up to the U.S.-Morocco Free Trade Agreement by permitting U.S. origin 
soda ash to enter duty-free. Instead, Morocco imposes a 2.5 percent 
duty while this country's European competitors enter their soda ash 
duty-free under the EU-Morocco Free Trade 
Agreement.
    In your testimony before the Senate Committee on Foreign Relations, 
you committed to ``working to increase commerce with this key ally.''

  <diamond> Will you commit to me that you will strongly advocate to 
        resolve the problem of the duty being levied on U.S. soda ash 
        to Morocco?
  <diamond> Please outline what efforts you will take as U.S. 
        Ambassador to the Kingdom of Morocco to ensure that Morocco 
        finally lives up to its free trade agreement with the United 
        States by granting U.S. origin soda ash duty-free treatment.
  <diamond> As Ambassador, will you diligently pursue every opportunity 
        to eliminate trade barriers and increase exports for all U.S. 
        industries?

    Answer. I will commit to you that I will strongly advocate to 
expand wherever possible opportunities for the U.S. soda ash industry 
to penetrate the Moroccan market. The U.S.-Morocco Free Trade Agreement 
(FTA) came into force in January 2006, and on the first day that the 
treaty came into effect, 95 percent of goods and services became 
tariff-free. All remaining tariffs are to be eliminated by 2015. From 
entry into force through the end of 2012, the FTA increased overall 
trade by 244 percent, from $927 million to $3.2 billion; exports of 
U.S. products to Morocco soared 369 percent from $481 million to $2.3 
billion and U.S. investment in Morocco jumped sharply.
    The United States Trade Representative leads the Joint Committee on 
the Free Trade Agreement to discuss the implementation of the FTA. 
During these committee meetings, the United States Trade Representative 
will work diligently to ensure that Morocco fully lives up to its 
commitments under the FTA. Recent bilateral discussion on joint 
principles for investment as well as a new agreement to facilitate 
trade through common customs procedures should help further open the 
Moroccan market to U.S. exports and investment. If confirmed, I will 
diligently pursue every opportunity to eliminate trade barriers and 
increase exports for U.S. industries.


   NOMINATION OF TOMASZ MALINOWSKI, KEITH HARPER, CRYSTAL NIX-HINES, 
                            PAMELA HAMAMOTO

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Tomasz P. Malinowski, of the District of Columbia, to be 
        Assistant Secretary of State for Democracy, Human 
        Rights, and Labor
Keith M. Harper, of Maryland, to be the United States 
        Representative to the United Nations Human Rights 
        Council
Crystal Nix-Hines, of California, to be the United States 
        Permanent Representative to the United Nations 
        Educational, Scientific, and Cultural Organization
Pamela K. Hamamoto, of Hawaii, to be Representative of the 
        United States of America to the Office of the United 
        Nations and Other International Organizations in Geneva
                              ----------                              

    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer, Coons, Rubio, and McCain.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good afternoon. Today the full Senate 
Foreign Relations Committee meets to consider four very 
important nominations. I want to say welcome to all of our 
nominees and congratulations to you on your nominations.
    I am also so pleased that Senators McCain and Coons will 
say a few words about two of our nominees. So I am going to 
make an extremely brief opening and I am going to kick it to 
Senator Coons because he has a time issue, take it to Senator 
McCain, unless Senator Paul comes in and needs to make an 
opening statement. I do not believe so. So that is what is 
going to happen here, and then of course we will hear from all 
of you.
    Our first nominee, Tom Malinowski, has been nominated to be 
the Assistant Secretary for Democracy, Human Rights, and Labor. 
He most recently served as the Washington Director for Human 
Rights Watch, where I got to know him. Prior to this Mr. 
Malinowski, an Oxford graduate and Rhodes Scholar, served in a 
number of important positions, including as a Senior Director 
on the National Security Council under President Clinton. He 
has written prolifically about human rights abuses around the 
globe.
    Our second nominee, Keith Harper, has been nominated to 
serve as the U.S. Representative to the United Nations Human 
Rights Council. He is a member of the Cherokee Nation of 
Oklahoma and has spent a significant part of his legal career 
fighting for the rights of Native Americans. He has also served 
as a trial court judge. If confirmed, he will join a small 
number of Native Americans who have held the rank of U.S. 
Ambassador.
    Our third nominee, Crystal Nix-Hines, has been nominated to 
serve as the U.S. Representative to UNESCO. She is a Harvard 
Law School graduate with an accomplished legal career and spent 
many years in private practice and clerked for Supreme Court 
Justices Thurgood Marshall and Sandra Day O'Connor. Ms. Nix-
Hines has also held several positions at the State Department.
    Our final nominee, Pamela Hamamoto, has been nominated to 
serve as U.S. Representative to the Office of the United 
Nations in Geneva. She worked for many years in the private 
sector, including as an executive at Goldman Sachs and Merrill 
Lynch. She chose to devote her time since then to serving her 
community, and particularly underprivileged students, and 
advocating on behalf of women and girls.
    So if you are all confirmed, which is certainly my hope, 
you will play an important role, each of you, in ensuring that 
U.S. foreign policy continues to reflect our values, including 
protecting human rights, promoting democratic governance, and 
ensuring international collaboration on a range of topics.
    This is so important because we live in a very tough world 
today, where women are brutally raped, abused, and murdered 
simply because they are women and where girls have acid thrown 
in their face simply because they want to go to school. We live 
in a world where vicious dictators like Syrian leader Assad 
will go to whatever extremes necessary to maintain their grip 
on power, even gassing their own people. And I am proud of this 
committee for taking a stand against that, especially to my two 
colleagues who happen to be here at this time.
    In too many places, democracy and human rights seem to be 
headed down a dark path. But America is still the beacon of 
light and hope. So when you are confirmed you will be at the 
forefront of these great challenges. You are all examples of 
the American dream. I was thinking about that on the way over. 
And you do embody that spirit of America.
    So I believe you are all up for it and I thank you for 
stepping forward for your country, and I thank your families.
    At this time I will turn to Senator Coons, followed by 
Senator McCain.
    Senator Coons. Thank you, Madam Chair. Thank you for the 
opportunity to participate in today's confirmation hearing.
    I am very pleased to introduce my good friend, Crystal Nix-
Hines, who has been nominated by the President to serve as U.S. 
Permanent Representative to the United Nations Educational, 
Scientific, and Cultural Organization, or UNESCO. Having known 
Crystal for the better part of our lives since growing up 
together in Delaware, it is without reservation that I proudly 
voice my enthusiastic support for her nomination.
    Crystal has a long career of distinguished service as a 
reporter, attorney, and adviser at the State Department that 
has nearly perfectly prepared her for this critical and 
challenging role. She began her career as a reporter for the 
New York Times and has continued a lifelong commitment to 
writing and the arts, which are particularly relevant to 
UNESCO. In fact, she has served as a writer and producer on 
several network television shows, ``Commander in Chief,'' 
``Alias,'' and ``The Practice.''
    But her writing has also been with purpose. Throughout the 
nineties she held positions at the State Department, including 
counselor to the Assistant Secretary for Democracy, Human 
Rights, and Labor, member of the Department's Policy Planning 
Staff, and special assistant to the Legal Adviser. These 
experiences built on the very strong foundation of her legal 
career, which began at Harvard Law School and continued, as you 
mentioned, with distinguished clerkships for the Ninth Circuit 
Court of Appeals and the United States Supreme Court.
    If confirmed, Crystal would proudly represent the United 
States at UNESCO in advancing human rights, tolerance, and 
education globally. Her career in public service is deeply 
rooted in her family's enduring commitment to public service. I 
am thrilled that her mother, Dr. Lula Mae Nix, is here with us 
today. Her mother and father are an important part of the 
fabric of the civil rights movement in our home State of 
Delaware and she and her large extended family have played a 
significant role in our State.
    She also is supported by her husband, David, her children, 
Julia and Samuel, and is someone who I know will represent us 
in absolutely the finest tradition of the Foreign Service and 
will bring all of her strengths and skills to bear. I 
enthusiastically endorse her nomination today.
    Thank you.
    Senator Boxer. Senator Coons, thank you so much.
    Senator McCain.
    Senator McCain. Thank you, Madam Chairman.
    When Tom Malinowski asked me for my assistance and support 
for his nomination to be Assistant Secretary of State for 
Democracy, Human Rights, and Labor, I was pleased to offer it. 
And I told Tom I would be happy to praise him publicly or 
criticize him publicly, whichever would be more helpful to him. 
[Laughter.]
    It turns out that Tom wanted me to say a few kind words 
about him here this afternoon, and I believe he even brought 
his mother to keep me on my best behavior.
    Is your mother here, Tom? Welcome, ma'am. I will try to be 
as nice as is possible for me. I thank you.
    I could spend the rest of my day praising Tom Malinowski, 
but that would cut into the time I might have to beat him up 
with our concerns about human rights. So I will always be 
brief. I always refrain from indulging in speculation about 
what I would do if I were President, but I will break that rule 
a little today to say this: Had I been President, I could 
imagine no one better for this important job than Tom 
Malinowski.
    I say this not because Tom is a closet Republican--he 
certainly is not; I think he may be a socialist--and not 
because Tom and I agree on everything--we certainly do not. But 
what Tom and I do share and what I admire most about him is his 
unwavering dedication to the principles that make America the 
exceptional Nation that it is and to making these principles an 
integral part of our Nation's foreign policy.
    Tom is a consummate professional who lives his conviction 
that America's values belong to all Americans and that they are 
the responsibility of all Americans to protect and promote. But 
it goes beyond that. Tom understands that these principles, 
democracy and freedom, rule of law, human rights and dignity, 
these are not just ideas that we tilt at rhetorically. They are 
the essence of who we are as Americans and for millions and 
millions of people across the globe for whom these principles 
are still more a dream than a reality, these values are the 
difference between prosperity and poverty, liberty and tyranny, 
hope and fear, and even life and death.
    Tom believes this deeply because he has worked his entire 
career with and on behalf of these people who are striving for 
democracy and human rights. He has seen their struggles and 
heard their dreams firsthand in places like Burma and often at 
risk to his own safety in places like Libya and Syria. He has 
drawn on all of these experiences to further the highest 
calling of all Americans, to serve our Nation and to make it 
better.
    This is the contribution Tom made most of all in the fight 
here in Congress to end torture, and I am forever grateful to 
him for that. This is what Tom Malinowski has done and this is 
what he will continue to do if confirmed for this post, and 
this is why I am so pleased to recommend Tom's nomination to 
all of my colleagues on this committee and in the rest of the 
Senate.
    I thank you, Madam Chairman.
    Senator Boxer. Senator, thank you so much for your eloquent 
remarks.
    What we are going to do is start with Tom and then move 
down this way. As we discussed, each of you has 4 minutes to 
make your case. Just all we want is the lifetime of your 
experience boiled down to 4 minutes. But we also want to give 
you time to--if you have family here, that will not count 
against your time. We will start the clock after you have 
introduced your families. So if family is here, please take the 
time to do it.
    Tom Malinowski, please.

STATEMENT OF TOMASZ P. MALINOWSKI, OF THE DISTRICT OF COLUMBIA, 
  NOMINATED TO BE ASSISTANT SECRETARY OF STATE FOR DEMOCRACY, 
                    HUMAN RIGHTS, AND LABOR

    Mr. Malinowski. Thank you so much, Madam Chair and Senator 
McCain. I am the one who is grateful to you.
    You have met my mom. My daughter----
    Senator Boxer. Why don't you stand. All right. You did a 
good job. [Applause.]
    Mr. Malinowski. That is the best part.
    My daughter Emily is watching on the video feed on the Web 
site from Colby College, where she is cutting an International 
Relations class to see this. So I think that is a good move on 
her part.
    Chairwoman Boxer, you probably do not remember this, but 
you were present the first time I appeared before a 
congressional committee. I was 20 years old. I was a student at 
Cal-Berkeley.
    Senator Boxer. And I was 22.
    Mr. Malinowski. Yes. And you had recruited me to come talk 
to the House Budget Committee about student financial aid, and 
I was absolutely terrified. But you were very encouraging, and 
you not only said at the end of the hearing that you would send 
my testimony to President Reagan, but that you would put it in 
the ``Congressional Record.'' And for a nerdy little kid like 
me that was like having a record on the pop charts.
    That experience really was one of the things that gave me 
confidence to go into this line of work. So in some ways I 
might not be here if not for you.
    It is obviously a singular honor to be nominated for this 
position by President Obama while being introduced by Senator 
McCain. Senator, as you can imagine, people who know my 
political affiliation sometimes ask me how come I get along 
with you so well. I recently thought of an image that sums it 
up for me, so if you will indulge me.
    It came to me right after a really painful moment in our 
recent history, the Boston Marathon bombing. I was watching 
with most Americans the TV images of what happened that day, 
and I noticed something amazing that you probably saw, too. 
Most of the people who were there naturally ran away from the 
blast, but there were a few people who did exactly the 
opposite. They ran straight for the fire and the smoke. They 
had no idea what they would find there or how much danger they 
were in. They just knew there were people there who needed 
their help, and so they ran straight for the trouble.
    That is how I think of you. You run straight at the hardest 
problems even when the risks are high and the rewards for you 
are very small. You know that this approach to life is better 
and more honorable than the alternative, and I thank you for 
it.
    [Applause.]
    Mr. Malinowski [continuing]. Now, I happen to think that 
image captures our country at its best moments as well. That is 
the America that stood up for the Baltic independence movements 
and Burmese democrats and Libyan freedom fighters, the American 
that President Obama spoke for at the U.N. just a few hours ago 
when he said that we would never stop standing for our 
principles in the world, the America that's been debating for 
the last few weeks what we should do about the atrocities in 
Syria. However that debate comes out, I think the mere fact 
that we are having it marks our Nation as exceptional.
    It is the America I grew up admiring as an immigrant from 
Poland. Here are some of the most proud moments of my life in 
that spirit: standing with President Clinton in Warsaw, 
celebrating with Poles their admission to NATO; going to 
Sarajevo in 1996 and seeing that city restored to life after we 
had helped end the genocide in Bosnia; going to Burma just last 
year and greeting activists just released from prison who 
credited America for their freedom.
    And here are some of the toughest moments: hearing people 
from still-suffering places ask me: What about us? Refugees 
from North Korea, Tibetan Chinese refugees, or the Syrians I 
met last year in the Aleppo countryside, who would come out of 
their homes when they heard that I was an American to plead for 
our help. It is very hard to explain to people in that 
situation that we cannot be there for everybody every time. But 
those moments when people turn to us and only us are a measure 
of our importance and a reminder that the blessings of being 
American are inseparable from its burdens.
    There are a lot of challenges that I hope we will have a 
chance to work on together if I am confirmed. I mention a few 
in my prepared testimony, which I hope you can put in the 
record. How to counter the global crackdown on civil society. 
How to ensure that the Arab Awakening leads to stability and 
respect for the rights of all people, including women and 
religious minorities, from Egypt to Libya to Bahrain, and of 
course in Syria. How to influence the debate under way in 
emerging powers like China about the values they will embrace 
as they grow in influence. How to preserve fragile gains for 
human rights, especially women, in Afghanistan as we draw down; 
how to ensure that the decisions we make as a country on issues 
like surveillance and detention and targeted killing protect 
our security while also enabling us to project our message to 
the world about liberty and law. There are so many more.
    When we confront hard challenges like these, it is tempting 
to say things like, ``we have no good options,'' and ``our 
influence is limited.'' If I am confirmed, I am going to try my 
best when you call me up here to avoid using such phrases. 
After all, our influence is never unlimited. And we never have 
good options when a debate comes to the level of a Senate 
Foreign Relations Committee hearing, that is a good sign that 
there are no easy options.
    The job of the State Department official, it seems to me, 
is to figure out how to use limited influence to solve the 
toughest problems, recognizing that we may sometimes fail but 
must always try.
    I think we are still the best hope, Madam Chair, for people 
struggling for human rights around the world, and that their 
success is still our best hope for the world we want.
    If confirmed, I look forward to working with you to realize 
that hope.
    Thank you.
    [The prepared statement of Mr. Malinowski follows:]

                Prepared Statement of Tom P. Malinowski

    I am grateful to be here as President Obama's nominee to be 
Assistant Secretary of State for Democracy, Human Rights, and Labor.
    Madam Chairman, you probably do not remember this, but you were 
present the first time I ever appeared before a congressional 
committee. I was 20 years old and a student at UC Berkeley. You were a 
member of the House Budget Committee under Chairman Bill Gray, and you 
recruited me to testify about federal funding for student financial 
aid. I was terrified. But you were encouraging. And when I was done, 
you said you'd send my testimony to President Reagan, and, better yet, 
put it in the Congressional Record, which, for a nerdy kid like me was 
like having a record on the pop charts. That experience helped give me 
the confidence to go into public life. So I might not be here if not 
for you.
    Three years ago, speaking to the United Nations, President Obama 
said that ``part of the price of our own freedom is standing up for the 
freedom of others.'' To be asked by the President to help him and 
Secretary Kerry give life to that conviction is the greatest honor of 
my career.
    It is also a singular honor to be nominated for this position by 
President Obama while being introduced by Senator McCain. I take this 
as a reminder that the cause of human rights unites Americans, no 
matter what party we belong to or how much we argue about the issues of 
the day. If confirmed, I will do everything in my power to deepen the 
bipartisan consensus for America's defense of liberty around the world, 
and to conduct myself in that spirit at all times.
    Senator McCain, as you can imagine, people who know my political 
affiliation sometimes ask me, how come I get along with you so well? I 
recently thought of an image that sums up why that is better than any 
recitation of what we've worked on together. It came to me in the 
instant after a terrible moment in our recent history, the bombing at 
the Boston Marathon. Like most Americans, I watched the scenes of what 
happened that day on television. And I noticed something amazing: while 
most of the people there naturally ran away from the blast, a few ran 
right toward it. They could not have known what had happened or how 
much danger they were in; they just knew instinctively that somewhere 
in the smoke and chaos people needed their help. And that's how I look 
at you, Senator. You run straight at the hardest problems, even when 
the risks are high and immediate rewards small. You may have noticed 
that sometimes, when we run toward trouble, we get in trouble. But you 
also know that this approach to life is more rewarding and honorable 
than its alternative.
    I think that image captures our country in its finest moments as 
well. It explains the America that gave so much to rebuild Europe and 
Japan after WWII, the America that stood up for the enduring struggles 
of Baltic independence movements and of Burmese democrats and of those 
seeking freedom in Libya, the America that takes in refugees from 
repression and war even when it offends governments with which we must 
do business, the America that tries to make peace where it might be 
easier to disengage and resign ourselves to perpetual conflict, as 
former Senator Feingold will be doing in Central Africa and Secretary 
Kerry is doing in the Middle East. It describes us today, debating how 
to aid Syrians being killed by a brutal dictator--wherever that debate 
leads us, the mere fact we are having it marks our Nation as 
exceptional.
    That's the America I grew up admiring, as an immigrant from Poland 
who'd seen how powerless people behind the Iron Curtain drew strength 
from having the world's most powerful country on their side. In my 
life, nothing has made me prouder than standing with President Clinton 
in Warsaw celebrating with Poles their admission to NATO, the 
culmination of what many thought a quixotic American quest to free 
Europe's captive nations, or going to Sarajevo and seeing that city 
restored to life after America helped end the genocide in Bosnia, or 
going to Burma last year and greeting activists just released from 
prison who credited America for their freedom. Those moments aside, I 
have found nothing harder than hearing people in other, still-troubled 
places ask me ``why can't your country help end the repression in 
ours?''--whether refugees from North Korea, Tibetan Chinese exiles, or 
the Syrians I met last year in the Aleppo countryside, who would come 
out of their homes when they learned I was American to plead for our 
assistance. How do you explain to someone in that situation the 
undeniable truth that we cannot be there for everyone every time? It's 
troubling to see their disappointment sometimes morph into resentment 
against the United States. But we should remember that such anger is 
often nothing more than the flip side of hope that we will do more to 
live up to our highest ideals, which are reflected in the world's 
expectations of us. It is a measure of our importance, and a reminder 
that the blessings of being American are inseparable from its burdens.
    All around the world, I think people have this in common: they 
don't want to live unnaturally, in fear, denied basic freedom and 
dignity. When people are forced to live this way, they eventually 
resist. That resistance, as we have seen from the fall of the Soviet 
Empire to the start of the Arab Awakening, drives history. And because 
of who we are, they expect the United States to stand with them. We 
cannot always respond as they wish. But when we vindicate their faith 
in us by defending the ideals we share with them, we emerge stronger 
and better able to advance our national interests. We gain allies of an 
enduring, not transactional, nature. We project confidence in 
ourselves. We promote the ascendance of ideas, institutions, and 
leaders that make the world more peaceful, prosperous, and welcoming of 
American leadership. Even if I didn't care about right and wrong, I 
would argue that advancing democratic ideals and human rights is one of 
our paramount interests. Our commitment to live by and promote those 
values is our comparative advantage, a strategic asset as worthy of 
protection as our military strength and economic base. These are some 
of the convictions that will guide me if I am confirmed.
    There are many challenges I hope we will have a chance to work on 
together. Looking ahead, here are a few key questions on my mind:
    How can we counter the global crackdown on civil society--the 
proliferation, from Russia to parts of the Middle East, Asia, Latin 
America, and Africa, of laws and practices aimed at making it 
impossible to form and fund independent organizations that hold 
governments accountable? By the same token, how can we best ensure that 
countries moving away from authoritarianism, such as Burma, continue to 
do so?
    How can we increase the likelihood that the Arab Awakening will 
lead to stability and respect for human rights for all, rather than 
conflict, suppression of women and religious minorities, and a return 
to authoritarianism? There are distinct challenges in Tunisia, which 
has made progress that must be sustained; in Libya, where a society 
eager for democracy and partnership with us is threatened by armed 
militias; in Yemen, where an inclusive National Dialogue is underway; 
in Egypt, where a full return to democracy and civilian rule is vital 
to giving everyone in that polarized country a stake in nonviolent 
politics; in Bahrain, where we must keep pressing for a political 
compromise that avoids deeper instability and protects human rights, 
and of course in Syria, where a chance for success in preventing 
massacres by Sarin gas should increase our determination to stop mass 
murder by bullets, bombs, artillery, and deprivation.
    How can we best contribute to the debate underway in the world's 
emerging powers about the values they will embrace and project as they 
grow in influence? This question is especially important with respect 
to China, where more and more people are asking for greater political 
openness, freedom of conscience, and respect for the rule of law, but a 
significant crackdown on dissent is underway.
    As we diminish our military presence in Afghanistan, how can we 
ensure that fragile gains for human rights continue? I am particularly 
determined that we meet our responsibility to Afghan women, and press 
the Afghan Government to do the same, remembering that there is a 
strong correlation between advances for security in Afghanistan and 
advances for women's rights.
    Cyberspace has been key to many recent advances. It is the 
strategic space where a growing proportion of the world's people 
exchange goods and ideas, and it has been governed by values very 
consistent with our own. The multistakeholder model of Internet 
governance has helped to preserve, enhance, and increase an open, 
global Internet. We have a stake in keeping it that way, and ensuring 
that global citizens continue to enjoy the same freedoms online as they 
do offline. How can we best continue to promote the multistakeholder 
governance model while forging a strategy for cyberspace stewardship 
that protects privacy and enhances security?
    More broadly, when we face tough questions on issues like 
detention, surveillance, and targeted action against terrorists, how 
can we continue to protect our security while reinforcing our message 
to the world about liberty and law?
    Let me close with a final point: When we confront painful human 
rights problems around the world, whether in Syria or Zimbabwe or Cuba 
or North Korea, it is tempting to say things like ``we have no good 
options,'' and ``our influence is limited.'' If I'm confirmed, I will 
try my best to avoid such phrases. After all, our influence is never 
unlimited. And if a problem has reached the desks of senior officials 
in our government, that probably means the solutions are not obvious or 
require hard tradeoffs. The job of a State Department official is to 
figure out how to use limited influence to address those tough 
challenges, building coalitions inside and outside of government, 
recognizing that we may sometimes fail but must always try.
    It is America's potential, not our past, that gives me confidence 
in what we can achieve if we do try. We are and will remain for the 
foreseeable future the most wealthy, powerful, creative, resilient, 
adaptive country on earth. Despite our domestic challenges and healthy 
wariness of foreign entanglements, we are still the best hope for 
people struggling for human rights around the world, and their success 
is still our best hope for the world we want. If confirmed, I look 
forward to working with each of you to help ensure that we continue to 
realize that hope.

    Senator Boxer. Thank you for your beautiful opening 
statement.
    Now we will turn to Mr. Keith Harper of Maryland, to be the 
United States Representative to the United Nations Human Rights 
Council. Welcome, sir.

STATEMENT OF KEITH M. HARPER, OF MARYLAND, NOMINATED TO BE THE 
UNITED STATES REPRESENTATIVE TO THE UNITED NATIONS HUMAN RIGHTS 
                            COUNCIL

    Mr. Harper. Thank you, Chairman Boxer.
    Senator Boxer. Make sure that you turn on your--and please 
introduce any family if you have them with you.
    Mr. Harper. Thank you, Chairman Boxer. I do want to 
introduce my wife and partner, Shelby Harper, who has supported 
me today and always.
    Senator Boxer. Welcome.
    Mr. Harper. Chairman Boxer and distinguished members of the 
committee, thank you for the opportunity to appear before you 
today as President Obama's nominee to serve as the United 
States Representative to the United States Human Rights 
Council. I am honored to be here today and grateful to the 
President and Secretary Kerry for their confidence in 
nominating me for this important position.
    I have spent many years as an attorney defending the rights 
of Native Americans domestically and seeking protections of 
indigenous peoples internationally. This experience has 
instilled in me a deep and abiding commitment to protecting and 
advancing the human rights of all individuals.
    The United States has been a vocal and leading champion of 
rights enshrined in the Universal Declaration of Human Rights, 
driven not only by the founding values of our Nation, but also 
by the conviction that international peace, security, and 
prosperity are strengthened when human rights and fundamental 
freedoms are respected and protected.
    The promotion and defense of these values has been a 
cornerstone of the Obama administration's foreign policy. That 
commitment is perhaps no more evident than in the 
administration's decision to seek a seat on the Human Rights 
Council in 2009 and successfully campaign for reelection in 
2012. The fact is U.S. leadership on the Human Rights Council 
matters. The experience of the last few years demonstrates the 
importance of American engagement. Let me provide you a few 
examples of the progress made.
    Led by the United States, the council created a special 
rapporteur on the rights of freedom of peaceful assembly and 
freedom of association. The United States played a critical 
role in establishing a special rapporteur for Iran. The United 
States worked with a broad coalition of international partners, 
established commissions of inquiry to investigate gross 
systematic human rights violations of the Qadafi regime and 
then with respect to North Korea.
    The United States leadership was key in addressing the 
deteriorating human rights situation in Syria. The council 
established a commission of inquiry that is providing 
invaluable reporting about ongoing atrocities. Strong U.S. 
leadership is vital to the council's continuing success.
    Members of the committee, in my estimation there is no 
greater honor than to have your President ask you to serve your 
Nation. I recognize that I owe much to the opportunities this 
country has afforded me. If confirmed by the Senate, it would 
be a privilege indeed to serve this country in this new 
capacity. If confirmed I will work every day to solidify and 
advance the progress in the past 4 years and ensure the United 
States remains a leader on the council. I will forcefully 
defend our ally Israel from the troubling and continuing bias 
and targeting.
    I look forward to working with this committee to advance 
our shared priorities, to further our national interests, and 
to proudly present our stellar human rights record that is core 
to who we are as a nation.
    I will close by saying ``Wah-Doe,'' which is ``thank you'' 
in the language of my people, the Cherokee Nation. I deeply 
appreciate your consideration of my nomination. I will be happy 
to answer any questions. Thank you.
    [The prepared statement of Mr. Harper follows:]

                 Prepared Statement of Keith M. Harper

    Chairman Boxer, Ranking Member Paul, and distinguished members of 
the committee, thank you for the opportunity to appear before you today 
as President Obama's nominee to serve as the United States 
Representative to the United Nations Human Rights Council. I am honored 
to be here and am grateful to President Obama and Secretary Kerry for 
their confidence in nominating me for this important position.
    With me here today is my wife and partner, Shelby Harper, as well 
as three of our four children, Nailah, Arlo, and Elsa. I want to thank 
them for their steadfast support today and always.
    I have spent many years as an attorney defending the rights of 
Native Americans domestically and seeking protection for indigenous 
peoples internationally. I spent the majority of my career at the 
nongovernmental organization, the Native American Rights Fund, prior to 
leading the Native American Practice Group at Kilpatrick Townsend, an 
international law firm. This experience has instilled in me a deep and 
abiding commitment to protecting and advancing the human rights of all 
individuals, not just Native Americans and indigenous peoples, but also 
women and girls, LGBT individuals, human rights defenders, persons with 
disabilities, journalists and individuals who are members of many other 
groups whose rights are far too often denied around the world.
    As an attorney and a litigator, my practice has afforded me the 
opportunity to hone my skills as an advocate. Whether in negotiations 
or in presenting a case in court or other fora, I have gained skills 
and capabilities which should serve me and my country well should I be 
confirmed.
    The United States has long been a vocal champion of the rights 
enshrined in the Universal Declaration of Human Rights, driven not only 
by the founding values of our Nation but the conviction that 
international peace, security, and prosperity are strengthened when 
human rights and fundamental freedoms are respected and protected. The 
promotion and defense of these values has been a cornerstone of the 
Obama administration's foreign policy. That commitment is perhaps no 
more evident than in the administration's decision to seek a seat on 
the Human Rights Council in 2009 and then successfully campaign for 
reelection to the Council in 2012. Through its membership on the 
Council, the United States has helped it to take action on some of the 
world's worst human rights abusers, championed the human rights of the 
most vulnerable, worked to address the Council's structural bias and 
highly disproportionate focus on Israel, and reached across traditional 
blocs and geographic divides to foster widespread support for U.S. 
priorities.
    It is critical that the Council meet the high standards we place on 
it. The criticism of the Council is well known and not without merit: a 
persistent, structural anti-Israel bias remains, and some states with 
poor human rights records still gain membership or avoid Council 
action.
    Despite these shortcomings, U.S. leadership at the Council has 
demonstrated the importance of engagement and the benefit of working 
within the system to effect positive outcomes that advance U.S. 
interests. In the past several years there have been numerous examples 
of real progress at the Council. For example, shortly after joining the 
Council, the United States assembled a cross-regional group of sponsors 
to create a Special Rapporteur on the rights to freedom of peaceful 
assembly and freedom of association--the first new mechanism focused on 
a fundamental freedom at the HRC in 17 years. The United States played 
a leading role in the effort to create the Special Rapporteur on the 
human rights situation in Iran. The United States worked with a broad 
coalition of international partners to create a Commission of Inquiry 
to investigate the gross, systematic human rights violations of the 
Qaddafi regime against the people of Libya and more recently another 
one to focus on the horrific human rights abuses in North Korea.
    The United States also worked strenuously to pass resolutions that 
protect the fundamental freedoms of expression and belief. In addition, 
the United States was instrumental in helping pass the first U.N. 
resolution recognizing the human rights of LGBT persons. The United 
States has also been the catalyst for efforts to address the 
deteriorating human rights situation in Syria: the Council has passed 
11 resolutions on Syria and has set up a Commission of Inquiry that is 
providing invaluable reporting about ongoing atrocities. As the range 
of these issues illustrates, the Human Rights Council is a critical 
venue for addressing some of the most persistent threats to human 
rights around the world. Strong U.S. leadership at the Council is vital 
to its continued success.
    In my estimation, there is no greater honor, no greater calling 
than to have your President ask you to serve your nation. I recognize 
that I owe much to the opportunities this country has afforded me. If 
confirmed by the Senate, it would be an honor and privilege to serve my 
country in this new capacity. If confirmed, I will work every day to 
solidify and advance the progress of the past 4 years and ensure the 
United States remains a leader at the Council. I will continue to look 
for new partners who share our values and are willing to work across 
and outside the traditional voting blocs that have stymied the work of 
the Council in the past. I will forcefully defend our ally Israel from 
the unhelpful and disproportionate attention it too often receives and 
work to ensure our goals and national interests are not derailed by 
those who seek to deflect attention from their own records by turning 
attention to others. I look forward to working closely with this 
committee to advance our shared priorities and values at the Council, 
to further our national interest, and to proudly present our sterling 
human rights record that is core to who we are as a people and as a 
nation.
    I deeply appreciate your consideration of my nomination. Thank you 
and I will be happy to answer your questions.

    Senator Boxer. Thank you so very much.
    We turn to Ms. Crystal Nix-Hines of California.

STATEMENT OF CRYSTAL NIX-HINES, OF CALIFORNIA, NOMINATED TO BE 
   THE UNITED STATES PERMANENT REPRESENTATIVE TO THE UNITED 
   NATIONS EDUCATIONAL, SCIENTIFIC, AND CULTURAL ORGANIZATION

    Ms. Nix-Hines. Thank you, Chairman Boxer, and I appreciate 
the leadership----
    Senator Boxer. Is your mike on? We want to hear you.
    Ms. Nix-Hines. Yes. Thank you, Chairman Boxer, and I 
appreciate the leadership that you have shown in our State.
    Senator Boxer. Thank you.
    Ms. Nix-Hines. Today with me is my mother, Dr. Lula Mae 
Nix. You would not know it, but she is 85 years old.
    Senator Boxer. No, you would never know it.
    [Applause.]
    Senator Boxer [continuing]. Can I have a meeting with her 
after this, just to get a few pointers?
    Ms. Nix-Hines. She herself was an appointee in the Carter 
administration.
    Senator Boxer. Fantastic.
    Ms. Nix-Hines. And she still serves at-risk communities.
    My father passed away in 2008, but I know that he is here 
in spirit. He was actually only the second African American in 
the State of Delaware to receive his law license, and we are 
very proud of him as well.
    My husband, David, regrettably is manning the fort in Los 
Angeles with our two small children, Julia and Samuel, but they 
share my enthusiasm for this position.
    I am honored that President Obama has nominated me to 
represent the United States at the United Nations Educational, 
Scientific, and Cultural Organization. I grew up in a home 
where public service was considered a duty and a privilege, 
more important than wealth and fame. As a beneficiary of those 
efforts, I too would like to make a positive contribution in 
the world and this nomination offers a unique opportunity to do 
so.
    Amid the devastation of World War II, UNESCO's founding 
members formed a global organization to foster cooperative 
projects focused on education, science, and culture. But what 
was more like a think tank in 1945 has evolved into an 
organization that does concrete work on the ground and fosters 
collaboration among its 195 member states.
    For the United States, participation in UNESCO furthers 
core strategic interests. First, UNESCO allows us to promote 
quintessential American values. An agenda that includes 
tangible action to promote tolerance and respect, encourage 
press freedom, combat extremism, including ethnic and religious 
violence, and preserve world heritage reflects who we are and 
what will secure a better world.
    UNESCO's initiatives to end illiteracy among women and 
girls and use mobile technologies to expand educational access 
mirror our view of what is necessary to permit a nation to 
fully realize its potential. America's partnership in these 
efforts creates friends in the world who understand our values 
and are equipped to help chart their nation's course.
    Second, UNESCO advances our commercial interests. America 
has built its success on capitalism and innovation, allowing 
companies such as Microsoft and Intel, Google, Pepsi, Procter 
and Gamble to lend UNESCO significant support while expanding 
their global reach.
    Economic benefits also flow from the designation of a U.S. 
locale as a UNESCO world heritage site. We currently have 21 
such sites in the United States, including the spectacular 
Yosemite and Redwood Parks in my home of California, and yours 
as well. Economic impact studies have placed the tourism 
revenue from a world heritage designation at over $100 million. 
That is real money. If confirmed, I would work to expand the 
number of U.S. sites with this elite designation.
    Third, UNESCO promotes U.S. security interests. The only 
U.N. agency with a specific mandate for Holocaust education, to 
prevent genocide and mass atrocities, UNESCO is doing really 
creative work with youth and other groups to promote conflict 
resolution and deter violence. UNESCO's coordination of the 
Global Tsunami Warning System and study of coastal erosion 
helped curb widespread devastation, including along our own 
coastlines.
    Now let me address the elephant in the room, the cutoff of 
U.S. funding after UNESCO member states admitted the 
Palestinians over U.S. objection. The administration has 
requested a national interest waiver to resume funding because 
Americans' interests will best be served by full engagement 
with UNESCO, not retrenchment. We are not a country that turns 
tail when decisions do not go our way. We are not a people who 
shrink from challenge. We roll up our sleeves and we get ready 
for the next round. Returning to full partnership with UNESCO 
will best position the United States to advance our strategic 
interests and those of our allies, including Israel.
    I know firsthand from helping to establish the U.N. war 
crimes tribunals for the former Yugoslavia and for Rwanda how 
crucial U.S. leadership is. Both through my background in law, 
media, government, and my temperament as an intrapreneur, a 
person who changes organizations from within, I am well 
positioned to help UNESCO and the United States achieve great 
things together.
    Thank you.
    [The prepared statement of Ms. Nix-Hines follows:]

                Prepared Statement of Crystal Nix-Hines

    Chairman Boxer, Ranking Member Paul and distinguished members of 
the committee, I am grateful that President Obama has nominated me to 
represent the United States at the United Nations Educational, 
Scientific and Cultural Organization (UNESCO). Thank you for your 
consideration.
    I also want to thank Senator Coons for his kind introduction. We 
not only grew up in the same home state, but share a common interest in 
effecting societal change through public service.
    Although regrettably my husband, David, is manning the fort in Los 
Angeles with our children, Julia, age 9, and Samuel, age 7, they are 
excited about the possibility of living in a new country.
    I was raised in a home where public service was regarded as a duty 
and a privilege, more important than wealth or fame. My Mom, Dr. Lulu 
Mae Nix, who is here today, was an appointee in the Carter 
administration and, at 85, still serves at-risk communities. My Dad, 
Theophilus R. Nix Sr., was only the second African-American lawyer to 
receive his law license in Delaware, and as such, felt a profound 
responsibility to open pathways for minorities, women, the 
disenfranchised. As a beneficiary of these pioneer efforts, I, too, 
would like to effect positive change in the world. If confirmed, this 
appointment would afford a unique opportunity to do so.
    Amid the devastation of World War II, UNESCO's founding members 
formed a global organization to foster cooperative projects focused on 
education, science, and culture that sought to ``build peace in the 
minds of men and women.'' But what was more like a think tank in 1945 
today has evolved into an organization that does real, concrete work on 
the ground and facilitates collaboration among its 195 member states. 
For the United States, participation in UNESCO has more than a ``feel 
good'' benefit. It significantly advances U.S. interests.
    First, UNESCO allows us to promote quintessential American values. 
An agenda that includes concrete action to promote tolerance and 
respect for all; underscores the importance of press freedom; combats 
extremism including ethnic and religious violence; and protects world 
heritage, represents who we are and what we believe will secure a 
better world.
    UNESCO's initiatives to end illiteracy among women and girls, and 
use mobile technologies to expand educational access, mirror our view 
of what is important in a developed or developing society. More than 
775 million adults worldwide are illiterate; two-thirds of them are 
women. More than 57 million children are not in school. Access to 
quality education is essential for a nation to fully realize its 
potential. America's partnership in this effort creates friends in the 
world who understand our values and are equipped to help chart their 
nation's course.
    Second, UNESCO advances our commercial interests. America has built 
its success upon a capitalist model. We invent, we make, we sell, we 
barter, and are integral to the economic system. As a result, companies 
such as Microsoft, Intel, Amazon, Google, Walt Disney, PepsiCo, and 
Proctor & Gamble, have lent UNESCO significant support, while expanding 
their global reach.
    Economic benefits also flow from designation of a U.S. locale as a 
UNESCO World Heritage site, a program developed with U.S. leadership. 
An economic impact study estimates that if the San Antonio Franciscan 
Missions in Texas receives a World Heritage designation, it could 
generate more than $100 million in tourism revenue, including over 
1,000 new jobs. Similar benefits would flow to Poverty Point in rural 
northeast Louisiana. The United States currently has 21 World Heritage 
sites, including the spectacular Yosemite and Redwood State Parks in my 
home of California. If confirmed, I would work to expand the number of 
U.S. sites in this elite group.
    Third, UNESCO promotes U.S. security interests. The only U.N. 
agency with a specific mandate for Holocaust education to prevent 
genocide and mass atrocities, UNESCO is doing creative work with youth, 
ethnic and religious minorities, and other groups to combat prejudice 
and deter violence. UNESCO's coordination of the Global Tsunami Warning 
System and study of coastal erosion are integral to curbing widescale 
devastation, including along our own coastlines.
    Now let me address the elephant in the room: the cutoff of U.S. 
contributions to UNESCO which resulted from the 2011 decision by UNESCO 
member states to admit the Palestinians as a state, despite our best 
efforts to prevent this action. The administration has requested a 
national interest waiver to resume contributions because American 
interests will best be served by full engagement with UNESCO--not 
retrenchment. We are not a country that turns tail when decisions do 
not go our way. We are not a people who shrink from challenge. As 
Americans, we roll up our sleeves and get ready for the next round. In 
this case, that means returning to a full financial and diplomatic 
partnership with UNESCO--one that will best position the United States 
to advance our strategic and commercial interests, and protect those of 
our allies, including Israel.
    I know firsthand from helping to establish the International War 
Crimes Tribunals for the former Yugoslavia and for Rwanda how crucial 
U.S. leadership is. Both through my background in law, media and 
government, and my temperament as 
an ``intrapreneur''--a person who changes organizations from within--I 
am well-positioned to help UNESCO and the United States accomplish 
great things together.
    Thank you. I welcome any questions.

    Senator Boxer. Thank you so very much.
    Ms. Hamamoto.

  STATEMENT OF PAMELA K. HAMAMOTO, OF HAWAII, NOMINATED TO BE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE UNITED 
    NATIONS AND OTHER INTERNATIONAL ORGANIZATIONS IN GENEVA

    Ms. Hamamoto. Thank you, Chairman Boxer, members of the 
committee. I would like to start by taking just a minute to 
introduce my family members who are with me here today: my 
husband, Kurt Kaull, my brother, David Hamamoto, and my sister-
in-law, Marty Hamamoto. Thank you for being here today to 
support me. I appreciate that.
    Thank you for the opportunity to appear before you today as 
President Obama's nominee to be the representative of the 
United States of America to the United Nations and other 
international organizations in Geneva. It is an honor to be 
here and I am grateful to President Obama for his confidence in 
nominating me for this important position and for the 
opportunity to serve my country and to advance U.S. national 
interests in Geneva.
    I firmly believe that America is best represented at the 
United Nations and in the multilateral arena when we are at the 
table, sleeves rolled up, and leading. If confirmed, I am 
absolutely determined to continue to strengthen the President's 
efforts in Geneva to advance our Nation's objectives and be in 
the strongest possible position to support our friends.
    I am deeply committed to redoubling our efforts in USUN 
Geneva, which represents and advances critical U.S. interests 
at a wide range of technical and specialized agencies. These 
agencies focus attention on some of the world's most 
challenging issues and in many cases those which demand a truly 
multilateral approach.
    For example, at the World Health Organization efforts to 
continue eradicate polio and prevent the spread of other deadly 
diseases. At the International Telecommunications Union, 
governments and the private sector come together in an effort 
to improve international telecommunications networks and 
services. The Office for the Coordination of Humanitarian 
Affairs assists with the coordination and mobilization of 
effective humanitarian action in some of the most difficult and 
dangerous conflict zones. The World Intellectual Property 
Organization works around the globe to build and maintain an 
effective system for the protection and enforcement of 
intellectual property rights, on which countless U.S. business 
and individuals depend.
    Taken as a whole, the breadth of work across so many 
different areas by the U.S. mission and its diplomats is truly 
staggering. Having grown up in Hawaii, the multinational 
melting pot of the Pacific, I have learned how to build 
relationships across cultures, and should I be confirmed, I 
look forward to building bridges with leaders from many 
different countries and working together to make the world a 
better place.
    I will bring to my new role the cumulative skills, 
interests, and experiences that I believe will serve me well as 
I lead this unique mission. A strong interest in the energy 
sector and clean energy solutions led me to the engineering 
program at Stanford University and subsequent experience in the 
private sector working on hydroelectric power systems. I took 
from that period of my life valuable lessons, not just about 
the complexity and potential of energy innovation, but also 
about the importance of international cooperation on energy and 
environmental issues, lessons that I expect to prove relevant 
in my interactions with organizations like the World 
Meteorological Organization and the Intergovernmental Panel on 
Climate Change.
    I also bring to this important position an understanding of 
one of America's most vibrant and internationally influential 
economic sectors, telecommunications. Having worked in telecomm 
development for a number of years, I am keenly attuned not just 
to the industry's dramatic expansion and evolution over the 
past 25 years, but also to the need to employ relevant 
international organizations such as the International 
Telecommunication Union to promote and protect an American 
vision of that sector as an engine for growth and innovation.
    Most importantly, throughout my career I have seen 
firsthand the critical importance of effective management and 
the efficient use of resources. My time working in the banking 
and finance sector cemented in my mind the crucial nature of 
active oversight, accountability for resources, and responsible 
and transparent reporting. I know that all the members of this 
committee share that view that U.S. taxpayer dollars sent to 
U.N. agencies, whether in Geneva or elsewhere, must be employed 
wisely, accounted for carefully, and must directly contribute 
to advancing U.S. goals and priorities at these various 
agencies.
    If confirmed, I look forward to working closely with this 
committee to advance those priorities and to furthering our 
national interests at the U.N. agencies and international 
organizations in Geneva. Thank you for your consideration.
    [The prepared statement of Ms. Hamamoto follows:]

                Prepared Statement of Pamela K. Hamamoto

    Chairman Boxer, Ranking Member Paul, and members of the committee, 
thank you for the opportunity to appear before you today as President 
Obama's nominee to be the Representative of the United States of 
America to the United Nations and Other International Organizations in 
Geneva. It is an honor to be here and I am grateful to President Obama 
for his confidence in nominating me for this important position and for 
the opportunity to serve my country and to advance U.S. national 
interest in Geneva.
    With me here today is my husband, Kurt Kaull, my brother, David 
Hamamoto, and my sister-in-law, Marty Hamamoto, who I would also like 
to thank for their support.
    I firmly believe that America is best represented at the U.N. and 
in the multilateral arena when we are at the table, sleeves rolled up 
and leading. If confirmed, I am absolutely determined to continue to 
strengthen the President's efforts in Geneva to advance our Nation's 
objectives and be in the strongest possible position to support our 
friends.
    I am deeply committed to redoubling our efforts in USUN Geneva 
which represents and advances critical U.S. interests at a wide range 
of technical and specialized agencies. These agencies focus attention 
on some of the world's most challenging issues, and in many cases, 
those which demand a truly multilateral approach. For example, at the 
World Health Organization (WHO) efforts continue to eradicate polio and 
prevent the spread of other deadly diseases. At the International 
Telecommunication Union (ITU) governments and the private sector come 
together in an effort to improve international telecommunications 
networks and services. The Office for the Coordination of Humanitarian 
Affairs (OCHA) assists with the coordination and mobilization of 
effective humanitarian action in some of the most difficult and 
dangerous conflict zones. The World Intellectual Property Organization 
(WIPO) works around the globe to build and maintain an effective system 
for the protection and enforcement of intellectual property rights, on 
which countless U.S. businesses and individuals depend. Taken as a 
whole, the breadth of work across so many different areas by the U.S. 
mission and its diplomats is truly staggering.
    Having grown up in Hawaii, the multinational ``melting pot'' of the 
Pacific, I've learned how to build relationships across cultures, and 
should I be confirmed, I look forward to building bridges with leaders 
from many different countries, and working together to make the world a 
better place.
    I will bring to my new role the cumulative skills, interests, and 
experiences that I believe will serve me well as I lead this unique 
mission. A strong interest in the energy sector and clean energy 
solutions led me to the engineering program at Stanford University and 
subsequent experience in the private sector working on hydroelectric 
power systems. I took from that period in my life valuable lessons not 
just about the complexity and potential of energy innovation, but also 
about the importance of international cooperation on energy and 
environmental issues--lessons that I expect to prove relevant in my 
interactions with organizations like the World Meteorological 
Organization and the Intergovernmental Panel on Climate Change.
    I will also bring to this important position an understanding of 
one of America's most vibrant and internationally influential economic 
sectors--telecommunications. Having worked in telecomm development for 
a number of years, I am keenly attuned not just to the industry's 
dramatic expansion and evolution over the last 25 years, but also to 
the need to employ relevant international organizations such as the 
International Telecommunication Union to promote and protect an 
American vision of that sector as an engine for growth and innovation.
    Most importantly, throughout my career I have seen firsthand the 
critical importance of effective management and the efficient use of 
resources. My time working in the banking and finance sector cemented 
in my mind the crucial nature of active oversight, accountability for 
resources, and responsible and transparent reporting. I know that all 
the members of this committee share the view that U.S. taxpayer dollars 
sent to U.N. agencies, whether in Geneva or elsewhere, must be employed 
wisely, accounted for carefully, and must directly contribute to 
advancing U.S. goals and priorities at these various agencies.
    If confirmed, I look forward to working closely with this committee 
to advance those priorities and to furthering our national interests at 
the U.N. agencies and international organizations in Geneva.
    Thank you for your consideration of my nomination, and I will be 
happy to answer your questions.

    Senator Boxer. Thank you very much. Thank you.
    The way we are going to do this, Senator McCain, Senator 
Rubio has graciously said that you can be the first Republican 
to question. So I will question, then I will turn to you, and 
then we will turn to Senator Rubio, unless there is a Democrat 
who arrives. Is that all right with everybody?
    Senator McCain. I am very appreciative of Senator Rubio's 
deference to his seniors. [Laughter.]
    Senator Boxer. OK, good. I feel the same way.
    First let me just say, thank you all for your comments.
    What I would like you to do when we ask the question, try 
to be succinct so we can get down the line to all of you. But 
each of us will have 7 minutes, so we can start my time now.
    I will start with Mr. Malinowski. As you know, Vladimir 
Putin has presided over a severe crackdown on human rights in 
Russia. Laws have been passed that restrict public gatherings, 
prohibit foreign funding for Russian civil society 
organizations, and they threaten those who disagree with the 
government with espionage or treason. Laws have been passed 
that severely restrict the rights of LGBT persons in Russia.
    So my question to you is, What can the United States do to 
advocate? What is the most effective way for us to advocate on 
behalf of LGBT individuals and all other Russians who suffer 
under Putin's oppressive government? And will you work to 
ensure that human rights are always a consistent part of 
bilateral discussions between the United States and Russia?
    Mr. Malinowski. Thank you so much for giving me an 
opportunity to address that, because it will be one of my main 
priorities if I am confirmed, Senator Boxer. I spent the last 
dozen years working for an organization that has an office in 
Russia and that has been subject to some of the restrictions 
and harassment that you mentioned. And we have had it easier 
than the Russian activists, who face the potential of prison 
for merely advocating the values that we share, I believe, with 
the vast majority of the Russian people.
    The antigay laws I find extremely troubling, as does 
President Obama, who as you know has spoken out publicly about 
them. I think it is important for the Russian Government to 
know that the eyes of the world are going to be upon them 
during the Sochi Olympics. There will certainly be people, 
athletes, spectators, who come to those games concerned about 
this and who will make their voices heard. And how Russia 
reacts is going to determine the success of those games and how 
the international community views the Russia for a long time to 
come.
    With respect to the range of other problems, we need to 
consistently raise these issues publicly and privately with the 
Russian Government, as the Obama administration has been doing. 
As many of you know, I have also been a very strong supporter 
of the Magnitsky law, which targets the folks responsible for 
the worst human rights abuses in Russia. I think that law very 
much aligns us with the Russian people in terms of their 
concern about the nexus between corruption and abuse of power 
in their country. If you ask about the most effective way to 
address those problems, I think that is the most effective way.
    Senator Boxer. Thank you very much.
    Mr. Harper, I really appreciated your comments as far as 
our standing by our ally Israel, because it is very disturbing 
that the Human Rights Council in the 22nd session--there were 
six resolutions that targeted Israel. So I was very pleased 
that you mentioned that in your opening remarks.
    The Human Rights Council really remains a contradiction. It 
is tasked with strengthening the promotion and protection of 
human rights, but some of its members are some of the worst 
human rights abusers. For example, Venezuela and Ecuador, two 
countries who regularly repress freedom of speech and the work 
of civil society organizations, are both members. In Uganda 
consensual same-sex sexual relations are illegal and punishable 
by up to life in prison. Still, Uganda is a member of the Human 
Rights Council. So you are going to be hanging out with some 
folks you do not agree with.
    The credibility of this organization is at stake. I think 
you bring to this--just your life story and the way you and 
those before you had to fight for recognition and for respect, 
I think that is going to help you. So I would ask you, how are 
you going to deal with this dynamic of having a council that is 
supposed to stand for human rights, but yet members who do not 
practice human rights? Give us an insight? This is a difficult 
job and I do not know how you are going to answer it, but I am 
going to give you this gem.
    Mr. Harper. Thank you, Madam Chair. I appreciate the 
opportunity to address this question. I could not agree more 
that this is a continuing challenge of the Human Rights 
Council. You have a series of bad actors. We can add to the 
list prior council members like Cuba, China, and others who 
have terrible human rights records, yet they are elected on the 
council.
    What I would suggest is that it is hard work, but working 
behind the scenes we have actually been able to address this to 
a certain degree. There were attempts by Syria, Iran, Sudan, 
Nicaragua to get on the council, and through working behind 
back channels and incentivizing other states with better human 
rights records to run those folks did not make it onto the 
council.
    So it is an iterative process. It is a continuing process. 
It is one that I will assure you I will make a key priority of 
mine in getting better actors.
    The other thing that we can do is we can disempower by 
having greater U.S. engagement with those bad actors. Let me 
give you an example. Many of these countries, like Cuba for 
example and China and Russia, they do not like the idea of 
country-specific resolutions, calling out a specific country 
and saying the bad acts are going on there. Despite their 
opposition, we have been able to have special rapporteurs in 
Iran, Eritrea, Belarus, Burma. We have been able the have 
commissions of inquiry in North Korea, in Syria, in Libya.
    So despite their opposition, we have been able to, with 
U.S. leadership, working with a wide variety of partners, been 
able to establish these important mandate holders.
    So what I would suggest is that by disempowering those 
individuals, by building bridges to other countries, we can 
slowly but surely over time have a better Human Rights Council, 
one that would better live up to its mandate.
    Senator Boxer. Well, thank you very much.
    I have questions for the remaining two panelists, but I 
will defer until I get the time back and call on Senator 
McCain.
    Senator McCain. Please go ahead, Madam Chairman.
    Senator Boxer. No, no, I'm fine. I am very interested in 
hearing from you and Senator Rubio, and then I will ask the 
rest of my questions. Go ahead, please.
    Senator McCain. Well, thank you.
    Mr. Malinowski, would you agree that, regardless of whether 
Assad fulfills his pledge to give up his chemical weapons, he 
will continue to kill men, women, and children by the tens of 
thousands with conventional weapons?
    Mr. Malinowski. I wish I could disagree. I fear that that 
is likely for the time being. If the chemical weapons accord is 
backed by a Security Council resolution and implemented, I do 
see it as a step forward. To take chemical weapons off the 
table is a good thing for the people who you and I have met in 
Syria.
    But it does not solve the vast majority of our problems in 
that country. It does not stop the killing by bombs, rockets, 
and artillery. It does not ease the suffering of Syrians who 
are living without food or medicine. It does not ease the 
burden on neighboring states of 2 million-plus and growing 
refugees. It does not deal with the opportunity that al-Qaeda 
and other jihadi groups have to exploit this horrible, cruel 
situation to advance their interests.
    So there is a lot more that we have to do, from providing 
support to the moderate opposition, which is, as we 
increasingly see, virtually at war with al-Qaeda in Syria, to 
interdict the flow of arms to the regime, to pursue a 
negotiated settlement, and to maintain--as President Obama has 
committed to do--the credible threat of the use of force. That 
is the only reason we got the chemical weapons accord and it 
does need to remain on the table with, I hope, the support of 
the U.S. Congress.
    Senator McCain. Thank you.
    Mr. Harper, I was involved as chairman of the Indian 
Affairs Committee with the Cobell issue, one of the largest 
long-running class action suits against the government in 
history. In that case, representatives of several Native 
American tribes alleged that the government failed to correctly 
account for income from certain Indian trust assets, which is 
true.
    You served as a principal attorney for the plaintiffs in 
that case, is that correct?
    Mr. Harper. Yes, Your Honor--yes, Senator McCain. Sorry.
    Senator McCain. In that context, you coordinated with the 
class counsel, is that correct?
    Mr. Harper. I worked with other--I was one of a series of 
class counsel, yes.
    Senator McCain. In 2011 four Native Americans attempted to 
challenge in Federal court the settlement that Congress 
approved totaling $3.4 billion; $100 million of that funding 
was set aside to cover plaintiffs' attorney fees. This resulted 
in delaying the disbursement of these funds for about 6 months.
    In connection with that delay, the class counsel, your 
associate, sent a letter to 500,000 of his Native American 
clients blaming these four individuals for the delay in 
payments; is that correct?
    Mr. Harper. We had a cocounsel that did prepare a letter 
and published a letter without my prior knowledge.
    Senator McCain. Is it true that this mass mailer included 
the names, mailing address, and telephone numbers of each of 
these four individuals and encouraged plaintiffs to contact the 
four litigants?
    Mr. Harper. It was----
    Senator McCain. I have a copy of the letter. I will submit 
it for the record.
    Mr. Harper [continuing]. It was called an ``Ask Eloise 
letter,'' Senator McCain. And yes, it did identify those 
individuals and their contact information.
    I will say that when we learned of the letter our firm had 
discussions with our cocounsel to pull the letter off the web.
    Senator McCain. So everything's OK?
    Mr. Harper. No.
    Senator McCain. Well, your cocounsel refused to respond to 
any media requests, said he would not answer any questions 
about it, nor would you at the time.
    Mr. Harper. At the time we were in active litigation, 
Senator.
    Senator McCain. So you could not answer for a letter that 
mentioned people's names, address, and phone numbers, 
encouraging people to call and harass them?
    Mr. Harper. I would say, Senator, that the letter was a bad 
idea at the time and I continue to think it was a bad idea.
    Senator McCain. And you knew nothing about it?
    Mr. Harper. Not prior to its publication, I did not.
    Senator McCain. You should have known. He was your class 
counsel.
    Mr. Harper. I agree that I should have known. I should have 
been informed, but I was not informed.
    Senator McCain. So the dog ate your homework, is that it? 
Look, this was a terrible thing to do and you would not even 
respond to media requests asking for comment about it.
    Why not?
    Mr. Harper. The reason I did not respond to media requests, 
Senator, is because my views were dramatically different than 
what was contained in that letter and----
    Senator McCain. Well, that means you cannot respond to the 
media about a letter that clearly calls for harassment? You are 
talking about human rights here. I think these four people's 
human rights were abused. Would you agree?
    Mr. Harper. Senator, I think that the letter was ill-
advised.
    Senator McCain. Would you agree that their human rights, 
their rights as citizens, were abused?
    Mr. Harper. Well, the problem with the letter is that their 
information was already in the public sphere, but we should not 
have actively engaged, nobody involved in the case should have 
actively engaged in putting that information out there.
    I did not participate in that. I have colleagues--and 
nobody in my firm to my understanding participated in that. We 
did not have any control over----
    Senator McCain. So it was just done by one person in your 
firm who was a class counsel, you did not know anything about 
it, nor did anybody? He just initiated it on his own?
    Mr. Harper. That is correct.
    Senator McCain. I do not believe it. I do not believe it.
    Mr. Harper. Senator, I will guarantee you we were surprised 
when this hit the press, because we were unaware of it prior to 
that time. And my colleagues and my firm will advise you of the 
same thing. We were unaware of it.
    Senator McCain. This guy just woke up one morning and 
decided to send a letter out to 500,000 of your clients--
500,000 of your clients, saying: Call these people because they 
are holding up your settlement.
    The letter is really remarkable. Madam Chairman, I would be 
glad to quote from it: ``Who is appealing and why are they 
appealing? Your payments are being held up by four persons.'' 
It went on to name the four people. ``Their reasons vary 
slightly, but they're the same one fundamental point. At 
bottom, each believes that you are not entitled to the relief 
nor the payment of your trust funds that has been provided in 
the settlement.''
    That is one of the more provocative letters I have ever 
seen, identifying people with addresses and their phone 
numbers. And you did not know anything about it and nobody knew 
anything about it? This guy just got up one morning and sent a 
letter under the letterhead of your firm saying that that was 
the case, huh?
    Mr. Harper. Senator, to correct the record, it was not 
under the letterhead of our firm. He is not associated with our 
firm. We work as class counsel on the same litigation, but he 
was lead counsel. He controlled this entire publication 
process. He did not send the letter out; he published the 
letter. We did not have prior knowledge of it.
    Senator McCain. You have never responded to any questions 
from the media since then, correct?
    Mr. Harper. I was asked by one media source, as I recall, 
about the letter. I thought at the time that what was important 
is that if you showed dissension among the litigation team that 
was not in the best interests of the clients.
    Senator McCain. So do not respond to questions about a 
letter of this nature because it might disturb relationships 
within the litigants?
    Mr. Harper. Senator, we did respond by working with our 
class counsel, and asked him to remove the letter, and he did 
remove the letter from the Web site.
    Senator McCain. After it was received by 500,000 people.
    Mr. Harper. Senator, if I could just clarify. It was not 
sent out. It was just merely published on the Web site. And we 
asked him to take it down and he did after some time take that 
down.
    Senator McCain. I thank the chairman.
    Mr. Harper, I have questions about the attorney's fees and 
the fees that you got and the relationships between your firm 
and individual tribes. Right now, Mr. Harper, I cannot support 
your nomination.
    Senator Boxer. I just want to follow up because I was a 
little bit blind-sided by this, which is fine. You are an 
attorney.
    Mr. Harper. Yes.
    Senator Boxer. You represented the Native American 
community in one of the biggest social justice cases in the 
history of the Native American community, is that correct?
    Mr. Harper. That is correct.
    Senator Boxer. What were you able to achieve? Put aside 
this problem, which I agree with the Senator is a problem. Tell 
us about this case and about the justice that was delivered to 
the Native Americans?
    Mr. Harper. Thank you, Madam Chair. Yes, the Cobell 
litigation involved 500,000 individual Indians. I worked on the 
case for 16 years since its inception. We represented this 
class because of mismanagement of trust funds through the 
Department of Interior.
    We were ultimately able to achieve the largest settlement, 
as we understand it, against the United States, $3.4 billion, 
which was supported unanimously in this body and to a 
substantial majority in the House. So after many years of 
litigation, we were able to obtain this settlement, and justice 
for 500,000 individual Indians, and we are in the distribution 
process.
    Senator Boxer. Well, congratulations on that victory, which 
we eventually helped make a reality, which was a big brouhaha 
around here.
    Now, how many attorneys worked on this case, sir?
    Mr. Harper. There were upward of 10 at any given time.
    Senator Boxer. Did you get paid on a contingency fee? In 
other words, you worked for 16 years. Did you get payments 
through all that period or your payments came after the 
victory?
    Mr. Harper. The payments came on the contingent fee at the 
end. There were some fee awards by the court from the 
defendants in between, but they were only small parts of the 
overall case.
    Senator Boxer. I got it.
    Mr. Harper. Most of the fees were at the end.
    Senator Boxer. Now, this letter, which I have not seen but 
is going to be in the record here, that Senator McCain talks 
about, did you sign the letter?
    Mr. Harper. No, I did not.
    Senator Boxer. Did you know about the letter?
    Mr. Harper. I did not know about it until after its 
publication.
    Senator Boxer. When you knew about it and you saw it, what 
did you do?
    Mr. Harper. We, my colleagues at the Kilpatrick law firm, 
got together. None of us, as I recall, knew about the letter 
prior to its publication. I think we all disagreed with the 
approach, and we asked that--well, one of my colleagues asked 
that the letter be withdrawn. I think over a certain amount of 
days it was ultimately withdrawn from the Web site.
    Senator Boxer. OK. And you disagreed with this letter?
    Mr. Harper. Absolutely.
    Senator Boxer. And you thought it was a bad idea?
    Mr. Harper. I think it was absolutely a bad idea.
    Senator Boxer. And you helped get it down off the web?
    Mr. Harper. I did not have direct talks, but it was through 
our firm.
    Senator Boxer. And it was a different firm that signed the 
letter, the lead counsel?
    Mr. Harper. The individual that signed the letter was a 
solo practitioner that worked with our firm, but was separate 
from our firm.
    Senator Boxer. He was not part of your firm.
    Mr. Harper. He was not part of our firm.
    Senator Boxer. You did not know about this letter? You did 
not approve this letter?
    Mr. Harper. I did not approve the letter.
    Senator Boxer. When you found out about it, you did not 
think it was the right thing to do?
    Mr. Harper. Absolutely, I did not think it was the right 
thing.
    Senator Boxer. The reason you did not talk to the press is 
because there was ongoing litigation and you did not want to 
make a comment in the middle of this?
    Mr. Harper. In ongoing litigation, Madam Chair, the 
important thing is to focus on what is in the best interests of 
your client. And to show dissension among the legal ranks would 
not have been in the best interests of our client.
    Senator Boxer. I understand.
    Is it true that there was a limit on the amount you could 
receive percentagewise on this case?
    Mr. Harper. There was an agreement not to appeal awards 
between 50 and 99 million on fees, and the court awarded at the 
highest end of that.
    Senator Boxer. Well, I am really sorry that you faced these 
questions, because in my opinion you were not involved in this 
letter. And you get paid for your work, like most people in the 
private sector get paid for their work. You also were involved 
in a case that was historic in terms of its benefits to the 
Native American community that I represent so proudly in our 
State, because we have so many Native Americans in our State, 
many of whom struggled, got shorted, did not get the respect 
they deserved.
    So I am sorry that you were subjected to these types of 
questions. It is Senator McCain's total right to do that, and I 
hope that we can work together to persuade him that he should 
not hold up your nomination, because, frankly, I think your 
presence in this position is going to be very helpful to our 
country.
    I call on Senator Rubio.
    Senator Rubio. Thank you.
    Mr. Malinowski, I wanted to talk to you about what I am 
increasingly concerned is an emerging very serious human rights 
crisis around the world that involves religious liberty. It 
goes beyond religious liberties. There is this article here 
from the 22nd of this month, National Post, Matthew Fisher: 
``It's open season on Christians in Syria and across the Muslim 
world.'' It talks about 78 Christians were slaughtered Sunday 
by twin suicide bombers at a church.
    Less than 24 hours earlier, a gang of Islamic militants 
from somalia murdered at least 68 workers, including two 
Canadians, at a mall in Kenya, where they allegedly shouted for 
Muslims to get out of the way so they could specifically kill 
Christians. Coptic Christians in Egypt, as we know, are facing 
struggles. Same thing in Syria.
    So I ask that in the context of just in general this is an 
emerging crisis around the world. Then in particular these 
blasphemy laws that we see taking root in some countries. In 
Pakistan, for example, according to media reports, 17 people 
are on death row for having been convicted in blasphemy laws. 
Another 20 are serving life sentences.
    So I want to get your take in general on how you intend and 
the administration intends to use our platform in the world to 
call increasing attention to this, not just applied to 
Christians. We know that other religious minorities face these 
struggles around the world.
    In particular, we have a provision in the law, this 
designation of a country of particular concern. The last time 
the administration did that was in August 2011. And while that 
designation is permanent once it is given, the sanctions that 
are tied to that designation expire after 2 years.
    So the second part of my question is, I am hoping we can 
get you to commit to work with the Ambassador at Large for 
International Religious Freedom to annually issue these 
designations and renew those sanctions.
    Mr. Malinowski. Thank you so much, Senator Rubio. We could 
spend the whole hearing talking about the issue that you just 
raised, and of course we do not have time to focus on each 
individual case. But you are absolutely right, it is a trend. I 
think it is a trend because we have a region that is in turmoil 
and in times of turmoil, the forces of destruction--people who 
are out for themselves and their own power--often take 
advantage of sectarian mistrust, religious mistrust, to advance 
their ends. We have seen this in a number of countries that are 
emerging from the Arab Spring, and across South Asia and the 
Horn of Africa.
    It will absolutely be a priority for me. I can give you 
that promise, whether it is responding to the horrible attack 
in Pakistan that we just saw in the last couple of days, 
whether it is, in the midst of everything else happening in 
Egypt, making sure that we convey to the Egyptian Government 
that it has to protect the Copts from the violence that has 
been unleashed against them, whether it is challenging the 
blasphemy laws, as you mentioned, in Pakistan. My understanding 
is the State Department has raised repeatedly the need to avoid 
abuse of the blasphemy laws, and I will certainly make that a 
priority in my engagement with the government of Pakistan if I 
am confirmed.
    With respect to the CPC designations, that is something 
again I am going to have to look at if I have a chance to go 
in. But I certainly agree that designations need to be made as 
part of a dynamic process. We do need to be looking at it, 
maybe not even every year, but on a real-time basis as the need 
arises. And the designation should carry with it some 
consequence.
    Senator Rubio. Just not to belabor the point, but the 
blasphemy laws being abused, I think having these laws alone 
would be an abuse. They are impossible to have, laws like that. 
They are used for purposes of retribution, personal vendettas, 
and everything beyond that.
    And by the way, it is not just countries that are involved 
in the Arab Spring. We see it, they exist in Saudi Arabia, they 
exist. And then we have seen this attack on religious liberties 
on every continent. But we see it in Africa. We have had 
hearings here, we have brought that up. We have seen it in 
Asian countries as well.
    So we are deeply concerned about that, and I hope that 
becomes a human rights priority for this administration and for 
all of us. I think it is something we should raise as a 
priority.
    I did want to ask you briefly. Thursday is going to mark 
the 1-year anniversary of American citizen Saeed Abedini's 
imprisonment by Iranian authorities. With the announcement 
today that Secretary Kerry will be discussing other issues with 
the Iranians, I hope that issue will become a linchpin of those 
conversations. This is a particularly egregious case and I hope 
that we can count on you to be a voice as well with regards to 
those abuses.
    I do not want my time to run up. I have a couple of other 
questions.
    Ms. Nix-Hines, I wanted to ask you, pretty straightforward: 
Do you support reestablishing U.S. funding for UNESCO without 
first an overturning of the recognition of the Palestinian 
Authority as a member?
    Ms. Nix-Hines. Thank you, Senator Rubio. I would like to 
respond to that question as well as talk to you a little bit 
about the religious persecution issue as well since that is 
something that is a priority for UNESCO as well.
    But first to your question, the administration does support 
a waiver, getting a national interest waiver in order to permit 
the United States to continue funding UNESCO. I guess because I 
am a lawyer, I look at things in terms of a balancing test. 
When you really look at it and you look at all the equities in 
favor of continued engagement with UNESCO as a full partner, it 
tips decisively in favor of continued engagement, when you look 
at all of our commercial interests in terms of World Heritage, 
when you look at the importance of the U.S. Government really 
being involved in a leadership capacity in terms of education 
and promoting conflict resolution and tolerance, the great 
leadership that we have been able to play in the International 
Oceanographic Commission in terms of early warning systems for 
tsunamis and coastal erosion, it is absolutely essential that 
the U.S. Government continues to be at the table as a full 
partner, where we can support our allies, including Israel, and 
that we can continue to help frame the global agenda.
    Senator Rubio. I think you have answered my question. You 
support the administration's position on the waiver.
    Mr. Harper, I wanted to ask you. The question has already 
been asked about the Rights Council, the fact that several 
notorious human rights abusers are members, perennially run for 
seats on the council. You have already been asked about the 19 
Human Rights Council special sessions that have focused on the 
alleged Israeli human rights violations, which I personally 
believe is a disproportionate focus on Israel.
    I think all of these things call the U.N. Human Rights 
Council's credibility into question. But I wanted to ask you 
very specifically, should Congress condition U.S. contributions 
to the United Nations on certification that no U.N. agency or 
affiliated agencies grant any official status, accreditation, 
or recognition to any organization which promotes or condones 
anti-Semitism?
    Mr. Harper. Senator, I have thought long and hard about 
that question. It is a difficult question because whenever you 
make membership contingent on a particular issue, then that 
becomes something in which our enemies can actually cause our 
disengagement. I think what we have shown in the last few years 
on the Human Rights Council is that our engagement is helpful.
    You brought up the special sessions regarding Israel. Prior 
to U.S. engagement, there were five special sessions on Israel. 
Since we have joined the council there has only been one 
special session and it occurred after we have joined it. There 
has not been one since.
    So U.S. leadership on these questions, United States 
leadership, American leadership, has mattered and it has caused 
us to be able to defend Israel in a far better way than if we 
were not on the council. So we are able to address anti-
Semitism better, we are able to address attacks on Israel 
better, the bias against Israel, as you rightly point out, in a 
much more comprehensive and effective way if we are on the 
council.
    Senator Rubio. Well, again, it is not just against Israel. 
What I pointed to was, you are right about U.S. engagement 
having an influence, but U.S. money also has influence. I just 
would ask you to consider, since you said it is an issue you 
need to think about some more, why the United States should 
even be funding agencies or organizations that recognize 
entities that espouse anti-Semitism, which goes beyond being 
anti-Israel.
    I have one more quick question. I know I am a minute over 
time, but it also involves Mr. Harper. Well, it involves the 
Human Rights Council. On July 22nd is the first anniversary of 
the death of Mr. Oswaldo Paya Sardinas. He was killed in a car 
crash in Cuba. This issue came up at the council, I believe 
last week. Cuba tried to block his testimony--the testimony of 
his widow; I apologize--backed by China.
    The United States stood up and actually spoke in favor of 
her being allowed to continue to testify, and that is 
important. As a result, on September 10 the organization U.N. 
Watch has presented a petition at the U.N. Human Rights Council 
calling for an international and independent investigation into 
the alleged murder of Mr. Paya.
    So if confirmed, what steps would you take to support the 
establishment of a commission of inquiry based on this 
petition, and what steps would you take to raise international 
attention at the council about Cuba's poor human rights record 
in general?
    Mr. Harper. Thank you, Senator. I could not agree more that 
Cuba continues to have one of the worst human rights records. 
My understanding is that there have been numerous occasions 
when our representatives in Geneva have raised this issue on 
the council. I will be an advocate to raising these issues to a 
greater degree at the council in a number of different forums.
    Let me give you a couple of examples. Under item four of 
the council agenda, we can give statements that outline 
specific wrongdoers and the actions that they have taken. With 
respect to Mr. Paya, I would agree that we should have a U.N. 
body look into it in greater detail.
    Senator Rubio. Do you agree with the petition asking for 
the establishment of a commission of inquiry?
    Mr. Harper. Well, I would have to look specifically at what 
the best mechanism is, but on the principle of whether or not 
we should look into it in greater detail, I completely agree 
with you.
    Senator Boxer. Thank you, Senator Rubio.
    Ms. Nix-Hines, UNESCO is committed to the realization of 
everyone's right to an education, and this is very significant, 
especially for women and girls around the world. Last week I 
was proud that this committee unanimously approved a bill I 
wrote with Senator Landrieu named after a young Pakistani 
heroine Malala. We all know Malala.
    The bill pays tribute to her vision by saying that the 
United States must be committed as we give funding for 
scholarships to make sure that 50 percent of those scholarships 
in Pakistan are awarded to women. It just shows you the depth 
of the concern of this committee as far as the way women and 
girls are being treated.
    So if confirmed, will you fight to ensure that gender 
equality remains a top priority at UNESCO, and will you also 
commit to fighting for equal educational opportunity for women 
and girls?
    Ms. Nix-Hines. Thank you, Chairman Boxer, and thank you for 
the great work that you're doing in this area.
    Senator Boxer. Thank you.
    Ms. Nix-Hines. As you know, 775 million adults are 
illiterate around the world. Two-thirds of them are women. Over 
57 million children are not going to school. In order for 
countries to advance to the next level, educating women and 
girls is absolutely essential.
    UNESCO is doing really great work in this area. It is the 
Secretariat for the Education for All initiative and it is 
playing an important role in working with local governments to 
design programs to increase educational opportunities for women 
and girls using mobile technologies so that they can really 
open up opportunities for women and girls, putting materials on 
the Internet so that others can have greater opportunity to 
have educational resources. It is absolutely one of my highest 
priorities.
    Senator Boxer. Good. Thank you.
    Ms. Hamamoto, I am very concerned, as we all are, about the 
humanitarian crisis in Syria. Today more than 2 million Syrians 
are refugees in neighboring countries. More than 5 million are 
displaced within Syria. I was very proud that today President 
Obama said he is providing an additional $333 million in 
humanitarian aid for those affected by this crisis. I sat down 
with the Ambassador from Jordan to the United States and she 
was eloquent and she tried to be calm about it, but the 
situation is just terrible for the neighboring countries right 
now.
    We do remain the largest contributor of humanitarian aid, 
providing nearly $1.4 billion to date. But it is clear that the 
international community must do more. According to Save the 
Children, nearly 4 million Syrians, including more than 2 
million children, are at risk of malnutrition and lack of 
critical food resources.
    How can the United States encourage other countries to 
continue to increase humanitarian aid to Syria, to ensure that 
innocent Syrians are not further victimized by this protracted 
conflict?
    Ms. Hamamoto. Thank you, Chairman Boxer. I agree the 
situation in Syria, with respect to the humanitarian crisis, is 
obviously very troubling and something that we are very, very 
focused on. The efforts that the U.S. mission has been making 
through Geneva have been focused on coordinating and supporting 
the relief efforts through a broad range of international 
organizations and U.N. agencies that have very specific 
technical expertise in the area of humanitarian aid and are 
making sure that our support, our financial support, is being 
used most effectively.
    We are engaging with other host governments and trying to 
really increase their level of involvement, their level of 
engagement, and of course financial support, so that we, as you 
mentioned, being the world's leading humanitarian donor, are 
doing it with broader support. We have had some success at 
doing that.
    Senator Boxer. Well, I am going to count on you to take it 
to these countries, because they all have things to say. You 
know, they all lament. Everyone laments it and we see the 
refugees and the displaced people and the children and the 
suffering. And some of these countries are just paying an 
enormous price. The stability of their own nations are at 
stake.
    So I think it is important to take it to--the United States 
cannot do everything. We cannot do everything.
    Ms. Hamamoto. Absolutely.
    Senator Boxer. We may not even be able to pass a budget. 
No, we should pass a budget and we will pass a budget. But the 
point I am making is we certainly cannot do everything.
    So you need to take it to these countries. You need to be 
unequivocal and say: ``You cannot voice all these emotions 
about what is happening and not come with a check, you cannot. 
It disqualifies you.'' I mean, period, end of quote. Whatever 
they have to do, they have to do it.
    So I think you are right, we are starting to do more, but 
we have to do better. I know that you will take it to them and 
I think that is very key.
    Look, I want to thank everybody here. I want to thank my 
colleagues who have come and gone. We have had a couple of 
difficult questions and challenges to you. That is typical of 
what happens at these hearings, and I think it is better that 
we know where people are--what people are thinking and worried 
about at this stage, rather than we do not find out about it 
until we get you down to the floor.
    So we are going to keep the record open and I am going to 
ask some more questions, basically on a couple of issues that I 
think are obviously hanging over this hearing. It will give you 
a chance to answer them. I am just saying I think the best way 
to handle these questions is with total transparency and we can 
move past some of these issues that have been raised.
    I think on the issue of the waiver, clearly the 
administration has a position. It may not reflect the position 
of the Congress. To my knowledge, it has to be done through the 
Congress. Am I right on that? So you cannot deny that there are 
problems here on these issues. So you have to, I think, in 
addressing some of these issues where Congress has to act say 
it is going to be up to the Congress to make this decision at 
the end of the day as to what happens.
    For you in working in your private sector world, from what 
I know about it--and this is the first I have heard of it from 
your answers--I think you have a very good way to explain that 
this was something that was done that you disapproved of and 
the minute you learned of it you suggested it be taken down. So 
I think there are ways to answer these questions.
    But we will work with you, because I have to just say I am 
very proud of all of you. I think that you bring to these 
positions such depth in your own life stories and also your 
work that you have done, each and every one of you, whether it 
was in the private sector, the public sector, nonprofit world. 
I think you bring the right combination of skills.
    So I will be your advocate and we will work with you as we 
write some questions, and I hope to work with my colleagues on 
the other side of the aisle to make sure that their questions 
are also addressed. And I would urge you to respond as quickly 
as you can so we can get some of these answers into the record 
immediately.
    I just want to wish you the best of luck. I thank you. I 
want to thank your families for believing in you, for being 
here with you today. Families, you are signing up, too. I 
always say that when I meet people in the Foreign Service, in 
the diplomatic service, in the military service to this 
country: The family signs up, and without the family support I 
could not do what I do and you would not be able to do what you 
do. So to all of you, I wish you the best, and we will try to 
move these nominations quickly through the process.
    Thank you very much. We stand adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                              ----------                              


              Addition Material and Questions and Answers 
                        Submitted for the Record


       Responses of Tomasz P. Malinowski to Questions Submitted 
                       by Senator Robert Menendez

    Question. What are your expectations for the scheduled Presidential 
elections in Afghanistan in 2014? What can the United States Government 
do to ensure those elections are free and fair, and ensure a peaceful 
transition to power? I was a cosponsor of S. Res. 151 which passed the 
Senate by unanimous consent in July 2013. This resolution urged the 
Secretary of State to condition financial, logistical, and political 
support for Afghanistan's 2014 elections based on the implementation of 
reforms in Afghanistan including--

                  (A) increased efforts to encourage women's 
                participation in the electoral process, including 
                provisions to ensure their full access to and security 
                at polling stations;
                  (B) the implementation of measures to prevent 
                fraudulent registration and manipulation of the voting 
                or counting processes, including--
                          (i) establishment of processes to better 
                        control ballots;
                          (ii) vetting of and training for election 
                        officials; and
                          (iii) full accreditation of and access for 
                        international and domestic election observers; 
                        and
                  (C) prompt passage of legislation through the 
                Parliament of Afghanistan that codifies the authorities 
                and independence of the IEC and an independent and 
                impartial election complaints mechanism.

  <diamond> Can you please provide a status report on the 
        implementation of each of these reforms?

    Answer. I support the objectives outlined in S. Res. 151, and if 
confirmed, I would urge the Government of Afghanistan to take the steps 
called for in the resolution. As Secretary Kerry stated, ``Afghanistan 
will go far if the elections next year are free and fair.'' A peaceful 
political transition through such an electoral process is critical to 
Afghan stability and democratic development, as well as to sustaining 
international support for Afghanistan.
    Afghans have taken key steps toward holding democratic elections in 
April 2014. Voter registration and candidate registration are underway, 
two key electoral laws have been adopted that establishes the legal 
electoral framework and an independent Electoral Complaints Commission, 
elections commissioners and complaints commissioners have been 
appointed, and Afghan security ministries, in close coordination with 
the Afghan National Security Council, are working with the Independent 
Elections Commission (IEC) to prepare for the elections. Complementing 
their operational plan, the IEC established a Fraud Mitigation Strategy 
that includes fraud deterrence measures and fraud detection measures 
which are built on international best practices and lessons learned 
from previous Afghan elections.
    I understand that the Department of State and USAID are working 
closely with Afghan partners to implement measures to combat fraud and 
encourage broad participation, including a strong focus on promoting 
women's participation in the process as voters, candidates, campaign 
workers, and searchers. The Independent Election Commission's Gender 
Unit is engaging the Ministry of Interior to develop a plan for 
recruitment, training, and locating of female searchers around the 
country.
    I understand the United States is also encouraging Afghan 
authorities to uphold the right to freedom of expression, including for 
the independent media when reporting on electoral developments, to 
ensure a fair electoral process for election candidates, to allow for 
the operation of robust domestic and international election observation 
missions, to ensure the political independence of the election 
administrators, and to allow election disputes to be resolved 
transparently and fairly.
    The Tokyo Mutual Accountability Framework (TMAF) provided a set of 
benchmarks to be met by the Afghan Government, including the 
establishment of a comprehensive election timeline and an electoral 
legislative framework. If confirmed, I will continue to encourage the 
Afghan Government to continue implementation of the new laws and 
strengthen the electoral process, including where it affects women.
    If confirmed, I am committed to working with members of the SFRC 
Committee to support Afghan aspirations for free and fair elections in 
Afghanistan.

    Question. Post 2014, what is the U.S. Government doing now to curb 
the human rights abuses we know will come again from the Taliban and 
other extremist groups as the United States pulls out, especially those 
addressed against Afghan woman and girls, and human rights defenders?

    Answer. In July 2012, the international community and Afghanistan 
adopted the Tokyo Mutual Accountability Framework (TMAF), which 
outlined specific benchmarks and deliverables for the Afghan Government 
to meet--with a key focus on human rights and women's rights. Among 
other things, Afghanistan agreed under the Tokyo Framework ``to improve 
access to justice for all, in particular women, by ensuring that the 
Constitution and other fundamental laws are enforced expeditiously, 
fairly, and transparently; [and] ensure that women can fully enjoy 
their economic, social, civil, political and cultural rights.'' In 
addition, the Afghan Government committed to demonstrated 
implementation of both the Elimination of Violence Against Women (EVAW) 
law and the National Action Plan for Women (NAPWA). These commitments 
reflect the demands of ordinary Afghans--women and men--who want to 
make sure that they never again lose the rights that were stolen from 
them by the Taliban.
    If confirmed, I will press the Afghan Government to meet its 
commitments, including by enforcing laws designed to protect women's 
rights, resisting efforts to gut these laws, holding accountable those 
responsible for rape and domestic violence, and continuing to integrate 
women into the country's police forces while giving them the support 
and protection they need.
    I will also support funding for programs to strengthen women's role 
in Afghan society through and beyond 2014. The U.S. Embassy in Kabul 
adopted a ``gender strategy'' that highlights the need to mainstream 
gender issues into all of our policies and programs through the 
transition and transformation decade. The new ``PROMOTE'' project is a 
multiyear USAID program that aims to increase women's contributions to 
Afghanistan's development by strengthening women's rights groups, 
boosting female participation in the economy, increasing the number of 
women in decisionmaking positions within the Afghan Government and 
helping women gain business and management skills. The Bureau of 
Democracy, Human Rights, and Labor (DRL) supports programming that 
works with local community, tribal, and religious leaders to promote 
the rights of women. Other efforts include providing technology to 
women's rights groups to strengthen their monitoring and advocacy 
skills. Furthermore, as we prepare for the 2014 security transition, 
the United States is supporting the development of a professional and 
effective Afghan National Security Force, including training in human 
rights and encouraging remediation to prevent future abuses.
    Negotiations with the Taliban should not sacrifice the hard-won 
women's rights gains made in the last 12 years. President Obama and 
President Karzai reaffirmed their support for an Afghan-led peace 
process in January. The two Presidents also reiterated that any outcome 
of reconciliation must preserve the three redlines: the Taliban and 
other armed opposition groups must end violence, break ties with 
al-Qaeda, and accept Afghanistan's Constitution including its 
provisions that protect the rights of women and minorities. If 
confirmed, I will work to ensure human rights remain a top priority in 
our diplomatic relationship with Afghanistan and its people and 
assistance efforts.

    Question. With the pending drawdown in troops in Afghanistan, what 
are the implications for countries in Central Asia? We are witnessing 
increased repression of religious minorities and civil society. What 
specifically are the opportunities for advancing the protection of 
civil society, the press and religious minorities in the region?

    Answer. The drawdown of international troops from Afghanistan will 
not diminish America's interest in Central Asia. Respect for religious 
freedom and mutual respect of all religions make a society stronger, 
more stable, more prosperous, and more harmonious. These are universal 
values that also serve national and international interests of 
stability and security. As the security transition in Afghanistan 
unfolds, it will be all the more important to underscore to the leaders 
of Central Asia that respect for human rights and allowing their 
citizens to express dissent peacefully is essential to combating 
violent extremism and to their long-term stability and prosperity. If 
confirmed, I will urge governments in Central Asia to improve their 
respect for human rights and fundamental freedoms including those of 
assembly, association, speech, and religion, and will listen to and 
support civil society in the region.
    The United States has benefited from our partnership with Central 
Asian states, particularly their contributions to our common effort to 
promote stability in Afghanistan. That partnership serves the interests 
of our friends in the region and it can and should endure so long as 
these governments abide by international standards. At the same time, 
as President Obama said in his September 24 address to the U.N. General 
Assembly: ``We're far more likely to invest our energy in those 
countries that want to work with us, that invest in their people 
instead of a corrupt few; that embrace a vision of society where 
everyone can contribute--men and women, Shia or Sunni, Muslim, 
Christian, or Jew. Because from Europe to Asia, from Africa to the 
Americas, nations that have persevered on a democratic path have 
emerged more prosperous, more peaceful, and more invested in upholding 
our common security and our common humanity.''

    Question. We are seeing a growing trend in countries like Russia 
and Uganda to criminalize lesbian, gay, bisexual, and transgender 
persons, which is resulting in horrific acts of violence. How can the 
United States best combat this trend?

    Answer. Promoting and protecting the human rights of LGBT persons 
is a key foreign policy priority of the United States. I am very 
concerned about ongoing violence and official and societal 
discrimination against LGBT persons--particularly laws that criminalize 
consensual same sex conduct between adults or restrict the rights of 
LGBT persons and their supporters to freedom of expression, 
association, and peaceful assembly--in too many places around the 
world. I agree with administration officials, from President Obama to 
Secretary Kerry to ambassadors at embassies around the world, who have 
made clear that universal human rights apply to all persons, regardless 
of their sexual orientation or gender identity.
    Ensuring the protection of human rights for LGBT persons will 
require continued engagement on a variety of fronts. State Department 
personnel, in the Bureau of Democracy, Human Rights, and Labor (DRL), 
throughout the Department, and at posts around the world, regularly 
raise the human rights of LGBT persons in their bilateral 
conversations. If confirmed I will also work with like-minded partners 
in various multilateral fora to advance LGBT rights. These include the 
U.N. General Assembly, where, on the margins, Secretary Kerry will 
participate in the first-ever Ministerial event specific to the rights 
of LGBT persons, and the U.N. Human Rights Council, where the United 
States lobbied successfully on behalf of the first-ever U.N. resolution 
on the rights of LGBT persons in June 2011. I will also continue to 
strongly support assistance to organizations promoting and protecting 
the human rights of LGBT persons. Through the Global Equality Fund, the 
United States has provided to date more than $7 million to support 
civil society organizations working to advance the human rights of LGBT 
persons in more than 50 countries. As the U.S. Government continues to 
support this work, I will, if confirmed, work to ensure that we deepen 
our impact, respond effectively to emergent situations, and confront 
long-term challenges, including discriminatory legislation.

    Question. Over the course of many years, the UNGA Third Committee 
has 
adopted, by consensus, a human rights resolution on Burma. Considering 
allegations of ethnic cleansing of Rohingya, continued arrests, forced 
relocations, land confiscation, conflicts in Kachin and Shan State, and 
the attack on United Nations Special Rapporteur for Human Rights Tomas 
Quintana: Has the administration or our EU allies given thought to what 
will be included in this year's UNGA resolution? What are your views on 
the need for and potential content of such a resolution? Exercising 
diplomatic efforts, how will you, with our EU partners, make certain 
that the resolution accurately reflects the situation on the ground?

    Answer. I believe such a resolution should not only acknowledge the 
progress that Burma has made so far, but should also continue to 
address human rights problems and underscore the need for the 
government to make continued progress over the long term. When the 
United Nations human rights system last addressed the human rights 
situation in Burma at the Human Rights Council in March 2013, the 
resolution addressed the violence against the Rohingya, forced 
relocations, land confiscation, and the situation in Kachin State, as 
well as continued arrests of activists.
    If confirmed, I will work closely with the EU, which will likely 
sponsor the resolution again this year, to ensure that this year's 
resolution accurately reflects our concerns. If confirmed, I am also 
committed to working with the Government of Burma and other interested 
parties to achieve a resolution that can repeat the EU's achievement of 
a consensus resolution in 2012 that addressed serious human rights 
concerns.
    I also believe that the resolution should welcome the government's 
continuing efforts to improve the human rights situation in Burma and 
pursue political and economic reform as well as call for measures to 
address our continuing concerns, including the violence against Muslims 
in Rakhine State and other areas of Burma, the ongoing ethnic conflicts 
in Kachin and Shan States, as well as issues such as new arrests of 
activists and the need for continued legal reform, including reforms 
necessary to ensure that conditions are favorable for free and fair 
elections in 2015. If confirmed, I will work with the EU and other 
parties with the goal of achieving another resolution and do my best to 
see that the resolution reflects these concerns.

    Question. Amidst a crackdown against Tibetans, Uyghurs, human 
rights defenders, netizens, and others, the human rights situation in 
China and Tibet worsens. A September 18, 2013, Washington Post 
editorial said, ``Mr. Xi's turn to repression has gone almost entirely 
unremarked upon by the Obama administration, which has concentrated on 
cultivating relations with the new leader.'' Other than maintaining its 
annual bilateral human rights dialogue with the Government of China, 
what are the tangible measures that the U.S. Government could take to 
seek to improve the human rights situation in Tibetan areas of China in 
particular and China more broadly?

    Answer. I am deeply concerned about the ongoing crackdown against 
ethnic minority groups in China, including Tibetans, Uighurs, and 
Mongolians, as well as public interest lawyers, Internet activists, 
journalists, religious leaders, and others who question or challenge 
official policies and actions in China.
    Regarding Tibet, if confirmed, I will urge Chinese authorities to 
resume substantive dialogue with the Dalai Lama or his representatives, 
without preconditions, as the best means to alleviate tensions in 
Tibetan areas and resolve longstanding issues. I will also strengthen 
our engagement with likeminded partners around the world to coordinate 
and jointly pursue holding the Chinese Government to account for 
counterproductive policies in Tibetan areas which have led to a cycle 
of repression and over 120 Tibetan self-immolations since March 2011. 
If confirmed, I will seek to ensure that programming places a 
substantive emphasis on improving the capacity of grassroots civil 
society organizations in Tibetan areas to advocate for the protection 
of their unique cultural, linguistic, and religious identity. I will 
explore new avenues to engage directly with Tibetan and Chinese 
scholars on innovative policy prescriptions for ensuring that Tibetans 
feel that their voices are being heard and are able to enjoy the 
universal rights and fundamental freedoms, including the freedom to 
worship their religion freely, to which they are entitled under China's 
international human rights commitments.
    With regards to the situation in China more broadly, if confirmed, 
I will work to ensure that human rights remain a critical facet of the 
United States-China bilateral relationship. The U.S.-China Human Rights 
Dialogue (HRD) is an important part of an overall human rights 
strategy. It is not, however, a substitute for consistent high-level 
engagement from across the U.S. Government. If confirmed, I will make 
every effort to ensure that human rights continue to be raised in high 
profile dialogues such as the U.S.-China Strategic & Economic Dialogue 
and the U.S.-China Legal Experts Dialogue. I strongly believe that the 
promotion and protection of human rights in China is in our national 
interest and, as such, should be an integral part of every conversation 
we have with Chinese officials, including at the President's and 
Secretary's level. I will also look for opportunities to speak directly 
to the Chinese people, particularly through new innovative platforms 
online, and to listen to their views about these issues. I will urge 
Chinese officials to listen to the increasingly vocal grievances 
emerging from Chinese society on a range of issues--from environmental 
degradation and food safety to consumer protection and corruption--and 
use these concerns as an entry point to emphasize the important role 
the rule of law, free flow of information both online and offline, a 
robust civil society, and respect for religious and cultural 
differences can play in China's efforts to establish a sustainable 
development model and deal with a range of problems facing the country.

    Question. The Cuban Government has been engaged in an increasingly 
brutal crackdown on peaceful democracy activists on the island with 
more than 6,000 documented detentions and arrests. Much has been made 
of purported reforms in Cuba, yet the regime continues to detain and 
brutalize its own people. If confirmed, what concrete steps will you 
take to support these activists and civil society generally in Cuba?

    Answer. I believe that it is in our national interest to support 
the Cuban people's desire to determine their future freely. If 
confirmed, I would work to implement as effectively as possible U.S. 
policy of support for civil society, including programmatic efforts 
that advance human rights and fundamental freedoms, democratic 
principles, and a strong and independent civil society. The Bureau of 
Democracy, Human Rights, and Labor implements annual programming to 
support the efforts of activists on the island. These programs are 
similar to what the United States does around the world to promote 
democratic values, independent civil society, and human rights.
    I agree that the purported reforms that have occurred in Cuba have 
done little to end the oppression of the Cuban people. However, to the 
extent that they give us opportunities to enhance our support for human 
rights and democracy activists, we should take advantage of them. For 
example, following January changes to travel requirements for Cubans 
leaving the island, Department officials met with a number of Cubans 
who are working for positive change in Cuba, including bloggers and 
free Internet advocates such as Yoani Sanchez, Orlando Luis Pardo Lazo, 
and Eliecer Avila; Damas de Blanco spokeswoman Berta Soler; Christian 
Liberation Movement leader Rosa Maria Paya; human rights activists 
Guillermo ``Coco'' Farinas and Elizardo Sanchez; and multiple Afro-
Cuban activists including Manuel Cuesta Morua, although prominent 
activist Oscar Elias Biscet has been denied permission to travel. 
Similarly, Cuban Government policy changes that permitted activists 
access to cell phones and other electronic media have made it easier 
for us to support Cuban citizens working for freedom.
    If confirmed, I will also work to increase multilateral pressure on 
the Cuban Government, including by calling for an independent 
international investigation of Oswaldo Paya's death.

    Question. As Assistant Secretary, if confirmed, how will you 
attempt to create a broader dialogue in the Middle East regarding human 
rights, respect for religious minorities, and the need for an inclusive 
political dialogue? Please specifically address how you will further 
U.S. encouragement of political reform and respect for human rights in 
Bahrain and Egypt?

    Answer. It is in our national interest to see a Middle East and 
north Africa that is peaceful and prosperous; and we will continue to 
promote democracy, human rights, and inclusive economic growth, because 
we believe these practices achieve peace and prosperity.
    For example, in Egypt, a full return to inclusive democracy and 
civilian rule is vital to giving everyone in that increasingly 
polarized country a stake in nonviolent political participation. My 
understanding is that the administration has made clear its concerns 
about decisions made by the interim authorities that are inconsistent 
with this goal, including imposition of the emergency law, political 
arrests, and violent suppression of demonstrations. Likewise, the 
administration has been clear that the use of violence by nonstate 
actors must stop immediately. The President has said that we will 
continue support for Egypt in areas like education and assistance to 
independent civil society, but the delivery of certain military systems 
will depend upon Egypt's progress in pursuing a more democratic path. 
If confirmed, I will work with the U.S. mission in Egypt and our 
Egyptian partners on the ground to press for greater respect for 
freedoms of religion, expression, and media. Amplifying the voice of 
Egyptian civil society is one way to encourage lasting change in Egypt.
    A prosperous, stable, and secure Bahrain that remains a strong 
security partner depends on a political dialogue that leads to 
reconciliation and reform, as well as the protection of human rights 
and accountability. A robust policy must include continued direct and 
candid engagement with the government and civil society, support for 
Bahrain's national dialogue process and for civil society, opposition 
to violence and extremism by all sides, assistance policies that 
reinforce our message and avoid U.S. complicity in violations and 
abuses, and regional and international engagement. If I am confirmed, I 
intend to make Bahrain a top priority, and to work closely with the 
Congress to address these challenges.
                                 ______
                                 

          Responses of Keith M. Harper to Questions Submitted 
                       by Senator Robert Menendez

    Question. In March 2012, the U.N. Human Rights Council adopted a 
resolution on Sri Lanka, which demonstrated strong international 
support for accountability for abuses committed in Sri Lanka's armed 
conflict. Since passage of the resolution, has the Sri Lankan 
Government implemented any of the recommendations of its own Lessons 
Learnt and Reconciliation Commission? In what ways, if any, has the 
Office of the U.N. High Commissioner for Human Rights and other U.N. 
human rights envoys assisted Sri Lanka in implementing these steps?

    Answer. The United States introduced both the March 2012 and March 
2013 U.N. Human Rights Council (HRC) resolutions on Sri Lanka, both of 
which called on the Government of Sri Lanka (GSL) to implement the 
constructive recommendations of its own Lessons Learnt and 
Reconciliation Commission (LLRC) and to address outstanding issues 
related to accountability, reconciliation, and democratic governance. 
The resolutions also encouraged the Office of the High Commissioner for 
Human Rights (OHCHR) and relevant special procedures mandate-holders to 
provide the GSL with advice and technical assistance on implementing 
the LLRC recommendations and addressing these issues.
    For the most part, the government has failed to make progress on 
the LLRC recommendations. For instance, one of the most fundamental 
recommendations was to ``phas[e] out the involvement of the Security 
Forces in civilian activities and use of private lands by the Security 
Forces with reasonable time lines being given.'' However, the military 
maintains a heavy presence in the north and is in fact involved in many 
aspects of civilian affairs. Moreover, despite LLRC recommendations, 
there have been no credible investigations or prosecutions of those 
implicated in violations of international human rights or international 
humanitarian law committed during the conflict.
    In August 2013, U.N. High Commissioner for Human Rights Navanethem 
``Navi'' Pillay visited Sri Lanka to assess the GSL's progress on 
accountability, reconciliation, and democratic governance. After 
meeting with representatives of civil society, government officials, 
and religious leaders, she submitted a report to the U.N. Human Rights 
Council at the September 2013 session. While she acknowledged the 
progress the GSL has made regarding development and resettlement of 
internally displaced persons (IDPs), she expressed alarm at 
restrictions on freedom of the press and expression, the erosion of the 
rule of law, and violence against religious minorities. She extended 
the offer of technical assistance to the GSL to help them address these 
issues.
    Additionally, eight U.N. special procedures mandate holders have 
requested visits to Sri Lanka, including the Special Rapporteur on 
Freedom of Expression, the Special Rapporteur on Freedom of Association 
and Assembly, the Working Group on Enforced Disappearances, and the 
Special Rapporteur on Internally Displaced Persons. The GSL has only 
set dates for one of these visits; we understand the Special Rapporteur 
on IDPs will visit Sri Lanka in December 2013. The United States has 
consistently encouraged the GSL to respond to all the outstanding visit 
requests from special procedures mandate holders.

    Question. At the Human Rights Council, the United States has 
highlighted severe rights violations in China, including the acute 
situation in Tibetan areas. On September 17, 2013, Ambassador Donahoe 
informed the Council that China ``limits religious freedom, 
particularly in Tibetan and Uighur areas.'' Will you also speak 
publicly about the systemic rights violations in China and specifically 
Tibetan areas of China?

    Answer. If confirmed, I will speak publicly about my concerns for 
the deteriorating human rights situation in China, particularly in 
Tibetan and Uighur areas, including with regard to freedom of 
expression and of thought, conscience, and religion. I will also raise 
U.S. concerns with Chinese officials, including the increasingly severe 
government controls on Tibetan Buddhist religious practice; government 
policies that undermine the preservation of Tibetan language; and 
intensive surveillance, arbitrary detentions, and disappearances of 
Tibetans, including youth and Tibetan intellectual and cultural 
leaders. The United States is also deeply concerned by ongoing reports 
of discrimination against Uighurs and other Muslims, and is concerned 
by policies that unduly restrict the religious practices of ethnic 
Uighur Muslims, including bans that prevent some women from wearing 
headscarves and some men from growing beards. Chinese authorities have 
also prevented religious education in some areas.
    The United States will continue to call on the Chinese Government 
to engage in substantive dialogue with the Dalai Lama or his 
representatives, without preconditions, as the best means to alleviate 
tensions and to resolve the longstanding grievances of Tibetans. The 
United States will continue to urge the Chinese Government to address 
the problems underlying tensions in Tibetan and Uighur areas, and to 
reexamine existing, counterproductive policies that exacerbate rather 
than resolve existing grievances. The United States will continue to 
call on the Chinese Government to permit Tibetans, Uighurs, and all of 
China's citizens to express grievances freely, publicly, peacefully, 
and without fear of retribution. The United States will also continue 
to call on the Chinese Government to clearly distinguish between 
criminal acts and peaceful expressions of political dissent or 
religious belief.
    The promotion and protection of human rights in China is in the 
U.S. national interest and, as such, should be an integral part of U.S. 
public diplomacy and of U.S. interactions with Chinese officials. I 
understand that the administration intends to raise these issues during 
China's upcoming Universal Periodic Review, scheduled for October 22, 
and if confirmed I will continue to raise these issues and to work 
though the Office of the High Commissioner for Human Rights and at the 
HRC during my tenure.

    Question. In a statement last year, High Commissioner for Human 
Rights Navi Pillay said that ``social stability in Tibet can never be 
achieved through heavy security measures'' and called upon China to 
accede to the requests by several Special Rapporteurs to Tibet and 
consider the recommendations made to it by various international human 
rights bodies. If confirmed, will you work with the High Commissioner 
to push for access of U.N. mandate holders into Tibet?

    Answer. If confirmed, I will continue to urge Chinese officials to 
permit High Commissioner for Human Rights Navi Pillay to visit China, 
including Tibetan areas, as well as to accept the 12 outstanding visit 
requests by U.N. Special Rapporteurs on key issues such as human 
rights, expression and arbitrary detention. I will also continue to 
press the Chinese Government to allow journalists, diplomats, and other 
observers unrestricted access to China's Tibetan areas.

    Question. What steps will you take to raise greater international 
attention to the widespread human rights abuses perpetrated by the 
Cuban Government? Will you pursue a resolution that censures the Cuban 
Government for its efforts to stifle free expression, political 
dissent, and independent civil society activities within its borders?

    Answer. If confirmed, I will redouble U.S. efforts to highlight 
Cuba's poor human rights record at the U.N. Human Rights Council (HRC). 
U.S. leadership on the HRC has reduced Cuban influence on the Council 
both before and since Cuba's membership term expired on December 31, 
2012. For example, while Cuba sat on the Council, the United States 
regularly mitigated or blocked Cuba's attempts to curb the independence 
of the Office of the U.N. High Commissioner for Human Rights. If 
confirmed, I will lead a robust effort to do so. The United States also 
rallied a cross-regional group of countries to create a special 
rapporteur on freedom of assembly and association in 2010, despite 
Cuba's objections. In September 2013, the United States led a 
successful resolution that renewed the special rapporteur's mandate.
    The United States also supports the calls for an independent 
investigation by Special Rapporteur on extrajudicial, summary, or 
arbitrary executions Haynes into the deaths of Cuban activitists 
Oswaldo Paya and Harold Cepero. If confirmed, I will continue the 
United States efforts to garner international support for this 
investigation.
    If confirmed, I would also welcome the opportunity to meet with 
Senator Menendez to discuss opportunities to draw more international 
attention to Cuba's abysmal human rights record.

    Question. In Cobell v. Salazar, you served on the class counsel 
team representing a class-action lawsuit brought by Native Americans. 
The parties reached a settlement in the case in 2009. On January 20, 
2010, a letter signed ``Class Counsel'' was published on the Indian 
Trust Web site which released the names, addresses, and phone numbers 
of four individuals who were appealing the Cobell settlement. The 
letter asserted that the four appellants were responsible for the delay 
in concluding the settlement and the disbursal of funds. The letter 
encouraged class members to contact the four appellants.

  <diamond> Were you involved in drafting the January 20, 2010, letter, 
        and did you review it prior to its publication? Once the letter 
        was published, did you renounce the letter, which allegedly led 
        to the harassment of the appellants, including the receipt of 
        death threats by at least one? At the time of its publication, 
        what was your reaction to the letter?

    Answer. I was not in any way involved in the drafting the January 
20, 2012, ``Ask Elouise'' letter nor did I review the letter prior to 
its release.
    After learning of the letter's release, I expressed my misgivings 
about publishing the letter, especially the contact information of the 
appellants, to both other class counsel and other professionals at 
Kilpatrick Townsend. I urged my colleagues to facilitate removing the 
letter and to avoid posting material that could be construed to suggest 
harassment of appellants. On or around January 21, I was informed by 
colleagues that discussions about removing the letter from the Web site 
would be held with one of the appellant's attorneys who had objected to 
the letter. I understand from GCG that on January 22, 2012, the 
litigation consultant for lead counsel requested that GCG remove the 
letter from the Web site. On or about January 22, I was further told by 
a firm colleague that the letter was removed from the Web site. 
Additionally, my colleagues and I checked the Web site at that time and 
there found no link to the letter. Thus, at the time of my testimony on 
September 24, 2013, I was under the impression that the letter was 
indeed not on the Indian Trust Web site.
    At the time of the letter's release, we were in active litigation. 
Although I personally did not support the letter, I was told by a firm 
colleague that the class representatives, at the time, did support it. 
Accordingly, I was duty bound to not comment in a manner contrary to 
the letter and therefore could not express my reservations publicly 
about the re-publishing of the contact information of appellants.
    Further, during my multiple discussions with class members in open 
and public forums--which I estimate to be more than 20 sessions--class 
members frequently raised the question of how to interact with 
objectors or appellants. I consistently made clear that, in 
interactions with objectors or appellants, there should be no 
harassment of any kind, and instead respectful dialogue.

    Question. The $3.4 billion settlement in the Cobell case included 
an agreement by class counsel of which you were a member that they 
would not argue they were entitled to greater than $99.9 million in 
fees. This binding commitment was repeated to Congress and to class 
members. Class counsel, nevertheless, went forward and petitioned the 
U.S. District Court for $223 million in fees, which the Court rejected.

  <diamond> What is the reason for the request for additional fees?

    Answer. The class representatives, our clients, decided that 
consistent with the Agreement with Defendants, there would be an 
express request for $99.9 million in fees. In accordance with our 
clients' position, the Petition for Fees specifies that ``Plaintiffs 
hereby assert a fee of $99.9 million for Class Counsel's work through 
December 7, 2009.'' The Petition went on to explain that the Court had 
the discretion to award more under the controlling law, but that both 
Plaintiffs and Defendants agreed not to appeal if the award was between 
$50 and $99.9 million. The Petition also stated, consistent with client 
direction, that in comparable cases, awards ranging around $223 million 
would be consistent with controlling law. The Court ultimately awarded 
the $99 million amount asserted by plaintiffs in the petition for fees.
    As I understand it, the class representatives, and particularly Ms. 
Elouise Cobell, believed that it was critically important and 
consistent with the best interest of the class to seek a fee award in 
accord with fee awards for non-Indian class actions of similar size and 
complexity. She expressed concern that otherwise attorneys would be 
reluctant to represent Native American plaintiffs without financial 
means who are deprived of their rights by the federal government or 
other entities. This was unacceptable to Ms. Cobell and she was 
particularly sensitive to this point because, as she made clear on the 
record, she had grave difficulties finding lawyers to bring the Cobell 
case in the first place.

    Question. Plaintiffs in the Passamaquoddy Tribe of Maine trust 
settlement assert that you and your colleague's legal fees were 
excessive and unreasonable. How do you respond to their concerns?

    Answer. Chief Joseph M. Socobasin, Vice Chief Clayton Socobasin, 
and Elizabeth Neptune--who was on Council during the litigation and the 
designated liaison to the Kilpatrick Townsend firm--sent a letter on 
October 1, 2013, to ``Indian Country Today'' to ``clarify that we were 
very happy with the Kilpatrick Townsend's representation of the Tribe 
in the tribal trust case and were satisfied with the results of the 
case.'' Further, they clarified that ``[a]t no time during the case 
were our Tribal leaders pressured to settle the case by Mr. Harper or 
his colleagues at Kilpatrick Townsend.''
    With respect to legal fees, in their letter the Tribal Leaders 
stated that the ``contingency arrangement was established in 2007'' and 
that they ``felt it was fair and the only option for our Tribe at the 
time.'' In conclusion, the Tribal Leaders specified that ``Our Tribal 
Council was very satisfied with the settlement and with the legal 
representation we received from Kilpatrick Townsend.''
                                 ______
                                 

          Response of Crystal Nix-Hines to Question Submitted 
                       by Senator Robert Menendez

    Question. The United States is withholding its assessed and 
voluntary contributions to UNESCO due to the General Conference's 
October 2011 decision to admit Palestine as a member. How do you regard 
the recent UNESCO decision to admit Palestine? How would you assess 
UNESCO's progress toward improving upon the issues that led to the 
United States withdrawal from the organization from 1984 to 2003? 
Finally, how would you in your role as Ambassador seek to resolve these 
issues that have constrained the United States full participation in 
UNESCO?

    Answer. I share the administration's perspective that the October 
2011 vote by UNESCO Member States to grant the Palestinians membership 
was premature since final status issues, including the issue of 
Palestinian statehood, can only be resolved through direct negotiations 
between the parties.
    I also agree with the administration that obtaining a national 
interest waiver from Congress is crucial to give the United States the 
discretion necessary to continue to provide contributions that enable 
the United States to maintain its vote and influence within the United 
Nations and any of its specialized agencies. It is important to 
preclude the possibility that the Palestinians or their allies could 
force a contribution cutoff and diminish American influence within 
these agencies.
    In my view, the most effective way to wield U.S. influence in 
international organizations is from within. By withholding our 
contributions, not only do we cut off support for important programs 
that advance U.S. interests, we weaken our ability to promote our 
priorities, risk losing altogether our voting rights, and effectively 
empower others to determine how and when America engages. We also harm 
our ability to fully support and defend the interests of our allies, 
including Israel.
    A strong U.S. presence at UNESCO allows us to promote 
quintessential American values, serves U.S. commercial interests, and 
advances U.S. security interests. By maintaining a strong financial and 
strategic partnership with UNESCO, the United States can play an 
important leadership role in a UNESCO agenda that includes concrete 
action to: expand literacy and access to education, particularly for 
women and girls; combat extremism including ethnic and religious 
violence; promote Holocaust education for the prevention of prejudice 
and mass atrocities; advance press freedom and safety for journalists; 
develop early warning systems for tsunamis and other environmental 
challenges; and protect the world's natural and cultural heritage. If 
confirmed, as Ambassador, I would leverage strong U.S. engagement with 
UNESCO as a powerful forum to address these and other shared global 
challenges of vital concern to the United States.
    Just as the world has changed dramatically since 1984, so has 
UNESCO. Former President George W. Bush recognized this when he 
determined it was in the interest of the United States to rejoin the 
organization. At the time, he stated that UNESCO ``has been reformed, 
and America will participate fully in its mission to advance human 
rights, tolerance, and learning. . . . As a symbol of our commitment to 
human dignity.''
    Through the U.N. Transparency and Accountability Initiative, the 
State Department has found that UNESCO continues to enact reforms that 
promote efficiency, effectiveness, and accountability. This progress is 
further evidenced by the recently released 2013 update to the 
Multilateral Aid Review, in which the U.K. Government has assessed that 
UNESCO is making reasonable progress in key areas of reform. As U.S. 
Ambassador to UNESCO, I would make it a top priority to encourage a 
culture of accountability and high performance at UNESCO. From my prior 
experience at the State Department in helping to establish the U.N. War 
Crimes Tribunals for the former Yugoslavia and for Rwanda, I know how 
critical U.S. leadership is, and, if confirmed, I will work diligently 
to ensure that UNESCO maximizes its effectiveness and impact.
                                 ______
                                 

         Response of Pamela K. Hamamoto to Question Submitted 
                       by Senator Robert Menendez

    Question. Critics of the United Nations cite perceived 
inefficiencies within U.N. offices, duplication of U.N. mandates, and 
mismanagement of U.N. funds. In your role as Ambassador to the United 
Nations and Other International Organizations in Geneva, how will you 
work to improve accountability, efficiency, and prioritization of U.N. 
programs? Can you assess the current capacity of the U.S. mission in 
Geneva to deal with the task of monitoring the many programs and 
agencies operating there?

    Answer. The United States has been a driving force for reforms 
across the U.N. system, and over the past 10 years, Geneva-based 
organizations have adopted a number of reforms designed to make their 
organizations more transparent, accountable, and efficient. However, 
the United States must remain consistently engaged to strengthen these 
reforms further and advance even more comprehensive reform agendas.
    There is need for greater cooperation and coordination among U.N. 
system organizations to reduce duplication and mandate overlap. 
Organization heads must engage more productively in existing 
coordination mechanisms, such as the U.N. System Chief Executives Board 
for Coordination (CEB) and the Economic and Social Council (ECOSOC). If 
confirmed, I will work with like-minded members to insist that 
organization heads look for opportunities to evaluate mandates on a 
routine basis. Using this approach, the Secretariat could regularly 
identify possible operational improvements and/or programmatic shifts 
among and within mandates, measure actual performance against intended 
results to be achieved, and discuss how individual and groups of 
mandates serve the overall goals of the organization.
    The United States is a primary driver urging U.N. agencies to 
enhance their oversight arrangements, by adequately resourcing internal 
audit, investigations, and evaluations functions and establishing 
independent, expert audit committees. If confirmed, I will continue to 
push and build on these efforts.
    I am not in a position now to assess the current capacity of the 
U.S. mission in Geneva to monitor the many programs and agencies 
operating there. I understand, however, that through daily engagement 
and active participation as members of the executive boards and 
governing bodies of these organizations, the United States works to 
ensure U.N. agencies have robust program monitoring and evaluation 
practices in place and that they employ sound strategic plans, budgets, 
and program results frameworks.
    If confirmed, I will continue to be a leading advocate for budget 
discipline, efficient and effective program implementation, and proper 
prioritization of programs at the United Nations. The Obama 
administration has pressed the United Nations and specialized agencies 
to contain budget growth and to demonstrate a sustained effort to 
identify offsets without reducing operational effectiveness or program 
impact, while also protecting those programs most important to U.S. 
interests.
    If confirmed, I will continue to work diligently with other 
countries in Geneva and across the U.N. system to ensure that U.S. tax 
dollars are well spent and that these organizations live up to both 
their founding principles and values.
                                 ______
                                 

       Responses of Tomasz P. Malinowski to Questions Submitted 
                        by Senator Barbara Boxer

    Question. Last Sunday, two suicide bombers walked into a crowd 
gathered outside a Christian church in Pakistan and detonated their 
explosives, slaughtering over 80 people--including over 40 women and 
children. These innocent people were targeted simply because of their 
faith.

  <diamond> If confirmed, how will you work to advocate for the 
        protection of minorities in Pakistan? What leverage does the 
        United States have on this front?

    Answer. Continuing sectarian violence in Pakistan is concerning and 
has brought heartache to Sunnis, Shia, Christians, and members of other 
communities across the country. Last Sunday's church attack drew 
widespread condemnation in Pakistan, including from the Prime Minister, 
the National Assembly, and a range of religious and political leaders. 
But, condemnation must be matched with the resolve to work for change. 
The Government of Pakistan has indicated it will increase protection at 
churches and other places of worship in the wake of the Peshawar 
bombing. It should also bring the perpetrators of sectarian attacks to 
justice and end any remaining ties between elements of the security 
services and militant groups.
    If confirmed, I will engage the government and civil society of 
Pakistan to put an end to violence against and persecution of religious 
minorities, and to seek to alter the legal structures that embolden or 
enable it, including the blasphemy law. I will also use the tools 
Congress has provided for diplomatic leverage on religious freedom. 
Pursuant to the authorities mandated by Congress, I will regularly 
review and consider country conditions and make recommendations on 
Country of Particular Concern (CPC) designations. I will also continue 
to use private diplomatic engagements and creatively explore public 
diplomacy and programming initiatives to promote religious freedom and 
tolerance in Pakistan.

    Question. The U.S. Government is continuing to work to facilitate 
peace negotiations between the Taliban and the Afghan Government. If 
confirmed, how will you help ensure that the rights of women and girls 
are addressed in the negotiation process? What actions will you take to 
ensure that other entities within the State Department and the U.S. 
Government use their influence to insist on women's participation in 
the peace process, including on the High Peace Council?

    Answer. In January, President Obama and President Karzai reaffirmed 
that Afghan-led peace and reconciliation is the surest way to end 
violence and ensure lasting stability of Afghanistan and the region. 
The two Presidents also reiterated that as a part of the outcome of any 
peace process, the Taliban and other armed opposition groups must end 
violence, break ties with al-Qaeda, and accept Afghanistan's 
Constitution including its provisions that protect the rights of women 
and members of minorities.
    In my meeting with President Karzai during my last trip to 
Afghanistan when I was at Human Rights Watch, we spent almost the 
entire hour discussing the human rights implications of negotiations 
with the Taliban on Afghan women (see my Washington Post op-ed: http://
www.washingtonpost.com/wpdyn/content/article/2010/08/13/
AR2010081305220.html). Any peace that is attempted to be made by 
excluding more than half of the Afghan population--women--is no peace 
at all. This issue has been a personal interest of mine and if 
confirmed, I will work within the State Department and the broader U.S. 
Government to ensure that as peace talks gain traction women are 
meaningful participants in all levels of the process and that the human 
rights of women are not a bargaining chip in peace negotiations with 
the Taliban.
    If confirmed, I will press the Afghan Government to actively engage 
civil society, including women's rights advocates, in peace and 
reconciliation efforts and to consider seriously their recommendations 
on improving the peace process. The High Peace Council, as the lead on 
reconciliation must ensure that the voice of women remain central in 
negotiations. If confirmed, one of my goals is to ensure that women's 
voices and views are reflected in the peace talks.

    Question. Several leaders in Latin America have passed legislation 
or other measures limiting freedom of association, including Ecuadorian 
President Rafael Correa. How can the United States help civil society 
organizations confront challenges in countries like Ecuador, Venezuela, 
and Bolivia?

    Answer. I am deeply concerned about the increasing threat to, and 
steady decrease of, space for civil society organizations (CSOs) around 
the world, including in countries like Ecuador, Venezuela, and Bolivia.
    If confirmed, I will direct assistance to at-risk CSOs, and urge 
like-minded governments and private donors to do the same. One avenue 
would be through the multilateral Lifeline fund, which the Bureau of 
Democracy, Human Rights, and Labor established in cooperation with 
other like-minded governments to assist embattled civil society 
organizations.
    I will speak out against legislation in countries that threaten 
CSOs, and work with like-minded partners to contain the spread of such 
legislation.
    If confirmed, I will provide strong support to exchange programs 
that support civil society organizations, including the State 
Department's International Visitor Program through which the Department 
supports the work by CSOs.
    I will encourage our embassies to visibly support all CSO 
representatives, especially those under siege who cannot travel outside 
their countries, including by meeting with them regularly, inviting 
them to embassy events, and publicly defending their work.
    Finally, if confirmed, I will work with my colleagues in the 
Department to counter efforts to weaken the Inter-American Commission 
on Human Rights, which we did successfully before and must be prepared 
to do again.

    Question. Advancing the human rights of LGBT people around the 
world is a priority of the Obama administration. Although the United 
States has taken various public steps to engage on the issue of LGBT 
rights abroad, LGBT people continue to be targeted for violence solely 
because of who they are in places such as Uganda, Cameroon, Brazil, 
South Africa, and Russia.

  <diamond> What steps will you take to continue and enhance current 
        efforts to advance LGBT rights and help protect LGBT people 
        from violence?

    Answer. Promoting and protecting the human rights of LGBT persons 
is a key foreign policy priority of the United States. I am very 
concerned about ongoing violence and official and societal 
discrimination against LGBT persons--particularly laws that criminalize 
consensual same sex conduct between adults or restrict the rights of 
LGBT persons and their supporters to freedom of expression, 
association, and peaceful assembly--in too many places around the 
world. I agree with administration officials, from President Obama to 
Secretary Kerry to Ambassadors at embassies around the world, who have 
made clear that universal human rights apply to all persons, regardless 
of their sexual orientation or gender identity.
    Ensuring the protection of human rights for LGBT persons will 
require continued engagement on a variety of fronts. State Department 
personnel, in the Bureau of Democracy, Human Rights, and Labor (DRL), 
throughout the Department, and at posts around the world, regularly 
raise the human rights of LGBT persons in their bilateral 
conversations. If confirmed I will also work with like-minded partners 
in various multilateral fora to advance LGBT rights. These include the 
U.N. General Assembly, where, on the margins, Secretary Kerry will 
participate in the first-ever Ministerial event specific to the rights 
of LGBT persons, and the U.N. Human Rights Council, where the United 
States lobbied successfully on behalf of the first-ever U.N. resolution 
on the rights of LGBT persons in June 2011. I will also continue to 
strongly support assistance to organizations promoting and protecting 
the human rights of LGBT persons. Through the Global Equality Fund, the 
United States has provided to date more than $7 million to support 
civil society organizations working to advance the human rights of LGBT 
persons in more than 50 countries. As the U.S. Government continues to 
support this work, I will, if confirmed, work to ensure that we deepen 
our impact, respond effectively to emergent situations, and confront 
long-term challenges, including discriminatory legislation.
                                 ______
                                 

         Response of Pamela K. Hamamoto to Question Submitted 
                        by Senator Barbara Boxer

    Question. Israel: It is no secret that Israel is often unfairly 
singled out at the United Nations. If confirmed, will you make it a 
priority to fight discrimination against Israel and to press for 
greater inclusion of Israel in all U.N. activities in Geneva?

    Answer. If confirmed, I will continue the administration's efforts 
to normalize Israel's status at the United Nations, including 
vigorously opposing one-sided, biased resolutions, ending Israel's 
institutionalized unfair treatment, and fighting efforts to 
delegitimize Israel throughout the United Nations.
    U.S. officials meet regularly with host governments and U.N. 
officials to make known our opposition to these biased resolutions and 
unfair treatment. The United States consistently opposes any texts or 
actions that criticize Israel unfairly in any U.N. body or specialized 
agency, and I will maintain that position.
    Additionally, The United States continues to work to promote full 
and equal Israeli inclusion in international bodies, including the 
consultative groups in the U.N. system that act as organizing venues 
for determining candidates and coordinating policy approaches. The 
United States has helped gain Israeli membership in the Western Europe 
and Others regional group (WEOG) for several U.N. committees in New 
York, and the ultimate goal is Israeli membership in all WEOG 
groupings, including in Geneva. The United States believes it is 
essential for Israel to be included, as it is the only country not to 
belong to a regional group in Geneva, and I share that belief. If 
confirmed, I will coordinate closely with Israel and with WEOG members 
to press for Israel's membership in the group.
                                 ______
                                 

       Responses of Tomasz P. Malinowski to Questions Submitted 
                         by Senator Marco Rubio

    Question. How will you work to ensure that U.S. security assistance 
to countries such as Egypt and Bahrain avoid U.S. complicity in human 
rights violations and create an incentive for these governments to take 
irreversible steps toward a more democratic and inclusive future?

    Answer. Preventing U.S. assistance from being used in support of 
human rights violations is a policy priority. Our processes to 
implement the Leahy Law, supervision of foreign military sales, end-use 
monitoring, licensing for commercial weapons sales, and management of 
State-funded military grant assistance programs, are among the most 
reliable and important ways of ensuring that we do not support human 
rights abuses in any country. As someone coming from a position in 
which I long advocated for the importance of human rights in U.S. 
foreign policy, if confirmed, I will commit to working with Congress to 
ensure the Department continues to use the tools we have available to 
support U.S. human rights policy, including in our dealings with Egypt 
and Bahrain. I will also work to ensure our assistance is used to 
support broader policies designed to improve conduct and to hold 
governments to account for their actions.
    In Bahrain, due to our concerns about human rights abuses, the U.S. 
Government continues to withhold the export of lethal and crowd-control 
items intended predominantly for internal security purposes. For 
certain other items related exclusively to external defense, 
counterterrorism, and the protection of U.S. forces, we are making 
export decisions on a case-by-case basis. Our policy does not support 
the transfer of equipment or training to Bahraini security forces that 
could be used inappropriately against peaceful protesters in the 
country.
    In Egypt, we will continue support in areas like education that 
directly benefit the Egyptian people, but are not proceeding with the 
delivery of certain military systems. Our support will depend upon 
Egypt's progress in pursuing a more democratic path. We will also 
maintain our firm commitment and support to democratic institutions and 
an independent Egyptian civil society.
    Important decisions related to security assistance also depend on a 
clear understanding of the facts. The Bureau of Democracy, Human 
Rights, and Labor has a critical role to play in bringing accurate 
facts about the human rights situation to bear on our policies and our 
assistance relationships. If confirmed, I will work with our U.S. 
missions to continue to advance our human rights policies, including in 
Egypt and Bahrain.

    Question. In Bahrain, the government continues to carry out a 
crackdown that includes harsh repression of demonstrators, the 
detention of journalists, and the imprisonment of credible opposition 
members. Now the U.S. Ambassador and other U.S. diplomats have been 
sanctioned by the Bahrain Cabinet for meddling in internal Bahraini 
affairs. The United States has multiple interests in Bahrain, most 
prominently the Fifth Fleet, and it has tried to engage the ruling 
family in Bahrain as friends. However, repeated promises from the 
government have fallen short of actual performance.

  <diamond> Do you agree that the current course of U.S. policy in 
        Bahrain is failing?
  <diamond> What new strategy would you recommend the United States 
        pursue to promote progress on human rights and rule of law 
        there, given our other interests as well?

    Answer. If confirmed, I intend to make Bahrain a top priority, and, 
in cooperation with the Congress, I will review all of the options 
available to continue improving our policy toward Bahrain given the 
inevitability of new and unforeseen challenges to come.
    The United States has a number of interests at stake in the 
stability of Bahrain and well-being of its people. The events that have 
unfolded since March 2011 have made clear that a prosperous, stable, 
and secure Bahrain that remains a strong security partner depends on a 
political dialogue that leads to reconciliation and reform, as well as 
the protection of human rights and accountability. During the past 2 
years the Bahraini Government has made some progress on a variety of 
human rights-related issues. But there have also been significant 
setbacks and there is much more work to be done.
    Therefore, if confirmed, I will work to ensure that the United 
States is fully engaged supporting reform and enhanced protection of 
human rights. A robust policy must include direct and candid engagement 
with the government and the political opposition; support for civil 
society undeterred by government objections (for example, the statement 
the Department of State issued on September 19 following the arrest of 
opposition leader Khalil Marzooq); opposition to violence and extremism 
on both sides of the country's political divide, a clear-eyed public 
posture on the issues and concerns at hand; assurance that our 
assistance policies reinforces our message and avoid U.S. complicity in 
abuses; and regional and international engagement. As part of this 
effort, I would work within the Department and other U.S. Government 
agencies to ensure that our government speaks consistently about these 
issues with a united voice.

    Question. Chinese activists and bloggers have recently been the 
targets of a crackdown by the government. How will you endeavor to make 
U.S. concerns about such actions more central to the United States-
China relationship?

    Answer. If confirmed, I will work to ensure that human rights 
remain a critical facet of the United States-China bilateral 
relationship, raised in all appropriate senior-level meetings and 
dialogues, including during the U.S.-China Strategic and Economic 
Dialogue, the Human Rights Dialogue, and the Legal Experts Dialogue. I 
will also look for opportunities to speak directly to the Chinese 
people, and to listen to their views, about these issues. I will 
emphasize that China's adherence to universal rights is important not 
only to our bilateral relationship, but to China's long-term peace, 
prosperity, and stability.
    I will urge Chinese officials to listen to the increasingly vocal 
grievances emerging from Chinese society on issues such as 
environmental degradation, consumer protection, and corruption--and use 
these concerns as an entry point to emphasize how the rule of law, free 
flow of information both online and offline, a robust civil society, 
and respect for religious and cultural differences can aid China's 
efforts to achieve sustainable economic development and a harmonious 
society. I strongly agree and would like to echo DRL Acting Assistant 
Secretary Uzra Zeya's public comment following the 2013 U.S.-China 
Human Rights Dialogue that while the U.S. and Chinese Governments often 
do not agree about human rights, this is clearly not an area of 
disagreement between the American and Chinese people.
    I am particularly concerned over the recent crackdown against 
activists and bloggers, including the arrest of long-time activist and 
scholar, Xu Zhiyong, and other supporters of the New Citizen's Movement 
for advocating for fiscal transparency and fighting official 
corruption--in line with President Xi's own highly visible 
anticorruption campaign. The new legal interpretation in China that 
justifies charges of ``defamation'' and up to 3 years in prison for 
spreading ``defamatory rumors'' online is another source of deep 
concern. I believe such efforts are undermining China's stated 
objective of upholding the rule of law and building a modern, 
information-based economy and society. Ultimately, controls and 
restrictions on the freedom of expression, the free flow of 
information, and the innovations associated with them bear significant 
economic and social costs and negatively affect China's growth and 
stability.

    Question. What is your opinion about the utility of the annual 
U.S.-China Human Rights Dialogue and would you modify that mechanism at 
all to make it more prominent, perhaps including your regional 
counterpart as well or officials from other U.S. agencies?

    Answer. The promotion of human rights is a critical component of 
U.S. foreign policy and the U.S.-China Human Rights Dialogue (HRD) is 
an important part of an overall human rights strategy. It also presents 
an opportunity to engage Chinese counterparts in an extended, in-depth 
discussion of key human rights concerns and individual cases. It is 
not, however, a substitute for consistent high-level engagement from 
across the U.S. Government. If confirmed, I will work to ensure that 
human rights continue to be raised in high profile dialogues such as 
the U.S.-China Strategic & Economic Dialogue and the U.S.-China Legal 
Experts Dialogue. I strongly believe that the promotion and protection 
of human rights in China is in our national interest and, as such, 
should be an integral part of every conversation we have with Chinese 
officials, including at the President's and Secretary's level. The rule 
of law, an independent judiciary, a robust civil society, the free flow 
of information and respect for universal human rights and fundamental 
freedoms are key to China's ability to deal with domestic and global 
challenges and be a reliable international partner.
    At the recent U.S.-China Human Rights Dialogue Acting Assistant 
Secretary Uzra Zeya raised, both publicly and privately, individual 
cases and our concerns over China's continued failure to abide by its 
international human rights commitments. I am committed to continuing 
these important efforts and supporting the Dialogue and ensuring that 
it continues to include a broad cross section of agencies so that a 
consistent message on human rights is delivered to Chinese officials.
    It is my understanding that Senior Department officials, such as 
Deputy Secretary Burns, former Under Secretary Otero, and others have 
participated in the Dialogue in the past, and I am committed to 
continuing to involve senior officials in the Dialogue. I strongly 
believe that the HRD is an opportunity to put into practice the Obama 
administration's commitment to involve all elements of the U.S. 
Government in promoting international human rights.
    Finally, I consider the Human Rights Dialogue as a means to an end, 
but dialogue in and of itself does not constitute progress. If 
confirmed, I will make every effort to link specific outcomes to our 
continued engagement with Chinese officials through such forums as the 
Human Rights Dialogue.
                                 ______
                                 

          Responses of Keith M. Harper to Questions Submitted 
                         by Senator John McCain

    Question. How long did you serve as ``co-class counsel'' on Cobell?

    Answer. The Cobell class was certified on February 4, 1997, and so 
I began to serve as class counsel on that date.

    Question. On what date did you first learn about the January 20, 
2012, ``Ask Elouise'' letter?

    Answer. I learned of the January 20, 2012, ``Ask Elouise'' letter 
on January 20, 2012, after it was released.

    Question. Did you receive a draft or have prior knowledge of the 
January 20, 2012 letter before it was published?

    Answer. No.

    Question. As coclass counsel, was it your responsibility to review 
documents and communications to plaintiffs including the January 20, 
2012, ``Ask Elouise'' letter, prior to transmission or publication?

    Answer. No. Lead counsel--who is a solo practitioner not part of 
Kilpatrick Townsend & Stockton LLP (``Firm'')--was responsible for 
determining who among the litigation team were responsible for which 
tasks. Under this arrangement, the principal attorneys each had their 
own areas of responsibility. The ``Ask Elouise'' letters were not part 
of my responsibilities.
    Lead counsel did not circulate the January 20, 2012, ``Ask 
Elouise'' letter either to me or, to the best of my knowledge, to any 
of the lawyers in the Firm prior to its publication.

    Question. How did you become aware of the January 20, 2012 ``Ask 
Elouise'' 
letter?

    Answer. I became aware of the ``Ask Elouise'' letter on January 20, 
2012, after the letter's public release, when a lawyer representing one 
of the appellants sent an e-mail in objection.

    Question. When the letter became public, why did you reportedly 
refuse to respond to press inquiries concerning the letter?

    Answer. At the time of the letter's release, we were in active 
litigation. Although I personally did not support the letter, I was 
told by a Firm colleague that the class representatives, at the time, 
did support it. Accordingly, I was duty bound to not comment in a 
manner contrary to the letter and therefore could not express my 
reservations publicly about the re-publishing of the contact 
information of appellants.

    Question. What is your understanding of how the January 20, 2012, 
``Ask Elouise'' letter was transmitted to plaintiffs? By mail, online, 
print publishing, e-mail, or other?

    Answer. At the time of the September 24, 2013, hearing, my 
understanding was that the letter was posted on January 20, 2012, on 
the Internet site www.indiantrust.com and that it had not been mailed 
or e-mailed to the entire class of 500,000 individuals. I have since 
confirmed that the letter was not e-mailed or mailed to the entire 
class of 500,000 individuals. Rather, I have now been informed that it 
was e-mailed by the claims administrator at the direction of lead 
counsel's litigation consultant, on January 20, 2012, to a listserv 
comprised of those who had requested periodic electronic updates on the 
litigation. It was also posted on the indiantrust.com Web site at 
approximately that same time.
    Because I was not responsible for managing postings to the Web 
site, or distributions to the listserv, I did not understand the 
precise manner in which the letter was posted and distributed until I 
was informed by colleagues after the September 24, 2013, hearing.

    Question. Is it correct that you would not receive attorney's fees 
under the Cobell settlement legislation until the appeal discussed in 
the January 20, 2012, ``Ask Elouise'' letter was resolved?

    Answer. Yes.

    Question. Is it correct that one of the appellants identified in 
the January 20, 2012, ``Ask Elouise'' letter appealed the settlement 
because she determined that plaintiff attorneys were seeking excessive 
attorney's fees?

    Answer. No.

    Question. What is your connection to the Web site, ``Indian Trust 
Settlement'' (www.IndianTrust.com)?

    Answer. My connection to the Web site was, and remains, of limited 
scope.
    The Web site www.indiantrust.com is owned by a litigation 
consultant to the lead counsel. Lead counsel and the litigation 
consultant maintained custody and control of the Web site content at 
all times while the case was in active litigation, which ended in 
December 2012. During that time, the Web site published material 
relevant to the case, such as court filings. I and other class counsels 
worked on briefs and other materials, which were filed by paralegals or 
the litigation consultant. After filing these documents, the litigation 
consultant to lead counsel published them to the Web site.
    I understand that the Web site is presently administered by the 
Garden City Group (GCG), the official claims administrator for the 
Cobell case, though the litigation consultant maintains ownership.

    Question. On what date was the January 20, 2012, ``Ask Elouise'' 
letter (www.indiantrust.com/elo/1_20_12) removed from the Indian Trust 
Settlement Web site?

    Answer. After learning of the letter's release, I expressed my 
misgivings about publishing the letter, especially the contact 
information of the appellants, to both other class counsel and other 
professionals at Kilpatrick Townsend. I urged my colleagues to 
facilitate removing the letter and to avoid posting material that could 
be construed to suggest harassment of appellants. On or around January 
21, I was informed by colleagues that discussions about removing the 
letter from the Web site would be held with one of the appellant's 
attorneys who had objected to the letter. I understand from GCG that on 
January 22, 2012, the litigation consultant for lead counsel requested 
that GCG remove the letter from the Web site. On or about January 22, I 
was told by a Firm colleague that the letter was removed from the Web 
site. Additionally, my colleagues and I checked the Web site at that 
time and there found no link to the letter. Thus, at the time of my 
testimony on September 24, 2013, I was under the impression that the 
letter was indeed not on the Indiantrust Web site.
    After I was informed on September 24, 2013, that the letter was 
still available through an Internet search, my law partners requested 
that GCG delete the letter so that it would be unavailable through an 
Internet search. I have been told that GCG did so on September 24, 
2013.

    Question. Why was the January 20, 2012, ``Ask Elouise'' letter 
removed from the Web site when it was and was it removed under your 
request or direction?

    Answer. After I was informed on September 24, 2013, that the letter 
was still available through an Internet search, my law partners 
immediately requested that GCG delete the letter so that it would be 
unavailable through an Internet search. I have been told that GCG did 
so on September 24, 2013.

    Question. What is your interpretation of the cap on fees, expenses, 
and costs in the Claims Resolution Act of 2010 for Cobell v. Salazar?

    Answer. While Congress considered capping fees as an amendment to 
the Claims Resolution Act, it ultimately decided not to do so. The 
class representatives, our clients, did have an agreement with 
defendants that neither side would appeal any fee award between $50 and 
$99.9 million. In addition, under this same agreement, Class 
representatives agreed not to affirmatively assert counsel be paid more 
than $99.9 million in attorneys' fees.

    Question. Were you part of a petition to federal courts for $223 
million in attorney's fees in the class action lawsuit, Cobell v. 
Salazar?

    Answer. The class representatives, our clients, decided that, 
consistent with the Agreement with Defendants, there would be an 
express request for $99.9 million in fees. The Petition for Fees 
specifies that ``Plaintiffs hereby assert a fee of $99.9 million for 
class counsel's work through December 7, 2009.''
    The petition went on to explain that the Court had the discretion 
to award more under the controlling law, but that both plaintiffs and 
defendants agreed not to appeal if the award was between $50 and $99.9 
million. The petition also stated, consistent with client direction, 
that in comparable cases, awards ranging around $223 million would be 
consistent with controlling law. I was one of the counsel who signed 
this petition on behalf of our clients. The Court ultimately awarded 
the $99 million amount asserted by plaintiffs in the petition for fees.
    As I understand it, the class representatives, especially Ms. 
Elouise Cobell, believed that it was critically important and 
consistent with the best interest of the class to seek a fee award in 
accord with fee awards for non-Indian class actions of similar size and 
complexity. She expressed concern that otherwise attorneys would be 
reluctant to represent Native American plaintiffs without financial 
means who are deprived of their rights by the federal government or 
other entities. This was unacceptable to Ms. Cobell and she was 
particularly sensitive to this point because, as she made clear on the 
record, she had grave difficulties finding lawyers to bring the Cobell 
case in the first place.

    Question. Are you associated with a petition for additional fees 
related to the Cobell settlement? If so, for how much?

    Answer. No.

    Question. Approximately how many hours did you bill your clients 
for work in relation to Cobell at Kilpatrick and Native American Rights 
Fund (NARF)?

    Answer. As a partner with Kilpatrick, I worked a total of 4,837.7 
hours on Cobell through June 30, 2013.
    I am no longer at NARF and I do not have access to this 
information, however, NARF's court filings indicate I worked 19,671 
hours on the Cobell case.

    Question. Approximately how much in fees have you collected to date 
in relation to Cobell?

    Answer. On July 27, 2011, District Judge Thomas Hogan awarded 
plaintiffs $99 million in attorney's fees. Of that amount, Judge Hogan 
awarded approximately $85 million to be distributed, after all appeals 
were final, to class counsel. Class counsel included Dennis Gingold, 
Thaddeus Holt, and Kilpatrick Townsend & Stockton LLP. The remainder of 
approximately $14 million was set aside because other counsel who had 
worked on the case in times prior were seeking their own award, which 
in aggregate amounted to approximately $14 million. The Court later 
ordered that these fee issues be mediated but thus far the mediation 
has not been fruitful.

    Question. What fees did you secure from tribal governments for work 
on the class action lawsuit, Cobell, or any other lawsuit against the 
federal government for mismanagement of tribal trust assets? Please 
identify each tribal government, the type of fee, and the rate that was 
negotiated for each.

    Answer. We did not receive any payment for fees from tribal 
governments for work on the Cobell case. As for tribal trust lawsuits, 
the Firm received the fees as follows for our four tribal clients:
    Ak-Chin Indian Community (AZ) agreed to pay the Firm hourly fees on 
a monthly basis so there was no contingency fee.
    Tohono O'odham Nation (AZ) agreed to pay discounted hourly fees on 
a monthly basis plus a 6 percent contingency fee at the end of the 
case. The amount of that fee paid to the Firm at the end of the case 
was $1,425,000 (this was in addition to the fees paid each month since 
2006).
    Initially, in 2006, the Passamaquoddy Tribe of Maine agreed to pay 
fees in an identical manner as the arrangement with Tohono O'odham. 
However, within a few months of our engagement, the Tribe asked us to 
change the arrangement so it would not have to pay the discounted 
hourly rates on a monthly amount. Accordingly, we modified the 
agreement consistent with the client wishes so that compensation for 
attorneys' fees was exclusively through a contingency fee. Unlike other 
clients, the Passamaquoddy Tribe made no payment of fees on a monthly 
basis throughout the litigation, thus the contingency fee agreed to was 
15 percent. This is well below the standard of 30-40 percent for 
comparable contingency fee arrangements. When the case settled, the 
amount paid to the Firm was 15 percent of the settlement or $1.8 
million. In an October 1, 2013, letter to ``Indian Country Today,'' 
Passamaquoddy Chief Joseph Socobasin on September 24, 2013, confirmed 
that the Tribe ``was very happy with the settlement representation 
prepared by Kilpatrick Townsend & Stockton Firm.''
    The Salt River Pima-Maricopa Indian Community (AZ) has not given 
the Firm permission to disclose the specifics of its fee arrangement. 
However, we can disclose that they paid monthly fees with a contingency 
at the end similar to Tohono O'odham.

    Question. In your negotiations with tribal governments over fees 
referenced above, were tribal governments made aware that the 
defendant, the federal government, would be responsible for covering or 
directly paying their fees to you?

    Answer. Yes. Two tribes--the Passamaquoddy Tribe and the Tohono 
O'odham Nation--agreed to have the funds directly paid to the Firm. 
This was not unusual and indeed the model used in other cases such as 
the Osage litigation (represented by another Washington, DC-based law 
firm). The Tribes had full ability to opt for nondirect payment to the 
attorneys. The Salt River Pima-Maricopa Indian Community, for example, 
decided to keep the terms of counsel fees confidential and therefore 
did not seek direct payment to counsel. For the tribes that did 
authorize direct payment, they did so expressly. Both the Passamaquoddy 
Tribe and the Tohono O'odham Nation expressly authorized direct payment 
to our Firm in tribal council resolutions approving the settlements.

    Question. Please identify which tribes you negotiated fees 
referenced in the above questions between 2008 and 2010?

    Answer. None of the fees negotiated for tribal trust cases were 
negotiated in this timeframe. All were negotiated in 2006 or early 
2007.

    Question. Did you negotiate Cobell fees at different rates for 
different tribes? Why is there a variance in rates?

    Answer. No. Cobell fees were not negotiated for or with tribes. The 
fee in Cobell was determined by the court and paid out of the common 
fund. Therefore, all plaintiffs in the Cobell case, irrespective of 
tribal affiliation, were treated the same.
                                 ______
                                 

          Responses of Keith M. Harper to Questions Submitted 
                        by Senator John Barrasso

    Question. On September 24, 2013, you testified before the Senate 
Committee on Foreign Relations that one of your cocounsel in the class 
action lawsuit, Cobell v. Salazar, published an ``Ask Elouise'' letter 
which identified four individuals who challenged the settlement 
agreement between the parties in this case and provided the personal 
contact information of those individuals. You testified that you 
thought the letter was a ``bad idea.'' You further testified that when 
your law firm learned of the letter, your law firm had discussions with 
the cocounsel to pull the letter ``off the web.''

  <diamond> On what date did your law firm learn of this letter?

    Answer. To the best of my knowledge, no one at my Firm knew of the 
``Ask Elouise'' letter until it was posted to the www.indiantrust.com 
Web site on January 20, 2012, by Lead Counsel.

  <diamond> On what date did you learn of this letter?

    Answer. On January 20, 2012, after it was released.

  <diamond> How did you learn of this letter?

    Answer. I became aware of the ``Ask Elouise'' after the letter's 
public release, when a lawyer representing one of the appellants sent 
an e-mail in objection.

  <diamond> Besides having discussions with cocounsel, what other 
        actions did you take to ensure the letter was no longer 
        available on the web?

    Answer. After learning of the letter's release, I expressed my 
misgivings about publishing the letter, especially the contact 
information of the appellants, to both other class counsel and other 
professionals at Kilpatrick Townsend. I urged my colleagues to 
facilitate removing the letter and to avoid posting material that could 
be construed to suggest harassment of appellants. On or around January 
21, I was informed by colleagues that discussions about removing the 
letter from the Web site would be held with one of the appellant's 
attorneys who had objected to the letter. I understand from Garden City 
Group (GCG) that on January 22, 2012, the litigation consultant for 
Lead Counsel requested that GCG remove the letter from the Web site. On 
or about January 22, I was further told by a Firm colleague that the 
letter was removed from the Web site. Additionally, my colleagues and I 
checked the Web site at that time and there found no link to the 
letter. Thus, at the time of my testimony on September 24, 2013, I was 
under the impression that the letter was indeed not on the Indian Trust 
Web site.
    After I was informed on September 24, 2013, that the letter was 
still available through an Internet search, my law partners requested 
that GCG delete the letter so that it would be unavailable through an 
Internet search. I have been told that GCG did so on September 24, 
2013.

  <diamond> What other actions did you take to ensure class members did 
        not threaten or harass the four named individuals in the 
        letter?

    Answer. Upon learning of the letter, I urged my colleagues that we 
should remove it from the Web site and that we should not post any 
further material that could be construed to suggest harassment of 
appellants.
    Further, during my multiple discussions with class members in open 
and public forums--which I estimate to be more than 20 sessions--class 
members frequently raised the question of how to interact with 
objectors or appellants. I consistently made clear that, in 
interactions with objectors or appellants, there should be no 
harassment of any kind, and instead respectful dialogue.

    Question. In the class action lawsuit, Cobell v. Salazar, the 
Agreement on Attorneys' Fees, Expenses and Costs states that the 
Plaintiffs' motion for class counsel's attorneys' fees, expenses, and 
costs shall not assert that class counsel be paid more than $99.9 
million. On December 17, 2009, before the Senate Committee on Indian 
Affairs, Mr. Thomas Perrelli, then Associate Attorney General at the 
U.S. Department of Justice, testified that ``every dollar of attorneys' 
fees will actually come out from individual class members' 
distribution.'' The Claims Resolution Act of 2010 further provides that 
nothing in the section relating to attorneys' fees affects the 
enforceability of the Agreement on Attorneys' Fees, Expenses and Costs.

  <diamond> Despite the $99.9 million limit in this Agreement, did the 
        class counsel and plaintiffs seek fees, expenses, and costs in 
        excess of that amount?

    Answer. The class representatives, our clients, decided that 
consistent with the Agreement with defendants, there would be an 
express request for $99.9 million in fees. In accordance with our 
clients' position, the Petition for Fees specifies that ``Plaintiffs 
hereby assert a fee of $99.9 million for Class Counsel's work through 
December 7, 2009.'' The petition went on to explain that the Court had 
the discretion to award more under the controlling law, but that both 
plaintiffs and defendants agreed not to appeal if the award was between 
$50 and $99.9 million. The petition also stated, consistent with the 
direction of the client, that in comparable cases, awards ranging 
around $223 million would be consistent with controlling law. The Court 
ultimately awarded the $99 million amount asserted by plaintiffs in the 
petition for fees.

  <diamond> How was it in the best interests of the class members to 
        reduce their distribution by your request for the additional 
        attorney fees, expenses, and costs in excess of $99.9 million?

    Answer. Plaintiffs in briefs filed by counsel asserted a claim for 
fees at $99.9 million. The petition also made clear the Court had the 
discretion to award more and that such award would be consistent with 
controlling law.
    As I understand it, the class representatives, especially Ms. 
Elouise Cobell, believed that it was critically important and 
consistent with the best interest of the class to seek a fee award in 
accord with fee awards for non-Indian class actions of similar size and 
complexity. She expressed concern that otherwise attorneys would be 
reluctant to represent Native American plaintiffs without financial 
means who are deprived of their rights by the federal government or 
other entities. This was unacceptable to Ms. Cobell and she was 
particularly sensitive to this point because, as she made clear on the 
record, she had grave difficulties finding lawyers to bring the Cobell 
case in the first place.


 NOMINATIONS OF PHILIP GOLDBERG, ROBERT BLAKE, KAREN STANTON, AND AMY 
                                 HYATT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Philip S. Goldberg, of the District of Columbia, to be 
        Ambassador to the Republic of the Philippines
Hon. Robert O. Blake, Jr., of Maryland, to be Ambassador to the 
        Republic of Indonesia
Karen Clark Stanton, of Michigan, to be Ambassador to the 
        Democratic Republic of Timor-Leste
Amy Jane Hyatt, of California, to be Ambassador to the Republic 
        of Palau
                              ----------                              

    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, presiding.
    Present: Senators Cardin, Rubio, and McCain.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, good afternoon, everyone.
    I want to thank Senator Menendez for allowing me to chair 
today's hearing as we consider four nominees for 
ambassadorships in the Philippines, in the Republic of 
Indonesia, the Republic of Timor-Leste, and the Republic of 
Palau.
    Before I give my opening statement, I am going to recognize 
and acknowledge my colleague from Rhode Island. I would not 
normally do this. Since he is going to be introducing a 
Marylander, I would normally take the prerogative to introduce 
a Marylander, particularly one that has such a wonderful family 
that is here today. But Senator Whitehouse is a dear friend. He 
is, of course, a distinguished Member of the United States 
Senate, comes from a family of diplomats, and has been a great 
addition to the United States Senate. We came at the same time. 
So I am going to yield first to Senator Whitehouse for the 
purposes of an introduction.

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Cardin. And I am 
very grateful to you for yielding to me on a constituent from 
Maryland. I know that I would not ordinarily ask or expect you 
to do that except for the fact that there is a closer 
connection involved here. I have the great pleasure and honor 
of introducing Ambassador Bob Blake who is a member of the 
panel. He is the son and grandson of Foreign Service officers 
and embodies a tradition of public service. His father, 
Ambassador Blake, I see in the audience as well, and his 
grandfather was Ambassador Whitehouse and was my grandfather 
too. So there is the connection.
    Bob graduated from Harvard as an undergraduate and from the 
Johns Hopkins School of Advanced International Studies. He has 
a very distinguished career in the Foreign Service. He is 
serving now as the Assistant Secretary of State for South and 
Central Asia, an area with no shortage of problems and 
concerns. Before then, he was our Ambassador to Sri Lanka and 
the Maldives, again during a time of considerable activity. 
Before that, he was the Deputy Chief of Mission in India, and 
during a considerable period of that service, he was the acting 
Ambassador. And as you know, India is one of our largest and 
most significant embassies. Ambassador Blake won the Baker-
Wilkins Award for best Deputy Chief of Mission in the world for 
his service in that particular role.
    In his long career as a career member of the Foreign 
Service, he served in Turkey, Tunis, Algiers, Cairo. He has had 
the demanding job of watch officer at the State Department Ops 
Center. He is extremely well qualified for dealing with the 
issues that will be presented in Indonesia. Perhaps most 
significantly to this committee, he was an intern on the staff 
of the Senate Foreign Relations Committee for Senator Pell 
years ago.
    It is easy for a family member to say nice things about Bob 
Blake. It is perhaps more meaningful what his colleagues think 
about him. He has received the State Department's Distinguished 
Service Award. He has received the Presidential Meritorious 
Service Award. He has received the Senior Foreign Service 
Performance Award it looks like nine times in a row, from 2003 
through 2012. As I said, he got the Baker-Wilkins Award for the 
best Deputy Chief of Mission in 2005. He has won five different 
Superior Honor Awards, five different Meritorious Honor Awards.
    And I look forward to a quick and uncontroversial 
confirmation of this very distinguished career member of our 
Foreign Service, and I wish him well.
    And I want to recognize also his wife, Sofia, and two of 
his three daughters, unless somebody is hiding, who are here 
also to join their dad as he undergoes the ordeal of a 
confirmation hearing. So love to you all. And my aunt Sylvia is 
here as well.
    Thank you, Chairman.
    Senator Cardin. Well, it is wonderful to have the 
Whitehouse-Blake family here. We are very pleased to have you 
all here. It is a real pleasure to get to know Senator 
Whitehouse's family a little bit better.
    We know that you have an incredible record and legacy on 
foreign service. For all four of the nominees here today, you 
have made a career of public service. So we thank all four of 
you for your commitment to an extremely challenging--and 
putting your family at--the sacrifices that are required. So we 
thank not only you, but we thank each member of your family for 
being willing to serve our country in this very difficult time.
    As you know, President Obama has the rebalance to Asia 
agenda. So each of these countries are in a critical position 
to help U.S. interests in that region. And we, therefore, thank 
each of you for your willingness to step forward. 
Congratulations on your nominations. We thank you for the 
sacrifices that you are making.
    To our four nominees, the countries you are headed to are 
important U.S. partners in building regional stability and 
prosperity as we rebalance our foreign policy toward the Asia-
Pacific region. The Philippines, Indonesia, Timor-Leste, and 
Palau are thriving democracies which share our values. Yet, we 
have a unique relationship with each of these four countries.
    With the Philippines, our strategic treaty ally, we are 
revitalizing our defense alliance and promoting inclusive, 
sustainable economic growth through a Partnership for Progress 
which will be beneficial to both the countries.
    And during his October visit, President Obama may discuss 
the possibility of the Philippines joining the Trans-Pacific 
Partnership trade negotiations.
    Our maritime security. The United States and the 
Philippines agree that disputes must be resolved through 
peaceful means with direct negotiations of the parties 
involved. About half the world's trade passes through the South 
China Sea. We have a direct economic interest in the peaceful 
resolutions of the maritime disputes. We strongly support the 
efforts being made by ASEAN to develop a code of conduct for 
the South China Sea, and our Embassy there can play a very 
important role in preventing first a spark from igniting a 
major incident that could present challenges for the United 
States.
    Despite the vibrant democracy, the Philippines faces 
challenges in strengthening the rule of law and increasing 
transparency. Most concerning is the military practice of 
extrajudicial executions and the culture of impunity which 
President Aquino is trying to address.
    Nearby Indonesia is the largest country in Southeast Asia 
and the most populous Muslim majority nation in the world. 
Indonesia has emerged from decades of dictatorship to become a 
vibrant democracy and is now a leader in the region. Indeed, 
Indonesia is the key player in getting ASEAN and China to the 
table on maritime security issues. So here in Indonesia, we 
have a key opportunity to be able to promote one of our major 
objectives in Asia.
    The United States-Indonesia relationship is thankfully 
entering a new era of maturity. A 2013 Pew opinion poll showed 
that 61 percent of Indonesians have a positive view of the 
United States. I hope that remains true after the problems we 
are having in Congress this week. Of course, this may be partly 
because the President spent 4 years of his childhood in 
Jakarta. The Obama administration skillfully built on these 
ties to create a comprehensive partnership which covers issues 
ranging from education to security to the environment, an 
increasingly critical element of our partnership.
    The country boasts a stunning rich biodiversity which we 
will work together to protect through the Coral Triangle 
Initiative and other partnerships.
    This year Indonesia hosts the Asia-Pacific Economic 
Cooperation forum, APEC. And I know, Mr. Blake, that you are 
eager to get out there before President Obama arrives on 
October 7. So we better get to work, otherwise we will have to 
pay for another airfare.
    If confirmed, I hope when you do get there, you will 
prioritize critical rule of law issues and military reform and 
promote human rights and religious tolerance for all 
minorities.
    Asia's newest nation, Timor-Leste, which gained 
independence from Indonesia in 2002, is a democracy success 
story. U.N. peacekeeper forces withdrew last year after they 
reached the important milestone of peaceful, democratic 
elections. That is something to be proud of, and we need to 
help do what we can to ensure the continued success of 
democracy and its economy continuing to grow stronger and make 
progress toward becoming an ASEAN member.
    The Republic of Palau, situated in a geostrategically 
important position in the Pacific near critical sea-lanes of 
communication and rich fishing grounds is an important partner 
for regional security. Our compact obligates us to defend it 
against attack and allow us exclusive strategic access. We have 
agreed to an additional term of direct funding of the compact, 
and Congress is working to identify the funds to do so.
    Palau is a good example of a successful Pacific island 
democracy. It also is a success story for women's rights in 
democracy. Of the four countries, Palau's traditional 
matrimonial culture and legal structure provides the most 
protection for women promoting equal treatment, equal 
employment, and equal pay. And I want to talk a little bit 
about that because I do believe this can be a model for us 
because there are many other countries in that region that do 
not have at all the same progress that has been made on gender 
equality.
    In terms of gender equality in the other countries, we have 
a mixed picture. The Philippines prioritized gender equity. It 
was the first ASEAN country to ratify the U.N. Convention on 
the Elimination of all Forms of Discrimination Against Women, 
which the United States has yet to do, and has had two women 
Presidents, and we have not had a woman President yet. Yet, 
like the United States, it still struggles to realize the 
promise of equal pay for women and domestic violence remains a 
significant problem.
    Indonesia and Timor-Leste, on the other hand, face more 
severe challenges to women's rights and empowerment as their 
legal and traditional structures limit women's rights. Both 
countries, however, are making improvements.
    If confirmed, I hope that all four of you will advocate for 
social, political, and economic empowerment of women in your 
countries and throughout the region. Ensuring human rights, 
strengthening governance, and protecting the fragile 
environment must be top priorities for diplomacy in this 
region.
    I look forward to hearing your thoughts in regards to these 
and other issues.
    So we have a lot to build on as far as success in all four 
of these countries. All four of these countries play an 
important role for the United States and our strategic 
interests, and all four have challenges that we need to try to 
help strengthen. I hope that you will look at your opportunity, 
if confirmed as Ambassadors, to advance all these goals.
    Mr. Blake, you have already been introduced. So let me at 
this time introduce the Honorable Philip Goldberg, a career 
member of the Senior Foreign Service, who is currently 
Assistant Secretary of the Bureau of Intelligence and Research. 
Prior to that, he was the Department's coordinator for the 
implementation of United Nations Resolution 1874 on North Korea 
sanctions. I must tell you I was recently in South Korea. 
Actually I stepped into North Korea one step at the DMZ. So I 
know the challenges that you had in that particular post.
    You have also served as Ambassador in LaPaz, Bolivia, and 
Chief of Mission of the U.S. Office in Pristina, Kosovo. Other 
senior level positions include Charge and Deputy Chief of 
Mission in Santiago, Chile, and acting Deputy Assistant 
Secretary for Legislative Affairs. So you bring an impressive 
record into this nomination.
    The President's nominee to represent us in Timor-Leste, 
Mrs. Karen Stanton, is a career member of the Senior Foreign 
Service. She is currently serving as Executive Director of the 
Bureau of East Asia and Pacific Affairs. Previously she served 
as the East Asia and Pacific Deputy Executive Director. Prior 
to that, she was Management Counselor in Singapore. She has 
also held management positions in the Bureau of Human Resources 
and East Asia and Pacific Affairs and has served in Beijing, 
Islamabad, and Hong Kong. An impressive record also as you come 
before our committee.
    Ms. Amy Hyatt is also a career member of the Senior Foreign 
Service, has been Management Counselor in Cairo since 2011. 
Prior roles include a diplomat in residence at Arizona State 
University, Deputy Chief of Mission and Charge in Helsinki, and 
Management Counselor in Prague. In Washington, she has served 
in management positions in the Bureau of Human Resources and 
East Asia and Pacific Affairs and Political Analyst in the 
Bureau of Intelligence and Research. Her overseas assignments 
include Manila, Bangkok, Oslo, and Seoul.
    As I mentioned earlier, Mr. Blake, you have already been 
introduced, but we are very proud of your Maryland roots and we 
are very proud of your distinguished record of achievements.
    I have been joined by the ranking member of the 
Subcommittee on East Asia and the Pacific, Senator Rubio, and I 
will now yield to Senator Rubio for any comments that he may 
have.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman.
    And congratulations to all the nominees, and thank you for 
your willingness to serve our country.
    The countries we are going to talk about today represent an 
important cross section of the relationships we have throughout 
East Asia.
    The Philippines, for example, is a top trading partner of 
the United States and an important ally in security, as 
reaffirmed in the 2011 Manila Declaration.
    In Indonesia we have worked to boost bilateral relations 
with and to enhance cooperation along the lines of the U.S.-
Indonesia Comprehensive Partnership.
    Our relationship with Palau was forged in the aftermath of 
World War II, and we continue to cooperate on many issues on 
international affairs.
    And, of course, Timor-Leste is a new nation with which the 
United States is building and strengthening its partnership.
    But speaking more broadly, what I want to stress is that 
our relationships in East Asia are of central importance to 
America's interests overseas. And the work done by our 
embassies in the region are a key component of our efforts to 
pivot more attention to the Pacific. Such a pivot should not be 
one-dimensional, of course. It must be multifaceted and has to 
encompass comprehensive efforts that include engagement over 
our diplomatic and economic interests, as well as our regard 
for security concerns. Close cooperation with East Asia offers 
great opportunities for both the United States and for our 
partners there. And just as the United States continues to be 
an engine for progress and innovation, East Asia brings 
together a vibrancy, energy, and diversity that can fuel 
development and growth.
    We also, however, face great challenges together such as 
those posed by extremists who work to attack us as well as our 
allies in the region. And as I have said before, a prosperous, 
democratic, and stable East Asia is crucial to our own safety 
and our own prosperity. And I hope that these goals top your 
priorities for American diplomatic engagement.
    Toward these goals, I would say that there is no substitute 
for transparent, accountable, and responsive government. Such a 
commitment by governments leads not only to greater economic 
opportunity and to increasing security, but it also promotes 
our values, including our unwavering commitment to the values 
that bind the United States together with democracies in the 
region. This should include a willingness to highlight the 
importance of human rights and of religious freedom. Even to 
our allies, we should be willing to highlight that.
    This brings up a concern that troubles me greatly and that 
is the issue of human slavery or human trafficking. The Asia-
Pacific region has the largest number of human trafficking 
victims in the world at the rate of 3.3 victims per 1,000 
inhabitants. I have cited this figure before and do so again 
because it is absolutely so shocking to me, as it should be to 
everyone. And I would urge all of you, if you are confirmed, to 
take up the fight against human trafficking and support of 
human rights, including religious freedom, as a central part of 
your mission overseas.
    So I want to thank all of you once again for your 
willingness to serve our country, and I look forward to hearing 
your testimony.
    And I want to thank you, Mr. Chairman, for scheduling this 
hearing.
    Senator Cardin. Well, thank you for your comments.
    We will start with Secretary Goldberg.

   STATEMENT OF HON. PHILIP S. GOLDBERG, OF THE DISTRICT OF 
 COLUMBIA, TO BE AMBASSADOR TO THE REPUBLIC OF THE PHILIPPINES

    Ambassador Goldberg. Thank you, Mr. Chairman, and thank 
you, Senator Rubio.
    It is a great honor to appear before you today as President 
Obama's nominee to become the next United States Ambassador to 
the Republic of the Philippines. I am deeply grateful to the 
President and Secretary Kerry for placing their confidence in 
me and for this opportunity to serve our country.
    Mr. Chairman, the United States and the Philippines have a 
deep and longstanding alliance based on democratic values and 
mutual interests, a shared history, and strong people-to-people 
connections. During World War II, soldiers from our two nations 
fought shoulder to shoulder to beat back the spread of tyranny. 
Today, the Philippines, one of only five U.S. treaty allies in 
the East Asia and Pacific region, is a vibrant democracy, an 
active member of the Association of Southeast Asian Nations, 
ASEAN, and home to Asia's second-fastest growing economy. 
President Obama will travel to Manila early next month in 
recognition of the importance of this relationship. If 
confirmed, I look forward to building on this already solid 
foundation between our two countries to strengthen ties at all 
levels.
    Mr. Chairman, a cornerstone of our relationship with the 
Philippines is a shared commitment to stability and security in 
the Asia-Pacific region. We are partners in countering a wide 
range of threats, from terrorism and transnational criminal 
networks to cyber attacks and humanitarian disasters. Our two 
militaries engage in regular cooperation and training to 
strengthen and increase interoperability for defense, as well 
as humanitarian assistance and disaster response, 
counterterrorism, and nonproliferation. We are working together 
to help the Philippines support its security goals of 
monitoring its maritime domain and ensuring civilian law 
enforcement elements can provide internal security. In support 
of the Obama administration's rebalance to the Asia-Pacific, we 
are negotiating a framework agreement that would enable an 
increased rotational presence of U.S. forces in the 
Philippines. We also support Philippine efforts to reduce 
tensions surrounding the territorial disputes in the South 
China Sea, both through the creation of a code of conduct 
between ASEAN members and China and through internationally 
accepted dispute resolution mechanisms.
    Our partnership with the Philippines is broad-based and 
multifaceted. We share strong economic and commercial ties. The 
United States is the Philippines' second-largest trading 
partner. We are also the country's largest foreign investor. 
But much more work needs to be done in order to bring the 
benefits of free trade and economic prosperity enjoyed by other 
countries in Southeast Asia to the 39 million Filipinos, 
roughly 42 percent of the country, who live on less than $2 a 
day. If confirmed, I will seek to expand our economic 
relationship, which will benefit people of both countries. 
Through the Partnership for Growth and the Millennium Challenge 
Compact, our initiatives reinforce the Aquino administration's 
efforts to address corruption, improve economic 
competitiveness, and promote growth that is both inclusive and 
sustainable. Our foreign assistance is also focused on health, 
education, good governance, energy, and the environment. 
Importantly, President Aquino has shown the political will and 
commitment to tackle corruption and promote good governance and 
respect for human rights.
    Last, I would be remiss if I did not mention the special 
bonds that characterize our bilateral relationship. There are 
over 200,000 American citizens residing in the Philippines, and 
nearly 4 million people of Filipino origin in this country. Our 
public diplomacy programs build a long-term foundation for 
understanding and collaboration. Since 1961, some 8,500 Peace 
Corps Volunteers have been forging people-to-people 
partnerships between our two countries.
    Mr. Chairman, for the past 3 years, I have had the honor to 
be Assistant Secretary of State for Intelligence and Research, 
and having served as Chief of Mission two times overseas, with 
sizeable interagency components, I believe I am prepared to 
meet the challenges of this very important and large mission in 
East Asia.
    Thank you for allowing me to testify today. If confirmed, I 
look forward to working with this committee and its members as 
we both carry out our shared efforts and hopes to strengthen 
our relations with the Philippines.
    Thank you.
    [The prepared statement of Ambassador Goldberg follows:]

             Prepared Statement of Hon. Philip S. Goldberg

    Chairman Cardin, Senator Rubio, members of the committee; it is an 
honor to appear before you today as President Obama's nominee to become 
the next United States Ambassador to the Republic of the Philippines. I 
am deeply grateful to the President and Secretary Kerry for placing 
their confidence in me and for this opportunity to serve the United 
States of America.
    Mr. Chairman, the United States and the Philippines have a deep and 
longstanding alliance based on democratic values and mutual interests, 
a shared history, and strong people-to-people connections. During World 
War II, soldiers from our two nations fought shoulder to shoulder to 
beat back the spread of tyranny. Today, the Philippines, one of only 
five U.S. treaty allies in the East Asia and Pacific region, is a 
vibrant democracy, an active member of the Association of Southeast 
Asian Nations (ASEAN), and home to Asia's second-fastest growing 
economy. On November 16, 2011, we celebrated the 60th anniversary of 
the Mutual Defense Treaty with the signing of the Manila Declaration 
between then-Secretary of State Clinton and her counterpart, Foreign 
Secretary del Rosario. The following spring, we convened a historic 2+2 
Ministerial in Washington, followed by President Aquino's visit to the 
White House in June 2012. And as you know, President Obama will travel 
to Manila early next month. If confirmed, I look forward to building on 
this already solid foundation between our countries to strengthen ties 
at all levels.
    Mr. Chairman, as you know, a cornerstone of our relationship with 
the Philippines is a shared commitment to stability and security in the 
Asia-Pacific region. We are partners in countering a wide range of 
threats, from terrorism and transnational criminal networks to cyber 
attacks and humanitarian disasters. Our two militaries engage in 
regular cooperation and training to strengthen and increase 
interoperability for defense as well as humanitarian assistance and 
disaster response, counterterrorism and nonproliferation. We are 
working together to help the Philippines support its security goals of 
monitoring its maritime domain and ensuring civilian law enforcement 
elements can provide internal security. In support of the Obama 
administration's rebalance to the Asia-Pacific, we are negotiating a 
Framework Agreement that would enable an increased rotational presence 
of U.S. forces to the Philippines, enhance opportunities for joint 
military training and exercises, and allow for the prepositioning of 
equipment and supplies to respond quickly to natural disasters. We also 
support Philippine efforts to reduce tensions surrounding the 
territorial disputes in the South China Sea, both through the creation 
of a Code of Conduct between ASEAN member states and China, and through 
internationally accepted dispute resolution mechanisms like those 
provided for under the United Nations Convention on the Law of the Sea. 
Ensuring freedom of navigation and unimpeded lawful commerce in the 
South China Sea remains an important U.S. national interest shared by 
the Philippines and others in the region.
    Our partnership with the Philippines is broad-based and 
multifaceted. We share strong economic and commercial ties--the United 
States is the Philippines' second-largest trading partner with $22 
billion in two-way trade last year. We are also the country's largest 
foreign investor. But much more work needs to be done in order to bring 
the benefits of free trade and economic prosperity enjoyed by other 
countries in Southeast Asia, to the 39 million Filipinos--roughly 42 
percent of the country--who live on less than $2 a day. If confirmed, I 
will seek to expand our economic relationship, which will benefit 
people of both countries. Through the Partnership for Growth, which we 
support through 10 U.S. agencies, and the Millennium Challenge Compact, 
our initiatives reinforce the Aquino administration's efforts to 
address corruption, improve economic competitiveness and promote growth 
that is both inclusive and sustainable. Our foreign assistance is also 
focused on health, education, good governance, energy and the 
environment. The Philippines has long had the resources necessary to 
achieve its full potential. President Aquino has shown the political 
will and commitment to tackle corruption and promote good governance 
and respect for human rights.
    Last, I would be remiss if I didn't mention the special bonds that 
characterize our bilateral relationship. Our public diplomacy programs 
build a long-term foundation for understanding and collaboration. Since 
1961, some 8,500 Peace Corps Volunteers have been forging people-to-
people partnerships between our two countries. There are over 200,000 
American citizens residing in the Philippines and nearly 4 million 
people of Filipino origin in this country. Filipino Americans have made 
their mark by contributing to our country in so many fields. It is no 
surprise, therefore, that our Embassy in Manila is one of the largest 
visa processing posts in the world, both for travelers to the United 
States and those who seek to reunite with members of their family. The 
Philippines is also home to the only U.S. Veterans clinic overseas.
    Mr. Chairman, for the past 3\1/2\ years I have been the Assistant 
Secretary of the Bureau of Intelligence and Research in the State 
Department. I have twice served as a Chief of Mission overseas, leading 
sizeable interagency teams, as Ambassador to Bolivia from 2006 to 2008 
and Chief of Mission to Kosovo from 2004 to 2006. I have also been 
engaged in diplomatic efforts in East Asia in working to prevent North 
Korea's proliferation activities and have led interagency delegations 
to Southeast Asia toward that end. I believe that these experiences 
have prepared me well to be in charge of a large mission to an 
important ally in the Asia-Pacific region. If confirmed by the Senate, 
I look forward to leading the 1,400 outstanding men and women, both 
American and Filipino, who work in Embassy Manila.

    Senator Cardin. Thank you very much for your testimony.
    Secretary Blake.

  STATEMENT OF HON. ROBERT O. BLAKE, JR., OF MARYLAND, TO BE 
            AMBASSADOR TO THE REPUBLIC OF INDONESIA

    Ambassador Blake. Mr. Chairman, Senator Rubio, it is an 
honor to appear before you today as President Obama's nominee 
to be the next Ambassador to the Republic of Indonesia. I am 
deeply grateful to the President and to Secretary Kerry for 
placing their confidence in me and for this incredible 
opportunity to serve the United States in this country of 
growing strategic importance to the United States.
    I want to thank Senator Whitehouse for his gracious 
introduction, and if confirmed, I hope I can reciprocate by 
hosting CODEL Whitehouse in Indonesia.
    Mr. Chairman, Senator Whitehouse already introduced my 
wife, Sofia, and two of our three daughters, Kalena and Alexie. 
It is with their love and support that I have been able to 
serve our great Nation in ever-more challenging assignments. 
But I would also like to recognize my parents, Robert and 
Sylvia Blake, who are here today. My father had a distinguished 
career in the Foreign Service and instilled in me a respect for 
public service and an interest for foreign affairs. He is a big 
part of why I am here today.
    Mr. Chairman, as you said, Indonesia is a strategic partner 
of the United States. It is the world's third-largest 
democracy, the most populous Muslim majority country, and an 
emerging economic leader. It is a member of the G20, the 2013 
host of APEC, as well as the WTO ministerial, and a major 
influence within the Association of Southeast Asian Nations. 
Our countries share common values and increasingly convergent 
interests. If confirmed, one of my priorities will be to 
continue to broaden and deepen our bilateral relations.
    Mr. Chairman, 3 years after President Obama and Indonesian 
President Yudhoyono signed our Comprehensive Partnership in 
2010, we have arrived at an unprecedented level of interaction 
between our governments and it is my intention to sustain and 
build on that. Today, the United States looks to Indonesia as a 
valued partner in areas such as counterterrorism, environmental 
conservation, peacekeeping operations, and the promotion of 
human rights. Indonesia is also an important partner in our 
Asia rebalance policy.
    Fifteen years ago, as Indonesia began its transition to 
democracy after decades of authoritarian rule and the Asian 
financial crisis, the prospects for Indonesia's future were 
uncertain. It is a testament to the commitment of the 
Indonesian people that a retreat from democracy is today 
unthinkable, and the work of institutionalizing open and 
inclusive governance continues.
    The nature of our assistance is also changing. There are 
significant sectors such as higher education, health, and 
strengthening local government where the United States must 
continue to support Indonesia's efforts to build capacity. And 
with the support, Indonesia is on a steady path to assume its 
place as a middle-income country and expand its ability to 
engage with the United States and others. But Indonesia 
supports our goal to cofinance programs with the government, 
private sector, and civil society. We also have a robust 
defense cooperation agreement that supports international 
military education and training programs, as well as foreign 
military sales.
    The United States has committed funds to support a $600 
million Millennium Challenge Corporation compact that focuses 
on low carbon development through financing for clean and 
renewable energy, sustainable land and forest management, as 
well as other priorities such as nutrition assistance.
    If confirmed, I will pursue increased trade and investment 
opportunities for U.S. business, deepen our collaboration on 
innovations in science and technology, and share America's 
stories and values with the Indonesian people through our 
vigorous public diplomacy programs. I will also continue to 
engage with Indonesians to support their goals to strengthen 
democratic institutions and rule of law and seek continued 
progress on protection of members of religious minorities, 
curbing trafficking in persons, and upholding the rights of 
women.
    Mr. Chairman, in my 28 years in the Foreign Service, I have 
been fortunate to serve our country in diplomatic postings in 
South Asia, the Middle East, and Africa, including most 
recently as Ambassador to Sri Lanka and the Maldives and my 
current position as Assistant Secretary of State for South and 
Central Asia. If confirmed, I will rely on these experiences to 
lead our mission in Indonesia to tackle the challenges of the 
21st century including, particularly, a sharp focus on the 
security for our personnel and private Americans. If confirmed, 
I will look forward to working with this committee and with 
each of you as we continue to carry out the President's 
priorities in Asia.
    So, again, I thank you for this opportunity today, and I 
would be honored to take your questions.
    [The prepared statement of Ambassador Blake follows:]

                 Prepared Statement of Robert O. Blake

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Obama's nominee to become the next United 
States Ambassador to the Republic of Indonesia. I am deeply grateful to 
President Obama and Secretary Kerry for placing their confidence in me 
and for the incredible opportunity to serve the United States in this 
country of growing strategic importance to us.
    I would also like to introduce my wife, Sofia, and our three 
daughters, Kalena, Zara, and Alexie. It is with their unconditional 
love and support that I have been able to serve our great Nation for 
the last 28 years in ever-more challenging assignments. I would also 
like to recognize my parents Robert and Sylvia Blake who are here 
today. My father had a distinguished career in the Foreign Service and 
instilled in me a respect for public service and an interest in foreign 
affairs. Whatever good habits I have acquired as a diplomat can largely 
be ascribed to his and my mother's good genes and example.
    Mr. Chairman, Indonesia, an emerging power, is a strategic partner 
of the United States. It is the world's third-largest democracy, the 
most populous Muslim-majority country, and an emerging economic leader, 
not only in Southeast Asia, but globally. Indonesia is a member of the 
G20, the 2013 host of APEC and the WTO Ministerial, and a major 
influence within the Association of Southeast Asian Nations (ASEAN). 
Our countries share common values, and, if confirmed, it will be one of 
my priorities to continue to elevate and deepen our bilateral 
relationship. Three years after President Obama and Indonesian 
President Yudhoyono signed the Comprehensive Partnership in 2010, we 
have arrived at an unprecedented level of interaction between our 
governments, and it is my intention to sustain and build on that. If 
confirmed, I will also seek to further the work of my predecessors to 
increase the people-to-people linkages among our citizens through 
educational and professional exchanges and public-private partnerships 
to create a long-term foundation for mutual understanding and 
collaboration.
    Fifteen years ago, as Indonesia began its transition to democracy 
after decades of authoritarian rule, the prospects for Indonesia's 
future were very uncertain. It is a testament to the commitment of the 
Indonesian people that a retreat from democracy is unthinkable, and the 
work of institutionalizing open and inclusive governance and increasing 
capacity continues. Mr. Chairman, you and others on this committee may 
recall that there was a time when the United States had limited 
engagement with Indonesia. That time has passed. Today, the United 
States looks to Indonesia as a responsible emerging leader in the 
region and a valued partner in areas such as counterterrorism, 
environmental conservation, peacekeeping operations, and the regional 
and global promotion of human rights and democratic governance. 
Indonesia is also an important partner in our Asia rebalance policy to 
promote regional prosperity, underpinned by regional security and 
stability.
    The nature of our U.S. foreign assistance relationship is also 
transforming. There are significant sectors--higher education, health, 
and strengthening local governance--where the United States must 
continue to support Indonesia's efforts to build capacity and improve 
outcomes. We also have a robust defense cooperation agreement that 
supports international military education and training programs, as 
well as foreign military sales. With this support, Indonesia is on a 
steady path to eventually assume its place as a middle-income country 
and expand its ability to engage in bilateral and trilateral 
cooperation, including with the United States.
    The United States has committed foreign assistance funds to support 
a $600 million Millennium Challenge Corporation compact that focuses on 
development of clean and renewable energy, sustainable land and forest 
management, nutrition assistance, and procurement modernization. 
Indonesia is among the top emitters of greenhouse gas and is one of 
several target countries for the President's Global Climate Change 
initiative. The United States has launched a number of significant 
climate change and environmental cooperation programs with Indonesia to 
help address deforestation and land use challenges and advance 
Indonesia's efforts in Reducing Emissions from Deforestation and Forest 
Degradation. These efforts include the Indonesia Forestry and Climate 
Support Program and the Sustainable Landscapes Initiative; 
collaboration on peatland science and mapping; support for systems for 
monitoring, reporting, and verifying greenhouse gas emissions; and 
implementing low emissions development strategies.
    There is more work for us to do, however. If confirmed, I will 
pursue increased trade and investment and opportunities for U.S. 
businesses, deepen our collaboration on innovations in science and 
technology, and share America's story and values with the Indonesian 
people through Public Diplomacy programs. I will also continue to 
engage with Indonesia's representatives and citizens to support 
Indonesia's goals to strengthen its democratic institutions and rule of 
law. I will also seek continued progress on protection of members of 
religious minorities and trafficking in persons.
    Mr. Chairman, in my 28-year career in the Foreign Service I have 
been fortunate to serve the United States in both Washington and in 
diplomatic postings abroad in South Asia, the Middle East, and Africa, 
including as Ambassador to Sri Lanka and the Maldives and my current 
position as Assistant Secretary for South and Central Asian Affairs at 
the Department of State. If confirmed, I will bring the variety of my 
experiences, including policy and management responsibilities, to lead 
our mission in Indonesia to tackle the challenges of the 21st century, 
including the oversight of security for our personnel in our Embassy 
and constituent posts. If confirmed, I will look forward to working 
with this committee and engaging with each of you further, whether here 
in Washington or during your visits to the region, as we continue to 
carry out the President's priorities in Asia.

    Senator Cardin. I want to thank you for your testimony.
    Ms. Stanton.

STATEMENT OF KAREN CLARK STANTON, OF MICHIGAN, TO BE AMBASSADOR 
           TO THE DEMOCRATIC REPUBLIC OF TIMOR-LESTE

    Ms. Stanton. Mr. Chairman, thank you, and Senator Rubio, 
thank you very much. I am honored to appear before you today as 
President Obama's nominee as Ambassador to the Democratic 
Republic of Timor-Leste. I am sincerely grateful for the trust 
and confidence the President and Secretary Kerry have shown in 
nominating me.
    Mr. Chairman, if you will permit me, I would like to 
introduce my daughter, Ellie, here behind me, who is here to 
represent my family. My husband, Bill, is a retired Foreign 
Service officer and working in Taiwan, and my elder daughter, 
Kate, is in Australia.
    Since I joined the Foreign Service in 1980, I have spent 
virtually my entire career supporting U.S. interests in Asia, 
mostly in consular and management positions. For the last 4 
years, I have served as the Executive Director in the Bureau of 
East Asian and Pacific Affairs. The Bureau's Executive Office 
has been at the forefront of the State Department's effort to 
increase efficiency and contain costs in our overseas 
management. If confirmed, I pledge to bring all my skills and 
experience to provide the best possible leadership and 
management of the American Embassy in Timor-Leste.
    My first experience with Timor-Leste was in 2002 when, on 
an earlier tour in the East Asia Bureau's Executive Office, I 
worked on the process for opening our new Embassy in Dili. I 
can remember wondering how this new country would overcome so 
many daunting challenges, but since that time, Timor-Leste has 
made significant progress. It is in many ways a remarkable 
success story.
    The year 2012 alone was full of watershed moments for the 
country. Free and fair Presidential and parliamentary 
elections, successful transfers of authority to a new President 
and a new coalition government, celebration of the country's 
10th anniversary of independence, the conclusion of the U.N. 
integrated mission and the International Stabilization Force, 
and the first visit of a U.S. Secretary of State. Timor-Leste 
has become a model young democracy and a significant 
achievement for U.N. peacekeeping.
    The United States is committed to helping Timor-Leste build 
on its accomplishments in maintaining and increasing stability, 
institutionalizing democratic governance, expanding the rule of 
law and access to justice, and promoting prosperity. We are 
working to facilitate people-to-people exchanges between 
Timorese and U.S. citizens to reinforce appreciation for our 
shared values and communicate U.S. commitment to our 
partnership with Timor-Leste.
    The U.S. military has an active program to support the 
ongoing professionalization of Timor-Leste's security and law 
enforcement agencies. Several U.S. agencies work with 
counterparts in Timor-Leste to strengthen their law enforcement 
capabilities. If given the honor of serving as Ambassador, I 
will build on these efforts to achieve security sector reforms 
necessary for a lasting peace.
    The United States also supports efforts to strengthen 
democratic governance, accountability, and justice institutions 
in Timor-Leste. We support expanding access to justice for 
society's most vulnerable groups, including women and girls, 
and promote efforts to eliminate the scourge of gender-based 
violence. We are contributing to efforts to build human and 
institutional capacity within the judicial, legislative, human 
rights, and accountability bodies. If confirmed, I will work 
hard to advance human and political rights and good governance 
in Timor-Leste.
    Timor-Leste has natural resource industries that are 
instrumental in developing its economy and lifting its citizens 
from poverty. Income from the country's modest oil and gas 
reserves currently provides 95 percent of Timor-Leste's state 
revenues and 80 percent of its gross domestic product.
    Despite its financial assets, however, Timor-Leste lacks 
adequate human capacity. Approximately half of the population 
lives below the poverty line of 88 cents per day. Timor-Leste 
will require additional technical assistance and foreign 
support to enable the government to effectively use its own 
resources to address its people's urgent needs.
    Our assistance programs focus on reducing poverty, 
stimulating economic growth, and building the human and 
institutional capacity needed to sustain Timor's success into 
the future. If confirmed, I will ensure that U.S. taxpayer 
funds are invested wisely to enable the Timorese to help 
themselves.
    As we support stability and democracy in Timor-Leste, we 
are also developing an enduring partnership to promote 
democracy and human rights around the world. Time and again, 
the Government of Timor-Leste has joined with the United States 
in casting critical votes supporting core human rights 
principles at the United Nations.
    Timor-Leste is an active international player, aspiring to 
ASEAN membership, and at the cutting edge of the aid 
effectiveness movement. It is a model for fragile states and 
for nation-building in post-conflict areas worldwide.
    The United States is honored to partner with the Timorese, 
in concert with its many international friends, to ensure that 
the country consolidates its gains and continues to advance. 
Challenges remain, but with our continued support, Timor-Leste 
will create a brighter future for its people.
    Mr. Chairman, Senator Rubio, thank you for allowing me to 
appear before you today. I am pleased to answer your questions.
    [The prepared statement of Ms. Stanton follows:]

                 Prepared Statement of Karen C. Stanton

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee as Ambassador to the 
Democratic Republic of Timor-Leste. I am sincerely grateful for the 
trust and confidence the President and Secretary Kerry have shown in 
nominating me.
    Mr. Chairman, if you will permit me, I would like to introduce my 
daughter, Ellie, who is here today to represent my far-flung family. My 
husband, Bill, a retired Foreign Service officer, is working in Taiwan, 
and my elder daughter, Kate, works in Australia. I joined the Foreign 
Service in 1980, in the midst of the Iranian hostage crisis. I spoke 
some French and had studied Western European politics, but reflecting 
the ``worldwide availability'' the Foreign Service prides itself on, 
the State Department sent me to Hong Kong. Since then, I have spent 
virtually my entire career supporting U.S. interests in Asia, mostly in 
consular and management positions, including as a consular officer in 
China during the Tiananmen Square protests. For the last 4 years, I 
have served as the Executive Director in the Bureau of East Asian and 
Pacific Affairs. The Bureau's Executive Office has been at the 
forefront of the State Department's effort to increase efficiency and 
contain costs in our overseas management. If confirmed, I pledge to 
bring all my skills and abilities to provide the best possible 
leadership and management of the American Embassy in Timor-Leste.
    My first experience with Timor-Leste was in 2002, when on an 
earlier tour in the East Asia Bureau's Executive Office, I worked on 
the process for opening our then-new Embassy in Dili. I can remember 
wondering how this new country would overcome so many daunting 
challenges, but since that time Timor-Leste has made significant 
progress. It is in many ways a remarkable success story.
    The year 2012 alone was full of watershed moments for the country: 
free and fair Presidential and parliamentary elections, successful 
transfers of authority to a new President and a new coalition 
government, celebration of the country's 10th anniversary of 
independence, the conclusion of the U.N. integrated mission and the 
International Stabilization Force, and the first visit of a U.S. 
Secretary of State. Timor-Leste has become a model young democracy and 
a significant achievement for U.N. peacekeeping.
    The United States is committed to helping Timor-Leste build on its 
accomplishments in maintaining and increasing stability, 
institutionalizing democratic governance, expanding the rule of law and 
access to justice, and promoting prosperity. We are working to 
facilitate people-to-people exchanges between Timorese and U.S. 
citizens to reinforce appreciation for our shared values and 
communicate U.S. commitment to our partnership with Timor-Leste.
    The U.S. military has an active program to support the ongoing 
professionalization of Timor-Leste's security and law enforcement 
agencies. The U.S. Pacific Command conducts exercises and exchanges. A 
U.S. Navy Seabee detachment works with Timorese military engineers to 
build or rehabilitate schools, clinics, and community centers, an 
effort which has been warmly received by the Timorese public. The 
Department of State supports the National Police in a number of ways, 
including through assignment of two U.S. police advisors in Dili. An 
array of U.S. agencies, including the Department of State's Diplomatic 
Security Bureau, the Federal Bureau of Investigation, the Drug 
Enforcement Agency, the Naval Criminal Investigative Service, and the 
Coast Guard, works with counterparts in Timor-Leste to strengthen their 
law enforcement capabilities. If given the honor of serving as 
Ambassador, I will build on these efforts to achieve security sector 
reforms necessary for a lasting peace.
    The United States also supports efforts to strengthen democratic 
governance, accountability, and justice institutions in Timor-Leste. We 
support expanding access to justice for society's most vulnerable 
groups, including women and girls, and promote efforts to eliminate the 
scourge of gender-based violence. We are contributing to efforts to 
build human and institutional capacity within the judicial, 
legislative, human rights, and accountability bodies. If confirmed, I 
will work hard to advance human and political rights and good 
governance in Timor-Leste.
    Timor-Leste has natural resource industries that are instrumental 
in developing its economy and lifting its citizens from poverty. Income 
from the country's modest oil and gas reserves currently provides 95 
percent of Timor-Leste's state revenues and 80 percent of its gross 
domestic product. Timor-Leste was the third country in the world and 
the first in Asia to become fully compliant with the Extractive 
Industries Transparency Initiative.
    Despite its financial assets, however, Timor-Leste lacks adequate 
human capacity. Approximately half of the population lives below the 
poverty line of 88 cents per day. Timor-Leste ranks near the bottom 
worldwide in terms of maternal and infant mortality and malnourishment. 
Timor-Leste will require additional technical assistance and foreign 
support to enable the government to effectively use its own resources 
to address its people's urgent needs.
    Our assistance programs focus on reducing poverty, stimulating 
economic growth, and building the human and institutional capacity 
needed to sustain Timor's progress into the future. If confirmed, I 
will ensure that U.S. taxpayer funds are invested wisely to enable the 
Timorese to help themselves.
    As we support stability and democracy in Timor-Leste, we are also 
developing an enduring partnership to promote democracy and human 
rights around the world. Time and again, the Government of Timor-Leste 
has joined with the United States in casting critical votes supporting 
core human rights principles at the United Nations.
    Timor-Leste is an active international player, aspiring to ASEAN 
membership and at the cutting edge of the aid effectiveness movement. 
It is a model for fragile states and for nation-building in post-
conflict areas worldwide.
    The United States is honored to partner with the Timorese, in 
concert with its many international friends, to ensure that the country 
consolidates its gains and continues to advance. Challenges remain, but 
with our continued support, Timor-Leste will create a brighter future 
for its people.

    Senator Cardin. Thank you for your testimony.
    Ms. Hyatt.

STATEMENT OF AMY JANE HYATT, OF CALIFORNIA, TO BE AMBASSADOR TO 
                     THE REPUBLIC OF PALAU

    Ms. Hyatt. Mr. Chairman, Senator Rubio, I am honored to 
appear before you today as President Obama's nominee for 
Ambassador to the Republic of Palau. I am sincerely grateful 
for the trust and confidence that the President and Secretary 
Kerry have placed in me.
    Permit me to express my gratitude to dear friends and 
colleagues who have stood by me and helped mentor me to help me 
be where I am today and through the years, and to John and Dee 
and to my late parents, Rene and Ernie, and most especially my 
three children, Erin, Zach, and Emma. My family has been shaped 
by our many years in the Foreign Service. My children have made 
sacrifices for my career. They have made them in good cheer--
well, mostly in good cheer, occasional griping. And I am 
grateful for their understanding.
    It has been an honor and a privilege to serve my country 
for over 28 years in the Foreign Service, 10 of those years 
focused on East Asia. I am proud to represent the American 
people overseas.
    The United States and the Republic of Palau have enjoyed a 
close and special relationship for over 60 years, a 
relationship forged in history from the battle of Peleliu in 
World War II, through trusteeship, until today as two 
independent nations closely bonded in friendship. The United 
States has built roads, hospitals, and schools on Palau and 
helped them develop a stable democracy modeled on our own 
system of government. Palau has come a long way. Thank you, Mr. 
Chairman, for recognizing its success in promoting gender 
equality.
    Palau has stood beside us in good times and bad. Young 
Palauans have fought with us in Iraq and Afghanistan. Currently 
500 Palauans serve in our military, and seven have made the 
ultimate sacrifice in Afghanistan. These are significant 
numbers for a country of under 20,000 people. No member state 
at the United Nations has a better record of voting with the 
United States than Palau.
    In furtherance of our efforts to close Guantanamo Bay 
detention camp, Palau was one of the first countries to step 
forward to accept temporary resettlement of six ethnic Uighur 
detainees.
    The United States and Palau concluded a compact of free 
association in 1994 that provided the framework for our 
bilateral relationship. Its provisions ensure the security of 
Palau and contribute to the security of the United States. The 
compact does not have a termination date, but requires a review 
at the 15-, 30-, and 40-year anniversaries. Our two governments 
worked closely over 20 months of discussions to conclude the 
15-year review, which resulted in a bilateral agreement signed 
by both of our governments in 2010. This agreement is currently 
undergoing congressional review.
    The maturity of the democratic process in a relatively 
young state as Palau is a testament to the people of the 
Pacific and reinforces the value of the compact as a vehicle 
for their transition to greater self-sufficiency. 
Implementation of that agreement is essential for the 
continuation of our relationship, as well as for Palau's 
continued economic development.
    I hope Congress will approve the Palau legislation soon, 
and if confirmed, I look forward to working with you on this 
issue. How we manage our relationship with Palau over the next 
several years will set a tone that could last for decades.
    If confirmed, I look forward to working with the members of 
this committee and other distinguished Members of Congress and 
your staff members to achieve U.S. policy goals, to strengthen 
our relationship with the Republic of Palau. I pledge to 
promote and protect U.S. interests, to pursue tirelessly human 
rights, freedom of religion, and to combat trafficking in 
persons. Most importantly, I pledge to ensure the security and 
well-being of American citizens in Palau and to lead 
effectively our talented and dedicated American and Palauan 
staff.
    Mr. Chairman, in closing, I would like to emphasize that 
Palau was our protectorate and is now our ally. The people of 
Palau are woven into the American fabric, serving with 
distinction and honor in our military, and living and working 
beside us in the United States. Palau remains a dependable 
partner in bolstering security in the western Pacific. As the 
economic center of gravity shifts to the Asia-Pacific region, 
the importance to U.S. interests of a stable, increasingly 
prosperous, and democratic Palau in this dynamic region 
continues to grow.
    I thank you again for the privilege of appearing before you 
today. I am pleased to answer your questions.
    [The prepared statement of Ms. Hyatt follows:]

                 Prepared Statement of Palau Amy Hyatt

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee to be the next Ambassador 
to the Republic of Palau. I am deeply grateful for the trust and 
confidence that President Obama and Secretary Kerry have placed in me. 
Permit me to express my deep gratitude to my three children: Erin, 
Zach, and Emma. My family has been shaped and tested by my many years 
in the Foreign Service, and we have emerged stronger in our commitment 
to public service.
    It has been an honor and privilege to serve my country for over 28 
years in the Foreign Service, 10 of those years in East Asia. I have 
served in Korea, Thailand, and the Philippines, as well as in Europe, 
the Middle East, and Washington. I have enjoyed every one of my tours 
and learned much about the languages and cultures of other countries. I 
am deeply grateful to be an American citizen and proud to be entrusted 
with representing the American people overseas. If confirmed, I will 
faithfully represent to the people of Palau the values and ideals we 
Americans hold dear and steadfastly pursue our country's interests in 
the region.
    The United States and the Republic of Palau have enjoyed a close 
and special relationship for over 60 years. In 1947, the United Nations 
assigned the United States administering authority over the Trust 
Territory of the Pacific Islands, which included Palau, the Republic of 
the Marshall Islands, the Federated States of Micronesia, and the 
Commonwealth of the Northern Mariana Islands. During that period, the 
United States built roads, hospitals, and schools and extended 
eligibility for U.S. federal programs in the Trust Territory. Over the 
years, several of the trustee islands sought changes in their political 
status, leading to full independence. Palau adopted its own 
constitution in 1981, and the governments of the United States and 
Palau concluded a Compact of Free Association that entered into force 
on October 1, 1994.
    Our Compact of Free Association provides the framework for much of 
our bilateral relationship. Its provisions ensure the security of Palau 
and contribute to the security of the United States. Palau now has a 
new President--Tommy Remengesau, Jr.--and new Cabinet in place, and how 
we manage our relationship with Palau over the next several years will 
set a tone that could last decades. If confirmed, I will work closely 
with this committee and Congress to ensure U.S. interests in the region 
are strengthened through a mutually beneficial and cooperative 
relationship with Palau.
    Palau's stable government is modeled on our own. Palau shares our 
vision on important international goals for human rights and democracy. 
The maturity of the democratic process in a relatively young state as 
Palau is a testament to the strong values of the people of the Pacific 
and reinforces the value of the Compact as a vehicle for their 
transition to greater self-sufficiency.
    Our Compact with Palau, which took effect in 1994, does not have a 
termination date and requires a review on the 15-, 30-, and 40-year 
anniversaries of its effective date. The direct economic assistance 
provisions of the Compact, however, expired on September 30, 2009. Our 
two governments worked closely over 20 months of discussions and 
negotiations to conclude the 15-year review, which resulted in a 
bilateral agreement signed by both our governments in September 2010. 
The Compact Review Agreement is currently undergoing congressional 
review. Implementation of the agreement is essential for the 
continuation of our relationship as well as for Palau's continued 
economic development and future self-sufficiency, and I hope Congress 
will approve the Palau legislation soon. If confirmed, I look forward 
to working with you on the approval of Palau legislation.
    With more than 20 U.S. Government agencies conducting programs in 
Palau, I believe it is important to improve coordination among them to 
ensure our efforts are effective and implemented with transparency and 
accountability. If confirmed, I will work especially closely with the 
Department of the Interior, which administers and oversees assistance 
to Palau under the Compact and its related agreements. Unfortunately, 
the Peace Corps will close its Palau office next year. The Peace Corps 
will continue to support volunteers currently in Palau until they end 
their service in August 2014. In the future, the Peace Corps will work 
with the Government of Palau in placing shorter term volunteers through 
the Peace Corps Response program. If confirmed, I will work with the 
Peace Corps and the Government of Palau to ensure the smooth transition 
of volunteers from longer term to shorter term assignments.
    Under the Compact, citizens of Palau may live and work in the 
United States. Many of Palau's young adults are serving in the U.S. 
military today in Afghanistan and throughout the world. Palauans 
serving in our Armed Forces have made the ultimate sacrifice to make 
the world a safer place for us all. Palau's Ambassador to the United 
States, Hersey Kyota, has two adult children serving in the Armed 
Forces. He has several nephews serving in the Army and Marine Corps. 
The sons and daughters of other Palauan Government officials and of 
ordinary Palauan citizens have also served honorably in U.S. military 
units through the decades.
    The importance of our strong relationship with Palau extends beyond 
defense considerations. Palau is a loyal friend and ally in many other 
ways. Palau has a strong record for voting with the United States at 
the United Nations on a number of resolutions in the General Assembly. 
Over the years, Palau has stood by us and provided critical votes on 
issues vital to U.S. interests. Palau has the highest level of support 
for U.S. positions (over 95 percent) of any member state, including on 
key issues such as Israel and support for human rights. If confirmed, I 
will work with the Government of Palau on these important issues. In 
support of our efforts to close the Guantanamo Bay Detention Camp, 
counterterrorism policy, in 2009, Palau temporarily resettled six 
ethnic Uighur detainees from Guantanamo at a time when few other 
countries were willing to step up. Palau has been a patient and 
cooperative partner with us as we work through permanent resettlement 
options for the remaining Uighurs. If confirmed, I will work closely 
with the Government of Palau on this important and sensitive issue.
    The United States and Palau have engaged in law enforcement 
exercises over the past year and have conducted joint maritime 
surveillance operations. Palau is also an active participant in the 
Shiprider program, an effort that benefits both Palau and U.S. maritime 
security initiatives. In addition, on August 15, 2013, the United 
States and Palau concluded a new maritime law enforcement agreement 
that will allow our two countries to further enhance maritime 
cooperation. If confirmed, I will work with the Department of Defense 
and the Department of Homeland Security and will continue to look for 
opportunities to conduct further joint surveillance operations that 
would include the Palau Pacific Patrol Boat.
    The United States enjoys close cooperation with Palau on a range of 
environmental issues of critical concern in the Pacific. We have been a 
strong partner with the Pacific Islands in our shared efforts to 
achieve sustainable management of Pacific fisheries resources and 
combat illegal, unreported and unregulated fishing (IUU) fishing. 
President Remengesau has stated his intention to ban all commercial 
fishing in Palau's EEZ. If confirmed, I will work with the President to 
seek his views on replacing fishing revenue with tourism revenues. 
Palau is also a strong supporter of combating climate change. This year 
through the Department of State and USAID, we will fund a climate 
change adviser to help Palau with its climate change initiatives. I 
welcome engagement with our Regional Environment hub based in Suva as 
we identify and address mutual interests, both bilateral and regional, 
in the areas of environment and science.
    Palau is a strong partner in fostering regional cooperation in the 
Pacific. Next year, Palau will host the 45th Pacific Island Forum 
(PIF), a premier intergovernmental organization that aims to enhance 
cooperation between the independent countries of the Pacific Ocean. If 
confirmed, I will work closely with the Government of Palau to 
highlight U.S. priorities in the Pacific and our strong support for 
regional security and stability at next year's PIF. I will also work 
with regional partners to ensure that all U.S. assistance is 
transparent and coordinated with the work being done by other donors in 
the region, including Japan and Australia.
    If confirmed, I look forward to working with the members of this 
committee, other distinguished Members of Congress, and your staff 
members to achieve U.S. policy goals and strengthen our relationship 
with the Republic of Palau. I pledge to promote and protect U.S. 
interests and lead effectively our talented and dedicated American and 
Palauan staff.
    Mr. Chairman, in closing, I would like to emphasize that Palau was 
our protectorate but is now our ally. The people of Palau are woven 
into the American fabric, serving with distinction and honor in our 
military and living and working beside us in the United States. Palau 
remains a dependable partner in bolstering security in the Western 
Pacific. As the economic center of gravity shifts to the Asia-Pacific 
region, the importance to U.S. interests of a stable, increasingly 
prosperous, and democratic Palau in this dynamic region continues to 
grow.

    Senator Cardin. And thank you for your testimony. I thank 
all four of you for being here today and for your testimonies 
before the committee.
    Ms. Hyatt, let me start with you. You mentioned the compact 
that was entered into between the United States and Palau in 
1994, the fact that it was reviewed after 15 years. It has now 
been almost 20 years. It requires certain defense obligations 
that we have, certain obligations that are mutual between the 
two countries. A lot has changed in 20 years.
    Can you just share with us your view? You recommend that we 
approve the agreement that was entered into on the 15th-year 
review. Can you just review for us the strategic importance of 
Palau today to U.S. interests on security and economics?
    Ms. Hyatt. Certainly, and thank you for that question, Mr. 
Chairman.
    Palau's location is strategic in the western Pacific. The 
compact agreement that we signed with Palau gives the United 
States access to sea, air, and land rights. It also gives us 
the important ability to deny that access to other nations. 
Palau has been a good partner to the United States both in the 
United Nations and serving with us in areas around the world. 
Palau has been a good partner. By funding and ratifying this 
agreement, we will be meeting our commitments and demonstrating 
to Palau that our commitments are important, that the United 
States word is good, and we will be demonstrating that to other 
nations in the Pacific.
    Senator Cardin. And how strategically important from a 
military point of view is access to that geography?
    Ms. Hyatt. Mr. Chairman, that is something that is being 
explored. Certainly its location is strategically important. I 
would be happy to take that question and provide more 
information as to its strategic location.
    [The written reply to the question follows:]

    The importance of our special relationship with Palau is most 
clearly manifested in the U.S. defense posture in the Asia-Pacific 
region, which forms a north-south arc from Japan and South Korea to 
Australia. Maintaining U.S. primacy in the Pacific depends on our 
strong relationship with the Freely Associated States of Palau, the 
Marshall Islands and the Federated States of Micronesia, which along 
with Hawaii, Guam, the Commonwealth of the Northern Mariana Islands, 
American Samoa and the smaller U.S. territories comprise an invaluable 
east-west strategic security zone that spans almost the entire width of 
the Pacific Ocean.
    Additionally, critical security developments in the region require 
the United States sustained presence and engagement, particularly given 
the range of U.S. strategic interests and equities in the Western 
Pacific. Essential elements of our presence include the Reagan 
Ballistic Missile Defense Test Site on U.S. Army Kwajalein Atoll in the 
Marshall Islands and disaster relief operations throughout the region.
    The economic interests of the United States are deeply embedded in 
the region, and specifically Palau. The South Pacific Tuna Treaty 
between the United States and 16 Pacific Island Parties, including 
Palau, affords fishing access to their exclusive economic zones. The 
Treaty is an important component to the strong and mutually beneficial 
strategic and economic relationship between the United States and 
Palau. The average estimated value of U.S.-caught tuna landed in the 
region in recent years exceeds $350 million, with a total annual 
contribution to the U.S. economy of between $500 and $600 million. Due 
the economic importance of this region to the United States, it is 
imperative that we maintain favorable relationships with all of our 
regional partners, including Palau.

    Senator Cardin. Thank you.
    Let me, Mr. Blake, talk a little bit about the issue I 
raised in my opening comment and that is gender issues. 
Indonesia has significant problems. And let me acknowledge all 
four of the countries that are represented by the nominees 
today are close allies of the United States. We share a lot in 
common. They are democracies, and we want to build upon the 
shared values.
    But Indonesia has one of the weakest legal protections for 
women and equality, with marriage laws stipulating that the men 
are head of households, with discrimination in the workforce, 
etc. Can you just share with us your thoughts as to how the 
United States can help deal with gender equity issues in the 
Muslim-dominated country of Indonesia, recognizing there is a 
limit to what we can do but also recognizing that a way a 
country treats its women very much will affect its stability 
and growth?
    Ambassador Blake. Thank you, Mr. Chairman.
    As you yourself said in your opening remarks, there has 
been, in fact, quite considerable improvement in the treatment 
of women in Indonesia over the last 15 years or so, and that 
tracks the broader improvement in human rights and trafficking 
in persons and religious freedom that we have seen in 
Indonesia.
    I think now it is interesting to note that 4 of the Cabinet 
members of Indonesia are women out of the 35. Roughly 18 
percent of the members of Parliament are women, and I think 
there is a growing recognition of the importance of protecting 
and upholding the rights of women.
    So we will continue to work very, very hard on this. This 
is one of the highest priorities we have, and I assure you that 
will be a priority for me.
    Senator Cardin. One of the major human rights concerns in 
the countries that you all would be stationed is the abuses of 
their military or their police, the extrajudicial matters, 
executions, detentions, et cetera. For a democracy, that is an 
issue that is a major, major concern. So I would like to get 
the views of the nominees particularly from the Philippines and 
Indonesia but Leste also has an issue on this matter.
    So, Secretary Goldberg, we will start with you.
    Ambassador Goldberg. Mr. Chairman, it is a very important 
issue and one we have worked with the Philippines on for some 
time in our efforts to improve the rule of law and to work with 
the Filipinos as they try to strengthen institutions, including 
the military and the police, and their ability to deal with 
issues, especially the one you mentioned of extrajudicial 
executions.
    There have been some encouraging signs in strengthening the 
rule of law under the Aquino government. There is an 
interagency commission formed to try to help with prosecutions 
and investigations of extrajudicial killings. But it is still 
an important issue and one that is not fully resolved and one 
we have to continue to work on, both through our assistance 
programs in trying to strengthen the institutions and the rule 
of law that will ultimately allow the problem to be handled in 
a way befitting a democratic country, but also to encourage 
diplomatically observance of these very important rights.
    Senator Cardin. Mr. Blake.
    Ambassador Blake. Mr. Chairman, this has been a high 
priority for the United States for many, many years now in 
Indonesia. In part because of our efforts, in part mostly 
because of the efforts of the Indonesian Armed Forces and the 
court system and the political leadership, there has been quite 
considerable improvement in the human rights performance of the 
security forces in Indonesia. That led us to lift sanctions on 
the Indonesian military in 2005. The one unit of the Indonesian 
military where we still have some restrictions is the special 
forces, the so-called Kopassus, where we have begun a process 
of calibrated reengagement.
    But I think it is quite notable that earlier this year, for 
example, there was an incident where members of Kopassus broke 
into a jail and executed several people. They were brought to 
trial and were given sentences of between 6 and 11 years which 
were unprecedented for the Indonesians. So certainly there is 
scope to do more and we will continue to engage on this. But I 
think it is important to note that the Indonesians themselves 
have made this a priority.
    Senator Cardin. Thank you.
    Ms. Stanton, the problem in Timor-Leste is more with the 
police and excessive use of force, et cetera. Can you just 
share with me your thoughts in that regard?
    Ms. Stanton. Thank you, Mr. Chairman.
    Yes. Certainly many of the problems faced by Timor-Leste in 
the middle part of the first decade of the 21st century had to 
do with the lack of discipline and concerns within the police 
and the military which led to disruption in civil order. These 
are, of course, key concerns for the United States and Timor-
Leste. As I mentioned in my testimony, we have both U.S. 
military and U.S. law enforcement agencies working with their 
partners in Timor-Leste to assist them with the 
professionalization of both the military and the police. So 
far, since the departure of the United Nations and 
international peacekeepers, things have remained calm. Although 
there have been occasional problems, the government and the 
police and military in East Timor have successfully weathered 
these challenges.
    So, of course, I want to ensure that we continue to make 
progress in this area and continue to have the support of 
agencies in the United States who can provide the kind of 
training that is essential to the professionalization of these 
organizations.
    Senator Cardin. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    I will begin with you, Mr. Goldberg. I just wanted to ask, 
is the United States fully clear with the Philippines on what 
the mutual defense treaty does or does not cover in the 
scenario of an armed conflict in the South China Sea? I guess, 
are the United States and the Philippines in full agreement on 
that?
    Ambassador Goldberg. Certainly there are discussions. There 
was a 2+2 meeting of the Defense Ministers and the Secretary of 
State and the Foreign Ministers where issues like those are 
discussed.
    I would point out, Senator Rubio, what we are encouraging, 
especially with regard to the South China Sea issues and the 
territorial claims, are peaceful and legal solutions, and these 
are the ones that the Philippines are pursuing through an 
arbitral process under the Law of the Sea convention and 
through trying to arrange a code of conduct with other ASEAN 
member states so that rules of the road in the South China Sea 
can be worked out. So they are looking for legal and peaceful 
means to resolve those disputes.
    In terms of the mutual defense treaty, it is now 62 years 
old. It remains a cornerstone of our relationship, of our 
military relationship but also our alliance, and it does commit 
both sides to mutual defense under articles 4 and 5. But I 
think in terms of its content and its applicability, I would 
not want to speculate or go into the kinds of hypotheticals and 
things like that.
    Senator Rubio. OK.
    Mr. Blake, I really am interested in the Indonesian 
question. You know, there was a hearing before Tom Lantos' 
Human Rights Commission earlier this year, and there senior 
State Department officials stated that the United States 
Government has very serious concerns about the growing 
religious intolerance and violence against minorities in 
Indonesia, in particular, the promotion by Indonesian officials 
of discriminatory laws and policies and action in investigating 
and prosecuting members of radical Islamic groups who engage in 
violence against religious minorities, including Christians, 
Shia Muslims, others.
    I have this article here published on the 24th of this 
month, the Catholic Herald from the U.K. Its headline reads: 
``Intolerance in Indonesia is Becoming Mainstream.'' It uses a 
term I guess I have heard for the first time, 
``Pakistanization,'' a phrase increasingly used in Indonesia to 
warn of the direction the country could be heading.
    I guess, can you comment in general about this concern, 
this direction? Now they are having an election coming up in 
2014. There are concerns about the current President's position 
with regard to some of these issues. It would be sad if 
Indonesia headed in that direction because we have often held 
it up as a model of what a moderate Muslim country can do in 
terms of tolerance. So your general perceptions of this issue 
and what you particularly intend to do as an ambassador to be a 
forceful voice on behalf of religious liberties.
    Ambassador Blake. Thanks, Senator Rubio.
    As you probably know, I have been working on South and 
Central Asia on these issues for the last 4\1/2\ years, and we 
have, I think, made some progress in some of the SEA countries. 
So this is an issue of great importance to me.
    I guess I would take slight exception with whatever the 
article is that you were pointing to. I think there has been, 
as I said earlier, quite an important democratic evolution in 
Indonesia over the last 15 years. There is a tradition of 
tolerance and respect for religious diversity in Indonesia. 
Perhaps there are officials that might support this, but the 
President, President Yudhoyono, has himself criticized many 
times religious extremism and acts of violence against 
religious minorities and made it clear that those kinds of 
things will not be tolerated.
    And I think it is important to note that as Indonesian 
civil society has emerged over the last 15 years as rule of law 
has strengthened, that Indonesian society, the growing middle 
class, rejects this kind of extremism as well. So, yes, it does 
exist but I think that the trends are positive in trying to 
address that.
    And I do not think it is appropriate to compare it to the 
Pakistanization of Indonesia. I just do not think that is 
right.
    But let me assure you that I will be very committed to 
working on these issues and to, again, forming strong 
partnerships with friends in government and in civil society in 
Indonesia to help combat this.
    Senator Rubio. Thank you.
    Ms. Stanton, I just wanted to ask you quickly. The 2013 
Trafficking in Persons report--in that report, Timor-Leste was 
designated as a Tier Two destination country for human 
trafficking women and girls from Indonesia, China, the 
Philippines. They are subjected to sex trafficking in Timor-
Leste.
    How would you encourage the government there to improve its 
fight against sex trafficking? Will that be a priority for you?
    Ms. Stanton. Senator, thank you.
    Absolutely that will be a priority for us.
    The Government of Timor-Leste has draft legislation 
regarding trafficking, and we have been urging them to move it 
forward into their Parliament. That is something I will pay 
close attention to should I be confirmed and arrive in Timor-
Leste. It is a key concern of ours in the State Department that 
this move forward and that they ensure the protection of these 
vulnerable groups.
    Senator Rubio. Thank you.
    Before my time runs out here, Ms. Hyatt, I have a similar 
question for you. According to the same report, Palau is a Tier 
Two country as well. So what steps would you take to encourage 
them to join the 2000 United Nations Trafficking in Persons 
protocol and then, in general, to encourage the government 
there to improve its prevention, prosecution, and protection 
for human trafficking?
    Ms. Hyatt. Thank you for that question, Senator Rubio.
    I have a very personal interest in trafficking in persons. 
I worked on those issues when I was Charge in Finland before 
Finland understood the importance and was aware of the problems 
that existed. That is a success story now in Finland. And also 
as a trial attorney in San Francisco, I worked on those issues 
in that capacity.
    The news in Palau is actually getting better because one of 
its first cases--the district attorney in Palau is prosecuting 
one of its first cases against trafficking. So, if confirmed, I 
would have a good partner in the government officials in Palau 
to address those issues. And let me assure you that they would 
be among my highest priorities.
    Senator Cardin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and thank all of 
our Ambassadors for their service and their continued service.
    I guess, Ambassador Goldberg, you and I talked in my office 
about the many priorities and importance of our relationship 
with the Philippines. Given the involvement I have had in the 
military and national security issues, you and I talked about 
the importance of very sensitive but maybe important 
negotiations concerning joint operations with the Philippine 
military which they seem much more inclined to engage in given 
the tensions in the South China Sea. I am interested in your 
views on that aspect of our relationship.
    Ambassador Goldberg. Thank you, Senator McCain.
    As we discussed the other day, we are negotiating a 
framework agreement that will lead to added rotational presence 
at facilities in the Philippines. It is an integral part of our 
efforts to help the Philippines as it modernizes its military, 
undertakes new missions, including maritime security, maritime 
domain awareness, both of which are important in the South 
China Sea context, but also enduring missions against 
counterterrorism where we have been working with the Philippine 
Army for some time and also in the traditional civil and 
humanitarian disaster relief, which unfortunately afflicts the 
Philippines all too often because of its geographic location 
and the typhoons and other events that occur there. So all of 
those things combined have, I think, led to a real mutual 
interest in establishing this framework agreement and moving 
forward in restarting some of our military relationship but 
also adding to the Filipinos' capacity to build and improve 
their military structure.
    Senator McCain. Their military structure is extremely 
limited maritime-wise and surveillance-wise.
    Ambassador Goldberg. That is true. And I think a part of 
the improvements that are being looked at--we have provided a 
couple of Coast Guard cutters recently that will add to the 
maritime security. We have a foreign military fund program and 
the IMET program. We have the joint special operations task 
force still active in training. So it is a program that will 
help them as they are improving their capacity in many areas. 
And as I mentioned, maritime security and domain awareness are 
very important parts of that relationship.
    Senator McCain. Thank you.
    Ambassador Blake, since my Republican colleagues are not 
present, I think it is OK to mention your blood relative is 
also a Member of the United States Senate from----
    Senator Cardin. We have gone through that. It is on the 
record. So we are going to have a problem. [Laughter.]
    Senator McCain. I think we have a problem, Ambassador 
Blake.
    Why is it, Ambassador Blake, you think that the largest 
Muslim country in the world--we do not have the same kind of 
problems with jihadism and extremism and acts of terror? I know 
that Bali was a disaster. I do not mean to diminish that. But 
here we have, again, the largest Muslim population in the 
world, and yet it seems to be progressing from the days of an 
absolute dictator to a fairly well functioning democracy with 
exception of there are still human rights problems. But how do 
you account for that?
    Ambassador Blake. Thanks for that important question, 
Senator.
    I would say a couple of things.
    First, unlike some of the countries in the Middle East and 
even in the region that I currently work in, the government has 
really made an effort to develop responsive governance. There 
has been a real democratic transformation that is taking place 
there over the last 15 years. A very active civil society has 
developed. And I think very, very importantly, there has been a 
systematic effort to try to reduce poverty in Indonesia and 
sort of, if you will, address a lot of the unemployment and 
other issues that you find in, let us say, Cairo or in Tunisia 
or in some of these other places where I have served that have 
given rise to extremists.
    There is also a tradition of tolerance and diversity in 
Indonesia that you do not find in other countries. So I think 
all of these have helped to, in a way, reduce the supply side.
    But then there has also been a quite systematic effort on 
their part, since the terrible Bali bombings that took place in 
2002, to professionalize their armed forces, to professionalize 
their security forces, their counterterrorism forces to go 
after the bad guys.
    Senator McCain. How much are we helping with that?
    Ambassador Blake. We are helping a lot with that. Again, 
once we lifted sanctions in 2005, we have been able to expand 
our military-to-military cooperation.
    But there is a lot of law enforcement cooperation that is 
going on as well to increase their police capacity, for 
example, and I think that has been helpful in, frankly, 
arresting or killing the leadership of many of the foreign 
terrorist organizations that operate. There are two U.S.-
designated foreign terrorist organizations there, and they have 
had quite a lot of success in, again, arresting or otherwise 
getting rid of the leadership.
    Senator McCain. Well, I think you would have done a great 
job, Ambassador. [Laughter.]
    Ambassador Hyatt, I happen to be one who has visited Palau. 
I am not sure how many of us have. And one of the more 
impactful places I visited is the island of Peleliu, a tiny 
island, where we lost several thousand marines over a very 
extended period of time in what was believed to be a very easy 
operation and turned out to be an incredible blood-letting in a 
very small place.
    What are we doing in Palau to sort of encourage people to 
visit and to memorialize and to make sure that we do not forget 
the incredible sacrifice that was made? And does the Government 
of Palau appreciate that aspect of our relationship?
    Ms. Hyatt. Thank you, Senator.
    Yes, I think there is some appreciation, but I think you 
are right to point out that there is more that could be done. 
We do have a shared history, and I think that it can be 
highlighted. And I think that that would not only contribute to 
better understanding of Palau and its role in our strategic 
history and our strategic interests. I also think it would 
contribute to Palau's economy by bringing people back to that 
location to highlight the history and our shared relationship. 
So I think there is great potential for doing what you suggest.
    Senator McCain. You know, in recent years, the Japanese 
have come back in a very significant effort to identify and 
memorialize the Japanese--thousands--I have forgotten now the 
number of how many thousand died, but none of them surrendered.
    Well, I hope that we can not only symbolize the sacrifice 
made by both sides but a way to maybe memorialize that it 
really was a field not well chosen, to say the least.
    Anyway, I look forward to visiting again. And I was 
surprised. There is a human trafficking problem?
    Ms. Hyatt. I think that there is a growing awareness of a 
problem. I think that there is a deep desire----
    Senator McCain. Within Palau itself?
    Ms. Hyatt. As a destination and also as a country that is 
providing. And I think there is not as much awareness about 
that end of it, but I believe that there is growing awareness 
of the problem and there is definitely a desire among the legal 
authorities to do something about it.
    Senator McCain. Are these people exported from Palau?
    Ms. Hyatt. I believe there are some, although that is a 
matter of dispute at this point.
    Senator McCain. Well, also I think you pointed out the 
enormous number of young men and women from Palau that are 
serving in the military is quite remarkable.
    Ms. Stanton, finally I was struck by in your statement that 
half the population lives below the poverty line of 88 cents 
per day. I did not know that was their poverty line to start 
with. I thought it was a point of desperation. But what is the 
prospect? What are the prospects of improving that? I mean, I 
do not think you get democracy in half the population living 
below 88 cents a day.
    Ms. Stanton. Thank you, Senator McCain.
    Absolutely that is the biggest problem that Timor-Leste 
faces today. They have some resources, as I mentioned. They 
have some resources from oil. They really are most challenged 
by the lack of capacity to manage what resources they have, a 
very poor educational infrastructure, poor health, all of the 
challenges that come with that level of poverty.
    Senator McCain. And a rather tumultuous government 
situation.
    Ms. Stanton. Well, they are working very hard on 
maintaining a democratic and well-managed government, but they 
just do not have enough capacity to do all the things they need 
to do.
    Senator McCain. Is it ripe for another revolt?
    Ms. Stanton. We work very hard with our assistance and our 
assistance partners, and the government is working very hard to 
the best of their ability to meet the needs of their people, to 
develop alternatives and to develop opportunities, education, 
jobs, all of those things that are, of course, crucial to peace 
and stability, as you say. So that is the most important 
objective for them and for us, I think, in Timor-Leste.
    Senator McCain. Well, I think you have your work cut out 
for you, and thank you for your willingness to serve. I think 
it is incredibly challenging. I remember for a period of time 
there was a lot of publicity as we argued for their 
independence, and then I think it is possible we could have 
just spent our attention and effort elsewhere. Would you agree 
with that?
    Ms. Stanton. You think it is possible that we could have 
spent our----
    Senator McCain. That we did.
    Ms. Stanton. That we did?
    We have been providing assistance and working with our 
partners. The Government of Australia is very active there. 
Indonesia has been supportive in the past 10 years, and there 
is a well coordinated effort in Timor-Leste to work with the 
government there. They seem to be a very admirable partner in 
this effort to sort of develop good governance, a good social 
order. They are very, very challenged and we certainly need to 
continue our efforts in supporting them.
    Senator McCain. And I wish you every success.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you, Senator McCain.
    I want to ask a couple more questions, but let me talk a 
little bit about the maritime security issue for one moment. We 
have a very clear policy. We want the countries to resolve them 
peacefully through direct negotiations. We know this is a very 
difficult subject in the South China Sea. We know that both the 
Philippines and Indonesia are directly engaged. There are some 
episodes that are currently pending.
    I would like to get a better sense as to how you see the 
United States or the international community or international 
organizations or regional organizations playing a role here. It 
is one thing to have a policy. It is another thing to promote a 
code of conduct. But at the end of the day, there has got to be 
some way to resolve these matters. It may be to share 
resources. It may be to deal with ways in which both sides 
could come out saving face. There are a lot of different ways 
of handling it. But when you have an open issue, it has to 
somehow be resolved.
    So how do you see the United States playing a constructive 
role, and how would a code of conduct deal with these types of 
disputes? I welcome your thoughts on this.
    Ambassador Goldberg. I can start. Thank you, Mr. Chairman.
    The code of conduct is really rules of the road. They are 
not going to settle the underlying disputes and territorial 
disputes. But it still is very important.
    We, I think, are engaged in two different ways in trying to 
help that code of conduct along, one of which is working with 
all the parties and diplomatically, bilaterally, multilaterally 
to encourage that as one of the solutions to at least de-
conflict and to set out rules.
    One other aspect of that--and when I mentioned 
multilateral--is that there are claims within the South China 
Sea that do not just affect one country and China. There are 
also competing claims. But what will be effective I think is if 
the countries of the region through ASEAN--and they are, I 
think, more and more convinced that this is the way forward so 
that there is a consensus there to bring the Chinese into the 
situation.
    So I think the most important in terms of recent events is 
to prevent any idea that there is a kind of coercion taking 
place. We have a deep interest in the peaceful resolution, as 
you mentioned earlier, in a sea area that so much of the 
world's trade goes through. And so we are involved in the 
principles and in pushing the legal basis for this. We need to 
continue to do that diplomatically both bilaterally with the 
Chinese, with other countries in ASEAN, but also to encourage 
ASEAN through our multilateral engagement. As you know, Mr. 
Chairman, we have become much more engaged in the Asian 
diplomatic and security architecture as we rebalance to Asia--
and that is part of the President's trip--so that they too take 
this on and come together because that is one of the ways that 
a code of conduct can be reached.
    And, of course, there is also the Law of the Sea 
Convention, which is the mechanism that the Philippines has 
used to start an arbitral process, again not to settle 
underlying claims but to make sure that some of the activities 
that are taking place are dealt with.
    Senator Cardin. But is that not being challenged by the 
China?
    Ambassador Goldberg. It is. It certainly is and that is why 
it is a diplomatic matter between all of us and why we are 
pushing these kinds of solutions because the alternative, as 
you would I think conclude, is not one that we would encourage 
where confrontation and coercion takes that place.
    Another effort I mentioned earlier is in building up 
capacity to do maritime security, maritime domain awareness to 
prevent accidents from happening. These are all kind of 
mutually reinforcing these efforts.
    This is not a new issue, obviously. It is one that has gone 
on for some time. And in some ways we have to find ways to 
manage while we await the time when the underlying issues can 
be settled.
    Ambassador Blake. Let me just build on what Ambassador 
Goldberg said, which is to just elaborate a little bit on the 
ASEAN piece of it, which is obviously that ASEAN we see as the 
central regional organization in Asia both for promoting 
regional integration but also regional security. And the 
President will be attending the ASEAN summit in a few weeks.
    And I just want to note that Indonesia and particularly 
Foreign Minister Natalegawa has been very active in trying to 
promote an ASEAN dialogue with China on a code of conduct and 
to persuade China to engage on a regular basis and I think with 
some progress. I mean, obviously, there is still a long way to 
go. So I think Indonesia has been quite an important leader in 
these efforts.
    Senator Cardin. I guess my followup question to that is I 
think it is very important the President has been very actively 
engaged in the regional organizations, including ASEAN. The 
question will be how we can advance these causes in a 
constructive way. I think, Ambassador Goldberg, your point 
about it is going to take diplomatic skills, so I think our 
embassies can play a very constructive role. But it is 
challenging when you have a way of dealing with it and one 
country says no, we are not going to do it. It does really 
stretch our patience.
    So this issue perhaps is the most concerning on the 
security front. It is critically important for commerce, and it 
could explode, even among our friends, causing problems, let 
alone countries that we have disagreements with. So we want you 
to give this the highest priority in trying to resolve.
    On Palau, I have one more question, Ms. Hyatt, and that 
deals with resource management. Palau is known as having some 
of the richest fishing territories in the world. There is a 
concern of overfishing. There is a concern of resource 
management. How do you see the United States playing a 
constructive role in dealing with those environmental issues?
    Ms. Hyatt. Thank you for that question, Mr. Chairman.
    The environmental issues are very important to the 
Government of Palau and the people of Palau, as they are to the 
United States. They have been a good partner with us in terms 
of preserving their natural resources, and if confirmed, I 
would hope to assist them in those efforts. I think that their 
natural resources are one of their greatest assets in terms of 
promoting tourism and other economic opportunities within the 
country.
    And I think issues related to fishing I know are becoming 
an issue that is more controversial. And I would look forward 
to working with the Government of Palau, if confirmed, on 
preserving fishing rights for our fishing fleets and to ensure 
that U.S. fishing concerns are not detrimentally affected.
    Senator Cardin. Thank you for that.
    I was not aware until Senator McCain mentioned the 
economics of Timor-Leste. It is hard to have a sustainable 
democracy with that type of economic circumstance. So I just 
want to underscore the point that Senator McCain made, and that 
is, Ms. Stanton, we look forward to your thoughts as to how the 
United States, how the Congress of the United States can assist 
in helping develop a stronger economic future for the people of 
Timor-Leste so that we can have a more stable ally and friend. 
We recognize economic development is one of the key points. We 
want respect for human rights because that is not only our 
values, but it is also important for a stable country. It is 
also true of economic progress. So we welcome your observations 
as to how we can advance the economic prosperity for the people 
in the country because it is right and because also we would 
have a more stable ally.
    Ms. Stanton. Thank you, Senator Cardin. I would very much 
welcome the support of the committee in our efforts in Timor-
Leste.
    The President of Timor-Leste gave a speech this morning at 
the United Nations, and the one quote that I remember from 
looking through it very quickly this morning was he said that 
there is no peace without development and no development 
without peace. So they are inextricably intertwined and it is 
important to provide the assistance that we do provide to 
Timor-Leste and to continue that assistance. Our AID mission is 
very targeted toward economic development, good governance, all 
of those health issues, education, all of those sort of 
fundamental issues that support development and economic 
prosperity. So they really are not going to make progress 
without this support and I very much welcome the committee's 
support and will look forward to working further on that, 
should I be confirmed. Thank you.
    Senator Cardin. For each of you, I would ask on behalf of 
the committee that if requests are made for information or 
cooperation from this committee or any member of this committee 
or, for that matter, any Member of the United States Senate or 
any of our committees, that you will promptly respond to those 
requests. For the record, I see all four of you nodding your 
head in the affirmative. We will take that as a yes.
    The committee record will remain open for 24 hours. So you 
may be receiving questions from members of the committee. We 
would ask that you get those answers back as quickly as 
possible because in at least one case, we are going to try to 
make sure you are there for the President's visit. We would 
like to be able to move these nominations through the process 
as quickly as we can. So your cooperation in responding to the 
specific information that may be asked by members of the 
committee in regards to the confirmation hearings will be 
deeply appreciated.
    I have one more question for you, Mr. Blake, that was on 
the tip of my tongue, and that is the environmental 
conservation one in regards to the goals of the United States-
Indonesia relationship and how do you assess the effectiveness 
of U.S. assistance in the environmental realm? In what areas do 
you feel Indonesia needs the most help?
    Ambassador Blake. Well, that is a very, very important 
question.
    I would say the most important priority right now is 
helping Indonesia to address its greenhouse gas emissions. 
Indonesia is the fifth-largest emitter of such gases in the 
world because of the very extensive forest and peatland 
destruction that has occurred over the last four decades. So it 
is very important task now to help this important partner to 
reverse that trend.
    We have a number of different programs that are underway 
now, first through the Millennium Challenge Corporation program 
that I mentioned. Almost half of that $600 million is for the 
so-called Green Prosperity program, which is primarily 
targeting low carbon development and helping both sustainable 
forest management but also to help the country to develop more 
clean energy and renewable energy.
    We are also working through the Forest Service and through 
USAID. We have several debt-for-nature swaps under the Forest 
Conservation Act.
    We are also doing a number of other things through USAID, 
again to help promote better management of these forests. We 
have a huge program to help support the management of literally 
millions of hectares of tropical forest and peatland to again 
make sure that there are sustainable forest practices and that 
there is reforestation projects that will help to address this 
critical program.
    So this is going to be one of my very highest priorities as 
Ambassador, if confirmed.
    Senator Cardin. Well, thank you for that. I can assure that 
if there is a CODEL Whitehouse, that that Senator will be 
questioning you very deeply on this issue.
    Ambassador Blake. Yes.
    Senator Cardin. Senator Whitehouse has taken a very strong 
interest on these issues.
    And it does present a challenge on the deforestation and on 
the other management issues as it relates to greenhouse gas 
missions and environmental management. And the Obama 
administration is taking a strong leadership not just in the 
United States but internationally. Indonesia is a country of 
challenge. A lot of it is understandable but it is one in which 
we want to have a workable strategy to help in regards to our 
global efforts to deal with these issues. So we welcome your 
observations and thoughts as we move forward on that.
    Ambassador Blake. Thank you.
    Senator Cardin. And with that, let me thank again our 
nominees and their families. Mr. Blake, your children were very 
patient throughout this process. I do not know whether 
grandchildren, which are about the same age, would have 
survived. But anyway, thank you all very much.
    And with that, the committee will stand adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]


    NOMINATIONS OF ROSE GOTTEMOELLER, FRANK ROSE, AND ADAM SCHEINMAN

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Rose Eilene Gottemoeller, of Virginia, to be Under 
        Secretary of State for Arms Control and International 
        Security
Frank A. Rose, of Massachusetts, to be Assistant Secretary of 
        State for Verification and Compliance
Adam M. Scheinman, of Virginia, to be Special Representative of 
        the President for Nuclear Nonproliferation, with the 
        Rank of Ambassador
                              ----------                              

    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Shaheen, Murphy, Kaine, Markey, 
Corker, Rubio, and Barrasso.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    We are pleased to have three distinguished nominees before 
the committee. But, before I make an opening statement and turn 
to the ranking member, I know that Senator Isakson and Shaheen 
are here to introduce Rose Gottemoeller, and I know how complex 
our schedules are, so let me ask them to make those 
introductions, and then we will move to our opening remarks and 
introduce our nominees.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you very much, Mr. Chairman.
    The Chairman. And we welcome you back to the committee--
where you served so admirably--maybe we can get you back here 
someday.
    Senator Isakson. As a refugee, I would be happy to come 
back at anytime, so----
    [Laughter.]
    Senator Isakson [continuing]. Maybe we can negotiate that, 
one of these days.
    It is an honor to be back with you and Ranking Member 
Corker. And I remember, fondly, my days on the committee, 
which, in fact, are, in part, why I am here today to introduce 
Rose Gottemoeller, because I got to know her during the 
negotiations on the New START Treaty, and I depended on her 
very heavily for feedback, information, guidance, and tough 
questions. And I found her to be a tough lady. I found her to 
be a knowledgeable lady. I have found her to be an effective 
lady. And she guided me through a process where I needed that 
kind of help to make the final decision I did on START.
    And the reason I am here to introduce her today is, we have 
issues confronting us, as a country, given proliferation of 
weapons, not just nuclear weapons, but sarin gas and things of 
that nature, where we need the best minds in the United States 
of America to guide our country. In the position she will have, 
she will be the advisor to the Secretary of State on 
proliferation issues, and, as you know, we are, right now, 
dealing with the problem with sarin gas in the Middle East and 
the Syrian question. No better person to have than Rose 
Gottemoeller.
    I remember, when I went through the due diligence I went 
through on the START Treaty, two things bothered me. One was 
being able to verify and count so we could do what Ronald 
Reagan intended when START began its negotiation: trust, but 
verify. It was her work with me on understanding the unique 
verification system of the New START Treaty, which is now 
bearing fruit, that I became comfortable with the fact that we 
could actually validate what was in Russia and what the Russian 
Federation had, and we could count without having a redundancy 
in our count.
    Second, I needed to know that our nuclear arsenals and our 
laboratories would be modernized. I worked closely with Senator 
Corker, who worked hard and is still working hard, on the 
modernization issue. And I appreciated her commitment to the 
modernization of our nuclear arsenal, as well.
    Now, you might think it is odd for a Georgian to introduce 
a Buckeye, but that is not really that odd, because one of her 
two children, Dan, went to Emory University in Atlanta, and 
that is our tie, beside my great respect for her as a 
representative of the United States of America. She and her 
husband, Dan, have been married for--Ray, not Dan--have been 
married for a number of years. He is a career servant of the 
United States of America. They have two sons and are great 
contributors to our country.
    It is an honor and privilege for me to introduce to you 
someone who I would trust with the unique and very difficult 
and challenging things that face us, in terms of verification 
of weapons of proliferation. And, as a Senator from the State 
that houses part of the Savannah River facility where all of 
the spent nuclear fuel is reprocessed in the H Canyon, I know 
firsthand the danger of nuclear material, the need to make sure 
that it is--we keep up with it, the need to make sure that it 
does not get in the wrong hands.
    And I trust and verify that Rose Gottemoeller is exactly 
the right person the United States of America needs at this 
time to go from acting to permanent in her current position. 
And I recommend her to the committee with my highest 
recommendation.
    The Chairman. Thank you very much. I think you should be 
more explicit about how you feel, but----
    [Laughter.]
    The Chairman [continuing]. That is one great 
recommendation.
    Senator Shaheen, who is a member of our committee, and we 
are pleased to have her making an introduction, as well today.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you, Mr. Chairman.
    I am really honored to be here this morning to join Senator 
Isakson--and, as you point out, we really miss him on this 
committee, so we hope you will come back--but, to be here to 
introduce Rose Gottemoeller, who is the nominee to be Under 
Secretary of State for Arms Control and International Security.
    And I first had the pleasure of meeting Rose back in March 
2009, when I had just arrived in the Senate and got the 
opportunity to chair her nomination hearing as Assistant 
Secretary of State for Arms Control, Verification, and 
Compliance. And, at the time, the Senator who introduced her 
was Dick Lugar. And so, for me to be able to have this 
opportunity to join Senator Isakson and to do the introduction 
for this nomination in place of Dick Lugar is truly an honor, 
and I very much appreciate your asking me to do this, Rose.
    As Senator Isakson said, even though I was new to the 
Senate, I was so impressed with the work that she did as the 
negotiator on the New START Treaty. She became the first woman 
in our history to negotiate this kind of a treaty. And, 
throughout all of those talks--again, as Senator Isakson said--
she was skilled, she was patient, but she also went out of her 
way to engage with us in the Senate as we were thinking about 
ratification for that treaty and all of the challenges. And she 
was always there, she was always willing to provide the 
information in a very bipartisan way.
    And, though that treaty is one of her most public efforts, 
Rose has led a lifetime of dedicated and nonpartisan service to 
the country, often with little or no fanfare. She was one of 
the leaders of the effort to eliminate the nuclear stockpiles 
throughout the former Soviet Union, including Ukraine, Belarus, 
and Kazakhstan, and, early on in her career, she worked on a 
secret effort to prevent highly enriched uranium from getting 
into Iran, in the 1990s, something I know we are all still very 
concerned about. And one of the things I found out about her 
this week is that she worked the Moscow-Washington Hotline, 
back in the late 1970s, so clearly she is ready for anything, 
and has worked extensively on WMD security issues throughout 
our government.
    You know, it is those big nuclear deals and the work on New 
START that has gotten so much of the press, but I can attest, 
on a personal level, that, not only is she interested in that, 
but that she is interested in the economic issues facing the 
country and the challenges that our young people face. I 
persuaded her to come up to New Hampshire to meet with 
businesses about some of their export issues, and she talked 
extensively with them about export controls in our system, and 
how we can reform it. But, she also went with me to the YWCA in 
Manchester to meet with some of our young women and talk to 
them about how to get them involved in the STEM subjects and 
the opportunity that exists for young women. And you could see 
her ability to work with everyone, in that brief trip to New 
Hampshire.
    So, she has really spent her lifetime making Americans 
safer. Rose is a patriot. She is one of the most qualified 
candidates ever to be nominated for this position. And I am 
proud to support her in this effort. I hope the committee will 
move forward with full speed to confirm her and to get her 
nomination to the floor.
    And thank you, Mr. Chairman, for the opportunity. And thank 
you, to Rose, for giving me this opportunity today.
    The Chairman. Well, thank you both for your introductions 
and very strong support. And I know that you have busy 
schedules, so you are welcome to stay, but if you have to 
leave, I understand that you will need to do so. So, at any 
time, feel free to depart.
    And let me say, as a preface to my remarks, that I 
appreciate the work of Senator Corker, the ranking member on 
this committee, on these issues. He has vigorously pursued 
them, was willing to use--because he believed it was right--his 
own personal political capital, in terms of the ratification of 
the treaty, and made very significant impacts on what that 
looked like. And so, I appreciate his work.
    Let me thank you all very much for joining us today. We 
have three experienced nonproliferation officials nominated for 
key international security posts. Each of these nominees, in my 
opinion, is a qualified professional more than capable to 
assume their new role. Should they be confirmed, they will be 
in the vanguard of America's diplomatic negotiations on 
nonproliferation and compliance issues, and we welcome them to 
the committee.
    We have heard, already, about our nominee to be Under 
Secretary of State for Arms Control and International Security, 
Rose Gottemoeller; Frank Rose, to be the Assistant Secretary of 
State for Arms Control, Verification, and Compliance; and Adam 
Scheinman, to be the Special Representative of the President 
for Nuclear Nonproliferation, with the rank of Ambassador.
    Each has a full and clear background in nonproliferation 
compliance and verification. Each is fully aware of the new 
threats that we face, the state and nonstate actors who 
represent those threats, and the importance and impact of every 
decision they will make.
    They will be facing both ongoing and new issues when it 
comes to negotiations with Russia, chemical weapons in Syria, 
the threat of proliferation of nuclear weapons in North Korea 
and Iran. These nominees will be implementing and verifying the 
New START Treaty, which provides transparency and stability in 
our strategic relations with Russia.
    They will also be exploring the potential for further 
reductions in U.S. and Russia nuclear forces. We know further 
reductions are possible, because a comprehensive review of our 
nuclear posture has determined that we can ensure the security 
of America and our allies and maintain a strong and credible 
strategic nuclear deterrent while reducing our forces. Clearly, 
the obvious question, which I would like to hear in our 
panelists' answers, is, to what extent do the Russians also 
support further negotiations and continued verifiable 
reductions?
    In Syria, we are facing the issue of ridding the regime of 
its chemical weapons arsenal and the details of the proposed 
framework for the elimination of those weapons; the 
verification of Syria's compliance with provisions to destroy 
chemical weapons production, mixing and filling equipment by 
November; and the verifiable and enforceable destruction of all 
of Syria's arsenal by the middle of 2014. And I am curious to 
hear about the challenges we face in implementing this 
framework, should it ultimately move forward, and what role 
each of you may play in carrying out its provisions.
    Finally, in Iran, our policy is clear: We will not allow 
the development of nuclear weapons capability. As the President 
noted in his speech at the United Nations, the election of 
President Rouhani has opened up the possibility of a diplomatic 
approach to resolving these issues surrounding Iran's nuclear 
program. But, despite the positive words coming out of Tehran--
they sounded better to me when they were coming out of Tehran 
than what I heard in New York the other day--but, regardless of 
those words, Iran has continued to add capabilities to its 
nuclear program, including 2,000 centrifuges, with 300 of these 
more advanced second-generation ones.
    So, while I support constructive engagement with Iran, our 
policies must be based upon Iranian actions, not merely words. 
That is why I want to hear from our panelists how our sanctions 
policies, which helped bring Iran to the negotiating table, can 
be further strengthened in response to Iran's continuing march 
toward nuclear capability.
    I am also looking forward to hearing what requirements our 
panelists see as necessary for concluding an agreement with 
Iran. And, at a minimum, should not we expect Iran to suspend 
its enrichment, as required by the United Nations Security 
Council resolutions, close the Fordow plant, reveal the 
location of all nuclear facilities, and allow international 
inspectors in Iran in order to verify that these facilities can 
only be used for peaceful purposes?
    In terms of North Korea, the United States has stated we 
will not accept North Korea as a nuclear weapons state which 
would potentially unleash an arms race in the region and 
threaten our security and the security of our allies. I would 
like to hear from each of you what you believe we can do to 
move in that direction to ensure that the North Koreans return 
to the table, and what we must do to ensure that the North is 
not sharing information and becoming a dangerous source of 
proliferation and nuclear weapons technology.
    So, there are many challenges clearly before us, and I 
think those challenges make a compelling case that we need 
qualified people sitting in the key positions to help us meet 
those challenges. I know that there are differences on the 
committee when it comes to these issues and how we treat them, 
and, for some, these nominees. I know that there are deeply 
held positions on both sides of the aisle as to their record 
and views.
    But, regardless of our differences, I believe there are a 
number of things we can all agree upon. We can all agree that 
we face a new and more complex set of proliferation threats, 
the threat of terrorists getting their hands on and then using 
nuclear, chemical, or biological weapons; the danger of 
regional armed nuclear adversaries, like North Korea and Iran, 
using their nuclear capabilities to blackmail our partners and 
allies.
    In response to these threats, I think we can all agree that 
we need a more modern and flexible nuclear enterprise and 
updated policies that can respond to these new threats as well 
as the old threats we face.
    What I would say to members of the committee is that, at 
the end of the day, we may disagree on verification and 
compliance procedures, but we cannot disagree on the 
significance of the threats we face and the need to have a team 
in place that is tasked with representing our security 
interests at the highest level.
    So, I appreciate many of the members' engagement. I want to 
turn to the distinguished ranking member for his comments, and 
then I will introduce our other two nominees and we will move 
forward.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman. And I will be 
brief. I think you have given a very extensive introduction.
    And I want to thank you for the comments you made about New 
START. As a matter of fact, I would say, to the whole 
committee, the Foreign Relations Committee has been a place 
where we have checked partisanship at our shore's line. And if 
you look at the many issues that have been before us this year, 
in every case each issue has been dealt with in a bipartisan 
way. And I think that speaks volumes about your leadership, and 
I want to thank you for that. And I hope we will continue, and 
I think we will, moving through these issues in a way that 
seeks common ground and seeks to, again, always put our 
country's national interests first. And I am really proud of 
this committee. And I know we have had some tough, tough votes. 
I stand by those votes, and I am proud that we have done the 
work we have done. But, thank you for your leadership in 
getting us there.
    And, with that, to our nominees--I agree, I think we have 
some very qualified nominees. And I know that Rose was in 
yesterday, in a classified briefing, to talk about some things 
that are of utmost importance to our country. And, like Johnny 
Isakson in--with his wonderful opening comments, I got to 
know--I apologize, I will call you ``Rose''--during the process 
of New START, and I have been disappointed, in fairness, with 
some of the modernization efforts that have taken place since, 
which were a part of our ratification. On the other hand, I do 
appreciate, that it looks like things are stepping back up, and 
I appreciate your efforts, and others, in making that happen. 
And I just hope Congress will support those efforts. I think it 
is very important to our national security that we continue to 
have the ability, should breakouts occur down the road, to deal 
with things in an appropriate way. And I thank you, again, for 
pushing those.
    I also have been concerned recently about comments 
regarding new agreements with Russia, and was able to get a 
letter from the State Department stating that we would not 
agree to additional reductions with Russia without going 
through the treaty process, which I think is very important. 
And I thank you for, first, verbalizing that, but also then 
causing the Secretary of State to follow up in writing. And I 
do hope that, obviously, any reductions with anyone, any 
agreement, is done solely through a treaty.
    And then, last, especially getting to some of the things we 
have discussed most recently, there needs to be real 
consequences for people who violate treaties. And we have that 
to deal with on a range of issues.
    So, look, I will not belabor the points. I think our 
chairman, again, went through the points in a very articulate 
manner, and I thank you for that.
    And I look for your testimony, and I look forward to the 
questions.
    Thank you very much.
    The Chairman. Thank you, Senator Corker.
    Let me also present to the committee Frank Rose, who is 
nominated for the Assistant Secretary of State for Verification 
and Compliance. He began his career, as I understand it, as one 
of the most promising young legislative correspondents in 
Senator Kerry's office. And that promise has clearly been 
realized. He is currently Deputy Assistant Secretary of State 
for Space and Defense Policy, working on arms control, defense 
policy, missile defense, military space policy, and 
conventional arms control. He has held national security staff 
positions in the House of Representatives on the House Armed 
Services Committee and the Permanent Select Committee on 
Intelligence.
    And so, we thank you for your service and look forward to 
your hearing today.
    Mr. Scheinman, who has been nominated as Special 
Representative for the President for Nuclear Nonproliferation, 
is a senior advisor for nuclear nonproliferation in the Bureau 
of International Security and Nonproliferation at the State 
Department, and he has served on the White House national 
security staff and has held many positions in government 
relating to arms control, international security, and 
nonproliferation.
    And we thank you, as well.
    With that, Ms. Gottemoeller, we will start with you. Your 
full statements will be included in the record. We ask you to 
synthesize it in about 5 minutes or so, so we can get into a 
Q&A session.
    And the floor is yours.

STATEMENT OF HON. ROSE EILENE GOTTEMOELLER, OF VIRGINIA, TO BE 
  UNDER SECRETARY OF STATE FOR ARMS CONTROL AND INTERNATIONAL 
                            SECURITY

    Ms. Gottemoeller. Thank you, Mr. Chairman. And I will do 
so. I have excerpted my statement.
    And thank you, to you, Mr. Chairman, to Senator Corker, 
Senator Shaheen, for your very kind introduction. I am grateful 
to both you and Senator Isakson. And I wanted to thank Senator 
Kaine for coming this morning, too. My current hometown is 
Falls Church, VA, so I am delighted, sir, that you were able to 
make it this morning.
    You know, when I was driving in this morning, I heard that 
today, in history, Thomas Jefferson was confirmed by the Senate 
to be our first Secretary of State. Now, I am no Thomas 
Jefferson, I do realize that. But, I do consider it an 
auspicious date to appear before this committee, and thank you 
all for the opportunity to testify.
    Indeed, it would be a great honor for me to come before 
this committee today and be considered for the position of 
Under Secretary of State for Arms Control and International 
Security. I want to thank my husband of almost 34 years, Ray 
Arnaudo, and my sons, Dan and Paul, for their unwavering 
support. I am grateful for the confidence that President Obama 
and Secretary Kerry have shown in nominating me for this 
position, and I am mindful of the significant and serious 
responsibilities that I will undertake on behalf of our 
country, should I be confirmed by the Senate.
    Mr. Chairman, Senator Corker, I am remiss if I do not 
mention, also, that I am joined by my brother, Fred 
Gottemoeller, and his wife, Patricia, who came down this 
morning from Columbia to join us. So, it is great to have them 
there, as well as supporters throughout the room.
    For the past 4 years, I have served as the Assistant 
Secretary of State for Arms Control, Verification, and 
Compliance. As part of my duties, I had the privilege of 
serving as the leading negotiator for the New START Treaty. 
That agreement has been in force for almost 3 years, and its 
implementation is going very well. I want to thank the members 
of this committee for their leadership and deep involvement, as 
well as advice, throughout the New START negotiation and 
ratification process.
    The Senate plays a critical role in policymaking on 
national security and strategic stability issues, and I think 
that our experience with New START reinvigorated national 
interest in these critical issues, so I am grateful to this 
committee for helping to generate that process. I know that we 
might not always agree on specific steps, but I know that we 
all prioritize the security of our country and our fellow 
citizens and allies.
    I also welcome the relaunch of the National Security 
Working Group, under the chairmanship of Senator Feinstein and 
Senator Rubio. If I am confirmed for this position, I will plan 
to continue to work closely with that group.
    All the challenges we have faced together over the past 4 
years leave me with no doubt that the team in AVC will continue 
to contribute to a safer, more secure nation. I am especially 
pleased that President Obama nominated Deputy Assistant 
Secretary of State Frank Rose to succeed me as the Assistant 
Secretary in AVC. I have worked with Frank over the past 4 
years, and I have every confidence that, if confirmed, he will 
be an excellent Assistant Secretary and will continue AVC's 
focus on improving and enhancing verification and compliance 
mechanisms.
    Since February 2012, I have also been serving as the Acting 
Under Secretary for Arms Control and International Security. I 
had the privilege to follow Ellen Tauscher, who is a remarkable 
and dynamic leader. In this position, I have responsibility for 
the T family of bureaus--AVC, the International Security and 
Nonproliferation Bureau, known as ISN, and the Political 
Military Affairs Bureau, known as PM. The issues that are 
handled by the T bureaus are cross-cutting and affect people 
around the world. And the chairman already mentioned the 
profound interest and focus, these days, on what is going on in 
Syria, North Korea, and Iran. This preoccupies us every day.
    For that reason, we are covering a lot of ground, 
figuratively and literally. The work we do in T informs, 
augments, and helps to implement U.S. security policies. I am 
proud to say that, when it comes to keeping America safe, the 
people working in the T Bureaus make a remarkable contribution 
and, I would hazard to say, a unique contribution.
    Mr. Chairman, Senator Corker, members of the committee, I 
am under no illusions about the enormous challenges we face on 
arms control, nonproliferation, and political/military affairs, 
but I do think that the United States and the T-family bureaus 
are prepared to meet these challenges. With your support, I 
would be proud to serve as the Under Secretary of State for 
Arms Control and International Security.
    Chairman Menendez, Senator Corker, in closing, I would like 
to note that I have been privileged to observe and work with 
some of the most skilled arms control and international 
security leaders in modern American history. These include my 
first boss at the RAND Corporation, Col. Thomas Wolfe; 
Ambassador Linton Brooks; Senator Howard Baker; Senator Sam 
Nunn; Senator Richard Lugar, on this committee; Secretary 
Moniz; Secretary Hillary Clinton; and my current boss and your 
former colleague, Secretary John Kerry. I have been able to 
learn from the best. And, if I am confirmed, I will continue to 
follow the example of these fine Americans, and I pledge to 
work closely with this committee throughout.
    Thank you very much.
    [The prepared statement of Ms. Gottemoeller follows:]

               Prepared Statement of Rose E. Gottemoeller

    Thank you, Chairman Menendez, Senator Corker, and members of the 
committee. Thank you also to Senator Shaheen and Senator Isakson for 
your introductions. I am honored by your kind words of support.
    Indeed, it is a great honor for me to come before this committee 
today and be considered for the position of Under Secretary of State 
for Arms Control and International Security. I want to thank my 
husband, Ray Arnaudo, and my sons, Dan and Paul, for their unwavering 
support. I am grateful for the confidence that President Obama and 
Secretary Kerry have shown in nominating me for this position and I am 
mindful of the significant and serious responsibilities that I will 
undertake on behalf of our country should I be confirmed by the Senate.
    For the past 4 years, I have served as the Assistant Secretary of 
State for Arms Control, Verification and Compliance (AVC). As part of 
my duties, I had the privilege of serving as the lead negotiator for 
the New START Treaty. That agreement has been in force for over 3 years 
and its implementation is going very well. I want to thank the members 
of this committee for their advice, leadership, and deep involvement 
throughout the New START negotiation and the ratification process. The 
Senate plays a critical role in policymaking on issues of strategic 
stability, and I think that our experience with New START reinvigorated 
national interest in these critical issues. I know that we might not 
always agree on specific steps, but I know that we all prioritize the 
security of our country and our fellow citizens and allies. I also 
welcome the relaunch of the National Security Working Group under the 
leadership of Senator Feinstein and Senator Rubio. If confirmed, I 
would plan to work closely with this esteemed group.
    As I mentioned, New START's implementation is going very well. Its 
robust verification system is providing the predictability and mutual 
confidence that both sides are living up to their commitments. I am 
very proud of the overall work that AVC has done on verification. For 
over many years, the staff in AVC has advanced U.S. national security 
by promoting verifiable agreements and verification technologies, and 
by working to ensure compliance by other countries with respect to 
their arms control, nonproliferation, and disarmament agreements and 
commitments. I take President Reagan's mantra of ``trust, but verify'' 
to heart and have been steadfast in my pursuit of new technologies to 
aid in verification and monitoring. In fact, the mission of the Bureau 
is focused on ensuring that effective verification is a vital part of 
the negotiation and implementation of arms control agreements.
    Under my direction, AVC took steps to encourage private sector 
entrepreneurs and experts to develop ideas on the application of new 
information and technologies to verification and monitoring. I have 
been lecturing on this issue extensively at universities and 
nongovernmental organizations around the world. I think it is 
imperative that the next generation of Weapons of Mass Destruction 
(WMD) experts understands our current verification and monitoring needs 
and applies creativity and innovation to solving our future needs in 
these areas. If confirmed, I would continue to push for new thinking 
and increased budgets for verification and monitoring efforts and 
funding for R&D technology in this area.
    All the challenges we have faced together over the past 4 years 
leave me with no doubt that the team in AVC will continue to contribute 
to a safer, more secure nation. I am especially pleased that President 
Obama nominated Deputy Assistant Secretary Frank Rose to succeed me as 
the Assistant Secretary in AVC. I have worked with Frank over the past 
4 years and have every confidence that, if confirmed, he will be an 
excellent Assistant Secretary and will continue AVC's focus on 
improving and enhancing verification and compliance mechanisms.
    Since February 2012, I also have been serving as the Acting Under 
Secretary for Arms Control and International Security. I had the 
privilege to follow Ellen Tauscher--a remarkable, dynamic leader. In 
this position, I have responsibility for the T family of three 
Bureaus--AVC, International Security and Nonproliferation (ISN), and 
Political-Military Affairs (PM). The issues handled by the T bureaus 
are cross-cutting and affect people around the world. For that reason, 
we cover a lot of ground, both literally and figuratively. The work we 
do in T informs, augments, and helps implement U.S. security policies. 
I am proud to say that when it comes to keeping America safe, the 
people working in T make a remarkable contribution.
    It is no secret that I came into this position as a ``nuke 
person.'' While arms control and nonproliferation are familiar 
territory for me, I was somewhat new to the issues covered by the 
Political-Military Affairs Bureau, which is a major part of the Under 
Secretary's portfolio.
    As the principal link between the Departments of State and Defense, 
PM is the linchpin in State-DOD relations, increasing and 
institutionalizing collaboration in implementing our security agenda 
with partners worldwide. Over the past year and a half, as I have 
traveled to many partner countries to discuss political-military 
issues, it has become clear to me that many of PM's issues are linked 
to our arms control and nonproliferation goals.
    If confirmed, I plan to continue championing the work of this 
Bureau, as well as the work of AVC and ISN. I believe that the 
experience I have gained throughout my career makes me well suited to 
advance the work of these three distinct and important Bureaus.
    Looking ahead, I know that the T family of Bureaus is facing an 
agenda that is challenging and diverse. These Bureaus will continue to 
work on reducing the dangers posed by nuclear, chemical, biological, 
and conventional weapons--through arms control or nonproliferation 
measures; improving export controls and opportunities for U.S. defense 
trade; countering piracy; clearing unexploded landmines and munitions; 
and strengthening U.S. defense and security relationships with friends 
and allies.
    A top priority, if confirmed, will be the sound coordination of the 
State Department's efforts to ensure the Syrian regime can never again 
use chemical weapons against its own people. Experts in the T bureaus 
are working hard to coordinate the diplomatic, technical, and public 
and congressional outreach activities related to implementing the 
agreement to inventory, secure, and destroy Syrian chemical weapons. We 
face a difficult road with difficult players, but we must push forward 
and we must remain vigilant. As Secretary Kerry said last week, ``The 
complete removal of Syria's chemical weapons is possible here, through 
peaceful means. And that will be determined by the resolve of the 
United Nations to follow through on the agreement that Russia and the 
United States reached in Geneva, an agreement that clearly said this 
must be enforceable, it must be done as soon as possible, it must be 
real.''
    One thing we do have going in our favor is our experience with 
helping to eliminate Libya's chemical weapons program. The experts in T 
played a direct role in that process and are now applying the lessons 
learned to Syria.
    Other priorities include advancing strategic stability with the 
Russian Federation. Over the past few years, we have achieved 
significant results from our work with the Russians. These include 
Russian support of U.N. Security Council resolutions that created the 
toughest sanctions ever on North Korea and Iran, our work together on 
the New START Treaty, bringing into force the agreement to dispose of 
excess weapons plutonium, concluding a successor arrangement to 
continue our bilateral threat reduction cooperation, and our work to 
open up and sustain the Northern Distribution Network to get critical 
supplies to troops in Afghanistan--which by the way, has been achieved 
through PM-led diplomacy.
    That said, we are dealing with some serious issues and challenges 
with the relationship--this applies to strategic issues, Syria and 
beyond. We will continue to engage the Russians to try to find common 
ground, and when needed, to speak out forcefully on our concerns. We 
will only move ahead on cooperative arrangements when it is in our 
national security interest to do so.
    The President announced in Berlin that we would pursue reductions 
of deployed strategic nuclear weapons. This decision flowed from the 
administration's extensive analysis of the current strategic 
environment and deterrence requirements. That analysis confirmed that 
the United States can ensure its security and that of our allies, and 
maintain a strong and credible strategic deterrent, while reducing our 
deployed strategic nuclear weapons by up to one-third below the level 
established by the New START Treaty. The President said on that 
occasion, ``I intend to seek negotiated cuts with Russia to move beyond 
cold war postures.'' Toward that end, we will pursue a treaty with the 
Russian Federation.
    We agree with the Senate regarding the importance of addressing the 
disparity between U.S. and Russian nonstrategic nuclear weapons, and 
will work with our NATO allies to seek bold reductions in U.S. and 
Russian NSNW in Europe.
    If confirmed, I will play a role in these efforts and I can assure 
you that the administration and I are committed to consulting with the 
Congress and our allies as we move forward with the nuclear arms 
reduction process. When considering possible reductions, the United 
States will only enter into treaties and agreements that are in our 
national security interest.
    As we pursue reductions, I will do my part to support the nuclear 
modernization budget. I have excellent working relationships with my 
former colleagues, Secretary Ernest Moniz, Deputy Secretary Dan 
Poneman, and Frank Klotz, the nominee for National Nuclear Security 
Administration (NNSA) Administrator, along with many other colleagues 
at the Department of Energy.
    If confirmed, I will continue to support ISN's efforts to prevent 
the illicit spread of arms, including weapons of mass destruction and 
their delivery systems. ISN plays a key role in the U.S. Government's 
efforts to address the nuclear programs of Iran and North Korea--one of 
the top priorities for this administration and for me. The diplomatic 
full-court press from the State Department has contributed to the 
unprecedented international consensus on maintaining sanctions and 
other pressure on both states. We must continue to push.
    Part of what makes us effective is our partnership with the 
Department of Defense, led by the PM Bureau. This partnership is 
important to our security cooperation around the world, which is 
fundamentally a foreign policy act. Our work in this regard enables us 
to expand security cooperation with our allies and partners, is 
critical to America's national security and economic prosperity. It is 
also an important part of the State Department's economic statecraft 
efforts.
    A related priority for me, if confirmed, is to continue my work to 
advance export control reform, which includes revising the U.S. 
Munitions List (USML). Updating the USML, a major effort by PM, working 
with the Departments of Defense and Commerce, is a key part of our 
export control reform effort. The USML review will improve U.S. 
national security by permitting us to focus on, and thus more 
stringently protect, our most sensitive goods and technologies, while 
for less sensitive items, implementing export requirements that are 
thorough, but not unduly burdensome to U.S. exporters and facilitate 
interoperability with our allies.
    Of course, I have barely scratched the surface of what the ``T 
family'' does each and every day in order to build a strong, balanced 
approach to foreign policy and U.S. security. If confirmed, I will have 
the responsibility for a range of additional policy areas. I welcome 
the opportunity to talk with you about our goals for a fissile material 
cutoff treaty, the Comprehensive Nuclear Test-Ban Treaty, cooperative 
threat reduction, engaging China, arms sales, conventional arms 
control, missile defense cooperation, and any other issue you might 
wish to discuss. All of these issues will require the deep involvement 
and expertise of this committee and others in Congress. If confirmed, I 
look forward to continuing to consult closely with the members of this 
committee on all these issues.
    I am under no illusions about the enormous challenges we face on 
the arms control, nonproliferation, and political-military fronts, but 
I do think that the United States and the T family bureaus are prepared 
to meet these challenges. With your support, I would be proud to help 
lead the effort as the Under Secretary of State for Arms Control and 
International Security.
    Chairman Menendez, Senator Corker, in closing, I would like to note 
that I have been privileged to observe and work with some of the most 
skilled arms control and international security leaders in modern 
American history. They have influenced my path and shaped my policy 
views. Working with leaders such as my first boss at the RAND 
Corporation, Colonel Thomas W. Wolfe; Ambassador Linton Brooks; Senator 
Howard Baker; Senator Sam Nunn; Senator Richard Lugar, on this 
committee; Secretary Moniz; Secretary Hillary Clinton; and my current 
boss and your former colleague, Secretary John Kerry; I have been able 
to learn from the best. If confirmed, I will certainly continue to 
follow the example of these fine Americans. I want to again thank the 
committee and its leaders for the attention and interest demonstrated 
during the New START ratification process. It was a testament to your 
dedication to American national security.

    The Chairman. Thank you.
    Mr. Rose.

 STATEMENT OF FRANK A. ROSE, OF MASSACHUSETTS, TO BE ASSISTANT 
       SECRETARY OF STATE FOR VERIFICATION AND COMPLIANCE

    Mr. Rose. Good morning, Mr. Chairman, Ranking Member 
Corker, and members of the committee. It is, indeed, a great 
honor to come before the Senate Foreign Relations Committee as 
President Obama's nominee to be the next Assistant Secretary of 
State for Arms Control, Verification, and Compliance.
    I would like to thank President Obama and Secretary Kerry 
for the confidence they have shown in me by nominating me for 
this position.
    I would also like to acknowledge my mother, Athalyn, who is 
here in the front row, and my sister, Nikko, who is behind her, 
who are here today to provide moral support. We have certainly 
come a long way since I was a teenager, when we were watching 
CNN together. [Laughter.]
    Finally, let me acknowledge my colleagues on the panel, 
especially Rose Gottemoeller, with whom I have worked closely 
for the past 4 years and whom I will succeed as Assistant 
Secretary, if confirmed by the Senate.
    The Arms Control, Verification, and Compliance Bureau was 
established by Congress in Public Law 106-113. This important 
law lays out the fundamental purpose for the ABC Bureau and 
establishes the Assistant Secretary as having the lead within 
the Department of State on, ``all matters related to 
verification, compliance with international arms control, 
nonproliferation, and disarmament agreements and commitments.'' 
So, let me commit to you today that, if confirmed as Assistant 
Secretary, I will focus on effectively conducting rigorous 
compliance assessments and ensure that countries are 
accountable for their arms control, nonproliferation, and 
disarmament commitments.
    The ABC Bureau is required by statute to produce several 
reports on compliance of countries with their arms control, 
nonproliferation, and disarmament agreements. The largest and 
most important of these reports is the Annual Report on 
Adherence To and Compliance With Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments, 
which we refer to as the Compliance Report. For the last 4 
years, in my current job as Deputy Assistant Secretary of 
State, I have been the Bureau official responsible for 
overseeing the annual Compliance Report. This is an incredibly 
important report, which the Obama administration takes very 
seriously. The compliance assessments in this report undergo a 
rigorous review to ensure the findings are factually based and 
have the concurrence of key U.S. Government departments and 
agencies, including the intelligence community.
    Despite this massive undertaking, I am proud to say that 
the Obama administration has transmitted the Compliance Report 
to Congress every year for the past 4 years. I will admit, 
however, it has been a challenge to meet the report's April 15 
deadline. Should I be confirmed as Assistant Secretary, I want 
to commit to you that I will look at ways of developing a more 
efficient process so we can get this important report to 
Congress in a more timely manner. As always, if confirmed, I 
would be prepared to discuss compliance issues with you at any 
time.
    The Bureau has also been given responsibility for the 
development of new arms control agreements as part of the 2010 
restructuring contained in the Quadrennial Diplomacy and 
Development Review. This restructuring has enhanced the 
Department's ability to utilize traditional arms control tools 
to address the growing challenge of weapons of mass 
destruction. By combining arms control, verification, and 
compliance in a single bureau under one Assistant Secretary, 
the Department has ensured that verification and compliance 
regimes are built into arms control agreements from their 
inception, and that compliance with all such agreements are 
diligently verified. In practice, this means the Bureau's 
experts, with their decades of verification and compliance 
experience, are, in many cases, the ones drafting the new 
agreements.
    The New START Treaty is an excellent example of this 
approach. During the negotiations, ABC was able to use the 
decades of experience of arms control inspectors in order to 
craft a robust verification regime for the New START Treaty.
    Mr. Chairman, these critical national security issues 
underscore the important responsibility that I will be 
undertaking, should the Senate decide to confirm me. It is an 
important responsibility I cannot achieve alone. One of my 
primary goals, should I be confirmed in this position, is to 
ensure that ABC retains and expands the expertise that is 
essential for this important mission, while developing the next 
generation of arms control, verification, and compliance 
professionals.
    Having spent many years of my career working on Capitol 
Hill, I also know how important it is to collaborate closely 
with Congress on these issues, so let me conclude my remarks by 
pledging my strong commitment to work closely with Congress.
    Mr. Chairman, Ranking Member Corker, and members of the 
committee, thank you for your time today, and I would be 
pleased to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Rose follows:]

                  Prepared Statement of Frank A. Rose

    Good Morning, Mr. Chairman, Ranking Member Corker, and members of 
the committee. It is a great honor for me to come before the Senate 
Foreign Relations Committee as President Obama's nominee for the 
position of Assistant Secretary of State for Verification and 
Compliance, which we have renamed within the Department the Bureau of 
Arms Control, Verification and Compliance (or AVC). I would like to 
thank President Obama and Secretary Kerry for the confidence they have 
shown in me by nominating me for this position. I would also like to 
acknowledge my mother, Athalyn, and my sister, Nikko, who are here 
today to provide moral support. Finally, let me acknowledge my 
colleagues on the panel, especially, Rose Gottemoeller, with whom I 
have worked closely for the past 4 years and in whose path I will 
follow if the Senate agrees to confirm me in this position.
    The Arms Control, Verification and Compliance Bureau traces its 
history back to the 1980s in the Arms Control and Disarmament Agency 
where it was known as the Bureau for Intelligence, Verification, and 
Information Support (IVI). It was then reestablished in the State 
Department by the Congress in Public Law 106-113. This important law 
defines the fundamental purpose and critical national security function 
of the AVC Bureau and establishes the Assistant Secretary as having the 
lead within the Department of State on, ``all matters relating to 
verification and compliance with international arms control, 
nonproliferation, and disarmament agreements and commitments.''
    The Senate Foreign Relations Committee report that accompanied P.L. 
106-113 called for an Assistant Secretary with a ``true commitment to 
vigorous enforcement of arms control and nonproliferation agreements 
and sanctions.'' This is an essential mission for U.S. national 
security. So let me commit to you today, that if confirmed in this 
position, I will focus on continuing to effectively conduct rigorous 
compliance assessments and ensure that countries are accountable for 
the arms control, nonproliferation, and disarmament commitments they 
have made.
    This core verification and compliance mission also puts the Bureau 
at the center of key national security efforts of the Obama 
administration.
    The effective and timely verification of arms control, 
nonproliferation and disarmament agreements and commitments is 
essential to U.S. national security. The United States must be assured 
that countries in compliance with their commitments. As a result, 
verification regimes are crafted that often provide for onsite 
inspections, which allow the United States or multilateral 
organizations to have a physical presence to monitor compliance with 
another country's commitments. The staff of the AVC Bureau has a deep 
expertise, knowledge, and commitment to the verification and monitoring 
of arms control and nonproliferation agreements and commitments. Many 
of the Bureau's staff members have served as inspectors in arms control 
agreements, such as the START Treaty, the New START Treaty, the 
Conventional Armed Forces in Europe (CFE) Treaty, and the Open Skies 
Treaty, and other agreements, such as Libya's 2003 commitment to 
renounce weapons of mass destruction. This experience ensures that our 
compliance assessments are thorough, precise and timely. AVC is now 
playing a key role supporting the efforts to eliminate Syria's chemical 
weapons and will play a critical role in assessing the initial 
documents that Syria has provided to the Organization for the 
Prohibition of Chemical Weapons (OPCW).
    As part of its responsibilities, the AVC Bureau is statutorily 
charged with producing several reports on the compliance of countries 
with their arms control, nonproliferation, and disarmament agreements. 
The largest and most important of those reports is the Annual Report on 
Adherence to and Compliance with Arms Control, Nonproliferation, and 
Disarmament Agreements and Commitments, which we call the Compliance 
Report for short and once was also known as the Pell Report.
    For the last 4 years, in my current job as Deputy Assistant 
Secretary of State, I have been responsible for overseeing the Annual 
Report on Compliance. This is an incredibly important report which the 
Obama administration takes very seriously. The compliance assessments 
in this report undergo a rigorous review to ensure the findings are 
factually based and have the concurrence of key U.S. Government 
departments and agencies, including the Intelligence Community. This 
massive effort results in a comprehensive package that distills 
numerous Intelligence Community and inspection reports, and provides a 
comprehensive assessment of compliance with a wide range of agreements 
and commitments, from the Nuclear Nonproliferation Treaty (NPT), to the 
1999 Vienna Document, to the Missile Technology Control Regime (MTCR). 
Also included is information on the steps the U.S. Government has taken 
to resolve any compliance concerns.
    Despite this massive undertaking, I am proud to say that the Obama 
administration has transmitted the Compliance Report to Congress every 
year for the past 4 years. I will admit, however, it has been a 
challenge to meet the report's April 15 deadline. Should I be confirmed 
in the position of Assistant Secretary, I want to commit to you that I 
will look at ways of developing a more efficient process so that we can 
get this important report to Congress in a timelier manner. As always, 
if confirmed, I will be prepared to discuss compliance issues with you 
at any time.
    The AVC Bureau also produces three other reports that are required 
by Senate Resolutions of Advice and Consent. These include the 
Condition (5)(C) Report: Compliance With the Treaty on Conventional 
Armed Forces in Europe; the Condition (10)(C) Report: Compliance With 
the Convention on the Prohibition of the Development, Production, 
Stockpiling and Use of Chemical Weapons and on Their Destruction; and 
the Annual Report on Implementation of the New START Treaty.
    Beyond the experience of AVC staff and these reports, the Bureau is 
seeking to develop new technologies that can be used to verify and 
monitor compliance with arms control agreements and commitments. One of 
the AVC Bureau's main efforts is through the Key Verification Assets 
Fund, known as the V-Fund, which was established in the Bureau by 
Public Law 106-113. This is a modest fund that we use to preserve 
critical verification assets and to promote the development of new 
technologies. In many cases, the AVC Bureau uses the V-Fund as ``seed 
money'' which we can leverage to influence the development of new 
technologies rather than replace or duplicate activities underway by 
other Government agencies. The objective is to encourage other agencies 
either to develop new technologies or to adapt existing projects to 
meet the Governments arms control verification needs. In addition, in 
order to better organize these efforts, the AVC Bureau has created a 
Verification Technology Research and Development Needs document, which 
identifies the priority needs of the Bureau for research and 
development programs to address critical arms control and 
nonproliferation technology requirements in the realm of verification 
and transparency.
    The AVC Bureau also uses congressionally appropriated funds to 
build and enhance the verification regime of the Comprehensive Nuclear-
Test-Ban Treaty (CTBT), which complements our own national technical 
means. When North Korea announced it had conducted nuclear tests in 
2006, 2009, and 2013, the sensors of the International Monitoring 
System (IMS) rapidly provided information that described the location, 
seismic magnitude, time and depth of the events. Radionuclide 
detections at IMS stations in Japan and Russia were collected nearly 2 
months after the 2013 event and were consistent with a nuclear 
explosion in North Korea. These detections played a key part in the 
U.S. and other states' efforts to verify North Korea's claims it had 
tested a nuclear device.
    The Bureau is also seeking to engage more with civil society on 
verification issues and has begun an Arms Control Innovation Challenge. 
This challenge is now in its second iteration and seeks new, innovative 
ideas from the general public to heighten awareness on the topic of 
arms control. AVC is looking to use this challenge to develop new 
inspection tools, processes, and ideas that could supplement or even 
replace current technical approaches which date back to the cold war, 
with modern methods that capture the capabilities of mobile devices and 
easy information-sharing. It is also an opportunity to engage the 
larger community including students, technologists, inventors, and 
educators, to participate and become part of the solution to the 
verification and monitoring challenge. The 2013 challenge asks the 
public, ``What Information Technology Tools and Concepts Can Support 
Future Arms Control Inspections?''
    At the same time as the Bureau is carrying out this important 
verification and compliance mission, the Bureau was given the 
responsibility for the developing new arms control agreements as part 
of a 2010 restructuring contained in the Quadrennial Diplomacy and 
Development Review (also known as the QDDR). This restructuring 
enhanced the Department's ability to utilize traditional arms control 
tools to address the growing challenge of weapons of mass destruction. 
By bringing the arms control mission together with the verification and 
compliance missions in a single bureau under one Assistant Secretary, 
the State Department has ensured that verification and compliance 
regimes are built into arms control agreements from their inception and 
that compliance with all such agreements is diligently verified. In 
practice, this means that the Bureau's experts, with their decades of 
verification and compliance experience, are integrated directly into 
the efforts to develop new arms control treaties and, in many cases, 
are the ones drafting the new agreements.
    The New START Treaty, which requires the United States and Russian 
Federation to reduce their deployed strategic nuclear warheads to no 
more than 1,550 by 2018, is an excellent example of this approach. The 
Treaty contains a robust verification regime. Let me highlight a couple 
of the important verification mechanisms. For example, the verification 
regime requires twice yearly exchanges of data on facilities, numbers 
and locations, and notifications as required regarding movements of 
aircraft, flight tests, and new types of strategic offensive arms. To 
confirm that data, the verification regime allows the United States to 
conduct 18 inspections annually in Russia and vice versa. In addition, 
each Party is required to conduct an exhibition of new strategic 
offensive arms, which allows us to inspect the design of any new 
system. The Treaty's central limits, combined with the monitoring 
provisions that enable compliance verification, enhance predictability 
and strategic stability between our countries, and ultimately increase 
U.S. national security.
    There is still much work to be done on the arms control agenda. 
President Obama has spoken of his desire to negotiate a verifiable 
Fissile Material Cutoff Treaty (FMCT). However, efforts to get such 
negotiations started in the Conference on Disarmament have been 
stymied. The United States remains committed to this important arms 
control treaty and is now examining other ways of making progress.
    The modernization of the CFE Treaty, one of the three pillars of 
the conventional arms control process in Europe, is another area of 
focus for the AVC Bureau. Under CFE, thousands of inspections have 
taken place at military sites all over Europe, dramatically increasing 
confidence and military transparency on the continent by providing a 
means to verify the information provided in data exchanges. Together 
with our NATO allies and our other European partners, the United States 
is strongly committed to the preservation, strengthening, and 
modernization of the European conventional arms control regime, 
consistent with our core principles and concerns, such as host nation 
consent. We must adapt and improve the efforts to meet current and 
future security needs. The Vienna document is a good example of the use 
of Confidence- and Security-Building Measures (CSBM) to build 
predictability and mutual confidence in Europe.
    The Bureau is also playing a lead role in the efforts to verifiably 
eliminate Syria's chemical weapons arsenal. The Framework Agreement for 
Elimination of Syrian Chemical Weapons reached by Secretary Kerry and 
Foreign Minister Lavrov in Geneva calls for the elimination of Syria's 
chemical stockpile under the auspices of the Organization for the 
Prohibition of Chemical Weapons, which was established by the Chemical 
Weapons Convention (CWC). The Bureau oversees the work of the U.S. 
mission to the OPCW in The Hague, which is leading the effort to reach 
agreement on the expedited destruction of these weapons in Syria.
    There are also several other issues where the AVC Bureau has the 
lead role within the Department.
    For example, the Bureau has the lead within the Department on 
missile defense. The Bureau was responsible for the successful 
negotiation of missile defense basing agreements with Turkey, Romania, 
and Poland for the implementation of President Obama's European Phased 
Adaptive Approach (EPAA). Now that the EPAA is being implemented, the 
AVC Bureau has turned its focus to seeking missile defense cooperation 
in other regions. For example, the United States already has robust 
missile defense cooperation with Israel and is seeking ways to expand 
that cooperation. The United States is also working on several 
initiatives under the auspices of the U.S.-Gulf Cooperation Council's 
(GCC) Strategic Cooperation Forum to enhance missile defense 
cooperation with our GCC partners. Finally, we are working on enhancing 
missile defense cooperation with our Asia-Pacific partners such as 
Japan, South Korea, and Australia.
    Furthermore, like previous administrations, we are working to 
develop missile defense cooperation with the Russian Federation. Such 
cooperation is in the national security interests of the United States. 
However, we have been clear that any cooperation with Russia will not 
come at the expense of the ability to defend the United States homeland 
or our allies and partners from missile attacks from countries like 
Iran and North Korea. As we have informed the Russian Government on 
numerous occasions, the United States will not accept any limits on 
U.S. missile defense capabilities.
    The AVC Bureau also has the lead for the Department on issues 
related to national security space policy and cooperation. President 
Obama's National Space Policy directed the U.S. Government to work with 
the international community to develop transparency and confidence-
building measures or TCBMs in outer space on a bilateral and 
multilateral basis. Such TCBMs can help prevent mishaps, 
misperceptions, and miscalculations by encouraging openness, 
familiarity, and trust between governments. An example of TCBMs is the 
draft International Code of Conduct for Outer Space Activities. The AVC 
Bureau is leading the U.S. Government's efforts to work with the 
European Union and other space-faring nations to develop this Code of 
Conduct, which seeks to establish nonlegally binding guidelines for 
responsible behavior to reduce the hazards of debris generating events 
in space and increase the transparency of operations to avoid the 
danger of misperceptions.
    These important issues underscore the important responsibility that 
I will be undertaking, should the Senate agree to confirm me as 
Assistant Secretary. It is an important responsibility that I cannot 
achieve alone. One of my primary goals, should I be confirmed in this 
position, is to ensure that AVC retains and strengthens the expertise 
and experience that is essential for this important mission, but also 
to expand and develop the next generation of arms control, 
verification, and compliance professionals.
    In addition, having spent many years working in Congress on then-
Senator Kerry's personal staff, and on the professional staffs of the 
House Armed Services Committee and the House Permanent Select Committee 
on Intelligence, I know how important it is to work closely on these 
issues with Congress. So let me conclude my remarks by pledging my 
strong commitment to working closely with Congress on all of these 
issues.
    Mr. Chairman, Ranking Member Corker, and members of the committee, 
thank you for your time today and I would be pleased to answer any 
questions you may have.

    The Chairman. Thank you.
    Mr. Scheinman.

  STATEMENT OF ADAM M. SCHEINMAN, OF VIRGINIA, TO BE SPECIAL 
 REPRESENTATIVE OF THE PRESIDENT FOR NUCLEAR NONPROLIFERATION, 
                  WITH THE RANK OF AMBASSADOR

    Mr. Scheinman. Thank you, Mr. Chairman, Ranking Member 
Corker, and members of the committee.
    It is also an honor for me to appear before this committee 
as President Obama's nominee as the Special Representative of 
the President for Nuclear Nonproliferation. And I am grateful 
to President Obama and Secretary Kerry for the confidence they 
have placed in me.
    I am also very pleased to be joined today by my wife, 
Justine, my two daughters, Audra and Sela--my son, Nathaniel 
could not be here--and my parents. This group reminds me, every 
day, there is life away from nonproliferation, as important as 
that work is.
    As a longtime civil servant, I have spent more than 20 
years dealing with nuclear nonproliferation issues in the 
Department of Energy, where I was appointed to the Senior 
Executive Service at the National Security Staff in the White 
House, and now at the State Department. But, my experiences 
actually reaches farther back, as I chose to follow my father's 
footsteps, Dr. Lawrence Scheinman, who is here and, himself, a 
well-known nonproliferation scholar and practitioner. And what 
I have learned along the way is that success in 
nonproliferation requires patience, persistence, and steady 
leadership, and that leadership can only come from the United 
States. We are the only nation with the reach and the influence 
to sustain it. And, if confirmed, I pledge to do my part to 
carry forward this legacy of leadership, working closely with 
my colleagues on this panel, agencies in Washington, and, of 
course, the Congress.
    As Senator Corker said, preventing nuclear proliferation is 
a bipartisan national security priority. And central to this 
effort is ensuring that the Nuclear Nonproliferation Treaty, 
the NPT, serves as a unifying framework for our security. As 
the President said about the NPT in Prague in 2009, the basic 
bargain is sound: countries with nuclear weapons will move 
toward disarmament, countries without nuclear weapons will not 
acquire them, and all countries can access peaceful nuclear 
energy.
    The United States is carrying out a broad strategy to 
advance NPT goals, and, as such, strengthen our national 
security interests. We are working to strengthen international 
safeguards to make cheating more difficult. We are securing 
vulnerable nuclear materials to deal with the threat of nuclear 
terrorism. We are encouraging new frameworks for nuclear 
cooperation that minimize nuclear proliferation dangers. We 
helped to secure a consensus at the 2010 NPT Review Conference, 
the first in a decade. And we are pursuing verifiable nuclear 
reductions with Russia. This is a positive and proactive U.S. 
agenda that reinforces international support for the NPT. That 
support is essential if we are to deal effectively with cases 
of noncompliance; in particular, by Iran and North Korea.
    Noncompliance challenges the NPT's legitimacy, and it is a 
disservice to all states that play by widely accepted rules. It 
should be dealt with openly and directly. It is not a 
distraction from the priority others attach to nuclear 
disarmament or rights to peaceful nuclear energy. It is 
fundamental to achieving those goals. Nonproliferation and 
disarmament are mutually reinforcing and should be pursued in a 
balanced manner.
    The 2010 NPT Review Conference approved an action plan that 
we think strikes this balance and is a good point of reference 
for future NPT review meetings. When NPT parties take stock of 
progress at the next review conference, in 2015, we can point 
to a solid record of achievement.
    For example, some may not know that this year marks the end 
of a 20-year agreement with Russia to convert many thousands of 
Russian nuclear bombs into reactor fuel that is used to light 
American cities. Others may be unaware that the United States 
is the world's leader in peaceful nuclear assistance. States 
that uphold their nonproliferation commitments should know that 
they have a partner in the United States.
    If confirmed, I will work to get this message across and 
pursue further steps to strengthen the NPT. More could be done 
to tighten IAEA safeguards and discourage abuse of the treaty's 
withdrawal provision.
    Forging a still stronger NPT will require enormous effort 
on our part and the cooperation of partners who understand that 
the NPT is simply too important to fail or to be held hostage 
to unrealistic disarmament proposals or regional agendas that 
certainly cannot command consensus.
    Mr. Chairman, I have learned from my government service 
that progress will require more than good ideas; it requires 
good people. And there is no shortage of that in the United 
States. I have had the privilege of working with some of the 
most talented and dedicated nonproliferation professionals in 
and outside of government. And, if confirmed, I look forward to 
drawing on this talent in the service of our nonproliferation 
goals. And, of course, I will consult frequently with Congress, 
and, in particular, this committee.
    Thank you again, Mr. Chairman, and I welcome any questions 
you may have.
    [The prepared statement of Mr. Scheinman follows:]

                Prepared Statement of Adam M. Scheinman

    Thank you, Mr. Chairman and members of the committee. It is an 
honor to appear before this committee as President Obama's nominee as 
the Special Representative of the President for Nuclear 
Nonproliferation. I am grateful to President Obama and Secretary Kerry 
for the confidence they have placed in me. I am also very pleased to be 
joined here today by my wife, Justine Fitzgerald, and family members, 
who remind me every day that, while there are good reasons for working 
to prevent the spread of nuclear weapons, there's also life away from 
that work.
    As a long-time civil servant, I have spent more than 20 years 
dealing with nonproliferation issues in the Department of Energy, where 
I was appointed to the Senior Executive Service in 2006, the National 
Security Staff in the White House, and now the State Department. I owe 
much to my father, Dr. Lawrence Scheinman, a well-known 
nonproliferation scholar and practitioner.
    I learned from him and my colleagues that nonproliferation 
successes require patience, persistence, and steady leadership. That 
leadership must come from the United States; we were present at the 
creation of the nonproliferation regime, and no other nation has our 
reach and influence to sustain it. If confirmed, I pledge to do my part 
to carry forward the legacy of U.S. leadership, working closely with my 
colleagues on this panel, agencies in Washington, and the Congress.
    Preventing nuclear proliferation is a bipartisan national security 
priority. Central to this effort is ensuring that the Nuclear 
Nonproliferation Treaty--or NPT--continues to serve as the unifying 
framework for international cooperation. As the President said about 
the NPT in Prague in 2009, ``[t]he basic bargain is sound: Countries 
with nuclear weapons will move towards disarmament, countries without 
nuclear weapons will not acquire them, and all countries can access 
peaceful nuclear energy.''
    The United States has a broad strategy that is advancing the NPT's 
goals and, as such, serving national security interests. We are working 
to strengthen International Atomic Energy Agency safeguards to make 
cheating more difficult; we are securing vulnerable nuclear materials 
around the world; we are encouraging new frameworks for nuclear energy 
cooperation that will reduce nuclear dangers; for the first time in a 
decade, we helped to secure a consensus final document at the 2010 NPT 
Review Conference; and we are implementing the New START Treaty 
successfully and committing to pursue further, verifiable reductions 
with Russia.
    A positive and proactive U.S. agenda reinforces international 
support for the NPT. That support is essential if we are to deal 
effectively with cases of noncompliance, and in particular by Iran and 
North Korea, which pose the most significant threat to the treaty's 
future. Rules must be binding and violations must have consequences.
    Noncompliance challenges the NPT's legitimacy and is a disservice 
to all states that play by widely accepted rules. It should be dealt 
with openly and directly. It is not a distraction from the priority 
others attach to nuclear disarmament or rights to peaceful nuclear 
energy; it is fundamental to achieving those goals. Nonproliferation 
and disarmament are mutually reinforcing and should be pursued in a 
balanced and collective manner.
    The 2010 NPT Review Conference approved an ``Action Plan'' that 
strikes this balance and is a good point of reference for future NPT 
review meetings. When NPT parties take stock of progress on the Action 
Plan at the next Review Conference in 2015, we will point to a solid 
record of achievement. For example, this year marks the final one of a 
20-year agreement with Russia to convert uranium recovered from 
thousands of Russian nuclear bombs to reactor fuel that is used to 
light American cities. Others may be unaware that the United States is 
the world's leader in peaceful nuclear assistance. States that uphold 
their nonproliferation commitments should know they have a partner in 
the United States.
    If confirmed, I will work to get this message across and pursue 
further steps to strengthen the NPT. More could be done to tighten IAEA 
safeguards, discourage abuse of the treaty's withdrawal provision, and 
support existing nuclear-weapon-free-zone treaties. Action by the 
Senate on the protocols to the African and the South Pacific zone 
treaties before the 2015 Review Conference would be a helpful gesture.
    Forging a still stronger NPT will require enormous effort on our 
part and the cooperation of partners who understand that the NPT is too 
important to fail or to be held hostage to unrealistic disarmament 
proposals or regional agendas that cannot command consensus.
    Mr. Chairman, I have learned from my government service that 
progress requires more than good ideas; it requires good people. There 
is no shortage of that in the United States. I have had the privilege 
of working with some of the most dedicated nonproliferation 
professionals in and outside of government, and, if confirmed, I look 
forward to drawing on this talent in the service of our 
nonproliferation goals.
    Thank you again, Mr. Chairman. If confirmed, I look forward to 
consulting frequently with Congress and, in particular, this committee, 
and I welcome any questions you may have at this time.

    The Chairman. Well, thank you all for your testimony.
    We welcome your families who are here. We recognize that 
service is an extended reality, and we appreciate the families 
willing to endure some of the sacrifices that are involved. So, 
we welcome you all to the committee.
    Let me start off by a question I ask every nominee. If 
confirmed, will you be responsive to questions and inquiries of 
this committee?
    Ms. Gottemoeller. Yes, sir.
    Mr. Rose. Yes, Senator.
    Mr. Scheinman. Yes, Senator.
    The Chairman. All right.
    Now, let me ask you, What are the U.S. goals for the 2015 
Review Conference and the 2014 NPT preparatory committee 
meeting? And, if the NPT Review Conference is, for example, 
unable to censure Iran, does that imply acceptance of Iran with 
nuclear weapons?
    Ms. Gottemoeller. Perhaps I will start, Mr. Chairman, and 
ask if Adam Scheinman would pick up, since he will greatly 
engaged in both the Preparatory Committee and the Review 
Conference.
    We have the advantage, coming out of the 2010 Review 
Conference, of a comprehensive action plan that we have been 
working on with both nuclear-weapon states and non-nuclear-
weapon states through the intervening years. I, for example, am 
deeply involved in working with the P5 to begin to work on 
verification technologies together, to work on stability and 
security issues together, and, overall, to advance, in that 
way, the disarmament agenda by getting the P5, together, 
focused on responsibilities in the disarmament arena. So, we do 
have a comprehensive, I would call it, in some ways, roadmap as 
we are approaching the prep com and the Review Conference. But, 
it is not enough, and we have, I think, a lot of work to do in 
the upcoming 2 years to make sure that we approach the Review 
Conference in 2015 with a very robust set of results in 
response to the action plan.
    I, in particular, have been working hard, under tasking 
directly from our President as he spoke in Berlin, with regard 
to pursuing further reductions with the Russian Federation. And 
I will be happy to talk more about this, but it has been a 
difficult slog. So, we will continue to be pressing on that 
issue, for example.
    But, perhaps with this beginning--oh, one thing further.
    With regard to Iran--and we will have more opportunities to 
speak on this point--we just defeated some actions at the IAEA 
General Conference that would have highlighted Iran in the ways 
that you are concerned about, and we are constantly assiduous 
in our efforts to ensure that we do not take any steps on the 
diplomatic front and oppose steps on the diplomatic front that 
would provide for any kind of hint that we would find 
acceptable an Iranian nuclear weapons program. It is the same 
with North Korea. So, we are constantly working to push back on 
any efforts of that kind. And I am sure it would be absolutely 
the same at the NPT Review Conference.
    Adam, why don't you pick up on that.
    Mr. Scheinman. Yes, thank you.
    I think the NPT Review Conference and the NPT review cycle 
is essentially a political process; and so, our principal goal 
at the conference ought to be to reinforce the broad support 
for the NPT as a bulwark against proliferation. We will try to 
see consensus, as we would in any multilateral gathering like 
this, but I think we have to be realistic about the prospects, 
given certain undercurrents, including rising Arab frustration 
that their favorite project, of a regional nuclear weapon-free 
zone, has not been moving forward, and concern that the 
nuclear-weapon states are not moving more rapidly toward 
nuclear disarmament. We will have to deal with that.
    And, I think, if we cannot reach consensus, then what we 
ought to be doing is trying to encourage the widest number of 
states possible to support our agenda for the NPT. And it is an 
agenda, I think, that is widely shared by states, which would 
demonstrate that there is progress in the direction of 
disarmament. I think the United States has a fantastic record 
in this area, and we will highlight it. We will seek 
acknowledgment--we should seek acknowledgment that IAEA 
safeguards could be strengthened and that we might consider 
measures to deal with countries that would withdraw from the 
treaty and abuse their rights, as North Korea did.
    The Chairman Let me interrupt you; that is a point I want 
to follow up on. Its withdrawal--North Korea's withdrawal, as 
well as the consequences that flow from that, how does the 
United States best ensure that current non-nuclear-weapons 
states ultimately, under the treaty, refrain from pursuing 
nuclear weapons in the future? And what type of consequences--
some may call them ``punishments'' over time--but consequences 
are in place, or should be in place, for states withdrawing 
from the NPT?
    Mr. Scheinman. With respect to what can be achieved in the 
NPT, because it is a consensus-based process, there is the 
opportunity for countries to, essentially, halt progress. They 
have an effective veto on the decisions of the NPT. But, what 
we would like to do is raise expectations that states that 
withdraw from the NPT will face consequences. And we have been 
thinking about possibilities in that regard, including 
requiring that suppliers cut off cooperation with a withdrawing 
state, ensuring that the IAEA can verify the state of 
compliance in the country that is withdrawing.
    But, I think the greatest prospect for penalizing states 
may not be within the NPT itself, but through the sanctions 
that we pursue, and pursue in partnership with other states. 
And I think what we have seen is that sanctions have been 
effective, not just because the United States insists on it, 
but because we have used the NPT and its process to highlight 
the dangers that noncompliance poses, not just to our security, 
but to the security of all nations. And, if confirmed----
    The Chairman. Well, I----
    Mr. Scheinman [continuing]. I will continue that.
    The Chairman [continuing]. I hope that we will look through 
whatever forum we think is the most appropriate, consequences 
for withdrawal, because there are incentives to join, and there 
should be consequences for withdrawal.
    And if we map out the consequences before anyone withdraws, 
then it is not nation-specific, it is more global, in the sense 
of, ``You understand the consequences of leaving.'' And, in 
that respect, we avert some of the individual bilateral 
challenges that we sometimes face at the Security Council and 
whatnot. So, I think, maybe work toward a goal that is 
broader----
    Then, one final quick question--there is a whole host of 
them; I may have to submit some of them for the record--but, 
the IAEA's paid a pivotal role in global nonproliferation 
policy, and there are several prominent commissions that have 
recently argued that the IAEA is underfunded and overtasked. 
So, what is your view of that? Are those views legitimate? And, 
if so, how do we work to support the IAEA, particularly in the 
realm of verification in nuclear security?
    Ms. Gottemoeller. Perhaps, again, Mr. Chairman, I will 
start, and with your permission, perhaps Adam would like to add 
something.
    President Obama's administration has been very committed to 
the funding of the IAEA, and we provide support to the annual 
budget--to the annual budget in a routine way, according to our 
assessment. But, we are one of the greatest supporters of the 
IAEA, in terms of budget support.
    The other way we support the IAEA is in an extra-budgetary 
way, and that is by providing experts who really contribute in 
a very active way to the work of the IAEA.
    You ask a very good question: Is it underfunded and 
overtasked? In fact, we have been pushing to increase some 
resources for the IAEA, doing so in a number of ways. One way 
we can do it, for example, is by providing expertise. So, it is 
not always a question of money, but also of providing 
expertise.
    And I do think that, as time goes by, we will have a 
continued challenge, because the tasks only get greater. But, 
the organization is doing a terrific job, I think, under its 
current Director General, and we will continue to do everything 
that we can to support it.
    Adam.
    Mr. Scheinman. Thank you. I would----
    The Chairman. The essence of my question--and I am not 
looking for a simple ``yes'' or ``no,'' but I want to get to 
the heart of it--Is it underfunded and overtasked? I understand 
how we support it, I understand that we provide technical 
expertise. That is all great. And I am not saying that the 
United States, alone, should be in the midst of making sure 
that it has the resources to meet its mission. But, the 
question is--all these commissions say that it is underfunded 
and overtasked. Is that a reality or are they wrong?
    Mr. Scheinman. Well, I would say that the IAEA is properly 
tasked, and, to the extent we can do more to encourage the 
IAEA's work, whether it is in security, nonproliferation 
safeguards, or peaceful uses, we should explore those 
opportunities. But, with respect to the NPT process, I would 
just simply note that the IAEA is important to all aspects of 
the treaty, and we have encouraged broad support for----
    The Chairman. Right. So, neither of you have given me an 
answer. So, I want you to submit, for the record--I am not 
going to belabor this--the core question: Is it underfunded and 
overtasked? It is either yes, underfunded, or no, it is not 
underfunded, and it is yes, either appropriately tasked or it 
is overtasked.
    The Chairman. All I am trying to do is to get a sense of a 
major entity that gives legitimacy to efforts that we are 
concerned about, globally, creating the right--if we Are going 
to use that as a venue, then we have to make it a venue that 
works. There is no trick question, here.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Again, thank you all for being here and your desire to 
serve us in this way.
    And, Rose, I think you know I have been concerned about 
comments that the President and Secretary of State have said 
about future reductions with Russia. And I know, in a dinner 
here one evening, you said that we would not have reductions 
without a treaty. And, since that time the Secretary of State, 
as I mentioned earlier, has said that that is the case.
    In your opinion, does that foreclose the administration 
making unilateral reductions in our own arsenal if a treaty 
with Russia is not achievable?
    Ms. Gottemoeller. Sir, I mentioned that we have a hard 
slog, working with the Russians right now, but one thing I will 
say is that this is a very high priority for our President, and 
he has made it clear, from the time he first spoke in Prague in 
2009, that he wants to pursue step-by-step reductions in our 
nuclear arsenal, and pursue them with the Russian Federation.
    So, as I said first, when we had dinner together, back in 
July with the National Security Working Group, we will pursue a 
treaty with the Russian Federation. And, in fact, we are 
pursuing a treaty with the Russian Federation. We have already 
begun to have some initial exchanges with them on this matter, 
in a discussion format.
    I would say that, in answer to your specific question, 
unilateral reductions are not on the table.
    Senator Corker. And so, you see no way that the 
administration would pursue unilateral reductions without a 
treaty.
    Ms. Gottemoeller. Well, sir, as I said, unilateral 
reductions are not on the table.
    Senator Corker. As you move forward with Russia--I know 
numbers of comments were made during New START regarding the 
massive amount of tactical weapons that Russia has, and they 
were not a part of the negotiation. And, to me, that was well 
understood and reasonable at the time. But, as we move ahead 
and as you continue to talk to your counterparts in Russia, 
what role will tactical weapons play in that?
    Ms. Gottemoeller. Sir, I am ever mindful of the Resolution 
of Ratification of the New START Treaty, for any number of 
reasons. And, frankly, we share the Congress' concern about 
nonstrategic nuclear weapons. And so, as we have laid out, 
starting with the Resolution of Ratification, we are seeking 
reductions in nonstrategic nuclear weapons with the Russian 
Federation. The President said, in Berlin in July, that we are 
seeking bold reductions. And we will continue to do so.
    As a first order of business, we have been developing, with 
our NATO allies, some proposals for transparency, working 
together with them to develop ideas for gaining more 
information, as a first order of business for all parties that 
would be involved. And it is important, in this case, to work 
closely with our NATO allies.
    So, this is a priority for the President, and it is, and 
will be, a priority for me.
    Senator Corker. We had some issues, as we moved ahead with 
modernization--and again, I appreciate very much the update 
that we recently have talked about and the administration's put 
forth. Do you think the administration understands, fully, the 
importance in seeking reductions, the role that modernization 
has to play in that, and how it is almost impossible to look at 
reducing the amount of weapons and warheads we have without 
modernizing at the same time. Is it your sense they strongly 
believe that and internalize that and would only move forward 
on that basis?
    Ms. Gottemoeller. Sir, it is absolutely my conviction that 
they take modernization of the weapons infrastructure and the 
need to have a robust science-based stockpile stewardship 
program in place, and well funded. They are, I think, conveying 
their conviction in that regard by the degree to which they 
have ensured that the budget numbers coming up to the Hill are 
increasing for the National Nuclear Security Administration at 
a time when the budget is under a great deal of pressure from 
sequestration, from a number of other directions.
    So, there is, I think, a real commitment by this 
administration, and it can be seen in the fact that, despite 
these budget pressures that are out there, since 2010 there has 
been a 28.7-percent increase in the NNSA budget for modernizing 
and sustaining the infrastructure of the nuclear enterprise. 
So, I do think that that conveys, in real terms, the commitment 
of this administration.
    Senator Corker. One of the other issues we discussed 
extensively and actually were able to add--I think it was the 
last amendment we added to the Resolution of Ratification under 
New START--was the absolute commitment to missile defense. And 
does the administration still take the position that the phased 
adaptive approach that we have, you know, laid out for Europe 
is absolutely nonnegotiable as it relates to dealing with 
Russia?
    Ms. Gottemoeller. Absolutely, sir. We will not place any 
limitations on our missile defense program.
    Senator Corker. Let me ask you this question. You know, if 
you look at the numbers of warheads that we each possess, what 
we are doing in Russia--I mean, in Europe is to--in the most 
commonsense ways, only about rogue nations. I mean, what we are 
establishing there in no way could counter what Russia 
possesses. It is just not possible. What is it in the Russian 
mentality that causes them to, again, continue to raise the 
issue of us having the missile defense system that we have in 
Europe, which clearly is about rogue nations, not about Russia? 
What is it in their mentality that continues to cause them to 
focus on that?
    Ms. Gottemoeller. Sir, maybe I will give a quick answer, 
and, if it is OK, I will ask Frank also to give an answer, 
because he is a real expert on this matter.
    But, in my view, the Russians have long memories and a 
great regard for our technological prowess, and they have seen, 
over the years, beginning with--well, they were very struck by 
President Reagan's Star Wars Program, and very concerned about 
our ability to deploy high-technology missile-defense 
capabilities at that time. And I think that anxiety has 
continued over the years. So, even though--I think they 
recognize, just as you say, that this EPAA is a very limited 
program that is focused on threats emanating particularly from 
Iran and North Korea--or Iran, in the case of the EPAA. 
Nevertheless, they are concerned about our technological 
capabilities.
    I frequently say to them that it is important to take note 
that they have, themselves, taken some steps that are 
technologically based, in that they have, over the years, 
developed very good countermeasures for missile defense 
systems. So, I think, you know, frankly, there is an element of 
this, to me, that is also politically motivated. But, I will 
let Mr. Rose pick up on this.
    Senator Corker. Yes.
    Mr. Rose. Senator, I think one of the main concerns that 
the Russians have is, What comes next? As Rose noted, they know 
that the current set of capabilities, as you noted, would have 
no effect against the Russian deterrent, but they are concerned 
about what comes after that, and they have called for, 
``legally binding guarantees'' that our missile defenses will 
not have a negative impact on their deterrent. And what they 
really mean by that is legally binding limitations on our 
missile defenses. And we have made it very clear that legally 
binding or any other limitations on U.S. missile defenses are 
not on the table.
    Senator Corker. Mr. Chairman, I see your eraser is on the 
button to turn me off, and I will wait until the----
    The Chairman. Never to turn you off, Mr.----
    Senator Corker [continuing]. Until the next round. Yes, 
there you go.
    The Chairman [continuing]. Senator Corker, but----
    Senator Corker [continuing]. I just--I hope----
    The Chairman [continuing]. Will give another opportunity--
--
    Senator Corker. There may be another round, and maybe I 
will come back later. And I do thank you for the extra time 
now.
    But, obviously, there have been concerns about Russian 
compliance with existing treaties, and we have had numbers of 
discussions in different kinds of settings regarding that, and 
I hope, at some point as you are answering other questions, you 
will talk about how that plays into future discussions, when we 
have issues, at present, with existing and preexisting 
treaties.
    So, anyway, Mr. Chairman, I thank you, and I am going to 
step out for one moment and then step right back in. OK?
    The Chairman. OK.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Well, Assistant Secretary Gottemoeller, hopefully I am 
going to give you an opportunity to respond to part of Senator 
Corker's question, because one area that I think was 
universally agreed on during the New START negotiations was the 
importance of getting our inspectors back into Russia so that 
we have a better understanding of what is happening with their 
facilities and their efforts on the ground in Russia to reduce 
their weapons. I know that one of the real benefits of the 
treaty that you were very involved in was making that possible 
for us as we implement the treaty. So, could you give us an 
update on what is happening with getting those inspectors on 
the ground in Russia and how our understanding is being 
affected by having folks who are there who can see what is 
going on?
    Ms. Gottemoeller. Thank you, Senator. Under the New START 
Treaty, we are permitted to carry out 18 inspections in the 
Russian Federation at their strategic forces facilities, and we 
have been taking full advantage of those inspections every year 
the treaty has been in force. We are into year 3, at this 
point. We have done 18 inspections. And they are giving us a 
great deal of insight, not only the inspection regime, but the 
interplay of the inspection regime with the notification 
system, the database exchange, and other measures--of course, 
our own national technical means are important, as well--give 
us a very good day-to-day picture of what is going on in the 
strategic nuclear forces of Russia.
    Same with us. They have the same rights, treaty rights. And 
that kind of reciprocal capability on both sides gives us a 
great deal of predictability and, really, strategic, I would 
say, stability on that account.
    One thing I would like to say, in partial answer to Senator 
Corker's question, is that I recall, during our New START 
Treaty ratification debates, there were a number of concerns 
about START compliance that were brought up at that time. These 
were ongoing issues that were being discussing in the Joint 
Compliance and Inspection Commission. I remember one, in 
particular, which I will not discuss in detail in this setting, 
but it is a good example of what happens in the world of 
compliance investigations. In that case, what has unfurled 
since New START entered into force has, in fact, resolved some 
of those concerns that we had during the START Treaty 
ratification--or, START Treaty implementation.
    So, it is a good example of how we like to handle these 
compliance issues. We do work on them constantly with the other 
countries that are involved, and we look for every way we can 
to resolve concerns. And, in this case, this concern was 
resolved. So, it is a good example of how we look to handle 
these compliance problems.
    Senator Shaheen. Thank you.
    One of the stories that has been in the news for the last 
couple of days is the Chinese effort to ban export to North 
Korea of some dual-use products that might be used in weapons 
of mass destruction. And I wonder if any of you could speak to 
what the significance of that might be. They have also called 
for the resumption of the six-party talks. Does this indicate a 
new involvement on the part of China and their growing concern 
over what is happening in North Korea?
    Ms. Gottemoeller. Senator Shaheen, I had the opportunity to 
go to Beijing in June. We have regular exchanges with them, at 
my level and at multiple levels above my head, and below me, as 
well. And I will say that, in recent months, we have seen an 
uptick in the cooperation with China on dealing with dual-use 
items and dealing with trade in such items. And so, they are 
improving as a partner; I will put it that way. And I think 
that that is a very, very positive step. More work to be done, 
of course, and they are obviously very keen to get back to the 
negotiating table with the North Koreans.
    We have been clear, first of all, that we will not accept 
the nuclear status of the Korean Peninsula. The North Koreans 
have to take some real steps to prove that they are, indeed, 
ready to begin the process of denuclearization. We have to see 
some practical steps. And I think that it is important to 
continue to press them on that.
    It was a good thing that they reopened the Kaesong 
industrial complex a few weeks ago, but it is high time to 
begin some real steps on denuclearization and to prove that 
they are really ready to get back to the negotiating table.
    Senator Shaheen. Thank you.
    I only have a few seconds left, but, Mr. Rose, one of the 
things you point out in your testimony is that the ABC Bureau 
will play a lead role in verifying the elimination of Syria's 
chemical weapons arsenal. So, can you talk about some of the 
challenges that the Bureau will face as you are looking at how 
to do that?
    Mr. Rose. Yes. Thank you, Senator. We will have three key 
jobs with regards to Syria.
    One, we will have to provide all of the guidance to the 
U.S. Delegation to the OPCW. Now, luckily, we have a fantastic 
Ambassador in Robert Mikulak. So, all of the policy guidance to 
the OPCW will come from the ABC Bureau.
    Second, we will be responsible for, in consultation with 
our interagency colleagues, a providing of support to the 
OPCW's verification mission in Syria. Syria has stated its 
intention to become a state's party; therefore, it will be the 
OPCW who be responsible for the verification of the 
destruction.
    And then, finally--and this is an important part that we 
play here in the U.S. Government--is, we will make the 
unilateral U.S. decision, in the Compliance Report as well as 
other reports, as whether we, the United States Government, 
believe that Syria, as a party to the CWC, is compliant with 
its obligations. So, we will play a major role.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Welcome, to the panel.
    One of the things that very quickly spirals conflicts, 
particularly as we have seen in the last few years in the 
Middle East, out of control is the ease of access to 
conventional and small weapons. Yesterday, the United States--
Secretary Kerry--took a really important step toward 
controlling the flow of these weapons into civil wars to be 
used in mass atrocities by signing the Arms Trade Treaty.
    Ms. Gottemoeller, I just wanted ask you a few questions 
about this treaty. I do not know what the schedule will be, in 
terms of when it gets presented to the United States Senate, 
but clearly we know that there is an enormous amount of 
misinformation out there about the treaty, as it stands today. 
I would note, I think--and you can correct me if I am wrong--
but, that the three main nations who are not party to that 
treaty are North Korea, Iran, and Syria. Tells you a little bit 
about----
    Ms. Gottemoeller. They did not sign it.
    Senator Murphy. Did not sign--right.
    Ms. Gottemoeller. Yes.
    Senator Murphy. Did not sign.
    Ms. Gottemoeller. They did not actually join the consensus. 
It was really major consensus in the U.N. General Assembly on 
this.
    Senator Murphy. Important to note that this was a 
consensus-based treaty.
    So, I guess the first question is, Does this treaty--should 
we consent to, in the United States Senate, require the United 
States to change any of our existing laws with respect to the 
way we treat arms trade inside and outside of this country and 
the way that individuals in this country buy or purchase arms?
    Ms. Gottemoeller. Sir, there will be no impact whatsoever 
on our domestic trade in arms. This is an arms treaty for 
exports and imports. And, in fact, the treaty tracks very well 
with our own national laws for importing and exporting weaponry 
of this kind. In fact, it is important because it is focused, 
not only on guns, but also on larger pieces of equipment, such 
as tanks and that type of lethal equipment, as well. So, it is 
focused on trade in these weapons and does not affect anything 
to do with our own domestic arrangements.
    I will further stress that it is important to note that the 
Arms Trade Treaty took advantage of the very high standards in 
the U.S. export and import laws with regard--and regulations--
with regard to arms trade. And, in fact, we feel that it is--
the treaty will have the effect of bringing other countries up 
to our standards, other countries who are seriously lagging 
and, in fact, have contributed to the bloodbaths in places like 
Africa, because of their more lax approach to the export of 
armaments.
    So, we see that it is in our national security interest, as 
well as being in the interest of international security, 
because it will help to deal, I think, with some of the arms 
flows into these terrible civil wars abroad.
    Senator Murphy. What about this claim that is out there 
that this will lead to or require a gun registry in this 
country? There is a lot of commotion out there that there is a 
provision of the treaty that would require gun owners in this 
country, when they purchase a gun, to register them.
    Ms. Gottemoeller. No, sir, there is actually nothing in the 
treaty that touches on our domestic arrangements. It would not 
require the formation of a national gun registry, not in any 
way, shape, or form.
    Senator Murphy. I think we are going to have a lot of work 
to do to try to debunk this mythology about the treaty. I agree 
with you that it is central to the national security of this 
country. It is a preventative measure to try to stop some of 
these conflicts from getting to the degree of ferocity that 
they achieve by limiting the arms that flow in. Clearly, it is 
an attempt to try to stop some of these mass atrocities that 
have happened through the ease of arms. I hope that it does get 
presented to the United States Senate. I understand the 
impediments that it will be greeted with. But, the mythology 
and the lies being spread about the treaty are pretty easy to 
be back. I appreciate your work on it, and look forward to 
seeing it before the Senate.
    Thank you, very much, Mr. Chairman.
    Ms. Gottemoeller. Thank you, sir.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    And, you know, thank all of you for being willing to serve 
our country in these very important roles. I think the 
President has given us an excellent group to take on these 
important tasks for our country.
    Ms. Gottemoeller, the job that you have done is a tough act 
for Mr. Rose to follow, and----
    Ms. Gottemoeller. Thank you, sir.
    Senator Markey [continuing]. And I am sure he is going to 
do an excellent job, as well.
    And I want to commend you for the role you played as the 
chief negotiator of the New START Treaty. New START sends a 
clear signal that the United States will lead the way in the 
effort to reduce the global stockpile of nuclear weapons, a 
goal which I wholeheartedly support. In fact, at a time when 
the United States has formally agreed to reduce its nuclear 
arsenal, our nuclear weapons budget remains bloated and filled 
with outdated cold war radioactive relics of the past, and 
there is a strong consensus amongst defense experts and retired 
military officers that a far smaller nuclear force is required 
for an effective nuclear defense and deterrent, I think that we 
should be working toward smaller nuclear stockpiles here in 
America. We have many, many former generals and admirals who 
are now saying that is something that we can do, in a manner 
that is completely consistent with our national security. And I 
think that has to be a big part of our discussion, because it 
saves us money, here, domestically, as well, if we do not roll 
out a whole new generation of new nuclear weapons, which are on 
the plans right now, going out over the next 10 years or so. We 
can save money there while we enhance our own security.
    So, let me ask you, if I may, about the Middle East and the 
United Arab Emirates and----
    The Chairman. Would the Senator yield for a moment----
    Senator Markey. Oh, sure, I will be glad to.
    The Chairman [continuing]. Just to--and we will add time to 
his clock.
    I am going to have to go to the White House for a meeting, 
so I am going to excuse myself. Senator Murphy has been 
gracious enough to assume the chair and conclude the hearing.
    The hearing's record will remain open until 12 noon 
tomorrow. There will be questions for the record, as I know I 
will be submitting a series of them. I would ask the nominees 
to answer them as quickly as possible in order to consider the 
possibility of your nominations at the next business meeting.
    The Chairman. And, with that, Senator Murphy, I appreciate 
you taking the chair.
    And if the Ranking Member comes back and he is looking for 
additional time on this issue, I would ask you to entertain 
that, as well.
    So, thank you, Senator Markey.
    Senator Markey. Well, I appreciate it. Thank you, Mr. 
Chairman----
    Ms. Gottemoeller. Thank you, Mr. Chairman.
    Senator Markey [continuing]. Very much.
    So, I applaud the administration's insistence that the 
United Arab Emirates promised that it would not reprocess 
plutonium or enrich uranium as a condition of entering into a 
nuclear cooperation agreement with the United States in 2009. 
But, I am concerned, and maybe you could clarify this for me, 
when it seemed as though the United States might have decided 
that it would not insist on these and other nonproliferation 
commitments as part of future nuclear cooperation agreements. 
Could you talk about that a little bit?
    Ms. Gottemoeller. Yes, Senator, I would be happy to.
    And this is with regard to a long discussion and debate 
that we have had about the so-called ``gold standard.'' And one 
thing that I wanted to stress today, and also really commit to 
you concerning, is to sustain a nonproliferation policy that 
will, in its entirety, represent a gold standard. And so, that 
is what we are doing in moving forward on these 123 agreements. 
That is that we have many tools where, as a matter of high 
priority, the United States does everything it can to minimize 
indigenous reprocessing and enrichment, and we will continue to 
do everything that we can. This is a bipartisan policy that is 
stretched back three decades or more, and it is something to 
which the United States Government and its executive branch--
and, I know, very much supported here on Capitol Hill--is very 
determined to continue to focus on finding every tool we can in 
our toolbox to minimize enrichment and reprocessing. I think, 
frankly, one of the most promising ways that we have to 
proceed, at this moment, is by continuing to develop the 
international fuel bank concept--and we have been working very 
closely with the IAEA on that--and to offer many approaches and 
options for countries not to even be tempted to develop their 
own indigenous ENR capability. So, that is the approach that we 
are taking.
    Senator Markey. So, that is kind of my concern, that, as we 
look at North Korea or we look at Iran, we see two programs 
that kind of compromised a program--took a peaceful program, 
and turned it into a weapons program. And, as we look at South 
Korea, we look at Vietnam now, as we're going forward talking 
about nuclear cooperation agreements, I just want to make sure 
that we do have, truly, a gold standard in place, you know, so 
that we understand what the consequences are.
    So, can I just ask you just a couple of questions? One, do 
you agree that all future nuclear cooperation agreements should 
include binding nonproliferation commitments?
    Ms. Gottemoeller. Well, sir, as I said, we have many tools 
in our toolbox to really encourage countries and ensure that 
countries are working with us on the development of peaceful 
nuclear power. And we are really looking for ways that will, in 
the best way possible, facilitate their continuing to eschew 
indigenous enrichment and reprocessing.
    Senator Markey. And--fine--do you also agree that 
commitments not to reprocess plutonium or enrich uranium, 
commitments to allow, through international inspections, and 
commitments about what nuclear technology can be resold, would 
be vital nonproliferation conditions to seek?
    Ms. Gottemoeller. Well, sir, we are always concerned that 
trade in these important items that are related to nuclear 
power and developing civil nuclear power programs, that trade 
be carefully regulated.
    Senator Markey. Yes. So, I guess what I was saying, Mr. 
Chairman, is that my own belief is that our credibility with 
North Korea and Iran is tied to what are the new agreements, 
going forward in the future. And I would just, you know, say 
that, you know, I think the people who the President has 
nominated here are really topnotch, and I hope that they are 
confirmed.
    And I yield back the balance. Thank you.
    Senator Murphy [presiding]. Thank you, Senator Markey.
    Senator Rubio.
    Senator Rubio. Thank you.
    Ms. Gottemoeller, I wanted to ask--I think you were asked 
this earlier, so I apologize; I was watching on TV, and I 
caught the tail end of it, but I just want to be clear, for the 
record--my understanding is--and I just want to reiterate it--
you have stated definitively here today that if Russia does not 
agree to make further limitations on strategic nuclear weapons, 
the administration will not make unilateral reductions.
    Ms. Gottemoeller. Sir, as I said, the administration has 
committed, and the President also, in talking about how to 
pursue further reductions, has said that we will pursue a 
treaty with the Russian Federation. I correct myself; it was 
actually Secretary Kerry. And Senator Corker was quite correct 
to point out that he recently sent a letter in that regard. And 
further, I am able to say that unilateral reductions are simply 
not on the table.
    Senator Rubio. OK. So, not on the table now, but, just--the 
administration commits that it will not undertake unilateral 
reductions?
    Ms. Gottemoeller. Sir, what I can----
    Senator Rubio. Is that the position of the administration?
    Ms. Gottemoeller. Sir, what I can say is that they are not 
on the table.
    Senator Rubio. But ``not on the table'' signifies that it 
is not being considered today. You cannot--you--I understand 
that you are not the President, but you cannot state here today 
unequivocally that there will never be, under this 
administration, a unilateral reduction in our strategic nuclear 
capability?
    Ms. Gottemoeller. They have not come up. They are not being 
considered.
    Senator Rubio. At this time. But, you cannot rule them out. 
I mean, in essence--that is not a statement that has come from 
this White House, to say that will never happen, correct?
    Ms. Gottemoeller. Sir, I can say that unilateral reductions 
are simply not on the table. That is what I can say.
    Senator Rubio. Well, ``unilateral reductions are not on the 
table'' signifies, to me, that they are not being currently 
considered, but it leaves the door open to them potentially 
being considered. And again, I understand that you do not have 
the authority to make that decision; you simply execute the 
policy of the administration. But, apparently it is not the 
policy of the administration to rule them out in the future; it 
is only the policy of the administration to say that they are 
not on the table today--is my perception of your answer.
    Ms. Gottemoeller. Senator, may I just add one comment----
    Senator Rubio. Yes. Of course.
    Ms. Gottemoeller [continuing]. There? You know, I think it 
is very important to bear in mind that there may be a number of 
reasons why we would undertake reductions--for example, in our 
ICBM force. The Air Force, for example, may determine that an 
ICBM, or a couple of ICBMs, are a safety danger and, you know, 
could explode. This is entirely a hypothetical. But, I am just 
saying that it is important to know that we may take reductions 
in a number of different ways, and we would not want to have to 
call up the Russians every time----
    Senator Rubio. Yes, let me be clear. I am talking about 
militarily significant reductions, not the need of three or 
four individual units that may be malfunctioning and need to be 
replaced. So, I am--what I am discussing here, and what I--to 
be clear, what I am talking about is significant--militarily 
significant reductions.
    And the point I am trying to get at is, I do not support 
unilateral reductions by the United States as an effort of good 
will to the world. And you have stated to us here today that 
the policy of the administration is that it is not on the 
table. And that indicates, to me--and I do not mean to put 
words in your mouth, and I know it is not your policy; your job 
is to execute the policy of the administration--but that 
indicates to me, that, while it is not being considered today, 
it is something that could potentially be considered in the 
future. To me, that is not definitive.
    I do not blame you for that statement; I just understand--
but, it is important for me--in--to understand that the 
position of the administration is ``unilateral reductions are 
not being considered at this time.'' But, so far, I have not 
had anyone in the administration rule out future significantly 
reduction--or, significant--militarily significant reductions 
in the future if they feel it is appropriate. And that was 
important for me to get on the record. And if I am incorrect 
about that being the position of the administration, then I 
would hope to hear from somebody in the administration to 
clarify that.
    I do not want to finish here today without asking you about 
compliance. And again, I think Senator Corker has asked you 
this, but my fundamental question is, Is our assessment that 
Russia is in compliance with its current arms control treaty 
obligations--with the current obligations? Are they in 
compliance?
    Ms. Gottemoeller. Sir, there are some areas where we have 
concerns about Russian compliance. The CFE Treaty, for example, 
Russia ceased implementing the treaty in 2007, and we have 
taken countermeasures--legal countermeasures to respond to 
that. So, there are some cases where we are concerned about 
Russian compliance, no question about it.
    Senator Rubio. What about the Intermediate-Range Nuclear 
Forces Treaty?
    Ms. Gottemoeller. Well, I think that it is important to 
note that we consider all of the treaties and agreements out 
there to have some issues associated with them, with many 
countries around the world. And that is why our compliance 
report is sent up every year in various versions--unclassified, 
secret, and top-secret--which gives you a full picture of what 
the compliance situation is with treaties and agreements for 
all countries where we have concerns.
    So, sir, there are, I think, some great opportunities to 
sit down--I have welcomed the opportunity to brief you, always.
    And, on your previous question, too, I wanted to say that 
we are always ready to consult and brief this committee and the 
Senate whenever you have any concerns or questions.
    Senator Rubio. Just on the issue of compliance, and I will 
wrap up. The reason why that is important--and again, I fully 
understand that your job is to execute the policy of the 
administration, so I do not blame you, individually, for any of 
this--but, I just wanted everyone to understand that the reason 
the compliance issue is so important, in particular to me, is 
because I think the American public, besides a Member of 
Congress, have a right to know. And here is why. Because 
compliance is critical, in terms of assessing future treaty 
possibilities with someone.
    It is tough to enter into future treaties with people that 
are not complying with existing ones. It is tough to enter into 
future agreements that you can trust in with countries that 
have a history of trying to evade their previous and existing 
obligations. And for us, as policymakers who are ultimately 
asked to ratify these treaties, it is important that the public 
be aware of the administration's assessment on this.
    So, we will have a further conversation in the appropriate 
settings about that, but I really personally believe, and I 
hope that you agree, that the public has a right to know 
whether or not the U.S. Government believes that Russia is in 
violation or of noncompliance of any of these treaties. And I 
hope we can talk about that further.
    Thank you.
    Ms. Gottemoeller. Thank you, Senator. I will say that we 
absolutely agree with you on compliance and that it is very 
important for the public also to have a view as to what is 
going on with compliance with countries around the world.
    I will also pledge to you that we continue to work 
assiduously on compliance issues. Again, we have had some good 
luck in certain cases. Mr. Rose was involved in a case a few 
years ago, where, through his diplomatic efforts, he was able 
to resolve some compliance concerns we had with the Chinese 
concerning their participation in the CWC. But, I think, we do 
not enter into these treaties as a favor to anybody, certainly 
not as a favor to the Russians. We enter into them because they 
are actually serving our national security interests, and they 
will continue to do so or we will not enter into them.
    Senator Murphy. Senator Corker, for second round.
    Senator Corker. So, I am just going to ask one question. 
And I appreciate your testimony, and we will probably follow up 
with some other questions, I know this is a pretty technical 
area.
    I was curious. We have had a lot of discussions about what 
to do with the Syrian opposition. I know the committee passed, 
on a 15-3 vote, providing lethal assistance to the vetted 
opposition. And I know that, recently, President Obama waived 
the application of Section 40(a) of the Arms Export Control Act 
to do certain things within Syria. And I just wondered--I 
suppose that he could do the same thing, relative--or, the 
administration could do the same thing, relative to providing 
lethal assistance to the vetted opposition. And I am just 
wondering why that has not occurred. I know that, you know, it 
is an interesting place that we find ourselves, where we have--
the administration has announced publicly that there are covert 
activities, relative to doing these things. I do not know that 
I remember that kind of situation existing. And part of the 
reason, I guess, that they have stated they want to do it in 
that fashion is some of the kind of things that I am talking 
about now. On the other hand, we just waived it to do--we just 
waived it to deal with Syria, in any ways.
    So, can the administration waive that if they wanted to 
provide lethal assistance directly to the vetted Syrian 
opposition, as they have stated that they are doing covertly?
    Ms. Gottemoeller. Sir, I am simply--I am not a lawyer, and 
I am not up on this particular issue, so I would like to take 
it for the record, if I may.
    I do know that the nonlethal assistance that we wish to 
provide to the Syrian--vetted Syrian opposition is--they are 
the types of things that will be very helpful, actually, to 
their ability to operate on the ground--communications and 
transportation capabilities, particularly. So, we are working 
hard to get that kind of assistance delivered. And the fact 
that the President has signed this waiver is very helpful in 
that regard.
    But, I am simply not up on the other matter, so, if I may, 
I will take the question for the record.
    Senator Corker. I understand. And I would appreciate it. We 
will probably have numbers of others.
    But, to all three of you, thank you for your willingness to 
serve in this capacity. The types of issues that you are going 
to be dealing with are some of the most important, let us face 
it, not only to our country, but, because of our country's role 
in the world, to the world. And I thank you for continued 
transparency as you move ahead, and openness in talking with 
us, and for your willingness to serve in this way.
    Ms. Gottemoeller. Thank you, sir.
    Senator Murphy. Thank you, Senator Corker.
    To give Senator Barrasso a chance to breathe, I will just 
ask one question as part of a second round and then turn it 
over to Senator Barrasso. And I will direct it to Mr. 
Scheinman, to make sure you are part of this conversation, as 
well.
    I just want to talk to you about the broad issue of how we 
provide countries access to peaceful nuclear energy technology 
while also trying to manage and pursue nonproliferation goals. 
There has been discussion--and I know the State Department has 
been considering what is referred to as the ``gold standards,'' 
essentially requiring our partner nations not to acquire 
enrichment or reprocessing technology as part of these 
bilateral nuclear cooperation agreements. And so, I just wanted 
you to speak for a moment as to the future of that tension that 
is going to play out as more countries may come to us for these 
nuclear technology agreements, and whether or not that gold 
standard is something that we should apply in the future to 
these agreements.
    Mr. Scheinman. Well, thank you, Senator.
    I would note that, in my position, if confirmed, I will not 
have a direct role--I do not expect to have a direct role in 
negotiating 123 agreements, so I cannot provide too much of an 
answer.
    I would say, though, that the administration, of course, is 
very much focused on ensuring that the development of nuclear 
energy worldwide is done in a way that minimizes proliferation 
dangers. And, as Ms. Gottemoeller had said, there are a range 
of efforts underway to do that. And what I would do, if 
confirmed, is to ensure that all of those efforts find 
expression in the NPT process.
    So, the idea of a nuclear fuel bank or fuel reserves that 
are made available to states as an alternative to pursuing 
national enrichment or reprocessing activities, that should be 
pursued. We have had--we have been able to tighten export 
controls, in the Nuclear Suppliers Group, on these 
technologies. We work with countries around the world to ensure 
that, if they are going in the direction of nuclear power, 
entering this sector, that they do so responsibly and fully 
respect all of the requirements for safeguards and security and 
safety and so forth.
    And so, it is really that full effort of activity that we 
would pursue to ensure that we do not see another wave of 
proliferation as nuclear energy expands, if it expands.
    Senator Murphy. Let me put the question to you, then, as 
well, Ms. Gottemoeller, and also maybe in the context of the 
announcement in April with respect to the--I guess, to your 
extension of the 123 agreement with South Korea. We were 
unable, I suspect, to get a new agreement there. I would like 
you to speak to the reasons why we were not able to get a new 
agreement with the South Koreans, and then speak to the broader 
question of what the future of these agreements may look like, 
and any changes that the Department is looking into with 
respect to how we enter into these agreements in the future.
    Ms. Gottemoeller. Thank you very much, Senator Murphy.
    In fact, I like the way you said ``the future of these 
agreements,'' because each of these agreements is designed for 
the particular circumstances of the country with which we are 
working. And, for that reason, we do take a number of different 
approaches.
    The ROK negotiation that you referenced is going to be a 
complex one, because we have a big relationship with the ROK, 
not only as one of our most important allies in Asia, but also 
the fact that we have a big civil nuclear potential to work 
with them, and we have, historically, had a lot of cooperation 
with them on civil nuclear power. So, it is more of a complex 
negotiation than may be the case for some other countries, 
where we would enter into 123 agreements.
    So, we have been appreciative of the willingness of the 
Congress, the Senate, and the House to look at our preferred 
approach of a clean extension of the existing agreement so that 
we will have time to negotiate this longer and more complicated 
agreement. So, that is really the reason.
    I would say that we are the country that leads the world, 
in terms of our approach to strong nonproliferation policy. We 
set the standard, worldwide, for export controls, for example. 
We were talking about the ATT, a while ago. Across the board, 
we set the standard for international nonproliferation goals 
and priorities.
    So, I would only say that I think we need to use every 
single tool in our toolbox in order to ensure, as we enter into 
these agreements for nuclear cooperation, that these countries 
are embracing very high standards, themselves, and are willing 
to work with us to continue to avoid the proliferation of 
weapons of mass destruction, and particularly nuclear weapons, 
of course.
    Senator Murphy. Thank you.
    Senator Barrasso.
    Senator Barrasso. Well, thank you very much, Mr. Chairman.
    Congratulations, to each of you.
    While the committee was starting to hold hearings, I was 
actually in a radio discussion with a station back in Wyoming, 
specifically about the Arms Trade Treaty. So, if I could ask 
you, Ms. Gottemoeller, specifically in your response to Senator 
Murphy, I think you stated that the Arms Trade Treaty does not 
require the formation of a national arms registry.
    Ms. Gottemoeller. That is correct, Senator Barrasso, it 
does not require the formation of a national arms registry.
    Senator Barrasso. You know, I have the treaty here, and 
Article 5, General Implementation, says, ``Each state party 
shall establish and maintain a national control system, 
including a national control list, in order to implement the 
provisions of this treaty.''
    So, I guess I--you know, reading this to you, I ask, What 
does it mean if it does not require the establishment and 
maintenance of a national arms registry? Could you tell me how 
you interpret the words in the treaty?
    Ms. Gottemoeller. Yes, sir, absolutely.
    I will say, as a blanket matter, the treaty does not 
require us, in any way, to change our national legislation, our 
national regulations or approaches. The reference in Article 5 
is to the establishment of export control lists. And we do that 
all the time. In fact, we are, I think, the world leaders, in 
terms of our standards for export controls on armaments. So, 
this treaty is an arms--just what it says, it is an Arms Trade 
Treaty. It is for regulation of the trade of armaments on the 
international market. It has nothing to do with U.S. domestic 
policy or domestic constitutional rights.
    Senator Barrasso. Well, perhaps, then, I am confused on 
this, or--there is some confusion, because, even in Article 2, 
in terms of the scope, and on the same page, it does talk about 
small arms, light weapons, under cover--Section 2, covered 
there.
    Ms. Gottemoeller. Yes, sir, it does cover, not only small 
arms and light weapons, it also covers larger equipment, such 
as tanks and so forth. And the focus is, again, on trying to 
get countries who have not been responsible exporters of 
armaments to put in place more effective export control 
regimes. And, in fact, our export control regime is--we have 
been talking about ``gold standards'' today--it is the gold 
standard that was, I think, kind of a model for what we are 
thinking about when we talk to other countries about improving 
their own handling of armaments exports.
    So, it is focused on export on the international front.
    Senator Barrasso. As you are aware, Senate approval of a 
treaty requires two-third votes--we are talking 67 votes. Last 
year, 51 Senators--and some of those Senators have changed; 
there are some new ones, so on--but, last year, a majority of 
Senators sent a bipartisan letter to President Obama and to 
Secretary of State--then-Secretary of State Clinton expressing 
grave concern about the dangers posed by this U.N. Arms Trade 
Treaty. The treaty opens the door, I believe, to a U.N. gun 
registry on law-abiding U.S. citizens. And, as you know, 
Secretary Kerry, who talked--signed this, just yesterday.
    So, would the administration ignore the concerns, I still 
believe, of a majority of the members of the United States 
Senate, when the administration would need two-thirds of the 
Senators to approve it? So, as Acting Under Secretary of State 
for Arms Control and International Security, I would ask what 
your involvement has been in the decision by Secretary Kerry to 
sign this treaty.
    Ms. Gottemoeller. Sir, this was an interagency decision 
that was fully agreed by all, including, of course, by the 
White House. So, I think we were all very keen to see the 
treaty signed--again, because it is an effort to really halt 
the flow of armaments into civil wars in places like Africa--to 
really help to halt the bloodbath that has ensued from poorly 
regulated exports in armaments. It is an Arms Trade Treaty and 
has absolutely nothing to do with our own domestic 
arrangements.
    Senator Barrasso. In the time I have left, I want to move 
to Russian compliance with arms control. And in the last START 
Treaty, I believe Russia violated verification provisions on 
the counting of ballistic missile warheads. I believe Russia 
is, essentially, a serial violator of arms control treaties. 
They have failed in the verification monitoring of mobile 
ballistic missiles telemetry. And when President Obama 
completed the New START Treaty, there were a number of 
compliance issues outstanding with the original START. So, can 
you talk about some of the violations of the verification and 
inspection procedures which have occurred by Russia under the 
New START Treaty?
    Ms. Gottemoeller. Sir, Russia is in compliance with the New 
START Treaty. And, as usual--and this goes, I think, for all 
parties to a treaty--there may be issues that arise in the 
course of implementing a treaty, and these are considered, in 
this case, in the Bilateral Consultative Commission. That's the 
implementation body of the New START Treaty. They will be 
meeting again in Geneva in October, and they will be working to 
resolve issues that have arisen. The Russians bring up issues 
that they have with our implementation, as well.
    These are very complicated treaties to implement, often, 
with--you know, we're basically inside the Russian nuclear--
strategic nuclear forces bases, and oftentimes there are 
questions that arise.
    But, we have been working very well to resolve these 
questions. I see nothing on the horizon that would lead me to 
believe we won't be able to do so in the upcoming sessions of 
the BCC.
    Senator Barrasso. Mr. Chairman, will you indulge me to just 
two more questions?
    Along this same line, has Russia attempted to conceal any 
weapon systems subject to verification and inspection, that you 
know of, yet under this New START Treaty?
    Ms. Gottemoeller. Not that I know of, sir.
    Senator Barrasso. And has Russia attempted to deter or 
change inspection procedures in what we would think would be 
the way that we should be inspecting these systems under the 
New START Treaty? Because as you said, these are very technical 
and complicated, and we may interpret things a little 
differently than what they may interpret them.
    Ms. Gottemoeller. Well, and that, again, is the purpose of 
the BCC, where we can get together and work out any issues that 
we have, and any questions that have arisen. As I said, I am 
not aware of any questions that have arisen with regard to 
either issue that you have raised now, but, if it is on the 
agenda for the BCC, it will be discussed there and, I hope, 
resolved. We have got a great record now--this is BCC-6 that is 
coming up--we have got a great record in the previous five 
sessions, of resolving issues that have arisen on both sides of 
the table, and I see no reason to expect that we would not be 
able to resolve concerns, going forward, whether it is in this 
session or in a future session, because the BCC, under the 
terms of the treaty, must meet twice a year, at least.
    Senator Barrasso. Thank you.
    Mr. Chairman, with your permission, I will submit other 
questions for the record and for written answer.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Murphy. Great, thank you very much, Senator 
Barrasso. I believe the chairman and the ranking member likely 
will have questions for the record, as well. It will remain 
open until noon tomorrow.
    Thank you very much for your testimony, for your 
appearance. We look forward to working with you on swift 
confirmation.
    With that, this hearing stands adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


     Responses of Hon. Rose E. Gottemoeller to Questions Submitted 
                       by Senator Robert Menendez

    Question #1. What is your assessment of the health of the 
nonproliferation 
regime? Have North Korean and Iranian actions fatally weakened it? What 
punishments are in place to prevent states from withdrawing from the 
NPT?

    Answer. The Treaty on the Non-Proliferation of Nuclear Weapons 
(NPT) regime is facing challenges but the basic bargain remains strong. 
The NPT provides the legal basis for holding States Parties accountable 
for their actions that are contrary to their obligations under the 
treaty. Iran and the DPRK pose nonproliferation regime challenges to 
which the international community must continue to respond. The 
international community has responded to the challenges of Iran and the 
DPRK through both diplomatic engagement and pressure, including through 
the imposition of United Nations Security Council (UNSC) sanctions, as 
well as other national and multilateral measures that extend beyond the 
UNSC-mandated measures. The international community must persist in 
making clear to any country the consequences of noncompliance.
    We are working with a number of NPT Parties on recommended measures 
to address abuse of the treaty's withdrawal clause. Such measures 
should make clear that states cannot violate the NPT and avoid the 
consequences by withdrawing. This could include actions by suppliers to 
cut off cooperation with a withdrawing state, to ensure that states 
cannot misuse materials and equipment that they have already received, 
and ensuring access by the IAEA to verify the state of compliance in 
the country that is withdrawing.

    Question #2. The IAEA plays a pivotal role in global 
nonproliferation policy. Several prominent commissions have recently 
argued that the IAEA is underfunded and overtasked. What is your view 
on whether the IAEA needs additional resources? How will you work to 
support the mission of the IAEA, particularly in the realm of 
verification and nuclear security?

    Answer. The IAEA, which has an annual budget (for 2013) of $472 
million, is properly tasked and makes an enormous contribution to 
peace, prosperity, and international security. The Agency performs a 
critical safeguards mission, particularly in its noncompliance 
investigations in Iran and Syria. The Agency also remains focused on 
the DPRK's nuclear file and maintains a readiness to play an essential 
role in the verifiable denuclearization of the Korean Peninsula. 
Working with member states, the IAEA also developed a comprehensive 
Action Plan on Nuclear Safety to guide its member states to strengthen 
nuclear safety worldwide in the wake of the Fukushima disaster, and 
plays a critical role in supporting the enhanced nuclear security 
agenda of the Nuclear Security summits to combat the danger of nuclear 
and radiological terrorism. In addition, the IAEA promotes the 
responsible development of nuclear energy and the knowledge and 
application of nuclear techniques in areas such as health care and 
nutrition, food security, the environment, and water resource 
management.
    The United States is making every effort to ensure that the IAEA 
has appropriate resources needed to meet these critical needs. Working 
with the IAEA leadership and member states, we approved increases to 
the IAEA budget over the last several years. The increases are modest 
but noteworthy in light of fiscal constraints around the world and the 
U.S. policy of zero nominal growth funding for international 
organizations. In 2013, the U.S. assessment for the IAEA regular budget 
was about $112 million. During this same year, we provided the IAEA 
with a voluntary contribution of about $90 million, with the largest 
share of funds (about $43 million) supporting the IAEA's safeguards 
mandate. These voluntary contributions were essential for the IAEA to 
carry out one of its most complex projects ever, to replace and expand 
its safeguards analytical laboratory capabilities and improve its 
capability to detect clandestine nuclear programs. Also during 2013, 
the United States provided $9 million to the IAEA's nuclear security 
program, with a strong focus on supporting the IAEA's efforts to 
strengthen the physical protection of nuclear materials and facilities, 
strengthening security over nuclear and other radioactive materials 
that pose a terrorist concern, strengthening regulatory infrastructures 
and detection of malicious activities, and promoting related IAEA 
guidelines and international agreements. Whether through the regular 
budget or voluntary contributions, we will continue working with 
Director General Amano and major donor states to ensure the IAEA is 
sufficiently resourced to carry out its essential safeguards and 
security work.

    Question #3. What role do civilian nuclear cooperation (``123'') 
Agreements have in promoting U.S. nonproliferation policy? Should these 
agreements require countries that do not have indigenous enrichment or 
reprocessing facilities to pledge not to build them on their territory? 
Why or why not?

    Answer. U.S. nuclear cooperation agreements (123 Agreements) 
establish the nonproliferation conditions required by law for the 
conduct of supply of source and special fissionable material and 
equipment to the nuclear programs of States with which we have chosen 
to cooperate. Our 123 Agreements are the strongest such agreements in 
the world; no government requires more stringent nonproliferation 
conditions.
    The United States has a longstanding policy that seeks to limit the 
further spread of enrichment technologies. We believe there are many 
ways to advance global nonproliferation efforts and international 
security and to achieve the lowest number of sensitive fuel cycle 
facilities throughout the world, including adherence to the Nuclear 
Suppliers Group Guidelines, implementation of an International Atomic 
Energy Agency's (IAEA) Additional Protocol to a state's safeguards 
agreement, and support for the IAEA Fuel Bank and other fuel assurance 
mechanisms. 123 Agreements are an additional tool to advance clear U.S. 
national security interests in achieving the lowest number of sensitive 
fuel cycle facilities and technologies.

    Question #4. Despite the nuclear crisis at the Fukushima plant in 
Japan, many analysts predict nuclear energy will play a vital role in 
meeting the world's energy needs during the 21st century. This will be 
especially true in Asia and Latin America with their growing economies 
and energy needs.

  <diamond> How should the United States balance its goals of ensuring 
        non-nuclear-weapon states' access to the peaceful use of 
        nuclear energy with the nonproliferation goal of preventing the 
        further spread of weapons technology?

    Answer. The United States has a multitude of bilateral and 
multilateral activities that are aimed at assisting non-nuclear-weapon 
states in complying with their obligations under the NPT to obtain 
access to the peaceful uses of nuclear energy while at the same time 
achieving U.S. nonproliferation goals. We have worked with both 
existing and emerging nuclear programs in anticipation of a growth in 
civil nuclear power programs. We have been working for decades with the 
International Atomic Energy Agency and fellow member states to achieve 
those mutual objectives, supporting programs in safety, security, 
safety, and infrastructure development.
    In addition, we, with our fellow partners in the G8 Nuclear Safety 
and Security Group, have worked toward similar goals. The Department of 
Energy, through its technical cooperation programs, not only provides 
technical assistance in the use of nuclear power, but promotes 
nonproliferation activities and actions. The Nuclear Regulatory 
Commission, through its bilateral programs, also strives to ensure that 
nations beginning or expanding civil nuclear power programs do so with 
an emphasis on safety and security of nuclear material and facilities 
technology.
    The combination of these bilateral and multilateral efforts work to 
balance the goals of ensuring non-nuclear-weapon states' access to the 
peaceful use of nuclear energy with the nonproliferation goal of 
preventing the further spread of weapons technology.

    Question #5. Does the Obama administration still plan to pursue 
further arms control negotiations with Russia? Does Russia support 
further negotiations and continued verifiable reductions in nuclear 
weapons? What is the current status of these negotiations?

    Answer. The Obama administration is seeking further negotiated 
reductions with Russia in our nuclear arsenals so we can continue to 
move beyond cold war postures. Any specific discussions on nonstrategic 
nuclear weapons will take place in the context of continued close 
consultation with U.S. allies and partners.
    At the recent ``2+2'' meeting with Russia, Secretary Kerry, 
Secretary Hagel, Russian Foreign Minister Sergey Lavrov, and Defense 
Minister Sergey Shoygu discussed strengthening strategic stability by 
implementing successfully the New START Treaty and exploring the 
possibilities of further nuclear reductions. These discussions are 
ongoing and taking place in other working groups, such as the U.S.-
Russia Bilateral Presidential Commission Working Group on Arms Control 
and International Security, which I cochair with Russian Deputy Foreign 
Minister Sergey Ryabkov.

    Question #6. Dismantling Syria's chemical stocks would be 
challenging in the best of circumstances, and Syria is anything but--
amid the recent diplomatic negotiations with Russia, Syria's civil war 
has shown no signs of abating. Amy Smithson, a chemical weapons expert 
at the Monterey Institute of International Studies has said that ``the 
known (chemical weapons) sites are actually in zones of conflict where 
the battle lines are changing literally on a day-to-day basis.''

  <diamond> Given the enormity of challenges associated with such an 
        endeavor, how would you define success and how would you assess 
        our prospects for achieving success? What responsibilities will 
        the T-bureau have in efforts to eliminate Syria's chemical 
        weapons and related facilities? What are the major technical 
        challenges to the successful completion of the framework 
        agreement? Have decisions been reached about whether the 
        chemical weapons will be destroyed in Syria or outside the 
        country?

    Answer. The Framework for the elimination of Syrian chemical 
weapons calls for the internationally verified destruction of Syria's 
chemical weapons agents and munitions, as well as storage, production, 
research, and development facilities. The United States and Russia have 
agreed that the goal for completing the destruction of all chemical 
weapons production and mixing/filling equipment is by November 2013. 
The goal for the removal and destruction of Syrian chemical weapons is 
in the first half of 2014. There will be technical challenges along the 
way, but the United States and Russia believe that these target dates 
are achievable. The United States and Russia are assessing the 
modalities and logistical requirements of destruction activities, 
including whether the chemical weapons will be destroyed inside or 
outside of Syria.
    The Arms Control, Verification and Compliance Bureau will play a 
role through its oversight of the U.S. Mission to the Organization for 
the Prohibition of Chemical Weapons (OPCW) and will be tasked with 
assessing Syria's compliance with its obligations. The International 
Security and Nonproliferation Bureau will have the lead in the 
Department in assisting in the destruction efforts related to Syria's 
chemical weapons.

    Question #7. Despite recent diplomatic overtures by Iran, it has 
continued to add enrichment capabilities including 300 second-
generation centrifuges. How quickly do you estimate Iran could break 
out if it was determined to do so? What are the minimal requirements of 
any agreement with Iran? Is it the U.S. position that Iran needs to 
comply with the four U.N. Security Council resolutions? Should Iran 
close the Fordow facility? What locations do we need access to in order 
to verify the peaceful purpose of Iran's nuclear program? What more can 
the administration do to tighten the screws on Iran? How can we 
communicate that the use of force against Iran remains a credible 
option for bringing Iran into compliance with its international 
obligation?

    Answer. The United States remains concerned about the Iranian 
nuclear program. We have made clear Iran must comply with its 
international nuclear obligations, including relevant resolutions of 
the United Nations Security Council and its International Atomic Energy 
Agency (IAEA) Safeguards Agreement. In addition, Iran must meet the 
requirements of the IAEA Board of Governors and cooperate fully and 
without delay with the IAEA on all outstanding issues, including by 
providing access to all sites, equipment, persons, and documents 
requested by the Agency.
    The United States remains committed to the dual-track policy of 
engagement and pressure on Iran in pursuit of a diplomatic resolution 
to Iran's nuclear program. In his address before the United Nations 
General Assembly, President Obama again made clear ``that America 
prefers to resolve our concerns over Iran's nuclear program peacefully, 
although we are determined to prevent Iran from developing a nuclear 
weapon.'' Following the P5+1 ministerial in New York on September 26, 
Secretary Kerry and Iranian Foreign Minister Zarif met briefly. In the 
meeting Secretary Kerry and FM Zarif agreed to try to continue the 
process and make concrete progress in answering the international 
community's questions about Iran's nuclear program. The President and 
his administration have been consistent in their message: the window to 
resolve this issue diplomatically will not remain open indefinitely, 
and all options are on the table.
    We are confident that the international community would have 
sufficient time to respond to any Iranian breakout effort. We continue 
to monitor closely Iran's nuclear program for any signs that the regime 
has made an explicit decision to pursue a nuclear weapon or is 
operating secret facilities for the covert production of enriched 
uranium.
    Thanks to the efforts of Congress and President Obama's 
administration, international sanctions have been instrumental in 
bringing Iran back to the negotiating table, and Iran must continue to 
face pressure until it takes concrete actions to comply with its 
international nuclear obligations. The economy was a central issue in 
Iran's recent Presidential elections and President Rouhani received 
from the Iranian people a mandate to pursue a more moderate course.
    The P5+1 meets with Iran in October and we will continue our 
efforts and determine Iran's willingness to engage substantially and 
seriously, and hope we can get concrete results that will address the 
international community's concerns.
                                 ______
                                 

     Responses of Hon. Rose E. Gottemoeller to Questions Submitted 
                         by Senator Bob Corker

    Question #1. There are a number of significant concerns with 
regards to the Russian track record of compliance with their current 
arms control obligations. Why should the United States engage in 
negotiations on yet another arms control agreement while the Russians 
are less than sincere about their compliance with current commitments?

    Answer. Noncompliance with treaty obligations is a very serious 
issue and I believe that consequences related to noncompliance should 
be appropriate to the specific circumstances. When specific questions 
arise about a country's treaty implementation, decisions about whether 
those issues constitute noncompliance require a careful process, which 
can include diplomatic engagement with the country concerned and an 
interagency process to assess the facts and circumstances. Whether and 
how those issues do or should affect future agreements is best 
evaluated on a case-by-case basis, taking into account the national 
security benefit of the proposed agreement and the assessed likelihood 
and risks of noncompliance. Treaty compliance is essential for creating 
the stability and predictability that aids international security 
efforts. Our national security interests have been, and will continue 
to be, the primary consideration in any future arms control 
negotiations and in deciding whether to become a party to any future 
agreement. We do not negotiate such agreements as ``a favor'' to other 
countries.

    Question #2. Do you support the vision of a world free of nuclear 
weapons? Is this vision a realistic goal, or is it a tool to spur 
further negotiations on arms control measures and further reductions in 
nuclear forces? Have any of the nuclear weapons states endorsed this 
goal?

    Answer. America's commitment to seek the peace and security of a 
world without nuclear weapons is not only a long-term policy goal of 
the Obama administration, but a goal shared by the 189 signatories of 
the Treaty on the Non-Proliferation 
of Nuclear Weapons (the NPT), including all of the treaty-recognized 
nuclear-weapon states. Article VI of the NPT commits all parties to 
pursue good faith negotiations on measures leading to an end to the 
nuclear arms race and to nuclear disarmament.
    This goal will not be reached quickly, and as long as nuclear 
weapons exist, we will maintain a safe, secure, and effective arsenal 
to deter any adversary and guarantee that defense to our allies.
    The administration continues its efforts to advance this policy 
goal.
    In addition to our bilateral efforts with Russia, the United States 
is engaged with the other NPT nuclear-weapon states, or the P5, to 
review their progress toward fulfilling NPT Article VI obligations and 
2010 NPT Action Plan commitments to accelerate steps leading to nuclear 
disarmament. The P5 are engaging in regularized dialogue on nuclear 
weapons-related issues to an extent unseen in prior years. Through this 
process, the P5 have reaffirmed their commitment to nuclear 
disarmament. P5 engagement is a long-term investment designed to build 
trust and create a stronger foundation for concrete progress on nuclear 
disarmament and for the work that lies ahead of us to realize a world 
without nuclear weapons.

    Question #3. Ms. Gottemoeller, the U.N. Security Council will 
approve a resolution to oblige the Syrians to dismantle their chemical 
weapons stockpile without an enforcement mechanism built in. How does 
the administration intend to hold Syria accountable in the case of 
noncompliance with the agreement, recognizing further UNSC resolutions 
are likely to be vetoed by the Russians? What specific contingency 
plans does the administration have ready to be utilized to compel 
Syrian compliance or respond to noncompliance?

    Answer. On September 27, the Security Council will consider a 
binding, enforceable, and verifiable resolution, reinforcing an 
expected decision of the Executive Council of the Organization for the 
Prohibition of Chemical Weapons, regarding the elimination of Syria's 
chemical weapons program, and building on the U.S.-Russia Framework 
reached in Geneva on September 14. The resolution would impose a 
legally binding obligation on the Syrian regime to eliminate its 
chemical weapons program. It includes a strong verification mechanism, 
and makes clear that in the event of Syrian noncompliance, or 
subsequent chemical weapons use, the Security Council will impose 
measures under Chapter VII of the U.N. Charter.

    Question #4. President Obama recently waived the application of the 
section 40(a) of the Arms Export Control Act in order to provide 
support to the Syrian opposition to counter the effects of any future 
chemical weapons attack.

  <diamond> Can this waiver also be used to provide lethal assistance 
        to the opposition? Why or why not?
  <diamond> Does the administration intend to submit additional waivers 
        in order to provide training and lethal equipment to the Syrian 
        opposition? Why or why not?

    Answer. The Presidential Determination to waive restrictions in 
sections 40 and 40A of the Arms Export Control Act briefed to Congress 
on September 20 does not change our current policy regarding lethal 
assistance to the Syrian opposition. The waiver allows us to overcome 
certain restrictions under the Arms Export Control Act and is intended 
to allow the State Department to approve a license or other 
authorization or transfer of defense articles and services to vetted 
members of the Syrian opposition forces, organizations implementing 
U.S. Government programs inside or related to Syria, and international 
organizations.
    This waiver would allow assistance that, while preventing the 
preparation, use, or proliferation of chemical weapons, would provide 
protection, training, and equipment to aid in the inspection and 
securing of Syria's chemical weapons sites. On September 27, we intend 
to provide two reports to Congress describing proposed licenses for the 
export of CW-related personal protective equipment and training to 
international and nongovernmental organizations. We will continue to 
report future transactions to Congress as we work together with the 
international community to facilitate the elimination of Syria's CW 
stockpiles and counter the threat that CW poses to the Syrian people.
    The waiver would cover the types of nonlethal assistance described 
in the memorandum of justification provided to Congress along with the 
Presidential Determination. At this time, the State Department is 
providing only nonlethal assistance the Syrian opposition and the 
Supreme Military Council. This includes support that the Supreme 
Military Council has requested, such as food, medical equipment, 
communications gear, and vehicles that are essential to enhancing their 
capabilities to themselves against a repressive regime. The success of 
their efforts is critical to convincing the Assad regime to negotiate a 
move to a transitional government that represents all Syrians, 
impartially delivers government services, and marginalizes actors 
associated with violent extremist ideologies.
    We recognize fully the enormous challenge of identifying and 
sorting multiple armed actors in such a complex environment. We will 
continue to use every resource at our disposal to prevent our 
assistance from going to persons or organizations that threaten the 
United States, our interests, our partners, or international security.

    Question #5. The administration has recently responded to overtures 
from the 
Iranian Government to enter into new negotiations on the Iranian 
nuclear program. News sources indicate the Iranians presented some 
initial proposals. What proposals did the Iranians make?

    Answer. President Obama and Secretary Kerry have long supported 
engaging Iran whether through bilateral discussion or in coordination 
with the P5+1 countries--and both believe it is worth testing the 
potential for a diplomatic resolution to the international community's 
concerns over Iran's nuclear program. While we do not anticipate that 
any substantive issues will be resolved later this week during the P5+1 
ministerial meeting in New York, we are hopeful that we can continue to 
chart a path forward. We are looking forward to having the political 
directors of the P5+1 meet in October for substantive discussions with 
Iran. It would be premature to comment on the Iranian proposals before 
we have had a chance to review them in detail.

    Question #6. If the P5+1 is to agree to another round of 
negotiations with the 
Iranians on their nuclear program should the United States enter such 
negotiations with hard outcomes on the front end that are backed by 
consequences if they are not reached? What is an appropriate timeline 
for allowing a new round of negotiations to bear fruit?

    Answer. President Obama and Secretary Kerry have long supported 
engaging Iran whether through bilateral discussion or in coordination 
with the P5+1 countries--and both believe it is worth testing the 
potential for a diplomatic resolution to the international community's 
concerns over Iran's nuclear program. While we do not anticipate that 
any substantive issues will be resolved later this week during the P5+1 
ministerial meeting in New York, we are hopeful that we can continue to 
chart a path forward. We are looking forward to having the political 
directors of the P5+1 meet in October for substantive discussions with 
Iran. It would be premature to comment on the Iranian proposals before 
we have had a chance to review them in detail. The steps taken by the 
Iranians in the weeks ahead will show how serious they are, and they 
will determine how successful these efforts will be and how long the 
process will take.

    Question #7. What is the latest assessment of the earliest time at 
which the Iranians could build a nuclear weapon? A deployable nuclear 
weapon?

    Answer. The intelligence community maintains a number of 
assessments regarding the potential timeframes by which Iran can build 
a nuclear device, or a deployable nuclear weapon, and provides 
briefings on those assessments.
    Iran does continue to develop technical expertise in uranium 
enrichment, nuclear reactors, and other elements of the nuclear fuel 
cycle. However, we are confident that the international community would 
have sufficient time to respond to any Iranian breakout effort. We 
continue to monitor closely Iran's nuclear program for any signs that 
the regime has made an explicit decision to pursue a nuclear weapon or 
is operating secret facilities for the covert production of enriched 
uranium.

    Question #8. What interim steps to addressing the Iranian nuclear 
program would the United States Government agree to accept as good 
faith gestures that would lead to a rollback or suspension of certain 
sanctions?

    Answer. President Obama and Secretary Kerry have long supported 
engaging Iran whether through bilateral discussion or in coordination 
with the P5+1 countries--and both believe it is worth testing the 
potential for a diplomatic resolution to the international community's 
concerns over Iran's nuclear program. While we do not anticipate that 
any substantive issues will be resolved later this week during the P5+1 
ministerial meeting in New York, we are hopeful that we can continue to 
chart a path forward. We are looking forward to having the political 
directors of the P5+1 meet in October for substantive discussions with 
Iran. At this point, it would be premature to comment on what sanctions 
relief would be appropriate for various confidence building measures, 
and we cannot prematurely consider lifting sanctions on Iran.

    Question #9. More than 2 years have passed since the Italian 
Government requested a license to purchase missiles and other 
requirements for arming the Italian predator unmanned systems. Since 
that time, the administration's interagency policymaking process has 
been engaged in building a policy that will clarify when, to whom, and 
under what conditions the United States may consider exporting systems 
controlled under the Missile Technology Control Regime categories 1 and 
2, particularly armed systems. What is the status of the development of 
such a policy? What is the current timeline for completing this policy?

    Answer. The State Department carefully scrutinizes potential 
exports of UAVs on a case-by-case basis, particularly armed UAVs, as 
well as the technology that could contribute to UAV development. Our 
consideration takes into account the full spectrum of U.S. interests, 
including development of our partners' capacity to contribute to 
international security, multilateral commitments such as the Missile 
Technology Control Regime (MTCR), and human rights.
    A broad review of UAV export policy is under way; while no date is 
set for its conclusion, I want to be clear that this is not an open-
ended review. We are working with the Department of Defense and others 
to complete the review promptly, and will brief the committee when we 
finalize our review.

    Question #10. Countries emerging from conflict, such as Iraq and 
Libya, may demonstrate great need in modernizing their military forces 
and aligning their capabilities with U.S. security interests. Under 
what circumstances should we export U.S. defense technology to such 
countries when we have significant policy disputes?

    Answer. Defense transfers are a means to an end: they enable us to 
work with partner nations to build their capacity to defend their own 
borders and conduct security operations of mutual interest, such as 
counterterrorism, while also providing an opening for us to enter into 
a far wider range of policy discussions. The export of U.S. defense 
technology--to any country, not just those with whom we have 
significant policy disputes--should therefore be made only through a 
case-by-case consideration of the full spectrum of U.S. national 
security interests, including the legitimate defense needs of our 
allies and partners, nonproliferation, counterterrorism issues, and 
human rights are given detailed consideration. This is the crux of the 
U.S. Conventional Arms Transfer Policy, which the State Department has 
the lead in implementing. If I am confirmed, I will ensure that such 
consideration to all transfers continues.

    Question #11. What is the administration's position on granting 
advanced programmatic consent to reprocess spent fuel and enrich 
uranium to South Korea in ongoing negotiations on a new nuclear 
cooperation agreement?

    Answer. We are negotiating a successor agreement for nuclear 
cooperation with the Republic of Korea. While we do not comment on the 
details of ongoing negotiations, we are not contemplating granting 
advance programmatic consent to reprocess spent fuel or enrich uranium 
to the Republic of Korea. Pursuant to the requirements of the Atomic 
Energy Act of 1954, as amended, all U.S. peaceful nuclear cooperation 
agreements require partner countries to provide to the United States 
rights to consent to enrichment or reprocessing of nuclear material 
transferred from the United States or produced by equipment or through 
nuclear material transferred from the United States.

    Question #12. Broadly speaking, is the administration committed to 
pursuing only those 123 Agreements that adhere to the ``gold 
standard''? Under what circumstances might the administration entertain 
requests for enrichment and reprocessing technology?

    Answer. U.S. nuclear cooperation agreements (123 Agreements) 
establish the nonproliferation conditions required by law for the 
conduct of supply of source and special fissionable material and 
equipment to the nuclear programs of States with which we have chosen 
to cooperate. Our 123 Agreements are the strongest such agreements in 
the world; no government requires more stringent nonproliferation 
conditions.
    The United States has a longstanding policy that seeks to limit the 
further spread of enrichment technologies. We believe there are many 
ways to advance global nonproliferation efforts and international 
security and to achieve the lowest number of sensitive fuel cycle 
facilities throughout the world, including adherence to the Nuclear 
Supplier Group Guidelines, implementation of an International Atomic 
Energy Agency's (IAEA) Additional Protocol to a state's safeguards 
agreement and support for the IAEA Fuel Bank and other fuel assurance 
mechanisms. 123 Agreements are an additional tool to advance clear U.S. 
national security interests in achieving the lowest number of sensitive 
fuel cycle facilities and technologies.
                                 ______
                                 

  Responses of Frank Rose to Questions Submitted by Senator Bob Corker

    Question. There are a number of significant concerns with regards 
to the Russian track record of compliance with their current arms 
control obligations. Why should the United States engage in 
negotiations on yet another arms control agreement while the Russians 
are less than sincere about their compliance with current commitments?

    Answer. Noncompliance with treaty obligations is a very serious 
issue and I believe that consequences related to noncompliance should 
be appropriate to the specific circumstances. When specific questions 
arise about a country's treaty implementation, decisions about whether 
those issues constitute noncompliance require a careful process, which 
can include diplomatic engagement with the country concerned and an 
interagency process to assess the facts and circumstances. Whether and 
how those issues do or should affect future agreements is best 
evaluated on a case-by-case basis, taking into account the national 
security benefit of the proposed agreement and the assessed likelihood 
and risks of noncompliance. Treaty compliance is essential for creating 
the stability and predictability that aids international security 
efforts. Our national security interests have been and will continue to 
be the primary consideration in any future arms control negotiations 
and in deciding whether to become a party to any future agreement. We 
do not negotiate such agreements as ``a favor'' to other countries.

    Question. Do you support the vision of a world free of nuclear 
weapons? Is this vision a realistic goal, or is it a tool to spur 
further negotiations on arms control measures and further reductions in 
nuclear forces? Have any of the nuclear weapons states endorsed this 
goal?

    Answer. America's commitment to seek the peace and security of a 
world without nuclear weapons is not only a long-term policy goal of 
the administration, but a goal shared by the 189 signatories of the 
Treaty on the Non-Proliferation of Nuclear Weapons (the NPT), including 
all of the treaty-recognized nuclear-weapon states. Article VI of the 
NPT commits all parties to pursue good faith negotiations on measures 
leading to an end to the nuclear arms race and to nuclear disarmament.
    This goal will not be reached quickly, and as long as nuclear 
weapons exist, we will maintain a safe, secure, and effective arsenal 
to deter any adversary and guarantee that defense to our allies.
    The administration continues its efforts to advance this policy 
goal.
    In addition to our bilateral efforts with Russia, the United States 
is engaged with the other NPT nuclear-weapon states, or the P5, to 
review their progress toward fulfilling NPT Article VI obligations and 
2010 NPT Action Plan commitments to accelerate steps leading to nuclear 
disarmament. The P5 are engaging in regularized dialogue on nuclear 
weapons-related issues to an extent unseen in prior years. Through this 
process, the P5 have reaffirmed their commitment to nuclear 
disarmament. P5 engagement is a long-term investment designed to build 
trust and create a stronger foundation for concrete progress on nuclear 
disarmament and for the work that lies ahead of us to realize a world 
without nuclear weapons.

    Question. The administration recently concluded a framework 
agreement with Russia to achieve the dismantlement of the Syrian 
chemical weapons stockpile and supporting infrastructure. What is the 
status of the review of the initial declaration by the Organization for 
the Prohibition of Chemical Weapons (OPCW) and when can we expect the 
Executive Council to conclude an agreement with the Syrian Government 
to engage in a program of dismantlement?

    Answer. We understand from the OPCW that Syria has provided an 
initial document to the OPCW regarding its chemical weapons stockpile 
and sites. The United States, along with other CWC State Parties, will 
be making a careful and thorough review of this initial document. The 
United States and other CWC State Parties will want to clarify any 
discrepancies we note with the Syrians. Once we have more information, 
the Department of State will be pleased to brief the committee. An 
accurate list is vital to ensure the effective implementation of the 
Geneva Framework. Syria is required to provide a plan of destruction 
within 30 days after adoption of the Executive Council decision, and 
that plan will have to be evaluated carefully by the OPCW and CWC 
States Parties.

    Question. What role will the State Department play in implementing 
and monitoring the agreement on the Syrian chemical weapons stockpile? 
Does the OPCW have the resources necessary to assist the Syrian regime 
in consolidating and eliminating its stockpile on the timeline 
envisioned by the United States and Russia?

    Answer. The Bureaus of Arms Control, Verification and Compliance 
(AVC) and International Security and Nonproliferation (ISN) in the 
Department of State will play critical roles in implementing the 
framework in Syria. AVC will ensure the effective implementation of the 
framework, along with verification and compliance of Syria with the 
Chemical Weapons Convention (CWC). ISN, working with interagency 
colleagues, will ensure that the OPCW has sufficient resources for the 
mission and will work with foreign partners to ensure the verified 
destruction of Syria's chemical weapons.
    In addition, the United States is actively working with 
international partners to ensure that the OPCW has sufficient voluntary 
funds to carry out its vital inspection and verification functions. And 
we are working with the international community to provide resources 
and support to achieve the ultimate goal of eliminating Syria's 
chemical weapons program on the timeline envisioned by the United 
States and Russia.
    Syria is not a normal situation, and we are utilizing the 
capacities of both the United Nations and the OPCW to address its 
unique circumstances. CWC implementation in Syria will be put into 
effect by a binding, enforceable, and verifiable United Nations 
Security Council resolution reinforcing the OPCW Executive Council (EC) 
decision regarding the elimination of Syria's CW program and the U.S.-
Russia Framework reached in Geneva. In general, we intend to have a 
robust program of CW destruction and verification on an accelerated 
schedule, and the role of the Syrian Government in this exercise will 
be monitored closely--we continue to work out the details with Russia, 
the United Nations, and the OPCW.

    Question. Mr. Rose, you indicated that the Bureau of Arms Control, 
Verification and Compliance would be responsible for assessing Syria's 
compliance with the Chemical Weapons Convention. When your Bureau 
assesses Syria's compliance, will it be based on the timelines outlined 
within the Chemical Weapons Convention or the U.S.-Russia Framework 
Agreement?

    Answer. Yes. We will assess Syrian compliance with the OPCW 
Executive Council (EC) decision and the accompanying United Nations 
Security Council resolution, which give effect to the procedures and 
timelines outlined in the Geneva Framework. And, of course, we will 
assess Syria's compliance with its obligations under the Chemical 
Weapons Convention (CWC), as Syria will be a State Party as of October 
14, 2013.
                                 ______
                                 

     Responses of Hon. Rose E. Gottemoeller to Questions Submitted 
                       by Senator James E. Risch

    Question. We have had a number of classified briefings on Russian 
compliance with international agreements. How would you characterize 
Russian attitudes toward the INF Treaty (both in their press statements 
and through diplomatic channels)? Do you believe that we should call 
compliance issues like we see them, both publically and in classified 
settings?

    Answer. This year both countries marked the INF Treaty's 25th year 
of implementation. I believe this milestone reflects a recognition by 
both countries of the positive contribution of the treaty to 
international security. At the same time, Russia's concerns about other 
countries developing INF-range missiles has led it to propose at the 
United Nations the concept of a new multilateral treaty that, if 
adopted, could result in a global ban on this class of weapons.
    I do believe we should call compliance issues ``like we see them,'' 
as we do in the compliance report we send to Congress every year in 
both unclassified and classified versions. These reports provide a full 
picture, within the constraints of their security classification, of 
what the compliance situation is with respect to agreements and 
commitments to which the United States is a participating state. The 
administration also has briefed Members of Congress in response to 
specific inquiries, and I am available to provide briefings on any 
particular concerns.

    Question. Then Chairman Kerry told members of the SFRC that, ``If 
we're going to have treaties with people, we've got to adhere to them. 
We're not going to pass another treaty in the U.S. Senate if our 
colleagues are sitting around up here knowing that somebody is 
cheating.'' Ms. Gottemoeller, is that still the policy of the 
administration?

    Answer. It is the policy of the administration to take compliance 
issues very seriously and to seek to resolve them where possible. 
Consequences of noncompliance with treaty obligations should be 
appropriate to the specific circumstances. When specific questions 
arise about a country's treaty implementation, decisions can only be 
made about whether those issues constitute noncompliance after a 
careful process, which includes diplomatic work and serious interagency 
consideration. It is appropriate to consider whether those issues do or 
should affect future agreements. It is U.S. policy to only enter into 
treaties and agreements that are in our national security interest.

    Question. Are both Russia and China adhering to the CTBT as we 
define those obligations?

    Answer. The Comprehensive Nuclear Test-Ban Treaty has not yet 
entered into force. The only obligation on China, as a signatory, and 
Russia, as a State Party, to the treaty prior to entry into force is to 
refrain from acts which would defeat the object and purpose of the 
treaty. However, the full treaty regime, including its verification and 
onsite inspection provisions, will be implemented only if the treaty is 
in force. Regarding specific assessments of compliance, I refer you to 
the Annual Report to Congress on Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments.

    Question. Some believe the administration should circumvent the 
Senate and pursue arms control reductions outside of the normal treaty 
route and often point to the Presidential Nuclear Initiatives (or PNIs) 
of the early 1990s. They say, ``If Bush could do it that way why 
shouldn't Obama be able to do the same thing?'' Isn't it true that 
Russia has never really lived up to many of its PNI commitments?

    Answer. For issues relating to Russia's compliance with treaties, 
agreements, and commitments such as the PNIs, I refer you to the Annual 
Report to Congress on Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments.

    Question. Executive agreements by their nature do not have 
stringent verification and compliance mechanisms like treaties. How 
does Russian adherence to its PNI commitments impact the 
administration's decisionmaking when it comes to negotiating Arms 
Control Agreements with the Russian Federation?

    Answer. Many factors go into the consideration of what form of 
agreement is both legally available and best serves U.S. national 
security interests when it comes to pursuing an agreement with another 
country. With respect to undertaking a mutual obligation to reduce 
nuclear forces, verification is a very important consideration. Our 
national security interests have been, and will continue to be, the 
primary consideration in any future arms control negotiations.

    Question. President Obama came to the Congress for an AUMF on Syria 
because, according to him, having congressional buy-in gives an action 
in the international arena more legitimacy and strengthens our hand in 
that arena. Does he feel the same about Arms Control Agreements? If so, 
why won't he commit to us to go the treaty route and not the Executive 
agreement route?

    Answer. The Obama administration is seeking further negotiated 
reductions with Russia in our nuclear arsenals so we can continue to 
move beyond cold war postures. As Secretary Kerry stated in his 
September 18 letter to Senator Corker, we will pursue a treaty on 
nuclear reductions with the Russian Federation.

    Question. According to the State Department's most recent CWC 
compliance report, the State Department cannot certify that Russia is 
in compliance with its CWC commitments. How can we trust Russia to help 
bring Syria into full compliance with the CWC, when Russia itself is 
not in full compliance with the CWC?

    Answer. While we expect Russia to do its part in keeping Syria on 
track, holding Syria to its international obligations--including under 
the CWC and the decisions by the Organization for the Prohibition of 
Chemical Weapons Executive Council and the United Nations Security 
Council--is not solely a Russian responsibility but one the 
international community shares. Syria is not a normal situation, this 
effort is unique and it will take the international community, not just 
Russia, to bring about the elimination of Syria's CW so the regime can 
never again use chemical weapons against the Syrian people.

    Question. What is the administration's policy for sharing 
intelligence with NATO on Arms Control Compliance, specifically vis-a-
vis the INF Treaty? Can you assure the committee we have fully and 
completely briefed the alliance and not just a few NATO partners?

    Answer. The sharing of intelligence, not only with NATO but also 
with other allies and friends, is dependent on the sensitivity of the 
intelligence, as well as the sources and methods used in gaining that 
intelligence. Accordingly, determining what intelligence can be shared, 
when it can be shared, and with whom, is dependent on many factors that 
are considered on a case-by-case basis.

    Question. On June 14, 2013, SSCI members (including Senator Rubio 
and myself) sent a classified letter to then NSA Donilon on a Pakistan 
issue. The subject matter of this letter addresses an issue that falls 
within your portfolio. Will you engage with your colleagues at the NSS 
to determine when we will receive an answer to our letter? What actions 
will you take and what actions will you advise Secretary Kerry to take 
on the subject of this issue? I understand that the answer to this 
question may require a classified response.

    Answer. The NSS offered a briefing to Vice Chairman Chambliss and 
the SSCI in response to the letter. The Department of State stands 
ready to lead an interagency team to brief interested committee 
members.
                                 ______
                                 

     Responses of Hon. Rose E. Gottemoeller to Questions Submitted 
                         by Senator Marco Rubio

    Question. If Russia does not agree to further limitations on 
strategic nuclear weapons does the administration pledge to not make 
militarily significant unilateral reductions? Is there any other option 
for such reductions to be made other than through a treaty subject to 
the advice and consent of the U.S. Senate?

    Answer. As Secretary Kerry stated in his September 18 letter to 
Senator Corker, we will pursue a treaty on nuclear reductions with the 
Russian Federation. I have the utmost respect for the Senate's role in 
the treaty process. I am mindful of the language in the Arms Control 
and Disarmament Act, and similar language in other legislation. As 
always, the administration will follow the Constitution and laws of the 
United States. If confirmed, I will continue to consult with the 
Congress on arms control-related issues.

    Question. Would a one-third reduction in our strategic nuclear 
weapons be considered militarily significant?

    Answer. Yes, I believe such a reduction would be considered to be 
``militarily significant'' as that term is used in the Arms Control and 
Disarmament Act.

    Question. Is Russia currently in compliance with the Intermediate-
Range Nuclear Forces (INF) Treaty?

    Answer. Treaty compliance assessments are provided in the Annual 
Report to Congress on Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments. For 
further specific information on individual compliance assessments, I am 
available to provide you with a briefing.

    Question. Do you believe the public has a right to know whether or 
not the U.S. Government believes Russia is in violation of or 
noncompliance with the Intermediate Range Nuclear Forces Treaty? If so, 
at what point will you be definitively able to publicly state whether 
Russia is in compliance?

    Answer. The public has the right to be informed of matters relating 
to compliance with arms control treaties and agreements. That is a 
primary reason for the production of an unclassified version of the 
Annual Report to Congress on Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments. 
This administration has produced and made publicly available an 
unclassified Compliance Report every year since taking office. These 
reports provide the public with an understanding, within the 
constraints of security classifications, of U.S. assessments of the 
compliance of our treaty partners with arms control treaties and 
agreements to which the United States is a party.
    In addition to the information provided in the unclassified and 
classified compliance reports, we are always prepared to brief Members 
of Congress to ensure that you are able to execute your oversight 
responsibilities on behalf of the American people.

    Question. What indication, if any, do we have that Russia is 
interested in further nuclear reductions or in a follow-on agreement to 
New START for reasons other than limiting U.S. capabilities?

    Answer. At the August 9, 2013, ``2+2'' meeting with Russia, 
Secretary Kerry, Secretary Hagel, Russian Foreign Minister Sergey 
Lavrov, and Defense Minister Sergey Shoygu discussed strengthening 
strategic stability by implementing successfully the New START Treaty 
and exploring the possibilities of further nuclear reductions. These 
discussions are ongoing and taking place in other working groups, such 
as the U.S.-Russia Bilateral Presidential Commission Working Group on 
Arms Control and International Security, which I cochair with Russian 
Deputy Foreign Minister Sergey Ryabkov.

    Question. Has Russia shown any willingness to discuss limits on 
nonstrategic nuclear weapons?

    Answer. The administration is conducting a bilateral dialogue with 
Russia on strategic stability and consulting with NATO allies to lay 
the groundwork for future negotiations to address nonstrategic nuclear 
weapons. We are pursuing discussions in the U.S.-Russia Bilateral 
Presidential Commission Working Group on Arms Control and International 
Security, which I cochair with Russian Deputy Foreign Minister Sergey 
Ryabkov. With NATO allies, we are developing concepts for transparency 
on Russian and U.S. nonstrategic nuclear weapons in Europe as an 
important first step toward reductions in those weapons.
    Pursuant to Condition 12(B) of the New Start Resolution of 
Ratification, the State Department reports annually on our efforts to 
seek to initiate negotiations on NSNW with the Russian Federation. The 
latest report was delivered to the Senate on February 1, 2013.

    Question. What are the factors the United States should consider 
before concluding civilian nuclear cooperation (``123'') agreements 
that do not include commitments to limit indigenous enrichment or 
reprocessing capabilities similar to those contained in the agreement 
with the United Arab Emirates?

    Answer. U.S. nuclear cooperation agreements (123 Agreements) 
establish the nonproliferation conditions required by law for the 
conduct of supply of source and special fissionable material and 
equipment to the nuclear programs of States with which we have chosen 
to cooperate. Our 123 Agreements are the strongest such agreements in 
the world; no government requires more stringent nonproliferation 
conditions.
    The United States has a longstanding policy that seeks to limit the 
further spread of enrichment and reprocessing technologies. We believe 
that there are many ways to advance global nonproliferation efforts and 
international security and to achieve the lowest number of sensitive 
fuel cycle facilities throughout the world, including adherence to the 
Nuclear Suppliers Group Guidelines, implementation of an International 
Atomic Energy Agency's (IAEA) Additional Protocol to a state's 
safeguards agreement, and support for the IAEA Fuel Bank and other fuel 
assurance mechanisms. 123 Agreements are an additional tool to advance 
clear U.S. national security interests in achieving the lowest number 
of sensitive fuel cycle facilities and technologies.

    Question. What is the status of discussions with Vietnam regarding 
a nuclear cooperation agreement? Will this agreement secure Vietnam's 
promise not to make nuclear fuel on their soil? Do you pledge to 
consult with Congress before you initial any agreement with Vietnam to 
make sure it does not undermine negotiations to renew nuclear 
cooperation with South Korea?

    Answer. The 123 Agreement negotiation process with Vietnam is well 
advanced. Throughout these negotiations, we have consistently stressed 
to Vietnamese officials the longstanding U.S. policy that seeks to 
limit the further spread of enrichment and reprocessing technologies 
and the importance of continuing its strong record of nonproliferation 
commitments. Vietnam has brought into force recently its Additional 
Protocol to its International Atomic Energy Agency (IAEA) safeguards 
agreement and ratified the 2005 amendment to the Convention on the 
Physical Protection of Nuclear Material. We also have discussed 
supplemental nonproliferation commitments with Vietnam.
    The administration intends to comply fully with the requirement for 
consultation with Congress contained in the Atomic Energy Act of 1954, 
as amended.

    Question. Nuclear analysts and Japanese nuclear experts argue that 
the United States-Japanese nuclear cooperation agreement, which is to 
terminate in 2015, can be interpreted to read in a manner that would 
make it unnecessary for the United States and Japan ever to have to 
renew the agreement. Does the State Department share this view?

    Answer. The Agreement for Cooperation Between the Government of the 
United States of America and the Government of Japan Concerning 
Peaceful Uses of Nuclear Energy entered into force on July 17, 1988. 
The terms of the agreement provide that it shall remain in force for a 
period of 30 years, and shall continue in force thereafter until 
terminated. Either party may terminate the agreement at the end of the 
initial 30-year period or at any time thereafter by giving 6 months 
written notice to the other party. Accordingly, in the absence of any 
action by either party to terminate the agreement, it remains in force 
indefinitely.

    Question. President Obama recently said to the U.N. General 
Assembly that ``we respect the right of the Iranian people to access 
peaceful nuclear energy.'' Does this include the right to uranium 
enrichment or plutonium reprocessing technology?

    Answer. States parties in compliance with their Nuclear Non-
Proliferation Treaty obligations have the right to pursue nuclear 
energy for peaceful purposes under the treaty, but with that right come 
responsibilities. As President Obama stated in his address to the U.N. 
General Assembly, ``We insist that the Iranian Government meet its 
responsibilities under the Nuclear Non-Proliferation Treaty and U.N. 
Security Council resolutions.''
    The onus is on Iran to demonstrate to the international community 
that its nuclear program is exclusively peaceful and to comply with the 
resolutions of the United Nations Security Council and the 
International Atomic Energy Agency Board of Governors. Iran must take 
concrete actions to address the legitimate concerns of the 
international community about its nuclear program. It also is critical 
to note that the United Nations Security Council, in multiple 
resolutions, calls upon Iran to suspend all uranium enrichment 
activities and refrain from any plutonium reprocessing activities 
because of the questions raised over the peaceful nature of Iran's 
nuclear program.

    Question. Should the United States accept a uranium enrichment 
capability in Iran under international safeguards? How would an Iranian 
uranium enrichment or reprocessing capability be perceived by other 
states in the region and would you be concerned that such a capability 
could contribute to a cascade of proliferation of these sensitive 
technologies?

    Answer. As President Obama stated recently, ``We should be able to 
achieve a resolution that respects the rights of the Iranian people, 
while giving the world confidence that the Iranian program is 
peaceful.'' Iran remains in noncompliance with its international 
nuclear obligations and has failed to demonstrate to the international 
community that its nuclear program is exclusively peaceful. Until Iran 
makes clear that it is prepared to address the legitimate concerns of 
the international community about Iran's nuclear program, it would be 
premature to speculate about the acceptable outcome of the 
negotiations. We share your concerns regarding limiting the spread of 
enrichment and reprocessing (ENR) technologies. The United States 
maintains its longstanding policy of limiting the spread of ENR 
technologies.
                                 ______
                                 

 Responses of Frank Rose to Questions Submitted by Senator Marco Rubio

    Question. Can you state definitively that in any arms control 
discussions with Russia for which you are responsible the United States 
will never agree to any limitations on U.S. missile defense programs?

    Answer. While we seek missile defense cooperation and transparency 
with Russia, the United States will not agree to any obligations that 
will constrain or limit U.S. or NATO ballistic missile defenses.

    Question. What has the administration done to reassure Russia that 
U.S. missile defenses are not directed against them? Does the Obama 
administration intend to provide Russia with classified information 
(including data declassified for this purpose) about our missile 
defense capabilities to make this case to Russia?

    Answer. During both the Bush and Obama administrations, the United 
States has provided policy and technical briefings to Russia to 
demonstrate that U.S. ballistic missile defense plans, programs, and 
deployments are not designed to degrade, nor are they capable of 
degrading, Russia's strategic deterrent.
    The United States will not provide Russia with information about 
our missile defense systems that would in any way compromise our 
national security. For example, hit-to-kill technology and interceptor 
telemetry will under no circumstances be provided to Russia.

    Question. What lessons are to be learned from U.S. efforts to 
secure chemical and advanced conventional weapons in Iraq and Libya 
that could be applied to Syria?

    Answer. Chemical weapons (CW) and advanced conventional weapons 
elimination efforts in Russia, Albania, Libya, and elsewhere have 
helped U.S. Government agencies to identify key capabilities, 
authorities, and coordination mechanisms that will assist in 
efficiently securing, verifying, and eliminating Syria's CW program. 
Additionally, we are seeking support from other governments that have 
capabilities to provide financial or technical assistance for the 
elimination of Syria's CW program. We recognize that implementing the 
Framework for Syria CW Elimination is an unprecedented task, and we are 
examining all of these tools as we work to support the United Nations, 
the Organization for the Prohibition of Chemical Weapons, and the 
international community to successfully implement this famework.
    Valuable lessons from our experience in Libya are informing the 
Department's ongoing planning to counter advanced conventional weapons 
proliferation from Syria, including coordination with international and 
regional partners; coordination with implementers of related 
activities, such as border security assistance; possible action to 
prevent weapons sites from becoming insecure; and the need to act as 
soon as possible if sites become insecure.

    Question. Do you believe that the United States-Russia framework 
for the elimination of Syrian chemical weapons is effectively 
verifiable? How can we be confident that, as in the case of Libya, the 
Assad regime will not retain at least some of its chemical weapons 
capabilities?

    Answer. Syria is in the process of acceding to the Chemical Weapons 
Convention (CWC). Upon accession, it is obligated to destroy all of its 
chemical weapons under international verification by the Organization 
for the Prohibition of Chemical Weapons (OPCW). To date, the OPCW has 
verified the global elimination of over 57,000 metric tons of chemical 
weapons. The United States and Russia are focused very closely on 
ensuring that Syria complies with its CWC obligations. We are seeking 
additional verification rights for the United Nations and OPCW in this 
instance to ensure that inspectors have the right to inspect any and 
all sites in Syria, not just those declared by Syria. These provisions 
will provide the OPCW with enhanced tools to verify Syria's compliance.
    Syria is not a normal situation, and we are utilizing the 
capacities of both the United Nations and the OPCW to address its 
unique circumstances. CWC implementation in Syria will be reinforced by 
the U.S.-Russia Geneva Framework Agreement, and the OPCW Executive 
Council decision and the UN Security Council resolution. In general, we 
intend to have a more robust program of CW destruction and verification 
on an accelerated schedule, and the role of the Syrian Government in 
this exercise will be looked at closely--we continue to work out the 
details with Russia, the United Nations, and the OPCW.
    As CWC implementation proceeds in Syria, I would be happy to keep 
you apprised of developments.
                                 ______
                                 

          Responses of Adam Scheinman to Questions Submitted 
                         by Senator Marco Rubio

    Question. If confirmed, what would your strategy be for ensuring 
that Israel's interests are protected in the 2015 Nuclear Non-
Proliferation Treaty (NPT) Review Conference and preceding meetings?

    Answer. The United States has long supported universal adherence to 
the NPT. However, we believe that a comprehensive and durable peace in 
the region and full compliance by all regional states with their arms 
control and nonproliferation obligations are essential precursors for 
realizing universality of the NPT in the Middle East. Our government 
consults frequently with Israel on issues related to the NPT process, 
and in particular the proposal to convene a conference to discuss a 
Middle East zone free of weapons of mass destruction.
    As the United States has made clear, it will only support a 
conference in which all countries feel comfortable they can attend and 
that we will oppose initiatives designed to pressure Israel or single 
it out for criticism. We also will continue our longstanding practice 
to work closely with Israel to ensure that regional arms control 
proposals do not detract from Israel's security and support our common 
interest in strengthening international peace and stability.

    Question. How does the administration intend to handle the ongoing 
demands of some countries for establishment of a Middle East zone free 
of nuclear weapons and all other WMD?

    Answer. It is longstanding U.S. policy to support the establishment 
of a Middle East zone free of all weapons of mass destruction. However, 
as we have made clear, this is a long-term undertaking and will require 
that essential conditions be in place, to include a comprehensive and 
durable peace in the region and full compliance by all regional states 
with their arms control and nonproliferation obligations.
    As a near-term measure, we continue to support the goal of 
convening a conference to discuss aspects of a regional WMD free zone, 
as called for in the final document of the 2010 NPT Review Conference. 
In keeping with the principle that a regional WMD free zone can only be 
established on the basis of arrangements freely arrived at by the 
relevant parties, it should be clear that this conference can proceed 
only on the basis of consensus and with Israel having an equal seat at 
the table. Working with the other conveners (the United Kingdom, 
Russia, and the United Nations), and the appointed facilitator 
(Ambassador Jaakko Laajava of Finland), we continue to encourage direct 
engagement of the regional parties in order to reach agreement on an 
agenda for a successful conference.
                                 ______
                                 

     Responses of Hon. Rose E. Gottemoeller to Questions Submitted 
                        by Senator John Barrasso

    Question. As the current Assistant Secretary of State for Arms 
Control, Verification and Compliance, can you certify Russia is 
complying or otherwise not acting inconsistent with all its arms 
control obligations (as opposed to just its strategic arms control 
obligations)?

    Answer. As I noted at my confirmation hearing, there are some areas 
where we have concerns about Russian compliance. Complete compliance 
assessments are provided in the Annual Report to Congress on Adherence 
to and Compliance with Arms Control, Nonproliferation, and Disarmament 
Agreements and Commitments. For specific information on individual 
compliance assessments, the Department of State is available to provide 
you with a briefing.

    Question. Do you think it is important to be able to certify that 
Russia is currently complying with all its arms control obligations 
prior to negotiating future arms control agreements with Russia?

    Answer. Noncompliance with treaty obligations is a very serious 
issue and I believe that consequences related to noncompliance should 
be appropriate to the specific circumstances. When specific questions 
arise about a country's treaty implementation, decisions about whether 
those issues constitute noncompliance require a careful process, which 
can include diplomatic engagement with the country concerned and an 
interagency process to assess the facts and circumstances. Whether and 
how those issues do or should affect future agreements is best 
evaluated on a case-by-case basis, taking into account the national 
security benefit of the proposed agreement and the assessed likelihood 
and risks of noncompliance. Treaty compliance is essential for creating 
the stability and predictability that aids international security 
efforts. Our national security interests have been and will continue to 
be the primary consideration in any future arms control negotiations 
and in deciding whether to become a party to any future agreement. We 
do not negotiate such agreements as ``a favor'' to other countries.

    Question. Is Russia abiding by Comprehensive Test-Ban Treaty (CTBT) 
obligations as we define those obligations?

    Answer. The Comprehensive Nuclear Test-Ban Treaty has not yet 
entered into force. As a State Party to the treaty prior to its entry 
into force, Russia has an obligation to refrain from acts which would 
defeat the object and purpose of the treaty. However, the full treaty 
regime, including its verification and onsite inspection provisions, 
will be implemented only if the treaty is in force. Regarding specific 
assessments of compliance, I refer you to the Annual Report to Congress 
on Adherence to and Compliance with Arms Control, Nonproliferation, and 
Disarmament Agreements and Commitments.

    Question. During your testimony before the committee, you said, 
``Russia is in compliance with the New START Treaty'' and that you were 
``not aware of any questions that have arisen'' to concealment or 
Russian efforts to deter our inspection teams and capabilities.

  <diamond> How involved are you with the issues raised at the 
        Bilateral Consultative Commission?
  <diamond> Is anyone in the State Department aware of concealment 
        issues or Russian efforts to deter our inspection teams?

    Answer. As Assistant Secretary of State for Arms Control, 
Verification and Compliance, I have responsibilities in a number of 
areas, including the activities of the New START Treaty's Bilateral 
Consultative Commission (BCC). In addition to working with the U.S. 
delegation to the BCC to develop U.S. Government positions prior to a 
BCC session, I am regularly apprised of the day-to-day implementation 
of the treaty. To date, the BCC has been an effective forum for 
resolving issues related to treaty implementation.
    With respect to specific concerns related to particular treaties, 
the Department of State is available to provide Congress with briefings 
on any particular concerns.

    Question. Secretary of Defense Panetta assured Congress that arms 
reductions would take place in the Obama administration only as a 
result of an arms control treaty process, saying: ``reductions that 
have been made, at least in this administration, have only been made as 
part of the START process and not outside of that process; and I would 
expect that that would be the same in the future.''

  <diamond> Can you assure the Senate that President Obama's negotiated 
        cuts to our nuclear arsenal will be presented to the Senate in 
        treaty form?

    Answer. As Secretary Kerry stated in his September 18 letter to 
Senator Corker, we will pursue a treaty on nuclear reductions with the 
Russian Federation.

    Question. Are you currently engaged in negotiations with the 
Russians on further reductions of strategic nuclear weapons or nuclear 
delivery vehicles? What is the status of those negotiations?

    Answer. No.
    However, at the August 9, 2013, ``2+2'' meeting with Russia, 
Secretary Kerry, Secretary Hagel, Russian Foreign Minister Sergey 
Lavrov, and Defense Minister Sergey Shoygu discussed strengthening 
strategic stability by implementing successfully the New START Treaty 
and exploring the possibilities of further negotiated nuclear 
reductions. These discussions are ongoing and are also taking place in 
other working groups, such as the U.S.-Russia Bilateral Presidential 
Commission Working Group on Arms Control and International Security, 
which I cochair with Russian Deputy Foreign Minister Sergey Ryabkov.

    Question. During the New START debate, there was a lot of concern 
raised about the inclusion of provisions on missile defense. You were 
the lead negotiator of New START. In a treaty about strategic offensive 
arms, why is there a direct limitation on U.S. missile defense 
deployments in article 5, paragraph 3 of the treaty?

    Answer. The New START Treaty has no operational impact on U.S. 
missile defense efforts.
    Paragraph 3 of article V of the treaty prohibits the conversion of 
ICBM or SLBM launchers to launchers for missile defense interceptors 
and the conversion of missile defense interceptor launchers to launch 
ICBMs or SLBMs. The paragraph resolves a longstanding ambiguity that 
arose during implementation of the START Treaty. Specifically, it 
ensures that our five previously converted ICBM silo launchers at 
Vandenberg that are used now for missile defense interceptors will not 
count against the New START Treaty's limits on nondeployed ICBM 
launchers and will not be a continuing subject of dispute with Russia.
    With regard to the conversion of SLBM launchers into missile 
defense interceptor launchers, the Missile Defense Agency had examined 
earlier the concept of launching missile defense interceptors from 
submarines and found it operationally an unattractive and extremely 
expensive option. The United States already has a very good and 
significantly growing capability for sea-based missile defense on 
Aegis-capable surface ships, which are not constrained by the New START 
Treaty.
    Furthermore, the New START Treaty does not limit the United States 
in any way from building and deploying new land-based interceptors or 
silos.

    Question. It is irrelevant that the United States currently has no 
plan to engage in the missile defense action prohibited by the treaty, 
when the Senate unanimously counseled that the treaty should not 
contain any limitations on our missile defense systems. Therefore, what 
did the United States get in return for this concession to Russia 
during the negotiation of the treaty?

    Answer. The New START Treaty has no operational impact on U.S. 
missile defense efforts. Additionally, the treaty does not constrain 
the United States from deploying the most effective missile defenses 
possible.

    Question. New START requires the United States and Russia to reduce 
their deployed nuclear warheads to 1,550 and their deployed nuclear 
delivery vehicles to 700. According to the last data exchange, Russia 
is already well below those limits, while we still need to make 
significant reductions to get below those limits.

  <diamond> In future arms control negotiations with Russia, how can we 
        avoid a treaty where the United States is the only Party 
        required to actually make reductions?

    Answer. The New START Treaty establishes legally binding and 
verifiable limits on the number of Russian and U.S. strategic nuclear 
forces that are mutually beneficial and stabilizing. The value of the 
New START Treaty goes beyond these limits and reductions. The treaty 
also provides transparency and predictability with regard to Russian 
strategic forces that the United States would otherwise lack. For 
example, the United States and Russia have exchanged more than 4,900 
notifications on the numbers, locations, and movements of their 
strategic forces.
    Onsite inspections and other verification measures also are going 
well, enabling each side to maintain confidence in the validity of that 
data.
    Without this treaty, there would be no limit on the size of each 
Party's respective strategic nuclear arsenals in the face of 
modernization programs, and no insight into the other Party's forces. 
As was the case with the New START Treaty, any future arms control 
negotiations should be considered in light of all potential benefits.

    Question. President Obama recently said at the U.N. General 
Assembly that ``we respect the right of the Iranian people to access 
peaceful nuclear energy.'' Does the administration believe this 
includes the right to uranium enrichment or plutonium reprocessing 
technology?

    Answer. States Parties in compliance with their Nuclear Non-
Proliferation Treaty obligations have the right to pursue nuclear 
energy for peaceful purposes under the treaty, but with that right 
comes responsibilities. As President Obama stated in his address to the 
U.N. General Assembly, ``We insist that the Iranian Government meet its 
responsibilities under the Nuclear Non-Proliferation Treaty and U.N. 
Security Council resolutions.''
    The onus is on Iran to demonstrate to the international community 
that its nuclear program is exclusively peaceful and to comply with the 
resolutions of the United Nations Security Council and the 
International Atomic Energy Agency Board of Governors. We have been 
consistent in our message that Iran must take concrete actions to 
address the legitimate concerns of the international community about 
its nuclear program. It also is critical to note that the United 
Nations Security Council, in multiple resolutions, calls upon Iran to 
suspend all uranium enrichment activities and refrain from any 
plutonium reprocessing activities because of the questions raised over 
the peaceful nature of Iran's nuclear program.

    Question. Do you believe the current Iranian or North Korean 
regimes can be talked out of their nuclear programs?

    Answer. The United States remains committed to the dual-track 
policy of engagement and pressure on Iran in pursuit of a diplomatic 
resolution to Iran's nuclear program. In his address before the United 
Nations General Assembly, President Obama again made clear ``that 
America prefers to resolve our concerns over Iran's nuclear program 
peacefully, although we are determined to prevent Iran from developing 
a nuclear weapon.''
    However, the President and his administration have been consistent 
in their message: the window to resolve this issue diplomatically will 
not remain open indefinitely, and all options are on the table.
    Thanks to the efforts of Congress and President Obama's 
administration, international sanctions have been instrumental in 
bringing Iran back to the negotiating table, and Iran must continue to 
face pressure until it takes concrete actions to comply with its 
international nuclear obligations.
    Regarding North Korea, the paramount focus of U.S. policy remains 
the verifiable denuclearization of the Korean Peninsula.
    We will not accept North Korea as a nuclear-armed state. North 
Korea has committed in the Joint Statement of the Six-Party Talks, and 
is obligated under the relevant United Nations Security Council 
resolutions to abandon all its nuclear weapons and existing nuclear 
programs.
    We continue to hold North Korea to its commitments and obligations. 
We continue to work with our partners and the international community 
to implement the United Nations Security Council sanctions on the DPRK 
in order to impede its ability to sustain and enhance its proscribed 
nuclear and missile programs.
    At the same time, we remain open to credible and authentic 
negotiations to bring North Korea into compliance with its 
international obligations and commitments through irreversible steps 
toward denuclearization. But the onus remains on North Korea to take 
concrete and meaningful action to demonstrate its serious will and 
commitment to denuclearization.

    Question. During the New START debates, former Secretary James R. 
Schlesinger testified before this committee that the Russians have 
consistently resisted efforts to deal with the imbalance of tactical 
weapons. He stated that, ``The likelihood of their being willing to do 
so in light of New START is sharply diminished, for we have now 
forfeited substantial leverage.''

  <diamond> As lead negotiator, what was the rationale for the United 
        States to forfeit substantial leverage on this issue?

    Answer. In 2009, our priority objective was to negotiate a new 
strategic arms control agreement with Russia that would supersede the 
expiring START Treaty to ensure the continuation of mutual limits and 
verification on Russian and U.S. strategic nuclear forces. A treaty 
that addressed tactical nuclear weapons would have taken much longer to 
complete, adding significantly to the time before a successor 
agreement, including verification measures, could enter into force 
following START's expiration in December 2009. Because of their limited 
range and different roles, tactical nuclear weapons do not directly 
influence the strategic balance between the United States and Russia. 
That said, we agree with the Senate regarding the importance of 
addressing the disparity between U.S. and Russian nonstrategic nuclear 
weapons, and will work with our NATO allies to seek bold reductions in 
U.S. and Russian nonstrategic nuclear weapons in Europe.

    Question. Throughout the debate, we were told that we must ratify 
this treaty in order to begin the conversation of reducing tactical 
weapons. On December 16, 2010, then-Senator Kerry stated on the floor 
of the U.S. Senate that, ``I hope our colleagues will stand with our 
allies and stand with common sense and ratify this treaty so we can get 
to the issue of tactical nuclear weapons.''

  <diamond> What commitments has the administration received from 
        Russia to reduce tactical nuclear weapons?
  <diamond> Will you push for further reductions in strategic nuclear 
        weapons or take on the real issue of tactical nuclear weapons?

    (Note: The original question misstated the referenced date as 
December 16, 2012.)

    Answer. As the President has said, we are seeking reductions in all 
categories of nuclear weapons, including strategic and nonstrategic.
    Pursuant to Condition 12(B) of the New Start Resolution of 
Ratification, the State Department reports annually on our efforts to 
seek to initiate negotiations on NSNW with the Russian Federation. The 
latest report was delivered to the Senate on February 1, 2013.

    Question. As our country continues to face threats from around the 
world, we should not take any action that will hinder our missile 
defense options. The United States must always remain in charge of our 
missile defense, not Russia or any other country. I have concerns about 
the efforts of Russia to limit our missile defense and actions the 
administration may be taking on this issue.

  <diamond> Does President Obama plan to include any limits on missile 
        defense in a broader agreement to limit offensive nuclear 
        weapons?
  <diamond> Can you commit to me that, in any arms control discussions 
        with Russia for which you are responsible, the United States 
        will never agree to any limitation on our missile defense 
        programs?

    Answer. The United States will not agree to any obligations that 
will constrain or limit U.S. or NATO ballistic missile defenses.

    Question. Article 12 of the United Nations Arms Trade Treaty 
requires signatories to maintain records for 10 years on all firearm 
imports transferred to its territory. These records include the 
quantity of firearms, value, model/type and the end users. Signatories 
will be required to submit this information to the United Nations on an 
annual basis. During your testimony, you stated that the treaty ``does 
not require the formation of national arms registry.''

  <diamond> How can this administration claim that this treaty does not 
        require a United Nations gun registry when article 12 
        specifically requires the collection of the quantity of 
        firearms, value, model/type and the end users?

    Answer. The ATT is a treaty that deals with international trade and 
it does not in any way impact domestic gun rights, including those 
protected by the second amendment.
    Current U.S. recordkeeping practices for arms exports and imports 
already meet the legal requirements of article 12. Article 12 requires 
States Parties (not the U.N.) to maintain national records of export 
authorizations or actual exports of the covered conventional arms for a 
minimum of 10 years. The United States already does this as part of our 
existing export control system. Article 12 does not require, but only 
encourages, States Parties to maintain records on imports, transits, 
and transshipments under its jurisdiction. Similarly, it does not 
require, but only encourages, States Parties to include in their 
national records the information specified in article 12(3). States 
Parties are permitted to decide for themselves whether all such 
information is necessary or relevant for their recordkeeping. As a 
result, the ATT would not require us to maintain any national records 
on arms exports or imports beyond what we already do under existing 
U.S. law and practice.

    Question. As the administration pursues efforts on arms control and 
nuclear nonproliferation, it is vital that Congress is informed and 
consulted. Will you commit to me to provide Members of the Congress 
with all the information, resources, and materials requested in a 
timely manner?

    Answer. Yes, if confirmed, I will commit to provide Members of 
Congress with requested information, resources, and material that fall 
under my purview as appropriate and in a timely manner.


      NOMINATIONS OF TIMOTHY BROAS, DONALD LU, AND ROBERT SHERMAN

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Timothy Broas, of Maryland, to be Ambassador to the Kingdom of 
        the Netherlands
Donald Lu, of California, to be Ambassador to the Republic of 
        Albania
Robert A. Sherman, of Massachusetts, to be Ambassador to the 
        Portuguese Republic
                              ----------                              

    The committee met, pursuant to notice, at 2:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy, presiding.
    Present: Senators Murphy, Kaine, and Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Good afternoon, everyone. We will call this 
meeting of the Foreign Relations Committee to order.
    Today, the Senate Foreign Relations Committee will consider 
three nominations: Timothy Broas to be Ambassador to the 
Kingdom of the Netherlands, Donald Lu to be Ambassador to the 
Republic of Albania, and Robert Sherman to be Ambassador to the 
Portuguese Republic.
    Let me begin the afternoon by welcoming our nominees and 
their families. I am going to give short opening remarks, 
followed by Senator Johnson, the ranking member of the 
subcommittee. Afterward, you will all be allowed and asked to 
give an opening statement. At that time, please feel free to 
introduce any family members that may be with you today.
    I congratulate all of you on your nominations. We have had 
the chance, each of us, to talk privately, and I appreciate the 
time that you have afforded me. If confirmed, you are going to 
be called upon to serve and advance the interests of the 
American people in your respective missions. I thank each of 
you for your willingness to serve.
    The heinous attack in recent days that we witnessed in 
Nairobi, Kenya serves as a stark reminder of the challenges 
that the United States and our allies face. We extend our 
deepest condolences to the families of the victims of that 
attack.
    The challenges and opportunities that you are going to face 
in your respective postings are unique, but we are discussing 
today all countries that are staunch NATO allies of the United 
States. Our strategic relationship with these partners is of 
vital importance to promoting global security and prosperity, 
and I expect that each of you will have tough but necessary 
conversations with our partners about how NATO can continue to 
maintain its capabilities that we need in line with the 
resources that we have.
    There are few countries with which we have a more important 
economic relationship than the Netherlands. More than 1,600 
U.S. companies have subsidiaries or offices there. It is one of 
our largest export markets and our third-largest direct foreign 
investor, and they do all of this with a population of about 17 
million people. The Netherlands can potentially be an important 
ally in our effort to pass a comprehensive free trade agreement 
with the EU, and I hope that you will work with the Dutch 
Government to generate support for TTIP.
    Albania is another nation that is very important to the 
United States and our NATO mission, not the least of which 
because we have here in the United States and particularly in 
Connecticut a vibrant Albanian American population. Albania has 
supported the U.S. policy of expanding the number of countries, 
extending diplomatic recognition to Kosovo. As a NATO partner, 
they have provided troops to the U.S.-led actions in 
Afghanistan and Iraq and supported U.S. counterterrorism 
efforts by freezing terrorist assets. Recent elections in 
Albania this June were praised as the most successful to date, 
and if confirmed, Mr. Lu, I hope that you will work with your 
Albanian partners to continue their efforts to tackle 
corruption and strengthen the rule of law, essential tasks for 
Albania, as they pursue full membership in the EU.
    And finally, turning to Portugal, the United States and 
Portugal have strong bilateral ties dating back to the earliest 
days of the United States when Portugal was amongst the first 
countries to recognize the United States following the 
Revolutionary War. Portugal is an active member of the NATO 
alliance, with Portuguese forces participating in NATO 
operations in Afghanistan and Kosovo. It is home to a U.S. 
airbase and also has been a strong U.S. partner in the fight 
against terrorism and drug trafficking. We are aware that 
Portugal has faced difficult economic challenges in recent 
years, and Mr. Sherman, I know that you will be immersed in 
these issues as you arrive in Lisbon. We look forward to your 
frequent reports, as well as those of your colleagues, back to 
this committee.
    At this point, before I introduce our three nominees, let 
me turn to Senator Johnson for opening remarks.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. I would like to 
join you just in thanking the nominees for their willingness to 
serve this Nation. As I spoke with Mr. Sherman in my office, I 
think the top priority that I certainly expect out of anybody 
representing this Nation is to represent us well, recognizing 
really what an exceptional nation this is, how although not 
perfect, America has just been a phenomenal force for good in 
the world. So that is your first and primary duty, but then 
also properly representing those nations' interests back to the 
United States. That is also a very high priority.
    So, again, I just really want to thank the nominees for 
their willingness to serve and coming here before us today and 
look forward to your testimony.
    Thank you.
    Senator Murphy. Thank you, Senator Johnson.
    Let me make brief introductions going from my left to 
right, and then you will give testimony in that order.
    First, let me recognize Timothy Michael Broas, the nominee 
for Ambassador to the Netherlands. Mr. Broas is a partner at 
Winston and Strawn LLP in Washington, DC, a talented and 
skilled trial lawyer and experienced negotiator. Mr. Broas will 
bring essential skills to the task of furthering bilateral 
relations with the Government of the Netherlands, a key U.S. 
ally in the EU and NATO.
    Mr. Broas also serves as a trustee of Partners in Health, 
the Woodrow Wilson International Center for Scholars, and St. 
Mary's College of Maryland.
    He earned his B.A. at Boston College and his J.D. at the 
College of William and Mary. I should also point out that he is 
a Dutch American.
    Next, let me recognize Donald Lu, nominee for Ambassador to 
Albania. Mr. Lu is a career member of the Senior Foreign 
Service. A three-time Deputy Chief of Mission, he is known for 
being one of the Department's most talented leaders, respected 
both for his strong analytical skills and for his mentoring and 
motivational skills. An experienced negotiator, comfortable 
navigating relations with recalcitrant host governments, Mr. Lu 
will bring essential skills in negotiating between various 
factions in Albania to achieve democratization and adherence to 
the rule of law.
    Most recently, he served as Deputy Chief of Mission in New 
Delhi, India. Mr. Lu served also as Deputy Chief of Mission in 
Azerbaijan and Kyrgyzstan. His other overseas assignments have 
included tours in India, Georgia, and Pakistan.
    Finally, let me recognize Robert Sherman, the nominee for 
Ambassador to Portugal. Mr. Sherman is an attorney with 
Greenberg Traurig in Boston, MA. His wide-ranging trial and 
regulatory experience, focusing on government investigations 
and litigation, internal corporate investigations, as well as 
consumer protection and class action defense, will serve him 
well. Mr. Sherman has also served as the chief of Consumer 
Protection and special counsel to the Massachusetts attorney 
general during a very important stint in the public sector.
    He earned his B.A. from the University of Rochester and his 
J.D. from Boston University.
    Welcome to all three of you. We look forward to your 
testimony, and we will begin with Mr. Broas.

 STATEMENT OF TIMOTHY BROAS, OF MARYLAND, TO BE AMBASSADOR TO 
                 THE KINGDOM OF THE NETHERLANDS

    Mr. Broas. Mr. Chairman, Ranking Member Johnson, and 
distinguished members of the Senate Foreign Relations 
Committee, thank you for the privilege of appearing before you 
today. I am deeply grateful to President Obama and Secretary 
Kerry for their support and confidence in nominating me to be 
the U.S. Ambassador to the Kingdom of the Netherlands. If 
confirmed by the Senate, I pledge to devote all my energy to 
represent the United States to the best of my ability.
    If you will permit me, I would like to introduce my wife, 
Julie Broas, who is here with me today. Julie is an attorney in 
Washington, DC, with the Washington Legal Clinic for the 
Homeless. My three daughters, Emily, Allison, and Madeline, 
unfortunately cannot be here with me today, but I know they are 
here in spirit.
    Mr. Chairman and fellow Senators, as you well know, the 
United States long and fruitful relationship with the Kingdom 
of the Netherlands spans centuries and remains important today. 
In fact, the United Provinces of the Netherlands was the second 
nation officially to recognize the United States when the Dutch 
Government accepted the credentials of U.S. Minister John Adams 
on April 19, 1782.
    Through the years, the Netherlands has stood as one of our 
most reliable diplomatic partners. The Netherlands is a valued 
and highly capable NATO ally and a founding member of the 
alliance. Additionally, the Netherlands is a top economic and 
trade partner. Our nations share common values, and bilaterally 
through NATO and in partnership through the European Union, we 
promote open and prosperous societies. The United States also 
values and commends the Netherlands' steadfast and generous 
support to development programs.
    We value our alliance with the Netherlands and we commend 
its continuing commitment to develop and sustain its defense 
capabilities necessary for NATO missions, as evidenced yet 
again in its recent white paper on defense. The Dutch are 
active contributors to international security missions, 
including the NATO-led efforts in Afghanistan, the Balkans, and 
Libya. We are also thankful for the Netherlands' deployment of 
Patriot batteries, along with the United States and Germany, as 
part of a NATO effort to augment Turkey's air defenses earlier 
this year. This deployment gives confidence and demonstrates 
solidarity among NATO allies.
    The Netherlands is also firmly aligned with U.S. policy on 
Syria. It fully backs the United States-Russia framework to 
ensure Syria's chemical weapons are accounted for and 
destroyed. As host to the Organization for the Prohibition of 
Chemical Weapons, the Netherlands has announced it will provide 
the OPCW with important financial support to ensure Syria's 
commitments are fulfilled, thus preventing the Assad regime 
from using these weapons again. If confirmed, I will strive to 
maintain Dutch commitment to the nonproliferation of chemical 
weapons in the Syrian conflict.
    The Netherlands hosts the world's international tribunals 
that adjudicate and resolve the world's most complex and 
difficult legal conflicts. The Dutch tradition of supporting 
international justice is something I deeply admire and respect. 
Indeed, I had occasion as a lawyer to invoke the jurisdiction 
of the Iran-U.S. Claims Tribunal in The Hague as an attorney 
for an American client seeking to recover property and funds 
confiscated in 1979 by the Iranian regime.
    That same Iranian regime has not yet addressed the 
international community's serious concerns regarding its 
nuclear program. The international community has united to 
impose sanctions on the Iranian Government and the Netherlands 
and other European partners are crucial to this effort. If 
confirmed, I will work tirelessly to ensure that our Dutch 
allies remain shoulder to shoulder with us as we strive to hold 
Iran to its international obligations.
    With a population of approximately 17 million, the 
Netherlands is the third-largest foreign direct investor in the 
United States and our ninth-largest trading partner. From 2000 
through 2010, the Netherlands was the No. 1 destination in the 
world for U.S. direct investment, far ahead of Canada, Mexico, 
Singapore, and Japan. The Port of Rotterdam is Europe's largest 
port and the logical centerpiece of transatlantic economic 
commerce.
    If confirmed, I will work tirelessly to maintain and 
improve our strong economic and trade relations with the 
Netherlands, consistent with the administration's goals to 
increase exports and create new jobs, especially with the TTIP 
negotiations underway between the United States and the 
European Union. I am pleased the Netherlands supports 
concluding the TTIP. The agreement has the potential to create 
strong, new bonds between the United States and our European 
allies, while giving us a powerful tool to support an open, 
rules-based trading system to the benefit of a robust U.S. 
economy.
    The Dutch are justifiably renowned for their open and 
tolerant society. We share deep, longstanding values. We 
cooperate to combat terror and to prevent violent extremism. 
The Dutch know firsthand that we must never lower our vigilance 
against the grave threat of terrorism and that we must work 
with at-risk populations to ensure that young people do not 
become alienated and susceptible to radicalism. If confirmed, I 
will use the Embassy's resources to reach out to key 
populations in the Netherlands along these lines.
    In all of these endeavors, it will be essential to 
communicate our policies and interests not only to the Dutch 
Government but to leaders in civil society among youth, 
academia, entrepreneurs, and media. I will oversee a public 
outreach strategy to engage television, print, and online 
media, host cultural events with American artists, students, 
athletes, and performers, and cast a wide, inclusive net for 
participants for our professional and academic challenges.
    Mr. Chairman, I have spent over 30 years representing 
clients in a wide variety of complex criminal and civil 
disputes. While some involved only money, others involved my 
clients' liberty and freedom and their livelihoods. I have 
managed teams of lawyers, clients, and consultants on cases 
both large and small, all with the goal of reaching the most 
favorable resolution for my client. Along the way, I have 
encountered legal, factual, and managerial minefields of every 
possible type. In all these cases, I was called upon to make 
critical decisions and manage diverse personalities and points 
of view. If confirmed, I will draw upon this experience when I 
assume leadership of our team at the Embassy in The Hague and 
the consulate in Amsterdam.
    Let me say also that I am particularly looking forward to 
collaborating with our locally employed staff in the 
Netherlands. Local employees are the backbone of any diplomatic 
mission, and I will engage them to ensure that they have a 
voice in shaping and promoting U.S. foreign policy in the 
Netherlands so they know that they are a key component to our 
bilateral relationship. With their support and engagement, our 
success as a mission is greatly enhanced.
    Thank you for your time. I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Broas follows:]

                  Prepared Statement of Timothy Broas

    Mr. Chairman, Ranking Member Johnson, and distinguished Members of 
the Senate Foreign Relations Committee, thank you for the privilege of 
appearing before you today. I am deeply grateful to President Obama and 
Secretary Kerry for their support and confidence in nominating me to be 
U.S. Ambassador to the Kingdom of the Netherlands. If confirmed by the 
Senate, I pledge to devote all my energy to represent the United States 
to the best of my ability.
    First, if you will permit me, I would like to introduce my wife, 
Julie Broas, who is here with me today. My wife, Julie, is an attorney 
in Washington, DC, with the Washington Legal Clinic for the Homeless. 
My three daughters, Emily, Allison, and Madeline, unfortunately cannot 
be here with me today, but I know they are supporting me in spirit 
today.
    Mr. Chairman and fellow Senators, as you well know, the United 
States long and fruitful relationship with the Kingdom of the 
Netherlands spans centuries that remains important today. In fact, the 
United Provinces of the Netherlands was the second nation officially to 
recognize the United States when the Dutch Government accepted the 
credentials of U.S. Minister John Adams on April 19, 1782.
    Through the years, the Netherlands has stood as one of our most 
reliable diplomatic partners. The Netherlands is a valued and highly 
capable NATO ally, and a founding member of the alliance. Additionally, 
the Netherlands is a top economic and trade partner. Our nations share 
common values, and bilaterally, through NATO, and in partnership 
through the European Union, we promote open and prosperous societies, 
encouraging we promote open and prosperous societies. The United States 
also values and commends the Netherlands' steadfast and generous 
support to development programs.
    We value our alliance with the Netherlands, and we commend its 
continuing commitment to develop and sustain its defense capabilities 
necessary for NATO missions, as evidenced yet again in its recent White 
Paper. The Dutch are active contributors to international security 
missions, including the NATO-led efforts in Afghanistan, the Balkans, 
and Libya. We are also thankful for the Netherlands' deployment of 
Patriot batteries--along with the United State and Germany as part of a 
NATO effort--to augment Turkey's air defenses earlier this year. This 
deployment gives confidence and demonstrates solidarity among NATO 
allies.
    The Netherlands is also firmly aligned with U.S. policy on Syria, 
and it fully backs the U.S.-Russia Framework to ensure Syria's chemical 
weapons are accounted for and destroyed. As host to the Organization 
for the Prohibition of Chemical Weapons (OPCW), the Netherlands has 
announced it will provide the OPCW with important financial support to 
ensure Syria's commitments are fulfilled, thus preventing the Assad 
regime from using these weapons again. If confirmed, I will strive to 
maintain Dutch commitment to the nonproliferation of chemical weapons 
in the Syrian conflict.
    The Netherlands hosts the world's international tribunals that 
adjudicate and 
resolve the world's most complex and difficult legal conflicts. The 
Dutch tradition of supporting international justice is something I 
deeply admire and respect. Indeed, I had occasion to invoke the 
jurisdiction of the Iran-U.S. Claims Tribunal in The Hague as an 
attorney on behalf of American clients seeking to recover property and 
funds confiscated in 1979 by the Iranian regime. That same Iranian 
regime has not yet addressed the international community's serious 
concerns regarding its nuclear program. The international community has 
united to impose sanctions on the Iranian Government, and the 
Netherlands and other European partners are crucial to this effort. If 
confirmed, I will work tirelessly to ensure that our Dutch allies 
remain shoulder to shoulder with us as we strive to hold Iran to its 
international obligations.
    Our longstanding relationship with the Netherlands is based on 
trust, confidence, and shared values that transcend traditional 
security, economic, and diplomatic ties. The United States works 
together with the Netherlands through military cooperation and 
development aid to promote security, justice, and economic development 
throughout the world. I might add that the Netherlands is one of the 
world's most generous development aid donor nations and a robust 
contributor of humanitarian assistance in response to the many crises 
that we see today.
    With a population of approximately 17 million, the Netherlands is 
the third-largest foreign direct investor in the United States and our 
ninth-largest trading partner. From 2000 through 2010, the Netherlands 
was the number one destination in the world for U.S direct investment, 
far ahead of Canada, Mexico, Singapore, and Japan. The Port of 
Rotterdam is Europe's largest and a logistical centerpiece of 
transatlantic economic commerce. If I am confirmed, I will work 
tirelessly to maintain and improve our strong economic and trade 
relations with the Netherlands, consistent with the administration's 
goals to increase exports and create new jobs, especially with the 
Transatlantic Trade and Investment Partnership (T-TIP) negotiations 
underway between the United States and the European Union. I am pleased 
that the Netherlands supports concluding the T-TIP. The agreement has 
the potential to create strong new bonds between the United States and 
our European allies, while giving us a powerful tool to support an 
open, rules-based trading system to the benefit of a robust U.S. 
economy.
    The Dutch are justifiably renowned for their open and tolerant 
society. We share deep, longstanding values. We cooperate to combat 
terror and to prevent violent extremism. The Dutch know first-hand that 
we must never lower our vigilance against the grave threat of terrorism 
and that we must work with at-risk populations to ensure young people 
do not become alienated and susceptible to radicalism. If I am 
confirmed, I will use the Embassy's resources to reach out to key 
populations in the Netherlands along these lines.
    The United States and the Netherlands also share a strong 
commitment to the political and economic participation of women. The 
Netherlands is a partner in the Presidential Challenge on Women's 
Political and Economic Participation. If confirmed, I pledge to advance 
our collaboration with the Netherlands to promote women in politics and 
business.
    Additionally, the United States and the Netherlands share an 
important commitment to green energy. If confirmed, I will build on the 
close cooperation our Embassy has forged with the Netherlands on 
alternative energy and environmental sustainability.
    In all of these endeavors, it will be essential to communicate our 
policies and interests not only to the Dutch Government, but to leaders 
in civil society, among youth, academia, entrepreneurs, and media. I 
will oversee a public outreach strategy to engage television, print, 
and online media; host cultural events with American artists and 
performers; and cast a wide, inclusive net for participants for our 
professional and academic exchange programs.
    Mr. Chairman, I have spent over 30 years representing clients in a 
wide variety of complex criminal and civil disputes. While some 
involved only money, in sums small and large, others involved my 
clients' liberty and freedom and often their livelihoods. I have 
managed teams of lawyers, clients, and consultants on cases both large 
and small--all with the goal of reaching the most favorable result for 
my client. Along the way I have encountered legal and factual and 
managerial minefields of every possible type, some predictable and 
others from out of nowhere. In all of these cases, I was called upon to 
make critical decisions and manage diverse personalities and points of 
view. If I am confirmed, I will draw upon this management leadership 
and experience when I assume leadership of the team at our Embassy in 
The Hague and Consulate General in Amsterdam.
    Let me say that I am particularly looking forward to collaborating 
with our locally employed staff in the Netherlands. Local employees are 
the backbone of any diplomatic mission, and I will engage them to 
ensure they have a voice in shaping and promoting U.S. foreign policy 
in the Netherlands so they know they are a key component to our 
bilateral relationship. With their support and engagement, our success 
as a mission is greatly enhanced.
    I also have had the pleasure of serving as a board member on a 
number of nonprofit institutions, including Partners in Health and the 
Woodrow Wilson International Center for Scholars. If confirmed, I will 
draw upon these experiences in my work in the Netherlands, which is 
such an important partner in promoting democracy, human rights, 
developmental aid, and economic growth around the world. The 
Netherlands understands, as does the United States, that military and 
diplomatic efforts are not the only tools for combating instability; 
development plays a very important role. If confirmed, I pledge to 
advance United States-Dutch cooperation on democratic development, from 
Belarus and Ukraine, to the Middle East and North Africa.
    Let me close with a personal story. I am one of nine children born 
to the late William Broas and Anita St. Germain. My only regret here 
today is that my parents are not here to see their son appear before 
your committee to seek confirmation as an ambassador. They would have 
been very proud. My father, fittingly of Dutch descent, served 
honorably in the Marines in the Pacific theatre during World War II. My 
mother lived in Paris, France, until her father, confronted like all 
French citizens by the Nazi invasion and occupation of France, put 
her--along with her mother and her siblings--on a small boat to New 
York. She eventually met my father after the war, and one of the many 
things that bound them together was a profound love for the freedom 
they found in the United States. The experiences of my parents and the 
love they felt for this country left a lasting impression on me. I 
always believed that, if I ever had the chance to serve our country, I 
would do so whenever the call came. When President Obama asked me to be 
our next Ambassador to the Netherlands, the country of my father's 
ancestors, I could almost hear my parents echoing my affirmative reply. 
If I am confirmed, I will be guided at all times by the pride and love 
of country that my parents instilled in me from a young age.

    Senator Murphy. Thank you, Mr. Broas.
    Mr. Lu.

STATEMENT OF DONALD LU, OF CALIFORNIA, TO BE AMBASSADOR TO THE 
                      REPUBLIC OF ALBANIA

    Mr. Lu. Mr. Chairman, Ranking Member Johnson, Senator 
Kaine, it is an honor for me to be with you today as President 
Obama's nominee to be Ambassador to Albania. I want to express 
my gratitude to the President and to the Secretary of State for 
the confidence that they have placed in me. If confirmed, I 
pledge to work closely with the U.S. Congress and with this 
committee to advance our Nation's interests in Albania.
    With your permission, I would like to introduce members of 
my family who have joined me here today. My wife, Dr. Ariel 
Ahart, has been my constant companion through all of our 
travels around the world. She is a distinguished public health 
specialist, having most recently worked for the U.S. Centers 
for Disease Control. My son, Kip, is a Boy Scout, and he is an 
enthusiastic flag football player. And my daughter, Aliya, is 
in the third grade and she is the resident artist of our 
family. All of us are thrilled to be with you today.
    Senators, I am the son of an immigrant to the United 
States, and so I am particularly blessed to have had the 
opportunity to serve my country in the U.S. Foreign Service and 
in the Peace Corps. Whether digging latrines in West Africa or 
witnessing revolution in Central Asia, I have learned the value 
of U.S. leadership overseas. For most of my 22 years in the 
State Department, I have worked on the emerging democracies of 
the former Soviet Union and of Eastern Europe.
    Albania is one of those emerging democracies, but it is 
also an enduring ally of the United States. Today Albanian 
soldiers are serving side by side with American soldiers in 
Afghanistan in combat roles in dangerous places like Kandahar. 
As one of NATO's newest members, Albania is a steadfast 
supporter of peace and security with significant deployments to 
Afghanistan, along with deployments to U.S. and EU-led 
operations in Bosnia, Iraq, and Chad. For a country of only 3 
million people, Albania certainly punches above its weight.
    If confirmed, I will lead our Embassy's ongoing efforts to 
advance three key priorities.
    First, the further development of democratic institutions 
and society: Albania's June parliamentary elections were the 
best conducted in their country's history, leading to a 
peaceful transition of power between one ruling coalition to 
another. But, of course, democracy is more than just elections. 
We should encourage bold leadership on combating organized 
crime, human trafficking, and corruption. The United States 
must continue to support the growing voice of civil society, 
the protection of minority rights, judicial independence and 
accountability. A key driver of these reforms will be Albania's 
aspiration for EU membership. The United States and the EU are 
a community of shared values. We endorse Albania's goal at 
every level for EU accession.
    Second, support for Albania's increasing participation in 
NATO, U.S., and EU-led stability missions: In preparation for 
Albania's participation in Operation Iraqi Freedom and 
Operation Enduring Freedom, the U.S. military worked 
intensively to build the skills of the Albanian military. As 
NATO's role in Afghanistan changes, we must continue to develop 
the capacity of our Albanian NATO ally to be an effective, 
long-term partner in supporting stability in Europe and beyond. 
At the same time, we need to help Albania grapple with 
corruption and accountability within its military to ensure it 
can meet the highest standards of the NATO alliance.
    Third, the promotion of U.S.-Albanian economic ties: The 
Albanian economy has grown impressively over the past 20 years, 
but like many of our allies, it has stagnated over the last 
couple of years. Two things stand the best chance of getting 
Albania's economy back on its feet. The first is Albania 
undertaking key economic reforms to create a more stable 
business climate, and second, the strengthening of the economic 
partnerships between Albania and Europe and Albania and the 
United States. The growing engagement of U.S. exporters and 
investors in Albania is not only benefiting Albania, it is 
benefiting the United States in terms of jobs, in terms of our 
outreach to the world. And we are able to share our values of 
transparency, entrepreneurship, and innovation.
    Finally, if confirmed, I will take seriously my role as 
Chief of Mission to manage and safeguard our most precious 
resource, our people, our infrastructure, and the strong 
reputation of the United States abroad. Senators, in a world of 
constant peril and uncertainty, the United States needs 
stalwart allies like Albania.
    Thank you very much.
    [The prepared statement of Mr. Lu follows:]

                    Prepared Statement of Donald Lu

    Mr. Chairman, Mr. Ranking Minority Member Johnson, and members of 
the committee, I am honored to appear here today as President Obama's 
nominee to be the next Ambassador to Albania. I am grateful to the 
President and Secretary Kerry for the confidence they have placed in 
me. I thank you for the opportunity to appear today and, if confirmed, 
I pledge to work closely with the Congress to advance our Nation's 
interests in Albania.
    If you would allow me, I would like to introduce my family joining 
me today. My wife, Dr. Ariel Ahart, is my constant companion on our 
adventures overseas, but also a distinguished public health specialist, 
having most recently worked for the U.S. Centers for Disease Control. 
My son, Kip, is a Boy Scout and an enthusiastic flag football player. 
And my daughter, Aliya, who is in the third grade is the artist of our 
family. We are all looking forward to this next adventure.
    As the son of an immigrant to America, I am particularly blessed to 
have had the opportunity to serve in the U.S. Foreign Service and the 
Peace Corps. Whether it was digging latrines in West Africa or 
witnessing revolution in Central Asia, I have learned the importance of 
American leadership in the world. For most of my 22 years in the State 
Department I have worked on the emerging democracies of Eastern Europe 
and the former Soviet Union.
    Albania is one of those emerging democracies, but it is also an 
enduring ally and partner of the United States. Albanian soldiers are 
today conducting combat missions side by side with American troops in 
dangerous places like Kandahar. As one of NATO's newest members, 
Albania has been a steadfast supporter of peace and security with 
significant deployments to Afghanistan, along with deployments to U.S. 
and EU-led operations in Bosnia, Iraq and Chad. For a country of only 3 
million people, Albania punches above its weight.
    Since President Woodrow Wilson's defense of Albanian statehood 
after World War I, up to our strong endorsement of its NATO accession 
in 2009, the United States has played an important role in helping 
Albanians to shape their country's democracy, stability, and 
independence. And today we strongly support Albania's efforts to join 
the European Union. If confirmed, I will lead our Embassy's ongoing 
efforts to advance three key priorities.
    First, the further development of democratic institutions and 
society. Albania's June parliamentary elections were the best conducted 
in the country's history, leading to a peaceful transition of power 
from one ruling coalition to another. Of course, true democracy is more 
than just elections. We should encourage bold leadership to combat 
organized crime, human trafficking, and corruption. The United States 
must continue to support the growing voice of civil society, the 
protection of minority rights, and judicial independence and 
accountability. A key driver of these reforms is Albania's aspiration 
for EU membership. The United States and the EU are a community of 
shared values, and we endorse Albania's goal at every level. The 
reforms that will be accomplished on the path of EU accession will 
irreversibly transform the standards and opportunities for all the 
people of Albania.
    Second, support for Albania's increasing participation in NATO, EU, 
and U.S.-led stability missions. In preparation for Albania's 
participation in Operation Iraqi Freedom and Operation Enduring 
Freedom, the U.S. military worked intensively to build the skills of 
the Albanian military. As NATO's role in Afghanistan changes and 
Western Balkans countries evolve beyond their past conflicts, we must 
continue to develop the capacity of the Albanian Armed Forces to be an 
effective long-term partner in supporting stability in Europe and 
beyond. At the same time, we need to help Albania grapple with 
corruption and accountability within its military to ensure it can meet 
the highest standards of the NATO alliance.
    Third, the promotion of U.S.-Albanian economic ties. The Albanian 
economy has grown impressively over the past 20 years, but has 
stagnated in recent years. Two things stand the best chance of getting 
the Albanian economy back on its feet--pursuit of key economic reforms 
to create a more stable business and investment climate, and the 
strengthening of its economic partnerships with Europe and the United 
States. The growing engagement by U.S. exporters and investors in 
Albania is not only benefiting Americans, but also sharing our values 
of transparency, entrepreneurship, and innovation.
    Finally, if confirmed, I will take seriously my role as Chief of 
Mission to manage and safeguard our precious resources--our people, our 
infrastructure, and the strong reputation of the United States abroad. 
I will work to ensure that they are protected and that American 
interests are advanced.
    If confirmed, I will devote my energies to work for the American 
people to build strong bonds with the government and people of Albania. 
In a world of constant peril and uncertainty, the United States needs 
stalwart allies like Albania.

    Senator Murphy. Thank you, Mr. Lu.
    Mr. Sherman.

    STATEMENT OF ROBERT A. SHERMAN, OF MASSACHUSETTS, TO BE 
             AMBASSADOR TO THE PORTUGUESE REPUBLIC

    Mr. Sherman. Thank you, Mr. Chairman, Ranking Member 
Johnson, Senator Kaine. It is an honor to appear before you as 
President Obama's nominee to serve as Ambassador to the 
Portuguese Republic. I am humbled by the confidence the 
President and Secretary Kerry have placed in me. If confirmed, 
I pledge to work closely with the President, the Secretary, and 
Congress to advance our Nation's interests in Portugal and to 
promote cooperation on issues of mutual concern.
    Please permit me to introduce my wife, Kim Sawyer. Kim is 
not only my better half but she is a lawyer, an entrepreneur, 
and the president of a small financial services company in 
Boston. I have no doubt that Kim will also be a tremendous 
asset in Portugal.
    My two adult children, Matt and Stephanie, unfortunately 
are unable to be here. Matt is vice president of a real 
investment fund and is an MBA student at Emory University. 
Stephanie, who will be married next month, works with autistic 
and special needs children in the Newton, MA, public schools.
    I sit before you today as a first generation American. My 
parents were both Russian immigrants who came to this country 
with nothing. They settled in Brockton, MA. Brockton is located 
near one of the largest Portuguese communities in the United 
States. Growing up, these immigrants from the Azores were my 
neighbors and my friends. I quickly learned about their values. 
The Portuguese are hardworking, tolerant, devoted to family, 
freedom and honor, and so very proud of their heritage. These 
are the same values I was taught by my parents and have passed 
on to my children. They are American values and they are what 
makes this country strong.
    But America has more than just a commonality of values with 
the Portuguese. Portugal has been a longstanding and staunch 
ally of the United States, and that relationship goes back to 
the founding of our Republic when Pedro Francisco fought in 
General Washington's army and became a Revolutionary War hero. 
Portugal was also one of the first countries to recognize the 
United States after our independence. It was an original member 
of NATO and a strong partner while serving on the U.N. Security 
Council. Portugal has supported almost every NATO-led security 
operation over the last 2 decades, including in the Balkans and 
in Afghanistan. The relationship with the United States is a 
prominent element of Portugal's foreign policy. The United 
States values its alliance with Portugal, and I look forward to 
our continuing cooperation on global peace and security.
    The U.S. military has also maintained a presence at Lajes 
Air Field in the Azores since the 1940s, and the Azoreans have 
welcomed our service men and women into their community. I 
would like to express my heartfelt gratitude for their 
hospitality. I am aware of the difficulties the United States 
Air Force downsizing presents to Portugal and the Azores, and I 
pledge to continue our ongoing efforts to help mitigate the 
economic impact.
    These are not easy times for the Portuguese people. 
Portugal is in the midst of an economic crisis that has 
resulted in unemployment close to 17 percent and youth 
unemployment more than double that number. The Portuguese 
Government has done its utmost to implement fiscal reforms. I 
commend the Portuguese for their continuing sacrifice and their 
commitment to finding a path back to economic security.
    The United States also has a role to play there. If 
confirmed, one of my priorities will be to strengthen our 
economic relationship with Portugal, fostering U.S. job growth 
while simultaneously benefiting the Portuguese economy. I will 
work to increase trade, promote bilateral investments, and 
enlist Portuguese and U.S. businesses to empower innovation, 
technology, and entrepreneurship.
    One major initiative is already underway that will directly 
impact this priority. The Transatlantic Trade and Investment 
Partnership, or TTIP, presents an opportunity to expand our 
trade relationship with Portugal while spurring economic growth 
on both sides of the Atlantic. TTIP has the potential to 
significantly increase more than 13 million U.S. and European 
jobs currently supported by trade and to strengthen our 
economic alliance with Portugal.
    Finally, I want to acknowledge how the Portuguese community 
has enriched American culture, from Emma Lazarus' sonnet, which 
is engraved on the pedestal of the Statue of Liberty, to the 
iconic music of John Phillip Souza, to the everyday 
contributions of approximately 1.5 million Portuguese Americans 
in business, politics, education, and the arts.
    Mr. Chairman, Ranking Member Johnson, Senator Kaine, thank 
you for considering my nomination. I am happy to answer any 
questions you have.
    [The prepared statement of Mr. Sherman follows:]

                Prepared Statement of Robert A. Sherman

    Thank you Mr. Chairman, Senator Johnson, and distinguished 
committee members. It is an honor to appear before you as President 
Obama's nominee to serve as Ambassador to the Portuguese Republic. I am 
humbled by the confidence the President and Secretary Kerry have placed 
in me. If confirmed, I pledge to work closely with the President, the 
Secretary, and Congress to advance our Nation's interests in Portugal, 
and to promote cooperation on issues of mutual concern.
    Please permit me to introduce my wife, Kim Sawyer. Kim is not only 
my better half, but is a lawyer, an entrepreneur, and the president of 
a small financial services company in Boston. I have no doubt that Kim 
will also be a tremendous asset in Portugal.
    My two children--Matt, age 29, and Stephanie, age 27--unfortunately 
are unable to be here. Matt is vice president of a real estate 
investment fund and is an MBA student at Emory University. Stephanie, 
who will be married next month, works with autistic and special needs 
children in the Newton, MA, public schools.
    I sit before you today, as a first generation American. My parents 
were both Russian immigrants who came to this country with nothing. 
They settled in Brockton MA, the hometown of Rocky Marciano. Brockton 
is located near one of the largest Portuguese communities in the United 
States. Growing up, these immigrants from the Azores were my neighbors 
and classmates, and I quickly learned about their values. The 
Portuguese are hardworking, tolerant, devoted to family, freedom, and 
honor; and so very proud of their heritage. These are the same values I 
was taught by my parents and have passed on to my own children. They 
are the values that make this country strong.
    America has more than just a commonality of values with the 
Portuguese. Portugal has been a longstanding and staunch ally of the 
United States. That relationship goes back to the founding of our 
Republic when Pedro Francisco fought in General Washington's army and 
became a Revolutionary War hero. Portugal was also one of the first 
countries to recognize the United States after our independence. It was 
an original member of NATO, and a strong partner while serving on the 
U.N. Security Council. Portugal has supported almost every U.S.-led 
security operation over the last two decades, including in the Balkans, 
Iraq, and Afghanistan. The relationship with the United States is a 
prominent element of Portugal's foreign policy. The United States 
values its alliance with Portugal, and I look forward to our continuing 
cooperation on global peace and security.
    The U.S. military has maintained a presence at Lajes Air Field, in 
the Azores, since the 1940s, and Azoreans have welcomed our service men 
and women into their community. I would like to express my heartfelt 
gratitude for their hospitality. I am aware of the difficulties the 
U.S. Air Force downsizing presents to Portugal and the Azores, and I 
pledge to continue our ongoing efforts to help mitigate the economic 
impact.
    These are not easy times for the Portuguese people. Portugal is in 
the midst of an economic crisis that has resulted in unemployment close 
to 17 percent and youth unemployment double that number. The Portuguese 
Government has done its utmost to implement fiscal reforms. I commend 
the Portuguese for their continuing sacrifice and their commitment to 
finding a path back to economic prosperity.
    The United States has a role to play here. If confirmed, one of my 
priorities will be to strengthen our economic relationship with 
Portugal, fostering U.S. job growth while simultaneously benefiting the 
Portuguese economy. I will work to increase trade, promote bilateral 
investments, and enlist Portuguese and U.S. businesses to empower 
innovation, technology, and entrepreneurship.
    One major initiative is already underway and will directly impact 
this priority. The Transatlantic Trade and Investment Partnership, or 
TTIP, presents an opportunity to expand our trade relationship with 
Portugal while spurring economic growth on both sides of the Atlantic. 
TTIP has the potential to significantly increase the more than 13 
million U.S. and European jobs currently supported by transatlantic 
trade and investment and to strengthen our economic alliance with 
Portugal. As important, TTIP will create strong new bonds between the 
United States and our European allies, while giving us a powerful tool 
to support an open, rules-based trading system to the benefit of a 
robust U.S. economy.
    Finally, I want to acknowledge how the Portuguese community has 
enriched American culture--from Emma Lazarus's sonnet, which is 
engraved on the pedestal of the Statue of Liberty, to the iconic music 
of John Phillips Souza, to the everyday contributions of approximately 
1.5 million Portuguese-Americans in business, politics, education, and 
the arts.

    Senator Murphy. Thank you very much, Mr. Sherman. Thank you 
all for your testimony.
    We will begin a round of 7-minute questions. I will begin 
and maybe pose a couple questions on the subject of energy 
policy to both Mr. Broas and Mr. Lu, very different questions.
    But, Mr. Broas, you and I, when we spoke, talked a little 
bit about the fact that according to some reports, natural gas 
resources in the Netherlands are significantly declining and 
they actually may be a net energy importer by 2025. One of the 
concerns I shared with you is that what I have heard in my 
brief time chairing this subcommittee, is a great interest 
across Europe and into the Eastern Partnership area of the 
continent for the United States to open up LNG exports and open 
up gas exports into Europe. And I worry that we could get into 
a sort of free rider phenomenon in which European nations are 
reluctant to do fracking because of environmental concerns that 
they may have and would be more than happy for the United 
States to essentially supply them resources.
    What do you foresee is the future of energy policy in the 
Netherlands? How might U.S. gas resources play into that 
future? And what is your understanding of the discussion that 
is happening right now in the Netherlands around this issue of 
fracking. As you and I have, of course, discussed, there are 
some particular water table issues in the Netherlands, which 
make that a little bit more problematic. But talk a little bit 
about that issue with respect to the country to which you will 
hopefully soon be our Ambassador.
    Mr. Broas. Thank you, Senator. And yes, we did have a good 
discussion about that.
    Based upon information that I have received in my briefings 
at the State Department and what I have read, there is, in 
fact, projected to be a declining amount of domestic produced 
gas in the Netherlands, and they are projecting that by 2025, 
they will become a net importer for the first time in recent 
history. So the country is already thinking about what it is 
going to do and where it is going to obtain energy from, and 
they have expressed, according to information I have received, 
an interest in importing gas from the United States should the 
United States ever decide to export LNG.
    But in terms of environmental concerns, yes, they do have 
concerns about the environmental effects of fracking, like many 
European countries do, like many people here do. I have not 
heard anything to indicate that there is going to be any kind 
of free rider problem with the Netherlands. They are, as you 
know, one of our staunchest trading partners and a very, very 
strong economic partner of ours. They will, obviously, be 
spending a lot of time dealing with the fracking issue to the 
extent they have any shale deposits, and I am told that they 
do.
    And they also have, as you said, environmental concerns 
about the situation that their country geographically is 
located in. They are, as you know, a very fragile country, 
supported in many sections of the country by a very unique and 
very complicated system of dikes and polders. And so any kind 
of fracking or drilling for shale is going to be complicated 
and will have to accommodate all of those concerns.
    But if confirmed as Ambassador, obviously I will work with 
them to explore opportunities for them to deal with their 
energy needs, whether it is from the United States or 
elsewhere, and also to address whatever environmental concerns 
they have domestically.
    Senator Murphy. Mr. Lu, you have spent your career thinking 
about energy policy, in part because of the countries that you 
have been posted to. A consortium of international energy 
investors just recently announced the new pathway for the 
Trans-Adriatic Pipeline which is going across, I think, through 
Albania. There is also a proposal for a new Adriatic-Ionian 
pipeline that will go from Albania to Croatia. I know you are 
not there yet. So it is difficult to answer these questions in 
detail.
    But can you talk a little bit about the energy future in 
Albania and potentially what the Trans-Adriatic Pipeline and 
perhaps this new pipeline that is being discussed--what kind of 
impact that will have on Albania's energy future?
    Mr. Lu. Senator Murphy, thank you. It is a very important 
question for the region and for the globe.
    As you mentioned, I had served earlier in Azerbaijan from 
where this gas is actually coming, and it is exciting for me to 
think about the negotiations that we had years ago when I was 
No. 2 there and then Charge d'Affaires for a while actually 
coming full circle and seeing some of these countries actually 
on track to get the benefits of the gas coming out of the 
Caspian.
    As I mentioned, it is important not only for the region, 
for Europe and Europe's energy security that this southern 
corridor gas will reach markets soon, it is important for the 
United States and for the globe because the more countries that 
have access to diverse supplies of energy, the better the free 
market works, the better consumers are able to make decisions 
about what they buy and at what price. And that is good for the 
United States and it is good for the rest of the countries of 
Europe.
    Albania stands to gain greatly by the Trans-Adriatic 
Pipeline. In particular, it will be, if all estimates are 
right, the largest single investment ever into Albania, $1.2 
billion to $2 billion. It is on track to generate 10,000 jobs 
for Albania. But more important than either of those things, it 
will knit Albania together with the countries of Europe in a 
way that is enduring, that will make their security part of the 
security of its neighbors.
    Senator Murphy. Thank you.
    A quick question on the first round to you, Mr. Sherman. 
One of the things we talked about and you talked about in your 
testimony is the U.S. plans to draw down at Lajes. And you 
reference the fact that one of your missions as Ambassador will 
be to try to look at steps that might mitigate the economic 
impact. Clearly, this is a big issue in Portugal today, in 
large part because they are just having a tough time digging 
themselves up out of the hole, even as the eurozone at large 
begins to stabilize.
    Have you thought yet or do you know whether there are 
discussions underway today at the Embassy or the State 
Department as to what some of those steps might be to try to 
mitigate the impact of our reduced presence at Lajes?
    Mr. Sherman. Thank you for that question.
    I do know that there are--first and foremost, the 
relationship that we have with the Portuguese is, as I said in 
my testimony, a strong and longstanding relationship. We are 
not leaving Lajes Air Force Base as you referenced. We are 
reducing the size of our force. That is part of the right 
sizing of American forces that is going on throughout Europe. 
We understand that America needs to respond quickly and nimbly 
to the asymmetrical threats that exist in this world, and the 
Department of Defense has concluded that downsizing in Lajes is 
appropriate. Congress is involved with the Department of 
Defense on that issue.
    As part of these efforts, we are also looking at ways to 
mitigate the economic impact. Some of the things that we have 
done, we are looking to promote investment in the Azores, 
additional trade in the Azores, cultural exchanges, educational 
exchanges. There are opportunities in the tourism industry to 
help mitigate the effects.
    We are also bringing officials from the Azores to the 
United States to view places in the United States where bases 
have been either drawn down or closed and see how those 
communities have managed to recover from the economic impacts 
there.
    There is a standing United States-Portuguese bilateral 
commission where we are talking about these various issues. It 
is an important aspect and we are committed to assisting the 
Portuguese with these efforts.
    Senator Murphy. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Let me just kind of go right down the list of the nominees. 
Could you just describe to me what you--because everybody is 
talking about one of the primary goals is strengthening 
economic ties. What is the greatest opportunity to strengthen 
those ties between our nations?
    Mr. Broas.
    Mr. Broas. Senator Johnson, thank you for the question.
    As I said in my opening statement, we already have a very, 
very strong economic relationship with the Dutch. They are the 
third-largest investor in our country. For a country of 17 
million, it is pretty extraordinary. And we are the largest 
investor in the Netherlands.
    But as Ambassador, if I am confirmed, I intend to 
strengthen it even more. The Dutch, as you know, are notorious 
free traders and they are very excited about the opportunities 
that TTIP will bring to their country, to the EU, and to the 
United States. I will do everything in my power as an 
ambassador to work with the local Dutch community, the Dutch 
companies and private enterprise, as well as, obviously, the 
Dutch Government, and with the American companies through the 
American Chamber of Commerce to promote trade and increase 
trade between the two countries. These two countries have spent 
centuries trading with each other and have found favorable 
environments in each other's countries for trade, for business, 
for commerce, and for creating jobs.
    There are many ways that we can do that, again by engaging 
the American Chamber of Commerce and engaging the Dutch 
companies. I can also use public diplomacy to increase the 
exposure of American investment in the Netherlands and vice 
versa.
    Going back to Senator Murphy's question, I think on energy 
policy we can also work closely with the Dutch to increase 
trade in the energy field.
    So I think there are many opportunities, Senator, for us to 
even increase this trade relationship even more than it already 
is.
    Senator Johnson. Is the large trade relationship already--
is it in financial services? I mean, do you know the particular 
economic activity it is in?
    Mr. Broas. It is a variety of industries. It includes 
financial services. It includes manufacturing, lots of 
manufacturing. In fact, I would say that it is mostly 
manufacturing. It includes energy. There are a number of 
insurance companies that are Dutch that do a lot of business 
here in the United States. So it is a pretty broad spectrum of 
companies. There are lots of food companies. You have heard of 
companies like Philips. You have heard Shell, Heineken. Many, 
many different companies that do business here in the United 
States and around the world are based in the Netherlands.
    Senator Johnson. Mr. Lu.
    Mr. Lu. Senator, thank you very much.
    When I started to learn about Albania, I was amazed to 
learn that if you look at Albania's total trade picture, the 
United States represents less than 1 percent of Albania's 
trade. And yet, Albania is a very strong supporter of the 
United States. They are a NATO ally. There is a lot of affinity 
between our peoples. We have a very strong, robust, and proud 
Albanian American community in this country. Why should we have 
such a small trade relationship?
    I think part of the answer lies in the business environment 
in Albania. It is tough to do business there. We have had 
American businesses go there and sometimes not have the best 
experience.
    I am committed, if confirmed, to work in support of the 
efforts of the Albanian Government and people to fix that, to 
increase transparency for investors and for traders, to work on 
contract sanctity for business people, to create predictability 
for our business people who go there, and again in part because 
I think not only can we make money as Americans, we have 
something important to share with people who are opening up 
their markets to the world.
    Senator Johnson. So right now you are saying that Albania 
represents pretty high risk investment scenarios. Is there a 
particular product or service area that might present a good 
opportunity, though?
    Mr. Lu. Albania has two main industries. One is 
agriculture, and we are a bread basket to the world. Not only 
can we export agricultural products in great amounts, we can 
also share some of our best practices of how we grow so 
effectively food in our country.
    Second is minerals and oil and gas, again a place where 
Americans have real competitive advantage and we have top-level 
technologies.
    So I think given the chance, we can be very effective 
there.
    Senator Johnson. So areas like oil service and that type of 
thing.
    Mr. Lu. Absolutely.
    Senator Johnson. Mr. Sherman.
    Mr. Sherman. Senator, I think there are two areas. The 
first starts with TTIP. Obviously, the TTIP negotiations are 
very important and they are important to Portugal. One of the 
reasons they are important is by eliminating barriers for small 
businesses, that will benefit Portugal where over 90 percent of 
the business is small business. So allowing small business to 
get their goods to market in both directions will help 
significantly.
    Second, Portugal is looking to move to a more innovative 
and technologically advanced economy. They are more of an 
agricultural economy right now. And drawing on my own 
experience in Massachusetts with the large Portuguese community 
that exists in Massachusetts, already I have received 
expressions of interest to help in this area from the Azorean 
and Portuguese business communities, from academic 
institutions. MIT, as an example, in Massachusetts already has 
a program with Portugal, and we can look to expand on those 
kinds of initiatives.
    The Tech sector, innovation labs, entrepreneurship, those 
are all American tools that we can use to bring into Portugal 
and help deal with not only the problems the country is facing 
but specifically the problem of youth unemployment. Portugal is 
undergoing right now a brain drain. Its youth unemployment is 
so high that it is risking a lost generation where Portuguese 
youth graduate universities and they will leave for other parts 
of Europe or for the Lusophone countries around the world. So 
they are going to be interested in that kind of initiative, and 
I can draw on my private sector experience with these 
businesses, my experience in Massachusetts dealing with these 
areas and helping to make that connection in Lisbon.
    Senator Johnson. Thank you very much.
    Senator Murphy. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Mr. Broas, great to see all the witnesses here and 
congratulations to each of you for these nominees.
    Maybe I will start, Tim, with you. I had a wonderful 
experience when I was Governor in 2006 of visiting Afghanistan 
and Iraq to visit the Virginia National Guard troops that were 
in service. When we were in Afghanistan, we were talking to 
some of the senior American military leadership, and one of 
them said, so guess who are the toughest fighting partners we 
have. And you know, we guessed the United Kingdom. I think all 
four of the Governors guessed the U.K. They said the U.K is 
good but the best fighting partners we have are actually the 
Dutch. Sometimes the political leadership might tie their hands 
a little bit, but in terms of the actual, on-the-ground 
partnership with Americans serving in Afghanistan, they were 
very, very complimentary of the Dutch. And the Dutch 
contribution in Afghanistan has been a significant one.
    And I just was hoping you might talk for a little bit about 
what are the best things we can do now to continue to maintain 
that strong United States-Netherlands tie on security issues.
    Mr. Broas. Senator Kaine, thank you. I am happy to see you 
here.
    And thank you for asking about the Dutch cooperation in 
Afghanistan. Again, with all of the support they give us around 
the world, Afghanistan has been one of the most prominent 
examples. As you know, they were with us with about 1,800 
troops in one of the most dangerous parts of Afghanistan. They 
subsequently withdrew them, and then they came back with 
another 1,000 troops and a police training force, also in one 
of the most dangerous parts of Afghanistan. And they have had 
their F-16s there for us as well, and I think a few other F-16s 
remain.
    They are no longer present in Afghanistan, but if 
confirmed, one of the things I want to do is work with them, 
and with the administration, to see if they can return to 
Afghanistan to help us after the 2014 drawdown and to be a 
force there. They have been staunch supporters of the NATO 
efforts in Afghanistan and, as you know, in the Balkans and in 
Libya. So I expect and I hope that they will be receptive to 
coming and helping us after the drawdown, and I will do 
everything in my power, if confirmed, to see that that happens.
    As you know, they have got some budget difficulties, which 
were announced recently in the opening of Parliament, and their 
defense budget has been reduced. However, notwithstanding that 
reduction, they did agree--and this has got to be approved by 
the Parliament, but they did agree that they will buy 37 of the 
F-35 Joint Strike Fighters, which is a substantial amount for 
any country, big or small. Again, I will do everything in my 
power to make sure that that commitment is carried through, and 
if they can purchase more, I will do everything I can to get 
them to do that.
    And in terms of their overall budget negotiations, again 
they have had some economic problems recently. Their 
unemployment has gone up, and they are reducing their budget 
and trying to control expenses and finding ways to create 
revenue. And I will do everything in my power as Ambassador to 
work with them to help them to continue to be a strong and 
staunch NATO partner with us.
    Senator Kaine. Great. Thank you, Mr. Boas.
    Mr. Lu, let me ask you a question about Albania, a 
wonderful track record of being a strong U.S. ally. And I know 
one of the things you mentioned--and this country has been 
supportive of their effort to gain membership in the EU. I 
gather that has not yet been achieved. There may be among EU 
members some kind of fatigue about the enlargement of the EU. 
But I gather that one of the other issues is--I think you 
alluded to it when you said there are some challenges in doing 
business and one of the challenges has been some persistent 
difficulties with political corruption. I know there has been 
significant international aid to try to help them tackle that 
issue. And I just wondered if you would talk about your 
understanding of the status of those efforts and progress that 
is being made.
    Mr. Lu. Senator Kaine, thank you very much for that 
important question.
    The road to the EU for Albania is the strongest incentive 
they have to strengthen their democracy, to advance their 
economic reform, and to be a country that is at peace with its 
neighbors. We have endorsed at every level of this government 
their steps toward accession. Right now, the Albanian 
Government is trying to get candidate status, which is a status 
many of the western Balkan countries have right now, which is a 
status that would allow them to get some very specific 
assistance from the EU and some very specific criteria about 
what would be required to actually get membership into the EU.
    As you rightly point out, one of the big issues is the 
fight against corruption and the fight against organized crime. 
And so we, the United States, have invested the majority of our 
assistance money in recent years to try to help Albania 
undertake the hard reforms that will be required for them to 
transform their society. Corruption is endemic in Albania. It 
exists at every level, senior, mid-ranking, and lower levels. 
It is in any society very difficult to get rid of.
    We are today supporting programs that bring members of our 
Department of Justice, their prosecutors, to talk about how you 
develop a court system that is transparent and accountable. We 
have USAID advisors there helping them to design government 
procurement procedures that are fully transparent and fair. We 
have people advising on business practices that make it more 
open and transparent for investors. I hope through that 
assistance and the assistance with the EU that we can be 
successful in helping them make a difference in an issue that 
is, frankly, the number one issue for this incoming Albanian 
Government.
    Senator Kaine. Great. Thank you, Mr. Lu.
    And, Mr. Sherman, quickly. The chairman alluded in his 
opening comments that in the eurozone some of the economies 
seem to be stabilizing. Portugal is still having some 
challenges. And I should know the answer to this question, but 
that is why I come to these hearings and ask. Just talk to me a 
little bit about the current status of the economic recovery in 
Portugal and what you see as sort of a likely scenario playing 
out over the next couple years.
    Mr. Sherman. Senator, first, good to see you at this 
hearing, and second, I appreciate that question.
    This has been a tough challenge for the Portuguese 
Government. The government received a sovereign bailout of 
approximately $100 billion. Attached to that bailout were 
strict austerity measures. They were covenants of the bailout. 
The Portuguese have been model citizens in terms of 
implementing the measures that were required of them. But that 
has caused a great deal of pain among the Portuguese people.
    In addition to that, they faced a challenge of some of the 
structural reforms that the government has put in place being 
struck down as unconstitutional under the Portuguese 
Constitution. That has required the government, which respects 
the decision of the constitutional court, to get creative. 
Currently the troika from the IMF, the European Central Bank, 
and the European Commission are in Portugal doing an assessment 
of the financial situation. There is some thought among some of 
the experts that Portugal may need an additional bailout before 
it can exit in 2014. The Portuguese Government itself has said 
that it would like a credit line to be put in place.
    So I wish I had a crystal ball to say that I can see how 
this plays out. I think the answer is that the government is 
focused like a laser beam on these issues. The Portuguese 
people have been working hard to find a pathway back to 
prosperity. And as the United States Ambassador, I am prepared 
to do whatever I can to assist in accomplishing those goals.
    Senator Kaine. Great. Thank you, Mr. Sherman.
    Thank you, Mr. Chair.
    Senator Murphy. Thank you, Senator Kaine.
    I just have two more questions in a second round.
    First, Mr. Broas, we have been watching Geert Wilders in 
the Freedom Party, the PVV there, engage in a lot of pretty 
over-the-top anti-Muslim rhetoric, even suggesting recently 
that there should be a moratorium on the building of any new 
mosques. Without asking your detailed opinion of the level of 
anti-Muslim and anti-Islam rhetoric in the country, I just want 
to make sure that you will give us your commitment to work with 
our embassy staff there to do all that we can to try to push 
back on the growing anti-Islamic behavior of some small pockets 
of the political infrastructure in the Netherlands.
    Mr. Broas. Thank you, Senator Murphy, for asking that 
question. That is a very, very important question and a very 
important issue, and it is one that I look forward to working 
on as Ambassador, if I am confirmed.
    Mr. Wilders is a polarizing figure, and he is given to 
extreme and provocative statements. I know that embassy 
officials have met with Mr. Wilders and members of his party in 
the past, and I expect that practice will continue. And I will 
certainly continue if confirmed.
    But in the meantime, we will reach out to the communities, 
both Mr. Wilders' and his supporters' but also to the Muslim 
community and other religious communities that feel that they 
are being marginalized or discriminated against. And we will do 
everything we can to engage with them and to promote American 
values of religious freedom and also freedom of expression.
    Senator Murphy. Thank you.
    Mr. Lu, I just wanted to draw upon your experience in the 
region encompassing former Soviet Republics and client nations. 
Hopefully, our next hearing of the subcommittee will be on this 
question of the factors in play when countries like Azerbaijan 
or Georgia or the Ukraine make a decision in the coming years 
as to whether they orient east or west. The most immediate 
decision is going to be made when Ukraine at the Eastern 
Partnership hopefully signs an agreement to join in the EU or 
at least get on that path.
    Can you just maybe talk about what you think is the most 
important tool in the American toolbox to try to prompt these 
nations who are, I would argue, experiencing new levels of 
pressure from the Russians to either join the Customs Union or 
affiliate at different levels politically or simply just turn 
their back on the EU and the West? What is the most important 
tool in our toolbox to try to combat this trend towards Russia 
essentially reestablishing a series of satellite nations?
    Mr. Lu. Senator Murphy, thank you. It is an interesting 
question, and I will venture a controversial answer.
    I think the most useful tool that we have as a country to 
fight the increasing pressure of Russia and many other 
countries in the former Soviet space is actually something that 
government has nothing to do with. It is our cultural presence 
in these countries. And that goes for Albania and many other 
countries, that there is such a love for what the United States 
represents, it is in part values. It is in part what our young 
people are doing in the United States. It is what my kids are 
involved with. It is the technology that we represent. It is 
the open way that we talk about issues in the world. Yes, the 
government has something to do with that, but it is about 
letting people have insights into that society that we are able 
to project in the United States.
    So I think the No. 1 best investment we have ever made in 
the countries that I have served in in the former Soviet Union 
has been our exchange program where we send high school 
students from those countries to the United States to study for 
a year, often in middle America, and they come back really 
understanding who we are. There is nothing that could be bought 
with an expensive USAID advisor or someone else that is equal 
to someone experiencing the United States in a personal way.
    Senator Murphy. A great answer.
    Senator Kaine.
    Senator Kaine. Just one more, really an observation, but it 
is inspired by the answer, Bob, that you were giving about the 
Air Force base in the Azores and how the reduction of it has a 
local effect that is discouraging to folks, especially in a 
tough economic time. But we are trying to work as a country to 
mitigate that effect.
    I would just sort of hold that up as an example that we are 
all going to have to be dealing with, I suspect, I mean, as we 
are wrestling with sequestration. We all very much need to 
replace sequestration. I think that is shared. The Armed 
Services Committee of the Senate, when we passed the defense 
authorizing bill, unanimously supported an amendment that said 
sequester is foolish. We need to replace it. And yet, even if 
we do replace it, it will be replaced with a mixture, I hope, 
of revenues and still cuts, and the cuts might be targeted 
rather than across the board but there will still be cuts. Some 
of those cuts will be in the defense space, and some of them 
may well impact on other bases that we have outside the United 
States.
    And so using it as a little bit of a test case, what do we 
do that works? How do we allay fears? What are strategies that 
actually have the effect of mitigating some of the downside 
consequences? It is important to get it right in the particular 
instance, but it is also important to kind of catalog along the 
way what we learned what works and what does not because we may 
be facing other decisions in similar bases in Europe. I think 
the model these days seems to be kind of more flexible force 
than fixed force, you know, carriers that can be in the 
Atlantic or the Pacific or aviation assets that can be moved 
around. And these bases, obviously some to service naval and 
aviation operations, are important, but the physical real 
estate probably becomes less and less important as we make some 
of these decisions.
    So I would just encourage you to--on that particular item, 
the work that you will be doing is not just work that is about 
the United States-Portugal relationship but it may be a 
template for other decisions that will happen in Europe and in 
other parts of the globe as well. You know, I am struck, Mr. 
Chair, that probably if you think about over the next century 
who we would look at as our principal competitor--I will not 
say ``adversary.'' I will say ``competitor''--it might well be 
China. Well, they do not have military bases really outside 
their territory, and they only tend to get engaged on 
territorial matters. So they have a very different business 
model than we do about the projection of force, and fixed 
military bases is not part of their business model. And I 
suspect as we wrestle with some of our budgetary challenges, it 
might become a less important part of ours as well, at least 
insofar as those bases are in other countries. So just to 
encourage you on that. I think it is an important task that you 
will tackle in the United States-Portugal relationship, but we 
can learn from it in a way that we might need down the road.
    Senator Murphy. Thank you very much, Senator Kaine.
    That will conclude our hearing today. You have all 
acquitted yourselves very well. We are going to keep the record 
open until the end of the day tomorrow for additional questions 
that members of the committee may have. If you get any, I hope 
that you will respond in a timely manner so that we can move 
forward expeditiously on moving your nominations through the 
process. Thank you very much for being here.
    And with that, this meeting is adjourned.
    [Whereupon, at 3:02 p.m., the hearing was adjourned.]


NOMINATIONS OF JAMES BREWSTER, JR., CARLOS ROBERTO MORENO, AND BRIAN A. 
                                NICHOLS

                              ----------                              


                       THURSDAY, OCTOBER 3, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

James Brewster, Jr., of Illinois, to be Ambassador to the 
        Dominican Republic
Hon. Carlos Roberto Moreno, of California, to be Ambassador to 
        Belize
Brian A. Nichols, of Rhode Island, to be Ambassador to the 
        Republic of Peru
                              ----------                              

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tom Udall, 
presiding.
    Present: Senators Udall, Durbin, Kaine, and McCain.
    Also Present: Senators Reed and Whitehouse.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. OK. Thank you, everybody, for being here 
today.
    And the hearing will come to--the subcommittee hearing of 
the Senate Foreign Relations Western Hemisphere will come to 
order.
    Great to have you all here. I am sorry for the delay. In 
case some of you do not know, there was a shooting out in front 
of Hart, and apparently, a Capitol policeman, those really 
brave Capitol policemen that protect us, one of them was 
injured. And so, our thoughts and prayers go out to him, and we 
hope everything is going to settle down out there.
    But thank you for hanging with us, and we will move through 
this with all due dispatch.
    This afternoon, we will consider three important nominees 
in the Western Hemisphere. Peru, the Dominican Republic, and 
Belize represent three different regions of our hemisphere but 
are all important partners for the United States, as well as 
home to millions of people who are beginning to make the climb 
from poverty into the middle class.
    Each country faces unique challenges. In the Dominican 
Republic, energy challenges have hampered economic development, 
and the drug trade has contributed to corruption in many 
different sectors. But despite these negative trends, the 
Dominican Republic remains a place for opportunity for the 
region.
    Mr. Brewster, if confirmed, you will have the important job 
of engaging the Dominican Republic on these and other issues 
important to both the United States and the Dominican Republic. 
And given the baseball enthusiasts there, you might be able to 
play some games with their future Major League baseball stars 
or work to leverage the success of Major League players to 
bring economic development and opportunities to their country, 
which you and I, I think, talked about in the last couple of 
days.
    Peru is one of the countries that has really done things 
right during this decade. This past summer, I had the pleasure 
of meeting with the Peruvian President--President Humala. We 
discussed the economic growth and changes occurring within 
Peru.
    Peru has definitely been a remarkable story and is playing 
a key role in the TTIP discussions. That being said, there are 
many things of mutual importance that are left for Peru and the 
United States to focus on together. Continuing our partnership 
to reduce the production of illicit drugs remains an important 
goal, but we should also not lose focus on the need to expand 
economic development to indigenous workers and villagers and 
the need to address environmental issues related to mining and 
heavy industry in order to ensure that this development occurs 
safely and sustainably.
    Finally, Belize, which is one of the smaller countries in 
our hemisphere, is a place normally associated with tourism to 
the country's beaches and ancient Mayan ruins. While most 
Americans may associate Belize with these natural and 
archeological wonders, Belize plays an important role in 
regional security and, due to its location, is a major drug 
transit country.
    For example, in August 2012, the U.S. Treasury Department 
announced sanctions under the Foreign Narcotics Kingpin 
Designation Act against three Belize residents who reportedly 
are key associates of Mexican drug trafficker Joaquin ``El 
Chapo'' Guzman, head of the Sinaloa cartel. These developments 
show that continued partnership is needed to go after these 
criminal organizations who have worked to destabilize the 
entire region.
    Senators Feinstein, Durbin, Reed, and Whitehouse are here 
to introduce today's nominees. Senator Feinstein actually is 
unable to be here, and so I am going to perform her role at the 
end of when the other Senators do their introductions.
    But before we move on to their introductions, I would 
like--Senator McCain is not here yet. I would like to welcome 
both Senator Kaine and Senator Durbin for being here. Senator 
Durbin, you are here. Good. So you are going to lead off.
    And at this time, I would turn to Senator Durbin to 
introduce.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you, Chairman Udall.
    I appreciate the opportunity to be here today to introduce 
James ``Wally'' Brewster, who has been nominated by President 
Obama to be the next U.S. Ambassador to the Dominican Republic.
    It is an honor for me to introduce Wally, a fellow 
Illinoisan, an international business leader in my State and 
around the world, and an advocate for human rights. Wally is 
also a friend who has helped educate me on the Dominican 
Republic and other issues that face us in the Western 
Hemisphere.
    Wally's partner of 23 years, Bob Satawake, and I are also 
proud to share a common friend from the Chicago area, Barack 
Obama, our President. In fact, I believe Wally is joined here 
by Bob today. Thank you for joining us as well.
    Wally's broad experience as a senior managing partner of an 
international consulting firm prepares him well for the 
challenges and opportunities of representing the United States 
overseas. His clients have included some of the world's top 
retail brands, businesses, and executives. Equally impressive, 
though, is Wally's work to make certain that people are treated 
fairly everywhere, regardless of their sexual orientation.
    Wally came to see me here in Washington the other month. We 
talked about his extensive business experience and his travel 
to Latin America and the Caribbean. He reminded me that he has 
been visiting the Dominican Republic for many years, often for 
extended periods of time. His understanding and appreciation 
for the country and its people were evident.
    I know that his unique understanding of the Dominican 
Republic, of our shared interests, of our future as partners in 
trade and in security will help to strengthen the ties of our 
two nations. I reminded him of my interest in that island, 
particularly in Haiti, which shares the island of Hispaniola 
with the Dominican Republic.
    I have worked over the years to try to help that poor 
nation of Haiti with many, many issues, including poverty and 
water and the devastating deforestation. Haiti could learn a 
few things from its Dominican neighbors on protecting critical 
forests.
    I am confident that Wally's extensive experience and 
leadership abilities will serve our people well and serve the 
United States of America. The relationship between our two 
countries is going to need continued work in the challenging 
years ahead, and I believe Ambassador Brewster will be the 
right person for that job.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you very much, Senator Durbin.
    And let me also say that Senator Kaine has been a real 
advocate of Ambassador Brewster, and he has spoken with me a 
number of times about that. And so, I know he would echo what 
Senator Durbin said.
    Senator Reed, please.

                 STATEMENT OF HON. JACK REED, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Well, thank you very much, Mr. Chairman.
    And let me join you in saluting the Capital Police 
officers, who protect us every day and today particularly. An 
extraordinary group of men and women.
    And I am delighted to be here with my colleague and my 
friend, Senator Sheldon Whitehouse, so that we can have the 
privilege of introducing the Principal Deputy Assistant Brian 
Nichols, President Obama's nominee to be the next Ambassador to 
Peru.
    Brian grew up in Providence, RI, and comes from a family 
with deep roots in Rhode Island. His late father, Charles, was 
a Fulbright Scholar in Denmark and then went on to teach for 
several decades at Brown University, where he founded what is 
now Brown's Department of Africana Studies.
    Brian's mother, Mildred, who is here today, has had a full 
career of service and remains incredibly active in our 
community. She is a great community leader. She is serving 
currently as one of the directors on the board of Goodwill 
Industries.
    Brian is also joined today by his wife, fellow senior 
Foreign Service officer Geri Kam, and their two daughters, Alex 
and Sophie, who are extraordinarily talented young ladies, and 
it was a privilege to meet them today.
    Brian has had an outstanding career in the Foreign Service. 
He joined the Foreign Service shortly after graduating from 
Tufts University in 1987. He spent the past 25 years serving 
our country around the globe. He has a particularly deep 
understanding of the emerging issues in the Western Hemisphere.
    He has served in Mexico and El Salvador as Deputy Chief of 
Mission, in Colombia as Director of the State Department's 
Office of Caribbean Affairs. Interestingly enough, should he be 
confirmed--and I would urge that--this post would take Brian 
back to Lima, where he served his first tour as a consular 
officer 25 years ago.
    Brian understands how diplomacy works, and he recognizes 
the vital importance of strengthening our ties with our 
partners and neighbors in the Western Hemisphere. He has 
decades of experience working with the region's top leaders. 
From 2007 to 2010, he served as Deputy Chief of Mission in 
Bogota, Colombia, and led significant efforts to deepen the 
cultural, economic, and security-based ties between our two 
countries, and his success in this role has prepared him to 
take on the task of strengthening our relationship with Peru, 
another key Latin American partner.
    He is extremely knowledgeable about the major security and 
human rights priorities in the region. In his current role as 
Principal Deputy Assistant Secretary for International 
Narcotics and Law Enforcement Affairs, Brian oversees our 
country's counternarcotics and anticrime partnership with 85 
countries, including Peru.
    He has been instrumental in a broad spectrum of 
multilateral issues. He has led U.S. delegations to the United 
Nations and the Organization of American States on multiple 
occasions. And for his exceptional service, Brian has received 
the Presidential Meritorious Service Award and six Superior 
Honor Awards from the State Department.
    Mr. Chairman, you realize what a vitally important role 
this is, and in my view, Brian has the right skills, 
experience, and dedication to the Nation that would qualify him 
to be our next Ambassador to Peru.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you very much, Senator Reed.
    And we have been joined by Ranking Member Senator McCain. 
Great to have you here, Senator McCain.
    And I think we will go to Senator Whitehouse to finish the 
introductions, and then if Senator McCain would like to make 
any statements.

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Udall, Senator 
McCain, Senator Durbin.
    It is a great pleasure to have the opportunity today to 
join my senior Senator, Jack Reed, in introducing our fellow 
Rhode Islander, Brian Nichols. As a child and grandchild and 
nephew of Foreign Service officers, I have a particular 
appreciation for the men and women who, with their families, 
put public service ahead of their comfort, of their 
convenience, and often even their safety.
    My father served in Cambodia, South Africa, Congo, Guinea, 
Vietnam, Laos, and Thailand, and some of those foreign postings 
were challenging. Those postings and the sacrifices that came 
with them left a very strong impression on me that something 
was worth it. Something was worth the danger and the family 
separations and everything else.
    While my family never talked much about what that something 
was, I can say today that it has a lot to do with what America 
means, both to its citizens and to those around the world. Even 
in these days of division here at home, America continues to 
shine as a beacon of light into some of the world's darkest 
corners.
    And our Foreign Service officers are very often the bearers 
of that light. They are America's representatives to the world, 
and I am grateful for their service. Brian Nichols is a fine 
example.
    After growing up in Providence, RI, and attending Moses 
Brown, the rival school to my children's Wheeler, Brian 
ultimately joined the Foreign Service and began his Foreign 
Service career in Peru. He went on to serve in El Salvador, 
Mexico, Colombia, and Indonesia, and he currently serves as 
Principal Deputy Assistant Secretary of State.
    I would also like to note that Brian's wife, Geri Kam, who 
is here with him today, is also a career Foreign Service 
officer who currently runs the State Department's leadership 
training for Ambassadors and Deputy Chiefs of Mission. I thank 
both of them for their service, and I would also like to join 
Jack in recognizing Alex and Sophie and also Brian's mom, who 
still lives in Providence.
    Mr. Chairman, the committee today will consider Brian's 
nomination to serve as Ambassador to Peru, bringing his career 
full circle to his first posting. I appreciate very much his 
dedicated career, and I am honored to join my senior Senator 
and him here today.
    Thank you very much.
    Senator Udall. Senator Whitehouse, thank you very much.
    And I know that all the Senators doing introductions are 
very busy. You are happy and we would love to have you join us, 
but if you need to take off, we fully understand.
    The Honorable Carlos Moreno, Senator Feinstein asked me to 
read your introduction, and I am going to do that because I 
think every nominee is entitled to have a good, solid 
introduction from a home State Senator, and she obviously feels 
very strongly about you. And she asked me to do that.
    She says, ``I regret very much that I cannot attend today's 
hearing, but I would like to offer my heartfelt and strong 
support for a good friend of mine, Justice Carlos Moreno, who 
has been nominated to serve as United States Ambassador to 
Belize.
    ``I know Justice Moreno very well. He has a powerful 
intellect, he has a good heart, and he has sound judgment. The 
son of Mexican immigrants, Justice Moreno grew up in east Los 
Angeles. He was first in his family to graduate from college, 
attending Yale on a scholarship and graduating in 1970.
    ``He earned his law degree from Stanford Law School in 
1975. He then worked at the city attorney's office, in private 
practice, and as a judge at two levels of our State judicial 
system. In 1997, I recommended him to President Clinton for 
appointment to the District Court in Los Angeles. I knew then 
that he was a ``10,'' and I was very proud to introduce him to 
my colleagues on the Judiciary Committee and to support his 
nomination on the floor of the Senate.
    ``In fact, I was not the only member to speak on Justice 
Moreno's behalf on the floor. Senator Hatch did, too. Senator 
Leahy did so. And he was confirmed 96-0. The reason is, to 
quote a letter from then-Los Angeles County Sheriff Sherman 
Block, that Justice Moreno `is an extremely hard-working 
individual of impeccable character and integrity.'
    ``In 2001, Justice Moreno was appointed by Governor Gray 
Davis to serve on the Supreme Court of California. I was very 
sorry to see him leave the Federal District Court, but I knew 
Governor Davis had chosen an outstanding individual to serve on 
our State's highest court.
    ``Anyone who has followed California law since then knows 
that Justice Moreno served with great distinction, writing with 
clarity and passion, and he served as an inspiration to our 
State.
    ``In 2008, I invited him to serve on my bipartisan judicial 
advisory committee in Los Angeles. I use these committees to 
advise me on whom to recommend to the President for seats on 
the United States District Courts.
    ``Over the last 5 years, I have come to rely on Justice 
Moreno's fine judgment and sound advice in making these 
important appointments. Unfortunately, his nomination to serve 
as Ambassador meant that Justice Moreno had to leave my 
judicial advisory committee behind. I will miss his advice on 
judicial appointments a great deal, but I believe very strongly 
that Justice Moreno's record shows he has the intellect, 
judgment, compassion, and temperament to serve our Nation very 
well as Ambassador.
    ``I urge my colleagues to support his nomination, which I 
hope can move through the Senate quickly. Thank you very 
much.''
    Senator Udall. She obviously feels very strongly about you.
    And with that, Senator McCain, I am going to turn to you 
for any opening or any comments that you might like to make.
    Senator McCain. I have none. I thank you, Mr. Chairman.
    Senator Udall. Thank you very much, Senator McCain.
    I am going to start with, first, the testimony on the left 
with Mr. Brewster, and then we will move to Justice Moreno, and 
then Mr. Nichols.
    So please proceed.

STATEMENT OF JAMES BREWSTER JR., OF ILLINOIS, TO BE AMBASSADOR 
                   TO THE DOMINICAN REPUBLIC

    Mr. Brewster. Thank you, Mr. Chairman.
    And members of the committee, thank you for allowing me to 
appear here before you today.
    I am honored to be President Obama's nominee to be the next 
U.S. Ambassador to the Dominican Republic. I would like to 
express my gratitude to President Obama for his confidence in 
nominating me, as well as Secretary Kerry for his trust in me 
as well.
    Senator Durbin, it is always an honor to have been 
introduced by you today, but it is also an honor to be your 
friend and also to see your leadership and support.
    I would like to also introduce Bob Satawake, my partner, 
who Senator Durbin acknowledged earlier. Bob has lived with me 
and supported me for over 25 years in all of my endeavors and 
is certainly a partner on this journey as well. I am grateful 
for his presence here today, and I am grateful to have him with 
me.
    My parents, James and Patsy Brewster, also join me in 
spirit. They have taught me to have a strong faith, never judge 
others, always be tolerant, and treat everyone with the same 
dignity and respect that I expect from others. If confirmed, I 
will take those principles with me to the Dominican Republic.
    I have been fortunate to study commerce and human behavior 
during my past 30 years in the private sector. As an executive 
with SB&K Global, General Growth Properties, and the Rouse 
Company, I have used these skills to assist in building new 
cities and developing world-renowned shopping and entertainment 
destinations across the United States and Brazil.
    I have created strong public and private partnerships and 
brought commerce to the United States through business 
partnerships around the globe. If confirmed, I will take these 
strategic skills to the Dominican Republic with me.
    One primary focus, if confirmed, will be citizen security, 
one of President Medina's and our Government's highest 
priorities. There is already very strong U.S. cooperation with 
Dominican authorities to prevent crime, combat illicit 
trafficking, and improve respect for human rights.
    The cornerstone of this effort is the Caribbean Basin 
Security Initiative, or CBSI, in which the Dominican Republic 
is a valued partner. If confirmed, I will encourage the 
Government of the Dominican Republic to continue its high-
profile role in these and other initiatives to maximize 
regional security efforts. One cannot effectively tackle crime 
and improve the lives of citizens without addressing the root 
causes and putting in place government controls to prevent 
corruption and increase transparency.
    The Dominican Republic is a young democracy that has made 
progress in promoting fundamental freedoms. However, if these 
are not accompanied by economic advancements and social 
inclusion, democracy itself will be undermined.
    If confirmed, I will use the tools at my disposal, in close 
consultation with this committee and Congress, to advocate for 
policies that foster economic and social justice for the 
benefit of the Dominican society and their relationships with 
the United States. I want to support President Medina's efforts 
to eradicate illiteracy, increase and strengthen public 
education, and improve public health in the Dominican Republic 
to ensure that the poor and the historically marginalized 
populations are not left behind as the Dominican Republic's 
economy grows.
    I will also focus on education. A strong education opens 
the doors to opportunity. Last year, the Dominican Republic 
announced it will spend 4 percent of its national budget on 
education. If confirmed, I will continue to build on innovative 
educational programs offered by the United States for people 
across Dominican society, including marginalized populations.
    Another priority, if confirmed, will be the protection of 
the environment. As we develop the Dominican Republic, we must 
develop a stronger and more resilient energy sector and 
transition to cleaner, cheaper sources of energy. I will do my 
utmost to facilitate connections with our innovative private 
sector and the Dominican Republic's energy sector.
    Mr. Chairman, Martin Luther King said, ``The ultimate 
measure of a man is not where he stands in the moment of 
comfort and convenience, but where he stands at times of 
challenge and controversy.'' I have already begun to see the 
challenges I will face in this job, but the rewards of 
representing the American people, creating a more prosperous 
hemisphere, and strengthening democracy through our evolving 
relationship with the Dominican Republic will be far greater 
than any challenge I will ever encounter.
    Mr. Chairman and members of this committee, thank you for 
your opportunity to allow me to be here today. Should I be 
confirmed, I will be honored to work on our strong and valued 
relationship with the Dominican Republic.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Brewster follows:]

             Prepared Statement of James ``Wally'' Brewster

    Mr. Chairman and members of the committee, thank you for inviting 
me to appear before you today. I am honored to be President Obama's 
nominee to be the next United States Ambassador to the Dominican 
Republic. I would like to express my gratitude to President Obama for 
his confidence in nominating me and to Secretary Kerry for his trust as 
well.
    Senator Durbin, it is an honor to have been introduced by you 
today. I am grateful for your leadership, friendship, and support. I 
would like to introduce my partner, Bob Satawake. Bob has lived with me 
and supported me for over 25 years in all my endeavors and is certainly 
a partner on this journey as well. I am grateful for his presence here 
today. My parents, James and Patsy Brewster, also join me in spirit. My 
father is too ill to join us today and my mother has left this earth 
but both are always with me as are the principles they instilled in me. 
They taught me to have a strong faith, never judge others, always be 
tolerant, and treat everyone with the same dignity and respect that I 
expect from others. They taught me to help those less fortunate, help 
others through this life, and always love not hate. If confirmed, I 
will take those principles with me to the Dominican Republic.
    I have been fortunate to study commerce and human behavior during 
my past 30 years in the private sector. As an executive with SB&K 
Global, General Growth Properties, and The Rouse Company, I have used 
these skills to assist in building new cities and developing world-
renowned shopping and entertainment destinations across the United 
States and Brazil. I have created strong public/private partnerships 
and brought commerce to the United States through business partnerships 
around the globe. If confirmed, I will take these strategic skills to 
the Dominican Republic.
    Mr. Chairman, the President offered me a unique opportunity when he 
nominated me to be Ambassador to the Dominican Republic. I have 
developed a sincere appreciation for the country over the past decade 
through my opportunities to visit and owning a home there for several 
years. I am thrilled that, if confirmed, I will be able to continue my 
efforts to build deeper, stronger bonds between the Dominican Republic 
and the United States as U.S. Ambassador.
    The United States and the Dominican Republic share a relationship 
that incorporates business, trade, sports, and culture. However, I 
firmly believe the most valuable bonds are the family ties that link 
our two countries. There are well over a million people of Dominican 
descent in the United States and over a hundred thousand Americans who 
have made their home in the Dominican Republic. Then there are the over 
one million American tourists who visit every year, creating and 
enhancing ties with each visit.
    One primary focus, if I am confirmed, will be citizen security, one 
of Dominican President Danilo Medina's highest priorities. There is 
already very strong U.S. cooperation with Dominican authorities to 
prevent crime, combat illicit trafficking, and improve respect for 
human rights. The cornerstone of this effort is the Caribbean Basin 
Security Initiative, or CBSI, in which the Dominican Republic is a 
valued partner. CBSI provides training and technical assistance to 
Dominican law enforcement and justice authorities on topics such as 
police reform and accountability, criminal prosecution, reduction of 
corruption, money laundering, and preventing and responding to gender-
based violence. It also enhances port security, makes justice services 
more accessible, and supports the professionalization of the Dominican 
armed services. No one country alone can fight the rise in criminal 
activity in the Caribbean. If confirmed, I will encourage the 
Government of the Dominican Republic to continue its high-profile role 
in these and other initiatives to maximize regional security efforts. 
One cannot effectively tackle crime and improve the lives of citizens 
without addressing root causes and putting in place government controls 
to prevent corruption and increase transparency. The Dominican people 
realize this and have demonstrated close and highly effective 
cooperation with the United States to confront these problems.
    The Dominican Republic is a young democracy that has made progress 
in promoting fundamental freedoms. However, if these are not 
accompanied by economic advancement and social inclusion, democracy 
itself will be undermined. If confirmed, I will use the tools at my 
disposal--in close consultation with this committee and Congress--to 
advocate for policies that foster economic and social justice for the 
benefit of Dominican society. I want to support President Medina's 
efforts to eradicate illiteracy, strengthen public education, and 
improve public health in the Dominican Republic, to ensure that the 
poor and historically marginalized populations are not left behind as 
the Dominican Republic's economy grows.
    I believe the Dominican Republic can use its regional leadership to 
encourage democratic development and greater respect for human rights 
throughout the hemisphere. If confirmed, I will encourage the Dominican 
Republic to expand engagement with partner countries in Latin America 
and the Caribbean to strengthen effective democratic institutions to 
protect and preserve human rights.
    While there are rising levels of political and personal freedom in 
the Dominican Republic, work remains to ensure all its citizens can 
fully participate in society. If confirmed, I will work to increase 
attention to social inclusion and protection of historically 
marginalized groups. I will continue our efforts to support civil 
society, vulnerable populations, and the disenfranchised. Everyone 
deserves human dignity and respect. Including diverse sectors of the 
population in the decisionmaking process to solve shared problems and 
reduce barriers to discrimination is a strategic and effective way to 
strengthen all societies.
    I will also focus on education. A strong education opens the doors 
to opportunity. Last year, the Dominican Republic announced it will 
spend 4 percent of the national budget on education. If confirmed, I 
will continue to build on innovative educational programs offered by 
the United States for people across Dominican society, including 
marginalized populations. These tools increase knowledge, level the 
playing field, and lead to more Dominican students studying in the 
United States, and then returning home to practice the skills they 
learn in the United States. Learning English is one key to unlock new 
opportunities, and I will continue to support quality English teaching 
in the Dominican Republic. I will do my utmost to promote the 
President's 100,000 Strong in the Americas initiative so greater 
numbers of U.S. and Dominican students can benefit from the experience 
of studying abroad.
    Another priority, if confirmed, will be protection of the 
environment. As the President noted in a speech earlier this year, 
though America's carbon pollution fell last year, global carbon 
pollution rose to a record high; we must recognize that developing 
countries are especially vulnerable to the effects of climate change. 
This is particularly true in the Caribbean. As we help the Dominican 
Republic develop a stronger and more resilient energy sector and 
transition to cleaner, cheaper sources of energy, I will do my utmost 
to facilitate connections with our innovative private sector and the 
Dominican Republic's energy sector.
    Likewise, one of the major sources of knowledge and capital at my 
disposal, if confirmed, will be the Dominican diaspora in the United 
States. I have many wonderful Dominican friends whose contributions to 
my life and Dominican society cannot be understated. I look forward to 
engaging other elements of this vibrant community to get a sense of 
what their concerns are, show them the work our mission is doing in the 
Dominican Republic, and determine how we can work together to create 
even more powerful synergies and increase investment.
    Mr. Chairman, Martin Luther King said: ``The ultimate measure of a 
man is not where he stands in moments of comfort and convenience, but 
where he stands at times of challenge and controversy.'' I have already 
begun to see the challenges and controversies I will face in this job, 
but the rewards of representing the American people, creating a more 
prosperous hemisphere, and strengthening democracy through our evolving 
relationship with the Dominican Republic will be far greater than any 
challenge or controversy I will ever encounter.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you. Should I be confirmed, I will be 
honored to work on our strong and valued relationship with the 
Dominican Republic.

    Senator Udall. Thank you, Mr. Brewster.
    And please proceed, Justice Moreno.

 STATEMENT OF HON. CARLOS ROBERTO MORENO, OF CALIFORNIA, TO BE 
                      AMBASSADOR TO BELIZE

    Mr. Moreno. Thank you, Mr. Chairman, members of the 
committee.
    It is a deep privilege to appear before you today, and I am 
honored by the trust President Obama has placed in me with this 
nomination that I serve as the next United States Ambassador to 
Belize. If confirmed, I look forward to working with you and 
your colleagues in Congress to protect our citizens in Belize 
and to advance the interests of the United States.
    With the chairman's permission, I would like to acknowledge 
my wife, Christine, who has joined me here today. As well, two 
of the three of my children are here, Keiko and Nicholas. I am 
extremely grateful to them for the support they have given me 
through my many years in public service and for their 
continuing support as I look forward to serving my country in a 
new capacity.
    Given Belize's geography, its proximity to our borders, and 
its vulnerability to the rising influence of drug trafficking 
organizations in Central America, its significance to our 
national security is obvious and enormous. These, indeed, are 
challenging times in Belize. Gang-related violence has soared 
in recent years, and Belize now has the sixth-highest per 
capita murder rate in the world and the third-highest murder 
rate in Central America.
    Over 40 percent of the population lives below the poverty 
line, and 50 percent of the population is under the age of 25. 
It has the third-youngest population in the Western Hemisphere. 
Belize suffers from the highest HIV/AIDS prevalence rate in 
Central America and the fifth-highest in the Caribbean.
    And with limited educational and economic opportunities, 
Belize's young people are increasingly vulnerable to 
recruitment by gangs and criminal organizations that utilize 
the country as a major transit point for trafficking drugs, 
illicit precursor drugs, weapons, and people.
    Foreign assistance from the United States has done much to 
help Belize meet these challenges. Peace Corps, Coast Guard, 
U.S. Southern Command, U.S. Customs, and ICE are all addressing 
these challenges in very positive and targeted ways.
    As one example, the Central America Regional Security 
Initiative is also funding initiatives to professionalize 
police and train prosecutors, develop community policing 
programs, deploy new technologies in law enforcement, provide 
education and training for former gang members, and help at-
risk young people make the right choices and stay out of gangs.
    Throughout my decades of public service, first as a 
prosecutor and later as a judge on our State and Federal 
courts, I have had the opportunity to work with numerous law 
enforcement agencies and have witnessed their skill, 
commitment, and dedication. I have a profound respect for their 
professionalism and a great appreciation for the wisdom 
Congress has shown in funding programs that enable them to 
share that professionalism with their counterparts in Belize 
and elsewhere in the region.
    If confirmed, I will ensure that our foreign assistance 
funds are used wisely and efficiently. Helping the Government 
of Belize strengthen its rule of law will be one of my top 
priorities. Rule of law not only establishes equality and 
fairness under law, but it also promotes citizen security for 
Belizeans and our own citizens and lays a stable foundation for 
much-needed economic development in Belize.
    The United States and Belize share a strong friendship, and 
if confirmed, I will work with you to deepen and to strengthen 
that friendship. I will strive to enhance our national security 
by helping Belize become a stronger, more secure, more 
prosperous partner for the United States. In fact, the United 
States is Belize's principal trading partner and major source 
of investment funds.
    I will seek to promote U.S. business interests and 
investment in Belize by advocating policies that enable free 
and fair trade, improve the business climate, and curb 
corruption. I will work to help Belize build its capacity to 
protect its cultural heritage and environment.
    As you know, Belize is endowed with magnificent Mayan 
archeological sites, pristine forests, and incredibly beautiful 
coral reefs. These natural endowments draw 900,000 American 
tourists to Belize every year. And if well managed and if 
sustained, they will continue to generate hundreds of millions 
of dollars in annual revenue for Belize for generations to 
come.
    Finally, tens of thousands of American ex-patriots live in 
Belize. I will work to ensure the safety and well-being of all 
American citizens living in or visiting Belize, and I will 
provide a safe and secure working environment for American and 
Belizean staff serving in our Embassy.
    Mr. Chairman, committee members, I thank you again for your 
generous time and attention today and for your consideration of 
my nomination to be America's next Ambassador to Belize. And I, 
too, welcome any questions you may have.
    [The prepared statement of Mr. Moreno follows:]

              Prepared Statement by Justice Carlos Moreno

    Mr. Chairman, members of the committee, it is a privilege to appear 
before you today. I am deeply honored by the trust President Obama has 
placed in me with his nomination that I serve as the next United States 
Ambassador to Belize. If confirmed, I look forward to working with you 
and your colleagues in Congress to protect our citizens in Belize and 
to advance the interests of the United States.
    With the chairman's permission, I would like to acknowledge my 
wife, Christine, who has joined me here today. Two of my three children 
are here, Keiko and Nicholas. I am extremely grateful to them for the 
support they have given me through my many years in public service, and 
their continuing support as I look forward to serving my country in a 
new capacity.
    Given Belize's geography, its proximity to our borders, and its 
vulnerability to the rising influence of drug trafficking organizations 
in Central America, its significance to our national security is 
enormous.
    These are challenging times in Belize. Gang-related violence has 
soared in recent years, and Belize now has the sixth-highest per capita 
murder rate in the world, and the third-highest murder rate in Central 
America. Over 40 percent of the population lives below the poverty 
line, and 50 percent of the population is under the age of 25. It has 
the third-youngest population in the Western Hemisphere. Belize suffers 
from the highest HIV/AIDS prevalence rate in Central America, and the 
fifth-highest in the Caribbean. With limited educational and economic 
opportunities, Belize's young people are increasingly vulnerable to 
recruitment by gangs and criminal organizations that utilize the 
country as a major transit point for trafficking drugs, illicit 
precursor chemicals, weapons, and people.
    Foreign assistance from the United States has done much to help 
Belize meet these challenges: Peace Corps Volunteers are working on 
health initiatives. The U.S. military assisted Belize in establishing 
its Coast Guard and just last month the Coast Guard graduated its first 
class of SEALs, trained to the highest standards by U.S. Navy SEALs. 
Earlier this year, a U.S. Southern Command New Horizons exercise helped 
build and renovate schools and brought medical and veterinary services 
to thousands of Belizeans. Similar exercises are being planned for the 
future. U.S. Customs and Border Protection is working to assist Belize 
to secure its borders and ports of entry, and U.S. Immigration and 
Customs Enforcement is working with the Belizeans to curb gang 
violence. The Central America Regional Security Initiative is funding 
initiatives to professionalize police and train prosecutors, develop 
community policing programs, deploy new technologies in law 
enforcement, provide education and training for former gang members, 
and help at-risk young people make the right choices and stay out of 
gangs.
    Throughout my decades of public service, first as a prosecutor, and 
later as a judge on our State and Federal courts, I have had the 
opportunity to work with numerous law enforcement agencies and have 
witnessed their skill, commitment, and dedication. I have a profound 
respect for their professionalism and a great appreciation for the 
wisdom Congress has shown in funding programs that enable them to share 
that professionalism with their counterparts in Belize and elsewhere in 
the region. If confirmed, I will work to ensure that our foreign 
assistance funds are used wisely and efficiently.
    Helping the Government of Belize strengthen its rule of law will be 
one of my top priorities. Rule of law not only establishes equality and 
fairness under law, but it also promotes citizen security for Belizeans 
and our own citizens, and lays a stable foundation for much-needed 
economic development in Belize.
    The United States and Belize share a strong friendship, and, if 
confirmed, I will work with you to deepen and strengthen that 
friendship. I will strive to enhance our national security by helping 
Belize become a stronger, more secure, more prosperous partner for the 
United States. The United States is Belize's principal trading partner 
and major source of investment funds. I will seek to promote U.S. 
business interests and investment in Belize by advocating policies that 
enable free and fair trade, improve the business climate, and curb 
corruption.
    I will work to help Belize build its capacity to protect its 
cultural heritage and environment. Belize is endowed with magnificent 
Mayan archeological sites, pristine forests, and incredibly beautiful 
coral reefs. These natural endowments draw 900,000 American tourists to 
Belize every year, and--if well managed--they will continue to generate 
hundreds of millions of dollars in annual revenue for Belize for 
generations to come.
    An estimated 70,000 Belizeans now live in the United States--the 
largest Belizean community outside Belize. Tens of thousands of 
American expatriates live in Belize. I will work to ensure the safety 
and well-being of American citizens living in, or visiting, Belize. And 
I will provide a safe and secure working environment for our American 
and Belizean staff serving at our Embassy.
    Mr. Chairman, committee members, I thank you again for your 
generous time and attention today and for your consideration of my 
nomination to be America's next Ambassador to Belize. I welcome any 
questions you have.

    Senator Udall. Thank you very much, Justice Moreno.
    Please proceed, Mr. Nichols.

 STATEMENT BRIAN A. NICHOLS, OF RHODE ISLAND, TO BE AMBASSADOR 
                    TO THE REPUBLIC OF PERU

    Mr. Nichols. Mr. Chairman and distinguished members of the 
committee, it is an honor to appear before you today as the 
President's nominee to be the next United States Ambassador to 
Peru.
    I joined the Foreign Service in 1989, and in the nearly 25 
years since, I have had the privilege to appear before Congress 
a number of times. This, however, is my first as a nominee. The 
lights are a little brighter today.
    Fortunately, they provide a fitting stage for me to 
recognize my beautiful wife, Geri, also a career Senior Foreign 
Service officer; my daughters, Alex and Sophie; and my mother, 
Mildred. Their love and wisdom has made each day better than 
the one before it.
    I would also like to thank President Obama and Secretary 
Kerry for their confidence in me.
    My father served as a Fulbright Scholar in Denmark and 
taught American studies in Germany. We moved to Providence, RI, 
in 1969 when I was 3, a fantastic place to grow up, by the way. 
My parents nurtured a desire to serve my country, a lifelong 
love of learning, and a wanderlust that made the Foreign 
Service a perfect career.
    I have had the great fortune to represent America's values 
and advance our goals in Indonesia and throughout the Western 
Hemisphere, including in El Salvador, Mexico, the Caribbean, 
and Colombia. Should I be confirmed, I will return to Peru, 
where in 1989, I served my first tour as a newly commissioned 
officer.
    The late 1980s and early 1990s was a difficult time in Peru 
with terrorism, political repression, and hyperinflation 
afflicting rich and poor alike. I saw in the Peruvian people a 
tireless work ethic, unflagging optimism that they could change 
their own fate, and a tremendous warmth in welcoming me.
    The people of Peru shaped a different future. Today, the 
Republic of Peru is one of America's strongest partners in the 
hemisphere. In 2012, our two nations shared nearly $16 billion 
in bilateral trade. Over the last decade, our exports to Peru 
have increased fourfold.
    Peru tops South America in terms of economic growth over 
the last two decades. It is a nation with ambition and a vision 
for free markets, inclusive democracy, respect for the 
environment, and energy security. It is a country with enormous 
pride, great people, and a resolute determination to advance 
the causes of security, prosperity, and human rights. Peruvians 
are championing these causes domestically, regionally, and 
globally.
    Peru is also an unwavering partner of the United States in 
the fight against terrorism, transnational crime, and the 
scourge of cocaine trafficking. Peru's success in delivering 
serious blows to the Shining Path insurgency, including most 
recently against its second- and third-highest leaders in 
August, underscores its remarkable commitment to fighting 
transnational crime and drug trafficking. Peru has done all 
this, all the while working vigorously to create licit economic 
opportunities and safe communities for its people.
    My two most recent Foreign Service assignments will be 
particularly helpful, should the Senate confirm me to serve as 
Ambassador to Peru. As Deputy Chief of Mission at our 
neighboring Embassy in Bogota from 2007 to 2010, I had the 
privilege to lead an Embassy staff of more than 4,000 people 
who worked tirelessly to support a shared vision for security 
and economic goals.
    When I departed post, our locally engaged staff was more 
diverse than ever in terms of background and expertise, morale 
was high, management controls tight, and our relationships with 
the people of Colombia the strongest they had ever been.
    In the 3 years since, I have helped to direct the State 
Department's rule of law, anticrime, and counternarcotics 
programming around the world, including in Peru. As the 
Principal Deputy Assistant Secretary for International 
Narcotics and Law Enforcement Affairs, I have been humbled to 
lead a team of nearly 7,000 professionals who work every day to 
expand access to justice, protect civilians, and combat crime 
around the world.
    We are most successful when our efforts support the plans 
of the governments we are assisting. Partner governments must 
be in the driver's seat for planning, achieving, and sustaining 
a vision. This is an important principle that I will carry with 
me for the rest of my career.
    Senators, thank you sincerely for your time today and for 
your support. Should the Senate confirm me, I pledge to serve 
with the utmost respect for the burgeoning ties that bind our 
countries. I will aim to always exemplify the highest standards 
of our great Nation while doing so.
    I look forward to partnering with you to advance America's 
interests in Peru and stand ready to answer any questions you 
might have now and in the future.
    Thank you.
    [The prepared statement of Mr. Nichols follows:]

                 Prepared Statement of Brian A. Nichols

    Mr. Chairman and distinguished members of the committee, it is an 
honor to appear before you today as the President's nominee to be the 
next United States Ambassador to the Republic of Peru.
    I joined the Foreign Service in 1989 and in the nearly 25 years 
since, I have had the privilege to appear before Congress a number of 
times. This, however, is my first as a nominee. The lights are a little 
brighter today. Fortunately they provide a fitting stage for me to 
recognize my beautiful wife, Geri, also a career Senior Foreign Service 
officer, my daughters, Alex and Sophie, and my mother, Mildred. Their 
love and wisdom has made each day better than the one before it. I 
would also like to thank President Obama and Secretary Kerry for their 
confidence in me.
    My father served as a Fulbright Scholar in Denmark and taught 
American studies in Germany. We moved to Providence, RI, in 1969 when I 
was 3--a fantastic place to grow up by the way. My parents nurtured a 
desire to serve my country, a lifelong love of learning, and a 
wanderlust that made the Foreign Service a perfect career. I have had 
the great fortune to represent America's values and advance our goals 
in Indonesia and throughout the Western Hemisphere including in El 
Salvador, Mexico, the Caribbean, and Colombia. Should I be confirmed, I 
will return to Peru where, in 1989, I served my first tour as a newly 
commissioned officer.
    The late 1980s and early 1990s was a difficult time in Peru with 
terrorism, political repression, and hyperinflation afflicting rich and 
poor alike. I saw in the Peruvian people a tireless work ethic, 
unflagging optimism that they could change their own fate, and 
tremendous warmth in welcoming me. The people of Peru shaped a 
different future.
    Today, the Republic of Peru is one of America's strongest partners 
in the hemisphere. In 2012, our two nations shared nearly $16 billion 
in bilateral trade. Over the last decade, our exports to Peru have 
increased fourfold. Peru tops South America in terms of economic growth 
over the last two decades. It is a nation with ambition and a vision 
for free markets, inclusive democracy, respect for the environment, and 
energy security. It is a country with enormous pride, great people, and 
a resolute determination to advance the causes of security, prosperity, 
and human rights. Peruvians are championing these causes domestically, 
regionally, and globally.
    Peru is also an unwavering partner of the United States in the 
fight against terrorism, transnational crime, and the scourge of 
cocaine trafficking. Peru's success in delivering serious blows to the 
Shining Path insurgency, including most recently against its second- 
and third-highest leaders in August, underscores its remarkable 
commitment to fighting transnational crime and drug trafficking.
    Peru has done this all the while working vigorously to create licit 
economic opportunities and safe communities for its people.
    My two most recent Foreign Service assignments will be particularly 
helpful, should the Senate confirm me to serve as Ambassador to Peru. 
As Deputy Chief of Mission at our neighboring Embassy in Bogota from 
2007 to 2010, I had the privilege to lead an Embassy staff of more than 
4,000 people who worked tirelessly to support a shared vision for 
security and economic goals. When I departed post, our locally engaged 
staff was more diverse than ever in terms of background and expertise, 
morale was high, management controls tight, and our relationships with 
the people of Colombia the strongest they had ever been.
    In the 3 years since, I have helped to direct the State 
Department's rule of law, anticrime, and counternarcotics programming 
around the word, including in Peru. As the Principal Deputy Assistant 
Secretary for International Narcotics and Law Enforcement Affairs, I've 
been humbled to lead a team of nearly 7,000 professionals who work 
every day to expand access to justice, protect civilians, and combat 
crime around the world. We are most successful when our efforts support 
the plans of the governments we are assisting. Partner governments must 
be in the driver's seat for planning, achieving, and sustaining a 
vision. This is an important principle that I will carry with me for 
the rest of my career.
    Senators, thank you sincerely for your time today and for your 
support. Should the Senate confirm me, I pledge to serve with the 
utmost respect for the burgeoning ties that bind our countries. I will 
aim to always exemplify the highest standards of our great Nation while 
doing so. I look forward to partnering with you to advance America's 
interests in Peru and stand ready to answer any questions you might 
have now and in the future.

    Senator Udall. Thank you, Mr. Nichols.
    And the full statements of all the witnesses will be put 
into the record.
    Mr. Nichols, Peru's economy has seen continual growth, but 
not all of this growth has reached the people of Peru. What is 
the United States doing to work with the Peruvian Government 
and businesses to help improve the economic opportunities for 
all Peruvians?
    Mr. Nichols. Thank you, Mr. Chairman.
    Peru has made tremendous progress in reducing poverty. It 
has cut it in half in the last decade. It has dramatically 
reduced infant mortality, and it has increased its trade around 
the world dramatically.
    We are working with them intensively, focusing on those 
regions in Peru where poverty is most acute. We are deploying 
programs from the U.S. Agency for International Development 
that improve health care, target education for vulnerable 
populations. We are working with them to improve the 
environment in vulnerable regions, and we are working with a 
very committed Humala administration to deliver the benefits of 
growth to all Peruvians.
    Senator Udall. Thank you very much, Mr. Nichols.
    Mr. Brewster, as I mentioned in my introduction, one of the 
reasons economic growth has been hampered in the Dominican 
Republic is a result of the country's poor infrastructure, 
specifically the reliability of the electrical grid. What types 
of reforms and plans should the Dominican Republic enact to 
improve this problem, and how can U.S. foreign investment be 
used to improve the electrical situation?
    Mr. Brewster. Thank you, Mr. Chairman, for the question.
    It is a significant problem in the Dominican Republic, and 
it hampers the opportunity for growth of business in a lot of 
areas and also for the citizens of the Dominican Republic. I 
know President Medina is committed to resolving this situation.
    They are 100 percent dependent on outside oil, which a 
third of that is currently coming from their relationship with 
the Venezuelan Government and Petrocaribe. That is something 
that is becoming a little more unstable, as we all know, and we 
want to make sure that we provide and work with the Dominican 
Government on securing alternative options for them.
    There are a lot of activity that is happening between the 
Dominican Government and U.S. business currently right now. We 
are in an agreement with President Medina and a private U.S. 
company to begin to build a generation plant that is fueled by 
natural gas that will go online in 2015. We also are in 
agreements on a coal plant.
    But the objectives long term that we all need to focus on 
is renewable energies and clean energy. And the objective, if 
confirmed, that I would have is to work with the country team 
and the appropriate departments and the Medina administration 
to make sure that we can continue to resolve this problem with 
the electricity grid and also provide clean energy solutions 
and affordable energy solutions that are provided by U.S. 
business to take their dependence from other countries.
    Senator Udall. Thank you very much, Mr. Brewster.
    Justice Moreno, you have a lengthy and distinguished career 
in the law. And with regards to some of the ongoing border 
disputes with Guatemala and the referendum to bring the case to 
the ICJ, how do you envision your role in this territorial 
dispute, and what role should the United States play to help 
resolve this dispute?
    Mr. Moreno. Thank you for the question.
    The United States, I think, should continue to support the 
OAS-brokered negotiation and referral to the International 
Court of Justice. As we know, the referendum was to occur just 
on October 6, and that has been postponed.
    Notwithstanding that postponement, the special agreement, 
which in the first instance agrees to refer the matter to the 
OJC, is still in effect. So I would continue to support those 
efforts.
    We must remember that the border dispute has roots going 
back almost 200 years, and I think that the International Court 
of Justice is the best approach. And I would continue to 
support that.
    Senator Udall. Thank you, Justice Moreno.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    And congratulations to the nominees. I am sure you will 
serve our Nation with honor and distinction.
    Mr. Brewster, what, in your present position as the 
managing partner of--what does your company do?
    Mr. Brewster. Yes, sir. We help large companies, Fortune 
500 companies, and also individual executives in the 
development areas, as well as looking at how to engage them in 
re-evolving and rebranding their companies, as my studies have 
been on human behavior and how different generations will 
evolve over the next 20 years.
    It is a consultancy firm.
    Senator McCain. Have you ever been to the Dominican 
Republic?
    Mr. Brewster. Yes, sir. As a matter of fact, we have been 
traveling to the Dominican Republic for over a decade, and we 
spend the winters in the Dominican Republic and have had a home 
there.
    Senator McCain. Justice Moreno.
    Mr. Moreno. Yes.
    Senator McCain. Have you been to Belize?
    Mr. Moreno. Yes, about 2 years ago, and I have also visited 
the adjoining countries of Mexico and Guatemala. So I am 
familiar in particular with the Yucatan and some of the Mayan 
archeological sites that were referred to earlier.
    Senator McCain. Mr. Nichols, it seems to me that your 
biggest challenge is the fact that now Peru has overtaken 
Colombia as the No. 1 drug source of drugs in our hemisphere. 
How do you account for that, and what do we need to do?
    Mr. Nichols. Thank you, Senator.
    Peru has rededicated itself under President Humala to deal 
with the issue of illicit coca cultivation, which was something 
that, frankly, was not prioritized as much as it could have 
been under previous administrations. The budget for dealing 
with counternarcotics issues from the Peruvian Government has 
been doubled under the current administration. The eradication 
targets and interdiction programs have also increased 
substantially.
    The U.N. Office on Drugs and Crime released its assessment 
of drug cultivation in Peru last week and noted that 
cultivation had dropped for the first time in 7 years, and that 
according to the U.N. Office on Drugs and Crime, they have 
reached an inflection point. I think that now is an opportunity 
for Peru and the United States, as its key partner in this 
effort, to continue our robust support for drug eradication, 
training of police, prosecutors, and judges, and bringing a 
holistic approach to alternative development in key coca 
cultivation areas.
    Senator McCain. I do not quite understand your statement 
because there was just announced that Peru had passed Colombia 
as No. 1, and you are saying that they are making improvements. 
I do not think that is substantiated by the facts.
    Mr. Nichols. Certainly Colombia, which had been the leading 
producer, has made dramatic gains in reducing coca cultivation 
in its country, and at the same time, Peru's cultivation had 
increased for the preceding 7 years. This year, in 2012, the 
most recent year in which statistics are available, according 
to the U.N., cultivation has gone down for the first time.
    So I think there are signs of progress.
    Senator McCain. But they are still No. 1?
    Mr. Nichols. Yes, sir.
    Senator McCain. And are we getting cooperation from their 
law enforcement people?
    Mr. Nichols. The cooperation has been excellent. President 
Humala and his administration, as I said earlier, have 
increased their funding for counternarcotics programming. They 
have increased the number of police and military dedicated to 
the fight against counternarcotics. They have increased 
alternative development programs, and we are supporting them in 
those efforts.
    Senator McCain. Well, again, I do not want to be 
argumentative. But if they are still No. 1 in the hemisphere, I 
am not impressed by signs of progress. Being No. 1 in our 
entire hemisphere is a pretty serious charge, even if it has 
``declined,'' which I had not--I did not have that information. 
I am glad to have it.
    Thank you very much, Mr. Chairman.
    Senator Udall. Thank you, Senator McCain.
    Senator Durbin.
    Senator Durbin. Thanks a lot, Mr. Chairman.
    Mr. Brewster, the history of this island of Hispaniola is 
well known. This is where Columbus arrived and launched the 
settlement of the United States by so many who came to our 
shores, but it also made this island a focal point of a lot of 
change that followed over five centuries.
    Its neighbor on the island of Haiti is now the poorest 
country in the Western Hemisphere, one of the poorest in the 
world, and I visited it many times. And there has been an 
uneasy relationship between Haiti and the Dominican Republic 
over the five centuries. Different cultures, different 
languages, different views toward issues like slavery, and wars 
between the two.
    Today, there appears to be a mixed relationship between 
Haiti and the Dominican Republic. The Dominican Republic came 
to the aid of Haiti as a result of the earthquake, the 
devastating earthquake that hit the Haitian country, and yet 
most recently, there has been a controversy over the 
citizenship of Haitians in the Dominican Republic.
    In the briefing materials, they say there may be as many as 
a half a million Haitians living in the Dominican Republic. 
Mainly they are migrant workers doing very basic agricultural 
work and under very difficult conditions. The overall 
population of the Dominican Republic, a little over 10 million, 
and it appears that there is a public sentiment or a national 
sentiment in the Dominican Republic that wishes to 
disenfranchise or remove the citizenship status from the 
Haitians.
    What should the United States position be on this issue?
    Mr. Brewster. You know, that is a very good question, and 
thank you for the question, Senator Durbin. It is a challenging 
question.
    What, if confirmed, I would do is continue to work with 
President Medina, also reach out to our Ambassador to Haiti, 
and I think it is going to take a larger conversation, both 
with the international community and also with NGOs that are 
currently working in the region, as well as this committee and 
others, to really continue to look at the problems that are 
challenges for the underserved.
    Obviously, I will go to the post, if confirmed, with a 
strong--being a strong advocate for human rights. And any time 
there is someone marginalized, we need to continue to make 
sure, as one of our key values in the United States, that 
people are protected and all have the same rights as others.
    So it is a very good question. I think we need to stay very 
actively involved. I think we need to keep the conversation 
going, expand the people that are involved in the conversation, 
and work toward a resolution and come up with a game plan on 
how to take care of these individuals.
    Senator Durbin. Mr. Brewster, you and I are friends with 
Bob and have been for a long time. And your friendship is part 
of the reason I am here today in enthusiastic support of your 
nomination.
    But we both know there is some controversy already 
associated with it in terms of sexual orientation and your 
partnership with Bob. You have spent a lifetime dealing with 
this issue, at least your adult lifetime dealing with this 
issue. And now, as Ambassador, it appears that you will be 
dealing with it, after confirmed, in a foreign land, in the 
Dominican Republic.
    Tell me how you view this as you go forward. The President 
is behind you. I am behind you. How do you and Bob view this as 
you have this opportunity to serve representing the United 
States of America?
    Mr. Brewster. Thank you for the question, and I would love 
to address that.
    You know, Bob and I both are very, very proud. And when we 
had the call that we were going to be nominated to go to the 
Dominican Republic, it is obviously a country that we spend a 
lot of time in, and we have been embraced and have seen the 
warmth of their people and their culture.
    And since the controversy has happened, we have had even 
more resolve to make sure that we go and represent with the 
utmost dignity and move forward the objectives of the American 
people and President Obama and this committee. So we go very 
proudly.
    You know, everything in life comes with its challenges. But 
I said in my opening statement, it even makes you more proud, 
and it makes me very proud of this President, and it makes me 
very proud to represent the United States. And it makes us very 
proud as a couple that has been together for 25 years to be 
able to go and represent the United States.
    Senator Durbin. Thank you. And you could have walked away 
when the controversy started, and neither one of you would. I 
respect you so much for that.
    I think that you are going to advance the cause of human 
rights in ways that many people never dreamed of, given this 
opportunity. So I wish you both the very best.
    And I thank the other two nominees, obviously well 
qualified. I wish you the very best in your assignments.
    Thank you, Mr. Chairman.
    Mr. Brewster. Thank you, Senator.
    Senator Udall. Thank you very much, Senator Durbin. Really 
appreciate your comments and appreciate your participation 
today.
    And let me say to all three nominees and your families, I 
did not say this at the beginning, but I think it always is 
important to mention. We know how important families and 
partners are in terms of supporting you in your effort, and we 
applaud them and very much appreciate.
    We know the sacrifices. Many of us up on this side of the 
dais know that from our public service. So we thank the 
families for all of your service to the country, too.
    I believe, as Senator Durbin has said, these are three very 
well-qualified nominees, and these are three countries that are 
very important to the United States of America. So it is great 
to have you here today.
    We are going to, hopefully, be able to hold a vote soon and 
move your nominations at the full committee. We will keep the 
record open for 24 hours for questions. And to the extent that 
you get questions, please answer them quickly so that we can 
move things along.
    Senator Udall. Thank you very much, and the subcommittee is 
adjourned.
    [Whereupon, at 3:19 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


       Responses of James Brewster, Jr., to Questions Submitted 
                       by Senator Robert Menendez

    Question. Do you agree that encouraging clean energy investment in 
the Dominican Republic should be a priority for the administration? How 
will you work with the Dominican Government to make the electric 
utility sector more reliable and more efficient?

    Answer. Encouraging clean energy investment in the Dominican 
Republic will continue to be a priority, and one of the best places to 
start is with the creation of a strong and resilient energy sector. If 
confirmed, I will strive to support the work of the Medina 
administration, the World Bank, and the Inter-American Development Bank 
to implement sound management and governance of the energy sector, 
reduce distribution losses, and increase the use of renewable energy. 
The United States Government also works through bilateral and 
multilateral initiatives, such as Connect 2022 and Sustainable Energy 
for All, to promote regulatory policies and frameworks that encourage 
private sector investment and development of the Dominican Republic's 
abundant renewable resources.

    Question. What steps will you take to encourage the Government of 
the Dominican Republic to further strengthen its commitment to 
renewables as an integral part of reducing electricity costs on the 
island and decreasing its dependency on foreign oil?

    Answer. If confirmed, I will underscore to the Dominican Government 
that increasing use of renewable resources depends on providing the 
right incentives, properly governing the energy sector, and setting 
ambitious targets. The Dominican Government can encourage better use of 
the tax exemptions it offers to promote renewable energy investment and 
improve the approval process for developers of renewable energy. 
Incentives meant to obtain 25 percent of the Dominican Republic's 
energy from renewable sources by 2025 remain underutilized. As of 2012, 
renewable energy sources accounted for just 13 percent of the energy 
matrix (12 percent from hydroelectric power and 1 percent from wind 
energy). The recent announcement of the new German-owned Wirsol Solar 
AG energy park in Monte Plata is a move in the right direction. When 
construction is complete, the solar park will supply 64 megawatts to 
the national grid and be the second largest solar energy park in Latin 
America.

    Question. Do you foresee that the negotiations for the Trans-
Pacific Partnership could afford any advantages to footwear and apparel 
producers in Asia that could negatively impact the Dominican Republic?

    Answer. The United States has assured CAFTA-DR textile industry 
representatives and governments that we are seeking a yarn-forward rule 
of origin in the Trans-Pacific Partnership (TPP), a position reinforced 
by strong interest from the U.S. textile industry, which has 
established profitable supply chains with CAFTA-DR apparel producers. 
Yarn-forward assures the benefits of our Free Trade Agreements (FTAs) 
accrue to U.S. yarn manufacturers and their partners by requiring that 
all components of an apparel item, starting with the yarn, originate in 
the FTA area to qualify for tariff cuts. The TPP short-supply list, 
which would provide limited exemptions to the yarn-forward rule based 
on limited availability of certain yarns and fabrics within the TPP 
area, is under negotiation, but domestic concerns that apply to yarn-
forward similarly apply to the short-supply list.
    Rather than focus on TPP as a threat, the CAFTA-DR textile industry 
could undertake a number of activities to improve competitiveness. It 
could take advantage of its proximity to the United States (10 days to 
market compared to 28 days from Vietnam) to meet supply shortages or 
custom orders. The CAFTA-DR countries' textile industry and governments 
could also explore with USTR broadening the CAFTA-DR short-supply list 
in line with the final TPP list. The Central American and Dominican 
governments could address broader competitiveness challenges, including 
high electricity costs, poor transportation infrastructure, and 
regulatory opacity.

    Question. What steps will you take to partner with the Government 
of the Dominican Republic to help strengthen the capacity of law 
enforcement and the legal system in the country?

    Answer. If confirmed, I will work to strengthen the existing 
programs managed through the Caribbean Basin Security Initiative 
(CBSI). The Dominican Republic benefits directly from these programs, 
which include: the establishment of an emergency 911 system in Santo 
Domingo; training programs for the Dominican military and law 
enforcement authorities to enhance their ability to safeguard citizen 
security and fight drug trafficking and illegal immigration; and 
technical assistance and training for Dominican law enforcement 
authorities on police reform, prosecuting crimes more effectively, 
reducing corruption; raising awareness about gender violence and human 
rights, combating money laundering and organized crime, enhancing 
security at ports of entry, and making justice services more 
accessible, timely, and responsive. CBSI also provides grants and 
expertise that support local efforts to combat trafficking in persons.

    Question. The recent ruling by the Dominican Constitutional Court 
has the potential to make stateless tens of thousands of Dominican-born 
individuals of Haitian ancestry, which would remove access to basic 
services for which identity documents are required. If confirmed, how 
will you seek to ensure that Dominican citizens of Haitian origin are 
not deprived of their right to nationality in accordance with the 
Dominican Republic's international human rights obligations?

    Answer. The United States promotes nondiscrimination of vulnerable 
populations and social inclusion as a tenet of our foreign policy 
worldwide. If confirmed, I will continue to coordinate closely with our 
partners in the Dominican Government to urge that Haitians and 
Dominicans of Haitian descent born in the Dominican Republic are 
treated humanely and in keeping with international norms and the 
standards set forth in international agreements to which the Dominican 
Republic is a signatory.
    If confirmed, I will promote USAID programs that assist those of 
Haitian origin and descent in the Dominican Republic. USAID has several 
initiatives for vulnerable groups which include the Haitian and Haitian 
descendant population, many of whom live in ``batey'' communities 
(company towns where sugar cane workers live). Since 2006, USAID has 
worked in approximately 208 bateyes across the Dominican Republic. I 
will also work with the United Nations High Commissioner for Refugees 
and other members of the international community to ensure proper 
treatment of those affected by the recent ruling.
    In doing so, I will be following a well-documented and core U.S. 
strategy that seeks to place human rights at the center of our 
bilateral relationships with partners such as the Dominican Republican. 
In 2010, former Secretary Clinton awarded the State Department's 
International Women of Courage Award to Sonia Pierre, a courageous 
human rights defender who dedicated her life to fighting anti-Haitian 
injustice in the Dominican Republic. The award honored Ms. Pierre ``for 
advancing the cause of social justice, confronting exploitation and 
discrimination, defending the dignity of persons of Haitian descent in 
the Dominican Republic, and helping marginalized communities develop 
their own voices for their own future.''
    If confirmed, I will also seek to complement the efforts of my 
colleagues in Port-au-Prince and the Office of the Haiti Special 
Coordinator who are working to promote stronger relations between the 
Governments of Haiti and the Dominican Republic through the Haitian-
Dominican Bi-National Commission.
                                 ______
                                 

         Responses of Brian A. Nichols to Questions Submitted 
                       by Senator Robert Menendez

    Question. What is your evaluation of the feasibility of the Humala 
administration's recent announcement that the government will provide 
solar power to 2 million lower income citizens? What lessons will you 
draw from this program that could help inform U.S. policy on renewable 
energy deployment and electricity access in other countries in the 
region?

    Answer. The Humala administration's plan to increase the percentage 
of Peru's energy that comes from renewable sources is ambitious, and 
the cost of implementing projects in solar energy has been falling 
globally, making this technology more competitive with conventional 
sources. Peru already obtains a majority of its electricity from 
hydroelectric power. Peru's climate and geography offer rich 
opportunities for renewable energy projects, including some of the 
highest solar irradiance in South America, which could play a valuable 
role in broadening the country's energy matrix.
    The United States has companies that produce solar technologies; 
policies that foment effective power sector management, and strong 
engagement on the issue, such as through the ``Connecting the Americas 
2022'' initiative. Peru's experience will no doubt provide important 
``lessons learned'' as the United States and its partners seek to 
expand energy access in the hemisphere.

    Question. What is your evaluation of the Humala administration's 
effort to use royalties from extractive industry to fund the 
development of infrastructure projects and promote greater social 
inclusion in the country? How can U.S. policy best support the Humala 
administration's effort on this front and what steps would you take as 
Ambassador to promote broad-based economic growth in Peru?

    Answer. President Humala made the social and economic inclusion of 
all Peruvians a primary focus of his administration. One of the first 
laws his administration submitted to the legislature was a new tax on 
the mining industry's high profits from favorable international 
commodity prices. The proceeds from this tax are spent on social 
services, such as initiatives related to school funding, cash 
transfers, and support to the elderly.
    The Humala administration has been proactive in promoting 
transparency in the expenditure of revenues from the extractive 
industries that is transferred to subnational governments.
    U.S. assistance priorities are largely complementary to the Humala 
administration's efforts to implement social inclusion. USAID programs 
in health, democracy, economic growth, environment, and alternative 
development have long promoted social inclusion, including by 
encouraging equality of opportunity. Other examples of U.S. assistance 
promoting social inclusion are a Department of Labor grant to reduce 
exploitative child labor in agriculture in rural areas of Peru, as well 
as public diplomacy exchanges that support Peru's new law requiring 
consultation with communities and empower Afro-Peruvian and indigenous 
communities. If confirmed, I will continue to support Peruvian programs 
that offer opportunities to groups previously excluded from the 
benefits of economic growth.

    Question. As Peru ranks as the largest cultivator of coca in the 
world, what steps will you take to ensure that U.S. assistance is used 
most effectively to help the Peruvian Government with its 
counternarcotics efforts throughout the country? What lessons will you 
draw from your time in the U.S. Embassy in Bogota, Colombia to inform 
U.S. counternarcotics strategies in Peru?

    Answer. Our counternarcotics cooperation with Peru in recent years 
has produced significant results, and challenges remain. The Humala 
administration is implementing a comprehensive and increasingly 
effective counternarcotics strategy that combines social inclusion 
efforts with eradication of illicit coca, interdiction, alternative 
development, and demand reduction activities.
    In 2012, with U.S. support, the Government of Peru manually 
eradicated 14,171 hectares of coca--nearly 40 percent more than in 
2011--and its 2012 eradication target.
    As of October 4, Peru already had exceeded the 2012 full year 
total, reaching over 18,665 hectares eradicated. This year, Peruvian 
authorities reported significant increases in seizures of cocaine and 
precursor chemicals over 2012.
    Alternative development programs that provide licit economic 
alternatives for communities in coca producing regions coupled with 
improved access to government services are essential to achieving long-
term reductions in coca cultivation. I have seen this firsthand during 
my tenure as Deputy Chief of Mission in Colombia as well as during my 
service as Principal Deputy Assistant Secretary of State for 
International Narcotics and Law Enforcement Affairs (INL). U.S. 
assistance has been fundamental in all of these areas and, if 
confirmed, I intend to continue to work with the Peruvian Government to 
consolidate the gains made so far.
    A primary lesson I will carry from my time in Bogota, as well as 
from my time in INL, is that we are most successful when our efforts 
support the plans of the governments we are assisting. The Humala 
administration plans to devote approximately $1 billion through 2016 to 
implement its counternarcotics strategy, significantly more than Peru 
has ever spent in the past. Peru's commitment to working with the 
United States to combat drug trafficking has also resulted in 
significant cost-sharing. In December 2012, Peru contributed $11.6 
million toward 2013 eradication efforts. In addition, Peruvian 
Government targets for eradication and interdiction have increased 
substantially as has funding for alternative development. The United 
States will continue to support the Government of Peru's ambitious 
2012-2016 Counternarcotics Strategy which we believe is a comprehensive 
strategy that takes a holistic approach to responding to this 
challenge.
                                 ______
                                 

       Responses of James Brewster, Jr., to Questions Submitted 
                          by Senator Tom Udall

    Question. What more can the United States do to increase the use of 
renewable energy as part of the overall energy portfolio in the 
Dominican Republic?

    Answer. The Dominican Republic faces challenges in encouraging 
greater use of renewable energy. The Dominican Republic's electrical 
grid has one of the highest rates of distribution losses in the world, 
and renewable energy developers face significant bureaucratic hurdles 
to project approval. Increased use of renewable resources depends on 
setting ambitious targets, providing the right incentives, and properly 
governing the energy sector.
    We are working with the Medina administration, the World Bank, and 
the Inter-American Development Bank to implement sound management and 
governance of the sector, reduce distribution losses, and increase the 
use of renewable energy. Additionally, the United States Government 
works through bilateral and multilateral initiatives, such as Connect 
2022 and Sustainable Energy for All, to promote sound regulatory 
policies and frameworks to encourage private sector investment and 
development of the country's abundant renewable resources.
    For its part, the Dominican Government can encourage better use of 
tax exemptions it offers to promote renewable energy investment. These 
incentives, underutilized to date, have been in place since 2007 and 
are meant to obtain 25 percent of the Dominican Republic's energy from 
renewable sources by 2025. As of 2012, renewable energy sources 
accounted for just 13 percent of the energy matrix (12 percent from 
hydroelectric power and 1 percent from wind energy). The recent 
announcement of the new German-owned Wirsol Solar AG energy park in 
Monte Plata is a move in the right direction. When construction is 
complete, the solar park will supply 64 megawatts to the national grid 
and be the second-largest solar energy park in Latin America.

    Question. What are the most pressing governance challenges in the 
Dominican Republic, and what efforts are underway to improve free and 
fair democratic elections in the country? Specifically, how will you 
work with the Dominican Republic and nongovernmental organizations to 
assuage concerns about electoral results in the future?

    Answer. A key governance challenge for the Dominican Republic 
remains the need to confront corruption. Since his inauguration in 
2012, President Medina established a government code of ethics and 
removed one corrupt official from office, while prosecutors 
investigated other allegedly corrupt officials. Nevertheless, 
government corruption remains a serious problem and a key public 
grievance. The U.S. Government works closely with the Dominican 
Government, private sector, and civil society, and other international 
actors to address corruption concerns. The Caribbean Basin Security 
Initiative supports programs in the Dominican Republic that focus on 
reducing corruption, prosecuting crimes more effectively, combating 
money laundering and organized crime, and making justice services more 
accessible, timely, and responsive.
    President Medina won the Presidency in May 2012 in an election that 
observers assessed as generally free and orderly. That said, there were 
reported irregularities, including voter fraud, unequal access to the 
media, and inadequacies in the legal framework that regulates the use 
of public resources and campaign financing. Many experts believe that 
the passage of the political parties draft law would improve 
transparency in campaign finance expenditures. If confirmed, and in 
anticipation of the next Presidential election in 2016, I will work 
with appropriate Dominican agencies, in particular the Central 
Electoral Board and civil society, as well as multilateral 
organizations and other diplomatic missions, to promote free and fair 
elections. I will encourage the Dominican authorities to address 
concerns raised by civil society groups and continue outreach to 
promote democratic electoral processes and a collaborative review of 
recommendations that will increase transparency and reduce corruption 
in the overall election process.
                                 ______
                                 

        Response of Carlos Roberto Moreno to Question Submitted 
                          by Senator Tom Udall

    Question. My understanding is that HIV/AIDS is very prevalent in 
Belize, and that in fact the HIV/AIDS rate in Belize is higher than any 
other country in the region. What can be done to address and combat the 
epidemic, and what does Belize still need to do to improve access to 
antiretroviral drugs?

    Answer. Belize suffers from the highest HIV/AIDS prevalence rate in 
Central America. Over 4,600 people are reported to be living with HIV 
in Belize, over 2 percent of the adult population. The Belizean 
Government provides access to antiretroviral drugs, but more public 
outreach must be done to ensure these drugs are taken properly and to 
encourage more Belizeans to get tested and seek treatment. Stigma and 
discrimination remain obstacles to combating the epidemic in Belize. 
Belize has reduced mother-to-child transmission by providing treatment 
to infected pregnant women. The Belizean Government provides services 
to children who have lost parents to HIV/AIDS, runs public education 
programs, and coordinates the actions of various ministries and NGOs to 
fight HIV/AIDS. However, these programs must focus more on the most at-
risk populations driving the epidemic.
    U.S. foreign assistance helps Belize better understand and address 
its HIV/AIDS epidemic, assist prevention efforts, and help NGOs working 
with the most at-risk populations. The United States funds HIV/AIDS 
programs in Belize through Peace Corps and regional President's 
Emergency Plan for AIDS Relief (PEPFAR) programs implemented by the 
U.S. Agency for International Development, the Department of Defense, 
and the Centers for Disease Control (CDC). Belize also receives funding 
through the U.N. Global Fund and from the Ambassador's HIV prevention 
program, a PEPFAR-funded program managed by U.S. Embassy Belmopan.
    In 2013, CDC supported Belize in conducting an HIV National 
Behavioral Surveillance Survey and is assisting Belize's National AIDS 
Program in finalizing the report. In 2014, CDC will conduct an 
evaluation to identify gaps and recommend actions to facilitate 
strategic planning. CDC is also conducting capacity-building workshops.
                                 ______
                                 

         Responses of Brian A. Nichols to Questions Submitted 
                          by Senator Tom Udall

    Question. How will you address the environmental concerns facing 
communities in Peru, and what can the United States do to help 
encourage sustainable best practices in the extractive industries of 
Peru?

    Answer. It is in the U.S. interest to help Peru to protect its vast 
natural resources. The United States has long supported Peru's efforts 
to protect the environment and to enforce its environmental laws. Peru 
has the world's fourth-largest tropical rainforest area and is among 
the world's top five countries in biodiversity. The United States has 
an interest in protecting these resources that provide oxygen for the 
world. Peru's diversity is a treasure for the world. If confirmed, I 
will bring the full range of tools available to help Peru address the 
environmental challenges that it faces.
    For example, under the terms of the U.S.-Peru Free Trade Agreement, 
including the Forestry Annex and the related Environmental Cooperation 
Agreement, both countries made commitments to protect the environment 
and improve forest sector governance in particular. U.S. funding and 
training promote institutional strengthening, environmental 
enforcement, and public participation through community-based 
management of forests and other resources. Peru committed to providing 
funds, personnel, and effective institutional and legal regimes to 
preserve the environment. While a lot of work remains, significant 
progress has been made under this framework.
    There are additional ways the United States can support Peru's 
efforts. Peru has regulations in place that require environmental 
impact assessments (EIAs) as part of the review process in granting 
mining concessions. The United States can work with Peru to exchange 
information about best practices in EIAs and can also work with the 
government in areas of environmental and health concerns such as in the 
use of mercury in artisanal gold mining. The United States can 
encourage adoption of technologies that reduce environmental fall-out 
while still promoting Peru's sustainable economic growth.

    Question. U.S. foreign assistance to Peru has been declining over 
the past few years and Peru's Millennium Challenge program recently 
ended. From your perspective, where should future prospective U.S. 
assistance to Peru be directed?

    Answer. U.S. assistance remains vital to confronting many important 
challenges in Peru. Many Peruvians live in poverty, and Peru's 
incredible environmental diversity is threatened by climate change and 
illegal mining and logging. In addition, Peru remains the world's top 
coca producing nation, despite recent progress. In order to address 
these challenges, carefully focused U.S. assistance and technical 
support, combined with sustained funding and efforts by our partners in 
the Peruvian Government, in the business community, and in civil 
society remain essential.
    The Peruvian Government has taken on these challenges with energy 
and increased funding and they have seen important progress as the 
percentage of people living in poverty in Peru fell from 54.7 percent 
in 2002 to 25.8 percent in 2012. If confirmed I will work to ensure 
that every dollar of U.S. assistance is used wisely while encouraging 
the Peruvian Government to continue with its own efforts, looking for 
opportunities for public-private partnerships, and cooperating with 
nongovernmental organizations to multiply the effect of our aid.


           NOMINATIONS OF DANIEL YOHANNES AND ANTHONY GARDNER

                              ----------                              


                       THURSDAY, OCTOBER 31, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Daniel W. Yohannes, of Colorado, to be Representative of the 
        United States of America to the Organization for 
        Economic Cooperation and Development
Anthony L. Gardner, of New York, to be Representative of the 
        United States of America to the European Union
                              ----------                              

    The committee met, pursuant to notice, at 2:22 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy presiding.
    Present: Senators Murphy, Kaine, and Johnson.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Good afternoon, everyone. This hearing of 
the Senate Foreign Relations Committee will now come to order. 
Today we are here to consider two nominations: Daniel Yohannes 
to be Ambassador to the Organization for Economic Cooperation 
and Development, and Anthony Gardner, to be the Ambassador to 
the European Union. Congratulations to both of you on your 
nominations. We have had the chance to talk privately, 
appreciate the time that you have afforded me and the 
committee. If confirmed, you are both going to be called upon 
to serve and advance the interests of the American people at a 
very critical time in Europe.
    We are going to flip our normal order here because Senator 
Bennet has other engagements. So we are going to do 
introductions first, then opening statements from the panel, 
then your testimony and questions. So first let me welcome 
Senator Bennet here to introduce Mr. Yohannes.

             STATEMENT OF HON. MICHAEL F. BENNET, 
                   U.S. SENATOR FROM COLORADO

    Senator Bennet. Thank you, Mr. Chairman, and I want to 
thank you and Senator Johnson. The engagements that I have are 
trick or treating with my little girl. So let the record 
reflect that, and if I can make this plane I will be able to do 
it. So Happy Halloween.
    It is a great privilege for me to have the honor to 
introduce Daniel Yohannes, the President's nominee to represent 
our country at the Organization for Economic Cooperation and 
Development. Daniel is one of Colorado's best and brightest, 
and his story exemplifies much of what makes America unique.
    He immigrated to the United States from his native country, 
Ethiopia, at the age of 17. When he got here he had about $150 
in his pocket and that was about it. He got his first job as a 
stock clerk and started earning about $1.75 an hour. But he 
worked hard and he studied hard. He financed his own education, 
earning a B.A. and an M.B.A. He delved into the fields of 
economics and finance and he clearly learned those subjects 
well because he soon excelled in the banking industry.
    As CEO of Colorado National Bank, he helped grow this 
Colorado franchise from $2 billion to $9 billion in assets. 
Daniel also became a pillar in the community in Colorado. As a 
member of Colorado Concerned, he fought to promote business 
growth in our State. He supported Project Cure's mission to 
provide medical supplies to people in need, and he and his wife 
helped establish the Denver Art Museum's first African gallery.
    In 2009 the President nominated Daniel to be the CEO of the 
Millennium Challenge Corporation, the MCC. The Senate swiftly 
and unanimously confirmed him. In this role Daniel has fought 
global poverty with carefully targeted foreign aid dollars 
awarded through a rigorous selection process. With Daniel's 
leadership, developing nations have successfully used MCC 
funding to improve infrastructure, increase access to schools, 
and help farmers obtain credit. This in turn has helped attract 
overseas investment, creating a climate in which American 
companies can thrive.
    As this country's new Ambassador to the OECD, I know Daniel 
will continue to be an effective advocate for the United 
States, championing economic growth and good governance.
    Mr. Chairman, Daniel's story is an American story. It 
reminds us that we are a nation of immigrants. It showcases the 
importance of hard work and the value of an education. It 
demonstrates that entrepreneurs who play by the rules thrive in 
America and can have a long-lasting positive influence on our 
communities. it shows how much American leadership on the world 
stage still matters.
    It is a real pleasure and honor to introduce Daniel 
Yohannes. I recommend him enthusiastically and uncategorically, 
and I hope this committee and this body will swiftly confirm 
him in his new role.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you, Senator Bennet. Happy trick or 
treating.
    Senator Bennet. Thank you.
    Senator Murphy. Let me now introduce----
    Senator Bennet. There's nothing more scary than being 
dressed as a Senator.
    Senator Murphy. I know. Unfortunately, that is all too 
true.
    I am now pleased to introduce our second witness today and 
that is Anthony Gardner, who is the nominee to be the United 
States Ambassador to the European Union. Mr. Gardner is 
currently the managing director of Structured Finance at 
Palamon Capital Partners and previously served as executive 
director of European Leveraged Finance at Bank of America, also 
spent 5 years at one of Connecticut's great companies, General 
Electric, working on transactions all across Europe.
    He has lived most of his adult life in Europe. Mr. Gardner 
served as Director of European Affairs at the National Security 
Council as well during the Clinton administration, where he 
played a key role in launching the new Trans-Atlantic Business 
Dialogue. He has written in both his public and private sector 
life extensively on EU issues, including a book on 
transatlantic relations and an article published in Foreign 
Affairs that he coauthored with Ambassador Stuart Eizenstat, 
who we know very well on this committee.
    He holds a B.A. from Harvard College, which I will not hold 
against you, and a number of master's degrees as well. I will 
note for the record that a number of our colleagues, more than 
normal, called in support of your nomination, given your great 
work as a member of the administration with this committee and 
with others in the Senate.
    Welcome to both of you. We look forward to your testimony.
    Let me just say by way of opening statement and then I will 
turn it over to Senator Johnson, that this hearing obviously 
happens in context. Recent events and headlines have brought an 
enormous amount of attention to the United States relationship 
with Europe. Senator Johnson and I have had a number of 
meetings just this week with visiting delegations who have 
raised legitimate concerns about U.S. spying on world leaders 
and subsequent accusations of foreign intelligence agencies 
spying on the United States.
    You are both going to be nominated to serve in 
organizations based in Europe and you are likely going to be 
confronted with these issues the moment that you arrive in 
Paris or Brussels. I hope that you will not hesitate, first, to 
push back on the misinformation that is already hardening into 
perceived facts amongst the American public when it comes to a 
lot of these programs.
    Europeans and Americans have raised legitimate concerns 
about the scope of U.S. intelligence programs and I am sure 
that many of my colleagues will agree that at times these 
programs have not been conducted with the appropriate restraint 
and security. But while we have discussions here in the United 
States to ensure that we are not doing anything more than 
necessary to protect Europe and the United States from 
terrorism, we also have to acknowledge that we are not the only 
ones who have been collecting data across the world over the 
last few decades. And while there may be one set of activities 
that are indefensible, there are other programs that are 
crucial to our mutual security, the United States and Europe, 
and it is important for that work to continue even while 
possibly amended.
    Now, although this is going to be the topic that will 
dominate the headlines as you arrive in Europe, we are going to 
expect you to get right to work on a host of other issues. Mr. 
Gardner, you are going to represent the United States during 
the beginnings of a potentially transformational negotiation 
surrounding TTIP, and we know that you will be trying to move 
those efforts forward for an agreement that has enormous 
economic and geopolitical ramifications for the United States.
    At the same time, you will also be talking about really 
important energy concerns that Europe has. One of the greatest 
gifts we can give to our European partners today is to give 
them some of the benefit that we have achieved through our 
movement toward energy independence.
    Mr. Yohannes, in your new role you are going to be tasked 
with improving global business standards, coordinating 
anticorruption efforts, and advancing democracy. The OECD has 
been a critical player in leveling the playing field in 
international markets for U.S. businesses, and as we seek to 
achieve the President's challenge to double U.S. exports over 
the next several years it is going to be a lot of your work 
that will help our businesses rise to that challenge.
    So we are excited that you are here at a really important 
moment to be talking about our relationship with Europe. WT 
that, let me turn it over to the ranking member, Senator 
Johnson.
    Senator Johnson. Thank you, Mr. Chairman. As usual in these 
situations, you have done a pretty good job of laying out the 
issues and pretty well framing what we want to be discussing 
today.
    Normally my main point in these nomination hearings is 
first of all to welcome the nominees, thank you for your 
willingness to serve, and just also point out the dual role 
that I believe any Ambassador, whether it is to a different 
nation or to an organization, really has to play. First and 
foremost, it is representing America to those nations, to those 
organizations, and doing it with pride, recognizing really what 
a phenomenal force for good America is in the world, and never 
apologizing for this Nation, recognizing we are not perfect, 
but again we are a phenomenal force for good.
    But then the second part of that role is representing those 
nations and those organizations back to us. As the chairman was 
pointing out, we have heard repeatedly about the concerns of 
the recent revelations. We should be pushing back. What America 
is trying to do is we are trying to not only preserve our 
freedoms, prevent terrorist attacks not only in our homeland, 
but really throughout the world. We were trying to, as much as 
possible, preserve world peace. I think that is an important 
point to be making.
    But also, we need to be fully understanding of how our 
allies, how our friends, how the nations that you are going to 
be representing us to, how they perceive what is happening 
here. So again it is a very important dual role, and I am sure 
that, based on your qualifications, you will be able to fill 
that quite well.
    But again, thank you for your willingness to serve and 
welcome to the committee.
    Senator Murphy. Now we will hear from our nominees, first 
Mr. Gardner and then Mr. Yohannes.

      STATEMENT OF ANTHONY L. GARDNER, OF NEW YORK, TO BE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE EUROPEAN 
                             UNION

    Mr. Gardner. Mr. Chairman, Senator Johnson, Senator Kaine, 
it is an honor to appear before you today as the President's 
nominee to be the next United States Ambassador to the European 
Union. I would like to express my gratitude to the President 
and to Secretary Kerry for the trust and the confidence they 
have placed in me with this nomination.
    If confirmed, I would be accompanied to the post by my wife 
of 16 years, Sandra Mac-Crohon, who managed the American 
Embassy residence when we met. Accompanying me today are my 
father and my sister. My father served this country, with great 
distinction, in Italy and in Spain. As an indirect result of 
his service, I married a Spaniard and my sister, Nina, now a 
corporate sustainability advisor and an adjunct professor, 
married a distinguished former Italian diplomat.
    Unfortunately, my mother, Danielle Luzzatto, did not live 
to see this day. But soon after her untimely death in 2008 I 
adopted her last name as my middle name to recognize and 
remember her and her remarkable family. Although her ancestors 
had lived in Italy for over 500 years, my maternal grandfather, 
Bruno Luzzato, had to lead his family out of Italy in 1939 
after the enactment of Mussolini's racial laws. He and his 
family were fortunate to start a new life in this country and 
to become proud Americans.
    Serving as U.S. Ambassador to the European Union would put 
me at the center of many of the issues I have cared about 
deeply and have been involved in for 23 years, first as a 
lawyer, then as a government official, and more recently as a 
banker and investor living and working in Europe.
    My journey to this moment began during my study of EU 
economic and legal affairs as a gradate student at Oxford and 
then at Columbia Law School. These experiences led me to work 
in the antitrust department of the European Commission in 1991. 
It was a fascinating time to be in Brussels due to the 
completion of the single market and the opening up to new 
members in the East.
    That experience in turn led me to take what was an unusual 
decision for an American-trained lawyer, to start my legal 
career practicing EU antitrust and trade law in Brussels.
    All those decisions led me to work as Director for European 
Affairs, responsible specifically for EU issues, in the 
National Security Council in 1994-1995. I was extremely 
fortunate to have the opportunity to collaborate closely with 
the U.S.-EU mission under the able leadership of Ambassador 
Stuart Eizenstat on the launching of the new Transatlantic 
Agenda and the TransAtlantic Business Dialogue, initiatives 
that remain relevant today.
    My experience from that period and confirmed by subsequent 
observation is that we should never underestimate the political 
will of the European Union to survive, to adapt, and move 
forward, even under periods of extreme economic and financial 
stress.
    Even when I returned to law practice in Brussels, Paris, 
and then London, I remained involved in EU trade issues and 
subsequently in many regulatory issues that affect corporate 
and private equity investments in many European countries. As a 
banker and as a private equity professional over the past 
decade, I have been deeply involved in negotiating financial 
and legal transactions across the European Union.
    As you know, the U.S.-EU economic relationship is the 
deepest and most balanced in the world. Together we account for 
almost half of global output of goods and services and almost a 
third of global trade, and there is over $3.5 trillion in two-
way foreign direct investment. But these statistics only tell 
part of the story. We are a community of shared values.
    I cannot think of a more interesting time and a more 
challenging time in U.S.-EU relations. Due in part to the 
institutional improvements brought about by the Lisbon Treaty, 
the EU has become a more effective global partner of the United 
States in addressing an increasing variety of transnational 
challenges that cannot be solved by any one country acting 
alone. There are many examples, from global crime and 
terrorism, proliferation of weapons of mass destruction, 
economic and financial stability, and so forth.
    The United States and the European Union must continue to 
collaborate closely to address such challenges in the future. 
In doing so, we need to interact effectively with all the 
institutions of the European Union, including the European 
Parliament. The U.S. mission to the EU is at the center of 
these efforts. It is staffed by a highly professional and 
dedicated group of people. It would be an honor for me to lead 
them.
    One of the most important objectives of the mission is to 
help conclude an ambitious trade and investment partnership 
agreement that will significantly reduce obstacles to market 
access relating to tariffs, services, investment, and 
procurement, but also by tackling the critically important area 
of regulations and standards. Just as significantly, this 
negotiation offers an opportunity to advance multilateral trade 
liberalization and set globally relevant rules and standards, 
and concluding an agreement would have major geopolitical 
significance. It would reinforce the vitality, attractiveness, 
and relevance of our shared model of governance.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Mr. Gardner follows:]

             Prepared Statement of Anthony Luzzatto Gardner

    Mr. Chairman and distinguished members of the Senate Foreign 
Relations Committee, it is an honor to appear before you today as the 
President's nominee to be the next United States Ambassador to the 
European Union. I would like to express my gratitude to President Obama 
and Secretary Kerry for the trust and confidence they have placed in me 
with this nomination.
    If confirmed, I would be accompanied during my service in Brussels 
by my wife of 16 years, Sandra Mac-Crohon, who managed the American 
Embassy residence in Madrid when we met. Accompanying me today are my 
father, my sister, and my brother in law. My father served this country 
with distinction as Ambassador in Italy and Spain. As an indirect 
result of his service, I married a Spaniard, and my sister, Nina, now 
an adjunct professor and consultant in Washington, married Francesco 
Olivieri, a distinguished former Italian diplomat.
    Unfortunately, my mother, Danielle Luzzatto, did not live to see 
this day; but soon after her untimely death in 2008 I adopted her last 
name as my middle name to remember her and her remarkable family. 
Although his ancestors had lived in Italy for over 500 years, my 
maternal grandfather, Bruno Luzzatto, had to lead his family out of 
Italy in 1939 after the enactment of Mussolini's racial laws. He and 
his family were fortunate to start a new life in this country and to 
become proud Americans.
    Serving as U.S. Ambassador to the EU would put me at the center of 
many of the issues I have cared about and have been involved in for 23 
years--first as a lawyer, then as a government official, and more 
recently as a banker and investor living and working in Europe.
    My journey to this moment began during my study of EU economic and 
legal affairs as a graduate student at Oxford and Columbia Law School. 
These experiences led me to work in the antitrust department of the 
European Commission in 1991; it was a fascinating time to be in 
Brussels due to the completion of the single market and the beginning 
of the opening toward new members from Central Europe. That experience, 
in turn, led me to take what was an unusual decision for a U.S. trained 
lawyer: to start my legal career practicing EU antitrust and trade law 
in Brussels.
    All those decisions led me to work as a Director for European 
Affairs, responsible specifically for EU issues, in the National 
Security Council in 1994-95. I was extremely fortunate to have the 
opportunity to collaborate closely with the U.S. mission to the EU, 
under the able leadership of Ambassador Stuart Eizenstat, on the 
launching of the New Transatlantic Agenda and the Transatlantic 
Business Dialogue--initiatives whose institutional impact reverberates 
today. My experience from that period, and confirmed by subsequent 
observation, is that we should never underestimate the political will 
of the European Union to survive, adapt and move forward--even under 
periods of extreme economic and financial stress. I also saw the 
powerful connections across the Atlantic, between our citizens, and 
between businesses large and small. I am convinced that those 
connections are continuing to grow stronger and deeper despite economic 
shocks and political challenges, and that when we work closely 
together, citizens on both sides of the Atlantic prosper.
    Even when I returned to practice law in Brussels, Paris, and then 
London, I remained involved in EU trade issues and subsequently in many 
regulatory issues that affect corporate and private equity investments 
in many European countries. As a banker and as a private equity 
professional over the past decade, I have been deeply involved in 
negotiating financial and legal transactions across the EU, and I 
understand both the benefits and the regulatory and market challenges 
investors face in operating on both sides of the Atlantic.
    As you know, the U.S.-EU economic relationship is the deepest and 
most balanced in the world: together we account for almost half of 
global output of goods and services and almost a third of global trade; 
and there is over $3.5 trillion in two-way foreign direct investment. 
Looking beyond these impressive figures, free transatlantic flows of 
data, intellectual property, knowledge and innovation--including 
collaboration among our best scientific and business minds--are 
incalculably important to our economic growth. But these statistics 
tell only part of the story: we are a community of shared values, 
including democracy, free speech, respect for human rights, and the 
rule of law.
    I cannot think of a more interesting, and challenging time in U.S.-
EU relations. Due in part to the institutional improvements brought 
about in the Lisbon Treaty, the EU has become a highly effective 
partner of the United States in adding its voice, and its weight as a 
leading source of development and humanitarian aid, to efforts to 
address key international challenges. We work in close partnership with 
the EU in efforts to persuade Iran to address the international 
community's grave concerns about its nuclear program. EU member states, 
collectively, have been the largest source of humanitarian assistance 
to those affected by the crisis in Syria. In Asia, the EU, along with 
the U.S., has been a strong and unceasing voice promoting democratic 
change in Burma. With support from NATO, the EU is building the 
framework to provide for enduring peace in the Balkans. In Africa, the 
EU played a key role in bringing Mali back to the path of democracy. 
The United States has worked closely, in concert with the EU's Eastern 
Partnership program, to promote political, social, and economic reform 
among the EU's eastern neighbours in Ukraine, Moldova, Belarus, 
Georgia, Armenia, and Azerbaijan, although these countries have chosen 
different levels of engagement with the process.
    In addition, the EU is a critical partner in addressing an ever 
wider range of transnational challenges. In our interdependent world, 
many challenges--such as global crime and terrorism, the proliferation 
of weapons of mass destruction, economic and financial instability, 
humanitarian crises, supporting the aspirations of people in new and 
emerging democracies, climate change and infectious diseases to name a 
few--cannot be solved by any one country acting alone. The United 
States and the European Union must continue to collaborate closely to 
address such challenges in the future. In doing so we need to interact 
effectively with all of the institutions of the European Union, 
including the European Parliament, whose legislative authorities have 
significantly expanded with respect to the conclusion of new EU 
treaties. The U.S. mission to the EU is at the center of these efforts. 
It is staffed by a highly dedicated and experienced group of 
professionals. If confirmed, it would be an honor for me to lead them 
and I would seek to advance our country's interest on behalf of all 
businesses and citizens.
    One of the most important objectives of the mission is to help 
conclude an ambitious Transatlantic Trade and Investment Partnership, 
or TTIP, that will position our economies for success in the 21st 
century. The United States and the EU will do this through 
significantly reducing obstacles to market access relating to tariffs, 
services, investment, and procurement, but also by tackling the 
critically important area of regulation and standards. If the efforts 
are successful, we can boost job creation and investment on both sides 
of the Atlantic. A transatlantic marketplace will be especially 
critical for the small and medium-sized companies who remain the 
foundation of our economies and a key to transatlantic economic growth. 
TTIP seeks to bridge the differences between our two systems, and to do 
so in a way that maintains our shared high levels of protection for 
safety and the environment, to the benefit of consumers and businesses 
alike.
    Just as significantly, pursuing TTIP also demonstrates our shared 
commitment to rules-based trade and to strengthening the rules-based 
trading system around the world. Concluding an agreement would have 
major geopolitical significance; it would reinforce the vitality, 
attractiveness and relevance of our shared model of governance. Free-
market democracies remain the most promising engines of growth, 
innovation and wealth creation, especially when they exploit the 
benefits of free trade in an open and rules-based international 
economic regime.
    Finally, the United States and the EU need to continue to work 
together to address the challenges and promises of the emerging digital 
society, including reconciling the ways in which we protect personal 
data. I recognize that our partners in the European Union have 
questions about alleged U.S. intelligence activities. It is worth 
noting that the President has called for a review of the way that we 
gather intelligence so that we can ensure we properly balance the 
legitimate security concerns of our citizens and allies with the 
privacy concerns that all people share. We should also work to ensure 
that EU concerns about alleged U.S. intelligence activities do not 
undermine the cross-border data flows that underpin transatlantic trade 
and investment. One of my most important challenges if confirmed will 
be to help EU stakeholders understand how U.S. consumer protection 
regulators use their robust powers to protect individual privacy, and 
ensure that our approaches to achieving this important goal remain 
compatible. We should work together to preserve existing mechanisms and 
develop new ways to protect privacy while facilitating the flow of data 
across borders.

    Senator Murphy. Thank you.
    Mr. Yohannes.

   STATEMENT OF HON. DANIEL W. YOHANNES, OF COLORADO, TO BE 
     REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE 
     ORGANIZATION FOR ECONOMIC COOPERATION AND DEVELOPMENT

    Mr. Yohannes. Mr. Chairman, Ranking Member Johnson, and 
Senator Kaine, thank you for the privilege to appear before you 
today. Also I want to thank Senator Bennet for his kind words 
supporting my nomination.
    I deeply appreciate the trust and confidence placed in me 
by President Obama and Secretary Kerry in nominating me to 
serve as the Ambassador representing the United States at the 
Organization for Economic Cooperation and Development, the 
OECD. I sit before you today as a testament to the remarkable 
promise of the American dream. I came to the United States at 
the age of 17 from one of the poorest countries on Earth, 
determined to overcome any challenges. After graduating from 
Claremont McKenna College and Pepperdine University, I built a 
30-year career in the banking industry, ultimately serving as 
the Vice Chairman of U.S. Bank, the sixth-largest bank in the 
country.
    It was my greatest honor when in 2009 President Obama asked 
me to serve my country as the Chief Executive Officer of the 
Millennium Challenge Corporation. At MCC I provided leadership 
to an outstanding 300-person workforce and managed a $9.4 
billion portfolio. Since taking over MCC, I have signed $2.48 
billion in development grants to developing countries. I am 
very proud to share with you, Mr. Chairman, that just last week 
MCC was ranked the No. 1 development agency in the world for 
its open data and transparency efforts, as measured by the 2013 
Aid Transparency Index.
    I have had the great honor of traveling to 19 MCC partner 
countries around the world, visiting our embassies and meeting 
with heads of state to deliver sometimes difficult messages 
about the importance of good governance, sound economic 
policies, and democratic rights.
    Mr. Chairman, I believe that my life experience, prior to 
and including my time serving in the Federal Government, has 
prepared me to be the U.S. Ambassador to the OECD. My time in 
both the private sector and at MCC has given me a great 
appreciation for consistently applied policies and standards 
that promote a level playing field for all business.
    I believe the OECD's value is found in its role as the 
advocate for a liberal, market-based economic system based on 
shared democratic values and as a source of support for members 
and nonmember countries that seek its assistance in abiding to 
OECD standards and best practices.
    If confirmed, I will press OECD to continue its core work 
of improving the functioning of markets and of governments, 
resisting protectionism, encouraging fair and efficient systems 
of taxation and investment, creating good jobs, fighting 
against corruption, and promoting the openness, integrity, and 
transparency of business and governments.
    If confirmed, I will work with other nations through the 
OECD's Development Assistance Committee to advance U.S. 
development priorities, especially supporting the Millennium 
Development goals. I am passionate about this work because I 
have seen firsthand the meaningful and measurable impact U.S. 
foreign assistance can have on the lives of people around the 
world.
    Over the past 50 years, the OECD has expanded its 
membership from the original 20 countries to 34. I will advance 
U.S. efforts to encourage the OECD to expand its work with key 
emerging economies, to promote OECD standards, values, and best 
practices. I will work vigorously to advance our strategic 
priority to encourage the OECD to move beyond a European focus, 
to extend its influence to important emerging economies, 
including Brazil, China, India, Indonesia, and South Africa. 
This enhanced engagement to these countries is a powerful tool 
for reengineering the OECD for the 21st century and complements 
the U.S.'s bilateral relationships with these nations.
    I firmly believe that the work of the OECD and our efforts 
to ensure the OECD supports U.S. priorities are fundamental to 
enhancing our collective security and common humanity for a 
more prosperous, peaceful world.
    Mr. Chairman, if confirmed I look forward to continuing 
consultation with this committee and its staff, both here in 
Washington and during the visits of congressional delegations 
to Paris.
    Mr. Chairman, I thank you and members of the committee for 
this opportunity to address you. I am humbled to be nominated 
to be the U.S. Ambassador to the OECD. If confirmed, I will do 
all I can to ensure a modern and relevant OECD for the 21st 
century.
    I would be very happy to answer your questions.
    Thank you.
    [The prepared statement of Mr. Yohannes follows:]

                Prepared Statement of Daniel W. Yohannes

    Mr. Chairman, Ranking Member Johnson, and distinguished members of 
the Senate Committee on Foreign Relations, I thank you for the 
privilege to appear before you today. I also want to specifically thank 
Senator Bennet for his kind words in support of my nomination. I am 
deeply appreciative for the trust and confidence placed in me by 
President Obama and Secretary Kerry for nominating me to serve as the 
Ambassador representing the United States at the Organization for 
Economic Cooperation and Development, the OECD.
    I sit before you today as a testament to the remarkable promise of 
the American dream. I came to the United States at the age of 17 from 
one of the poorest countries on Earth, determined to persevere against 
all challenges. After graduating from Claremont McKenna College and 
Pepperdine University, I built a 30-year career in the banking 
industry, ultimately serving as the Vice Chairman of U.S. Bank and as a 
member of its Management Committee. The poverty I left behind in 
Ethiopia has left an indelible mark on me--and through my work with 
community-based charities and international aid organizations I've done 
my best to give back to my community and my country, the United States 
of America.
    It was my greatest honor when, in 2009, President Obama asked me to 
serve my country as the Chief Executive Officer of the Millennium 
Challenge Corporation. As you know, MCC's mission is to eliminate 
poverty through economic growth--using a competitive selection process, 
country-led solutions to eliminating barriers to growth, and promoting 
country-led implementation. At MCC, I provide leadership to an 
outstanding 300-person workforce, and manage a $9.4 billion portfolio. 
I have had the great pleasure of visiting 19 of MCC's partner countries 
around the world, visiting our embassies and meeting with our head of 
state partners to deliver sometimes difficult messages about the 
importance of good governance, sound economic policies, and democratic 
rights. Since taking over the MCC, I've signed $2.44 billion to 
developing countries. More importantly, in consultation with our Board 
of Directors, we've not been afraid to make the tough decision about 
which investments not to make because of a country's poor performance.
    Mr. Chairman, I believe that my life experience--prior to and 
including my time serving in the Federal Government--has uniquely 
prepared me to be the U.S. Ambassador to the OECD.
    My time in both the private sector and at MCC has given me a great 
appreciation for consistently applied policies and standards that 
promote a level playing field for all business. And I believe the 
OECD's value is found in its role as the advocate of a liberal, market-
based economic system based on shared democratic values, and as a 
source of support for members and nonmember countries that seek its 
assistance in adhering to OECD standards and best practices.
    The OECD plays a pivotal role in developing consensus on the 
economic rules of the road that are key to sustainable, global economic 
growth and broad-based prosperity. The Organization's core strengths 
are in producing well-regarded economic and statistical analysis--
allowing countries to benchmark against each other and learn from best 
practices--and in serving as the venue where networks of regulators and 
government officials agree on market-enhancing rules on export credits, 
antibribery, sovereign wealth funds, international investment and 
competition policy.
    If confirmed, I will press the OECD to continue its core work of 
improving the functioning of markets and of governments, resisting 
protectionism, encouraging fair and efficient systems of taxation and 
investment, creating good jobs, fighting against corruption and 
promoting the openness, propriety, integrity, and transparency of 
business and governments. If confirmed, I will work with other nations 
through the OECD's Development Assistance Committee, to advance U.S. 
development priorities, especially supporting the Millennium 
Development Goals, and the critical work on making aid more effective 
by better aligning donor and partner priorities, empowering developing 
countries to build capacity and assume greater ownership for their own 
futures, and strengthening mutual accountability. I am passionate about 
this work because I have seen firsthand the meaningful and measurable 
impact every dollar the United States spends on foreign assistance can 
have on the lives of people around the world. These are the values I 
worked for while at the MCC, and if confirmed, I will continue this 
work as the U.S. Ambassador to the OCED.
    I will work vigorously to advance our strategic priority to press 
the OECD to move beyond a European focus to extend its influence to 
important emerging economies. Over the past 50 years, the OECD has 
expanded its membership from the original 20 countries to 34, is 
currently in accession discussions with the Russian Federation, 
Colombia, and Latvia, and will consider granting roadmaps to Costa Rica 
and Lithuania in 2015. I will advance U.S. efforts to encourage the 
OECD to expand its efforts to work with key emerging economies to 
spread OECD standards, values and best practices. The United States has 
been a key supporter of the OECD's ``key partner'' initiative, which 
has formalized and expanded cooperation with Brazil, China, India, 
Indonesia, and South Africa. The OECD's Enhanced Engagement outreach to 
these countries is a powerful tool for reengineering the OECD for the 
21st century and complements the dialogues the United States is having 
with these nations bilaterally and in other venues. If confirmed, I 
will work to enhance the Organization's engagement with Southeast Asia 
in order to spread OECD standards to that critical region.
    If confirmed, I will focus on ensuring the OECD embodies best 
management practices. I will push to accelerate OECD's efforts to 
reform its governance in order to improve its efficiency and 
effectiveness.
    I firmly believe that the work of the OECD--and our efforts to 
ensure OECD supports U.S. priorities--is fundamental to enhancing our 
collective security and common humanity for a more prosperous, peaceful 
world.
    Mr. Chairman, if confirmed, I look forward to continued 
consultations with this committee and its staff, both here in 
Washington and during the visits of congressional delegations to Paris.
    Mr. Chairman, I thank you and members of the committee for this 
opportunity to address you. I am humbled to be nominated to be the U.S. 
Ambassador to the OECD. If confirmed, I will do all that I can to 
ensure a modern and relevant OCED for the 21st century.

    Senator Murphy. Thank you to both of you for your time for 
being here today and your willingness to serve.
    Mr. Gardner, let us jump right into the issue of the 
moment. This is not just about answering questions that the 
Europeans have regarding our programs. This is about real 
decisions that they may make that will have national security 
implications for us and for them. As you know, the European 
Union right now is debating whether or not to recommend at 
least that Europe or European nations pull out of some of the 
most important data-sharing programs that we currently run with 
the European Union and with European nations, such as our 
terrorist financing program, the sharing of passenger lists.
    So you are likely, within days, going to be sitting down 
with either members of the commission or with MEPs or with 
heads of state, making the case for why they should continue to 
invest in those partnerships.
    Senator Johnson and I met with a visiting delegation with 
the Foreign Affairs Committee, and it is difficult because 
there is a range of things to talk about. You can talk about 
the very clear cases where we have crossed the line. You can 
talk about the need to continue cooperation on the programs 
that still make a lot of sense. Or you can, frankly, call the 
Europeans out for what is a double standard, in the press at 
least as of late, and I would argue a failure to acknowledge a 
lot of their historic surveillance that has been done over the 
years.
    So just give a little preview as to what your case will be 
to our European allies as they are on the verge of making 
decisions that could make their lives and our lives a lot 
harder when it comes to finding bad guys throughout the world?
    Mr. Gardner. Thank you. That is a very topical and very 
sensitive question clearly. But I want to give this committee 
comfort that I do not shrink from a challenge. As the head of 
financing for Palamon Capital Partners, the private equity fund 
that I have been working with, I was faced with dealing with 
some very difficult situations during the depth of the 
financial crisis in 2008 in particular. That meant negotiating 
with banks who did not want to finance anyone and trying to 
save some key portfolio companies for our business and to serve 
the interests of our investors. Those discussions were very 
difficult and involved both toughness in negotiation, 
credibility, and perseverance.
    In terms of the message that I will impart to our European 
allies, it will be this. Let us focus on the future. Let us 
focus on the importance of the agreements that we have in 
place, that by the way serve not only our interests, but serve 
European interests. You mentioned a few of them, Senator: The 
TFTP, Terrorist Finance Tracking Program; the Safe Harbor 
Agreement that has allowed thousands of American companies to 
share data that is collected in the European Union with the 
United States; and of course there is TTIP, an agreement that 
we need to continue to negotiate. It serves both of our 
interests. It is too important for us to scale back, to 
terminate the agreements we have in place, or to stop 
negotiating an agreement that could add jobs and promote growth 
on both sides of the Atlantic. That will be my message.
    The second part of the message will be: Let us act 
deliberately, calmly, rationally, and with the benefit of all 
of the facts. You mentioned how important that is. We have not 
yet had the benefit of all of the facts. A number of reviews 
are being undertaken now at the White House and by the Senate. 
We need to give time for those reviews to arrive at 
conclusions.
    We need to continue to answer questions that are posed to 
us by our European allies as fully and as frankly as we can. 
But the message will be: Let us focus on the future, let us try 
to be positive, too much is at stake.
    Senator Murphy. Thank you, Mr. Gardner. It is perplexing as 
to why Europeans would put the TTIP talks at risk. I think that 
probably comes from elements of the Parliament that did not 
want those talks to succeed in the first place, because it does 
not make any sense for the Europeans to hurt their own economy 
because of a pique, legitimate as it may be, over these latest 
revelations.
    Mr. Yohannes, I hope that you might talk a little bit about 
Russia and their ascension possibilities. I know you are not 
there yet and you have had a different portfolio in your 
current job that you will be leaving. But clearly they are on 
their own timetable and it is not even clear whether that is a 
timetable that has any end date on it.
    So what do you see for the prospects of Russian ascension 
to the organization and, frankly, what will your role be in 
trying to prod them along or simply let them go at their own 
pace?
    Mr. Yohannes. Thank you, Mr. Chairman. The United States 
supports Russia's accession to the OECD. Russia has been on the 
accession list since 2007, but they only have passed 7 out of 
the 20 requirements to become a member. I know there have been 
a lot of discussions with the Russian Federation from us, as 
well as from the OECD. But at the end of the day it is going to 
depend on the Russians themselves. If they are serious and they 
want to be a part of the organization, they're going to have to 
reform many of the policies that are required.
    So the pace has been very slow and there is been a lot of 
frustrations from every part. But nevertheless I think that it 
is going to be up to the Russians. I do not think we should 
lower the standards or raise the bar, but nevertheless at the 
end of the day they must want to be a part of the OECD group. 
If they do what is required, that is going to help the economy, 
it is going to help the global economy, it is going to help our 
economy as well. So we encourage them to reform and hopefully 
be a part of the organization.
    Senator Murphy. In my remaining time I will maybe ask a 
question that is too broad for this session, Mr. Gardner. But 
as we look at the debate that we have had with Europe and with 
the European nations over Libya and Syria, there has been a lot 
of legitimate questions raised as to what the future of NATO 
is.
    But I think it also brings into question a larger 
conversation about who we are really talking to in Europe when 
it comes to large questions with global implications. We 
started out talking to individual European nations within the 
confines of our bilateral relationships. We then over the last 
60 years convened NATO, which became for a period of time the 
place in which those conversations happened. In the wake of the 
fall of the Soviet Union, there is less of a sort of value-
based foundation to that organization.
    Now the latest entry into this mix is the foreign affairs 
operation within the European Union itself and Catherine 
Ashton, who has done really impressive work over the last 
several years both with respect to Iran and in her work in the 
Balkans. So you have another player here to talk to.
    So this is probably an unfairly broad question, but who are 
we talking to when we are talking to Europe today, and what do 
you see the trendlines being? Are we going to be spending a lot 
more time with the European Union speaking to Lady Ashton or 
her successor? Is part of your role going to try to be to 
figure out a new way forward for NATO? What do you see as the 
trendlines in terms of how the foreign relations power 
structure within Europe plays out and how that affects U.S. 
communications?
    Mr. Gardner. It is an evolving situation. The Lisbon Treaty 
did change the institutional framework of the European Union in 
a significant way, but it is too early to tell just how 
significant it will be. As I mentioned in one of the articles I 
cowrote with Ambassador Eizenstat, the implications will be 
evolutionary, not revolutionary.
    What it means is that the European External Action Service, 
the foreign ministry that you mentioned, has been built up from 
scratch over the last few years. It is taking on more 
responsibility. You mentioned a few ways that Catherine Ashton 
is doing that. As a representative in the Quartet, she has done 
good work in the Balkans, and they are assuming more 
responsibility.
    But it is not the only entity with which we will have to 
deal. We will have to continue to deal with the president of 
the commission, the president of the European Council, and 
there are other emerging players, such as the European 
Parliament that has assumed more and more responsibilities with 
every revision of the EU treaties.
    It is important to note that because of TTIP it will have 
the right to vote up or down. And by the way, to make it even 
more complicated, it is likely, just as in the case of the 
Canada-European Union treaty that has been penned although not 
finalized, that a TTIP will have to be submitted to all of the 
Parliaments of the member states, the 28.
    So unfortunately it is still multidimensional chess, which 
makes this mission so fascinating. But the short answer to your 
question is that, yes, Catherine Ashton and her successor will 
be important and more power will be assumed by that 
institution.
    So specifically, in many parts of the world that 
institution, the delegations of the European Union, will 
essentially be the voice of the European Union. I believe that 
will be the case in Africa and Asia and perhaps in Latin 
America. In certain countries, specifically the United States, 
it will not be the case that the EU mission to Washington will 
be the sole voice. On some subjects it will be, but some 
countries, most countries, will continue to have their own 
interests and their own representation.
    Senator Murphy. I have gone well over my time. Senator 
Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Gardner, in your testimony you did mention the European 
Union's eastern partnership program. Can you just speak a 
little bit in terms of what you think your involvement would be 
in terms of trying to encourage those nations to join the 
European Union, start moving more toward the West, resist I 
guess Russia's--I am not quite sure what word I would call it, 
but just resist Russia might be good enough.
    Mr. Gardner. Well, what we should do is to continue what we 
have been doing, and that is to welcome the European 
aspirations of the partnership countries. As you know, at the 
end of November there will be a summit called by the Lithuanian 
presidency of the EU in Vilnius, where there may be a decision 
as to whether to sign partnership agreements with Ukraine, 
Moldova, and Georgia.
    What we have said is that we welcome their European 
aspirations, we think that it is a historic opportunity that 
should not be missed, and that we should continue to say that 
those countries should be free to adopt the orientation, the 
economic orientation, that they wish, free from outside 
interference or intimidation.
    Now, it is up to the European Union and those countries to 
decide which way to go, but we think, as I said, it is a 
historic opportunity which they should seize.
    Senator Johnson. Do you have a real clear sense of what 
your top priority or priorities are going to be in your role?
    Mr. Gardner. Absolutely. One of the challenges for me will 
be to focus, because we have so many issues at the U.S.-EU 
mission. It covers not only trade issues, but a variety of 
other issues. But for me I think TTIP will be my No. 1 issue. 
Why? Because of the importance that a successful negotiation 
would have for the creation of jobs and trade and investment on 
both sides of the Atlantic. Also it is a good fit with my 
professional background as a former lawyer and as an investor 
and as a banker. I look forward to getting involved in the 
details of the negotiation.
    Also, can I say I look forward to doing so because I have 
had a longstanding relationship with our U.S. Trade 
Representative and have met with the staff, and I think that 
the mission can play a significant role, not just in public 
diplomacy, in explaining U.S. positions to the Europeans, not 
only in collecting information about what the Europeans think 
about different issues and feeding it back to Washington, but 
giving strategic advice about the kinds of deals that we can 
strike.
    So of all the issues on our plate, it is TTIP on which I 
will be focusing.
    Senator Johnson. Do you have a pretty strong sense in your 
mind of what are the primary challenges in terms of achieving a 
successful conclusion of those negotiations?
    Mr. Gardner. There are many challenges. The biggest area of 
promise is, unfortunately, the biggest area of challenge, and 
that is the standards and regulatory issues. It is not about 
deregulation. It is about eliminating unnecessary, costly, 
duplicative, or divergent standards that increase costs while 
not contributing to citizens' welfare, but instead decreasing 
the competitiveness.
    For businesses, the costs that they make in building 
duplicative testing or multiple inspections or separate 
manufacturing lines is money that is not being spent on 
investment and on growth. So that will be the area where we 
need to focus.
    And by the way, the significant goal for us, Senator, is 
for the United States to enhance stakeholder participation and 
transparency and accountability in the EU regulatory system. So 
we are going to have to approach this issue from many different 
ways. In some areas, in some sectors, it is already the case 
that United States and European businesses already look to a 
set of uniform standards that have been set by certain 
international accounting standard-setting bodies. In some cases 
it may be mutual recognition agreements that may be important. 
And in some case it will be crosscutting principles, such as 
transparency and accountability and participation in the 
regulatory process.
    So that will be the area of greatest promise and greatest 
challenge.
    Senator Johnson. Mr. Yohannes, the United States 
contributes about 22 percent to the OECD's budget. Do you think 
that is an appropriate level, and are you aware of anything 
within that organization that really needs to be looked at from 
the standpoint of needed reforms?
    Mr. Yohannes. Thank you, Senator. The number was 25 percent 
until 2008 and the number is expected to go down to about 20 
percent in the next 2 or 3 years.
    If confirmed, Senator, my job is to make sure that we 
provide the best oversight, to make sure that American tax 
funds are spent effectively and efficiently. In the last few 
years, also the number of countries have increased from 20 to 
about 34. There are more countries that are pending to be 
members, assuming they meet all the qualifications. I think we 
are going to have to look at the governance structure of the 
organization to make sure that it continues to be relevant, 
efficient, and effective, and this is a process that is taking 
place right now, which should be reported to members some time 
next year.
    Again, if confirmed I would like to bring the same rigor 
and discipline that I brought to the Millennium Challenge 
Corporation to make sure that we are getting the best out of 
our contribution.
    Senator Johnson. Both these positions really are going to 
be dealing with multiple nations. Do you have a game plan or a 
concept of how you are going to be dealing with the other 
ambassadors to the United States within those institutions? I 
will start with you, Mr. Yohannes.
    Mr. Yohannes. Having spent 30 years in the private sector 
and having spent the last 4 years, at the end of the day, 
Senator, it is about people's business. When you work with so 
many different countries, I think, No. 1, you have to be able 
to understand the cultures, the history, the views, both social 
and economic views, global views. You have to understand what 
influences the decisionmakers, what made them to make those 
decisions, and to work with members to make sure that we 
advance U.S. priorities.
    So at the end of the day it is how we use the people skills 
and also the experiences that I have gathered from MCC. If 
confirmed, again, I plan to use it to make sure that we advance 
our priorities. But I think the key is to make sure that you 
understand who the decisionmakers are, the influencers are, and 
to work with them to make sure that we are advancing our 
priorities.
    Senator Johnson. Mr. Gardner, do you have a concept of how 
you are going to work with other U.S. ambassadors? Is there 
some sort of coordination of effort there?
    Mr. Gardner. There certainly is and it is a very important 
part of the job, Senator. On TTIP, we will have to coordinate 
closely on our positions, not only because there is still a 
rotating EU presidency, which will include Greece and Italy and 
Latvia, I believe, but more important there are a number of key 
countries--Germany, Spain, Poland, United Kingdom, France, and 
numerous others--and we will need to stay very closely in touch 
with the ambassadors in those countries to make sure that we 
are enunciating the same number of messages to the populations 
and the government officials of those countries, and also for 
them to be lobbying appropriately at their government level and 
to help also for them to lobby the European parliamentarians 
that represent those countries.
    There are regular calls on TTIP that are organized by the 
USTR and in which our mission is going to be involved to ensure 
we keep one consistent message across all of those countries.
    Senator Johnson. Thank you.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you to the witnesses and the chairman.
    Mr. Yohannes, first really just an observation, but I would 
love your comment. I am kind of a data freak and I love the 
OECD because it produces a lot of good data. I developed this 
passion as a mayor and governor when I was always trying to 
benchmark my city or State against other cities and States. I 
think the OECD data about higher educational attainment, infant 
mortality, health outcomes, tax policies, debt and deficit 
issues, this is very helpful data for us because we rightfully 
are very, very proud of the country and yet we can never be 
complacent and assume that we cannot improve. I hope we have 
not stopped improving in anything we are doing.
    So one of the things that I would just really like to 
commend to you in your role is to continue to press OECD to be 
very rigorous about the production of reports and data and 
ranking the OECD nations on all these criteria, because at 
least this policymaker, and I suspect many others, find that 
data to be helpful to us in orienting us toward, well, hmm, we 
rank real high on a lot of these categories, but here we are 
low; maybe we should be spending more time over there.
    So I will just open that and if there is anything you want 
to say about that aspect of the OECD mission I give you that 
opportunity.
    Mr. Yohannes. Senator, OECD has done an outstanding job 
throughout the years by providing data that have been used by 
universities and think tanks here, and also very comprehensive 
analysis to others who do not have the same facilities like we 
do. And that has been extremely valuable.
    In fact, today they are looking in terms of what happened 
in the 2008 economic crisis, what do we need to change. When 
they are looking in terms of the model, is it working, does it 
need to be complemented with a new process? So with their new 
approach, new challenges to new economic--new approaches to new 
economic challenges, they are looking to see what needs to be 
changed, and then all the member countries are waiting eagerly 
about the outcome so they could continue to spur the economic 
growth and deal with the new economic challenges that exist in 
the world.
    In addition, they are doing a lot of work in terms of 
education. The biggest concern today is unemployment among 
youth. They are looking to see the educational standards that 
are being used in the testing of young kids so that they could 
provide them with the best skills so that they are able to meet 
the future employment opportunities.
    So there is a lot of work that is going on at OECD, and we 
just need to make sure that we continue to support it, at the 
same time to make sure that those that are not relevant today 
are discontinued and that OECD continues to concentrate on 
issues that are very important to member countries.
    Senator Kaine. Thank you.
    Mr. Gardner, you and I talked a little bit the other day 
about the NSA issues, which are troubling. One of the aspects, 
frankly, that is troubling is--and I agree with some of the 
comments that Senator Murphy made. The Europeans are doing all 
kinds of things. There may be a little bit of a double 
standard. But when the President says he does not know certain 
things are going on, that hardly gives confidence to those 
nations that, well, OK, I guess they will fix them. If the 
President does not know they are going on, how will they know 
to fix the things that are going on?
    So I think some of even the messaging around are these 
intentional programs that we are going to stand behind and 
justify or are they things that were happening that we did not 
know were going on--you are going to have a challenge there. 
But you have already addressed that to some degree with Senator 
Murphy.
    The issue I wanted to ask you about really--and this is 
also given your private background--the European Union and the 
eurozone are not coterminous, but the euro has got all kinds of 
challenges of its own. You have been in the financial industry. 
I would like to just kind of hear your thoughts on the current 
challenge in the euro and how you see it playing out over the 
next few years and how the likely actions that will be taken by 
euro countries ether pose problems for us or maybe pose some 
opportunities for us?
    Mr. Gardner. Thank you, Senator, for that question. There 
have been critics that have said that the euro was not born in 
ideal circumstances because of vastly divergent economies, 
there was not an economic or fiscal union, and imperfect labor 
mobility. But that is the past.
    The euro, however, has now weathered a very serious storm 
and is over its period of existential crisis. A number of my 
colleagues in London in hedge funds took big bets against the 
euro and took big hits. I would have never made those bets 
because the people who did make those bets lost sight of one 
fundamental fact, and that is that the euro has always been as 
much a political project as it has been an economic project. 
And as I mentioned in my opening testimony, one should never 
underestimate the political will that there is in the European 
Union to defend the euro and defend the European project.
    Confidence has now returned. I have seen it. I have been 
involved in fundraising for our fund. Flows are coming back 
into the euro, euro-denominated assets. Growth has returned. 
Although anemic, it has returned in most countries of Europe. 
Importantly, bond yields, a very important barometer of 
investor confidence, have declined significantly. Even a short 
while ago, bond yields in Italy and in Spain and Portugal and 
other countries were extremely high, almost unsustainable. they 
have now come down.
    Following the Troika rescues, the European Central Bank and 
the Commission and the IMF, and the imposition of reform 
packages and the important interventions of the European 
Central Bank, a lot has been done. And importantly also, 
perhaps the most important, unit labor costs have declined 
significantly in the so-called periphery countries. You may 
recall that a couple of those countries, many of them, had 
allowed their competitiveness vis-a-vis Germany to go out of 
whack 10 years after the founding of the euro. In some cases, 
particularly in Spain, dramatically those unit labor costs 
divergences have been recovered, not entirely but 
significantly.
    So a lot has been done, and I am cautiously optimistic. A 
lot of work still needs to be done clearly in terms of pension 
reform, labor market reform, privatizations, and, importantly, 
tax collections, and very important, flow of credit to the 
private sector needs to be increased. And unemployment remains 
stubbornly high in some countries. In Spain it is 25 percent. 
The youth unemployment rate is well over that, in the 40 
percent range.
    Many countries are going to be facing a legacy of very high 
debt-to-GDP. But I am--the reason I was saying I am cautiously 
confident is that the steps are being taken. The first bricks, 
so to speak, have now been laid for banking union. As you may 
have seen in the press, now the European Bank will have 
supervisory authority to supervise the largest financial 
institutions of the European Union, the top 140. And there are 
discussions under way to look at deposit insurance, a eurobond, 
and a resolution mechanism to wind up banks. That is very 
controversial, but it is underway.
    Initial discussions are also being undertaken with regard 
to fiscal and economic union, again very controversial. But I 
am confident over time the institutions of the European Union, 
not only the Central Bank, will do whatever it takes. Those 
were the words that were used by the governor of the Central 
Bank: ``We will do whatever it takes. Believe me, it will be 
enough.'' And the markets took him at his word.
    Senator Kaine. Thank you very much, Mr. Chair.
    Senator Murphy. Thank you, Senator Kaine.
    If Senators have a second round of questions, we will do 
them now. I just have two maybe for you, Mr. Gardner. You will 
also be taking on this post in the midst of very important 
negotiations with Iran. Can you just assess--there is 
constantly conversation here about the difference between the 
imposition of U.S. sanctions and sanctions through the European 
Union. Can you maybe assess the itchiness of Europe's trigger 
finger to maybe ease sanctions that might come at a little 
different pace than our desired sanctions as we go forward to 
the beginning of these talks? And then maybe second, talk about 
what the reaction in Europe may be to a new round of sanctions 
legislation coming from the
    United States Congress, which is something that we are 
contemplating and some have talked openly about in the last few 
weeks or months.
    Mr. Gardner. Thank you, Senator. Very important question, 
very topical question, a very sensitive question.
    I do not detect any itchiness of the European Union to 
relax its sanctions. In fact, they have the toughest sanctions, 
along with the United States, ever imposed on any country, that 
include sanctions on the export of oil products, oil derivative 
products, petrochemicals, and also a ban on financial 
transactions. Very tough.
    So I think it is not a question of the itchiness of the EU 
institutions. The problem is different, but it is equally 
serious. The problem we are facing is that a number of recent 
terrorist designations on individuals and associations have 
been struck down by the European Court of Justice for lack of 
due process. And that is because there is no mechanism in the 
European Court of Justice for the introduction of confidential 
information that is not shared with the target of those 
designations.
    So the court has struck down a number of those 
designations, and there is a risk, and it is a serious risk, 
that after these recent court judgments there will be a flow of 
new court cases that will say that there was also a lack of due 
process. We need to act quickly and we are calling upon the 
European Union to protect the terrorist designations and to 
make sure that those decisions are not reversed. So that will 
be one of the key areas for me when I--if confirmed, if I land 
in Brussels.
    Senator Murphy. My second question: Do you have any sense 
of what their reaction will be or what you will communicate to 
them about a discussion in the Senate and the House on a new 
round of U.S. sanctions coming in the middle of these 
negotiations?
    Mr. Gardner. Too early to tell. I have not been involved in 
those discussions, Senator. But I look forward to working with 
you on that topic.
    Mr. Countryman. One last question. And if you have not seen 
this article I will not ask it. But did you happen to see an 
article in the New York Times about a week or so ago on the 
lack of transparency in EU lobbying? Is there a U.S. interest 
in the EU adopting more stringent lobbying requirements for 
companies, whether they be U.S.-based or coming from other 
places, appearing before the European Union? Do you think we'll 
have any role to play in that discussion?
    Mr. Gardner. To be honest with you, Senator, I have not 
thought about that topic, but I do not think it would be 
appropriate for us to dictate to the European Union the kinds 
of standards they should have regarding lobbying. I think that 
they will consider this issue because lobbying is still a 
fairly recent phenomenon in the European Union, or at least it 
is grown exponentially in the last 10 years, certainly from the 
time I was working in the European institutions back in 1994 or 
earlier in 1991 and 1992.
    So I do not think that we will be pressing them to adopt 
our system, for example, of registering as lobbyists before 
they can do business with the European institutions.
    Senator Murphy. I do not particularly have a dog in the 
fight here. I just know that it may be something that U.S. 
companies will be talking to you and perhaps to us about if 
there are some new proposals being made.
    Senator Johnson.
    Senator Johnson. Just real quick. I want to piggyback a 
little bit on the question that Senator Kaine talked about in 
terms of the euro itself. Certainly we have seen disruption in 
particularly Greece, not being the world's reserve currency, 
actually having to pay the price for their high debt-to-GDP 
ratio. I am always concerned at what point does the U.S. dollar 
cease to be the world's reserve currency.
    If you want to express an opinion in terms of your 
knowledge of what you think the prospects are, what kind of 
movement you are seeing throughout the world in terms of 
finance, of people denominating trade in other currencies other 
than the U.S. dollar?
    Mr. Gardner. I think probably that is a question best 
directed to the U.S. Treasury. But all I can say is that, being 
involved in a private equity fund and talking to investors from 
all over the world, there clearly has been concern about what 
has happened here recently. On the other hand, investors tell 
us that the United States clearly is the most liquid capital 
market in the world. There is no obvious alternative at this 
stage. But clearly countries in the world look to the United 
States to exercise leadership responsibly as the world's 
leading economy and leading currency.
    I do not see any change to that situation immediately, but 
our position demands acting responsibly in the future, because 
over time investors do have a choice and we have seen the 
Chinese and other Asian investors exercising that choice.
    Senator Johnson. That is kind of what I wanted to know in 
terms of your experience. Have you started to see that shift?
    Mr. Gardner. I have just seen anecdotal evidence of it, 
Senator, just from my small patch of ground in London, a 
private equity fund. But I cannot comment on the larger data.
    Senator Johnson. OK, thank you very much.
    Senator Murphy. Thank you to both of our witnesses. we are 
going to keep the record open for questions just until noon on 
Friday, and if there are any questions that come in we hope 
that you will respond as quickly as possible so that we can 
move your nomination to the committee and then to the floor.
    With that, thank you for your time. Thank you for the time 
of the committee members, and this hearing is adjourned.
    [Whereupon, at 3:16 p.m., the hearing was adjourned.]
                              ----------                              


        Additonal Questions and Answers Submitted for the Record


        Responses of Daniel W. Yohannes to Questions Submitted 
                       by Senator Robert Menendez

    Question. Given China's growing provision of export financing, how 
will you work with other OECD members to ensure that the OECD 
Arrangement on Export Credits continues to maintain a level playing 
field for U.S. exporters? What changes do you believe should be made to 
the Arrangement in order to better compete with the non-OECD compliant 
financing methods of China and other nations? How will you work with 
other OECD members to form a modernized agreement on export credits 
with China and other major exporters?

    Answer. If confirmed by the Senate, I will support the continuing 
efforts within the OECD of the Export Credits Group (ECG) and the 
Participants to the Arrangement to engage with China, Russia, and other 
emerging market providers of official export credits in order to 
promote a level playing field for U.S. exporters. These groups remain 
the leading world forums for exchanging information on export credit 
practices and seeking international cooperation and policy convergence.
    Outside of the OECD framework, in 2012, the United States and China 
agreed to establish an international working group of major providers 
of export financing ``to make concrete progress toward a set of 
international guidelines on the provision of official export financing 
that, taking into account varying national interests and situations, 
are consistent with international best practices, with the goal of 
concluding an agreement by 2014.'' This working group, the 
International Working Group on Export Credits (IWG), held its inaugural 
meeting in November 2012, as well as three subsequent meetings in 2013, 
and involves all major providers of official export credits. For the 
USG and its OECD counterparts, the goal of the IWG is to help ensure a 
level playing field by bringing all major export credit providers under 
a common set of official export credit guidelines, which will allow our 
exporters to compete on the basis of the quality and price of their 
products, rather than on the generosity of officially supported export 
financing.

    Question. Critics of free trade and open markets often contend that 
the pursuit of free market economics of the type advocated by the OECD 
worsens income disparity between the richest and poorest countries. 
Given your experience as chief executive officer for the Millennium 
Challenge Corporation (MCC), what policies will you advance to decrease 
the gap between the richest and poorest countries? Additionally, how 
will your experience at MCC inform your work in international tax 
policy and corporate governance?

    Answer. OECD policies and best practices do not create income 
disparity. To the contrary, the OECD has been on the forefront of 
analyzing this complex issue, through both its seminal 2011 report 
``Divided We Stand'' and its creation of a database to track trends and 
generally seeking to create policies to reverse this growing disparity.
    The OECD promotes effective, transparent, accountable, and 
democratic institutions; institutions that recognize the critical role 
of a universal, rules-based, open, nondiscriminatory and equitable 
multilateral trading system; and meaningful trade liberalization. These 
goals can stimulate economic growth and development worldwide and 
benefit countries at all stages of development.
    The guiding principles of the Millennium Challenge Corporation 
(MCC)--the importance of good governance and the rule of law at both 
the national and international levels, and economic freedom--create an 
enabling environment for sustained and inclusive economic growth, 
social development, and the eradication of extreme poverty and hunger.
    Similarly, policies of transparency and good governance support the 
OECD's work on international taxation policy and corporate governance 
which perform a key function in enabling global development 
underpinning cross-border economic activity as well as domestic 
resource mobilization and good financial governance. If confirmed by 
the Senate, I would support work of the OECD that promotes these 
policies and principles. One of my priorities in international tax 
policy would be to support OECD work that helps developing countries to 
raise more of their own tax revenue, including supporting OECD tax 
reviews for developing countries. This work is particularly important 
for most of the low-income countries of Africa and South Asia and is 
critical to meet the need for adequate financing of their needs for 
current government services (especially health services) and public 
infrastructure (a key to future economic growth) and to reduce 
dependency on donor financial assistance in the future.
    The U.S. Government is active in the OECD Corporate Governance 
Committee and will fully support the 2014 update of the OECD Principles 
of Corporate Governance, including by inviting more developing 
economies in the process to create a greater sense of ownership and to 
promote their widespread adoption. The Principles are used as the 
benchmark for international assessments, including by the World Bank 
and International Monetary Fund, to assist countries in increasing the 
transparency and independence of board functions and ensuring the 
equitable treatment of shareholders, as well as inclusion of broader 
stakeholders.
    As chief executive officer of MCC, I learned that promoting the 
economic growth and self-sufficiency of developing countries, including 
the building of sound public institutions, is critical to their 
economic progress. To further those goals I would similarly continue to 
support OECD investment and public governance reviews of developing 
countries. OECD investment reviews identify policies to improve the 
country's investment climate that can lead to greater foreign direct 
investment and economic growth, while OECD public governance reviews 
promote the development of policies that strengthen public 
institutions.
                                 ______
                                 

        Responses of Anthony L. Gardner to Questions Submitted 
                       by Senator Robert Menendez

    Question. The Transatlantic Trade and Investment Partnership 
(TTIP)--a proposed free trade agreement (FTA) being negotiated between 
the United States and the European Union (EU)--has the potential to 
yield significant economic gains. According to some estimates, the 
benefits from a tariff-only agreement could be as much as $4.5 billion 
for the United States and many economists view tariffs as the ``low-
hanging fruit'' in the negotiations. In your view, what are the 
potential benefits of the TTIP and in what areas can the United States 
achieve the greatest gains? To what extent is the EU committed to 
tackling some of the most likely sticking points--for example, in the 
agricultural sector? As U.S. Representative to the EU, how will you 
help to ensure the United States realizes the greatest gains?

    Answer. The Transatlantic Trade and Investment Partnership (TTIP) 
offers a historic opportunity to expand what is already the world's 
largest economic partnership--a partnership upon which more than 13 
million jobs on both sides of the Atlantic already depend. TTIP gives 
us the opportunity to take this dynamic partnership to the next level, 
generating more jobs, more investment, and more opportunities for 
companies small and large, while maintaining the high health, safety, 
and environmental standards our citizens expect and deserve.
    The greatest opportunity--and the greatest challenge--of TTIP are 
in the area of regulation and standards. In TTIP, we will seek to 
eliminate, reduce, or prevent unnecessary ``behind-the-border'' 
nontariff barriers resulting from regulatory divergences that damage 
our collective competitiveness in an increasingly integrated global 
economy. We can achieve this objective without reducing health, safety, 
and environmental protections by, for example, reducing redundant and 
burdensome testing, increasing transparency and openness, and ensuring 
that U.S. bodies are permitted to test and certify products sold in 
Europe. In addition, we will seek to identify ways to reduce costs 
associated with regulatory differences by promoting greater 
compatibility between our systems. Achieving an outcome that results in 
greater transparency and accountability in regulatory processes is also 
critical to addressing and preventing nontariff barriers, and we have 
made it a centerpiece of our approach to TTIP.
    The United States and the European Commission have already agreed 
to pursue a comprehensive agreement, and we have made it clear that any 
comprehensive agreement would have to address tariff and nontariff 
barriers facing our agricultural exports. As the ``Final Report of the 
High Level Working Group on Jobs and Growth'' noted, an ambitious 
comprehensive agreement offers the most significant mutual benefit, 
compared with less ambitious options. The EU has assured us they are 
prepared to work hard toward a very ambitious outcome.
    We are encouraged by successes this year in tackling longstanding 
issues in agricultural trade, namely sanitary and phytosanitary (SPS) 
measures. On February 4, the EU approved final regulations to allow the 
use of lactic acid as a pathogen reduction treatment (PRT) on beef. 
This is the first PRT to be allowed in the EU, and it is an important 
step forward. And on November 1, the USDA Animal and Plant Health and 
Inspection Service announced a final rule that will modernize import 
regulations for BSE ``mad cow'' allowing for the safe trade of beef and 
beef products from countries with a history of BSE, a priority for the 
EU. We know negotiations will be difficult in some areas, but it can be 
done.
    If confirmed, I plan to highlight the ways a successfully 
negotiated TTIP agreement could strengthen the contribution of trade 
and investment to jobs, growth, and competitiveness in our economies, 
and set the standard for future regional and multilateral trade 
agreements.

    Question. Given the recent revelations of NSA surveillance 
activities in Europe, are you concerned about the future of U.S.-EU 
information-sharing agreements such as SWIFT and PNR, or the ongoing 
talks on a U.S.-EU Data Privacy and Protection Agreement (DPPA)? Given 
that many economists regard the potential gains from market access 
reform as a fraction of what could be achieved through regulatory and 
trade-related rules reform, how would greater data protections in the 
EU affect the potential gains from TTIP?

    Answer. As a nominee for this position, I have not yet been a part 
of the discussions on these issues and therefore, am not in a position 
to comment extensively on the impact of recent allegations of NSA 
surveillance in Europe on the U.S-EU SWIFT and PNR Agreements and 
ongoing U.S.-EU negotiations on the DPPA. I recognize, however, that 
the allegations of NSA surveillance activities have generated 
challenges in our relationship with the EU. In that regard, I would 
like to reiterate several commitments the President has made in the 
wake of these allegations.
    The President has committed to a full review of the way we gather 
intelligence so that we can ensure we are properly balancing the 
legitimate security concerns of our citizens and allies with the 
privacy concerns all people share. The President has asked his national 
security team, as well as outside experts to review how, in light of 
changing technologies, the United States can best use its technical 
collection activities to optimally protect U.S. national security and 
foreign policy interests while respecting U.S. commitments to privacy 
and civil liberties. In the meantime, it is clear we need to continue 
to consult with our allies and partners on issues of mutual concern. If 
confirmed, I look forward to working with them on such issues.
    On the more general issue of data transfers, the United States 
continues to work with the EU to enhance cross-border data flows to 
help build our world-leading 
e-commerce sectors. The Terrorism Finance Tracking Program and 
Passenger Name Record agreements have served U.S. and EU interests and 
should be maintained. The TTIP negotiations should reflect our mutually 
agreed Trade Principles for Information and Communication Technology 
Services on cross-border information flows while respecting our 
different regulatory regimes, both of which include a deep commitment 
to privacy protections.

    Question. Some member countries support further political and 
economic integration of the EU and the eurozone. In your opinion, would 
this shift be beneficial to U.S.-EU relations? What challenges and/or 
benefits would integration present as EU membership continues to 
increase?

    Answer. The United States has a profound interest in Europe's 
stability and growth. Europe remains our largest economic partner, and 
we are closely linked in many ways. We look forward toward continued 
partnership and strong U.S.-EU relations.
    The U.S. and global economy face headwinds as deleveraging in the 
banking and business sectors, among other factors, slows Europe's 
economic recovery and job growth. We are pleased to see the EU's 
progress toward a banking union, and note the recent EU approval of the 
European Central Bank's direct supervision of some 130 of the 
eurozone's largest banks, starting November 2014.
    The United States fully supports moves toward a full banking union 
in Europe, including not only a single supervisory mechanism, but also 
resolution authority, recapitalization capacity, credible deposit 
insurance, and some degree of risk-sharing among members. Beyond the 
banking union, European Commission officials and others have said that 
forging a deeper fiscal or political union would likely require a 
treaty change. Those are decisions for EU member states to make.


     NOMINATIONS OF CAROLYN HESSLER RADELET AND MICHAEL G. CARROLL

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Carolyn Hessler Radelet, of Virginia, to be Director of 
        the Peace Corps
Michael G. Carroll, of New York, to be Inspector General, 
        United States Agency for International Development
                              ----------                              

    The committee met, pursuant to notice, at 10:20 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Edward J. 
Markey, presiding.
    Present: Senators Markey, Kaine, and Barrasso.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Good morning, and welcome to today's 
hearing.
    We are joined today by two distinguished and highly 
qualified individuals who have been nominated to fill important 
executive branch roles.
    The first is Carolyn Hessler Radelet, who has been 
nominated for the position of Director of the United States 
Peace Corps. She is an accomplished leader in international 
development and public health, with more than two decades of 
experience improving organizational operations and combating 
global health problems like HIV/AIDS. I could go on about Ms. 
Hessler Radelet, but we actually have Senator Johnny Isakson 
and former Senator Harris Wofford here to give much more 
thorough introductions to her, momentarily, so I will leave it 
there.
    We are also joined today by Michael Carroll, who has been 
nominated for the position of Inspector General of the United 
States Agency for International Development. Mr. Carroll has 
been the deputy inspector general since 2006 and has twice 
served as the acting inspector general during that time. He has 
three decades of government service and has held numerous 
management positions throughout the Federal Government, 
including with the Department of Commerce and the U.S. Nuclear 
Waste Technical Review Board. His understanding of foreign 
affairs and America's agencies engaged in foreign affairs is a 
proven national asset, and I believe that it will serve him and 
our Nation well if he is, indeed, confirmed as USAID's 
inspector general.
    Both of the nominations we are considering today are for 
positions in which I believe topnotch management is needed, now 
more than ever. At USAID, more and more resources and personnel 
have moved into conflict zones, like Iraq, Afghanistan, and 
Pakistan, where we are facing big, new challenges. There are 
very large contracts in play, heightened security concerns, and 
the rule of law is often fragile. Detecting and preventing 
fraud, waste, and abuse in these places is both more 
challenging and more necessary. The inspector general's 
oversight has never been more critical at USAID, in my opinion.
    And, at the Peace Corps, it is time to lean forward. As a 
Senator from Massachusetts, I have deep appreciation and 
respect for the program that President Kennedy and Sargent 
Shriver and Harris Wofford created in order to involve 
Americans more actively in the cause of global democracy, 
peace, development, freedom, and friendship. These founding 
objectives remain central to Peace Corps' mission, yet, in the 
past 52 years since the agency was created, entirely new models 
of international development, interagency coordination, and 
U.S. personnel security have required the Peace Corps to 
periodically adapt to those operations.
    I believe now can be a period of modernization for the 
Peace Corps. The 2010 Comprehensive Assessment Report that the 
agency commissioned has provided a detailed blueprint to chart 
that modernization effort. Let us align the work of the 
Volunteers with broader development objectives and resources in 
their regions. Let us give Volunteers access to training that 
will help them maximize their impact in their host communities 
and also make them more prepared to be leaders when they return 
home. Let us think creatively about how to bring the lessons 
and experiences of Volunteers back here to the United States, 
back to our classrooms, our living rooms, and our boardrooms.
    I look forward to discussing these and other challenges 
facing your respective agencies, as well as your visions for 
addressing them.
    With that, I would like to recognize the Senator from 
Wyoming, John Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you so much, Chairman Markey. Thank 
you for your leadership in organizing this nominating hearing.
    And today marks, I think, your first hearing chairing this 
subcommittee. So, congratulations. I look forward to working 
closely together with you on the critical issues within the 
jurisdiction of our subcommittee.
    The Senate Committee on Foreign Relations is meeting today 
to consider very important nominations, and I would like to 
first congratulate both of you on your nominations to these 
important positions. In addition, I want to extend a warm 
welcome to all of your friends and family who are here joining 
you today.
    Should you serve our Nation in these important posts, it is 
important that each of you provide strong stewardship over 
American taxpayer dollars, demonstrate professionalism and good 
judgment, and vigorously work to advance the priorities of the 
United States. So, I hope you will lay out your vision and your 
goals for each of these positions, and what your plan will be 
in achieving them. I look forward to your testimony.
    It is wonderful to see Senator Wofford back, and thank you 
for joining us today at the Senate Prayer Breakfast. And, 
again, thank you, to my friend Senator Isakson, who is always 
involved in the Senate Prayer Breakfast and lends a level of 
ethics and credibility and high moral standards to this entire 
institution. So, I am delighted to have you.
    I am also joined, Mr. Chairman, by one of my interns, Ryan 
Lojo, from Casper, who is here, today, behind me. He has been 
accepted to join the organization that you are looking to chair 
in the Peace Corps, and he will, after leaving my office, be 
heading to the Dominican Republic. And I know, Mr. Chairman, he 
may be assisting me in some tough questions for the new 
Director of the Peace Corps.
    Thank you, Mr. Chairman.
    Senator Markey. I thank you.
    And again, you are right, I began chairing hearings in the 
House of Representatives as a subcommittee chairman in 1981, 
but I have never held a Senate gavel at the subcommittee level 
before. And so, it is a great honor to be able to make my debut 
doing that here today.
    And we welcome Senator Isakson here today to introduce, 
along with Senator Wofford, our Peace Corps nominee.
    So, Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Markey. It was a 
privilege to serve with you in the Congress. We welcome to the 
United States Senate, and I appreciate the opportunity to 
commend to the Foreign Relations Committee and the United 
States Senate, Carrie Hessler Radelet, who has become a friend 
of mine through her hard work with the Peace Corps as an Acting 
Director.
    I first learned of Carrie after the passage of the Peace 
Corps Protection Act, the Kate Puzey Peace Corps Protection 
Act. It is named after Kate Puzey, a citizen from my district 
who was brutally murdered in Benin 4\1/2\ years ago. After that 
passage of that act, we learned of a number of other sexual 
violence cases and violence cases against Peace Corps 
Volunteers back through the history of the Peace Corps and 
decided to really make an effort to improve the safety and 
security for our Volunteers as well as the post-service 
services we could provide to our Volunteers who had had a 
trauma either of a sexual nature or a violent nature.
    Carrie has seen to it that that has taken place and has 
implemented the policies of the Kate Puzey Peace Corps 
Protection Act, as well as additional policies, to see to it 
the Peace Corps is a safer, better place than it was in the 
past. And it has always been a great, great place.
    Ironically, also, she is not a newcomer to the Peace Corps. 
She is a fourth-generation Peace Corps participant. In her 
family, there are four different citizens who Volunteered for 
the Peace Corps, including her aunt, who was the 10,000th 
Volunteer, if I am not mistaken, and is here today.
    Ms. Radelet. And who is here today, yes.
    Senator Isakson. The 10,000th Volunteer to the Corps. And 
she served in 1964.
    Senator Markey. Could you stand up, please?
    [Applause.]
    Senator Isakson. And I didn't know this until I was just 
informed by Carrie, but the father of the fourth-generation 
nephew who served in the Peace Corps is also here. So, if he 
would stand up.
    [Applause.]
    Senator Isakson. Would not have any Volunteers if it were 
not for those fathers and mothers, so we appreciate you being 
here. [Laughter.]
    But, it is just an honor and a privilege for me to commend 
to the committee, Carrie Hessler Radelet, who has done a 
terrific job as Acting Director, will be a terrific person as 
the full Director, and I am sure will be confirmed unanimously 
by the United States Senate.
    And my last comment is an apology, because I am on the 
Finance Committee, where Secretary Sebelius is now testifying, 
and I cannot stay here. But, I will leave my love and my 
support and my recommendation for Carrie.
    Ms. Radelet. Thank you so much. Appreciate it.
    Senator Markey. Thank you, Senator.
    And Harris Wofford, a confidante of President Kennedy, of 
Robert F. Kennedy, of Martin Luther King, a great Senator from 
the State of Pennsylvania, it is an honor to have you here, 
sir. Whenever you are ready, please begin.

               STATEMENT OF HON. HARRIS WOFFORD, 
             FORMER U.S. SENATOR FROM PENNSYLVANIA

    Senator Wofford. Senator Markey--with your new gavel--
Senator Barrasso, and Senator Isakson.
    Half a century ago, the siren call of the Peace Corps drew 
me from President Kennedy's staff as Special Assistant to the 
President for Civil Rights to go to Ethiopia as the Peace Corps 
Director in that country and also serve as the Peace Corps 
special representative to Africa. In late 1962, my wife and two 
children went with some 300 Peace Corps teachers, soon to be 
followed by another 150. Together, they doubled the number of 
college graduate secondary-school teachers in Ethiopia.
    Seeing the Volunteers in action there and in the rest of 
Africa, I recognized that the highest office in the Peace Corps 
is not any staff position. The most honored title is that of a 
Peace Corps Volunteer.
    More than 50 years and 200,000 Volunteers later, that 
remains true, as does President Kennedy's statement at the 
beginning of the bold, new venture in international service, 
that the effort must be far greater than we have ever made. The 
Peace Corps remains the one lasting embodiment of Kennedy's 
call to ask what you can do for your country, linked to his 
call on other countries to join in what, together, we can do 
for the world.
    These are some of the reasons I am happy to be able to join 
Senator Isakson in introducing to you again Carrie Hessler 
Radelet. This time, she is here before you for confirmation as 
the Director of the Peace Corps. As Sargent Shriver hoped would 
be the case when there was a wealth of Volunteers who had 
returned from service in Asia, Africa, Latin America, and the 
Middle East, she is a former Peace Corps Volunteer. She comes 
now with fresh experience as the Corps' Deputy Director and 
then the Acting Director of the Peace Corps.
    In these recent years, I have seen her in action in 
challenging times, times which call for a strong and effective 
Peace Corps as much as they called for such a Peace Corps in 
the 1960s. My appreciation and admiration of her leadership has 
only grown in these testing years.
    After her service as a Peace Corps Volunteer, Carrie had 
important experience in international public health work with 
technical expertise in the crisis of HIV/AIDS in Africa and 
Indonesia, including her work with the Office of Global AIDS 
Coordination through the President's Emergency Plan for AIDS 
Relief, PEPFAR, one of America's most valued achievements 
overseas so far in this century and one of the most vital areas 
of service by Peace Corps Volunteers today. I am confident she 
is a leader who can guide us in the development of the 21st 
century Peace Corps that the world needs, one that will make 
this committee and this country proud.
    Thank you.
    Senator Markey. Thank you, Senator. And again, it is an 
honor to have you here.
    Ms. Radelet, whenever you feel comfortable, please begin.

 STATEMENT OF HON. CAROLYN HESSLER RADELET, OF VIRGINIA, TO BE 
                  DIRECTOR OF THE PEACE CORPS

    Ms. Radelet. Thank you, Chairman Markey, Ranking Member 
Barrasso, and other members of the committee, for having me 
here today. I am deeply honored to come before this committee 
to seek confirmation to be the next Director of the Peace 
Corps.
    Thank you, Senator Wofford, for your kind introduction. 
There is no one who has done more to further the cause of 
national service than Harris Wofford, and it is such a 
privilege to be here with you here today.
    I would also like to thank Senator Isakson for his remarks. 
He has been a true champion for Peace Corps Volunteers, 
especially in Africa, and such an incredible source of support 
for the Puzey family.
    I would like to thank President Obama for nominating me to 
be the 19th Director of the Peace Corps. It has been such a 
privilege to serve in his administration.
    And I would especially like to thank my husband, Steve, and 
other members of my family who are here today, for all of their 
love and support.
    My history with the Peace Corps runs deep. Four generations 
and six members of my family have served as Peace Corps 
Volunteers, including my aunt Ginny, who you met earlier, both 
of my grandparents, my husband, and my nephew, and myself.
    My Peace Corps service in Samoa changed my life. It shaped 
my passion for international development and launched my 
career. I want to ensure that all Americans who want to serve 
overseas have the opportunity to do so and to bring their 
experience back home to make a difference here in the United 
States.
    Over my past 3 years with the Peace Corps, first as Deputy 
Director and chief operating officer, and now as Acting 
Director, I led an extensive reform effort to modernize and 
strengthen all aspects of our operations. With the active 
support of Congress and under the leadership of then-Director 
Aaron Williams, we have dramatically improved the quality of 
our support for Volunteers. We have strategically targeted 
Peace Corps' resources and country presence to maximize impact, 
using data to guide our decisionmaking, and we have streamlined 
Peace Corps' operations by using new technology to create a 
culture of innovation and excellence. This reform has 
positioned our agency to make an even greater impact in the 
years to come.
    I envision Peace Corps as a dynamic, forward-leaning 
champion for international service. I see a Peace Corps that 
plays a major role in helping our country make a real 
difference in the lives of the world's poor. I envision a Peace 
Corps that is defined by its energy, its innovation, and its 
impact. I see it as ``the'' place for Americans who are drawn 
to service abroad. But, most important, I see Peace Corps 
Volunteers who, through their lives, show the world the 
compassion, tolerance, and dedication to service that has 
always characterized the American people.
    If confirmed, I will lead the Peace Corps toward this 
vision by revitalizing recruitment and outreach to ensure that 
all Americans know about the Peace Corps, with a focus on 
building a Volunteer force that represents the quality and rich 
diversity of the American people; by working in partnership 
with other U.S. Government agencies to save our country 
millions of dollars while magnifying the impact and 
sustainability of our Nation's development work; by empowering 
our Volunteers to achieve measurable results in their host 
communities and giving them the training, tools, and experience 
they need to become the next generation of American global 
leaders; and by continuing to strengthen support for our 
Volunteers so they can be healthy, safe, and productive 
throughout their service.
    Peace Corps is one of America's best ideas. Our team is 
ready to take Peace Corps to a whole new level of engagement 
and achieve even greater impact for our Nation and the nations 
in which we serve.
    As testimony to the critical role of Peace Corps, this is 
what President Ellen Johnson Sirleaf, of Liberia, had to say 
about our Volunteers, just last month, ``Peace Corps Volunteers 
are visible evidence that the people of the United States stand 
with us for peace, for prosperity, for justice and equality. By 
living and working among us, your Volunteers help us to create 
the conditions where hope and kindness and opportunity can 
flourish. They make such a powerful difference in the lives of 
my people.''
    That is why I am here today: because I care deeply about 
our mission and about our Volunteers who serve our country 
around the world. I am so grateful to our Volunteers and staff, 
past and present, for their dedication to service. If 
confirmed, I am committed to serving them as their Director of 
the Peace Corps.
    Thank you for inviting me today, and I welcome any 
questions you might have.
    Senator Markey. Thank you so much.
    And could I ask the audience to do this, as well, because 
we have an opportunity that very rarely comes into our 
presence. I would like to give a round of applause to Harris 
Wofford, as well, for his incredible service to----
    [Applause.]
    Senator Markey [continuing]. He is a historic figure.
    So, welcome, Mr. Carroll, and thank you for your service, 
as well. And whenever you are ready, please begin.

 STATEMENT OF MICHAEL G. CARROLL, OF NEW YORK, TO BE INSPECTOR 
  GENERAL, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Carroll. Thank you. That is a tough act to follow. 
[Laughter.]
    It is an honor, Chairman Markey and Ranking Member 
Barrasso. It is an honor to appear before you today as you 
consider my nomination for inspector general of USAID.
    To begin, I would like to take a moment to thank my wife, 
Nancy, and my son, Matthew. They have been an inspiration to me 
over the course of my career.
    I would like to thank the President for his confidence in 
me and in nominating me for the position.
    And I would also like to thank the men and women of the 
USAID OIG. I have had the pleasure of working with them for 12 
years now, and it has been an honor to work with them and to 
lead them.
    And finally, I would like to thank Raj Shah. We have 
developed a very productive and respectful relationship over 
his tenure as the AID Administrator, and I look forward to 
maintaining that relationship if I am confirmed as the 
inspector general.
    Like my father before me, who was a naval officer in World 
War II and a career civil servant, I have spent 31 years 
serving the United States Government in public service. I am 
very proud of that service. And 20 of those years have been 
spent in foreign affairs at the former U.S. Information Agency 
and also in the AID OIG, overseeing foreign assistance. And I 
would like to think that that experience makes me uniquely 
qualified to be the next inspector general of USAID.
    I started my career at the AID OIG in 2000 as the Assistant 
Inspector General for Management. I became the deputy inspector 
general in 2006, under then-IG, Hon. Don Gambatesa, and then, 
when Don Gambatesa retired in 2011, I became the acting IG, and 
I have been so ever since. And I do believe that those 
experiences that I have developed over my 31 years, and 
particularly in the 12 years at the USAID OIG, do make me 
uniquely qualified for the position of inspector general.
    If confirmed as the next inspector general, the fifth 
inspector general in the history of AID, I would like to assure 
the committee of my commitment to three core operating 
principles, if you will. And the first, and, in my opinion, the 
most important, is independence. I do not think you can have 
effective oversight unless you have independent oversight, and 
I will do everything within my legal authority to ensure, to 
maintain, and to defend that independence.
    Second, I am committed to producing and conducting timely, 
high-quality, thoughtful, and relevant oversight, not only to 
improve the agency's programs and operations, but also to, 
hopefully, influence, in a positive way, the deliberative 
process that goes on here in Congress and that happens more 
broadly in the development community as a way for you to 
conduct thoughtful oversight of AID, relying on our oversight.
    And last--and this is as important as anything else--is 
maintaining, and what I would like to believe we have 
maintained, an outstanding working relationship with this 
committee and other committees that have oversight 
responsibilities over AID and MCC and USADF and IAF. I think it 
is critical that we work together. I appreciate my 
responsibility, as laid out in the IG act, that I report to 
Congress. I take that very seriously. And, like I said, I would 
like to think it has been a good relationship over the years, 
but I am certainly wide open to any feedback or suggestions the 
committee members or staff might have on improving that 
relationship.
    And, if I could, I would just like to end with an 
observation, and it is in line with what you said earlier, 
Senator Markey. And that is: Inherently, foreign assistance is 
a high-risk enterprise. When you consider the fact that many of 
the countries that AID operates in are at or near the bottom of 
the Transparency International Corruption Index, when you add 
to that the fact that, since 2001, AID has operated in some of 
the most dangerous and nonpermissive environments on the 
planet, in countries like Afghanistan, Iraq, Pakistan, Haiti, 
Sudan, and now Syria, that requires, in my opinion--and that--I 
am not--and I am not here to say that that level of risk is 
unacceptable, because it is not. But, what it does speak to is 
the need for thoughtful oversight as a way to mitigate that 
risk by providing transparency and effectiveness in those 
agency programs. And I really feel confident that, if 
confirmed, with my colleagues at the USAID OIG, we can provide 
an effective level of oversight of those programs to ensure 
their effectiveness and to ensure their accountability.
    Again, it is an honor to appear before the committee today, 
and I look forward to take any questions you may have.
    Thank you very much.
    [The prepared statement of Mr. Carroll follows:]

                Prepared Statement of Michael G. Carroll

    Chairman, Ranking Member, and members of the committee, thank you 
for the opportunity to appear before you today. It is an honor to come 
before you as the nominee to serve as Inspector General for the U.S. 
Agency for International Development (USAID).
    If you will permit me, I would like to take a moment to introduce 
my family. My wife, Nancy, and our son, Matthew, are here with me 
today. I would like to thank them for their support during my time in 
public service. No measure of verbal acknowledgement can fully reflect 
my gratitude for the inspiration and encouragement that they have 
provided over the years.
    I would also like to thank the President for his consideration for 
this important office and Administrator Shah for his support. If 
confirmed, I look forward to a productive working relationship with the 
Administrator and his management team in ensuring proper oversight of 
foreign assistance programs and operations.
    I have dedicated nearly my entire professional life to public 
service, so it is a distinct honor to be considered for this leadership 
position in the Federal Government. My experience in leadership 
positions in five federal agencies has shown me the integral role that 
effective public administration can play in the proper functioning of 
an agency. I have devoted much of my career to creating an effective 
management environment in which programs and operations thrive, and I 
would value the opportunity to do so as Inspector General.
    The inspector general community plays a critical role in 
reinforcing the accountability and integrity of government programs and 
strengthening the efficiency and effectiveness of operations. These are 
responsibilities that I value deeply as a citizen and a taxpayer. I 
have worked assiduously in my past and present capacities within the 
USAID Office of Inspector General (OIG) to ensure that the organization 
contributes materially in these areas.
    I would especially look forward to the opportunity to continue to 
serve my country as Inspector General for USAID. I spent many of my 
formative years overseas--in Turkey, Guam, the Philippines, and Cuba--
and in the process acquired a deeply rooted appreciation for our great 
Nation's place in the world. In my professional life, I have served in 
leadership positions in foreign affairs agencies for more than two 
decades and I have developed a keen understanding of the role that 
international engagement and foreign assistance play in supporting our 
national interests and security.
    USAID does important work to advance U.S. foreign policy interests 
and to help people around the world make a better life for themselves. 
To effectively perform this function, USAID programs and operations 
must be implemented in a sound manner that yields the results that the 
American people and Congress expect. The Inspector General has a vital 
role to play in helping the Agency fulfill its mandate in this regard.
    USAID faces many formidable challenges in carrying out its mission. 
To promote human progress and expand stable, free societies, USAID 
works in countries where rule of law is tenuous and corruption is 
endemic. In promoting the sustainability of hard-won development gains, 
USAID looks to work more closely with and through local institutions 
that are still developing key business systems and controls. In this 
context, the OIG plays a pivotal role in shaping the success or failure 
of Agency programs and is essential to address the ever present risks 
of waste, fraud, and abuse.
    The importance of this oversight function is multiplied in 
institutional settings characterized by a high degree of dynamism and 
volatility. Foreign affairs agencies as a group face significant 
changes in their operating environment as conditions abroad shift. And, 
in recent years, USAID has embarked on reforms designed to improve 
internal operations and transform its approach to delivering 
development assistance. Changes of this kind increase risks. In the 
face of these developments, OIG is working to ensure that the Agency 
has systems in place to properly manage these changes while directly 
responding to associated risks of waste, fraud, and abuse.
    In addition to providing oversight of USAID, the USAID Inspector 
General has responsibility for oversight of the programs and operations 
of the Millennium Challenge Corporation, the U.S. African Development 
Foundation, and the Inter-American Foundation, and also has limited 
oversight authorities relating to the Overseas Private Investment 
Corporation. If confirmed, I would look forward to working with the 
leadership of these organizations to combat waste, fraud, and abuse, 
and to strengthen their respective abilities to execute their missions.
    I understand that the responsibilities of the position to which I 
have been nominated are great and I know that it will present many 
challenges. Nevertheless, I believe that the knowledge and experience 
that I have gained over the course of my life have prepared me for 
these challenges.
    I have a profound commitment to accountability and high performance 
and I demand the highest level of ethical conduct from myself and 
others around me. I take the public trust very seriously and have 
always been firmly dedicated to the prudent use of taxpayer dollars. 
Over the course of my career, I have developed a reputation as a 
dynamic leader and a thoughtful steward of government resources. In an 
oversight capacity, I have always worked to ensure that my 
organization's products are free from bias and reflect fairly and 
honestly on the subjects of our work.
    For the last 7 years, I have served alternately as Acting Inspector 
General and Deputy Inspector General at USAID. This experience has 
prepared me in a unique way for the USAID Inspector General position 
and given me special insight into the inner workings of the agencies 
for which we provide oversight. My experience serving in these 
capacities has also helped me build on the management and leadership 
skills I developed in previous assignments. In the past, I have served 
in senior positions at the U.S. Department of Commerce, the U.S. 
Nuclear Waste Technical Review Board, and the U.S. Information Agency. 
I also served as the Assistant Inspector General for Management at 
USAID OIG.
    In my time with USAID OIG, I have had the great benefit of working 
with the many high-caliber professionals that make up the organization. 
OIG's workforce consists of skilled Foreign Service and Civil Service 
auditors, investigators, and analysts that provide hands-on oversight 
of development and stabilization activities around the globe. This work 
frequently takes them into challenging settings, such as conflict and 
post-disaster environments, where security and safety are all too often 
in short supply. Their dedication to get the job done in the face of 
these and other obstacles presented by the complex environments in 
which they operate is truly commendable. I consider myself fortunate to 
serve with a group of such diligent and motivated public servants.
    If confirmed, my priorities as Inspector General would include 
maintaining OIG's robust, forward-deployed audit and investigative 
capabilities while increasing the office's ability to deliver products 
that inform the deliberative process surrounding foreign assistance. I 
would continue to promote effective coordination with oversight 
partners and redouble efforts to strengthen the accountability 
environment in which foreign assistance programs operate. Because local 
conditions frequently shape the success or failure of development 
activities, I would work to increase engagement with local law 
enforcement and prosecutors, host-country audit entities, and the 
public through country-specific hotlines for reporting fraud, waste, 
and abuse. I would also continue to uphold the highest standards for 
integrity, fairness, and impartiality in the OIG's work and zealously 
guard its independence, while promoting communication with Congress and 
agency leaders on important oversight issues.
    The effective execution of USAID OIG's important mandate calls for 
dedicated leadership. The American people deserve an Inspector General 
at USAID who is fully committed to ensuring that taxpayer dollars are 
spent in an effective manner and that risks of waste, fraud, and abuse 
are met squarely and with unwavering resolve. I fully embrace this 
commitment and believe that my experience has prepared me for the 
challenges of this position. If I am confirmed, I will look forward to 
having the opportunity to exercise the skills and judgment I have 
developed over the years in performing the important functions of the 
USAID Inspector General.
    Thank you very much for the opportunity to address the committee 
today and for your consideration of my nomination to this important 
position. I would be happy to answer any questions you may have.

    Senator Markey. Thank you, Mr. Carroll, very much. We thank 
both of you.
    And the chair will recognize himself for a brief number of 
questions. And I will begin just by noting that both of these 
nominees have done the jobs that they are nominated for, in an 
acting capacity. So, both of them are ready to do the job on 
day one, if they are confirmed, which I hope that they are. 
They have both been given the opportunity to prove that they 
have the capacity to do these jobs, and they have both proven 
that they can do them. And I think that is something that our 
country is going to benefit from.
    So, let me begin with you, Ms. Radelet. Talk a little bit, 
if you can, about, you know, the most recent comprehensive 
review of the agency and what you believe are the one or two 
key things that you want to see happen during the time that you 
are in charge of this important agency.
    Ms. Radelet. Thank you very much, Senator Markey. And 
congratulations to you on taking the gavel for the first time.
    Senator Markey. Thank you.
    Ms. Radelet. We are delighted that we are the lucky 
beneficiaries.
    I was so fortunate, because I came into the Peace Corps in 
2010 at the exact time that the team was responsible for 
carrying out the Comprehensive Agency was formed, so--Agency 
Assessment was formed, so I was able to be part of that 
assessment from the very beginning. And we took a 6-month term 
to really evaluate all aspects of our operations so that we 
could improve the quality of our support for Volunteers, but 
also improve the strength of our operations so that we could be 
more effective.
    The result of that assessment was 64 separate 
recommendations that we have been working on very carefully 
since that time. We developed a strategic plan, which has 
guided our operations. And I was very fortunate to be in a 
position to lead the reform effort.
    A few of the things that I am most proud of related to that 
is the Country Portfolio Review, which is a data-driven, 
objective way of looking at our country presence and allocating 
our resources across the globe. This is a very rigorous 
process. We are now in our fourth annual Country Portfolio 
Review. It just, actually, is starting tomorrow. And we use 
data from a number of different sources related to need, 
related to safety and security and health, related to reaching 
out to those countries where perceptions of Americans may be 
lowest so that we can achieve our second goal, which is 
promoting a better understanding of Americans. We look at host-
country contribution and how involved and engaged they are in 
our programs. We look at a number of different safety and 
security and medical indicators.
    So, it is a very comprehensive look at our footprint across 
the globe, and it has led us to be far more effective and 
impactful over the years. And, as a result, we have shifted our 
presence. We have reduced our presence in nine countries. We 
have ramped up our presence in a number of others. And we have 
entered a couple of others. So, it has really resulted in a 
very rigorous assessment of our impact and enabled us to use 
our resources in the most effective way possible. That is one 
big initiative.
    Another big initiative is our ``Focus In/Train Up'' 
initiative, which is a dramatic revamp of our training and 
technical support to Volunteers so that they could be most 
effective in their jobs. We are working in close collaboration 
with our other U.S. development partners in this endeavor--with 
USAID and PEPFAR and President's initiative--so that we can 
make sure that our interventions support their efforts in-
country, and so that we can also be sure that our Volunteers 
are implementing those project areas that have proven, through 
evidence, to be most effective at achieving development impact.
    Senator Markey. Thank you.
    Ms. Radelet. And undergirding all this is monitoring the 
evaluation to make us strong.
    Senator Markey. Thank you.
    Mr. Carroll, I knew you back in the 1990s while you were 
working on Yucca Mountain----
    Mr. Carroll. Right.
    Senator Markey. That is a domestic policy issue, in terms 
of ensuring that we have proper oversight. And now, at USAID, 
as there is a deeper and deeper role in Pakistan, in 
Afghanistan--billions of dollars being spent in those 
countries. Tell us a little bit, if you can, about how you see 
the logistical complexity of that, ensuring that the monitoring 
is well done in countries that provide, actually, historical 
levels of difficulty, in terms of ensuring that our U.S. money 
is being spent well.
    Mr. Carroll. Yes, Senator, thank you.
    Let me start with Afghanistan. I was just there recently 
and had some indepth briefings from State Department, both 
diplomatic security and the embassy transition team, and John 
Sopko, from SIGAR, has just issued a report listing some 
concerns about oversight in Afghanistan, both from an agency 
point of view and from an OIG point of view. And I share those 
concerns. When the military leaves, at the end of 2014, and 
their presence is reduced to strictly a training role, there is 
going to be a tremendous amount of pressure on DS to provide 
security and safety for the diplomats. Based on what I heard in 
my briefings there, it is going to be very difficult for the 
AID development officers to get out into the field to do 
acceptable monitoring. It is going to be difficult for my staff 
to get out into the field to do effective oversight. So, I 
think I have serious concerns about Afghanistan.
    That being said, the agency does have, at least in theory, 
a thoughtful plan for providing oversight in a very restrictive 
environment, and we are going to begin a process of sort of 
testing that process as time goes on here between now and the 
end of 2014.
    The same thing is true in Pakistan. There are some regions 
there, in the tribal regions in Fatah, where it is very 
difficult to get to. The agency is using third-party 
monitoring, which is effective, but has its limitations. It is 
difficult for my staff to get up into those regions, as well. 
So, as those programs continue, I think we have to be very 
thoughtful about how we implement those programs.
    And then, on a macrolevel, Senator, I would say that Raj's 
major initiative of USAID Forward, while it does have many 
benefits, I think it also increases the risk that the agency 
programs potentially have. And it is important that the agency 
be thoughtful about the implementation of USAID Forward and we 
pay close attention, as the IG, on the implementation of USAID 
Forward.
    Senator Markey. Thank you, Mr. Carroll, very much.
    You know, in visiting Afghanistan and Iraq and meeting with 
the USAID employees there, it is just--they are just so 
courageous to----
    Mr. Carroll. Yes.
    Senator Markey [continuing]. The work that they do. And the 
same way, Peace Corps Volunteers in many parts of the world. 
There is no way to really fully thank them for the work that 
they do. And we thank you for both being willing to take these 
jobs.
    Let me now turn and recognize the gentleman from Wyoming.
    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
And I appreciate your questioning on Afghanistan, and your 
frank answers, because that was a great area that I was going 
to dig into, too. I think it is a great concern for, certainly, 
people in my home State, and so, I appreciate the questions as 
well as the answer.
    I would like to ask you, Mr. Carroll, about some reforms. 
You know, all foreign aid programs need to be rigorously 
evaluated. Most aid programs are not evaluated to determine the 
actual impact of the assistance. Congress, as well as people, 
certainly, in my home State of Wyoming, cannot really determine 
whether taxpayer dollars are being used wisely when it is 
unclear if it has succeeded or failed.
    In October a year ago, the U.S. Agency for International 
Development's Office of the Inspector General indicated that 
one of the most significant challenges facing the agency is the 
ability to demonstrate results through performance management 
and reporting. So, has USAID implemented reforms to demonstrate 
results through performance management and reporting? And could 
you just tell us a little bit about the impact of those 
reforms?
    Mr. Carroll. I would say that, historically, as you have 
mentioned, Senator, that has been a weakness of the agency. And 
part of USAID Forward has been a robust and a more effective--
or, an attempt at a more effective monitoring and evaluation 
system.
    What we have found over the years is that it has been 
difficult for the agency, one, to articulate the kind of 
metrics--the performance metrics that do link up to larger 
macro kind of outcomes, and so, they are working on that 
through their PPL organization.
    And then, second, is actually capturing the performance 
data. That is one of the weaknesses we have seen over time. And 
it is--I would say, Senator, it is too early to tell about the 
effectiveness of the reforms. I think they are thoughtfully 
developed, but I think the jury is out and we are going to have 
to do some more testing on that to ensure that it is as 
rigorous as it is being advertised to be.
    Senator Barrasso. And are there any additional reforms that 
you have in mind that you might want to propose to make sure 
that the assistance is more effective?
    Mr. Carroll. Well, what we do in our role as the IG is 
attempt to make recommendations based on the agency's 
implementation. I would be a little bit uncomfortable making 
policy kind of recommendations to the agency about how to do 
things. I think that is their job. My job is to ensure they are 
doing it effective and efficiency.
    Senator Barrasso. And, along those lines, with--following 
on that thought, in terms of something like fraud or waste or 
abuse, the role of providing oversight as well as to detect and 
prevent those sorts of problems, are there some recurring 
problems that you have seen in this regard? And what steps can 
we take, as Congress, to better prevent the problems of fraud 
or waste or abuse at USAID?
    Mr. Carroll. I would say, Senator, that the current laws 
and the current authorities that are in place for the agency, 
with suspension and debarment, and the law enforcement 
authorities that we have in the OIG, I think they are 
sufficient, and I think they are effective. I think--it is not 
necessarily a problem; it is inherent in the agency's programs. 
They do business in very difficult places, where rule of law is 
marginal, at best. So, we have seen recurring themes, primarily 
based on local contractors and individuals from those countries 
participating in fraudulent activities. Now, that is not to say 
that U.S.-based contractors do not do that, as well, because we 
know that they do, and we have proven that. But, it is a very 
difficult environment, but I do believe that we have the legal 
authorities and the wherewithal to detect that fraud and to 
prosecute that fraud----
    Senator Barrasso. Thank you.
    Mr. Carroll [continuing]. Although, if you could give me 
one second--IPR creates a dynamic--or, the procurement reforms 
creates a dynamic where there is a lot of local implementation, 
where U.S. dollars are going directly to local institutions. 
And so, the challenge there--and we see this as a positive, not 
a negative--is working with local law enforcement to ensure 
that we do have the authority and the wherewithal to execute 
local prosecutions. And we have had some success in the past in 
Pakistan and in Afghanistan, working with local law 
enforcement. So, it is a potential challenge for IPR, but I 
think it is a challenge that the agency and we can manage.
    Senator Barrasso. Thank you.
    Mr. Carroll. Thank you.
    Senator Barrasso. Turning to the Peace Corps, the Obama 
administration has set a goal to increase the number of Peace 
Corps Volunteers--you will be happy to hear this, Senator 
Wofford--to 11,000 by 2016. So, with consideration of the 
budgetary environment, what do you believe is the optimal 
number of Peace Corps Volunteers? And, you know, do you have 
the current capacity, the placements, the meaningful work 
projects for these additional Volunteers?
    Ms. Radelet. Thank you very much for that question. Sorry. 
Thank you so much for that question. And we are very much in 
favor of the Obama administration's goal of 11,000. I would 
even love to see it higher if I could.
    Our reforms that we have put in place over the last 3 years 
are designed to make our organization strong and effective so 
that it can achieve some growth. We believe that there is no 
higher return on investment in foreign assistance and citizen 
diplomacy than the Peace Corps Volunteer. We have--our cost is 
very low. For our current budget right now, of only $356 
million, we have over 7,000 Volunteers in 65 countries. And so, 
I am firmly in favor of expanding the number of Volunteers--in 
a scaled way. We would want to do it responsibly and gradually, 
but we are ready for that.
    Senator Barrasso. And, along that line, going from over 
7,000 to 11,000 over the next couple of years, are there some 
specific steps and benchmarks that you might have in mind as to 
how to do that expansion? You know, you always worry about 
issues of management. And as we try to do a successful 
expansion--I do not know what thought you have given to that.
    Ms. Radelet. Sure, absolutely. We have created a new 
strategic plan that has put in place some milestones that we 
can look toward, in terms of our management of our Volunteers, 
and especially our support for the health and safety of our 
Volunteers.
    But, our reform effort has actually put those in place. We 
do have strong monitoring and evaluation programs that do, on a 
daily basis, evaluate our support for Volunteers. And we also 
have an all-Volunteer survey which asks the Volunteers, 
themselves, about the level of support that we are providing, 
and offers them the opportunity to provide input into that 
process. So, I feel confident that we have the infrastructure 
ready for any kind of growth.
    Senator Barrasso. Because, as we discussed, there were a 
variety of reforms proposed in the Comprehensive Assessment 
Report, I think, 3 or 4 years ago. I am just curious how that 
has come along, in terms of the proposals. And are there 
additional members of those reforms that still need to be 
implemented?
    Ms. Radelet. Yes, thank you. Our reform is going along as 
planned. The final bit of our reform effort is the recruitment 
and communications. We wanted to get our house in order to 
really strengthen our systems and accountability and our 
support for Volunteers before taking on additional Volunteers. 
And so, that is why we have not pushed for growth previously. 
But, now we are beginning a very dynamic and aggressive 
recruitment campaign, and we are in the process of developing 
market research that will guide our communications. We are 
absolutely committed to having a volunteer force that reflects 
the diversity of our country, and so, that is a high priority 
for us. We are ready.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Markey. Thank the gentleman.
    The Senator from Virginia.
    Senator Kaine. Thank you, to the witnesses and Mr. Chair, 
Senator Barrasso.
    Thank you for the service that you have done and will do. I 
am going to focus my comments on the Peace Corps. I am a huge 
fan of this program. My niece just returned from Cameroon, 27 
months. And I have had my own experiences--not in the Peace 
Corps, but in a similar endeavor, that I will direct some 
questions to you, Ms. Radelet, about.
    But, before I do, in case anyone here does not know about 
this, another Harris Wofford point: The Peace Corps gives a 
number of awards each year, awards to great Volunteers, awards 
to alums who do wonderful things through the Peace Corps. There 
is an award, the Harris Wofford Global Citizen Award, that is a 
most appropriate and interesting award, that is given every 
year to someone whose life has been impacted by the Peace Corps 
in a way that they have gone on to be a wonderful public 
servant in their own country. And a great idea for an award, 
and what an honor for it to be named after Harris Wofford.
    I had the opportunity recently to meet with Dr. Mohammed 
Syed, of Kenya, who was influenced by a Peace Corps Volunteer 
when he was a high school student in Kenya in the late 1960s, 
and has gone on to have a really tremendous career providing 
medical services throughout his country. And I had the 
opportunity to meet both Dr. Syed and the Peace Corps Volunteer 
who influenced him in my office when Dr. Syed was back to 
receive the award. But, that is also a real tribute to Harris 
Wofford, that such an important award would be named in his 
honor.
    Ms. Radelet, I worked as a missionary in Honduras in 1980 
and 1981 and had a wonderful opportunity during that time to 
interact with a lot of Peace Corps Volunteers. And I know 
Honduras is now a country that has been closed to Volunteers 
because of issues with violence there. And I do not question 
that decision. The violence that my friends continue to 
experience in Honduras is really horrific. But, I would kind of 
like to talk to you about the issue of closure. How do you make 
that decision? How many nations is the Peace Corps currently 
made decisions to close? And how do you approach the decisions 
about whether and when to reopen and put Peace Corps Volunteers 
back?
    From the very beginning days of this program, Peace Corps 
Volunteers have done just remarkable work in Honduras, and 
Hondurans love this program. And I am just kind of interested 
in using Honduras as an example to understand the closure 
decision and how it could be reversed, when appropriate.
    Ms. Radelet. Thank you so very much. I am a constituent, so 
it is a pleasure to have you here. And also want to thank you 
for your service in Honduras. Peace Corps is so supportive of 
all Volunteer service, and we partner often with Volunteers 
from other agencies. So, let me just start with that.
    The issue of closure is an important one. It is not an 
issue that we take lightly, nor is it a decision that we do 
instantaneously unless there is some sort of major event. And 
so, if there is a coup or some sort of major political event, 
then that would--that kind of decision would be taken quickly, 
and always in consultation with the Department of State and 
Embassy and the host country.
    But, decisions related to entry and exit are decisions that 
we consider very carefully through our Country Portfolio Review 
process, which I described earlier as being a data-driven, 
objective process. And so, Honduras, frankly, has been on our 
radar for some time. Its safety and security indicators were 
high. We felt, for a long time, that we could manage it by 
placing our Volunteers in those parts of the country that are 
safest. And we have a very, very rigorous and analytical 
process for placing Volunteers, both across the globe, but even 
within countries. We can sometimes operate in countries that 
have high crime statistics by placing them in those areas of 
the country that are safe and far from crime. And we have been 
able to do this in other countries in Central America, and 
actually dramatically reduce the rate of crime against 
Volunteers. We were able to do that in Guatemala and El 
Salvador.
    But, in Honduras, in looking over the data, the crime 
statistics, and on the ground with our staff and with the staff 
of the Embassy, it no longer became tenable for us to support 
Volunteers there. The crime rates throughout the country were 
so high, unacceptably high, and it was also difficult to 
predict when the crime would happen to Volunteers. Much of the 
crime was transportation related, on buses and what have you. 
And even on bus routes that had previously been safe, we 
started to see some violence. And it was that unplannable, you 
know, sort of random acts of violence that became difficult for 
us to manage. And our highest, highest priority is the safety 
and security of our Volunteers. So, we just had to make the 
decision that we made.
    We had extensive conversations with the Ambassador and, 
indeed, with all of the members of the ministries with which we 
worked, up to the highest levels of the Honduran Government. We 
also talked to our NGO partners, but----
    Senator Kaine. Just to kind of--in order of magnitude--and 
I did not ask this in advance; I do not know if you know the 
specific number--but, how many countries in the world would 
currently be closed--has the Peace Corps made the decision to 
close to Peace Corps Volunteers?
    Ms. Radelet. In the last 3 years, since I have been here, 
there have been nine closures, of which four have been closed 
for security reasons. One is Honduras, and the others are 
Mauritania, Mali, and Niger.
    Senator Kaine. And the reasons for closures, other than 
security, would be some kind of a political reason?
    Ms. Radelet. Or a graduation, their economically 
development.
    Senator Kaine. I see.
    Ms. Radelet. Yes. For example, we just left Romania and 
Bulgaria after 20 years, and that was because they were 
economically developed, they were capable of continuing on many 
of the programs that we had developed in the communities, and 
they were about to--they were entering the European Union. So--
--
    Senator Kaine. And is it the case that, in the past, there 
have been closures that have been reopened once the problem 
that led to the closure has, you know, reached some point of 
solution--acceptable solution?
    Ms. Radelet. Absolutely. Especially in West Africa, we have 
seen countries that we have gone in and out of multiple times. 
We are committed in working in those places where we can be 
most effective, but we have to make sure that the political 
environment is safe.
    Senator Kaine. One last question. What is your opinion 
about whether return Volunteers receive sufficient post-service 
benefits, whether it be loan forgiveness or career assistance 
or educational support?
    Ms. Radelet. We are so supportive of our return Volunteers, 
and we would love to see even more benefits than we currently 
have.
    One of the big economic barriers to Peace Corps service is 
student loan debt. And we currently--our Federal loans are 
deferred, but we would love to see a deferment of commercial 
loans. And that is something that we are working toward. So, 
that is one thing that I would like to put on the table there.
    We depend very much on our return Volunteers. And you, 
yourself, mentioned the Harris Wofford Award. We have leaders 
from around the world who credit Peace Corps with giving them 
hope and a headstart. And there are 10 Presidents on the 
African Continent alone, that have said that there is a Peace 
Corps Volunteer that put them on the path to Presidency. So, we 
have so much to thank our return Volunteers for.
    We have a new Office of Return Volunteer Services that 
focuses heavily on supporting return Volunteers as they reenter 
the job market. And also, we assist them with graduate school 
applications and what have you.
    Senator Kaine. Great. Great. Thank you very much.
    Thanks, Mr. Chair.
    Senator Markey. Thank----
    Senator Wofford. Mr. Chairman, can I say a word on the 
history that is pertinent to Senator Kaine's comments?
    Senator Markey. Yes, please, sir.
    Senator Wofford. That the Director of the Peace Corps is 
going to do an outstanding job of administering that Congress 
is able to appropriate in very difficult times. But, let me--
when we went off to Ethiopia, 600 Volunteers were sworn in on 
the White House lawn and sent off by President Kennedy. On the 
way back in, before I left with 300 of them for Ethiopia, one 
of the countries that was closed during the war with Eritrea 
and is functioning again in the Peace Corps, Kennedy turned to 
me and said, ``You know, this will be really serious when it is 
100,000 Volunteers a year, and then, in one decade, there would 
be a million Americans with firsthand experience in Asia, 
`Africor,' '' as he would say, ``and Latin `Americor,' and then 
we will have--not only had a contribution of large scale, but 
we will at last have a large constituency for an informed 
foreign policy.''
    Fast forward. Senator Obama, in his campaign, endorsed the 
goal--in the Iowa primary in a major speech--he endorsed the 
goal of President Kennedy's 100,000, and specifically proposed 
that the Peace Corps should be doubled, which would bring it to 
the 15- or 16,000 that we were at when Sargent Shriver left and 
when I left, in 1966. I think this is something the committee, 
when it wants to be imaginative as well as stewards of what is 
now being appropriated, the committee could give some 
leadership at looking at how, whether with the Peace Corps or 
with other forms of overseas fellowships on, maybe, shorter 
terms, something closer to the vision that Kennedy had could be 
proposed and explored.
    Senator Markey. Thank you, Senator. And we will do that. 
That is good advice.
    And the impact, which Peace Corps Volunteers have when they 
come back to the United States. I have a letter here from five 
Members of the United States Congress who served in the Peace 
Corps who have written a letter endorsing your confirmation: 
Sam Farr, from California, John Garamendi, from California, 
Mike Honda, from California, Tom Petri, from Wisconsin, and 
Joseph Kennedy, from the State of Massachusetts. So, they have 
written a letter, which I would ask unanimous consent to 
include in the record.
    Senator Markey. And that just shows you, not just this 
institution, but institutions all over the country are impacted 
by those returning Peace Corps veterans.
    And let me just ask one quick question, if I can, and that 
is the status of women and their protection, in both of these 
agencies, from sexual harassment. And if each of you could 
briefly talk about that issue, which clearly is much greater 
than anyone had really thought about, up to a couple of years 
ago.
    Ms. Radelet.
    Ms. Radelet. Thank you. As a return Peace Corps Volunteer, 
as a mother, as a woman, and as a sexual assault survivor, 
myself, there is no other topic that is more important to me 
or, frankly, that I spend more time on.
    I want to start by saying how very grateful I am to the 
women and men who came forward over the past 2 years to share 
their stories with us. They have helped us to define our 
problem and identify solutions for going forward.
    I want to say that implementation of the Kate Puzey Peace 
Corps Volunteer Act of 2011 has brought about nothing short of 
culture change in our agency. It has lifted our support for 
Volunteers across the board and has changed the way that we 
work, as an agency, in a very positive way.
    I am delighted to say that, in the past 3 years we have 
been working on this, with the help of a lot of external 
experts, and we have crafted a program that is effective, that 
is compassionate, that is comprehensive, and, most importantly, 
is Volunteer-centered.
    We have a two-pronged approaching to addressing the issue 
of sexual assault. The first is risk reduction. We help 
Volunteers, through training and counseling and support, to be 
able to reduce their risks as much as possible, recognizing 
that responsibility for sexual assault rests solely with the 
perpetrator. But, there are things that we can do to help 
Volunteers to identify their environment. The most important 
thing we do is teach them the language and cross-cultural 
skills so that they can interpret any situation and be able to 
plan accordingly.
    We also have trained Volunteers to look out for each other, 
bystander intervention, which is one of the proven 
interventions that we have learned from our college campuses 
across the country.
    And then we have an effective response, through training of 
our staff and the creation of an Office of Victim Advocacy.
    So, we have made enormous progress over the last 3 years. 
We have made over 30 policy changes to create an enabling 
environment, and we have monitoring and evaluation indicators 
in place to help us to gauge our progress and make course 
corrections, as needed.
    Senator Markey. Mr. Carroll, could you talk about USAID and 
its role in protecting women especially, but men where 
appropriate?
    Mr. Carroll. I would say, first, that the agency's programs 
related to development and the protection of--and the 
mitigation of gender violence is outstanding. You know, they 
spend a lot of resources on programs related to that.
    In addition to that, we are partnering very closely with 
the agency on a very laser-like focus on combating trafficking 
in persons. The agency has requirements and legislation, we 
have requirements and legislation to ensure that the agency's 
programs and the people and the contractors that the agency 
work with do not traffic in persons. And so, we play a major 
role--we, the IG, play a major role in ensuring that that takes 
place.
    I think AID's situation with its employees is a bit 
different from that of the Peace Corps Volunteers. Well, even 
though the Peace Corps Volunteers, they are out at the sharp 
end of the stick in some very difficult circumstances; whereas, 
my staff and the staff of USAID are more rigorously embedded 
into the structure of the Embassy, so not quite as at risk as 
the Peace Corps Volunteers. But, I think that the agency, the 
State Department, the Peace Corps does a great job in ensuring 
the protection of its employees, particularly its female 
employees.
    Senator Markey. Yes. I thank you. And just want to say, my 
goal would be to establish a zero-tolerance level.
    Mr. Carroll. Indeed.
    Senator Markey. Zero tolerance.
    Mr. Carroll. Yes, sir.
    Senator Markey. This is just something that is 
unacceptable, and we have to come down very hard wherever we 
see any people who have volunteered for our country being 
abused, either by those overseas or by other Americans in those 
settings. So, we just have to be very tough on them.
    Do we have any other questions?
    Let me just ask the two of you. We will give you 1 minute--
each of you can have 1 minute to summarize to us what it is 
that you would like us to know about what your goal is, as the 
head of these very important agencies in our country. We will 
give you 1 minute apiece to just summarize your vision.
    We will begin with you, Mr. Carroll.
    Mr. Carroll. Again, thank you very much for your 
consideration.
    What I would like to do, if confirmed as the inspector 
general of AID, is, understanding the independence, be a 
partner of the agency. I think that is--you have all hit on the 
fact that there are concerns with the difficult environment 
that AID operates in. And I would like to be a catalyst, on 
behalf of the taxpayers, on behalf of the Congress, on behalf 
of AID, as a catalyst for change and for effectiveness. I 
really believe that the men and women of AID OIG embedded in 
the field at the sharp end of the stick, if you will, with 
their colleagues in AID, provide a huge, sort of, value-added 
to the agency's programs to ensure accountability and to also 
ensure transparency and to help the American public understand 
the value and the effectiveness of AID's programs. Now, that is 
not always the case, and we will go wherever the facts take us, 
whether it is a good story or a bad story. But, I would truly 
like to be a force of good and a force of change.
    Senator Markey. Good. Thank you, Mr. Carroll.
    Ms. Radelet.
    Ms. Radelet. Thank you so much.
    You started by saying how much the world has changed in the 
last 50 years. The world has become increasingly complex and 
interconnected. We need Americans who can speak other 
languages, understand other cultures, can have perspectives 
that includes other world views and find commonality with our 
own. We need Americans who can help us develop relationships 
with people of other countries and help them build positive 
relationships with the United States, have positive perceptions 
of Americans, and who want to engage economically with our 
country and the world.
    I cannot think of a better way than through Peace Corps to 
build relationships with, not only the leaders of our country, 
but the people of our country. And it is such a privilege to 
serve in this role, if confirmed.
    Thank you.
    Senator Markey. We thank the both of you. We thank the both 
of you for your service to our country.
    All of your statements, in their entirety, will be included 
in the record, and we will leave the record open until Friday 
for all other comments that anyone else would like to make on 
your nominations.
    We thank both of you. We congratulate you for your service 
to our country.
    And we thank you, Senator Wofford, for your great service.
    With that, this hearing is adjourned.
    [Whereupon, at 11:26 a.m., the hearing was adjourned.]
                              ----------                              


             Additional Material and Questions and Answers 
                        Submitted for the Record


   Letter From Returned Peace Corps Volunteer Members of Congress in 
                   Support of Carolyn Hessler Radelet

                             Congress of the United States,
                                    Washington, DC, April 30, 2013.
President Barack Obama,
The White House,
Washington, DC.
    Dear President Obama: As Returned Peace Corps Volunteer Members of 
Congress, we write to request that you nominate Peace Corps Acting 
Director Carrie Hessler-Radelet to be Peace Corps Director. Ms. 
Hessler-Radelet brings a powerful depth of expertise and experience 
that make her supremely qualified for this important role.
    Peace Corps leadership calls for an unyielding commitment to serve 
our country, and Ms. Hessler-Radelet has dedicated much of her life to 
public service, including as a Peace Corps Volunteer in Western Samoa. 
Prior to returning to Peace Corps in 2010, Ms. Hessler-Radelet served 
in a variety of roles, including the establishment of the President's 
Emergency Plan for AIDS Relief (PEPFAR) and leading authorship of 
PEPFAR's first strategic plan. She also founded the Special Olympics in 
The Gambia in 1986, which is still active there, and served as a Johns 
Hopkins Fellow with USAID in Indonesia.
    Today as never before, Peace Corps needs a leader who understands 
the complexity of our globalized world and Peace Corps' unique role in 
it. Ms. Hessler-Radelet has lived and worked in over 50 countries, 
including as a Peace Corps Volunteer, and she has engaged stakeholders 
on the local and national level on an expanse of complex development 
issues. She also understands the unique role that Peace Corps plays 
both in the global community and here at home in America. Ms. Hessler-
Radelet returned to Peace Corps in 2010 as Deputy Director, where she 
set about reforming and streamlining Peace Corps operations to best 
serve the volunteers and fulfill the mission. Among other undertakings, 
she spearheaded the first ever comprehensive agency assessment, 
supported development of office improvement plans, and let the roll-out 
of a Volunteer training initiative to increase community-capacity 
development. In addition, Ms. Hessler-Radelet has been instrumental in 
strengthening Peace Corps' Volunteer health and safety operations; she 
oversaw implementation of the Kate Puzey Peace Corps Volunteer 
Protection Act, as well as initiatives to reduce the risk of sexual 
assault and improve medical, mental and post-service care for victims.
    Without question, Ms. Hessler-Radelet's work has advanced both 
Peace Corps and the United States standing in the global community. 
Through war and conflict, Peace Corps has shown the world a hopeful, 
uplifting side of America that reflects our fundamental values of 
peace, prosperity, and progress. We can think of no finer candidate 
than Carrie Hessler-Radelet to continue Peace Corps' mission of world 
peace and friendship in the 21st century, and we respectfully request 
that you nominate her to serve as Director of the United States Peace 
Corps.
            Sincerely,
                      Sam Farr, Member of Congress,
                  Peace Corps Volunteer, Colombia, 1964-66.
                     Tom Petri, Member of Congress,
                   Peace Corps Volunteer, Somalia, 1966-67.
                John Garamendi, Member of Congress,
                  Peace Corps Volunteer, Ethiopia, 1966-68.
                   Joe Kennedy, Member of Congress,
        Peace Corps Volunteer, Dominican Republic, 2004-06.
              Michael M. Honda, Member of Congress,
               Peace Corps Volunteer, El Salvador, 1965-67.
                                 ______
                                 

           Responses of Carolyn Hessler-Radelet to Questions 
                 Submitted by Senator Edward J. Markey

    Question. The 2010 Comprehensive Assessment found that the resource 
allocation process used by the Peace Corps to decide which countries it 
serves, and at what levels, could be significantly improved.

  <bullet> What has or should be done in your view to improve resource 
        allocation in terms of countries served and level of service?

    Answer. As a result of the Comprehensive Agency Assessment, the 
Peace Corps has instituted an objective, data-driven process to guide 
strategic decisions regarding potential new country entries, phase-
outs, and allocations of Volunteers and other resources. Through this 
process, called Country Portfolio Review, the agency conducts a 
comprehensive review of active Peace Corps posts based on external and 
internal data. The agency has completed three annual Country Portfolio 
Reviews in FY 2011, FY 2012, and FY 2013. The agency is currently 
conducting its fourth annual review for FY 2014.
    Through the completed reviews, the agency has identified 
opportunities to graduate programs in countries that had reached a 
higher level of economic and social development than other countries in 
our overall portfolio. The reviews informed agency decisions to close 
programs in Bulgaria, Romania, Antigua/Barbuda, Palau, Cape Verde, and 
St. Kitts/Nevis. The reviews also informed agency decisions to close 
programs in Honduras, Kazakhstan, Suriname, and Turkmenistan, primarily 
for reasons related to safety and security or host country commitment. 
These decisions allow the agency to focus more resources on those areas 
of the world with greater need and where Volunteers can have the 
greatest impact. This year, we are in the process of helping our in-
country staff to develop the skills and tools needed to undertake a 
portfolio review process at the country level to enable us to target 
our resources and Volunteer presence to those areas of each country 
where need is greatest and the likelihood of impact is highest.

    Question. When it comes to personnel and recruitment of Volunteers, 
I am of the belief that quality and effectiveness should trump sheer 
quantity. The 2010 Assessment recommended that the Peace Corps consider 
making significant changes to its existing recruitment model, with an 
eye to making the process more competitive, reducing application 
processing time, and providing greater transparency about how Trainees 
are selected and placed.

  <bullet> How would you address these recruitment issues if confirmed?

    Answer. At the beginning of FY 2013, the Peace Corps launched a new 
application system which allowed applicants access to a portal to check 
their application status throughout the process. In FY 2015, the agency 
will strive to continue to enhance the applicant experience by 
developing a shortened application and a streamlined application 
process. The new application process is intended to increase the number 
of applicants, increase competitiveness and ensure that Peace Corps is 
the service opportunity of choice for U.S. citizens interested in 
international service. Moreover, the agency is also revising its 
assessment processes to assure that the best candidates are selected 
for available positions.
    Peace Corps is moving toward a recruitment model that is more 
transparent and customer friendly. In addition, the agency is striving 
to increase diversity of the Volunteers that it sends overseas to more 
accurately represent the face of America. Investing additional funds to 
support these proposed changes in the application process and increase 
diversity of our applicants will allow Peace Corps to better meet the 
requests of the countries where our Volunteers serve.

    Question. Under the current rules granting whistle blower rights 
and protections to Volunteers, how many Volunteers have taken their 
complaints to the Peace Corps inspector general and been granted rights 
and protections under these rules? Have the whistle blowers raised 
issues that the Peace Corps considers to be legitimate, worthwhile and 
helpful to the agency? Does the Peace Corps grant whistle blower rights 
and protections to its staff? If not, do you believe the Peace Corps 
should grant such rights and protections to its staff?

    Answer. We firmly believe that Peace Corps is strongest when every 
Volunteer and staff member feels safe and comfortable coming forward 
when they witness a wrongdoing. Over the past 3 years, we have created 
whistleblower policies and procedures to protect the safety and 
confidentiality of Volunteers and staff who come forward with 
allegations of waste, fraud, abuse or other wrongdoing.
    Our policies and procedures are designed to ensure the physical 
safety and confidentiality of all whistleblowers. Retaliation of any 
kind is expressly forbidden. We have put in place a process for 
addressing whistleblower complaints, including complaints of 
retaliation. Peace Corps staff is trained on ways to ensure Volunteer 
safety and confidentiality, and ensure that allegations are given 
serious consideration, including referral to the inspector general, if 
appropriate.
    All Volunteers and staff have been trained in this policy, and we 
have created posters that hang on the walls of every Peace Corps office 
around the world. The posters highlight our new policy and procedures 
for reporting and provide the hotline phone number for the OIG.
    Volunteers receive training on how to report cases of misconduct, 
mismanagement, and violations of law or policy, as well as concerns 
about the behavior of others who are beyond the legal jurisdiction of 
the Peace Corps. Volunteers are strongly encouraged to report waste, 
fraud, abuse, and mismanagement to the inspector general.
    Staff members are required to treat Volunteer whistleblower reports 
with the utmost discretion. The staff member who receives a Volunteer 
whistleblower report must take appropriate measures to ensure the 
safety of the Volunteer. If there is any doubt about safety risk, staff 
must err on the side of caution and ensure the safety of the Volunteer, 
even if that means removing a Volunteer from her or his community.
    All staff receives annual training on these policies, and all 
Volunteers receive this training before entering service. Each of these 
trainings provides information about who Volunteers can contact to make 
an allegation and provides contact info for the IG. Most important is 
the creation of a culture where all Volunteers and staff feel safe 
coming forward to report waste, fraud, abuse or any other wrongdoing. 
That is the culture we seek to develop at the Peace Corps.

    Question. Are there steps or policy changes that could be taken to 
encourage Peace Corps in-country staff to better foster supportive, 
trusting relationships with Volunteers and encourage greater reporting 
of safety and security related events and information?

    Answer. Earlier this year, Peace Corps launched the final stages of 
a new Sexual Assault Risk Reduction and Response Program (SARRR), Peace 
Corps' comprehensive strategy to reducing risks and strengthening its 
response to Volunteers who have been the victims of sexual assault and 
other violent crimes. The SARRR Program is critical to the health and 
safety of our Volunteers and the continued vitality of the Peace Corps. 
It reflects the agency's commitment to evidence-based best practices in 
the delivery of services to safeguard Volunteer health, safety, and 
security, and to help Volunteers who have been sexually assaulted heal 
and recover with dignity. Implementation of our new SARRR has brought 
nothing short of culture change to the Peace Corps, as it has lifted 
our support to Volunteers across the board and changed the way we work 
together as an agency in a much transparent and collaborative way.
    Peace Corps has developed a two-pronged strategic approach to 
addressing the issue of sexual assault. The first strategy is to help 
Volunteers reduce their risks through training and skills-building 
during pre- and in-service training, and through one-on-one counseling; 
the second part is to ensure that Peace Corps staff responds 
effectively and compassionately when incidents do occur, through staff 
training, the creation of an Office of Victim Advocacy, and the 
appointment of trained sexual assault response liaisons at each post. 
Most important is the creation of a culture where all Volunteers feel 
safe and comfortable coming forward to report sexual assault so they 
can receive the care, support, and services they need and deserve. That 
is the culture we seek to develop at the Peace Corps.
Comprehensive Sexual Assault Risk Reduction Training Program
    We recognize that responsibility for sexual assault lies solely on 
the shoulders of the perpetrator. Nonetheless, there are ways to help 
our Volunteers build skills to assess their environment, take 
appropriate action to reduce their risks and support each other to keep 
each other safe (bystander intervention). Our Sexual Assault Risk 
Reduction training program incorporates best practices in the field and 
applies them to new, proactive training materials for Volunteers and 
staff, and to new protocols and guidelines for responding to sexual 
assaults. Volunteers also come to understand that the most important 
tools in their tool chest are a knowledge of the language and an 
understanding of the culture.
    Even before Peace Corps invitees leave for their country of 
service, the Peace Corps provides them with a Pre-Departure Online 
Training for Safety and Security, Personal Security, and Risk 
Reduction.
    During Pre-Service Training, Trainees are given Personal Security 
and Risk Reduction training, which is specifically designed to provide 
Trainees with key information and skills to enhance their awareness of 
potential dangers and take steps to mitigate their risks. In addition, 
Peace Corps Trainees also receive gender relations trainings, including 
country-specific training that addresses local gender norms and 
patterns of male/female interactions. Finally, Peace Corps Volunteers, 
during their In-Service Training (which happens after their first 3 
months of living and working in their assigned community) receive a 
cross-cultural gender empowerment and education training.
An Effective and Compassionate Response
    In addition to training Volunteers, all Peace Corps staff have 
received basic training in sexual assault, and all first responders and 
staff who are responsible for providing sexual assault services have 
been given specialized training as well as training in victim 
sensitivity.
    Staff at all Peace Corps overseas posts have been trained and must 
follow the Peace Corps' ``Guidelines to Responding to Rape and Sexual 
Assault,'' which are agencywide, evidence-based standardized procedures 
for responding to rape/sexual assault.
    Peace Corps has also created a new Office of Victim Advocacy to 
support Volunteers who have become victims of crime and has trained and 
placed two Sexual Assault Response Liaisons in each Peace Corps 
country. We have made more than 30 policy changes to create an enabling 
environment for an effective sexual assault risk reduction and response 
program.
Restricted and Standard Reporting of a Sexual Assault
    The Peace Corps developed a comprehensive Sexual Assault Policy 
that provides a Volunteer who has been sexually assaulted the option to 
make either a restricted report or a standard report of a sexual 
assault, but the default will be restricted.
    Standard reporting provides a Volunteer with the full array of 
support services and options, including the opportunity to initiate an 
official investigation, while still maintaining to the extent possible 
the confidentiality of information about the Volunteer and the sexual 
assault.
    Restricted reporting provides a Volunteer who might not otherwise 
report a sexual assault under standard reporting with a Volunteer-
driven alternative of confidentially reporting the sexual assault and 
requesting certain specific services, without dissemination of 
information about the Volunteer or the sexual assault, beyond those who 
are directly providing the services requested by the Volunteer and 
without automatically triggering an official investigation.
    The Peace Corps believes that this new policy will lead to greater 
reporting overall, and most likely higher levels of standard reporting, 
as Volunteers who otherwise would not have come forward, decide to 
report to Peace Corps.
                                 ______
                                 

           Responses of Carolyn Hessler Radelet to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. Unlike most women with federal health care coverage, 
Peace Corps Volunteers do not have the same access to abortion coverage 
in the case of rape, incest, or if the woman's life is in danger. If 
confirmed as Peace Corps Director, what actions will you take to 
address this inequity?

    Answer. Currently, Peace Corps is prohibited from paying for 
abortions for Volunteers in any circumstance. The agency respects and 
upholds this law as required.
    The President's FY 2014 requested budget language would permit 
Peace Corps to pay for abortions for Volunteers in cases of rape, 
incest, or for the life of the mother (if the life of the mother would 
be endangered if the fetus were carried to term).
    This requested change would provide Volunteers the same standard of 
care as nearly all other federal employees.
    Peace Corps supports basic equality and fairness for our 
Volunteers. The proposed exceptions are standard for most other federal 
agencies, and also apply to the health insurance federal workers 
receive.
    We believe that our Volunteers deserve the same standard of care as 
most other federal employees. If confirmed, and if the requested budget 
language is passed by Congress, I will ensure that Peace Corps 
Volunteers get the same access to services as other federal employees 
and members of or military.

    Question. The Peace Corps uses tiered definitions of sexual 
assault; i.e., ``aggravated sexual assault'' and ``sexual assault.'' 
Please explain why the Peace Corps does not follow other federal 
agencies in using a single definition. Does the Peace Corps have any 
plans to move to a single definition in the future?

    Answer. The Peace Corps has one sexual assault category with three, 
subclassifications (rape, aggravated sexual assault, and sexual 
assault) that it uses to assist the agency in monitoring trends, 
improving the training of Volunteers, and evaluating the impact of our 
program. The purposes of these classifications are:

          (a) To collect data that will inform applicants, Volunteers, 
        and Trainees on types of incidents affecting Volunteers; and
          (b) To identify trends among the types of crime incidents for 
        purposes of 
         improving and directing Volunteer programs, training, and 
        support systems.

    The classifications have been reviewed and found appropriate by the 
Peace Corps' external Sexual Assault Advisory Council. The tiered 
breakdown is consistent with most federal and state statutes. The most 
important thing to know is that our classifications do not define in 
any way the response or support a sexual assault victim receives. 
Regardless of the classification, all Volunteer victims of sexual 
assault receive the same access to services and the same level of 
compassionate support. Furthermore, the Peace Corps does not train 
Volunteers on the three classifications. Instead, Volunteers are 
trained to report any unwanted sexual contact to Peace Corps so that 
they may receive the proper support services, and only after the report 
is made does Peace Corps assign a category to the crime for reporting 
and training purposes only. In the same manner, staff are trained to 
respond to the needs and ongoing safety of the Volunteer, regardless of 
the classification.
    As part of our process for developing the three classifications, 
Peace Corps analyzed all incidents of sexual assault and unwanted 
sexual contact that had been reported to Peace Corps over the past 3 
years to ensure that our definitions were broad enough to include all 
possible incidents. It is important to us that regardless of the type 
of sexual assault, Volunteers get the support and the services they 
need and deserve.
    It is important to note that there is no consistency across the 
Federal Government or amongst the states when it comes to the 
definition of sexual assault. With that in mind, and in an effort to 
ensure that Peace Corps is providing the most effective and 
compassionate support possible, the agency created three 
classifications: rape, which is consistent with the FBI's new 
definition; aggravated sexual assault; and sexual assault. Peace Corps 
has taken this broad approach to guarantee that all Volunteer victims 
of sexual assault or unwanted sexual contact have access to the eight 
services mandated in the Kate Puzey Act.

    Question. According to Peace Corps' 2012 Annual Volunteer Survey 
Results, crimes of sexual assault committed against volunteers remain a 
major challenge for the agency, with one in eight Volunteers reporting 
a sexual assault in 2012--a noticeable jump from previous years. In 
addition, 50 percent of all sexual assault victims said in 2012 that 
they did not report their assaults (including rape) to Peace Corps.

  <diamond> What specific steps is Peace Corps taking to reduce the 
        incidence of sexual 
        assault among Volunteers and to encourage Volunteers to feel 
        comfortable reporting those incidences to the Peace Corps?

    Answer. Earlier this year, Peace Corps launched the final stages of 
a new Sexual Assault Risk Reduction and Response Program (SARRR), Peace 
Corps' comprehensive strategy to reducing risks and strengthening its 
response to Volunteers who have been the victims of sexual assault and 
other violent crimes. The SARRR Program is critical to the health and 
safety of our Volunteers and the continued vitality of the Peace Corps. 
It reflects the agency's commitment to evidence-based best practices in 
the delivery of services to safeguard Volunteer health, safety and 
security, and to help Volunteers who have been sexually assaulted heal 
and recover with dignity. Implementation of our new SARRR has brought 
nothing short of culture change to the Peace Corps, as it has lifted 
our support to Volunteers across the board and changed the way we work 
together as an agency in a much transparent and collaborative way.
    Peace Corps has developed a two-pronged strategic approach to 
addressing the issue of sexual assault. The first strategy is to help 
Volunteers reduce their risks through training and skills-building 
during pre- and in-service training, and through one-on-one counseling; 
the second part is to ensure that Peace Corps staff responds 
effectively and compassionately when incidents do occur, through staff 
training, the creation of an Office of Victim Advocacy, and the 
appointment of trained sexual assault response liaisons at each post. 
Most important is the creation of a culture where all Volunteers feel 
safe and comfortable coming forward to report sexual assault so they 
can receive the care, support, and services they need and deserve. That 
is the culture we seek to develop at the Peace Corps.
Comprehensive Sexual Assault Risk Reduction Training Program
    We recognize that responsibility for sexual assault lies solely on 
the shoulders of the perpetrator. Nonetheless, there are ways to help 
our Volunteers build skills to assess their environment, take 
appropriate action to reduce their risks, and support each other to 
keep each other safe (bystander intervention). Our Sexual Assault Risk 
Reduction training program incorporates best practices in the field and 
applies them to new, proactive training materials for Volunteers and 
staff, and to new protocols and guidelines for responding to sexual 
assaults. Volunteers also come to understand that the most important 
tools in their tool chest are a knowledge of the language and an 
understanding of the culture.
    Even before Peace Corps invitees leave for their country of 
service, the Peace Corps provides them with a Pre-Departure Online 
Training for Safety and Security, Personal Security, and Risk 
Reduction.
    During Pre-Service Training, trainees are given Personal Security 
and Risk Reduction training, which is specifically designed to provide 
Trainees with key information and skills to enhance their awareness of 
potential dangers and take steps to mitigate their risks. In addition, 
Peace Corps Trainees also receive gender relations trainings, including 
country-specific training that addresses local gender norms and 
patterns of male/female interactions. Finally, Peace Corps Volunteers, 
during their In-Service Training (which happens after their first 3 
months of living and working in their assigned community) receive a 
cross-cultural gender empowerment and education training.
An Effective and Compassionate Response
    In addition to training Volunteers, all Peace Corps staff have 
received basic training in sexual assault, and all first responders and 
staff who are responsible for providing sexual assault services have 
been given specialized training as well as training in victim 
sensitivity.
    Staff at all Peace Corps overseas posts have been trained and must 
follow the Peace Corps' ``Guidelines to Responding to Rape and Sexual 
Assault,'' which are agencywide, evidence-based standardized procedures 
for responding to rape/sexual assault.
    Peace Corps has also created a new Office of Victim Advocacy to 
support Volunteers who have become victims of crime and has trained and 
placed two Sexual Assault Response Liaisons in each Peace Corps 
Country. We have made more than 30 policy changes to create an enabling 
environment for an effective sexual assault risk reduction and response 
program.
Restricted and Standard Reporting of a Sexual Assault
    The Peace Corps developed a comprehensive Sexual Assault Policy 
that provides a Volunteer who has been sexually assaulted the option to 
make either a restricted report or a standard report of a sexual 
assault, but the default will be restricted.
    Standard reporting provides a Volunteer with the full array of 
support services and options, including the opportunity to initiate an 
official investigation, while still maintaining to the extent possible 
the confidentiality of information about the Volunteer and the sexual 
assault.
    Restricted reporting provides a Volunteer, who might not otherwise 
report a sexual assault under standard reporting, with a Volunteer-
driven alternative of confidentially reporting the sexual assault and 
requesting certain specific services, without dissemination of 
information about the Volunteer or the sexual assault, beyond those who 
are directly providing the services requested by the Volunteer and 
without automatically triggering an official investigation.
    The Peace Corps believes that this new policy will lead to greater 
reporting overall, and most likely higher levels of standard reporting, 
as Volunteers who otherwise would not have come forward, decide to 
report to Peace Corps.

    Question. It is my understanding that the Peace Corps assured 
members of First Response Action (FRA) long ago that a representative 
of FRA would be appointed to the Sexual Assault Advisory Council. I 
appreciate the outreach that you personally have made to members of FRA 
since Congress passed the Kate Puzey Act.

  <diamond> Do you agree that the Peace Corps should appoint a member 
        of FRA to the Sexual Assault Advisory Council?

    Answer. The external Sexual Assault Advisory Council is comprised 
of experienced, committed individuals who reflect the spectrum of 
disciplines in the fields of sexual violence and victims' rights 
including:

  <bullet> Risk reduction: evidence-based concepts used in American and 
        international 
        social marketing and training programs;
  <bullet> Medical forensics;
  <bullet> Medical and mental health response with a trauma-informed 
        perspective
  <bullet> International law enforcement;
  <bullet> Sexual assault risk reduction and response programs in 
        large, global systems (including team-based approaches to 
        Sexual Assault Response);
  <bullet> Design and implementation of U.S. and international policies 
        and evidence-based best practices in addressing sexual 
        violence;
  <bullet> Returned Peace Corps Volunteers survivors of sexual 
        violence; preferably those who have had experience going 
        through the law enforcement judicial system in their country of 
        service; and
  <bullet> Recently returned Peace Corps Volunteers (within the past 3-
        5 years) who have held leadership positions (Volunteer Advisory 
        Council, Wardens, Peer Support, Peace Corps Volunteer Leaders).

    The Peace Corps strives to appoint members to the Council who have 
extensive experience in the topic areas above. Members of the Council 
represent a mix of other U.S. Government agencies, service providers 
and RPCVs. The agency believes that the Council as it is currently 
comprised represents the best experts in the field of sexual assault. 
The members work together well, and their skills and expertise 
complement each other.

    Question. My understanding is that Peace Corps policy currently 
singles out pregnancy from other medical conditions for disadvantageous 
treatment, establishing a presumption that a pregnant Volunteer/Trainee 
cannot continue her Peace Corps service. Peace Corps policy also 
applies a different standard to mothers and fathers in determining 
whether a Volunteer/Trainee can continue to serve in the Peace Corps 
after the birth of a child.

  <diamond> Do you commit to ensuring that these policies are revised 
        to comply with Title VII and the Pregnancy Discrimination Act 
        by providing (1) that pregnancy will be evaluated in the same 
        manner as other medical conditions in determining whether a 
        Volunteer/Trainee can continue to serve and (2) that mothers 
        and fathers of newborns will be held to the same standard in 
        determining ability to continue to serve?

    Answer. The Peace Corps is currently undertaking a comprehensive 
review of its pregnancy policy, and the disparate treatment of male and 
female Volunteers when it comes to pregnancy. As part of its review, 
the agency is considering treating pregnancy as any other medical 
condition. The Peace Corps is committed to ensuring that mothers and 
fathers of newborns will be held to the same standard in determining 
eligibility to continue service.
                                 ______
                                 

           Responses of Carolyn Hessler Radelet to Questions 
                   Submitted by Senator John Barrasso

    Question. In 2010, a variety of reforms were proposed in the 
Comprehensive Assessment Report.

  <diamond> Please provide a list of reforms that still need to be 
        implemented.

    Answer. The 2010 comprehensive agency assessment provided a 
blueprint for reform outlined through six goals. Following is a 
description of each goal as it appeared in the Comprehensive Agency 
Assessment report, as well as a status update on the agency's progress 
of implementation.

    1. Target our Resources: Allocate Peace Corps' resources and target 
country presence according to specific selection criteria to maximize 
grassroots development impact and to strengthen relationships with the 
developing world. The portfolio review will drive this strategy.
    The first strategy of the 2010 Comprehensive Agency Assessment 
calls on the Peace Corps to ``target our resources'' through a 
transparent, data-driven Country Portfolio Review process that provides 
the agency with a framework for guiding strategic decisions about the 
allocation of our resources across countries, including potential new 
country entries, closures of existing programs, and allocations of 
Trainees/Volunteers across the Peace Corps world. The Country Portfolio 
Review process analyzes data in nine categories, including safety and 
security; access to medical care; host country need; host country 
commitment, engagement, and participation in Peace Corps activities; 
potential for Goal 1 (development) impact; potential for Goal 2 (cross-
cultural) impact; management of Peace Corps operations in-country; 
congruence with United States Government development priorities; and 
cost. The Peace Corps conducted its first country portfolio review 2010 
and has completed an annual review since that time, guiding our 
strategic decisionmaking and resource allocation globally.

    2. Focus on Key Sectors and Train for Excellence: Maximize the 
impact of what Volunteers do best by focusing on a limited number of 
highly effective projects in our six sectors. Provide world-class 
training and comprehensive support to prepare Volunteers for success. 
Measure and evaluate our impact to improve performance and to better 
serve the communities in which we work. The strategy is known as Focus 
In/Train Up.
    Through Peace Corps' ``Focus In/Train Up'' initiative, the agency 
has taken a strategic look at its technical training and program 
support in each of its six sectors (education, health, agriculture, 
environment, community economic development, youth development). The 
goal of Focus In/Train Up is to ensure that Volunteers are well 
prepared to excel in meaningful work, and that staff have the skills 
and expertise to support them. Working with our host countries, other 
U.S. Government agencies and leading development partners, Peace Corps 
has focused on those project areas that have proven, through evidence, 
to be most effective at achieving development impact and that are most 
wanted by our communities.
    We have developed standardized Volunteer and staff training and 
guidance for each sector incorporating best practices. In the past 2 
years, the Peace Corps has rolled out 126 Volunteer training sessions, 
along with dozens of tools to assist staff in implementing effective 
training throughout the Volunteer lifecycle. We are committed to 
ensuring that Volunteers are prepared with the tools and skills they 
need to achieve impact in their community. We have also created basic 
online training for new field staff. Undergirding all training and 
program support is a monitoring, reporting, and evaluation system to 
give Volunteers the skills to monitor their own progress and allow 
Peace Corps to make course adjustments and evaluate the impact of our 
collective work.
    Periodically, as funding permits, the agency conducts targeted 
impact evaluations to determine and measure the results and impact of 
the Volunteers' work. Twenty-four such studies have been completed over 
the last 4 years. The studies gather information directly from the host 
country nationals who live and work with the Volunteers and provide 
critical insight into tangible changes in Volunteers' communities.

    3. Recruit to Attract the Best and Brightest of America's Diverse 
Population: Implement a more streamlined, customer-focused, 
competitive, state-of-the art strategy for recruitment, selection, and 
placement of Volunteers who reflect the rich diversity of America.
    The new Peace Corps application system went live on August 15, 
2012--a major milestone in the ongoing Volunteer Delivery System (VDS) 
redesign project. The VDS redesign project was initiated in 2009 to 
modernize the business processes and technology utilized by the agency 
to request, recruit, and select Volunteers for Peace Corps service. As 
a result, the Peace Corps is able to invite candidates electronically, 
as well as receive responses to the invitations in hours rather than 
days. The process also allows the agency to communicate with applicants 
about the medical clearance process rapidly, electronically, and 
securely.
    The implementation of the new application moves the agency from a 
paper-based process to an automated, electronic application processing 
system. The new technology will reduce paperwork, improve transparency 
with applicants, facilitate information exchange between posts and 
headquarters staff, and improve communication between the Peace Corps 
and applicants. The medical review and invitation processes have also 
been improved--reducing medical review costs for the majority of 
applicants and making it possible to extend invitations to applicants 
earlier in the process.
    The Peace Corps is now working on using the improved application 
infrastructure to increase the number of Peace Corps applicants per 
year. The agency seeks to revitalize recruitment and outreach to ensure 
that every American knows about the Peace Corps and understands the 
benefits of serving. We will build a robust recruitment and outreach 
strategy that reaches a wider, broader audience to not only increase 
the number of Volunteers, but also to field a Volunteer force that 
reflects the rich diversity of the American people.

    4. Innovate to Meet Host Country Needs of Today and Tomorrow: 
Leverage the skill sets of experienced applicants, RPCVs, and third-
year extension Volunteers for special assignments that will expand our 
presence and technical depth. Through Peace Corps Response, develop an 
innovative program to incorporate highly skilled Volunteers to meet the 
needs of host countries.
    Peace Corps Response, a program created in 1996, offers short-term, 
specialized Volunteer assignments that historically were only available 
to returned Peace Corps Volunteers (RPCVs). Since 1996, Peace Corps 
Response has recruited and placed nearly 2,000 seasoned professionals 
to work in more than 50 countries.
    On January 30, 2012, Peace Corps announced the expansion of the 
Peace Corps Response program to allow all Americans with at least 10 
years of work experience and required language skills to apply for 
positions overseas. In April 2012, the first Volunteer without previous 
Peace Corps experience left for Jamaica.
    In March 2012, Peace Corps, the President's Emergency Plan for AIDS 
Relief and the Global Health Service Corps launched the Global Health 
Service Partnership (GHSP). The Peace Corps Response expansion provided 
this partnership with the perfect platform to recruit experienced 
physician and nurse educators. These Volunteers will help strengthen 
the health systems of countries in need and address the critical 
shortage of qualified health professionals. Approximately 25 of the 32 
acceptances received to date are individuals without previous Peace 
Corps experience. By the end of FY13, Peace Corps Response will deploy 
over 40 Volunteers without previous Peace Corps experience to at least 
nine countries.
    We believe that Peace Corps Response is an excellent mechanism to 
get skilled Americans who want to serve into jobs that are critical to 
the achievement of our country's development and citizen diplomacy 
goals. Working in close alignment with other U.S. Government agencies, 
such as USAID and PEPFAR, we will meet the needs of our host countries 
for highly skilled technical assistance at a fraction of the cost, 
drawing on the rich base of Americans with skills who are motivated 
through service.

    5. Elevate Our Third Goal: Engage Volunteers, returned Volunteers, 
and the American public through strong partnerships with businesses, 
schools, civil society, and government agencies to increase 
understanding of other cultures and to generate a commitment to public 
service and community development.
    The Office of the Third Goal and Returned Volunteer Services 
develops and implements the agency's career and transition support 
services to help returned Peace Corps Volunteers transition back to the 
United States, including regional, national, and online career 
conferences and events, and job bulletins.
    The office also supports the Peace Corps' World Wise Schools (WWS) 
Program, which helps schoolchildren better understand the people and 
cultures of other countries. WWS' Web site offers educators and their 
students free, online curriculum materials and multimedia resources 
that highlight Volunteer experiences and projects. Peace Corps also 
manages a program to place returned Peace Corps Volunteers in schools 
so they can share their Peace Corps experiences through the WWS 
Speaker's Match program. In FY 2012, more than 585 returned Volunteers 
visited schools to share their experiences across the United States.

    6. Strengthen Management and Operations: Strengthen management and 
operations by using updated technology, innovative approaches, and 
improved business processes that will enable the agency to effectively 
carry out this new strategic vision.
    Peace Corps is instituting a new performance appraisal program that 
creates a results-oriented performance culture and provides employees 
with a better understanding of how their work directly supports the 
Peace Corps mission and goals; creates specific individual performance 
goals, and provides an understanding of what each employee needs to do 
to achieve different levels of performance.
    Recently, Peace Corps revised its policy on tour lengths. As an 
excepted service agency, the Peace Corps Act limits most Peace Corps 
staff to 5 years of service. With this change, all new Peace Corps 
staff will be given a full 5-year tour rather than the previous 30-
month tours. Our exit surveys show that this will improve recruitment 
and retention of staff. Additionally, it will reduce paperwork for the 
Human Resource Management staff.
    Finally, after analyzing the structures of the country desk units 
in each Region, Global Operations implemented a reorganization which 
addressed issues of efficiency of communication and equity with regard 
to the responsibilities of the Country Desk Officers (CDO). The 
reorganization resulted in a standard organizational structure across 
the Peace Corps, with each CDO assigned to two country posts; improved 
efficiency of communication with invitees as each CDO was able to focus 
on two countries rather than an entire subregion; and improved equity 
as all CDOs worked from the same position description and had equal 
access to training and staff development opportunities.

    Question. The safety and security of our Peace Corps Volunteers is 
critically important. In 2011, Congress passed the Katie Puzey Peace 
Corps Volunteer Protection Act. I supported and cosponsored that 
legislation.
    The law requires the Peace Corps to establish an anonymous system 
for Volunteers who become victims of sexual assault to find services 
and care. The system cannot automatically trigger an official 
investigative process or the release of publicly identifying 
information without the Volunteer's written consent. The law also 
mandates the inspector general to carry out oversight of this system, 
including ``a review of statistically significant number of cases.''
    It has come to my attention that there is disagreement between 
officials at the Peace Corps and the Peace Corps Office of Inspector 
General regarding access to information. The inspector general needs 
access to the necessary documents in order to carry out its oversight 
of the agency and the congressionally mandated review of this new 
system with the maximum degree of independence, as required by the 
Inspector General Act.

  <diamond> What arrangement have you made with the inspector general 
        to facilitate the transmission of the cases in question as well 
        as any other information the inspector general may request in 
        such a manner that (a) protects personally identifying 
        information but (b) also does not infringe on the independence 
        of the inspector general?

    Answer. The Kate Puzey Act mandates that the Peace Corps establish 
a system, known as restricted reporting, for Volunteers who are victims 
of sexual assault to confidentially report the crime committed against 
them and to receive medical, legal, advocacy, safety, and other support 
services without notifying law enforcement officials.
    The Peace Corps' inspector general requested, and the agency agreed 
to provide, three pieces of information regarding sexual assaults 
reported under the restricted reporting system: the country where the 
assault occurred; the type of assault; and the nature of the location 
of the assault. The agency began providing the inspector general this 
information on October 31, 2013, and will be continually providing this 
information on a weekly basis unless other mutually agreed upon 
arrangements are made. The agency has also agreed to provide other 
information requested by the IG for the purpose of enabling the IG to 
carry out her oversight responsibilities under the Kate Puzey Act, 
including access by OIG investigators and evaluators to the 
unrestricted portion of the agency's Consolidated Incident Reporting 
System database.
    The Peace Corps is committed to ensuring that the inspector general 
receives the necessary information to fulfill the monitoring and 
evaluation requirements of the Kate Puzey Act without disclosing PII of 
Volunteers who choose restricted reporting. There are currently no 
outstanding requests from the IG for specific information required by 
the IG to carry out her responsibilities under the Kate Puzey Act. 
However, we are in the process of building a case management system 
which will greatly facilitate future access of information by the IG, 
while enabling the agency to protect Volunteer personally identifiable 
information (PII). That system should be implemented well in time for 
the IG to carry out the case reviews required for the November 2016 
report.

    Question. If Peace Corps officials use a definition of ``personally 
identifying information'' which includes the details of the sexual 
assault incident, it would likely prevent the inspector general from 
carrying out the congressionally mandated review of the new system.

  <diamond> Will the Peace Corps include this information in its 
        definition of ``personally identifying information?'' Why or 
        why not?

    Answer. The details of a sexual assault reported by a Volunteer to 
Peace Corps staff under restricted reporting is not ``personally 
identifying information'' for purposes of the Kate Puzey Act. 
Personally identifying information for purposes of the Kate Puzey Act 
is, in essence, information that could be used to discover the identity 
or location of the Volunteer. While some details of the sexual assault 
could be used to discover the identity or location of the Volunteer, 
this is certainly not the case for all details of the sexual assault.
    However, the Kate Puzey Act protects not only the confidentiality 
of the PII of the Volunteer who made the restricted report, but also 
the confidentiality of the details of the assault. Under the Kate Puzey 
Act, restricted reporting is defined as ``a system of reporting that 
allows a Volunteer who is sexually assaulted to confidentially disclose 
the details of his or her assault to specified individuals . . .'' It 
is clear from this language that the individual to whom a restricted 
report is made is required to maintain the confidentiality of the 
details of the assault. While the Kate Puzey Act lists specific 
circumstances under which PII of the Volunteer may be disclosed to 
individuals other than those to whom the report is made, there are no 
such exceptions provided for disclosure of the details of the assault. 
Therefore, in drafting the policy, we had to make a determination of 
whether and under what circumstances the details of the assault may be 
divulged to someone other than the individual to whom the Volunteer 
reported the sexual assault. For purposes of consistency, we chose in 
our policy to treat the details of the assault in the same manner as 
the PII of the Volunteer.
    The IG has not yet made a request for specific information to 
enable her to carry out the required case reviews of sexual assaults 
that are the subject of restricted reports. The agency's restricted 
reporting policy only went into effect on September 1, 2013, and the 
report to Congress that includes a case review of a statistically 
significant number of cases is not due until November 2016. We are, 
however, confident that the IG will be able to evaluate the agency's 
response to particular cases of sexual assault without the agency 
having to breach the confidentiality of the details of the assault as 
mandated by the Kate Puzey Act.


  NOMINATIONS HEATHER HIGGINBOTTOM, SARAH SEWALL, AND RICHARD STENGEL

                              ----------                              


                       THURSDAY, NOVEMBER 7, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Heather A. Higginbottom, of the District of Columbia, to 
        be Deputy Secretary of State for Management and 
        Resources
Dr. Sarah Sewall, of Massachusetts, to be Under Secretary of 
        State for Civilian Security, Democracy, and Human 
        Rights
Richard Stengel, of New York, to be Under Secretary of State 
        for Public Diplomacy
                              ----------                              

    The committee met, pursuant to notice, at 11:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Corker, Rubio, and Johnson.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today, we have three nominees before the committee: Heather 
Higginbottom to be Deputy Secretary of State for Management and 
Resources; Dr. Sarah Sewall as Under Secretary of State for 
Civilian Security, Democracy and Human Rights; and, Richard 
Stengel to be the Under Secretary of State for Public 
Diplomacy.
    One thing these three nominees will have in common, should 
they be confirmed, is responsibility, in one way or another, 
for the development and implementation of policies that touch 
on who will be in a position to represent America and how 
American values will be reflected around the world.
    Our first panelist is Heather Higginbottom who, if 
confirmed, would play a key role with respect to two priorities 
of mine: determining who represents the United States abroad 
and our policies to protect them. For 20 years I have been 
pressing the Department on the issues of diversity and minority 
recruitment and retention. In my view, our Foreign Service 
personnel should mirror the diversity of the Nation. It is our 
strength as a country and we should capitalize on it.
    Last year the State Department completed a 3-year hiring 
effort to increase the workforce. For a department that ranks 
near the bottom when it comes to diversity, one would have 
expected a focus on doing more to diversify the workforce. 
Instead we saw only some gains by Asian-Americans and African-
Americans and virtually no gains for Hispanic-Americans. In 
fact, their overall numbers decreased in terms of percentage. 
So, I will look forward to hear your assessment of where we are 
and what the future holds in terms of recruitment policies.
    On embassy security, as Deputy Secretary, you will be 
responsible for how the Department's security programs and 
apparatus are integrated with policy-level decisions. And I 
would like to know how you plan on remaining intimately 
involved in, and transparent about, security issues around the 
world. Attacks are against our personnel and facilities are 
likely to continue as al-Qaeda, its affiliates and other 
terrorist groups continue to wage a global war against us. The 
recent military-style suicide attack in Herat against our 
consulate, although successfully repulsed by diplomatic 
security and Afghan personnel, is evidence of the resolve and 
resources of these groups.
    These concerns, in additions to your views on how, as 
Deputy Secretary, you would help steer the State Department 
through a period in which resources are likely to be scarce and 
will require careful management are issues that I hope to hear 
your thoughts on today.
    With that, let me turn to our Ranking Member Senator 
Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you for having the 
hearing.
    Ms. Higginbottom, thank you so much for taking the time to 
come by our office and being willing to serve in this way. I 
think we would be much better off listening to you than me, and 
we will do that and have some questions. But thank you for 
being here.
    The Chairman. Thank you.
    With that, your full statement will be included in the 
record. I will ask you to summarize it in around 5 minutes or 
so, so we can enter into a dialogue. If you have any family or 
friends here, we recognize that service is an extended service 
of family. And we appreciate their willingness and their 
sacrifices as well. Please be free to introduce them. The floor 
is yours.

 STATEMENT OF HON. HEATHER A. HIGGINBOTTOM, OF THE DISTRICT OF 
 COLUMBIA, TO BE DEPUTY SECRETARY OF STATE FOR MANAGEMENT AND 
                           RESOURCES

    Ms. Higginbottom. Thank you, Mr. Chairman, Ranking Member 
Corker, and the distinguished members of this committee.
    It is a great privilege to appear before you as the nominee 
for Deputy Secretary of State for Management and Resources.
    I am humbled by the confidence that President Obama and 
Secretary Kerry have placed in me. And I am honored to be 
nominated to follow in the footsteps of Jack Lew and Tom Nides, 
two extraordinary public servants; and to have the opportunity 
to serve alongside one of our Nation's finest diplomats, Deputy 
Secretary Bill Burns.
    If I may, I will introduce some of my family who are here 
today: my parents, Ann and George Higginbottom, who inspired in 
me a desire pursue a career in public service; my brother and 
sister-in-law, Eric and Stella Higginbottom; and, my husband 
Danny Sepulveda, who has been my steadfast supporter. We had 
wanted to bring along our 1-year-old daughter, but thought it 
best to respect the regular order of this committee and let her 
watch from home. [Laughter.]
    The Chairman. We are child friendly here.
    Ms. Higginbottom. I am not sure she would have made it 
sitting still this long.
    As someone who began her career working for then Senator 
Kerry, I start out with a deep respect for this institution and 
its prerogatives. I welcome the Congress' shared responsibility 
for American foreign policy. And, if confirmed, I pledge to 
work with you to help make both our diplomacy and development 
more effective, more modern, and more agile.
    The only professional path I have ever known has been 
public service: from my time in the Senate, to my service as 
Deputy Director of both the White House Office of Management 
and Budget and the Domestic Policy Council, to my most recent 
appointment as counselor of the State Department. Over the 
course of my career I have learned how to get results in 
government. I have seen that it takes a determined effort to 
seek out and reward innovation, the willingness to make tough 
budgetary tradeoffs, the drive to build and inspire a strong, 
diverse workforce, and open, honest outreach across the 
interagency and across the aisle.
    Those are all the skills and experiences that the President 
and Secretary Kerry thought were essential in a Deputy 
Secretary of State for Management and Resources. If confirmed, 
I will share in the global responsibilities for U.S. foreign 
policy and have broad management and programmatic oversight 
responsibilities for both State and USAID. I welcome especially 
the insight and input of this committee.
    I would like to share five areas where I plan to focus, if 
confirmed.
    First, my top priority will be ensuring the safety and 
security of our people and our posts. President Obama has made 
it clear that we need our diplomats fully engaged wherever our 
vital national interests are at stake. That is why, if I am 
confirmed, I will work to make certain that our processes, our 
organization, and our culture keep pace with the rapidly 
evolving threats facing our diplomats and development 
professionals. And I know Congress shares this commitment to 
security and I look forward to working with you to make sure 
that we have both the resources and the tools to deliver on it.
    Second, if confirmed, I will work to better prioritize the 
resources and programs of State and USAID. I will see to it 
that our limited resources are going where we need them most 
and being used responsibly and effectively. This is especially 
important as we continue our efforts to right-size our presence 
and engagement in key places like Afghanistan and Pakistan.
    My third area of focus will be management, reform, and 
innovation. We must do a better job of aligning our planning 
budget and management function with our foreign policy and 
national security priorities. I will also work to ensure that 
the remarkable men and women at State and USAID have the 
training, tools, and skills they need to succeed. If confirmed, 
I will oversee the second Quadrennial Diplomacy and Development 
Review, which will identify important policy shifts, areas for 
innovation and management reforms required to address the 
challenges that we face today and I the future.
    Of course, Secretary Kerry is personally determined to 
effect lasting change, so I look forward to partnering with 
this committee and the whole Congress on authorizing 
legislation for the State Department and USAID.
    My fourth area of focus will be better targeting and 
coordinating our development efforts. These investments are not 
just the right thing to do, they are the smart thing to do 
because helping to promote stability and creating opportunities 
for future trade and shared growth is in America's interest.
    Finally, if confirmed, I will build on the great work that 
has been done to strengthen the State Department's economic 
impact. As Secretary Kerry has said, ``Today, foreign policy is 
economy policy.'' If confirmed, I will work to help our 
embassies and consulates abroad, do even more to fight for 
American companies and promote foreign investment that leads to 
jobs and opportunities at home.
    Throughout my 20-year career in public service, I have had 
one overarching objective: to ensure that our government 
delivers and that we make it work for the American people. Our 
foreign policy investment, at about 1 percent of the Federal 
budget, is really national security insurance. It is one of the 
very best investments that we can make for our country's 
future. But, I believe we can and must do everything possible 
to increase the return on that investment. If confirmed, I will 
work each day to make good on that promise and partner with all 
of you to make sure our diplomacy and development help 
contribute to the kind of world we all want to see, one that is 
more peaceful and more prosperous.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Higginbottom follows:]

             Prepared Statement of Heather A. Higginbottom

    Thank you, Mr. Chairman, Ranking Member Corker, and distinguished 
members of this committee.
    It is a great privilege to appear before you as the nominee for 
Deputy Secretary of State for Management & Resources. I am humbled by 
the confidence that President Obama and Secretary Kerry have placed in 
me, and I'm honored to be nominated to follow Jack Lew and Tom Nides, 
two extraordinary public servants, and to have the opportunity to serve 
alongside one of our finest diplomats, Deputy Secretary Bill Burns.
    I would like to introduce my family members, who are here today: My 
parents, George and Anne Higginbottom, who inspired me to pursue a 
career in public service; my brother, Eric Higginbottom; and my 
husband, Danny Sepulveda, who has steadfastly supported me every step 
of the way.
    We wanted our 1-year old daughter, Gisele, to be here as well, but 
decided it was in the interest of the committee's regular order to let 
her watch from home.
    As someone who began her career working for then-Senator Kerry, I 
start out with a deep respect for this institution and its 
prerogatives. I recognize and welcome the Congress' shared 
responsibility for American foreign policy and, if confirmed, I pledge 
to work with you to help make both our diplomacy and development more 
effective, more modern, and more agile.
    The only professional path I've ever known has been public 
service--from my time in the Senate, to my service as Deputy Director 
of both the White House Office of Management and Budget and the 
Domestic Policy Council, to my most recent appointment as the Counselor 
of the Department of State.
    Over the course of my career, I have learned how to get results in 
government. I've seen that it takes a determined effort to seek out and 
reward innovation; the willingness to make tough budgetary tradeoffs; 
the drive to build and inspire a strong, diverse workforce; and open, 
honest outreach across the interagency and across the aisle. I have a 
track record of finding innovative, data-driven, and cost-effective 
ways of wisely managing public dollars to achieve a greater good.
    Those are all skills and experiences that the President and 
Secretary Kerry thought were essential in a Deputy Secretary of State 
for Management & Resources. If confirmed, I will share in the global 
responsibilities for U.S. foreign policy, and have broad management and 
programmatic oversight responsibilities for both State and USAID. 
Partnering with you, I will work to position State and USAID for 
success in the decades to come.
    I welcome especially the insight and input of this committee. I 
would like to share five areas where I plan to focus, if confirmed.
    First, my top priority will be ensuring that our people and posts 
are safe and secure. President Obama has made it clear that we need our 
diplomats fully engaged wherever our vital national interests are at 
stake--from Colombia to Indonesia, and Kenya to Yemen.
    That is why, if confirmed, I will work to make certain that our 
processes, organization, and culture keep pace with the rapidly 
evolving threats facing our diplomats and development professionals.
    State Department and USAID personnel are on the front lines of U.S. 
national security endeavors and there is constant and inherent risk in 
what they do every day. We owe it to these public servants to do 
everything we can to protect them as they promote U.S. interests and 
values in some of the world's most challenging places. To get this job 
done, we must complete implementation of the Benghazi Accountability 
Review Board recommendations; regularly review our presence and posture 
at all high-threat posts; and annually review the status of any 
outstanding recommendations made by any Accountability Review Board--
not just the one convened for Benghazi. We must also ensure that the 
State Department works more closely with the Intelligence Community to 
understand the threats to our personnel and with the Defense Department 
to ensure that we are coordinating efforts to provide our diplomats 
overseas with the best protection possible. And, if confirmed, I will 
work with Congress on embassy security legislation and funding to 
ensure that we have the authorities and resources needed to keep our 
people safe.
    I know Congress shares this commitment to security and I look 
forward to working with you to make sure we have the resources and 
tools to deliver on it.
    Second, if confirmed, I will work to better prioritize the 
resources and programs of State and USAID. I will see to it that our 
limited resources are going where we need them most and being used 
responsibly and effectively.
    This is especially important as we continue our efforts to right-
size our presence and engagement in key places like Afghanistan and 
Iraq. In particular, I will work to align resources with policy as we 
carry out the planned transition in Afghanistan.
    We have made substantial progress in building an international 
coalition committed to supporting a stable and sovereign Afghanistan--
that will never again be a safe haven for terrorists. Working closely 
with the Afghan Government and people, we intend to ensure that these 
gains are maintained. If confirmed, I look forward to working with 
Ambassador Jim Dobbins and with Congress on this issue.
    As the transition progresses, the military continues to draw down, 
and the Afghan Government takes on full responsibility for providing 
security for its people, we are pursuing a framework to carry out our 
basic missions beyond the 2014 security transition: Training, advising, 
and assisting Afghan forces, and continued limited counterterrorism 
efforts against al-Qaeda and its affiliates, as well as continuing our 
diplomatic and consular efforts there. Our diplomatic and development 
efforts are also lined up with this security mission. Supporting 
preparations for Afghanistan's 2014 Presidential election is a key 
priority. A peaceful transfer of power following a credible election 
will bolster the legitimacy of the government, in addition to sending a 
message to all parties their interests can be better advanced through 
political participation than violence. And making sure Afghanistan has 
the resources and revenue to sustain the gains we have made this past 
decade will be critical for promoting regional stability.
    My third area of focus will be management, reform, and innovation. 
We must do a better job of aligning our planning, budget, and 
management functions with our foreign policy and national security 
priorities.
    I will also work to ensure that the remarkable men and women at 
State and USAID have the training, tools, and skills they need to 
succeed.
    If confirmed, I will oversee the second Quadrennial Diplomacy and 
Development Review, which will identify important policy shifts, areas 
for innovation, and management reforms required to address the 
challenges that we face today and in the future.
    Of course, Secretary Kerry is personally determined to affect 
lasting change, so I look forward to partnering with this committee on 
authorizing legislation for the Department and USAID.
    If confirmed, I will also bring new focus to innovation at the 
State Department and USAID. Innovation in what we do, as well as the 
way we work, is critical to deliver on our foreign policy and 
development priorities. There are tremendous opportunities to improve 
how we operate and to better use technology--information-sharing and 
relationship management systems could dramatically increase the 
productivity of our staff; video-teleconferencing and other 
technologies could reduce travel costs and improve collaboration. I 
will also champion the use of technology to improve program 
transparency, and our monitoring and program evaluation. Data driven 
decisionmaking, increasing transparency of how we invest resources and 
ensuring timely, usable data on performance and results will be central 
elements of this reform agenda. Foreignassistance.gov is an important 
start, but we can and must do more.
    My fourth area of focus will be better targeting and coordinating 
our development efforts. These investments aren't just the right thing 
to do--they are also the smart thing to do, because helping to promote 
stability and creating opportunities for future trade and shared growth 
is in America's interest.
    I will make certain that our key development initiatives like 
global health and food security deliver results and are sustainable. We 
must align our business model and investments to have maximum impact. 
This means investing in economic growth, aligning our workforce with 
changing needs, and working more closely with a local governments and 
civil society. We must also ensure that our development agencies are 
coordinated across government and do a better job of working in 
partnership with the private sector.
    Finally, if confirmed, I will build on the great work that has been 
done to strengthen the State Department's economic impact. At his own 
confirmation hearing earlier this year, Secretary Kerry said that today 
``foreign policy is economic policy.'' More than ever, our prosperity 
at home depends on our engagement abroad--opening markets, expanding 
exports, and attracting foreign investment. If confirmed, I will work 
to help our embassies and consulates abroad do even more to fight for 
American companies and promote foreign investment that leads to jobs 
and opportunity here at home.
    Throughout my 20-year career in public service, I have had one 
overarching objective: to ensure that our government delivers and that 
we make it work for the American people.
    Our foreign policy investment--at about 1 percent of the federal 
budget--as others have said is really ``national security insurance.'' 
It's one of the very best investments we can make for our country's 
future. But, I believe we can--and we must--do everything possible to 
increase the return on that investment.
    If confirmed, I will work each day to make good on that promise, 
and partner with all of you to make sure our diplomacy and development 
help contribute to the kind of world we all want to see, one that 
really is more peaceful and more prosperous.
    Thank you, and I look forward to your questions.

    The Chairman. Well, thank you for your statement.
    Let me start off with a few questions. I appreciate the 
priorities that you listed. I think they are appropriate. But, 
let me start off with the embassy and diplomatic security, 
which has been a concern of mine since our experiences in Libya 
and continues to be a concern with high-risk, high-threat posts 
throughout the world.
    So, the 1999 Booz Allen and Hamilton Report, which is a 
byproduct of the 1999 ARB Report in the wake of the bombings in 
Nairobi and Dar es Salaam, recommended that diplomatic security 
be removed from the longstanding Under Secretary for Management 
reporting structure and place diplomatic security either in a 
separate Under Secretary along with the Bureau of 
Counterterrorism and the Bureau of International Narcotics and 
Law Enforcement or report directly to the Secretary of State.
    The recent Best Practices Panel, consisting of five 
distinguished security and law enforcement officials, 
recommended the creation of an Under Secretary for Diplomatic 
Security. Underscoring, ``the Department's present direction of 
expeditionary diplomacy operating with an increased number of 
temporary and permanent posts in complex, high-risk 
environments requires an organizational paradigm change with an 
Under Secretary for Diplomatic Security as the linchpin 
necessary to safely enable the Department's mission,'' that was 
their quote.
    So, my question is--there are those who may agree with 
that, there are those who may have a different view. But, 
heightening the importance of our people abroad, as they take 
the risks that inevitably they will, but minimizing those risks 
is incredibly important to me. Have you met or do you intend to 
meet with the members of the Best Practices Panel? And have you 
had an opportunity to review their recommendations? And, if so, 
what is your views on their recommendations?
    Ms. Higginbottom. Thank you, Senator, very much.
    As you know, I have had the opportunity to be at the 
Department now for the past several months and can say that 
everyone is united in the effort to ensure that the tragic 
attack that occurred in Benghazi will never happen again. It is 
the top priority for me, if I am confirmed. And I have reviewed 
the Best Practices Panel and the other independent reviews, 
obviously the ARB and the Inspector General Report and are 
taking all of those recommendations very seriously.
    As it relates specifically to the recommendation for an 
Under Secretary: I think, first, it is important that the 
Deputy Secretary Office establish the appropriate processes and 
accountability mechanisms, as one of the two top officials 
reporting to the Secretary at the Department. And I intend to 
do that. One of the objectives I will have, if confirmed, is to 
look beyond--certainly work to implement the remaining ARB 
recommendations, but look beyond the Benghazi ARB at our 
processes, our organization, our culture. Look at all of the 
recommendations that have been made in the wake of Benghazi and 
figure out how we are best organized to mitigate the threat and 
the risks to our people and places around the world.
    I have not yet met with the Best Practices Panel. I look 
forward to doing that, if I am confirmed. I have had the 
opportunity to look across the spectrum of recommendations and 
also look at some of the recommendations from previous ARBs, 
which I know has been pointed to, in the wake of Benghazi. And 
I think we need to have an annual report where we get progress 
each year that would come to me to say where are we on this and 
where are we, not just on the ARB recommendations as it relates 
to Benghazi, but for all of them. So this is something I will 
take very, very seriously.
    The Chairman. How do we ensure, structurally within the 
State Department, that there is a clear line of communication 
and authority and responsibility? Because my sense is that that 
was lacking before, the sense of it. And so that, when someone 
at one of our missions abroad or embassies abroad feels that 
there are concerns and we look at intelligence a different way, 
not just a specific threat, but the nature of the environment 
of all threats to make a calculus as to what we should be 
doing. How are we going to ensure that there is a structural 
line that goes directly to the Secretary, if necessary, in 
order to get action?
    Ms. Higginbottom. Thank you. It is a very good question.
    First, I would just say that our nominee to be the 
Assistant Secretary for Diplomatic Security--Acting Secretary 
Greg Star has said on many occasions, I know I can pick up the 
phone and talk to the Secretary whenever I need to. And I think 
that is important, whatever our structure is that if there is a 
real concern that he or someone else in that position has--they 
have that direct line.
    I think one of the most important recommendations from the 
ARB and that we have to execute on is to establish a process 
that--particularly when we have a national security or a 
national interest to be in a particular place and we have a 
difficult threat environment, that we are bringing those 
together in a regular process that feeds up the chain so that 
we are not just having one side or the other decide what the 
answer is. And that process is being developed right now. That 
is something that I would be engaged in and I think, you know, 
and those very difficult calls need to go to the Secretary and 
be discussed and made--make a call in that way.
    The Chairman. Let me turn to the question of diversity at 
the State Department, something you and I spoke about. You 
know, it is pretty alarming to me to see the largest, fastest-
growing part of America's population, what is the next America, 
you know, dismally represented at the State Department. Not 
just as a question of participation, but as a question of 
promoting American values abroad, as is evidenced by who we are 
as a Nation. When I was in China recently, it was great to have 
met with dissidents and attorneys struggling to represent human 
rights activists and others. And our person in charge of that 
there was an African-American, incredibly qualified but also 
created a whole historical perspective of a struggle for civil 
rights. It was a powerful message.
    I think about the realities that the State Department has 
one of the most dismal records of having Hispanic 
representation in it. And I think there are arbitrary and very 
subjective measures by which it impedes the opportunity for 
Hispanic-Americans to participate. So, where the State 
Department recruits--I mean, the Fletcher School is a great 
school. I do not argue with that. But, that is not going to get 
the most diverse population, you know by way of example.
    And the question of oral capacity is incredibly subjective. 
And I have met some great people from the State Department who 
clearly have the powerful ability to communicate orally and I 
have met some people who may not quite reach that standard. 
Yet, Hispanics seem to consistently get filtered out in that 
respect.
    So, I would like to hear from you because this comes from 
the top. We are never going to achieve progress if, from the 
very top, there is not a comment and a position in which 
measurement for reviews of people below. I know we have a whole 
host of promotions that are pending before the committee. You 
know, part of that has to be that management gets the message 
that creating the ability to have people enter into the Foreign 
Service that is more diverse is a measure of judgment as to how 
well they are performing. If not, it will never more forward.
    So, I would like to hear what you would do, if you were 
approved by the Senate, both as to recruiting a more diverse 
workforce in the Foreign Service; as well as how would you go 
about to ensure--for example, would you support a fellows 
program similar to successful Pickering and Rangel fellowships? 
And would you meet with the--in a consistent basis with the new 
Director General that is before the committee, for the Foreign 
Service, which I hope at some point we will confirm this year, 
as all efforts of creating a process that would change this 
reality at the State Department?
    Ms. Higginbottom. Thank you, Mr. Chairman.
    I appreciate the opportunity that we had to discuss this 
issue prior to this hearing. And, as I said to you then, I 
appreciate that you have a focus on this and that you are 
holding us accountable. I do not think anyone would agree that 
we are in the place that we want to be on this. It is a 
particular passion and commitment of mine that I will bring 
into the position, if confirmed. And I know that Secretary 
Kerry cares deeply about this as well.
    You mentioned the nominee for the Director General, 
Ambassador Chacon. I have spoken to him about this and we have 
begun to share ideas about how to really take this on in a more 
systematic way, but also think creatively about ways to expand 
our ability to recruit at different institutions of higher 
education, thinking about how to reach students when they are 
younger, before they get to college with some thinking about 
what a career in the Foreign Service would be. And there are a 
lot of best practices from the private sector I think we can 
try to bring into our efforts.
    But, I think it does have to be a priority at the highest 
levels. We do have to do more to create an environment, once 
people enter the Foreign Service or the civil service, at the 
State Department that is supportive and meets their needs and 
interests. And I think there is a lot of work we can do.
    Linda Thomas-Greenfield, who was the Director General until 
she was nominated to be the Assistant Secretary recently, did a 
lot of good work on this and has really established, I think, 
some very good programs within the Department. But, I really do 
believe there is more we can do. I look forward to working with 
you on it. And I think it is really important that we have a 
dialogue about this. I think there is a lot of opportunity for 
us to really build on what the foundation is that we have now. 
The fellowship programs are one tool, but I think there are a 
lot of different tools we can avail ourselves of.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you again for being here and your willingness to 
serve in this capacity. And appreciate you having family 
members here. I will say, usually when people bring their 
children, they get dealt with in a much easier way. But I 
think----
    [Laughter.]
    Senator Corker. I do not think that is going to be an issue 
with you today anyway.
    We talked a little bit in our office about the fact that 
you have certainly done some very, very distinguished--
contributed in a very good way in the public arena. And, you 
know, one of the questions, I guess, people have had is with 
your years of experience, if you will, coming in the State 
Department. It is a place where change happens very, very 
slowly, if at all. That many of the bureaucrats there, as you 
and I both know, when someone like you comes in they say, 
``Well, you know, Heather will be here for 3 or 4 years and we 
can wait her out.''
    How do you expect to overcome the culture that you know and 
I know and everybody at this dais knows exists within the State 
Department to really put in place some of the reforms and 
changes that you would like to see put in place?
    Ms. Higginbottom. Thank you very much, Senator Corker.
    I think it is really important to be clear-eyed about what 
the challenges are. And I have a lot of enthusiasm and 
commitment to the opportunities that we have at the Department, 
if I am confirmed into this role. But, that is not enough. And 
I need to bring into it my experiences as well as the support 
of the senior leadership, and that starts with the Secretary.
    So, if I were confirmed, I would sit down right away with 
the Secretary, with Deputy Secretary Burns, with our Under 
Secretaries and say, ``This is where I think we need to go, 
this is what I need from you to enable us to get there, and 
this is how we are going to be held accountable.'' I have 
managed an agency, I have been in government, I have worked 
across the interagency, and I am familiar with what you 
referred to as this sort of, you know, ``We'll be here a long 
time and you'll only be here a short time.'' And I have worked 
through that. When I was at OMB, I was part of a leadership 
team with, you know, 500 staff and about 40 political staff, 
and I was the COO of that agency. And I was there at a time of 
very low morale that we turned around. And I understand how to 
breakdown some of those barriers.
    But, I do think it really requires the commitment from the 
senior leadership. And I have had conversations with the 
Secretary, of course, as well as senior leaders at the 
Department and they believe in the opportunities to really 
bring our diplomacy into the 21st century and avail ourselves 
of innovations and make some of the reforms that are necessary. 
So, I am confident about it. But, I recognize it is a challenge 
and I am eager to take it on, if I am confirmed.
    Senator Corker. One of the things we talked about that 
would be helpful, and I think you agreed and you mentioned, I 
think, briefly in your written testimony, we have not had a 
State Department authorization since 2003, which is beyond 
belief. In other words, the United States Senate has not taken 
the time to do an authorization of the many programs and 
activities that are taking place within the State Department 
for 10 years; a decade.
    We mentioned that--we discussed that, you know, that would 
actually be something that would be a tremendous asset to you. 
That, if the Senate so chose to take the time and do the 
diligence and do the work that we were hired to do relative to 
the State Department, that that would be an asset to you in 
putting in place many of the reforms and changes that you would 
like to see take place. And I wondered if you might respond to 
that.
    Ms. Higginbottom. It is my pleasure. Thank you, Senator.
    I worked in this body. I am a believer in regular order. I 
think there is real value to be gained from a regular 
authorization process, a regular appropriations process 
something that drives our consultation that allows us to update 
our authorities. I know this committee and, under the 
leadership of the chairman and yourself, there has been a very 
important discussion around embassy security. There is an 
effort right now to update our PEPFAR authorizations. These are 
really important dialogues for us to have. And a regular State 
authorization bill would provide that. I am fully supportive of 
it and would look forward to working with you on it.
    Senator Corker. Thank you.
    And I agree with you, we may have an opportunity to have 
the PEPFAR piece done. And I know the chairman and myself and 
many members of the committee worked together on the embassy 
piece. But an overall look would certainly be helpful too. And 
I thank you for those comments.
    I know that the issue in Libya, and I know the chairman 
spoke to it also, has in some ways become a political football. 
At the same time there is a lot of substance there too. And one 
of the things that has been pretty shocking to me--I was in 
country right after, you know what happened, just a few weeks 
later. And sat down with our team there and have since talked 
to a lot of folks.
    And I think it has been pretty shocking that, when you read 
the cables and you see everything that happened during that 
time, there just has not been any real accountability. I mean, 
four Americans were killed and, to my knowledge, not a single 
person at the State Department has even been reprimanded. So, 
that is odd to me. Very different than what happens in military 
operations, very different than happens in companies all across 
our country.
    And I wonder if you might speak to some of the same issues 
that, I know the chairman raised, just about accountability. 
And is there a way for you to change that culture where, you 
know, the bar for your job or your employment is set at such a 
level that, you know, whether you perform or do not perform it 
just does not matter?
    Ms. Higginbottom. Thank you, Senator.
    I know this is an issue that you have been very focused on 
and I appreciate that it is a difficult set of circumstances. 
As you know, Secretary Kerry, not long after he came into 
office, initiated a review of the performance of the four 
individuals who were identified by the Accountability Review 
Board; reviewed their performance, both as it related to 
Benghazi, but also their overall performance at the Department; 
and concluded that all should be reassigned from the positions 
that they held into positions of lesser responsibility. None of 
them have responsibility for worldwide security today. I think 
that was appropriate.
    I understand also that the ARB made a recommendation that 
they would, in future--like their statute changed and future 
ARBs be able to make recommendations about discipline when 
there are management failures or weaknesses. And I think that 
is important. I think the Department is updating its Foreign 
Affairs manual to guide that. And we have worked, obviously, 
with this committee to try to get that ARB provision changed as 
well. Those are important steps. But, I think we have to set up 
processes that make clear where decisionmaking lies and who is 
accountable. I hope that, in the wake of the incident in 
Benghazi, with all of the review of our processes and 
procedures that are taking place and all the reforms that we 
are really getting at that issue.
    And when I say, as I did in response to the chairman, that 
I will look at the processes, the organization, the culture, 
that is part of what I am talking about. We need to really step 
back and understand how decisions are made and who is 
accountable. So, I am committed to that and look forward to 
engaging with you on it.
    Senator Corker. Well, I know one of the things that you are 
going to be highly involved in is helping establish the balance 
between engagement and security. And, you know, it is obviously 
that particular incident highlighted that, I think, more than 
any that we have seen. And I look forward to your work in that 
regard. I do look forward to working closely with you.
    And, on the issue of the ARB, it seems like to me that is 
something that we ought to be able to resolve really, really 
quickly and easily. So, I do look forward to talking with you a 
little bit more.
    But thank you for your desire to do this. We look forward 
to you doing really good things at the State Department. And I 
am glad you are willing to do this.
    Ms. Higginbottom. Thank you.
    The Chairman. Thank you, Senator Corker.
    Before I turn to Senator Rubio, I would just say I 
appreciate the ranking member's desire to have a State 
authorization. And there isn not anybody who would want to see 
that more than the chair. And I hope that maybe we can get 
there. But, what we will need from members of the committee is 
a commitment to an authorization that is not a Christmas tree 
of seeking to have their foreign policy views inserted as to 
the policy of the State Department.
    If we want broad, thematic approaches for the State 
Department, in terms of how its structure might be and what we 
ultimately would want to authorize, in terms of its resources 
and its missions, those are great and I totally support that. 
But, the reason that we have not had a State Department 
authorization in nearly a decade is because it became the 
vehicle for members to try to pursue their individual foreign 
policy desires in different parts of the world and it went far 
afield from an authorization. And, if we can get there, I would 
love to be able to do that.
    Senator Corker. If I could respond, since there is 
editorial comments being given.
    I can tell you there are none of the folks on this side of 
the dais that even were here in 2003. So, I think we ought to 
give it a try. So, thank you very much.
    The Chairman. Well, the good news is I was not here in 2003 
either so----
    [Laughter.]
    The Chairman [continuing]. Senator Rubio.
    Senator Rubio. So, I am going to make a statement and I 
think your answer is going to be yes, but--because it leads to 
my next question. Do you agree that our foreign assistance 
should reflect two things: No. 1, is our interests, first and 
foremost, but also our values?
    Ms. Higginbottom. Yes, Senator.
    Senator Rubio. How do we tie both, our interests and our 
values in our foreign assistance programs?
    Ms. Higginbottom. Thank you, Senator, for raising that 
question.
    It is a balance that we have to strike. We must ensure that 
our assistance is directed to those places where we have a 
national security or a vital national interest. And then we 
need to assess, when we have concerns about a particular 
activities or statements of a country, what we are doing with 
our assistance. Are we directing it to civil society groups? 
Are we promoting democracy? You know, what are we really doing 
with that? And I think that is an important tenet and principle 
that we need to work through.
    Senator Rubio. You mentioned it as a balance. I would 
argue, and you probably would agree too, that oftentimes they 
are actually not mutually exclusive that, in essence, 
oftentimes our interests are our values. Whether it is the 
issues of modern-day slavery or religious liberties or any 
other human rights causes.
    Do we have or do you have an example that we can look at 
and say this is a place where we have found the right balance; 
where we have been able to use foreign assistance and foreign 
assistance programs and engagement as an opportunity to, in 
essence, do both to further our interests and our values 
simultaneously?
    Ms. Higginbottom. Senator, you are right. They are 
certainly not mutually exclusive. And I think that there are 
many places around the world where we have been able to utilize 
our assistance to promote our values and address issues that we 
have concerns about. I would be happy to follow up with you and 
go through some of those.
    [An additional written response for the record follows:]

    We owe it to the American people to use their resources wisely and 
that means using foreign assistance in ways targeted to advancing our 
national interests, while honoring our values. At times there are 
perceived tensions regarding how the United States can pursue both 
short-term gains and long-term interests simultaneously. But, in fact, 
as we have pursued engagement on economic, security, and other issues, 
with governments around the world, we have pressed the same governments 
bilaterally and in multileral fora to protect religious freedom and 
other human rights and to combat trafficking. In parallel with these 
efforts to change government policy and practice, we have directly 
aided civil society groups promoting those rights and our values.
    For example, as I understand it, the State Department since 2009, 
has been supporting the Alliance of Iraqi Minorities, a network of 62 
Iraqi individuals and organizations that work to protect Iraq's 
minorities and promote their inclusion in the political process. By 
working directly on community development projects throughout the 
country, in the communities from which they originate, Alliance members 
reinforce and uphold the status of Iraq's diverse ethnic and religious 
minorities as members of Iraqi society. At the same time, the United 
States continues its support for the Minority Parliamentary Caucus, 
which convenes minority members of the Council of Representatives (COR) 
who work with their civil society partners to represent and advocate 
for minority issues within the Iraqi Government.
    The State Department also implements a program that combats 
discrimination and religious intolerance, while protecting the freedoms 
of religion and expression in various countries in all regions of the 
world. The program assists governments in training local officials on 
cultural awareness regarding religious minorities and on enforcing 
nondiscrimination laws. The training, shaped by the needs of the host 
country, includes topics such as legislative reform; best practice 
models; prosecuting violent crimes motivated by religious hatred; 
metrics; and discrimination in employment, housing and other areas.

    Ms. Higginbottom. It is important that we understand what 
we are trying to achieve with our assistance and what outcomes 
we are looking for. And I think that is an important thing to 
bring into the equation.
    Senator Rubio. Now, I also wanted to point out I introduced 
a bill along with Senator Cardin and Representatives Poe and 
Connelly in the House. It is Senate Bill 1271. What it is 
designed to do is to improve monitoring and evaluation of U.S. 
foreign assistance programs, including security sector 
assistance. So, I do not know if you are familiar with it or 
not. But I would encourage you to look at it and see how we can 
gain some traction on that idea because we live in a time where 
everybody wants to balance the budget. But the only thing they 
are in favor of doing is cutting foreign aid. Which, of course, 
you cannot balance our budget by doing that. It is just not 
enough money and, quite frankly, would be counterproductive.
    So I do think we have to increasingly be able to justify to 
the American people why, at a time when we have such 
extraordinary challenges domestically, we are still engaged 
globally. And part of being able to make that argument is 
having programs that have clear measurable results, clear 
goals. Obviously, any instances where that money's being 
misspent or unwisely spent undermine that argument.
    So, this is a real challenge that we face moving forward. 
And I think it is critically important and I would urge you and 
others to get behind the idea that we need to do that as, not 
just the right thing to do in terms of responsible stewards of 
the public tax dollar, but also as a way to ensure the long-
term viability of our international engagement.
    I would also note that unfortunately, over the last 10 
years, so much of our foreign policy has been viewed in the 
lens of military engagement as if that is the only tool in our 
toolbox. When, in fact, our most powerful tool is proactively 
engaging around the world with assistance programs that further 
our values and our interests and prevent these situations from 
arising and helping our allies transition to more sustainable 
pathways.
    My last question is, in January of this year, the State 
Department's International Security Advisory Board recommended, 
``Implement a comprehensive monitoring and evaluation process 
for its security capacity-building programs, measuring 
effectiveness against defined goals in terms of basic national 
objectives, not just value for money or inputs provided. In 
April, the President issued a policy directive pledging to 
inform policy with rigorous analysis assessments and 
evaluations.'' Can you provide to us any sort of explanation 
about what measures have been taken thus far to implement 
rigorous analysis assessment, et cetera, as it relates to 
security sector assistance?
    Ms. Higginbottom. Senator, thank you very much for raising 
this issues.
    I have a great deal of interest in enhancing the capacity 
of the Department to use our analysis and evaluations to inform 
our budgeting, to inform our policy. I would really like to 
work with you on the legislation that you have introduced, if I 
am confirmed. When I was working at the Office of Management 
and Budget, I was working as part of a team to ensure we were 
doing more data and analysis across the entire Federal 
Government to inform our budgeting. And I think it is a very 
important tenet of the work that we can do together.
    It is also, as you point out, incredibly important in 
justifying the investment. One percent of the Federal budget is 
in our Foreign Affairs space. Secretary Kerry believes that we 
need to make the case for this investment. And I think these 
tools are important for us to do it. It is also important for 
us to understand what programs are not working and why. So, I 
am very supportive of that.
    I would be happy to follow up with you, Senator, on the 
specific question you have raised about the security assistance 
programs. I think that there have been some good steps taken, 
but we can follow up with some more detail on that.
    Senator Rubio. And I actually did have one more, and I 
think it will save us some paper here. The 2010 Quadrennial 
Diplomacy and Development Review process acknowledged that the 
State Department has a shortage of key skills necessary for 
modern-day diplomacy. If you could just briefly describe what 
that gap is and what steps we can take to develop the 
professional skills of our Foreign Service officers?
    Ms. Higginbottom. Thank you.
    I think that there are a set of skills that we really need 
to hone in on to align what our policy objectives are today 
with the skills and training that our Foreign Service officers 
get. I mentioned in my testimony, our economic impact or 
economic diplomacy. We do not necessarily, right now, train our 
economic officers in the Foreign Service, in how to engage with 
U.S. business and with the folks that they deal with overseas 
at their posts about how to make those connections. That is 
clearly an area that we need to do more and better in. There is 
also some discussion around our language training and some 
skills like that.
    But, I would like to--and I have talked with the Secretary 
about this--really evaluate where our gaps are in training and 
look for ways to fill those. And I think that one of the most 
obvious places to begin that is with the economic development 
work.
    Senator Rubio. Thank you.
    Ms. Higginbottom. Thank you.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman and Ms. 
Higginbottom.
    I would like to welcome you and your family here. And also 
say that I appreciate your willingness to serve. I also 
appreciate that your top priority will be ensuring that our 
people and posts are safe and secure.
    I come from a manufacturing background. So, it is just sort 
of in my DNA a process of continuous improvement. And I really 
think the vital step in any kind continuous-improvement process 
really is taking a look at what went wrong and try and get the 
root cause of it and truly evaluating that. So, we have to 
learn lessons from the past.
    So, with that in mind, I guess I would just kind of like to 
ask, you know, how much have you delved into what happened in 
Benghazi? I mean, which of the reports that have been issued 
have you read? Let us start there.
    Ms. Higginbottom. Sure, Senator, thank you.
    I have certainly read the ARB, the unclassified and the 
classified version. I have read the State Department's 
Inspector General Report. I have read the Best Practices 
Report. I have read the Management Review that was recommended 
by the ARB. And one other I cannot think of right now. But, I 
have reviewed most of the major reports that have come out 
about the incidents in Benghazi and the response to it.
    Senator Johnson. I know the Committee on Homeland Security 
issued a report with Senators Lieberman and Collins. Did you 
read that one?
    Ms. Higginbottom. I have not read that one.
    Senator Johnson. OK. And then, I know there are five 
committees in the House that also issued a report. Have you 
reviewed that?
    Ms. Higginbottom. I have.
    Senator Johnson. Have you also received other secure 
briefings on Benghazi?
    Ms. Higginbottom. I have not received secure briefings on 
the events of Benghazi. I have, obviously, been engaged in 
conversation around implementation of the recommendations from 
ARB and the other reports.
    Senator Johnson. OK. So, again, you are pretty thoroughly 
briefed in terms of what happened. So, I just kind of want you 
to put into your own words, what went wrong there? What was the 
breakdown?
    Ms. Higginbottom. Senator, I think it is clear that there--
the security was insufficient to deal with the attack that 
occurred. That there were insufficient--the use of fire as a 
weapon and other tactics that were used overwhelmed the 
Regional Security officers and officials who were there. And 
that it was a breakdown in security.
    Senator Johnson. Well, why was the security insufficient? I 
mean, what was the breakdown in the State Department, because 
there were cables going back and forth? The deterioration in 
the security situation seemed to be pretty well known. And 
there are actually verbal requests basically denied. You know, 
people within the State Department said, do not ask for 
additional security. I mean, what went wrong within the State 
Department?
    Ms. Higginbottom. Senator, the Accountability Review Board, 
when looking at this, I think, found that the requests that 
came up the line for security measures and personnel in 
Benghazi were largely granted. But, there was clearly a problem 
and it was insufficient. And, Senator, I am committed to 
ensuring that going forward we have the right processes in 
place----
    Senator Johnson. Let me just stop you. Are you saying that 
you really believe that the requests for security were granted 
by the State Department? Is that your understanding of it?
    Ms. Higginbottom. Senator, many of the requests for 
security that were granted were--I am not an expert on every 
cable that was written. I am being nominated for a position 
moving forward looking at security. I am looking at how we will 
continue the implementation of the ARB recommendations and the 
other reports that are out there to ensure this does not happen 
again. I am not an expert on everything that happened in the 
Department before I got there.
    Senator Johnson. OK. Well, if your top priority is going to 
be to ensure that our people and posts are safe, I think you 
need to fully understand what went wrong in the State 
Department. Because those security requests were not granted. 
They were denied. And not only was security not beefed up, 
security was ramped down. I think that you need a very thorough 
understanding. Quite honestly, the American people need a more 
thorough understanding of what is happening. Which leads me to 
my next point.
    Assuming--for my constituents, they continue to demand to 
know what happened. I am, as a United States Senator, 
incredibly frustrated that we have been denied access to the 
survivors to get the information. Do you believe, as the United 
States Senate, at this point in time--what is it, 14 months 
after the attack, do you believe the Senate should be briefed 
by the survivors of the Benghazi attack?
    Ms. Higginbottom. Senator, I know that there are ongoing 
discussions right now with Congress about access to the 
survivors. The Department of Justice has raised concerns about 
their testimony and their briefing of Congress as it would 
relate to prosecution of the criminals in this case. The State 
Department has raised some concerns about the security of our 
professional security officers. And I am confident an 
accommodation can be reached. But I think there are legitimate 
questions that are being worked through now.
    Senator Johnson. Do you think 14 months is a little bit 
long in terms of gaining access to those survivors?
    Ms. Higginbottom. Senator, there has been an enormous 
amount of accommodation and coordination between the State 
Department and Congress. Secretary Kerry said before this 
committee and others he was committed to working with you to 
answer any legitimate questions, respecting the oversight 
responsibility. I feel the same way. I look forward to working 
with you going forward. And I am confident, in the case of the 
survivors, that we can work through an accommodation here.
    Senator Johnson. So, obviously, that is a balancing act. 
Prosecuting individuals that we do not seem particularly 
interested in picking up or identifying or finding versus the 
American people's right to know and Congress' oversight 
responsibilities. Can you just kind of give me your evaluation 
of the balance between those two?
    Ms. Higginbottom. Senator, I think that the Congress' 
oversight responsibilities are important. I worked in this body 
for a long time. I respect its prerogatives. I think that the 
Department has worked very hard to provide 25,000 documents, 
many hearings, lots of briefings. That cooperation will 
continue. Obviously, we have to take into consideration, when 
we are having a discussion about accommodation, what the impact 
could be on the prosecution of the criminals who perpetrated 
this terrible crime. We have to think about the safety of our 
officers at the State Department. But, I do not think that 
those things mean we cannot come to some agreement or work 
together on this issue.
    Senator Johnson. Now, I am not a lawyer, I am not a 
prosecutor, I am not assuming you are a prosecutor either.
    Ms. Higginbottom. No, sir.
    Senator Johnson. How would Members of Congress, maybe even 
a secured briefing, getting information and being able to 
interview survivors, how could that possibly effect some future 
prosecution where we might have these perpetrators on video 
tape and we know exactly what they did? How is that going to 
harm a prosecution?
    Ms. Higginbottom. Senator, I do not want to speak for the 
Justice Department. But, in the communications that they have 
had with Congress they have indicated that, should the 
identities become known, it would be possible for the defense 
to do research on them, that their safety and security----
    Senator Johnson. So that----
    Ms. Higginbottom [continuing]. Could be at risk.
    Senator Johnson [continuing]. That speaks to maybe we 
should do this in a secured setting.
    Ms. Higginbottom. Senator, this is not my decision. I do 
not want to speak for the Department of Justice. But I look 
forward to working with you on this and other issues, if I am 
confirmed.
    Senator Johnson. OK.
    I just want to go on the record. I think the whole smoke 
screen of having prosecutions be the reasons that we are not 
able to gain access to the survivors is strictly that. I think 
that it has no basis, it is just an excuse. It is a very poor 
excuse.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Chairman.
    And I think that our colleague might very well want to 
direct himself to the Justice Department on that question to 
pursue it as well. But, I think that the nominee has limited 
capacity in that regard to give a legal analysis of where the 
Justice Department's views are. But, I understand your concern. 
And that may be an appropriate way to try to get to an 
accommodation.
    One final question. You know, international affairs 
spending has gone from 2\1/2\ percent of the overall Federal 
budget in 1965 to less than 1 percent today. Which means, as 
the challenges that we have faced globally have dramatically 
multiplied, we are doing active diplomacy with far less in 
relative terms. So, one of the most significant challenges I 
think you have and one of the assets I think you can definitely 
bring to this job. But I would like to hear your thinking about 
how do you allocate international affairs spending most 
effectively and efficiently in the context of what is our 
stated foreign policy initiatives?
    Ms. Higginbottom. Mr. Chairman, thank you for that 
question.
    It is an important investment of just 1 percent of the 
Federal budget. Our mission is not getting smaller, it is not 
getting less complicated. And so, we have to look at both 
sustaining that investment, but also how to do more with less. 
When I was at OMB it was at a time when the overall 
discretionary appropriations were coming down. We had to look 
across the entire Federal budget and figure out how to make 
difficult tradeoffs in priorities in order to fund our 
priorities and to make cuts and tradeoffs in programs. And that 
experience and perspective is what I would bring into this 
position, if I were confirmed.
    First, I think the QDDR gives us a good opportunity to 
really look strategically at what our policy, programs, and 
operations should look like. And that can help set a roadmap 
for how we should structure our budgets. I think that we also 
have to, as I was saying to Senator Rubio, we have to do more 
in terms of our evaluation and analysis to inform the efficacy 
of our programing.
    And we can also look for efficiencies in the system, when 
we are evaluating them and find out where there are 
duplications and where things are not working. We have to make 
difficult tradeoffs in some of our programing when we find 
ourselves with reduced overall appropriation. But, we need to 
do that smartly. We need to ensure it is consistent with our 
policy and it reflects our values. So, the experiences that I 
had at OMB, I think, are very relevant to the moment we are in 
today in living with sequester and also looking at 
discretionary caps for the next several years.
    The Chairman. That should be the title of a book: Living 
with Sequester.
    [Laughter.]
    Ms. Higginbottom. I hope it is an old book soon.
    The Chairman. Well, thank you for that answer.
    One of the areas I hope you will look at, upon 
confirmation, is that alignment with some of our programs with 
AID and there is a view that some of that is duplicative versus 
coordinated. And that may be a rich opportunity for some 
significant advancement.
    Ms. Higginbottom. Yes.
    The Chairman. Seeing no other members before the committee 
who want to ask a question. The record is going to remain open 
until the close of business tomorrow. There may be questions 
for the record for you. I would urge you to answer them 
expeditiously in order to try to move your nomination forward 
to a business meeting.
    And with that, with the thanks of the committee, you are 
excused now.
    Ms. Higginbottom. Thank you very much.
    The Chairman. Thank you very much.
    Our second panel today are Dr. Sarah Sewall and Richard 
Stengel. And I would ask them to come up to the witness table. 
And, as we bring them up, let me introduce them briefly.
    Dr. Sewall is nominated to be Under Secretary for Civilian 
Security, Democracy and Human Rights. She will have a 
significant portfolio responsible for five Bureaus, overseeing 
Conflict and Stabilization Operations; Counterterrorism; 
Democracy, Human Rights and Labor; International Narcotics and 
Law Enforcement; and, Population, Refugees and Migration.
    The new mandate of this position is to build and oversee a 
coherent capacity in the Department that promotes stability and 
security in conflict-affected and fragile states, and to 
support democratic practices, human rights, and humanitarian 
policies.
    It is a large and complex portfolio. But, I understand 
having three teenaged daughters that maybe you can accomplish 
all of that with a large and complex portfolio.
    And I am interested to hear your plans and intentions, when 
it comes to civilian security in Latin America, Syria's growing 
refugee problem, and human trafficking and women's issues. I am 
also interested in learning more about your plans in your 
expected concurrent role as a special coordinator for Tibetan 
Affairs.
    Our second nominee is Richard Stengel to be the Under 
Secretary of State for Public Diplomacy. Mr. Stengel would be 
the Secretary's principle advisor on Public Diplomacy issues. 
He would manage all Public Diplomacy resources and oversee 
efforts to build lasting ties to cultural diplomacy. He would 
also help shape foreign public opinion, including oversight of 
the Center for Strategic Counterterrorism Communications.
    He is an internationally acclaimed author and journalist, 
managing editor of TIME magazine, and brings 30 years of 
communications experience to this new role, if confirmed.
    I look forward to hearing your views on current Public 
Diplomacy efforts around the world. We would be interested in 
your views on how we might maximize the role of new media and 
technologies in our national interests.
    I know that Senator Schumer wanted to also be part of 
welcoming you to the committee. And, when he gets here, we will 
certainly pause for that opportunity. But, in the interests of 
time and the fact that there are going to be votes shortly 
taking place, I would like to move your hearing along.
    So, as we did in our previous panel, if you have family and 
friends, please feel free to introduce them to the committee. 
We welcome all of them. As I said, service is an extended 
reality for families. And we appreciate your families' 
willingness to be part of the sacrifice of that service.
    Your full statements will be included in the record. We 
would ask you to summarize them in about 5 minutes or so, so we 
can enter into a dialogue with you.
    And we will start with Dr. Sewall.

 STATEMENT OF DR. SARAH SEWALL, OF MASSACHUSETTS, TO BE UNDER 
SECRETARY OF STATE FOR CIVILIAN SECURITY, DEMOCRACY, AND HUMAN 
                             RIGHTS

    Dr. Sewall. Thank you, Senator.
    The Chairman. You have to put your microphone on, please.
    Dr. Sewall. Thank you, Senator.
    And I am almost tempted, in light of the articulate defense 
of State Department programming put forth by Senator Rubio and 
yourself, to simply associate myself with your remarks. But I 
will----
    The Chairman. That would not hurt.
    Dr. Sewal [continuing]. Nonetheless proceed.
    [Laughter.]
    Dr. Sewall. But, thank you, Senator Menendez. Thank you all 
members of the committee. I am deeply honored to be with you 
today and to be considered for the position of Under Secretary 
of State for Civilian Security, Democracy and Human Rights.
    It is humbling, the trust placed in me as a nominee by 
President Obama and Secretary Kerry. And, if confirmed, I 
pledge to work with you and your colleagues to advance American 
values and strengthen the security of the American people.
    I would like to thank in advance, although not acknowledge 
in person, my husband, Thomas Conroy, who is a public servant 
himself, and our three eldest daughters, Madeline, Kashin and 
Emma, in their senior year of high school; as well as our 
youngest Sophie, who is not quite yet a teenager, but on the 
cusp, she is 12. So they could not be here today, but they are 
with me in spirit and their enthusiasm for the possibility of 
my return to public service is an enormous gift.
    Having worked on Capitol Hill, I have tremendous respect 
for the institution of Congress and the Members of the House 
and the Senate. Senate Majority Leader George Mitchell taught 
me the value of listening carefully to alternative perspectives 
and ideas in the legislative process. He always made time to 
consider carefully the views from both sides of the aisle. And 
it is from that spirit of openness and respect that I appear 
before you today and with which I would serve if confirmed.
    If confirmed, I would be eager to work with you and to 
learn your thoughts about this new Under Secretary position and 
how its nearly $4 billion in programs and its numerous people 
overseas and in Washington can more effectively promote good 
governance and promote human freedoms. As you know, this Under 
Secretariat, known within the Department as ``J,'' is a highly 
operational entity that, for the first time, combines both hard 
and soft power tools and policies.
    The Under Secretary must prioritize and promote synergies 
among these varied programs; strengthen intragovernmental, 
international, and civil society partnerships to magnify these 
efforts; and help the American people understand why it is in 
their interest to make these investments in human security.
    Much of my career has focused on protecting civilians and 
promoting human rights. And I have done this from very 
different vantage points. I served in the Pentagon as the 
inaugural Deputy Assistant Secretary of Defense for 
Peacekeeping. And then I directed Harvard's Carr Center for 
Human Rights Policy.
    I have always been most interested in how the United States 
can best realize its policy goals through actions; i.e., the 
implementation of policy. And that is why, during a decade of 
teaching at Harvard, I chose to focus my research on 
operational challenges to realizing human rights. History 
teaches that even the best policies will falter without 
effective implementation and that there is always room for 
improvement.
    Particularly today, in light of tightening budgets, the 
United States must make civilian power more efficient and 
creative. And, if confirmed, I will work with you to use our 
resources strategically while continuing to ensure that these 
programs deliver results for America and for our partners and 
friends.
    In 1963, Martin Luther King, Jr., wrote of a single garment 
of destiny that bound the human race. And his words ring 
evermore true in today's interconnected, hyperlinked world. 
When the world is safer, Americans are safer. And when the 
world is more prosperous, Americans will prosper. When we 
invest in promoting our values and preventing conflicts today, 
we reduce the odds that our military will be asked to sacrifice 
for us tomorrow. And when our Nation is true to its principles, 
it is all the stronger.
    I share Secretary Kerry's view that strengthening civilian 
security and good governance abroad offers an enormous return 
on investment. Not simply in the conflicts that we avoid, but 
also in the well-being of future generations of Americans. It 
would be an enormous privilege to bring my experiences and 
convictions to the role of Under Secretary for Civilian 
Security, Democracy and Human Rights.
    I thank the members of the committee for your commitment to 
these issues and for your consideration of my nomination.
    I look forward to your questions, thank you.
    [The prepared statement of Dr. Sewall follows:]

                 Prepared Statement of Dr. Sarah Sewall

    Thank you, Mr. Chairman, Ranking Member Corker, and the members of 
this committee. I am deeply honored to be here with you today and to be 
considered for the position of Under Secretary of State for Civilian 
Security, Democracy, and Human Rights.
    The trust placed in me by President Obama and Secretary Kerry is 
humbling. If confirmed, I pledge to work with you and your colleagues 
to strengthen the security of the American people and nations around 
the world by helping countries build more democratic, secure, and 
stable societies and to advance human freedom.
    I would like to acknowledge my husband, Thomas Conroy, a public 
servant himself, our three eldest daughters, Madeleine, Cashen, and 
Emma, who are in their senior year of high school, and our youngest, 
Sophie. While they could not be here today, they are always with me in 
spirit. Their enthusiasm about the prospect of my return to government 
service is an enormous gift for which I am very grateful.
    Having worked on Capitol Hill for Senate Majority Leader George 
Mitchell, I have tremendous respect for the institution of Congress and 
for the Members of the Senate and the House who fulfill their important 
responsibilities. One of the greatest lessons I learned from Senator 
Mitchell is the importance of listening carefully to the views of those 
with differing ideas and perspectives. Senator Mitchell was an 
outstanding public servant of deep personal conviction, yet he always 
made time to consider carefully diverse views from both sides of the 
aisle. It is in that spirit of openness and respect that I appear 
before you today.
    If confirmed, I would be eager to work with all of you and benefit 
from your perspectives on this Under Secretary position and how its 
nearly $4 billion of programs and numerous personnel overseas and in 
Washington can more effectively promote good governance and protect 
human freedoms around the globe.
    As you know, this new Under Secretariat (known within the State 
Department as ``J'') is part of a broader transformation of U.S. 
foreign policy. The dissolution of the Soviet bloc, the growth of 
global terrorism, and the challenges posed by weak or repressive 
governments have prompted changes in U.S. policy and our methods of 
engaging with the world. The 2010 Quadrennial Diplomacy and Development 
Review reorganized the State Department, creating a new configuration 
of operational bureaus and offices that combines both ``soft power'' 
and ``hard power'' tools to promote civilian security, democracy and 
human rights.
    This combination of policy and programs offers a tremendous 
opportunity to integrate efforts across a broad spectrum of activities. 
For the first time, the Bureaus of Counterterrorism and International 
Narcotics and Law Enforcement reside in the same Under Secretariat, as 
do the new Bureau of Conflict and Stabilization Operations, and the 
Bureaus of Democracy, Human Rights, and Labor, and Population, Refugees 
and Migration, as well as the offices that work to promote 
international justice, engage global youth, and combat human 
trafficking. The Under Secretary must not only prioritize and promote 
synergies among these programs, but also work to strengthen effective 
partnerships across the U.S. Government, among our global allies, and 
with civil society more broadly.
    While our Nation's engagement with the world continues to evolve, 
America's goals remain constant: It has consistently sought a stable 
international system that enables the free flow of commerce and ideas 
and protects individual freedoms. International stability and human 
freedom may be ``global goods,'' but they also promote Americans' 
security and prosperity.
    The hardworking professionals at the State Department have embraced 
this mandate. From responding to conflict in Syria through humanitarian 
assistance and support to the opposition, to building trust in Burma 
between long-warring ethnic groups, to strengthening the rule of law in 
Central America, State Department employees every day tackle tough 
challenges such as these to build a more just, safe, and free world. If 
confirmed, I will devote myself to supporting them and all of the 
tremendous work that they are doing.
    Much of my career has focused on protecting civilians and promoting 
human rights. I have worked on these issues from very different vantage 
points--serving in the Pentagon (where I was the first Deputy Assistant 
Secretary of Defense for Peace Operations), and directing Harvard's 
Carr Center for Human Rights Policy. Perhaps more important than my 
involvement in policy is my interest in how the U.S. Government can 
best realize its policy goals through actions; i.e., the implementation 
of policy. This is why, while teaching at Harvard, I worked with the 
U.S. military to help revamp counterinsurgency doctrine (making 
civilian protection the center of U.S. operations), to reduce incidents 
of civilian casualties in Afghanistan (capturing best practices and 
proposing institutional reforms), and to create doctrine for preventing 
and responding to mass atrocities (now adopted by the U.S. Armed 
Forces). Even the best policies will falter without effective 
implementation, and there is always room for improvement.
    Particularly in the face of tightening budgets, the United States 
must work to make civilian power even more efficient and creative in 
addressing global challenges. The J Under Secretariat can leverage the 
great work by organizations and individuals within civil society, the 
State Department, USAID, and partner organizations across the 
international community. The State Department must ensure that every 
penny of taxpayer resources is used wisely. If confirmed, I will work 
with you and my colleagues in the Department to use our resources 
strategically, while continuing to ensure that these programs deliver 
results for America and our partners and allies.
    In 1963, Martin Luther King, Jr., wrote of ``a single garment of 
destiny'' that bound the human race. His words ring ever more true in 
today's interconnected, hyperlinked world. When the world is safer, 
Americans are safer; and when the world is more prosperous, Americans 
can be more prosperous. When we invest in promoting our values and 
preventing conflicts today, we reduce the odds that our military will 
be asked to sacrifice for us tomorrow. When our Nation is true to its 
principles, standing with civil society against hatred and repression, 
we are all the stronger. And as Secretary Kerry has said, strengthening 
civilian security and good governance abroad offers an enormous return 
on investment--not simply in the conflicts we avoid but in the well-
being of future generations of American citizens.
    It would be an enormous privilege to bring the experiences and 
convictions I have described to the role of Under Secretary for 
Civilian Security, Democracy, and Human Rights.
    I thank all members of the committee for your commitment to these 
issues, and for your consideration of my nomination. I look forward to 
your questions. Thank you, again.

    The Chairman. Well, Professor, you did not use your full 5 
minutes. That is remarkable. [Laughter.]
    Mr. Stengel, let me, before we call upon you, we are going 
to have a vote going on right now. We would like to have your 
full statement and then we will recess before the questions, 
and we will go vote and return.
    So, with that, Mr. Stengel.
    Senator Corker. Mr. Chairman, if I could. I am not going to 
be able to come back because of a meeting with our U.N. 
Ambassador, actually.
    And I want to thank you both, coming from the private 
sector, wanting to serve in the public sector. And I will 
forward some questions for the record down the road. But I 
think we both had meetings in our office that I thought were 
very productive.
    And I want to thank the chairman for calling this. But, I 
am not coming back. It is not out of--due to--it is not due to 
lack of respect, OK?
    Thank you.
    The Chairman. Thank you, Senator Corker.
    Mr. Stengel.

    STATEMENT OF RICHARD STENGEL, OF NEW YORK, TO BE UNDER 
            SECRETARY OF STATE FOR PUBLIC DIPLOMACY

    Mr. Stengel. Mr. Chairman, thank you.
    The Chairman. If you would put your microphone on.
    Mr. Stengel. Chairman--oh, I am sorry--Chairman Menendez, 
Ranking Member Corker, members of this committee. It is an 
honor to be here today. And I am humbled by the trust placed in 
me by President Obama and Secretary Kerry.
    I am mindful, Senator Corker, of your admonition about 
bringing children. So, I did bring mine today. My wife, Mary 
Pfaff Stengel, is here; my two boys, Gabriel and Anton; and my 
niece Amanda, who is a senior at Georgetown is joining us as 
well. There is one person whose absence I greatly miss, and 
that is my father who passed away this summer. He was an 
immigrant's son from Brooklyn, who became an American patriot 
during World War II serving in the Air Force. And he always 
wanted me to go in public service and so I am sad that he could 
not be here today.
    Now, if I am confirmed, I will be new to government. But, I 
have been engaged in a form of Public Diplomacy for much of my 
life. As the editor of TIME for the past 7 years, it was my job 
to explain America to the world and the world to Americans. We 
did that for more than 50 million people on every platform 
under the sun: Twitter, Facebook, Google Plus, even paper.
    And, before that I was CEO of the National Constitution 
Center in Philadelphia, where my mission was to affirm the 
centrality of the American Constitution for the American public 
and for foreign visitors.
    And then, a decade before that I had the great privilege of 
working with Nelson Mandela on his autobiography. And, more 
importantly, while he was writing his country's constitution. 
And it was inspiring for me to be there, in Africa, while they 
were writing a constitution--a modern constitution based on 
those same principles that had been articulated by our Framers 
200 years before.
    Every day, everywhere around the world, there is a great 
global debate taking place. It is about the nature of freedom 
and fairness, about democracy and justice. It is happening in 
all the traditional places, street corners, coffee shops, but 
it is also happening on all of these new social media 
platforms. As a result the reach, the scale and the speed of 
that debate is like nothing before in history. I have been 
involved in that debate my whole life. America, of course, must 
be in that debate and we must lead it.
    Every minute there are attacks and misstatements about 
America and American foreign policy that cannot be left to 
stand. Social media is a powerful medium for truth, but it is 
also a powerful medium for falsehood. Pat Moynihan, who was my 
Senator long ago, famously said, ``You're entitled to your own 
opinions, but not your own facts.'' But more and more these 
days people seem like they feel that they are entitled to their 
own facts. They are making them up.
    If confirmed, I will focus on a few issues that I believe 
are vital to our national interests. Nearly 60 percent of the 
world's population is under the age of 30. They are our 
audience and they are our vital interests. If confirmed, I will 
advance Public Diplomacy's focus on youth, including girls and 
underserved communities, so they see our Nation and our people 
as friends and allies.
    If confirmed, I will work to identify and implement the 
best practices of social media and mobile technology. We must 
align our resources at the State Department along these new 
platforms and targeting the audience that we want. This cannot, 
of course, replace people-to-people diplomacy. That is 
indispensable. But, social media is a gigantic force 
multiplier.
    We are, of course, the entrepreneurial Nation. And that 
expertise is one of our most valuable exports. If confirmed, I 
will scale up programs that support innovation so that we can 
connect small businessmen--small businesswomen in Sopala with 
American business leaders here, so that others like her can 
succeed in the global economy.
    If confirmed, I will also be a champion of educational 
diplomacy. Education is one of our greatest strategic assets. 
Our institutions, where more than 700,000 foreign students 
come, are incubators of democracy. And their learning of the 
English language is critical, because that is the language of 
innovation and entrepreneurship. America is also the leader in 
technologies that are revolutionizing the way people learn. 
And, if confirmed, I will employ these strategic assets to 
tailor educational exchanges to the 21st century.
    And finally, combating violent extremism is vital to our 
national security. It is critical to make sure that we provide 
people, particularly youth in at-risk environments, with 
alternatives to misguided ideological justifications for 
violence. One successful example of this, which Mr. Chairman 
you mentioned, is the Center for Strategic Counterterrorism 
Communications, which actively refutes terrorist messages on 
social platforms in real time. This is something that is 
incredibly innovative that I think needs to be built up. And as 
the say at CSCC, ``We must contest the space.''
    Finally, I want to salute the men and women working in 
Public Diplomacy and Public Affairs around the world, including 
our exceptional American and local employees who are--they are 
risking their lives for America. They advance our national 
interests, often at great risk. It is my honor and privilege to 
offer my experience and leadership to support their dedicated 
service to the United States and the American people.
    Thank you for giving me the opportunity to speak today.
    [The prepared statement of Mr. Stengel follows:]

                 Prepared Statement of Richard Stengel

    Chairman Menendez, Ranking Member Corker, all the members of this 
committee, I want to thank you for this opportunity to appear before 
you. I am honored to be here today and humbled by the trust placed in 
me by President Obama and Secretary Kerry. I am very glad to have this 
opportunity to talk to you about the importance of public diplomacy.
    My wife, Mary Pfaff Stengel, is here with me today--she is a South 
African by birth and became an American citizen almost a decade ago 
when I was CEO of the National Constitution Center in Philadelphia. And 
I am very proud to have my two sons, Gabriel and Anton, here today as 
well.
    There is one person whose absence today I deeply regret. My father, 
who passed away earlier this summer, was an immigrant's son from 
Brooklyn who became an American patriot through his service in the Air 
Force during World War II. His fondest wish was that I would go into 
public service. He did not think there was a nobler occupation.
    If confirmed, while I will be new to government, I have engaged in 
a form of public diplomacy for much of my career. As the editor of TIME 
for the past 7 years, it was my job to help explain America to the 
world--and the world to America. And it was not a romanticized America, 
but the real America, a nation with outsized virtues and challenges. We 
did that to an audience of more than 50 million on an array of 
platforms--Twitter, Facebook, Instagram, Google Plus, Tumblr, even 
paper. When I was there we grew our digital footprint from under a 
million to more than 30 million unique users online and 12 million 
followers on social media.
    Before that, as the head of the National Constitution Center in 
Philadelphia, it was my job to reaffirm the centrality and the 
importance of the Constitution to all Americans and to visitors from 
around the world.
    And a decade before that, I had the great privilege to work with 
Nelson Mandela during a fraught period in South African history. A new 
constitution was being haggled over, and Mr. Mandela was presiding over 
the negotiations. One morning when we were out walking, he asked me to 
define federalism. Here was one of the great men of the 20th century 
creating a constitution that would bring freedom to his people, asking 
about a principle designed by American revolutionaries over 200 years 
before on a different continent. That Constitution is the greatest 
operating system for democracy that the world has ever known. It is 
also--in a thousand different ways--our greatest export.
    I believe that it is our very openness as a country--openness 
guaranteed by the first amendment--that wins over people around the 
world. We are a nation founded not on a common religion or a common 
blood or ethnicity, but on an uncommon set of ideas: that all people 
are created equal and that we all have certain unalienable rights. But 
we cannot simply cherish those rights, we must promote them. That's 
where public diplomacy comes in. Public diplomacy is in our DNA as a 
nation. In the Declaration of Independence, the men who risked their 
lives, their fortunes, and their sacred honor said they were doing so 
with ``a decent respect to the opinions of mankind.'' Thus was born 
American public diplomacy.
    Every day all over the world, there is a great global debate going 
on. It is about the nature of freedom and fairness, democracy and 
justice. It is happening in all the traditional ways, in coffee shops 
and on street corners, but it is also taking place on the new platforms 
of social media. As a result, the reach, the scale, the speed of that 
debate are like nothing before in history. I have been in that debate 
all of my life. America has to be in that debate. We need to guide it, 
steer it. We need to lead it. And we cannot rest on our laurels.
    Every minute, there are attacks and misstatements about America and 
American foreign policy that cannot be left to stand. Social media is a 
tool that can be used for good or ill. It is a powerful medium for 
truth, but it is an equally powerful medium for falsehood. My Senator 
from long ago, the great Pat Moynihan, used to say, ``You're entitled 
to your own opinions, not your own facts.'' Well, today, more and more, 
people feel entitled to their own facts. They choose the facts that 
conform with their point of view. Even though it is easier than anytime 
in human history to find information to rebut lies, less of that seems 
to be happening. But we cannot resign ourselves to this; we need to 
fight it. That is public diplomacy in the 21st century.
    And while the means have changed, the rationale for public 
diplomacy has not. Old style modern communication was a one-way 
street--newspapers, radio, television. Because of new technology, this 
narrative is now a two-way street. It is a dialogue not a monologue. It 
is no longer governments talking to governments. Everyone with a smart 
phone has a voice and a vote in this global marketplace. Social media 
is allowing us to build relationships with people around the world, 
even in the most remote corners. We can and must continue to reach 
individuals one by one through person-to-person engagement--nothing 
equals that--but we can reach exponentially more through the new 
techniques of social media.
    That is why I would argue that much of diplomacy today is public 
diplomacy. For reasons both good and bad, the private salons of 
diplomacy are less central now than in the past. So much is already 
public--and what is not, surely will be. If our policies and ideas are 
to succeed, we need the support of the public both at home and abroad.
    It was Henry Luce, the founder of TIME, who called the 20th century 
the American century. The 21st century should also be an American 
century, but not necessarily in the same way as the 20th. The rise of 
new powers, the youth bulge, the ubiquity of technology that makes the 
world even smaller and flatter, all point to a different but no less 
important American role in the 21st century. Our values do not change, 
but how we project those values needs to adapt to a new and different 
era.
    If I am confirmed, I will focus on a number of issues that I think 
are vital to America's future and our national interests.

  <bullet> Sixty percent of the world's population is under the age of 
        30. The number is even higher in the developing world. 
        Strengthening relationships with emerging leaders and ensuring 
        young people have the skills needed to become productive are of 
        vital interest to the United States. If confirmed, I will 
        advance public diplomacy's focus on youth, especially youth in 
        underserved communities and girls. We must build and deepen 
        relationships with new generations so they see our Nation and 
        people as allies and models.
  <bullet> The media landscape is more crowded and competitive than 
        ever before. No one has to explain that to me. Digital is 
        becoming dominant. Yes, print and radio are still the media of 
        choice in many parts of the world, but we must align our 
        resources toward new platforms that our target audience is 
        using. Social media is a transformational tool that has changed 
        the nature of communication. Working with my colleagues at the 
        State Department, if confirmed, I will identify and implement 
        best uses and best practices of social media and mobile 
        technology. A young girl in sub-Saharan Africa holding a smart 
        phone, for example, can have whole libraries at her fingertips; 
        shouldn't she get a text from us helping to teach her how to 
        start a business? We should also be reaching out to the young 
        man in Sao Paulo who wishes to build a new future through 
        educational opportunity online. We can transform lives by 
        leveraging social media and technological tools.
  <bullet> We are the entrepreneurial nation. Our entrepreneurial 
        expertise is one of our most valuable exports. If confirmed, I 
        intend to scale up programs that support innovation and connect 
        successful American business leaders with aspiring 
        entrepreneurs in other countries. We should support the efforts 
        of a small businesswoman in Jakarta to attain the language and 
        skills to help her succeed in a global business environment. 
        This not only promotes economic opportunity and highlights the 
        American model of doing business, but also strengthens the 
        rights of disadvantaged groups.
  <bullet> If confirmed, I will be a champion of educational diplomacy. 
        Education is one of our great strategic assets. The hunger for 
        an American degree is vast. More than 700,000 foreign students 
        study in America, contributing more than $22 billion annually 
        to our economy. Our educational institutions are the 
        laboratories of democracy for students from around the world. 
        In many ways, English is the language of democracy and English 
        skills are critical to success in the 21st century. If 
        confirmed, I will strengthen our support for English training 
        around the world. America is also the leader in technologies 
        that are revolutionizing the way people learn. I intend to 
        employ these strategic assets--English language instruction, 
        our higher education system and innovative education 
        technology--to tailor educational exchanges to the 21st 
        century.
  <bullet> One of my goals, if confirmed, will be to expand public 
        diplomacy's worldwide efforts to combat violent extremism. It 
        is vital to our national security that we provide people, 
        particularly young people in at-risk environments, with 
        alternatives to the misguided ideological justifications for 
        using violence. One successful example of this is the Center 
        for Strategic Counterterrorism Communications (CSCC), which 
        actively refutes terrorist messages across cyberspace. 
        Innovative public diplomacy programs designed to counter 
        violent extremism in Pakistan and Afghanistan have been 
        credited with saving American lives. We must confront 
        distortion with reality; we must rebut lies with truth. As the 
        CSCC says, we must contest the space. We must continue to 
        support and advance this vital public diplomacy work.

    Finally, I want to salute the men and women working in public 
diplomacy and public affairs around the world who are advancing our 
national interests. That includes our exceptional American and local 
employees working to engage foreign publics overseas, often at great 
personal risk, as well as our Washington-based staff. They are the 
inheritors of more than two centuries of American public diplomacy. It 
is my great honor and privilege to offer my experience and leadership 
to support and advance the tremendous work of so many dedicated people 
in service to the United States and the American people.
    Thank you for giving me the opportunity to speak with you today.

    The Chairman. Well, thank you both for your testimony.
    The committee is going to stand in recess so that members 
can vote. And we will return immediately after those votes to 
get into a dialogue with you.
    For the moment, the committee stands in recess.

[Recess.]

    The Chairman. This hearing will come to order.
    And our apologies to the two nominees. There was more than 
one vote, so it took a little extra time.
    And just--Senator Schumer caught me on the floor and said 
he regretted that he could not make it because he was tied up 
on the floor on the legislation we are appending on and he is 
about to start a caucus meeting. So his full statement will be 
included in the record on behalf of Mr. Stengel's nomination.
    [The prepared statement of Senator Schumer follows:]

  Prepared Statement of Senator Charles E. Schumer in Support of the 
                     Nomination of Richard Stengel

    Thank you Mr. Chairman. It is my great privilege to introduce Mr. 
Richard Stengel, President Barack Obama's nominee to be the next Under 
Secretary of State for Public Diplomacy and Public Affairs.
    I am pleased to say that Rick is a proud New Yorker, born and 
raised in New York City.
    Mr. Stengel's long and distinguished career as a journalist, 
editor, and author makes him eminently qualified to be Under Secretary 
for Public Diplomacy and Public Affairs.
    He has covered critical foreign policy issues for three decades for 
one of the most important magazines in the world. He has interviewed 
some of recent history's most renowned figures at key moments including 
Russian President Vladimir Putin, British Prime Minister Tony Blair, 
and Israeli Prime Minister Benjamin Netanyahu.
    As Under Secretary for Public Diplomacy and Public Affairs, he will 
be responsible for leading ``America's public diplomacy outreach, 
cultural programming, communication with international audiences, and 
U.S. Government efforts to confront ideological support for 
terrorism.''
    Most importantly, by transitioning from the world of journalism and 
media to that of diplomacy and public service, we can now say, that 
Rick is finally ``walking the walk'' instead of just ``talking the 
talk.''
    But in all seriousness, Rick has always been a public diplomat. I 
believe that Rick's extensive global relationships and experience 
covering global issues at an up close and personal level make him the 
best person for the job. He will excel in his role as a representative 
of American culture and commitment to service and excellence abroad.
    Rick is first and foremost, a proud New Yorker. He grew up in New 
York City before attending Princeton University. Upon graduation, he 
won a prized Rhodes Scholarship and studied English and History at 
Oxford University.
    Stengel began working for Time magazine more than three decades ago 
as a contributor, including in the 1980s and 90s providing extensive 
coverage of South Africa during the apartheid-era and developing a 
close relationship with former South African President Nelson Mandela. 
He worked his way up the ladder and proved himself to be a stellar 
journalist and writer.
    Rick collaborated with Nelson Mandela on his autobiography, Long 
Walk to Freedom. He even served as a coproducer of the 1996 documentary 
film ``Mandela,'' which was nominated for an Academy Award.
    In 2004, Rick left his position as National Editor at Time and 
became president and CEO of the National Constitution Center in 
Philadelphia. The National Constitution Center is the first and only 
nonprofit museum and education center dedicated to the founding 
document of American values and law: The U.S. Constitution. I believe 
this experience will also serve him very well as our Under Secretary.
    As CEO, Rick raised the center's profile substantially, increased 
the center's endowment, and consistently increased the number of 
visitors. He also started a program to offer constitutional training 
for journalists, and a high school for students interested in history 
and government. Under his tenure, the organization became responsible 
for annually awarding the Liberty Medal for leadership in the pursuit 
of freedom.
    In 2006, Rick returned to Time magazine but as managing editor. In 
this role, Rick oversaw Time magazine, which has one of the largest 
circulations in the world, Time.com, and other publications.
    I would also like to highlight Rick's role in driving a very 
important conversation in American life on the case for national 
service. Rick wrote a very eloquent Time cover story called ``The Case 
for National Service'' in which he argued that Americans needed to 
redouble their efforts to get involved in community service and 
volunteerism. His piece sparked a debate between both Presidential 
candidates in the 2008 election, where then candidates Senators Barack 
Obama and John McCain answered questions from a live audience on their 
plans for national service.
    I believe Rick's understanding of American values and of such 
diverse perspectives of American life and the issues affecting our 
country will prepare him well to communicate with audiences around the 
world about the role of the United States in foreign countries around 
the globe.
    Rick is a highly gifted communicator that gets the issues, and has 
had an opportunity that very few have had to meet with global leaders 
at the highest stage to discuss important matters regarding national 
security, diplomacy, culture, constitutional values, and the role of 
the United States.
    I wholeheartedly support Mr. Stengel's nomination to be the next 
Under Secretary of State for Public Diplomacy and Public Affairs, and I 
urge my colleagues to support his nomination as well.
    Thank you Mr. Chairman.

    The Chairman. OK. So, let me start with you, Dr. Sewall. 
This is a-- your portfolio is very large, as I said in my 
opening, and it is also very important. And there are a series 
of things that I want to explore with you.
    First of all, democracy promotion. I sometimes wonder 
whether we pick and choose how we promote democracy in the 
world, depending upon the place that it is. And I am not quite 
sure that is the right policy, at the end of the day. If we 
ought to be a beacon of light to the rest of the world, as I 
believe we are, then having certain universal standards of 
democracy and human rights I think are critical. And yet, there 
are times where I get the sense that somehow we have a very 
different view of promoting democracy in certain parts of the 
world and we are very vigorous in others.
    So, can you give me some general thinking in that regard, 
since this is one of the critical elements that you will be 
doing in your position, if confirmed?
    Dr. Sewall. Thank you, Senator.
    It is an interesting observation because I think there is a 
distinction between goals of promoting democracy equally and 
the tools that we use to do them. And one of the things that is 
such a challenge and an opportunity for the ``J'' Enterprise 
and a challenge, I would relish, if confirmed as Under 
Secretary, is trying to find more innovative ways to promote 
democracy when our standard tools appear to be either less 
effective or harder to apply.
    So, in my view, we cannot--the United States must always 
promote its values and democracy is foremost among them, it is 
who we are. And I recognize that in the interagency process 
there will always be vigorous debate about when and how to do 
that. My role, if confirmed as Under Secretary, will be to 
promote--to always do it and where it is hardest to do it, to 
find alternative ways to do it.
    And I think that is one of the reasons why it is so 
important that they have reorganized the Under Secretariat so 
that a broad range of programming is united within the same 
span, so that you are not limited simply to words or simply to 
limited tools. But, your--you range across from security sector 
reform--all the way from democracies to security sector reform. 
You are thinking about counterterrorism and the interests that 
it raises in the context of promoting good governance and 
accountability and countering corruption.
    And so, my hope is that, if confirmed as Under Secretary, I 
will be able to take a more nimble and creative approach to 
always promoting democracy, even if the ways in which we do it 
sometimes need to be adjusted depending on the circumstances. 
But, I agree with you fully, sir, that the commitment itself 
needs to be universal. It is, of course, what we say to the 
world: that we are committed to universal human rights, that we 
are committed to governance for all, that democracy is what we 
stand for. And so, I think it is essential. And I think it is 
the role of the Under Secretary to be promoting that view 
internally.
    The Chairman. Well, I appreciate that. Because, in certain 
parts, I sometimes think we have double standards. In Burma we 
actively engage to create the space, the pressure, the 
international recognition before its efforts to be able to 
create change. So, peaceful efforts, but nonetheless to create 
change. In Cuba we have this romanticism and we seem to--the 
very same types of people, the same types of individuals 
struggling to create democracy and human rights in their own 
country in civil society. And yet, they languish in virtual 
anonymity.
    And so, I hope that in your process and confirmation here, 
that we will see an application of a democracy that is more 
evenly and vigorously promoted. Because I believe that freedom 
and civil and human rights in Burma are incredibly important, 
they are also incredibly important in places like Cuba. And 
that has not been our reality. And so, I hope that your 
application of the effort in promotion of democracy will be 
global in nature, at the end of the day. Otherwise, when we 
pick and choose, it seems to me that then we diminish our 
capacity and our standing in the world to be able to promote 
them.
    Let me ask you about--among your many portfolios, is going 
to be the area of war crimes. The Under Secretary for Civilian 
Security oversees the Office of Global Criminal Justice, which 
is formerly the Office of War Crimes Issues. From my 
perspective, in Syria, Assad clearly has committed and 
continues to commit war crimes. And while I applaud--and this 
committee was, I think a big part of making it possible for the 
President to be in a position to defang Assad's chemical 
weapons, it does not undermine that he is indiscriminately 
killing his own people in ways that I think are tantamount to 
the war crime.
    How have you been engaged in your preparation with the 
State Department on how the State Department is working with 
its Syrian partners now and in exile as well as in country to 
document, verify and collect data to develop a case against 
Assad? If you have, I would like to hear what those 
observations are. If you have not, then what do you think 
should be the process and that you would engage in, in that 
regard?
    Dr. Sewall. Thank you for that question.
    Absolutely, there needs to be accountability in Syria for 
the crimes that have been committed and continue to be 
committed. In the process preparing for this hearing, I have 
been impressed by the leadership within DRL in using American 
funding to create the mechanisms to be collecting all of the 
documentation and data that we would need to be prosecuting 
atrocities and crimes, when we are ultimately able to do so.
    I think that the American support for justice and 
accountability is one of the more important ways in which we 
can help the Syrian people, in the long run, build a very 
different future than the one they are experiencing now. And I 
look forward to the time when we are able to do that. I think 
it is another example of the ways in which creative 
programming, support from the United States and others to 
promote a Syrian-led effort to bring to justice those that have 
committed criminal activity is both an important opportunity 
and an example for others. And, if I am confirmed, I will 
closely monitor that process.
    Because, as you may know Senator, international justice has 
been a longstanding concern of mine. I have written about it 
quite extensively. I think that ending impunity for gross 
violations of human rights is absolutely critical. And I am 
firmly committed to taking that on, if confirmed.
    The Chairman. Well, I believe it is absolutely critical as 
well. I know that there are those who are concerned that 
raising these issues might not lead to a Geneva II Conference. 
I believe not raising those issues undermines our credibility 
and our standing in the world and the ability to send a global 
message that, when you act with impunity and commit war crimes, 
that you will face a global consequence for it. And so, I am 
glad to hear your response to that.
    I have a whole bunch of other questions. But, in deference 
to Senator Rubio, who is here, I am going to turn to him. And 
then I will come back to both you and Mr. Stengel.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you both for your offer to serve our country.
    Dr. Sewal, modern-day slavery is real. Many people think 
slavery is a relic of the past, and they are shocked to learn 
it is still going on in the world. One of the powerful tools 
that we have the Trafficking in Persons Report. Last year we 
elevated two pretty powerful countries, China and Russia, to 
Tier 3 for their failure to make efforts to combat human 
trafficking and modern-day slavery.
    The debate, of course, is that they get waivers from the 
sanctions that are supposed to come associated with that. And 
there is a debate about that. And we can continue to have the 
debate about whether those waivers are wise or not. But, I 
wonder if you could take a moment just to speak about the power 
of the shaming that comes with that designation and the impact 
that it has on countries that are designated in that way. Does 
it still matter to people? Does it still matter to countries? 
Even if they may not show it publically, does it still matter 
to them when they are shamed in this way, as countries that 
continue to be havens for trafficking and ultimately for 
modern-day slavery?
    Dr. Sewall. Thank you for the question, Senator.
    I agree with you completely about the importance of this 
issue. It is shocking and it is a global phenomenon and we are 
not immune from it, here in this great country. My 
understanding, from the briefings that I have had to date, is 
that the shaming in fact matters very much. And I think we 
would not have the keen interest that we do have in the annual 
list and in the movement of countries among those lists, if it 
did not matter.
    So, I would like to thank you and the Members of Congress 
who have created this tool because I think it is powerful. And, 
if I am confirmed as Under Secretary, I will look forward to 
leveraging it as best I can to address this global crime.
    Senator Rubio. Another issue that I think we should be 
concerned about and I know we are in our human rights agenda is 
the issue of religious freedom. Religious persecution is on the 
rise in many parts of the world. The International Religious 
Freedom Office produces every year a similar concept to that of 
the Trafficking in Persons Report, a designation of countries 
of particular concern. This administration only issued these 
designations once in its first term, back in October of 2011.
    Would you be supportive of an effort to make that 
designation an annual occurrence, as we do with other issues, 
given that--I would imagine that the shaming effect of that 
would be similar to that of Trafficking in Persons?
    Dr. Sewall. I think that one of the more interesting 
opportunities I am going to have in coming new to this role is 
looking at all of the different ways in which we do reporting 
on different forms of rights abuse and trying to think about 
how to leverage each as best we can. My understanding is that 
the reviews are done annually. And my general view, sir, about 
how we do these reviews is to look at the facts and make the 
recommendation based on the facts. And so, I cannot speak to 
decisions that have been made in the past. I can give you my 
commitment that I will undertake to use all of the tools that 
we have.
    Senator Rubio. Just the reviews are, but the designations 
are not. And let me tell you why that is relevant. The other 
part of it, of course, is that these sanctions that correspond 
to the designation expire after 2 years. So, would you be 
supportive of the idea that the sanctions actually remain in 
place for countries of particular concern for as long as the 
designation is in place? I mean, what is the wisdom in allowing 
them to expire if they have not taken any steps to be removed 
from that list?
    Dr. Sewall. I think it is a good question and I will have 
to look into it. I certainly share your desires to make the 
sanctions as effective as possible in support of the goals and 
the intent. And so, I will take a close look at that, if I am 
confirmed.
    Senator Rubio. OK. Thank you.
    Mr. Stengel, welcome. And congratulations or condolences, 
whichever is appropriate depending on how you view it. But, 
thank you for your offer to serve our country as well. You have 
an interesting task ahead of you, if confirmed.
    I believe, as I hope you do and I have no reason to think 
you do not, that the American example is one of the most 
powerful contributions that our Nation has made to the world. I 
know for a fact that people look at what happens in this 
country as a source of inspiration when they pursue their own 
freedoms, their own liberties, and their own expectations of 
what is possible. I mean, so many people in the world have been 
told their whole lives that people like you cannot rise because 
you do not come from the right family or the right religion or 
the right sector of society. They look to America as an example 
of why that is not true.
    One of the challenges that I have found is that, because we 
have such a vibrant political system, our debates and the chaos 
that sometimes ensues around them, people look at that as a 
sign of weakness. Let me give you an example.
    Yesterday I had filed, along with many of my colleagues, a 
brief before the Supreme Court--and amicus brief on the issue 
of legislative prayer. So, as I arrived at the courthouse 
steps, basically every viewpoint in America on that issue was 
represented outside, people holding signs. You know, there were 
the atheists were there. There were the--obviously those who 
believe strongly in prayer. Others who just had constitutional 
reasons for being there. Viewing that scene alone you would 
say, ``Boy, this is a chaotic country. How do these people 
share, they are so divided.'' But, in fact, in many ways that 
is the source of our strength because whatever the court rules 
on that issue, people may disagree, they may disagree very 
strongly, but at the end of the day people are going to abide 
by it.
    Again, another example of that, which I lived firsthand, 
was the recount in Florida in 2000, which was obviously a very 
close election and to this day we still have debates about how 
that should have turned out. But, at the end of the day, there 
was no question that, no matter what the court ruled or 
decided, that is what was going to happen.
    How do we go to the world and say: when you see these 
things happening in our society, when you see these arguments 
and these debates, and all these things going on it is actually 
a source of strength, not a source of weakness? That we are 
able to have a society of such divergent views, but at the end 
of the day, whatever the outcome may be people may keep 
fighting to change them, but there is no question that they 
will abide by them. For example, that President Clinton was not 
going to roll out the troops and cancel the elections results, 
in 2000 when Vice President Gore lost. These things are sources 
of strength for our country.
    How do we make that argument to a world that is desperately 
seeking security and order. But sometimes in a truly democratic 
process you have to have the space for that--the chaos that 
comes with debate, so long as that commitment to the rule of 
law is there. Is that a key component of our Public Diplomacy 
abroad? To explain to foreign peoples how the American concept 
works here, in an effort to inspire them to pursue a similar 
space in their own country?
    Mr. Stengel. Thank you, Senator, for that question.
    And I share your passion for the debate and the breadth of 
that debate in America. Open societies encourage debate. And 
one of the things that I have been proudest of, in my career as 
a journalist, is to show the breadth of that debate. And, if 
confirmed in this job, I would like to be able to show people 
around the world that it is a strength of America that we have 
this diversity of opinion, that we can tolerate it. I think one 
of the things that is appealing to people around the world and 
why we are a beacon is that that debate is an example of free 
expression and not only tolerance for the views that we like, 
but tolerance for the views that we do not like. And that is 
part of the golden thread that is woven through the 
Constitution and American life. And I think it is appealing on 
its own to people around the world. And, if confirmed, I will 
work on even better ways to promote that.
    Senator Rubio. Can I just take 10 seconds?
    I have one more question, which you alluded to in your 
opening statement. I have been impressed on how many people 
have a much clearer understanding of what this country is 
really like and what our freedoms entail, because they went to 
school here, they studied here, they lived here for a period of 
time.
    I think you alluded to the fact that that is the kinds of 
things that we should be encouraging more of in the future, the 
opportunity for people to come here from abroad. Not just to 
acquire the skills that will allow them to go back to their 
country of origin--obviously there is some very talented people 
we would like to see stay here, hence our efforts on 
immigration reform. But, beyond that, there are folks that are 
going to return to their home country and potentially become 
the future leaders of those societies.
    What can we do, from a public policy perspective to 
encourage more of that, to the extent it is cost effective and 
feasible?
    Mr. Stengel. Thank you, Senator.
    Our higher educational system and the educational 
exchanges, which Education and Cultural Affairs sponsors, is 
something that is vital and powerful. And its effect is 
incalculable. I mean, if you look at not just the 700,000 
students who are here, but if you look through the history of 
the Fulbright Scholarships; the number of Nobel laureates; the 
number of, for example, just in the recent elections in 
Pakistan, 27 local and national leaders elected in those 
elections had studied here. I agree with you. I think that 
makes them more sympathetic to the American point of view. That 
makes them understand us better.
    I was overjoyed to see the story several months ago, when 
Xi Jinping, the new President of China, came over to see 
President Obama in California. And he asked to stop at a little 
town in Iowa where he had been--visited as a leader on one of 
the leader exchange programs, to have dinner with that family 
in Iowa that he stayed with many years before, when he was a 
young man. I think the value of that is extraordinary.
    And again, I am a big believer in educational diplomacy. 
And I will try to increase the number of exchanges because I 
think that the long-term benefit of that is something that we 
all want.
    Senator Rubio. Thank you.
    The Chairman. Thank you.
    One of the areas where your portfolio will take you is 
refugees. And having visited Jordan earlier this year I think 
the third-largest city in Jordan is now Syrian, the Syrian 
refugee camp, which creates enormous challenges for the 
Government of Jordan, the Kingdom, as well as other countries 
in the region. And, while we have been leading in providing 
humanitarian assistance, you know, it is unlikely that those 
refugees are going to return home any time soon.
    So, I would like to ask you, what do we do in making sure 
that our humanitarian aid is linked to longer term development 
as an effort? Because it seems very shortsighted in one 
respect. There is an immediate need. But, by the same token, we 
do not think about the longer term consequence. What would you 
say to that?
    Dr. Sewall. It is an excellent point, Senator. And it is 
one of the first questions that I asked when I began talking 
with people at the State Department. Because I see a real--
obviously, we all wish, given the tragedy in Syria, that it 
were possible for the refugees to return home as soon as 
possible.
    But, I agree with you. We cannot afford to wait and not 
address their current plight in ways that have longer term 
implications. And so, I think there are enormous opportunities 
to use our refugee assistance outside of the country, where we 
have a population that is interested in envisioning a future. 
Use our support there to think more broadly than simply 
immediate relief. But to think instead of livelihoods, work, to 
think of developing ways to support internal governance 
structures, to build a set of skills and habits and 
expectations that we hope very much can return with them to 
Syria after the crisis is over.
    I was interested to learn about some thinking that has been 
going on within INL and programming that is now underway to 
promote a new approach to enhancing the role of community 
members in working with the Jordanian police and the refugee 
camps to protect rights and promote security. That has an 
immediate benefit, obviously. But it has longer term 
implications too, in terms of training people, in terms of 
creating expectations about security, and in terms of 
potentially building infrastructure that would be useful in a 
national capacity later. And so, that is very exciting to me. 
And I think that is exactly the direction that we need to be 
heading. And I would welcome the opportunity to work with you 
on doing more innovative programming like that to assist these 
people in desperate need.
    The Chairman. You have a certain expertise and I want to 
call upon it in terms of the Atrocity Prevention Board. Some 
have suggested that has been a failure. What would you respond 
to the critics who suggest that has been ineffective in 
stemming tragedies in Syria, the violence in Burma, or conflict 
in the Central African Republic? More than a critique of it, 
what would you say or would you propose that would increase its 
effectiveness? Do you have any ideas in that regard?
    Dr. Sewall. I do, Senator. And thank you for the question.
    I do think that much of the disappointment that I have 
sometimes heard from the Atrocities Prevention Board to date 
stems from perhaps a different set of expectations about its 
role. And I think about it in two different ways.
    First, its role in helping create a mindset within the 
bureaucratic infrastructure--and by that I mean the people who 
are our eyes and ears on the ground, the intelligence 
community--that is attuned to the risk of mass atrocity and the 
risk of mass atrocity developing into full-blown genocide and 
violence. And so, there is value, I think, in what I am told 
are the efforts that are underway within the system to elevate 
awareness and create a greater sense of responsibility for 
taking action.
    The second piece of that--and this is perhaps more germane 
to your question--is that I believe the Atrocities Prevention 
Board's added value is in studying and focusing attention on 
areas in which there is violence but before it becomes a level 
of national concern, such as Syria. Obviously Syria is the most 
important foreign policy priority of crisis management today. 
And the interagency process, as a whole, is seized with it. The 
APB, in my judgment, no longer needs to play a role in 
elevating its attention. The APB, I think, can add the most 
value where it looks at the incipient crises and seeks to 
elevate the awareness and the resources and the programmatic 
response in areas where we can make a difference, where it is 
still below the radar of a full-blown crisis that's occupying 
the attention of the principals.
    And so, for my role, if confirmed as Under Secretary, I 
think that that early warning capacity within the APB offers an 
enormous potential to focus the resources and the efforts 
across the entire ``J'' Enterprise. And it is my hope that we 
will able to think more creatively. And we may need to come to 
the committee and engage in a more consultative process about 
responding earlier with more fulsome programming in areas where 
we see opportunities to avert crises in----
    The Chairman. Well, I would be very much interested in 
engaging with you on that because it seems to me that our goal 
should be to prevent not to elevate. We elevate because--out of 
the necessity of what is both our national interests and our 
national security. But, when we get to that point we have 
already to some degree, I want to say, failed because we cannot 
always engage and/or prevent every conflict that ultimately 
rises to a level, as it has in Syria, for example. But I think 
that very often we are shortsighted about delegating the 
resources and the effort before it becomes that elevated 
stature. And I hope that that is one of the things you will pay 
attention to, when you are confirmed.
    Dr. Sewall. Absolutely. I would be delighted to----
    The Chairman. Two other----
    Dr. Sewal [continuing]. Work with you----
    The Chairman. I mean, I have a whole bunch but I will--your 
portfolio's so wide. But--so, two others.
    One is I see markets around the world expanding rapidly and 
as such labor forces migrate there to meet those demands. And I 
would like to hear, in your capacity, how you intend to oversee 
in the Office to Monitor and Combat Trafficking in Persons, 
particularly to engage foreign governments and corporations to 
eliminate trafficking in their supply chain.
    Dr. Sewall. Thank you for the question.
    I am very excited about the possibility, not simply for the 
moral reasons that we were discussing earlier, but because one 
of the hard security elements of the scourge of trafficking is 
that it is often intertwined with other nefarious practices and 
actors that we wish to combat.
    And so, as I look across the spectrum of bureaus that are 
active and offices that are active within the Under Secretariat 
I see great synergies to be developed between our efforts to 
combat trafficking and our efforts to combat other problems, 
whether they are generalized criminal behavior, whether they 
are violent extremist's exploitation of persons. There are a 
host of ways in which the Trafficking in Persons element, which 
has highlighted a problem that we, frankly, did not seem to be 
paying significant attention to is not leading the way, in 
terms of guiding our efforts to unpack problems that have 
implications in other areas of the ``J'' Enterprise.
    So, I hope to learn more about what has been successful 
within the Trafficking in Persons' practices and help ensure 
that some of those lessons are migrated to other elements of 
the work that will be under my span of supervision. And to 
continue to help us understand that these problems are all 
interrelated, and so our solutions need to be thinking beyond 
simply the response to trafficking but also the prevention of 
trafficking, which is related to other elements of the ``J'' 
programming. So, I see it as an enormous challenge, one in 
which some of what we have learned in trafficking can apply to 
other areas of ``J.'' And there are also other elements of 
``J'' that can better support our antitrafficking efforts, even 
if they are not called precisely that.
    The Chairman. And then finally, only because time--we could 
talk about Tibet, China, religious freedom, and a whole host of 
other things. But, and I may submit some questions for the 
record. We had a brief discussion in those regards.
    One of the critical things I hope that you will look at is 
many of the ``J'' Bureaus--whether it be Population Refugees, 
Migration, Bureau of Conflict Stabilization, Bureau of 
Democracy, Human Rights and Labor--are working in the same--on 
issues and with resources in countries in which also USAID is 
working on some of those issues. And, at a time, as we were 
discussing with Ms. Higginbottom, the challenges of maximizing 
our resources, of having a greater coordination I hope will be 
one of the efforts that you will bring to your job.
    Dr. Sewall. Yes, it absolutely will be.
    The Chairman. All right.
    Mr. Stengel, I do not want you to feel left out here. You 
have a very important role here. Let me ask you a couple of 
things.
    One is structural in nature because I think a lot about 
whether the good intended consequences for different positions 
we have in the State Department can be achieved if the 
structure does not allow them to achieve it. And there are 
those who have been critics of the structure of U.S. Public 
Diplomacy who have argued that the Under Secretary's role is 
not strong enough, from a bureaucratic standpoint within the 
Department, citing lack of authority to direct most Public 
Diplomacy resources, personnel, activities abroad.
    With most Public Diplomacy officers working in regional 
bureaus or diplomatic posts abroad, outside of the Under 
Secretary's organization, what is your understanding of the 
role of the Under Secretary in directing U.S. Public Diplomacy 
efforts worldwide? I am sure you had an engagement with the 
Secretary and the administration in talking about accepting 
this role. How do you see being able to achieve the very goals 
that you so admirably stated in your statement and response to 
some of the questions here?
    Mr. Stengel. Senator, thank you for that question.
    And, as you know, the Secretary and the President are 
strong believers in the idea of Public Diplomacy and global 
engagement. And I think they each have notions about how to do 
it even better. Insofar as I have been briefed on the Public 
Diplomacy aspect of my job in brief, the Public Diplomacy 
officers who serve around the world, again at great risk often 
to themselves, have a whole set of tools at their behest that 
they can use to promote America and America's image abroad and 
programs. The educational programs, there are visitors' 
programs, there are more than 700 American spaces around the 
world that have 16 or 17 million visitors where people engage 
with American ideas and things like that.
    So, I think there are a lot of possibilities. And the 
reality of what Public Diplomacy officers do I think is great. 
Certainly, if confirmed, I will look at whether there are other 
things that might be done to enhance American Public Diplomacy. 
I would never, by the way, refuse an offer of having more 
authority. But, thus far it feels like the amount of authority 
that I have over the Public Diplomacy officers and programs 
seems adequate.
    The Chairman. OK. Well, I am--the alignment here, between 
your position and the ability to have those, you know, globally 
be able to pursue the Public Diplomacy that you envision, that 
the Secretary and the President put faith in you in this 
position on does not seem for me to be there. And so, we would 
love, once you get in the job, to talk about that as a 
structural element to ensure that we maximize the ability of 
the Public Diplomacy that you can bring to the Department's 
efforts to have a multiplier effect in a more powerful way.
    In that regard, one of the things you are going to be as 
the Under Secretary of Public Diplomacy is the Secretary's 
designate to the Board of--Broadcasting Board of Governors. The 
entity over--charged with overseeing U.S.- international 
civilian broadcasting. Do you have any thoughts on that? Have 
you thought about that element of the role that you are going 
to be playing? And how do we create a greater integration 
between the State Department and the BBG?
    Mr. Stengel. Yes, Senator, I have thought about it. And I 
know you have thought a great deal about it as well. I would 
indeed be the Secretary's designate on the BBG Board, if 
confirmed.
    The work that they do I think is vital to American foreign 
policy. There is of course the firewall between the independent 
journalism that is done by VOA and other organizations. And I 
would never say that there is too much independent journalism 
in the world. I think that is important. At the same time, I 
think there are opportunities for the State Department to work 
more closely with BBG. There have been examples recently. For 
example, with a BBG program in Mali that the State Department 
worked with, where we collaborated. So, I know the structure 
has changed a lot. And certainly, if confirmed and I am a 
member of that board, I will look at that closely and try to 
make it as effective and as efficient as possible.
    The Chairman. One of the goals I seek to see in our Public 
Diplomacy is the greatest integration in order to have the 
greatest effect. And that is where I think we lack, which 
brings me to my final question.
    The Bureau of International Information Programs has 
undergone reorganization is recent years. In order to modernize 
communication strategies and use of social media and new 
information technologies, which you referred to in your opening 
statement in terms of using those new technologies. However, a 
May 2013 inspector general inspection of the Bureau found that 
many problems exist including a lack of a clear strategy in 
performance measurement.
    What attention would you place on new technologies and 
platforms as part of our global diplomacy strategy? And what 
steps do you think that that particular bureau would need to 
take to improve its performance?
    Mr. Stengel. Thank you for that question, Senator.
    I welcome the OIG report. Coming into a job for the first 
time and looking around, to have an Inspector General's Report 
that kind of looks at the territory and gives you guidance is 
something I find very valuable. I found that very valuable when 
I had reports like that in the private sector.
    One thing I would be remiss if I did not mention, because I 
do not want them to feel left out, is that part of my brief is 
Public Affairs as well as Public Diplomacy. And I think one of 
the things that I would like to do, if confirmed, is to 
actually try to bring Public Affairs and Public Diplomacy 
closer together. Public Affairs is out there on the deck of the 
ship every day. And they are talking about policy. And they are 
talking about the President's policy and the Secretary's 
vision. I think that can help all of the other programs that we 
do.
    From my statement, I think you will realize I am a great 
believer in the power of social media. I think it is not just a 
new tool. I think it is actually a new form of communication. 
And one of the reasons I think it is a very valuable tool to 
BBG, to Public Diplomacy is that it is interactive. It is not 
just us preaching and other people listening. We can have a 
dialogue. We can have a conversation. And I think that is 
something that is very important. That that illustrates the 
beauty of the free society that we are. And so, I would try to 
use all of those tools at my disposal to help and improve 
Public Diplomacy.
    The Chairman. Well, it is certainly the new frontier. And 
it is a frontier in which those who wish us harm, by one 
dimension, are actively engaged in. And so, I appreciate your 
earlier comment in your statements about making sure that we 
are engaged in the space and occupying it as well, proactively 
as well as responsibly.
    Well, I thank you both for your testimony.
    The record will remain open until the close of business 
tomorrow. If there are any questions, and I am sure there will 
be some that will be proposed to you, I would urge you to 
answer them as expeditiously as possible in order to try to 
move your nomination before a business meeting.
    The Chairman. And, with the thanks of the committee, this 
hearing is adjourned.
    [Whereupon, at 1:09 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Dr. Sarah Sewall to Questions Submitted 
                       by Senator Robert Menendez

    Question. Conflict and Stabilization.--The Bureau of Conflict and 
Stabilization Operations (CSO) was established in 2012 with the mandate 
to advance U.S national security ``by breaking cycles of violent 
conflict and mitigating crises in priority countries. . . .'' Recently, 
it has engaged in four principal efforts: providing election support in 
Kenya; publicizing and training Syrian opposition groups in Turkey; 
promoting confidence-building measures through landmine removal and 
education in Burma; and reducing violence in four Central American 
countries.

  <diamond> Please provide your assessment of these efforts.

    Answer. Throughout my career, I have been a strong advocate of 
civilian power, and particularly the development of civilian planning 
skills and civilian capabilities to help address global crises. I 
believe that CSO has begun to play a critical role in U.S. foreign 
policy, and that its contributions and importance must continue to 
expand. If confirmed, I look forward to learning more about the 
successes and limitations of recent efforts, helping promote learning 
and enhancing capabilities within CSO, and ensuring that we have an 
increasingly effective civilian capacity to help prevent and mitigate 
conflict.
    CSO's recent efforts have included the following initiatives:
Kenya
    I am told that CSO's Nairobi-based team was central to the 
Embassy's election efforts. The team helped organize and manage the 
largest diplomatic observer mission in Kenya, featuring 35 teams in 33 
of Kenya's 47 counties. I understand that these efforts ensured that 
the United States had firsthand information and consistent messaging 
among all international partners during the days following the election 
when concerns were raised about electoral fraud.
Syria
    The U.S. objective in Syria is a political settlement leading to a 
post-Assad transition that minimizes extremist violence and sets the 
conditions for an inclusive democracy. I understand that CSO has been 
at the forefront of promoting the cohesiveness and capability of the 
moderate Syrian opposition.
    I understand that, in consultation with the Syrian Opposition 
Coalition (SOC), CSO has trained over 1,200 civilian council members 
from over 350 organizations in civil administration and equipped them 
with communications to coordinate with each other and the outside 
world. I have been informed that these skills, equipment, and 
connections allowed these groups to achieve the following:

  <bullet> Organize together into provincial councils;
  <bullet> Establish more than 50 civilian police precincts in 40 
        different communities in Aleppo province alone; each swore to 
        uphold a code of conduct respecting international humanitarian 
        law;
  <bullet> Reopen schools and restore electrical power;
  <bullet> Barter across regions for critical supplies like food and 
        medicine;
  <bullet> Promote the role of women in civil leadership;
  <bullet> Publicly contest civil authority with extremist groups;
  <bullet> Establish nine independent FM radio stations that 
        collectively reach 80 percent of Syria's population; and
  <bullet> Establish three satellite TV stations that can convey Syrian 
        opposition messages across the Middle East.

    I understand that, in the 2 months since CSO's nonlethal support to 
the Syrian Military Council began to flow, CSO has already provided 
enough utility trucks to motorize a small battalion, and enough 
communications equipment to network a brigade.
Burma
    I have been told that CSO led a successful pilot in Kayah State to 
convene civil society actors, Burmese officials, and nonstate armed 
groups to discuss humanitarian mine action, establishing a model for 
indirect trust-building activities. Following CSO's program, the 
Government of Burma and the main nonstate armed group in Kayah State 
agreed to work together on a mine clearance project. I understand these 
efforts to increase trust among the Government of Burma and ethnic 
minority groups through humanitarian mine action are beginning to pay 
dividends and that CSO has designated 1207 funding to expand pilot 
efforts and train community leaders on how to effectively collaborate 
on mine action. If confirmed, I will explore using this approach of 
trust-building through collective work on a challenge of common 
interest for other states in Burma, including Rakhine State.
Central America
    I am told that CSO is currently focusing its efforts in Central 
America on the critical issue of reducing violence in Honduras. I 
understand that CSO is implementing activities that transform the 
prevailing national hopelessness over escalating violence; supporting 
civil society advocacy for public security reform; and enhancing 
community-led, counterviolence programs.
    It is also my understanding that CSO is providing its civil society 
partners with strategic communications advice and financial resources. 
CSO programming encourages senior government leaders to implement 
reforms and ensures public security reform is a significant issue not 
only during the ongoing Presidential campaign but also for the incoming 
administration. I understand that CSO's efforts have generated initial, 
meaningful reforms in the Public Ministry that may help counter 
violence and impunity in Honduras.
    I look forward to learning more about these initiatives and how we 
can expand and strengthen vital us efforts to prevent and mitigate 
conflicts abroad.

    Question. Interagency Coordination.--Please comment on the degree 
of interagency coordination within the U.S. Government in its 
humanitarian assistance activities. USAID has programs addressing U.S. 
international humanitarian assistance. What relationship does PRM have 
with USAID's programs? Is there overlap? Do you expect a change in this 
relationship? To what extent do you believe the Department of Defense 
(DOD) should play a role in forming and enforcing U.S. emergency relief 
policy? How does PRM coordinate its work with various international and 
private agencies working with refugees during humanitarian emergencies? 
What changes would you like to see in these relationships to make 
coordination more effective and cost efficient?

    Answer. I am told that U.S. Government humanitarian assistance 
activities are well-coordinated both in Washington and in the field, 
especially in large-scale emergencies requiring significant U.S. 
Government resources. For example, in the case of U.S. humanitarian 
assistance in response to the crisis in Syria, coordination happens 
through regular Principals, Deputies, and Inter-Agency Policy Committee 
meetings. Additionally, PRM and USAID's Democracy, Conflict and 
Humanitarian Assistance (DCHA) Bureau cochair a Syria humanitarian 
assistance working group, and PRM and DCHA cochair regular video 
conferences that link embassies in the region with Washington agencies 
and DOD's Combatant Commands to share information and coordinate U.S. 
Government activities. PRM and DCHA senior leadership have also taken 
joint visits to the field to advance U.S. Government humanitarian 
objectives.
    Regarding the relationship between PRM and USAID, I understand that 
PRM and DCHA personnel work closely together to ensure that their 
respective programs are coordinated and complementary and are not 
duplicative. PRM and DCHA adhere to written ``Coordination and Funding 
Guidelines'' that have helped facilitate an effective division of 
funding responsibilities to meet critical needs throughout the world. I 
am told that PRM staff confer regularly with USAID counterparts in 
Washington and in the field. Additionally PRM, DCHA, and the Department 
of State's International Organization Affairs Bureau coordinate via the 
Humanitarian Policy Working Group (HPWG). The HPWG meets monthly at 
senior levels to address high-priority humanitarian policy issues, such 
as U.S. Government advocacy on U.N. humanitarian reforms, outreach to 
emerging donors, and guidelines for improved civilian-military 
coordination in humanitarian response, in a collective and strategic 
manner.
    If confirmed, I look forward to working with PRM and USAID 
leadership to ensure that the HPWG continues to serve effectively as a 
coordination mechanism to advance key humanitarian policy issues. If 
confirmed, I would also make strengthened coordination with USAID a top 
priority. As you appreciate, humanitarian needs continue to grow, the 
United States and other donors' resources are limited, and current 
needs already exceed what any single government organization can meet.
    When requested by civilian leaders and nested within a broader 
humanitarian strategy, I believe that DOD can play an important role 
supporting State and USAID humanitarian efforts, particularly where the 
U.S. military can provide a unique capability or where additional 
capacity is urgently required.
    I understand that PRM's coordination with international and private 
agencies is extensive. In addition to representing the U.S. Government 
on the governing boards of key humanitarian agencies such as the U.N. 
Refugee Agency (UNHCR), the International Organization for Migration 
(IOM), and the U.N. Relief and Works Agency for Palestine Refugees in 
the Near East (UNRWA), PRM is also an active participant in donor 
coordination groups in support of the International Committee of the 
Red Cross and the U.N. Office for the Coordination of Humanitarian 
Affairs (OCHA). It actively engages with, and participates in events 
hosted by, InterAction and Refugee Council USA, two major umbrella 
organizations for nongovernmental organizations working on humanitarian 
issues. PRM holds quarterly policy and budget briefings with its 
international and private agency partners, and attends regular meetings 
with stakeholders on key emergency issues. In addition, PRM's refugee 
coordinators posted to U.S. embassies abroad meet regularly with 
international and nongovernmental partners to coordinate and share 
information about humanitarian needs and challenges in country.
    If confirmed, I will continue to build upon and expand the 
coordination mechanisms and networks already in place to ensure that 
U.S. Government humanitarian assistance is timely, effective, cost-
efficient, and responsive to the needs of the most vulnerable people.

    Question. Syria Refugee Crisis.--The Syrian crisis is well into its 
third year, and many refugees who have fled neighboring countries will 
not be able to go home for a long time. The impact of the refugee 
influx on Lebanon, Jordan, and other countries has been immense, and 
the possibility of conflict developing between refugees and host 
communities is increasing. In your testimony before the committee, you 
noted that we should be doing more to ensure that we are providing 
assistance to host communities and local authorities and that our 
humanitarian aid is linked to longer term development objectives.

  <diamond> Please describe your views on this issue and what concrete 
        steps you recommend be taken.

    Answer. I understand that U.N., international humanitarian 
agencies, and nongovernmental organizations (NGOs) have worked 
tirelessly with host governments over the past 2\1/2\ years to provide 
emergency aid to the more than 2.2 million refugees who have fled the 
conflict in Syria to Lebanon, Jordan, Turkey, Iraq, and Egypt. The 
influx of refugees has placed extraordinary pressure on the region's 
public services, infrastructure, and social systems, with host 
communities bearing the brunt of the burden. As the conflict in Syria 
escalates and expands, it is clear that return to Syria will not be a 
near-term option for most. In order to bolster the region's stability 
while the hard work of seeking a peaceful political solution to the 
crisis continues, U.N. humanitarian and development officials recently 
unveiled a comprehensive regional strategy to integrate the emergency 
humanitarian response with broader development support for Syria and 
neighboring countries. The plan will target support to refugees, host 
communities, and host governments, aiming to bolster communities to 
withstand the impact of major population surges by addressing the needs 
of the most vulnerable, regardless of nationality or status. I 
understand that U.N. agencies and NGOs are working with host 
governments to map existing relief efforts and gaps in the humanitarian 
and development response in order to prioritize the most critical new 
initiatives. This work is critically important and if confirmed I will 
do all I can to ensure U.S. support for these priorities.
    I understand that this mapping process is well underway in Lebanon 
and Jordan, where the U.N. is overlaying national poverty data with 
refugee locations in order to identify the most vulnerable communities. 
In Jordan, the World Bank has rapidly scaled up its response through 
the recent launch of a $53 million municipality support project. At the 
request of the Government of Lebanon, the World Bank, recently 
conducted an assessment and released a ``Roadmap'' identifying priority 
assistance initiatives to help Lebanon manage the impact of the Syrian 
crisis. On the margins of the U.N. General Assembly, Secretary Kerry 
announced an additional $30 million to support host communities in 
Lebanon to address development and humanitarian needs.
    As the international community develops new responses to the 
crisis, the U.S. Government should also look to innovative programming 
that meets the immediate and long-term needs of refugee populations and 
their hosts. One example is the ongoing Bureau of International 
Narcotics and Law Enforcement (INL) refugee community watch training 
program for Zaatri Refugee Camp in Jordan. Through this project, the 
Jordanian Public Security Directorate (PSD) will train approximately 
600 Syrian refugees from the Zaatri camp to create units that will 
provide a visible presence and complement PSD efforts to establish and 
maintain order throughout the camp of nearly 80,000 refugees. This is a 
new program for INL but draws on its experience developing curricula 
for police training.
    If confirmed I would work to bring together all relevant actors--
host governments, community leaders, U.N. agencies, NGOs, the World 
Bank, and international donors--to galvanize resources through all 
available assistance streams to meet the short-, medium-, and long-term 
needs of refugees and host communities throughout the region.

    Question. The Bureau of Counterterrorism is responsible for forging 
partnerships with nonstate actors, multilateral organizations, and 
foreign governments to advance U.S. counterterrorism objectives and our 
national security. If confirmed, what will your priorities be for the 
Bureau of Counterterrorism? Based on your knowledge of the Bureau's 
missions and activities, in which areas does it perform well? What 
policies or activities may need to be reassessed or improved?

    Answer. In his May 2013 National Defense University speech, 
President Obama made it clear that 21st century terrorism presents 
short- and long-term challenges. In the short term, the United States 
must maintain the pressure on al-Qaeda and its affiliates to disrupt 
their operations and bring terrorists to justice within a framework 
that respects the rule of law. In the long term, the President 
emphasized the need to do more to counter the social, economic, and 
political drivers of violent extremism that fuel terrorist recruitment 
and also build the capacity of our partners to address the threat 
within their borders and regions. This is where the Bureau of 
Counterterrorism, and indeed the broader J enterprise and other actors 
such as the Center for Strategic Counterterrorism Communications and 
USAID have a leading role to play.
    It is my understanding that the State Department Counterterrorism 
(CT) Bureau made capacity-building partner capacity and countering 
violent extremism its strategic priorities during the President's first 
term.
    If confirmed, I would look forward to evaluating the progress 
toward these goals and working to support CT's efforts to continuously 
improve its effectiveness and impact. I would also work with the 
President, Secretary Kerry, and Members of Congress to build on the 
progress the Bureau has made in these areas.
    I understand that the CT Bureau has worked hard to develop new fora 
and programs to leverage international efforts on behalf of shared 
counterterrorism goals. If confirmed, I would hope to deepen and 
strengthen such a ``force multiplier'' approach to this global 
challenge. I'm also told that CT has developed innovative countering 
violent extremism (CVE) programs that target individuals and groups 
vulnerable to becoming radicalized to violence. If confirmed, I would 
hope to see these efforts not only expanded, but better aligned with 
those bureaus and offices in the Department working to address the 
underlying economic, political, and social conditions that terrorists 
exploit for recruitment.
    More broadly, if confirmed, I would work with the CT Bureau and 
other parts of the Department to encourage greater synergy among these 
different efforts, which are at the heart of the President's vision for 
diminishing terrorist threats over the long term.

    Question. If confirmed, how do you envision the Bureau of 
Counterterrorism informing and supporting the work of the other bureaus 
and offices you will be leading?

    Answer. The establishment of the Under Secretary for Civilian 
Security, Democracy, and Human Rights, and the creation of the Bureau 
of Counterterrorism within that Under Secretariat were conceived as 
part of a broader transformation of U.S. foreign policy, reflected in 
the Quadrennial Diplomacy and Development Review (QDDR), which 
emphasized the need to advance a comprehensive and integrated approach 
to address today's transnational security and other foreign policy 
challenges. This approach aims to better integrate all of our foreign 
policy tools--diplomacy and development, hand in hand with defense to 
advance U.S. values and interests.
    Specialized counterterrorism assistance to help our partners 
prevent and respond to terrorist attacks and protect American interests 
abroad is a critical part of this effort. The CT Bureau currently works 
to provide such assistance and to strengthen the capacity and political 
will of partners to effectively counter terrorist threats within their 
own borders through a rule-of-law framework. As such, the State 
Department's expanded role in counterterrorism is a central element of 
the broader effort to improve the United States ability to address U.S 
21st century challenges.
    As evidenced throughout my career at the nexus of security and 
human rights, I strongly believe that counterterrorism efforts are most 
successful when respect for human rights and the rule of law are 
central elements of the approach.
    The J Bureaus and Offices can work closely together across a range 
of mutually reinforcing lines of effort to strengthen the work of 
countering both the symptoms and drivers of violent extremism. If 
confirmed, I look forward to working with the President, Secretary 
Kerry, and Members of Congress to integrate policies and build on 
programmatic synergies to advance U.S. CT and foreign policy 
objectives.

    Question. Gender-based violence remains a rampant problem in many 
of the world's conflicts, including Syria, Burma, and the Democratic 
Republic of Congo. Please provide an update on implementation of the 
National Action Plan on Women, Peace and Security. How, if at all, has 
implementation of the administration's National Action Plan on Women, 
Peace and Security made a difference in these countries?

    Answer. To realize its commitments under the National Action Plan 
on Women, Peace and Security, it is my understanding that the 
Department developed an Implementation Plan to describe roles and 
actions for bureaus and embassies to incorporate women, peace, and 
security (WPS) priorities within policy and programs in conflict and 
post-conflict areas, and in countries experiencing significant 
political transition. To put this plan into action, I understand the 
Department proactively engages with partner governments, civil society, 
and relevant multilateral institutions to ensure women's inclusion in 
all aspects of conflict prevention, peace-building, reconstruction and 
transitional political processes, civilian security efforts, economic 
revitalization, and the provision of humanitarian assistance.
    In the Syria context, I understand the administration has made a 
concerted effort to prevent and respond to gender-based violence, and 
foster the political participation of women in peace-building and 
conflict mitigation efforts. The Department provided seed money to the 
Syria Justice and Accountability Center to document human rights 
violations and support transitional justice processes, including 
documentation of sexual and gender-based violence crimes. I understand 
there is also a new Community Watch Program to address security 
concerns at Zaatari Camp in Jordan. The training will address the 
prevention of gender-based violence as part of the curriculum.
    In Burma, the Department has advocated in interagency, bilateral 
and multilateral engagements, as well as with civil society partners to 
advocate for women's engagement in local peace and reconciliation 
processes. In DRC, women have benefited from such integrated sectoral 
approaches as the Africa-WPS Initiative, which has supported capacity-
building in order for local health, legal, and law enforcement 
professionals to gather medical evidence for successful prosecution and 
conviction of GBV perpetrators.
    If confirmed, I would continue the work begun across members of the 
J enterprise--including the Bureaus of Democracy, Human Rights, and 
Labor; Population, Refugees and Migration; and International Narcotics 
and Law Enforcement Affairs--and in partnership with the Secretary's 
Office of Global Women's Issues to strengthen efforts in the areas of 
conflict prevention, protection from conflict-related gender-based 
violence, participation of women in decisionmaking institutions, and 
women's role in reconstruction and rebuilding efforts.

    Question. State/USAID Coordination.--Many J Bureaus and Offices, 
including PRM (Bureau of Population, Refugees and Migration), CSO 
(Bureau of Conflict and Stabilization Operations, and DRL (Bureau of 
Democracy, Human Rights and Labor), are working on the same issues in 
the same countries as USAID offices are working. Critics say there is 
inadequate coordination among these many programs.

  <diamond> How will you enhance coordination between USAID and your 
        Under Secretariat to increase the efficient use of limited 
        resources and overall effectiveness of programs?

    Answer. The Quadrennial Diplomacy and Development Review (QDDR), 
which established the Under Secretary for Civilian Security, Democracy, 
and Human Rights, provides the foundation that allows the Department of 
State and the United States Agency for International Development 
(USAID) to become more efficient, accountable, and effective as we work 
together to (1) prevent and resolve conflicts; 
(2) help countries protect civilians and vulnerable populations while 
helping them become prosperous, stable, and democratic states; and (3) 
build global coalitions to address global problems. I understand that a 
variety of formal and informal mechanisms already exist to promote 
coordination between USAID offices and State bureaus. For example, I am 
told that USAID sits as a member of the panels that evaluate grant 
applications to DRL.
    If confirmed, I would work to enhance this existing coordination. 
In addition, I would build on the cooperation that has been developed 
through the work of the Deputy Secretary of State for Management and 
Resources in bringing greater coherence, efficiency, and accountability 
to strategic planning and budgeting in areas in which we work together 
with USAID.
    If confirmed, I would work to further align existing coordination 
among the bureaus and offices within the Under Secretariat's portfolio 
and work with USAID counterparts to further strengthen regular and 
systematic coordination and lessons learned processes.

    Question. Since 2001, your predecessors have served concurrently as 
Special Coordinator for Tibetan Issues. This position coordinates U.S. 
Tibet policy, which calls for human rights improvements, preserving the 
distinct culture, language and religion of Tibet, and dialogue between 
the Dalai Lama, his representatives and the Chinese Government, without 
preconditions.

  <diamond> If appointed as Tibet Coordinator, how will you engage with 
        both Chinese officials and Tibetan religious, cultural, and 
        political leaders to advance these goals? What will be your 
        priorities with respect to Tibetan communities in India and 
        Nepal? Will you commit to briefing Senate Foreign Relations 
        Committee members or staff every 6 months on your activities in 
        this position?

    Answer. If designated as Special Coordinator for Tibetan Issues, I 
would maintain close contact with religious, cultural, and political 
leaders of the Tibetan people, including through travel to Tibetan 
refugee settlements in India and Nepal, and I would seek to travel to 
Tibetan areas of China. I would meet with the Dalai Lama and his 
representatives without delay. In my private meetings with Chinese 
officials, during formal dialogues, and in my public statements, I 
would look for new ways to promote substantive dialogue between the 
Chinese Government and the Dalai Lama or his representatives, without 
preconditions.
    As the United States continues its rebalance to Asia, we must 
continue to demonstrate leadership on Tibetan issues, including in 
multilateral fora. If confirmed, I would press China to grant 
unfettered access to Tibetan areas to U.N. Special Rapporteurs, as well 
as to diplomats, journalists, and other observers. I also would 
continue to call on the Chinese Government to uphold its international 
human rights commitments, and to permit Tibetans to express their 
grievances freely, publicly, peacefully, and without fear of 
retribution.
    The United States must remain concerned about China's pressure on 
Nepal with respect to Tibetan refugees. If confirmed, I would continue 
to press the Government of Nepal to remain fully committed to the 
longstanding ``Gentlemen's Agreement,'' which allows newly arrived 
Tibetan refugees to transit unimpeded to India, and to ensure that the 
rights of the long-staying Tibetan community are respected. I also 
would support continuation of the vitally important Tibetan-language 
services of Radio Free Asia and the Voice of America. If confirmed, I 
also would coordinate our various Tibet programs that benefit Tibetan 
communities in India, Nepal, and on the Tibetan plateau, implemented by 
the Department of State's Bureaus of Educational and Cultural Affairs 
(ECA), Population, Refugees, and Migration (PRM), Democracy, Human 
Rights, and Labor (DRL), and by USAID. I would seek new ways for the 
State Department and other U.S. Government agencies to promote the 
protection of Tibetans' distinct language, culture, and religion, both 
through our programming for Tibetan communities in China, India, and 
Nepal, and in robust interactions and exchanges with officials, civil 
society, students, scholars, cultural figures, and religious leaders.
    Finally, if designated as Special Coordinator for Tibetan Issues, I 
would look forward to briefing and maintaining communication with 
Senate Foreign Relations Committee members and staff on my activities 
in this position.

    Question. More than 120 Tibetans have lit themselves on fire in 
protest of Chinese policies. Despite the severe repression, military 
crackdown, and denial of basic rights, Tibetans have not resorted to 
violence against the authorities. Many observers ask how long that can 
last, especially as the Dalai Lama, with his calming influence, gets 
older.

  <diamond> Given your background in conflict and atrocities, how do 
        you see the trajectory of the Tibetan struggle, and how can we 
        work now to prevent the situation from ever turning violent?

    Answer. There is risk that the apparent cycle of repression, 
protest, and further repression in Tibetan areas of China could 
continue to escalate, suggesting another reason why resumption of 
dialogue between China and the Dalai Lama or his representatives, 
without preconditions, is so critical.
    I understand that the State Department repeatedly has expressed the 
hope that these tragic acts of self-immolation end, and that the 
leadership of the Central Tibetan administration in Dharamsala, India, 
has similarly appealed to Tibetans not to resort to self-immolation. 
President Obama has commended the Dalai Lama's commitment to 
nonviolence, dialogue and the ``Middle Way'' approach, and continues to 
encourage direct dialogue to resolve longstanding differences. At the 
same time, China has continued to pursue counterproductive policies and 
failed to address the grievances underlying this crisis.
    If confirmed, I would seek new ways both to enhance U.S.-China 
engagement on these issues and to encourage China to restart, without 
preconditions, dialogue with the Dalai Lama or his representatives. 
Dialogue remains the best path to resolution of Tibetan grievances, 
alleviating tensions in Tibetan areas, improving the stability of 
China, and strengthening the U.S.-China relationship. I also would call 
upon the Chinese Government to uphold its international human rights 
commitments, and to permit Tibetans to express their grievances freely, 
publicly, peacefully, and without fear of retribution. Finally, if 
confirmed, I would use the full range of tools available to me to 
monitor and assess the situation in Tibet to ensure that it receives 
the interagency attention and programmatic response necessary to help 
prevent the current violence from further increasing.

    Question. Section 620M of the Foreign Assistance Act of 1961, 
commonly known as the Leahy amendment, provides guidance for U.S. 
embassies regarding the collection, use, and public disclosure of 
information relating to gross violations of human rights by units of 
host nation foreign security forces. Among other things, the law 
requires that if the Secretary of State has credible information that 
such a unit has committed such a violation, U.S. training, equipment, 
or other assistance to that unit must cease, unless the foreign 
government is taking effective steps to bring the responsible members 
of the unit to justice. The goals of this law are twofold: (1) to 
ensure that U.S. taxpayers are not underwriting assistance to abusive 
security forces; and (2) to help incentivize reform and the development 
of systems of accountability by allied security forces.

  <bullet> If confirmed, please describe steps that you will take to 
        enhance effective implementation of this law within the 
        Department of State and in U.S. embassies.
  <bullet> If confirmed, please describe the steps you would take to 
        increase awareness of the intent of the law--helping allied 
        governments end impunity for human rights violations.
  <bullet> If confirmed, will you commit to briefing this committee 
        annually on the steps you have taken to increase the efficacy 
        and implementation of section 620M?

    Answer. It is my understanding that the Bureau of Democracy, Human 
Rights and Labor (DRL) has worked continuously to improve 
implementation of the Leahy law, particularly since Congress amended 
the law in 2011. I am familiar with a recent report by the Government 
Accountability Office, which highlighted specific areas for improvement 
in providing guidance to posts on the duty to inform host governments 
of derogatory human rights information, reviewing posts' Standard 
Operating Procedures (SOPs) for Leahy vetting, and updating distance 
learning courses on the INVEST system. I understand that DRL is 
currently addressing these recommendations and, if confirmed, I would 
ensure that they continue to do so.
    In addition, I would work to expand upon current efforts to educate 
partner governments about the law and identify ways in which we could 
guide or assist them in their efforts to ensure accountability in 
response to allegations of gross violations of human rights. Such 
efforts may be as modest as helping a government to develop a plan of 
action, but they could also include greater emphasis on rule of law and 
improving military justice systems in our programming engagements. I 
would also work to integrate application of the Leahy law as one of 
many tools in the U.S. Government's efforts to reform security services 
worldwide. I am committed to ensuring this committee is briefed 
periodically on our progress.

    Question. The U.S. State Department J/TIP Office (Office to Monitor 
and Combat Trafficking in Persons) receives recommendations of Tier 
rankings in the annual TIP Report by regional bureaus and embassies 
that often prioritize issues unrelated to the eradication of 
trafficking in persons. Antitrafficking experts have raised concerns 
about ``grade inflation'' in the Tier ranking process.

  <diamond> What steps will your Office take to support Tier rankings 
        that reflect true antitrafficking efforts?

    Answer. If I am confirmed as Under Secretary, J/TIP will continue 
to work collaboratively with other bureaus and offices within the 
Department to ensure the findings of the TIP Report are objective, 
merit-based, and in alignment with the requirements of the Trafficking 
Victims Protection Act of 2000 (TVPA), as amended. When governments do 
not produce results in holding those determined to be trafficking 
offenders accountable and in identifying and providing comprehensive 
services to victims, these areas for improvement are clearly documented 
in the report and reflected in the Tier rankings, regardless of the 
country. Precedent for such results is clearly evident in the 
Department's downgrading of a number of strategically sensitive 
countries in the June 2013 TIP Report based on their failure to improve 
on or make significant antitrafficking efforts.
    I understand that many governments use the report's findings as a 
guide for addressing human trafficking more effectively. If confirmed, 
I will work to ensure that the report continues to accurately document 
trafficking trends and government responses.

    Question. The Under Secretary for Civilian Security oversees the 
Office of Global Criminal Justice, which was formerly known as the 
Office of War Crimes Issues. Syrian President Assad clearly has 
committed, and continues to commit, war crimes. We now have a process 
underway to de-fang Assad to prevent future chemical attacks, but our 
work is far from done. Yet Assad's aerial bombardments of civilian 
apartment blocks continue. We must make sure that war crimes are not 
tolerated, cannot continue, and will result in severe punishment. With 
Russia's veto power at the U.N. Security Council hampering the ability 
to pursue a referral to the International Criminal Court, we must 
establish a foundation today to pursue justice and accountability in 
post-war Syria tomorrow.

  <diamond> How is the State Department working with its Syrian 
        partners now, in exile and inside the nation, to document, 
        verify, and collect data to develop the case against Assad? 
        Please share your views about what additional concrete steps 
        the U.S. Government can take to assist Syrians today to advance 
        eventual justice and accountability.

    Answer. I share your outrage about the violence in Syria and your 
commitment to ensuring that those committing war crimes and crimes 
against humanity be held accountable. As you know, the U.N. Independent 
International Commission of Inquiry already has reported on the war 
crimes and crimes against humanity that have taken place in Syria.
    The State Department is supporting Syrian and international efforts 
to document evidence of atrocities committed by all sides for use in 
future accountability processes. One such initiative is the Syria 
Justice and Accountability Center (SJAC). I understand that the SJAC, 
led by Syrian human rights defender Mohammed Al-Abdullah, focuses on: 
(1) collection and analysis of documentation in Syria; (2) coordination 
of Syrian and international documentation efforts; and (3) education 
and outreach on transitional justice.
    If confirmed, I look forward to working with colleagues in the 
State Department and across the U.S. Government to explore how we might 
best advance Syrian-led efforts to lay a foundation for transitional 
justice and accountability processes that the Syrian people, especially 
victims, deserve.

    Question. The Rohingya are possibly the most persecuted people in 
the world, and yet few people are aware of their plight. A Muslim 
minority long resident in Burma, they are essentially stateless, and 
lack basic rights, including the rights to work, travel, and marry. 
They routinely suffer forced labor, confiscation of property, arbitrary 
arrest and detention, and physical and sexual violence. In addition, 
several hundred thousand reside in squalid conditions in Bangladeshi 
camps.

  <diamond> Please describe, if confirmed, if and how you will address 
        the multiple crises facing the Rohingya, and furthermore, if 
        and how the bureaus and offices you will oversee, including CSO 
        (Bureau of Conflict and Stabilization Operations), PRM (Bureau 
        of Population, Refugees and Migration), and J/TIP (Office to 
        Monitor and Combat Trafficking in Persons), DRL (Bureau of 
        Democracy, Human Rights and Labor), DRL/IRF (International 
        Religious Freedom), are addressing this issue now.

    Answer. I am deeply concerned about the stateless Rohingya who 
continue to face ongoing violence, discrimination, and desperate 
humanitarian conditions in Burma and elsewhere in the region. As you 
know, since the June and October 2012 violence in Rakhine State, Burma, 
approximately 140,000 people, mainly Rohingya, remain internally 
displaced while some 20,000 to 60,000 Rohingya have fled by boat, 
seeking refuge in other countries in the region, the largest annual 
exodus in over 20 years.
    I understand that the United States Government is actively engaging 
the Burmese and other governments in the region to address underlying 
issues of violence, discrimination, and persecution and to develop 
durable solutions. The United States Government is committed to 
ensuring the delivery of humanitarian assistance and intensified 
engagement with the Governments of Burma and Bangladesh, as well as 
with other international partners.
    I understand that the Bureau of Democracy, Human Rights and Labor 
(DRL) has worked with Embassy Rangoon to condemn ongoing acts of 
violence and persecution in Burma, pressed the government to provide 
protection for those at risk, and made addressing the stateless status 
of the Rohingya in Burma a key priority of the U.S. Government's human 
rights dialogue with the Burmese Government. Moreover, DRL's Office of 
International Religious Freedom is actively engaged on religious 
freedom to map a way forward for Burma that will include respecting the 
religious rights of the Rohingya.
    I also understand that the Bureau of Conflict and Stabilization 
Operations (CSO) has detailed a conflict specialist to Embassy Rangoon 
to monitor developments in Rakhine State and inform U.S. Government 
policy and programming. In addition, CSO's Washington-based team 
maintains close relationships with Rakhine State diaspora contacts and 
continues monitoring and analyzing conflict dynamics and conflict 
mitigation approaches in Rakhine State.
    I understand that the Bureau of Population, Refugees, and Migration 
(PRM), in coordination with the U.S. Agency for International 
Development (USAID), is leading U.S. Government efforts to ensure 
access for the provision of humanitarian assistance and protection to 
internally displaced persons (IDPs) in Burma and Burmese refugees and 
asylum-seekers in neighboring countries, including the Rohingya. In FY 
2013, the United States provided more than $51 million in humanitarian 
assistance to vulnerable Burmese in Burma and in the region, including 
$37.6 million from PRM and $14.05 million from USAID.
    I understand that J/TIP has repeatedly highlighted in bilateral 
diplomacy the issue of the vulnerability of the Rohingya population and 
encouraged Burmese Government officials to redouble their efforts to 
ensure the protection of Rohingya trafficking victims.
    J Bureaus have also worked closely with the Bureau of International 
Organizations to maintain the U.N. Human Rights Council's mandate for 
the special rapporteur on Burma; continue the U.N. General Assembly's 
scrutiny of Burma, including the situation of the Rohingya; and support 
the establishment of an office of the High Commissioner for Human 
Rights in Burma with a full mandate to report on current abuses and 
build the necessary capacity to address human rights challenges.
    If confirmed, I would work with interagency partners, Congress, and 
the international community to support and strengthen U.S. policy to 
enhance the security and advance the human rights of the Rohingya 
population in Burma and elsewhere in the region.

    Question. In recent months, news reports have highlighted the loss 
of more than 360 migrants off the coast of Lampedusa, Italy, the deaths 
of 92 migrants in the desert in Niger, and the rescue of 700 more off 
the Italian coast. These tragedies highlight the dangers Africans, many 
fleeing conflict and poverty at home for the hope of better futures in 
Europe, encounter when they are exploited by human traffickers.

  <diamond> How is USG addressing the issue now, and what more can be 
        done?

    Answer. I understand that the United States Government addresses 
such issues by providing programmatic assistance and through bilateral 
and multilateral diplomacy. The Department of State's Bureau of 
Population, Refugees and Migration (PRM) provides funding to the 
International Organization for Migration (IOM) to help build the 
capacity of countries in the Horn of Africa region to better and more 
humanely manage migration, including by helping countries in the region 
coordinate with one another on common concerns and to undertake 
awareness campaigns to discourage people from undertaking dangerous sea 
journeys. I understand PRM also supports an IOM program in Niger that 
provides emergency medical care and assistance to Nigeriens returning 
home, as well as to other migrant nationalities stranded by the Libyan 
crisis and the closure of the Libyan borders.
    If confirmed, I will work closely with all the relevant J Bureaus 
and Offices to seek comprehensive approaches to the problem. I will 
work with countries of origin, transit, and destination--as well as 
with my interagency counterparts and interested governments--to help 
address security concerns and ensure access to appropriate protection 
for vulnerable migrants. Governments can work together to develop safe 
and orderly migration programs and to enhance economic opportunities in 
countries of origin. Governments can also improve law enforcement 
action against both smugglers and traffickers who exploit and abuse 
migrants and refugees, as well as provide access to appropriate 
protective services for those who have been ill-treated while making 
such journeys.

    Question. The Democratic Republic of Congo and M23 will soon sign a 
peace accord, ending 20 months of violence. CSO has operated in DRC in 
the past, monitoring elections in 2011 and implementing a stabilization 
initiative in 2010.

  <diamond> Is CSO currently engaged in the DRC? If yes, how will CSO 
        work with the Government of the DRC and regional stakeholders 
        such as Rwanda, Uganda, and the U.N. to help stabilize and 
        bring critical humanitarian assistance to the areas that 
        experienced the most conflict.

    Answer. The State Department's Representative for Lord's Resistance 
Army (LRA) Issues (a CSO officer) is working with U.S. military 
advisors in northeastern DRC to bring about the end of the LRA. CSO 
coordinates closely with the Government of the DRC, other LRA-affected 
governments, Western donor nations, the U.N. Stabilization Mission in 
the DRC (MONUSCO), the AU, and various NGOs to help end the conflict 
and ensure that people in the region heal and rebound from this 
decades-old trauma.
    CSO is in the nascent stages of exploring additional work in the 
DRC, including supporting disarmament, demobilization, and 
reintegration (DDR) efforts, providing humanitarian assistance, and 
strengthening infrastructure (for example, roads).
    If confirmed, I will coordinate the efforts of the J Bureaus and 
Offices and will work with the entire State Department and the 
interagency community to develop a strategy to help the people and 
Government of DRC.
                                 ______
                                 

   Responses of Hon. Heather A. Higginbottom to Questions Submitted 
                         by Senator Bob Corker

    Question. Does the Department have concrete plans for preventing 
increased violence against diplomatic personnel in Iraq and Afghanistan 
in the wake of those countries' respective U.S. military drawdowns?

    Answer. Our missions in Iraq and Afghanistan face serious and 
ongoing security challenges. As with all our missions around the world, 
our highest priority is the safety of our personnel in the field. We 
have detailed security plans in place for both missions and review 
these plans regularly. We cannot escape the basic fact that Mission 
Afghanistan, in Kabul and the field, operates in a war zone; and that 
Iraq continues to pose a serious security challenge. In order to 
operate in such challenging environments, we have implemented some of 
the most robust security measures available. We can do much to mitigate 
risk, but such risk cannot be entirely eliminated.
    We greatly appreciate the support provided to the Department by 
Congress in implementing the Increased Security Proposal (ISP), as well 
as funding for both ongoing and extraordinary security programs in the 
Bureau of Diplomatic Security (DS) and the Bureau of Overseas Buildings 
Operations (OBO). If confirmed, I will regularly review the 
effectiveness of our security programs and explore new ideas to keep 
our missions safe as we approach the transition in Afghanistan. If 
confirmed, the security of our people will be one of my top priorities. 
I look forward to working with you on this important issue.
                                 ______
                                 

         Responses of Dr. Sarah Sewall to Questions Submitted 
                         by Senator Bob Corker

    Question. As Undersecretary, you would oversee the newly created 
Conflict & Stabilization Operations Bureau (CSO), which is currently 
led by the founding director of USAID's Office of Transition 
Initiatives (OTI).

  <diamond> With both CSO and OTI working in the same places (such as 
        in Syria), can you please describe how the authorities, 
        missions, and methodologies of CSO and OTI differ?

    Answer. The QDDR highlighted the need for greater coherence and 
effectiveness in the way in which State and USAID approach conflict and 
crisis countries. CSO and OTI have many of the same authorities, favor 
rapid response, and often work together in priority places across the 
conflict spectrum. However, CSO was created as a Bureau within the 
State Department with the unique mission of ensuring that conflict 
analysis and operations feed directly into policy discussions and drive 
more coherent, effective U.S. Government policies and strategy at the 
highest level. The Assistant Secretary of CSO is named the Secretary's 
Senior Advisor on Conflict, and CSO personnel integrate operational 
experience and analysis into diplomacy.
    CSO focuses U.S. Government attention on priority cases (Kenya, 
Burma, Syria, Honduras, Nigeria, and Bangladesh); leads interagency 
analytic processes (roundtables, budget reviews, scenarios, meta-data 
crunches, joint assessments, etc.); directs funds to the element of the 
U.S. Government that is best positioned to implement programming; and 
expands partnerships with other donors on behalf of shared conflict 
mitigation objectives. For example, in Syria, CSO works with the United 
Kingdom, Denmark, Canada, and others to pool resources to advance 
common goals. I am told that CSO is also redesigning a civilian surge, 
conflict expertise, and expeditionary capacity in the U.S. Government 
through a new Civilian Response network.
    I understand that another major difference between CSO and OTI is 
that CSO has a greater opportunity to integrate players and funding as 
it brings together policy and implementation. For instance, CSO 
convenes experts and interagency representatives to ensure an 
integrated approach to conflict assessments and strategies and to 
provide Posts with early options for preventive action.

    Question. There is a real tension in our foreign policy between 
advancing democracy and human rights on the one hand, and advancing our 
strict national interest on the other hand. Although they are not 
always different or in conflict, the tension is something with which we 
as a democracy struggle. Those tensions are really manifest in your 
portfolio, where you have democracy, human rights, and stabilization as 
part of your core responsibility, and at the same time counterterrorism 
and antinarcotics.

  <diamond> How do you effectively manage that tension?

    Answer. Secretary Kerry has made it clear that the prevention and 
mitigation of conflict and the promotion of democracy and human rights 
go hand in hand with countering transnational crime and terrorism. 
Pursuing these goals in tandem is not just the right thing to do--it is 
the smart thing to do. It is both an expression of our core values, and 
an imperative for securing our national interests.
    Bringing together the diplomatic and programmatic capabilities of 
these diverse bureaus and offices strengthens our effort to support 
durable and sustainable security and justice sector capacities that are 
more likely to protect individuals from violence, oppression, and 
discrimination. Promoting better governance and accountability of 
security forces is an essential cornerstone of promoting our interests. 
It may sometimes be a challenge to help our partners understand this 
nexus of values and interests, and certainly a challenge to achieve it, 
but it is this combination that best characterizes the uniqueness and 
power of American foreign policy.
    The advancement of human rights and democratic principles around 
the world is essential to long-term U.S. strategic and economic 
interests, including the goals and objectives of all the bureaus in 
what will be my portfolio, if confirmed. The United States should 
continue to emphasize rule of law, human rights, effective and 
accountable governance institutions, and strong and engaged civil 
society even as it engages in other programs and policies to advance 
U.S. interests.

    Question. The Under Secretary of State for Civilian Security, 
Democracy and Human Rights oversees eight bureaus and offices with 
budgets of some $4 billion in program funds (as you note in your 
opening statement).

  <diamond> What is your understanding of the authority you would have 
        to oversee these bureaus and how would you plan to use that 
        authority to ensure accountability in the bureaus and offices 
        that fall under your jurisdiction?

    Answer. If confirmed, one of my top priorities will be to enhance 
coordination among and effectiveness of the eight bureaus and offices 
that fall under the authority of the Under Secretary for Civilian 
Security, Democracy, and Human Rights as we develop and implement our 
policies and programs in support of U.S. interests. This is one of the 
important objectives of the Quadrennial Diplomacy and Development 
Review (QDDR) of 2010, pursuant to which the State Department realigned 
the responsibilities of the Under Secretary for Civilian Security, 
Democracy, and Human Rights, and it is a mission that Secretary Kerry 
fully supports. As a result of the realignment, the Under Secretary 
oversees eight bureaus and offices and has responsibility for 
coordination, effective use of resources, and accountability for 
outcomes. If confirmed, I would use the Under Secretary's authority and 
role as I work to fulfill the mandate outlined in the QDDR and assigned 
by Secretary Kerry.

    Question. What aspects of your background would you draw upon in 
overseeing State's International Narcotics and Law Enforcement Bureau 
(INL) and Bureau for Counterterrorism (CT)? Looking to the future, what 
do you see as the most important priorities for INL and CT?

    Answer. Understanding how national security institutions 
effectively deliver policy outcomes and do so efficiently and ethically 
has been a key focus of my work as an academic, foreign policy advisor 
and public servant. From my experiences serving as the first Deputy 
Assistant Secretary for Peacekeeping at the Department of Defense, to 
my position as Director of the 2008 Transition National Security 
Agencies review, to my role as a contributor to military doctrine for 
counterinsurgency and responding to mass atrocity, I have drawn 
valuable lessons for leading change in large, complex national security 
organizations. I am also fortunate to have had experience working in 
areas of both ``hard'' and ``soft'' power, serving as Director of 
Harvard's Carr Center for Human Rights Policy and helping pioneer the 
field of civilian protection in armed conflict. I believe these 
experiences will help me strengthen the State Department's programs and 
policies to enhance American values and U.S. national security 
interests.
    As you know, the State Department Bureaus of INL and CT play a 
critical role in combating illegal drugs, transnational crime and 
terror while promoting rule of law and countering violent extremism. I 
understand that INL has transformed into a leading tool to advance and 
promote respect for the rule of law on a global scale, helping states 
grow institutions that protect the rights of their citizens while 
promoting their security. The CT Bureau's work to counter terrorism, 
including building the capacity of our foreign partners and countering 
violent extremism to stem terrorist recruitment, complements the work 
of INL.
    I am convinced of the importance of these U.S. efforts to help 
nations extend the reach of justice under the rule of law and become 
more effective partners in providing civilian security and 
international stability. If confirmed, I would work to strengthen these 
efforts and promote synergy between them and among all of the programs 
of the J Under Secretariat.
                                 ______
                                 

          Responses of Richard Stengel to Questions Submitted 
                         by Senator Bob Corker

    Question. The Department's Office of Inspector General (OIG) 
recently issued a report (see ``Inspection of the Bureau of 
International Information Programs,'' ISP-I-13-28, May 2013), that was 
highly critical of major structural and functional problems with the 
Bureau of International Information Programs (IIP), which will be under 
your purview.

  <diamond> Will you commit to implementing the recommendations of that 
        OIG report?

    Answer. I welcome the Office of the Inspector General's (OIG) 
report, which highlights a number of key issues in the Bureau of 
International Information Programs (IIP). I believe that it can give 
valuable guidance and be a helpful tool to new management. It is my 
understanding that IIP is responding to the OIG's recommendations. If 
confirmed, I will consider the inspection's structural and functional 
recommendations as part of an overall strategy to make our public 
diplomacy programs more effective. I believe that it is essential to 
closely link IIP's work to that of the other public diplomacy bureaus 
and the rest of the Department. Our American Spaces, speakers programs, 
social media platforms, and information initiatives should complement 
and provide context for the work we do with the press. Should I be 
confirmed, I will draw on the OIG inspection, employ industry best 
practices I used at TIME, and work with public diplomacy's new 
leadership team to review the OIG findings to enhance IIP's 
contributions to our diplomacy efforts.

    Question. Part of your purview as Under Secretary will be 
supervising the Center for Strategic Counterterrorism Communications 
(CSCC), which, according to the Department's Web site, ``coordinate[s], 
orient[s], and inform[s] government-wide foreign communications 
activities targeted against terrorism and violent extremism, 
particularly al-Qaeda and its affiliates and adherents.''

  <diamond> Can you explain how robust or extensive CSCC's operations 
        are in comparison to the other components under your 
        supervision? If not robust or extensive, do you intend to 
        expand the CSCC's reach, scope, or efforts?

    Answer. The Center for Strategic Counterterrorism Communications 
(CSCC) was established in 2011 and is relatively modest in terms of 
budget and staff compared to some of the other public diplomacy 
elements I will supervise, if confirmed. Nevertheless, the scope and 
effectiveness of CSCC's efforts is notably robust. Everyday CSCC 
counters violent extremist messaging in four critical languages in 
digital environments and in countries where al-Qaeda and its affiliates 
are active. Based on my State Department briefings on CSCC activities, 
I am impressed by CSCC's innovative and unique approach. CSCC is 
correcting misinformation and contesting the space occupied by violent 
extremist messaging--and they are doing it in real time. CSCC will 
continue to magnify its efforts through close cooperation with other 
parts of the Department and the interagency. Such collaboration is 
expanding CSCC's scope and effort in cost effective ways. If confirmed, 
I will review CSCC operations to see how they can be most effective and 
fulfill its important mission.

    Question. The committee is aware that the lack of attendance of the 
Department's designee to the BBG board has, at times, prevented a 
quorum and thus prevented the BBG from functioning properly.

  <diamond> In your capacity as a BBG governor, will you attend all 
        board meetings, or ensure a substitute's attendance at times 
        when you are unable to attend?

    Answer. Our U.S. Government-supported international media 
operations are an important element of our foreign policy. Their 
mission is a critical part of achieving our national security 
objectives. If confirmed, I will faithfully represent Secretary Kerry 
on the Broadcasting Board of Governors and be an active participant in 
the Board's meetings--as well as deliberations between meetings--to 
ensure that the State Department is at the table. I also commit to 
doing all I can to ensure a substitute when at times I may be unable to 
attend.

    Question. In your dual capacity as Under Secretary and BBG 
governor, will you commit to working closely with the committee and 
other stakeholders to improve the effectiveness and operations of BBG 
and the broader U.S. international broadcasting effort?

    Answer. More than ever, we need the ability to communicate and 
engage with nations and communities around the world. The BBG is an 
essential component for accomplishing this important task. If 
confirmed, I will work with the committee and other stakeholders to 
ensure that our international media operations have the leadership, 
structure, and clear vision to fulfill their mission on behalf of the 
American people.
                                 ______
                                 

   Responses of Hon. Heather A. Higginbottom to Questions Submitted 
                         by Senator Marco Rubio

    Question. On January 7, 2013, the State Department's International 
Security Advisory Board recommended to ``implement a comprehensive 
monitoring and evaluation process for its security capacity-building 
programs, measuring effectiveness against defined goals in terms of 
basic national objectives, not just value for money or inputs 
provided.'' In April 2013, the President issued Security Sector 
Assistance Presidential Policy Directive 23 (PPD 23) pledging to 
``inform policy with rigorous analysis, assessments, and evaluations.''

  <diamond> Please provide a detailed explanation of the measures taken 
        thus far by the administration to implement rigorous analysis, 
        assessments, and evaluations of U.S. security sector assistance 
        in accordance to PPD23.
  <diamond> Please provide a detailed explanation of the requirements 
        included in S. 1271, the Foreign Aid Transparency and 
        Accountability Act of 2013, that the administration considers 
        similar to their ongoing efforts to monitor and evaluate 
        security sector assistance in accordance to PPD 23.
  <diamond> Please provide a detailed explanation of the requirements 
        included in S. 1271 that the administration considers 
        dissimilar to their ongoing efforts to monitor and evaluate 
        security sector assistance in accordance to PPD 23.

    Answer. Over the last several years, the administration has 
improved monitoring and evaluation, with important work ongoing, and I 
look forward to building on these efforts. If confirmed, I am committed 
to improving the way the Department conducts monitoring and evaluation 
(M&E), as well as linking that information to the budgeting and 
planning process and enhancing transparency of all foreign assistance.
    Monitoring and evaluation for U.S. security sector assistance (SSA) 
plays an essential role in ensuring the impact, effectiveness, 
relevance, and efficiency of SSA policies, strategies, programs, and 
activities. M&E also provide SSA policymakers, planners, program 
managers and implementers the analytical tools necessary to make 
effective decisions and resource allocations; set and manage 
expectations; maximize outcomes; report results; and adapt programs and 
approaches as necessary. These efforts contemplate the use of best 
practices, and the application of standards for regularized and 
integrated monitoring across SSA agencies. Monitoring focuses on 
whether desired results are occurring during implementation, and 
confirms whether implementation is on track; whereas evaluation (the 
systematic collection and analysis of information about the 
characteristics and outcomes) documents the achievement of outcomes and 
results at the end of an intervention and, in some cases, the value of 
continuing the investment.
    PPD 23 sets robust common standards and expectations for assessing 
security sector assistance requirements, in addition to investing in 
M&E of security sector assistance programs. It provides that such 
standards will be aided by guidelines for measurable security sector 
assistance objectives, appropriate data collection of the impacts and 
results of security sector assistance programs, and improved efforts to 
inform decisionmaking processes with data on what works and what does 
not work through impact evaluations, when permissible. Such standards 
and data collection will take into account the varying security and 
information environments where U.S. programs operate.
    I am supportive of the goals of S. 1271 and understand that 
conversations between your staff and the administration are ongoing. I 
am confident that we can find a way to advance our shared goals about 
strengthening monitoring, evaluation, and transparency. If confirmed, I 
look forward to helping evaluate any corresponding legislation as it 
may move through the legislative process in light of the very robust 
security sector assistance measures envisioned and being undertaken by 
the administration.
    I understand that the administration's M&E processes being planned 
pursuant to PPD 23 are robust and address the provisions for M&E set 
out generally in S. 1271 for security sector assistance. For example, 
the administration will introduce common standards and expectations for 
assessing security sector assistance, in addition to investing in M&E 
of security sector assistance programs. Such standards will be aided by 
guidelines for measurable security sector assistance objectives, 
appropriate data collection on the impacts and results of security 
sector assistance programs, and improved efforts to inform 
decisionmaking processes with data on what works and what does not work 
through impact evaluations, when permissible. Such standards and data 
collection will take into account the varying security and information 
environments where U.S. programs operate.
    It is my understanding that interagency guidance has been prepared 
to ensure that the M&E measures contemplated by the President's policy 
for SSA are realized. And, if confirmed, I will ensure the Department 
continues to provide its leadership toward oversight of SSA.
                                 ______
                                 

   Responses of Hon. Heather A. Higginbottom to Questions Submitted 
                      by Senator Edward J. Markey

    Question. What criteria do you believe the United States should use 
to determine whether to give aid to Egypt? Under what circumstances, if 
any, do you see the current aid suspension being lifted?

    Answer. As the President and Secretary have said, we are deeply 
committed to the U.S.-Egypt relationship, and we want to help Egypt's 
transition succeed.
    The administration is reviewing the October 9 decision, informed by 
credible progress on the interim government's political roadmap toward 
a sustainable, inclusive, and peaceful transition to democracy. As 
events develop in Egypt, we will be watching not only progress along 
the government's roadmap, but other aspects of the transition. We do 
not believe that having specific, public benchmarks for our review 
would contribute to our ability to influence the course of the 
transition.
    In our recent conversations with the Egyptian Government, they have 
reiterated their commitment to completing their political roadmap. 
Maintaining flexibility to respond to, and influence, changing events 
on the ground is of critical importance in allowing us to advance our 
national interests. That is particularly true in our assistance 
relationship.

    Question. Do you agree that Egypt's adherence to its peace treaty 
obligations with Israel is a fundamental criterion for U.S. support?

    Answer. The United States has an unshakeable commitment to Israel's 
security. Adherence to Peace Treaty obligations is a fundamental to 
U.S. support for Egypt, and Egypt is meeting its obligations under the 
treaty.
    U.S. assistance to Egypt will continue to advance peace and 
security between Egypt and Israel. The United States will work with 
Egypt's interim government to provide assistance that helps Egypt 
secure its borders and the Sinai; prevents the flow of weapons into 
Gaza that threaten Israel's vital security objectives; and counters 
extremism, terrorism, and proliferation.

    Question. How should the United States balance our support for 
democratic values and respect for elected governments, with the reality 
that the Egyptian military has been a close ally of the U.S. and is 
playing a useful role in fighting radical Islamists in the Sinai and in 
Gaza? More broadly, how do we balance democracy vs. stability?

    Answer. Egypt is a vital partner, and our longstanding relationship 
is predicated on our shared interests in a stable, democratic, and 
prosperous Egypt, securing regional peace and security, and countering 
extremism and terrorism. As President Obama said at the U.N. General 
Assembly, the United States will maintain a constructive relationship 
with the interim Egyptian Government that promotes core interests. Our 
relationship with the Egyptian Armed Forces has contributed to the 
implementation of the Peace Treaty with Israel and in other aspects of 
our cooperation.
    The United States will at times work with governments that do not 
meet, at least in our view, the highest international expectations, but 
who work with us on our core interests. Nevertheless, we will not stop 
asserting principles that are consistent with our democratic ideals and 
our values. We are seeking to encourage a more democratic transition in 
Egypt. In fact, as Secretary Kerry emphasized during his November 3 
visit to Cairo, progress along a more democratic transition can 
contribute to greater stability and calm, and thereby to economic 
growth and badly needed new foreign and domestic investment.


                     NOMINATIONS DANA J. HYDE AND 
                             MARK E. LOPES

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Dana J. Hyde, of Maryland, to be Chief Executive Officer, 
        Millennium Challenge Corporation
Mark E. Lopes, of Arizona, to be United States Executive 
        Director of the Inter-American Development Bank for a 
        Term of Three Years
                              ----------                              

    The committee met, pursuant to notice, at 3:35 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Edward Markey, 
chairman of the committee, presiding.
    Present: Senators Markey and Barrasso.

 OPENING STATEMENT OF HON. EDWARD J. MARKEY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Markey. Good afternoon and welcome to today's 
hearing.
    We are joined today by two highly qualified individuals who 
have been nominated by the President for leadership positions 
in two important organizations promoting international economic 
development.
    The first is Dana Hyde, who has been nominated for the 
position of Chief Executive Officer of the Millennium Challenge 
Corporation, the Federal agency created almost 10 years ago to 
bring innovative approaches to the delivery of U.S. foreign 
aid. Ms. Hyde brings extensive experience in Government, 
including at the State Department where she served as senior 
advisor to the Deputy Secretary for Management and Resources 
and at the White House where she currently serves as Associate 
Director of the Office of Management Budget. I believe her 
background will enable her to bring strong leadership to an 
organization that has approximately 300 staff and a budget of 
nearly $900 million.
    We are also joined by Mark Lopes who has been nominated for 
the position of United States Executive Director to the Inter-
American Development Bank. Mr. Lopes has a long and impressive 
track record of experience working on economic development in 
Latin America from his service as a Peace Corps Volunteer in 
Paraguay to his current position as Deputy Assistant 
Administrator for Latin America and the Caribbean at the U.S. 
Agency for International Development. This regional expertise 
will serve him well if he is confirmed.
    Both the Millennium Challenge Corporation and the Inter-
American Development Bank are at the cutting edge of our 
efforts to alleviate poverty and promote sustainable economic 
growth around the world. The MCC uses a competitive selection 
process to decide where to devote its resources. To qualify, 
developing countries interested in receiving MCC assistance 
must perform well on a broad set of metrics. They need to 
demonstrate commitments to the rule of law, to investing in the 
health and well-being of their population, and to fostering 
entrepreneurship. Since its founding, the agency has entered 
into 5-year compact agreements with 25 countries, and I 
understand the MCC's high standards have encouraged some low-
performing countries to take steps on their own to improve the 
quality of their governance in hopes of qualifying for MCC 
assistance, a very positive and direct result of the agency's 
policy.
    As a multilateral bank, the IDB follows a different model 
providing loans, guarantees, and technical assistance to 
governments and companies across Latin America and the 
Caribbean. The bank plays a major role in the 26 countries that 
are borrowing members. In Haiti, for example, the IDB has 
pledged $2.2 billion in grant assistance by 2020. Active U.S. 
participation in the bank's operations and decisionmaking is 
critical to making it function, as we are the largest 
contributor and voting shareholder among the member countries.
    We have two really great nominees here, and I am looking 
forward to hearing their testimony.
    Let me turn and recognize the Senator from Wyoming.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    The Senate Committee on Foreign Relations is meeting today 
to consider these two very important nominations, and I want to 
welcome both of you, congratulate both of you on your 
nominations and also want to extend a warm welcome to all of 
your friends and your family who are here. And if you would 
like, during the introductions you may want to introduce some 
of these--especially the young guests who are here in the 
audience.
    Mr. Chairman, both the Millennium Challenge Corporation and 
the Inter-American Development Bank can play an important role 
in promoting international development. Should both of you 
serve our Nation in these important positions, I think it is 
important that each of you provide strong stewardship over 
American taxpayer dollars, demonstrate professionalism and good 
judgment, and vigorously work to advance the priorities of the 
United States. I hope both of you will lay out a vision and the 
goals that you have for your position and what your plan will 
be in achieving those goals consistent with your vision.
    So I look forward to hearing the testimony, and thank you, 
Mr. Chairman.
    Senator Markey. And now, Ms. Hyde, whenever you feel 
comfortable, please begin.

 STATEMENT OF DANA J. HYDE, OF MARYLAND, TO BE CHIEF EXECUTIVE 
           OFFICER, MILLENNIUM CHALLENGE CORPORATION

    Ms. Hyde. Thank you. Chairman Markey, Ranking Member 
Barrasso, members of the Senate Foreign Relations Committee, 
thank you for the opportunity to address you today. It is an 
honor to be here as President Obama's nominee to serve as the 
next Chief Executive Officer of the Millennium Challenge 
Corporation.
    I spent my early childhood in a town of 2,000 people in 
eastern Oregon, hours away from a city of any size. So I am 
particularly humbled to sit before you as the President's 
nominee to lead a groundbreaking agency working to fight global 
poverty on behalf of the United States. It is a dream come 
true.
    I hope you will not mind if I take a moment to thank my 
family here today: my husband Jonathan; our two wonderful sons, 
Judah and Elijah; and our very beloved Esme. I also want to 
thank my mother Jayne who could not be here today and my 
grandmother Lucia, who is with us always. While I could never 
thank them enough, at least today I can enter my gratitude into 
the record. So thank you, especially to my three guys.
    When I was working at the State Department, I saw up close 
two initiatives started by President Bush and continued and 
expanded by President Obama: PEPFAR and the Millennium 
Challenge Corporation. I saw how they transformed not only 
people's lives but entire communities, even entire countries. 
PEPFAR, of course, has saved millions of lives and helped build 
the foundation for entire health systems. And MCC broke new 
ground in America's fight against global poverty. It was based 
on a model of development that moved beyond aid to investment, 
working in true partnership with countries to create 
sustainable, broad-based economic growth. That model of 
country-led, results-oriented development has been increasingly 
adopted across our Government. And that is a great thing for 
the countries we work with and for the American taxpayers who 
make our work possible.
    I have seen MCC in practice. I have visited MCC teams in 
Tanzania, working to spur economic activity through better 
roads and reliable electricity both on the mainland and 
Zanzibar, and in Mozambique, working to improve water, 
sanitation, and agricultural productivity. The people running 
the programs are not Americans. They are Tanzanians. They are 
Mozambicans. They are deeply invested whether in terms of their 
own funding or in terms of time and effort. And hard assets 
like roads, electrical grids, and water pumps are linked to 
policy and institutional reforms necessary to sustain those 
investments. It is not hard to see why these programs get 
results. Country ownership makes a difference. It is amazing to 
see what challenges these countries are willing to tackle to 
build and maintain their partnership with MCC.
    We always say that our goal in development assistance is to 
put ourselves out of business, by helping our partners build 
their capacity so eventually they do not need our help anymore. 
That is exactly what MCC and its partner countries are doing 
together.
    So as someone who cares deeply about development as a vital 
tool of American foreign policy, I am grateful for MCC and for 
the opportunity to be considered to lead this institution. MCC 
is a critical partner in our total development efforts, 
together with the important work of USAID, the Overseas Private 
Investment Corporation, the U.S. Trade and Development Agency, 
and the Treasury Department, which directs U.S. contributions 
to multilateral development banks.
    I want to see MCC continue to excel. For almost 10 years, 
it has been innovative, rigorous, and committed to excellence. 
I want it to keep setting the bar higher for the next 10 years. 
It must continue to be an agency that is open to new ideas, 
that measures its results transparently, and that uses those 
results, good or bad, to recalibrate its strategies and 
improve.
    As you know, in addition to my very rewarding years at the 
State Department, I have also served at the Office of 
Management and Budget where I had the privilege of overseeing 
the budgets of six Cabinet agencies. I believe in data-driven, 
cost-effective policies. I want the American people to always 
get their money's worth for anything their Government does on 
their behalf. At MCC, that means calculating economic rates of 
return to determine what projects will deliver the biggest bang 
for the buck. It means rigorous measurement and analysis to 
ensure performance and results, and it means making the results 
publicly available so the American people and Congress can 
decide if their money was well spent and so others can learn 
from MCC's experience.
    And as someone who served on the staff of the 9/11 
Commission, I believe we should be using every tool in our 
toolbox to keep our Nation safe. Helping economic opportunity 
appear in places where there is little to be found, helping 
countries create the conditions for their citizens to start 
businesses, get new skills, and create jobs is critical to 
regional and global stability. As the greatest economy in the 
world and as a Nation that celebrates entrepreneurship and 
human ingenuity, the United States should continue to be a 
leader in advancing opportunity and prosperity worldwide.
    So thank you again for considering my nomination. If 
confirmed, I will do my absolute best to serve with honor and 
integrity in pursuit of our national interests, in keeping with 
our national values, and on behalf of the American people.
    Thank you.
    [The prepared statement of Ms. Hyde follows:]

                   Prepared Statement of Dana J. Hyde

    Chairman Markey, Ranking Member Barrasso, members of the Senate 
Foreign Relations Committee--thank you for the opportunity to address 
you today.
    It is an honor to be here as President Obama's nominee to serve as 
the next Chief Executive Officer of the Millennium Challenge 
Corporation.
    I spent my early childhood in a town of 2,000 people in eastern 
Oregon--hours away from a city of any size. So I am particularly 
humbled to sit before you as the President's nominee to lead a 
groundbreaking agency working to fight global poverty on behalf of the 
United States. It is a dream come true.
    I hope you won't mind if I take a moment to thank my family here 
today: my husband, Jonathan, our two wonderful sons, Judah and Elijah, 
and our very beloved Esmeralda. I also want to thank my mother, Jayne, 
who could not be here today, and my grandmother Lucia, who is with me 
always. While I could never thank them enough, at least today I can 
enter my gratitude into the record. So thank you, especially to my 
three guys.
    When I was working at the State Department, I saw up close two 
initiatives started by President Bush and continued and expanded by 
President Obama--PEPFAR and the Millennium Challenge Corporation. I saw 
how they transformed not only people's lives but entire communities--
even entire countries. PEPFAR, of course, has saved millions of lives 
and helped build the foundation for entire health systems. And MCC 
broke new ground in America's fight against global poverty. It was 
based on a model of development that moved beyond aid to investment--
working in true partnership with countries to create sustainable, 
broad-based economic growth. That model of country-led, results-
oriented development has been increasingly adopted across our 
government. And that's a great thing--for the countries we work with 
and for the American taxpayers who make our work possible.
    I've seen MCC in practice. I've visited MCC teams in Tanzania--
working to spur economic activity through better roads and reliable 
electricity, both on the mainland and Zanzibar--and in Mozambique, 
working to improve water, sanitation, and agricultural productivity. 
The people running the programs aren't Americans--they are Tanzanians. 
They are Mozambicans. They are deeply invested, whether in terms of 
their own funding or in terms of time and effort. And hard assets like 
roads, electrical grids, and water pumps are linked to policy and 
institutional reforms necessary to sustain those investments. It's not 
hard to see why these programs get results. Country ownership makes a 
difference. It is amazing to see what challenges these countries are 
willing to tackle to build and maintain their partnership with MCC. We 
always say that our goal in development assistance is to put ourselves 
out of business, by helping our partners build their capacity so 
eventually they don't need our help anymore. That's exactly what MCC 
and its partner countries are doing together.
    So, as someone who cares deeply about development as a vital tool 
of American foreign policy, I am grateful for MCC and for the 
opportunity to be considered to lead this institution. MCC is a 
critical partner in our total development efforts--together with the 
important work of USAID, the Overseas Private Investment Corporation, 
the U.S. Trade and Development Agency, and the Treasury Department, 
which directs U.S. contributions to multilateral development banks. I 
want to see MCC continue to excel. For almost 10 years, it has been 
innovative, rigorous and committed to excellence. I want it to keep 
setting the bar higher for the next 10 years. It must continue to be an 
agency that is open to new ideas . . . that measures its results 
transparently . . . and that uses those results, good or bad, to 
recalibrate its strategies and improve.
    As you know, in addition to my very rewarding years at the State 
Department, I've also served at the Office of Management and Budget, 
where I had the privilege of overseeing the budgets of six cabinet 
agencies. I believe in data-driven, cost-effective policies. I want the 
American people to always get their money's worth from anything their 
government does on their behalf. At MCC, that means calculating 
economic rates of return to determine what projects will deliver the 
biggest bang for the buck; it means rigorous measurement and analysis 
to ensure performance and results; and it means making the results 
publicly available so the American people and Congress can decide if 
their money was well spent, and so others can learn from MCC's 
experience.
    And as someone who served on the staff of the 9/11 Commission, I 
believe we should be using every tool in our toolbox to keep our Nation 
safe. Helping economic opportunity appear in places where there is 
little to be found--helping countries create the conditions for their 
citizens to start businesses, get new skills, and create jobs--is 
critical to regional and global stability. As the greatest economy in 
the world, and as a nation that celebrates entrepreneurship and human 
ingenuity, the United States should continue to be a leader in 
advancing opportunity and prosperity worldwide.
    So thank you again for considering my nomination. If confirmed, 
I'll do my absolute best to serve with honor and integrity, in pursuit 
of our national interests, in keeping with our national values, on 
behalf of the American people.
    Thank you. I'm happy to answer your questions.

    Senator Markey. Thank you very much.
    And now, Mr. Lopes, whenever you are ready, please begin.

  STATEMENT OF MARK E. LOPES, OF ARIZONA, TO BE UNITED STATES 
EXECUTIVE DIRECTOR OF THE INTER-AMERICAN DEVELOPMENT BANK FOR A 
                        TERM OF 3 YEARS

    Mr. Lopes. Thank you, Chairman Markey, Ranking Member 
Barrasso, and distinguished members of the committee, for the 
opportunity to appear before you today. It is an honor to have 
been nominated by President Obama for the position of United 
States Executive Director of the Inter-American Development 
Bank, and I look forward to answering your questions.
    I am particularly honored to be considered for confirmation 
by this committee. Prior to my current appointment as Deputy 
Assistant Administrator of the Bureau for Latin America and the 
Caribbean at the U.S. Agency for International Development, I 
served as Senator Menendez's staff representative on the Senate 
Foreign Relations Committee. That experience taught me the 
critical role of the U.S. Congress in foreign affairs. This 
committee has a wellspring of talent and expertise that has 
been an invaluable resource for me over many years, and if 
confirmed, I intend to continue to seek guidance from you and 
your staff.
    I am joined today by my parents, Pam and Phil Lopes, 
sitting directly behind me. In fact, it was my mother's 
birthday yesterday, so I need to recognize her and her 
unwavering support for me over many years. My brother, Tobin, 
sister-in-law Brenda; and niece and nephew, Zack and Ezri, 
unfortunately were not able to be here today, but they are 
watching through the Internet. I am grateful for their support, 
encouragement, and sense of humor, all of which were 
instrumental to my being able to appear before you today.
    My parents planted the seed of public service through their 
work in the Peace Corps. My father was part of the first group 
of Volunteers to travel to Colombia in 1961, and my mother 
served shortly thereafter in Brazil. As a family, we lived in 
Ecuador and Brazil when my parents were on the staff of the 
Peace Corps. And it was the memories of these childhood years 
that embedded in me the spirit of international adventure and 
public service. And after nearly a decade of studying music, I 
too transitioned to an internationally focused career and 
served as a Peace Corps Volunteer in rural Paraguay.
    Through graduate school and in the decade since, my work 
has focused on foreign policy and international development 
primarily, but not limited to, the Western Hemisphere. The work 
has allowed me to travel both throughout the region and around 
the world, and from health clinics in rural Paraguay to 
emergency feeding centers in Darfur, I have seen the good work 
of the United States firsthand.
    If confirmed, I will bring to this position not only a 
clear-eyed understanding of the challenges of economic growth 
and development, but also a keen recognition of its value, both 
for its importance in advancing U.S. interests and for 
advancing human rights and fundamental freedoms.
    The Latin America and Caribbean region has improved 
significantly since my father landed in Colombia over 50 years 
ago. In addition to improvements in health and increased access 
to education, many economies are now global powerhouses.
    Today the United States exports over $500 billion in goods 
and services annually to the region, which is an amount 
equivalent to our exports to Europe. As of 2011, U.S. investors 
put over $800 billion into the region. And although there has 
been progress overall, U.S. engagement is still the best way to 
continue to build market-based economies in the most strategic 
and responsible way possible and to grow U.S. business 
opportunities. The bank is increasingly working with the 
private sector, and if confirmed, I would advocate for 
sustaining a proactive approach in this area. In addition, I 
would use my voice and my vote to help the bank identify where 
it is uniquely capable and deepen its work in those areas. 
Lastly, I would encourage the bank to support new and emerging 
donors in the region.
    My grandfather, Ed Lopes, from whom I get my middle name, 
was the son of Portuguese immigrants in the San Joaquin Valley 
of California. With a seventh grade education, about 8 acres of 
land, and only nine fingers, he built a small business there in 
the 1930s. He was a truck driver and a welder, and he was able 
to provide for his family and send his kids to school. My 
father was the first one in his family to go to college.
    The opportunities that my grandfather was able to create 
for his family are the same opportunities the United States is 
advancing through the work of the Inter-American Development 
Bank. If confirmed, I will be honored to serve President Obama 
in this role and help make possible for others what was made 
possible for me.
    Thank you.
    [The prepared statement of Mr. Lopes follows:]

                  Prepared Statement of Mark E. Lopes

    Thank you, Chairman Markey, Ranking Member Barrasso, and 
distinguished members of the committee, for the opportunity to appear 
before you today. It is an honor to have been nominated by President 
Obama for the position of United States Executive Director of the 
Inter-American Development Bank, and I look forward to answering your 
questions.
    I am particularly honored to be considered for confirmation by this 
committee. Prior to my current appointment as Deputy Assistant 
Administrator of the Bureau for Latin America and the Caribbean at the 
U.S. Agency for International Development, I served as Senator 
Menendez's staff representative on the Senate Foreign Relations 
Committee. That experience taught me the critical role of the U.S. 
Congress in foreign affairs. This committee has a wellspring of talent 
and expertise that has been an invaluable resource for me over many 
years. If confirmed, I intend to continue to seek guidance from you and 
your staff.
    I am joined today by my parents Pam and Phil Lopes, and many 
friends and colleagues, as well as my brother Tobin, sister-in-law 
Brenda, and niece and nephew, Zack and Ezri, who unfortunately were not 
able to be here today. I am grateful for their support, encouragement, 
and sense of humor--all of which were instrumental to my being able to 
appear before you today.
    My parents planted the seed of public service through their work in 
the Peace Corps. My father was part of the first group of volunteers to 
travel to Colombia in 1961, and my mother served shortly thereafter in 
Brazil. As a family, we lived in Ecuador and Brazil when my parents 
were on the staff of the Peace Corps. It was the memories of these 
childhood years that embedded in me the spirit of international 
adventure and public service.
    After nearly a decade studying music, I too transitioned to an 
internationally focused career and served as a Peace Corps Volunteer in 
rural Paraguay. Through graduate school and in the decade since, my 
work has focused on foreign policy and international development, 
primarily in the Western Hemisphere. This work has allowed me to travel 
throughout the region and around the world. From health clinics in 
rural Paraguay to emergency feeding centers in Darfur, I have seen the 
good work of the United States up close. If confirmed, I will bring to 
this position not only a clear-eyed understanding of the challenges of 
economic growth and development, but also a keen recognition of its 
value--both for its importance in advancing U.S. interests and for 
advancing human rights and fundamental freedoms.
    The Latin America and Caribbean region has improved significantly 
since my father landed in Colombia over 50 years ago. In addition to 
improvements in health and increased access to education, many 
economies are now global powerhouses. Today, the United States exports 
over $500 billion in goods and services annually to the region, which 
is an amount equivalent to our exports to Europe. As of 2011, U.S. 
investors put over $800 billion into the region. Although there has 
been progress overall, U.S. engagement is still the best way to 
continue to build market-based economies in the most strategic and 
responsible way possible and to grow U.S. business opportunities. The 
Bank is increasingly working with the private sector and, if confirmed, 
I would advocate for sustaining a proactive approach in this area. In 
addition, I would use my voice and vote to help the Bank identify where 
it is uniquely capable and deepen its work in those areas. Lastly, I 
would encourage the Bank to support new and emerging donors in the 
region.
    My grandfather, Ed Lopes, from whom I get my middle name, was the 
son of Portuguese immigrants in the San Joaquin Valley of California. 
With a seventh grade education, eight acres of land, and only nine 
fingers, he built a small business there in the 1930s. He was a truck 
driver and a welder, and he was able to provide for his family and send 
his kids to school. My father was the first one in his family to go to 
college. The opportunities that my grandfather was able to create for 
his family are the same opportunities the United States is advancing 
through the work of the Inter-American Development Bank. If confirmed, 
I will be honored to serve President Obama in this role and help make 
possible for others what was made possible for me.
    I am happy to answer any questions you might have.

    Senator Markey. So we thank both of you.
    Let me recognize myself for a round of questions.
    Ms. Hyde, let me ask you this. It is my understanding that 
the Publish What You Fund Coalition recently rated the 
Millennium Challenge Corporation the No. 1 agency in the world 
on aid transparency, ahead of such venerable institutions as 
the World Bank and the Gates Foundation and UNICEF, which is a 
very impressive record, given the fact that it was rated No. 9 
just 1 year ago. So to what do you attribute that? How do we 
keep it going, and how do we transfer that transparency to all 
of these other venerable institutions?
    Ms. Hyde. Thank you, Senator. I appreciate the question.
    It is a tremendous accomplishment of the agency to have 
that accolade bestowed upon it, and it is a tremendous 
challenge for us to keep ourselves there. If confirmed, I am 
committed to maintaining the first slot.
    I will say that U.S. Government agencies overall moved up 
in their rankings, which is important and good for the U.S. 
Government and transparency overall.
    In attributing the cause, my understanding is that the MCC, 
which has been such a leader within the U.S. Government and the 
world in transparency, has broken new ground in terms of the 
format of the information that is now made available in terms 
of being machine readable and accessible. And that sort of both 
technological and formatting change was very compelling to the 
organization and understandably so.
    MCC has also worked closely with the State Department and 
with other agencies--I know this from my time at the State 
Department--in creating the Foreign Assistance Dashboard, which 
is the mechanism by which the U.S. Government development 
agencies publish their results.
    So if confirmed, I look forward to continuing to lead in 
this area with MCC and to working with other Government 
agencies.
    Senator Markey. Great. Yes, I think that is a good 
standard. We can have the Millennium Transparency Challenge to 
all the other agencies year after year as you maintain No. 1 in 
the world in that area. That would be great.
    Ms. Hyde. Everyone is making progress I think.
    Senator Markey. I understand that, but the key for you is 
to be No. 1 looking over your shoulder in the rear view mirror 
at No. 2, 3, 4, 5 as they move around. But the higher the 
standard you set is the better it is for all the rest of them 
because they are going to respond to the challenge.
    And what parts of MCC's approach to economic development in 
your opinion have been most successful? What would you pinpoint 
as one or two things that you think stand out that 
differentiate it?
    Ms. Hyde. The data-driven, rigorous, quantitative analysis 
that underlies selection and compact development, I think, is 
one of the most compelling features of the MCC. One of the most 
exciting things we are seeing in the MCC is that it is driving 
standards and reform and incentives in developing countries 
across the globe. So you have countries that are changing their 
laws, reforming their institutions to attain eligibility. That 
is a reflection of the scorecard and the eligibility criteria. 
It influences not just those who actually receive the aid but 
those who are striving to get there. And I think that incentive 
effect, which is called the ``MCC effect'' and has recently 
been documented in a study done by the College of William and 
Mary, is one of the most exciting attributes of it in terms of 
results and something that I would want to ensure that we 
strengthen and continue.
    Senator Markey. Do you have one or two countries that you 
can specifically point to that have been put under the umbrella 
of the MCC effect?
    Ms. Hyde. Sure. Two examples come to mind.
    Lesotho. They were able to, because of seeking an MCC 
compact, change their laws with respect to women and married 
women and whether they could own property, which had not been 
the case. And married women now can both take out loans and own 
property in the country.
    In Niger, they put aside for a natural land resource a 
protected area that is about the size of Indiana, seeking to 
attain eligibility and move the dial on that particular 
indicator.
    I think those are two really concrete and compelling 
examples of the MCC effect.
    Senator Markey. And, Mr. Lopes, we have a number of 
different agencies providing economic assistance down in Latin 
America. What role can your agency play in ensuring that there 
is coordination, ensuring the effectiveness of all these 
agencies is maximized?
    Mr. Lopes. Certainly. Thank you, Mr. Chairman.
    The issue of coordination and ensuring that we are not 
duplicating our resources and making sure that respective 
comparative advantages are being utilized is one of the three 
areas that I think are critical from day one for me to look at, 
if confirmed for that position. I think in particular, given 
the modest amount of resources available for this kind of work, 
we need to be increasingly and exceptionally vigilant with 
respect to anything that might be duplicative or not as 
effective as it could be.
    I think one of the challenges is much of this work is doing 
something good for someone. Yet, I think that is not high 
enough of a standard. We need to say is it doing as best as we 
can with the resources that we have, given the capacities of 
the respective institutions.
    So I think there is a logic to the division of labor among 
the various institutions, but if confirmed, I would certainly 
look to ensure that that is being carried out in the most 
effective way possible.
    Senator Markey. Great. Thank you.
    The chair recognizes the Senator from Wyoming.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Ms. Hyde, thanks so much for bringing the family. If you 
need any help with any of the questions, we will let these guys 
jump in.
    I really appreciated the chairman talking about the No. 1 
rating that has been achieved and your comments in your opening 
vision statement about being data-driven, cost-effective, 
focusing on performance, end results. As you mentioned in your 
opening statements, it is so these countries do not need any 
help anymore after the success.
    There has been some discussion about second compacts. And I 
think there has been a lot more discussion about it than there 
has actually been multiple compacts to the same location. But 
it is possible it could become a more common occurrence. So I 
just wanted to visit with you a little bit about the 
fundamental concept of the Millennium Challenge Corporation 
providing targeted time-limited support if they say, ``well, we 
are almost there but we just need to go again.'' Can you just 
address that a little bit?
    Ms. Hyde. Thank you, Senator. I appreciate the question.
    And I am certainly sensitive to the concern that MCC's 
engagement with countries would be somehow open-ended. I think 
one of the most compelling features, back to the chairman's 
question, of the model and the approach is the sense of 
purposeful limits that are put in place. MCC is narrowly 
focused, as you know, on achieving economic growth. It is 
rigorous in its selection criteria, and it has concrete and 
specific limits on the implementation of compacts. Indeed, I 
saw that in my travels to Tanzania. In briefings with the 
country team, it was striking the degree to which they were 
driving through that 5-year time horizon to meet the project 
deadlines. So I think they are very important.
    At the same time, the core of the mandate is to achieve 
that economic growth and reduce poverty, and my understanding 
is that in certain circumstances, the board has decided that 
the opportunity for impact would best be achieved by a second 
investment, limited by the same terms that the first was. I 
would be happy to take a look at this issue--I understand there 
are differing views of it--if confirmed. But I think the 
limitations are still important and would be there in the 
second investment as well.
    Senator Barrasso. And that is the question to maintain this 
number one rating that has been achieved if there possibly 
should be tougher standards for countries being considered for 
that second compact, and that may be one of the things that you 
would consider taking a look at in terms of if there is a 
different level of evaluation, a higher standard that they are 
held to during the application process. And does one have to be 
completed before actually starting the second or is there an 
overlap? I just think these are areas for consideration as you 
go forward.
    Ms. Hyde. Thank you. Absolutely. I think it is appropriate 
that there be certain expectations in a second compact. Indeed, 
what you mentioned, the performance and the partnership of the 
country in the first compact would be at the top of my list. I 
think it is also appropriate to expect a contribution from the 
country in the second compact, and I know that there has been 
at least some of those. So I would be happy to take a look at 
that and also work with you and your colleagues on it.
    Senator Barrasso. Mr. Lopes, congratulations. I am happy 
that your parents were able to join you. As an orthopedic 
surgeon, I love the description of your grandfather. I think 
you said 8 acres and nine fingers.
    And being from Wyoming, I just wanted to talk a little bit 
about one of the issues, which are energy issues which you will 
be facing. We understand that natural gas is an abundant and 
reliable source of energy. It has not been very long ago that 
the United States was actually expected to be a major liquefied 
natural gas importer because we did not have enough. Now, as a 
result of advances in discovering natural gas, it seems that we 
could potentially be an exporter. I support that. So I think we 
have this rare opportunity through our own energy resources to 
simultaneously help develop regional energy security, 
strengthen our own foreign policy, and create much needed jobs 
here at home. I know you are aware of that from your time on 
the Foreign Relations Committee. So I think our energy 
resources can increase our own economic competitiveness.
    To bring this into the Inter-American Development Bank, 
they are currently examining the economic development role that 
natural gas exports, including LNG, can serve in the Western 
Hemisphere. Natural gas exports, as part of the broader energy 
strategy, can help nations in the Western Hemisphere lower 
energy cost to consumers and businesses and enhance 
competitiveness, to promote economic growth in the region while 
providing much needed jobs here at home.
    So can you just maybe discuss the role that you would see 
as the Executive Director, what role you would be prepared to 
play in ensuring that this Inter-American Development Bank is 
engaged in advancing a diversified energy strategy that 
includes using some of our expanded access to regional and U.S. 
sources of natural gas, including liquefied natural gas? 
Because I think it is an important component of this.
    Mr. Lopes. Sure. Well, thank you, Senator.
    As you may know, the bank is heavily engaged on financing 
for the energy sector, and the environment and infrastructure 
sector makes up about 50 percent of the entire bank's lending. 
As a result of the general capital increase from 2010, that 
number is about $11 billion of financing flowing throughout the 
region on an annual basis. So there are significant resources 
available, and the infrastructure and environment plays a 
significant role.
    The President's climate action plan seeks to promote energy 
access, reliability, and clean energy because, as you 
mentioned, that is a key element of economic development in the 
region. That economic development allows for additional 
opportunities for U.S. businesses, U.S. exports. I would 
include liquefied natural gas in that as one of the 
alternatives that the United States could look to. So certainly 
I would be happy to look into that and work with you and your 
staff moving forward to ensure that the bank is looking at the 
range of options that is appropriate, given the goals that the 
bank has as well and the countries themselves, of course.
    Senator Barrasso. Mr. Chairman, I just have one other line 
of questioning I would like to do, and it is something that you 
started on because you asked about coordination of activities.
    I think at the time Secretary Geithner, Secretary of the 
Treasury--this is back a couple of years ago. He spoke at the 
Inter-American Development Bank's annual meeting, board of 
governors, and he expressed a need for a clear division of 
labor between the World Bank and then the regional development 
banks which he said reflects the relative strengths of each 
institution.
    So I just wondered if you could kind of give me your view 
of that, perhaps what the Inter-American Development Bank's 
relative strengths are compared to other institutions, and how 
to better, as the chairman asked, coordinate activities.
    Mr. Lopes. Certainly. Well, thank you. I could not agree 
with you more in terms of the need for that coordination. The 
World Bank has about half the amount of financing that the IDB 
has in the region. So it is a significant player, and certainly 
we need to make sure that that division of labor makes the most 
sense possible. That would be one of the key things that I 
would look at from day one, if confirmed. I understand there 
are some differences with respect to the relationships and the 
research base between the different institutions. That is 
something I would see as a priority to dig into on day one 
exactly sharing Secretary Lew's views, as well as the need to 
continue to refine not just within the multilateral development 
banks, but also with other elements of U.S. assistance that is 
going to the region, of which I am uniquely positioned I think, 
given my current role, to be able to understand what is 
currently happening in the U.S. Government.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Markey. So what I would like to do is wrap up by 
asking each of you to give us your 1-minute big picture 
summation of what it is you hope to accomplish, what you see 
your role is and your agency's role for our country and for the 
world that we live in going forward. And we will begin with 
you, Ms. Hyde.
    Ms. Hyde. Thank you, Mr. Chairman.
    So if I could create my own scorecard for myself and for 
the agency for the next 3 years, it would have three main 
indicators, at least, at the top.
    The first would be to continue to ensure the results and 
the rigor and the data and the quantitative analysis that have 
been the hallmark of MCC, and that are likely to bring the 
economic growth that is at the core of the mission. For me, 
that would be the first principle of the job both in terms of 
investment decisions going forward and management.
    Second, I think there is an opportunity for MCC to deepen 
its partnerships, partnerships with other donors, with parts of 
the government, but especially partnerships with the private 
sector. I think it is important to maximize and to sustain 
these investments, particularly in the infrastructure space and 
the energy sector and the like. And I would be looking for the 
opportunities to do so.
    Third, as the MCC reaches its 10-year mark, I think it is 
appropriately time to take stock of what has worked, what has 
not worked, and where the agency should be going in the future. 
I look forward to leading that conversation, if confirmed. MCC 
has been a leader in the innovation space of development, and I 
would like to chart a course as to what that next horizon looks 
like for MCC.
    Senator Markey. Great.
    Mr. Lopes--Lopes.
    Mr. Lopes. Thank you, Mr. Chairman.
    Senator Markey. You would be a ``Lopes'' if you were in 
Fall River or New Bedford.
    Mr. Lopes. Absolutely.
    Senator Markey. Why is it it is ``Lopes'' in California but 
``Lopes''----
    Mr. Lopes. There is an active debate even within my own 
family, Mr. Chairman. [Laughter.]
    And I cannot comment on what the correct pronunciation of 
my name is.
    Senator Markey. But you are the leading edge of what the 
Lopes part of the family can produce I just want to tell you.
    So a 1-minute summation, please.
    Mr. Lopes. Thank you.
    Well, first, I mentioned the three areas in my opening 
statement, also working with the private sector, getting to 
that division of labor issue that I think is critically 
important, and then third, looking at emerging donors because 
one of the themes that we have seen in the region over the last 
30 years is that there has been a lot of progress and there is 
a lot of capacity within other governments within the region to 
offer that capacity to other countries where there is a need. 
So it is not always necessary for an American official to go 
down and train on one sector or another. There are other 
resources within the region. I think we should build on those 
and look to serve as a broker rather than always carrying that 
work out ourselves. That helps us with relationships in the 
region. It also helps to work us out of a job, which is Dana's 
and my ultimate goal.
    I think also just the sense of value that the investments 
in the Inter-American Development Bank offer. We basically put 
in $100 million a year. Immediately we get a $200 million grant 
facility to Haiti over the next 10 years. So from day one, we 
double our money. In addition to that, we have the ability to 
leverage the other donors and bring in what amounts to 
ultimately $11 billion worth of financing.
    So immediately we have got a range of different tools. I 
would work with my U.S. Government colleagues within the State 
Department, within the White House, with other agencies like 
the MCC and OPIC and Ex-Im Bank and USTR to ensure that all of 
our U.S. Government efforts are coordinated and make the most 
sense possible.
    So thank you for the opportunity to appear before you 
today.
    Senator Markey. Thank you. Well, I think both of you are 
ready on day one at 8 a.m. to take over these agencies. Your 
backgrounds are impeccable. And these are two cutting-edge 
international development agencies, and they need great 
leadership. And I think you can provide it.
    And I would also say to other members or their staffs that 
you have until Thursday afternoon to submit questions, and all 
statements in their entirety will be included in the record as 
well.
    And with that, this hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]


NOMINATIONS OF CATHERINE NOVELLI, CHARLES RIVKIN, TINA KAIDANOW, PUNEET 
        TALWAR, MICHAEL HAMMER, KEVIN WHITAKER, AND BRUCE HEYMAN

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Catherine Ann Novelli, of Virginia, to be Under Secretary of 
        State for Economic Growth, Energy & Environment; 
        Alternate Governor of the International Bank for 
        Reconstruction and Development; Alternate Governor of 
        the Inter-American Development Bank; Alternate Governor 
        of the European Bank for Reconstruction and Development
Hon. Charles Rivkin, of California, to be Assistant Secretary 
        of State for Economic & Business Affairs
Hon. Tina S. Kaidanow, of the District of Columbia, to be 
        Coordinator for Counterterrorism, with the rank and 
        status of Ambassador at Large
Puneet Talwar, of the District of Columbia, to be an Assistant 
        Secretary of State for Political Military Affairs
Hon. Michael A. Hammer, of the District of Columbia, to be 
        Ambassador to the Republic of Chile
Kevin Whitaker, of Virginia, to be Ambassador to the Republic 
        of Colombia
Bruce Heyman, of Illinois, to be Ambassador to Canada
                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Durbin, Corker, McCain, and 
Rubio.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order. Today as we approach the holiday 
recess, we have seven well-qualified nominees for the 
committee's consideration. We welcome them to the Senate. We 
welcome their family members who are joining us today to offer 
their support, and we know how proud you all must be. And as 
always, I encourage our nominees when it is their time before 
the committee to feel free to introduce family members or 
friends because they, too, are making a sacrifice in service to 
the Nation, and we appreciate their willingness to share you 
with our country, and for that fact, with a country that you 
will be assigned to or the charge for which you have.
    These nominees, if confirmed, will have some of the most 
important positions in the State Department and in this 
hemisphere. We are considering nominees for the two top 
economic posts in the State Department at a time when our 
country is pursuing the most ambitious trade agenda in 
generations. Our companies and workers are facing tougher 
competition than ever before. The global energy landscape is 
changing radically and at a time when the world faces serious 
environmental threats; nominees who will oversee State's 
counterterrorism and political military affairs at a time when 
the State Department's role in counterterrorism and diplomacy 
is more important than ever; nominees who will serve as our 
Ambassadors to three of our most important allies in this 
hemisphere--Canada, Chile, and Colombia.
    Let me remind everyone that the record will remain open 
until 12 o'clock tomorrow, Thursday. And before I introduce our 
first panel, let me turn to Senator Corker, the distinguished 
ranking member, for his comments.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, and I want to 
thank the two nominees for their willingness to serve in this 
capacity. I think, you know, our country, so many of our 
citizens, as one would expect, are focused inward these days 
because of the economic situation we find our country in and 
some of the fiscal issues. And I think it is difficult 
sometimes to champion the kind of activities that these two are 
going to be involved in. But we have 4\1/2\ percent of the 
world's population. We have 22 percent of the world's gross 
domestic product.
    And what that does is improve the quality of lives and the 
standard of living of people in Illinois, and New Jersey, and 
Tennessee, and yet sometimes we do not do a very good job of 
advocating for that and championing that. And I really do 
appreciate the fact that we have two nominees that are well 
qualified, that very much understand the importance of our 
involvement with other countries economically, and I think they 
are going to do a very good job in their roles. They are well 
qualified. I appreciate the time they have spent in our office, 
and I look forward to this hearing, Mr. Chairman.
    The Chairman. Well, with that ringing endorsement, we can 
call the hearing to an end. [Laughter.]
    Senator Corker. That would be fine with me. I have plenty 
to do today. I mean, it would be great if they introduced their 
families, and I think they would like to leave here feeling as 
if they are Henry Kissinger. [Laughter.]
    So maybe we could do that and move the hearing on.
    The Chairman. All right. Thank you, Senator Corker. I know 
that Senator Durbin is here to introduce one of our nominees 
who is in a subsequent panel, Bruce Heyman, and I know the 
distinguished whip's time is limited, so if you want to make an 
introduction now before the committee, we are happy to 
entertain that.
    Senator Durbin. Thanks, Mr. Chairman and Senator Corker. 
And thanks to the two nominees before us, Ms. Novelli and Mr. 
Rivkin, who has told me that he has Chicago roots. All the 
nominees reach out for connections, and that is a very good one 
for me.
    But I know on the third panel there is going to be another 
friend of mine, who has been nominated by the President to 
serve as Ambassador to Canada, Bruce Heyman. It is an honor for 
me to introduce him. His home now is in Illinois. He is here 
with his wife, Vicki, and their three children, David, Liza, 
and Caroline, and we welcome them.
    He is a managing director in investment management and 
regional head of the Private Wealth Management Group at Goldman 
Sachs, where has worked since 1980. Active member of the 
community, member of the Chicago Council on Global Affairs, 
Northwestern Memorial Hospital Foundation, Facing History and 
Ourselves, and the Committee for a Responsible Federal Budget, 
among other things; a magna cum laude graduate from Vanderbilt 
University with a B.A. and M.B.A.; served as the president of 
the alumni board of his alma mater's Graduate School of 
Management; broad experience facing many different challenges, 
and the right person for this job.
    The United States and Canada have a unique, positive, 
strong relationship forged by geography, shared values, and 
common interests, and I am sure that Ambassador Heyman--and he 
will be the Ambassador--will continue in that great tradition. 
We are proud of our friends north of the border, and we have a 
strong relationship with them in so many ways.
    Bruce, it is good to see you here today. The members of 
this committee look forward to hearing from you. I am sure they 
will see, as I have, that you will be serving the American 
people and the United States in keeping our friendship and 
alliance with Canada stronger than ever.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Well, let me introduce our first panel. Catherine Novelli, 
nominated to be the Under Secretary of State for Economic 
Growth, Energy, and Environment. Ms. Novelli has had a 
distinguished and highly successful career in both the public 
and private sectors. She has shown a deep personal commitment 
to public service over several decades--former assistant U.S. 
Trade Representative for Europe and the Mediterranean. She 
coordinated U.S. trade and investment policy for over 65 
countries of Western Europe, Central Europe, Russia, the NIS, 
the Middle East, and northern Africa regions in that position. 
And in prior roles as USTR, she has taken a lead role in many 
of the important U.S. trade negotiations in Europe, Russia, the 
Middle East, and north Africa over the last 25 years.
    Most recently, she has served as vice president of 
Worldwide Government Affairs at Apple, heading a multinational 
team responsible for Apple's Federal, international, State, and 
local government relations and public policies. We welcome you 
to the committee.
    Charles Rivkin has been nominated as Assistant Secretary of 
State for Economic and Business Affairs. He has appeared before 
our committee before, has served for the last 4 years, I think, 
with distinction as the U.S. Ambassador to France and Monaco. 
He is well known as the president and CEO of award-winning 
entertainment companies, including the Jim Henson Company and 
WildBrain, to mention some. And he has been credited with great 
success in expanding public diplomacy efforts.
    Your full statements are going to be entered into the 
record without objection, so we would ask you to summarize them 
in about 5 minutes or so so that we can enter into a 
conversation with you. And again, if you have family members or 
friends here with you, please introduce them to the committee.
    Ms. Novelli.

 STATEMENT OF CATHERINE ANN NOVELLI, OF VIRGINIA, TO BE UNDER 
      SECRETARY OF STATE FOR ECONOMIC GROWTH, ENERGY, AND 
 ENVIRONMENT; ALTERNATE GOVERNOR OF THE INTERNATIONAL BANK FOR 
   RECONSTRUCTION AND DEVELOPMENT; ALTERNATE GOVERNOR OF THE 
  INTER-AMERICAN DEVELOPMENT BANK; ALTERNATE GOVERNOR OF THE 
        EUROPEAN BANK FOR RECONSTRUCTION AND DEVELOPMENT

    Ms. Novelli. Thank you, Chairman Menendez, and Ranking 
Member Corker, and Senator Durbin. It is a great privilege to 
appear before you today as the nominee for Under Secretary of 
State for Economic Growth, Energy, and the Environment. I am 
humbled by the confidence that the President and Secretary 
Kerry have placed in me by nominating me for this position.
    I would like to introduce my husband, David Apol, and my 
daughter, Katerina, who along with my son, Daniel, have been a 
constant source of support and inspiration over the course of 
my career. Daniel wanted to be here today, but his plan was 
disrupted by his end of semester exams.
    I would also like to pay a special tribute to my parents, 
Albert and Virginia Novelli, both first generation Italian-
Americans who are a shining example of the opportunities this 
county presents to succeed through determination and hard work. 
My dad, who passed away this summer, was a World War II 
veteran, and his 30-year career in service to his country was a 
lesson to me in the value and reward of public service.
    I am excited about the prospect of returning to government 
to serve. I hope to bring a very special practical perspective 
to policymaking and implementation of policy based on my work 
in both the public and private sectors.
    In my more than 20 years of public service, primarily at 
the U.S. Trade Representative's Office and also at the 
Department of Commerce, I learned how important clear and 
transparent rules of the road are for U.S. companies seeking to 
sell products or invest. I have also seen how clear rules 
promote growth in our economic partners and, thus, create jobs 
for Americans. For the past almost 7 years, I have had the 
honor of working for Apple and have experienced firsthand the 
challenges that face one of America's most innovative companies 
in order to compete in markets around the world.
    President Obama has made clear that our No. 1 goal must be 
to promote growth, create jobs, and strengthen the middle 
class. If confirmed, furthering U.S. competitiveness will be my 
top priority. The State Department has an important role to 
play in these efforts by insisting on written rules of the road 
for all global economic players, and helping to create a level 
playing field through muscular advocacy for U.S. companies.
    I will also make it a priority to ensure that the State 
Department fully and effectively integrates our energy 
security, environmental, and commercial policies to best 
support our broad national interests. The International Energy 
Agency estimates that the world will need nearly $17 trillion 
in power sector investment alone through 2035. The types of 
energy investment decisions countries around the world make 
over the next 20 years will have powerful impacts on our energy 
security, environment, and America's commercial prospects.
    The intersection between U.S. energy security, economics, 
and environment also extends to policies surrounding the 
world's oceans. Oceans cover almost three quarters of our 
planet. They are vital resources for food, for transportation, 
and for energy. Many jobs and economies around the world depend 
on the living marine resources in our oceans. I will make it a 
priority to engage with our partners, stakeholders, as well as 
the members of this committee to ensure that our oceans are 
healthy and sustainable and that we are striking the right 
balance in this important area.
    In all of these areas--business, energy and environment--
U.S. ingenuity and creativity has played a critical role. My 
work at both USTR and Apple has convinced me of the importance 
of doing everything within my power to support innovation and 
entrepreneurship. Innovation and entrepreneurship have fueled 
American economic growth since the founding of our country. For 
example, in an area with which I am very familiar, an 
independent economic study traced the creation of over 750,000 
U.S. jobs in the past 5 years just to the app economy alone. 
With so much at stake, I plan to make promoting the policies 
that will keep markets open for our scientists, inventors, and 
creators a key focus of my tenure at the State Department.
    The U.S. Senate has been an important partner for the 
administration on a broad range of economic policy issues, 
including the ones I just mentioned. I welcome the insight the 
members of this committee bring to our international economic 
challenges, and if confirmed, I hope to work closely with you 
in support of our country's economic interests.
    Thank you for considering my nomination. I would be pleased 
to answer any questions that you may have.
    [The prepared statement of Ms. Novelli follows:]

               Prepared Statement of Catherine A. Novelli

    Thank you, Chairman Menendez and Ranking Member Corker, and all the 
members of this committee. It is a great privilege to appear before you 
today as the nominee for Under Secretary of State for Economic Growth, 
Energy and the Environment. I am humbled by the confidence that the 
President and Secretary Kerry have placed in me by nominating me for 
this position.
    I would like to introduce my husband, David Apol, who, along with 
my daughter, Katerina, and son, Daniel, has been a constant source of 
support, and inspiration over the course of my career. Katie and Daniel 
wanted to be here today, but their plan was disrupted by their end of 
semester exams at school. I would also like to pay a special tribute to 
my parents, Albert and Virginia Novelli, both first generation Italian 
Americans who are a shining example of the opportunities this county 
presents to succeed through determination and hard work. My dad, who 
passed away this summer, was a World War II veteran and his 30-year 
career in service to his country was a lesson for me in the value and 
reward of public service.
    I am excited about the prospect of returning to government to 
serve. If confirmed, I hope to bring a very practical perspective to 
policymaking and implementation of policy based on my work in both the 
public and private sectors. In my more than 20 years of public service, 
primarily at the U.S. Trade Representative's Office and also at the 
Department of Commerce, I learned how important clear and transparent 
rules of the road are for U.S. companies seeking to sell products or 
invest. I have also seen how clear rules promote growth in our economic 
partners and thus create jobs for Americans. For the past almost 7 
years, I have had the honor of working for Apple, and have experienced 
firsthand the challenges that face one of America's most innovative 
companies in order to compete in markets around the world.
    President Obama has made clear that our number one goal must be to 
promote growth, create jobs and strengthen the middle class. If 
confirmed, furthering U.S. competitiveness will be my top priority. The 
State Department has an important role to play in these efforts by 
insisting on written rules of the road for all global economic players, 
and helping to create a level playing field through muscular advocacy 
for U.S. companies.
    Already, the State Department has made it a top priority to assist 
U.S. businesses to win contracts overseas. If confirmed, I will 
continue to mobilize the State Department--from our most senior 
officials on the 7th floor to our over 1,100 economic professionals in 
Washington and the field--to conduct aggressive advocacy on behalf of 
American firms.
    I understand well from my experience in government and the private 
sector that doors are not always open to American exports. Our strength 
has been to negotiate agreements with our partners where the rule of 
law prevails. If confirmed, I will be a vigilant and relentless 
advocate to enforce our international agreements to open markets, 
combat unfair subsidies, and protect the intellectual property of 
American companies. These principles have made the United States strong 
and a fountain for global growth that in turn benefits American 
workers. Smart diplomacy backed by unambiguous enforcement of 
international agreements fosters the competitive markets that play to 
America's strengths.
    Working with countries on agreements to increase trade and level 
the playing field for investment will also be essential to unlocking 
barriers to U.S. growth. As Secretary Kerry has stated, the more 
American firms sell abroad, the more they are going to hire here at 
home. And since 95 percent of the world's customers live outside of our 
country, we have to make sure our firms can compete in those 
increasingly growing markets.
    If confirmed, I will also make it a priority to ensure that the 
State Department fully and effectively integrates our energy security, 
environmental, and commercial policies to best support our broad 
national interests. The International Energy Agency estimates that the 
world will need nearly $17 trillion in power sector investment alone 
through 2035. Almost $10 trillion of this amount will go toward power 
generation. The types of energy investment decisions countries around 
the world make over the next 20 years will have powerful impacts on our 
energy security, environment, and America's exports and commercial 
prospects. If confirmed, I will promote a fully integrated approach in 
these areas aimed at identifying the policies that best support our 
broad national interests.
    Energy and national security are clearly entwined. We have seen 
that with the smart and aggressive implementation of the sanctions on 
Iranian oil exports that were developed by this committee. In today's 
world, good diplomacy must embrace the energy dynamics so fundamental 
to global wealth and power. If confirmed, I will work to ensure that 
U.S. foreign policy leverages to our benefit the complex and shifting 
geopolitics sparked by the energy revolution that began in the United 
States--so that our national security, our energy security, and our 
economic prosperity is advanced.
    The intersection between U.S. energy security, economics, and 
environment also extends to policies surrounding the world's oceans. 
Oceans cover almost three quarters of our planet. They are vital 
resources--for food, for transportation, and for energy. The oceans 
play a role in regulating our climate and our weather. Over one-third 
of the world's population lives in coastal areas and more than 1 
billion people worldwide rely on food from the ocean as their primary 
source of protein. Many jobs and economies around the world depend on 
the living marine resources in our oceans. Oceans also inspire awe, 
wonder, and delight from teeming coral refers in the Caribbean to the 
haunting beauty of the songs of the humpbacked whales. Oceans are a 
priority for the State Department and if confirmed, they will be a 
priority for me as well. I will make it a priority to engage with our 
partners across the U.S. Government and around the world, other 
stakeholders, as well as the members of this committee to ensure that 
our oceans are healthy and sustainable and we are striking the right 
balance in this important area.
    In all of these areas--business, energy and environment, U.S. 
ingenuity and creativity has played a critical role. My work at both 
USTR and Apple has convinced me of the importance of doing everything 
within my power to support innovation and entrepreneurship. Innovation 
and entrepreneurship have fueled American economic growth since the 
founding of our country. For example, in an area with which I am very 
familiar, an independent economic study traced the creation of over 
750,000 U.S. jobs in the past 5 years just to the App economy alone. 
With so much at stake, if confirmed, I plan to make promoting the 
policies that will keep markets open for our scientists, inventors, and 
creators a key focus of my tenure at the State Department.
    The U.S. Senate has been an important partner for the 
administration on a broad range of economic policy issues, including on 
the ones I just mentioned. I welcome the insight the members of this 
committee bring to our international economic challenges, and if 
confirmed, I hope to work closely with you in support of our country's 
economic interests.
    Thank you for considering my nomination. I would be pleased to 
answer any questions you may have.

    The Chairman. Thank you.
    Mr. Rivkin.

    STATEMENT OF HON. CHARLES RIVKIN, OF CALIFORNIA, TO BE 
 ASSISTANT SECRETARY OF STATE FOR ECONOMIC AND BUSINESS AFFAIRS

    Ambassador Rivkin. Thank you, Chairman Menendez, Ranking 
Member Corker, and members of the committee. Before I begin, I 
would like to introduce my brother, the Honorable Robert 
Rivkin, and I want to acknowledge my extraordinary wife, Susan, 
who is with me here today, and thank her for the important work 
that she did in France, as well as for her ongoing support and 
sacrifice. Our children, Elias and Lily, who are in college and 
could not attend this hearing, have been inspired by a family 
tradition of public service and are an enormous source of pride 
for us.
    It is an honor to be here today as President Obama's 
nominee for Assistant Secretary of State for Economic and 
Business Affairs. I am doubly honored that President Obama and 
Secretary Kerry are placing their trust in me for a second 
time, and that after more than 4 years of serving my country 
overseas as U.S. Ambassador to France, they have asked me to 
come back to Washington to serve in a different capacity. I am 
humbled by their faith and excited by the new challenges and 
opportunities before me.
    In the days since President Obama nominated me as Assistant 
Secretary of State for Economic and Business Affairs, many of 
my colleagues in the private sector have asked me what this 
Bureau actually does to promote their interests. And my simple 
answer is the State Department's Economic Bureau does two basic 
things. It creates jobs for Americans, and it keeps our country 
safe.
    As Secretary Kerry has testified before the committee, 
``Now,'' he said, ``more than ever economic policy is foreign 
policy.'' And if confirmed, I will build on the work of 
President Obama and Secretary Kerry to use economic engagement 
as a way to foster growth and prosperity around the world, 
which safeguards security and prosperity here at home. That is 
the core mission of the State Department's Bureau of Economic 
and Business Affairs, otherwise known as EB.
    If confirmed, I would provide leadership to over 200 
talented Foreign Service and civil service professionals here 
in Washington, DC, and provide direction to our greatest asset, 
a network of more than 1,100 State Department economic 
professionals abroad, including the U.S. mission to the OECD.
    If confirmed, I will help these dedicated public servants 
level the playing field for American workers around the world 
by breaking down barriers to U.S. business success in foreign 
markets, by promoting U.S. exports, and by attracting job-
creating foreign investment to the United States. EB plays an 
important role in enforcing intellectual property rights, 
promoting innovation, supporting entrepreneurship, negotiating 
trade agreements, and ensuring that everything from car parts 
to medicines is safe and reliable.
    If confirmed, I would oversee the negotiation of air 
transport agreements that link U.S. cities with the rest of the 
world. I would prioritize work with our partners around the 
globe to maintain a free, open, and accessible global Internet. 
Under my leadership, EB would promote security by continuing to 
disrupt the financial pipelines that terrorists rely on to fund 
attacks against the United States and our allies, and I would 
help implement and administer targeted sanctions against those 
who threaten peace and stability.
    I am excited by the prospect of leading EB because, if 
confirmed, I would bring a unique combination of skills to the 
job. As a CEO, I ran several successful businesses, and as a 
diplomat, I ran one the largest and most complex U.S. embassies 
in the world. And I know the importance of having the U.S. 
Government on your side when you are looking at overseas 
markets and trying to navigate uncharted territories.
    And as Chief of Mission, I saw firsthand what dedicated 
U.S. Government employees can accomplish together because I was 
responsible for coordinating the work of more than 40 U.S. 
Government agencies in France, including the Departments of 
State, Defense, Justice, Agriculture, Homeland Security, and 
Commerce. I know how to bring an interagency team together to 
get things done and, if confirmed, I would bring this whole-of-
government approach to my new job. Recent Presidential 
priorities, such as the National Export Initiative and 
SelectUSA, would benefit from this approach.
    While serving in Paris, I had the honor and privilege to 
host congressional delegations and work with Congress, 
including this committee, to advance America's interests. And 
if confirmed, I look forward to continuing that partnership and 
engaging in frequent consultations with this committee and its 
staff.
    If confirmed, I would be the first noncareer bilateral 
ambassador to ever lead EB, and my experience in both the 
public and private sectors would give me insight into how we 
could better leverage our embassies around the world in support 
of U.S. economic policy. I also understand the need to be even 
more innovative and creative in how we conduct modern 
diplomacy. The U.S. mission to France, for example, became the 
first U.S. embassy in the world to have a fleet of American-
made electric cars thanks to a willingness to embrace new ideas 
from our young Foreign Service officers in the field, some of 
whom are in this room today.
    Mr. Chairman and members of the committee, if confirmed by 
the United States Senate, I would help reinforce Secretary 
Kerry's vision of the prominence of economic affairs in foreign 
policy, and I would take a whole-of-government approach in 
sending a clear signal that America is open for business. I 
dedicate myself to completely fulfilling my Bureau's mandate of 
creating more jobs and making America more secure. I look 
forward to this important challenge, and I would be happy to 
answer your questions. Thank you.
    [The prepared statement of Ambassador Rivkin follows:]

              Prepared Statement of Hon. Charles H. Rivkin

    Thank you, Chairman Menendez, Ranking Member Corker and members of 
the committee. Before I begin, I want to acknowledge my extraordinary 
wife, Susan, and thank her for her important work in France, as well as 
for her continued support and sacrifice. Our children, Elias and Lily, 
who are in college and could not attend this hearing, have been 
inspired by a family tradition of public service and are an enormous 
source of pride.
    It is an honor to be here today as President Obama's nominee for 
Assistant Secretary of State for Economic and Business Affairs. I am 
doubly honored that President Obama and Secretary Kerry are placing 
their trust in me for a second time, and that after more than 4 years 
of serving my country overseas as U.S. Ambassador to France, they have 
asked me to come back to Washington to serve in a different capacity. I 
am humbled by their faith and excited by the new challenges and 
opportunities before me.
    In the days since President Obama nominated me as Assistant 
Secretary of State for Economic and Business Affairs, many of my 
colleagues in the private sector have asked me what this Bureau does to 
promote their interests. My simple answer is that the State 
Department's Economic Bureau does two basic things: It creates jobs for 
Americans and keeps our country safe.
    As Secretary Kerry has testified before this committee, ``now more 
than ever economic policy is foreign policy.'' If confirmed, I will 
build on the work of President Obama and Secretary Kerry to use 
economic engagement as a way to foster growth and prosperity around the 
world, which safeguards security and prosperity at home. That is the 
core mission of the State Department's Bureau of Economic and Business 
Affairs, also known as ``EB''.
    If confirmed, I would provide leadership to over 200 talented 
Foreign Service and Civil Service professionals here in Washington, DC, 
and provide direction to our greatest asset--a network of more than 
1,100 State Department economic professionals abroad, including the 
U.S. mission to the OECD (Organization for Economic Co-Operation and 
Development).
    If confirmed, I will help these dedicated public servants level the 
playing field for American workers around the world by breaking down 
barriers to U.S. business success in foreign markets, by promoting U.S. 
exports, and by attracting job-creating foreign investment to the 
United States. EB plays an important role enforcing intellectual 
property rights, promoting innovation, supporting entrepreneurship, 
negotiating trade agreements, and ensuring that everything from car 
parts to medicines is safe and reliable. If confirmed, I would oversee 
the negotiation of air transport agreements that link U.S. cities with 
the rest of the world. I would prioritize work with our partners around 
the globe to maintain a free, open, and accessible global Internet. 
Under my leadership, EB would promote security by continuing to disrupt 
the financial pipelines that terrorists rely on to fund attacks against 
the United States and our allies, and I would help implement and 
administer targeted sanctions against those who threaten peace and 
stability.
    I am excited by the prospect of leading EB because, if confirmed, I 
believe I would bring a unique combination of skills to the job: As a 
CEO, I ran several successful business enterprises; and as a diplomat, 
I ran one the largest and most complex U.S. embassies in the world.
    I know the importance of having the U.S. Government on your side 
when you're looking at overseas markets and trying to navigate 
uncharted territories. As Chief of Mission, I saw firsthand what 
dedicated U.S. Government employees can accomplish together. I was 
responsible for coordinating the work of more than 40 U.S. Government 
agencies in France including the Departments of State, Defense, 
Justice, Agriculture, Homeland Security, and Commerce. I know how to 
bring an interagency team together to get things done and, if 
confirmed, would bring this ``whole of Government'' approach to my new 
job. Recent Presidential priorities, such as the National Export 
Initiative and SelectUSA, benefit from this approach.
    While serving in Paris, I had the honor and privilege to host 
congressional delegations and work with Congress to advance America's 
interests. If confirmed, I look forward to continuing that partnership, 
and engaging in frequent consultations with this committee and its 
staff.
    If confirmed, I would be the first noncareer bilateral ambassador 
to lead EB, and my experience in both the public and private sectors 
would give me insight into how we could better leverage our Embassies 
around the world in support of U.S. economic policy. I also understand 
the need to be even more innovative and creative in how we conduct 
modern diplomacy. The U.S. mission to France, for example, became the 
first U.S. Embassy in the world to have a fleet of American-made 
electric cars thanks to a willingness to embrace new ideas from our 
young Foreign Service officers in the field.
    Mr. Chairman and members of the committee, if confirmed by the 
United States Senate, I will help reinforce Secretary Kerry's vision of 
the prominence of economic affairs in foreign policy and I will take a 
``whole of Government'' approach in sending a clear signal that America 
is open for business. I will dedicate myself to completely fulfill my 
Bureau's mandate of creating more jobs and making America more secure.
    I truly look forward to this important challenge, and would be 
happy to answer your questions.

    The Chairman. Thank you both for your statements.
    Let me start off. Ms. Novelli, you, if confirmed, would 
take over at a time in which we have major economic and 
environmental energy related challenges and opportunities. And 
many of us have advocated inclusion of these types of issues 
into broader U.S. foreign policy discussions. Do you agree with 
that sentiment, and how might a more integrated approach to 
economic diplomacy guide our strategic outlook?
    Ms. Novelli. Yes, Senator.
    The Chairman. If you would put on your microphone.
    Ms. Novelli. Great. Yes, Senator. I fully agree with that 
approach and think it is absolutely vital that we recognize 
that we live in a global economic world that is highly 
competitive, and that all of these different issues that you 
have named intersect with each other and have impact on each 
other, and they cannot be just looked at in isolation. And that 
is something I worked on very much even while I was at USTR, 
integrating all these different issues into our trade policy, 
and now taking that forward to integrate that into our foreign 
policy and understand that these things are inextricably 
intertwined. So I plan to work very hard on that.
    Secretary Kerry, when he talked to me about this position, 
said that that was his view as well, and so I plan on working 
with him and all of the senior leadership team as well as 
Ambassador Rivkin to make that we are elevating our integrated 
economic interests into our foreign policy.
    The Chairman. Well, let me continue on that line. One of 
the things that I have been developing is an effort to put some 
more meaning to what economic statecraft means in tangible 
ways, and will hopefully be rolling that out in the very near 
future.
    For me, that means using the full range of economic tools, 
trade, investment, assistance, negotiations, sometimes 
sanctions, to achieve foreign policy objectives, and you both 
have elements of this in your respective potential portfolios. 
So I would like to get a sense from you of how you would plan 
to pursue such an initiative, which is in line with what the 
Secretary himself has announced. And what additional policies 
would you implement to ensure that it leads to tangible 
economic growth here in the United States, because I see that 
as an important part of the equation.
    We obviously have very important concerns in bilateral 
relations with countries. We have concerns within multilateral 
forms, like the U.N., OAS, NATO, and others. By the same token, 
while we are pursuing foreign policy that is about national 
security and national interests, one of the things I have felt 
that we have never done--this is not just this administration--
that we have never done over time in the most meaningful of 
ways is use our full all-of-government approach in a way that 
inures to open markets to greater transparency, to protect 
intellectual property rights, which is something that I am 
critically concerned about coming from a State that has so many 
innovators, and for which I believe we lead in the world as a 
result of our innovation here at home.
    Give me a sense, beyond the conceptual elements, of how, if 
confirmed, you would help drive making economic statecraft with 
part of an end goal being domestic economic opportunity as your 
effort in your respective positions.
    Ms. Novelli. Well, Senator, I think maybe the best way to 
give you a concrete sense is to maybe take one of the areas 
that you mentioned and give you a concrete sense of how I could 
see that being integrated. And that would be the protection of 
intellectual property, which I know firsthand from my previous 
job is vital to our own job creation in the United States.
    And so there, I think we do have many tools at our 
disposal. We have the job owning tool of raising this, which 
has been raised with the Chinese Government at the highest 
levels by President Obama and Secretary Kerry. We also have an 
assistance tool to help countries actually both write laws that 
are going to adequately protect intellectual property, as well 
as enforce them. We can use exchanges with our own judiciary to 
help with that, as well as our aid functions and other 
assistance by other experts in the U.S. Government to help with 
that. We also have our tools of the World Trade Organization to 
bring people to dispute settlement if they are not following 
their obligations under the WTO under the TRIPS obligations. So 
we have a very broad range of tools there.
    I think we also have our trade promotion tools to encourage 
companies through SelectUSA and other means to invest in the 
United States, creative companies, companies who are creating 
intellectual property to invest here and create high-level jobs 
here. So I believe that there is a broad range of all of the 
things that we can do.
    The Chairman. There is a broad range, and I agree with you, 
in all of those agencies and others. The problem that I 
perceive is that we do not bring that in a focused, harnessed 
way on behalf of our opportunities, our companies, our advocacy 
abroad, and I hope that we will be able to work with you. I do 
not expect that we are going to flush that all out at this 
hearing, but I hope we will be able to work with you--and I 
would like to hear from the Ambassador as well--to try to think 
about working with the Department and others.
    You know, we have so many different entities and agencies, 
and sometimes I look at other countries that bring it all under 
an umbrella, at least in a focused way, and it creates a pretty 
powerful result. And I look at just Latin America by way of one 
example. We used to do infrastructure throughout Latin America. 
We were the lead. I recently did a map of all of the major 
projects in Latin America, and they are overwhelmingly either 
Chinese, from Spain, or, in some cases, Brazilian companies 
doing major infrastructure work that the United States used to 
do. I think there are one or two American flags out of a list 
of 50. That is an example of what I would like to see changed, 
and so we look forward to working with you. Ambassador, do you 
want to talk to this, please?
    Ambassador Rivkin. Thank you, Senator, and thank you for 
the question because obviously that will be central to what Ms. 
Novelli and I would try to achieve if confirmed. I, of course, 
agree with what Ms. Novelli said, but you asked for also some 
specific examples. There are some easy things we could do. 
Clearly education and training at the State Department in terms 
of making our economic officers even more business savvy. 
Clearly, you know, it would make sense on foreign travel from 
the most senior levels of the State Department to have an 
economic agenda. You mentioned the advocacy that other 
countries put forward. I witnessed that experience in France, 
and they are also quite effective at the highest level of 
government by putting statecraft at the center of their agenda.
    But you know what we really do concretely, and I can speak 
to this directly, is the chance to lever our embassies around 
the world. We have some of the smartest people, you know, in 
the U.S. Government, in my opinion, in almost every country in 
the world waiting to help. I mean, an example would the Foreign 
Commercial Service, which I helped manage in Paris. The Foreign 
Commercial Service is present in 70 countries with the Commerce 
Department, but there are 58 additional countries where that 
service is done by the State Department. And we need to work 
with Congress.
    I think, and Secretary Pritzker I know agrees, that we can 
do more to coordinate that effort. State can work more closely 
with the USTR. We need to get these free trade--the two trade 
agreements that are on the table, the Transatlantic Trade 
Investment Partnership and the--you know, deal done. And I 
think these would be absolute tangible measures that we could 
increase the role of economics in foreign policy.
    The Chairman. Finally, Ambassador, your Bureau is going to 
be responsible for implementing foreign-policy-related 
sanctions adopted to counter threats to national security 
posted by--posed, I should say, by particular activities in 
countries. In light of the recent debate over the efficacy for 
further economic sanctions in Iran, I would like to hear--it is 
not about Iran specifically--but I would like to hear your 
views in this hearing on the appropriate use of sanctions as a 
foreign policy tool.
    Ambassador Rivkin. Well, Senator, thank you for the 
question. I would like to start with Iran because it is 
current, and on the table, and very much in the news. And, you 
know, I think it is important to mention that our core 
sanctions architecture, of course, remains in place with the 
current proposal, and that the relief we are providing right 
now to Iran is limited, temporary, targeted, and reversible.
    And I know the State Department feels very strongly that it 
is important at this moment in time to give diplomacy a chance.
    I think thanks to the work of Congress----
    The Chairman. Are you open--I tried to get you to avoid 
that. You opened up a box, and we are now going to talk about. 
But go ahead, finish the rest of----
    Ambassador Rivkin. I am happy to talk about it, sir. I 
believe that thanks to Congress, thanks to the administration's 
policies, we have the opportunity to have these discussions 
with Iran because the sanctions have been effective, and that 
is the point I wanted to make in general, which is that 
sanctions when they are well coordinated can be absolutely 
effective as a tool of foreign policy.
    The Chairman. Well, the question before the Senate is a 
difference of opinion between the administration and the Senate 
about achieving a mutual goal. And some of us, myself included, 
have been the architects of the sanctions regime that has 
brought Iran to the table, which has not always been supported 
by previous administrations as well as by this one.
    We have always heard that it is not the time and it is not 
the right set of circumstances, and yet they have been embraced 
as the major reason why we have Iran at the negotiating table. 
And so, from our perspective, the reality is that having 
prospective, outside of the window of diplomacy, and at the 
same time as both an insurance policy should our aspirations 
not be achieved, and we have a history of not achieving our 
aspirations with Iran, as well as an incentive to understand 
that this is what is coming if, in fact, there is not a deal 
struck is a positive pursuit.
    I wanted to hear from you more on the sanctions focus 
generally. I did not want to get to Iran because that would 
consume most of this hearing, but I do hope that you will talk 
to your position beyond just Iran. There are moments--there are 
only a handful of useful diplomacy tools. It is the use of your 
aid and your trade to induce a country to move in a certain 
way. It is the use of international opinion to the extent that 
you are dealing with a country that is willing or susceptible 
to being moved by international opinion, or it is the denial of 
aid or trade, which we generally consider sanctions among 
others, as a way to deter a country from pursuing a course that 
is not in our national interest or security or world security 
for that fact, and at the same time to hopefully incentivize 
and to move in a different direction.
    So I have never met anyone in my 21 years of dealing with 
foreign policy between the House and the Senate any 
administration, Republican or Democrat, who has ever said to 
me, please send me sanctions. But the bottom line is as a tool 
of peaceful diplomacy, sometimes it needs to be considered. And 
what I have a problem with is I have had experience with 
administrations that outright reject the possibility of 
sanctions when, in fact, it is part of a very limited universe 
of peaceful diplomacy tools.
    Senator Corker.
    Senator Corker. Again, thank you for coming. I know that we 
have three panels, so I am going to be very brief, and we had 
an extensive amount of time yesterday in our offices or the day 
before. But, Ms. Novelli, you are going to have the--I know you 
talked a little bit about environmental issues with the 
chairman, but you are going to be the person, I suppose, that 
will recommend to Secretary Kerry whether the Keystone Pipeline 
is in U.S. national interests or not. And, you know, you 
certainly cannot say you have not been around. You have been 
very close to these issues. So I would like for you to respond 
as to how you plan--what recommendation you plan to make and 
what criteria you plan to use to make that recommendation.
    Ms. Novelli. Well, Senator Corker, while I have been around 
in the private sector, I certainly have not been involved in 
the deliberative process that has taken place thus far on the 
Keystone Pipeline. But it is my understanding that there has 
been a rigorous, objective, and transparent process that has 
been undertaken, and over a million public comments have been 
received and are being evaluated. And as soon as I get into the 
State Department, if I am confirmed, I plan to ensure that all 
of our country's economic interests are taken into account very 
vigorously in looking at this whole question, because there 
needs to be a decision based on our overall national interests.
    Senator Corker. So when you make that recommendation, you 
are going to focus almost exclusively on what is in the 
economic interest of our country.
    Ms. Novelli. I am going to make that a focus of what I look 
at.
    Senator Corker. What other criteria would you look at?
    Ms. Novelli. There are other criteria, as I--again, as I 
understand it, and I cannot really prejudge this since I am not 
in the position yet. But there are some environmental questions 
that have been raised as well, and those things have to be 
balanced. But our economic interests absolutely have to be part 
and parcel of any decision that is made.
    Senator Corker. Thank you. The issue of State on 
enterprises I know both of you will be focused on. And, you 
know, as you continue to focus on our economic interests in our 
country, you will have to look at the competing issues of 
private companies having to deal increasingly with staying on 
enterprises around the world, and I just wonder how each of you 
plan to deal with that issue. We especially have issues with 
China relative to that, and I think, Ms. Novelli, you have 
certainly dealt with that in the private sector. I know the 
Ambassador has full understandings of that also. And I just 
wonder how you, in your respective jobs, plan to deal with that 
issue.
    Ambassador Rivkin. Thank you very much, Senator, for the 
question. Obviously that concerns us quite a bit, and we have a 
number of tools at the State Department's disposal to try to 
address that issue. If confirmed, sir, one of them is, of 
course, the bilateral investment treaties, the BITs, and we 
have discussions ongoing right now in both China and India and 
other parts of the world for bilateral investment treaties that 
would, I think, level the playing field against sovereign-owned 
enterprises and give our companies a chance.
    Senator Corker. Would you like to speak to that?
    Ms. Novelli. Well, in addition to the BITs, which I fully 
agree need to include these kinds of provisions, there is also 
looking at putting these into the Trans-Pacific Partnership 
Agreement. And while some of the countries who are the most 
egregious in their use of State-owned enterprises are not part 
of that, it can serve as a sort of a marker and a gold standard 
for what we think should be the disciplines that are put on 
those enterprises.
    So besides the direct bilateral approach, which we will 
vigorously undertake, both of us together, we will also look at 
multilaterally and see what kind of disciplines we can get 
everybody else to agree to so we can kind of surround the 
problem.
    Senator Corker. Mr. Rivkin, I know as Ambassador, and 
again, I appreciate the time we spent in France together, and 
as I have mentioned, have commended you on your service there. 
But during that time, Europe unilaterally tried to expose our 
commercial aviation industry to ETS, and, you know, Congress 
has obviously pushed back against that. I wonder what you plan 
to do in your prospective role to counter unilateral efforts of 
that nature that really cause one portion of the world to be 
dealing with a global issue that many of us--I think most of us 
here believe should not be implemented against us unilaterally 
in that way.
    Ambassador Rivkin. Thank you, Senator. If confirmed, 
obviously that would be a very important part of my portfolio 
is running the Economic Bureau, and in our opinion, the October 
16th EU proposal for ETS is a bad idea.
    We are opposed to the application of European ETS. We think 
it is unwise because reinstating the ETS with respect to 
international aviation may undermine the agreements that were 
already put in place IKO, and IKO is the right home for these 
global decisions.
    Senator Corker. Well, listen, again, thank you both. I 
appreciate the time in the office, and I know that on the 
Keystone issue, that was an elegant nonanswer. I just want to--
and I understand that. I understand you are a pretty bright 
person and seasoned. I do just ask each of you, I think that 
both of you bring a lot of energy, and I think you know that--I 
have told you both privately that I think you are well 
qualified, and I have said that here today publicly.
    This has been sort of a disappointing period of time in 
Washington over the last month for a lot of reasons. And I 
would just ask you both--I know that you come to these jobs 
with a tremendous amount of energy and zeal. But I do ask you 
to please not partake in special interest group politics in 
your position; that when you are looking at our economic 
interests, that we do not, as I mentioned to both of you in our 
office, focus on parochial issues or special interests to try 
to gain favor for the administration politically and other 
ways, but that you focus globally on the fact that if our 
country is able to compete around the world on a more level 
playing field, it really does improve the standard of living of 
the people that we represent. And I hope that in all cases you 
will hold that as your highest goal and move away from some of 
the special interests politics that I think have hampered the 
State Department and hampered our country, candidly.
    And I hope as we move forward with the TPP and we move 
forward with the EU Trade Agreement you all will do everything 
you can to keep, candidly, Senators and House Members from 
trying to inflict those same kinds of things in a trade 
agreement that might otherwise make it much weaker and not as 
advantageous over time to our country.
    So with that, I thank you and I appreciate again your 
desire to serve, your families' willingness to serve with you. 
And I wish you well.
    The Chairman. One final question I ask all of our nominees. 
Will you commit to this committee to be responsive to requests 
both for potential appearances and information that the 
committee asks of you?
    Ms. Novelli. Absolutely.
    Ambassador Rivkin. Yes, absolutely, sir.
    The Chairman. Thank you. With that, with our appreciation 
for your appearance here today--there may be other questions 
submitted for the record, which we will determine in a little 
bit how long the record will remain open. I would urge you to 
respond as quickly as possible to those questions in order to 
consider your nominations before a business meeting of the 
committee.
    So thank you all, and you are excused at this point.
    Ambassador Rivkin. Thank you.
    The Chairman. And as we excuse this panel, let me begin to 
introduce and call up our second panel. Ambassador Tina 
Kaidanow is nominated to be the Coordinator for 
Counterterrorism with the rank and status of Ambassador at 
Large. Ambassador Kaidanow is a career member of the Senior 
Foreign Service, most recently serving as Deputy Ambassador at 
the U.S. Embassy in Kabul, where I had the opportunity to visit 
with her earlier this year, impressed by her insights. She was 
Principal Deputy Assistant Secretary of State, previously 
served as Deputy Assistant Secretary of State for European and 
Eurasian Affairs. She has served as Ambassador to Kosovo on the 
National Security Council of the White House. And we welcome 
her to the committee.
    Puneet Talwar is no stranger to this committee, where he 
served with distinction as a senior professional staff member, 
chief advisor on the Middle East for the chairman and now Vice 
President Joe Biden. He has been nominated to the top 
diplomatic post of Assistant Secretary of State for Political 
Military Affairs. He has been President Obama's top advisor on 
the Middle East for over 4 years, so we welcome you back to the 
committee.
    Again, your opening statements will be included in the 
record without objection. We ask you to summarize your 
statements in about 5 minutes or so we can enter into a Q and A 
session again. And if you have family members or friends here, 
please do not hesitate to introduce them to the committee.
    And once I get--Bertie, can you change those signs? You 
have the right ones. You just have them in the wrong order. It 
is OK. Switch them. All right, there we go. Absolutely. I do 
not want people watching saying, wait a minute, who is giving 
that answer. [Laughter.]
    We welcome you both to the committee. Ambassador Kaidanow, 
we will start with you.

    STATEMENT OF HON. TINA S. KAIDANOW, OF THE DISTRICT OF 
COLUMBIA, TO BE COORDINATOR FOR COUNTERTERRORISM, WITH THE RANK 
               AND STATUS OF AMBASSADOR AT LARGE

    Ambassador Kaidanow. Mr. Chairman, distinguished members of 
this committee, it is an honor to come before you as the 
President's nominee to coordinate international 
counterterrorism efforts at the U.S. Department of State. The 
State Department's Bureau of Counterterrorism takes a leading 
role in developing sustained strategies to defeat terrorists 
abroad. I am deeply grateful both to President Obama and to 
Secretary Kerry for entrusting me with this responsibility, and 
if confirmed, I pledge to work with all of you very, very 
closely on this critical set of issues.
    Unfortunately, my family is not able to be here with me 
here today, but I do want to take a moment to acknowledge and 
especially thank my parents, Esther and Howard Kaidanow. Both 
of them are immigrants to this country and Holocaust survivors, 
and they could not be more proud that their daughter has been 
given the opportunity to serve the U.S. Government through a 
distinguished career in the Foreign Service over these past 20 
years.
    Having most recently completed a tour as Deputy Ambassador 
in Kabul, I saw firsthand the challenges that terrorism has 
presented to Afghanistan and to its people. My time in 
Afghanistan and my earlier postings in Bosnia and Kosovo, where 
we worked to prevent dangerous and extreme elements from 
gaining a foothold in vulnerable post-conflict societies was a 
constant reminder of the salience of these issues and the 
global impact of the work that we do to counter terrorism.
    This hearing really comes at a pivotal time. We have made 
serious progress with our strategic counterterrorism efforts, 
but a great deal of work remains to be done. As President Obama 
said earlier this year, ``Our response to terrorism cannot 
depend on military or law enforcement alone. The use of force 
must be seen as part of a larger discussion that we need to 
have about a comprehensive counterterrorism strategy, because 
for all the focus on the use of force, force alone cannot make 
us safe.''
    The United States has achieved remarkable success over the 
past decade in degrading al-Qaeda's core leadership in 
Afghanistan and Pakistan. But while the core of al-Qaeda has 
been weakened, the threat has become more geographically 
diverse with much of the organization's activity devolving to 
its affiliates around the world, which are increasingly setting 
their own goals and specifying their own targets.
    Moreover, nonstate actors are not our only terrorist 
concern. Since 2012, we have also witnessed a resurgence of 
activity by Iran and by Tehran's ally, Hezbollah. Hezbollah's 
terrorist activity has reached a tempo unseen since the 1990s 
with attacks plotted in Southeast Asia, Europe, and in Africa.
    We have worked hard over the last several years to 
strengthen the civilian side of U.S. counterterrorism efforts 
overseas in order to successfully counter these threats. 
Transforming the State Department's Office of the Coordinator 
of Counterterrorism to full Bureau status under the supervision 
of the Under Secretary for Civilian Security, Democracy, and 
Human Rights in January 2012 was a welcome and important step 
in this direction. If confirmed, I would work to 
institutionalize and focus the Counterterrorism Bureau's 
mission throughout the State Department and the interagency, 
strengthen the programs and the processes administered by the 
Bureau, and collaborate with the array of national security 
partners both here and abroad to ensure that counterterrorism 
remains at the forefront of our global concerns.
    Consistent with the State Department's Quadrennial 
Diplomacy and Development Review, the QDDR, the 
Counterterrorism Bureau has prioritized two main strategic 
areas: capacity-building among our critical partners overseas 
so that they can do a better job themselves of dealing with the 
threats within their own borders and regions, and countering 
violent extremism, an effort that involves working to reduce 
the number of recruits to terrorist groups and countering the 
messaging that encourages such recruitment.
    To achieve these important goals, the Bureau has worked 
both bilaterally and multilaterally to intensify the foreign 
partnerships vital to our counterterrorism success. If 
confirmed, I am committed to continuing to strengthen these 
partnerships with our traditional allies and with new ones even 
further. In this regard, I would mention one initiative in 
particular, a signature achievement from the first term of the 
Obama administration, the establishment of the Global 
Counterterrorism Forum, which was launched by the State 
Department with a core group of foreign partners in 2011. We 
can use this forum, along with many other multilateral venues, 
to engage with our partners in a sustained and strategic 
manner, and that will be my focus if confirmed.
    We must also continue to strengthen and leverage the full 
unity of effort on counterterrorism within our own government, 
working together at every level with our colleagues at the 
Departments of Defense, Homeland Security, Treasury, Justice, 
and the intelligence community.
    As I noted, we have come a distance, but we have 
appreciably farther to go. As we move forward, the United 
States must continue to use all of the tools at our disposal--
diplomacy, development, economic statecraft, military, law 
enforcement, and intelligence tools--to disrupt and diminish 
the terrorist threat, and do so strategically and with 
appropriate forethought and consideration.
    I look forward to working with you and the committee to 
make that happen and to contribute to the security of the 
American people. Thank you very much for your time, and I look 
forward to your questions.
    [The prepared statement of Ambassador Kaidanow follows:]

              Prepared Statement of Hon. Tina S. Kaidanow

    Mr. Chairman, Ranking Member Corker, distinguished members of this 
committee, it is an honor to come before you as the President's nominee 
to coordinate international counterterrorism efforts at the U.S. 
Department of State. Working with the U.S. Government counterterrorism 
team, the Bureau of Counterterrorism takes a leading role in developing 
sustained strategies to defeat terrorists abroad and in securing and 
coordinating the cooperation of international partners. I am deeply 
grateful both to President Obama and Secretary Kerry for entrusting me 
with this responsibility, and if confirmed, I pledge to work with all 
of you closely on this critical set of issues.
    Unfortunately, my family is not able to be here with me today, but 
I do want to take a moment to acknowledge and specially thank my 
parents, Esther and Howard Kaidanow. Both are immigrants to this 
country and Holocaust survivors, and they could not be more proud that 
their daughter has been given the opportunity to serve the United 
States Government through a distinguished career in the Foreign Service 
over these past 20 years.
    As you may be aware, I most recently completed a tour as Deputy 
Ambassador in Kabul, where I saw firsthand the challenges that 
terrorism has presented to Afghanistan and its people. Countless lives 
have been lost--Afghan and American--because of the scourge of 
terrorism and the continued activity of the Taliban, the Haqqani 
Network, and al-Qaeda and its affiliates. We have invested a great deal 
of blood and treasure in fighting this threat through a variety of 
means, in partnership with the Afghan Government, and we will continue 
to work together to counter terrorism even as the U.S. military 
presence in Afghanistan reduces and we shift our mission to assisting 
the Afghan security forces and the Afghan Government in taking the lead 
responsibility for these tasks. My time in Afghanistan--and my earlier 
postings in Bosnia and Kosovo, where we worked to prevent dangerous 
elements from gaining a foothold in vulnerable post-conflict 
societies--was a constant reminder of the salience of these issues and 
the global impact of work that we do bilaterally and regionally to 
counter the threat of terrorism and terrorist finance.
    This hearing comes at a pivotal time. We've made progress with our 
strategic counterterrorism efforts, but a great deal of work remains to 
be done. As President Obama said in his remarks at NDU earlier this 
year, ``our response to terrorism cannot depend on military or law 
enforcement alone. The use of force must be seen as part of a larger 
discussion we need to have about a comprehensive counterterrorism 
strategy--because for all the focus on the use of force, force alone 
cannot make us safe.''
    The United States has achieved remarkable success over the past 
decade in 
degrading al-Qaeda's core leadership in Afghanistan and Pakistan. I 
witnessed firsthand in Kabul the enormous cooperative effort across our 
government, building on the extraordinary achievements of our military, 
intelligence, and law enforcement communities. This is at the forefront 
of our Embassy's efforts, supported by a huge and diverse set of U.S. 
agencies represented at our post.
    While the core of al-Qaeda has been weakened, however, the threat 
has become more geographically diverse, with much of the organization's 
activity devolving to its affiliates around the world, which are 
increasingly setting their own goals and specifying their own targets. 
Indeed, some of the greatest counterterrorism challenges we face today 
involve countering al-Qaeda affiliates and adherents based in Yemen, 
Syria, Somalia, and northwest Africa. As avenues previously open to 
these and other violent extremist organizations for receiving and 
sending funds have become more difficult to access, several groups have 
engaged in kidnapping for ransom and other criminal activities, and 
thus have also increased their financial independence.
    Moreover, nonstate actors are not our only terrorist concern. Since 
2012, we have also witnessed a resurgence of activity by Iran's Islamic 
Revolutionary Guard Corps' Quds Force (IRGC-QF), the Iranian Ministry 
of Intelligence and Security (MOIS), and Tehran's ally Hezbollah. 
Hezbollah's terrorist activity has reached a tempo unseen since the 
1990s, with attacks plotted in Southeast Asia, Europe, and Africa. And 
Iran, Hezbollah, and their Shia proxies are providing a broad range of 
critical support to the Assad regime as it continues its brutal 
crackdown against the Syrian people. If confirmed, I will remain firmly 
committed to continue working with our partners and allies to counter 
and disrupt terrorism and the destabilizing activities that allow 
extremism to take hold from where they emanate. Those who sponsor acts 
of terrorism will not go unaddressed and acts of terrorism will not be 
tolerated by the international community.
    At the State Department, we have worked hard over the last several 
years to strengthen the civilian side of U.S. counterterrorism efforts 
overseas. Transforming the Office of the Coordinator for 
Counterterrorism to full Bureau status under the supervision of the 
Under Secretary for Civilian Security, Democracy, and Human Rights in 
January 2012 was a welcome and important step in this direction. This 
transformation is still in its early stages, but having worked with the 
Bureau when I was in Kabul and earlier while Principal Deputy Assistant 
Secretary in the Bureau of European and Eurasian Affairs, I believe it 
is on the right track. If confirmed, I would work to institutionalize 
and focus the Counterterrorism Bureau's mission throughout the State 
Department and the interagency, strengthen the programs and processes 
administered by the Bureau--particularly with respect to developing 
results-based management tools for evaluation of our programmatic 
efforts--and collaborate with the array of national security partners 
both here and abroad to ensure that counterterrorism remains at the 
forefront of our global concerns.
    Consistent with the Quadrennial Diplomacy and Development Review 
(QDDR) finalized in 2011, the Counterterrorism Bureau has honed in on 
two key strategic areas: (1) capacity-building, so that countries can 
do a better job themselves of dealing with the threats within their own 
borders and regions, and (2) strengthening our work in countering 
violent extremism--otherwise known as CVE--to reduce the number of 
recruits to terrorist groups and counter the messaging these groups use 
to appeal to a wider audience. The latter effort is particularly 
important--with 
al-Qaeda and its affiliates depending upon a steady flow of new 
recruits, we need to use all of the tools of national power to confront 
the murderous ideology that continues to incite violence around the 
world and combat the public messaging used by these groups, even as we 
maintain continuous pressure against their operational activities. If 
confirmed, I will take this up as a priority.
    To achieve our goals, the Bureau has worked bilaterally and 
multilaterally to strengthen the foreign partnerships vital to our 
counterterrorism success. And we have created programs to empower at-
risk communities across the world to push back against violent 
extremism.
    If confirmed, I am committed to continuing to strengthen these 
partnerships with our traditional allies and others abroad, including 
with the overwhelming majority of the world's nations who share with us 
an understanding of the terrorist threat and the need to address it in 
ways that match the ever-changing methodologies used by terrorists as 
technology and globalization evolve over time.
    As a good example of this kind of international partnership, I 
would emphasize one successful initiative in particular: the CT 
Bureau's signature achievement from the first term of the Obama 
administration, the establishment of the Global Counterterrorism Forum 
(GCTF). The State Department, together with a core group of foreign 
partners, launched the GCTF in 2011 to ensure that the necessary 
international architecture was in place to advance a more strategic 
approach to addressing 21st century terrorism. In partnership with 28 
countries across the globe and the European Union, the Forum seeks to 
enhance our efforts to strengthen civilian institutions and counter 
violent extremism. In a relatively short time, the GCTF has made its 
mark, having already mobilized more than $230 million in member funds 
and set in motion two international training centers to provide 
platforms for sustainable training on countering violent extremism and 
strengthening rule-of-law institutions. And in September, Secretary 
Kerry announced that a core group of government and non-governmental 
partners from different regions will establish the first-ever public-
private global fund to support local grassroots efforts to counter 
violent extremism.
    So, while the people of the Middle East, West Africa, and the Horn 
of Africa, and South and Central Asia will each determine the best way 
to move forward based on their particular history, culture, and 
institutions, we can and will provide vital advice and assistance to 
civilian institutions, with a particular focus on countries 
transitioning to a long term, rule of law-based framework. Many of 
these countries are asking for our help, and if confirmed, I will do 
all I can to ensure we are prepared, within the limits of our resources 
and with our key partners' financial and political support, to 
encourage that effort.
    I believe we must also continue to strengthen and leverage the full 
unity of effort on counterterrorism within our own government, working 
together with our colleagues at the Departments of Defense, Homeland 
Security, Treasury, Justice and the intelligence community.
    Evolving terrorist threats require innovative strategies, creative 
diplomacy, and even stronger partnerships. Building partner capacity, 
countering violent extremism, and engaging partners bilaterally and 
multilaterally are essential. We learned in Afghanistan, for example, 
that stability requires progress on both security and political goals, 
and must be matched by effective governance, as well as the advancement 
of rule of law, human rights, and economic progress. This is why, 
notably, our assistance programs through the upcoming transition in 
Afghanistan are focused on building the capacity of Afghan institutions 
to sustain the gains of the last decade.
    As I noted, we have come a distance, but we have appreciably 
farther to go. As we move forward, the United States must continue to 
use all of the tools at our disposal--diplomacy, development, economic 
statecraft, military, law enforcement, and intelligence tools--to 
disrupt and diminish the terrorist threat, and do so strategically and 
with appropriate forethought and consideration.
    I look forward to working with you and the committee to make that 
happen and to contribute to the security of the American people.
    Thank you for your time. I look forward to your questions.

    The Chairman. Mr. Talwar.

STATEMENT OF PUNEET TALWAR, OF THE DISTRICT OF COLUMBIA, TO BE 
  ASSISTANT SECRETARY OF STATE FOR POLITICAL MILITARY AFFAIRS

    Mr. Talwar. Thank you, Mr. Chairman and Ranking Member 
Corker. It is a tremendous honor for me to testify before you 
today and to be considered for the position of Assistant 
Secretary of State for Political Military Affairs. This 
committee is in many ways a second home to me, and I cherish 
the dozen years that I spent on the benches behind you 
witnessing some of the most consequential debates in American 
foreign policy.
    If I might, I want to take a moment to introduce to you my 
mother and father, Mulika and Shashi Talwar, as well as my two 
sons, Haris and Ilyas. You may recognize Haris who served as an 
intern with the committee last summer. And my wife and I really 
would like to thank you, both of you, as well as the entire 
staff of the committee for providing him with such an enriching 
and extraordinary opportunity.
    I want to say how deeply grateful I am for the sacrifices 
of my wife and my children, the sacrifices they have made over 
the past 20 years of my public service so that I can be sitting 
before you today. Of course, I am also grateful for the 
confidence that President Obama and Secretary Kerry have shown 
in nominating me for this position.
    Mr. Chairman, Ranking Member Corker, over the past 5 years 
on the National Security Council, I have seen firsthand how the 
work of the State Department's Bureau of Political-Military 
Affairs, or PM as it is known in the State Department, is 
absolutely critical to our national security. The security of 
the United States is affected by more countries and more 
regions than ever before. The task of maintaining global 
security and addressing global challenges must be shared. It is 
therefore more vital than ever that our friends and partners 
have the capabilities to address common security challenges.
    The PM Bureau is at the vanguard of our global security 
relationships. This effort involves a wide array of activities: 
negotiating security agreements around the world to give U.S. 
military personnel access for critical operations; clearing the 
long-forgotten minefields of war so that children may play 
safely outdoors; training international peacekeepers; 
partnering with others to successfully combat piracy in the 
Indian Ocean; bolstering the military capabilities of close 
partners so they can operate more effectively with our military 
and with each other; bringing foreign officers to the United 
States to study at our war colleges so they can learn from the 
best, the men and women of our Armed Forces; and facilitating 
defense exports while protecting the crown jewels of U.S. 
military technology.
    The PM Bureau leads each of these activities. From them, 
doors open to deeper cooperation on a wide variety of fronts. 
Security cooperation is often at the heart of our global 
relationships. When a country is willing to work with you on 
sensitive issues affecting their security, they tend to 
cooperate on other issues as well. When a country buys a 
superior U.S. defense system, they are also buying into a 
relationship with the United States. In this way, PM's work 
buttresses our diplomatic relationships.
    Indeed, PM's portfolio has a global reach, and if 
confirmed, I pledge to strengthen our security partnerships 
around the world. This includes supporting Israel's security 
and preserving its qualitative military edge in these turbulent 
times in the Middle East; rebalancing our interests and 
investments in Asia; deepening security cooperation with India 
and building on our Defense Trade and Technology Initiative; in 
Africa, empowering our friends to combat terrorism, manage 
conflict, and modernize militaries; and, of course, enhancing 
partnerships with allies--with our European allies, both old 
and new, and with our partners in the Gulf Cooperation Council.
    Mr. Chairman, I want to touch briefly on one other critical 
area of PM's work, defense trade. PM is working hard to support 
the U.S. defense industry because it is in our national 
security interest. That is why another high priority will be to 
advance export control reform if I am confirmed. The goal of 
this effort is to prevent sensitive technology from winding up 
in the wrong hands, while streamlining and clarifying the 
licensing process for defense sales. I want to continue to work 
with Congress so that we have the best possible system to meet 
this objective. If confirmed, I also look forward to 
reinforcing PM's ties to industry. I want U.S. exporters to 
know that they have a partner in PM who intends to help them 
beat out competitors and win contracts.
    Finally, Mr. Chairman, if confirmed, one of my main 
priorities will be to strengthen relations between the Bureau 
and the committee. One lesson I took away from my years of 
service on this committee is that the finest hours for American 
foreign policy invariably occur when the State Department and 
the committee are working together toward the same end.
    Thank you again and I look forward to answering your 
questions.
    [The prepared statement of Mr. Talwar follows:]

                  Prepared Statement of Puneet Talwar

    Thank you, Chairman Menendez, Ranking Member Corker, and all the 
other distinguished members of the committee. It is a tremendous honor 
for me to testify before you today and to be considered for the 
position of Assistant Secretary of State for Political Military 
Affairs.
    This committee is in many ways a second home to me and I cherish 
the dozen years that I spent on the benches behind you witnessing some 
of the most consequential debates in American foreign policy. If I 
might, I want to take a moment to introduce to you my two sons, Haris 
and Ilyas, who are here today. I want to say how deeply grateful I am 
for the sacrifices my wife and my children have made over my 20 years 
of public service so that I can be sitting before you today.
    Of course, I am also grateful for the confidence that President 
Obama and Secretary Kerry have shown in nominating me for this 
position.
    Mr. Chairman, Ranking Member Corker, over the past 5 years on the 
National Security Council, I have seen firsthand how the work of the 
State Department's Bureau of Political-Military Affairs--or PM as it is 
known inside the State Department--is absolutely critical to our 
national security.
    The security of the United States is affected by more countries and 
more regions than ever before. The task of maintaining global security 
and addressing global challenges must be shared. It is therefore more 
vital than ever that our friends and partners have the capabilities to 
address common security challenges.
    The PM Bureau is at the vanguard of our global security 
relationships. This effort involves a wide array of activities:

  <bullet> Negotiating security agreements around the world to give 
        U.S. military personnel access for critical operations;
  <bullet> Clearing the long-forgotten minefields of war so that 
        children may play safely outdoors;
  <bullet> Training international peacekeepers;
  <bullet> Partnering with others to successfully combat piracy in the 
        Indian Ocean;
  <bullet> Bolstering the military capabilities of close partners so 
        they can operate more effectively with our military and with 
        each other;
  <bullet> Bringing foreign officers to the United States to study at 
        our war colleges so they can learn from the best--the men and 
        women of our Armed Forces; and
  <bullet> Facilitating defense exports while protecting the crown 
        jewels of U.S. military technology.

    The PM Bureau leads each of these activities. From them, doors open 
to deeper cooperation on a wide variety of fronts. Security cooperation 
is often at the heart of our global relationships. When a country is 
willing to work with you on sensitive issues affecting their security, 
they tend to cooperate on other issues as well. When a country buys a 
superior U.S. defense system, they are also buying into a relationship 
with the United States. In this way, PM's work buttresses our 
diplomatic relationships.
    Indeed, PM's portfolio has a global reach, and if confirmed, I 
pledge to strengthen our security partnerships around the world. This 
includes:

  <bullet> Supporting Israel's security and preserving its qualitative 
        military edge in these turbulent times in the Middle East;
  <bullet> Rebalancing our interests and investments in Asia;
  <bullet> Deepening security cooperation with India and building on 
        our Defense Trade and Technology Initiative;
  <bullet> In Africa, empowering our friends to combat terrorism, 
        manage conflict, and modernize militaries;
  <bullet> And, of course, sustaining and adapting close cooperation 
        with our European 
        allies and partners, and with our partners in the Gulf 
        Cooperation Council, to address 21st century challenges.

    Mr. Chairman, I want to touch briefly upon one other critical area 
of PM's work--defense trade. PM is working hard to support the U.S. 
defense industry because it is in our national security interest. 
That's why another high priority will be to advance export control 
reform if I am confirmed. The goal of this effort is to prevent 
sensitive technology from winding up in the wrong hands, while 
streamlining and clarifying the licensing process for defense sales. I 
want to continue working with Congress so that we have the best 
possible system to meet this objective.
    If confirmed, I also look forward to reinforcing PM's ties to 
industry. I want U.S. exporters to know they have a partner in PM who 
intends to help them beat out competitors and win contracts.
    Finally, Mr. Chairman, if confirmed, one of my main priorities will 
be to strengthen relations between the Bureau and the committee. One 
lesson I took away from my years of service on this committee is that 
the finest hours for American foreign policy invariably occur when the 
State Department and the committee are working together toward the same 
end.
    Thank you again and I look forward to answering your questions.

    The Chairman. Thank you both for your testimony.
    Let me ask you, Ambassador Kaidanow, since 1984 Iran has 
been designated as--by the State Department as a state sponsor 
of terrorism. According to the State Department's ``Country 
Reports on Terrorism'' issued in May of 2013, Iran in 2012 
increased its terrorist-related activity, including attacks or 
attempted attacks in India, Thailand, Georgia, Kenya. It 
provided financial material and logistical support for 
terrorism and militant groups in the Middle East and Central 
Asia.
    If you were to be confirmed, based upon those facts and 
assuming that there is not a change in course by Iran as it 
relates to those terrorist and other activities, would you be 
an advocate of reducing economic and financial sanctions that 
have been imposed on Iran due to its terrorist activities?
    Ambassador Kaidanow. Thank you, Senator. Thank you for the 
question. I think yesterday the Secretary spoke to some of this 
during his testimony on the Hill in front of the House. And he 
was very clear, and I should be equally clear, that we have a 
set of concerns with respect to Iran on terrorism that has not 
wavered. And we have been very clear and very articulate 
publicly about those concerns.
    As far as I can tell and as far as I have been briefed, 
those concerns persist. We have an array of sanctions on Iran 
that pertain specifically to terrorism. As the Secretary 
indicated, as long as those concerns persist and all of this 
will be assessed very, very closely over the next years, the 
array of sanctions that we have, the kinds of instruments that 
we have put in place will remain. Those are the sorts of 
things, again, that we are very clear about when we speak about 
Iran.
    The Chairman. I appreciate that, and I have known what the 
Secretary says. When I am thinking about a nominee, obviously 
the reason you get nominated is because the Secretary and the 
President feel that you have expertise and input that will be 
valuable to them. So I am not looking for the nominee to parrot 
what the State Department is saying. I want to know when you 
are sitting there, and I am not there, what your advocacy will 
be.
    And you may be overruled in terms of your advocacy, but I 
want to know what it is that you would be saying if the 
conditions were still the same as it related to terrorist 
activities, would you be an advocate of maybe, well, let us see 
if there is a course to change the sanctions so that we can get 
Iran maybe to move in a different direction as it relates to 
terrorist activities, or would you be an advocate of saying we 
need to continue these until we see the change in behavior?
    Ambassador Kaidanow. Senator, as long as the requirements 
and the very clear set of standards that we have put in place 
are not met, then I would be an advocate for maintaining the 
very strict kinds of standards that we have.
    The Chairman. All right. I appreciate that. Now, as the 
coordinator for counterterrorism, should you be confirmed, you 
will guide the policy of the Anti-Terrorism Assistance Program, 
choosing which countries participate in the program and 
overseeing assistance provided while the Bureau of Diplomatic 
Security is responsible for carrying out that policy. What 
would you do to ensure that policy guidance is being 
effectively communicated from State counterterrorism to the 
Bureau of Diplomatic Security? And how would you ensure that 
counterterrorism activities of other agencies are not 
duplicative of yours and sufficiently coordinated with you?
    Ambassador Kaidanow. Senator, ATA has been an extremely 
effective tool, as I think you know, in trying to provide some 
assistance to key counterparts overseas in giving them the 
tools that they need to address counterterrorism and to be more 
effective over time. We do that in close coordination within 
the State Department between my Bureau and, if confirmed, what 
will be my Bureau, and the Diplomatic Security Bureau. I have 
seen very good examples of that in Kabul where I worked most 
recently. I have seen very good examples of that elsewhere. I 
would anticipate that that kind of high level cooperation and 
integration of our effort will continue.
    And you mentioned the importance of the interagency and 
ensuring that there is full coordination among the various 
departments and agencies that work on these issues. That is an 
absolute priority for me. If confirmed, I will do everything 
possible to ensure that there is no duplication of effort.
    I will say, again, as I said in my introductory statement 
that I think what we need to be doing is looking at the full 
array of tools that we have. The State Department brings a 
certain number of tools. Some of those are operational, 
including ETA. But frankly a number of those are also larger 
capacity-building in terms of development, making sure that 
countries are moving in the right direction in terms of their 
social, democratic, and human rights development, because quite 
frankly, without those things, the long-term social fabric of 
those countries does not really hold. And that is what creates 
ultimately the conditions for terrorism and for terrorist 
recruitment.
    So in essence, I think the ETA part of that is absolutely 
critical. It requires full attention from all of us in 
coordination. But it is part of a larger set of pieces that we 
want to put together that I hope will be our focus.
    The Chairman. Thank you. And now, Mr. Talwar. Again, with 
the admonition that I do not want to hear what the 
administration has to say. I know what they say on some of 
these things. I would like to get your insights. You are going 
to be advocating or proposing policy views within the context 
of the Department. So I would like to get a sense of where you 
are coming from, and it is in that context that I ask the 
question.
    How has the Arab Spring affected your thinking on security 
assistance programs? I understand that the Department looks at 
arms sales on a case-by-case basis, but that strikes me as a 
rather ad hoc way of managing an important asset of U.S. 
security assistance. Is there, or should there be, a more 
formal policy guidance on how to best design U.S. security 
programs in such a fluid region?
    Mr. Talwar. Thanks, Mr. Chairman. I think your question was 
a good one as to whether we need an overarching approach. And 
in general, I prefer to have overall policies that guide what 
we might do in individual cases. And so, if confirmed, that 
will be my inclination. You asked how I would approach the 
situation.
    In terms of the Arab Spring I think it has, you know, 
created a certain set of facts, some that are common across the 
region and some that are unique. If you look at North Africa, 
for example, Libya, in particular, you have a situation where 
you have difficulties that have been created in terms of 
central government authority, reliable security forces. And I 
believe the PM Bureau at this point is actually engaged in some 
efforts along those lines to help the Libyans develop security 
forces.
    And so, you have situations of state capacity dropping off 
in certain situations, at least for the time being. And to help 
many of these countries make a successful transition during the 
Arab Spring, I would think that one would want to, in those 
circumstances, do what we can to help democracy take hold and 
to give these democratizing countries the ability to, in fact, 
enforce the law and to protect their borders, and to prevent 
open spaces that can be exploited by violent extremists.
    You have another set of circumstances, which is a result of 
the Arab Spring, and that is in the gulf, and some of the acute 
security dilemmas that they face have been heightened in this 
period. They have always had the concern about Iran. You know, 
Syria obviously has brought up another set of concerns, and, 
you know, the advance of certain Islamist political movements 
as well. And so they have a greater set of concerns now. And we 
are doing more and more to try to increase our cooperation with 
the GCC. I generally think that is a good thing if we can do 
more to help those countries feel more secure about their 
situation.
    Of course, whenever you are thinking about security 
assistance or arms sales in that region, we have to keep it 
uppermost in my mind, as I said in my testimony, Israel's 
qualitative military edge, and so that will be another major 
consideration that I would bring to the table in all of that.
    The Chairman. And one final--well, one final question, at 
least at this point. As an aftermath, one of the elements of 
the Arab Spring is Egypt. And as the committee continues to 
grapple with what is our national interest--national security 
interests and what is the best way to pursue that with Egypt at 
least as it is today, would United States security interests be 
better served by focusing upon enhancing Egypt's 
counterterrorism and counterinsurgency capabilities rather than 
its conventional battlefield platform, such as tanks and combat 
aircraft?
    Mr. Talwar. Thanks, Mr. Chairman. I know that this is an 
area of considerable focus by the committee and by the 
administration as well. It is not a policy I have worked 
directly on, but should I be confirmed I would imagine I will 
spend a fair amount of time on this.
    And as I understand it, I think there is a general view 
that as we move into the 21st century, new kinds of threats 
that are emerging as countries, you know, think about how to 
reshape their security forces, I think generally some of these, 
you know, the larger conventional model that Egypt has employed 
may not be perfectly suited to the challenges of the 21st 
century. And so, I think you are exactly right. Looking to more 
agile, more counterterrorism focused type of activities, which, 
you know, frankly, is in our interests, it is in Egypt's 
interest, and in the interest of some of our partners in the 
region, for example, the Israelis. Those are the kinds of 
things where I think we would probably want to move.
    But again, my alibi is that let me get on the job, if I am 
confirmed, and I will take a hard look at it. But that is my 
inclination.
    The Chairman. I would look forward to hearing your 
thoughts, in general, about how we rebalance U.S. military 
assistance to Egypt.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And I thank each 
of you for your willingness to serve in the positions for which 
you have been nominated. I appreciate the time in our office 
both with me personally and our staff, and I know there will be 
a number of followup questions, so I want to, if I could, Mr. 
Talwar. I found our conversation yesterday about the 
negotiations with Iran to be the best that I have had on the 
topic, and instead of being sort of a pat on the head from the 
administration saying trust us, I found it revealing. And I 
appreciate the time you spent in talking about it, and I hope 
we follow up in a classified setting. But in this arena, talk 
to us a little bit about what your role has been in the 
discussions with Iran over their nuclear program.
    Mr. Talwar. Sure. Thank you, Mr. Chairman--sorry, Ranking 
Member Corker.
    Senator Corker. I am hoping that in about a year or so.
    Mr. Talwar. You know, I was around here long enough that 
the ranking member became the chairman, the chairman became 
ranking member, so it is just safe to call everybody ``Mr. 
Chairman.''
    Senator Corker. Good.
    Mr. Talwar. So again, I do thank you for the opportunity 
for sitting down with me, and I enjoyed the conversation as 
well. My role was as follows. I was a member of a preparatory 
exploratory team that met with the Iranians on a couple of 
occasions to see if we could get talks going on the nuclear 
program. We met with the Iranians in Oman last summer. We had 
another meeting in March of this year. It turned out the 
Iranians could not move forward with the talks at that point.
    In the summer after President Rouhani's election, there was 
an exchange of letters between President Obama and President 
Rouhani, and the Iranians agreed to move forward with talks at 
that time. We then had an accelerating pace of discussions 
bilaterally with the Iranians, and that process was always tied 
from the get-go to the P5+1 process.
    It was made clear. It focused exclusively on the nuclear 
issue, so there were no other, you know, side discussions under 
way. And it was merged, you know, after the conversations 
gained traction with the P5+1 process. And so, I was a 
participant in both the bilateral discussions as well as in the 
P5+1, but I was a member of a team that was led by the State 
Department, in particular by Deputy Secretary Burns and Under 
Secretary Sherman.
    Senator Corker. Yes. And as we talked yesterday, what is it 
about the circumstances today that give you some sense that we 
can actually get to an end state that is acceptable to the 
United States or that we cannot? Can you give me your sense of 
how things are internally and how things you think may be 
different or not different relative to us getting into an 
appropriate end state?
    Mr. Talwar. Sure. Thank you, Senator Corker. I think, you 
know, as we discussed yesterday, it is tricky business to try 
to see into the internal workings of Iran at any given moment 
and, you know, project out. There have been so many twists and 
turns over the years. And so ultimately we have to judge them 
by their actions, and we have to judge them by very strict, 
objective criteria.
    Having said that, you know, I do believe that the election 
of President Rouhani was a rejection by the Iranian people of 
the status quo, of the direction that they were headed, and it 
was a cry for change. And the question now, and this is not to 
say that, you know, by any stretch of the imagination the 
election was, you know, free and fair and up to Western 
standards. He simply to the Iranian public represented the 
possibility of taking the country in a different direction. And 
that, I think, puts a certain degree of pressure on the Iranian 
Government.
    And, you know, there are a lot of dynamics under way there, 
rivalries between some of the elite. You know, the Supreme 
Leader does remain the decisionmaker at the end of the day, but 
underneath that, there are rivalries. The Revolutionary Guard 
is part of the mix as well. You know, the outsized influence 
they gained over the years, particularly under President 
Ahmadinejad, and I think you are seeing some degree of push 
back as well. These are very early signs. We do not know where 
it is going to go. But, you know, there is a chance certainly 
if President Rouhani is going to be responsive and the entire 
leadership to where public wants to go, you have that pressure 
on them.
    You know, again, and I think the President said this over 
the weekend, I think you put the odds of a comprehensive deal 
at about 50/50 because we do not know the direction that this 
is going to head.
    Senator Corker. Let me ask you a question. Based on your 
conversations, how much do the folks involved in these 
negotiations and those that can actually make something happen 
knowing that there are rivalries internally, how much attention 
do they pay to internal U.S. politics and what is happening in 
Congress and that kind of thing?
    Mr. Talwar. An extraordinary amount of attention is paid to 
what happens in the Congress.
    Senator Corker. Let me ask you this question. I would have 
thought that. So I am concerned that there is a possibility--I 
do not know this yet--that Congress may, in fact, in the name 
of weighing in, potentially try to pass something that does not 
do anything, but makes it look as if Congress has done 
something to try to affect the negotiations. Is it your 
thinking that if Congress were to do such a thing, which I hope 
Congress would not, but if Congress were to do such a thing, 
would the Iranians see through that and understand that, in 
essence, that was the case?
    Mr. Talwar. You know, there are no absolutes in this 
business. My best assessment, Senator, and this is one, I 
think, that, you know, is held by the administration, is that, 
you know, respecting the role of the Congress and the different 
views on members of the committee here, my view is that it 
would be seen by the Iranians as potentially a move away from 
the track that we are on, negotiations and diplomacy. And a 
sense could set in that would do one of two things or both. 
One, either make them think twice about following through on 
the commitments on the Geneva deal. The second----
    Senator Corker. Even if they realize that Congress--it is 
sort of a triumph of politics over policy and it really was not 
doing anything to affect outcomes, so you are saying it still 
would do that.
    Mr. Talwar. That is what we have understood from them.
    And, you know, their politics are different internally 
clearly, but they do have theirs as well. And again, I do not 
want to sit here and make absolute statements.
    Senator Corker. Let me ask you this. If Congress were to 
weigh in in a different way and basically say we are not going 
to deal with additional sanctions, but we want to ensure that 
at a base the Security Council resolutions are adhered to as a 
base case at the end state, how would that affect, do you 
think, the negotiations?
    And let me just say the administration continues to talk 
about Congress and Congress getting involved too much and 
messing this up, and yet the administration continues to refer 
to the hardliners in Iran as the reason they have to move ahead 
so quickly and do something. And yet I do feel that Congress 
has, with Chairman Menendez's leadership, in years past has 
actually sort of provided that hard line to help the 
administration get to the point where we are.
    So why is it in a negotiation different for Iran than it 
would be for us to at least try to get the administration to 
acknowledge, and Iran to acknowledge, that as a best case the 
end state would have to be at least the U.N. Security Council 
resolution that has been agreed to by the United Nations.
    Mr. Talwar. Well, thank you, Senator. I mean, as a person 
who was involved in policy on Iran and trying to bring to bear 
all the tools we have available to us, you know, to confront 
the Iranian in its many dimensions. As we talked about 
yesterday, you know, from my perspective, you know, the tools 
that we got from the Congress and the leadership of Chairman 
Menendez and Senator Kirk and others were really quite useful 
in terms of helping us to bring Iran to the table.
    I do not think there is any doubt in terms of in the minds 
of the Iranians about where Congress is coming from here. They 
know that. They know that, you know, you are ready to go. And 
as President Obama has said and Secretary Kerry, we would be 
there with you. If we see some sign of backsliding, of breaking 
the deal, of not following through with a comprehensive deal. 
And so I do not think there is any doubt about what Congress 
would do in the end on this.
    Senator Corker. Well, I know my time is up, and I 
appreciate the chairman's indulgence. And we will follow up 
with some written questions about things like arms sales and 
counterterrorism, and we appreciate both of you playing you are 
going to play soon in those capacities.
    Thank you.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Thank the 
witnesses. Mr. Talwar, do you believe that 6 months is enough 
time to reach and conclude a treaty agreement with Iran?
    Mr. Talwar. Mr. Chair--Senator McCain--I apologize--I 
believe that that is the timeframe set out in the Geneva deal, 
and it all depends on how serious the Iranians are at the end 
of the day.
    Senator McCain. Well, is it enough time for us to ascertain 
whether they are serious or not?
    Mr. Talwar. We will be able--we have as part of the Geneva 
deal a fairly robust set of verification measures that we will 
be looking to.
    Senator McCain. But you are not answering my question. Do 
you think 6 months is sufficient time to either conclude or not 
to conclude an agreement between the United States and Iran?
    Mr. Talwar. The goal would be to conclude it, and I think 
we can do it. But again, it depends upon their degree of 
seriousness.
    Senator McCain. I will ask for the third time. Do you think 
that the Iranians are serious enough for us to get an agreement 
in 6 months?
    Mr. Talwar. Senator, yes, if the circumstances are correct. 
If they are prepared to--we have not begun the negotiations on 
the comprehensive deal, so I cannot tell you that we will be 
able to. But that is the absolute goal, and we should be able 
to do it in that timeframe.
    Senator McCain. Can you tell me whether you would support 
continued armed sales to Egypt under the present circumstances?
    Mr. Talwar. Well, again I am not currently responsible for 
the Egypt policy, but I know this is one that I will have to be 
working on in the position should I be confirmed. And on Egypt, 
the approach is to continue to provide security assistance in 
those areas that are in our mutual interest.
    Senator McCain. Even though there is a law that says that 
if there is a coup, that all military aid will be suspended.
    Mr. Talwar. That is correct, Senator. And I believe that 
the policy in place now is one which is holding up several high 
profile items, and that the administration's policy is 
consistent with that underlying law at the moment.
    Senator McCain. Even though the law says that if there is a 
coup, that all military aid will be suspended, and we have not 
suspended all military aid. Do you believe that we are in 
compliance with the law?
    Mr. Talwar. Again, I have not been responsible for this 
policy, so I cannot give you the details. My understanding----
    Senator McCain. Can you tell me our policy toward Egypt?
    Mr. Talwar. The policy toward Egypt is to promote a 
nonviolent, peaceful transition to a democratic----
    Senator McCain. Do you think that is happening now?
    Mr. Talwar. I believe that are some positive steps that are 
being taken, but there are other concerning signs as well, 
Senator.
    Senator McCain. Tell me one of the positive signs.
    Mr. Talwar. Again, as I understand it, there is some work 
under way on the constitution, but again the most----
    Senator McCain. Have you seen that constitution which 
enshrines the role of the military immune from any other 
institution or form of government, including setting their own 
budget, including appointment of their own Secretary of 
Defense? Do you think that that is a good constitution?
    Mr. Talwar. Senator McCain, I cannot speak to the details 
of the constitution under discussion. But if I could for a 
second, I would like to tell you that there are concerns about 
recent developments in Egypt, particularly the treatment of 
protestors. And obviously that is something that we will be 
watching closely.
    Senator McCain. Thank you. It is nice to see you again, Ms. 
Kaidanow. The last time I saw you was in Kabul, and thank you 
for your great work there. We very much appreciate it.
    There are 5,000 Sunni foreign fighters in Syria today. As 
you know, there are over 5,000 Hezbollah, and that number, 
according to my calculation, exceeds any previous conflict in 
modern history, even more fighters than we saw in Afghanistan 
in the 1980s. As these men become more radicalized, they spend 
more time in the trenches, are you worried that the situation 
in Syria is now becoming more and more radical Islamist groups, 
such as al-Nusra versus Bashar Assad's forces, and the Free 
Syrian Army and the moderates are being squeezed out? In fact, 
I understand from this morning's news that the United States is 
suspending humanitarian aid because of our lack of control of 
the border areas.
    Ambassador Kaidanow. Senator, just one small change or 
correction to what you just said, which is my understanding is 
that we are not suspending humanitarian side. We are suspending 
some of the nonlethal assistance that we provided to the 
opposition in the past.
    Senator McCain. You would think--if you cannot get the 
nonlethal in, then you are not going to be able to get any 
other assistance in, is that not true?
    Ambassador Kaidanow. No, you are correct. I just wanted to 
specify that only because I think you are absolutely correct. 
We are very, very concerned about the question of foreign 
fighters flowing into Syria. Hezbollah has been a particular 
concern to us, which I highlighted in my opening remarks, not 
just, by the way, in Syria, but elsewhere also.
    I think with respect to Syria generally, it is very, very 
clear that we need a political solution to this. There is no 
military solution per se. The longer the situation goes on, the 
more, frankly, conducive the situation becomes for the----
    Senator McCain. Is there anything that makes you inclined 
to believe that when Bashar Assad is clearly winning that there 
is going to be a ``political solution?''
    Ambassador Kaidanow. I think it is quite difficult. The 
Secretary, Ambassador Ford, others, as you know, have been 
working very hard to bring the parties together at a Geneva II 
conference for the beginning of next year. I do not want to--
again, I am not responsible specifically for Syria policy, so I 
do not want to underplay the difficulty of all those efforts. 
But I do think that that is an essential grounding for our 
policy as a whole.
    With respect specifically to the foreign fighter issue, we 
are working quite diligently, as I understand it, with a number 
of our foreign partners, both in Europe and in the region to 
try and stem that tide. To actually highlight something that is 
a positive, I think we were successful in getting our European 
counterparts to designate the military wing of Hezbollah this 
past year. And I think what that highlights again is the 
understanding that the impact of this is growing over time, and 
that we really do need to focus in on it as a real problem. We 
also designated al-Nusra----
    Senator McCain. I would hope so. After over 2 years it 
would be a good idea to focus in on this as a real problem.
    Ambassador Kaidanow. Agreed, Senator, and we are doing so. 
And I think that----
    Senator McCain. Actually you are not doing anything. 
Actually in reality, if you talk to people on the ground, which 
I do all the time, we are doing almost nothing. And the Saudis 
and other countries that are assisting the Free Syrian Army 
have decided to go their own way because of our abject failure 
to assist those people. And those are the facts on the ground.
    I thank you, Mr. Chairman.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you. Mr. Talwar, you said in your 
testimony that the finest hour of American foreign policy 
invariably occurs when the State Department and the committee 
are working together toward the same end, right?
    Mr. Talwar. That is correct, Senator.
    Senator Rubio. So about the conversations that you and your 
colleagues had in this back channel with Iran, did you brief 
the chairman or the ranking member of this committee about 
those talks, or did anyone brief them about it?
    Mr. Talwar. I did not. I do not know if that occurred. I do 
not believe so.
    Senator Rubio. Were any Members of the Senate, or the 
House, or Congress briefed at all about these talks at any 
point?
    Mr. Talwar. Again, I cannot speak for everybody, but from 
my perspective, I do not believe that there were discussions.
    Senator Rubio. Your testimony said that nothing other than 
the Iranian nuclear program were discussed in the back channel 
negotiations, correct?
    Mr. Talwar. The Iranian nuclear program, that is correct. 
You know, it depends on which sort of forum you are talking 
about. There have been in other--a number of channels that we 
have had with the Iranians, including New York, including the 
P5+1. There have meetings on the margins of P5+1----
    Senator Rubio. But just specifically this back channel.
    Mr. Talwar [continuing]. Where, for example--in the back 
channel.
    Senator Rubio. It was about Iran and the nuclear----
    Mr. Talwar. Yes.
    Senator Rubio. OK. So my understanding is there was no 
conversation about their abysmal human rights record, right?
    Mr. Talwar. The purpose of the back channel, if you will, 
which was, you know, merged with--or was connected to the P5+1 
was the nuclear issue because the P5+1 focuses on the nuclear 
question.
    Senator Rubio. I understand, but I wanted to be clear about 
what else was discussed. So, for example, their ongoing support 
of terrorism, their backing of Assad, of Hezbollah, of Hamas, 
their involvement in a plot to assassinate a foreign ambassador 
here in Washington, DC. None of these issues were part of that 
conversation.
    Mr. Talwar. That is correct, they were not part of the 
conversation.
    Senator Rubio. What about detained American citizens, like 
Pastor Abedini, or Amir Hekmati, or Robert Levinson?
    Mr. Talwar. American citizen issues have been raised in 
several discussions in some meetings that I have been in 
particularly on the margins on the P5+1. Secretary Kerry raised 
this issue in his first meeting with----
    Senator Rubio. All of the American citizens?
    Mr. Talwar. Yes.
    Senator Rubio. OK. And the release of several Iranians 
accused of violating sanctions imposed on Iran's procurement 
and technology abroad, most recently, Mr. Mojtaba Atarodi. Were 
these part of the talks?
    Mr. Talwar. No, they were not, Senator.
    Senator Rubio. OK. I am going to share you with my 
assessment of Iran, and I would love to have your take on it. 
My assessment is that, for Iran, the purpose of these talks is 
to see how much sanctions relief they can get without agreeing 
to any irreversible policy concessions. Would you share that 
view or not given the fact that you have met with them and I 
have not?
    Mr. Talwar. Yes. I believe--I share much of that view, 
Senator. I believe that their goal is to gain as much sanctions 
relief as possible, yes, and to hold onto as many nuclear 
assets as possible. I think we are clear-eyed about what they 
would like to be able to do.
    Senator Rubio. Is it fair to say that in some way they are 
informed by North Korea's playbook on this matter?
    Mr. Talwar. Well, Senator, I am generally familiar with the 
North Korea situation. I did not hear them bring that up at any 
point.
    Senator Rubio. I understand they probably would not 
telegraph it. But the fundamental question is my fear, and I 
think it sounds from your testimony like you share it, is that 
what they have learned from North Korea is you gain some sort 
of short-term interim deal with the United States, and then 
when no one is looking or the world is focused on something 
else, you break out or you reach a capability to be able to 
break out. And it sounds from your testimony like you 
understand that that is a very real possibility, perhaps even a 
very real probability. Is that accurate?
    Mr. Talwar. Well, Senator, I do not believe that is a 
probability. We know what their aim is, and our aim is to keep 
them as far as possible from breakout and to move them back 
from where they are. And in the Geneva deal, what we have 
achieved is a halt to the advancement of their program, a 
rolling back of it in certain key respects, and some very 
strong transparency and verification measures. And we have 
pushed them back.
    There is an article I would commend to you by Graham 
Allison in in The Atlantic, and it uses a football analogy. And 
he wrote around about the same time that Prime Minister 
Netanyahu actually gave his speech at the U.N. General Assembly 
last year talking about this issue. And he basically says, and 
I will keep it short here because I do not want to use all your 
time, that we have moved with this deal--he said Iran was 
essentially in the red zone. It was at the 10-yard line, and we 
basically moved them back to the 30-yard line.
    And so, we know what their intent is, but our intent--and 
we still have the pressure of our sanctions there. So I would 
say we are going to be very vigilant about this. We will be 
very tough, and we will keep trying to push them back further 
down the field.
    Senator Rubio. Yes, the problem with that analogy is that 
Iran only needs a field goal, and their kicker can kick 52 
yards pretty consistently. And so, the 30 and the 15 are not 
much of a difference for them.
    Here is my other question with regards to this. Iran says 
their nuclear program is peaceful, that what they want is 
energy and for medical purposes. Do you believe that to be 
true, or do you believe that, in fact, they do want a weapon, 
or at least the capability of a weapon?
    Mr. Talwar. Senator, I think that a lot of their activities 
over the years have been inconsistent with a purely peaceful 
program. But what we have said to them if you want a purely 
peaceful program, there are ways that you can demonstrate that, 
and there are a lot of questions that have to be addressed 
about their past activities. And so, you know, I think the 
record is fairly clear that they have at least in the past 
sought to obtain that capability.
    Senator Rubio. Well, it is not just their past activities, 
right? I mean, they continue to develop rocket technology, 
long-term rocket technology as well, which--the purpose of 
which really--the only reason from a cost-effective perspective 
to develop long-range rockets is to be able to put a nuclear 
warhead on them. They continue to do that.
    Mr. Talwar. They have--again----
    Senator Rubio. And that is not part of the talks.
    Mr. Talwar [continuing]. A number of activities are very 
threatening. I will not sit here and defend what they are 
doing. They have been threatening, and this goes for a range of 
activities, some of which we have put a halt to with the Geneva 
deal.
    Senator Rubio. Does any government in the world use 
terrorism as a tool of statecraft more than the Iranians do?
    Mr. Talwar. My colleague would probably be better placed to 
answer that. But my understanding is that the State Department 
reports have consistently found that Iran is the leading state 
sponsor.
    Senator Rubio. OK. Thank you very much.
    The Chairman. Senator Corker has a followup question.
    Senator Corker. Thank you. I appreciate that, and I 
appreciate the line of questioning of all the people here 
today. And it prompted a thought. I was just on the Arabian 
Peninsula, and what Senator McCain has just mentioned about 
Saudi Arabia is more than true. And I know several of us have 
been to refugee camps on the border of Syria and both Turkey 
and Jordan and have looked refugees in the eye and have told 
them that help is on the way based on assurances from the 
administration. And then we all know that help is not on the 
way. And I do not know what we will do at our next visits to 
see people in great distress who have been displaced without 
the American support that has been broadcast, and yet not 
forthcoming.
    So I ask this question. And our credibility, there is no 
question, has been hugely damaged, and people have been 
massacred. Families have been disrupted because we have not 
done what we said we would do with the moderate opposition.
    There is no question that is the case. But here is the 
question I have for you, Mr. Talwar. You were involved in these 
prenegotiations that Senator Rubio mentioned, certainly were 
never shared. And I am just wondering when you looked at--when 
what happened relative to Syria policy and the President took 
the walk--the famous walk he took on that Friday night, and we 
ended up changing our policy there. And obviously the redline 
was never adhered to.
    Was there any wink and a nod relative to what we did, what 
we did not do in Syria relative to what we are doing right now 
with the negotiations in Iran? Did that come into play? Did 
that set the environment? Did that impact discussions that have 
been under way while you have been in those discussions?
    Mr. Talwar. Senator, I do not believe they had any impact 
that I could discern on the discussions one way or the other. 
My sense is that, you know, both sides were very disciplined in 
sticking to the issue at hand. You know, I cannot speak to 
folks' larger considerations, but I did not see any impact, No. 
1. No. 1, I did not see any, you know, decisionmaking on our 
side that, you know, took account of the Iranian nuclear 
discussions, if that answers your question.
    Senator Corker. Let me ask you this just being an 
intelligent person who is coming into a responsible role. Would 
you sense that if you were on the Iranian side watching our 
activities there, would that enhance, in your opinion, your 
ability if you are on the Iranian side to think that you might 
actually negotiate a deal that would be in your favor?
    Mr. Talwar. Again, it is hard to get into their mindset. I 
do not believe so because quite honestly they had enough going 
on with the nuclear negotiations. Those were a tough set of 
discussions, and they had a lot of----
    Senator Corker. They were not paying attention to what was 
happening in their client state with people that they are going 
to take sanctions, money, relief, and help support in Syria? 
They were not paying attention to that connectivity at all and 
how it was going to empower them to more fully support 
Hezbollah and more fully support and change the balance on the 
ground? They were not paying attention to that?
    Mr. Talwar. Senator, I am sure that Syria--obviously as you 
know, I agree with you. It is a client state. It is something 
that is, you know, they think quite a bit, spend a lot of time 
thinking about. So I am not denying that. What I can tell you 
is I only speak from my perspective, which, again, was not 
necessarily, you know, sort of the center of everything here. 
But from my perspective, the folks that we interacted with, or 
I did, I did not see--and the issue of Syria did not arise in 
that matter. It was really focused on the nuclear question. And 
I did not see any impact that events at that time had on the 
course of the discussions.
    Senator Corker. Thank you.
    The Chairman. Just a couple of followups based upon these 
lines of questioning that spurred some questions in my own 
mind. Mr. Talwar, let me ask you, you in response to Senator 
Corker said that the Iranians pay a great deal of attention to 
what happens here in the Congress. I assume that in addition to 
attention, they have the sophistication to understand the 
difference between the executive branch and the Congress as a 
coequal branch of government. Would you say that that is a fair 
assumption?
    Mr. Talwar. Mr. Chairman, thank you for that. I think that 
some of them do. Some of them are very sophisticated, such as 
the Foreign Minister who spent--you know, educated here 
partially, spent a fair amount of time. There are others in 
that system who quite honestly----
    The Chairman. President Rouhani?
    Mr. Talwar [continuing]. Do not see that and think that 
we----
    The Chairman. President Rouhani?
    Mr. Talwar. President Rouhani probably understands that.
    The Chairman. So the Foreign Minister and the President of 
Iran both understand the difference at the levels of people who 
are negotiating here. And as a matter of fact, is it not true 
that the plan of action, as I read the language, that the 
administration considered that reality because it says in the 
plan of action that to the extent that the executive branch has 
the power to enforce or not to enforce sanctions, that they 
would not enforce the sanctions relief that is being considered 
in the plan of action. But that clearly suggests that the 
Congress is not bound by that. While it may be the desire, it 
is not bound by that.
    Mr. Talwar. Having sat on the bench behind you, I always 
take very seriously the constitutional prerogatives of the 
Congress. And I think what you saw in there reflected a respect 
for the constitutional separation of powers. However, I think 
the language there is clear in the sense that the 
administration would oppose new sanctions.
    The Chairman. Well, I did not see that. Now, you can imply 
it in the language, but I read the language plainly, and the 
language plainly was telling the Iranians to the extent that 
the executive branch has the power to pursue or not pursue 
additional sanctions, that it would forgo doing so. But it 
specifically left out the legislative branch. While that may be 
their desire, it did not say that we are also binding somehow 
the Congress of the United States.
    Mr. Talwar. Right. Again----
    The Chairman. So is that the case, though, regardless of 
what--I know what the administration has said. I do need you to 
repeat it. The question is, is that not part of the agreement?
    Mr. Talwar. Mr. Chairman, the interpretation and what you 
have heard from the President and the Secretary I think reflect 
our understanding of the joint plan of action, which is that 
the administration would impose--again, respectful of Congress' 
constitutional role and responsibility to impose sanctions----
    The Chairman. But you are not telling the Iranians that we 
can bind the Congress of the United States; otherwise you would 
have just said the United States will not pursue such actions. 
You clearly were seeking to define for them should there be 
action by the Congress that there is a separation.
    Mr. Talwar. Yes, and I think that----
    The Chairman. OK. So let me ask you this. So I have heard 
from the Secretary and others that if unfortunately this were 
to fail, that the administration would be one of the first 
people knocking on our door to pursue additional sanctions. Is 
that a fair statement?
    Mr. Talwar. That is correct.
    The Chairman. And so, I would ask you whether sanctions 
that further reduce the amount of petroleum that countries 
could purchase from Iran, sanctions that would expand the 
nature of petroleum-related products, would that be a sanction 
that would do nothing?
    Mr. Talwar. I am sorry, Mr. Chairman?
    The Chairman. Would that be considered a sanction that 
would, in essence, do nothing? Would it have a consequence?
    Mr. Talwar. It would have a consequence.
    The Chairman. Let me ask you, if you were to sanction 
mining and construction as additional sectors of the Iranian 
economy, not subject to sanctions now, would that have a 
consequence or would it do nothing?
    Mr. Talwar. When you say--I am sorry, Mr. Chairman, when 
you say have a consequence, you mean for the negotiations?
    The Chairman. No, for the Iranians if, in fact, such a 
sanction was pursued outside of the negotiations? I am talking 
about now we have exhausted the process. The process did not 
lead to the successful conclusion we want. The administration 
is coming back for sanctions. Would the administration say that 
sanctions as in the first category expanding the universe of 
what is a petroleum product subject to sanction, reducing 
further the amount of petroleum to be purchased, pursuing 
mining and construction sectors, which are presently not 
sanctioned, would those be significant sanctions against the 
Iranian regime?
    Mr. Talwar. Mr. Chairman, I believe those would be 
significant sanctions. I cannot speak to what specific 
sanctions the administration would seek in consultation with 
you.
    The Chairman. I understand that.
    Mr. Talwar. But I think, you know, we have all seen the 
bills that are out there, and a lot of them have very 
significant hard-hitting----
    The Chairman. Would sanctions against countries and 
entities that seek to help Iran expand its ballistic missile 
capacity, would that be significant in nature?
    Mr. Talwar. Without seeing the underlying language, Mr. 
Chairman, I believe that, yes, it sounds as if it would be.
    The Chairman. So if, in fact, it came to a point in time if 
the administration were seeking sanctions--that is, universal 
sanctions--that would do something as it relates to the Iranian 
economy, Iranian consequences.
    Mr. Talwar. Mr. Chairman, I believe those would be 
significant sanctions.
    The Chairman. Right. Now, let me just ask you, do you 
think, having been involved with the negotiations that took 
place and having--and still being part of the administration at 
this point, do you think that the administration would want the 
end state of the negotiations with Iran to be defined by the 
Congress of the United States?
    Mr. Talwar. Mr. Chairman, I think that on the question of 
the end state, I believe that we have not even begun the 
negotiation with the Iranians. We will also be having 
consultations with some of our partners, including the 
Israelis, very soon on questions related to that. So, you know, 
at this point while, you know, we would want, I believe, post-
consultation with you, ideas, and so forth, that to have a 
public definition of the end state at this point is not 
something that we would see.
    The Chairman. Do you think the administration would want 
some of its existing prerogatives and waivers to be rescinded 
or further constrained?
    Mr. Talwar. No, Mr. Chairman, I do not believe so.
    The Chairman. With thanks to both of you for your 
testimony. There may be additional questions for the record, 
which will remain open until noon tomorrow. We thank you for 
your testimony. And if you get questions in the record, we urge 
you to answer them expeditiously so we can consider your 
nominations at a business meeting. Thank you very much.
    As we excuse this panel, let me call up our third and final 
panel of the day. Our third panelists today are Michael Hammer, 
nominated to be Ambassador to the Republic of Chile, Kevin 
Whitaker, nominated to be the Ambassador to the Republic of 
Colombia, and Bruce Heyman, nominated as Ambassador to Canada.
    Michael Hammer has served as special assistant and senior 
director of press and communications at the White House and 
spokesman for the National Security Council. His Foreign 
Service includes assignments in Bolivia, Norway, Iceland, and 
Denmark.
    And I want to take a moment to make a couple of special 
remarks about Mr. Hammer's father, Michael Hammer, Senior. 
Public service and a love and commitment to Latin America was a 
driving force in his father's career as it is for Michael. Mr. 
Hammer, Senior, worked for many years for the AFL-CIO's 
American Institute for Free Labor Development. He served in a 
number of countries in Latin America where he promoted 
democratic trade, unionism, and agrarian reform. And sadly and 
tragically, Michael's father and two of his fellow colleagues 
were gunned down by a right-wing death squad while working in 
El Salvador in 1981, so I want to say that our country owes a 
debt of gratitude to your family.
    I also recognize two of your father's friends and 
colleagues who are here today to show their support, Mr. Joe 
Campos and Mr. Jim Hollway. Welcome back for your years of 
service and advocating for the rights of workers throughout the 
Western Hemisphere.
    Kevin Whitaker is the nominee for Ambassador to the 
Republic of Colombia. He is a career member of the Senior 
Foreign Service, currently Deputy Assistant Secretary of State 
for South America in the Bureau of Western Hemisphere Affairs. 
He was Deputy Chief of Mission at the U.S. Embassy in 
Venezuela, and has served in the State Department as Deputy 
Director of the Office of Cuban Affairs and the Office of 
Mexican Affairs.
    Our third panelist is Bruce Heyman, nominated to be 
Ambassador to Canada. Mr. Heyman is the managing director of 
Private Wealth Management at Goldman Sachs. He is the business 
leader counsel/advisor for the Committee for a Responsible 
Federal Budget, Fix the Debt Coalition, and serves on a number 
of boards, including the Executive Committee for the Chicago 
Council on Global Affairs.
    Welcome to all of you. And let me start with Mr. Hammer and 
move down the line. Again, your full statements will be 
included in the record. We would ask you to summarize your 
statements in about 5 minutes or so. And, of course, if you 
have any family or friends, please introduce them to the 
committee.

STATEMENT OF HON. MICHAEL HAMMER, OF THE DISTRICT OF COLUMBIA, 
           TO BE AMBASSADOR TO THE REPUBLIC OF CHINA

    Mr. Hammer. Thank you, Mr. Chairman. Especially thank you 
for your very kind words in memory of my father.
    Mr. Chairman, members of the committee, Senator Rubio, 
Senator McCain, it is a great honor and privilege to appear 
again before this committee, this time as the nominee to be the 
next United States Ambassador to the Republic of Chile.
    If I may, I would like to recognize my family whose 
steadfast support has enabled me to serve our great Nation for 
over 25 years, both abroad and at home. With me here today is 
my wife, Margret Bjorgulfsdottir--I think she is toward the 
back--who has sacrificed career opportunities to support my 
life in public service. Margret has always been there for me 
and for our three wonderful children, particularly when my 
duties took me away from the family.
    We are so proud of our kids, who have been young diplomats 
in their own right. Our daughters are here, Monika, who is 
studying broadcast journalism at Syracuse's Newhouse School, 
and Brynja, who is a seventh grader, who will accompany us to 
Chile if I am confirmed. However, our son, Mike Thor, who just 
started engineering at Cornell, is not here, and I sure hope he 
is studying for his finals.
    With the forbearance of the committee, as the chairman 
mentioned----
    The Chairman. Your family moved to the very front, so they 
are closer to you.
    Mr. Hammer. Oh, terrific. Thank you, sir. With the 
forbearance of the committee, I would like to again recognize 
my parents, Mike and Magdalena. When I was a teenager, my 
father gave his life for our great country. It was my dad's 
idealism and commitment to advancing America's interests abroad 
and making the world a better place which motivated me to join 
the Foreign Service. I am honored that two of his former AIFLD 
colleagues, Joe Campos and Jim Hollway, would come today for 
this important moment in my life, which my father would have 
loved to have seen.
    Unfortunately my mother could not make it from Spain, but 
to her if she was able to navigate the Internet and watch the 
hearing, I say, Mami, gracias.
    Having just served as Assistant Secretary for Public 
Affairs, I know the importance of American leadership in the 
world and recognize the need to partner with others in order to 
address the global challenges, particularly with countries that 
share our values. As Ambassador, I will work relentlessly to 
gain support for our policies, foster relationships that 
advance our interests, promote business opportunities that 
create American jobs, and tell America's story.
    When I served at the White House at the beginning of this 
administration, I had the privilege of traveling with President 
Obama to the Summit of the Americas where he launched a new era 
of partnership with the hemisphere based on mutual respect, 
common interests, and shared values; a partnership aimed at 
improving the lives of the citizens of the Americas by 
promoting economic opportunity, energy cooperation, citizen 
security, and human rights.
    These goals provide the basis for our excellent 
relationship with Chile today. If confirmed, I intend to build 
upon those close ties and work further with Chile as a global 
partner for the United States. Chile has been and will be an 
increasingly valuable partner in our hemisphere and around the 
world in three key areas: advancing democratic principles and 
human rights, promoting prosperity and economic opportunity, 
and enhancing security and advancing peace.
    On democracy and human rights, Chile is a shining example 
of a peaceful transition from the Pinochet regime to open and 
transparent governance. In fact, this coming Sunday, Chileans 
will go to the polls to elect their sixth President since 
returning to democracy.
    On economics, Chile is a reliable trading partner, is 
firmly committed to free trade, and acts as a key member of the 
OECD. Together with Chile, the United States is now working to 
conclude the historic Trans-Pacific Partnership, a high-
standard 21st century trade agreement that will promote 
regional economic integration, prosperity, and opportunity. 
Furthermore, the United States recently obtained observer 
status to the Pacific Alliance, where we share with Chile, 
Colombia, Mexico, and Peru an interest in expanding free 
markets, reducing inequality, opening trade, and welcoming 
foreign investment.
    On security, our countries enjoy a strong defense 
relationship. Chile is a key contributor to the U.N. mission in 
Haiti, also trains police officials from Central America, and 
participates in counter narcotics efforts in the Caribbean.
    Rest assured that if I am confirmed as Ambassador, I will 
focus on ensuring the safety and security of Americans living 
and traveling in Chile. In preparing for this assignment, I 
have been thoroughly impressed by the range and scope of our 
programs in Chile as well as with Embassy Santiago's high 
caliber American and locally engaged staff who make invaluable 
contributions every day. I would be extremely proud to have the 
opportunity to lead our Embassy team if confirmed.
    Mr. Chairman, let me close by saying how deeply grateful 
and humbled I am by the confidence President Obama and 
Secretary Kerry have shown in me with this nomination. If 
confirmed, I pledge to work closely with you, your colleagues, 
and the administration to further deepen the partnership 
between the United States and Chile.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Hammer follows:]

                Prepared Statement of Michael A. Hammer

    Thank you, Mr. Chairman, members of the committee. It is a great 
honor and privilege to appear again before this committee on this 
occasion as the nominee to be the next United States Ambassador to the 
Republic of Chile.
    If I may, I would like to take a moment to recognize my family 
whose steadfast support has enabled me to serve our great Nation over 
the past 25 years both abroad and at home. The Foreign Service is not 
just a career; it is a call to serve our country. And that call goes 
out to the whole family. With me here today is my wife, Margret 
Bjorgulfsdottir, who has sacrificed career opportunities to support my 
life in public service. Margret has always been there for our three 
wonderful children, particularly when my duties took me away from the 
family.
    We are so proud of our kids, who have been young diplomats in their 
own right: Monika, who is studying broadcast journalism at Syracuse's 
Newhouse School; Mike Thor, who just started engineering at Cornell; 
and Brynja, who will accompany us to Chile, if I am confirmed.
    With the forbearance of the committee, I would also like to 
acknowledge my parents, Mike and Magdalena. When I was a teenager, my 
father gave his life for our great country. It was my dad's idealism 
and commitment to advancing America's interests abroad and making the 
world a better place that motivated me to join the Foreign Service. My 
mother supported my quest every step of the way. Unfortunately, she 
could not make it from Spain to be here today but to her I say: 
gracias, Mami.
    Having just served as Assistant Secretary for Public Affairs at the 
State Department, I know the importance of American leadership in the 
world and recognize the need to partner with others, including 
countries like Chile, to address the global challenges we face. As 
Ambassador, I will work relentlessly to gain support for our policies, 
foster relationships that advance our interests, promote business 
opportunities that create jobs for Americans, and tell America's story.
    I have been fortunate to serve at the White House under our three 
previous Presidents. And, when I served at the White House at the 
beginning of this administration, I traveled with President Obama to 
the Summit of the Americas in April 2009, where he launched a new era 
of partnership with the hemisphere based on mutual respect, common 
interests, and shared values; a partnership aimed at improving the 
lives of the citizens of the Americas by promoting economic 
opportunity, energy cooperation, citizen security, and human rights.
    These goals provide the basis for our excellent relationship with 
Chile today. If confirmed, I intend to build upon those close ties and 
work further with Chile as a global partner for the United States. 
Chile has been and will be an increasingly valuable partner in our 
hemisphere and around the world in three key areas:
          (1) Advancing democratic principles and human rights;
          (2) Promoting prosperity and economic opportunity; and
          (3) Enhancing security and advancing peace.
    On democracy, Chile is a shining example of a peaceful transition 
from the Pinochet regime to open and transparent governance. In fact, 
this Sunday the Chilean people will elect their sixth President since 
the country's return to democracy. Given Chile's historical experience 
and solid institutions, it is well positioned to be a leader in 
democracy, both in the region and the world.
    On economics, Chile is a reliable trading partner, is firmly 
committed to free trade, and acts as a key member of the OECD. Since 
the U.S.-Chile Free Trade Agreement entered into force in 2004, 
bilateral merchandise trade has grown by 340 percent. While U.S. goods 
exports to the world increased 113 percent between 2003 and 2012, U.S. 
goods exports to Chile increased by nearly 600 percent, growing from 
$2.7 billion in 2003 to $18.9 billion in 2012. Together with Chile, the 
United States is now working to conclude the historic Trans-Pacific 
Partnership--a high-standard 21st century trade agreement that will 
promote regional economic integration, prosperity, and opportunity for 
the people of all of the member countries. Furthermore, the United 
States recently obtained observer status in the Pacific Alliance, where 
we share with Chile, Colombia, Mexico, and Peru an interest in 
expanding free markets, reducing inequality, opening trade, and 
welcoming foreign investment.
    On security, our countries enjoy a strong defense relationship. 
Chile is a key contributor to the U.N. mission in Haiti. Chile also 
trains dozens of police officials from Central American and Caribbean 
countries. Chile's Armed Forces participate in numerous bilateral and 
multilateral exercises annually, and Chile serves as a model in the 
region for increasing accountability and transparency in its Ministry 
of National Defense through ongoing defense reforms. Defense trade with 
Chile is at an all-time high with current projects totaling above $1 
billion and serves as an important component of our economic 
partnership and basis for interoperability between our militaries. I 
hope to enable us to do more together to advance peace and stability in 
the region and around the world, particularly as Chile assumes its 
nonpermanent seat in the United Nations Security Council in January.
    Rest assured that if I am confirmed as Ambassador, I will be 
focused on ensuring the security and safety of Americans living and 
traveling in Chile. I would be extremely proud to lead our Embassy 
Santiago team, which includes representatives from a wide range of 
agencies. In fact, in preparing for this assignment, I have been 
thoroughly impressed by the range and scope of our programs in Chile as 
well as with the Embassy's high-caliber American and locally engaged 
staff that make invaluable contributions every day.
    Mr. Chairman, let me close by saying how deeply grateful and 
humbled I am by the confidence President Obama and Secretary Kerry have 
shown in me with this nomination. If confirmed, I pledge to work 
closely with you, your colleagues, and the administration, to further 
deepen the partnership between the United States and Chile.

    The Chairman. Thank you.
    Mr. Whitaker.

 STATEMENT OF KEVIN WHITAKER, OF VIRGINIA, TO BE AMBASSADOR TO 
                    THE REPUBLIC OF COLOMBIA

    Mr. Whitaker. Good morning. Mr. Chairman, Senator Rubio, 
Senator McCain, it is a great honor to appear before you today 
as the President's nominee to be the next United States 
Ambassador to the Republic of Colombia. It is a profound 
privilege and deep responsibility to be considered for 
confirmation.
    Let me recognize my wife, Betsy, who had a distinguished 
Foreign Service career herself. My son, Stuart, could not make 
it today. My son, Thomas, is here, and my son, Daniel, who is a 
third-class cadet at the Virginia Military Institute, is with 
us as well. I am grateful for their support throughout my 
career.
    I also have to thank President Obama and Secretary Kerry 
for this opportunity and for their confidence in me.
    My mother, Evelyn, and father, Malvern, have passed on, but 
their love and guidance made me who I am. My father was a World 
War II veteran in the Navy. He was a career Army officer later, 
and my mother was the daughter of immigrants.
    They taught me there is no higher calling than service to 
Nation.
    Colombia has come far since the late 1990s when insurgency 
and narcotics trafficking tore the fabric of the nation. We 
have helped, including with more than $8.8 billion in 
assistance thanks to the generosity of Congress and the 
American people. Our support has been significant, and Colombia 
has provided the vast majority of the financial and human 
resources in the overall effort.
    Colombia is now engaged in a historic peace process 
intended to give the Colombian people the peace, security, and 
justice they have sacrificed so much to achieve. The 
administration strongly supports the Colombian Government in 
this process as a means of getting the FARC, a foreign 
terrorist organization, to lay down its arms and achieve a real 
peace.
    Agreements on critical issues have been achieved, but 
central questions remain. With so much invested in Colombia's 
success, the United States supports President Santos' goal of 
peace for all Colombians. If confirmed, in manifesting our 
support for the Colombian Government, I will underline that 
only by ensuring that human rights are respected can an 
enduring peace be achieved.
    Colombia is a growing market for American products. Overall 
two-way trade in 2012 was over $40 billion, four times what it 
was a decade ago. Our Free Trade Agreement--in forced for a 
year--has increased U.S. exports by 19 percent in that time. As 
part of the agreement, we agreed to work together to boost 
labor and environmental protections in Colombia. We continue to 
work collaboratively on Colombia's Labor Action Plan, 
recognizing the advances as well as areas where challenges 
remain. If confirmed, I will engage personally on this 
important effort.
    Colombia has a broad free trade agenda and is a 
constructive partner on environmental issues. If confirmed, I 
will be eager to help American firms do business in Colombia.
    Colombia benefits from its racially diverse society. 
Unfortunately, the ongoing conflict has disproportionately 
affected indigenous people, and Colombia's black, Afro-
Colombian, Raizal, and Palenquero people, who represent many of 
Colombia's internally displaced people. If confirmed, I will 
seek to identify additional ways we can help address their 
needs in cooperation with Colombian counterparts.
    Colombia is arguably one of our most willing and capable 
partners in the hemisphere and indeed in the world, and if 
confirmed, I will seek to deepen this collaboration.
    Colombia is sharing its hard-won security expertise 
broadly, including through a bilateral action plan with us, 
undertaking dozens of capacity-building activities with Central 
American and Caribbean forces. Colombia has consistently 
supported the Inter-American Human Rights System and the OAS as 
a whole.
    My career and experiences have prepared me for this high 
position. I have served in leadership positions of growing 
responsibility, including as DCM in Caracas and Deputy 
Executive Secretary of the Department. I have held senior 
policy positions with responsibility for Colombia since 2008, 
including now as Deputy Assistant Secretary for South America. 
I believe in the power of diplomacy, of using our influence and 
engagement to achieve national security goals.
    Again, I am grateful for this opportunity and for your 
consideration. I stand ready to answer any questions you may 
have.
    [The prepared statement of Mr. Whitaker follows:

                  Prepared Statement of Kevin Whitaker

    Mr. Chairman and distinguished members of the committee, it is an 
honor to appear before you today as the President's nominee to be the 
next United States Ambassador to the Republic of Colombia.
    After more than 30 years in the Foreign Service, I appreciate the 
privilege and responsibility it is to be considered for confirmation as 
Ambassador. I deeply respect the role of the Senate in the work of 
ensuring that our Nation has a foreign policy that reflects our values.
    Let me recognize my wife, Betsy, who had a distinguished Foreign 
Service career, and without whom I would not be here. My sons, Stuart, 
Thomas, and Daniel, are here as well; Stuart and Thomas are embarked on 
their careers, and Daniel is a third-class cadet at the Virginia 
Military Institute. Let me also thank President Obama and Secretary 
Kerry for this opportunity and their confidence in me.
    My mother, Evelyn, and father, Malvern, have passed on, but their 
love and guidance made me who I am. My father was a career Army 
officer, and my mother was the daughter of immigrants; they instilled 
in me the notion that there is no higher calling than service to 
Nation. In my Foreign Service career, support for democracy and for 
fundamental freedoms have been my guiding principles.
    Colombia has come far since the late 1990s, when insurgency and 
narcotics trafficking tore the fabric of the nation. We have helped, 
including through the commitment of more than $8.8 billion in 
assistance over that time--thanks to the generosity of Congress and the 
American people. Our support has been significant, but it is important 
to realize that the vast majority of the financial and human resources 
in this effort have come from Colombia.
    Colombia is now engaged in a historic peace process intended to 
give the Colombian people the peace, security, and justice they have 
sacrificed so much to achieve. The administration strongly supports 
this process. Although subagreements have been reached, central 
questions remain, including about justice and victims' rights. With so 
much invested in Colombia's success, the United States supports this 
process to achieve the goals that President Santos has outlined. If 
confirmed, I will underline our robust support for the peace process 
and the need, during in that process, to ensure that human rights are 
respected and rule of law is strengthened.
    Colombia's progress has made it a growing market for American 
products. Overall two-way trade in 2012 was over $40 billion--four 
times what it was a decade ago. Our FTA has opened markets and 
increased U.S. exports by 19 percent in just 1 year. As part of the 
agreement, we have agreed to work together to boost labor and 
environment protections in Colombia, and we continue robust engagement 
in areas of mutual concern, including providing for strong intellectual 
property protection and promoting labor rights through the Labor Action 
Plan. Our governments will continue to hold formal meetings through at 
least 2014 on Colombia's Labor Action Plan commitments, recognizing 
both advances and areas where challenges remain. Colombia has a broad 
free-trade agenda, and is a founding member of the Pacific Alliance, an 
innovative, high-standards trade pact where we are now official 
observers. Colombia is also striving for membership in the OECD, an 
ambition we support. Colombia is a constructive partner on climate 
change and environmental issues.
    Colombia benefits from its racially diverse society. Unfortunately, 
the ongoing conflict and other factors have disproportionately affected 
members of the groups known in Colombia as black, Afro-Colombian, 
Raizal, and Palenquero, who represent a large portion of Colombia's 
nearly 5 million of internally displaced people. If confirmed, I will 
seek to identify additional ways that the United States can help 
address their needs, including through our bilateral action plan.
    Colombia is one of our strongest partners in the hemisphere, and 
indeed, in 
the world. Building on our outstanding cooperation in combating 
transnational crime and narcotics trafficking, Colombia is sharing its 
hard-won security expertise broadly, notably in Central America. 
Through a bilateral action plan on regional security cooperation, we 
are combining our efforts in dozens of capacity-building activities 
with Central American and Caribbean forces over the next 2 years. 
Colombia has consistently supported the Inter-American Human Rights 
System, and has worked to ensure that the OAS improves its processes 
and achieves its goals. And Colombia has been a voice of reason in 
regional political groupings.
    My career and experience have prepared me for this service. I have 
served in leadership positions of growing responsibility over the last 
two decades, including as Deputy Chief of Mission in Caracas and as 
Deputy Executive Secretary of the Department. I have served in senior 
policy positions with responsibility for Colombia since 2008, and have 
a firm grasp on the issues there. As a leader, I seek to empower and 
insist on accountability; I delegate authority, but never 
responsibility. I believe in the power of diplomacy, of using our 
influence and engagement to achieve our national security goals.
    I am grateful for this opportunity, and for your time. Should the 
Senate confirm me, I pledge to maintain close contact with you and your 
staff. If confirmed, I will continue my commitment to democracy and 
fundamental freedoms, and I will work hard to ensure that U.S. 
companies in Colombia continue to have the opportunity to take 
advantage of all the business opportunities Colombia has to offer.
    I look forward to this opportunity to advance America's interests 
in Colombia, and stand ready to answer any questions you might have now 
and in the future.

    The Chairman. Thank you.
    Mr. Heyman.

            STATEMENT OF BRUCE HEYMAN, OF ILLINOIS, 
                   TO BE AMBASSADOR TO CANADA

    Mr. Heyman. Thank you, Mr. Chairman. Thank you, Senator 
Rubio and Senator McCain, for the opportunity to appear before 
you today. I would particularly like to thank Senator Durbin 
for his earlier generous introductory remarks, and I hope I can 
live up to his standard that he has set as an exemplary public 
servant.
    I would also like to thank both President Obama and 
Secretary Kerry for their trust and confidence in my abilities. 
I am extraordinarily grateful to the President for nominating 
me to be the next United States Ambassador to Canada, and I am 
humbled and honored to appear before the Senate today.
    If I may, I would like to introduce my wife, Vicki, to the 
committee. I would not be here without her love and support. I 
am also delighted to be joined by my phenomenal children--
David, Liza, and Caroline--and my brother, Richard Heyman, and 
my sister- and brother-in-law, Gwen and Brian McCallion, and 
their beautiful daughters, Shelley and Katie McCallion.
    Mr. Chairman, the relationship the United States shares 
with Canada is indeed a special one. President Kennedy told the 
Canadian Parliament, ``Geography has made us neighbors. History 
has made us friends. Economics has made us partners. And 
necessity has made us allies. Those whom nature hath so joined 
together, let no man put asunder.'' This statement rings ever 
true today. The United States and Canada continue to share a 
strong economic relationship, a global partnership, a border 
that makes us neighbors, and interests and values that make us 
friends.
    For many Americans and Canadians, there are deeper personal 
ties, and I can look to our own family as an example. Vicki's 
great grandparents, with her grandfather and his siblings, 
immigrated to Canada through Quebec. The family made Toronto 
their home, while Vicki's grandfather continued on to the 
United States. But our relationship is hardly unique to Canada. 
It represents just a single example among the countless links 
that bind the people of our two countries together. And if 
confirmed, I plan to embrace the unique mosaic of Canadian 
history, culture, and people by visiting the diverse 
communities across the beautiful and expansive country of 
Canada and all of its provinces and territories.
    At the SelectUSA Summit in October, Secretary Kerry said, 
``Foreign policy today is economic policy,'' and I could not 
agree more. If confirmed, my top priority will be enhancing our 
economic partnership. The United States and Canada already 
enjoy the world's largest and most comprehensive trade 
relationship with nearly $2 billion in goods and services 
flowing across our border each day. It is obviously a 
tremendous trade relationship, the greatest in the world, and I 
would like to see it expand further.
    If confirmed, I believe my background and experience would 
prove useful in this effort. As a Goldman Sachs managing 
director, I have spent my entire career constructing business 
partnerships and helping investors see possibilities. If 
confirmed, I will work to foster trade and investment that 
creates jobs on both sides of our common border, and I will 
also work to expand our environmental partnerships and 
cooperation to protect and preserve the natural resources our 
nations are blessed to enjoy and share.
    Our border with Canada stretches 5,500 miles, and there are 
more than 100 border crossings. By working together, the United 
States and Canada can keep those crossings open to legitimate 
trade and travel while protecting our citizens. If confirmed, I 
will continue to build on the success of the B2B and RCC 
initiatives announced by the President and the Prime Minister 
in 2011. A secure and efficient border is in the interest of 
both our countries, and I will focus on a security strategy 
that promotes the legitimate flow of people, goods and services 
between our two countries and fosters efficiency and North 
American competitiveness and jobs.
    And finally, I would like to emphasize how greatly I value 
our global partnership. The United States is fortunate to have 
a neighbor that shares our strong commitment to democratic 
values and works tirelessly to promote peace, prosperity, and 
human rights around the world. Canada is our partner in NORAD 
and in NATO, and it is with great appreciation I acknowledge 
and respect the Canadian troops who have served bravely 
alongside Americans, especially in Afghanistan. And if 
confirmed, I will be a respectful steward of this partnership 
with Canada.
    More than any other country in the world, our relationship 
with Canada has the most direct and immediate impact on 
America's security and prosperity. I feel honored to be 
nominated, and, if confirmed, I pledge to serve responsibly and 
with integrity.
    Thank you for your consideration, and I look forward to 
answering any your questions.
    [The prepared statement of Mr. Heyman follows:]

                   Prepared Statement of Bruce Heyman

    Thank you Chairman Menendez, Ranking Member Corker, and 
distinguished members of the committee, for the opportunity to appear 
before you today. I would particularly like to thank Senator Durbin for 
his generous introductory remarks. I am honored to have known Senator 
Durbin for many years, and I hope that I can live up to the standard 
that he has set as an exemplary public servant.
    I would also like to thank both President Obama and Secretary Kerry 
for their trust and confidence in my abilities. I am extraordinarily 
grateful to the President for nominating me to be the next United 
States Ambassador to Canada, and I am humbled and honored to appear 
before the Senate today.
    If I may, I would like to introduce my wife, Vicki, to the 
committee. We first met at Vanderbilt University, and I would not be 
here today without her love and support. I am also delighted to be 
joined by my phenomenal children--David, Liza, and Caroline.
    Mr. Chairman, the relationship that the United States shares with 
Canada is a special one. President Kennedy summed it up perfectly in 
1961 when he told the Canadian Parliament, ``Geography has made us 
neighbors. History has made us friends. Economics has made us partners. 
And necessity has made us allies. Those whom nature hath so joined 
together, let no man put asunder.''
    This statement rings true today. The United States and Canada 
continue to share a strong economic relationship, a global partnership, 
and a border that makes us neighbors and interests and values that make 
us friends. For many Americans and Canadians, there are deeper and more 
personal ties . . . and I can look to our own family as an example. 
Vicki's great grandparents, with her grandfather and his five siblings, 
immigrated to Canada through Quebec in 1910 and 1911, settling in 
Toronto. Four siblings made Toronto their home, while Vicki's 
grandfather and his brother continued on to the United States. My 
family's relationship to Canada, however, is hardly unique. It 
represents a single example among the countless links that bind the 
people of our two countries together. Today, one out of five Canadians 
was not born in Canada. If confirmed, I plan to embrace this unique 
mosaic of Canadian history, culture, and people by visiting the diverse 
communities across the beautiful and expansive country of Canada in 
each of its 10 provinces and 3 territories.
    At the Select USA Investment Summit in October, Secretary Kerry 
said, ``foreign policy today is economic policy.'' I agree and, if 
confirmed, my top priority will be enhancing our economic partnership. 
The United States and Canada already enjoy the world's largest and most 
comprehensive trade relationship, with nearly $2 billion in goods and 
services flowing across the border each day. To put this into 
perspective, U.S. exports to Canada in 2012 exceeded our combined 
exports to China, Japan, South Korea, and Singapore.
    It is obviously a tremendous trade relationship, the greatest in 
the world, and I would like to see it expand further. If confirmed, I 
believe my background and experience would prove useful in this effort. 
I have been fortunate to study commerce and to work in the banking 
sector for the past 33 years. As a Goldman Sachs Managing Director, I 
have spent my entire career constructing business partnerships and 
helping investors see possibilities. If confirmed, I will work to 
foster trade and investment that creates jobs on both sides of our 
common border. I will also work to expand our environmental 
partnerships and cooperation to protect and preserve the natural 
resources our nations are blessed to enjoy and share.
    Our bilateral economic partnership with Canada will continue to 
expand and flourish as long as both countries have trust in how people, 
goods, and services flow legitimately, safely, securely, and reliably 
between our two countries. Our border with Canada stretches 5,525 miles 
and there are more than 100 border crossings. By working together, the 
United States and Canada can keep those crossings open to legitimate 
trade and travel while protecting our citizens from terrorism, crime, 
and illicit goods. If confirmed, I will continue to build on the 
success of the Beyond the Border and the Regulatory Cooperation Council 
initiatives announced by President Obama and Prime Minister Harper in 
2011. A secure and efficient border is in the interest of both our 
countries, and I will focus on a security strategy that promotes the 
legitimate flow of people, goods, and services between our two 
countries and fosters efficiency and North American competitiveness and 
jobs.
    Finally, I would like to emphasize how greatly I value our global 
partnership with Canada. The United States is fortunate to have a 
neighbor that shares our strong commitment to democratic values and 
works tirelessly to promote peace, prosperity, and human rights around 
the world. Canada is our partner in NORAD and in NATO, and it is with 
great appreciation that I acknowledge and respect the Canadian troops 
who have served bravely alongside Americans, especially in Afghanistan. 
If confirmed, I will be a respectful steward of this partnership with 
Canada.
    More than any other country in the world, our relationship with 
Canada has the most direct and immediate impact on America's security 
and prosperity. I feel honored to be nominated, and, if confirmed, I 
pledge to serve responsibly and with integrity. I look forward to 
working with this esteemed committee, your colleagues in Congress, and 
the executive branch to foster an even stronger relationship between 
the United States and Canada.
    Thank you for your consideration, and I look forward to answering 
your questions.

    The Chairman. Thank you very much to all of you. Let me 
start off, Mr. Hammer. You know, the Chileans and us have a 
great relationship. We share many, many values. But they seem 
reluctant to take on the role of a regional player. And 
considering the wide range of values that we share on 
democracy, human rights, on labor, environment, and trade, what 
would you do if confirmed to encourage the Chilean Government 
to take advantage of its potential to help serve as an example 
for the region and emerging economies?
    Mr. Hammer. Mr. Chairman, thank you for your question. I 
agree with you that because of our shared values, because of 
their responsible management of their economy and the practices 
that they are engaged in going forward, that Chile could step 
up and do more partnering with the United States in the 
hemisphere and, in fact, as a global partner. They are helping 
us through some joint programs, training police in Central 
America, in countries like Honduras, El Salvador, and 
Guatemala. As I mentioned, they are participating in some 
counter narcotics operations in the Caribbean.
    But I would hope that if confirmed that I will have an 
opportunity to, from the very start, begin a conversation, 
first with the Pinera government, and then with his successor, 
and her government, because it will be a her, that we will try 
to then find avenues where we can partner together and, in 
fact, bring to bear the tremendous expertise that Chileans have 
developed in the institutions that they have fostered so that 
others, particularly in our hemisphere, can benefit from what 
their experience has been so far, and to make the lives of 
their citizens and the citizens of the Americas better.
    The Chairman. Well, I am bullish on our relationship on 
Chile and on Chile itself. But there is one area we always have 
bilateral issues that may concern us. And I am concerned in the 
pursuit of American ingenuity and to protect its innovation 
globally, when a country does not live up to the higher 
standards--the high standards that we have set for ourselves in 
protecting others in the world in terms of intellectual 
property rights, as well as our own country's.
    Chile remains on the short list of 10 countries on the 
priority watch list in the USTR Special Report, and we have 
continuing concerns about IPR issues under the bilateral FTA. 
And from my understanding, Chile is one of the countries 
supposedly pushing back against USIPR proposals in the TPP 
negotiations.
    If confirmed, what steps would you take to encourage Chile 
to be more forward-leaning in supporting a high standard 
intellectual property agreement in the TPP and fulfilling its 
requirements under existing agreements?
    Mr. Hammer. Thank you, Mr. Chairman. I have been briefed by 
our colleagues in USTR about some of these important issues. 
Certainly Chile has fallen short so far on international--I am 
sorry--intellectual property rights. And I would be looking 
forward, if confirmed, to from day one begin working to try to 
ensure that, one, they live up to their commitments under the 
2004 FTA, and secondly, to--if we are able to move forward with 
the Trans-Pacific Partnership, obviously to make sure the 
proper protections and enforcement are in place and that 
Chileans live up to their responsibilities.
    I have every belief and confidence that the Chileans can, 
but certainly they have not done enough, and it is an issue 
that we will prioritize and be certain to follow because it is 
critically important, as you said, to the American economy and, 
of course, internationally intellectual property rights must be 
an issue that is paid attention to.
    The Chairman. Let me ask you and Mr. Whitaker since you are 
going to be, if confirmed, sharing countries that are a part of 
the Pacific Alliance, which, as a trade block, comprises about 
210 million people, accounting for 35 percent of Latin America 
GDP, and with massive potential for increases in trade, foreign 
direct investment, and infrastructure projects. And they are 
focused on sound economic policy, reliance on strong standards 
of democratic governance. I think that is a great model for the 
entire hemisphere.
    I am wondering what both of your perspectives are. Are we 
engaging enough? Are there ways that we can enhance our 
engagement with the Pacific Alliance to be poised to take 
advantage or to more fully participate and have a mutually 
beneficial effort that can both help to strengthen what they 
are doing and enjoy the possibilities in cooperation with these 
respective countries that can create opportunities here at 
home?
    Mr. Hammer. Well, Mr. Chairman, if I may, and then I will 
defer to my colleague, Kevin. Certainly we see it as a very 
positive development that Chile, Peru, Mexico, and Colombia 
would come together and form this Pacific Alliance, a 
commitment to improving the lives of their people by promoting 
free trade and trying to attract investment. By becoming an 
observer, which we recently did, I think we have an opportunity 
to engage very directly and closely with these countries in 
that forum and obviously to encourage positive developments.
    But I think we are on the right track. We like what they 
are doing. It is a trend that I think from my perspective would 
be something that the rest of the hemisphere should be looking 
at. The Trans-Pacific Partnership embodies an even larger group 
of countries that are looking to advance economic prosperity. 
But these are the kinds of developments, I think, that we as 
the U.S. Government want to be certainly supportive of, and 
where we can encourage.
    Mr. Whitaker. Mr. Chairman, thank you for the question. I 
agree with everything that Mike just said. The only thing that 
I would add to that is in the initial days of the Pacific 
Alliance, there was sort of a scrupulous focus on the economic 
aspects of the alliance. All of the countries needed to have 
free trade agreements with each other and collectively. They 
talked about trade matters predominantly, and so there was a 
real focus on the economic side, on ensuring that it was a high 
standards trade pact.
    The organization seems to be evolving in terms of what its 
focus is. The four countries are doing things diplomatically 
together. They are clearly very open to countries joining, 
becoming observers, and there is a path for observers to become 
members. But actually they reached out to us and requested that 
we apply for observer status, which I thought was very positive 
indeed.
    The model of economic growth that they promote is one that 
is, importantly, socially inclusive. And all of these countries 
are endeavoring to create the kind of economic growth which 
brings the great majority of their citizens along, which, of 
course, is something that can and should be emulated more 
broadly.
    The Chairman. One more question for you, and then I will 
have a question for Mr. Heyman, and then I will turn to Senator 
Rubio. From what you can see in your assessment of your peace 
talks in Colombia on the FARC, do you anticipate any changes in 
Colombia's counternarcotics policy, on its extradition policy, 
on Colombia's training of third country security forces that 
have been, I think, central elements of the U.S.-Colombia 
partnership?
    Mr. Whitaker. Thank you, Mr. Chairman. Obviously we follow 
the peace discussions very closely. This is clearly a difficult 
lift for all Colombians. They have achieved agreement on two of 
the five issues on the tables, five issues that need to be 
closed out. Very difficult issues remain, and one of the 
difficult issues that remains is the question of justice. On 
one hand, there needs to be justice and accountability. On the 
other, there needs to be a way forward to permit some sort of 
political participation. The way President Santos put it was 
that it is not about sacrificing justice for peace; it is about 
achieving peace with the maximum amount of justice, and that 
seems to make pretty good sense to me.
    The question of extradition has come up indeed because the 
FARC has raised it publicly, that is to say, extradition to the 
United States. What we have said is that our judicial processes 
will continue, and if individuals are accused of very serious 
crimes in the United States and are wanted by the U.S. Justice 
Department, then it is reasonable to assume that, regardless of 
any other circumstances, we will continue to seek access to 
those people so that they can be tried for the crimes that they 
are accused of in the United States. But I do anticipate that 
that will be a continuing matter that the FARC would raise.
    I see no reason to believe that the security cooperation 
element would change at all. That has not come up, and it seems 
that there is such a solid foundation there and such a strong 
issue on the part of the Colombian security forces and the 
partners in Central America and the Caribbean, I see no reason 
to believe that that would change.
    On counternarcotics, we have a couple of issues here. You 
are aware, Mr. Chairman, that President Santos is interested in 
a debate on counter narcotics policy generally in the 
hemisphere. That is a debate that we welcome as we understand 
that we have public health concerns, we have national law, and 
we have international obligations which we must meet. A matter 
which has come up with respect to counternarcotics is the 
FARC's insistence--this is a public insistence--we do not know 
what they are saying at the table, but publicly they are 
insisting on the elimination of the aerial eradication program, 
which, in our view, would be a great mistake. The aerial 
eradication program has delivered terrific results over time. 
Net cocaine production--cocaine potential production has been 
reduced by nearly 70 percent over the last 5 years. The amount 
of cocaine under production now in Colombia is at a 20-year 
low, and that is in large part thanks to the effectiveness of 
the aerial eradication effort.
    The Chairman. Thank you very much.
    Senator Rubio. Mr. Whitaker.
    Senator McCain. Could I just ask a quick question? Mr. 
Heyman, you are familiar with the XL Pipeline issue.
    Mr. Heyman. I am familiar with it; yes, sir.
    Senator McCain. And your position is?
    Mr. Heyman. There is a process under way at the State 
Department, and when that process is concluded, I think that I 
will be the person on the ground that will be communicating 
with the Canadians.
    Senator McCain. So you have no decision because there is a 
process that has been going on for several years.
    Mr. Heyman. That is correct.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you. Mr. Whitaker, I wanted to ask you 
before you go to Colombia, in your current role are you aware 
of any sort of effort on behalf of the Castro government to 
begin back channel conversations with the United States about 
the nature of our relationship that extend beyond just the 
normal conversations regarding migration, postal service, et 
cetera?
    Mr. Whitaker. I am not aware of any such effort; no, sir.
    Senator Rubio. OK. The second question is with regards to 
Colombia. Specifically, President Santos recently arrived in 
the United States and suggested that the United States needed 
to be more understanding and make some sort of concessions to 
the Castro regime. I was curious about that statement because 
obviously the people of Cuba live under conditions that neither 
President Santos nor anybody in Colombia would accept for their 
own people.
    But I guess my fundamental question is, How related to 
these talks with the FARC is a statement like that, or is it 
not just an effort by President Santos to say things that the 
Cubans would look favorably upon in an effort to get more 
cooperation from them on this agreement with the FARC?
    Mr. Whitaker. Senator, I actually do not know what 
President Santos' motivation was in making such remarks. But 
you are absolutely correct, that is the kind of thing that he 
has said, and he has actually said it for some time. I could 
speculate on it, but he is probably a better person to query on 
it.
    What I can tell you, Senator, is that I actually worked on 
Cuba for 5 years from 2000 to 2005. I was the deputy director 
of Cuban Affairs and then the director of Cuban Affairs. I 
have, I think, a fairly unique and detailed understanding of 
Cuba and the nature of this government and the abuses that have 
been committed by it. If confirmed, you can count on me to be a 
direct--very direct--discussant with the Colombian Government 
about Cuba and about policies, which can be more effective with 
respect to Cuba and its role in the hemisphere.
    Senator Rubio. My last question is about the negotiations 
with the FARC. We would love to see the FARC lay down their 
arms and walk away. But let us just remind each other of who 
the FARC is. There were reports in November of an apparent FARC 
plot to murder several leading Colombian politicians, including 
former President Uribe, and the attorney general.
    And this is still a criminal syndicate. This is still a 
criminal organization. This is still a terrorist guerilla 
organization. And that is why you are seeing an uptick among 
the Colombian population looking at these negotiations less 
favorably than before. And so, since President Santos has felt 
it appropriate to travel to the United States and ask us to 
make concessions with regard to Cuba without asking Cuba to 
actually make changes, I felt it perhaps was appropriate to 
comment on the nature of those negotiations they are having 
with the FARC in particular because that is an organization 
that has criminals who have committed crimes against and in the 
United States. And we will have a continuing and ongoing 
interest in that matter.
    Thank you. Thank you all for your service.
    The Chairman. Thank you. I do have one or two other 
questions, and I would like to--I believe he is still here--I 
would like to recognize the Colombian Ambassador to the United 
States, the Honorable Luis Villegas, who is here. Ambassador, 
thank you for joining us. We appreciate it.
    Mr. Whitaker, you and I talked a little bit about the 
question of the Labor Action Plan, and I have been a big 
supporter of Colombia from my days in the House, and in the 
Senate, and as the chairman of the Western Hemisphere 
Subcommittee before I ascended to the chairmanship of the full 
committee. I think it is an incredibly important country with 
us. I was one of the leading promoters and supporters including 
in challenging times of Plan Colombia, which I think helped the 
Colombian Government regain its sovereignty from its internal 
challenges.
    But I am seriously disappointed in the enforcement of the 
Labor Plan of Action. This was intended to reduce violence 
against labor leaders in Colombia and to better protect labor 
rights. And while some progress has been made, there is still, 
from my perspective, a very significant degree of impunity. 
What will you do as the Ambassador if ultimately confirmed to 
continue to pursue a more robust engagement of the enforcement 
of the laws and the prosecution of them in order to ensure the 
rights of labor leaders in Colombia?
    Mr. Whitaker. Thank you, Mr. Chairman. I think you have 
identified some very significant challenges that remain with 
respect to the Labor Action Plan. I have stayed, in my current 
role, in close contact with the two agencies of our government 
which have direct responsibility day to day on these matters, 
the Department of Labor and USTR. And I think there are four 
areas where there are significant continuing problems. One is 
that fines are being levied but not being collected. Two, 
inspections and inspections about core issues in terms of labor 
practices are not being conducted in a way which had been 
indicated by the plan. Indirect employment contracting 
continues in a way which is not consistent with the vision that 
we had. And as you say, threats and violence continue to occur, 
albeit at a lower level.
    What I would propose to do if confirmed is to maintain very 
close contacts with the Ministry of Labor--with our government, 
of course, and with the Ministry of Labor, which has direct 
responsibility for these activities, with the fiscalia, with 
the prosecutor's office, which, of course, has the 
responsibility for conducting the judicial followup, which is 
essential to ensuring that impunity does not exist. And then 
finally, I would commit, if confirmed as Ambassador, to make 
this a matter of regular and routine discourse with the highest 
levels of the Colombian Government so that they understand what 
our position is on it.
    The Chairman. And one other question on Colombia. On 
Monday, Colombia's Office of the Inspector General issued a 
decision that removed Bogota Mayor Gustavo Petro from office 
and banned him from holding elective office for 15 years. Now, 
international human rights organizations have raised the 
questions of whether the tenets of due process were respected 
as the process did not offer Mr. Petro the opportunity to 
defend himself or present his version of the facts. Critics of 
the decision have wondered whether it might be politically 
motivated. And Colombia's Minister of Justice, Mr. Mendez, 
said, ``We have to revise the constitutional norm that allows 
for the removal of an official chosen by popular vote.''
    What is your understanding of this situation in your 
present role, and do you believe that the basic rights of due 
process were respected here?
    Mr. Whitaker. Thank you, Mr. Chairman. I am aware of the 
case. Alejandro Ordonez relieved or removed Mayor Petro and 
banned him from office for, I think, 15 years. There is a 
fundamental question that is raised by this, it seems to me, 
and that is one of political pluralism. Colombia is now 
embarked on this very important effort to figure out how to end 
the internal conflict. And it is not by accident that the 
second issue that they discussed was political pluralism, how 
to integrate into the legal, unarmed, democratic process 
individuals on the left.
    If individuals in Colombia were to conclude, based on this 
action or any other action, that that space does not exist, 
then the basic conditions for peace are going to be in some 
ways eroded. And I think the fact that that quote that you had 
from the other official, the fiscalia, that there needs to be a 
review of the responsibilities of Mr. Ordonez suggest the 
vitality of the Colombian democratic system, where the 
democratic institutions are constantly struggling with each 
other in ways which are not necessarily always pretty.
    Now, there is a process for appeal, and Mayor Petro has 
indicated his intention to engage in that process.
    The Chairman. Processes of appeal exist here in the United 
States, but normally you get due process before you have to 
find yourself in an appeal situation. And so, you know, as 
someone who is an admirer of Colombia, I am concerned that 
actions like this move us in directions that are counter to the 
progress that we would like to see.
    Mr. Heyman, let me ask you two important questions. There 
are many in our relationship with Canada, which as you 
described is extraordinary. One is an item that I have voiced 
as it relates to other countries, again intellectual property 
rights. We have pushed for strong IP protections in the TPP 
agreement. Canada has not, and to date has not, been supportive 
of pro-innovation efforts in those negotiations in its own 
domestic practices. An example can be found in the heightened 
standard for patentable utility Canada now uses which is 
contrary to the global best practices and its international 
commitments.
    That innovators should face significant intellectual 
property challenges with one of the largest trading partners 
with the United States is a serious concern. So if you are 
confirmed, what steps would you take to address Canada's access 
barriers? I understand that our trade representative will be a 
big part of this, but you are obviously going to be engaged on 
a bilateral basis, on a daily basis, with respect to IP 
protections through the TPP and otherwise.
    Mr. Heyman. Mr. Chairman, thank you very much for that 
question. Intellectual property rights are the core of what 
American institutions depend on to compete globally. American 
ingenuity is our special sauce, and we work so hard doing 
research and development at the corporate level, and depend 
upon patent rights and protections when we sell products 
overseas.
    I am aware of the issues that have been brought up with 
regard to intellectual property rights. That being said, I know 
the Canadians are working harder to try to do better in this 
way. They have worked on passing legislation on internet piracy 
issues last year, and there is legislation before the 
Parliament right now on counterfeiting and some border rules 
that would go into effect.
    That being said, if considered to be Ambassador by this 
esteemed committee, I will take this issue to the Canadian 
Government, and I will make this issue an important issue. As I 
said, doing business with Canada is an important part of the 
role that I plan to take as Ambassador to Canada, and that will 
be my No. 1 mission is expanding our economic footprint. But 
unless we have the intellectual property protections for our 
companies, it will make it incredibly difficult to expand those 
relationships. So I will make that a priority, sir.
    The Chairman. Right, very good. Canada recently claimed 
that much of the Arctic sea floor, including the North Pole, is 
Canadian territory. Russia has made a similar claim in the 
past. Do you think--and the United States is undertaking 
studies necessary to determine whether any of the Arctic beyond 
our 200-mile Exclusive Economic Zone is our--is on our 
contiguous Continental Shelf, and, therefore, American 
territory.
    Do you think--my question actually is, to your knowledge 
from your briefings, the United States undertaking such a 
study?
    Mr. Heyman. Yes. We are mapping as well the seabed floor.
    The Chairman. And is our ability--should that mapping 
ultimately define that we actually have an interest and a claim 
beyond the 200 miles, is that ability to make that claim 
important--an important reason to ratify the Law of the Sea 
Treaty?
    Mr. Heyman. It is my understanding that those participants 
in the Arctic Council and those that have an interest in the 
region have agreed to adjudication. So as this mapping is 
taking place, it is natural to assume that there may be overlap 
and maybe even multiple countries thinking that the same 
territory is actually theirs, and we will have to go through an 
adjudication process. And it is my understanding that that part 
is not necessarily a requirement, this ratification of the 
treaty, to make that happen.
    The Chairman. So we could pursue our interests here, 
notwithstanding ratification of the treaty?
    Mr. Heyman. That is my understanding at this point.
    The Chairman. OK. And if we were to succeed in this process 
in terms of our claim, would that mean that Santa Claus is an 
American citizen? [Laughter.]
    You do not have to answer that question. [Laughter.]
    Mr. Heyman. I would like to answer that question.
    The Chairman. That might put you in a lot of hot water.
    Mr. Heyman. I understand that. But as I think you are 
aware, NORAD tracks Santa Claus when he takes off, and it is 
with joint Canadian and U.S. participation that we will secure 
Santa Claus' protection. And it is from my understanding, Santa 
Claus has a special right of being a citizen of the world, and 
he can enter U.S. space without----[Laughter.]
    The Chairman. You have displayed your diplomatic abilities 
in an extraordinary fashion.
    Mr. Heyman. Thank you.
    The Chairman. All right. With that insight, our thanks to 
all of you for both your willingness to serve and your 
engagement here before the committee.
    The record will remain open until noon tomorrow. I would 
urge you if there are questions submitted for the record, for 
you to answer them expeditiously so that the committee can 
consider your nominations before our business meeting.
    The Chairman. And with that, this hearing is now adjourned.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


            Responses of Catherine Ann Novelli to Questions 
                  Submitted by Senator Robert Menendez

    Question. If confirmed you will take on your new position at a time 
when the United States is faced with major economic, environmental, and 
energy-related challenges and opportunities. Many U.S. officials, 
including current Secretary of State John Kerry and former Secretary 
Hillary Clinton, have advocated greater inclusion of these types of 
issues into broader decisions on U.S. foreign policy.

  <diamond> Do you agree with this sentiment? How might a more 
        integrated approach to economic diplomacy guide the U.S. 
        strategic outlook?

    Answer. I agree fully that U.S. foreign and domestic objectives are 
best served by integrating fully economic issues into broader U.S. 
foreign policy. Such integration supports U.S. diplomacy by fostering 
growth, encouraging connections between markets, and increasing 
participation in formal economies, all of which directly buttress U.S. 
security and democracy policy goals. This approach also directly 
supports prosperity in the United States by opening and expanding 
markets for American companies.
    There are a number of examples that illustrate clearly the link 
between our foreign policy, economic, environmental, and energy-related 
goals. In the Asia-Pacific region, completing the Trans-Pacific 
Partnership (TPP) negotiations would open new markets for U.S. 
companies and support U.S. job growth while underpinning directly our 
rebalancing toward that region. We are also implementing the U.S.-Asia 
Pacific Comprehensive Energy Partnership (USACEP), aimed at 
strengthening and expanding energy and environmental cooperation in the 
region by focusing on renewable and cleaner energy, markets and 
interconnectivity, the emerging role of natural gas and sustainable 
development. In Europe, increasing trade and investment through an 
ambitious partnership like the Transatlantic Trade and Investment 
Partnership (T-TIP) would increase job growth and competitiveness in 
both the United States and the European Union while strengthening our 
strategic partnership with our European allies. In Africa, U.S. efforts 
to accelerate growth, increase trade, promote investment in the energy 
sector, and speed development lift Africans from poverty, support our 
foreign policy goals related to security and democracy, and provide 
commercial opportunities that support U.S. prosperity at home.
    If confirmed, I will make it a priority to work closely with my 
colleagues in the State Department and other agencies to ensure that we 
carry out an integrated and effective foreign economic policy. In 
addition, to ensure our economic approach is correctly calibrated for 
individual countries, I will work closely with our Ambassadors to 
solicit their views about the best way to support their countries' 
connection to our broader objectives in support of a more inclusive, 
secure, and prosperous world.

    Question. Former Secretary of State Clinton announced her 
``Economic Statecraft'' initiative in 2011, describing it as using the 
tools of global economics to strengthen our diplomacy and presence 
abroad, while putting that diplomacy and global presence to work to 
strengthen our domestic economy. This concept is essentially what you 
could term ``economic diplomacy,'' or using the full range of economic 
tools--trade, investment, assistance, negotiations, sanctions, to 
achieve foreign policy objectives.

  <diamond> (a) Has there been an internal State Department evaluation 
        of the ``economic statecraft'' agenda since its introduction in 
        2011?

    Answer (a). I understand the State Department established various 
performance goals under its economic statecraft initiative designed to 
track performance of officers in Washington and the field. These 
included supporting exports in the field, resolving commercial 
disputes, advocating for better economic governance abroad, and 
supporting commercial outreach. For FY 2013, the State Department 
informs me that they exceeded their economic statecraft Agency Priority 
Goal (APG) by 43 percent, achieving a cumulative total of 971 aggregate 
``success stories'' related to promoting U.S. exports and investments 
and resolving commercial disputes. Economic and commercial outreach by 
missions also exceeded the annual goal, with more than 16,000 outreach 
activities, 114 percent above the FY13 goal of 7,460 outreach events.

  <diamond> (b) Do you plan to continue the initiative, and if so, what 
        additional policies would you implement to ensure that it leads 
        to tangible economic growth here at home?

    Answer (b). If confirmed, I will follow the directive Secretary 
Kerry has given the State Department to build on the successes of 
economic statecraft to intensify our efforts on economic diplomacy. 
Economic statecraft highlighted the usefulness of economic tools in 
achieving foreign policy objectives and aligned the State Department's 
economic efforts more closely with the important task of supporting 
economic growth and jobs in the United States. I will focus on policies 
and activities where the State Department can have the greatest impact. 
This would include greater coordination with the Departments of 
Commerce, USTR, and other U.S. Government agencies in advocating on 
behalf of U.S. firms, and concrete steps to open markets and help other 
countries develop their own economies so they can become greater 
consumers of U.S. goods and services. The vast majority of the world's 
consumers are outside the United States, so the more foreign economies 
are open to trade and prosperous enough to do so, the more American 
firms can sell to them, and hire more workers at home.

  <diamond> (c) In this context, how do you see the potential Trans-
        Pacific Partnership contributing to and facilitating the 
        administration's ``rebalance'' to the Asia-Pacific region?

    Answer (c). I believe the prosperity of the United States is 
inextricably linked to the economic success of the East Asia-Pacific 
region, and that U.S. policy toward Asia must include a strong economic 
component.
    As part of the rebalance to the Asia-Pacific, the administration 
established a strong, comprehensive agenda for U.S. economic engagement 
with the region. The negotiation of the Trans-Pacific Partnership (TPP) 
agreement is the centerpiece of this agenda. Through the TPP, the 
administration is promoting development of a rules-based regional 
economic and trade framework that fosters an open, fair and transparent 
commercial environment that levels the playing-field for U.S. 
businesses and expands trade and investment linkages between the United 
States and other TPP countries. I believe that, once concluded, the TPP 
will increase trade and investment between the United States and these 
dynamic markets that will in turn serve as the foundation for 
strengthened ties with the region and help underpin security and 
stability in the Asia-Pacific.

    Question. How do you intend to leverage the Department's global 
reach and use your senior-level role in the interagency process to 
enhance support to U.S. companies and increase trade and investment, 
while also addressing global challenges such as hunger, disease, 
poverty, climate change, citizen insecurity, and security threats?

    Answer. If confirmed, I will work closely with USTR, USAID, 
Treasury, Commerce, and the White House, as well as our overseas posts 
and our business leaders, to enhance our services to, and advocacy for, 
U.S. businesses seeking investment and trade opportunities. Working 
with TDA, Ex-Im, and OPIC, we can offer assistance to U.S. business not 
available elsewhere. I believe strongly a whole-of-government effort is 
required to support effectively U.S. business in the face of strong and 
growing overseas competition.
    Removing obstacles to trade and investment by U.S. companies drives 
economic growth and job creation in both the United States and our 
economic partners. Sustainable economic development, in turn, decreases 
poverty and hunger, improves security, and allows developing countries 
the space to work with us on other important global challenges like 
climate change public health.
    The United States also supports critical economic and structural 
reforms through our collaboration with the IMF, World Bank, and the 
multilateral development banks. As the United States works with our 
international partners and through multilateral groups like the G8 and 
G20, we can help to improve economic opportunity for women and access 
to education and health care.

    Question. The Trans-Pacific Partnership (TPP) negotiations have the 
ambitious goal of creating a ``comprehensive and high-standard'' FTA 
among 12 countries of widely differing economic and socio-economic 
levels, and with often radically different governing systems.

  <diamond> (a) If confirmed, what will be your role and that of the 
        Department in facilitating the conclusion of the TPP agreement, 
        and supporting the equally important follow-on implementation 
        phase and enforcement of trade commitments?

    Answer (a). The Trans-Pacific Partnership (TPP) is a cornerstone of 
the U.S. trade agenda, and the economic centerpiece of the Obama 
administration's rebalance toward the Asia-Pacific. The State 
Department plays an important role in the whole of government effort 
led by USTR for negotiating a high standard and comprehensive TPP 
agreement. If confirmed, I will support fully the conclusion of this 
crucial agreement. I will participate in public outreach efforts 
through interviews, conferences, and public events, and engage with 
counterparts from TPP partner nations to encourage them to find 
flexibility and work toward concluding a high standard agreement. I 
will also represent the Department in interagency meetings convened by 
USTR to delineate final U.S. negotiating positions. After the TPP has 
entered into force, the Department--with the support of our embassies 
and consulates--will work with interagency colleagues to monitor and 
evaluate the implementation and enforcement of the TPP's obligations 
and commitments. If confirmed, I look forward to leading this effort.

  <diamond> (b) How do you see the potential TPP agreement fitting in 
        with the existing Asian economic and strategic agreements?

    Answer (b). Many economic experts predict that the Asia-Pacific 
region will generate up to 50 percent of global growth and one billion 
new middle-class consumers in the coming decades. There are a number of 
efforts underway to tap into that economic opportunity, including the 
TPP and the Regional Comprehensive Economic Partnership (RCEP), which 
includes the ASEAN countries, four FTA partners, and China and India. I 
support the administration's view that these efforts are not mutually 
exclusive and that the high-standards of the TPP are the most effective 
way to open markets and promote regional economic integration.

  <diamond> (c) Are you optimistic that the TPP can set ``21st century 
        commitments'' on issues such as state-owned enterprises and 
        intellectual property protection?

    Answer (c). Promoting our innovation economy and leveling the 
playing field for U.S. companies competing with state-owned enterprises 
(SOEs) abroad is vital to the growth and prosperity of the United 
States. I understand the administration is working with our partners in 
TPP to ensure that TPP contains meaningful commitments on the 
commercial behavior of SOEs, an area of increasing concern to U.S. 
stakeholders. Another key priority is to ensure effective enforcement 
of intellectual property rights to maintain markets for U.S. job-
supporting exports and services. I understand U.S. officials and 
negotiators have made clear to our partners that effective disciplines 
in these areas are critical to the United States and essential to the 
U.S. vision of TPP as an agreement that addresses 21st century 
challenges.

  <diamond> (d) Do you anticipate that conclusion of a high-standard 
        TPP will accelerate efforts in certain countries--for example, 
        Vietnam--to establish internationally recognized principles for 
        human and workers' rights and environmental protection?

    Answer (d). Increased economic engagement with Vietnam has 
contributed to its opening to the outside world and improved the well-
being of the average Vietnamese citizen. Economic engagement with 
Vietnam is an opportunity to press for strengthening rule of law, 
encouraging further openness and engagement with the international 
community, and raising standards in key areas. For instance, Vietnam's 
participation in the TPP would require it to commit to high standards 
on internationally recognized labor rights, environmental protections, 
and intellectual property.
    If confirmed, I will work with my colleagues in the Department and 
interagency to continue to engage the Vietnamese Government on these 
issues, and reiterate the importance of an open and free civil society 
in ensuring inclusive and sustainable economic growth.

    Question. We have an economy increasingly driven by innovation, and 
this has created millions of jobs, spurred stronger economic growth, 
and enabled the United States to remain among the most economically 
competitive countries in the world. However, I have serious concerns 
about the inadequate protection of property rights in a number of 
important emerging economies, including--but not limited to--India and 
China.

  <diamond> (a) You have a wealth of private and public sector 
        experience in this area. Will you commit to making the 
        protection of intellectual property rights one of your top 
        priorities? What tools does the State Department have to 
        address these challenges?

    Answer (a). If confirmed, I will make the protection of U.S. 
intellectual property rights holders a priority during my tenure at the 
State Department and will utilize all tools available to me to advocate 
for robust protection and enforcement of intellectual property rights 
(IPR), including trade secrets.
    My experience in the private sector and at the Office of the U.S. 
Trade Representative has reinforced for me the value that IPR brings to 
innovative U.S. companies. If confirmed, my door will be open to 
companies to ensure that the State Department is raising IPR and trade 
secret issues with foreign governments at the highest levels. 
Additionally, I will be a partner in advocating for strong IPR regimes 
through trade agreements, such as the Trans-Pacific Partnership.
    The State Department provides valuable input to the USTR-led 
Special 301 and Notorious Markets processes, utilizes public diplomacy 
programs to engage foreign audiences on key IPR concerns, and funds 
critical IP law enforcement training. If confirmed, I will support 
these efforts, working to target foreign policies that negatively 
impact U.S. firms.

  <diamond> (b) Specifically with regards to India, are you concerned 
        about India's intellectual property and localization policies 
        in a number of sectors that favor their domestic companies at 
        the expense of U.S. innovation and jobs?

    Answer (b). I am deeply concerned about India's intellectual 
property and localization policies across a variety of sectors. These 
policies discourage innovators and affect U.S. businesses and, 
ultimately, American jobs. I have worked to address these issues in my 
professional capacity as both a public servant and in the private 
sector. The State Department and partner agencies have prioritized 
these issues in India. If confirmed, I will use my engagement with 
high-level counterparts in the Government of India to discuss U.S. 
concerns, international obligations, and best practices that contribute 
to a level playing field for U.S. innovators, entrepreneurs, and 
businesses, while exploring solutions that meet India's domestic policy 
objectives.

  <diamond> (c) I and my fellow Senators are going to rely on you to 
        let us know what we can do to encourage our trading partners to 
        change policies on forced localization, intellectual property, 
        tax, and other areas that unfairly disadvantage U.S. companies.

    Answer (c). If confirmed, I would welcome a strong partnership 
between the State Department and Congress to advance U.S. interests on 
these issues.

    Question. If confirmed you will oversee an incredibly diverse array 
of issues, and are responsible for advising the Secretary on matters of 
environment and energy policy at a time of great global challenges in 
both areas and significant developments here at home.

  <diamond> How do you see the dividing lines of authority among you, 
        the Energy Bureau, the OES Bureau, and the U.S. Special Envoy 
        for Climate Change regarding international environmental 
        issues? If confirmed, what will be your environmental 
        priorities?

    Answer. The position of the Under Secretary for Economic Growth, 
Energy, and the Environment oversees the Bureau of Energy Resources 
(ENR) and the Bureau of Oceans and International Environmental and 
Scientific Affairs (OES). If confirmed, I will lead the State 
Department's efforts to develop and implement energy and environmental 
policies to promote economic prosperity and address global challenges 
in a transparent, rules-based, and sustainable system. I will be 
responsible for integrating and coordinating the work of the ENR and 
OES Bureaus, as well as the Bureau of Economic and Business affairs, 
each of which reports to the Under Secretary.
    The Bureau of Oceans and International Environmental and Scientific 
Affairs (OES) works to advance U.S. foreign policy goals in such 
critical areas as climate change, resource scarcity, polar issues, 
oceans policy, health, infectious diseases, science and technology, and 
space policy.
    The Bureau of Energy Resources' role on environmental issues is to 
work with countries around the world on sustainability and to 
facilitate the market forces that are key to sustaining the move to a 
cleaner energy future. This work includes fostering the development of 
regional electricity grids and regulatory harmonization to create 
larger markets, enhancing reliability and energy efficiency, and 
facilitating integration and trade from clean energy sources and 
technologies.
    The Office of the Special Envoy for Climate Change (SECC) reports 
directly to the Secretary. SECC works closely with OES and ENR in 
developing U.S. international policy on climate, represents the United 
States internationally at the ministerial level in all bilateral and 
multilateral negotiations regarding climate change, and participates in 
the development of domestic climate and clean energy policy.
    In the near term, if confirmed, my priorities will likely include 
supporting the Secretary's Oceans Conference to raise international 
attention to the critical challenges the world's oceans are facing and 
to identify solutions. In addition, the United States will assume 
chairmanship of the Arctic Council in 2015; this will be a key 
opportunity for leadership to achieve peaceful and sustainable 
development of the Arctic Region.

    Question. If confirmed, what will be your international energy 
priorities, particularly in coordination with the Department of the 
Treasury, the White House, and the U.S. Executive Directors' Offices at 
the international financial institutions?

    Answer. If confirmed, I plan to focus on promoting energy security, 
including accelerating the transition to a global clean energy economy. 
This would include opening opportunities in international electricity 
generation, transmission, and distribution--which are estimated to grow 
by $17 trillion through 2035--to American trade and investment. I will 
also emphasize America's continuing commitment to transparency and good 
governance in energy and other sectors, and our support for efforts to 
bring electricity and clean cooking fuels to underserved populations 
around the world. I will pursue these international energy priorities 
in coordination with Treasury, the White House, USAID, and the U.S. 
Executive Directors at the international financial institutions. A 
priority will be developing and implementing new multilateral 
development bank mechanisms and instruments for spurring investment in 
these priority areas.

    Question. How do you envision working with Congress in protecting 
intellectual property rights, supporting U.S. renewable industries, and 
promoting U.S. job growth while fulfilling the administration's goals 
of alleviating energy poverty and offering low-carbon energy access to 
developing countries?

    Answer. I believe U.S. companies derive tremendous value and 
competitive advantage from billions of dollars they invest in research 
and development, especially in cutting edge technologies like renewable 
energy, in which U.S. companies have a competitive advantage given our 
excellence in innovation. It is critical for American innovators to 
know their intellectual property and trade secrets are being protected. 
A number of Members of Congress have played leadership roles on 
intellectual property rights issues, and if confirmed, I will work 
closely with Congress, U.S. rights holders, foreign governments, and 
innovators and entrepreneurs around the world to strengthen 
intellectual property protection and enforcement.

    Question. With regards to TransCanada's application to the State 
Department for a Presidential Permit to build the northern, cross-
border segment of Keystone XL pipeline, what will be your specific role 
in reviewing the Keystone XL pipeline permit, or other energy-related 
Presidential Permit applications in the future? What is the status of 
this review?

    Answer. I understand the President has delegated his authority to 
issue or deny permits for cross-borders pipelines to the Secretary of 
State, and that Departmental delegations of authority also permit a 
number of senior officials to make permitting decisions. Those 
officials include the Deputy Secretary of State, the Deputy Secretary 
for Management, the Under Secretary for Political Affairs, and the 
Under Secretary of State for Economic Growth, Energy and the 
Environment. Historically, the Under Secretary of State overseeing 
economic affairs, now named the Under Secretary of State for Economic 
Growth, Energy and the Environment (E), has made many of the national 
interest determinations on Presidential permits for transboundary 
pipelines, and I anticipate that I would play an active role in such 
decisions if confirmed. With regard to the Keystone XL application, I 
am not aware of any decision regarding which of the authorized 
officials will make the decision.
    Irrespective of whether the Under Secretary of State for Economic 
Growth, Energy and the Environment ends up making the national interest 
determination with regard to the Keystone XL permit application, if 
confirmed, I expect that I would play an active role in the 
Department's development of the national interest determination and the 
accompanying record of decision. A number of different bureaus and 
offices at the Department of State have expertise and interests 
relevant to this permitting decision. As the Under Secretary of State 
for Economic Growth, Energy and the Environment, I would oversee and 
coordinate the contributions of the Bureau of Energy Resources, the 
Bureau of Oceans and International Environmental and Scientific 
Affairs, and the Bureau of Economic and Business Affairs. I would also 
help coordinate with other Bureaus, such as the Bureau of Western 
Hemisphere Affairs.
    I understand that the Department continues to work toward the Final 
Supplemental Environmental Impact Statement (SEIS) for the proposed 
Keystone XL pipeline, addressing issues identified in the more than 1.5 
million submissions received during the public comment period, as 
appropriate. I have not been briefed on the technical aspects of that 
review because it is not yet final and I am a potential decisionmaker. 
After release of the Final SEIS, the State Department will seek the 
views of other federal agencies to determine if the proposed Keystone 
XL pipeline would serve the national interest. This process will 
involve consideration of many factors, including energy security; 
environmental, economic, and cultural impacts; foreign policy; and 
compliance with relevant federal regulations.

    Question. The State Department is promoting shale gas development 
through the Global Shale Gas Initiative, but is it also exporting best 
practices in regulating the shale gas industry? If so, given that there 
is no consensus domestically on how to regulate the industry how are we 
effectively advising other countries on how to regulate shale gas 
development?

    Answer. It is my understanding that the Department's Unconventional 
Gas Technical Engagement Program (UGTEP), formerly known as the Global 
Shale Gas Initiative (GSGI), seeks to share public sector policy and 
regulatory best practices gleaned from the United States with other 
countries interested in and considering developing shale gas resources. 
The program informs other countries about the technical, operational, 
environmental, legal, commercial and other issues associated with the 
sound development of the resource.

    Question. What role do you think off-grid, distributed renewable 
energy technologies will play in providing electricity access to the 
1.3 billion people who currently do not have access to electricity 
around the globe?

    Answer. I believe that off-grid, distributed power systems will 
play a significant role in meeting the needs of millions of people 
around the world, including the 1.3 billion people who do not have 
access to electricity. According to the International Energy Agency 
(IEA), more than half of the new power generation required to meet this 
need could come from off-grid and mini-grid solutions. Of that, the IEA 
projects that more than 90 percent of the electricity would come from 
renewable sources, such as solar, wind, biomass and small hydro.

    Question. Renewable energy generally has no fuel costs and low 
maintenance costs. Upfront capital costs are therefore a barrier to 
deployment. What is the State Department doing to help finance 
renewable energy deployment in the developing world? What more can be 
done to help finance small scale distributed renewable energy systems?

    Answer. I understand the State Department is partnering with other 
U.S. Government agencies, financial institutions, and multilateral 
development banks as they develop and implement new mechanisms to spur 
investment in renewable energy deployment and to overcome policy 
obstacles that constrain the growth of clean energy. For example, I 
understand State has taken a lead role in the United Nations and World 
Bank Sustainable Energy for All (SE4ALL) initiative to increase energy 
access through the promotion of energy efficiency and renewable energy 
globally. State is also supporting regional efforts to mobilize 
financing for renewable energy projects--through the U.S.-Asia 
Comprehensive Energy Partnership (USACEP) and Power Africa, State and 
partner agencies are working to bring U.S. Government tools to bear in 
driving trade and investment in clean energy.

    Question. In December 2009, the Treasury Department released 
guidance to the multilateral development banks on curbing coal 
investment. More recently, the Treasury Department released revised 
guidance reflecting the President's Climate Action Plan. Under this 
guidance the United States will not support financing new coal plants 
unless the host country is considered one of the world's poorest.

  <diamond> When determining the world's poorest countries is the 
        country's credit-worthiness an appropriate factor?

    Answer. I understand the State Department is working with other 
agencies to implement the call in the President's Climate Action Plan 
to no longer finance coal fired power plants abroad except in rare 
circumstances. These include plants located in the world's poorest 
countries or plants that deploy carbon capture and sequestration 
technology. To date, the administration has used the World Bank's 
International Development Association ``IDA-only'' cutoff to define 
``poorest,'' which incorporates both per capita GNI and credit 
worthiness measures. The Department of Treasury has used the same 
cutoff for determining the world's poorest countries in its coal policy 
since 2009. IDA-only countries are eligible to access resources from 
the concessional windows of the multilateral development banks because 
of the combination of low per capita incomes and lack of access to 
market-priced loans, which together constitute a serious obstacle to 
development. If confirmed, I will monitor this policy closely to ensure 
that it allows the United States to balance addressing energy needs in 
poor nations with global environmental protection.
                                 ______
                                 

               Responses of Charles Rivkin to Questions 
                  Submitted by Senator Robert Menendez

    Question. The administration is pursuing an ambitious trade agenda 
and there are compelling arguments in favor of both the Trans-Pacific 
Partnership (TPP) and the U.S.-EU Trade and Investment Partnership. Yet 
I wonder whether full consideration is being given to the impact of 
these agreements on other countries and regions in which we have 
significant geostrategic interests. One example is that CAFTA countries 
warn they may face huge job losses in the textile/apparel and light 
manufacturing industries due to the TPP. This could have broader 
security and immigration implications that are beyond the scope of 
USTR.

  <diamond> Are you concerned about the trade distorting impact of TPP 
        and the potentially adverse impact it could have on other U.S. 
        strategic priorities? What actions can the Department take to 
        mitigate negative effects? What is the Department's role in 
        ensuring that broader interests related to security, human and 
        labor rights, and the environment are not sacrificed in the 
        rush to complete a deal?
  <diamond> How can the United States advance its current ambitious 
        trade agenda while simultaneously strengthening relations with 
        our existing allies and trading partners?

    Answer. It is my understanding that the administration seeks to 
increase U.S. jobs, economic growth, and foster economic integration in 
the Asia-Pacific region through the TPP, while honoring our existing 
trade agreements around the globe. I appreciate the significant value 
of the trade opportunities and linkages of our free trade agreement 
partners, including the other countries of the CAFTA-DR. The United 
States and the CAFTA-DR countries share a highly integrated supply 
chain built on the United States providing textile inputs which are 
manufactured into apparel in the other CAFTA-DR countries and shipped 
back to the United States as finished garments. I understand the U.S. 
position in the TPP on textiles and apparel is taking this into 
account, and our existing trade agreements and business relationships 
were a factor in the U.S. tariff offer made in the TPP. If confirmed, I 
will continue EB's work to assure our partners from the other CAFTA-DR 
countries that the United States continues to bear in mind the unique 
nature of the CAFTA-DR in facilitating regional integration amongst all 
the partners, including the United States, and encourage them to take 
active advantage of the preferential access they currently have to 
adapt to global challenges and opportunities.
    The United States existing trade partners--large and small 
economies, advanced and emerging--all share a belief that the best way 
to generate economic growth and job creation is to eliminate barriers 
to trade and investment. I believe that this administration has worked 
diligently to negotiate agreements that will most effectively address 
the challenges that exporters and investors face today, and to create 
open, fair, transparent, and predictable environments for global trade.
    Through the TPP, the United States can solidify the 21st century 
rules of trade by opening markets, incorporating safeguards for 
innovation, addressing concerns in technology industries, and further 
protecting workers and the environment--all key concerns for 
policymakers and citizens. Participating in a high-standards agreement 
like TPP is crucial if the United States is to continue generating jobs 
for American workers and spur increased export opportunities for our 
companies. Moreover, the TPP has significant strategic value in 
providing the economic foundation for our security alliances in the 
region and broadening the links necessary to consolidate our global 
leadership position in the coming decades. The rapid expansion of the 
TPP negotiation since its launch suggests the broad appeal of this 
high-standard approach.

    Question. The President's National Export Initiative, announced in 
his 2010 State of the Union address, set a goal to double our Nation's 
exports by the end of 2014. What has the State Department done to help 
reach that target, and what do you plan to do in your new role as EB 
Assistant Secretary to help make sure we reach that goal?

    Answer. The U.S. exported more in the first half of 2013 than the 
entire year of 2003. In 2012, U.S. exports hit an all-time record of 
$2.2 trillion, and I understand that the Department of State, and in 
particular the Bureau of Economic and Business Affairs (EB), has been 
extremely active in helping to facilitate exports in support of the 
National Export Initiative. U.S. Ambassadors and senior leadership has 
been ever more active in advocating for U.S. businesses overseas. I 
understand the Department, in the context of the National Export 
Initiative, is working much more closely with the Departments of 
Commerce and Agriculture, as well as with other export promotion 
agencies, to deliver services to potential U.S. exporters. As part of 
the Trade Promotion Coordinating Committee (TPCC), the Department is 
cross-training its personnel with these other agencies, and has even 
developed its own on-line trade promotion course. The Bureau of 
Economic and Business Affairs (EB) allocates funds for U.S. trade 
promotion activities and joint training with the Commercial Service 
(CS) at non-CS posts. In partnership with CS, State Department 
personnel provide CS branded export assistance programs at 59 posts 
without a CS presence. And EB has instituted two programs to capitalize 
our presence around the world for the benefit of U.S. business: Direct 
Line, which allows U.S businesses to hear about and discuss market 
opportunities from our Ambassadors and economic and commercial 
professionals around the world via conference call or webinar, and the 
Business Information Database System (BIDS) which collects and makes 
information about significant foreign government and multilateral 
development bank procurements available to U.S business and other U.S. 
Government agencies on an open, internet-based platform. These efforts 
have already had a positive impact on U.S. exports.
    If confirmed as Assistant Secretary, I will continue, and if 
possible expand, the excellent work of the Bureau of Economic and 
Business Affairs (EB) to help meet the President's goal of increasing 
jobs and creating jobs for American workers.

    Question. Has the National Export Initiative resulted in increased 
coordination between the State Department and other agencies tasked 
with increasing U.S. exports? In your view, what can be done to 
encourage closer interagency coordination and is there a role that the 
State Department, in part through its global network of embassies, can 
play as an on-the-ground coordinator for U.S. trade promotion?

    Answer. The National Export Initiative has resulted in increased 
coordination between the State Department and other agencies tasked 
with increasing U.S. exports. For example, the State Department plays a 
key role in promoting exports through advocacy with foreign governments 
and advice to U.S. businesses seeking to increase trade and investment 
activities in foreign markets. Economic Officers, Front Offices, and 
other sections at post work hand in glove with Commerce offices around 
the world to promote exports. In 59 posts where Commerce is not present 
(non-Commercial Service (CS) posts), State and Commerce have a formal 
partnership agreement that authorizes those posts to provide Commerce 
services to U.S. companies. In Washington, the Bureau of Economic and 
Business Affairs (EB) allocates funds for U.S. trade promotion 
activities and cross-training with the Commercial Service at non-CS 
posts.
    Increasing the interoperability of U.S. Government agency database 
and other information technology platforms would allow us to better 
serve U.S. companies seeking to export. The State Department is 
collaborating with Commerce and other trade agencies to utilize 
technology to extend our reach and impact. Two examples of interagency 
collaboration are the new trade leads system--the Business Information 
Database System (BIDS)--and the Direct Line Program. In addition, 
continued joint training efforts, such the Trade Promotion Coordinating 
Committee training, has allowed agencies, state and local officials to 
operate from a common knowledge base and to have a better understanding 
of resources available to promote U.S. exports. If confirmed, I would 
work to improve interoperability of trade agencies information 
technology platforms to increase efficiency and better serve U.S. 
companies interested in exporting.
    Our Embassies, under the Ambassador's leadership, have longstanding 
economic teams which undertake activities to promote U.S. exports, 
encourage job-creating investment in the United States, and represent 
U.S. business interests in their host countries. Our Ambassadors 
emphasize a whole-of-government approach when promoting U.S. business. 
If confirmed, I will continue to stress the importance of strong 
Embassy trade and economic teams led by our Ambassadors.

    Question. In addition to FTAs, the United States extends unilateral 
trade preferences to developing countries through trade preference 
programs such as the Generalized System of Preferences and the 
Caribbean Basin Trade Partnership Act. What economic and foreign policy 
benefits does the United States gain from these policies, and how 
important is it that we continue to offer these programs and 
reauthorize them in a timely fashion?

    Answer. Trade preference programs support U.S. jobs and 
competitiveness by reducing costs for U.S. farmers, manufacturers, 
retailers, and consumers, facilitating U.S. investment in beneficiary 
countries, and complementing U.S. foreign policy objectives. U.S. small 
businesses also rely on the savings from trade preference programs to 
compete with larger companies.
    In 2012, U.S. businesses imported $19.9 billion worth of products 
duty-free under the Generalized System of Preferences program, $1.6 
billion under the Caribbean Basin Trade Partnership Act, $34.9 billion 
under the African Growth and Opportunity Act, and over $1 billion under 
the Qualifying Industrial Zone (QIZ) program, including many inputs 
used in U.S. manufacturing. In addition, trade preference programs 
complement U.S. foreign policy objectives by requiring beneficiary 
countries to protect intellectual property, promote labor rights, 
enforce strong rule of law, and promote economic cooperation. The 
Qualifying Industrial Zones (QIZ) programs encourage economic 
cooperation, closer ties, and peaceful relations between Israel and its 
QIZ partners though Israeli content requirements on goods produced in 
QIZ zones. The Africa Growth and Opportunity Act (AGOA) has helped 
eligible countries grow and diversify their exports to the United 
States, has created jobs in the United States and Africa, and attracted 
investment in beneficiary countries.
    Timely renewal of preference programs encourages investor 
confidence, leading to further economic growth and opportunity. If 
confirmed, I will work with Congress and the Office of the U.S. Trade 
Representative to ensure our preference programs continue to meet our 
objectives.

    Question. The Latin America and Caribbean region is one of the 
fastest-growing regional trading partners for the United States. The 
average rate of growth in trade between the United States and the 
region since 1998 surpasses that of U.S. trade with Asia and the 
European Union. If confirmed, what actions will you take to help deepen 
the economic relationship between the United States and Latin America?

    Answer. The United States has developed over the past 20 years a 
network of free trade agreements across the hemisphere that now 
stretches unbroken from the Arctic to the southern tip of Chile. The 
United States also has 11 bilateral investment treaties with partners 
in the hemisphere. If confirmed, I will work with our free trade 
partners to take full advantage of our network of trade agreements, for 
example by supporting development of shared value chains like those 
between the United States and Mexico, whereby Mexican finished-goods 
exports comprise approximately 40 percent U.S. content. Others in the 
hemisphere are also working to deepen regional economic integration. 
Chile, Colombia, Mexico, and Peru created the Pacific Alliance with the 
aim of achieving free movement of people, goods, capital, and services, 
and they are making admirable progress toward that goal. The United 
States became an observer to the Pacific Alliance in July and, if 
confirmed, I will work to identify mutual economic interests with the 
alliance and explore ways the United States can support its 
development. I will also work to deepen our bilateral economic 
relationships with partners throughout the hemisphere through economic 
dialogues, like the U.S.-Mexico High Level Economic Dialogue and the 
U.S.-Brazil Economic Partnership Dialogue.

    Question. The United States is home to many of the world's most 
innovative companies, and these companies are a huge source of jobs and 
economic growth. Yet these critical contributors to our economy face 
increasing trade-related barriers around the world. These threats 
include government-sanctioned expropriation of valuable U.S. 
intellectual property, restrictions on FDI, and local content 
requirements. If countries see there are no consequences to violating 
the intellectual property rights of American countries, our most 
innovative sectors could face increasing difficulties, potentially 
impacting American exports and jobs.

  <diamond> If confirmed, how will you use your role to address the 
        policies of countries such as India, which are harming U.S. 
        workers, innovators, and other job creators?

    Answer. I share your concerns about trade barriers that U.S. 
companies in a diverse array of industries face abroad through, as you 
note, local content requirements, weak intellectual property regimes, 
and restrictions on foreign direct investment. As you are aware, my 
background in public service and in the private sector has provided me 
with a firsthand view of how these policies harm U.S. entrepreneurs and 
innovators, and ultimately, American jobs. It is my understanding that 
the State Department and partner agencies also share your concerns.
    If confirmed, I will commit to actively using each tool available 
to the Bureau of Economic and Business Affairs to address the policies 
of countries that harm U.S. businesses abroad. I am aware that among 
these tools are formalized dialogues such as the U.S.-India Strategic 
Dialogue and the CEO Forum, where the State Department and partner 
agencies are afforded the opportunity to discuss ongoing economic 
issues with stakeholders and foreign officials. The Bureau of Economic 
and Business Affairs is also coleading bilateral investment treaty 
negotiations with India, which will help address these concerns by 
leveling the playing field for U.S. investors. If confirmed, I plan to 
continue to highlight the impacts of such policies through EB's 
contributions to the Special 301 and Notorious Markets reports, as well 
as country reports in annual Investment Climate Statements.

    Question. The United States and its Trans-Pacific Partnership (TPP) 
partners have set a goal of completing TPP negotiations by the end of 
2013, and are now engaged on the most critical issues, including 
intellectual property provisions. With countries like India and China 
monitoring the outcome of an agreement that will cover 40 percent of 
global GDP, we must ensure that this agreement truly is a gold standard 
agreement by ensuring the inclusion of strong IP protections.

  <diamond> If confirmed, will you work to secure strong IP protections 
        in the TPP and other trade negotiations? Can you describe your 
        role and that of the State Department in our global effort to 
        improve IP protections?

    Answer. If confirmed, I will work with Congress, other USG 
agencies, and stakeholders to ensure that we have strong IP protections 
in TPP. Given that this is a key issue for the U.S. economy and our 
innovators and creators, we cannot afford to have a TPP agreement that 
does not achieve high standards of IPR protection. I pledge my efforts 
to assist the White House and USTR in accomplishing this outcome for 
U.S. interests.
    The State Department contributes to the overall USG efforts to 
promote strong IP protection and enforcement globally. The Department 
is a key player in the efforts of the White House Intellectual Property 
Enforcement Coordinator (IPEC) as outlined in the annual Join Strategic 
Plan (JSP). The Department also provides guidance on foreign policy 
issues in trade negotiations such as TPP and the Transatlantic Trade 
and Investment Partnership with EU countries, and in the Special 301 
and Notorious Markets reports. The State Department leads on funding IP 
law enforcement capacity building programs. Further, the State 
Department uses public diplomacy to work through embassies to carry out 
programs with local rights holders and other interested groups to 
promote awareness about the economic and health dangers of counterfeit 
products and the value of local innovation and creativity in fostering 
economic development for local communities.

    Question. If confirmed, your Bureau will be responsible for 
implementing foreign policy-related sanctions adopted to counter 
threats to national security posed by particular activities and 
countries. In light of the recent debate over the efficacy of further 
economic sanctions on Iran, I would appreciate hearing your views on 
the appropriate use of sanctions as a foreign policy tool.

    Answer. In my view, sanctions can be an effective foreign policy 
tool if used appropriately. When broad enough, comprehensive enough, 
serious enough, and dedicated to a clear purpose, sanctions work. 
Sanctions also work most effectively when they are multilateral in 
nature and sustained and supported through rigorous implementation. 
However, it is important to note that sanctions are never an end in and 
of themselves but rather a tool to create leverage as part of our 
diplomatic efforts to resolve potential national security threats. In 
the Iran context, I believe that the effectiveness of our sanctions has 
brought us to a point where the Department of State has a chance to 
establish whether or not the calculus of Iran's leaders regarding its 
nuclear program has changed, and whether a peaceful resolution over the 
international community's concerns over that program is achievable.
                                 ______
                                 

              Responses of Tina S. Kaidanow to Questions 
                  Submitted by Senator Robert Menendez

    Question. Programing for countering violent extremism (CVE), 
including community engagement with the youth population and women, is 
essential to our counterterrorism policy.

  <diamond> (a) Although measuring the success of these programs is 
        difficult, what methods are being used to monitor their 
        effectiveness?

    Answer. At the project and program levels, the CT Bureau's CVE 
Program (CT/CVE) is developing a systematic Monitoring and Evaluation 
(M&E) approach that moves beyond recording simple outputs and moves 
toward measuring deeper level results, yet avoids attributing the mere 
absence of recruitment or radicalization to violence to particular 
programming. For each project, CT/CVE requires implementing partners to 
design an M&E plan, and to allot approximately 5 percent of project 
budget to M&E.
    CT/CVE's M&E plans are conceptualized as part of project design, 
and track the following types of results: (1) how many viewers or 
participants were reached with CVE messaging or training; (2) skills 
imparted via training; (3) how project participants use those skills 
after their training; and (4) how CVE-relevant perceptions may have 
shifted as a result of exposure to messaging. This information is 
gathered in different ways, including surveys, interviews, focus 
groups, and proxy data collection. M&E can also include efforts to 
evaluate longer term impact on participants and the at-risk communities 
around which projects are designed. Followup results might include 
measures such as an increase among community members who perceive 
peaceful/nonviolent ideologies as influential and meaningful, and who 
make an effort to disseminate this message.

  <diamond> (b) What kind of educational training and community 
        development programs are used to counter violent extremism?

    Answer. CT/CVE, the arm of the CT Bureau responsible for CVE 
programming, has three primary lines of effort: (1) providing positive 
alternatives for communities at risk of recruitment and radicalization 
to violence; (2) countering terrorist narratives and the violent 
extremist worldview; and (3) building the capacity of partner nations 
and civil society to counter violent extremism. Areas of CVE 
programming include strengthening CVE-relevant relationships between 
community leaders and local law enforcement; prison rehabilitation and 
disengagement for incarcerated violent extremists; CVE outreach and 
training of diaspora communities; and amplifying the voices of victims 
and survivors of terrorism.
    Some CT/CVE programming uses Nonproliferation, Antiterrorism, 
Demining, and Related Programs (NADR) funds, which require community 
engagement and training to involve host-country law-enforcement 
personnel as key participants in all phases of activity. One CT/CVE-
funded project, for example, was based on the premise that building 
cooperation among local community leaders, law enforcement, and local 
government would alleviate problems associated with community 
instability, disenfranchisement, and marginalization, thereby 
increasing community resilience against violent extremism. The project 
included mentoring and training sessions for local law enforcement 
personnel in community engagement strategies, as well as facilitation, 
conflict mitigation, and communication techniques with other local 
stakeholders.
    Similarly, NADR funds are used in support of prison rehabilitation 
and disengagement efforts, as well as to undermine the influence of 
violent extremist ideologues within prisons. With support from CT/CVE, 
an NGO is currently working in a country of particular CT concern to 
provide pro bono legal representation to nonextremist, petty offenders 
and pretrial detainees for whom there is no legal basis for continued 
incarceration. The prisoners and detainees represented by the NGO 
either cannot afford to hire a lawyer or are entirely unaware of their 
legal rights, which results in lengthy and often indefinite detention. 
The NGO also works with an educational institute which provides post-
release vocational training and job-placement guidance to ease 
reintegration back into society and reduce recidivism risks.
    In the realm of education, CT/CVE is helping to lead a nascent 
multilateral initiative on the role of education in CVE, and is 
developing a pilot project focused on the roles of critical-thinking 
skills, citizenship education, and sports in preventing violent 
extremism, as there is evidence of the preventive effects of each of 
these approaches among youth at risk of recruitment into insurgent 
groups and gangs.
    Other CT/CVE programming focuses on outreach to diaspora 
communities and training to recognize signs of radicalization among 
their youth. In an ongoing project, a diaspora NGO from the United 
States is conducting an outreach and training tour among its sister 
diaspora communities in Western Europe and Canada. Through the medium 
of a documentary film, diaspora imams and community activists are 
successfully tackling the tough issue of recruitment and radicalization 
to violence among youth, a subject previously unaddressed and 
considered taboo in their community. The NGO is also using the 
community engagement events to link local law enforcement officials and 
social workers with trusted diaspora community leaders.
    Finally, by sharing their stories, victims and survivors of 
terrorism offer a resonant counternarrative that highlights the 
destruction and devastation of terrorist attacks. CT/CVE trains victims 
and survivors to interact with conventional and social media; create 
public relations campaigns that amplify their messages; and seek out 
platforms that help them disseminate their message most broadly to at-
risk audiences. Workshops also include journalists as trainers and 
trainees, training them to report in a more balanced manner on acts of 
terrorism and capturing the human dimension of such attacks.

  <diamond> (c) In what ways is social media playing a role in 
        countering misinformation by terrorist groups?

    Answer. CT/CVE is in the nascent stages of developing programming 
to leverage social media for this purpose. However, there are a number 
of autonomous groups created by concerned American citizens that alert 
social media users to the dangers of Web-based violent extremist 
propaganda. One such group crowd-sources efforts to alert social media 
to terms-of-service violations committed by violent extremist 
ideologues.
    The interagency Center for Strategic Counterterrorism Communication 
(CSCC), which CT/CVE helped to establish, counters the al-Qaeda (AQ) 
narrative and propaganda in digital environments, working in Arabic, 
Urdu, Somali and English, and utilizing text, still images, and video. 
CSCC's Digital Outreach Team (DOT) focuses specifically on al-Qaeda and 
the constellation of like-minded terrorist groups associated and 
affiliated with al-Qaeda.
    DOT's current configuration and operations reflect the objectives 
and priorities in the 2011 Executive order establishing CSCC. The team 
pushes back against AQ propaganda in interactive digital environment-
like forums, YouTube, Twitter, and Facebook. Thanks to a simplified 
process for clearing text, the team is able to engage rapidly, posting 
25-30 engagements every day.
    Three basic principles animate the team's activities: contest the 
space, redirect the conversation, and confound the adversary. The first 
in particular involves establishing an overt U.S. Government presence 
to push back against the AQ narrative and propaganda, and to counter 
the misinformation about the United States that frequently fuels 
violent extremist narratives.
    Since 2011 the DOT has produced 18,000 engagements (most in the 
form of texts and other posts); 55,000+ Facebook fans (Arabic, Punjabi, 
Somali and Urdu); 240+ posters/banners; and 140+ videos.
    In addition, the Special Representative for Muslim Communities 
(SRMC) implements a program called Viral Peace, which empowers key 
influencers in at risk communities and teaches them strategies to 
directly engage violent-extremist messengers online.

    Question. The Global Counterterrorism Forum (GCTF) was launched two 
years ago with 30 founding members in an effort to address global 
terrorism. The GCTF is a forum where experts in counterterrorism can 
come together and identify critical CT needs, develop solutions to 
emerging threats around the world and assist countries in countering 
violent extremism.

  <diamond> In the 2 years since its launch, what successes do you view 
        have come out of the GCTF?
  <diamond> What are the limits to the Forum and what more can be done 
        to address them?
  <diamond> The United States is currently a cochair of the Forum. What 
        are the goals of the United States to accomplish in the GCTF 
        during its tenure as cochair?
  <diamond> This year the Forum launched the ``Global Fund for 
        Community Engagement and Resilience''--a public-private fund to 
        counter violent extremism using grassroots efforts where 
        radicalization and recruitment is occurring. Can you expand on 
        the focus-areas of this fund?
  <diamond> It is expected to raise more than $200 million over the 
        next 10 years to support local, antiviolent extremist causes. 
        Will this be sufficient to address local needs? How will this 
        fund complement U.S. Government efforts to combat violent 
        extremism?

    Answer. Successes: With the GCTF, we now have a flexible, action-
oriented platform that allows prosecutors, police, prison officials, 
judges, educators, border security officials, and community leaders 
from different countries looking at the counterterrorism (CT) and 
countering violent extremism (CVE) agenda to be able to network and 
learn from one another. It also offers the United States and its donor 
partners a framework for improving coordination and collaboration on a 
set of shared capacity-building priorities in key countries and 
regions.
    Overall, the Forum has mobilized more than $215 million from 
partners to support civilian-related capacity-building projects in 
areas of strategic priority (rule of law and CVE) and its experts have 
elaborated six sets of nonbinding, rule of law-based, good practice 
documents, supporting the development of effective CT and CVE 
practices. Each of these documents has been endorsed at the ministerial 
level of the GCTF membership. They provide all countries with practical 
guidance on how to build capacities in certain thematic areas and offer 
donors and implementing partners a set of strategic frameworks to 
provide assistance and coordinate capacity-building engagement in 
priority third countries. They are focusing donors' resources on 
priorities being identified through the GCTF, with a strong U.S. 
influence.
    For example, the Forum's Rome Good Practices promote the importance 
of a rule of law-based approach to prison management, emphasizing that 
the rehabilitation of violent extremist offenders can only succeed when 
done in a safe, secure, well-managed, and regulated environment. The 
Forum's Rabat Good Practices, which the U.S. Department of Justice 
(DOJ) played a key role in developing, provide a series of robust yet 
human rights-compliant procedural and legal tools for strengthening the 
role of the justice sector in preventing terrorism. The Forum's Algiers 
Good Practices, elaborated by the United States and Algeria, and 
endorsed by the U.N. Security Council and G8 Leaders, highlight a 
number of practical law enforcement, criminal justice, and intelligence 
tools for all countries to consider developing and implementing to 
prevent and deny the benefits of kidnapping for ransom to terrorists. 
The CT Bureau is leading the effort, with GCTF partners, to develop a 
set of training modules to advance capacity-building efforts in this 
field. In addition, Department of State (DOS), Department of Homeland 
Security (DHS), and the U.S. Institute of Peace developed what became 
the Forum's Good Practices on Community Engagement and Community-
Oriented Policing as Tools to CVE, which are designed to inform the CVE 
policies, approaches, and programs of GCTF members and others, as well 
as create a foundation for continued dialogue, collaboration, and 
research among interested GCTF members and other interested government 
and nongovernment stakeholders.
    Perhaps the Forum's most significant, long-lasting impact will be 
the three new international institutions it has set in motion: (1) the 
Hedayah Center, launched in the UAE in December 2012 as the first-ever 
dedicated platform for CVE training, dialogue, and collaboration, is 
now open; (2) the International Institute for Justice and the Rule of 
Law, anticipated to be operational in 2014 in Malta, will provide a 
focal point for training in criminal justice and rule of law approaches 
to CT in North, West, and East Africa, and (3) the first-ever public-
private global CVE fund--the Global Fund on Community Engagement and 
Resilience--which the Secretary announced at the September 2013 GCTF 
ministerial, will provide grants to local NGOs working to support the 
antiextremist agenda. Although none of these are or will be ``GCTF'' 
institutions, the Forum, because of its diverse membership and 
commitment to action, was uniquely positioned to develop and launch 
them, and interested members will be involved in their governance, 
staffing, and funding.
    As we anticipated, members from different regions have stepped 
forward to take action within the Forum, with Algeria, Australia, 
Canada, Denmark, Egypt, Indonesia, Italy, Morocco, The Netherlands, New 
Zealand, Spain, Switzerland, Nigeria, Turkey, the UAE, and the U.K. 
among the most active members. We are also seeing increasing interest 
in GCTF activities among our interagency partners, as they see the GCTF 
as a vehicle to advance some of their strategic priorities. This 
includes DOD, DHS, DOJ, Treasury, CSCC, USAID, and NCTC.
    Overall, since its launch, the Forum has far exceeded expectations, 
with a wide range of activities being supported by an ever-growing 
number of enthusiastic international partners, and with civilian CT 
practitioners being the direct beneficiaries. New GCTF initiatives for 
2013-2014 include ones on (1) CVE and education led by the UAE; (2) 
``foreign fighters'' coled by Morocco and The Netherlands; (3) the role 
of judges in handling CT cases within a rule of law framework led by 
the United States; and (4) the use of intelligence as evidence in CT 
trials led by the United States.
    Limits: The Forum is making a real difference, but we need to 
continue to maintain the high level of political support both in 
Washington and other capitals, as well as further deepen the 
involvement of CT practitioners and experts outside of foreign 
ministries, to maximize its impact and potential over the long term.
    Goals: Our hope is that as a result of the Forum's work, countries 
from around the globe will have more of a common understanding on the 
nature of the terrorist threat and a common playbook for tackling it 
because so many of our practitioners and policymakers will have shared 
expertise and challenges, trained, and networked together through the 
centers of excellence, the Forum's working groups, and other GCTF 
sponsored or inspired activities. The most likely way to maintain this 
high-level of support is by ensuring that the Forum continues to 
produce the sort of action-oriented outputs that GCTF ministers 
expected when they launched the initiative in September 2011 and that 
distinguishes the Forum from many of the existing multilateral fora 
engaged on CT issues. We will need to work to ensure that diversity of 
countries stepping forward to lead practical initiatives that connect 
practitioners and experts from different regions and to fund training 
and capacity-building projects against priorities being identified via 
the Forum's work.
    The Fund's Focus-Areas: In September 2013, Secretary Kerry and 
Turkish Foreign Minister Davutoglu announced that work would begin to 
develop the Global Fund on Community Engagement and Resilience (the 
Fund), the world's first public-private global CVE fund. It is 
anticipated that the Fund will support CVE projects at the local level 
implemented by local NGOs. CVE efforts have a better chance of 
succeeding and enduring when owned and implemented by local civil 
society groups. Anticipated thematic focus areas, and related 
illustrative activities, include: (1) education (e.g., critical-
thinking skills, life skills, vocational training, and mentorship to 
youth at risk of recruitment and radicalization to extremist violence); 
(2) communications (e.g., local platforms for community leaders and 
activists to promote and provide positive alternatives; messaging that 
highlights the impact of terrorism on families, communities, and 
countries; efforts by ``formers'' to make videos about their own 
recruitment into, and exit from, extremist violence); and (3) community 
engagement (e.g., law-enforcement, confidence-building activities with 
at-risk youth and interreligious dialogue).
    Funding the Fund: In expecting to raise over $200 million over the 
next 10 years, we anticipate that this will be enough to support local 
needs for two reasons. First, most projects are estimated to be small 
scale, and will likely build on previous local work by the same 
organizations. Second, as worthy projects deliver results and as the 
Fund lines of effort become more broadly publicized, other donors will 
be incentivized to contribute to the Fund, or encouraged to support 
similar work in the same countries. Also, it should be noted that 
Switzerland has generously committed to providing the Fund office space 
and key personnel for its first 4 years of operation. This will 
substantially defray operating costs in the Fund's early years, thus 
allowing more donor contributions to directly support grants to local 
NGOs.
    Complementing U.S. Efforts: The Fund will complement U.S. 
Government CVE efforts by filling critical gaps. It will be an 
efficient mechanism by which multiple donor governments and private 
sector entities can support and nurture small-scale, local efforts. 
Many local groups with innovative CVE project ideas have been unable to 
get off the ground because of the difficulty in attracting seed 
funding. Where they have gotten off the ground, they have faced 
challenges in securing sufficient funding to sustain or expand their 
work. Local NGOs often need training and mentoring in effective project 
development, implementation and management. The Fund will be able to 
respond to these emerging CVE actors and their needs in a systematic 
way under one roof.

    Question. The United States has made a strong commitment through 
the implementation of the National Action Plan on Women, Peace, and 
Security to increasing women's inclusion in our global counterterrorism 
efforts. How will you work to fully integrate gender into the Bureau of 
Counterterrorism's policies and programs and what metrics will you use 
to specifically determine the impact of this gender integration?

    Answer. In 2012, the Bureau of Counterterrorism (CT) developed its 
own Women in Counterterrorism Strategy, which supports the U.S. 
National Action Plan (NAP) on Women, Peace, and Security, as well as 
the Department of State's NAP Implementing Strategy. The strategy is 
designed to ensure more comprehensive counterterrorism policies and 
programs by integrating women and has four objectives: capacity-
building, participation, protection, and engagement. Since the 
strategy's development, various offices and programs within the CT 
Bureau have been undertaking efforts to institutionalize it. For 
example:

  <bullet> The Countering Violent Extremism (CVE) Program prioritizes 
        the inclusion of women in its projects to improve women's 
        ability to engage in CVE activities. The CT Bureau has funded 
        several projects designed to train women on the signs of 
        radicalization and recruitment to violence and ways to counter 
        it in their communities, and to build women's capacity to 
        communicate and work together with law enforcement for CVE 
        solutions. These projects often incorporate female victims of 
        terrorism--either those who have experienced terrorist acts 
        firsthand or those who lost their family members to terrorist 
        organizations--who can express a counternarrative that 
        resonates with fellow mothers, wives, or sisters and helps 
        amplify the CVE message.
  <bullet> The CT Bureau's Office of Multilateral Affairs is working to 
        ensure the inclusion of gender components in counterterrorism 
        policy documents of related international organizations. The 
        office has also funded regional workshops that support efforts 
        for women's empowerment in the area of crisis and disaster 
        response in countries where women are not treated equally with 
        their male counterparts.

    The CT Bureau measures the general effectiveness of CVE programming 
by drawing from the experience of established monitoring and evaluation 
(M&E) practices from other fields and adapting them to CVE project 
development. For example, metrics from communications, youth 
development, conflict mitigation, and peace-building have been key 
sources for building CVE's M&E practice. To determine the specific 
impact of gender integration, the CT Bureau monitors the outcomes of 
gender-inclusion in its projects, focusing on short-term capacity-
building gains, as well as longer term results in women's empowerment 
in the security sector. If confirmed I will continue to build upon 
these efforts to increase women's participation in counterterrorism 
efforts, monitor and evaluate our progress, and improve the 
effectiveness of our programs.

    Question. Considerable research has demonstrated that women can be 
critical components of efforts to combat terrorism by enhancing the 
operational effectiveness of security forces and intelligence 
collection. However, in many countries, including Pakistan and 
Afghanistan, women continue to be vastly underrepresented in security 
institutions. What can the United States do to better promote women's 
inclusion in the security sector in these countries to more effectively 
counter terrorism?

    Answer. The CT Bureau's experience with women's inclusion in the 
security sector provides a potential blueprint for ways in which the 
United States can better promote women in counterterrorism efforts. For 
example, the Anti-Terrorism Assistance (ATA) Program, a partnership 
between the CT Bureau and the Bureau of Diplomatic Security, trains 
units of female law enforcement officers in Afghanistan and Pakistan 
and attempts to recruit American women instructors to teach ATA 
curriculum. The ATA Program also tracks the number of women trained in 
each partner nation through the use of Nonproliferation, Anti-
Terrorism, Demining, and Related Activities (NADR)/ATA funding. 
Finally, ATA is making changes to ATA curricula to emphasize the 
particular need to protect women in the course of counterterrorism 
investigations and operations.
    The CVE Program is implementing a women and security project that 
supports security training for female civil society leaders, as well as 
dialogues with law enforcement personnel to devise CVE-prevention 
strategies and pilot activities.
    The CT Bureau's experience demonstrates that requiring women's 
inclusion from the start of the project helps ensure their involvement 
throughout the project and in followup activities. Also, providing safe 
spaces for women to interact with the security sector helps ensure that 
their existence is acknowledged, their concerns are addressed, and 
their involvement in countering terrorism is amplified.

    Question. The administration is focused on finalizing the Bilateral 
Security Agreement with Afghanistan. Equally important are the regional 
implications of the security and political transition in Afghanistan. I 
am especially concerned about terrorist groups active along the 
Afghanistan/Pakistan border which could become more active throughout 
the region, post-2014.

  <diamond> Can you describe our diplomatic efforts and planning to 
        address these concerns and perhaps mitigate potential second- 
        and third-order effects of the transition? Please share 
        specifics on how we are engaging with the following allies on 
        the post-2014 threats posed by terrorism: (a) India; (b) 
        Pakistan; (c) the countries of Central Asia.

    Answer. The State Department's Counterterrorism (CT) Bureau shares 
Senator Menendez's concern about terrorist groups active along the 
Afghanistan/Pakistan border and throughout the region. We share the 
concern about terrorist groups active along the Afghanistan/Pakistan 
border and throughout the region. We recognize that extremist threats 
originate from a host of groups beyond core al-Qaeda, including the 
Haqqani Network, Lashkar-e-Tayyiba, Tehrik-e-Taliban Pakistan, and the 
Islamic Movement of Uzbekistan, among others, that pose a threat to the 
region's stability and to U.S. persons and interests.
    Concluding a Bilateral Security Agreement with Afghanistan will 
provide a platform for continued U.S. counterterrorism operations that 
will assist Afghanistan security forces to counter terrorist threats in 
the near term. In the longer term, our regional partners need to take 
steps to reduce the wellspring of extremism and to develop the capacity 
to combat terrorist organizations through effective security forces. We 
are working throughout the region to strengthen our partners' domestic 
and regional capabilities to combat extremist groups.
    India: India, having suffered countless terrorist attacks over the 
past 10 years, shares our concern about regionally focused extremists 
such as Lashkar-e-Tayyiba. Groups currently operating in Afghanistan 
may seek to increase targeting in other parts of South Asia--including 
India--after the coalition's drawdown in Afghanistan. India is a close 
security partner with whom the United States maintains an ongoing 
dialogue on the threat of militant groups and combating terrorism. The 
United States and India maintain close collaboration on these issues 
through fora such as the Counterterrorism Joint Working Group (CTJWG), 
and the Homeland Security Dialogue (HSD). India is also a key partner 
in the Global Counterterrorism Forum which focuses on rule of law, 
threat finance, and countering violent extremism through a number of 
working groups. If confirmed, I will convene a meeting of the U.S.-
India Joint Counterterrorism Working Group which brings together 
elements of both countries' counterterrorism communities to focus on 
terrorist threats and cooperative efforts to address them.
    Pakistan: Pakistan remains a frontline state in our efforts to 
defeat al-Qaeda and remains engaged in military operations against al-
Qaeda and affiliated groups like Tehrik-e-Taliban Pakistan. Pakistan 
has also has taken significant steps over the past year to counter the 
threat of improvised explosive devices, the weapon of choice for 
insurgents within Pakistan and in the region. Pakistan also passed new 
counterterrorism legislation aimed at increasing its tools to disrupt 
terrorist financing and to prosecute terrorism cases. This new 
legislation provides more support for Pakistan's National 
Counterterrorism Authority (NACTA).
    These improvements will allow Pakistan to present better cases 
against extremists in court and the NACTA will provide it with a useful 
platform to coordinate interagency counterterrorism efforts. To support 
the overall goal of improved counterterrorism efforts in Pakistan, the 
Department through its ATA program is providing technical assistance to 
Pakistan's police to prevent, investigate, and prosecute acts of 
terrorism and support to NACTA.
    We are working to increase Pakistan's participation in multilateral 
fora, including through the Global Counterterrorism Forum, and 
increasing civic action against terrorism through our countering 
violent extremism programs. Should I be confirmed, improving Pakistan's 
efforts to combat violent extremism will remain a key priority for the 
CT Bureau.
    Central Asia: The drawdown of U.S. forces in Afghanistan has raised 
anxiety levels among our Central Asian partners about the increased 
potential for instability and extremism, especially beyond 2014. To 
help address those concerns and strengthen regional stability, we are 
using a combination of diplomatic engagement and capacity-building 
assistance.
    On the diplomatic front, for example, the United States holds 
annual bilateral consultations with each of the five Central Asian 
countries, which provide a venue to openly discuss every aspect of the 
relationship, including security cooperation.
    Our bilateral security assistance is helping build the Central 
Asian states' capacity to counter a broad range of threats, including 
terrorism. The State Department's ATA program is active in the region, 
with an emphasis on border controls and increasing counterterrorism 
investigation capabilities.
                                 ______
                                 

                Responses of Puneet Talwar to Questions 
                  Submitted by Senator Robert Menendez

    Question. How is the fluid nature of security developments in the 
Middle East affecting U.S. efforts to ensure that Israel's Qualitative 
Military Edge is maintained? Is the cumulative capability of the region 
considered in ensuring Israel's qualitative military edge?

    Answer. If confirmed, I will continue to prioritize the PM Bureau's 
efforts to strengthen security cooperation with Israel and safeguard 
its qualitative military edge (QME). That responsibility includes 
making sure Israel is well positioned to respond to the rapidly 
changing security situation in the Middle East and to make sure the 
United States and Israel are prepared for different regional 
contingencies. The administration has been and continues to monitor 
events throughout the region closely. The PM Bureau regularly assesses 
the capabilities of the region's militaries and nonstate actors to 
ensure Israel maintains its military superiority. PM is also taking 
full advantage of the consultative and political mechanisms currently 
in place to respond to, and act on, Israel's concerns, and to ensure 
the unrest in the region does not threaten Israel's QME.
    The United States is committed to helping Israel maintain its QME, 
defined as Israel's ability to counter and defeat credible military 
threats from any individual state, coalition of states or nonstate 
actors, while sustaining minimal damage or casualties. This policy was 
written into law in 2008, but it has long been a cornerstone of the 
U.S.-Israel security relationship.
    In addition to fulfilling the requirements of the Naval Vessel 
Transfer Act of 2008, the United States protects Israel's QME in a 
number of important ways. (1) Israel is the leading recipient of FMF. 
In FY 2013, which marked the 5th year of a 10-year, $30 billion MOU, 
Israel received $2.94 billion in FMF, slightly less than the $3.1 
billion request level due to sequestration. The Department is 
requesting the full $3.1 billion in FY 2014; (2) Israel is the only 
country authorized to use one-quarter of its FMF funding for domestic 
defense procurement, which provides significant flexibility in meeting 
immediate procurement needs and supporting the Israeli defense 
industry; (3) Israel has privileged access to advanced U.S. military 
equipment, such as the F-35 Joint Strike Fighter and, more recently, 
the MV-22 Osprey; (4) the United States is cooperating with Israel, 
using DOD appropriated funding, to develop a comprehensive air and 
missile defense system that protects Israel against ballistic and 
cruise missile threats; and (5) the United States has provided 
additional funding outside of State's annual FMF request to support the 
expansion and acceleration of the Israeli-developed Iron Dome short-
range rocket defense system. In FY 2011, Congress provided an 
additional $205 million for the procurement of additional Iron Dome 
systems. Israel received an additional $70 million in FY 2012 for Iron 
Dome systems and Israel is expected to receive another $195 million in 
FY 2013.

    Question. To what extent will the impending U.S. military drawdown 
from Afghanistan and the apparent absence of further Pakistan 
Counterinsurgency Capability Fund assistance alter the nature of U.S. 
defense relations with Pakistan? Do you think the PM Bureau's plans for 
future security assistance to Pakistan through Foreign Military 
Financing will emphasize conventional armaments or those better suited 
to counterterrorism operations?

    Answer. The U.S. defense relationship with Pakistan will remain a 
key national interest after the 2014 drawdown. The Departments of State 
(State) and Defense (DOD) have discussed the drawdown from Afghanistan 
with Pakistan, most recently at the November 2013 Defense Consultative 
Group (DCG) meeting in Washington. At that meeting, the Pakistani 
delegation noted that stability in Afghanistan would contribute greatly 
to its own security. Over the last year, State and DOD have refocused 
U.S. security assistance on the mutual interest of achieving stability 
along the Afghanistan-Pakistan border. I anticipate that cooperation on 
counterterrorism and counterinsurgency operations in that area will 
remain the primary focus of the defense relationship after the drawdown 
in Afghanistan.
    The United States and Pakistan have agreed to narrow the scope of 
U.S. security assistance to seven counterinsurgency and 
counterterrorism capabilities: air mobility and combat search and 
rescue; battlefield communications; border security; counter improvised 
explosive devices and survivability; night operations; precision 
strike; and maritime security. In February 2013, the United States and 
Pakistan developed a plan to limit U.S. security assistance projects to 
these seven capabilities for 5 years.
    At that meeting, State and DOD informed Pakistan that the 
administration would not request further Pakistan Counterinsurgency 
Capability Funding (PCCF). At these regular bilateral exchanges, State 
and DOD have stressed to Pakistan that U.S. security assistance will 
only support Pakistan's counterinsurgency and counterterrorism 
capabilities, not conventional capabilities. I believe that Foreign 
Military Financing (FMF), along with remaining PCCF, is sufficient to 
build Pakistan's counterinsurgency and counterterrorism capabilities.

    Question. What role has the PM Bureau played in the rebalance to 
the Asia-Pacific, which has been described by some as principally 
defined by DOD-led initiatives? What role should it play going forward?

    Answer. The administration's strategic rebalance to the Asia-
Pacific region reflects the United States longstanding security, 
economic, and people-to-people ties to the region and the region's 
growing importance to global peace and prosperity. Through the 
rebalance, the United States is strengthening treaty alliances, 
deepening partnerships with emerging powers, shaping an effective 
regional architecture, increasing trade and investment, updating force 
posture, and expanding democratic development.
    As the principal link between the Department of State and the 
Department of Defense, the Political-Military Affairs Bureau has a key 
role to play in the administration's Strategic rebalance to Asia, and 
in particular on security and defense issues. The Bureau leads an 
expanding set of political-military dialogues with countries in the 
Asia-Pacific region and frequently engages with its Foreign and Defense 
Ministries on cross-cutting political and defense issues. Since the 
unveiling of the rebalance, PM launched political-military talks with 
two new partners, India and Bangladesh.
    In the last year alone, the Bureau has approved and notified to 
Congress over $20 billion in Foreign Military Sales to countries in the 
region. In 2009, PM notified Congress of just $2.23 billion in sales.
    Last year, PM contributed approximately $20 million for 
conventional weapons destruction, a higher total than in years prior to 
the announcement of the strategic rebalance. Additionally, the Bureau 
requested approximately $75 million in Foreign Military Financing and 
International Military Education and Training funds to Asia-Pacific 
countries, which is a $22 million increase from the previous year.
    The Political-Military Affairs Bureau is currently leading key 
negotiations of security-related agreements to facilitate the 
deployment, movement, and protection of U.S. military forces and 
material throughout the region. PM also ensures the alignment of 
military training and bilateral and multilateral military exercises 
with U.S. policy objectives for the region, advances U.S. interests in 
freedom of navigation and overflight in the context of complex 
territorial and maritime disputes, and coordinates closely with Pacific 
Command on the development of peacetime and contingency plans. Finally, 
PM works diligently to integrate Asia-Pacific navies into counterpiracy 
missions in the Gulf of Aden.
    Going forward, if confirmed, I will work to make sure the 
Political-Military Affairs Bureau continues to prioritize the 
administration's engagement in the Asia Pacific and play a key role in 
the whole of government engagement in the region. The Bureau will 
continue to advocate for U.S. defense sales to partners in the region, 
provide assistance, training, and equipment to key allies and partners, 
and ensure that U.S. diplomats and military personnel are well 
positioned in the region to build partnerships that will ensure lasting 
stability in the Asia-Pacific.

    Question. The number of overall pirate attacks has declined 
precipitously since 2011. Please explain why this has been the case. To 
what extent should piracy remain a central concern for the PM Bureau 
and for the U.S. Government as a whole? What lessons, if any, should we 
take from the apparently successful antipiracy effort?

    Answer. Pirate attacks off the coast of Somalia have decreased for 
three reasons:

  <bullet> Improved self-protection of commercial ships, especially 
        through the use of embarked armed security teams;
  <bullet> Proactive disruption of pirate action groups by naval 
        counterpiracy forces working together informally but 
        effectively; and
  <bullet> Greatly increased rates of prosecution of suspected pirates 
        and their land-based organizers. Pirates no longer have the 
        impression that they will not receive punishment. Over 1,400 
        Somali pirates are being tried, or are serving sentences for 
        piracy and related crimes, in 21 countries.

    The administration's progress against piracy off the coast of 
Somalia, while remarkable, is fragile and reversible. Piracy raises the 
cost of global commerce, threatens critical energy routes, disrupts 
humanitarian aid to eastern Africa, and puts the lives of seafarers in 
danger. Pirates are often organized in transnational criminal networks 
which smuggle arms, drugs, and human beings. The proceeds from these 
networks benefit indirectly the extremist groups that contribute to 
regional instability. Therefore, PM will continue to track development 
associated with piracy. Without U.S. and allied engagement along and 
without an actual naval presence off the coast of Somalia serving as a 
deterrence, incidents of piracy could easily spike again. Despite the 
costs, presence and continued engagement is needed until a long-term 
solution--on the ground in Somalia--is created. The most important 
lesson from the success against Somali piracy is that inclusion of all 
stakeholders is critical to the solution of complex problems. The 
Contact Group on Piracy off the Coast of Somalia, which PM helped to 
create in January 2009, is a unique ad hoc construct of about 80 
governments, governmental and intergovernmental organizations, private 
industry associations, and philanthropic organizations. The group has 
defined both the complex components of piracy arising from the failed 
state of Somalia and the various lines of action that will eventually 
help deliver long-term solutions to the problem.

  <bullet> The maritime industry's active cooperation in the Contact 
        Group was indispensable to their agreement to the use of 
        embarked armed security, which they originally vigorously 
        opposed.
  <bullet> U.N. organizations and agencies actively engaged in efforts 
        to stabilize and support Somalia in its political recovery from 
        decades of civil war are crucial to the delivery of 
        counterpiracy programs.
  <bullet> Governments' willingness to provide naval forces to combat 
        piracy, and to work collaboratively in unconventional ways with 
        nontraditional partners, is a model to emulate in the future.
  <bullet> Governments' willingness to modify their laws to permit the 
        embarkation of armed security, the commitment of forces to 
        combat piracy, to adopt or update domestic antipiracy 
        legislation to more effectively prosecute this ancient crime, 
        and to provide direct technical and financial assistance to 
        regional countries to help them suppress piracy, are necessary 
        preconditions to the success of this complex but important 
        undertaking.

    Question. What impact has sequestration had on the work of the PM 
Bureau, including on Foreign Military Financing and export license 
processing? What effects are budgetary constraints likely to have going 
forward? How would you, if confirmed, ensure the appropriate 
prioritization of the Bureau's work in a tight budgetary environment? 
To cite one example, the previous Assistant Secretary made it a point 
to attend or send other senior Bureau officials to major air shows 
around the world to advocate for U.S. defense products; if confirmed, 
would you continue this practice?

    Answer. The mandatory cuts imposed by sequestration are not the 
ideal way to run the government. Indeed, the sequestration cuts and 
budgetary constraints have affected the PM Bureau's operations.
    Sequestration forced cuts to all Foreign Military Financing 
programs, including longstanding commitments to Israel and Jordan. The 
cuts were consistent with the letter of the law and the Department's 
policy to apply foreign assistance cuts equitably. Sequestration cuts 
also reduced the number of students that the U.S. Government could 
train in the United States under the International Military Education 
and Training program.
    With respect to export license processing, sequestration has had 
minimal impact on the operations of the PM Bureau's Directorate of 
Defense Trade Controls (DDTC), and no discernible impact on export 
license processing.
    If confirmed, I will continually assess and prioritize these and 
other critical functions within the PM Bureau, ensuring that the Bureau 
can execute its mission within the context of a constrained fiscal 
environment. If PM attendance at air shows is shown to be a cost-
effective way to advance U.S. interests and support industry, then I 
will support sending PM representatives to these type of events.

    Question. What challenges does the PM Bureau face in coordinating 
with other agencies, including (but not limited to) the Department of 
Defense? Similarly, what challenges does it face in coordination within 
the State Department, such as with the regional and other functional 
Bureaus (such as the Bureau for Democracy, Human Rights, and Labor)? 
How would you, if confirmed, address these challenges?

    Answer. PM is the State Department's principal link to the 
Departments of Defense. It is my understanding that Secretaries Kerry 
and Hagel emphasize the coordination between State and Defense and the 
two Departments are communicating, coordinating, and collaborating well 
at all levels. The number of Foreign Policy Advisors detailed to the 
Department of Defense (DOD) and Military Advisors detailed to the 
Department of State is at an all-time high. PM coordinates the 
participation of State Department regional and functional experts in 
defense strategic planning and Combatant Command planning to ensure 
defense plans and U.S. military activities are consonant with U.S. 
foreign policy and Department of State activities. DOD, in turn, along 
with State regional and functional bureaus, participates in PM security 
sector assistance (SSA) planning, including PM's annual Security 
Assistance Roundtables that focus on regional priorities.
    If confirmed, I welcome the opportunity, to help ensure that 
military assistance programs complement nonmilitary assistance programs 
managed by other State Department bureaus, including for 
counterterrorism, rule of law development, countering transnational 
crime, counternarcotics, and humanitarian assistance. Should I be 
confirmed, I intend to continue to work closely with the Bureau for 
Democracy, Human Rights, and Labor to ensure U.S. assistance undergoes 
rigorous Leahy vetting.
    Within the context of Presidential Policy Directive 23 on SSA, 
which calls for a more holistic approach to SSA, PM coordinates closely 
with the U.S. Agency for International Development, and the Departments 
of Treasury, Justice, and Homeland Security as well as Defense. There 
is strong agreement on the principles of a holistic approach to 
implementing PPD 23. My challenge, if confirmed, is to help align 
different approaches to planning and programming to implement security 
sector assistance more effectively.

    Question. Under the political adviser (or POLAD) program, senior 
State Department Foreign Service officers are provided as advisors to 
senior military leaders. This program has grown dramatically in recent 
years, from roughly 15 POLADs in 2007 to almost 100 in 2013.

  <diamond> In your view, how successful has this program been? Please 
        provide specific examples. How do you see the future of the 
        POLAD program? In the current budget-constrained environment, 
        is this an appropriate use of resources?

    Answer. The Foreign Policy Advisor (POLAD) Program is a cost-
effective effort to reinforce links between the Department of State and 
Department of Defense by providing commanders (two star and above) with 
State Department Foreign Service officers who serve as senior advisors. 
The program, which PM manages, has had the flexibility to accommodate 
emerging requirements in the Department of Defense. When a major 
general or a rear admiral requests a POLAD, PM has almost always had 
the flexibility to provide him or her with one.
    In the year 2000, PM oversaw just 10 POLAD positions. Between 2007 
and 2011, the Departments agreed to create 60 additional positions. At 
present, the number of POLAD positions has leveled off to a steady 
state of 91. DOD Commands, PM, and the Foreign Service assignment 
system feel comfortable with the current size of the program because it 
covers almost all the most important commands and offices at the 
Department of Defense including the Geographic Combatant Commands, the 
Joint Staff, and the Service Chiefs. The end of the U.S. military 
missions in Iraq and Afghanistan, and the reduced need for POLADs 
there, for example, have enabled the Bureau to maintain the same number 
of POLAD authorizations, but increase the geographic and functional 
scope of Department of State presence in the Department of Defense. In 
calendar year 2013, the Bureau reprogrammed POLAD positions no longer 
needed to provide Department of State support to the North Atlantic 
Treaty Organization, the Army Component of U.S. Northern Command, the 
Special Operations Component of U.S. Northern Command, and the Human 
Rights office of U.S. Southern Command.
    DOD commanders have expressed great appreciation for the expertise 
of State Department POLADs. In recent years, POLADs at AFRICOM and 
CENTCOM provided support during the Arab Spring. In the Pacific, 
Foreign Policy Advisors were instrumental in coordinating the highest 
level visit by U.S. military leaders to Burma in 20 years, and were a 
key asset for military response to the aftermath of earthquakes in 
Japan.
    Admiral William McRaven, Commander, U.S. Special Operations 
Command, said during a recent visit to the Department of State that the 
POLAD ``sits at my right hand for all major decisions that have 
anything to do with operations downrange in other countries. The 
Political Advisor is a key individual to every decision I make 
regarding the employment of Special Operations Forces. No major 
decision is made without first checking with the Political Advisor.''
    If confirmed, I will work to make sure the PM Bureau continues to 
coordinate with State and DOD leadership on this valuable program by 
placing the best Foreign Service Officers in DOD commands where they 
can add the most policy expertise and value.

    Question. How would you describe the State Department's role in 
security assistance under PPD-23? Do you think this role conforms to 
the legal responsibility conveyed upon the Secretary of State to 
exercise continuous supervision and general direction of military 
assistance? Is State encountering any resistance or noncompliance from 
other agencies in following State's leadership? To your knowledge, has 
PPD-23 introduced any changes in the conduct of security assistance 
programs? Does the administration plan to ask for any additional 
resources to enable the State Department to conduct its coordinating 
role?
    PPD-23 calls for informing policy with ``rigorous analysis, 
assessments, and evaluations'' and for establishing ``measurable SSA 
objectives'' and ``appropriate data collection of the impacts and 
results of SSA programs. . . .'' To your knowledge, to what extent is 
the PM Bureau involved in the development of standardized metrics and 
assessment and evaluation methodologies? What progress has been made 
toward developing these metrics and methodologies?

    Answer. Under Presidential Policy Directive 23, signed by President 
Obama on April 5, 2013, the State Department's has the lead role 
regarding policy, supervision, and oversight of U.S. Government 
security sector assistance (SSA). The PPD aligns with the Secretary's 
legal responsibilities. It also provides the Secretary with more tools 
and authority to create greater transparency and direction in the SSA 
planning and implementation process.
    The Department and other SSA agencies are in the process of 
implementing the requirements of the PPD, and PM is encouraged by the 
high levels of transparency and cooperation from the other agencies. If 
confirmed, I will strive to maintain such coordination. PM has not yet 
come to a final analysis of the requirements the PPD may impose and are 
currently undertaking implementation with existing resources.
    The Department is convening a working group to develop the 
framework for standardized methodologies and metrics for security 
sector assistance writ large with the participation of PM. The PM 
Bureau has also begun implementation of a multiyear monitoring and 
evaluation strategy for the FMF program. As part of SSA implementation, 
PM is developing, in consultation with DOD colleagues, a process for 
standardized, metrics-based assessment of military capabilities. This 
assessment process will provide the foundations for planned program 
evaluations and definition of measurable SSA objectives.

    Question. Why do you think it took nearly 2 years to set up a joint 
State-DOD Global Security Contingency Fund (GSCF) office and implement 
programs in seven countries? Has the GSCF reached ``full operational 
capability?'' If not, what are the obstacles to reaching that goal?
    What progress has been made in implementing FY 2012 programs 
planned for Nigeria, the Philippines, Bangladesh, Libya, Hungary, 
Romania, and Slovakia? How has State-DOD cooperation worked in 
designing and implementing these programs?
    Why are there no FY 2013-funded GSCF programs? Some observers 
allege that there were deserving projects but the State Department 
decided not to transfer funds to the GSCF because those funds were 
needed more urgently elsewhere. Is this true? Does the State Department 
contemplate funding GSCF programs in FY 2014?

    Answer. If confirmed, I look forward to working with Congress to 
improve the efficacy of the Global Security Contingency Fund (GSCF). 
Properly setting up any new program takes time. GSCF requires joint 
State Department-Department of Defense (DOD) formulation and funding. 
State and DOD have sought congressional approval for funding certain 
projects. It has been challenging to craft proposals that meet the 
concerns of both Departments and their respective congressional 
committees. State and DOD have worked over the past 2 years to 
operationalize GSCF. The Departments colocated GSCF staff, and jointly 
developed detailed individual program plans for execution consistent 
with congressional committees' and subcommittees' requirements and 
expectations.
    The Departments created the various processes, and put together the 
operational frameworks for program management, including required 
Memoranda of Understanding to enable the Departments to exercise the 
authority. State and DOD also developed the metrics for, and awarded a 
contract for a third-party to conduct monitoring and evaluation for the 
overall program.
    Additionally, State and DOD regularly evaluated lessons learned 
with the program and jointly developed proposals and offered guidance 
to streamline the GSCF and make it more agile and responsive. As a 
result, the Departments are finalizing new guidance and a revised 
process to exercise the authority. Consistent with section 1207(l)(3) 
of the National Defense Authorization Act for Fiscal Year (FY) 2012, 
State and DOD will notify Congress once they issue guidance and 
establish this revised process.
    The Departments will consider the GSCF as reaching ``full 
operational capacity'' once a program has been implemented in full, and 
monitoring and evaluation completed.
    The following is a summary of the GSCF programs/proposals to date:

  <bullet> Bangladesh (Special Operations Capacity Building): Congress 
        approved this program in early August 2013. Initial 
        implementation efforts are underway. Equipment should arrive 
        in-country between January-March 2014, with training commencing 
        thereafter.
  <bullet> Libya (Special Operations Capacity Building): Congress 
        approved this program in early August 2013. Implementation is 
        pending additional vetting of potential recipients and 
        selection of an appropriate training venue.
  <bullet> Hungary, Romania, and Slovakia (Special Operations Capacity 
        Building): Congress approved this program in early August 2013. 
        Initial implementation efforts are underway. Equipment should 
        arrive in-country between January-March 2014, with training 
        commencing thereafter.
  <bullet> Libya (Border Security): Congress approved this program and 
        approved DOD's funds transfer in early August 2013, with the 
        exception of planned border security program activities to 
        train and equip Libyan SOF to use tactical Unmanned Aerial 
        Systems to identify and interdict border violations. Program 
        implementation is pending additional vetting of potential 
        recipients from identified ministries and selection of 
        appropriate training venues.
  <bullet> The Philippines (Maritime Domain Awareness and Law 
        Enforcement Counterterrorism Capacity Building): Congress 
        approved this program in early October 2013. While State and 
        DOD have engaged the Government of the Philippines on the 
        program following congressional approval, the U.S. and 
        Philippine governments understandably directed efforts 
        elsewhere following the recent 
        typhoon. The Departments anticipate resuming implementation 
        efforts in the near term.
  <bullet> Nigeria: The principal U.S. objective is to help the 
        Government of Nigeria coordinate a national-level approach to 
        mitigate the domestic and international threat posed by Boko 
        Haram. This program is still in the planning phase to 
        accommodate evolving conditions on the ground.

    State-DOD cooperation in designing and implementing GSCF programs 
has been one of the most significant program achievements to date. Both 
Departments have an equal say in which activities are included in the 
individual program, and who will be the most appropriate implementer 
for a given activity. Doing so has also facilitated discussion between 
the Departments, and with Posts and Combatant Commands to ensure GSCF 
activities complement current and planned activities under other 
authorities.
    In FY 2013, State and DOD determined that none of the proposed 
programs fit the criteria for GSCF. The proposals did not contain a 
sufficient level of detail, and in some cases, the Departments could 
fund proposed programs under other authorities with existing resources. 
The Departments intend to use the GSCF to meet emerging challenges and 
opportunities that could not be addressed under existing authorities. 
In some years State and DOD may need to use the entire transfer 
authority and in others they may not depending on global events. If 
confirmed, I hope to work with Congress to achieve the responsive 
program Congress and the administration intended.

    Question. Export Control Reform Initiative (ECRI): The ECRI 
regulations have stated that, going forward, the sole criteria for 
placing a defense article or service under the stringent controls of 
the U.S. Munitions List will be whether such article or service conveys 
a ``critical military or intelligence advantage to the U.S.''

  <diamond> Do you have any concerns that such a single standard could 
        transform the USML into a ``Technology Export Control List,'' 
        rather than serve its current role to control the export of 
        arms of substantial military utility that could be used to the 
        detriment of the national security or foreign policy goals of 
        the United States or our friends and allies?

    Answer. The basis of the State Department's export control 
responsibilities, as a matter of policy and as established in the Arms 
Export Control Act (AECA), is that U.S. foreign policy should shape 
defense exports; defense exports should not shape U.S. foreign policy. 
Export Control Reform (ECR) enhances this ethic. The President directed 
the ECR effort, among other reasons, because the U.S. Munitions List 
(USML) currently captures items that are not critical to military or 
intelligence applications. The export of many of these items no longer 
poses a threat to U.S. national interests. The revisions to the USML 
are designed to move munitions that have significant commercial uses 
and limited military or intelligence applicability to the more flexible 
controls available on the Commerce Control List. The USML will continue 
to be foreign policy tool, not merely a technology control list.

    Question. How will you ensure that all licenses for export of arms 
that will be under the jurisdiction of the Department of Commerce will 
be fully vetted by your personnel before Commerce allows export? Should 
Commerce practices for exceptions to Strategic Trade Authorization 
(STA) countries be significantly reviewed as a consequence to ensure 
appropriate oversight of sensitive dual-use technology/systems?

    Answer. The Department of State has authority to review all export 
license applications submitted to the Department of Commerce. In the 
case of items moved from the U.S. Munitions List to the Commerce 
Control List (CCL), the State Department will continue to review all 
license applications submitted to the Department of Commerce. With 
regard to Strategic Trade Authorization (STA) countries, STA 
eligibility is limited to only close allies such as NATO partners and 
countries whose export control regimes are closely in line with that of 
the United States. The Departments of State, Defense, Energy, Justice, 
and Homeland Security and the Intelligence Community were full partners 
in STA development. The administration is confident that the STA 
authorization will be a valuable tool in protecting U.S. national 
security and foreign policy interests.

    Question. The USML is currently under the oversight of the 
Secretary of State to ensure that such exports conform to U.S. foreign 
policy and national security interests. A single licensing agency would 
presumably not be the State Department, and therefore the Secretary of 
State would lose this primary oversight and management role. How is 
that good for U.S. foreign policy and national security?

    Answer. The executive branch will consult with Congress on how to 
structure a future Single Licensing Agency. Personnel with relevant 
expertise from State, Defense, and Commerce should still review export 
license applications for USML and CCL items. The administration should 
continue to bring to bear the full range of U.S. national security and 
foreign policy interests on licensing decisions as Export Control 
Reform advances.

    Question. How will/has the administration's Export Control Reform 
Initiative (ECRI) make the system more efficient for U.S. exporters?

    Answer. The Export Control Reform Initiative (ECR) includes a 
number of innovations for U.S. exporters. First, ECR is bringing 
clarity to the regulatory language associated with the U.S. Munitions 
List and decreasing reliance on control mechanisms that create 
uncertainty for exporters--so-called ``catch-all controls.'' A key 
element of this emphasis on ``plain language'' is to harmonize the 
export control regulations administered by the State and Commerce 
Departments. These changes will make it easier for U.S. companies and 
their customers overseas to understand U.S. export regulations and to 
comply with them. This is not merely a streamlining of the exporting 
licensing process. The ambiguity of the ``old' regulations has forced 
U.S. companies to expend time and resources seeking formal U.S. 
Government rulings on whether their products fall under the State or 
Commerce regulatory systems. These rulings are known as ``Commodity 
Jurisdictions'' at State and ``Commodity Classifications'' at Commerce. 
The improved clarity of the State and Commerce regulations, and the 
improved harmonization of the two systems, should make it easier for 
exporters to administer their own compliance systems, and spend less 
time waiting for State and Commerce to issue formal regulatory rulings.
    Furthermore, ECR is improving how technology is leveraged by U.S. 
export control agencies. Full deployment of the ``USXports'' computer 
system to the three largest U.S. export regulatory agencies--Defense, 
State and Commerce--will streamline the license application process. 
The administration expects that, over time, exporters will benefit from 
an improved online interface with the export licensing agencies as 
well.
    Finally, exporters of the less sensitive items transitioning to 
Commerce jurisdiction may be able to utilize a new mechanism called the 
``Strategic Trade Authorization'' (STA) license exception. The STA 
license exception permits transfer of certain items to countries where 
there is a low risk of diversion, such as NATO countries and other 
close allies. The STA mechanism is expected to relieve U.S. exporters 
of a significant licensing burden with low risk to foreign policy 
priorities.

    Question. How does the rationalization of the two control lists 
advance the goal of a single unified control list? Will the reforms 
result in less licensing activity by DDTC? Can this be quantified?

    Answer. The revisions made to the USML and the CCL, as well as the 
updated definitions contained in the ITAR and EAR, are intended to 
harmonize the lists and their associated control mechanisms. This 
harmonization is a prerequisite to eventually combining the lists. The 
administration does anticipate a decrease in license applications to 
the Department of State as a result of ECR. The first in a series of 
rule changes went into effect on October 15, so it is still too early 
to accurately project the size of that decrease.
                                 ______
                                 

                  Response of Mike Hammer to Question 
                  Submitted by Senator Robert Menendez

    Question. Chile is becoming a leader in solar energy in Latin 
America and several American firms have all announced large planned 
solar projects in the country. What can we do to build upon this 
success, further stimulate the solar market in Chile, and encourage 
American business investment?

    Answer. Chile has significant solar energy potential and ranks 
second in the International Trade Agency's (ITA) list of top solar 
export markets through 2015. In Chile, American solar and other 
renewable energy companies are pursuing investment opportunities and 
offering solutions to energy challenges. If confirmed, one of my top 
and immediate priorities will be to promote business opportunities that 
create American jobs.
    I will advocate for U.S. companies, share the U.S. experience in 
managing renewable energy sources, and promote clean American 
technologies and solutions. I also plan, if confirmed, to lead U.S. 
Embassy Santiago's efforts in support of U.S. companies so they are 
well-positioned to succeed in the Chilean energy market, including 
working to make sure they compete on a level playing field in Chile's 
solar energy sector.
    Embassy Santiago actively promotes solar energy exports to Chile. 
Although millions of dollars of equipment and services are already 
being exported from the United States to develop solar energy in Chile, 
the U.S. Government is pushing for more. Through combined efforts with 
the Department of Commerce, our Embassy organized a renewable energy 
trade mission in April 2013 that brought 20 U.S. companies to Chile to 
meet with senior Chilean officials and share best practices with the 
Chilean Government and private sector in order to encourage a thriving 
clean energy market. Efforts like these pay off as U.S. companies 
navigate a new export market.
    If confirmed, I will support and look to expand these efforts, 
including by participating in the State Department's Direct Line 
Program that offers U.S. companies an on-the-ground report of market 
conditions from the Ambassador. These calls would enable any U.S. 
company to reach into my office and get my attention if they are 
looking to promote U.S. business in Chile, including in the solar 
energy sector.
                                 ______
                                 

                Response of Kevin Whitaker to Question 
                  Submitted by Senator Robert Menendez

    Question.Over the past decade, Colombia's Government has committed 
to a series of transformational initiatives, including the Law on 
Victims and Land Restitution, the territorial consolidation program and 
the U.S.-Colombia Labor Action plan. However, implementation has been 
challenging and results have not always kept pace with established 
goals.

  <diamond> As the United States Government continues its strategically 
        important efforts to support the Colombian Government, what 
        additional steps can be taken to help strengthen institutional 
        capacity in Colombia at the local and national level to 
        implement initiatives such as the Law on Victims and Land 
        Restitution, as well as any other initiatives that might result 
        from a successful peace process?

    A recent report by members of the House of Representatives finds 
that effort is still needed on the part of the United States and 
Colombia to make the U.S.-Colombia Action plan a reality on the group. 
The report highlights that indirect employment is still a challenge, 
that the inspection system could be strengthen, and that protections 
for workers still need to be improved.

  <diamond> What steps are needed in order to strengthen the 
        implementation of the Labor Action Plan?

    Afro-Colombian communities continue to be disproportionately 
affected by the internal armed conflict, forced displacement and human 
rights abuses.

  <diamond> What steps can be taken to support the Colombian 
        Government's efforts to provide the country's Afro-Colombian 
        population with greater protections and greater access to 
        programs under the Law on Victims and Land Restitution?

    Answer. Colombia continues to make progress on human rights and 
labor issues, but significant challenges remain, including attacks 
against and killing of human rights defenders and labor activists, 
continued forced displacement, threats against those who return to 
their lands, and slow progress in combating impunity.
    The United States and Colombia maintain a frank dialogue at the 
national and municipal levels, and with local and international NGOs 
and labor organizations to identify issues and to improve conditions. 
U.S. programs support the development of rule of law, human rights, 
capacity for municipal governments, and victim assistance initiatives 
by the Government of Colombia.
    Through Economic Support Funds, the United States promotes economic 
prosperity through the licit economy, improving living conditions for 
Colombia's most vulnerable groups, and promotes respect for human 
rights and strengthens the rule of law. USAID also supports Colombian 
efforts to transition out of conflict and to establish conditions for 
sustainable peace. This includes more than $60 million for an Afro-
Colombian and Indigenous Program, intended to assist these communities, 
which have been disproportionately affected by the conflict and other 
factors. The United States continues its collaboration within the areas 
of rural development and land restitution, key concerns at the heart of 
the Colombia's ongoing conflict. USAID announced $68 million in support 
of Colombian efforts to: (1) restore land to victims of conflict; (2) 
issue land titles; and (3) generate opportunities for viable rural 
livelihoods for small farmers. In addition, USAID will help expand the 
coverage of legal protection of land rights, especially those of small 
farmers, by strengthening the Colombian Government's land titling 
efforts. USAID also maintains other programs intended to help build the 
capacity of civil society and the Colombian Government to improve 
respect for human rights; expand access to justice; and to strengthen 
electoral institutions and labor unions. The question of support for 
Disarmament, Demobilization and Reintegration (DDR) will occur in the 
event a peace accord is achieved. The United States has experience in 
Colombia in this area, having provided more than $144 million between 
2006 and 2014 to support reintegration of ex-combatants, including 
child soldiers. If confirmed, I would propose to quickly establish a 
strong dialogue with Congress on how best we could support DDR and 
other activities attendant to an eventual possible peace accord. 
Another area worth considering in this regard is the possibility of 
international organization involvement, and U.S. support for such 
initiatives. Additionally, the State Department provides emergency 
humanitarian assistance for internally displaced people in Colombia and 
Colombian refugees in neighboring countries, including $36 million this 
year.
    We are committed to full implementation of the Colombia Labor 
Action Plan, and continue to work intensively with Colombia to achieve 
this goal. President Obama raised labor as a priority issue with 
President Santos during his official visit to Washington the first week 
of December. Colombian Minister of Labor Pardo participated in the 
meeting between our Presidents, and also met separately with Secretary 
of Labor Perez to discuss areas for continued focus and collaboration. 
Our Department of Labor and USTR maintain a fluid dialogue with the 
Ministry of Labor and with all stakeholders on Action Plan issues and 
compliance.
    The United States, through the Department of Labor, will continue 
its support of a grant to the International Labor Organization (ILO) 
presence in Colombia to train inspectors in areas of the Labor Action 
Plan. As part of the plan, the Government of Colombia committed to 
doubling its labor inspectorate by hiring 480 new inspectors by 2014. 
As of September 2013, there were 634 inspector positions total, 546 of 
which were filled. Training these inspectors is an integral part of 
implementing Colombia's new labor laws, which support the goals of the 
Labor Action Plan. As noted, USTR and the Department of Labor continue 
to engage with the Ministry of Labor in regular technical meetings 
regarding the collection of fines issued by labor inspectors, among 
other issues.
    If confirmed, I will engage our Colombian partners to ensure we 
address the full range of labor rights issues covered under the plan. 
Indeed, as I noted in the December 11 hearing, if confirmed I would 
commit to make this a matter of regular and routine discourse with the 
highest levels of the Colombian Government so that they understand our 
position and expectations. Colombia needs to do a better job at 
collecting fines imposed for labor violations, undertaking targeted 
inspections in the five priority sectors (palm oil, sugar, mines, 
ports, and flowers), and halting abusive third party contracting. With 
respect to violence and threats against labor activists, I share your 
concerns that even one murder of a unionist is one too many. We 
regularly raise these concerns at all levels of the Colombian 
Government, in Washington and in Bogota. A part of the ILO grant is 
dedicated to training judicial investigators and prosecutors on labor 
rights and strengthening their abilities to investigate these murders 
and threats.
    Women and members of both Afro-Colombian and indigenous communities 
are disproportionately affected by violence, poverty, forced 
displacement, landmines, sexual violence, forced recruitment, and 
discrimination. Colombia is recognizing past human rights violations 
and affirming the right of victims to truth, justice, and reparation. 
These positive steps are necessary if Colombia is to achieve 
sustainable peace and reconciliation. Again, as I indicated in the 
December 11 hearing, if confirmed, I will seek to identify additional 
ways we can help address their needs, in cooperation with Colombia 
counterparts. One of the mechanisms which we can use is the U.S.-
Colombia Action Plan on Racial and Ethnic Equality (CAPREE) process, an 
innovative approach conceived by the Bureau of Western Hemisphere 
Affairs to systematize collaboration and sharing best practices to 
address the needs of racial and ethnic minorities. I would continue our 
collaboration with Colombia in supporting economic development, 
educational opportunities, and addressing barriers to inclusion for 
indigenous and afro-descendent communities in both the United States 
and Colombia. It is important to continue support for educational and 
development programs for these communities through the State Department 
and USAID.
    The Race, Ethnicity, and Social Inclusion Unit (RESIU) within the 
State Department helps us carry out and maintain focus on our bilateral 
and regional dialogue with partners in the Western Hemisphere on issues 
impacting Afro-descendants and indigenous communities.
                                 ______
                                 

                Responses of Bruce Heyman to Questions 
                  Submitted by Senator Robert Menendez

    Question. January 1, 2014 marks the 20th anniversary of NAFTA. Over 
the past two decades, tremendous efforts have been taken to promote the 
interchange of goods, services, people, and investment across the three 
countries of North America. Today, Canada is our most important trade 
partner in terms of both exports and imports.

  <diamond> Although the countries of North America have recently 
        turned to Asia and Europe for the next generation of trade 
        deals, what is the assessment of the future of North American 
        integration? What steps can be taken to promote the further 
        integration of the three countries?

    Answer. The groundbreaking North American Free Trade Agreement 
(NAFTA) created the world's largest free trade area. Its adoption and 
implementation have represented huge steps toward shared prosperity. 
NAFTA helped create new markets and opportunities in all three 
countries and enabled the United States and Canada to deepen and 
develop further the world's largest and most comprehensive trade 
relationship. The administration is negotiating a next-generation trade 
agreement, the Trans-Pacific Partnership (TPP), which includes NAFTA 
partners Canada and Mexico. The TPP would serve as the foundation for 
an expanded regional trading and investment market and its adoption 
would represent our best opportunity to adopt a comprehensive 
strategy--one that would benefit the citizens of the United States--to 
integrate further the combined economic output of the United States, 
Canada, and Mexico. In addition, the three countries continue to expand 
cooperation on regulatory regimes, cross-border trade facilitation, and 
agriculture, health, environment, and security issues. Mexico will host 
the next North American Leaders' summit in February 2014, where 
President Obama and his counterparts will discuss many of these issues. 
If confirmed, I look forward to supporting U.S. efforts in 
strengthening our North American ties to make us more prosperous and 
secure.

    Question. In February 2011, the United States and Canada signed the 
Beyond the Border declaration describing their shared visions for a 
common approach to perimeter security and economic competitiveness. The 
declaration commits both nations to negotiate on information-sharing 
and joint threat assessments to develop a common and early 
understanding of the threat environment; infrastructure investment to 
accommodate continued growth in legal commercial and passenger traffic; 
integrated cross-border law enforcement operations; and integrated 
steps to strengthen shared cyber-infrastructure.

  <diamond> What is the current assessment of the Beyond the Border 
        initiative and what steps can be taken to further advance its 
        progress?

    Answer. I understand that a tremendous amount of border management 
cooperation occurs under the auspices of the Beyond the Border 
initiative. If confirmed, I will work with Canadian and U.S. agencies 
to ensure that we continue to improve border security and facilitate 
trade. One accomplishment of the Beyond the Border initiative is the 
entry/exit project, through which the United States and Canada exchange 
information on third country nationals who cross our shared land 
border, such that a record of an entry into one country could be 
considered a record of an exit from the other. Another example is the 
NEXUS program, which expedites travel for low-risk, preapproved 
travelers between the United States and Canada. The program continues 
to expand and now allows NEXUS members to participate in the TSA 
precheck program. If confirmed, I will support this initiative and work 
with Canada to look for additional opportunities to facilitate citizen 
travel, such as upgrading border infrastructure.
                                 ______
                                 

            Responses of Catherine Ann Novelli to Questions 
                    Submitted by Senator Bob Corker

    Question. The United States and the European Union will soon enter 
a third round of discussions on Transatlantic Trade and Investment 
Partnership (TTIP). The TTIP negotiations provide a great opportunity 
for the United States to address a number of unresolved issues, 
including protecting U.S. innovation and intellectual property 
protection in pharmaceuticals. Some in U.S. industry have expressed 
concerns over inadequate protection of confidential commercial 
information submitted for the purposes of marketing approval to EU 
authorities, specifically the European Medicines Agency.

  <diamond> Do you share these concerns? If so, what steps do you plan 
        to engage with the EU such that these concerns are adequately 
        addressed?

    Answer. I understand and share U.S. stakeholder concerns regarding 
data protection, and if confirmed, I will work diligently to ensure 
U.S. commercial information is afforded adequate protection. If 
confirmed, I will also work to ensure the effective protection and 
enforcement of all U.S. intellectual property and property rights, 
including intellectual property associated with pharmaceuticals.
    I know that the United States is closely monitoring this situation, 
including in the context of the TTIP negotiations. If confirmed, I will 
also continue to engage actively with the EU on this issue.

    Question. In May of this year, this committee held a hearing on 
Europe and the economy. As you would expect, the issue of the 
Transatlantic Trade and Investment Partnership was discussed, including 
the issues of regulatory convergence generally and the inclusion of 
financial services regulatory cooperation specifically. In that hearing 
Under Secretary of State Hormats stated that the administration's 
position was that all issues would be on the table in the TTIP--that 
nothing would be excluded. Subsequently, however, Treasury Under 
Secretary Brainard then offered that financial services regulatory 
issues would be excluded from TTIP and would be reserved for existing 
dialogues.

  <diamond> Does the administration support the full inclusion of 
        financial services regulatory cooperation in the TTIP 
        agreement? If not, why not? If we agree to exclude this issue 
        from TTIP, what is the risk that the EU will seek to exclude 
        sectors that are important to us?

    Answer. Financial services are a critical component of the 
transatlantic relationship. I understand that in the TTIP, as in all 
our trade agreements, the administration will continue to seek to 
ensure that U.S. financial services firms enjoy nondiscriminatory 
market access and the full range of investor protections.
    It is my understanding that since the financial crisis, Treasury 
and our financial regulators have been actively engaged on a range of 
financial regulatory issues. There is an active, ongoing agenda with 
ambitious deadlines on regulatory and prudential cooperation in the 
financial sector--both multilaterally in the G20 and Financial 
Stability Board, bilaterally under the Financial Markets Regulatory 
Dialogue, and in international standards setting bodies such as the 
Basel Committee on Banking Supervision and the International 
Organization of Securities Commissions. This work will continue in 
parallel alongside TTIP. I also understand that administration 
officials have made clear that it will not weaken financial regulations 
through our trade agreements.
                                 ______
                                 

              Responses of Tina S. Kaidanow to Questions 
                    Submitted by Senator Bob Corker

    Question. How would you describe the operational capability of al-
Qaeda? How would you describe its organizational structure? How has the 
operational capability of al-Qaeda and its organizational structure 
changed over the past decade?

    Answer. Al-Qaeda (AQ) remains fundamentally a hierarchical 
organization, although with the death in 2011 of Usama bin Laden, and 
persistent counterterrorism pressure against its core elements in South 
Asia, the AQ core has been significantly degraded. However, Ayman al-
Zawahiri remains the recognized ideological leader of a jihadist 
movement that includes AQ-affiliated and allied groups worldwide that 
continues to pose a terrorist threat to the United States.
    The AQ threat has become more geographically diverse, with much of 
the organization's activity devolving to its affiliates around the 
world, which are increasingly setting their own goals and specifying 
their own targets. As avenues previously open to these and other 
violent extremist organizations for receiving and sending funds have 
become more difficult to access, several groups have engaged in 
kidnapping for ransom and other criminal activities, and thus have also 
increased their financial independence.
    The August threat to our Embassies underscored AQ's operational 
capability on the local level and demonstrated the ability of AQ-
affiliates and inspired groups to plot and conduct attacks locally and 
to plot more modest attacks against the U.S. homeland and U.S. 
interests. Among AQ affiliates, Al Qaeda in the Arabian Peninsula 
(AQAP) has shown itself to be AQ's most dangerous affiliate and 
established itself as the first AQ affiliate with the determination and 
capability of striking the United States, as we saw on December 25, 
2009, when it attempted to destroy an airliner bound for Detroit, and 
again the following year, with a plot to destroy several U.S.-bound 
airplanes with bombs timed to detonate in the cargo holds.
    AQ-affiliated groups in Syria are a growing concern, especially al-
Nusra Front (ANF) and Al Qaeda in Iraq (AQI), now known as the Islamic 
State of Iraq and the Levant (ISIL). The conflict in Syria is 
attracting thousands of fighters from around the world, some of whom 
are joining violent extremist groups, including ANF and AQI/ISIL. AQI/
ISIL is the strongest it has been since its peak in 2006, and it has 
exploited the security environments in Iraq and the conflict in Syria 
to significantly increase the pace and complexity of its attacks.
    In the short term, we must maintain the pressure on AQ and its 
affiliates to disrupt their operations and bring terrorists to justice 
within a framework that respects human rights and the rule of law. In 
the long term, the President made it clear that we need to do more to 
counter the social, economic, and political drivers of violent 
extremism that fuel terrorist recruitment and also build the capacity 
of our partners to address terrorist threats within their borders and 
regions.

    Question. How has the terrorist threat inside Syria evolved over 
the past 2 years and what has driven that evolution? What are the long-
term, regional and global risks of the unprecedented level of foreign 
fighters in Syria and what steps can the U.S. Government take to 
mitigate those risks?

    Answer. The prolonged instability in Syria has allowed for the 
steadily increasing insertion of al-Qaeda affiliates, Shia militants, 
and other terrorist fighters into the Syrian battlefield. Syria's long 
and increasingly porous borders remain areas where these groups 
continue to facilitate the movement of people and materiel to support 
operational activity. In addition, these groups have also been able to 
utilize various means of strategic messaging in their efforts to 
recruit additional fighters from within and outside of Syria.
    Over the long term, an increasing presence of foreign fighters 
within Syria poses a grave threat to regional and global stability. We 
are aware of these potential consequences due to the considerable 
number of foreign fighters who traveled to Iraq over the past decade. 
First and foremost, we are concerned with the ability of foreign 
fighters to gain considerable battlefield and other operational 
experience while in Syria, and the relationships they may develop with 
larger terrorist organizations while there. This poses a considerable 
threat to Syria's longer term stability and related ability to 
stabilize and transition to a more open and inclusive system post-
Assad. Second, this long-term ability to operate within Syria can 
provide these groups the ability for possible external planning, either 
within the region or against U.S. or other Western targets. The 
potential for either of these eventualities is a focus of our current 
mitigation efforts. The interagency is currently working with partners 
in the region and in Europe to mitigate the threats posed by foreign 
fighter travel. These efforts include developing options for closer 
cooperation on law enforcement and border security, efforts to increase 
information sharing on known foreign fighters and suspect travelers, 
and developing and sharing best practices on public messaging to 
counter the potential recruitment of fighters.
                                 ______
                                 

                Responses of Puneet Talwar to Questions 
                    Submitted by Senator Bob Corker

    Question. This administration has sought to provide significant 
military capability throughout the Middle East through foreign military 
sales. How does this more robust capability advance U.S. national 
security interests and still maintain the qualitative military edge of 
Israel within the region?

    Answer. The administration has sought to enhance security 
cooperation with and between U.S. partners in the Middle East as one of 
its fundamental goals for the region. The United States is engaged in 
extensive efforts to ensure its partners have credible military 
capabilities to respond to potential regional threats. An essential 
part of this approach is providing our partners access when appropriate 
to military technologies critical to their national defense. These 
sales will also allow U.S. security partners to bear a greater share of 
the burden for regional security.
    Enhancing the capabilities of our Arab partners does not come at 
the expense of Israel's security. Israel remains, by a significant 
margin, the leading recipient of foreign military financing and the 
Israel Defense Forces enjoy privileged access to the most advanced U.S. 
military equipment, such as the F-35 Joint Strike Fighter and the V-22 
Osprey. If confirmed, I will continue to prioritize the PM Bureau's 
efforts to strengthen security cooperation with Israel and safeguard 
its qualitative military edge (QME).

    Question. Countries emerging from conflict, such as Iraq and Libya, 
may demonstrate great need in modernizing their military forces and 
aligning their capabilities with U.S. security interests. Under what 
circumstances should we export U.S. defense technology or provide other 
security assistance to such countries when we have significant policy 
disputes?

    Answer. All decisions to provide U.S. defense equipment or security 
assistance are based on advancing and protecting the national security 
interests of the United States in accordance with the Conventional Arms 
Transfer Policy. In the case of Iraq and Libya, it is in the direct 
interest of the United States for these countries to professionalize 
and modernize their armed forces.
    The United States should be engaged in Libya at this critical time 
in the country's transition to support the Libyan people. Violent 
extremist groups will seek to exploit any instability in Libya. U.S. 
security cooperation can prevent violent extremists from gaining ground 
in North Africa.
    If confirmed, I will continue to advocate for U.S. interests in 
Iraq and the region, including the development of a strong, capable 
Iraqi Security Forces. The primary objective of U.S. foreign policy in 
Iraq is the development of a long-term and enduring strategic 
partnership between the United States and a stable, sovereign, self-
reliant Iraq that contributes to peace and security in the region. 
Bolstering Iraq's ability to defend its air space and protect its 
borders will contribute to stability and security in the region. Iraq 
seeks the foundational defense systems necessary for this effort. These 
systems will build long-term ties between Iraq and its suppliers. The 
U.S. Government should continue to provide Iraq the equipment, 
training, and support necessary to build its defense capabilities and 
support its ongoing fight against al-Qaeda in Iraq and other terrorist 
elements.
    U.S. security assistance is critical to Iraq's security and 
supports the continued development and professionalization of the Iraqi 
military. The Department's Foreign Military Sales and Foreign Military 
Financing programs bolster this defense relationship, promote U.S. 
security interests, and help ensure the United States is a key 
strategic partner for Iraq over the long term.

    Question. UAV Export Policy.--More than 2 years have passed since 
the Italian Government requested a license to purchase missiles and 
other requirements for arming the predator unmanned systems. Since that 
time, the administration's interagency policymaking process has been 
engaged in building a policy that will clarify when, to whom, and under 
what conditions the United States may consider exporting systems 
controlled under the Missile Technology Control Regime categories 1 and 
2, particularly armed systems.

  <diamond> What is the status of the development of such a policy? 
        What is the current timeline for completing this policy?

    Answer. I have not been involved in this process in my current 
capacity, but I understand that the Departments of State and Defense 
have been diligently working on a UAV export policy for some time. The 
PM Bureau has played a key role in this process. If confirmed, I will 
make sure the PM Bureau briefs Congress on the outcome of the review as 
soon as it is available. The administration understands the importance 
and sensitivity of the issue, and PM looks forward to continuing to 
work closely with you, your staff, and your colleagues on this issue in 
the coming months.

    Question. Export Control Reform Initiative.--While much work has 
already been completed toward harmonizing the export control lists of 
State and Commerce, the majority of the lists have yet to go to final 
publication in the Federal Registry. How will you play a role in the 
critical stage between preliminary and final publication to ensure that 
we maintain appropriate protections on those items deemed necessary to 
security while ensuring that the reform initiative truly makes the 
licensing process more transparent and predictable for U.S. businesses?

    Answer. If confirmed, implementing Export Control Reform will be a 
top priority. Proposed rules are the product of careful interagency 
deliberation and public comment on those rules is an essential part of 
the process. PM's Directorate of Defense Trade Controls is the lead 
element in this effort and I will support them in ensuring that the 
input of government and public stakeholders will continue to be used to 
develop effective final rules which retain control on the U.S. 
Munitions List (USML) of those items that have critical military and 
intelligence applications, and which generally have limited foreign 
availability and commercial use.
    The Directorate will continue its outreach efforts to the defense 
export industry to ensure understanding of and compliance with the new 
regulations. New information technologies also will make the export 
licensing process more transparent and predictable. Full deployment of 
the USXports system to the three largest U.S. export regulatory 
agencies in the coming year will streamline the processes through which 
license applications are handled, and in time, exporters will benefit 
from a single on-line interface with all export licensing agencies.
                                 ______
                                 

                Response of Mike A. Hammer to Question 
                    Submitted by Senator Bob Corker

    Question. One aspect of the U.S. health care delivery that has 
continued to trouble me is that U.S. consumers pay more for their 
pharmaceuticals and medical devices than other developed countries. 
Because developed countries continue to set their prices below 
competitive levels, it forces our consumers to shoulder more than their 
fair share of the global research and development burden. Another trend 
among developed countries that only exacerbates this problem is the 
weakening of intellectual property protections amongst our trading 
partners. Of the 40 countries on USTR's watch list for 2013, 23 are 
listed because of their weak pharmaceutical IP protections; these 
include many U.S. trading partners. The administration is currently in 
negotiations on two multilateral trade agreements and I believe it is 
crucial that strong IP protections be included to ensure developed 
countries shoulder their share of this global burden.
    Chile was once again listed on the USTR's priority watch list in 
2013. Of primary concern is that Chile has yet to pass legislation or 
implement regulations that would fulfill their free trade agreement 
obligations regarding patent enforcement. Although the FTA was signed 
in 2003 and became enforceable in 2004, Chile has yet to put in place a 
system that will effectively satisfy their current obligations.

  <diamond> Mr. Hammer, if confirmed, how do you intend to address this 
        issue and work to ensure Chile fulfills its FTA obligations?

    Answer. American ingenuity and innovation are key to propelling the 
United States economy, particularly in the fields of medicine, 
technology, and culture. This is possible because of our country's 
respect for and enforcement of intellectual property rights. If 
confirmed, I will make intellectual property rights enforcement a 
priority and will work with all levels of the Chilean Government to 
strengthen its enforcement capabilities. I intend to marshal the 
resources of U.S. Government agencies such as Office of the U.S. Trade 
Representative, Department of Commerce--including the U.S. Patent and 
Trademark Office--to encourage the Government of Chile to comply with 
its intellectual property obligations under our bilateral free trade 
agreement.
    I will mobilize the private sector and business organizations such 
as the American Chamber of Commerce, and use the Embassy's public-
diplomacy programs to impress upon Chileans the importance of 
intellectual property rights. I will raise awareness of intellectual 
property issues among Chilean opinion-leaders and government officials.
    Chile is positioning itself to be a hub for entrepreneurship 
through initiatives like Start Up Chile which looks to attract world-
class businesses with innovative ideas. Chile needs a strong 
intellectual property rights protection and enforcement regime if it 
hopes to build an economy based more on knowledge, and less on 
commodities.
    Chile should bolster its pharmaceutical patent regime and ensure 
protection to intellectual property rights holders in the digital 
arena. It has made significant strides in recent years, but must 
continue to make progress in order to implement and become fully 
compliant with its multilateral and bilateral commitments.
    In response to U.S. Government outreach, we have seen Chile take 
positive steps in recent years. It created the National Institute for 
Industrial Property to oversee industrial property registration and 
protection, took law enforcement actions against the sale of 
counterfeit and pirated products, and fostered constructive cooperation 
between rights holders and enforcement officials.
                                 ______
                                 

                Response of Kevin Whitaker to Question 
                    Submitted by Senator Bob Corker

    Question. In the U.S. health care system there is a differential 
between what U.S. consumers pay for their pharmaceuticals and what 
other developed countries and U.S. trading partners pay. This 
differential is only exacerbated by a recent trend where our trading 
partners are weakening their intellectual property protections. Of the 
40 countries on USTR's watch list for 2013, 23 are listed because of 
their weak pharmaceutical IP protections; many of these are U.S. 
trading partners. The administration is currently in negotiations on 
two multilateral trade agreements and I believe it is crucial that 
strong IP protections be included to ensure developed countries 
shoulder their share of this global burden.
    Colombia has been listed in the USTR's watch list for 2013. Over 
the past year in Colombia we have seen the environment for innovation 
significantly deteriorate. The Colombian Government has imposed price 
controls, proposed discriminatory burdens on patent applicants and 
drafted regulations for approval of follow-on biologics that do not 
meet international standards.

  <diamond> Mr. Whitaker, if confirmed as ambassador to Colombia, what 
        will you do to ensure that this trend is reversed?

    Answer. Promoting protection of intellectual property rights (IPR) 
would be a priority for me, if confirmed. I would work to encourage the 
Colombian Government to develop regulations and policies that create a 
business environment that strongly supports innovation and creativity. 
The United States is already closely following developments in 
biologics regulation, working in cooperation with stakeholders and 
like-minded governments. We have also expressed our concerns before 
international organizations, such as relevant World Trade Organization 
Committees and during the OECD Trade Committee's review of Colombia on 
November 6.
    Colombia's President Santos has identified innovation as a priority 
for his government. A strong IPR system is essential to that effort. I 
look forward to the opportunity, if confirmed, to support Colombia's 
efforts to build an IPR system that promotes the rights of innovators 
and creators, the quality and safety of products, and fosters a strong 
business environment for the benefit of both of our countries.
                                 ______
                                 

                 Response of Bruce Heyman to Question 
                    Submitted by Senator Bob Corker

    Question. One aspect of the U.S. health care delivery that has 
continued to trouble me is that U.S. consumers pay more for their 
pharmaceuticals and medical devices than other developed countries. 
Because developed countries continue to set their prices below 
competitive levels, it forces our consumers to shoulder more than their 
fair share of the global research and development burden. Another trend 
among developed countries that only exacerbates this problem is the 
weakening of intellectual property protections amongst our trading 
partners. Of the 40 countries on USTR's watch list for 2013, 23 are 
listed because of their weak pharmaceutical IP protections; these 
include many U.S. trading partners. The administration is currently in 
negotiations on two multilateral trade agreements and I believe it is 
crucial that strong IP protections be included to ensure developed 
countries shoulder their share of this global burden.
    Canada has been on USTR's watch list for the last several years. 
One concern that has been continuously raised is Canada's imposition of 
a heightened ``usefulness'' test for IP challenges that is 
substantially different from the one required under their TRIPS and 
NAFTA obligations. This has allowed Canadian drug manufactures to 
invalidate patents for established medications that had already been 
found ``safe and effective'' by their health regulator, Health Canada. 
When high-income, developed countries are finding new ways to evade 
their share of the global research and development burden, our 
government needs to act to protect U.S. consumers who ultimately get 
stuck with the bill.

  <diamond> Mr. Heyman, if confirmed, can you discuss how you plan to 
        work to strengthen U.S. patent protections in Canada?

    Answer. Protection for intellectual property rights is the 
foundation of success for American business, as well as small inventors 
and creators. Intellectual property rights protection fosters and 
promotes investment in innovation and creativity that is so important 
to our economic well-being and global competitiveness. More 
specifically, it is important that all trading partners respect and 
properly apply internationally accepted criteria for obtaining a 
patent, including the utility standard.
    If confirmed, I will raise the issue of strong patent protection 
with key Canadian Government interlocutors who can effect change on 
this issue. As soon as I arrive, I will raise the issue in my 
introductory calls and will continue to press officials until we see 
progress. I will seek to persuade Canadian authorities that effective 
patent protection is in our mutual economic interest and is essential 
for further innovation and investment. I will engage with concerned 
business stakeholders and will look to Washington agencies and 
interested stakeholders for their input.
                                 ______
                                 

                Responses of Puneet Talwar to Questions 
                    Submitted by Senator Marco Rubio

    Question. How many times since 2009 have you been in direct 
bilateral contact, either in person or over the phone, with Iranian 
officials?

    Answer. On four occasions since 2009, I joined meetings between the 
U.S. and Iranian Permanent Representatives to the United Nations in 
which letters were exchanged between the President and Iranian leaders. 
I joined meetings on the margins of P5+1 talks with Deputy Secretary 
Bill Burns and Under Secretary Sherman and Iranian officials. I was 
part of five meetings in Oman. These meetings were initially focused on 
establishing whether we could have a channel for bilateral 
communications, facilitated by the Omanis, on the nuclear issue. After 
the election of Iranian President Rouhani these talks included the 
development of substantive ideas for P5+1 negotiations. I also had 
direct contact with the Iranians on the margins of the 2013 U.N. 
General Assembly for the same purpose.

    Question. What Iranian officials did you talk to or meet with as 
part of the so-called ``backchannel'' effort?

    Answer. I was a part of a team that conducted discussions with 
senior Iranian Foreign Ministry officials responsible for nuclear 
negotiations.

    Question. In your exchanges with these officials, what issues other 
than Iran's nuclear program did you discuss?

    Answer. These negotiations focused exclusively on Iran's nuclear 
program because they were connected to the P5+1 process, which is 
limited to the nuclear issue. However, senior administration officials 
have raised our concerns about American citizens detained or missing in 
Iran on the margins of P5+1 talks as did the President directly with 
President Rouhani in late September during their phone conversation.

    Question. You said during your testimony in front of the committee 
that you and other U.S. officials did not raise Iran's human rights 
record or its ongoing support for terrorism as part of this backchannel 
process. Why were these topics not raised?

    Answer. Direct bilateral talks were connected to the P5+1 process, 
which focused exclusively on the nuclear issue. However, the 
administration remains extremely concerned about the Iranian 
Government's human rights abuses and its attempts to use terrorism--
both directly and through its numerous proxies--to promote instability 
in the region and around the world. The administration has sought to 
address these concerns in other ways, including by imposing sanctions 
on those facilitating human rights abuses and supporting terrorism, as 
well as by working with partners to counter Iran's support for these 
destabilizing activities. President Obama has made clear we will 
continue to do so, even as we seek an agreement to prevent Iran from 
acquiring a nuclear weapon. Regarding Iran's human rights record, 
senior administration officials have raised our concerns about American 
citizens detained or missing in Iran on the margins of P5+1 
deliberations as did the President directly with President Rouhani in 
late September.

    Question. Given the fact that you participated in these discussions 
with what is, according to the State Department, the world's foremost 
state sponsor of terrorism, and you and your colleagues in the 
administration apparently failed to brief any member of Congress about 
these talks, why should we take seriously your pledge to work with the 
committee on other sensitive issues confronting our Nation?

    Answer. I spent over 15 years working in the Congress before 
joining the administration--including more than 10 years as a 
professional staff member for the Senate Foreign Relations Committee as 
chief advisor on the Middle East for then-Chairman Biden. I have a deep 
respect for Congress' role in setting and implementing our foreign 
policy agenda and believe in a strong partnership between the committee 
and the State Department. If confirmed, I am committed to consulting 
with the committee on the full range of issues covered by the 
Political-Military Bureau.
                                 ______
                                 

               Responses of Kevin Whitaker to Questions 
                    Submitted by Senator Marco Rubio

    Question. What is the strength of the FARC and what are their main 
goals today?

    Answer. Over the past 50 years, the FARC transitioned from an 
ideology-based movement into one of the most dangerous and extensive 
transnational criminal and terrorist organizations in the hemisphere. 
Today's FARC works to extend its territorial, political, and financial 
control over Colombian regions using all manner of illicit activities--
illegal mining, extortion, narcotics sales, and kidnapping--to fund its 
activities.
    As a result of Colombia's successful military campaigns against the 
FARC, significantly aided by U.S. assistance, advice, and intelligence 
support, the FARC has been on a steady decline in terms of numbers of 
guerrilla fighters and territory where it has influence. Total direct 
military strength is estimated at this point to have fallen to 
approximately 8,000, compared to nearly 20,000 in 2003. The FARC's 
shrinking military size and capabilities, as well as its profound 
unpopularity with the great majority of Colombians, are among the 
factors that pushed the FARC to the negotiating table. That said, the 
FARC remains a dangerous terrorist organization that continues to 
organize deadly attacks against Colombian security forces, civilians, 
and infrastructure.

    Question. What percentage of the FARC do we believe to be 
irreconcilable?

    Answer. It is difficult to predict at this moment the numbers of 
FARC who would refuse to adhere to the conditions established in an 
eventual peace treaty. FARC negotiators insist that they speak for the 
entire terrorist group, and that the group maintains its military 
discipline, and that therefore and that the entire structure would 
comply with the requirements of a peace accord. Based on history of 
previous demobilizations, the attractiveness and financial rewards of 
the criminal activities that the FARC now engages in, and other 
factors, it is reasonable to assume that some FARC guerrillas would 
continue those activities even if peace is achieved.

    Question. What would a peace agreement mean for U.S. support of 
Colombian operations against the FARC and other narcoterrorist 
organizations operating in and around Colombia?

    Answer. The United States and Colombia remain committed to 
combating the FARC, the ELN, and other terrorist groups in the region. 
Our ultimate aim will remain ensuring Colombia is able to eradicate 
narcotics crops and stop other illicit enterprises, in order to achieve 
the peace, security, and justice that Colombia has earned. As in any 
such case, our ability to continue our support will depend on the 
presence of legal authorities and financial support to do so. We will 
continue to work closely with Congress to seek the resources necessary 
to accomplish the job. As Attorney General Holder said on his visit to 
Colombia, our nations have ``displayed a shared commitment--and 
dedication--to building on the progress that our respective countries 
have made possible in recent years, particularly when it comes to 
protecting our citizens from violence and harm and combating 
transnational organized crime.''

    Question. Colombia remains the world's No. 2 producer and exporter 
of cocaine, and the No. 1 to the U.S. Plan Colombia has been by all 
accounts a successful program. In the event of a peace agreement, how 
will U.S. policy change and what will U.S. policy be to counter 
remaining narcoterrorist elements and other illicit traffickers 
operation in and around Colombia?

    Answer. Should the Government of Colombia and the FARC reach a 
peace agreement, we would not anticipate changing our policy with 
respect to continuing to support our Colombian partners' ongoing and 
effective actions to confront narcotics trafficking and terrorism. The 
United States will continue to promote counternarcotics cooperation in 
Colombia and the region.
    If confirmed, I will lead U.S. country team efforts as we seek 
further to attack and dismantle transnational and organized crime 
structures, including the trafficking of drugs and weapons, and 
associated violence, and strengthen Colombian institutions, in 
coordination with our Colombian partners. Our ongoing efforts in 
Colombia, with more than $8.5 billion under Plan Colombia and its 
follow-on programs, support interdiction and eradication, the rule of 
law, human rights, law enforcement training, and demand reduction. 
Notable achievements include a 53-percent reduction in coca cultivation 
between 2007 and 2012, and a 63-percent drop on pure cocaine production 
potential, from 470 metric tons (MT) to 175 MT, over the same time 
period. Coca cultivation is at its lowest level since 1996. Major 
crimes such as kidnapping and homicide were also down 89 percent and 48 
percent, respectively, from 2002 to 2012.
    In addition, through the U.S.-Colombia Action Plan on Regional 
Security Cooperation, we are joining forces with the Colombians to 
implement capacity-building activities for security personnel in 
Central America and the Caribbean. We began with 39 activities in 2013 
and will increase our cooperation to 152 activities in 2014.

    Question. According to the United States Government, the vast 
majority of illicit air traffic of Colombian-produced narcotics 
emanates from Venezuela. If confirmed, how do you plan to work with our 
Colombian partners to address this cross-border issue between Colombia 
and Venezuela and national security threat to Honduras and the United 
States?

    Answer. U.S. Government estimates indicate that approximately 20 
percent of Colombia's narcotics production is shipped out of the region 
by air, and the majority of that departs from Venezuela. Colombian law 
enforcement authorities have on some occasions been able to collaborate 
with the Venezuelan Government on issues related to counternarcotics, 
but the Venezuelan Government's refusal to work consistently and 
systematically with U.S. authorities on this matter represents a 
significant barrier to a more comprehensive and effective approach. 
While there are clear indications of isolated and episodic cooperation 
with the United States, a sustained and broad effort is missing because 
of the lack of Venezuelan political will to do so.
    If confirmed, I will continue to urge Colombia to find mechanisms 
to work with Venezuelan authorities, where possible, to address this 
issue most effectively.
    The United States, Colombia, and other nations in the region work 
collaboratively on a broad radar detection effort in the Caribbean, 
dedicated to finding and, if possible, to interdicting such traffic. 
These efforts have helped develop an increasingly detailed picture of 
illicit flights outbound from Venezuela, which will be useful for 
planning purposes going forward.

    Question. Will the administration support a peace agreement with 
the FARC that fails to verifiably end FARC members' involvement in 
transnational criminal activities or does not hold fully accountable 
FARC members accused of kidnapping, murder, or committing crimes 
against humanity?

    Answer. The Santos administration has made clear that the end state 
they seek through the peace talks is an agreement that ends the FARC's 
criminal activities and results in a definitive disarmament of that 
group. With respect to accountability, the Santos administration has 
outlined a transitional justice agenda as part of the path to peace, 
and has made clear that crimes against humanity and serious violations 
of international humanitarian law must be identified and judicial 
action taken to hold those most responsible to account. President 
Santos has said that his notion is not to sacrifice justice for peace, 
but rather to achieve peace with the maximum amount of justice. 
Consistent with the government's insistence that nothing is agreed to 
until everything is agreed to, the outlines of any provision for 
transitional justice in an eventual peace agreement are not yet clear.
    We believe that accountability for human rights abuses and 
humanitarian law violations is essential to achieving a durable peace, 
and that this peace negotiation is an important and timely effort to 
achieve these results. As Secretary Kerry noted during his visit to 
Colombia, ``the Santos administration has undertaken a very courageous 
and very necessary and very imaginative effort to seek a political 
solution to one of the world's longest conflicts, and any negotiation 
that can help to strengthen Colombia's democracy, that promotes respect 
for rule of law and human rights, and achieves an enduring peace that 
the people of Colombia can share in, is a welcome development, and the 
United States of America will support that peace.'' These are, first 
and foremost, decisions for the Colombians and their government to make 
about their future. A peace that fails to hold the FARC accountable is 
unlikely to satisfy the Colombian Government or people. We have called 
on Colombia to ensure that any peace agreement adheres to Colombia's 
domestic and international legal obligations.

    Question. In the event of a peace agreement, will there be changes 
in Colombia's counternarcotics and extradition policies?

    Answer. As we have previously stated, we welcome and support the 
efforts by President Santos and the Colombian people to pursue the 
lasting peace Colombia deserves. Our relationship transcends long-term 
security and counternarcotics cooperation. Colombia has been 
consolidating gains internally and leading the region, and helping its 
neighbors who face similar challenges.
    We look forward to continued cooperation on counternarcotics and 
extradition, and if confirmed, I will actively support these critically 
important efforts. According to U.S. Government estimates, the land 
used for coca cultivation decreased by 53 percent from 167,000 hectares 
in 2007 to 78,000 hectares in 2012--the smallest area under cultivation 
since 1996. U.S. Government estimates indicate that there has been a 
63-percent drop in cocaine production potential in Colombia since 2007, 
from an estimated 470 metric tons in 2007 to 175 metric tons in 2012. 
It is precisely Colombia's successful counternarcotics campaign that 
has helped set the stage for the peace process by undercutting funding 
for the FARC.
    With respect to extraditions, as I noted in the December 11 
hearing, we will continue to seek access to individuals who are wanted 
to stand trial in the United States for very serious crimes. If 
confirmed as Ambassador, I will work diligently with appropriate U.S. 
and Colombian authorities to ensure that our bilateral law enforcement 
relationship, including with respect to extradition, remains strong.

    Question. Will you seek assurances that Colombian authorities 
comply with any extradition requests for FARC members indicted in the 
United States?

    Answer. If confirmed, I will vigorously support our ongoing 
efforts, coordinated through the Departments of State and Justice, to 
ensure individuals indicted in the United States are extradited. This 
relationship has been remarkably effective and productive over time, 
with more than 1,500 individuals extradited to the United States over 
the last 15 years.

    Question. In the event of a peace agreement, will there be any 
changes to U.S. policy with regards to the FARC?

    Answer. The FARC was designated as a Foreign Terrorist Organization 
on October 8, 1997, and will remain a designated FTO until that 
designation is revoked by the Secretary of State based on the criteria 
identified by law.

    Question. Is the administration considering, or will consider, 
changes to U.S. policy on Cuba in the event of a peace agreement? 
Please explain.

    Answer. There is no connection between an eventual possible peace 
agreement and U.S. policy toward Cuba.
    The President and his administration remain committed to policies 
that support the Cuban people's desire to freely determine their 
future, that reduces their dependence on the Cuban state, and that 
advance U.S. national interests. In his November 18 speech at the OAS, 
Secretary Kerry echoed President Obama's message that the U.S. 
Government is open to forging a new relationship with Cuba, while 
calling on the Cuban Government to respect the rights of its citizens 
to speak without fear of arrest or violence and to choose their own 
leaders.
    As I noted in the December 11 hearing, I worked on Cuba from 2000-
2005 as the deputy and then director of Cuban affairs. That experience 
gave me a unique and detailed understanding of Cuba, the nature of the 
regime, and the abuses that have been committed by it. If confirmed, I 
will commit to use that understanding to directly discuss Cuba with the 
Colombian Government in order to ensure that our policies to support 
democracy and the Cuban people are fully understood.

    Question. Please explain how the Cuban Government, a U.S.-
designated State Sponsor of Terrorism and the worst human rights 
violator in the Western Hemisphere, serve as guarantor of a ``peace 
agreement'' with the FARC, a U.S.-designated Foreign Terrorist 
Organization?

    Answer. This was a decision of the parties to the talks, the 
Colombian Government and the FARC.
    In August, 2012, the Colombian Government and the FARC announced a 
``General Agreement for the Termination of the Conflict and the 
Construction of a Stable and Lasting Peace.'' That agreement indicated 
that the talks would be established in Oslo, Norway, and that the 
principal venue for the talks would be Havana, Cuba.
    The agreement also established that the peace talks would enjoy the 
``support of the Governments of Cuba and Norway as guarantors and the 
Governments of Venezuela and Chile as accompaniment.''

    Question. The extradition of notorious drug traffickers has been a 
hallmark of our security cooperation with the Government of Colombia. 
In March 2011, the administration failed to persuade President Santos 
to extradite Walid Makled to the United States, who was ultimately sent 
to Venezuela.

  <diamond> What has been the impact of this decision to U.S. 
        counternarcotics and counterterrorism efforts?
  <diamond> Please explain the conditions of Mr. Makled incarceration 
        in Venezuela and what steps have Venezuelan authorities taken 
        to prosecute him and other Venezuelan individuals he has 
        implicated in drug trafficking?
  <diamond> Is it true that Makled, who was wanted in Venezuela on 
        murder charges, is routinely released?
  <diamond> Are you confident about the Venezuelan Government's ability 
        to fully investigate and prosecute the Venezuelan individuals 
        implicated by Mr. Makled?

    Answer. We have and continue to work successfully in partnership 
with Colombia to counter illicit drugs and terrorism through 
interdiction and eradication programs, capacity-building for security 
institutions, and economic and alternative development support to 
consolidation zones. We have achieved dramatic and positive results as 
a result of this cooperation, and if confirmed, I will make this area 
of collaboration a top priority.
    Walid Makled was arrested in Colombia by Colombian authorities in 
August 2010, based in part on information provided by U.S. law 
enforcement authorities. While in Colombian custody, U.S. law 
enforcement authorities had ample access to Makled in order to 
interview him on his criminal activities. The U.S. agencies that took 
part in this effort worked to ensure that the resulting information was 
made available for potential U.S. investigations and prosecutions.
    The United States sought Makled's extradition based on indictments 
for narcotics trafficking handed down by the Southern District of New 
York. Venezuela simultaneously sought Makled's extradition.
    The United States prepared a thorough and convincing extradition 
request, submitted it in a timely manner, and backed it with several, 
direct discussions with the highest levels of the Colombian Government. 
The Colombian Government was aware of the existence of our request, its 
legal sufficiency, and our very strong motivation to have the important 
trafficker face justice in the United States for his serious crimes. 
Ultimately, the Colombian Government approved the Venezuelan request 
and delivered Makled to Venezuela in May 2011. Clearly the United 
States was disappointed by the Colombian Government's decision; we 
firmly believe that trying Makled in U.S. courts would have been a 
better service of justice. The fact that U.S. authorities were able to 
extensively interview him while in Colombia assisted other, related 
investigative efforts.
    We respect the extradition processes of the Government of Colombia, 
which has facilitated the transfer of more than 1,607 suspects to the 
United States since 1997, and we will continue to work together 
actively on this issue. Colombia remains one of our closest 
counternarcotics partners, and our related cooperation spans a wide 
range of programs, from drug eradication and interdiction to 
prosecuting alleged drug traffickers. Our successful, ongoing 
counternarcotics and counterterrorism cooperation with Colombian 
authorities was not affected by this decision. In fact, we have 
achieved important successes in the meantime, and continue to enjoy 
close and cooperative relations with our Colombian counterparts in the 
law enforcement and judicial communities.
    We do not have direct information about Makled's conditions of 
detention in Venezuela, including about whether he is released 
temporarily. Press reports indicate that he was tried on charges of 
narcotics trafficking, money laundering, and murder, beginning in April 
2012. The precise disposition of the trial, including its results, has 
not been made public by Venezuelan authorities.
    The Venezuelan Government has a responsibility to thoroughly 
investigate and effectively prosecute the crimes that it accuses Makled 
of, but has significant credibility problems. We are not confident that 
it will fully investigate and prosecute crimes which come to its 
attention. As the Department noted in the Country Report on Human 
Rights Practices for 2012, ``while the constitution provides for an 
independent judiciary, there was evidence that the judiciary lacked 
independence. There were credible allegations of corruption and 
political influence throughout the judiciary.'' Moreover, former 
Supreme Court Justice Eladio Aponte Aponte asserted there was no 
judicial independence in Venezuela and that senior government 
officials, `from the President on down,' regularly told judges how to 
handle cases coming before their courts.''
    We respect the extradition processes of the Colombian Government 
and if confirmed, I will continue to work closely with you on this and 
other cases. Our extradition relationship with Colombia has yielded 
important results and real justice for very serious criminals.

    Question. It has come to my attention that Portus, a company 
located in Jacksonville, FL, is having difficulty in exporting their 
products to Colombia even after the implementation of the FTA. Are you 
willing to meet with my constituents to discuss the issue in more 
detail so that you may assist them where possible?

    Answer. If confirmed as Ambassador, I will make myself available to 
meet with U.S. firms doing business in Colombia. I would be pleased to 
meet with your constituents to discuss the matter and assist them if 
possible.
                                 ______
                                 

             Response of Catherine Ann Novelli to Question 
               Submitted by Senator Christopher A. Coons

    Question. Ms. Novelli--As I'm sure you're aware, in the last few 
years India has adopted a variety of discriminatory trade and economic 
measures that unfairly disadvantage U.S. companies and U.S. workers, 
including forced localization measures and failure to respect 
intellectual property rights. In June, I joined Senator Menendez and 
other Senators in writing to Secretary Kerry in advance of the U.S.-
India Strategic Dialogue asking him to raise these concerns with the 
Indian Government, making it clear that we will consider all trade 
tools at our disposal if India does not end its discriminatory 
practices. It is our understanding that Secretary Kerry has done so, 
but we must continue to place such concerns at the top of the economic 
agenda with India.

  <diamond> If confirmed, what steps will you take to encourage the 
        Indian Government to address the concerns of the U.S. private 
        sector regarding unfair business practices?

    Answer. If confirmed, I will make India a primary focus country. 
India is widely expected to be the third-largest economy by 2030. U.S.-
India trade has grown nearly fivefold since 2000 to reach $94.5 billion 
in 2012 and defense trade alone has grown to over $8 billion. U.S. 
firms are engaged in nearly every sector, from broadcast media and 
consumer goods, to financial services, but there is a great deal of 
untapped potential.
    I will engage with high-level Government of India counterparts to 
discuss U.S. concerns, India's international obligations and best 
practices. Through steady engagement, I hope to achieve a more level 
playing field that further opens India's markets for U.S. firms for 
trade and investment. I will coordinate closely with U.S. businesses 
and other U.S. Government agencies to effectively and consistently 
engage the Government of India on these challenging issues.
    The State Department will continue to lead and contribute to U.S. 
Government efforts to convey to India the challenges U.S. companies 
face through formal engagements like the Strategic Dialogue and the CEO 
Forum and congressionally mandated reporting like Special 301 and 
Notorious Markets. In addition, I will work closely with our Embassy in 
New Delhi and consulates in India who are, on a daily basis, advocating 
for U.S. firms at all levels. I will also seek to advance U.S.-India 
negotiations on a Bilateral Investment Treaty that would open markets 
and provide protections for U.S. investors.
                                 ______
                                 

                Responses of Bruce Heyman to Questions 
                  Submitted by Senator James E. Risch

    Question. Trade between Canada and the United States will be a 
critical issue in your new post. Each country promotes and restricts 
their industries under different regulatory regimes. As you know U.S. 
softwood lumber industry needs a strong advocate in Canada to build an 
equitable agreement for cross-border softwood trade.

  <diamond> What role do you intend to play regarding the advocacy of 
        U.S. timber interests?

    Answer. The U.S. trade relationship with Canada is of vital 
importance to both of our countries. I understand the Softwood Lumber 
Agreement the United States and Canada reached in 2006 was renewed last 
year until October 2015. The agreement provides a process for 
arbitration of disputes between the United States and Canada, and both 
countries continue to follow this process. If confirmed, I assure you 
that I will advocate for U.S. interests in Canada, including on behalf 
of U.S. timber industry stakeholders, at the federal and provincial 
levels.

    Question. Like a number of other states, Idaho has wrestled with 
the abuse of oxycodone. As a border state, we are particularly 
interested in the dialogue with Canada to ensure abuse deterrent 
formulas of drugs, specifically oxycodone, are approved for sale. The 
Federal Drug Administration only allows the sale of abuse deterrent 
oxycodone in the United States, and both the Office of National Drug 
Control Policy and the FDA have engaged the Canadian Health Minister on 
this issue. Currently the new Health Minister is supposedly considering 
changing Canadian policies regarding access to nonabuse deterrent 
oxycodone. If Canada does not align its policies with the U.S. FDA, the 
older nonabuse deterrent formulations will more easily come across the 
border and harm U.S. citizens.

  <diamond> Do you support coordinating efforts between our countries 
        and will you make it one of your priorities to pursue 
        harmonized policies regarding pharmaceutical safety?

    Answer. The prescription drug abuse epidemic is a shared challenge 
that each of our nations faces. The United States has a strong and 
productive relationship with Canada, and we must work together to 
address this problem.
    One important step to reducing prescription drug abuse is through 
the expanded use of abuse-deterrent formulations for prescription 
drugs. Abuse-deterrent formulations can reduce the potential for misuse 
while providing effective treatment. If confirmed, I will work with 
Canadian officials to encourage the evaluation and use of abuse-
deterrent formulations, along with other important safety measures, to 
reduce the diversion and abuse of prescription drugs on both sides of 
the border.

    Question. An important issue in the Pacific Northwest is the 
Columbia River Treaty between the United States and Canada. Beginning 
in 2024, either nation can terminate most provisions of the treaty with 
at least 10 years written notice. Over the past several months, 
regional stakeholders have been working with the U.S. Entity made up of 
the Bonneville Power Administration and the U.S. Army Corps of 
Engineers to develop a set of regional recommendations to share with 
the State Department. Historically, the issues of flood control and 
power generation have been the focus of the treaty.

  <diamond> As the U.S. Government looks to discuss this treaty with 
        Canada, what do you believe are the top priorities for this 
        treaty?

    Answer. There is a process underway to determine the future of the 
Columbia River Treaty, and the State Department will receive the 
recommendation of regional stakeholders this month. Upon receipt of 
this recommendation, the U.S. Government will conduct an interagency 
review of the current operation of the Columbia River Treaty, and 
determine if renegotiation is in the U.S. national interest. The 
Department of State will coordinate the interagency review. It is too 
early in the process to know what the final recommendations will be, 
but, if confirmed as Ambassador, my priority will be to work 
cooperatively with the Canadian Government to achieve the best possible 
outcome for U.S. interests. If confirmed, I plan to consult closely 
with the U.S. Congress as this process unfolds.
                                 ______
                                 

              Responses of Tina S. Kaidanow to Questions 
                 Submitted by Senator Edward J. Markey

    Question. Your testimony describes one of your focuses as 
countering the messages terrorist groups use for recruitment. Are we 
tying our hands about responding to certain negative messages (e.g., 
claims the use of drone strikes) due to government secrecy about those 
operations?

    Answer. The President is committed to ensuring that U.S. 
counterterrorism (CT) efforts are conducted in a transparent manner. As 
a part of this commitment, in a comprehensive address at the National 
Defense University (NDU) on May 23, 2013, President Obama laid out the 
legal and policy framework for U.S. counterterrorism strategy.
    U.S. direct action operations are only one element within a much 
broader set of policy tools that together implement U.S. 
counterterrorism strategy. Building strong counterterrorism 
partnerships and enhancing partner capacity to address terrorism 
threats are at the heart of that strategy, as is countering the 
radicalism that fuels terrorism. If confirmed as Coordinator for 
Counterterrorism, I will be committed to employing all tools of U.S. 
counterterrorism policy, in particular U.S. efforts to counter violent 
extremism, and where appropriate, countering misinformation regarding 
U.S. counterterrorism efforts. While I, and other CT officials, cannot 
comment on the details or locations of specific counterterrorism 
operations, we aim to achieve the widest possible reach for our CVE 
messaging. Whether through satellite television, radio, or face-to-face 
interactions, CT has committed to undertaking CVE activities with the 
greatest possible breadth and transparency, yet within the bounds of 
our national security needs.
    Challenging the terrorist narrative was the basis for the decision 
to establish the Center for Strategic Counterterrorism Communications 
(CSCC). CSCC directly counters violent extremist propaganda in the 
communications environment; develops and promulgates narratives, public 
communication strategies, and thematic guidance for USG use; identifies 
and facilitates technology solutions and best practices; and recommends 
USG communications capabilities improvements.
    CSCC's work is guided and supported by world-class research, 
academic outreach, and intelligence reporting and analysis. One of 
CSCC's major program efforts is countering the al-Qaeda (AQ) narrative 
and propaganda in digital environments, working in Arabic, Urdu, Somali 
and English, and using text, still images, and video. CSCC's Digital 
Outreach Team (DOT) focuses specifically on al-Qaeda and the 
constellation of like-minded terrorist groups associated and affiliated 
with 
al-Qaeda. The team pushes back against AQ propaganda in interactive 
digital environment-like forums, YouTube, Twitter, and Facebook.

    Question. 22 USC 2349aa-7 states that the Secretary of State is 
responsible for coordinating all assistance related to international 
terrorism which is provided by the U.S. Government to foreign 
countries. Does that include assistance furnished by the intelligence 
community?

    Answer. The State Department is committed to ensuring that U.S. 
counterterrorism foreign assistance is fully coordinated within the 
interagency, and the Bureau of Counterterrorism serves as a focal point 
for the Department within the counterterrorism community. As a result, 
while I cannot comment on intelligence issues, as a general matter our 
awareness of activities throughout the interagency enables us to serve 
in an advisory role on foreign assistance policy and program planning 
efforts and to ensure our overall efforts are coordinated.

    Question. There have been credible reports documented by the United 
Nations, the Afghan Independent Human Rights Commission of detainees 
being tortured in Afghan custody after transfers by U.S. forces. What 
is your office's role in preventing abuses of detainees and other human 
rights violations by foreign intelligence services who either 
participate in joint capture operations or receive funding from the 
United States?

    Answer. I cannot comment on intelligence matters or operational 
matters in this response, but in general the administration has a firm 
policy that individuals who are captured must not be tortured or 
subjected to cruel, inhumane or degrading treatment. If confirmed, I 
would strive to ensure that this policy is upheld on all issues my 
bureau works on.
    Beyond the imperative to uphold touchstone U.S. human and civil 
rights principles in such matters, we work to prevent such practices 
because they can often serve to exacerbate the very conditions that 
lead to radicalization and violent extremist challenges in the first 
place. We believe strongly that effective counterterrorism practices 
must be undertaken within a firm rule of law framework that protects 
civilians and offers adequate civil, legal, and human rights 
protections.
    I would also note that the State Department vets foreign military 
and police participants in capacity-building programs to ensure that 
neither they nor their units are the subject of allegations of human 
rights violations. The Counterterrorism Bureau also includes in its 
capacity-building curricula training modules that reinforce the 
importance of human rights conventions and norms in the conduct of 
counterterrorism operations.
    I am committed to ensuring that the CT Bureau remains active in its 
efforts to ensure that our international CT partners adhere to the 
highest standards for the protection of human rights.
                                 ______
                                 

                Response of Kevin Whitaker to Question 
                 Submitted by Senator Edward J. Markey

    Question. The U.S. Government, as well as other governments, has 
expressed concern over Colombia's draft biologics regulation, which 
includes an abbreviated pathway for the marketing approval of 
biosimilars. This abbreviated pathway does not adhere to standards for 
approval of biosimilars that have been established by the World Health 
Organization (WHO), the U.S. Food and Drug Administration (FDA) and the 
European Medicines Agency (EMA). International attention to this issue 
has resulted in President Santos expressing a willingness to address 
this issue; however, continued engagement on this matter is critical.

  <diamond> As Ambassador, what actions will you take to help ensure 
        that Colombia issues a final regulation for the approval of 
        biosimilars that is in line with other internationally adopted 
        standards that ensure quality and protect patient safety?

    Answer. If confirmed, I will work to engage the Government of 
Colombia at the highest levels to help ensure Colombia's final 
regulation is in line with international standards to ensure quality 
pharmaceuticals and patient safety. Given the timeline, this would be 
an immediate priority.
    The United States is already closely following developments in 
biologics regulation, working in cooperation with stakeholders and 
like-minded governments.
    We will continue to follow up on this issue.
                                 ______
                                 

                 Response of Bruce Heyman to Question 
                    Submitted by Senator Jeff Flake

    Question. It is my understanding that Canada, as a result of a 
judicial decision, has adopted a new patent standard for patents 
relating to the pharmaceutical industry. The result has been that 
patents which were previously approved by Canada's health agency as 
safe and effective for patient use, and which have been used by 
thousands of people, are now being revoked. Another unfortunate result 
has been that competitors of the companies that received the initial 
patent are now able to produce and sell the same drug for the Canadian 
market. Outgoing Ambassador Jacobson has been actively engaged with the 
Canadian Government on this issue.

  <diamond> If confirmed, will you pick up where Ambassador Jacobson 
        left off?
  <diamond> Will you work with representatives of other countries that 
        are similarly disadvantaged by this change in patent standard?

    Answer. Protection for intellectual property rights is the 
foundation of the success of American business, as well as small 
inventors and creators. This protection fosters and promotes investment 
in innovation so important to our economic well-being and global 
competitiveness. All trading partners should respect and properly apply 
the internationally accepted criteria for obtaining a patent, including 
the utility standard.
    If confirmed, I will raise the issue of strong patent protection 
with the key Canadian Government interlocutors who can effect change on 
this issue. I will raise the issue during the course of my courtesy 
calls and continue to press officials until we see progress. I will 
seek to persuade Canadian authorities that effective patent protection 
is in our mutual economic interest and is essential for further 
innovation and investment, and would collaborate with my counterparts 
from other countries with similar concerns. If confirmed, I will engage 
with business stakeholders who have concerns in this area and look to 
Washington agencies and other stakeholders for their input.
                                 ______
                                 

            Responses of Catherine Ann Novelli to Questions 
                   Submitted by Senator John Barrasso

                          presidential permits
    Question #1. Does the State Department require a NEPA review for 
every pipeline connection made to an existing permitted pipeline? If 
not, in what circumstances is it required? Has the State Department 
published its policy in this regard? Where might pipeline owners/
operators locate the State Department's explanation of this policy? 
Does the published policy constitute authority that pipeline owners/
operators can rely upon, or is the policy subject to the State 
Department's ad hoc interpretation?

    Answer. As a general matter, if confirmed, I am committed to 
ensuring that the Department's permit review process is objective, 
transparent and rigorous.
    I understand that the Department's practice is to handle 
Presidential Permit decisions in a way that is consistent with NEPA, 
and that the question of whether a NEPA-consistent review will be 
conducted, and if so, what form it will take, depends on the facts of 
each case. Regarding the question of pipeline connections or any 
particular change that a company may consider to pipeline facilities 
within the scope of a Presidential Permit, the principal question is 
whether the particular change contemplated (type, purpose, location, 
etc.) is consistent with the terms of the existing Presidential Permit. 
If the proposed change is not within the terms of the existing permit, 
then the Department determines, consistent with NEPA, whether issuing a 
new or revised permit would trigger environmental analysis. There are a 
number of sources of policy information available (see list below) for 
pipeline owners/operators and others, though the published policies 
necessarily do not attempt to prejudge inquiries that will vary upon 
the facts.

    1. Executive Order 13337 provides an overview of the overall 
process: http://www.gpo.gov/fdsys/pkg/FR-2004-05-05/pdf/04-10378.pdf.
    2. Department of State NEPA regulations (which in turn reference 
CEQ regulations): http://www.ecfr.gov/cgi-bin/text-
idx?c=ecfr&sid=d3adb2fcdec50e11eb59b2adda 
8b02b2&tpl=/ecfrbrowse/Title22/22cfr161_main_02.tpl.
    3. Department of State Public Notice on Procedures for Issuance of 
a Presidential Permit Where There Has Been a Transfer of the Underlying 
Facility, Bridge or Border Crossing for Land Transportation http://
www.gpo.gov/fdsys/pkg/FR-2005-05-31/html/05-10736.htm.
    4. Interim Guidance for the Use Of Third-Party Contractors in 
Preparation Of Environmental Documents By The Department Of State 
http://www.state.gov/documents/organization/190304.pdf.
    5. Applicants are also welcome to reach out to the Department with 
any questions. Contact information is found on the Department's Web 
site: http://www.state.gov/e/enr/applicant/index.htm.

    Question #2. Pipeline owners must conduct maintenance to keep 
pipelines safe. Does the State Department require a new permit if a 
company: (1) replaces existing pipe, without changing diameter, 
throughput, etc.; (2) adds a relief tank; (3) caps a section of a 
pipeline; (4) adds a block valve; or (5) adds a connection?

    Answer. Pipeline safety is critically important. I understand the 
State Department expects operators to perform ordinary maintenance, 
such as replacing an existing pipe where old pipe is damaged, when 
needed to meet best-practices for pipeline safety. My understanding is 
that permits issued by the Department of State typically authorize the 
permittee to maintain their permitted pipeline facilities, and no new 
permit would be required to undertake such necessary maintenance. 
However, some other modifications could be substantial enough to 
require a review by the State Department. Determining whether a new 
permit would be needed in such cases would require examination of the 
existing permit and the proposed modifications, including any 
explanations and information provided by the permittee.

    Question #3. How does the State Department define the border 
facilities of a cross-border pipeline? Is it the area from the border 
to the first block valve; or from the border to the first terminal? 
What constitutes the facilities in the immediate vicinity of the 
international boundary line?

    Answer. My understanding is that the permits issued by the 
Department of State typically include a description or definition of 
the facilities covered by the permit. I have been informed that the 
Department of State's current practice when it issues a new permit for 
pipeline border facilities is to define the scope of the permit as 
covering the facilities up to and including the first mainline shutoff 
valve or pumping station that is proposed for construction or in 
existence at that time in the United States, and to date the block 
valves the Department has considered have been located far enough from 
the border that it has not needed to consider whether there is a 
minimum distance that must be covered by the permit. Older permits 
describe pipeline facilities in different ways.

    Question #4. States review the environmental impact of pipelines 
built in their States. PHMSA is responsible for pipeline safety. How 
broadly do you construe the State Department's authority to review the 
environmental impacts of changes to existing permitted pipelines? Do 
you believe the State Department is entitled to review any change to 
any section of the pipeline? Is the State Department's review limited 
to only the border facilities?

    Answer. As described above, whether an environmental review will be 
conducted, and if so, what form it will take, depends on the facts of 
each case. I also understand that NEPA-consistent environmental 
analyses may sometimes take into account connected actions, and/or the 
cumulative effects of a potential environmental impact.

    Question #5. Pipeline permits, once granted, are not time limited. 
Companies build pipeline, rail, and trucking infrastructure to respond 
to market conditions, and future connections to pipelines are not 
foreseen when they are initially permitted, although it is the nature 
of pipelines to have connections made to them. Does the State 
Department require a new permit when a permittee adjusts its marketing 
(e.g., given shifts in the market, the permittee responds to 
opportunities that allow product to be delivered to/from the pipeline 
by rail, truck facility, or a new pipeline at a location other than the 
original pipeline termini)?

    Answer. As a general matter, it is my understanding that the 
Department allows some flexibility for permittees to adjust to market 
demand, including in how a product might be handled before or after it 
crosses through the facilities covered by the permit. Whether such 
adjustments require a new permit depends on the facts of each case. I 
understand, for example, that permittees may sometimes want to change 
their business plan for using a pipeline border facility in a way that 
requires new construction or a substantial change in operations that 
may not be authorized by a permit. I would expect the Department of 
State to consult with the permittee to ascertain the nature of any 
proposed changes to the pipeline border facilities or their operation, 
as well as any other information relevant to the Department's analysis. 
As long as a permittee continues to use pipeline border facilities in a 
manner that is authorized in a Presidential Permit, no new permit would 
be required.

    Question #6. Does the State Department afford permittees an 
opportunity to be heard and meet with staff to discuss technical 
issues, as FERC does in prefiling? Where is the protocol for such 
consultations published for public access? Please provide an example of 
when the State Department has evaluated an industry concern that 
resulted in the State Department adopting a change of policy or 
process.

    Answer. The Department of State's permitting process provides 
opportunities for staff to meet with permittees or applicants to 
discuss technical issues before and after they file an application for 
a new Presidential Permit. The Department's 
Web site invites inquiries from applicants: http://www.state.gov/e/enr/
applicant/index.htm; http://www.state.gov/p/wha/rt/permit/. My 
understanding is that most application processes involve significant 
correspondence between the applicant and the Department, and the 
Department routinely accepts requests from applicants for meetings. I 
believe that frank, open communication can help applicants prepare the 
materials that will assist the Department and make the processing of 
applications more efficient. I understand that the Department's current 
approach to defining pipeline border facilities in new permits was 
developed following consultations that included industry.

    Question #7. Does the State Department issue written orders that 
explain its policy determinations? Does the State Department issue 
written orders explaining any decision to conduct an environmental 
review of applications submitted as ``name change'' applications under 
Public Notice 5092? (It states at the end of that notice that if State 
receives information that the transfer potentially would have a 
significant impact on the quality of the human environment, the State 
Department will evaluate what further steps it will take with respect 
to environmental review of the application.)

    Answer. My understanding is that most application processes result 
in significant correspondence between the applicant and the Department, 
and the Department often uses such correspondence to explain specific 
policy determinations made in a particular case. Further, if the 
Department does undertake an environmental review, the resulting 
documentation--whether a Finding of No Significant Impact, an 
Environmental Assessment, or an Environmental Impact Statement--is 
publicly available.

    Question #8. How many experts in pipeline marketing, pipeline 
safety, or pipeline maintenance does the State Department have on 
staff?

    Answer. I understand that the State Department team that processes 
permit applications includes professional staff from several offices 
and bureaus. In addition, the permit process involves significant 
interagency consultations, and when the Department needs additional 
expertise, such as on issues of pipeline marketing, safety, or 
maintenance, the Department reaches out to interagency colleagues. The 
Department may also seek additional expertise from an independent third 
party contractor when conducting an environmental review. (The 
assistance of such contractors is sought consistent with the 
Department's ``Interim Guidance for the Disclosure of Organizational 
Conflict of Interest in the Use of Third-Party Contractors in 
Preparation of Environmental Documents by the Department of State.'')

    Question #9. How long, on average, does the State Department take 
to approve a name-change permit?

    Answer. I understand that, in addition to following the procedures 
specified in E.O. 13337, the State Department also follows guidance 
published in 2005 that describes the specific procedures it follows 
considering a transfer in ownership of a facility that is covered by a 
Presidential Permit. I understand that the time period can vary and 
depends on a number of factors including the resources available to the 
Department, whether the name change request also encompasses other 
issues such as changes to the operations or the border facilities that 
occur in conjunction with a change in ownership or control, the 
availability of accurate information about the pipelines (particularly 
in the case of older facilities), the number and complexity of other 
permit applications under review, the responsiveness of the applicant 
to questions, and the time needed to complete any interagency 
consultations. I understand that many applications involving nothing 
more than a change in ownership or control are relatively 
straightforward and proceed smoothly. As I stated in the answer to 
Question 1, I am committed to ensuring that the Department's review is 
thorough, fair, transparent, and timely.


NOMINATIONS OF HELEN MEAGHER LA LIME, CYNTHIA H. AKUETTEH, LARRY ANDRE, 
                        JR., AND ERIC T. SCHULTZ

                              ----------                              


                       TUESDAY, DECEMBER 17, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Helen Meagher La Lime, of the District of Columbia, to be 
        Ambassador to the Republic of Angola
Cynthia H. Akuetteh, of District of Columbia, to be Ambassador 
        to the Gabonese Republic and to be Ambassador to the 
        Democratic Republic of Sao Tome and Principe
Larry Edward Andre, Jr., of Virginia, to be Ambassador to the 
        Islamic Republic of Mauritania
Eric T. Schultz, of Virginia, to be Ambassador to the Republic 
        of Zambia
                              ----------                              

    The committee met, pursuant to notice, at 3:50 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Coons presiding.
    Present: Senators Coons, Murphy, and Flake.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to call to order this hearing 
on ambassadorial nominees to serve our Nation in Angola, 
Mauritania, Zambia, and Gabon and Sao Tome and Principe. All 
four nominees before us have impressive records of 
accomplishment in the Foreign Service and I look forward to 
hearing your respective priorities for advancing U.S. interests 
in your posts if confirmed. Our four nominees today will serve 
at a particularly significant moment, in which the United 
States is seeking to strengthen its economic ties with Africa 
and engage more deeply to deal with regional challenges and 
security development.
    Our first nominee is Ambassador Helen La Lime, for Angola. 
Angola is one of the largest oil-producing and exporting 
nations on the continent and an important regional power. 
Angola also faces extremes of income inequality and struggles 
with the ramifications of what was a 27-year-long civil war, 
political domination by a small elite, and lack of political 
will to achieve transparency and accountability, and a 
challenging human rights record.
    The United States-Angola relationship is not an easy one. I 
am particularly interested in how we can promote good 
governance, respect for human rights, diversify trade, and 
strengthen our ties with Angola's military.
    For this important post, the President has nominated 
Ambassador La Lime, who is no stranger to diplomacy or Angola. 
A career member of the Senior Foreign Service of the U.S. State 
Department with the rank of Minister Counselor, Ambassador La 
Lime most recently served as DCM and Charge d'Affaires in South 
Africa. She has served as consul general in Cape Town, 
Ambassador to Mozambique, DCM in Morocco, and Director of the 
Office of Central African Affairs.
    Just north of Angola lies Gabon and the islands of Sao Tome 
and Principe. Thanks to its rich natural resources and to 
Gabon's small population, it has the fourth-highest per capita 
income in all of sub-Saharan Africa. However, a third of the 
population lives in poverty. While President Ali Bongo, son of 
Gabon's long-serving President Omar Bongo, has shown some 
reformist inclinations, the political opposition has been 
suppressed and impunity for corruption continues.
    Sao Tome and Principe are located off the coast in the Gulf 
of Guinea, where maritime security cooperation has recently 
become critically important, an issue that Senator Flake has 
championed with my strong support.
    We are considering Cynthia Helen Akuetteh for both Gabon 
and the Democratic Republic of Sao Tome and Principe. Ms. 
Akuetteh, a career member of the Foreign Service, has wide-
ranging experience in Africa and strong mentoring skills. She 
most recently served as Deputy Assistant Secretary in the 
Bureau of African Affairs and has previously served as 
Director, Office of Europe, Middle East, and Africa in the 
Bureau of Energy Resources and as a Peace Corps staff member.
    Next we will consider Mauritania, on the western edge of 
the Sahel, where regional security threats and concerns include 
AQIM and splinter organizations active in neighboring Mali, 
Algeria, and Niger. In addition to challenges relating to 
transnational security threats, Mauritania faces pressing 
socioeconomic challenges with a impoverished society that 
continues to recover slowly from a devastating regional drought 
in 2011. While Mauritania is one of our leading counterterror 
partners in the Sahel, bilateral relations are complicated by 
Mauritania's problematic record relating to democracy and human 
rights, including the persistence of slavery.
    Larry Andre, the nominee for Mauritania, most recently 
served as Director of the Office of the Special Envoy for Sudan 
and South Sudan. Given the long history of development, 
governance and human rights challenges in Mauritania, Mr. 
Andre's recent experience will be particularly relevant. A two-
time DCM, Mr. Andre will bring strong leadership, mentoring, 
and policy skills to a relatively isolated and demanding 
mission.
    Last but certainly not least, we consider Eric Schultz to 
be Ambassador to Zambia. Home to one of the seven natural 
wonders of the world, which some day I want to see, Victoria 
Falls, Zambia draws tourists not only because of its UNESCO 
World Heritage sites, but also for its relative peace and 
stability since independence. Like the other three countries we 
are considering today, Zambia also faces some challenges, 
including some backsliding on democracy, widespread poverty, 
poor health conditions, largely due to the prevalence of HIV-
AIDS.
    Mr. Schultz is a three-time DCM with regional experience 
and an extensive background in economics, security, and 
democratization. At State he has led interagency teams on 
coordinating extensive assistance programs and he has broad 
experience in key Zambian economic sectors, especially finance, 
agriculture, mining, and energy.
    I would like to invite my colleague on this subcommittee, 
Senator Flake, to make any opening comments.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman.
    I have enjoyed meeting each of you and I am always 
impressed with the breadth of experience and knowledge and 
capability those who serve in the Foreign Service bring to this 
mission.
    I would also like to note the presence of my former 
colleague, Mark Green, former Ambassador to Tanzania.
    I appreciate hearing what you plan to do to further the 
relationship of our government and our people and the people of 
the countries in which you will serve. As I said, we are very 
well served, and each of you in your own way have difficult 
assignments, some more so than others, at this crucial time for 
our government, with regard to deepening relationships with 
these countries.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    I would now like to welcome each of our nominees and invite 
you to give your opening statements. I, in particular, would 
like to encourage you to take the time to introduce your family 
and friends who might be here, who we recognize are an 
essential part of supporting your service to our Nation. We are 
grateful for their sacrifices as well as yours.
    We would like to encourage Ambassador La Lime, Ms. 
Akuetteh, and Schultz, and Mr. Andre in that order. Madam 
Ambassador.

  STATEMENT OF HON. HELEN MEAGHER LA LIME, OF THE DISTRICT OF 
 COLUMBIA, NOMINATED TO BE AMBASSADOR TO THE REPUBLIC OF ANGOLA

    Ambassador La Lime. Mr. Chairman, Ranking Member Flake, 
members of the committee, it is a great privilege and honor for 
me to appear before you today as President Obama's nominee to 
be the next Ambassador to the Republic of Angola.
    If confirmed, I look forward to working with you and the 
honorable members of this committee to advance United States 
interests in Angola. I believe that my 32-year State Department 
career, half of it spent working in or on Africa, has prepared 
me for this assignment. I have had many rewarding positions, to 
include service as Ambassador to Mozambique, as deputy chief of 
mission in Pretoria, and most recently as director of outreach 
at the U.S. African Command.
    Service in Angola next, if confirmed, would be especially 
significant on a personal level. I lived there as a child as a 
result of my father's position with Texaco. I hope to have a 
chance to share some of Angola's wonders and history with my 
two children, Matthew and Adriana, who are with me here today. 
I would also like to take this opportunity to thank my family 
and especially my mother and my deceased father for all of the 
support that they have given me throughout my career.
    Mr. Chairman, I would welcome and be deeply honored by the 
opportunity to lead our efforts to encourage Angola to further 
expand its democratic space, to diversify its economy, and to 
strengthen our commercial ties. I look forward also to 
supporting the Angolan Government in its efforts to increase 
economic opportunity and the quality of life for all Angolans.
    Angola has a remarkably young population. It is estimated 
that more than 55 percent of its people are under the age of 
20. Angola's youth are full of hope and promise, and through 
our partnerships our Embassy is working to build good relations 
so together we can lay the foundations for a more prosperous, 
democratic future for this rising generation.
    Mr. Chairman, the advancement of democracy is an important 
component of our Angola policy. A little over a year ago, on 
August 31, Angola held its first successful Presidential 
election. President Jose Eduardo dos Santos became President 
when his party garnered the majority of the votes. We commend 
the Angolan people for this significant democratic milestone.
    We believe it is important for Angola to expand the space 
for democratic debate, to empower civil society, and to 
reinforce democratic institutions. If confirmed, I will support 
Angola's efforts to build upon the gains of the last decade, to 
increase transparency and accountability, and to address the 
persistent challenge of corruption.
    Mr. Chairman, Angola's rich endowment of natural resources, 
oil and diamonds, has fueled a strong economy, made it a major 
sub-Saharan trading partner with the United States, and a 
leading producer of oil. If the vast deep water presalt oil 
deposits prove viable, Angola has the potential to 
significantly increase its oil production in the coming years. 
United States companies have operated there successfully for 
decades, benefiting from, and contributing to, Angola's strong 
economy. Other U.S. companies are now diversifying the U.S. 
commercial relationship with Angola.
    One of the tragic consequences of the long civil war was 
the devastating toll it took on the nation's health delivery 
system. The United States has forged a productive partnership 
with Angola to rebuild their health system. Our mission in 
Luanda partners with international actors and the Angolan 
Government to support the development of an integrated, 
comprehensive, and sustainable health care system.
    Mr. Chairman, whether in the form of United States support 
for the Angolan Government's demining efforts, combating 
trafficking in persons, military-to-military cooperation, or 
outreach efforts to Angolan youth, the U.S. Government has a 
vested interest in helping Angola to reach its fullest 
potential. If confirmed as our next Ambassador to Angola, I 
will continue to promote United States interests while 
vigilantly protecting the safety of our Embassy personnel and 
their families.
    Mr. Chairman and members, I thank you again for this 
opportunity and I look forward to answering your questions. 
Thank you very much.
    [The prepared statement of Ambassador La Lime follows:]

              Prepared Statement of Helen Meagher La Lime

    Mr. Chairman, Ranking Member Flake, and members of the committee, 
it is a great privilege and honor for me to appear before you today as 
President Obama's nominee to be Ambassador to the Republic of Angola.
    Mr. Chairman, Ranking Member, if confirmed, I look forward to 
working with you and the honorable members of this committee to advance 
U.S. interests in Angola. I am confident that based on my 33 years in 
the Foreign Service, I am prepared for the challenges of leading our 
efforts to encourage Angola to further expand its democratic space, to 
diversify its economy and strengthen our commercial ties, and to 
support the Angolan Government in its efforts to increase economic 
opportunity for all Angolans and to improve the delivery of health 
services to its people after decades of war. Angola has a remarkably 
young population--it is estimated that more than 55 percent of Angola's 
people are under the age of 20. These Angolan youth are full of hope 
and promise, and through our partnerships in Angola our Embassy is 
working to build good relations so together we can lay the foundations 
for a more prosperous, democratic future for Angola's rising 
generation.
    I have spent much of the last decade working in southern Africa--
first as our Ambassador to Mozambique, then as the consul general in 
Cape Town, South Africa, and later as our Deputy Chief of Mission and 
Charge d'Affaires in Pretoria. During that time, I witnessed the rise 
of Angola, from the ashes of war to a leader of the subregion. Since 
2011, as Director of Outreach for the United States Africa Command, I 
have observed Angola's continued ascension to political, economic, and 
military leadership throughout Africa. It has been an extraordinary 
transformation, one of which all Angolans should be proud. And yet, 
Angola still faces challenges to realize its fullest potential as a 
prosperous, secure, and democratic nation playing an active and 
supporting role-building peace and stability in the region.
    Mr. Chairman, the advancement of democracy is an important 
component of our policy toward Angola. Positively, Angola held its 
first successful Presidential elections on August 31, 2012. The ruling 
MPLA Party won with a credible 72 percent of the vote, clearly a strong 
majority and enough to control the National Assembly, though noticeably 
down from the 82 percent the party won in legislative elections in 
2008. President Jose Eduardo dos Santos, in accordance with the 2010 
Constitution, automatically became President when his party garnered 
the majority of votes. We commend the Angolan people, who voted 
peacefully in large numbers, in an orderly way, for this significant 
milestone in Angola's young democracy. Despite this success, work 
remains in Angola to expand the space for democratic debate, to empower 
civil society and to reinforce democratic institutions. If confirmed, I 
will work to support Angola's efforts to build upon the gains of the 
last decade, to increase transparency and accountability and to address 
the persistent challenge of corruption. To this end, I applaud the 
Angolan Government's decision to hold local municipal elections--
currently projected for 2015--to enable and encourage citizens to hold 
their governments accountable.
    Mr. Chairman, Angola's rich endowment of natural resources--namely 
oil and diamonds--has fueled a strong economy and made it a major sub-
Saharan trading partner with the United States. In fact, Angola's 
steady and reliable oil production, coupled with Nigeria's production 
issues in the Niger Delta, has resulted in Angolan parity with Nigeria 
as the two leading oil producers in sub-Saharan Africa. If the vast 
deep water presalt oil deposits prove viable, Angola has the potential 
to significantly increase its oil production in the coming years. U.S. 
companies such as Chevron and ExxonMobil have operated successfully for 
decades in Angola, benefiting from and contributing to Angola's strong 
economy. Other U.S. companies are now diversifying the U.S. commercial 
relationship with Angola, including General Electric, which signed an 
agreement early this year to supply 100 locomotives to Angola with U.S. 
content in excess of $150 million. If confirmed, I will work to promote 
expanded and diversified commercial ties between our two countries and 
to encourage Angolan authorities to continue their own program of 
economic diversification so that natural resource extraction is not the 
only engine for growth. I also look forward to engaging with leaders in 
the Angolan diamond industry as the country seeks to become the next 
vice-chair and ultimately chair of the Kimberley Process (KP). Angola's 
leadership of the KP would present a unique opportunity to address 
needed reforms and production issues in the diamond-mining areas near 
the Congo border while also contributing to Angola's ascension as an 
international leader.
    One of the tragic consequences of the long Angolan civil war was 
the devastating toll it took on the nation's health delivery system. 
The United States has forged a productive partnership with the Angolans 
to rebuild their health system and to put it on a sustainable track. 
Largely drawing from the President's Malaria Initiative and the 
President's Emergency Plan for AIDS Relief (PEPFAR), our mission in 
Luanda partners with other international actors and the Angolan 
government to support the development of an integrated, comprehensive, 
and sustainable health system capable of providing quality health care 
services to all Angolans. If confirmed, I will continue to champion 
these efforts as the government seeks to maintain focus on the key, 
cross-cutting theme of Sustainable Institutional Capacity Development 
by providing technical assistance to strengthen the national health 
care delivery system with an emphasis on strategic information, 
reducing child and maternal mortality, raising the status of women and 
girls, and working toward an AIDS-free generation.
    Mr. Chairman, whether in the form of U.S. support for the Angolan 
Government's demining efforts, combating trafficking in persons, 
military-to-military cooperation, or outreach to Angolan youth, the 
U.S. Government has a vested interest in helping Angola to reach its 
potential and to pursue our convergent strategic interests. If 
confirmed as our next ambassador to Angola, I will continue to promote 
U.S. interests and encourage Angola's further political, economic, and 
social development, while vigilantly protecting the safety of our 
Embassy personnel and their families.
    Mr. Chairman and members of this committee, I thank you again for 
this opportunity and look forward to answering your questions.

    Senator Coons. Thank you very much, Ambassador La Lime.
    Ms. Akuetteh.

STATEMENT OF CYNTHIA H. AKUETTEH, OF THE DISTRICT OF COLUMBIA, 
 NOMINATED TO BE AMBASSADOR TO THE GABONESE REPUBLIC AND TO BE 
 AMBASSADOR TO THE DEMOCRATIC REPUBLIC OF SAO TOME AND PRINCIPE

    Ms. Akuetteh. Mr. Chairman, Ranking Member Flake, and 
members of the committee, it is an honor to appear before you 
today. I am truly grateful to President Obama and to Secretary 
Kerry for the confidence that they have placed in me as their 
nominee for Ambassador to the Gabonese Republic and the 
Democratic Republic of Sao Tome and Principe. If confirmed, I 
will be honored to work with you and with other Members of 
Congress to protect and advance United States interests in 
Gabon and Sao Tome and Principe.
    Most of my career has focused on Africa, beginning with my 
time with the Peace Corps, to my recent tour as Deputy 
Assistant Secretary of State for the African Bureau. I look 
forward to serving our Nation again in Africa, a continent full 
of promise, opportunity, and challenges, if confirmed.
    I would not be here today without the endearing love and 
support from my family and I would like to now introduce my 
daughter, Tekki, who is with us today.
    Gabon is an active partner of the United States. United 
States policy priorities are clear: deepening security 
cooperation, especially in the maritime domain; strengthening 
Gabon's democratic processes; enhancing trade and economic 
opportunities that benefit both countries; and assisting Gabon 
in the protection of its unique and incredible natural heritage 
and biodiversity. Our objectives align well with initiatives 
the Gabonese are undertaking under President Bongo Ondimba's 
``Strategic Plan for an Emergent Gabon.''
    Gabon sits on the strategic Gulf of Guinea, an important 
source of oil--of U.S. oil imports. It is the sixth-largest oil 
producer in Africa and the United States is one of its major 
markets. In August, Secretary of the Navy Raymond Mabus had a 
very productive visit to Gabon, where he met with President 
Bongo Ondimba and the Defense Minister. As a result, we have 
sent a Navy assessment team to assist Gabon in the development 
of a comprehensive maritime strategy.
    The professional development of the Gabonese security 
forces continues to be crucial. I will stress to the leadership 
the significance that we place on respecting human rights, 
accountability, and transparency, and if confirmed I will 
enforce implementation of the Leahy law.
    Democratization, transparency, and good governance are 
paramount for development. While Gabon has historically been a 
stable country, it is nevertheless emerging from four decades 
of stagnant development and rule by a single President. Since 
he took office in 2009, President Ali Bongo Ondimba has moved 
to streamline and modernize Gabon's entrenched bureaucracy. He 
has appointed policy experts, published an economic development 
plan, and begun to enforce administrative procedures.
    On the economic front, we are pushing for the further 
opening of Gabon's market to United States trade and 
investment. For example, we have worked with the government to 
ensure that U.S. firms are given full and fair opportunity to 
participate in the development of the hydrocarbon sector. We 
are also helping Gabon diversify its economy through support 
for United States investment in other sectors, such as 
infrastructure development and education.
    We partner with Gabon through the U.S. Fish and Wildlife 
Service to strengthen the capacity of Gabon's parks agency. 
U.S. Marines and Navy teams have trained a unique unit of 
combined park and military police to secure Gabon's remote, 
forested frontier from criminal elements, particularly 
narcotics and other illicit traffickers. Gabon is a partner in 
the Congo Basin Forest Partnership, a United States initiative, 
and if confirmed I will continue to advance our shared work on 
environmental stewardship.
    Let me now turn to the other country to which I am 
nominated to serve as Ambassador, Sao Tome and Principe. An 
island state, it is the second-smallest in size as well as one 
of the poorest countries in the world. U.S. national interests 
are served by its strategic location in the Gulf of Guinea and 
its respect for democracy.
    To further strengthen regional cooperation, the United 
States provides military assistance and training for security 
forces in Sao Tome and Principe. If confirmed, I will continue 
in this endeavor and also to work with the government to 
develop a maritime strategy.
    Most importantly, no goal will be more important to me than 
protecting the lives, interests, and welfare of Americans who 
live and travel in Gabon and Sao Tome and Principe. I look 
forward to leading and fostering the development of the dynamic 
Embassy team that we have in Libreville, which includes the 
first deployment of six Marine security guards.
    Mr. Chairman and members of the committee, if confirmed I 
look forward to serving as the next United States Ambassador to 
the Gabonese Republic and the Democratic Republic of Sao Tome 
and Principe. You will always be welcome.
    Thank you.
    [The prepared statement of Ms. Akuetteh follows:]

               Prepared Statement of Cynthia H. Akuetteh

    Madam Chair and members of the committee, it is an honor to appear 
before you today. I am truly grateful to President Obama and to 
Secretary Kerry for the confidence that they have placed in me as their 
nominee for Ambassador to the Gabonese Republic and the Democratic 
Republic of Sao Tome and Principe. If confirmed, I will be honored to 
work with you and other Members of Congress to protect and advance U.S. 
interests in Gabon and Sao Tome and Principe.
    Most of my career has focused on Africa, beginning with my time 
with the Peace Corps as a staff member, to my recent tour as Deputy 
Assistant Secretary in the Africa Bureau. If confirmed, I look forward 
to serving our Nation again in Africa, a continent full of promise, 
opportunity, and challenges.
    I would not be where I am today without the endearing love and 
support from my family and I would like to now introduce my daughter, 
Tekki, who is with us today.
    Gabon is a stable country and an active partner of the United 
States. U.S. policy priorities are clear: (1) deepening security 
cooperation, especially in the maritime domain; (2) strengthening 
Gabon's democratic processes; (3) enhancing trade and economic 
opportunities that benefit both countries; and (4) assisting Gabon in 
the protection of its unique and incredible natural heritage and 
biodiversity. Our objectives align well with initiatives the Gabonese 
are undertaking under President Bongo Ondimba's ``Strategic Plan for an 
Emergent Gabon.''
    Gabon sits on the strategic Gulf of Guinea, an important source of 
U.S. oil imports. Gabon is the sixth-largest oil producer in Africa and 
the U.S. is a major market for Gabonese oil exports. If confirmed, I 
will work closely with the Gabonese Government to promote security in 
this vital region. In August, Secretary of the Navy Raymond Mabus had a 
very productive visit to Gabon, where he met with President Bongo 
Ondimba and the Defense Minister. As a result, we have sent a Navy 
assessment team to assist Gabon in a review of its maritime forces that 
could inform the future of the development of a comprehensive maritime 
strategy.
    The professional development of the Gabonese security forces, 
including law enforcement (gendarmerie) and peacekeeping, continues to 
be an important priority. If confirmed, I will work closely with the 
Gabonese Government, as well as the Economic Community of Central 
African States (ECCAS) to promote regional stability and civilian 
protection. ECCAS, headquartered in Libreville, has been instrumental 
in the establishment of peacekeeping operations in the Central African 
Republic. To that end, I will stress to the leadership the importance 
we place on respect for human rights, accountability and transparency, 
and I will enforce implementation of the Leahy law.
    Democratization, good governance, and transparency continue to be 
top U.S. priorities. Gabon has been historically a stable country. But, 
Gabon is emerging from four decades of stagnant development and rule by 
a single President. Since he took office in 2009, President Ali Bongo 
Ondimba, in contrast to his long-serving father, has moved to 
streamline and modernize Gabon's ailing and entrenched bureaucracy that 
resists undertaking reforms and inhibits economic growth and 
development. President Bongo Ondimba has appointed policy experts, 
published an economic development plan, and begun to enforce 
administrative procedures.
    President Bongo Ondimba has reversed Gabon's longstanding 
nonaligned policies and strongly supports U.S. objectives on many 
critical international issues. In 2011, Gabon was removed from the Tier 
II Watch list for Trafficking in Persons due to its efforts to arrest 
traffickers, enhance legislation, and protect victims. If confirmed, I 
will continue to engage the government to do more to halt transnational 
crime, including the trafficking of persons. I will also continue to 
engage leaders from the government, opposition parties, and civil 
society to increase respect for human rights and protection for 
fundamental freedoms, and further strengthen Gabon's emerging 
democracy.
    On the economic front, we are pushing for the further opening of 
Gabon's market to U.S. trade and investment. For example, we have 
worked with the government to ensure Gabon's tendering process in the 
oil sector is as fair and transparent as possible; and that U.S. firms 
are given full and fair opportunity to participate in the development 
of the hydrocarbon industry. We are also helping Gabon diversify its 
economy through support for U.S. investment in other sectors, such as 
infrastructure development and education. These are sectors in which 
U.S. firms and educational institutions are already active.
    Gabon is a country committed to environmental conservation. For 
several years USAID, through its Central Africa Regional Program for 
the Environment (CARPE), has partnered with Gabon. In addition, we also 
partner with Gabon through the U.S. Fish and Wildlife Service to 
strengthen the capacity of Gabon's Parks agency. This helps Gabon to 
administer its national parks and other protected areas and combat 
wildlife crimes that often go hand-in-hand with illicit trafficking of 
arms, gems, people, and weapons. U.S. Marines and Navy teams have 
trained a unique unit of combined Gabon Parks and gendarmes (military 
police) to secure Gabon's remote, forested frontier areas from criminal 
elements. Gabon is an important partner in the Congo Basin Forest 
Partnership (CBFP), a U.S. initiative involving the public and private 
sectors and is a key African platform for addressing a host of regional 
issues. Some of the more notable issues include: stemming 
deforestation, combating wildlife trafficking, assuring economic 
livelihoods, and cooperation for climate change mitigation. If 
confirmed, I will continue to advance our shared work on environmental 
stewardship.
    Let me now turn to the other country to which I am nominated to 
serve as Ambassador, Sao Tome and Principe (STP). An island state, it 
is the second-smallest in size as well as one of the poorest countries 
in the world. Sao Tome has a vibrant political scene but severe 
budgetary constraints have hampered the progress of democracy. U.S. 
national interests are served by Sao Tome's strategic location in the 
Gulf of Guinea and its respect for democracy. To further strengthen 
regional cooperation, the U.S. provides military assistance and 
training for security forces in Sao Tome. As with Gabon, following the 
successful visit of the Secretary of the Navy to Sao Tome in August, 
the United States will send a team to assist Sao Tome in the 
development of a comprehensive maritime security strategy. If 
confirmed, I will continue to work with Sao Tome to improve its port 
security through cooperation with the U.S. Coast Guard; and to 
strengthen regional security and improve bilateral trade links with the 
United States.
    And, most importantly, if confirmed, no goal will be more important 
to me than protecting the lives, interests, and welfare of Americans 
living and traveling in Gabon and Sao Tome and Principe. I look forward 
to leading and fostering the development of the dynamic embassy team 
that we have in Gabon, which includes the first deployment of six 
Marine Security Guards since 1994.
    Madam Chair and members of the committee, if confirmed, I look 
forward to serving as the next U.S. Ambassador to the Gabonese Republic 
and the Democratic Republic of Sao Tome and Principe.

    Senator Coons. Thank you, Ms. Akuetteh.
    Mr. Andre.

STATEMENT OF LARRY EDWARD ANDRE, JR., OF VIRGINIA, NOMINATED TO 
      BE AMBASSADOR TO THE ISLAMIC REPUBLIC OF MAURITANIA

    Mr. Andre. Mr. Chairman, Mr. Ranking Member, I am honored 
to come before you as President Obama's nominee to be the next 
United States Ambassador to the Islamic Republic of Mauritania. 
I am grateful to the President and the Secretary for their 
confidence in me.
    I am accompanied today by my daughter, Ruhiyyih Andre, her 
friends, my sister-in-law, and my former boss, Ambassador Mark 
Green.
    Mauritania is a strong partner of the United States in 
northwest Africa. We support efforts of the Mauritanian 
Government, political parties, and civil society, to strengthen 
democratic institutions, to end slavery, and to build a secure, 
united, and increasingly prosperous society that celebrates the 
cultural diversity of this starkly beautiful land.
    The Mauritanian people are menaced by Al Qaeda in the 
Islamic Maghreb. Mauritania's security forces are eliminating 
this menace. We assist their efforts. Mauritania supports its 
neighbor Mali as that country renews its democracy and while 
confronting this same menace of violent extremism.
    Mauritania hosts more than 66,000 Malian refugees. Since 
the Mali conflict began two years ago, the United States has 
provided over $30 million in humanitarian assistance to 
Mauritania to address food insecurity and the needs of the 
Malian refugees.
    Mauritania held the first round of legislative and 
municipal elections last month. The second round is scheduled 
for this Saturday. Presidential elections should be held in 
2014.
    Mauritanians are distancing themselves from a history of 
autocratic governance. Democratic governance, resting on a 
foundation of citizens' rights and integrity in the management 
of public resources, is the surest path to social and economic 
advancement. Inclusive, honest governance is both the best 
response to violent extremists who seek to reverse Mauritania's 
recent gains and an effective means to strengthen Mauritania's 
national unity.
    Like many other multiethnic countries, including our own, 
Mauritania has struggled a national identity that fully 
reflects its cultural diversity. The mix of Arab, Berber, 
Halpulaar, Soninke, and Wolof cultures gives Mauritanian 
society its richness and ties with its neighbors. During my 
first visit in 1984, I was impressed by the Mauritanian 
people's generous hospitality, entrepreneurial spirit, and love 
for poetry and theological debate. Mauritanians of all ethnic 
communities share a deep reverence for their faith. Their 
tradition of pious, spiritual, and scholarly Islam is respected 
throughout the Muslim world.
    My career in Africa began 30 years ago as a Peace Corps 
Volunteer living in a small village. As a diplomat since 1990, 
among several other assignments in Africa, I served as deputy 
chief of mission in Sierra Leone and Tanzania. I served in 
Sierra Leone at the end of a brutal war. Our Embassy played a 
vital role in the launch of a remarkable recovery. In Tanzania, 
our partnership broadened and deepened dramatically, 
contributing to Tanzania's progress while producing 
opportunities for American business.
    As director of the Office of the Special Envoy for Sudan 
and South Sudan over the past 2 years, I admired the 
determination of Sudanese and South Sudanese citizens and of 
our colleagues at the two U.S. missions to build a better 
future in a region long suffering from war and injustice.
    Mauritania has accomplished notable economic growth in 
recent years. If confirmed, I will work with American business 
to expand our growing commercial relations. I feel deeply the 
responsibility of a chief of mission to promote the security of 
resident Americans and U.S. Government employees. I also feel 
deeply the responsibility of a representative of the American 
people to apply our country's influence to the promotion of 
peace and human rights.
    Mr. Chairman, Mr. Ranking Member, if confirmed I will seek 
to build on the achievements of Ambassador Joe Ellen Powell and 
her team in advancing an American-Mauritanian partnership based 
on shared values and shared interests.
    I welcome any questions you may have. Thank you for your 
kind consideration of my nomination.
    [The prepared statement of Mr. Andre follows:]

                Prepared Statement of Larry Edward Andre

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to come before you as President Obama's nominee 
to be the next United States Ambassador to the Islamic Republic of 
Mauritania. I am grateful to the President and Secretary Kerry for 
their confidence in me.
    I am supported here today by my daughter, Ruhiyyih Andre and my 
friends and colleagues from the State Department's Africa Bureau and 
the Office of the Special Envoy for Sudan and South Sudan. My wife, 
Salma Rahman, is serving at our Embassy in Cote d'Ivoire, and so cannot 
be here today. I am thankful for the support I have received from my 
family, friends, and colleagues.
    Mauritania is a strong partner of the United States in Northwest 
Africa. We support efforts of the Mauritanian Government, political 
parties and civil society to strengthen democratic institutions, to end 
slavery and to build a secure, united, and increasingly prosperous 
society that celebrates the cultural diversity of this starkly 
beautiful land. The Mauritanian people are menaced by violent regional 
extremist groups, like al-Qaeda in the Islamic Maghreb. We support 
Mauritania's security forces in confronting this threat. Mauritania 
supports its neighbor, Mali, as that country renews its democracy while 
confronting this same dire threat to regional security. Mauritania 
hosts more than 66,000 refugees from Mali. Since fiscal year 2012, the 
United States has provided nearly $31 million in humanitarian 
assistance to Mauritania to address food insecurity and the needs of 
Malian refugees.
    Mauritania held the first round of legislative and municipal 
elections last month. The second round is scheduled for this Saturday. 
Presidential elections should take place in 2014. Mauritanians are 
distancing their nation from a history of autocratic governance. We 
know that democratic governance, resting on a foundation of citizens' 
rights and integrity in the management of public resources, is the 
surest way to achieve social and economic advancement. Representative, 
honest governance is both the best response to violent extremists who 
seek to reverse Mauritania's recent gains and an effective means to 
strengthen Mauritania's national unity.
    Like many other multiethnic countries, including our own, 
Mauritania has struggled to achieve a national identity that fully 
reflects its cultural diversity. The mix of Arab, Berber, Halpulaar, 
Soninke and Wolof cultures gives Mauritanian society a special richness 
and ties to its neighbors to the North, East, and South. During my 
first visit in 1984, I was highly impressed by the Mauritanian people's 
generous hospitality, entrepreneurial spirit and love for poetry and 
theological discussion. Mauritanians of all ethnic communities share a 
deep reverence for their faith. Their tradition of pious, spiritual, 
and scholarly Islam is respected throughout the Muslim world.
    My career in Africa began 30 years ago as a Peace Corps Volunteer, 
fresh out of college, living in a small village in West Africa. I 
greatly cherish all I learned from my village friends and host family. 
As a diplomat since 1990, among several other assignments in Africa, I 
served as Deputy Chief of Mission in Sierra Leone and Tanzania. In 
Sierra Leone, at the end of a brutal conflict, our Embassy played a 
vital role in the launch of a remarkable recovery. In Tanzania, our 
partnership broadened and deepened dramatically, contributing to 
Tanzania's development while producing new opportunities for American 
business. As Director of the Office of the Special Envoy for Sudan and 
South Sudan over the past 2 years, I greatly admired the determination 
of Sudanese and South Sudanese citizens, and of our colleagues at the 
two U.S. missions, to build a better future in a region long suffering 
from conflict and injustice.
    Mauritania has accomplished notable economic growth in recent 
years. If confirmed, I will work to expand our growing commercial 
relations, working closely with American business. I feel deeply the 
responsibility of a Chief of Mission for the welfare of all resident 
Americans and of all U.S. Government employees. I also feel deeply the 
responsibility of a representative of the American people to apply our 
country's influence to the promotion of peace and human rights.
    Mr. Chairman and members of the committee, if confirmed, I will 
look to you for counsel and support as I seek to build on the 
achievements of Ambassador Jo Ellen Powell and her team in advancing an 
American-Mauritanian partnership based on shared values and shared 
interests. I welcome any questions you may have. Thank you very much 
for your kind consideration of my nomination.

    Senator Coons. Thank you, Mr. Andre.
    Mr. Schultz.

  STATEMENT OF ERIC T. SCHULTZ, OF VIRGINIA, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF ZAMBIA

    Mr. Schultz. Mr. Chairman and members of the committee, it 
is a privilege to appear before you today as the President's 
nominee to serve as the United States Ambassador to the 
Republic of Zambia. I am deeply honored by the confidence that 
President Obama and Secretary Kerry have placed in me. I am 
also grateful for the support of my lovely wife, Klaudia, and 
my older son, Alek, who are with us today, as well as my older 
son, Adam, who is not.
    If confirmed, this will be an exciting time for us to 
return to Africa, a continent my family and I love very much, 
having served only a few years ago in Zambia's southern 
neighbor, Zimbabwe.
    Zambia's economy has averaged better than 6-percent growth 
in recent years, and if confirmed part of my priorities as 
Ambassador will be to expand opportunities for United States 
companies as Zambia pushes in the near term to status as a 
middle-income country. In particular, I am committed to 
increasing United States trade and investment with Zambia. 
United States business can play an important role in Zambia's 
economic future, setting an example, as they have in my 
previous assignments, of how to conduct business honestly, 
without corruption, and bringing jobs to local citizens. And 
those businesses can prosper in the process, doing well by 
doing good.
    I would be especially proud to represent the United States 
in a country with Zambia's record of peaceful and stable 
democratic traditions. Zambia lies at the heart of southern and 
central Africa, a country of stunning beauty that can and 
should be a model of governance for the continent. For that to 
happen, Zambia needs to build even further on its democratic 
achievements. This has been a U.S. Government priority and if I 
am confirmed it will remain so.
    Although Zambia has a justifiable reputation for peace and 
stability and a record of commitment to multiparty democracy, 
recently the United States has expressed increasing concern 
about human rights and the trajectory of good governance in 
Zambia. Zambia successfully conducted elections in September 
2011 that were peaceful and credible and which resulted in a 
peaceful transition of power. Yet, recent by-elections have 
been marked by violence and allegations of abuse of government 
resources, raising concerns about freedom and fairness.
    If confirmed, I will vocally advocate for an open, robust 
dialogue among political parties, media, and civil society in 
order to help strengthen Zambia's democratic institutions, to 
amplify the positive aspects of peace and security, and to 
encourage respect for the rights of all Zambians.
    Promotion of democracy has been a part of my career from 
its beginning. In particular, I have worked to identify and 
promote development of new generations of leaders in my 
previous assignments, and if confirmed this will be among my 
highest priorities in Zambia. A particular emphasis will be 
supporting young leaders in the public sector, private sector, 
and civil society through the President's Young African Leaders 
Initiative.
    One of Zambia's greatest challenges is the crippling burden 
of disease, including HIV-AIDS, tuberculosis, and malaria. More 
than 12 percent of Zambians are HIV positive. In partnership 
with Zambia, the United States invests extensively in health 
assistance programs, including treatment, care, and prevention 
of HIV transmission, as well as building the Zambian 
Government's own capacity to address the health care needs of 
their citizens through a substantial PEPFAR program.
    Since the program's inception in 2004, the United States 
has contributed over $2 billion to Zambia to help arrest and 
then reverse the pandemic's tide. Today over half a million 
Zambians are alive because of the U.S. HIV-AIDS assistance. If 
confirmed, I will continue to constructively implement our 
assistance programs, ensure American taxpayers' funds are spent 
wisely and effectively, and continue to work in partnership to 
increase ownership by the Zambian Government of health care for 
all Zambians.
    A Millennium Challenge Corporation compact with Zambia 
focused on improving access to clean water and sanitation 
facilities entered into force in November. Throughout the 
course of compact implementation, Zambia must continue to meet 
the Millennium Challenge Account indicators--in particular, 
adherence to standards of democracy and governance and respect 
for human rights for all Zambians regardless of race, 
ethnicity, gender, faith, or sexual orientation, as well as 
vigilant implementation of sound fiscal policy. If confirmed, I 
will champion respect for rule of law and the liberties 
guaranteed by Zambia's Constitution.
    I hope my experience and service to our Nation has prepared 
me for this assignment, so that if confirmed I will be able to 
successfully represent the American people. My service has 
convinced me of the importance of American engagement in the 
world and strengthened my belief that effective partnerships 
require both respect and candor. If confirmed, I will work with 
the Zambian Government and the Zambian people to deepen our 
relationship and promote regional stability. It would be my 
privilege to lead Embassy Lusaka as we strengthen this 
partnership.
    I thank you very much for the opportunity to appear before 
you today and I am happy to address any questions.
    [The prepared statement of Mr. Schultz follows:]

                 Prepared Statement of Eric T. Schultz

    Mr. Chairman and members of the committee, it is a privilege to 
appear before you today as the President's nominee to serve as the 
United States Ambassador to the Republic of Zambia. I am deeply honored 
by the confidence that President Obama and Secretary Kerry have placed 
in me. I am also grateful for the support of my wife Klaudia as well as 
that of my two sons, Alek and Adam, all of whom were able to join us 
today.
    If confirmed, this will be an exciting time to return to Africa, a 
continent my family and I love very much, having served only a few 
years ago in Zambia's southern neighbor, Zimbabwe.
    Zambia's economy has averaged better than 6-percent growth per 
year. If confirmed, one of my priorities as Ambassador would be to 
expand opportunities for U.S. companies as Zambia pushes in the near 
term to a status as a middle-income country. In particular, I am 
committed to increasing U.S. trade and investment with Zambia. U.S. 
business can play an important role in Zambia's economic future, and 
those businesses can prosper in the process--doing well by doing good. 
In all of my previous assignments, American businesses set an example 
of how to conduct business honestly, without corruption, and they 
brought jobs to local citizens.
    I would be especially happy to represent the United States in a 
country with Zambia's record of peaceful and stable democratic 
traditions. Zambia lies at the heart of southern and central Africa, a 
country of stunning beauty that can and should be a model for the 
continent. For that to happen, Zambia needs to build even further on 
its democratic achievements. This has been a U.S. Government priority, 
and if I am confirmed, it will remain so. Although Zambia has a 
justifiable reputation for peace and stability and a record of 
commitment to multiparty democracy, over the past year, the United 
States has expressed increasing concern about human rights and the 
trajectory of good governance in Zambia. If confirmed, I will encourage 
Zambians to uphold the standards they have set for themselves on human 
rights and rule of law, recognizing that democratic principles are in 
Zambia's own interest, and central to U.S. policy.
    If confirmed, I will work to strengthen our partnership to amplify 
the positive aspects of peace and security and encourage respect for 
the rights of all people and the institutions of a strong democracy. 
Zambia successfully conducted elections in September 2011 that were 
generally peaceful and credible and which resulted in the peaceful 
transition of power. Yet, recent regional by-elections have been marked 
by violence and allegations of abuse of government resources, raising 
concerns about freedom and fairness. If confirmed, I will vocally 
advocate for an open, robust dialogue among political parties, media, 
and civil society in order to help strengthen Zambia's democratic 
institutions. In fact, promotion of democracy has been a part of my 
career from the beginning. In particular, I have worked to identify and 
promote development of new generations of leaders in the former Soviet 
Union and in Africa, and if confirmed, this will be among my first 
priorities in Zambia. A particular emphasis of mine will be supporting 
young leaders in the public sector, private sector, and civil society 
through the President's Young African Leader's Initiative.
    One of Zambia's greatest challenges is the crippling burden of 
disease, including HIV/AIDS, tuberculosis, and malaria. More than 12 
percent of Zambians are HIV positive. In partnership with Zambia, the 
United States invests extensively in health assistance programs, 
including treatment, care, and prevention of HIV transmission as well 
as building the Zambian Government's own capacity to address the health 
care needs of their citizens through a substantial PEPFAR program. 
Since the program's inception in 2004, the United States has 
contributed roughly $2.25 billion to Zambia to help arrest and then 
reverse the pandemic's tide. Today over half a million Zambians are 
alive because of U.S. HIV/AIDS assistance. If confirmed, I will 
continue to constructively implement our assistance programs, ensure 
American taxpayers' funds are spent wisely and effectively, and 
continue to work in partnership to increase ownership by the Zambian 
Government of health care for all Zambians.
    A Millennium Challenge Corporation Compact with Zambia focused on 
improving access to clean water and sanitation facilities in the 
capital city of Lusaka entered into force on November 15, 2013. 
Throughout the course of compact implementation, Zambia must continue 
to meet the Millennium Challenge Account indicators--in particular, 
adherence to standards of democracy and governance and respect for 
human rights for all Zambians, regardless of race, ethnicity, gender, 
faith, or sexual orientation as well as vigilant implementation of 
sound fiscal policy. If confirmed, I will champion respect for rule of 
law and the liberties guaranteed by Zambia's Constitution.
    If confirmed, I will also serve as the United States Special 
Representative to the region's economic group, the Common Market for 
Eastern and Southern Africa (COMESA), which is based in Lusaka. I look 
forward to working with COMESA's leadership to support their efforts to 
promote intra-African trade, remove trade impediments, and secure 
favorable conditions for long-term investment, development, and 
diversification of trade in the COMESA region--all of which can help 
accelerate growth throughout the region and potentially benefit 
American companies who do business in the region.
    I was most recently the Deputy Chief of Mission at the U.S. Embassy 
in Kiev, Ukraine, where I partnered with an exceptional Ambassador 
conducting a full and challenging bilateral relationship in a large and 
strategically important country. One of our top priorities was the 
security of the mission, and if confirmed, I promise to make security, 
especially the safety of our employees, job one.
    Prior to Kiev, as Minister Counselor for Economic Affairs at the 
U.S. Embassy in Moscow, I led our complicated economic relationship 
with this key trading partner. Throughout my career, I have been 
dedicated to building economic ties with other countries and increasing 
American opportunities abroad, while at the same time upholding our 
fundamental principles, including ensuring the right of individuals to 
have governments that represent their interests.
    Finally, as Deputy Chief of Mission in Harare, I worked tirelessly 
to support the Zimbabwean people's efforts to have a government that 
respected the right to freely express their opinions, assemble, and 
vote without fear of retribution.
    I hope my experience in service to our Nation has prepared me for 
this assignment so that if confirmed, I will be able to successfully 
represent the American people. My service has convinced me of the 
importance of American engagement in the world and strengthened my 
belief that effective partnerships require both respect and candor. If 
confirmed, I will work with the Zambian Government and the Zambian 
people to deepen our relationship and promote regional stability. It 
would be my privilege to lead Embassy Lusaka as we strengthen this 
partnership.
    I thank you for the opportunity to appear before you today. I am 
happy to address any questions.

    Senator Coons. Thank you very much, Mr. Shultz. Thank you 
to all four of our ambassadorial nominees.
    I will start with Ambassador La Lime. First, Angola is a 
very important player in southern Africa, with a fairly capable 
military force. Given your previous role in AFRICOM, I would be 
interested in your thoughts about why our security cooperation 
with Angola has been relatively limited, what constrains that, 
and what opportunities there are for deepening and 
strengthening the military-to-military relationship and how we 
might encourage or support increased Angolan contributions to 
AU-led peacekeeping operations such as the one we discussed 
just before this for CAR?
    Ambassador La Lime. Thank you for the question, Mr. 
Chairman. Let me start first by addressing the issue of the 
Gulf of Guinea. Angola has been active in the regional effort 
in the Gulf of Guinea and has signed on to the code of conduct 
that was recently agreed to at a meeting in Cameroon this past 
June. This code of conduct requires the countries of the region 
to collaborate and to build Coast Guard capacity.
    Yes, Angola does have a very strong military. It is my hope 
that if confirmed I can work with the Angolan Government to use 
their capacities to develop greater Coast Guard proficiency 
across the region.
    I would also like to see Angola take a more active role in 
peacekeeping opportunities. I was pleased to see that, with 
regard to the effort in the CAR, Angola will be using its 
considerable lift capability to assist there with the transport 
of vehicles. It is my hope, if confirmed to be Ambassador for 
Angola, to engage with the Angolan Government to promote 
stronger mil-to-mil cooperation. I believe that my previous 
service at the U.S. Africa Command positions me to engage in 
that dialogue.
    Senator Coons. I agree. Thank you.
    Ms. Akuetteh, how do you see our potential partnership 
going forward with Gabon? I was interested in reading the 
material on the Congo Basin Forest Partnership. I had a great 
conversation previously with the Gabonese Ambassador about 
their remarkable biodiversity. They have the largest population 
of forest elements, for example, in central Africa. You 
highlight in your opening statement some concerns about the 
intersection between wildlife poaching and wildlife habitat.
    How do we strengthen and sustain that? How do we go about 
that partnership?
    Ms. Akuetteh. Thank you very much, Senator, for that 
question. Gabon itself is very, very interested in partnering 
with the United States, forging a stronger relationship. 
Through AFRICOM we have been working with them to train their 
park services to counter narcotics and other illicit 
trafficking. We are also looking to work with them through the 
U.S. Fish and Wildlife Service to do more, as you said, to 
support conservation, to develop the park service. This will 
continue to be a priority for me as we go forward. It is 
something that is very much in the mutual interest of both of 
our governments.
    Senator Coons. Sure. Thank you.
    Mr. Andre, as you mentioned in your testimony, Mauritania 
has, despite a long tradition of poetry, theology, and piety, 
it has suffered somewhat from domestic radicalization. Some 
Mauritanians have been leaders in AQIM as well as some of its 
splinter groups and in core al-Qaeda. To what do you attribute 
the increased radicalization of Mauritanians? What steps is the 
government taking to improve its own security against regional 
threats, and to what extent is Mauritania being used as a 
training ground or a safe haven for these regionally 
significant players?
    Mr. Andre. Senator, on the last point, the Mauritanian 
military has been extremely effective, both in absolute terms 
and relative to others in the region, in defending their 
borders, especially their border to the east, to prevent 
infiltration and in policing, controlling, a huge space. We are 
talking about a million square miles and only 3.3 million 
people. It is not a sub-Saharan country; it is mostly a Saharan 
country, 80 percent, so a lot of very remote areas.
    But there have not been any attacks by al-Qaeda since 2011. 
Between 2005 and 2011 there were kidnappings, attacks on 
foreign missions, murders of aid workers and tourists, and 
quite a number of attacks that took the lives of the 
Mauritanian military.
    They have the political will, and they began with a good 
amount of capability and that capability has been greatly 
enhanced through our partnership. Now, that is on the military 
side.
    There has also been a lot of organization by the government 
and civil society and religious leaders to amplify the voice of 
those who are champions of traditional Mauritanian Islam. A lot 
of it is based on the Sufi brotherhoods that have come down 
from Morocco and it does emphasize spiritual aspects and it is 
quite anathema to those who are pushing these foreign-sourced 
ideas of violent extremism. Now, there are some that have 
fallen to the siren call of foreign-based radical movements. 
But there has been a good deal of success in Mauritania of 
countering those messages.
    Senator Coons. That is encouraging.
    Mr. Schultz, if I might. You mentioned in your testimony 
that Zambia has one of the world's highest HIV-AIDS 
prevalences. It has impressive economic growth, but obviously 
the humanitarian burden of HIV-AIDS, as well as tuberculosis 
and malaria, have made them a significant U.S. aid recipient. 
We have got an effective partnership. What do you see as the 
trajectory of our health programs in Zambia? We have made 
significant progress, I think, in Namibia and Botswana and in 
South Africa in sort of bending the curve and in sharing both 
the resource obligation and the opportunity. What do you see as 
the future trajectory for our health partnerships in Zambia and 
how do we make them more effective and less costly to the 
United States in the long run?
    Mr. Schultz. Mr. Senator, thank you very much for that 
excellent question. I frankly was a little bit surprised by the 
total amount of assistance that we have given to Zambia for 
HIV-AIDS when I was reading in, and preparing for, this 
assignment. In fact, my last assignment was Ukraine. The sum 
total of assistance that we have given to Ukraine in 20 years 
is $2 million, less than what we provide to Zambia. So it is an 
enormous amount of money.
    It has gone to fix a huge problem. It has been enormously 
successful. Thanks to American assistance, the pandemic in 
Zambia really has truly been stopped, arrested, and it is 
beginning to decline. My sense is that this is not the time for 
us to be thinking about stepping back from that. We want to 
continue to provide assistance, to eradicate HIV-AIDS in 
Zambia.
    That said, the Zambians can and should do more. I think my 
understanding is that they are in fact trying to do more. 
Although they have had very significant economic growth over 
the last 10 years, it is still a relatively poor country. In 
some parts of Zambia as much as two-thirds of the population 
lives below the international poverty line. So we have to be 
realistic about what they can do.
    I think my role as Ambassador will be to encourage them to 
do as much as possible and to continue to urge them to take on 
responsibility themselves for the health care of Zambians.
    Thank you, Senator.
    Senator Coons. Thank you.
    Senator Flake.
    Senator Flake. Thank you. I appreciate the testimony.
    Ms. La Lime, what can we do that we are not doing right now 
with regard to Angola or to expand on what we are already doing 
to better the relationship? It has been a tenuous relationship 
with the government, let us face it. It has origins back in the 
cold-war times. But we have helped them on public health 
issues, I understand, and also land mine abatement. Is that 
still an issue? Are we still working with them on that issue on 
land mines?
    Ambassador La Lime. Thank you for the question, Senator. It 
is important to approach the relationship with Angola, I think, 
as a partnership of equals and one where the United States is 
ready to support Angola's efforts to diversify its economy and 
to increase prosperity for all of its citizens.
    It is important to mention, I think, that the Government of 
Angola has done a lot of planning in terms of its development. 
They have a national development plan. They have various 
separate development plans to cover the area of agriculture, 
infrastructure development, education, and health. I see the 
United States being there to offer technical assistance that 
the Government of Angola would request of us in a relationship 
of equals as an important way to improve the relationship and 
to continue to build on the work of my predecessor, Ambassador 
McMullen.
    Yes, we have been active in the area of demining in Angola. 
Our total contribution to that effort stands at about $103 
million. We are continuing there with an investment of $6 
million a year to clear the country of landmines so that the 
government's priority goal of developing its potential in the 
area of agriculture can be reached.
    I think if we can be seen as a partner of the country, 
working with Angola's other partners--we are certainly not the 
only one--that we can make progress in developing this 
relationship, and if confirmed I look forward to attempting 
this.
    Senator Flake. Thank you. I appreciate that.
    Ms. Akuetteh, we have a resolution coming forward with 
regard to maritime security. You and I spoke about my concerns 
that we not let the situation in the Gulf of Guinea get 
anything like it got on the other side of Africa. Are we doing 
enough there? What should our priority be at this time?
    Ms. Akuetteh. Thank you very much for that question, 
Senator. I think we are making very important progress with 
regard to maritime security. The countries of the region 
certainly recognize that, and I think one of the very 
encouraging signs is that they themselves are working together 
as a region, that they are doing intelligence-sharing, that 
they have signed, as Ambassador La Lime indicated, a code of 
conduct, where the countries themselves are sharing 
information, doing training. We also will be doing training in 
the spring, doing naval exercises. There is more that we can 
do, particularly as we look at the high seas. I think 
strengthening the capacity of those countries to protect their 
own borders is very critical and I am very encouraged by the 
Secretary of the Navy's visit in August to Gabon and also Sao 
Tome and Principe and the fact that we are assisting them with 
an overall maritime security strategy.
    Senator Flake. I appreciate that. I hope that, if there are 
things that we ought to be doing in the Senate and the House, 
that you will let us know.
    Ms. Akuetteh. Yes. I very much look forward to working with 
you if confirmed.
    Senator Flake. Thank you.
    Mr. Schultz, what is all this on Victoria Falls? Is it in 
Zimbabwe? You served in Zimbabwe and now Zambia.
    Mr. Schultz. Mr. Senator, thank you very much for that 
controversial question. [Laughter.]
    When I served in Zimbabwe, of course it was in Zimbabwe. 
Now that I am, if confirmed, going to Zambia, it is clearly in 
Zambia.
    Senator Flake. You are a diplomat.
    With regard to development of Zambia, you mentioned that 
one of your priorities is to make sure that the United States--
that we further our commercial relationships with Zambia. There 
we do have a competitor, China in particular. They are into 
mineral extraction in a lot of areas of Africa, including 
Zambia. What can we do to help U.S. companies feel welcome 
there? Are these rule of law issues, contracts? Where do we 
need to work to encourage U.S. cooperation there?
    Mr. Schultz. Thank you again. It is a superb question. The 
thing that actually sticks out to me about Zambia's economic 
relations is that China is their No. 1 economic partner. The 
United States is 11th. The Chinese total stock of investment is 
over $2 billion. That is also true of South Africa and the 
United Kingdom. The United States by contrast is $140 million.
    I am not sure that the issue in Zambia is a lack of a 
welcome for American companies. I think it is a question of 
getting American companies interested in Zambia and 
understanding the potential to be successful there. The country 
has enormous agricultural potential. It has enormous tourist 
potential. Victoria Falls is just one small part of that, 
really. And of course there is mining. It is the world second- 
or third-biggest exporter of copper.
    So the opportunities are there for American businesses to 
be very successful. I see it as my job, if confirmed as 
Ambassador, to try to attract American companies to Zambia. And 
once they come, of course, then it is also my responsibility as 
Ambassador to protect them, to make sure that they are treated 
fairly and the same as all the other companies in the country.
    Senator Flake. Thank you.
    Mr. Andre, obviously we are concerned about Al Qaeda in the 
Maghreb. What is Mauritania's biggest challenge? The extreme 
poverty we have seen in other areas that lends to people 
latching onto movements that they would not otherwise latch 
onto? Is it a function of cooperating on intelligence issues 
with the government? Where is the biggest challenge that we 
have in bettering the situation so that the probability is that 
this will not be a problem going forward?
    Mr. Andre. Sir, I would say if you look at where the 
terrorists are drawn from, it is often the middle class, those 
who actually become the foot soldiers. It is not those who are 
the most poor. That said, a rising successful country gives 
less reason for frustrated young people to look for radical 
solutions outside their own local context.
    In fact, Mauritania has been showing greater success. Its 
economy has been growing at a significant rate for the last few 
years. We would look to see that continue. We would look to see 
their democratic institutions, which are fragile, deepen and 
that people see that they can have a successful life following 
what have been traditional patterns in Mauritania when it comes 
to these sorts of behavior.
    That said, Mauritania will not advance and become a fully 
successful modern country if they do not take care of certain 
very severe issues that are holding them back. First on that 
list is slavery, the institution of slavery.
    Senator Flake. How about intelligence? Do we have good 
intelligence cooperation with their government?
    Mr. Andre. Yes, the answer to that is yes. In my 
consultations with both our military colleagues and our 
intelligence colleagues, they are big fans and are quite happy 
with the fulsome cooperation that they are receiving.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you all.
    Senator Coons. Thank you, Senator Flake.
    I would like to welcome Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome to all of you. I just have one question with 
respect to Angola. I was struck in sort of looking at the 
materials in preparation for this hearing how substantial U.S. 
imports from Angola have dropped in recent years, from I guess 
about 18 billion in 2008 to around 9.6 billion. I do not know 
all the underlying reasons for that, but I assume some of it is 
that we have just a decreasing demand for foreign oil, which is 
going to be the story of this country, hopefully, for a long 
time into the future.
    Meanwhile, we have seen substantial investment in Angola 
from the Chinese, who, although they are developing their own 
internal energy resources, that is certainly not enough to 
quell their interest in developing more avenues to import 
foreign natural resources.
    So I guess my question is, given that trendline is likely 
to continue, that Angolan oil will probably be less to us and 
more to the Chinese, and given the sort of fits and starts of 
our relationship there, how do we compare with the Chinese in 
terms of the future scope of our partnership and of our 
investments there? Do you foresee that our interests there 
will--that our exports coming out of Angola will continue to 
decline as foreign oil becomes less and less important? And do 
you perceive that Chinese interests there and exports will 
continue to increase as they pump more and more money into that 
sector?
    Ambassador La Lime. Thank you for that question, Senator. 
The Chinese--the partnership that Angola has with China is a 
very strong one. Fifteen percent of China's oil comes from 
Angola; 40 percent of Angola's oil goes to China.
    And yes, the levels of trade with us have declined because 
of the development of our own oil sector. But I do not think 
that that means that we are on a path toward greater decline if 
we are able to participate in the diversification of the 
economy that the Angolan Government is currently so focused on. 
They had in the past and they hope to develop again huge 
potential in the agricultural sector. Opportunities for U.S. 
companies in the area of electricity, natural gas, water.
    So I think the issue is more developing a level playing 
field where American companies can compete with other 
companies. If that is the case, we bring expertise, technical 
abilities that the Angolan Government or the Angolan economy 
needs, has wanted, and has drawn upon in the past. So I believe 
that it is there.
    Senator Murphy. Just toward that goal of achieving a more 
level playing field for American businesses--and I apologize if 
these questions have been asked, but the IMF has a pretty 
substantial commitment to Angola today. What strings related to 
transparency does that money come with, and is there an 
expectation that that IMF commitment will allow for some of the 
reforms to be made?
    Ambassador La Lime. The IMF had a standby arrangement with 
Angola. It was concluded in 2012, successfully concluded, and 
that arrangement has produced very positive results--greater 
fiscal transparency; better management of budgets; the 
publication of budgets; the publication of implementation of 
the execution of budgets. So yes, it has produced good results. 
I think it is important that we not lose the groundwork, the 
progress that has been made, and I intend to make that an 
important area of our collaboration.
    We, through the Department of the Treasury, are offering 
technical assistance to Angola as they develop a national debt 
strategy. We are also working to build capacity within the 
Ministry of Finance in connection with that national debt 
strategy.
    I think it is important that we identify other areas for 
collaboration to ensure that public funds continue to--that the 
progress made in managing public funds continues to be 
realized.
    Senator Murphy. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Murphy.
    With the permission of my colleagues, I just wanted to ask 
one last question of all of you, because I think this has 
interest for all three of you, which is essentially: How do we 
grow the U.S. engagement, economic engagement, with all four of 
the countries to which you will hopefully be posted? Nominee 
Schultz specifically spoke to the compact with Zambia and the 
significant investment there by China and the need to help 
introduce American companies to the potential of Zambia. I 
think it is a uniquely positive tool for accomplishing that.
    In the other three countries, there is significant 
opportunity for us, whether in oil or in a diversified economy, 
and we face real challenges, and that the Chinese economic 
relationship has eclipsed ours significantly, particularly in 
Mauritania and Angola.
    How would each of you in turn suggest that we do a better 
job as a country in simultaneously advocating for the values 
that we bring--democracy; transparency; human rights; 
inclusiveness; diversity--while facing the challenge 
competitively of an expansive Chinese presence, given that 
China frankly does not bring a comparably difficult value 
agenda for our partner countries to embrace. So they do not ask 
questions about slavery. They do not press on issues of 
multiparty democracy and journalistic freedom. They do not 
raise issues that provide challenges in terms of transparency.
    So how do we balance those two? How will you balance those 
two if confirmed to the countries in which you hope to serve? 
If you would, Ambassador.
    Ambassador La Lime. Thank you for that question. I think it 
is a central issue in the relationship with Angola and it is 
one on which I intend to focus, first of all by engaging with 
the United States company presence in Angola, which is very 
strong. American companies worked in Angola throughout the 
civil war and continue there. You have companies that are 
directly involved in oil, but also the secondary service sector 
companies, and the companies that are providing services in 
connection with the development of that oil.
    I think it the fact that the Angolans want the United 
States involved in their economy as they seek to diversify. 
They need our expertise, they need our skills. But to attract 
us, to get us there, they need to provide a level playing 
field.
    Well, I hope to maintain that dialogue with the United 
States companies and with the Government of Angola. We also 
have a trade and investment framework agreement between the 
Government of Angola--we hope to have another meeting on this 
trade and investment framework agreement in Washington in 2012. 
I see that as an opportunity to continue the dialogue and to 
raise issues that we may have at that time, with the 
expectation that we will be able to work on this 
constructively.
    Senator Coons. Good. Thank you.
    Ms. Akuetteh.
    Ms. Akuetteh. Thank you very much.
    Gabon very much wants U.S. investment, very much wants to 
diversify its economy, very much wants U.S. expertise. So that 
is a big plus in terms of moving that agenda forward.
    We are working on a bilateral investment treaty with Gabon. 
What I have said to governments when I was serving as the DCM 
in Burkina Faso and DCM in Cote d'Ivoire in response to their 
clamoring for U.S. companies because of the corporate behavior 
and ethics that we model--that it is very important to have the 
right investment climate to attract U.S. companies.
    President Bongo Ondimba seems to get that. In his emergent 
Gabon he talks about transparency. He talks about good 
governance. So it is working with the Gabonese and it is 
important that they continue on that trajectory. I think there 
are enormous opportunities, not just in the oil sector, but in 
other sectors. We have Bechtel for example working in Gabon to 
assist in the development of their overall infrastructure plan. 
These are all very, very positive signs. I think I am coming at 
a wonderful time.
    Senator Coons. Mr. Andre, is it a wonderful time in 
Mauritania?
    Mr. Andre. It is a wonderful time in Mauritania, and I will 
cite you some figures. Sir, in 2009 U.S. exports to Mauritania, 
$56 million. Now, that, frankly, is not all that much relative 
to our exports to any number of other countries. By 2012 it was 
$290 million. Already this year we have signed $200 million in 
contracts with U.S. earthmoving, excavation, mining-related 
equipment producers, with signs there will be more to come.
    So the trend is a positive one. There are some real issues. 
One of them is Mauritania ranks 173 out of 189 on the World 
Bank's ease of doing business scale. They have some work to do, 
and as friends of the Mauritanian people and as partners of the 
Mauritanian Government we can help point out what they seem to 
want to do but do not quite know how, to get our advice to be 
considered.
    Frankly, corruption is an issue and that is an issue that 
is greatly debated within Mauritania. How do you find the 
balance between our policy prescriptions, our human rights 
interests? It is a matter of partnering with Mauritanians, who 
see that it is required that they focus on these fronts to 
advance their own country. We, our friends the Mauritanian 
people, partner with the government and we find individuals 
that we can work with on each of these issues.
    Finally, on China, about 50 percent of exports are going to 
China. China is very much involved in the infrastructure market 
and in the consumer market in Mauritania. However, if there 
gets to be more competition, one thing we know about 
Mauritanians: They are quite capable of driving a hard bargain. 
They are quite capable of determining value for themselves. 
Presented with more choices, they can decide what is quality 
and what is not. So I am quite confident they can make those 
choices.
    Senator Coons. Thank you, Mr. Andre.
    Mr. Schultz, if you might round out the question, and if 
you could speak to MCC and its role in strengthening economic 
ties.
    Mr. Schultz. Thank you very much for the question. First I 
would say that the fact that Zambia has a relatively 
competitive political system imposes a kind of accountability 
on corruption, basically. In that environment, I actually think 
that American companies might have an advantage in that they 
have a reputation for doing business cleanly. That is actually 
something that I like to sort of push when, if I am confirmed 
and when I am in Zambia.
    I am not sure if I should say the opportunity or the 
fortune in some of my previous assignments to work in economies 
where corruption was an issue. What I found with most of those 
economies was that one of the key checks on government 
corruption is actually an independent judiciary. So actually 
another of my priorities is to work closely with the Zambian 
judiciary, which we are already doing to a certain extent, to 
try to create a more accountable system in Zambia.
    With respect to the MCC, our particular compact with Zambia 
is for about $355 million. It is to build a water sanitation 
plant in Lusaka, in greater Lusaka. It is obviously a wonderful 
opportunity for the Zambian people to have clean drinking 
water. We are not at the stage yet where we are even looking at 
who we are going to give that contract to. I tend to think it 
would be very nice if that contract went to an American 
company, but we have an open bidding process through the MCC.
    So I guess my point would be that the real value of the MCC 
might be as a way to attract the attention of American 
companies, as I was referring to earlier. I think there is an 
opportunity there if they choose to take it, and perhaps we can 
use the MCC as a way to attract their attention and get them to 
come to Zambia.
    I will say this just in closing, that a couple years ago we 
had the first reverse trade mission to Zambia. We need to do 
more of this, get more companies to come, get more to see the 
opportunities that are available, not just in Zambia.
    Senator Coons. Thank you very much. I would like to thank 
the entire panel. I would like to thank, if I got them right: 
for Ambassador La Lime, your mother I think is here. Your 
daughter--is it Tekki?--was wonderfully attentive here.
    Ambassador Green had joined us previously, and your 
daughter--is it ``Ruhiyyah''?
    Mr. Andre. ``Ruhiyyah.''
    Senator Coons. And Klaudia and Alek, who actually also 
remained tirelessly attentive to this. As someone whose young 
children often tire at my own testimony in a variety of 
contexts, I really appreciate the support and attention of the 
families.
    I am truly grateful to Senator Flake, who has been really 
accommodating with the time on his schedule, and he has been a 
wonderful partner in getting this done. I am so grateful for 
your ongoing willingness to serve our country in distant parts 
of the world and to continue to work on the very challenging 
issues we face in diplomacy and throughout the world.
    Thank you all very much. We will leave the record of this 
hearing open until tonight so that you might all be on the 
business meeting agenda for tomorrow.
    With that, this hearing is adjourned.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]

                                  [all]

</pre></body></html>
